<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-674, Part 1]
[From the U.S. Government Publishing Office]


                                                S. Hrg. 115-674, Pt. 1

                DEPARTMENT OF DEFENSE AUTHORIZATION FOR
                APPROPRIATIONS FOR FISCAL YEAR 2019 AND
                    THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 1

            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND

                           U.S. CYBER COMMAND

                         U.S. EUROPEAN COMMAND

              U.S. CENTRAL COMMAND AND U.S. AFRICA COMMAND

                          U.S. PACIFIC COMMAND

                         U.S. STRATEGIC COMMAND

         DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE PROGRAMS

                      U.S. TRANSPORTATION COMMAND

                              ARMY POSTURE

                              NAVY POSTURE

                           AIR FORCE POSTURE

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

                               __________

  FEBRUARY 15, 27; MARCH 8, 13, 15, 20, 22; APRIL 10, 12, 19, 24, 26, 
                                  2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


                  Available via http://www.govinfo.gov


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-143 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                      COMMITTEE ON ARMED SERVICES
                      
  JOHN McCAIN, Arizona, Chairman                            
 JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
 ROGER F. WICKER, Mississippi		BILL NELSON, Florida
 DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
 TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
 MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
 JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
 THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
 DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
 DAVID PERDUE, Georgia			TIM KAINE, Virginia
 TED CRUZ, Texas				ANGUS S. KING, JR., Maine
 LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
 BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
 LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                           
              
                  Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director
                                  (ii)


                           C O N T E N T S

   _________________________________________________________________

                           February 15, 2018

                                                                   Page

United States Northern Command and United States Southern
  Command........................................................     1

Robinson, General Lori J., USAF, Commander, United States 
  Northern
  Command and North American Aerospace Defense Command...........     3
Tidd, Admiral Kurt W., USN, Commander, United States Southern
  Command........................................................    26

Questions for the Record.........................................    91

                           February 27, 2018

United States Cyber Command......................................   103

Rogers, Admiral Michael S., USN, Commander, United States Cyber 
  Command;
  Director, National Security Agency; and Chief, Central
  Security Services                                                 106

Questions for the Record.........................................   155

                             March 8, 2018

United States European Command...................................   161

Scaparrotti, General Curtis M., USA, Commander, United States       164
  European Command, and NATO Supreme Allied Commander Europe.

Questions for the Record.........................................   206

APPENDIX A.......................................................   223

                             March 13, 2018

United States Central Command and United States Africa Command...   297

Votel, General Joseph L. USA, Commander, United States Central      301
  Command.
Waldhauser, General Thomas D., USMC, Commander, United States       321
  Africa Command.

Questions for the Record.........................................   367

                             March 15, 2018

United States Pacific Command....................................   375

Harris, Admiral Harry B., Jr., USN, Commander, United States        379
  PacificCommand.

Questions for the Record.........................................   443

                             March 20, 2018

United States Strategic Command..................................   455

Hyten, General John E., USAF, Commander, United States Strategic    457
  Command.

Questions for the Record.........................................   500

                                 (iii)

  
                             March 22, 2018

                                                                   Page

Challenges in the Department of Energy's Atomic Energy Defense      505
  Programs.

Perry, Honorable J. Richard, Secretary of Energy.................   507

Questions for the Record.........................................   546

APPENDIX A.......................................................   550

APPENDIX B.......................................................   555

                             April 10, 2018

United States Transportation Command.............................   567

McDew, General Darren W., USAF, Commander, United States            569
  Transportation Command.

Questions for the Record.........................................   601

                             April 12, 2018

Army Posture.....................................................   609

Esper, Honorable Mark T., Secretary of the Army..................   610
Milley, General Mark A., USA, Chief of Staff of the Army.........   613

Questions for the Record.........................................   658

                             April 19, 2018

Navy Posture.....................................................   671

Spencer, Honorable Richard V. Secretary of the Navy..............   673
Richardson, Admiral John M., USN, Chief of Naval Operations......   679
Neller, General Robert B., USMC, Commandant of the Marine Corps..   683

Questions for the Record.........................................   736

                             April 24, 2018

Air Force Posture................................................   765

Wilson, Honorable Heather A., Secretary of the Air Force.........   767
Goldfein, General David L., Chief of Staff, United States Air       774
  Force.

Questions for the Record.........................................   815

                             April 26, 2018

Department of Defense Budget Posture.............................   837

Mattis, The Honorable James N., Secretary of Defense; Accompanied   840
  by Honorable David L. Norquist, Under Secretary of Defense, 
  Comptroller.
Dunford, General Joseph F., Jr., USMC, Chairman of the Joint        856
  Chiefs of Staff.

Questions for the Record.........................................   906

APPENDIX A.......................................................   927

                                  (iv)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

   UNITED STATES NORTHERN COMMAND AND UNITED STATES SOUTHERN COMMAND

    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. Inhofe 
presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Sasse, Reed, Nelson, McCaskill, Shaheen, Blumenthal, Donnelly, 
Hirono, Kaine, King, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. We will call the meeting to order.
    We are going to receive testimony from two of my favorite 
people. General Lori Robinson--I have to say that I taught her 
everything she knows from when she was the wing commander at 
Tinker Air Force Base in Oklahoma. Kurt Tidd, Commander for the 
U.S. Southern Command [SOUTHCOM].
    I think there is a lot of overlap--we have talked. All 
three of us have talked about this--between the north and the 
south command. I think that is one reason that Senator McCain 
would want to have these meetings together.
    The new National Defense Strategy, the NDS, identifies 
protecting the Homeland, sustaining American advantages in the 
western hemisphere as key priorities even as the DOD 
[Department of Defense] focuses on the rising challenge of 
great power competitors. As we have seen from increasing 
economic and military efforts by China and by Russia to gain a 
foothold in the Americas, the boundaries between great power 
competition and unconventional threats are increasingly 
blurred. I think that is one reason when General Dunford made 
the observation that we are losing our qualitative and 
quantitative edge on China and Russia.
    General Robinson, you are tasked with addressing the 
missile and nuclear threats that we face, and while I am 
encouraged by recent efforts to bolster our Homeland missile 
defense system, more needs to be done to address the ballistic 
and cruise missile threats. I think particularly recently we 
have observed others gaining talents that we were not convinced 
that they already had.
    Admiral Tidd, in SOUTHCOM, you are on the front lines 
combating illicit networks, smuggling drugs, people, weapons, 
and money and destabilize every country along the way. You also 
face involvement in external actors that present unique 
challenges in the theater and lack sufficient resources.
    I think that we have a lot in common, and for that reason, 
we are having these together. We look forward to your 
testimony. I appreciate the time that each one of you spent in 
our office talking about the challenges you guys have.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcome our witnesses: General Robinson and 
Admiral Tidd. Thank you for your extraordinary service to the 
nation. Please convey our thanks to the men and women in your 
commands who, as we all know, do the job every day for us. 
Thank you.
    General Robinson, your mission is to protect the Homeland 
to deter and defeat attacks on the United States and support 
civil authorities in mitigating the effects of attacks and 
natural disasters. We saw this demonstrated in DOD's support to 
the States and territories affected by hurricanes, wildfires, 
and floods in this past year, and we thank you for that.
    You are also dual-hatted as the Commander of the North 
American Aerospace Defense Command, NORAD, which brings unique 
responsibilities and partnering opportunities with Canada to 
deter and defend against threats to our nation.
    You are also responsible for the operation of our Homeland 
ballistic missile defense system. We look forward to hearing 
about your priorities for further improvements to the ground-
based missile defense system. This is particularly important in 
light of the growing threat from North Korea.
    Lastly, your relationship with the military leadership in 
Mexico, along with your collaboration with Admiral Tidd and 
other federal agencies, is crucial to promoting security along 
our southern border. A number of problems at the border 
originate in the SOUTHCOM area of operations and efforts to 
address those problems require a whole-of-government approach.
    Admiral Tidd, you are on the front lines of a significant 
threat facing our nation, the opioid crisis. In 2016, we saw 
64,000 deaths from drug overdoses, an increase from 52,000 in 
2015. What has made the crisis worse is that more and more 
Americans addicted to opioids are turning to other dangerous 
drugs that are flowing into our borders from Central and South 
America and Asia. The flow of heroin and cocaine and other 
drugs like fentanyl into the country is exacerbating this 
crisis. Cocaine production in Colombia is up, as we spoke in 
our office, and is destabilizing the countries of the Northern 
Triangle as it works our way to our border and destroys lives 
here.
    I was very encouraged to hear that SOUTHCOM held an opioid 
conference last week which brought all the government 
stakeholders together to work on this problem. Because it is 
important to recognize, while our military has an important 
role to play in the fight against narcotics in this country, we 
will only win against this threat with adequate resources for 
domestic agencies such as the Food and Drug Administration, the 
Drug Enforcement Administration, and the Department of Health 
and Human Services. Admiral Tidd, I look forward to hearing 
from you about the outcome of the conference and about 
SOUTHCOM's effort to counter the flow of narcotics into the 
United States.
    In addition, China and Russia have been increasingly active 
in Central and South America, committing millions of dollars of 
investment and partnering with Latin American militaries. 
Admiral Tidd, as you noted in your written statement, China has 
pledged $500 billion in trade with Latin American countries and 
$250 billion in Chinese direct investment over the next 10 
years. Increased economic cooperation and the continued 
provision of financing and loans that appear to have no strings 
attached provide ample opportunity for China to expand its 
influence over key regional partners and promote unfair 
business practices and labor practices. I am concerned because 
of the cuts to our State Department and USAID [United States 
Agency for International Development], we are not doing 
everything we can to position ourselves as a partner of choice 
for our neighbors in the region. Admiral Tidd, I would like to 
hear from you on how China and Russia are investing in Central 
and South America and how they pose a national security threat 
to the United States.
    Finally, we are all observing the humanitarian crisis in 
Venezuela. We would like your perspectives on how much longer 
the regime can survive and how the crisis will affect 
neighboring countries. I am especially concerned about 
Colombia, which is already struggling to implement its 
disarmament, demobilization, and reintegration process and is 
ill-equipped to deal with a long-term refugee problem in the 
border region.
    General Robinson, Admiral Tidd, again thank you for your 
service.
    Senator Inhofe. Thank you, Senator Reed.
    We will go ahead and hear opening statements by both of our 
witnesses and try to confine them to 5 minutes, if you can. 
Your entire statement will be made a part of the record. Let us 
start with you, General Robinson.
    General Robinson, I just found out that your husband was 
best friends and a fellow F-16 pilot with my best friend, 
Charles Sublett, in Oklahoma, and I was not aware of this. I do 
not know how that went unnoticed.

STATEMENT OF GENERAL LORI J. ROBINSON, USAF, COMMANDER, UNITED 
 STATES NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    General Robinson. Well, sir, you know, when you bring him 
to the witness table, he has to tell the truth, noting but the 
truth.
    Senator Inhofe. I will share that was Charles.
    General Robinson. Yes, sir, please do. Please do.
    First of all, I would really like to say--we know that he 
is a figure here--to Senator McCain and his family and that I 
know all of our thoughts and prayers are with him. I just 
wanted to extend that. I think that is incredibly important.
    Senator Inhofe, Senator Reed, all the distinguished members 
of the committee, I am honored to join you today. David and I 
are honored to join you today to testify alongside my friend, 
my shipmate, more importantly, my wingman, Kurt Tidd. He and I 
do things arm in arm.
    The year 2017 was a challenging year. NORTHCOM and NORAD 
addressed proactive actions by our adversaries while 
simultaneously providing defense support to civil authorities 
during an historic series of natural disasters that required 
significant military capabilities and military manpower.
    However, I will say that those challenges were definitely 
handled by a team of absolute professionals. I cannot tell you, 
sir, how much I am proud to represent all of them here today.
    In my 21 months as the Commander of NORAD and U.S. Northern 
Command, I have been so impressed by the dedication and 
vigilance shown by the soldiers, sailors, airmen, marines, 
coast guardsmen, civilians, Americans, and Canadians who stand 
ready to defend our nations and our fellow citizens.
    Looking forward, I see no reason to believe that the 
threats to our Homeland will decrease. Our adversaries continue 
to extend their operational reach and are developing new 
capabilities to range targets in North America and in Canada.
    Our preparation for these threats relies on a dependable 
budget. We appreciate all that this committee has done to help 
reach the 2-year budget agreement. In 2018, National Defense 
Strategy recognizes a return to great power competition and 
lays out a long-term strategy for addressing provocative 
behavior by China and Russia.
    In NORAD and U.S. Northern Command, we understand the 
urgency of keeping pace with these evolving threats. We also 
recognize that North Korea represents the most immediate threat 
to our Homeland and therefore remains NORTHCOM's highest 
priority. In the past year, Kim Jong-un has demonstrated 
several successful ICBM [Intercontinental Ballistic Missiles] 
tests. We continue to watch their developments closely and are 
prepared to defend the United States. I want to assure this 
committee today that I am confident that I can defend the 
United States.
    While I am confident that we can defeat this threat today, 
it is critical that we continue to improve the ballistic 
missile defense enterprise with emphasis on the development of 
improved sensor networks, combined with interceptor capability 
and capacity and reliability. We continue to work with the 
Missile Defense Agency, the intelligence community, and other 
combatant commands to ensure our collaborative effort in 
outpacing the threat.
    Russia continues to modernize its long-range bombers and 
its submarines and has developed new cruise missiles with the 
capability to hold targets at risk at ranges that we have not 
seen before. To defend against advanced cruise missiles, it is 
important that we continue to make prudent and savvy 
investments in advanced sensors and defensive weapon systems. 
The strategic advancements in Russian submarine fleets to 
demonstrate their capability to threaten our Homeland for the 
years to come. The threats are the most serious. However, we 
remain vigilant against the adapting threat of terrorism, as 
well as unpredictable natural disasters.
    As we review the 2017 hurricane response and prepare for 
the 2018 season, we are working with our mission partners to 
include the active, guard, reserve forces to incorporate the 
lessons learned to ensure that we provide our best support to 
lead federal agencies.
    With respect to Canada, we are building interoperability 
across domains with a tri-command framework that is comprised 
of NORTHCOM, NORAD, and the Canadian Joint Operations Command. 
This arrangement allows further planning integration while 
preserving our ability to conduct unilateral missions.
    With respect to Mexico, our military-to-military 
relationship with the Mexican secretariats of national defense, 
SEDENA and SEMAR, is unbelievably strong. We focus on 
illuminating the pathways used to transit illicit goods with my 
partner here, Admiral Tidd, with our interagency partners, 
SOUTHCOM and SOCOM [Special Operations Command]. Theater 
security cooperation is an essential part of strengthening 
continental defense and builds relationships essential for 
future cooperation.
    By the way, this year we have the 60th anniversary of 
NORAD. Throughout its long history, this binational command has 
seen several evolutions in the air domain, and we are proud of 
that. The men and women of United States Northern Command and 
NORAD stand united in a common purpose ready to face the 
threats of the United States and Canada today, and we are 
evolving to face the threats of tomorrow.
    I need all of you to know that we have the watch, but I 
also need you to know while, Senators, today you are going to 
ask about me and about our capabilities and the things that we 
need--I want you to know that we could not do it without our 
families. If it was not for our families and our steadfast 
things that keep us grounded, we would not be able to be where 
we are today. I want to say thank you to my husband, who is 
here today representing all the families of United States NORAD 
and Northern Command, because without them, we would not have 
the standard.
    So, Senator, back to you.
    [The prepared statement of General Robinson follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
      
    Senator Inhofe. Thank you, General Robinson.
    Admiral Tidd?

   STATEMENT OF ADMIRAL KURT W. TIDD, USN, COMMANDER, UNITED 
                    STATES SOUTHERN COMMAND

    Admiral Tidd. Senator Inhofe, Ranking Member Reed, and 
members of this committee, thank you for this opportunity to 
address you today. I join my colleague and partner, General 
Robinson, in extending our very best, warmest wishes to Senator 
McCain and to his family, and he is in our thoughts and prayers 
today.
    Also in our thoughts and prayers are the victims and family 
members of yesterday's tragedy in Parkland, Florida. As you 
probably know, some of our Southern Command teammates have 
children who were present during the incident but were, 
fortunately, unharmed. We greatly appreciate the first 
responders, the faculty members, and other students whose 
actions no doubt saved lives.
    Now, as I said, I am here with my good friend and my 
teammate, General Lori Robinson. We are products of the 
intentions of the Goldwater-Nichols legislation that led to an 
emphasis on jointness. This is not the first time that we have 
appeared together. This is not the first time that we have 
worked together. In fact, our partnership goes back over a 
decade. I would just like to say that it is absolutely very 
much appropriate and fitting that we have the opportunity to 
talk to you today about the western hemisphere security 
challenges.
    I look forward to discussing how our two commands work 
together and to ensure that there is an absolutely seamless 
defense of our Homeland.
    Over the past year, SOUTHCOM has focused on building a 
regional security network of principled, inclusive 
partnerships. Partners throughout Latin America and the 
Caribbean are working with each other and with us on a range of 
shared challenges.
    These challenges manifest themselves in our hemisphere in 
several concerning ways. Criminal and extremist networks 
continue to threaten regional stability and our national 
security. We know of specific cases of individuals who were 
involved in plots to attack our Homeland or our partners. 
Fortunately, they were stopped but this remains a significant, 
persistent concern.
    Competitors like China and Russia seek to exploit the 
perception that we are disengaging from the Americas, and as 
they succeed in their efforts comes an increased ability for 
them to interfere with our security relationships and to hold 
our interests at risk. These challenges are less overt and 
sometimes more insidious than in other theaters. They are 
manageable with modest investment, sufficient attention, and 
early engagement. For SOUTHCOM, that involves tools that 
strengthen relationships and build capacity.
    Now, we are not talking about brigade combat teams or 
aircraft carriers in our theater. We are talking about small 
teams of general purpose and special operations forces to 
maintain critical training engagements. We are talking about 
medium endurance ships with embarked helicopters and 
particularly those that are interoperable with our partners and 
with enough awareness to buy down risk against problems early 
and stop threats at their source before they become more 
costly.
    We appreciate the attention of Congress to this region and 
thank this committee for its support to the mission and the men 
and women of SOUTHCOM and to our families.
    I look forward to answering your questions.
    [The prepared statement of Admiral Tidd follows:]
      
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
      
    Senator Inhofe. Okay, Admiral, thank you very much. I 
appreciate it.
    You just said in your opening statement, General Robinson, 
that I can defend the United States today. I know that is true. 
You and I have talked about this. But at what level of risk?
    You know, when General Milley said--this is a quote. Before 
this committee, he said the most important of many challenges 
we face is consistent, sustained, predictable funding over 
time. Now, we corrected that a little bit with our 2018 budget. 
So it is kind of predictable between now until the year 2020, 
but then it becomes unpredictable again.
    I would like to have both of you just very briefly tell us 
at what level of risk are we able to do what we have to do 
today that you can tie directly to the unpredictability of the 
budget.
    General Robinson. So, sir, I will start and then I will 
turn it over to the Admiral.
    To me, predictability is everything. As a consumer of 
readiness, as the one that has to use the things that the 
service chiefs have to organize, train, and equip for, for me 
what is important is to understand what I have got out there 
for capabilities. So I am telling you today I can defend the 
United States of America when it comes to ballistic missile 
defense, given what we have done from a funding perspective but 
as importantly what we did with the ATR and adding capability, 
capacity in Alaska and what we continue to do with 
discriminating radars. So all of those things I am comfortable 
for. But we have to allow the services to be able to plan 
because they are the ones that provide us that readiness.
    Senator Inhofe. Admiral?
    Admiral Tidd. Sir, as you and I have discussed, anything 
that challenges the services' ability to provide the forces 
that we request to be able to effectively secure the southern 
approaches to the United States is a challenge. Budget 
unpredictability has probably been the single greatest impact 
on their ability to provide those forces.
    The challenge that we have, when it comes to awareness of 
what is going on in the environment--we have already discussed 
our ISR [Intelligence Surveillance Reconnaissance] requirement. 
We receive about 8 percent of what we have asked for. I am very 
appreciative of the fact that about half of that has been 
provided as a direct result of creative contract ISR 
capabilities that the Congress has so generously funded. But 
that still is an enormous challenge.
    Senator Inhofe. Yes, not just for you but for all commands. 
We hear that all the time, and that is one that we really need 
to be direct.
    Senator Reed brought up China. I actually read your 
statement. Now, you did not cover it in your abbreviated 
message this morning, but you made a statement in there that 
caught my eye. You said that China in particular is increasing 
aggressive and courting IMET [International and Military 
Education and Training] students from the region to attend 
their military school. I have never heard that before. Now, I 
know in Africa, the IMET program is singularly one of the 
really truly great programs we have. Once we get them in with 
us, they are there for life, and we see evidence of this all 
the time. I was not aware that China is actually trying to move 
into that.
    Could you kind of share that?
    Admiral Tidd. Senator, I have long felt that the IMET 
program is probably our single greatest long-term investment, 
value for the dollar that we put into it. I would just 
highlight that it is an investment that sometimes may take 2 
decades or more to pay off, but when it pays off, it pays off 
with relationships with strategic partners that are absolutely 
critical. It creates the personal contacts that many of the 
military leaders from across the region that I work with on a 
day-to-day basis have participated in the IMET program, have 
studied at our war colleges, gone to our service schools.
    China watches that very closely. They have recognized the 
value of that strategic investment. They basically have taken a 
leaf out of our book and they are very lavishly funding to 
bring senior military officers from a variety of key countries 
around our region to China for very lavishly expensed, all-
expense-paid trips for them, for their families to be able to 
live a very high lifestyle in the countries.
    There is still a recognition from our partners that the 
greatest value comes from studying in the United States. We 
believe our country sells itself, and when people come here, 
they get to know who we are, who our country really is, the 
values that we truly represent. We think that is a very, very 
important----
    Senator Inhofe. Yes. We have always said once we get them 
over here, we have got them forever. That has been my 
experience particularly in Africa because they are there. It is 
very disturbing to me to hear that statement or observation 
that you made that they are actually going after the same 
individuals that we have already had. This is disturbing. It 
has given us something new to address, and I appreciate that 
very much.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me concur. IMET is absolutely critical. In a way I have 
personal connections. Two of my classmates from West Point 
later went on to become chief of service in the Philippines and 
in Thailand. They have been staunch defenders of their 
countries but also our relationship. I think the President of 
Costa Rica was a West Point graduate, at least one of them.
    That program is funded by the State Department. Correct?
    Admiral Tidd. Yes, Senator, that is correct.
    Senator Reed. It is another example of, particularly in 
both of your commands, where whole-of-government--without 
funding State, there is no IMET. When we see some of these 
proposed cuts to State, it will play out in fewer opportunities 
for students to go to American war colleges, American military 
academies, et cetera. Is that accurate?
    Admiral Tidd. Senator, I would agree completely.
    Senator Reed. In fact, again both of you represent in 
critical ways the need for not just the Department of Defense 
but Department of State, Homeland Security--Coast Guard cutters 
are part of your intercept plan for narcotics. In fact, what 
percentage of the destination of cargos that you knew were en 
route can you intercept?
    Admiral Tidd. Senator, the challenge that we face right now 
is about 25 percent of vessels that we know that are 
transporting illicit materials--we can intercept about 25 
percent.
    Senator Reed. So a quarter. If we could invest more in the 
Coast Guard, presumably we could intercept more than 25 percent 
of the ships.
    Admiral Tidd. Senator, I believe security in our theater is 
a team sport. It requires the efforts of many departments and 
agencies.
    Senator Reed. Again, I think both you and General Robinson 
illustrate so dramatically how we have to get adequate funding 
for every significant national security component whether they 
are in the Defense Department or outside the Defense 
Department.
    General Robinson, when you say you can defend the nation 
against missile attack, you are referring to a limited missile 
attack by a country such as North Korea. Correct?
    General Robinson. Yes, sir.
    Senator Reed. You are not making a generalized statement.
    General Robinson. No, sir.
    Senator Reed. Thank you. I just want to make that clear for 
the record.
    General Robinson. I will defer all that to General Hyten.
    Senator Reed. In that issue you raised in your testimony, 
there is the constant tension between capacity and capability.
    General Robinson. Yes.
    Senator Reed. We are investing lots of dollars in increased 
capacity. That is going to take a while, 5, 6, 7, or 8 years to 
get some of these new fields up. But at the immediate moment, 
we have real issues of capability whether we can effectively 
take down through sensors, through shot doctrine, through the 
kill vehicle anything coming at us. Particularly, 
unfortunately, the offense in this game seems to have an 
advantage if they can deploy decoys or multiple-stage rockets.
    Can you comment now about this issue of where we should be 
focusing and how we should do it?
    General Robinson. Yes. Sir, I have to tell you I am 
completely comfortable with where we are. The fact that in the 
above threshold reprogramming that we added capacity and then 
the redesigned kill vehicles--and I think it is 2022 when we 
will have those. At the same time, we are looking at 
discriminating radar. So in 2019, we are going to add the long-
range discriminating radars to Alaska. We are going to add 
radars to Hawaii, and we are going to do a study on what we 
need as we look at Cobra Dane coming down. Thank you to the 
committee for funding Cobra Dane until we figure all this out. 
I am very comfortable where we are.
    I think as we look at the discrimination of radars, we look 
at the capacity of the fields in Alaska, I think we are in a 
really good place because when we sit back and look at what Kim 
Jong-un has done, he is looking at capability. You and I talked 
about this. He has not built up capacity yet. Right now, our 
capacity is very good where we are and as we continue to move 
forward.
    Senator Reed. Are you satisfied with the schedule, the 
frequency, and the rigor of the testing of the system, the 
actual testing?
    General Robinson. I am very comfortable. You know, one of 
the things that I say about Kim Jong-un all the time is that he 
is not afraid to fail in public. You learn as much from failure 
as you do from success. I am very comfortable where we are with 
our testing and where we are going in the future. I rely very 
much on General Reaves and where MDA [Missile Defense Agency] 
is going, and he and I talk all the time.
    Senator Reed. Thank you very much.
    General Robinson. Yes, sir.
    Senator Reed. Again, thank you both for your service.
    General Robinson. Yes, sir.
    Senator Inhofe. Senator Wicker?
    Senator Wicker. Admiral Tidd, thank you. Thank you both for 
your testimony and your service.
    Admiral, our strategy now is great power competition first 
and foremost. Senator Inhofe asked you to drill down on China. 
So let me ask you to turn to Russia, which you discuss 
extensively in your written testimony. You mentioned Cuba, 
Nicaragua, and Venezuela. Is that principally where they are 
playing? What are they trying to do there and where else do we 
need to be concerned?
    Admiral Tidd. Senator, those are the countries in which 
previously the Soviet Union had a longstanding relationship and 
Russia has continued that relationship. However, they continue 
to engage in a direct competition for influence with some of 
our key partners around the region.
    Our challenge is to be able to disprove the false narrative 
that Russia peddles in the region, that the United States is 
withdrawing, that we are not a reliable partner. Many of the 
actions that we engage in are directly intended to show our 
partners, who are very much interested in working with us, that 
we in fact share common interests. We certainly share common 
democratic values and principles, which neither Russia nor 
China share.
    Senator Wicker. You are not a diplomat. You are a military 
person. But if the President's new openness to the Trans-
Pacific Partnership advances, would that be helpful to us in 
making the point that we can be a reliable partner?
    Admiral Tidd. Senator, I do not profess to be either a 
diplomat or an economist, but I would just observe that the 
things that we do to show our partners directly--and we have 
Pacific-facing nations within the SOUTHCOM region--anything 
that we can do to show that we are reliable partners is 
valuable.
    Senator Wicker. To what extent are we comfortable with the 
militaries of these countries subscribing to the position that 
we advocate and that we are the great standard of the military 
being answerable to the civilian leadership? To what extent are 
the members of their legislative bodies significant players in 
this regard?
    Admiral Tidd. Senator, I think each of the countries 
differs slightly. My relationships are with the military 
leaders of the countries. My observations and my conversations 
genuinely reflect that they recognize and are grounded in the 
same democratic principles that really are characteristic, that 
were the founding characteristics of the Americas community. I 
think as we have seen, as a number of elections that have 
occurred throughout the region that led to changes in 
government positions, the militaries in each instance have 
played a very reasoned, responsible role, and they recognize 
that the ability to freely and fairly express democratic 
preferences as enshrined in the background of this theater have 
been respected. The one country I think that I would highlight, 
though, that has been singularly contrary to that has been 
Venezuela where recent elections have been neither free nor 
fair.
    Senator Wicker. Very good.
    Let me ask you quickly to shift to the ships, the role of 
the Coast Guard there. Clearly for you, it is going to continue 
being almost totally Coast Guard. If you could take a moment to 
say how you plan to integrate unmanned systems into your 
platform.
    Admiral Tidd. Senator, I have said before on a number of 
occasions in the USSOUTHCOM region, my maritime force has white 
hulls and orange stripes. Frankly, if it were not for the 
United States Coast Guard and the significant effort by the 
Commandant, we would not have a maritime presence. That is not 
because my parent service, the United States Navy, does not 
recognize the very significant importance of the region. It is 
just a matter of strategic priorities and availability of 
forces, and we run out of forces before we run out of mission.
    The Coast Guard cutters that have been participating are 
irreplaceable. The national security cutters, terrific when we 
get them. But the real workhorse, the cop on the beat vessels, 
are those medium endurance cutters, many of which are past 30 
years in age. Some were built in the 1960s, and so the 
recapitalization of those medium endurance cutters with the 
offshore patrol cutters I view as extremely important to 
USSOUTHCOM's ability to provide an adequate maritime presence 
in our region.
    Senator Wicker. Unmanned?
    Admiral Tidd. Unmanned vessels? Unmanned aerial vehicles. 
There are some challenges procedurally to incorporate them in 
the missions that we are engaged in, but we are actively 
exploring efforts to be able to do that.
    Senator Wicker. Thank you.
    Senator Inhofe. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    To our two witnesses, thank you for your service to our 
country. Thank you for being here today.
    General Robinson, I am certainly pleased to hear that you 
have great confidence in our missile defense capabilities. I 
would also like to have you expand a little bit on how we can 
continue to strengthen those capabilities. We currently have, 
obviously, the site in California, as well as in Alaska. There 
is talk about having an east coast site that would provide 
additional capabilities, particularly given the potential 
threat from Iran at some point in the future. If you could talk 
a little bit about what the advantages would be to add a 
ground-based interceptor capacity at another location in 
addition to the two we have.
    General Robinson. Sir, thanks for that.
    I tell everybody that I watch North Korea with an eyeball 
and a half to North Korea and then a half an eyeball to Iran. 
As I continue to watch them work on their space launch 
vehicles, I know that they can maybe quickly transfer that to 
an intercontinental ballistic missile defense capability. Right 
now, they are very regional, and they are staying within the 
JCPOA [Joint Comprehensive Plan of Action].
    As I work very closely with Missile Defense Agency 
understanding what we can do from Alaska and California, I 
ensure that I have the battlespace that I need to defend from 
the east coast. I pay attention to that each and every day, and 
as the Missile Defense Agency is working their way through what 
does it look like for an east coast site, I ensure that my 
words and the battlespace that I need are there to defend the 
United States.
    Senator Peters. Thank you, General.
    General Robinson. Yes, sir.
    Senator Peters. Admiral Tidd, you mentioned in some of your 
earlier testimony the situation in Venezuela and one that you 
are concerned about. Could you elaborate a little bit as to how 
concerned you are with what we are seeing in Venezuela?
    Admiral Tidd. Senator, I think the fact that it is a matter 
of very significant concern to the nations that neighbor 
Venezuela is probably the most important piece to point out. As 
we have seen, the impact on Venezuelans who are fleeing the 
absolutely abominable economic conditions in the country puts a 
severe burden on the school systems, medical systems, the 
social support infrastructures particularly of Colombia where 
over 500,000 Venezuelans have now entered Colombia. It is 
putting an increasingly growing strain on Brazil where we have 
seen tens of thousands that have come across. It also places a 
significant burden on Guyana, on countries like Curacao and 
Aruba, as well as Trinidad and Tobago. It is having a very 
significant impact on those countries, and those countries 
recognize that they are going to have to be able to deal with 
this humanitarian crisis.
    Senator Peters. It is certainly very destabilizing to many 
of our allies and friends in that area.
    I would like you to comment, if you would, on the 
involvement of Cuba in Venezuela. Things that I have read--
there are commentators who believe that there are hundreds to 
perhaps thousands of Cuban troops in Venezuela. Some have said 
this is a play right out of the old Castro playbook. What is 
your assessment of Cuban influence in Venezuela, and how is 
that contributing to the instability that we are seeing?
    Admiral Tidd. Senator, I think we have read some of the 
same documents, both open source and other. When I talk with, 
again, my counterparts in the region, they have been quick to 
share that we see significant presence of Cuban advisors to the 
security forces that continue to prop up the Maduro regime. I 
just think it is a matter of concern.
    Senator Peters. Well, thank you. I appreciate your 
testimony.
    Senator Inhofe. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General Robinson and Admiral Tidd, first of all, let me 
just say thank you very much for your service to our country.
    Admiral Tidd, I would like to go back a little bit to what 
Senator Wicker was discussing with you. Basically in recent 
years, China, Russia, and Iran have all increased their 
activities in the western hemisphere from economic investments 
to military sales and engagement. Which of these competitors 
concerns you the most in your areas of responsibility? What are 
doing to maintain and expand our position as a partner of 
choice to Latin American and Caribbean nations? I understand 
the desire--and as you said earlier, you recognize that you 
will do what is necessary. I am wondering if you can give us 
some specific areas that you either intend to move forward with 
or that you would need additional assistance with.
    Admiral Tidd. Well, Senator, without parsing, I think as 
the new National Defense Strategy has clearly articulated, 
Russia and China are significant concerns. They are global 
concerns and so they are of concern because they are very 
present and aggressive in the USSOUTHCOM theater.
    Iran also is present. Particularly worrisome is their proxy 
Hezbollah, which is an area that we have been watching for 
many, many years and is an item of concern.
    When it comes specifically to Russia and China, the very 
best thing that we can do is to be the best possible partners 
that we can with countries who are absolutely interested, 
committed, want to work with us. Sometimes there are just 
things that make it difficult for us to be the best partner 
that we can. Sometimes it is adequate forces for us to be able 
to engage with them and so to be able to conduct meaningful 
exercises with them, but also sometimes our ability to be able 
to work with them and facilitate the kinds of information 
sharing that is critical to having an effective common defense 
for the challenges that we face.
    Senator Rounds. Let me work my way through it a little bit 
because I am really curious about such things as foreign 
military sales or foreign military financing for those military 
sales, international military education and training, the 
impact and so forth. Can you talk a little bit about those 
specific ones with regard to our ability to not only provide 
them with resources but also the training as well? Where are we 
at right now with those same partners? Is that working or is it 
not working? Do we have the resources allocated there that we 
need?
    Admiral Tidd. Well, Senator, I do not know a theater 
commander who says he has got as many resources as he or she 
would like to have, but I would say that particularly with 
regard to the programs that you mentioned, FMS [Foreign 
Military Sales] and the IMET program, it is a small pie to 
begin with. The SOUTHCOM allocation of that pie is smaller 
still based on global priorities. Our challenge is to make that 
small slice of the pie go as far as it possibly can.
    Now, sometimes programs that we offer--it is expensive for 
our partners to be able to come and live in the United States 
and bring their families with them and spend the time here. So 
that is where we really try to maximize both the number who are 
able to come and I guess the quality and the quantity, if you 
will, and finding that balance point can be a real challenge.
    I think as far as particularly the IMET program, if there 
was one program that I would say is a long-term strategic 
investment--and like financial investments, sometimes they take 
a while to pay off, but when they pay off, they are absolutely 
priceless.
    Senator Rounds. Okay, thank you.
    General Robinson, our 114th fighter wing in Sioux Falls has 
been flying alert missions out of the March Air Base in 
California since 2012. We have four jets constantly deployed 
there and crews on a 24-hour flying alert basis that really are 
part of that critical defense team for our nation. NORAD 
recently requested 72 upgraded ASR [Airport Surveillance Radar] 
radars through a joint urgent operational needs request, and 
they have been funded to include for the aircraft of the 114th. 
The problem is that there are over 300 Air National Guard F-
16's, and we are only going to modify 72 of them with this 
radar.
    Our worry is that we will put real heavy wear and tear on 
those specific modified aircraft, and that we will only modify 
a handful of the aircraft, thus really wearing out that 
particular group.
    The cost to upgrade these jets is approximately $2.1 
million per jet, and compared to the additional capability 
gained, it is probably a pretty good buy.
    Can you talk a little bit about your perspectives on 
whether or not we should upgrade the remaining F-16's in the 
Air National Guard alert squadron so that we are not focusing 
just on those 72 with that capability?
    General Robinson. Yes, sir. I am working very closely with 
the Air Force on this. First of all, I am grateful to be able 
to modify those jets because that just happened recently. So 
that I think is a really good deal. But I continue to work with 
the Air Force on what does it look like as we not just modify 
airplanes but what does the transition to F-35's look like. I 
will look closely and ensure that not only do we not rely 
heavily on just those, but what does the long-term transition 
plan look like.
    Senator Rounds. Very good. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for your service and for your testimony 
today.
    General Robinson, I especially appreciate your comments 
about the support that everyone in the military receives and at 
NORAD from your families. I know that sentiment is shared by 
everyone on this committee. Thank you both.
    Admiral Tidd, I want to go back to Senator Reed's question 
I think about the 25 percent. Did you characterize that as 25 
percent of the missions that you could do, you are able to do, 
and because of the lack of resources, not able to do more than 
that?
    Admiral Tidd. Senator, I think the way that we describe it 
and to clarify is we have pretty good situational awareness on 
an awful lot of the trafficking that is occurring, and that is 
based on a very close partnership with a variety of countries 
in the region, most notably with Colombia. Of the known tracks 
that we are aware of--and we think we have got a pretty good 
handle--we are only able to intercept about 25 percent, about 
one-quarter.
    Senator Shaheen. Well, I am sure you are both aware of the 
challenges that we face with the opioid and heroin and drug 
epidemic in this country. It has hit New Hampshire particularly 
hard. Can you estimate, if you had the resources, that you 
could use to do all of the missions that you would like for all 
of the interdiction efforts that you are aware of, what 
difference would that make in terms of the amount of drugs you 
are able to interdict?
    Admiral Tidd. Senator, you raise an excellent question. The 
challenge that we have particularly with regard to opioids--
that is the reason we hosted the conference last week was 
because we recognize that what we knew and the procedures that 
we had in place did not seem to be having the kind of impact. 
It is because the supply chain of that particular illicit 
substance does not travel in the same way that the supply chain 
for, if you roll the clock back, marijuana originally and then 
cocaine where we have well-understood and identified source 
zones, transit zones, arrival zones and we are able to lay 
across those various pathways a variety of primarily law 
enforcement but also intelligence community and military 
resources to have an impact on them. The opioid problem is a 
fundamentally different problem. We understand it is different.
    I would say the value of last week's conference was 
bringing together many, many, many of the agencies that touch 
that problem at least on the interdiction side and recognize we 
have got to do business differently. I am not prepared to tell 
you that we have an answer to it yet, but we recognize the 
scope of the problem, the seriousness of the problem, and the 
work that remains to be done and our commitment to work 
together to put in place a more effective mechanism than what 
we are doing today.
    Senator Shaheen. Thank you.
    General Robinson, are you seeing similar on the northern 
border with Canada--are you seeing similar traces of drug 
runners coming across?
    General Robinson. No, ma'am, not like what Admiral Tidd 
would talk about.
    The one thing I would like to also add and give Admiral 
Tidd a lot of credit for is last month we had a meeting with he 
and I and Admiral Duran from Colombia and Admiral Soberon from 
Mexico to talk about as we watch things go from the land-based 
transit to the ocean-based transit, those two folks talking to 
each other about how do we decide how we are going to combat 
this together. So under his leadership, we had Colombia present 
a plan. We had Mexico present a plan. We had the U.S. present a 
plan. Now the three of us are going to sit down and go what is 
the best way we can do this from an open ocean perspective to 
try to get after that. This is not a single dimension 
conversation. This is a multi-dimension conversation, and it is 
a multi-combatant command conversation, which to me is what is 
really important is the fact that he and I stand side by side 
doing this.
    Senator Shaheen. Well, thank you. I think it is very 
important, as you all know. I hope that we can provide 
additional resources to make sure that you are successful.
    I want to pick up on another issue that Senator Reed raised 
with respect to funding for the State Department. You both 
talked about the importance of working across DOD and State in 
terms of what you are trying to accomplish. We have seen a 
proposed budget that would cut the Department of State by 30 
percent. Can you quantify what that would mean in terms of your 
operations and your efforts to work with State if they saw that 
kind of a cut?
    General Robinson. I do not know if I can give you a number 
that would mean anything, but here is what I do know. Every 
single day we talk about anything, Secretary Mattis diplomacy 
leads. The fact of the matter that he says diplomacy leads, 
then I know my role and responsibility is to support diplomacy. 
I cannot say is that 10, 20, 25 percent, but I can tell you 
that I know that I follow diplomacy.
    Admiral Tidd. I would just add again--I cannot put a 
number--but so many of the programs that are critical to 
building effective partners across the region--actually they 
come out of the State budget. We implement them, but we could 
not do it if they are underfunded.
    Senator Shaheen. Well, thank you both. I think that is a 
very strong statement in terms of funding as we think about 
increasing funding for the military and Department of Defense. 
I know we are all on board for that, but we should also be on 
board for funding for the State Department and our diplomatic 
efforts.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you both for being here today.
    General Robinson, your opening statement discusses the 
increasing capabilities of Russian cruise missiles to hold 
targets in the Homeland at risk, and specifically you state, 
``These systems present an increasing threat to North America 
due to their long range, low radar cross section, and the 
limited indications and warnings likely to be seen prior to a 
combat launch.'' Can you elaborate and characterize this threat 
in further detail, and how much does it concern you?
    General Robinson. So, ma'am, here is what I would say. I 
tell everybody we should often look at the map from the North 
Pole down. I know Senator Sullivan does every single day. We 
should look at the fact that Russia looks different if you look 
at it that way.
    Then every single day I would tell you I get an operations 
and intelligence briefing that talks to me about where bombers 
are, where submarines are, and what they are doing and what 
their activity is. I pay attention to that every single day.
    When I sit back and I look at that, I look at their 
capability, what they are capable of. I look at their capacity 
as they continue to train both their bomber pilots and their 
submarine pilots. But I look at intent. In the air domain, as 
the Commander of NORAD, I know from an intent perspective their 
intentions--I do not see that. But that does not mean from a 
strategic, long-term perspective, as we talked about in the 
National Defense Strategy what Russia is out there doing.
    But I have to tell you. I have to tell you. So one of the 
things that we are doing is a northern approaches' surveillance 
analysis of alternatives with Canada to understand what is 
coming across the northern approaches, both Canada and Alaska, 
because I look across the entire part as the Commander of 
NORAD. What I have said to everybody is I want to be able to 
detect, ID, track, and engage if necessary at ranges to defend 
our Homeland. Those are the things I think about when I think 
about Russia.
    Senator Fischer. Your final comments there about being able 
to detect early and then engage, if necessary--do you think we 
have enough of that capability right now? I know that in fiscal 
year 2017, the Air Force began upgrading the radars on the 72 
National Guard F-16 fighters. Is that going to be sufficient 
because is that not really our last line of defense at that 
point?
    General Robinson. Yes. So, ma'am, what I would say is that 
is part of our Homeland defense phase one. In phase two, it 
allows us to use our fighters and tactics, techniques, and 
procedures to move out further than we were able to before. So 
we appreciate the committee's support on that. But this is now 
the longer-range part, if I look at the northern approaches, 
specifically to be able to do that.
    Senator Fischer. I happen to believe that our missile 
defense system provides really an immense capability, and the 
expansion of that system is going to help us to continue to 
defend the Homeland as this threat increases.
    Yet, over the weekend, General, we saw ``The New York 
Times'' editorial board publish a column titled ``The Dangerous 
Illusion of Missile Defense.'' In it they described our 
Homeland defense system as riddled with flaws and repeated what 
I consider an old, tired claim that tests were not conducted 
under realistic conditions.
    To be clear, do you have confidence in the ability of the 
GMD system to defend the United States from a North Korean 
ballistic missile attack today?
    General Robinson. Ma'am, I am 100 percent confident in my 
ability to defend the United States of America.
    Senator Fischer. Do you believe the actions taken by 
Congress and this administration to expand the system's 
capacity and improve discrimination will enhance NORTHCOM's 
ability to defend the Homeland from ballistic missile attack in 
the future?
    General Robinson. So, ma'am, I would tell you I appreciate 
the above-threshold reprogramming for the capacity that we 
gave, and I think that is helpful as we look at adding on to 
that the redesigned kill vehicle, in addition to continued 
work, which we need to do, with the discriminating radars. 
Between all of those three things, I think we continue to 
outpace everybody, and it gives me more and more confidence, 
continued confidence of our ability to defend the United 
States.
    Senator Fischer. Thank you, General, for presenting 
valuable information and very clear answers. Thank you.
    Senator Inhofe. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank both the witnesses. Thank you for meeting 
this week as well.
    I want to talk to you about what we talked about in my 
office, which is the opioid crisis. Last week, the Centers for 
Disease Control reported overdose deaths in Indiana increased 
by 28 percent from July 2015 to July 2016. Over 1,700 Hoosiers 
died from opioid overdoses. Only six States had larger 
percentage increases. But this is a national epidemic. It is 
getting worse, not better. Your commands are on the very front 
lines of this battle.
    How would you prioritize the opioid crisis in your command 
priorities right now? General Robinson and then Admiral Tidd.
    General Robinson. Sir, I take this opioid crisis as a 
personal issue. When you sit back and you talked about it and 
it is about families and it is about people, it is incredibly 
important.
    I sit down every month and I talk to the Secretary of DHS 
[Department of Homeland Security]. I work very closely with my 
subordinate commanders who work very closely with Mexico on all 
of this.
    This crisis is not something that I set aside. It is 
something that I take very personally. What is important to me 
is that I understand the support role that I can give to DHS 
and the support role and information that I can give Mexico 
which then translates to the things that I can give to Admiral 
Tidd because the UCP [Unified Command Plan] line on the map 
does not exist for Admiral Tidd and I, and so it is a very 
personal thing.
    Senator Donnelly. Admiral Tidd?
    Admiral Tidd. Senator, I share General Robinson--this is a 
crisis that has come to touch us all personally. The challenge 
that we face is that how do you handle it. How do you deal with 
it?
    What became clear at our conference last week was the 
United States Department of Defense cannot solve this problem 
on its own. The Department of Homeland Security cannot solve 
this problem on its own. Health and Human Services cannot solve 
it on its own. It will only be through all of us working 
together in a collaborative manner. That is why our approach at 
USSOUTHCOM is to apply a threat network-based approach. That is 
our number one priority is threat networks.
    Senator Donnelly. I apologize because I have limited time.
    These drugs are coming across from Mexico not through 
unguarded areas or anything but through checkpoints in the back 
of trucks. We are in a position of seeing the very checkpoints 
we have in our country allowing trucks in, many of these trucks 
loaded with drugs.
    There are two questions. Number one is detection systems. 
In regards to fentanyl, tracker dogs die because of the effects 
of fentanyl on their mucus systems and other things. Where are 
we in finding new detection systems so we can determine whether 
these are in the trucks? Are we in a position where we simply 
need to say, look, your refrigerator is not coming in today. It 
is coming in in a month and a half because we are checking 
every box in every truck because it is more important that a 
young person in Logansport, Indiana be able to stay alive as 
opposed to having your refrigerator come in on time. First is 
detection systems, and second, should we just simply change the 
way we do business at the border and check every single box 
that comes in?
    General Robinson. So, sir, I will tell you in the support 
role that we do for DHS, we have the opportunity to provide 
them some biometric detection capability. We have the 
opportunity to provide marine sensor platoons at the border--
capability.
    As you know and as you and I talked about yesterday, it is 
very much in a support role and the things that we can do from 
a technology capability. Last year in front of this committee, 
as you and I chatted about yesterday, Senator McCain asked us 
to talk about what are some of the technologies. We will come 
talk to you about some of the things that we are doing to 
provide and to support DHS.
    Senator Donnelly. Admiral?
    Admiral Tidd. Sir, all I can say is there is no single 
silver bullet that is going to solve this problem. This is 
going to take the very best efforts across the entire national 
security team to be able to work together effectively.
    Senator Donnelly. Is there a discussion about changing the 
way we handle crossings at the border because that is where it 
is coming through? Not that you know of.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Perdue?
    Senator Perdue. Thank you both for being here. I have got a 
question about the NDS [National Defense Strategy]. Three quick 
questions before I get to the two on the NDS.
    Admiral, to finish up on what Senator Shaheen was talking 
about--and before I do that, I would be remiss as a Member of 
the Senate not to apologize to both of you combatant commanders 
on behalf of the United States Senate. Today we are officially 
sitting in a continuing resolution again. You have my personal 
commitment and resolve that before I leave the United States 
Senate, we are going to do everything we can to get away from 
this budget process that puts us in this detrimental, high-risk 
situation. We are doing more to harm the security of our 
country than any of these people we are talking about today 
outside.
    Sorry. Admiral, real quick. General Kelly talked about this 
too, but you have talked about--there is an asset that you 
could use in your AOR [Area of Responsibility] to actually 
interdict more. We do not know what percentage we can get to. I 
understand that. But you could close that gap without spending 
a lot of money. Is that true?
    Admiral Tidd. I think there are some platforms out there 
that would be enormously helpful to us. Yes, sir.
    Senator Perdue. What would one of those look like?
    Admiral Tidd. I think a littoral combat ship would fit 
perfectly into the mission space that we are----
    Senator Perdue. Rotary wing capability as well?
    Admiral Tidd. Absolutely. It is a package. It is a vessel 
that is capable of operating in the eastern Pacific with rotary 
wing, with interceptor boats as a package, coupled with 
maritime patrol aircraft.
    Senator Perdue. In Latin America, Russia today is supplying 
40 percent of the arms sales. China is the second largest 
trading partner in Latin America. Iran is in there through 
Hezbollah.
    The question I have is the NDS is pivoting toward near-peer 
competitors. Heretofore, our mission in the last 15 to 17 years 
was mainly about terrorism. You were underfunded in SOUTHCOM 
because we were pushing resources out to the battle. Today the 
battle looks like it is getting closer and closer to home. Are 
you being resourced in order to support the NDS, and is the NDS 
focusing enough on greater power threats, peer power threats in 
our own hemisphere?
    Admiral Tidd. Not yet. The NDS recognizes these challenging 
nations, and I think that we must move beyond applying 
resources to the home zip code of where those specific 
countries are and apply the resources to be able to deal with 
them wherever they are found across the globe.
    Senator Perdue. General, thank you for being here again and 
thank you for being on the wall.
    The Arctic. China just last month issued a statement. 
Russia has been actively building resources in the Arctic. We 
see sorties or whatever in the Arctic region increasing at an 
exponential rate. Admiral, maybe I am going to ask you. I am 
sure you can too. I do not know how many icebreakers we 
technically have. We do not have very many. I think China or 
Russia has a multiple.
    Can you talk about the threats in the Arctic? Are they 
increasing? What is Russia's and China's strategy? You told us 
last year about your strategic estimate. Can you give us an 
update on that strategic estimate in the Arctic?
    General Robinson. Absolutely, sir. I did a strategic 
estimate. Out of that strategic estimate, I have directed by 
two-star planner to provide a mission analysis. As I have said 
to people, we have had our toes in the sand. It is time to put 
our feet in the snow, and it is time to understand more and 
more what is going on up there.
    So out of that mission analysis, we are going to do a 
couple of exercises. We did a Vigilant Shield last fall. We are 
going to do an Arctic Edge. We will be able to understand 
certain tasks out of that. But at the same time, we know that 
we need to look at the infrastructure, the communications, and 
the domain awareness to understand what is happening.
    Senator Perdue. Both of you very quickly. I have limited 
time.
    Our strength against these near-peer competitors is our 
network of allies. I know Secretary of State Tillerson has 
talked about that actively. Secretary Mattis has talked about 
that actively. In your AORs, what are we doing with our allies 
to help leverage our military expenses and capabilities? 
Admiral, do you want to address that quickly?
    Admiral Tidd. We are working together to help train them. 
We are building their capabilities in the areas that they are 
most interested in, and we are showing by our actions that we 
trust them.
    General Robinson. If I can tell you, earlier this year 
Secretary Mattis held a North America defense ministerial with 
Canada, the United States, and Mexico to talk about how do the 
three of us work together to show that we have the longest 
borders in the world and that we are a shining beacon of trust 
and cooperation.
    Senator Perdue. Thank you both.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here today.
    General Robinson, I know you have said that you are 
confident in our Homeland defense. I was glad to see that the 
most recent test of our Homeland missile defense system in May 
of 2017 was successful. It brings our record to 9 out of 18, 
which is 50 percent. I know that testing is important. Whether 
tests succeed or fail, we gather a great deal of information 
and it helps us.
    As the missile threat from North Korea increases and we 
invest additional interceptors to meet the threat, it seems to 
me that it is more important than ever that we accurately 
assess the reliability of this system. Physical tests are 
expensive and they cost hundreds of millions of dollars each.
    Predictive modeling is one cost effective way to increase 
our data. But in his 2017 annual report, General Behler, the 
Director of Operational Test and Evaluation, criticized--and I 
am going to quote him--the lack of independent accreditation of 
modeling and simulation for performance assessment of our 
ballistic missile defense system. He recommended that Missile 
Defense Agency prioritize investments in modeling and 
simulation.
    General Robinson, as NORTHCOM Commander, you are the 
primary customer for our Homeland missile defense system. Do 
you agree with General Behler's recommendation? Would increased 
modeling and simulation improve your confidence in ground-based 
missile defense system?
    General Robinson. Ma'am, it is good to see you again.
    Senator Warren. Good to see you.
    General Robinson. Thank you for that.
    I would tell you two things. Modeling and simulation is as 
good as what you put in is what you get out. Right? I think it 
is very important that we do modeling and simulation, but I 
also think that the importance that Missile Defense Agency does 
with its live testing helps answer into all of that. When you 
take both the live part and you can input that into the 
modeling and simulation, that helps you with overall 
understanding.
    I want to say to you again I am confident today in our 
ability to defend the United States. I think it is important, 
not just the live testing but the modeling and simulation, and 
put all of that together to make us understand where we are 
going.
    Senator Warren. Thank you, General.
    You know, we have spent over $40 billion on the Homeland 
missile defense system. I do not think it is asking too much to 
expect it to work 100 percent of the time, and if that is not 
possible, to rethink our overall approach.
    DOT&E [Director of Test and Evaluation] has been making the 
same recommendation that we invest in modeling since 2010. That 
is 8 years ago. I think it is time to take that recommendation 
seriously, not a substitute but as a both/and.
    If I can, let me ask you one other question, and that is, 
General Robinson, your responsibilities include coordinating 
defense support to civil authorities in the event of a natural 
disaster. In 2017, Hurricanes Harvey, Irma, and Maria----
    General Robinson. Nate and Ophelia.
    Senator Warren. That is right. Strained our federal 
response nearly to the breaking point.
    I recently visited Puerto Rico, along with the 
Massachusetts congressional delegation, and we were able to see 
the damage firsthand. One sector that was particularly hard hit 
was health care. We previously talked about your decision to 
send the hospital ship Comfort for about seven weeks. I visited 
a hospital and a community health center that were still 
struggling without clean water, without reliable power months 
after the storm and more than a month after the Comfort had 
departed. Now, even though they have not recovered from last 
year's storms, they are all starting to prepare for the next 
round of hurricane season.
    I am about out of time, but General Robinson, can you very 
briefly list, say, your top three lessons learned from Maria 
and whether there is more that DOD can do to support the health 
care sector specifically?
    General Robinson. So, ma'am, I would tell you we just 
finished--very quickly--an internal NORTHCOM lessons learned 
conference. We are going to go out to OSD [Office of the 
Secretary of Defense]. The conversation that we had is, is 
there a difference between Texas, Florida, and Puerto Rico? So 
you have got state, state, and island. So what can we learn out 
of that, and can we think about that differently? So I would 
tell you that would probably be the first thing that I would 
say back to you.
    Once we finish through inside the Department, I would be 
happy to have me and my staff come talk to you about the things 
that we learned and interagency, quite frankly, because as you 
know better than I do, we are very much in a support role to 
FEMA [Federal Emergency Management Agency] and the Governor. We 
would be happy to come talk to you.
    Senator Warren. Good. I appreciate that, and I appreciate 
that you responded to my letter with a lot of detailed 
information about the Comfort and its use in Puerto Rico.
    Mr. Chairman, with your permission, I would like to submit 
the letter from the General for the record.
    Senator Inhofe. Without objection.
    [The information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
    Senator Warren. All right.
    Just to say, Puerto Rico has still not recovered.
    General Robinson. Yes, ma'am.
    Senator Warren. Health care has been a particularly hard 
hit area. DOD can move resources often much faster than anyone 
else, and I think we need to think much harder about the role 
that DOD plays in future hurricanes because we know they are 
coming.
    General Robinson. Yes, ma'am.
    Senator Warren. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Cotton?
    Senator Cotton. Thank you, General Robinson, Admiral Tidd, 
for your appearance and continued service.
    Admiral Tidd, the President announced at the State of the 
Union Address that we would once again be moving detainees, 
where appropriate, to Guantanamo Bay. That falls under your 
authority. Can you tell us a little bit more about that plan 
and what you have in store for the facilities there?
    Admiral Tidd. As has been the case, our responsibility is 
to ensure the safe, secure, legal detention of law of war 
detainees. I am highly confident that we have been doing that 
and we will continue to do that. You know, we have 41 detainees 
who are there right now. We are prepared to receive more should 
they be directed to us. As of today, we have not been given a 
warning order that new detainees might be heading in our 
direction, but our responsibility will be to integrate them 
effectively into that mission.
    Senator Cotton. What about the facilities there and your 
personnel rotation plans?
    Admiral Tidd. Thanks to the generosity, obviously, of 
Congress and spearheaded by this committee, we appreciate the 
support for barracks that are capable of withstanding the 
environmental conditions of the Caribbean region especially 
during storm season. We look forward, once the money is in 
hand, to be able to start construction on those barracks. I can 
anticipate, although I do not have a plan for you today--there 
were a variety of buildings that were temporary in nature when 
they were put up that have deteriorated beyond their useful 
life. We will be taking a hard look and prioritizing those 
buildings that will need to be replaced with facilities capable 
of withstanding the environmental conditions in Guantanamo Bay.
    Senator Cotton. Thank you.
    Let us turn our attention to the south. You have already 
spoken with a couple Senators about the situation in Venezuela, 
which is rapidly deteriorating under the brutal Maduro 
dictatorship. Can you talk to me about the implication it has 
for Colombian security and especially the impact it could have 
in the Colombian elections coming up?
    Admiral Tidd. Yes, Senator, thanks.
    Because of the significant number of Venezuelans, over 
500,000 and continuing to rise, Venezuelans who have come 
across the border into Colombia overwhelming their social 
support infrastructure, Colombia has, I think, a grave concern.
    They are also beginning to see--and this is based on 
conversations with my Colombian partners. They are very 
concerned that there are a large number of Venezuelans who are 
being pushed across the border, that are being encouraged to 
vote in elections. They have dual citizenship as Colombia and 
Venezuela. There is some concern that that may skew the 
elections that will be very critical taking place this spring 
and summer in Colombia.
    It is a matter of a security concern to Colombia, but those 
security concerns I think are largely shared by Brazil. Numbers 
are not as great yet, but it is beginning to overwhelm the 
states that are directly across the border from Venezuela, and 
we are seeing it affecting other countries across the region. 
The humanitarian disaster is in progress, and our partners are 
very concerned about it.
    Senator Cotton. Thank you, Admiral Tidd.
    General Robinson, I want to ask you about a story that was 
in the news recently, the use by service members of smart 
exercise devices, for instance, Fitbits or smart watches, 
particularly overseas. But you, obviously, underneath your 
authorities have a lot of sensitive sites here in the United 
States. Could you tell us what steps, if any, NORTHCOM has 
started to take to address this security risk?
    General Robinson. Sir, Senator, thanks for that.
    I would tell you as I watch and I work through the service 
chiefs and to see what they are doing, while I worry about 
force protection in all of the installations, I work it through 
the service chiefs. So I am paying attention to the steps that 
they are taking to make sure I understand to ensure that I can 
implement anything that they need me to do.
    Senator Cotton. You feel comfortable at this point with 
what the services are pursuing?
    General Robinson. Yes, sir.
    Senator Cotton. Okay.
    Thank you both for your testimony and for your service.
    Senator Inhofe. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Admiral Tidd, since we have been talking here this morning, 
four people in this country have died of overdoses just in the 
last hour. As many people have died in the last month as were 
killed on September 11th, including one a day in my State of 
Maine.
    I cannot believe we are having the same conversation today 
that I remember having with General Kelly 2 or 3 years ago and 
getting this figure of 8 percent of ISR resources and 25 
percent of known drug shipments interdicted, 75 percent get 
through.
    I think you have identified the problem. If we give you a 
mission, you will deal with it. The problem is nobody has this 
mission. I hope you will go back and talk to this interagency 
group and talk to the White House. It is inexcusable to be 
sitting here 3 or 4 years later and still only being able to 
interdict 25 percent of the drug shipments that we know about, 
and we would know about more if we had adequate ISR. This is 
simply a question of allocation of resources. This is the most 
serious public health problem this country faces. Four people 
have died in the last hour, and you are giving me the same 
figures that General Kelly gave 3 or 4 years ago.
    Can you commit to me that you will move this to the highest 
level of priority and kick some behinds and take some names in 
this interagency cooperation? Please do not come back here 
again next year with the same testimony.
    Admiral Tidd. Senator, I can commit to you that not only 
will I but I have continued to communicate the challenge that 
we face. I will observe the services--the biggest challenge 
they have to being able to provide additional resources, which 
they recognize very clearly are required, are challenged by the 
inability to have budget predictability to be able to produce 
more forces to make them available. This is a team sport. This 
is a team effort. We have to work together as constructively 
and collaboratively as possible.
    My commitment to you is that I will do everything within my 
power to do my part.
    Senator King. Hopefully we have just passed a 2-year budget 
authorization. Hopefully again we will have the final numbers 
within the next two or three weeks, and then we will be able to 
move forward. But please make this the highest priority. I am 
not attacking you. I am attacking the failure of our structure 
to adequately get at a problem when we have it right in front 
of us. It would be one thing if we did not know, but when we 
have it right in front of us.
    General Robinson, let us move north. First question. We all 
know that there is a Russian buildup along the northern border 
along the Arctic Ocean. What is their purpose? What can you 
discern? What is their strategic reason for doing this? Is it 
defensive, offensive? Are they looking to get closer to be able 
to attack us, or are they simply protecting their shore?
    General Robinson. Sir, I would say I think what you just 
said at the last is great, protecting their shore. You know, as 
you and I chatted about the other day, the opportunity for them 
to move their infrastructure around to their different bases is 
incredibly important, just like I do. You know, I move 
capability from Anchorage to Eielson, from Eielson to Inuvik, 
from Inuvik to Tuele. We move things around. But it is to make 
sure that they can put things in the places they want to at the 
time and place of their choosing.
    Senator King. I think you made an important point earlier 
that there are two elements of national strategy. One is 
capability. The other is intent.
    General Robinson. Yes, sir.
    Senator King. The problem is right now they may have a 
benign intent or a lack of malicious intent. I would put it 
that way. But they are building up the capability which 
requires that we have to be alert. Are there assets you need in 
the north that you do not have, for example, an icebreaker?
    General Robinson. Sir, I will defer to my colleagues in the 
Coast Guard for the icebreakers. But what I will tell you is 
that I very much get ISR [intelligence, surveillance and 
reconnaissance] capability in Global Hawk and other things that 
I share with EUCOM [United States European Command] and PACOM 
[United States Pacific Command] to understand what is happening 
in the region. But I will tell you I am very good at advocating 
for needing other capabilities such as, as an example, if you 
want, icebreakers. I talk with my Coast Guard brothers often 
about this because I think about it in the summer when Crystal 
Serenity goes through.
    Senator King. We are going to see more of that.
    General Robinson. Yes, sir.
    Senator King. A final short question. If you had to choose, 
if you could only have one priority in order to improve our 
missile defense system, what would it be?
    General Robinson. I want to thank the Congress for the 
capacity that we just got, but we have got to keep our eye on 
discriminating radars.
    Senator King. That is what I thought you would answer, and 
I think that has got to be a very high priority.
    General Robinson. Yes, sir.
    Senator King. Thank you. Thank you both.
    Senator Inhofe. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    General Robinson, Admiral Tidd, thank you very much. 
Sergeant Major, nice to have you here as well. Thank you very 
much for joining us.
    General Robinson, yesterday we had the opportunity to talk 
about the counter-weapons of mass destruction activities that 
we have going on here in the Homeland. SOCOM now has the 
responsibility for countering weapons of mass destruction, but 
it is something, once it approaches the Homeland, we need to 
figure out how to respond to that. You have a great role in 
that, as well as number of other combatant commands, 
departments, and agencies.
    One thing I want to point out is we tend to focus a lot 
about North Korea and the threat that their nuclear program 
might have on the United States. We have to remember there are 
other things involved with weapons of mass destruction: 
chemical, biological, and radiological agents as well. We know 
that North Korea does have the potential to develop some of 
those other threatening means to the United States.
    Can you talk a little bit about how NORTHCOM works with all 
of these other COCOMs [combatant command], various federal 
agencies, how are we protecting the Homeland not just from the 
nuclear threat but some of the other threats as well?
    General Robinson. Yes, ma'am. Thanks.
    First of all, I think one of the things that I really enjoy 
is my opportunity and privilege to work with DHS, FEMA, and all 
the other intelligence agencies here in the Homeland. I have 
Joint Task Force Civil Support in Virginia, an amazing guard 
unit, that works very focused on the chemical and biological 
reaction. But I have other task forces in the guard that help 
respond. One of them is yours.
    For me, that whole relationship with the governors and with 
the TAGs [The Adjutant General] to bring the forces to bear 
when we need them to be there, independent of the niche 
capability that JTF [Joint Task Force] Civil Support provides 
to me from Virginia, but in addition to forces that other guard 
units provide are amazing. It is understanding what is going to 
happen here. You heard me talk about earlier about our exercise 
Ardent Sentry, and you heard me talk about understanding what 
the nuclear capability can do. So it is understanding now the 
forces that we would need to support and defend governors and 
States.
    Senator Ernst. Thank you.
    We mentioned yesterday too those civil support teams and 
others that work behind the scene. They truly are those quiet 
professionals.
    General Robinson. Yes, ma'am. They are the quiet 
professionals. Yes, ma'am.
    Senator Ernst. Thank you very much for that.
    Admiral Tidd, thank you also for sitting down with me and 
going through a number of really concerning issues. You have 
heard a lot of impassioned speeches from our Senators today. I 
think we are all very concerned about the illicit trade that 
goes on and terrorism throughout the region. We know that there 
is the trade of drugs, tobacco, weapons illicit and sometimes, 
in cases, human trafficking. Sometimes they are generating 
revenue for terrorist organizations like Hezbollah.
    Can you explain how you are trying to tighten down on that 
nexus? Can you specifically address our wonderful partners 
throughout the region, some of the countries that have helped 
step up and combat some of these problems?
    Admiral Tidd. Senator, thanks for your question.
    I think the way that we have reoriented the way that we do 
business in our main effort, being countering threat networks, 
is specifically intended to maximize the tools that we within 
the Department of Defense bring to bear into this interagency 
and international partnership to be able to counter these 
threat networks regardless of what commodity that they are 
moving.
    Partners like Colombia have been absolutely irreplaceable, 
their willingness to work with us, to share information with 
us, to be partners not just within Colombia but also working 
side by side with Central American neighbors to help them build 
their capacity to be able to deal with, track down, apply 
pressure on, and disrupt these threat networks.
    I would highlight the terrific work that has been going on 
that General Robinson and all of her work with the armed forces 
of Mexico, SEDENA and SEMAR. Mexico is now exerting I think a 
significant interest in helping to improve security in Central 
America. We work together in partnership, NORTHCOM and SOUTHCOM 
together, to facilitate that particular type of activity.
    Many other partners throughout the region. We have got 
capable partners. I would highlight a few, and just working 
around the continent, Brazil. Argentina has now come on strong 
and played a critical role. Chile has for many years been one 
of the premier security partners in the region. Peru is now a 
very significant partner. Again, I come to Colombia as probably 
our single most significant strategic partner in the region.
    Senator Ernst. Thank you very much. I think it is important 
that we realize we do have solid partners in the region. It is 
not all on our shoulders. We cannot do it without them.
    Admiral Tidd. Far from it.
    Senator Ernst. I appreciate your service. Thank you very 
much for being here today.
    Admiral Tidd. Thank you, Senator.
    Senator Inhofe. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you both for serving and thank you for being here 
today.
    I am not going to plow ground that has already been gone 
over as it relates to opioids. I just want to echo that the 
threat of black market fentanyl to the safety and security of 
Americans probably tops just about anything else we are facing 
right now. I do think it is an all hands on deck moment for 
every part of our national security apparatus.
    I wanted to specifically ask about CBRN [chemical, 
biological, radiological and nuclear], and for people that 
might be watching this that are not yet used--or maybe never 
want to get used to all the acronyms, obviously that is 
chemical, biological, radiological, and nuclear schools that we 
have in the military.
    As we look at North Korea and what they are doing, clearly 
there is an issue about readiness as it relates to the training 
that we need to have in terms of dirty bombs and biological 
weapons and obviously the potential that there could possibly 
be a nuclear threat to our country.
    What I wanted to ask, General Robinson, do you not think it 
might be wise if we started using our military schools, on a 
space available basis, our CBRN training programs, to start to 
begin to put some civilian first responders into that training 
that could really be a force multiplier? Because if we are 
actually in an armed conflict with North Korea, we are really 
going to be stretched because there are still going to be 
trouble spots throughout the world. It just seems to me if we 
have got space available and we have got the infrastructure, 
that it would be a really good idea that we would begin opening 
those doors more widely to police departments and fire 
departments and other first responders in our country to get 
this really important response training to that kind of attack 
from our enemy.
    General Robinson. Ma'am, when I first took over command at 
NORTHCOM and NORAD, I think it was about a week I was there and 
we had this exercise that was called Ardent Sentry. It was 
about I-5 corridor, earthquake, you know, all those things 
happening. When I walked into the room, there were 200 people, 
300 people in this room. I looked at one of my predecessors, 
General Jacoby, and I go who are all these people. What I 
discovered in this exercise was the fact that it was local, 
state, and TAGs and folks from emergency managers from all the 
States that would be involved in that.
    Last year, we had the same exercise, and it had to do with 
a 10-kiloton nuclear event in New York City. So the same thing. 
We had local, state, emergency responders, and all of that.
    When Secretary Kelly took over, he said, Lori, I want to 
talk about let us think about how we are going to do this 
should something happen with North Korea, and then just 
recently Secretary Nielsen.
    Ma'am, we are all doing this together saying what does it 
look like, how do we go forward with this to understand that.
    Senator McCaskill. Well, I would like to consider, with the 
chairman's, hopefully, support and bipartisan support, 
something in the NDAA [National Defense Authorization Act] that 
would open up training slots in our military CBRN schools to 
first responders just on a space-available basis.
    General Robinson. Ma'am, I would be happy to work with the 
committee.
    Senator McCaskill. That would be I think terrific. I know 
we have a great one at Fort Leonard Wood. But there are times 
that the infrastructure that is there is not being fully 
utilized. It just seems to me this would be a hand in glove fit 
for the threats that we face.
    General Robinson. You know, come talk to me. I will have my 
staff talk to yours, and I would be happy to work with the 
committee.
    Senator McCaskill. Thank you very much, General.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses.
    General Robinson, sometimes at these hearings I ask 
questions to get information, sometimes to make a point, and 
sometimes to educate the public about something that I think I 
already know but I think the public should know. My question is 
going to be in that category, trying to educate the public 
about something important.
    Within the last month, about a month or so ago, we had two 
news reports on successive days that caused some real alarm 
among citizens in Hawaii. There was an emergency alert sent out 
suggesting that there was an incoming missile attack. It took 
38 minutes for that improper emergency alert to be, I guess, 
retrieved. Then a couple of days later, the Japanese news 
agency NHK put out a warning about an incoming missile attack 
from North Korea that I think was corrected within a few 
minutes. But in each event, these things caused a whole lot of 
public concern.
    I was in a classified hearing recently where I had a chance 
to ask--and I think this is actually non-classified material, 
and I hope you can get there. I was able to ask the question of 
our military leadership, when these false warnings went out, 
did our military immediately realize--how quickly did the 
military realize that these were not attacks? I think that is 
the kind of thing that gives comfort to people that there might 
be a false warning but our military understands it pretty 
quickly, which reduces the risk then of an accidental 
provocation, accidental military action.
    From your perspective as NORTHCOM Commander with NORAD 
under your jurisdiction, can you talk a little bit about those 
two incidents and how quickly we were able to confirm that 
these in fact were not missile attacks?
    General Robinson. Sir, in this unclassified hearing, I can 
tell you very comfortably and confidently we were quickly to 
confirm that nothing had happened.
    Senator Kaine. That is, I think, an important thing for the 
public to know.
    General Robinson. But I do want to just say at the first 
indications of a missile launch, NORAD and NORTHCOM command 
centers will initiate a conference call to process the event 
and make an attack assessment. FEMA ops center and their 
alternate ops center is a part of that call. I would like to 
add that into the record.
    Senator Kaine. Right. There are a lot of folks who are 
reaching the same conclusion.
    General Robinson. Yes, sir.
    Senator Kaine. That is comforting, I think, for people to 
know.
    Let me ask you, Admiral Tidd. You talked a little bit in 
response to Senator Perdue's question about the training that 
we do with SOUTHCOM partners. It is the case that nations in 
your area are purchasing more from Russia. There is activity by 
Russia, by Iran, by China. But talk a little bit more about the 
training side because I have had a chance to see some of the 
training in action, and I am very, very impressed with the kind 
of training we do, the degree to which these nations want us to 
be their partner, the relationships you build. Somebody you are 
training might be the defense minister in 10 years or the 
president in 20 years. But talk about some of the nations and 
the training exercises currently underway between the U.S. and 
nations in your command.
    Admiral Tidd. Senator, there is no doubt in my mind that 
the countries that we work with unanimously prefer working with 
the United States because we work together as equal partners, 
because we work together defending the same interests, the same 
values, the same piece of the hemisphere together. So we try to 
find ways to make it as easy as we possibly can.
    We could not do that without the enormous support of, for 
instance, our state partner program, National Guard units that 
are active in virtually every country throughout our region. 
They provide that long-term contact, personal relationships 
many times with these countries that is valuable and that helps 
build their capability and capacity.
    I mentioned previously the enormous importance of our very, 
very small but capable special operations forces that come down 
and work with partner nations. They are highly respected both 
for their professional ability but also for their ability to 
work together and to understand how to meet the needs of 
particular countries. I have told General Tony Thomas he is 
oftentimes my most important force provider, and special 
operations forces over and over again are my major maneuver 
force. Small, small numbers but critically important throughout 
this region.
    Also other reserve forces, the regionally aligned force 
that the Army provides, could not do a lot of the training that 
we do in Central America.
    Last but absolutely not least, our special purpose marine 
air-ground task force that 6 months out of the year during the 
hurricane season, come down, work with partner nations, build 
their capacity, build their resilience to deal with disaster 
response, and then when the need arises, if a disaster occurs--
and for the last 2-years, they have been directly employed in 
disaster response operations throughout our theater.
    Senator Kaine. I have had the opportunity to witness some 
of these. In Honduras, deployment of mobile medical clinics to 
remote areas which have a humanitarian purpose but also help 
train our own folks to do deployment of medical clinics in 
combat, if we need to. I have watched training in Colombia 
where I have watched not only training on military tactics but 
respect for the rule of law and proper respect for human rights 
during the time when the war was going on against the FARC. I 
have seen the value of these trainings. I also know sometimes 
it is these kind of training exercises that get really squeezed 
in budget pressures. That is one of my hopes with the budget 
that we have recently announced that you will have the 
opportunity to continue to build those relationships, which I 
think put us in a much stronger position.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    General Robinson, I have been to Puerto Rico twice, and I 
have been impressed by the complete inadequacy of the federal 
response to fellow Americans there. As we speak, I think a 
third of the island's population lacks electricity. The economy 
is struggling. In fact, it is on the brink of bankruptcy if not 
there. The Army Corps of Engineers and FEMA have worked hard. 
People on the ground are devoting themselves valiantly, but my 
sense is that there is a lack of resources from the Federal 
Government.
    I recognize that NORTHCOM is in a support mission there. I 
wonder--and I know Senator Warren has asked about it, and you 
have said you are conducting a review--whether you have any 
preliminary insights or observations for this committee about 
what could or should have been done differently.
    General Robinson. Sir, one of the things I talk about all 
the time is every hurricane has its own characteristics. One of 
the characteristics of this hurricane season was there were 
five hurricanes. People forget about Nate, and we forget that 
Ophelia was out there. But the fact of the matter is Puerto 
Rico is an island, and that is different than Texas and that is 
different than Florida. That is different than other things 
that we have seen.
    One of the things that we are going to go back and look 
at--and we did an internal review inside of my command, we are 
going to do inside of the Department--so how do we think about 
that differently. Do we have force structures set up 
appropriately? Do we the have things that we need? Because at 
the end of the day, sir, as you know, we support the governor 
and we support FEMA, and we provide niche unique capabilities 
that at that place, as an example, that the guard might not 
have, and ensure that we have it positioned at the right place 
at the right time to be there when it is necessary.
    Senator Blumenthal. Do you think that FEMA and other 
federal agencies made full use of the resources that you could 
offer?
    General Robinson. Sir, I would say it this way. Secretary 
Mattis told me I could have whatever I needed whenever I needed 
it. Whenever it was asked for, I had a----
    Senator Blumenthal. But my question is did they make 
sufficient use of----
    General Robinson. Sir, we have not had the ability to have 
an interagency top-down conversation about that. I think that 
is a different conversation. I think what is important is the 
fact that Secretary Mattis said I could have what I needed when 
I needed it.
    Senator Blumenthal. He said to this committee that he would 
make available whatever was necessary when it was needed.
    General Robinson. Yes, sir.
    Senator Blumenthal. I have no doubt about the availability 
and your readiness and your willingness. I am asking about 
resources that were unused because they were unasked for.
    General Robinson. Since we have not had a lessons learned 
across the interagency, I would not want to answer that 
conversation.
    Senator Blumenthal. Admiral Tidd, my understanding is that 
Hezbollah is very active in a number of South American 
countries, particularly in money laundering, drug trading. Is 
that your observation as well?
    Admiral Tidd. Yes, Senator, it is.
    Senator Blumenthal. What actions are being taken against 
Hezbollah?
    Admiral Tidd. Senator, we have been watching Hezbollah for 
a number of decades now because, as you well recognize, they 
have been in this hemisphere for a while engaged largely in 
criminal activities supporting their terrorist activities 
abroad. They are the A team that has been mentioned from time 
to time. We are watching what they are doing, working with our 
partners and with the intelligence community within our country 
teams and increasingly with partner nations to be aware of what 
they are doing and to not be surprised.
    Senator Blumenthal. Should there be more action as opposed 
to watching? Have we reached the point where the United States 
needs to be more actively engaged in light of its interests in 
the Middle East?
    Admiral Tidd. Senator, these actions are taking place in 
sovereign nations that have their laws that they are applying. 
We are making sure they have got the best information available 
to them to apply their laws.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. This may fall into the category of Senator 
Kaine's educating the public, but I would only say that we have 
had a lot of varying experiences with Puerto Rico. I can 
remember one that was not pleasant, and that was when I 
personally lost the battle of Vieques. They had the only area 
where we had the joint training capability, and searching 
worldwide, we were not able to replace that. We did not get the 
cooperation that we should have gotten, and it had some adverse 
effects.
    Following up a little bit on Senator Cotton's comments 
about Gitmo, Admiral, what I would like to do--I was very 
critical of President Obama when he was trying to close Gitmo. 
One of his alternatives--what are you going to do with all 
these guys you pick up--was to put them into incarceration 
within the United States. One such place happened that was 
suggested by that administration was Fort Sill in Oklahoma. 
Obviously, you cannot put--these are not prisoners. These are 
not criminals. These are enemy combatants. You cannot put them 
in and intermingle them with the prison population. Their job 
is to teach other people to be terrorists. I am really 
concerned, as we follow through with this.
    I was happy when the President, in his State of the Union 
message, talked about expanding, keeping open that great 
resource that we have there. I am very anxious for that to 
happen.
    So what I would like to have you do, Admiral, is kind of 
monitor that, let us know why we are not using it more already 
because I know that there have been some placements that took 
place. If you could do that for me, I would appreciate that 
very much and follow through with that.
    Admiral Tidd. I will, Senator.
    [The information referred to follows:]

    Admiral Tidd. As of today, we have 41 detainees at the detention 
facility at Guantanamo Bay. We have not yet received any additional 
detainees, but we are prepared to receive them if the decision is made 
to send them. Questions of where to place law of war detainees, 
however, are ultimately policy decisions.

    Senator Inhofe. I had one last comment to make. Why do you 
not go ahead, Senator Reed?
    Senator Reed. No, sir.
    Senator Inhofe. This would go to the gentleman sitting 
behind General Robinson. We share a best friend whose name is 
Sublett. Sublett actually had a lot of missions in Vietnam, I 
think about 300 of them. When he got out--they changed the 
570th--and you are aware of this--from the F-16 mission to a 
refueling mission. When that happened, he took retirement from 
the reserves. I was his speaker at the retirement. He wanted to 
keep flying. I am still a flight instructor. So what I had to 
do, I say to you, David, was I took the awesome responsibility. 
You know, anyone can fly fast. I had to teach Charles Sublett 
how to fly slow. I had to say something you were not aware of, 
and that is it.
    Any further comments?
    Senator Reed. I cannot top that, Mr. Chairman.
    Senator Inhofe. All right.
    Anything more?
    [No response.]
    Senator Inhofe. Well, we are adjourned and we appreciate 
very much your willingness and your straightforward answers to 
the questions. You both did a great job. Thanks so much.
    [Whereupon, at 11:15 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Dan Sullivan
                  great rivalry with russia and china
    1. Senator Sullivan. General Robinson, the new National Defense 
Strategy declares the DOD's highest priorities are the strategic 
competition with Russia and China. I am particularly concerned about 
this competition playing out in the critically strategic Arctic region. 
The Russian are flying off our coastlines, including near Alaska. The 
Chinese are operating naval vessels in the Bering Sea.
    What specific capabilities have you advocated for in the Arctic 
region to help us counter this growing threat? Are any of them 
currently fielded?
    General Robinson. Through the USNORTHCOM Arctic Capabilities 
Advocacy Working Group, we have identified four key enablers to ensure 
security, safety, and defense cooperation in the Arctic region: 
communication, domain awareness, infrastructure, and presence. We 
coordinate closely with the other combatant commands the military 
Services, defense agencies, and the Canadian Department of National 
Defense to advocate for Arctic capabilities in light of evolving 
defense requirements.
    To improve communication and domain awareness, we successfully 
advocated for funding of the Enhanced Polar System and the Mobile User 
Objective System to enable high latitude voice and data transmission. 
USNORTHCOM is also participating in OSD's Wideband Communications 
Services Analysis of Alternatives which began in fiscal year 2017 and 
will participate in OSD's Narrowband Analysis of Alternatives, which 
will be funded by the U.S. Navy in fiscal year 2019, to explore options 
for enhanced Arctic communications capabilities.
    NORAD and USNORTHCOM advocacy led to fiscal year 2017 funding of 
the Northern Approaches Surveillance Analysis of Alternatives to 
identify options to improve persistent, wide-area air surveillance of 
the northern approaches to the continent. As part of an ongoing effort, 
USNORTHCOM received Coalition Warfare Program funds to advance fielding 
of the Next Generation Over-the-Horizon Radar, and we continue to 
advocate for increased national and theater intelligence, surveillance, 
and reconnaissance capacity and capability.
    Regarding infrastructure and presence, we were successful in 
advocating for exercise-related funding to build a barracks in Alaska 
to support joint exercises and training. We have also requested that 
the U.S. Army provide funding for the Joint, All-weather, All-Terrain 
Vehicles program. While not a Department of Defense program, we 
strongly advocated for the U.S. Coast Guard's ice-breaking mission, 
requirements, and ongoing assessment of ice-breaker requirements and 
the development of those platforms, as well as the Coast Guard's 
recently announced plans to build new icebreakers.

    2. Senator Sullivan. General Robinson, in your testimony you talk 
about ``scalable infrastructure in the Arctic.'' What exactly does that 
look like?
    General Robinson. Scalable infrastructure refers to capability we 
can temporarily deploy to a specific location to accomplish a specific 
mission, such as deploying the Arctic Sustainment Package to support a 
search and rescue incident.

    3. Senator Sullivan. General Robinson, we clearly are falling 
behind in the Arctic--to both the Russians and seemingly the Chinese 
now--what more can this committee do to help us catch up?
    General Robinson. While we presently assess that the likelihood of 
military conflict in the Arctic remains low, safeguarding North America 
is inherently linked to the Commands' ability to operate in the Arctic 
environment across each of our assigned missions. There is always the 
potential that changes in Russian intent and increased Chinese activity 
in the Arctic that could result in miscalculation and instability in 
the region. Presently, we have sufficient military capability to 
accomplish my assigned missions. I will continue to keep the Committee 
informed of emerging threats and challenges in the region, as well as 
associated requirements to address those threats.
                              arctic port
    4. Senator Sullivan. General Robinson, as the USNORTHCOM Commander, 
you are assigned the role as ``Advocate for Arctic Capabilities.'' Have 
you advocated for a Strategic Arctic Port, something supported by this 
committee?
    General Robinson. Based on current assessments, we have not 
advocated for a Strategic Arctic Port to date. However, we continually 
monitor activity and the strategic environment in the Arctic region to 
ensure we retain the capability and capacity to address any potential 
threat and protect our national interests. Should conditions evolve in 
a manner that merits reconsideration of the need for a new strategic 
Arctic port, I will make that requirement known to the Department of 
Defense and to the Congressional defense committees.
                        russia--flight activity
    5. Senator Sullivan. General Robinson, in light of Russia's 
attempts to intrude on our nation's coastlines, how do you explain the 
decline in Russian air activity since the record levels observed during 
the 2014 Ukraine crisis?
    General Robinson. Russia relies primarily on its Long Range 
Aviation TU-95 BEAR H heavy bombers to conduct flights near North 
America. Russia suffered a series of BEAR H accidents in 2015, which 
led the Russian Aerospace Command to ground the fleet for an extended 
period. Moscow also started its refitting and modernization of the 
entire heavy bomber fleet at about the same time, not only to address 
the immediate safety of flight issues but also to increase the BEAR H 
fleet's capabilities for 21st Century operations. While this refit and 
modernization program is ongoing, Russia appears to be limiting most of 
its heavy bomber activity to shorter-range flights.

    6. Senator Sullivan. General Robinson, would you expect Russian air 
activity to increase again in the future?
    General Robinson. Russia placed extra emphasis on modernizing and 
professionalizing its military after invading Crimea in 2014. This 
included Long Range Aviation forces. Russia will have the capability to 
increase its Long Range Aviation fleet's operational tempo once 
modernized bombers become operational and pilots gain proficiency on 
the modernized aircraft. I expect Moscow will increase their air 
activity when such action aligns with their strategic intent.

    7. Senator Sullivan. General Robinson, in your opinion, are there 
any strategic elements that may enhance NORAD's air capabilities to 
include our Canadian allies given the amount of 5th Generation Combat-
Coded Fighters currently in Alaska?
    General Robinson. NORAD has several strategic strengths and 
capabilities that enhance our ability to defend North America. Our most 
significant strategic strength is the six-decade bi-national 
partnership with Canada that synchronizes capabilities between United 
States and Canadian forces and continues projecting strength against 
Russia or any threat to North America.
    Alaska-based 5th generation fighters serve as NORAD's front-line 
conventional deterrent against Russia. These aircraft also provide 
unique operational capabilities against emerging threats, and they 
ensure the United States and Canada can defend against potential 
threats against North America.

    8. Senator Sullivan. General Robinson, following up from question 
6, what more could Canada do?
    General Robinson. Canada has been a stalwart partner for the past 
60 years and continues to stand shoulder to shoulder with the United 
States against threats to North America. As Russia moves to modernize 
some of its weapons systems, some of their capabilities are beginning 
to become more difficult to mitigate with some of NORAD's older 
equipment.
    Canada is actively participating in efforts to improve the North 
Warning System and is also moving to recapitalize and modernize its 
fighter fleet. These improvements will enhance the Royal Canadian Air 
Force's capability to detect, track, and engage low-observable targets 
such as advanced cruise missiles being fielded by Russia.
              big strategic--north korea vs. china/russia
    9. Senator Sullivan. General Robinson, given the focus on ``great 
power rivalry'' in the NDS--and the need to defend the Homeland against 
these increasingly complex and diverse threats in vastly different 
domains--how we balance the likely need to either enhance our 
deterrence posture on the Peninsula against more conventional threats/
post-Cold War threats with the need to rapidly innovate new systems, 
technology, and TTPs to deal with TWO great power rivals?
    General Robinson. Emerging ``great power'' rivals to the United 
States are capable of attacks against North America in multiple 
domains, from multiple approaches, and at increasingly greater ranges. 
Beyond our current deterrence posture on the Peninsula to counter 
intercontinental ballistic missiles, USNORTHCOM is working to identify 
and recommend materiel and non-materiel solutions to outpace threats. 
This comprehensive effort analyzes each current and emerging threat 
through the lens of the following domains: air, maritime, cyberspace, 
aerospace, space, and land. Each domain is analyzed across the 
categories of policy, plans, command and control, organization, and 
materiel to determine capability gaps and develop recommended 
solutions.

    10. Senator Sullivan. General Robinson, how do we go ``all in on 
Korea without getting sucked into Korea?'' as Gen. McDew said?
    General Robinson. USNORTHCOM conducts our Homeland defense mission 
on a daily basis informed by and adjusted to the threats posed to the 
Homeland. By ensuring a dependable ballistic missile defense 
capability, we provide our senior leaders with decision space for 
diplomatic and military options. We also continue to work closely with 
the Joint Staff and USPACOM to ensure that adequate forces are retained 
in Alaska and the Continental United States to defend the Homeland.
         north korea--strategy, objectives, and good for china?
    11. Senator Sullivan. General Robinson, what should be the United 
States overall strategy to mitigate the threat to our Homeland posed by 
North Korea?
    General Robinson. I believe the current whole-of-government effort 
to maintain pressure on North Korea is the best approach. The United 
States Department of State is in the lead and continues to work with 
the international community through diplomatic channels, while from a 
military standpoint, I believe we can continue to mitigate the threat 
to the Homeland by maintaining a robust defense-in-depth in close 
coordination with our allies. We work closely with USPACOM and other 
mission partners to maintain constant situational awareness and 
mitigate risks to the Homeland.

    12. Senator Sullivan. General Robinson, beyond security for the 
regime, what are North Korea's strategic objectives in attaining long-
range nuclear weapons?
    General Robinson. I share the United States intelligence 
community's view that North Korea's strategic objective in attaining 
long-range nuclear weapons is to gain coercive influence over South 
Korea, Japan, and the United States, thus benefitting North Korean 
sovereignty and interests on the Korean Peninsula. I believe Kim Jong-
un seeks a strategic capability that will ensure North Korea's 
territorial integrity and regional interests are recognized and 
acknowledged by the international community.

    13. Senator Sullivan. General Robinson, is a long-range nuclear 
capability on the Korean Peninsula at all in China's strategic 
interest?
    General Robinson. China's declared policy of a de-nuclearized 
Korean Peninsula matches ours, and I do not believe a North Korea in 
possession of long-range nuclear capability is in China's overarching 
strategic interest.

    14. Senator Sullivan. General Robinson, is there any strategy for 
North Korea that you can think of that does NOT involve a more robust 
missile defense for both the United States and our allies?
    General Robinson. As the Commander responsible for active defense 
of the United States, my focus is on missile defense. I am confident we 
can defend the United States against the current North Korea missile 
threat, but we must complete necessary improvements with a sense of 
urgency to remain in a position of relative advantage. I defer to my 
partner Combatant Commanders for their regional views on left-of-launch 
offensive capabilities, however, I appreciate the ongoing efforts 
throughout the Department to improve both our offensive and defensive 
capabilities to defeat adversary missiles.
                       ballistic missile defense
    15. Senator Sullivan. General Robinson, given recent increases in 
Ballistic Missile Defense in the NDAA and the upcoming release of the 
Ballistic Missile Defense Review (BMDR) and/or Missile Defeat Review 
(MDR), what do you see as the next short term steps to solidify the 
United States against Ballistic Missile Threats from Rogue Nation 
States in the near term? What capabilities do we need?
    General Robinson. We are working with the Missile Defense Agency to 
address near-term improvements to our sensors and interceptors. For 
sensors, there are plans to field the Long Range Discrimination Radar, 
Homeland Defense Radar-Pacific, and Homeland Defense Radar-Hawaii. The 
Missile Defense Agency continues work on the Redesigned Kill Vehicle 
and concept development for the Multi-Object Kill Vehicle; they are 
also procuring twenty additional interceptors tipped with Redesigned 
Kill Vehicles. In addition, we are looking at possible additional 
defensive layers beyond just the Ground-Based Interceptors.

    16. Senator Sullivan. General Robinson, following up from question 
14, what do you think we need in the next 5-10 years, and beyond?
    General Robinson. In the near term, we need to improve our sensors 
and interceptors. In the long term, we are working with the Department 
to identify and prioritize space-based sensor capabilities and 
additional defensive ``layers'' against intercontinental ballistic 
missiles beyond Ground-Based Interceptors. I continue to support 
Department-level efforts to integrate left- and right-of-launch 
operations.

    17. Senator Sullivan. General Robinson, as we ask our allies to do 
more on missile defense, how should we seek to prioritize our 
collaboration--what systems should our allies focus on first?
    General Robinson. In the Pacific Region, there is opportunity to 
improve the sensor architecture to the mutual benefit of the United 
States and our allies and partners. For instance, there is currently a 
study initiated by the Missile Defense Agency for a Homeland Defense 
Radar--Pacific that could provide significant contributions to both the 
region and United States defense.

    18. Senator Sullivan. General Robinson, following up from question 
16, what more could Canada be doing?
    General Robinson. Canada has currently chosen not to participate in 
the ballistic missile defense mission. As the Commander of NORAD and 
USNORTHCOM, I respect that this is the Government of Canada's decision 
to make and defer to their sovereignty for any future changes to their 
current policy.
                          space-based sensors
    19. Senator Sullivan. General Robinson, assuming you have non-
sequestered AND threat-based budget, what specific investments in 
capacity and capability would you want as a warfighter to improve our 
Homeland missile defense and to modernize it for threats on the not-
too-distant horizon? Please be specific.
    General Robinson. We are working with the Missile Defense Agency to 
address near-term improvements to our sensors and interceptors. The 
realization of the Long Range Discrimination Radar, Homeland Defense 
Radar-Pacific, and Homeland Defense Radar-Hawaii are important steps to 
improve persistent discrimination capability. The testing and fielding 
of the Redesigned Kill Vehicle and development of the Multi-Object Kill 
Vehicle interceptors will improve reliability and lethality, with the 
Multi-Object Kill Vehicle being a longer-term initiative. In addition, 
the procurement of 20 more interceptors at the Alaska site, tipped with 
Redesigned Kill Vehicles, is in work to provide both additional 
capability and capacity. I believe we are on the right track with these 
planned improvements, but we will need to ensure we proceed on a pace 
that outpaces North Korean advancements.

    20. Senator Sullivan. General Robinson, what is your view on a 
space-based sensor infrastructure that would allow us to track--from 
birth to death--incoming missiles that might threaten the United States 
Homeland, that I called for in my bill S.1196?
    General Robinson. I support the development of space-based sensing 
capabilities in the long term. Space-based sensors can provide a more 
comprehensive capability and are less sensitive to axis of attack. 
However, I prioritize employing the more mature technology of 
terrestrial radars in the near term with a sense of urgency due to the 
rapid advancements and evolutions we are seeing from North Korea.

    21. Senator Sullivan. General Robinson, what effect would a space-
based sensor layer have on regional missile defenses, such as THAAD, 
Aegis, and Patriot?
    General Robinson. I defer to the Missile Defense Agency and my 
partner
geographic combatant commanders due to the regional nature of these 
system capabilities.
                               __________
               Questions Submitted by Senator Bill Nelson
                        hurricane relief efforts
    22. Senator Nelson. General Robinson, this past year, the United 
States Northern Command worked to overcome several challenges during 
their response to hurricane ravaged Puerto Rico, which included opening 
ports and restoring power. What lessons learned did NORTHCOM take away 
from their role in disaster response in 2017 as it relates to Florida, 
Puerto Rico, and Texas?
    General Robinson. The 2017 hurricane season presented a number of 
challenges due to the number and severity of the storms, the wide 
geographic area that was affected, and the scale of damage that 
resulted with significant impacts to millions of American citizens. The 
key lessons learned during the USNORTHCOM response in support of 
Federal Emergency Management Agency (FEMA) as the lead federal agency 
included the critical importance of pre-established relationships; 
combined training; and integrated planning with federal, state, and 
local partners.
    The response to Hurricanes Harvey, Irma, and Maria further 
demonstrated the absolute importance of effective communication between 
all elements and agencies involved with the response. By deploying a 
Defense Coordinating Official and Element to coordinate directly with 
FEMA and state/territorial officials on the ground in advance of each 
storm's landfall, USNORTHCOM was able to anticipate pending mission 
assignments from FEMA officials. The need for agility and creativity 
was also reinforced throughout the responses as USNORTHCOM and the 
military Services employed appropriate authorities to pre-position 
assets at forward staging areas to provide a more rapid response 
immediately on receipt of mission assignments from FEMA.
                       illicit opioid trafficking
    23. Senator Nelson. Admiral Tidd and General Robinson, you are 
acutely aware of the opioid crisis and how it is intimately connected 
to our southern U.S. approaches. How are you collaborating with key 
interagency partners to develop an effective campaign to stop the flow 
of illicit opioids from reaching our coastline?
    Admiral Tidd. The opioid crisis is fueled by a complex network of 
issues that cannot be solved by any one entity alone. In order to bring 
together all the disparate organizations within the United States 
Government that play a role in confronting this crisis, USSOUTHCOM 
hosted an Opioid Summit this February at our headquarters. Attendees 
spanned the interagency with over 125 representatives from 28 distinct 
organizations taking part. This first in what will be a continuing 
effort, gave the interagency (including USSOUTHCOM) the opportunity to 
develop shared understanding of the problem and to strengthen the 
relationships that will be needed to truly affect the criminal 
organizations that are involved in illicit opioid trafficking. Our 
Joint Interagency Task Force--South (JIATF-S) works across the 
interagency to gain awareness of illicit movements of opioids through 
the transit zone en route to the U.S., and to take action to stop those 
movements if they have assets available to do so. JIATF-S also works 
closely with JIATF-West to ensure seamless information sharing if any 
illicit movements enter our Joint Operating Area from Asia. Within 
USSOUTHCOM, we have shifted our fundamental approach to center on 
supporting, strengthening, and enabling the ``friendly network'' of 
U.S. Government, regional, allied, and civil society partners to work 
together to degrade opioid and other threat networks, disrupt their 
operations, and affect the underlying conditions and enablers that they 
rely on for success.
    General Robinson. Along the United States southern border, we 
continue to support our federal law enforcement partners with military-
unique capabilities that aid in the detection, monitoring, and eventual 
law enforcement interdiction of illegal narcotics. We also continue to 
leverage our military-to-military relationships with Mexico and The 
Bahamas, along with collaborating and sharing information with United 
States Southern Command, as part of a broad interagency effort to stem 
the flow of dangerous drugs into the United States.

    24. Senator Nelson. Admiral Tidd and General Robinson, how are you 
working together and enhancing military cooperation with allies to 
counter transnational criminal networks from smuggling fentanyl from 
China and Mexico?
    Admiral Tidd. The significance of the threat has coalesced a wide 
range of partners who are interested in sharing their capabilities and 
information to collaboratively illuminate and dismantle these nefarious 
networks that can move anything and have global reach. Consistent with 
our approach to all transregional threats, we are working with our 
partners at PACOM and NORTHCOM to help illuminate these networks and 
enable the endgame for both U.S. and partner nation law enforcement. In 
application and to the limit of our current resources, we seek to 
identify the specifics of the threat through intelligence collection 
and analysis, we share that information as widely as possible, and we 
help build the capacity of our willing partners to accomplish the 
needed disruption.
    General Robinson. Along the United States southern border, we 
continue to support our federal law enforcement partners with military-
unique capabilities that aid in the detection, monitoring, and eventual 
law enforcement interdiction of illegal narcotics. We also continue to 
leverage our military-to-military relationships with Mexico and The 
Bahamas, along with collaborating and sharing information with United 
States Southern Command, as part of a broad interagency effort to stem 
the flow of dangerous drugs into the United States.
                               venezuela
    25. Senator Nelson. Admiral Tidd, what is your assessment of the 
situation in Venezuela? In particular, how best can the United States 
target the criminal dictator Maduro, and help restore Venezuela's 
democracy?
    Admiral Tidd. Venezuela is facing an unprecedented socioeconomic 
crisis. Venezuela has the world's highest inflation rate (near 2,400 
percent in 2017), with IMF experts forecasting it will be above 13,000 
percent in 2018. Oil output was down 29 percent in 2017. The population 
is experiencing serious shortages of food, medicine, and basic goods. 
These financial shortfalls and dwindling oil revenues coupled with 
extreme debt are creating a political and economic crisis with 
humanitarian consequences driving migration out of the country. As many 
as 5 percent of the population have already deserted the country, and 
estimates are that another 5 percent could leave in 2018. Key partners 
like Colombia and Brazil are increasingly concerned about this 
migration, with numbers exceeding 550,000 Venezuelans entering 
Colombia. We continue to closely monitor this deteriorating situation 
and engage our partners regularly as to how they are being impacted by 
the humanitarian crisis generated by the Maduro Administration. 
Clearly, a crisis of this magnitude requires an international 
diplomatic solution, which the Department of State is leading. For 
questions on restoring democracy in Venezuela, I would refer you to the 
Department of State.
                   military housing in south florida
    26. Senator Nelson. Admiral Tidd, currently, the Housing Services 
Office, who assist eligible personnel and families in finding adequate 
affordable housing while assigned to active duty in South Florida, is 
operating with limited inventory and resources. What can Congress do to 
find affordable community oriented housing for our service members and 
their families?
    Admiral Tidd. There are significant challenges to finding adequate 
affordable housing for our service members in the Miami area. We are a 
small population in a large, high-cost metropolitan area and have 
little market influence. The area that drives housing allowance rates 
is a large two-county area, while much of the housing available within 
a reasonable commute of our headquarters in Doral is high-cost. This 
forces our service members to the outer edges of, or beyond a 20-mile / 
60-minute commute. Our housing office is working hard, in collaboration 
with the U.S. Coast Guard and within department policy, to shape 
housing allowance rates to make our service members more competitive in 
areas closer to our installation. We have also had some successes with 
state legislation to counter some challenging local market practices 
like long community association approval processes for renters and 3 
months' rent up front (first and last month, and a security deposit).
    For a longer term solution to this problem, SOUTHCOM is actively 
working with the Army at all levels on a proposal to acquire land and 
construct a limited amount of military housing closer to our 
installation in Doral that would do much to economically address the 
problem, particularly for our most junior members. The military housing 
would enhance quality of life and security for our young service 
members and their families, and reduce the operational risk we 
presently incur by having our military work force spread across a large 
metropolitan area.
    We appreciate your concern for our forces and will keep Congress 
informed as we develop this housing project.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                   expeditionary fast transport ships
    27. Senator Shaheen. Admiral Tidd, in a recent memo the Secretary 
of the Navy (SECNAV) identified the need for additional ships in the 
U.S. Southern Command (USSOUTHCOM) region to stem the flow of drugs and 
defeat human trafficking. As part of the U.S. Navy's assessment, they 
reportedly determined that Littoral Combat Ship (LCS) and Expeditionary 
Fast Transport (EPF) ships provided the best support to meet 
USSOUTHCOM's requirements. Does USSOUTHCOM plan to meet the intent of 
the SECNAV memo?
    Admiral Tidd. USSOUTHCOM fully endorses the observation made within 
the SECNAV memo, as we do not have at our disposal the ships necessary 
to counter the threat. We at SOUTHCOM, like all other Combatant 
Commanders, submit our force requirements, to include the number and 
type of ships we need to execute our assigned missions, to the Joint 
Staff. We are then dependent on the Navy, as DOD's maritime force 
provider, to allocate to us the ships that would satisfy our 
requirements. We welcome any support that Congress can offer to the 
Navy which would enable them to meet the intent of SECNAV memo. In 
order to mitigate the current shortfall in surface assets, we included 
a request to fund a contract Multi-Mission Support Vessel (MMSV) as 
part of our Unfunded Priority List submission to Congress this year.

    28. Senator Shaheen. Admiral Tidd, how many vessels would 
USSOUTHCOM need in order to meet the intent of the memo?
    Admiral Tidd. An allocation of an additional four vessels, as 
mentioned in the memo, will meet the intent of the memo which is to 
restore presence of Navy ships in the JIATFS operations area. Since 
fiscal year 2015, the presence of Navy medium and long range ships 
supporting JIATFS has been, at best, sporadic. Currently, there are no 
Navy medium and long range ships allocated to USSOUTHCOM to support 
JIATF-S operations.

    29. Senator Shaheen. Admiral Tidd, if EPFs are chosen as the vessel 
to meet the intent of the memo, how many EPFs would be needed?
    Admiral Tidd. In the absence of sufficient Littoral Combat Ship 
(LCS) availability, and until modifications to the EPF class make them 
a more capable platform from which to conduct JIATF-S operations (i.e. 
improved small boat launch and recovery, hull strengthening, improved 
communications suite, increases in platform reliability etc), 
USSOUTHCOM would prefer a mix of LCS and EPF ships, instead of EPF only 
to meet the intent of the memo.

    30. Senator Shaheen. Admiral Tidd, if EPFs are chosen as the vessel 
to meet the intent of the memo, when would they deploy to the 
USSOUTHCOM Area of Responsibility (AOR)?
    Admiral Tidd. As the DOD maritime force provider, that would be the 
Navy's
decision.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                              puerto rico
    31. Senator Blumenthal. General Robinson, in the CR passed earlier 
this month, DOD received over $1.8 billion for hurricane damage to 
cover operation and maintenance costs, military construction efforts, 
Army Corps of Engineers projects, and more. Do you believe this is 
sufficient? How is this funding being used to rebuild response capacity 
and capability?
    General Robinson. While USNORTHCOM was responsible for 
synchronizing DOD efforts in support of Department of Homeland 
Security-generated requirements during the response phase of this 
hurricane season, the military Services retain the authority and 
responsibility for managing their operations and maintenance, military 
construction efforts, and U.S. Army Corps of Engineers projects. As 
such, I defer to the military Services regarding the sufficiency or 
ultimate use of the funds appropriated during the CR.
                             gender advisor
    32. Senator Blumenthal. Admiral Tidd, can you expand on the 
importance of women, peace, and security issues as it pertains to the 
military? How has having a senior-level gender advisor that reports 
directly to you improved your command's ability to be a more effective 
fighting force?
    Admiral Tidd. From illicit trafficking to armed violence to 
insecurity, women often unduly bear the burden of many of the 
challenges our military and security forces are trying to address. In 
conflict, the civilian population--generally women and children--
becomes subject to atrocities such as Gender Based Violence and Human 
Trafficking. By integrating a gender perspective into our institutions 
and into our policies before conflict breaks out, we give ourselves the 
opportunity to hear from a broader range of voices that together, will 
help us find solutions that could prevent or mitigate the worst of the 
violence. When women in conflict countries are engaged by the 
militaries, we get better intelligence and raise the operational 
effectiveness of our troops. We know that when we involve women in our 
societies, systems, and processes, our countries are stronger and have 
more lasting peace with a lower risk of armed conflict.
    We do not aim to lecture our partners on the importance of gender 
integration in the military, rather we always look to model this 
behavior. It sends a strong message to our partner militaries when they 
see the SOUTHCOM Gender Advisor, a female Master Chief Petty Officer 
(who coincidentally is from Connecticut), arrive in their countries as 
part of a senior NCO subject matter expert exchange. As she introduces 
herself, our counterparts learn that in her 24 years of service she has 
been part of Special Forces cultural support teams in Afghanistan and 
Iraq. Showing that the United States has women successfully serving in 
these operational roles is key to emphasizing the imperative of gender 
integration in our partner nation militaries.
    USSOUTHCOM also hosts an annual Women in Military and Security 
Forces Conference that brings together senior defense officials from 
across the region to discuss their own lessons learned about gender 
integration in the military. This puts a partner nation face on these 
discussions and with a goal of shifting the region's attitude toward 
women in the military and opening all military positions to women.

    33. Senator Blumenthal. Admiral Tidd, have you engaged your fellow 
combatant commanders on how they focus on women, peace, and security 
issues?
    Admiral Tidd. I have very publically been promoting our four 
Military Imperatives--respect for human rights, the 
institutionalization of jointness, development of professional non-
commissioned officer (NCO) corps, and integration of effective gender 
perspectives--as fundamental core military competencies required for 
professionalization of regional militaries. These competencies 
strengthen the operational effectiveness, cohesion, and capabilities of 
our hemisphere's forces. In discussing this at various forums and with 
various audiences to include Congress and NATO, I have shared our 
efforts on gender integration and women, peace, and security with 
fellow combatant commanders and other senior leaders across the 
national security arena.
                               __________
             Questions Submitted by Senator Martin Heinrich
                           drug interdiction
    34. Senator Heinrich. Admiral Tidd and General Robinson, I was 
pleased to hear that you and your team set an interdiction record by 
stopping 283 metric tons of cocaine from entering the United States. 
I'm concerned, however, that a significant amount of cocaine [800 
metric tons] still goes unchecked due to a lack of maritime 
interdiction assets. Would you say that the vast majority of cocaine 
entering our country comes by sea?
    Admiral Tidd. Yes, Senator. In fiscal year 2017, 98 percent of 
cocaine moved toward the U.S. by sea and two percent by air. Of that 98 
percent that started its journey by sea, the vast majority made 
landfall in Central America and Mexico where it was broken into smaller 
loads and continued toward the United States by land.
    In fiscal year 2017, JIATF-South knew exactly where 1,167 events 
were at some point in their movement and were unable to take action 
against them due to a lack of assets. Those illicit events contained 
815 metric tons of cocaine, which would potentially result in:
    <bullet>  4,890-8,965 U.S. Cocaine-Related Drug Overdose Deaths
    <bullet>  450,000-835,000 U.S. Cocaine-Related Emergency Room 
Visits ($978 million-$1.8 billion)
    <bullet>  5.0 million-9.3 million New U.S. Cocaine Users
    <bullet>  62,755 U.S. Drug-Related Offenders
    <bullet>  $1.9 billion Additional U.S. Cost of Inmate Care in 
Federal Prisons
    <bullet>  30,970 Violent Murders in Mexico and Central America
    <bullet>  $8.2 billion-$16.3 billion Illicit Profits (fueling 
corruption and instability)
    <bullet>  2,575 detainees (would provide additional information on 
the illicit networks moving these drugs)

    General Robinson. The Drug Enforcement Administration's 2017 
National Drug Threat Assessment indicates the majority of cocaine 
enters the United States country by sea.

    35. Senator Heinrich. Admiral Tidd and General Robinson, other 
drugs including illicit fentanyl, one of the main overdose deaths in 
the United States, are smuggled via legal ports of entry, not walked 
across gaps on our border. Are there other assets that you believe 
would be more helpful in allowing you to protect our nation from 
illicit trafficking of drugs? What kind of assets?
    Admiral Tidd. To stop drugs from entering the country, we require 
force packages that include Maritime Patrol Aircraft (MPA) and surface 
assets. For every force package we have, we can stop approximately 31 
metric tons or 36 illicit events annually. MPA are the top priority 
within the force package as they provides more geoprecision location 
information which greatly increases detection and subsequent 
interdictions of illicit conveyances. Without MPA to vector partner 
nations to illicit targets, those very willing partners will typically 
not launch an interdiction asset because they are very rarely 
successful finding an illicit target unassisted--that would be an 
inefficient use of their extremely limited operational funding and 
capability. Additional interdictions are made possible by a vertically 
integrated force package which includes medium to high endurance ships 
with a helo embarked (authorized to use force) and over-the-horizon 
RHIBs. The synergistic effect of this package greatly exceeds the 
capability of any individual single asset. MPA enable both U.S. and 
partner nation interdiction and apprehension asset successes.
    JIATFS Annual Requirements:
    <bullet>  Air = 90,000 flight hours per year; in fiscal year 2017 
sourced at 20 percent of requirement (18,200 flight hours)
      o  DOD provides 88 percent of these hours
      o  The majority is provided by Department of Homeland Security 
(DHS; CBP and USCG) and Allied and Partner Nations
    <bullet>  Ships = 12,500 ship days per year; in fiscal year 2017 
sourced at 31 percent of requirement (3,840 ship days)
      o  DOD provides 89 percent
      o  Majority provided by DHS (USCG) and Allied Nations

    General Robinson. We support our partners with military-unique 
capabilities that are balanced against the Department's global 
requirements and within the resources provided by our authorities and 
appropriations. Our support of the risk-based Southern Border and 
Approaches Campaign Plan from the Department of Homeland Security has 
proven to be quite beneficial by focusing these resources where 
intelligence, surveillance, and technology indicate the greatest area 
of threat and, hence, the greatest potential benefit.

    36. Senator Heinrich. Admiral Tidd and General Robinson, given the 
limited budget and resources at your disposal, would prioritizing the 
construction of a wall on our southern border meaningfully reduce the 
flow of drugs entering the country versus the allocation of those same 
resources towards other interdiction efforts?
    Admiral Tidd. USSOUTHCOM cannot speak to the interdiction efforts 
at the Southern Border, as that is not within our theater of 
operations. What I can tell you is that when we do have the requested 
maritime force packages available to us we are extremely efficient at 
stopping large loads of drugs on the high seas before they hit land and 
get broken down into smaller batches that are much harder to interdict.
    General Robinson. USNORTHCOM conducts Counternarcotic and Counter 
Transnational Organized Crime efforts in support of law enforcement 
agency and Department of Homeland Security (DHS) partners. While 
technologies that enhance surveillance and interdiction capability 
could be beneficial, I defer to DHS as the lead federal agency for 
specific requirements.
                         information operations
    37. Senator Heinrich. Admiral Tidd, during your posture statement, 
you discussed Russian efforts to influence the information environment 
in Latin America, including Russia operating two Spanish language TV 
networks. Russia continues to see results from their overseas 
disinformation campaigns designed to undermine United States interests 
in locations where our armed forces are stationed or operating. What 
are you doing in SOUTHCOM to counter these efforts by the Russians and 
other adversaries who are trying to degrade American influence in the 
region?
    Admiral Tidd. We are educating and informing our partners on the 
potentially detrimental and destabilizing effects of Russian activity, 
especially Moscow's increased use of active measures and disinformation 
in South and Central America, namely through Russia Today and Sputnik 
Mundo. We are also working to promote the positive benefits of U.S. 
partnership and highlight our continued commitment to the region. As I 
told this Committee in 2017, we lose relationships not as a result of 
any Chinese or Russian actions; we lose them, in large part, by not 
demonstrating the depth of our commitment to the region. Success or 
failure in this region depends on us, what we stand for, and what we 
do, much more than it depends on anyone else.

    38. Senator Heinrich. Admiral Tidd, do you believe you have the 
necessary authorities and resources to counter the Russian narrative?
    Admiral Tidd. One of the best ways to counter the Russian narrative 
is to demonstrate, by deed, that the United States is a strong partner 
in this hemisphere. To do that, we must maintain persistent presence 
and be actively engaged as a visible, ubiquitous security partner. For 
the most part, the countries in this region want to work with the U.S., 
however, limited resources sometimes restrict our ability to do so.
    It is important to take a transregional/global approach to this 
problem set; while expanded support to the Global Engagement Center to 
counter Russian propaganda is extremely helpful, we should not focus 
our efforts exclusively in Europe. I believe a broader, more integrated 
approach is needed to address this destabilizing Russian narrative 
globally, wherever it may be taking place. That means in Latin America 
and the Caribbean, as well as in Europe.
             counter uav at domestic military installations
    39. Senator Heinrich. General Robinson, you said that the potential 
threat from airborne platforms with small radar signatures will become 
commonplace in the coming years and that they have the potential to 
hold our vital institutions and infrastructure at risk. This committee 
gave you authority in section 1692 of the last NDAA to engage unmanned 
aircraft systems that threaten our military installations or other 
strategic assets. Do you believe you now have the authority to better 
address this threat? What about resources?
    I encourage you and the Department to look at innovative solutions 
like Directed Energy to address this problem.
    General Robinson. The Fiscal Year 2018 National Defense 
Authorization Act provided expanded authorities to better address the 
threat of airborne platforms with small radar signatures. These 
authorities allow installation commanders to engage potential threat 
platforms as they approach and overfly sensitive military bases.
    The counter-unmanned aerial systems mission is largely executed by 
the Services and appropriate interagency partners, although NORAD and 
USNORTHCOM have equities in both force protection (a USNORTHCOM 
mission) and air domain defense (a NORAD mission), which makes 
detecting small radar signature airborne platforms one of my top 
priorities.
    Timely detection of an unmanned aerial system is the first step in 
engagement sequence and critical to providing sufficient warning time 
for successful engagement. Advanced sensors are necessary to detect 
low-radar cross section threats such as advanced cruise missiles and 
small unmanned aerial systems. As small unmanned aerial system 
technology becomes more advanced, I will continue to support Department 
efforts to develop defensive systems to better protect our 
installations and personnel to operate these systems.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                      UNITED STATES CYBER COMMAND

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe 
presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Ernst, Tillis, Perdue, Sasse, Reed, Nelson, McCaskill, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. The committee meets today to hear Admiral 
Mike Rogers--you know, you have more titles than anybody else 
down here, you really do--as the Commander of the----
    Admiral Rogers. I have that going for me, sir.
    Senator Inhofe.--Commander of the U.S. Cyber Command, 
Director of the National Security Agency, and Chief of the 
Central Security Service. Given your upcoming retirement, it 
might be this is the last time you'll be dropping in. Is--do 
you think that will happen? We'll miss you.
    Well, the--as the recent National Defense Strategy 
identified renewed great power and competition with Russia and 
China--and that kind of stands--goes along with what General 
Dunford said when he said that we are losing our qualitative 
and quantitative edge as we move into this 2032--or, this 2023 
National Defense Strategy. As we approach the eighth 
anniversary of Cyber Command, we should recognize the 
remarkable progress you've made in taking what was a very niche 
warfighting concept and establishing around it a full-fledged 
warfighting command. Later this year, we anticipate that you 
will achieve full operational capability of--for the 6,200-
person Cyber Mission Force.
    Despite the many successes, there are still significant 
challenges. The committee remains concerned about a hollow 
cyber force due to the lack of priority across the Services to 
deliver the required tools and capabilities and personnel. 
Efforts have improved, but the fact remains that we have not--
are not where we need to be, and that we lack the bench 
strength necessary.
    The other area--and then I'll have some questions about 
this during our question time--is the fact that we're at--I 
think, at somewhat of a disadvantage with responsibilities that 
are spread, as I mentioned to you a few minutes ago, across DOD 
[Department of Defense], DHS [Department of Homeland Security], 
and the FBI [Federal Bureau of Investigation], with little 
semblance of coordination. We can't just wait for a major 
cyberattack and then try to get this thing right. If we look at 
some of the other countries, that they have got this more 
centralized and coordinated. So, we need to address that to see 
if maybe we've got some improvements that we can make 
structurally.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Admiral Rogers, welcome. Since we are holding the 
confirmation hearing for your successor later this week, this 
is likely your last appearance before the committee. Let me 
thank you for decades of service to the country, to the NSA 
[National Security Administration] and Cyber Command. You've 
done an extraordinary job. Thank you, sir.
    One of the great threats facing our democracy is influence 
operations, a type of information warfare which are mostly 
conducted through cyberspace, the domain and theater of 
operations of Cyber Command. Russia engaged in a sophisticated 
influence campaign during the 2016 election cycle. China has 
been engaged in information operations against their own 
citizens in order to control their access to information and 
their behavior, and is becoming more active abroad. They have 
also engaged in massive theft of intellectual property 
conducted against United States companies for their own 
economic gain. North Korea's attack on Sony America was an 
attempt to silence an entertainment company from exercising its 
right to free speech and thereby send a message across the 
world. These efforts by our adversaries highlight some of our 
vulnerabilities in this area, which I hope you will address 
today.
    While our adversaries are freely conducting information 
operations, Cyber Command is still predominantly designed to 
conduct technical operations to either defend or attack 
computer systems, to sustain or impede the function of 
computers and networks. It is not built to deal with the 
content of the information flowing through cyberspace with the 
cognitive dimension of information warfare. Cyber Command has 
made important strides in the last year in the cognitive 
dimension in the struggle against ISIS [Islamic State of Iraq 
and Syria], but still has a long way to go, and must also focus 
on the strategic level of engagement, not merely an operational 
tactical support to engage forces.
    Other organizations and officials in the Defense Department 
are responsible for what the Department calls ``psychological 
and deception operations.'' But, those officials and 
departments, in turn, have no expertise or capabilities in the 
technical aspects of cyberspace operations. This is a serious 
handicap when we are confronted with adversaries, like Russia, 
that conduct information warfare that combines the technical 
and cognitive dimensions to manipulate perceptions through 
cyberspace. Because we have separated these things 
organizationally and in terms of policy and strategy, we are 
greatly disadvantaged when it comes to countering an 
adversary's integrated operations and when it comes to 
conducting our own information operations through cyberspace.
    The Fiscal Year 2018 NDAA [National Defense Authorization 
Act] included a provision, cosponsored by Senator McCain and 
myself, which directs the Secretary of Defense to designate a 
senior official to lead the integration of all Defense 
Department components and capabilities that contribute to 
information warfare, and to develop specific strategies, plans, 
and capabilities to operate effectively in this arena to 
counter and deter adversaries. I'm eager to learn how Cyber 
Command is responding to this legislation.
    As stressed in the newly released National Defense 
Strategy, Russia and other adversaries have mastered the art of 
conducting a systematic aggression against the United States 
and its interests and allies by staying just below the level 
that would be considered armed aggression or an act of war. As 
the DNI [Department of National Intelligence] testified 
recently to the Senate Intelligence Committee, adversaries are 
using cyber operations to achieve strategic objectives, and 
will continue to do so unless they face clear repercussions. 
Adversaries are achieving strategic effects incrementally by 
applying constant pressure through cyberspace against the 
sources of our national power.
    In addition to tools such as sanctions, diplomacy, 
indictments, and public shaming, we must meet not only Russia, 
but all adversaries, where the struggle is taking place in the 
information sphere. As part of this, we need to engage in blunt 
information operations against us at their source by disrupting 
them in cyberspace as they unfold.
    The National Mission Teams of the Cyber Mission Force were 
created to conduct exactly these missions. According to Defense 
Department's official cyberstrategy, the National Mission Teams 
were created to defend the country by disrupting ongoing 
cyberattacks of ``significant consequence.'' Some of these 
influence operations in cyberspace are directed against the 
foundations of American democracy: the free expression of 
Americans' political views, the voting booth, and through our 
political parties and campaign organizations. Surely, such acts 
meet the threshold of ``significant consequences,'' justifying 
the use of the National Mission Teams under the Defense 
Department's cyberstrategy.
    The members of the Cyber Subcommittee, led by Senators 
Round and Senator Nelson, have made this point numerous times. 
I want to thank them for their leadership on the issue. Admiral 
Rogers, I'm also interested in your views on this issue.
    Finally, I understand that presidential leadership is 
critical on these issues. I raised this matter with the 
Director of National Intelligence and each of the intelligence 
agency directors, including you, Admiral Rogers, at a recent 
public hearing of the Intelligence Committee. The very 
disappointing answer that I received is that the President has 
not corrected any action on countering these threats. In 
addition, countering these threats requires not only the 
Defense Department to integrate all the components of 
information warfare, it is essential to integrate capabilities 
and authorities of all the national security and law 
enforcement organizations across the government as a whole. 
This, too, requires leadership that, so far, has been lacking.
    Admiral Rogers, thank you again for your service and the 
service of your family, and I look forward to your testimony.
    Senator Inhofe. Thank you, Senator Reed.
    I, regretfully, say that Senator Rounds, who does chair the 
Subcommittee, will not be here today, or actually this week, 
with the loss of his father.
    Senator Reed. Oh. Sorry.
    Senator Inhofe. So, we all regret that.
    Admiral Rogers?

STATEMENT OF ADMIRAL MICHAEL S. ROGERS, USN, COMMANDER, UNITED 
 STATES CYBER COMMAND; DIRECTOR, NATIONAL SECURITY AGENCY; AND 
                CHIEF, CENTRAL SECURITY SERVICES

    Admiral Rogers. Thank you, sir.
    Chairman Inhofe, Ranking Member Reed, and distinguished 
members of the committee, thank you for your enduring support 
and the opportunity to talk with you today about the hard-
working men and women of United States Cyber Command.
    But, first, I'd like to take a moment to extend our 
thoughts and prayers to Chairman McCain and his family, and to 
voice our support for him as he undertakes this tough health 
fight. Senator McCain, keep fighting. Look forward to you 
getting back, sir.
    On behalf of the men and women of the United States Cyber 
Command, I'm here to discuss the Command's posture and describe 
how we prepare for and execute operations in the cyberspace 
domain to support the Nation's defense against increasingly 
sophisticated and capable adversaries.
    The cyberspace domain that existed when we first 
established Cyber Command, nearly--over 8 years ago, has 
evolved dramatically. Today, we face threats that have 
increased in sophistication, magnitude, intensity, volume, and 
velocity, threatening our vital national security interests and 
economic well-being. China and Russia, whom we see as peer or 
near-peer competitors in cyberspace, remain our greatest 
concern. But, rogue regimes, like Iran and North Korea have 
growing capabilities and are using aggressive methods to 
conduct malicious cyberspace activities.
    Further, several states have mounted sustained campaigns 
against our cleared defense contractors to scout and steal key 
enabling technologies, capabilities, and systems. Our 
adversaries have grown more emboldened, conducting increasingly 
aggressive activities to extend their influence without fear of 
significant consequence. We must change our approaches and 
responses here if we are to change this dynamic.
    While the domain has evolved, Cyber Command's three 
missions areas endure. Our first priority is the defense of the 
Department of Defense Information Network, or the DODIN. 
Second, we enable other joint force commanders by delivering 
effects in and through cyberspace. Finally, we defend the 
Nation against cyberthreats through support to DHS and others 
when directed to do so by the President or the Secretary of 
Defense. In concert with the National Defense Strategy, we are 
charting a path to achieve and sustain cyberspace superiority, 
to deliver strategic and operational advantage and increased 
options for combatant commanders and policymakers. Without 
cyberspace superiority in today's battlefield, risk to mission 
increases across all domains and endangers our security.
    Since my last update almost a year ago, Cyber Command has 
achieved a number of significant milestones. First, Joint Force 
Headquarters DODIN, our subordinate headquarters responsible 
for securing, operating, and defending the Department's complex 
IT [Information Technology] infrastructure, has achieved full 
operational capability. Second, Joint Task Force Ares, the 
organization we created to lead the fight in cyber against 
ISIS, has successfully integrated cyberspace operations into 
that broader military campaign, and achieved some excellent 
results. We will continue to pursue ISIS in support of the 
Nation's objectives. Third, we've significantly enhanced our 
training and cyber operation platforms to prepare the 
battlespace against our key adversaries.
    This year will bring several additional accomplishments. 
Cyber Command will be elevated to a unified combatant commander 
when I step down, later this spring. As a combatant command, we 
will have the unique responsibilities of being a joint force 
provider and a joint force trainer responsible for providing 
mission-ready cyberspace operations forces to other combatant 
commanders and ensuring that joint cyberforces are trained to a 
high standard and remain interoperable.
    In addition, in April, we'll start moving into a state-of-
the-art integrated cyber center and joint operations facility 
at Fort Meade. This will be our first fully integrated 
operations center that enhances the whole-of-government 
coordination and improves planning and operations against a 
range of growing cyberthreats.
    Within this dynamic domain, it's imperative to continually 
evolve the training and tools of our operators. We've recently 
delivered the first of several foundational toolkits designed 
to enable the Cyber Mission Force to work against adversary 
networks while reducing the risk of exposure, as well as 
equipping JTF [Joint Task Force] Ares in its fight against ISIS 
with capabilities designed to disrupt adversary use of the 
Internet.
    Innovation and rapid tech development demand competition 
and the ability to leverage all partners, including small 
businesses. We intend, in the coming year, to create an 
unclassified collaboration venue where businesses and academia 
can help us tackle tough problems without needing to jump over 
clearance hurdles, for example, which, for many, are very 
difficult barriers. Of course, all these tools require a 
talented and sophisticated workforce to operate and employ 
them. The Cyber Excepted Service will help us recruit, manage, 
and retain cyber expertise in a highly competitive talent 
market.
    Our success also remains entwined with continued 
integration of the Reserve and National Guard. In our 
headquarters alone, we currently employ more than 300 full-time 
and part-time reservists, and, in addition, more than 150 
Reserve and National Guard members are mobilized to lead and 
execute cyberspace operations. For most--perhaps most 
significantly, we are nearing completion of the buildout of our 
Cyber Mission Force, with all teams on a glide path to reach 
full operational capability before the end of this fiscal year. 
As the teams reach FOC [full operational capability], our focus 
is shifting beyond the build to ensuring that those teams are 
ready to perform their mission and to execute sustained and 
optimized mission outcomes for the Nation year after year for a 
sustained effort over time.
    I fully realize that cybersecurity is a national security 
issue that requires a whole-of-government approach that brings 
together not only government, departments, agencies, but also 
the private sector and our international partners. Over the 
last year, we've also increased our interaction with critical 
infrastructure elements within the private sector and the 
broader set of U.S. Government partners supporting them.
    As you know, I serve as both Commander of the United States 
Cyber Command and Director of the National Security Agency. 
This dual-hat appointment underpins the close relationship 
between these two organizations. The Fiscal Year 2017 National 
Defense Authorization Act included a provision that describes 
the conditions for splitting or ending the dual-hat 
arrangement, and the Department is working its way through this 
question; and ultimately the Secretary, in conjunction with the 
DNI, will provide a final recommendation to the President. All 
of us at Cyber Command are proud of the roles we play in our 
Nation's cyber efforts and are motivated to accomplish our 
assigned missions overseen by the Congress, particularly this 
committee.
    Finally, after serving over 4 years as the Commander of 
Cyber Command, and after nearly 37 years of service as a naval 
officer, I'm set to retire later this spring, and I will do all 
I can during the intervening period to ensure the mission 
continues, that our men and women remain ever motivated, and 
that we have a smooth transition. I'm grateful for the 
committee's continued support and confidence of myself and the 
Cyber Command team, and I look forward to answering your 
questions today.
    [The prepared statement of Admiral Rogers follows:]

            Prepared Statement by Admiral Michael S. Rogers
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you very much for inviting me before you today to 
represent the men and women of U.S. Cyber Command (USCYBERCOM). I am 
honored to lead this fine group of Americans, and to speak in public 
about their accomplishments--which we owe in no small part to the 
support of the Congress and of this committee in particular. I expect 
this will be my last time that I speak to you about their efforts and 
their progress as the Commander of USCYBERCOM, which is on the verge of 
becoming a full, unified combatant command, and so I am eager to begin 
and to answer any questions or address any concerns that you might 
have. I look forward to a dialogue with you about what we are seeing in 
cyberspace and what that means for our command, for the Department of 
Defense, and for our nation.
    United States Cyber Command's mission is to direct, synchronize, 
and coordinate cyberspace planning and operations to defend and advance 
national interests in collaboration with domestic and international 
partners. We have three mission objectives: to ensure DOD mission 
assurance by directing the operation and defense of the Department of 
Defense's information networks (what we call the DODIN); to deter or 
defeat strategic threats to U.S. interests and infrastructure; and to 
achieve Joint Force commander objectives in and through cyberspace. The 
Command is based at Fort Meade, Maryland, and in this fiscal year is 
executing more than $600 million dollars in programs and projects. Our 
full-time staff amounts to 1,060 military members and civilians, plus 
contractors. At the end of December, we had 5,070 servicemembers and 
civilians in our Cyber Mission Force (CMF), building to a total of 
6,187 people, meaning the CMF was staffed at 82 percent.
    Our team is organized into components that together represent all 
the Armed Services. Officers and enlisted personnel come from each one 
of the Armed Services, and are organized, trained, and equipped by our 
Service cyber components in Army Cyber Command, Marine Forces 
Cyberspace Command, Fleet Cyber Command/Tenth Fleet, and Air Forces 
Cyber/24th Air Force (as well as U.S. Coast Guard Cyber). USCYBERCOM 
proper comprises a headquarters organization and runs operations 
through its components: the Cyber National Mission Force (CNMF), Joint 
Force Headquarters-DODIN, plus four other Joint Force headquarters 
elements, each of which is paired with one of the four Services' cyber 
components named above. Both Active Duty and Reserve Component 
personnel serve in our forces, and they are joined by Coast Guardsmen 
as well.
    USCYBERCOM performs its missions in accordance with national and 
Department-wide strategic guidance. In elevating USCYBERCOM to unified 
combatant command status, the President and the Secretary of Defense 
made several stipulations about its mission and duties, and I shall say 
more about those in a moment. I hope to impart to you today my sense of 
the unique value that our Command, acting within these parameters, adds 
to the defense of America and its interests. But first I want to give 
you a sense of the operating environment before us and the gravity of 
several current and looming cyber threats.
                       the cyberspace environment
    We face a growing variety of threats from adversaries acting with 
precision and boldness, and often with stealth. U.S. Cyber Command 
engages with adversaries in cyberspace every day. Accordingly, we have 
developed substantial knowledge of how malicious cyber actors work 
against the United States, our allies and partners, and many other 
targets as well. That knowledge in turn provides insights into the 
motivations, capabilities, and intentions of those who sponsor such 
activities, whether they be states, criminal enterprises, or violent 
extremists. Cyberspace is a global and dynamic operating environment, 
with unique challenges.
    A significant story in cyberspace over the past year relates to the 
progress made against the Islamic State in Iraq and Syria (ISIS), and 
USCYBERCOM contributions to the eviction of ISIS fighters from their 
geographic strongholds. Today, ISIS's so-called ``Caliphate'' is 
crumbling. It has lost 98 percent of the territory it once controlled 
in Iraq and Syria, and approximately 3.2 million Syrians and 4.5 
million Iraqis now have a pathway to begin to rebuild their cities and 
their lives. Denying sanctuary to ISIS in Iraq and Syria is a victory 
for civilization, and an important step in stabilizing the nations of 
that region and building peace in the Middle East. Cyberspace 
operations played an important role in this campaign, with USCYBERCOM 
supporting the successful offensive by U.S. Central Command 
(USCENTCOM), U.S. Special Operations Command (USSOCOM), and our 
Coalition partners. We learned a great deal in performing those 
missions, and continue to execute some today. Mounting cyber operations 
against ISIS helped us re-learn and reinforce important lessons learned 
over the last decade of cyber operations against violent extremists. I 
should emphasize that this campaign was a Coalition fight, with key 
international partners conducting and supporting both kinetic and 
cyberspace operations against ISIS.
    The near defeat of ISIS in its geographic strongholds is bringing 
to a close one chapter in an enduring campaign against violent 
extremists, but is not the end of the story. While ISIS has lost much 
of its geographic base in Iraq and Syria, we believe its leaders and 
die-hard adherents planned for this development. To be clear, the 
reduction of kinetic combat operations does not mean we have achieved 
the enduring defeat of ISIS. Without continued attention and support, 
we risk the return of violent extremist groups like ISIS in liberated 
areas in Iraq and Syria and their spread in new locations. As the 
Coalition has made progress in Iraq and Syria, many ISIS fighters, 
including thousands and potentially tens of thousands of foreign 
fighters, have fled the battlefield in Iraq and Syria. These members 
have dispersed to locations around the globe including Africa, Europe, 
Asia, and other nations in the Middle East, in many cases to reinforce 
other ISIS branches and affiliates. Carrying their poisonous ideology 
and experiences with them, they are assimilating into local 
populations, developing new local and online networks, and overwhelming 
law enforcement's ability to monitor all of these potential threats our 
partners' Homelands, and potentially our own.
    Over the last few years, ISIS fighters and sympathizers have 
complicated the picture in Afghanistan, frustrating the central 
government's efforts to bring order and development to that war-torn 
land. We have watched and opposed their emergence on the battlefield 
and in cyberspace, and noted their conflicts with the government in 
Kabul and other insurgent groups. The Afghan area of hostilities 
represents another important operating area for cyberspace operations. 
USCYBERCOM is in the fight there as well, employing cyberspace 
operations to protect Coalition forces, target terrorist leaders, and 
disrupt the operations of hostile forces. We are providing similar 
support to our forces battling other violent extremist groups in Africa 
and Asia.
    We believe we may also face a further evolution of the cyberspace 
threat from violent extremist elements. Since its inception, ISIS 
leaders and their technical experts have maintained a robust online 
presence, and we assess that they will seek to increase their efforts 
in and through cyberspace. They and other groups, such as al Qaeda and 
its affiliates, still use the Internet to market their versions of 
terrorism, garner financial and material support, and inspire 
followers. ISIS, like al Qaeda before it, has worked hard to target 
susceptible individuals and inspire them to commit attacks in the West. 
That is why USCYBERCOM works with law enforcement, intelligence, and 
liaison partners to find and destroy the key nodes in ISIS online 
infrastructure and media operations (along with the analogous 
infrastructures of other violent extremists).
    Our greatest concern, of course, remains that of actions by state-
sponsored malicious cyber actors and the states behind them. We find 
that many states now seek to integrate cyberspace operations with the 
plans and capabilities of their traditional military capabilities. 
Indeed, several have mounted sustained campaigns to scout and access 
our key enabling technologies, capabilities, platforms and systems as 
they are developed and produced by cleared defense contractors. As the 
Secretary's new National Defense Strategy emphasizes, the states of 
greatest concern are Russia and China, with their advanced 
technological bases, powerful conventional forces, and nuclear 
arsenals. We watch them not just because they are big and well-armed, 
but because they practice coercive diplomacy against their neighbors, 
and their strategic intentions remain unclear. These two nations also 
count as peer or near-peer competitors in cyberspace.
    China has shown a worrying tendency to challenge the existing 
rules-based order, from which it has been a major beneficiary. It is 
pursuing its economic and diplomatic interests with greater 
assertiveness, rejecting, ignoring, or trying to rewrite norms that it 
perceives do not trend in its favor. China's behavior in cyberspace 
exemplifies this trend. For example, Presidents Obama and Xi committed 
in 2015 that our two countries would not conduct or knowingly support 
cyber-enabled theft of intellectual property for commercial gain. 
Subsequent evidence, however, suggests that hackers based in China 
sustained cyber espionage that exploited the business secrets and 
intellectual property of American businesses, universities, and defense 
industries. The Justice Department just last fall unsealed indictments 
against three Chinese nationals, alleging they exfiltrated more than 
400GB of data from several companies in the United States. In addition, 
the Chinese Government could exploit the production of information and 
technology products to harvest corporate, government, and even personal 
data from foreign countries.
    Russia represents a different sort of problem in cyberspace. Moscow 
says it wants to defend the existing rules-based order, yet in fact 
undermines it. The Intelligence Community concluded last year that 
Russian actors, with the knowledge of senior decision-makers, employed 
influence operations to interfere with the United States presidential 
election in 2016. In recent months, Congress has heard testimony from 
leading social-media companies explaining that their business records 
had logged an even wider pattern of Russian cyber meddling before the 
election--one that matched malicious cyber activities seen by several 
other nations. The Kremlin has used hackers to steal personal 
communications that Russian operatives then parceled out in targeted 
leaks, and created fake social media personas and news items on all 
sides of controversial issues in the hope of stirring discord in the 
West. The idea is to make Western electorates distrust all news outlets 
and ultimately one another. This threatens the foundations of 
democracy, making it difficult to discern Moscow's intentions and to 
craft common measures for countering Russia's aggressive actions in its 
near-abroad and its repression at home.
    Russian-sponsored malicious cyber activities of concern to the 
United States and its allies extend well beyond the behavior cited 
above. Russian intelligence agencies run their own cyber theft 
campaigns--witness last November's plea bargain of a foreign hacker who 
admitted to working on behalf of one of Moscow's intelligence services, 
wherein he hacked the webmail accounts of individuals of interest to 
Russia and sold their passwords to his Russian handlers.
    We are monitoring the cyber conflict sparked by the ongoing 
Russian-manufactured conflict in Ukraine. Secretary Mattis in Kyiv 
noted that Russia is not adhering to the letter or the spirit of its 
treaty commitments, most egregiously by attempting to change 
international borders by force. This behavior in geographic space 
matches Russian cyberspace behavior; Russia's cyber actions seem 
designed to complement and support its aggressive actions on the 
ground. While we cannot discuss the details in open session, I would 
draw your attention to the spate of very serious cyber attacks against 
Ukrainian citizens and infrastructure over the last 16 months. For 
instance, the National Cybersecurity and Communications Integration 
Center (NCCIC) of the Department of Homeland Security issued an alert 
in July to public utilities concerning a new malware that targeted 
electrical grids in Ukraine the previous winter. The most costly cyber-
attack in history, NotPetya, was launched by the Russian military last 
June. NotPetya encrypted and essentially ruined hard drives on 
thousands of Ukrainian computers. This cyber attack quickly spread well 
beyond Ukraine, causing billions of dollars in damages to businesses 
across Europe and as far away as the United States.
    Most states lack the suite of diplomatic, military, and economic 
tools employed by Russia and China, but rogue regimes nonetheless cause 
concern because of their aggressive unpredictability in cyberspace. 
Iran and North Korea have growing capabilities in cyberspace, and 
although they have fewer technical tools, they employ aggressive 
methods to carry out malicious cyberspace activities. The Iranians 
recruit hackers for cyberespionage, surveillance of their population, 
cyber attacks on their neighbors and perceived opponents, and even 
attempts to penetrate our military systems. North Korea has limited 
Internet connectivity and likely views the Internet as a vector to 
employ in striking opponents and deterring potential threats. Pyongyang 
also uses cyber tools to evade economic sanctions and harvest hard 
currency for Kim Jong-Un's impoverished regime. The United States and 
our British allies have publicly attributed to North Korea last 
summer's WannaCry ransomware attacks; 51.92 in bitcoin, worth 
approximately $140,000 at that time, was transferred out of the bitcoin 
wallet used by WannaCry--one of many ways of using cyber techniques to 
generate revenue. Most concerning, we do not see these actors having 
the technical competence or imperative to avoid uncontrolled damage if 
they conduct cyber attacks against private-sector targets, especially 
critical infrastructure.
    Various non-state actors in cyberspace cause us concern as well. 
The main operational problem is distinguishing their efforts and 
activities from the state-sponsored campaigns. Cyber criminals and 
terrorists increase the ``noise level'' for systems administrators and 
network defenders everywhere.
    In this context, I should mention that improved attribution is in 
our strategic interest, but not strictly necessary to guard against 
many cyber threats. A particular malware is still dangerous whether it 
was developed and/or employed by organized criminals, ideological 
hactivists, or a state entity. The last year has witnessed an alarming 
spate of incidents involving increasingly sophisticated cyber tools. 
NotPetya and WannaCry, for example, both modified powerful tools posted 
on-line by an anonymous group calling itself Shadow Brokers. What makes 
this trend even more worrisome is the uncontrolled use of these 
destructive cyber tools, the wielders of which clearly did not care 
whether they disrupted or damaged systems far beyond their main 
targets. We have reason to believe that particular states are behind 
some of these cyber attacks, and the fact that they have cavalierly 
unleashed tools that damaged the computers of their own citizens, 
speaks volumes about their disregard for responsible state behavior in 
cyberspace. DOD systems escaped particular harm in these incidents, but 
that is because we made robust and early investments in active, layered 
defenses. Not everyone has such resources, and so innocent victims had 
their hard drives encrypted, their data stolen, and their businesses 
damaged. We do not have to gain positive attribution to each particular 
actor before we can act to protect ourselves and our allies and 
partners; in fact, all users must take basic steps to secure their data 
and systems. We need decisive responses at scale to threats and 
intrusions. That is where USCYBERCOM finds its mission.
                            three milestones
    Several developments will make 2018 a pivotal year for USCYBERCOM.
    The first is USCYBERCOM's elevation to unified combatant command 
status. This will take place upon the confirmation and appointment of 
my successor, whom the President recently nominated. The elevation of 
USCYBERCOM demonstrates to international partners and adversaries our 
stake in cyberspace, and shows that DOD is prioritizing efforts to 
build cyber defense and resilience. Elevation reflects the importance 
of growing threats in cyberspace, and demonstrates that the United 
States is maintaining a leadership role. My successor will naturally 
want to make adjustments at USCYBERCOM to reflect his vision, but in 
many ways elevation will not drive sudden changes in primary aspects of 
the Command. The commander of USCYBERCOM will remain dual-hatted as the 
Director of the National Security Agency/Chief, Central Security 
Service (NSA/CSS) in the near term. We at USCYBERCOM are already 
operating in the cyber mission space and have key partners among U.S. 
Government agencies and allies. These will remain constants for the 
foreseeable future.
    In the long term, elevation entails significant adjustments in 
USCYBERCOM. You can grasp the implications by consulting the new 
Unified Command Plan (UCP) that the President approved in November 
2017. The UCP made USCYBERCOM responsible for the planning and 
execution of global cyberspace operations. The responsibilities 
assigned to USCYBERCOM include: directing the operations, security, and 
defense of the DODIN; directing cyber defenses of the critical 
infrastructure that assures the Department can accomplish its missions; 
warning and defending against significant cyber attacks on the United 
States and its interests; coordinating across the Department and the 
U.S. Government before mounting operations that include our own cyber 
attack actions; detailing military liaison officers to U.S. Government 
and international agencies to represent the Command on cyber matters; 
advocating for cyberspace capabilities in the Department's programming 
and budgeting processes; integrating theater security cooperation of 
cyberspace operations in support of Joint Force commanders; and 
executing cyberspace operations in support of military and civilian 
authorities defending the Homeland, as directed.
    The Unified Command Plan also gave USCYBERCOM new duties in keeping 
with Congress's intent to make it something of a hybrid Command along 
the general lines of U.S. Special Operations Command. Under its new 
Joint Force Provider responsibilities, as specified in the UCP, 
USCYBERCOM provides ``mission-ready Cyber Mission Forces'' to support 
Combatant Command mission requirements and identifies for the Chairman 
of the Joint Chiefs of Staff relevant ``global joint sourcing 
solutions'' (and supervises their implementation). In addition, under 
its new Joint Force Trainer role, USCYBERCOM ensures that joint cyber 
forces are trained and interoperable; sets standards for all joint 
cyber forces; conducts and supports Combatant Command-level exercises; 
and recommends strategy, doctrine, and procedures for joint cyberspace 
operations. With our new, Service-like functions, we will be preparing 
and submitting program recommendations and budget proposals for cyber 
operations forces; validating and prioritizing requirements, to include 
capabilities in any domain that enable employment of cyberspace 
capabilities; diversifying operational infrastructure; formulating and 
submitting requirements for intelligence support; coordinating with 
Military Departments on promotion, assignment, and recruitment of 
cyberspace operations forces; and exercising limited acquisition 
authority consistent with section 923 of the Fiscal Year 2017 National 
Defense Authorization Act (NDAA) and Section 807 of the Fiscal Year 
2016 NDAA.
    One would be correct in inferring from that list of 
responsibilities that USCYBERCOM must make significant changes over the 
next couple years while executing its expanding mission. Many of our 
leaders, teams, and action officers will thus be working double duty, 
directing and supporting ongoing cyberspace operations while overseeing 
the changes required by elevation as directed in the UCP. I need hardly 
add that the stability and hence predictability of our resource flow is 
especially important during this time.
    The second important development to report is the progress of the 
Cyber Mission Force, specifically our projected completion of the force 
generation of the 133 CMF teams, with all of them attaining full 
operational capability by September. In fact, we might meet this target 
even earlier, likely in June of this year. This long-anticipated 
milestone is due to the years of hard work by the Services and the 
agencies, with the support of Congress. We at USCYBERCOM are completing 
the readiness management programs that will sustain the readiness of 
the CMF teams. After all, commissioning a warship--while an important 
event--does not make that ship mission-ready. On a ship, as on a Cyber 
Mission Force team, much work remains to be done to make the crew 
members proficient at their duties and the whole team ready and able to 
perform whatever missions might be directed.
    Finally, in a matter of weeks USCYBERCOM will open its new 
Integrated Cyber Center and Joint Operations Center (ICC/JOC) at Fort 
Meade. Construction is nearly complete, and we will begin moving forces 
into the building in April. The facility is USCYBERCOM's first 
dedicated building, providing the advanced command and control 
capabilities and global integration capabilities that we require to 
perform our missions. I am grateful for the Congressional support that 
brought us so far in this long process, and of course I invite Members 
of the Committee to visit Fort Meade for a tour of our new facility.
    On a related note, later this year USCYBERCOM will formally request 
your support for a new headquarters facility. My headquarters operates 
today from dozens of office suites in ten NSA-owned or -leased 
buildings dispersed across 50 square miles of the Baltimore-Washington 
Highway corridor. No other Combatant Commander confronts such an 
obstacle, which makes efficient and effective staff function 
challenging. In an operating environment where seconds matter, we 
require a headquarters that facilitates staff and partner integration, 
information flow, and rapid decision making. I believe the right 
location for our headquarters is on Fort Meade in a purpose-built 
facility, and I will request your support for this requirement.
             u.s. cyber command's missions and performance
    Our first and primary mission objective remains defending the 
information systems of the Department of Defense. Adversaries realized 
decades ago that the power of the U.S. military in no small part 
derives from its integrated and synchronized functioning, which in turn 
relies on networks, bandwidth, processing, and analytics. Operations, 
sustainment, intelligence, and command and control rely on sensitive 
networks linked across the public Internet infrastructure. Attacking 
our information systems looks to some adversaries like a way to stop 
the U.S. military. We know this because we read their doctrinal 
writings, we watch their probes of our systems, and we see how they 
monitor our personnel. If their efforts to penetrate the DODIN were to 
succeed and open avenues for attacks on our DOD networks and systems, 
then my fellow Joint Force commanders would find it difficult to 
execute their respective missions.
    Securing and defending the DODIN is a crucial, 24-hour-a-day task. 
The old adage remains true: an ounce of prevention is worth a pound of 
cure. Secure information systems free us from the expense and time of 
remedying preventable intrusions, breaches, and disruptions. The 
WannaCry and NotPetya malwares mentioned above, for instance, exploited 
a vulnerability in Windows that Microsoft Corporation had patched weeks 
earlier. Many enterprises and users had installed those patches as a 
matter of course, keeping current with their security updates--as we 
had on the DODIN. We and they thus remained largely unharmed by these 
two outbreaks. No sooner did 2018 begin, than new challenges presented 
themselves in the form of widespread vulnerabilities--dubbed Meltdown 
and Spectre--that are inherent in nearly all computer processors. 
Coordinating such preventive measures in a timely fashion and across a 
huge enterprise like the DODIN is no easy feat, yet we have learned to 
do so in a regular, timely, and accountable manner. That is not to say 
that we do everything right in operating the DODIN; it is rather to 
reiterate the importance of a central command authority to assess 
operational risks, direct responses, and hold administrators 
accountable for executing prescribed remedies.
    We see evidence every day that adversaries continue to probe the 
DODIN. Most such probes represent attempted espionage rather than cyber 
attacks, but cumulatively they force us to devote considerable 
resources and attention to defense--which perhaps is the intention 
behind them. Over the past year, our Cyber Protection Teams have been 
kept fully engaged with testing our systems and supporting the 
defensive efforts of our mission partners (more on this below). We 
appreciate the intent of Congress to assist us in this field as voiced 
in section 1640 of the Fiscal Year 2018 NDAA. That measure requires the 
Department of Defense to outline a Strategic Cybersecurity Program to 
work with USCYBERCOM in reviewing the cybersecurity of critical defense 
capabilities like nuclear command and control, sensitive information 
systems, and long-range strike assets.
    Keeping DOD's information networks, weapons systems, and affiliated 
networks functioning and secure requires teamwork by many partners, 
particularly the Services, NSA, the Defense Information Systems Agency 
(DISA), the DOD Chief Information Officer (CIO), and the various 
cybersecurity service providers (CSSPs). In our experience, 
successfully defending our systems requires the application of time-
tested operational principles for the Joint Force, as well as a tight 
connection with the activities to secure all DOD networked devices. In 
this regard, I am naturally concerned with any legislative or policy 
proposals that would take the management of operational risks out of 
the military chain of command and vest it in civilian staff or advisory 
components of DOD. I would point you specifically to language passed in 
the Fiscal Year 2018 NDAA (section 909) that provisionally authorizes 
the DOD CIO to set standards for and certify capabilities on DOD 
networks. This provision could be interpreted to make an official 
outside the military chain of command responsible for determining which 
capabilities a Joint Force commander can employ to perform his 
missions, and interpose another layer of review and delay in a 
development and acquisition process that greatly needs speed and 
agility.
    To explain my reasoning here, the DODIN is equivalent to a joint 
security area in the terrain of cyberspace--essentially a set of bases 
and communications assets that enable and facilitate operations and 
mission accomplishment by the entire Joint Force. I am responsible for 
the security, operation, and defense of this joint security area, and 
my ability to accomplish that mission is affected daily by the ever-
shifting dynamics on the physical, logical, and personal levels that 
together constitute its terrain. I must both protect this terrain 
against potential threats and defend it against specific threat actors. 
The design, fielding, and operation of DOD information technology 
directly affects how I can move and maneuver to defend the DODIN, and 
thus the degree of risk that I must assume (and indirectly the degree 
of risk imposed on the entire Joint Force). As the commander, I should 
be the decision-maker for accepting and managing operational risks on 
the DODIN. It would also help for me to have a significant degree of 
influence in the development, adaptation, policy, and standards of DOD 
information technology, networks, and cyberspace capabilities.
    Our second major mission objective is to defend the United States 
against cyber threats to U.S. interests and infrastructure. We are 
concerned that many such cyber attacks now occur below the threshold of 
the use of force and outside of the context of armed conflict, but 
cumulatively accrue strategic gains to our adversaries. The United 
States must continuously and persistently engage and contest cyber 
attacks, in order to reset adversary expectations about our behavior 
and commitment. The Secretary's new National Defense Strategy speaks to 
this point in discussing the Global Operating Model for the Joint 
Force, in which cyber is a foundational capability that remains in 
contact with adversaries ``to help us compete more effectively below 
the level of armed conflict.'' Through consistent action, and in 
coordination with interagency partners, we can influence the calculus 
of hostile actors, deter malicious cyber activities, and clarify the 
distinction between acceptable and unacceptable behavior in cyberspace. 
Cyber capabilities can also disrupt and potentially deter non-cyber 
threats as well.
    The importance of cyberspace for our nation's security and 
prosperity demands unified responses across departments and agencies 
regardless of sector or geography. Cyber capabilities should be 
integrated with plans and operations across all domains to influence 
and shape adversary behavior, in preparation for and during joint 
operations in a conflict, as well as outside of situations of armed 
conflict.
    Equally integral to defending the nation against cyber attacks is 
collective defense and collaboration with our allies and partners, both 
domestically and abroad. USCYBERCOM facilitates whole-of-government 
planning. We are helping DOD increase collective situational awareness 
through our collaboration with partners like the Department of Homeland 
Security (DHS), the FBI, the Department of State, and other departments 
and agencies. Working with our interagency partners, we have also 
matured our collaboration with key critical infrastructure sectors. 
Such collaboration allows us to better understand events and trends in 
cyberspace. USCYBERCOM has established interagency coordination 
processes to foster intelligence sharing between the headquarters 
directorates and other United States Government entities.
    As a functional combatant command, USCYBERCOM has the authority to 
engage directly with foreign partner equivalents as well. USCYBERCOM 
has deployed liaison officers to key foreign partners, and is crafting 
agreements to broaden collaboration and interoperability. Strengthening 
our foreign partnerships has paid dividends in recent years by 
increasing our capabilities and capacity. Command elevation will allow 
USCYBERCOM to mature such partnerships, building relationships and 
trust that will help us and our partners in shaping the cyberspace 
domain. We note here our support for the provision (Sec. 1239A) in the 
NDAA for fiscal year 2018 that would boost cybersecurity cooperation 
with NATO and European partners to thwart malign influence by Russia.
    USCYBERCOM performs the third of its major missions by enabling 
Joint Force commanders to deliver the effects they require in and 
through cyberspace. We see an ever-increasing demand from the combatant 
commanders for support; cyber effects ensure the Joint Force can 
project power, enhance its lethality, and defend its command and 
control. Our Joint Task Force Ares has given important supporting fires 
to USCENTCOM and USSOCOM in the campaign to defeat ISIS on the ground 
in Iraq and Syria. We learned many lessons from that fight, 
particularly regarding intelligence in the battlespace and the broad 
applicability of traditional targeting processes in the cyber domain. 
Perhaps the most important takeaway from our experience was how to 
build the right processes to integrate cyberspace operations as one 
piece of a complex and coordinated multi-domain military campaign. I 
have directed our components to apply these and related lessons as we 
transition our temporary, joint task force model for fighting ISIS in 
cyberspace to an analogous and enduring construct that addresses the 
threat of violent extremism worldwide.
    In supporting Joint Force commanders, USCYBERCOM is working to 
synchronize the planning and operations of cyber forces as ``high-
demand/low density'' assets. Two Secretaries of Defense have now 
endorsed this change in how our cyberspace assets are managed. The new 
construct provides the Commander of USCYBERCOM the authority to balance 
risk across the Joint Force by focusing cyber capacity where it is most 
needed, both in time and space. This strategic approach to military 
cyberspace assets will allow us to deter and respond to or preempt 
cyber threats in all phases of conflict and to synchronize cyberspace 
operations globally. We are building this concept into USCYBERCOM's 
operational and contingency plans.
    The Chairman of the Joint Chiefs of Staff furthered this goal by 
updating the cyberspace operations command and control framework last 
fall, directing that USCYBERCOM establish Cyber Operations--Integrated 
Planning Elements (CO-IPEs) at each Combatant Command. We hope to have 
all of these new units at full operational capability within the next 
five years to plan, synchronize, integrate, and de-conflict cyberspace 
operations with Combatant Command plans and operations. CO-IPEs will be 
in direct support to combatant commanders but will remain under my 
command and under the administrative control of USCYBERCOM's Service 
components. USCYBERCOM is leading the planning effort to establish the 
CO-IPEs. The size and configuration of the CO-IPEs will naturally vary 
to best fulfill the mission requirements of their host commands; in 
most cases they will have fewer than 40 people. USCYBERCOM will monitor 
the Services' progress in standing up their respective CO-IPEs and 
provide guidance to synchronize their efforts.
    Success in our missions depends on a trained and ready force. It 
sounds unoriginal to call people our most valuable resource, but for 
USCYBERCOM that old saying is true. I must thank Congress for recently 
increasing our agility in shaping our workforce; the new Cyber Excepted 
Service will help us recruit, manage, and retain cyber expertise in a 
highly competitive talent market. We are rapidly preparing to bring in 
talented people. With support from the NDAA, the Services have the 
ability to directly commission cyberspace operations officers, the 
first of whom will be entering the force early this year. As for our 
valuable civilian technical experts, we are using the ability to 
directly hire uniquely skilled people to strengthen our team. I also 
note that the Services will lead the cyber training mission in fiscal 
year 2019 as they take over the training functions that USCYBERCOM has 
performed in recent years. We have been preparing for that development 
for some time, and believe the transition will be seamless.
    USCYBERCOM's success in cyberspace reflects a total force effort 
with fully integrated Reserve and National Guard cyber warriors who are 
trained to the same joint standard as the regular force. In our 
headquarters at Fort Meade, we employ more than 300 full-time and part-
time reservists, providing support for intelligence, operations, 
planning, training, and cyber capability development. An additional 
more than 150 Reserve and National Guard members mobilize continually 
to lead and execute operations in support of CNMF and Joint Task Force 
Ares. The Reserve Component is especially valuable because Reservists 
often bring cyber skills from the private sector; many others come to 
us with insights from extensive federal or state government experience. 
In addition, the U.S. Army's Reserve and National Guard are building 21 
Cyber Protection Teams (CPTs), with plans to reach full operational 
capability by fiscal year 2024. These Reserve Component Soldiers are in 
the fight today. For example, an all-Army National Guard team named 
Task Force Echo is made up of Soldiers from seven states and has been 
on-mission since last year, providing essential cyberspace support to 
our operations.
    By the end of this summer, three National Guard and Reserve teams 
will achieve full operational capability. While that number in itself 
appears small, the Reserve Component's strength lies within its surge 
capacity. A significant portion of the Air Force Cyber's contribution 
will draw on more than a thousand Reserve Component members.
    Recent events illustrated a need for improved coordination between 
Active Duty and Reserve Component cyber forces for domestic response. 
Future training partnerships between USCYBERCOM, the Reserve Component, 
state, local, and tribal governments, along with interagency partners, 
enable these core missions by empowering operations that target the 
threat outside the United States while allowing law enforcement and 
state authorities to defend against the threat within the Homeland.
    Making all this work will require sustained training and exercises. 
USCYBERCOM personnel, both Active Duty and Reserve Component, hone 
their skills and their teamwork through increasingly realistic exercise 
scenarios and simulated network environments. This June, we will re-
focus our annual Cyber Guard exercise from certifying tactical teams to 
validating our operational concepts. This year's planning takes account 
of state governors' and National Guard Adjutant Generals' concerns 
about protecting critical assets. It will be a true operational-level 
command exercise. Both our Cyber Guard and Cyber Flag will include more 
players from the other Combatant Commands, as well as whole-of-
government and industry participants to evaluate cyber capabilities in 
a Defense Support to Civil Authorities scenario involving foreign 
intruders in the nation's critical infrastructure. We have synchronized 
our efforts with the Chief of the National Guard Bureau and his Cyber 
Shield exercise as well as with our DHS partners and their Cyber 
Prelude exercise. Our exercises, moreover, have each year included a 
wider range of foreign partners in offensive and defensive cyber 
operations.
    Finally, we also need to give good people good tools. In this 
regard, we are using our new acquisition authorities (conferred in the 
NDAA for fiscal year 2016), and executed our first such acquisition 
when we awarded a contract for IT executive research services in 
September 2017. The award was valued at over $500,000 and demonstrated 
that USCYBERCOM can acquire services and capabilities required to equip 
the Cyber Mission Force. Moreover, USCYBERCOM also delivered the first 
of several foundational tool kits enabling the CMF to work against 
adversary networks while reducing risk of exposure; its organic 
development team equipped JTF-Ares with capabilities to disrupt and 
influence adversary use of social media. We also thank the Congress for 
the provisions of the NDAA for fiscal year 2018 (section 1642), which 
requires USCYBERCOM to evaluate new, faster, and more agile development 
processes for cyber capabilities. We have a team focused on this task, 
and they should be ready to report their findings to the Secretary 
within the period stipulated in the Act.
                               conclusion
    Thank you again for inviting me to appear before you today to 
represent U.S. Cyber Command, and for all the times you have allowed me 
to do so over the past four years. Serving as Commander of USCYBERCOM 
has been the highlight of my military career. The Command has 
accomplished a great deal in the last four years, operationalizing the 
cyber mission space and making what seemed nearly impossible in 2014 
look almost routine in 2018. Indeed, I have seen dramatic progress in 
just the past year as the Command matures and prepares for unified 
combatant command status. All this has been achieved because of the 
extraordinary talents and efforts of the men and women of USCYBERCOM 
and those of our mission partners. They are great people, and you 
should be so proud of them.
    Your support has been of enormous help to the Command's maturation, 
and remains vital to the work that we perform on behalf of our nation. 
As you have surely gathered from my comments, we have big tasks ahead 
of us, and your continued assistance could make the difference between 
mission success and less satisfactory outcomes. I am confident in the 
ability and the drive of our people to accomplish the tasks before 
them, just as I have never wavered in my trust in your support for 
USCYBERCOM. Now I look forward to your questions.

    Senator Inhofe. Thank you, Admiral Rogers.
    Well, in my opening statement, I addressed this--the three 
agencies' approach that we have responsible for defending 
against the attacks. We have the FBI as the lead for law 
enforcement; the Department of Homeland Security is the lead 
for critical infrastructure and defending government computer 
networks; and, thirdly, the Department of Defense as the lead 
for defending the Homeland, defending military computer 
networks, and developing and employing military cyber 
capabilities. So, you've got the DOD, the DHS, and the FBI. No 
one agency--no one agency--has all the authorities required to 
defend and protect the Homeland. So, did we set it up wrong to 
start with? What needs to be done to encourage a more whole-of-
government--you mentioned that in your opening statement--
combating the cyberthreats that are out there?
    Admiral Rogers. So, I think the challenge, as I look at the 
problem set--and I'm looking at it from the perspective of an 
operational commander--``How do we execute and generate 
outcomes,'' if you will? I think it's less an issue of people 
not understanding what their respective roles are within the 
structure you outlined. Instead, I think the challenge is, 
``How do we integrate those capabilities into a tighter hole, 
if you will, that's really optimized to execute at the day-to-
day level?'' I think that's the area where I look at the 
future, and, as I--you know, during my--with my 
responsibilities as Commander of Cyber Command, that's where 
I'd like to see us focus our efforts. How do we get down to 
integrated structures and organizations at the execution level? 
Because that's where you get speed. One of the challenges with 
the current structure--as I said, while I think people 
understand their respective roles, it is not optimized for 
speed and agility. One of the things that I see in the world 
we're living in right now, we have got to get faster and we 
have got to be more agile.
    Senator Inhofe. Yeah. The--there's a lot of discussion 
about the gaps and seams that exist between each leg of the 
whole-of-government approach. Now, our adversaries will seek to 
exploit those gaps and seams, and the confusion that follows an 
attack as various agencies and departments grapple with the 
scattering of authorities needed to respond. What are the most 
dangerous gaps and seams, as you look at them?
    Admiral Rogers. So, for right now, the time it takes to 
deploy capability, the time that it takes to coordinate a 
response across multiple organizations, when those well-meaning 
and hard-working organizations are existing in separate 
structures, that's not optimized for speed. To me, what I think 
the biggest challenge for us is, ``How do we integrate this 
more at an execution level?'' I understand there's a broader 
policy issue here, and a broader legal framework. That's not my 
role as an operational commander. But, where I see the need for 
speed and agility is really when it gets down to----
    Senator Inhofe. Is someone working on that now?
    Admiral Rogers. Oh, there's an ongoing dialogue about, ``So 
what's the right way ahead?'' Now, again, I'm the operational 
commander, so I have a voice in that----
    Senator Inhofe. Maybe we have too many people in that.
    Admiral Rogers.--in that process. There's no lack of 
opinions on this topic.
    Senator Inhofe. Yeah. Lastly, you had said previously--and 
I'm quoting now--``Offensive cyber, in some ways, is treated 
almost like nuclear weapons, in the sense that their 
application outside of defined area of responsibilities is 
controlled at the chief executive level; it is not delegated 
down.'' Has anything changed under this new administration----
    Admiral Rogers. So, we're currently--again, I don't want to 
speak for the policy side, but I will acknowledge we are 
currently in a policy discussion on this very issue. You know, 
the Secretary of Defense has been very aggressive in 
articulating this concerns him. There's an ongoing discussion 
at the moment that I hope is going to come to a way ahead in 
the near term. Again, I will get an input into that, as the 
operational commander. I'm not the primary decisionmaker, here. 
I understand what my role is.
    Senator Inhofe. All right, good.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Again, thank you, Admiral Rogers, for not only your 
testimony, but your service.
    I have a series of questions, and I think they require 
just, sort of, yes-or-no answers.
    The mission of National Mission Teams under DOD 
cyberstrategy is to blunt cyberattacks against the United 
States of, quote, ``significant consequence.'' Is that 
accurate?
    Admiral Rogers. Yes.
    Senator Reed. Okay. Russia's----
    Admiral Rogers. Although, if I could, I'd phrase it as, 
that's an accurate mission for Cyber Command. We haven't 
actually defined it specifically down on the team level. But, I 
understand the point you're trying to make, sir.
    Senator Reed. Now, is Russia's ongoing campaign to steal 
and leak confidential information from our candidates' 
political parties to plant and amplify misinformation in social 
media, to break into State election board networks, of 
significant consequence to our national security?
    Admiral Rogers. Certainly, if successful.
    Senator Reed. Yes. Do you agree with DNI Coats' testimony 
that they will continue to conduct cyber operations to achieve 
strategic objectives unless they face clear repercussions?
    Admiral Rogers. Yes, sir, that was my testimony, as well, 
in that hearing.
    Senator Reed. Is Russia attempting to achieve its strategic 
objective by influencing United States public opinion in 
elections?
    Admiral Rogers. Yes, sir, I believe they are attempting to 
undermine our institutions.
    Senator Reed. Now, aside from our intelligence agencies 
operating under a presidential finding, are there any other 
organizations, other than the Cyber Command's Cyber Mission 
Forces, that have the authority and capability to disrupt 
Russian election hacking operations where they originate? Do 
the FBI, DHS, or the States, the private sector, have such 
authorities or capabilities?
    Admiral Rogers. You could argue, probably, only that--
again, that there's a legal aspect to this that I'm not the 
most qualified--but, probably you'd argue some combination of 
DOD/DOJ [Department of Justice] have the standing authority in 
that regard.
    Senator Reed. But, the mission teams, particularly at the 
origin of these attacks, have the authority to do so.
    Admiral Rogers. If granted the authority. I don't have the 
day-to-day authority to do that. If granted the authority.
    Senator Reed. So, you would need, basically, to be directed 
by the President, through the Secretary of Defense----
    Admiral Rogers. Yes, sir, as I--in fact, I mentioned that 
in my statement.
    Senator Reed. Have you been directed to do so, given the 
strategic threat that faces the United States and the 
significant consequences you recognize already?
    Admiral Rogers. No, I have not. But, if I could flesh this 
out, I'll say something in an open, unclassified. I'd be glad 
to go into more detail----
    Senator Reed. Yes, sir.
    Admiral Rogers.--in a classified.
    Based on the authority that I have as the Commander, I have 
directed the National Mission Force to begin some specific 
work--I'd rather not publicly go into that----
    Senator Reed. Right.
    Admiral Rogers.--using the authorities that I retain as a 
commander in this mission space.
    Senator Reed. So, it's inherent in the ability of a 
commander to prepare, plan----
    Admiral Rogers. Yes, sir.
    Senator Reed.--and structure. But, you need the--you need 
direct authority of the President, through the Secretary of 
Defense----
    Admiral Rogers. To do some specific things.
    Senator Reed. Some specific authority.
    Admiral Rogers. There are some things I have the authority, 
and I am acting within that authority now----
    Senator Reed. But, where you--essentially, we have not 
taken on the Russians yet. We're watching them intrude in our 
elections, spread misinformation, become more sophisticated, 
try to achieve strategic objectives, as you have recognized, 
and we're just, essentially, sitting back and waiting.
    Admiral Rogers. I don't know if I would characterize it as 
``we're sitting back and waiting,'' but I will say it's 
probably--and again, I apologize, I don't want to----
    Senator Reed. Right.
    Admiral Rogers.--get into the classified here--it's 
probably fair to say that we have not opted to engage in some 
of the same behaviors that we are seeing, if I could just keep 
it----
    Senator Reed. No, I--it's--one searches for, sort of, 
historical analogies, but, you know, we have, in the past, seen 
threats building, but, at some point, particularly when they've 
manifested----
    Admiral Rogers. Sir.
    Senator Reed.--themselves, which they already have in 2016, 
we've taken action, that we've not just continued to watch.
    Admiral Rogers. Right. No, we are doing some things.
    Senator Reed. Let's go back to the--in the brief time I 
have remaining--the issue that is, I think, consistent 
throughout your testimony and the Chairman's comments. That is, 
the technological aspects, which you do pretty well, and the 
cognitive issues, you know, the message versus the medium, we 
are all over the place, in terms of fragmentation. Is there any 
effort to pull that together? Let me, maybe, focus on a 
specific point. You know, you're trying, within DOD, to sort of 
get everybody lined up, then the SECDEF [Secretary of Defense] 
and the administration are trying to line up all the other 
parts. There's one--and I--from my experience in banking, the 
Treasury Department has a--which is designed to do--be 
disruptive of financial transactions, designed to--you know, 
it's not just ideas, it's money that motivates the----
    Admiral Rogers. Yes, sir. Yes, sir.
    Senator Reed. So, in your view, are you coordinating with 
them adequately? Two, do they have adequate resources on their 
own to be an effective force to disrupt illegal financing and 
to monitor sanctions?
    Admiral Rogers. So, I'm not knowledgeable enough about the 
specific level of capability and resources, but I will say we, 
both Cyber Command and NSA as well, spend a lot of time working 
with our Treasury counterparts about developing insights and 
knowledge through cyber and other means that give them insight 
that enable them to take action.
    Senator Reed. Do you think they're effective?
    Admiral Rogers. Oh, I think the economic broader efforts 
that I've seen undertaken are positive. You've seen them 
against a wealth--a host of actors out there.
    Senator Reed. Thank you.
    Senator Inhofe. Since a quorum is now present, I'd ask the 
committee consider a list of 1,288 pending military 
nominations. All of these nominations have been before the 
committee the required length of time.
    Is there a motion to favorably report this list of 1,288 
pending military nominations?
    Senator Reed. So move.
    Senator Wicker. Second.
    Senator Inhofe. Okay, second.
    All in favor, say aye.
    [A chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No response.]
    Senator Inhofe. The motion carries.

    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on February 27, 
                                 2018.
     1.  In the Army there is 1 appointment to the grade of colonel 
(Devry C. Anderson) (Reference No. 1154)

     2.  In the Air Force there is 1 appointment to the grade of 
brigadier general (Lee H. Harvis) (Reference No. 1221)

     3.  In the Air Force there are 25 appointments to the grade of 
major (list begins with Paul Obi Amaliri) (Reference No. 1235)

     4.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Henry J. Kennedy) (Reference No. 1246)

     5.  In the Navy there is 1 appointment to the grade of captain 
(John A. Mills) (Reference No. 1302)

     6.  In the Air Force Reserve there are 24 appointments to the 
grade of brigadier general (list begins with Michael L. Ahmann) 
(Reference No. 1449)

     7.  In the Air Force Reserve there are 5 appointments to the grade 
of brigadier general (list begins with Christopher R. Alderdice) 
(Reference No. 1450)

     8.  In the Marine Corps Reserve there are 3 appointments to the 
grade of brigadier general (list begins with Timothy L. Adams) 
(Reference No. 1459)

     9.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Lonnie M. McGhee, Jr.) (Reference No. 1494)

    10.  In the Air Force there are 17 appointments to the grade of 
lieutenant colonel (list begins with Carl P. Bhend) (Reference No. 
1502)

    11.  In the Air Force there are 56 appointments to the grade of 
colonel (list begins with Steven J. Acevedo) (Reference No. 1503)

    12.  In the Air Force there are 289 appointments to the grade of 
major (list begins with Nataliya A. Ables) (Reference No. 1504)

    13.  In the Air Force there are 67 appointments to the grade of 
major (list begins with George Z. Aberth) (Reference No. 1505)

    14.  In the Air Force there are 121 appointments to the grade of 
lieutenant colonel (list begins with Kevin D. Alford) (Reference No. 
1506)

    15.  In the Air Force there are 6 appointments to the grade of 
colonel (list begins with Ann E. Alexander) (Reference No. 1507)

    16.  In the Army there are 90 appointments to the grade of major 
(list begins with Andrew A. Arndt) (Reference No. 1508)

    17.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Tyler M. Abercrombie) (Reference No. 1509)

    18.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Randolph S. Carpenter) (Reference No. 1510)

    19.  In the Army there is 1 appointment to the grade of major 
(Angel Soto) (Reference No. 1511)

    20.  In the Army there are 2 appointments to the grade of 
lieutenant colonel (list begins with Matthew C. Dawson) (Reference No. 
1512)

    21.  In the Navy there is 1 appointment to the grade of captain 
(Eric C. Correll) (Reference No. 1513)

    22.  In the Air Force there are 3 appointments to the grade of 
major general (list begins with John J. DeGoes) (Reference No. 1550)

    23.  BG Jeffrey P. Kramer, ARNG to be major general (Reference No. 
1552)

    24.  RADM(lh) Gordon D. Peters, USN to be vice admiral and 
Commander, Naval Air Systems Command (Reference No. 1553)

    25.  RADM Brian B. Brown, USN to be vice admiral and Commander, 
Naval Information Forces (Reference No. 1554)

    26.  In the Air Force there is 1 appointment to the grade of 
colonel (David J. Caswell) (Reference No. 1557)

    27.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Bruce P. Heseltine) (Reference No. 1558)

    28.  In the Air Force there are 2 appointments to the grade of 
lieutenant colonel and below (list begins with Michael T. Cain) 
(Reference No. 1559)

    29.  In the Air Force there are 3 appointments to the grade of 
lieutenant colonel and below (list begins with Kerry L. Hirzel) 
(Reference No. 1560)

    30.  In the Air Force there is 1 appointment to the grade of major 
(Miguel J. Morales) (Reference No. 1561)

    31.  In the Air Force there are 3 appointments to the grade of 
major (list begins with Julie A. Bowman) (Reference No. 1562)

    32.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Thomas A. Summers) (Reference No. 1565)

    33.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Christina M. Buchner) (Reference No. 1566)

    34.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Marcia L. Lewis) (Reference No. 1567)

    35.  In the Army there is 1 appointment to the grade of colonel 
(Jack E. Shields III) (Reference No. 1568)

    36.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Jerzy M. Matyszczuk) (Reference No. 1569)

    37.  In the Army Reserve there are 8 appointments to the grade of 
colonel (list begins with Alecia D. Biddison) (Reference No. 1570)

    38.  In the Army Reserve there are 10 appointments to the grade of 
colonel (list begins with Joseph W. Bishop) (Reference No. 1571)

    39.  In the Army there is 1 appointment to the grade of major 
(Jennifer L. White) (Reference No. 1572)

    40.  In the Army there is 1 appointment to the grade of major 
(Patrick E. Mather) (Reference No. 1573)

    41.  In the Army there are 4 appointments to the grade of colonel 
(list begins with Luis G. Fuchu) (Reference No. 1574)

    42.  In the Army there is 1 appointment to the grade of major 
(Olivia H. Ivey) (Reference No. 1576)

    43.  In the Army there is 1 appointment to the grade of major (Han 
S. Kim) (Reference No. 1577)

    44.  In the Army there is 1 appointment to the grade of colonel 
(John E. Richardson) (Reference No. 1578)

    45.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Paul A. White) (Reference No. 1579)

    46.  In the Army Reserve there are 4 appointments to the grade of 
colonel (list begins with Robert T. Carter, Jr.) (Reference No. 1580)

    47.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Jamal L. Headen) (Reference No. 1584)

    48.  In the Navy there are 44 appointments to the grade of 
lieutenant commander (list begins with Patrick P. Arrigo) (Reference 
No. 1585)

    49.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Jessica M. Ferraro) (Reference No. 1586)

    50.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Vijay M. Ravindra) (Reference No. 1587)

    51.  In the Navy there is 1 appointment to the grade of captain 
(Elisabeth S. Stephens) (Reference No. 1589)

    52.  In the Marine Corps there are 7 appointments to the grade of 
lieutenant colonel (list begins with Michael E. Feuquay) (Reference No. 
1591)

    53.  Col. John J. Allen, USAF to be brigadier general (Reference 
No. 1593)

    54.  Col. Todd M. Lazaroski, USAR to be brigadier general 
(Reference No. 1595)

    55.  In the Air Force there are 375 appointments to the grade of 
colonel (list begins with Marc M. Adair) (Reference No. 1599)

    56.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Kyle R. Stiefel) (Reference No. 1602)

    57.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Adam C. Miller) (Reference No. 1603)

    58.  In the Army there is 1 appointment to the grade of colonel 
(Mathew M. Condry) (Reference No. 1604)

    59.  In the Army there are 45 appointments to the grade of 
lieutenant colonel (list begins with David A. Amamoo) (Reference No. 
1605)

    60.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Jason B. Yenrick) (Reference No. 1606)

    61.  In the Marine Corps there are 7 appointments to the grade of 
major (list begins with Shawn P. Chabot) (Reference No. 1607)

    62.  In the Marine Corps there are 5 appointments to the grade of 
major (list begins with Enrique Luz, Jr.) (Reference No. 1608)

    63.  In the Marine Corps there are 4 appointments to the grade of 
major (list begins with Jeffrey A. Bryant) (Reference No. 1609)

    64.  In the Marine Corps there are 2 appointments to the grade of 
major (list begins with Andrew E. Cheatum) (Reference No. 1610)

    65.  In the Marine Corps there are 4 appointments to the grade of 
major (list begins with Brian K. Evans) (Reference No. 1612)

    66.  In the Marine Corps there are 3 appointments to the grade of 
major (list begins with Daniel H. Flick) (Reference No. 1613)

    67.  In the Marine Corps there are 2 appointments to the grade of 
major (list begins with Ezra H. Bardo) (Reference No. 1614)

    68.  In the Marine Corps there are 2 appointments to the grade of 
major (list begins with Matthew C. Pampush) (Reference No. 1615)

    69.  In the Marine Corps there are 2 appointments to the grade of 
major (list begins with Odin Pineda) (Reference No. 1616)

    70.  In the Army there is 1 appointment to the grade of major 
(David R. Addams) (Reference No. 1626)

    71.  In the Army there is 1 appointment to the grade of major 
(Pankaj A. Ksheersagar) (Reference No. 1627)

    72.  In the Army there is 1 appointment to the grade of major 
(Michael P. Sargent) (Reference No. 1628)

    73.  In the Army there is 1 appointment to the grade of major 
(Nicholas E. Hurd) (Reference No. 1630)

    74.  In the Army there is 1 appointment to the grade of major 
(Michael C. Agbay) (Reference No. 1631)

    75.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Jay A. Iannacito) (Reference No. 1632)

    76.  In the Marine Corps there are 2 appointments to the grade of 
major (list begins with Natalie E. Moore) (Reference No. 1633)

_______________________________________________________________________
                                                                    
TOTAL: 1,288

    Senator Ernst?
    Senator Ernst. Thank you. Thank you, Mr. Chair.
    Admiral Rogers, in your opening statement, you rightly 
noted the importance of National Guard and Reserve cyber 
warriors. Many of those young men and women bring critical 
cyber skills from the private sector. Very, very important. 
However, you don't mention how or if the DOD plans to track 
cyber capabilities found in the National Guard and Reserve 
Force. We've had this discussion before. But, in 2016, the 
Government Accountability Office report found that ``National 
Guard units have developed capabilities that could be used, if 
requested and approved, to support civil authorities in a cyber 
incident. However, the Department of Defense does not have 
visibility of all National Guard units' capabilities for this 
support,'' end quote.
    Last year, I introduced legislation, along with my 
committee colleagues, Senators Gillibrand and Senator Fischer, 
to correct this oversight. Unfortunately, it wasn't included in 
the final version of the 2018 NDAA [National Defense 
Authorization Act]. As of July of 2017, DOD has not complied 
with the GAO's [Government Accountability Office] 
recommendation.
    So, sir, how do you ensure Cyber Command is fully tapping 
into the expertise of our National Guard and Reserve units when 
the DOD doesn't have visibility of all of the capabilities 
within the National Guard? What more can we do to correct this 
at Cyber Command?
    Admiral Rogers. So, I try to work closely with General 
Lengyel and the National Guard Bureau, the National Guard team. 
I complement them. They just established and released a cyber 
strategy, for example, just last month, as a matter of fact. We 
were part of that dialogue about, so how do we make sure we're 
doing, you know, an integrated approach within the DOD here? 
This can't be an Active-only component or civilian-only 
component.
    As you and I have previously discussed the aspects of your 
question, in some ways, you know, we're beyond, you know, my 
immediate responsibilities. What I've tried to work with the 
National Guard Bureau is, ``So how do we create a structure 
that enables us to access the full range of capability?'' Not 
just units, but, to your point, ``Hey, how do you get down to 
the individual bubble?''
    It's similar, in many ways--putting on my other hat, 
Director of NSA--we've tried to do the same thing over time for 
language. Many people in the Department have language skills 
that have no connection with whatever their job is that we've 
trained them to do. I'm trying to see, ``Can we do the same 
thing over time with the Guard and the Reserve?''
    Senator Ernst. Certainly. An additional identifier or 
something----
    Admiral Rogers. Right.
    Senator Ernst.--that can be tracked. I think we really need 
to focus on that much more so than we have done in the past, 
just because of the continuing threat that we see in cyber out 
there. You know, as--kind of along this same theme, though, it 
is such an important part of our national defense, and we're 
going to have to continue to improve our capabilities and 
readiness in this area. If you could, in just the couple of 
minutes that I have left, what more can we do to make sure that 
we have an adequate pool of really talented individuals that 
can step up into these fields? We've seen, at large, military 
recruiting has been very difficult, even for our regular 
branches of service. So, what can we do to make sure that we 
are filling the gap with qualified individuals that meet the 
requirements of today's military?
    Admiral Rogers. So, first, to me, you've got to look at it 
as an ecosystem and realize there's different components to 
this cyber population, from civilians to Active military to 
Guard and Reserve. Each one of those components has different 
attributes. So, one of the things we need to do is come up with 
solutions that optimize for each of these subpopulations. So, 
the Congress, for example, with the Civilian Excepted Service, 
the CES, effort, that's a big positive for us on the civilian 
side. On the DOD side, the Services are--for Active, are 
working through, ``So, you know, are there other compensation 
tools, for example, that we can use?'' ``Are there other things 
we need to do in terms of the commitment we make to individuals 
when they first enlist or get commissioned, in terms of, `Can 
we align them early on and offer them extended service in the 
cyber arena?' ''
    On the Guard and Reserve, it's a similar kind of thing, 
though one--it goes to your point--the one thing I've--it's 
been a little while since I had this conversation with General 
Lengyel, but, outside the Army Guard and the Army Reserve and 
the National Guard, the other Services tend to use Reserves on 
a cadre status, as opposed to units. One of the things that I'm 
trying to work with my Guard teammates on, ``Is there a way to 
both use the unit structure that's traditional within the 
Guard, but also maybe a cadre kind of thing?'' That gets to 
your point about, ``How do we access individual skills?'' We 
are clearly not there yet, but I'm wondering, ``Is that a part 
of the future structure that we need to be looking at, that we 
haven't, to date?''
    Senator Ernst. Right. Thank you. My time is expired, but 
certainly this is an issue we need to wrangle with and make 
sure that we're coming up with an appropriate answer.
    So, thank you, Admiral, very much.
    Senator Inhofe. Thank you.
    Senator Nelson.
    Senator Nelson. Admiral, thank you for your public service, 
your long service. We wish you well in retirement.
    Since Senator Rounds is not here, I will speak for him, in 
that we have the privilege of leading the Cyber Subcommittee. I 
want you to know that we think the public sector in the 
Department of Defense are woefully unprepared and split and 
segmented and not coordinated to be able to handle now what is 
one of the greatest threats to our national security, the 
cyberattacks that constantly come. We feel that about the 
private-sector community, as well.
    Now, having said that, Mr. Chairman, I want to enter into 
the record a letter that Senator Blumenthal, Senator Shaheen, 
and I sent to the Secretary of Defense, February the 6th. One 
of the things that we ask is that the National Mission Teams, 
which are part of U.S. Cyber Command's Cyber Mission Force, 
should be ordered to prepare to engage Russian cyber operators 
and disrupt their activities as they conduct clandestine 
influence operations against our forthcoming elections.
    Would you enter that into the record, Mr.----
    Senator Inhofe. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Nelson. Now, Admiral, let me ask you. Is there any 
question in your mind that they have--they, the Russians----
    Admiral Rogers. Russians.
    Senator Nelson.--have conducted these kind of activities 
against our past election?
    Admiral Rogers. No, sir.
    Senator Nelson. Okay. In an answer to Senator Reed, you had 
said, ``Yes, if the Russians were successful,'' as if there was 
some doubt in your mind that they had been successful. That's 
not the case----
    Admiral Rogers. No, sir, I apologize. The point I was 
trying to make--the quote that Senator Reed used was from the 
strategy, where it talked about acts of ``significant 
consequence.'' I was trying to get to the ``consequence''----
    Senator Nelson. Okay. So----
    Admiral Rogers.--piece of the plan.
    Senator Nelson. So, we have been attacked, and there are a 
lot of us that feel like we are still being attacked and that 
we're going to be attacked, particularly with regard to our 
elections, which we consider as critical infrastructure. Let 
the record note that you nodded affirmatively. So, what's the 
holdup?
    Admiral Rogers. Well, I'd say there's a series of--and 
again, this is much broader than the DOD, much broader than 
Cyber Command--Department of Homeland Security is overall 
responsible for this--the election infrastructure within the 
segments that private--that have been identified as critical 
infrastructure. They're the sector lead. In fact, I've had this 
conversation with the Secretary of Homeland Security within the 
last couple of weeks about what we're doing to try to generate 
insights and knowledge to try to help their effort in their 
leadership role.
    Senator Nelson. Let me be appropriate and respectful----
    Admiral Rogers. What?
    Senator Nelson.--but let me interject, please, because time 
is fleeting.
    Admiral Rogers. Sir.
    Senator Nelson. Let's get--so, for someone who is looking 
out for the common defense of this country to say, ``Well, 
they've got the lead, and this is that, but I'm the Cyber 
Commander, and it's going to be a combatant command''--that 
doesn't cut it over here.
    Admiral Rogers. Yes, sir. The challenge for us is, we have 
this thing called the law and the legal framework that, right 
now, shapes what DOD can and cannot do.
    Senator Nelson. So----
    Admiral Rogers. I'm not trying to minimize that. It----
    Senator Nelson.--what do you need----
    Admiral Rogers.--certainly impacts me----
    Senator Nelson.--Admiral----
    Admiral Rogers.--as an operational commander.
    Senator Nelson.--what do you need, as the commander, to 
say, ``Go after and punish these guys that are trying to tear 
apart our critical infrastructure''? What do you need?
    Admiral Rogers. So, I'd need a policy decision that 
indicates that there is specific direction to do that. Then I 
would need--again, I'd have to tee up--the normal way we work 
this process, I would then be tasked to tee up some specific 
options. I'd rather not go into the specifics of any of that, 
and they would be reviewed by the Secretary, the chain of 
command. The Secretary ultimately would make a recommendation 
to the President as to what he, the Secretary's, views are 
here, and then, based on that, we'd be given specific 
direction, potentially, and specific authority.
    Senator Nelson. So, you need a direction and specific 
authority from the White House.
    Admiral Rogers. Right. The President ultimately would make 
this decision----
    Senator Nelson. From the President.
    Admiral Rogers.--you know, in accordance with a 
recommendation, in my experience, from the Secretary of 
Defense, and others. I would assume the Department of Homeland 
Security and others would be----
    Senator Nelson. So, the chain of command----
    Admiral Rogers. Yes, sir.
    Senator Nelson.--is what you need.
    Admiral Rogers. Sir.
    Senator Nelson. All right.
    Let the record reflect that we have written to the 
Secretary of Defense, February the 6th, and would appreciate an 
answer.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you?
    Senator Perdue?
    Senator Perdue. Thank you, Mr. Chairman.
    Admiral, thank you for your----
    Admiral Rogers. Sir.
    Senator Perdue.--decades of service. I remember your 
testimony last year. You've been nothing but consistent, 
talking about speed and agility. I hope, in retirement, you'll 
find a way to continue to nudge us toward that goal.
    I've got a question to follow up on a couple of questions 
we've already had today. Recently the Defense Science Board--
last year, actually--concluded--and there's a quote here: ``For 
at least the next decade, the offensive cyber capabilities of 
our most capable adversaries are likely to far exceed the 
United States ability to defend key critical infrastructures.'' 
Sir, do you agree with that conclusion?
    Admiral Rogers. I mean, we were a part of that effort with 
the DSB [Defense Science Board]. There is no doubt that, for 
right now, I would argue, technology favors the offense vice 
the defense. I mean, just what you're--the scope of what you're 
trying to defend, the scope of potential vulnerabilities or--
boy, it keeps you awake at night.
    Senator Perdue. So, the ability to preclude it is minimal, 
and you mentioned, last year----
    Admiral Rogers. Well, ``preclude it,'' from a technical 
standpoint.
    Senator Perdue. Yes.
    Admiral Rogers. But, then that gets into the whole broader 
question about, ``Are there other activities that could be 
brought to bear that would convince----''
    Senator Perdue. Well, that's my next question----
    Admiral Rogers.``--you know, on----''
    Senator Perdue.--is deterrence.
    Admiral Rogers. Yes, sir.
    Senator Perdue. You talked, last year, about deterrence. 
So, has our ability to deter these types of activities--you 
know, a nuclear attack, we deter by having the threat of mutual 
annihilation, right? So, in the cyber space, what is our 
deterrence capability today, relative to where we were a year 
ago? Is it adequate to defend against intrusion?
    I want to add to that, specifically, with--we've had these 
questions about election. In your mind, are we capable--the 
United States--of defending our election, this coming year?
    Admiral Rogers. Now, I'm not an expert on the electoral 
system, as a whole. I haven't personally looked at it as a 
target, so to speak, and asked myself----
    Senator Perdue. But, that--doesn't that speak to the issue? 
I mean, I know Homeland Security is charged with that.
    Admiral Rogers. Right.
    Senator Perdue. But, is their capability up to your 
capability, in Defense? Then you get inside DOD, you've got--
each service has their own growing capabilities. So, the 
question I have--and we've all talked around it here--is, ``So 
who's really in charge of getting the highest and best 
deterrence, detection, and preclusion capabilities regarding, 
let's just say, an election, as one part of our critical 
infrastructure?''
    Admiral Rogers. So, in our constitutional structure, States 
largely have overall responsible for the execution of an 
election process. Within the Federal Government, the Department 
of Homeland Security is overall responsible for providing 
government resources to assist the States in the execution and 
defense of that structure. Again, that is a DHS lead role. So, 
I don't--in my role as Cyber Command, I'd be the first to 
admit, I'm not talking to individual State officials about, 
``Walk me through what your structure is, give me your 
assessment of where you think you are.'' I'm trying to generate 
insights and knowledge now that help inform this with a 
readiness to--if directed, to potentially do more.
    Senator Perdue. You interact with DHS----
    Admiral Rogers. Oh, yes, sir.
    Senator Perdue. Okay.
    Second thing, following up on the deterrence capability. 
What are the menu of options that you, in the Department of 
Defense, can give the President, should he so choose to respond 
to the cyberattacks, if we--if we have a deterrent, then the 
question is, ``Is there a like response, similar response?'' 
What are the menus--what's included in the menu for the 
President?
    Admiral Rogers. So, the first point I would make is, number 
one, merely because someone comes at us in cyber doesn't mean 
we should automatically default to a, ``We have just to respond 
in kind.'' I have always urged, we need to think more broadly, 
look at the full range of levers and capabilities, as a Nation, 
that we----
    Senator Perdue. Have we ever responded in kind?
    Admiral Rogers. Oh, there are certain specific steps that 
have been taken over the course of the last couple of years. 
Again, to have an argument about--``is it sufficient or not? 
But, there have been some specific steps taken. And again----
    Senator Perdue. Well----
    Admiral Rogers.--I would rather not get into that----
    Senator Perdue. I understand that, and I wouldn't ask that 
in open----
    Admiral Rogers.--publicly.
    Senator Perdue.--an open hearing. But, it's pretty obvious 
to me, as one Senator sitting here, that the diplomatic efforts 
here are failing, that the activity is really one-sided----
    Admiral Rogers. Right. We're not where we need to be, or 
where we want to be. I don't think there should be any----
    Senator Perdue. No, and I want to--I now want to about, 
``What can we do about it?'' That is--go back to speed and 
agility. We're going to be about 1.8 million cyberwarriors 
short over the next 5 years. There's a----
    Admiral Rogers. As a nation----
    Senator Perdue.--as a country, both--in all three of 
these--FBI, DHS----
    Admiral Rogers. Right.
    Senator Perdue.--and DOD. So, the question is--we're not 
going to win that war against China, for example, in terms of 
the ability to put cyberwarriors in the field. The question is, 
``Where does--where do technology and, like, artificial 
intelligence come to bear?'' Where are we climbing that hill, 
in terms of--if this were a trigger puller, we'd stand up a 
number of soldiers against their soldiers, and all that. That's 
a historical--that's the----
    Admiral Rogers. Right.
    Senator Perdue.--the last war. The future war may be, you 
know, how to--who's got the best minds focused on artificial 
intelligence, robotics, et cetera, et cetera? Just on this 
specific case, where are we, in terms of artificial 
intelligence? How is that going to help us face the shortfall 
in cyberwarriors over the next 5 years?
    Admiral Rogers. So, we're clearly looking at what are the 
technical applications and capabilities out there that enable 
us to optimize the human capital piece of this, that are also--
I'm also interested in the fact, guys, as--to your point--we 
are not going to Industrial Age our way out of this----
    Senator Perdue. Right.
    Admiral Rogers.--with, well, it's just hire 10,000 more 
people.
    Senator Perdue. Right.
    Admiral Rogers. That's not going to get us----
    Senator Perdue. Right.
    Admiral Rogers.--where we need to be. That's not a 
sustainable strategy. Therefore, among the things we're looking 
at--and we're not the only ones--so how can you apply 
technology to help overcome the human capital piece?
    The other point I would make is, again, don't just focus on 
cyber versus cyber. How do we bring this broader range of 
capabilities in place to convince actors out there--nation-
states, criminals, nonstate actors--``You don't want to engage 
in this behavior, either because you're not going to succeed or 
because, quite frankly, even if you do succeed, the price you 
will pay will far exceed any benefit you might gain''?
    Senator Perdue. Yeah.
    Admiral Rogers. That's where we've got to get to.
    Senator Perdue. Yeah. Agree. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Admiral Rogers, thank you for your service. We will miss 
you when you retire.
    I want to follow up on both Senators Reed and Nelson's 
questions about the 2016 election and the action of the 
administration. I just want to be clear. As I understand, you 
said that President Trump has never ordered CYBERCOM to take 
any action to defend or thwart Russian attempts to meddle in 
the elections this fall. Is that correct?
    Admiral Rogers. So, I said I've never given--I've never 
been given any specific direction to take additional steps 
outside my authority. I have taken the steps within my 
authority, you know, trying to be a good proactive commander. 
Because my view is----
    Senator Shaheen. But, no one from the administration has 
asked you to take any additional steps. Is that correct?
    Admiral Rogers. I haven't been granted any, you know, 
additional authorities, capacity, capability. No, that's 
certainly true.
    Senator Shaheen. I understand that to be a confirmation of 
what I just said. Is that correct?
    Admiral Rogers. I thought that's what--I apologize.
    Senator Shaheen. Okay.
    Admiral Rogers. All right.
    Senator Shaheen. It's come to my attention that the 
Department of Defense contracts with IT [Information 
Technology] companies that share sensitive source code data 
with Russia and other hostile governments while they do 
business overseas, and that this practice risks exposing 
sensitive underlying codes within our national security 
platforms to hostile governments. As I understand, there aren't 
any safeguards, like disclosures, to protect against these 
risks. Can you confirm whether that's the case and what the 
role of CYBERCOM is in ensuring the safety and integrity of 
DOD's platforms?
    Admiral Rogers. Right. So, first, I have no--Cyber Command 
has no direct role with non-DODIN--with civilian users here, if 
you will. Now, having said that, I'm aware of this issue, and 
we have worked with others in the Department to try to address, 
``Okay, so what are some of our key vendors and providers 
doing, here?'' There have been several incidents where I've 
actually bore--dug into execution-level, ``Walk me through 
exactly what you've done with your code. Walk me through 
exactly who had access to it. I want to compare this version 
that you tell me you shared with them versus what we currently 
are using within the DOD.'' I've done that in a couple of 
instances.
    But, your point goes to--and several of you have raised it 
already--going to a broader dialogue about, what should the 
nature of the relationship be between the Department and its 
key infrastructure in this digital world that we're living in? 
It just forces us to step back and look at things very 
differently, to me. We never used to think about things, 10 
years ago, about, ``Who are you sharing source code with? You 
know, who are you doing your testing with?'' In the world we're 
living in now, those are the kinds of discussions that we've 
got to have. ``Who are your supply-chain providers?''
    Senator Shaheen. So, who has the responsibility to decide 
that? If it's not CYBERCOM, is it the Secretary of Defense?
    Admiral Rogers. So, the Defense Security Service has 
overall responsibility within the DOD for the interaction with 
our cleared defense contractors from a cybersecurity 
perspective. I will partner with DSS [Defense Security 
Service]. The FBI is also involved here. One of the discussions 
that currently I'm raising within the Department is--experience 
teaches us, I think, we need to step back and ask ourselves, 
``Do we have this model optimized?'' I won't go into the 
specifics, but there's a specific scenario we're working our 
way through right now that I'm trying to use as an example of: 
This is why we need to make some fundamental change. I'm glad 
to talk about that in a closed----
    Senator Shaheen. So, should CYBERCOM have that 
responsibility, or should someone else have it?
    Admiral Rogers. I don't know. Part--quite frankly, one of 
my challenges, you just look at the things we've talked about 
in the last 40 minutes, where you have said to me, ``Hey, why 
doesn't Cyber Command to do this? Why doesn't Cyber''--and I'm 
going--the challenge for us is about prioritization, aligning 
mission with resources, and trying to figure out what's our 
role with a broader set of partners? One of the points I try to 
make within the DOD is, ``Be leery about viewing Cyber Command 
as the end-all/be-all for everything.'' If we try to do 
everything, we're going to suboptimize ourselves, so we need to 
focus on one of the priority areas.
    Senator Shaheen. That makes sense to me, but the concern I 
have is who's in charge? Unless there's somebody who's 
responsible for coordinating activities for dealing with what 
Homeland Security is doing and what Cyber Command is doing and 
what DOD is doing and what the White House is doing, nobody's 
going to be in charge. And----
    Admiral Rogers. Yes, ma'am.
    Senator Shaheen. It seems to me that that's a challenge 
that we have right now. As you look at what our both defensive 
and offensive strategy is around cyber for the United States, 
do you believe that we have those--that strategy in place? 
Could you articulate that, either now or in a closed----
    Admiral Rogers. I mean, I believe----
    Senator Shaheen.--in a way that we can understand?
    Admiral Rogers.--I believe we have a structure in place, 
with well-defined responsibilities, but, as we said previously, 
my argument would be, I think experience is showing us that we 
need to be mindful--while we understand that structure, is it 
generating the outcomes that we want? My answer would be, 
``We're not where we need to be.'' So, that would argue, doing 
more of the same is not necessarily going to generate different 
outcomes. Even as I acknowledge I have a narrowly defined role, 
but I try to, along with others, act as a, ``Look, we need to 
focus on this area.''
    Senator Shaheen. Well, I would certainly agree. I don't 
think a structure and a strategy are the same thing. While we 
may have a structure in place, it doesn't seem to have produced 
a strategy that's easily understandable.
    Admiral Rogers. Ma'am.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman. That's a statement. I'm not asking 
for a response.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Good morning, Admiral. It's nice to see you.
    Admiral Rogers. Ma'am.
    Senator Fischer. Admiral, the NDS [National Defense 
Strategy] highlights Cyber's importance, I think, quite a bit. 
How does that National Defense Strategy's prioritization of 
long-term strategic competitions with Russia and China impact 
CYBERCOM's mission?
    Admiral Rogers. So, I like the fact that the strategy 
expressly calls out cyber as a domain. The strategy also 
expressly calls out the fact that we've got peer competitors 
and near-peer competitors in here that we have--within the 
cyber arena, that we have to be capable of dealing with. I also 
like the fact that the strategy specifically calls out 
competition--trying to remember the phrase--it's ``competition 
below conflict''--at a level below conflict, you know, the so-
called gray area--which I think is very powerful. That gray 
area goes to many--much of the discussion we've had so far this 
morning. This activity that is occurring, short of armed 
conflict, if you will, that is generating strategic advantage 
for others and not in our best interests. I like the fact that 
the strategy acknowledges we are living in a world where this 
is now becoming the norm, and we have got to figure out how 
we're going to deal with this.
    Senator Fischer. As we look at that continuing focus with 
our peer competitors--with Russia and China--I think that means 
we're going to have to do more with less, and we may see less 
of a focus on other areas, where, in the past, CYBERCOM's been 
very focused, whether it's with the global terrorists or with 
Iran and their proxies. So, with those tradeoffs, I think that 
brings a lot of risk. How do you propose that CYBERCOM and the 
Department are able to handle that type of risk?
    Admiral Rogers. So, within the last year, I and others made 
an argument, and the Secretary bought off on it, where I said, 
``Look, we need to increasingly treat Cyber Command as a high-
demand, low-density resource, where we have to acknowledge 
there's not enough capacity to do everything we want.'' So, we 
need a prioritization of a risk-based model about how we're 
going to allocate our capabilities. We've got to continually 
reassess this, just like we do with ballistic missile defense, 
with ISR [Intelligence, Surveillance, and Reconnaissance], with 
SOF [Special Operation Forces] forces. We shouldn't be viewed 
any differently.
    So, we put a new process in place. I just made an argument, 
and was granted authority, to reallocate some of our capability 
against some of the challenges you've already talked to me 
about within the last 40 minutes or so. That didn't exist--a 
year ago, that process didn't exist. It wasn't envisioned. The 
thought was the cyber forces that we had created would be 
permanently aligned. I argue that's not just going to--there's 
just not enough. It's not going to get us where we need to be.
    Senator Fischer. Do you see that increased focus on a high-
end fight--is that primarily going to impact the training, or 
is it going to impact operations?
    Admiral Rogers. It's probably a combination of both. I 
don't necessarily view it as a binary----
    Senator Fischer. Either/or.
    Admiral Rogers.--one or the other. The positive side--you 
know, as I said, I've been in command almost 4 years. In those 
4 years, I haven't run into a situation where we didn't have 
some level of capacity and expertise--or some level of 
capability or expertise. The challenge is capacity. It's, 
``Okay, I can deal with this in a reasonable level of places, 
but if I get into something larger, that becomes a challenge.''
    Now, no one should think for one minute--I am proud of the 
capability Cyber Command has, and I am confident in our 
readiness to execute our mission, even as I acknowledge that 
there's challenges.
    Senator Fischer. Okay. When you--when you're talking about 
capacity, you're building a 6,200-strong Cyber----
    Admiral Rogers. Right.
    Senator Fischer.--Mission Force.
    Admiral Rogers. Sir.
    Senator Fischer. How adequate do you believe that force is 
going to be compared to the threat that we're seeing today?
    Admiral Rogers. So, that was based on an assessment--boy, 
it's almost 10 years ago now, when we did the groundwork about, 
what do we think the structure----
    Senator Fischer. But, that hasn't really changed.
    Admiral Rogers. No. So, what we said was, ``Let's build the 
force out.'' So, as I said, we'll complete the buildout by the 
end of the fiscal year. The argument I'm trying to make now is, 
``So based on the 8 years of actual runtime, that suggests to 
me that the way that we've structured some of the teams, I 
would like to change.'' I told the Services, ``I will leave 
this alone until you complete the mission generation.'' But, 
what that--once that's done, I'd like to retool this a little 
bit, because I think we can take advantage of the lessons of 
the last 8 years. I think it also argues, we're probably going 
to need some level of additional capacity over time. That's 
something I'll be talking to my successor about. I think that's 
going to be a key thing for him during his time as--in command.
    Senator Fischer. It seems like we--we hear this over and 
over again, a lot of the same challenges. I realize the NDS is 
out now, and it's presenting us with a strategy. But, it's 
frustrating sometimes, on our side, that--I don't know if we're 
seeing much progress.
    A last question for you. I was a little confused by an 
earlier statement, so I wanted to clarify that. You have 
testified, in the past, that you do not support creating a 
special corps or service focused on cyber.
    Admiral Rogers. Yes, ma'am, that's true.
    Senator Fischer. Okay. Thank you very much.
    Senator Inhofe. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Admiral, thank you for your service. We will miss you, as 
others have said.
    Have you read the Special Counsel's indictment against 13 
Russians and several Russian entities?
    Admiral Rogers. I haven't read the actual indictment. I've 
seen the media reporting on it. I haven't seen the actual 
indictment.
    Senator Blumenthal. Well, I recommend that you do so, sir, 
with all due respect. For us, as Americans, it is an incredibly 
chilling, absolutely terrifying account of an attack on our 
democracy. You refer to it as a series of actions that, 
``threaten the foundations of our democracy.'' I think that's a 
very polite way of putting this act of warfare. In fact, the 
Russians themselves refer to it as informational----
    Admiral Rogers. Informational.
    Senator Blumenthal.--warfare. That's from them, not from 
us. So, I feel a sense of urgency about this ongoing warfare 
against our democracy that I feel, so far, is not reflected in 
the response from our Department of Defense. That's one of the 
reasons why Senators Nelson and Shaheen and I wrote to the 
Secretary of Defense last week and asked for engagement of 
Russian cyber operators and disruption of their activities. I 
understand from you that your feeling is, you have not been 
given authority to take additional action. That's correct.
    Admiral Rogers. Sir.
    Senator Blumenthal. Have you asked for that authority?
    Admiral Rogers. No, I have not. I've tried to act within 
the authority that has been granted to me to be aggressive.
    Senator Blumenthal. Why have you not asked for additional 
authority?
    Admiral Rogers. Because I guess my sense right now is, I'm 
not sure that the capabilities that I have would be the optimal 
or only response to this. I think we need to----
    Senator Blumenthal. It may not be the only response----
    Admiral Rogers. If I could--I apologize.
    Senator Blumenthal.--but wouldn't you agree that it is a 
necessary response?
    Admiral Rogers. It could be a part of a response. I would 
certainly acknowledge that. I just think we need to step back 
and look at this very broadly. Because one of the arguments, 
not just the--this current piece, but others--is, ``Be mindful 
of falling in the trap that, just because someone comes at us 
in cyber, that we have to default to immediately going back and 
doing the exact same thing.'' I've--and just have--I've always 
believed we need to step back and think a little bit more 
broadly about it, and just don't default. It's because of that, 
you know, that I have not done that, to date.
    Senator Blumenthal. Well, for how long, with all due 
respect, are we going to step back and look broadly at this 
ongoing attack? I mean, literally last week, in the wake of the 
Parkland shooting, the bots, the fake accounts, again and 
again, disrupting, sowing discord, continuing to attack our 
democracy in ways that most Americans should find absolutely 
intolerable, may I suggest that seeking that additional 
authority perhaps is appropriate at this point?
    Admiral Rogers. Sir. Again, much of what you're asking me--
I'm an operational commander, not a policymaker. That's the 
challenge for me as a military commander.
    Senator Blumenthal. Wouldn't you agree with me that the 
President himself is aware of these attacks and should give you 
that additional authority?
    Admiral Rogers. I think the President is certainly aware. 
Sir, I am not going to tell the President what he should or 
should not do. I'll use my chain of command to make my 
recommendations to the Secretary as to, ``Hey, sir, hey, within 
the DOD mission set and within the responsibilities that you 
have allocated to the Cyber Command, here's what I think we can 
and should do.''
    Senator Blumenthal. Well, without belaboring this point, 
would you agree with me that the Russians have been in no way 
deterred from----
    Admiral Rogers. Oh, yes, sir, I think that's true.
    Senator Blumenthal. They're doing it with impunity. They 
could care less what we think. They're continuing to attack us.
    Admiral Rogers. Yes, sir.
    Senator Blumenthal. So, thus far, the response of the 
United States of America to this ongoing attack has been 
completely inadequate to----
    Admiral Rogers. It hasn't changed the calculus, is my 
sense. It has not----
    Senator Blumenthal. It has not changed the calculus----
    Admiral Rogers.--changed the calculus or the behavior on 
the part of the Russians.
    Senator Blumenthal. It hasn't changed their behavior.
    Admiral Rogers. Right, that's my sense.
    Senator Blumenthal. They have paid no price for meddling in 
2016 election or----
    Admiral Rogers. They haven't paid a price at least that's 
sufficient to get them to change their behavior.
    Senator Blumenthal. Well, they haven't paid any price, so 
far as I can see, have they?
    Admiral Rogers. You could argue some of the sanctions that 
were--that have been imposed--you could also argue some of the 
indictments--again, I don't think it's fair to say nothing has 
been done, although, again, you're getting way outside my lane 
as an operational commander, sir.
    Senator Blumenthal. But, it has been completely inadequate 
so far.
    Admiral Rogers. It certainly hasn't generated a change in 
behavior that I think we all know we need.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Admiral Rogers, I do join my colleagues in thanking you for 
your service, not only in Cyber Command, but also your 37 years 
of service in the military.
    You have been asked a number of questions about the Russian 
interference with our elections and questions about who's in 
charge. You testified that Department of Homeland Security is 
the sector lead on combating Russia's--countering Russia's 
efforts to tamper with our elections. Now, it seems, to me 
anyway, that perhaps Cyber Command has the best resources and 
best equipped to actually do something in this area. You are 
the operational person. But, you don't have specific authority 
from the President or the--or anyone else, for that matter, to 
go forward. Now, you did also indicate that you are--I believe 
you used the word ``constant contact'' with Department----
    Admiral Rogers. I said ``regular.'' I said----
    Senator Hirono. Regular.
    Admiral Rogers.--I interacted with them----
    Senator Hirono. Regular----
    Admiral Rogers.--regularly.
    Senator Hirono.--contact with Department of Homeland 
Security. The sense that we have--I have--is that the--that I 
wonder what the Department of Homeland Security, which is 
charged with countering the Russian interference with our 
elections--what they are doing. So, since you are in regular 
contact with Homeland Security, what have you advised DHS to do 
in this area to counter Russia's interference with our 
election----
    Admiral Rogers. What have I advised DHS to do in the 
execution of DHS's mission? That's not really----
    Senator Hirono. Yes. Have you given them any advice?
    Admiral Rogers. That's not really my role, ma'am.
    Senator Hirono. No, but you are in constant contact. What 
are you in constant----
    Admiral Rogers. So, we talk about----
    Senator Hirono.--regular contact about?
    Admiral Rogers.--``Tell me what you're doing. Tell me how 
you're organized. What are the capabilities that Cyber Command, 
for example, could support you with?'' Those are the kinds of 
discussions. I also make sure the information flow, ``Are you 
getting the benefit of the insights that we're generating''----
    Senator Hirono. So----
    Admiral Rogers.--``based on actions that we have taken?''
    Senator Hirono. So----
    Admiral Rogers. Those are the kinds of----
    Senator Hirono.--with regard to those kinds of 
conversations, then is Homeland Security doing what they need 
to be doing to counter Russian interference, continuing 
interference with our elections?
    Admiral Rogers. You need to talk to them, ma'am. I don't 
have full knowledge of everything the Department of Homeland 
Security is doing here. Therefore, it would be----
    Senator Hirono. Yes, I understand that.
    Admiral Rogers.--it would be an ill-formed opinion----
    Senator Hirono. I get that.
    Admiral Rogers.--on my part to assess their performance.
    Senator Hirono. So, I'm trying to get at--with all the 
resources and the awareness that you have, what kind of 
specific advice you have given to Homeland Security, because we 
do not get the impression that they are doing what's adequate 
to--definitely to counter anything that the Russians are doing, 
certainly not to the point where they will stop doing it.
    Admiral Rogers. Right.
    Senator Hirono. So, I hope that, at some point, in some 
other committee or in this committee, we'll be able to ask 
those kinds of questions of the Homeland Security Secretary, 
because what they're doing to--with our elections does have an 
impact on national security. As you say, they are seeking to 
undermine our institutions.
    I would also like to join Senator Ernst in her focus on the 
Department of Defense fully utilizing the cyber capabilities of 
our Reserves and National Guard. That's just a statement, and I 
think you concur with that.
    As you leave your command, I am wondering, what would be 
your suggestion that your successor, you know, focus on as he 
or she--it'll probably be a he--take over Cyber Command? What 
are the things that you would want the new person to focus on?
    Admiral Rogers. So, ``You're in''--this is what I would say 
to the individual, assuming the nominee is confirmed, ``You're 
inheriting a structure that reflects choices we made 8 to 10 
years ago. We need to step back and ask ourselves, `Is the 
structure optimized for today and tomorrow?' How do we take the 
lessons of the last 8 years, where we've done a whole lot of 
activity on the defense, in the offense, working with the 
private sector? There are insights there that I think we can 
harness to look at, `How do we evolve the structure?' '' I'd 
also argue, we need to step back--and you have raised this with 
me already this morning--how do we better work the DOD role and 
the defense industrial base and the cleared defense 
contractors? We've got to get a different dynamic here. We've 
got to look at that differently. Then, more broadly, Cyber 
Command--and again, it goes to some of the points you've 
raised--Cyber Command, in its role, partnering with others, how 
do we do this in a much more integrated way? That'll be 
something that I hope maybe I can continue to provide opinions 
on in my next life.
    Senator Hirono. Yes, how to get an integrated structure for 
speed and agility. So, you have different departments: DHS, 
FBI, Treasury. Who should take the lead in creating this 
integrated structure?
    Admiral Rogers. Well, that's, you know, clearly the role of 
the administration within the executive branch. That's their 
task. I know they're working their way--again, DOD, we're going 
to support this. There's an ongoing review right now on this 
same question. So, we'll see what comes out of that.
    Senator Hirono. Is there something that Congress can do to 
enable one entity, one of these agencies, to take the lead in 
integrating our structure?
    Admiral Rogers. I'd--you know, I'd prefer to give the 
executive branch a chance to say, ``So, tell me what you think 
the plan is.'' Now, I--I'm not trying to minimize the role of 
the Congress. Please, Senator, that's not what I'm trying to 
say.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Admiral Rogers, this committee has long expressed concern 
about the lack of an effective doctrine to help deter 
cyberattacks before they happen. The Fiscal Year 2018 NDAA 
specifically directed the development of a national cyber 
doctrine. Why don't we have one yet? We've been talking about 
this for years.
    Admiral Rogers. Right. So, I don't want to speak for 
others. I flat out can't tell you why. The point I'm trying to 
make, as the Commander, is, ``Hey, we need this,'' that there 
would be value, not just for Cyber Command, not just for the 
Department of Defense, but for the Nation as a whole. As I've 
said, there is an ongoing effort right now. I hope this is 
going to generate some of the points that you make. I think 
it's frustrating to all of us. It's not because of willful 
ignorance or neglect or negligence, but we clearly haven't put 
ourselves where we need to be.
    Senator Heinrich. Is it even possible to achieve cyber 
deterrence when we don't have some sort of public-facing 
articulated cyber doctrine that gives our enemies pause?
    Admiral Rogers. Well, I think deterrence has multiple 
components, from capabilities to a sense of, you know, what we 
can and can't do, and what we will and won't do. So, I would 
also argue, Let's not think of what----
    Senator Heinrich. So we have some inherent deterrent----
    Admiral Rogers. Right.
    Senator Heinrich.--value in our capabilities.
    Admiral Rogers. Yes, sir.
    Senator Heinrich. If we had an articulated doctrine----
    Admiral Rogers. That would also help----
    Senator Heinrich.--that drew some--you know, that pointed 
out that there would be consequences, would that increase our 
deterrent ability?
    Admiral Rogers. I think that would increase it, but I 
also--the--I apologize--the other point I wanted to try to make 
was: But don't think a strategy, in and of itself, is the 
panacea. I think----
    Senator Heinrich. Sure.
    Admiral Rogers.--it's an important----
    Senator Heinrich. Yeah.
    Admiral Rogers.--component of where we----
    Senator Heinrich. Absolutely.
    Admiral Rogers.--where we need----
    Senator Heinrich. We need tools.
    Admiral Rogers.--to be, but it's the tools and the 
underpinning, as well. Once you get that framework, then it's, 
``So what do you do to actually get to actionable outcomes?''
    Senator Heinrich. So, right now, as my colleagues pointed 
out, the Russian state continues to use bots, they continue 
to----
    Admiral Rogers. Right.
    Senator Heinrich.--use trolls and other, basically, 
information warfare tools to sow division in this country----
    Admiral Rogers. Yes, sir.
    Senator Heinrich.--to sow doubt. Has our response been 
adequate to create any sort of visible deterrence to those 
activities?
    Admiral Rogers. It clearly has not changed their calculus. 
It's not changing their behavior.
    Senator Heinrich. I think that draws just sort of a fine 
point on--we need to be doing everything we can right now to 
increase that deterrent value, because it's not being 
effective.
    Let's take a hypothetical for a moment. Tomorrow, there's a 
nation-state cyberattack against our power and energy sector. 
It results in power outages, it results in oil and gas 
pipelines shutting down. Take a moment and assume that the 
other decisionmakers, folks at DHS as well as the 
administration, are in agreement that this is a hostile nation-
state attack, and who it's coming from. The White House wants 
to respond in the cyberdomain immediately. Without talking 
about what that looks like, are you ready?
    Admiral Rogers. It--there are so many variables in what 
you--so, who's the actor? What kind of capability was used? 
What specifically are we looking to defeat or overcome? It's 
one of those--I apologize----
    Senator Heinrich. Are you confident in your tools and your 
team to be able to respond immediately?
    Admiral Rogers. It--the tools are optimized for specific 
actors and specific--and again, I apologize, I don't want to 
get into the specifics of----
    Senator Heinrich. I don't want to give you specific actors, 
but you know----
    Admiral Rogers. Right. But, the capabilities are optimized 
for specific actors and specific configurations, in many ways. 
So, there are so many variables--the other thing in all this 
is, you know, time. It's one of the reasons why I think we've 
got to get a much more integrated day-to-day approach to this. 
Because one of my challenges is: Look, my experience as a 
military commander teaches me, doing discovery learning while 
I'm moving to contact--I'm being told, ``Hey, I want you to 
forestall the following adversary.'' If the first time I've 
dealt with this potential adversary is in the scenario you've 
outlined, then I'm doing a lot of discovery learning as I'm 
going to contact. That's----
    Senator Heinrich. Let's make----
    Admiral Rogers.--not optimal.
    Senator Heinrich.--the assumption that it's somebody we've 
been planning for for a----
    Admiral Rogers. Right.
    Senator Heinrich.--long time.
    Admiral Rogers. Then that's a little different scenario. 
Again, it depends on the----
    Senator Heinrich. You mentioned----
    Admiral Rogers.--specifics, but----
    Senator Heinrich.--a few in your----
    Admiral Rogers. Yes, sir.
    Senator Heinrich.--initial testimony.
    Admiral Rogers. That there are capabilities for us.
    Senator Heinrich. Okay.
    You have talked for years about, sort of, your top three 
cyber concerns: critical infrastructure, data manipulation, and 
attacks from nonstate actors. Just quickly, compare how you 
think we're doing on those three, versus how you viewed them, 
from a risk point of view, when you first took this job. How 
has it changed?
    Admiral Rogers. So, first, critical infrastructure. There's 
greater recognition of the problem set, which is good. I'm not 
spending a lot of time, now, saying, ``Hey, this is something 
we need to be focused on.'' But, I would still argue it's 
uneven. Some segments, very advanced, doing some great work. 
Other segments, not so much.
    The second area was--I apologize--was data manipulation. My 
argument would be--``Boy, are you watching that unfold now in 
the world around us?'' It goes to the influence piece. I would 
argue that has gotten worse, because now you've got a major 
actor, and they're not the only ones, in the form of the 
Russians, who--now it's a conscious part of their strategy, and 
they're doing it on a regular basis. So, there I would argue 
we've gotten worse.
    The third was----
    Senator Heinrich. Nonstate actors.
    Admiral Rogers.--nonstate actors. That one, that surprised 
me a little bit, in the sense that, while I've--and I'm not 
talking criminal, because I would argue criminal activity is 
still the greatest single segment of activity, from a threat 
basis, within the cyberspace arena. That has not taken off 
quite as much as I thought it would, to be honest.
    Senator Heinrich. I'm over my time. I apologize, Mr. Chair.
    Senator Inhofe. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Admiral Rogers, thank you so much for your service and your 
multiple appearances here.
    I was interested that, in the aftermath of the 
announcements by Director Mueller of indictments of 13 Russian 
individuals, two Fridays ago, that the President tweeted out--
and I'm just going to use his words; I normally wouldn't use 
these words, but--and I'm going to quote him. He said Russia 
is, ``laughing their asses off.'' He also said that ``Russia 
has succeeded beyond their wildest dreams.''
    I think this is going to be chapter in our life where we're 
going to just have to acknowledge we've been humiliated as a 
country. Our democracy has been humiliated. We've had our 
pocket picked. We've lost what may be, you know, the first real 
cyber war that our Nation has been in. You can characterize it 
a lot of different ways, but I think it's going to be 
characterized as a chapter of failure. The U.S. Government 
failed to protect the U.S. democracy.
    I want to ask you, based on your lengthy experience in this 
position, but really your lengthy experience in service to the 
country, where is the source of that failure? Was the failure a 
failure of imagination? Was it a failure of will? Was it a 
failure of policy? Was it a failure of structure? Was it a 
failure of personnel? Was it a failure of leadership? Was it a 
failure of investment? Was it more than one of those things? We 
can learn from failure, and we should, so that we----
    Admiral Rogers. Right.
    Senator Kaine.--can improve. But, I think the history of 
this, especially the 2016 election, which has now led to 19 
indictments or guilty pleas by individuals, and another three 
indictments or pleas by entities. It's going to be viewed as a 
chapter where the U.S. Government failed the U.S. democracy. I 
want your best professional judgment, in what may be your last 
appearance before the committee in this particular role, as 
where the source of that failure is, so that we can fix it.
    Admiral Rogers. So, I don't think there's one single source 
of failure, but I'll share some thoughts with you.
    So, first, one of the things that's always struck me is, 
we--if you go back several years, we tended to define 
``critical infrastructure'' from a very Industrial Age 
approach. Hey, does it produce a product or service, an 
outcome? So, for example, using that methodology, we didn't say 
to ourselves, our electoral process is a critical 
infrastructure product. Because we're thinking, there's no 
product or service, so to speak, that it tangibly generates. I 
mean, there's votes and outcomes. So, the first thing I was 
struck by is, we need to rethink what does critical 
infrastructure really mean to us in this Digital Age that we're 
living in?
    Secondly, I think--you know, I--again, I've been in the job 
for a while. I've been in that part of multiple 
administrations. I think the thought initially was, ``We'll go 
to them, we'll tell them we have awareness of what we're doing, 
and this will convince them--and we'll take some initial steps, 
and we'll convince them that they should stop.''
    Senator Kaine. Underestimating an adversary.
    Admiral Rogers. Right. That clearly has not happened. I 
don't think we anticipated how--what level of sustained 
aggressive behavior we were going to see over time, that this 
wasn't viewed as a one-off, ``Hey, it was just about one 
particular election, one particular outcome,'' that clearly 
we're looking at a nation now who views this as a strategic 
imperative over time for them, that there's value to be 
achieved in continuing to do this. I don't think we necessarily 
initially looked at it that way.
    Then, the final thing that comes to my mind is--and it's 
symptomatic of cyber as a whole--what do you do when we're 
dealing with a challenge that crosses so many different lines? 
So, as I said, in our structure, elections are a State process. 
Cyber capability--DOD, DOJ, DHS--that's the executive--that's 
not State, that's a Federal and it's an executive branch. You 
look at capability in the private sector, how do we--one of my 
takeaways is, cyber is going to force us to think outside the 
traditional lines that we use in assigning--in defining 
problems and aligning resources.
    Senator Kaine. Let me ask you one more question. I was a 
mayor and a Governor. Why should mayors--local officials or 
State officials today believe that the United States Government 
will protect the United States democracy in future elections? 
Because, as I talk to Governors and local officials, they have 
very grave doubt whether the Federal Government will act in any 
way to protect the electoral system from attacks such as those 
that Russia conducted in 2016. Tell them why they should have 
confidence that the United States Government will----
    Admiral Rogers. Well, first, I don't interact with them, 
but, as a citizen, my attitude would be, ``Look, I hope one of 
your takeaways is, here, while the system is imperfect and 
clearly has not achieved the outcomes we want, it is not 
because there aren't motivated, hard-working individuals trying 
to do things.'' That, hopefully, as you've said, you know, we 
want to be a learning, adaptive nation, here, where we learn 
and change over time. That's what I'm hoping we're going to see 
in the coming months and years ahead of us. Because this is not 
a, ``All we've got to worry about is--we'll deal with this in 6 
months or a year.'' That's not the way this is going to work, I 
don't think.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Inhofe. Senator McCaskill.
    Senator McCaskill. I'm going to try to--I know this ground 
has gone--been gone over, but--first of all, thank you.
    Admiral Rogers. Yes, ma'am.
    Senator McCaskill. You've been terrific. I'm a big fan of 
the work you've done.
    But, I'm going to try to channel a woman who came up to me 
at the grocery store not too long ago. She asked me a simple 
question: ``Is Russia at war against our democracy?'' What 
would you have said to her in the grocery store?
    Admiral Rogers. I--well, a war is, by definition, as a 
specific legal document aspect to it. I'm not a lawyer. What I 
would probably say to her is, ``There shouldn't be any doubt we 
are in a competition with these guys, and they are trying to 
use every tool they have to gain advantage. Some of that 
advantage they want to gain is by undermining our very 
institutions.''
    Senator McCaskill. That's a lot of words. I said, ``Yes.''
    [Laughter.]
    Admiral Rogers. So----
    Senator McCaskill. I said, ``Yes.''
    Admiral Rogers. I like to talk to people. I apologize.
    Senator McCaskill. I mean, I've just got to tell you, they 
came after our democracy.
    Admiral Rogers. Yes, ma'am.
    Senator McCaskill. I can't imagine anything more essential 
to the United States of America than our democracy. So, the 
next question she asked me, ``Are we strong enough and smart 
enough that we can keep them from doing this again?''
    Admiral Rogers. Yes.
    Senator McCaskill. Okay. So, then the next question she 
asked me--I said the same thing--the next question she asked 
me, ``Are we doing that right now?''
    Admiral Rogers. We're taking steps, but we're probably not 
doing enough.
    Senator McCaskill. Okay. So, she wants to know, and I want 
to know, why the hell not?
    Admiral Rogers. Ma'am, I'm not----
    Senator McCaskill. What's it going to take?
    Admiral Rogers. I'm an operational commander, ma'am. You're 
asking me a question that's so much bigger than me. I don't--
I'm not trying to duck this. I'm trying to say, Here's what my 
role is. You're----
    Senator McCaskill. It's a problem----
    Admiral Rogers.--asking me something that's----
    Senator McCaskill.--it's a problem, Admiral.
    Admiral Rogers. Oh, I don't deny that----
    Senator McCaskill. It's a problem.
    Admiral Rogers.--for one minute.
    Senator McCaskill. You know, the notion that this country 
came after the essence of what we are--the character and value 
of our country is all about the democracy--the notion they came 
after us, brazenly, and that nobody can sit in that chair and 
say, ``We got this''--you guys can do this. You give America's 
military a mission, and nobody is better.
    Admiral Rogers. Right.
    Senator McCaskill. The notion that you have not been given 
this mission to stop this from happening this year is 
outrageous. It is outrageous. There's no question that they 
know we're not coming after them. Frankly, your response to 
Senator Reed's question about Cyber Command disrupting their 
interference, you said, ``We have chosen not to engage in the 
same behavior as Russia.'' But, defending is not the same 
behavior as Russia. Preventing and deterring is not the same 
behavior. They came after us. We're not asking you, ``Are you 
going after them?'' We're asking you, ``Have you the authority, 
have you the command to stop them from doing this again to 
the--us in 2018?''
    Admiral Rogers. I cannot operate out of the DOD information 
network, ma'am, on a daily basis. I do not have the authority 
to do that. I don't have the legal authority to defend a 
State's voting infrastructure----
    Senator McCaskill. Well, I'll tell you, Admiral Rogers, if 
there--if you don't have the authority to defend our voting 
structures, then we've--we've got the ability to fix that. 
Correct? I believe, Mr. Chairman and Ranking Member, we have 
the ability to fix the law to give you the authority to protect 
our voting systems. Because I guarantee you, the Secretary of 
State of Missouri doesn't have an ability to go after Russia.
    Admiral Rogers. Right. Yes, ma'am
    Senator McCaskill. I mean, they could harden, but they 
can't go after them. The only entity that can go after Russia 
is the United States military. That's the only one. The fact--I 
mean, effectively--I mean, maybe Department of Homeland 
Security can help around the edges, but their primary mission 
is not to go after a foreign nation. It is, in fact, to protect 
the Homeland.
    Admiral Rogers. But, again, I would argue, think--
respectfully, think beyond just cyber and responding in kind. 
There's a whole--economic, politi---there's a whole breadth of 
tools that we could potentially apply here to try to shape the 
Russians' behavior and their choices. I would just urge us, 
``Don't default to, We've got to go after them in cyber.'' I'm 
not arguing that cyber isn't a potential part of a broader 
strategy. I'm not trying to say that----
    Senator McCaskill. I just never thought I'd----
    Admiral Rogers.--for one minute.
    Senator McCaskill.--see the day--honestly, I never thought 
I'd see the day that Russia would go after the heart of our 
country.
    Admiral Rogers. Ma'am.
    Senator McCaskill. Ever. That we would be sitting here 
parsing words about whether or not we've got this. I want 
somebody with your experience and your courage and your 
tenacity--I want somebody to sit in that chair and say to the 
United States of America, ``We've got this.''
    Admiral Rogers. Ma'am.
    Senator McCaskill. Until we have that moment, Russia is 
winning. That is disgusting.
    Admiral Rogers. Yes, ma'am.
    Senator McCaskill. Thank you, Mr. Chairman.
    Senator Inhofe. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Guess what question I'm going to ask?
    [Laughter.]
    Admiral Rogers. Yes, sir. Would this be a Russian--
associated with Russia?
    Senator King. It would be. A deterrence-related question.
    Admiral Rogers. Yes, sir.
    Senator King. On December 23rd of 2016, the Congress passed 
the National Defense Authorization Act. In it was a section 
that required the Secretary of Defense to file a report, on 
just the questions we've been talking about, within 180 days, 
which was June of 2017, about the definition of a 
``cyberattack,'' what would be the response. It talks about 
operational authorities--what operational authority is 
delegated to the United States Cyber Command for military cyber 
operations, how the Law of War applies, the whole--a whole 
list. The purpose of the amendment, which was in the law, which 
is in the law, was to establish a clearly articulated doctrine 
of response in this kind of situation. I'm asking you, as an 
operator, have you been asked--have you been tasked with 
drafting any part of the response to this requirement, which--
--
    Admiral Rogers. I've been----
    Senator King.--by the way, is now in----
    Admiral Rogers. I've been part of the----
    Senator King.--month eight?
    Admiral Rogers.--part of the dialogue about responding, 
particularly on the operational piece of this, in terms of 
overall responsibility. This is--the Office of the Secretary of 
Defense has the responsibility for----
    Senator King. But, I'm asking, is anybody----
    Admiral Rogers.--replying----
    Senator King.--working on this? We're 8 months in--we're 8 
months late now.
    Admiral Rogers. I apologize. I don't know the specifics of 
the timeline for----
    Senator King. But, were you given a deadline, saying, ``We 
need this by June of''----
    Admiral Rogers. I was----
    Senator King.--``2017?''
    Admiral Rogers.--part of this. I don't remember--I honestly 
don't remember if we were given a--can I take this one as a--an 
action to----
    Senator King. Yeah, but here's----
    Admiral Rogers.--get back----
    Senator King.--here's what's frustrating, is--Here we are, 
still talking about this issue, when the Congress made a 
specific instruction to the Secretary of Defense, and the 
President, by the way, was then required to respond to the 
Congress within 180 days from that report that should have been 
coming in June of 2017, hasn't come. So, you know, we're way 
late, and we----
    Admiral Rogers. Yes, sir.
    Senator King.--keep talking about this. You and I have been 
in probably a dozen or 15 hearings on this, and we don't seem 
to be any further ahead than we are--were before. The problem, 
as you've testified today, and I think quite accurate and 
repeatedly, until we have some clearly articulated doctrine of 
response to these kind of attacks, they're going to continue. 
If all we do is try to patch our software----
    Admiral Rogers. Right.
    Senator King.--they're going to continue. You know that, 
and I know that. What's it going to take? Is it going to take 
the destruction of the electric grid or the financial system in 
order for us to finally get to the point of taking this 
seriously?
    Admiral Rogers. Like I said, sir, there is an ongoing--
I'm--and I'm participating in this. I just--apologize--I just 
don't know the specific timelines here. I'm----
    Senator King. Yeah. I'm not--I understand you're an 
operational guy, but you have to understand our--you're the 
nearest thing that we have----
    Admiral Rogers. I've got it. I know my----
    Senator King. You're lucky enough to be here today. But, 
this is serious business. And----
    Admiral Rogers. Yes, sir.
    Senator King. And--well, let me turn to some--a little more 
specific question that I think underlines what we're talking 
about here. What would happen today if you, on your way back to 
your office, got a call and said the U.S. financial system has 
been taken down, all the computers on Wall Street are off, the 
markets are in chaos? I don't mean from a policy point of view. 
I'm----
    Admiral Rogers. No, no.
    Senator King.--talking about----
    Admiral Rogers. In terms of----
    Senator King.--what would be the execution? Who's in 
charge? What would the results be?
    Admiral Rogers. So, DHS would have overall responsibility 
for the provision of Federal support in response to this. My 
role would be: help to make sure I understand, number one, who 
was the actor. So, can we identify who did this? Because if I'm 
going to respond, I have to know who I'm responding to or what 
I'm responding to. So, one of my first questions, as Cyber 
Command, would be, ``Let's make sure we understand what's the 
characterization of activity, who's the actor, what did they 
do----''
    Senator King. Who would take the lead? Who's in charge?
    Admiral Rogers. ``--how did--'' DHS would have overall 
responsibility.
    Senator King. DHS would be in charge?
    Admiral Rogers. Sir.
    Senator King. Do--have you--do you--have you war-gamed 
this?
    Admiral Rogers. Yes, sir. In fact, I made it a broad 
reference it--the finance sector, for example, the scenario you 
posture here, I've--we've actually undertaken some very good 
tabletops, specifically, as I reached out to DHS and the 
financial sector. ``Look, we have got to get down execution-
level work here, team.'' So----
    Senator King. Well, that's--and you----
    Admiral Rogers.--we have done----
    Senator King.--repeated talk about integration. What 
worries me is that--whether anyone is in charge. I guess a 
followup is: Do we have a serious red-team, war-game process to 
be sure we're not surprised about how to react when one of 
these things happens?
    Admiral Rogers. I don't know if I'd use the phrase, ``We 
have a serious red team.'' Do I--is this part of our mission 
responsibility? Yes. Is this something we train and exercise 
against? Yes. Is this something we continually assess, looking 
for indicators of this type of activity before it occurs? Yes.
    Senator King. Well, I want to thank you. This may be our 
last----
    Admiral Rogers. Sir.
    Senator King.--time to talk about this. Thank you for your 
service and your straightforward response, always. Just leave 
you--and you know, I hope, as you leave this job, you will 
leave a memo behind that says, ``We are not adequately 
prepared. We need a doctrine. We need it to be publicly 
available. We need our adversaries to know that, if they strike 
us in this realm, they're going to be struck back.'' It may not 
be cyber. I mean, as you say----
    Admiral Rogers. Right. Sir.
    Senator King.--it may be a whole range of things. But, 
right now, we are not--we have not done that. I deeply hope 
that this is something you can take on as a kind of exit 
interview.
    Admiral Rogers. Sir.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Admiral Rogers, thank you for being back before the 
committee.
    Could you just give me a brief description, in your tenure 
in the current role, where you think things have got--tell me 
the positive things that have occurred and the things that you 
wish you had made more progress on in your time in the Command.
    Admiral Rogers. So, the positive thing, among the things 
that jump out at me, it's cyber's integration with other 
operational commands, particularly CENTCOM, SOCOM, some things 
we're doing out in the Pacific with Pacific Command. That has 
been a real strength. It's something I really--I knew it was a 
good day when you have those commanders publicly talking about 
what Cyber Command is doing. It's not Cyber Command talking 
about, ``Look at all the great cyber things we're doing. 
Shouldn't you like what we're doing?'' That's been a real 
process.
    Some of the command-and-control structures--JTF Ares that 
we put in place. How do you build a structure designed to 
integrate capability so we can generate effects against ISIS--
was a slow start, because we were starting from ground zero, 
but it has really taken off. That has worked out very, very 
well.
    The campaign planning in the structure, from a planning 
perspective, that we've put in place, particularly that's been 
a focus for us over the last calendar year, that--oh, that's 
just some great work. That really sets the foundation for the 
future and gets cyber into a much more traditional, ``Hey, 
look, we're no different in our mission set than CENTCOM is in 
what they're--in terms of the mechanisms and the framework 
they're using to plan, or what European Command is doing.'' 
That's a real positive.
    If I ask myself, ``What are the areas where I would?'' The 
force generation. I mean, we're going to beat the timeline for 
FOC. That took a lot of work by a lot of people. The areas 
where I--were not as far along as I wish we were, tool and 
capability development and who's going to do what. We've still 
got to work this out between, What's the role of the Services 
and what's the role of the Command? You have give us--the 
Congress has given us some acquisition authority. We've started 
down that road. I think that's a real positive. But, we've got 
to ask ourselves, So what's the future here?
    Senator Tillis. Do we have the timelines on acquisition 
right with the nature of the developing technology? In other 
words, are we compressing the time to new capabilities to a 
point that you feel comfortable?
    Admiral Rogers. So, we're--we're never where we want to be. 
But, I like the fact that there's been recognition, we need to 
do this outside the traditional acquisition framework, which 
was really built to generate these capital-intensive 
capabilities that take a decade to develop. That's not our 
model. That is not what we need. So, I like the recognition of 
this. It's an area the Secretary's asked me to take a look at 
over time, so this will be something I'm going to comment on 
before I leave. I've got some thoughts I want to share on this 
before I leave.
    Senator Tillis. How well have you done on personnel 
recruiting and retention?
    Admiral Rogers. So, if you look at a uniform----
    Senator Tillis. As chair of the Personnel Subcommittee, 
I'm----
    Admiral Rogers. Right.
    Senator Tillis.--particularly interested in other things 
that we should be doing as we look at the NDAA specifically 
around personnel issues.
    Admiral Rogers. So, if you look on the uniform side, I'd 
say we're probably exceeding our expectations. It doesn't mean 
that it's perfect. The biggest challenge for me in the 4 years 
has been less the military uniformed component, and the 
civilian piece is proving to be harder. Retention, 
recruitment--part of it also now is the process. When it comes 
to the military, we've got a lot of people coming to us, many 
of whom have skills that I can apply in cyber. In the cyber 
world, it's much more about going out and trying to find people 
with the right skills. It's a little different dynamic, and so, 
the civilian piece has probably proven to be harder.
    Senator Tillis. Well, that's something that we're always 
interested in, in things that we can do to make that easier. 
It's very----
    Admiral Rogers. Yes, sir.
    Senator Tillis. I can't imagine how you compete with the 
likes of the firm that I worked with on recruiting and 
retaining----
    Admiral Rogers. Right.
    Senator Tillis.--some of the top talent. I could go and 
fill the new capability in 3 months that you could take 3 years 
to do. I think that we have to continue to look at that. These 
highly talented people----
    Admiral Rogers. Right.
    Senator Tillis.--want an environment where they're moving 
at the pace of the threat, and that's the last thing.
    Since the time you started this role, how would you 
describe the number and the nature of threats that you're 
dealing with today versus when you began?
    Admiral Rogers. State actors have gotten more aggressive, 
not less aggressive. The breadth of capability in many states 
that are of concern to us is growing. You can look at the level 
of--I mean, we publicly talk about Russia, China, Iran, North 
Korea--you look at the level of investment they are making, it 
is significant.
    Senator Tillis. How well--last question--how good have you 
gotten at knowing what we don't know? I've talked about this 
before----
    Admiral Rogers. Right.
    Senator Tillis.--in prior committee hearings, the latent 
capability. There are a lot of people who express frustration 
because, when we see malign behavior on the part of, maybe, a 
state actor or some other organization, the idea is to go out 
with some sort of a proportionate response in the cyber world. 
The thing that concerns me with that is, we really don't know 
what we don't know about latent capabilities that could 
ultimately brought--be brought back to us. Are we at a point 
where we have any better or more holistic idea of what the 
latent threats are out there----
    Admiral Rogers. I mean, we're----
    Senator Tillis.--in private sector or with----
    Admiral Rogers. Right.
    Senator Tillis.--whole-of-government?
    Admiral Rogers. I mean, we're better. But, on the other 
hand, just as a broad----
    Senator Tillis. They're better, too.
    Admiral Rogers. Right. Just as a broad operational 
principle, one of the team--one of the things I constantly tell 
our team is, ``You must assume we have imperfect knowledge, and 
we must be capable of acting on imperfect knowledge.'' So, 
don't come to me, telling me, ``Hey, we think we totally 
understand.'' I--just my experience--teaches me, it doesn't 
always work that way.
    Senator Tillis. Well, thank you. Again, encourage you to 
get any feedback to the committee staff----
    Admiral Rogers. Sir.
    Senator Tillis.--in my office on anything that we can do, 
at least on the recruiting-and-retention piece for any 
resources going into the NDAA.
    Admiral Rogers. Yes, sir.
    Senator Tillis. Thank you for your service.
    Senator Inhofe. Thank you, Senator Tillis.
    Let me just make one comment here before going on to 
Senator Peters.
    I was thinking, all during this, less than complimentary 
comments have been made. I just returned, last night, from 12, 
13 days in PACOM. Everyone from Admiral Harris, Shaunessy, all 
the rest of them, I've talked to, all the way around to and 
including on the DMZ [Demilitarized Zone], between South and 
North Korea. So, all the principals there. I have to say to 
you--and this is at PACOM--they are very complimentary of the 
work that you've done and the progress that you've made.
    Senator Peters?
    Senator Peters, Thank you, Mr. Chairman.
    Admiral Rogers, wonderful to have you----
    Admiral Rogers. Senator.
    Senator Peters,--here again. I'll join in saying thank you 
for your service. We're going to miss you. It's been great 
having you before this committee, and I've appreciated your 
attention to this issue, and personally talking to me about a 
variety of----
    Admiral Rogers. Sir.
    Senator Peters,--issues, as well.
    I'd like to talk a little bit more about the future of 
warfare and the future of technology. There's been some 
questions related to machine learning and artificial 
intelligence, which is going to change everything, not just in 
the military space, but in the commercial side. I am on the 
Commerce Committee, and we recently had a hearing on artificial 
intelligence and how that's going to change business and 
commercial activities, in general. I asked one of the leading 
executives at one of the leading technology companies in the 
country, ``What did he fear most about artificial 
intelligence?'' We had a hearing primarily of all the positive 
aspects of it, but I asked him, ``What did he fear?'' I was 
actually surprised by his answer. He said his fear was the 
manipulation of elections and the manipulation of public 
opinion that can undermine democracy, which I thought was a 
very interesting response from a leading tech company.
    I wanted to ask you a bit about that in the Department of 
Defense, and, more broadly, our posture when it comes to 
investing in these technologies, and how are we working to 
increase innovation and work with those commercial companies to 
integrate it into defense systems? I guess I'll ask you that 
question, as well. What do you fear--if we don't get this 
right, what is our fear of an adversary acquiring machine 
learning and AI [Artificial Intelligence] systems in advance of 
our own capabilities?
    Admiral Rogers. From a military's perspective, my concern 
is, you potentially lose speed and knowledge. That's a terrible 
combination as a warrior. Like, speed and knowledge are 
advantages for us, historically. One of my concerns is, if 
we're not careful, AI potentially gives opponents speed and 
knowledge better than ours, if we're not careful. I'm not 
arguing that's going to happen, but I acknowledge we've got to 
look at it.
    What was--I apologize, Senator--what was the----
    Senator Peters, That's all right. That's--and I guess I 
want to pick that up, because this technology is moving through 
the commercial side even----
    Admiral Rogers. Right.
    Senator Peters,--faster than through the military side. So, 
it--in the past, oftentimes military research would be a 
leading factor. That's not necessarily the case here at all. 
I'm worried, in particular, about our adversaries that are able 
to come in and actually buy those technologies, particularly 
from startup companies.
    Admiral Rogers. Right.
    Senator Peters, I'm working right now in trying to fill 
some of the gaps on the CFIUS process, which is the
    Committee on Foreign Investment in the United States.
    Admiral Rogers. Sir.
    Senator Peters, You basically have foreign entities that 
buy companies, perfectly legal, get that information, and they 
use it not just for commercial applications, but also figure 
out ways to----
    Admiral Rogers. Right.
    Senator Peters,--weaponize that type of technology, as 
well.
    So, my question to you is, ``How can we better integrate 
the missions of CYBERCOM and the NSA as to it relates to this 
CFIUS review process?'' Are you concerned about it? What should 
we be doing to make sure that we are protecting this 
intellectual capital that has significant national defense 
potential?
    Admiral Rogers. I'm not concerned about the review process, 
in terms of NSA role and Cyber Command. Again, it's one of the 
advantages of--we are so physically colocated to each other.
    My bigger concern goes to what you've already said. CFIUS, 
to me, is a reflection of an environment of the past, not today 
in the future. It is very clear to me that some nation-states 
have spent a lot of time studying this CFIUS process, and have 
developed strategies to overcome it, ``Hey, I don't have to 
worry about buying a corporation outright, it's--so tell me 
what your overseas subsidiaries are, and tell me what your 
providers are, tell me who else has access to this intellectual 
property, so to speak. I'll acquire that.'' Things like that, 
I'm going--CFIUS is not set up to--it wasn't what we built it 
to do. So, I applaud your efforts to--we need a different 
construct. Not--we don't want to get rid of CFIUS, but I need--
I think we need to think about it more broadly, about the 
national security challenges of foreign investment in areas 
with national security implications for us.
    Senator Peters, Is there a role for CYBERCOM to be more 
actively involved in some of that process, providing 
information? I mean, you'll be aware of what's happening, 
things that you're concerned about, but how----
    Admiral Rogers. Right.
    Senator Peters,--how do you see a potential role there, if 
any?
    Admiral Rogers. I think it's much more an intelligence--so, 
my role in--on the NSA side, because we're tasked with 
generating knowledge and insight, is much greater. Cyber 
Command helps feed--feed that effort, because one of the things 
we do is, we generate knowledge and insight on the Cyber 
Command side, based on what we're doing. We're putting out 
reporting, so that goes into the broader effort. But, it's not 
a primary mission for Cyber Command. It's much more a primary 
mission on the NSA side.
    Senator Peters, Great. Thank you for your testimony. 
Appreciate it.
    Senator Inhofe. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Admiral, thank you for your----
    Admiral Rogers. Ma'am.
    Senator Warren.--37 years of service. I----
    Admiral Rogers. When you say that, I just feel----
    [Laughter.]
    Senator Warren. No, no, you should feel proud. Feel strong.
    You know, you probably picked up on a theme today, that 
this committee feels a sense of urgency about the Russian 
threat to our elections. This is not a personal criticism of 
you.
    Admiral Rogers. No, I understand.
    Senator Warren. We're frustrated that this administration 
has not lived up to its responsibility to do something about 
the Russian cyber action.
    Now, you told Senator Blumenthal and Senator McCaskill that 
not every cyberattack requires a cyber response. So, I'd just 
like to follow up on that just a little bit here.
    The Pentagon's Cyber Security Strategy says--and I'm going 
to quote it to you--``In response to certain attacks and 
intrusions, the United States may undertake diplomatic actions, 
take law enforcement actions, and consider economic 
sanctions.'' So, I want to focus for just a minute on that last 
piece, sanctions.
    Congress overwhelmingly passed a law last year that, in 
part, required sanctions on individuals and companies that 
knowingly engage in malicious cyberactivities on behalf of the 
Russian Government. Those sanctions include freezing access and 
restricting travel. The Trump administration has not imposed 
these required sanctions.
    Admiral Rogers, I know that this is not your primary 
responsibility----
    Admiral Rogers. Yes, ma'am.
    Senator Warren.--to impose the sanctions, but I want to ask 
a different question. What message does it send to Vladimir 
Putin that the United States has not fully implemented 
sanctions to counter known Russian cyberattacks?
    Admiral Rogers. You know, more broadly, the--not just the 
sanctions, but more broadly--my concern is, I believe that 
President Putin has clearly come to the conclusion, ``There's 
little price to play here''----
    Senator Warren. Bingo.
    Admiral Rogers.--``and that, therefore, I can continue this 
activity.''
    Senator Warren. Yes.
    Admiral Rogers. Everything, both as a director of NSA and 
what I see on the Cyber Command side, leads me to believe that, 
if we don't change the dynamic here, this is going to continue, 
and 2016 won't be viewed as something isolated. This is 
something--will be sustained over time. So, I think the 
challenge for all of us is, So what are the tools available to 
us? As the strategy says--diplomatic, economic, some cyber 
things--there are tools available to us. Again, I think, in 
fairness, you can't say nothing's been done. But, my point 
would be, it hasn't been enough.
    Senator Warren. It hasn't been enough.
    Admiral Rogers. Clearly what we've done hasn't been enough. 
And----
    Senator Warren. That's right.
    Admiral Rogers.--you know, I'm mindful of my role as an 
operational commander, but----
    Senator Warren. Yeah. No, I appreciate that. It hasn't been 
enough. It doesn't do us any good to have tools in the toolbox 
if we don't pick them up and use them. You know, Russia will 
keep trying to interfere in our elections. If the Trump 
administration doesn't fully implement sanctions, then we're 
not using every tool we can to effectively deter Russia from 
undermining democracy in the future.
    Let me ask you one other question, if I can, Admiral. It's 
clear that the United States needs to step up its cyber game. I 
want to follow up on a question from Senator Tillis. We've 
previously discussed the question of how to build a skilled 
cyber force. You said that improving DOD's network defenses and 
building a cybersecurity culture depends on our ability to 
attract the most talented people out there. This committee is 
now considering reforms to the Defense Officer Personnel 
Management Act, or----
    Admiral Rogers. Right.
    Senator Warren.--DOPMA, another one of our great acronyms--
love to talk about DOPMA--which governs how we recruit and 
retain our military officers. So, with that in mind, Admiral, 
if you could make just one change to DOPMA to help attract the 
right technical talent for the cyber jobs of tomorrow, what 
would that be?
    Admiral Rogers. I'd want to make--within a military----
    Senator Warren. Yes
    Admiral Rogers.--construct--and, to be honest, we use the 
phrase DOPMA, because ``DOPE-MA''----
    Senator Warren. Okay.
    Admiral Rogers.--sounds terrible.
    Senator Warren. I always think----
    Admiral Rogers. In a military standpoint, it would probably 
be--and the Services are working their way through this, but I 
think we want to make sure that we have got a mechanism for a 
professional cyberforce across a career, that this can't be 
viewed as something we do--``Hey, we give you training, you do 
it for a few years, you go do something else, you know, then we 
bring you back, then you're gone again.'' That's not going to 
get us where we need to be. The Services are all--because they 
do man, train, and equip--you know, they provide capability 
that I, as a joint--and that includes people and other things--
but that I, as the joint commander, then harness to achieve 
specific mission outcomes as a joint commander. That would 
probably be the biggest thing.
    Senator Warren. Okay. It's actually very helpful to know. I 
know that the 2017 defense bill gave the Pentagon a lot of 
flexibility in how to recruit, but I remain concerned that our 
recruiting system is so focused on recruiting for the military 
of today that we're not effectively targeting the best talent 
and best-suited talent to execute the missions we will face 
tomorrow. How we think about that, I think, is really 
important.
    Admiral Rogers. Ma'am.
    Senator Warren. So, thank you again. Thank you for your 
service, and thank you for your help.
    Admiral Rogers. Thank you, Senator.
    Senator Warren. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    It's the Chair's intention to go ahead and close the 
meeting after a few remarks from the Ranking Member. Is there 
objection to that?
    [No response.]
    Senator Inhofe. All right.
    Senator Reed. Thank you very much, Mr. Chairman.
    I have just very specific points I want to clarify.
    First, there are ongoing Russian direct or inspired 
cyberoperations against our electoral system, as we speak?
    Admiral Rogers. Yes, sir.
    Senator Reed. Yes.
    Admiral Rogers. Yes, sir. I'm speaking more as NSA than as 
Commander----
    Senator Reed. Right.
    Admiral Rogers.--of Cyber Command, but yes, sir.
    Senator Reed. Two, with the authority or the direction of 
the President of the United States, National Mission Teams can 
disrupt these attacks at the point of origin. Is that correct?
    Admiral Rogers. We could be tasked to do that. Again, it 
depends on the specifics. I don't----
    Senator Reed. But, it's legal?
    Admiral Rogers.--want to overpromise----
    Senator Reed. It's legal, and it can be done.
    Admiral Rogers. Sir.
    Senator Reed. Have you been asked to make a recommendation 
to--with respect to deploying these teams?
    Admiral Rogers. No, but I've certainly provided my--
nobody's necessarily directly asked me--I certainly have 
provided my opinion in ongoing discussions----
    Senator Reed. What is your----
    Admiral Rogers.--about this.
    Senator Reed.--opinion?
    Admiral Rogers. Again, my comment has been: Be mindful of 
just defaulting to the cyber piece, here. I'd like us to think 
about this a little bit more broadly, and I'd like us to think 
about how does this potential cyber piece that Cyber Command 
could play--how does it fit into something broader?
    Senator Reed. So, let's just conclude. You have not been 
formally asked for a recommendation.
    Admiral Rogers. No, sir.
    Senator Reed. You have expressed your opinion to the 
Secretary of Defense and to the White House about the possible 
uses of this, but not in any formal way.
    Admiral Rogers. Yes, sir. I haven't put anything in 
writing, for example.
    Senator Reed. I guess, final point. This goes--do you feel, 
as a professional officer, you have an obligation to make a 
formal recommendation to this? Have----
    Admiral Rogers. I feel that the system provides me the 
opportunity to provide my recommendation, to provide my 
insights, to provide my opinions, that people listen to what I 
have to--I acknowledge there's other opinions out there. I 
acknowledge there's other perspectives. But, I feel very 
comfortable in the fact that there's a--been a dialogue on this 
topic, and that dialogue continues.
    Senator Reed. Thank you, Mr. Chairman, very much.
    Thank you, Admiral.
    Senator Inhofe. Thank you.
    Thank you, Admiral, for your straightforward answers and 
for the--your patience on this, perhaps your last event here.
    We are adjourned.
    [Whereupon, at 11:15 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Perdue
              efficiencies in cyber training and networks
    1. Senator Perdue. Admiral Rogers, in 2013, the Secretary of 
Defense directed the standup of the Cyber Mission Forces and provided 
funds for CYBERCOM and the service cyber components to establish teams 
and fund the training of personnel and units. Between 2013 and 2016, 
under your (CYBERCOM's) supervision the Office of the Secretary of 
Defense and the Joint Staff were supposed to come to an agreement on a 
joint, federated training program funded by the services for the 
training of the Cyber Mission Force (CMF). This federated training 
program was supposed to be an equitable division of labor that avoided 
duplication and built on the expertise of each service. Last year, I 
sponsored language in the NDAA that noted this committee's concern that 
the Services were not able to come to an agreement for this joint 
training program in time for last year's budget submission, and flagged 
this issue as a priority for the DOD to address. Can you update me on 
the status of that agreement on a joint training program for the Cyber 
Mission Force?
    Admiral Rogers. The Senate Report to S. 1376, ``urges the 
Department of Defense to create a federated and joint training model 
and discourage having each service build separate training capabilities 
for its cyber contingent.'' The Cyber Force Model Implementation Tiger 
Team (CFMITT), led by the Joint Staff, produced a Training Transition 
Report signed January 19, 2017. The CFMITT worked with USCYBERCOM to 
ensure that services will leverage respective centers of excellence and 
avoid duplication efforts. The transition plan made the recommendation 
to migrate to a hybrid model of centralized governance and 
decentralized execution of courseware. This model best leverages 
service strengths (and core roles) in training cyber forces using 
established training capability and capacity while ensuring a common 
training standard that meets USCYBERCOM's operational needs for the 
Cyber Mission Force.
    This transition is currently underway. The service cyber components 
have provided their transition plans to USCYBERCOM, and initial funding 
has been provided to each service to begin the transition. Training 
funding will be fully allocated to each service beginning in fiscal 
year 2019.

    2. Senator Perdue. Admiral Rogers, can you elaborate on CYBERCOM's 
new Joint Force Trainer role that has been specified in the Unified 
Command Plan (released last November)?
    Admiral Rogers. [Deleted.]

    3. Senator Perdue. Admiral Rogers, do you believe this Joint Force 
Trainer role fulfills the 2013 requirement?
    Admiral Rogers. Yes. As the approved CMF Training Transition Plan 
sets the conditions for the CMF, the JFT role will complement that plan 
with joint standards for the remainder of the JCOF. With USCYBERCOM's 
new JFT responsibilities and authorities, the command will establish 
training and certification standards for the cyberspace workforce, 
including personnel that secure, operate or defend and protect DOD, 
CCMD and U.S. cyberspace resources.

    4. Senator Perdue. Admiral Rogers, do each of the services maintain 
the same standards for cyber warriors?
    Admiral Rogers. There is one joint standard for training. 
USCYBERCOM promulgates those training standards as the Joint Force 
Trainer (JFT). Upon graduation from their service feeder schools, cyber 
personnel enter the Cyber Mission Force (CMF) Training Pipeline. This 
pipeline outlines USCYBERCOM's joint training requirements for 
individuals based upon their specific work role in the CMF. After 
individuals complete their training pipeline, CMF teams conduct 
collective training as a unit to demonstrate specific task proficiency; 
these tasks are outlined in the USCYBERCOM Training and Readiness 
Manual. Joint training standards are applied to all services to ensure 
that each team member in an assigned role is trained to the same level 
and standard.

    5. Senator Perdue. Admiral Rogers, we're in a fiscal environment 
where we simply can't afford waste and a security environment where we 
can't afford our services being out of sync on this critical issue. 
What synergies can be achieved by joint training? Will we avoid 
duplication and waste doing so?
    Admiral Rogers. [Deleted.]
                               __________
           Questions Submitted by Senator Kirstin Gillibrand
                      national guard and elections
    6. Senator Gillibrand. Admiral Rogers, last year, I included in the 
defense authorization a provision that would allow for the integration 
of election-system cyber vulnerabilities in the annual ``Cyber Guard'' 
exercise. I also required a report back on the exercise and the 
capabilities the National Guard could provide on elections security. 
For example, in the last election cycle, at least three states used 
Guard units to assess their elections systems' vulnerabilities. After 
all, the National Guard is already part of the national mission and is 
being trained to that standard, yet also serves the states and can 
serve under the control of state governors. Do you think that we have 
sufficiently explored the role of the National Guard in protecting our 
elections systems to address this gap between where the capabilities 
lie and who owns the systems?
    Admiral Rogers. One of the top priorities for USCYBERCOM is greater 
integration of the Reserve Component into our operations. One facet of 
this integration is understanding and enabling National Guard support 
to civil authorities during a domestic cyber event of significant 
consequence. The role for the National Guard in ensuring election 
systems integrity is an important topic worth examining. In August 
2018, USCYBERCOM will conduct a seminar-style exercise bringing 
together stakeholders to explore election systems. Invitees will 
represent the whole of nation; including various state, local and 
tribal governments, OOO, OHS and other interagency partners, as well as 
various state National Guard participants. USCYBERCOM's concept is to 
examine voting system vulnerabilities, authorities, countermeasures, 
threat information sharing, National Guard support and other relevant 
topics.

    7. Senator Gillibrand. Admiral Rogers, could the National Guard 
help address some of the existing gaps in our whole-of-nation approach 
and serve as a conduit on cyber between state, local and Federal 
Government as well as the private sector because of its unique 
authorities?
    Admiral Rogers. Yes, our whole-of-nation approach requires the use 
of the National Guard and the unique authorities under which its 
members operate. Future partnerships between USCYBERCOM, the Reserve 
Component, state local and tribal governments, along with interagency 
partners, enable these core missions by empowering operations that 
target the threat outside the United States while allowing law 
enforcement and state authorities to defend against the threat within 
the Homeland. Towards that end, USCYBERCOM, OHS and USNORTHCOM 
synchronize their efforts daily. Furthermore, USCYBERCOM's Cyber Guard 
exercise has been refocused to be an operational-level exercise. During 
the Cyber Guard exercise, USCYBERCOM's operations centers will 
coordinate closely with the National Guard Coordination Center, the DHS 
National Cyberspace & Communications Integration Center (NCCIC), and 
USNORTHCOM to refine our whole-of-nation unity of effort to defend the 
nation's Critical Infrastructure/Key Resources.
                             misattribution
    8. Senator Gillibrand. Admiral Rogers, this weekend, the press 
reported that Russia hacked the Olympics in South Korea and tried to 
make it look like North Korea had done it. The indictment that the 
Justice Department issued on February 16 alleged that the Internet 
Research Agency used VPNs to make it look like it was doing business in 
the United States. What do these two situations demonstrate to us about 
how our adversaries can mask their efforts and limit or misdirect 
attribution?
    Admiral Rogers. [Deleted.]

    9. Senator Gillibrand. Admiral Rogers, tensions with North Korea 
are already quite high and mistaken attribution--maybe not in the case 
of the Olympics, but were this an attack on United States 
infrastructure--could have significant consequences. For example, some 
of us have concerns that the new Nuclear Posture Review implies that 
the United States might use nuclear weapons to respond to a cyber 
attack on critical infrastructure. How do we ensure that a situation 
won't escalate over a misattribution and that we are not manipulated by 
actors whose goal is to make us to misattribute, possibly with dire 
consequences?
    Admiral Rogers. [Deleted.]
                      cyber workforce development
    10. Senator Gillibrand. Admiral Rogers, growing the cyber workforce 
has been the subject of intense interest on this committee, including 
determining the proper mix of active duty, reserve component (including 
National Guard), and civilian personnel and how to develop career 
tracks to recruit and retain cyber warriors. Last year, you and I spoke 
about whether the Cyber Mission Force were sufficient to meet all of 
our country's requirements and since then our needs have only grown. As 
you prepare to leave this position, can you please assess the state of 
development of the cyber workforce and specifically the Cyber Mission 
Force, including the question of whether we have enough people in the 
Cyber Mission Force?
    Admiral Rogers. [Deleted.]

    11. Senator Gillibrand. Admiral Rogers, what have you seen thus far 
in terms of recruitment and retention challenges?
    Admiral Rogers. Several ongoing initiatives are occurring within 
DOD, the Military services, USCYBERCOM and OPM to maintain, retain and 
recruit a talented cyber workforce, and some challenges are hindering 
our efforts. Competition and lack of professionalization (not to be 
confused with professionalism) are the biggest obstacles to 
identifying, recruiting and retaining qualified cyber operations 
personnel.
    Regarding initiatives, each military service maintains its own 
initiatives in regards to maintaining cyber talent. USCYBERCOM 
continues its own efforts to develop and manage a cyber-operations 
force that meets the missions through the Cyber Workforce Development 
Framework which is modeled after the five-phase Human Capital Life 
Cycle Model. OPM, in accordance with the July 2016 Federal 
Cybersecurity Workforce Strategy, provides guidance to use existing 
compensation flexibilities to recruit and retain cyber professionals.
    Our biggest challenge is competition. Highly qualified cyber 
professionals continue to be in high demand but low in quantity. 
Finding potential candidates has been less of a problem compared to our 
ability to attract them to federal service. Many candidates simply 
don't have the patience to wait on the federal hiring process, nor do 
they have the desire to accept lower wages set by federal compensation 
rules. The Department's new authorities for the Cyber Excepted Service 
(CES), provided in the Fiscal Year 2016 NOAA and addressed in personnel 
policies signed in December 2017, are great start to provide 
recruitment/retention incentives to the civilian cyber workforce. The 
CES takes elements from the Intelligence Community's Defense Civilian 
Intelligence Personnel System and is built to champion faster, flexible 
hiring. Future Target Local Market Supplement pay tables in Cyber 
Excepted Service will help improve ``lower wages'' in high demand cyber 
specialties and in hard-to fill localities, organizations, and grades. 
Those employees who do join typically do so for altruistic reasons; in 
order to serve their country and pursue a mission which is unique and 
important. While these attributes do our civil servants credit, it does 
not erase the fact they can find patriotic and fulfilling jobs in the 
private sector-which offer higher wages and competitive benefits.
    Another challenge is the professionalization of a ``cyber warrior'' 
can be molded from a host of different career fields. From on-net 
operators, to linguists and operational planners; cyber professionals' 
career paths are intermingled with other professional specialties. 
Unlike the intel or the special operations force communities, cyber 
does not have a well-worn path to career advancement . As such, many in 
our community feel isolated and have difficulty in seeing advancement 
within what could be a lifelong profession.

    12. Senator Gillibrand. Admiral Rogers, this committee is 
considering reforms to the military's personnel management practices. 
As we do that, do you think we should separate how we think about the 
cyber workforce from our approach toward conventional military 
functions?
    Admiral Rogers. This domain is unique because it impacts our 
success in other domains, but to treat it too differently would be 
misguided, as it would diminish the ability to execute operations and 
create operational outcomes.

    13. Senator Gillibrand. Admiral Rogers, do you think that we have 
developed a cyber strategy against which we can build our forces?
    Admiral Rogers. Questions about a cyber strategy are better 
addressed to DOD. As an operational command, USCYBERCOM's focus over 
the past five years has been building the Cyber Mission Force. All 133 
teams achieved Full Operational Capability.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                        attributing cyberattacks
    14. Senator Blumenthal. Admiral Rogers, in June 2017, Russia's 
military launched the NotPetya ransomware cyberattacks against Ukraine, 
but it was not until this month that the United States attributed the 
attack. Yet this delay in attribution is nothing new, as the United 
States only attributed the May 2017 WannaCry cyberattack to North Korea 
in December 2017. Attribution is an important step, but must come far 
sooner and be followed by swift action. Why are the sources of these 
attacks not identified to the public sooner? What are you doing to 
connect the dots at a more rapid pace?
    Admiral Rogers. [Deleted.]

    15. Senator Blumenthal. Admiral Rogers, in your testimony you note 
that ``improved attribution is in our strategic interest, but not 
strictly necessary to guard against many cyber threats.'' You go on to 
say, ``We do not have to gain positive attribution to each particular 
actor before we can act to protect ourselves and our allies and 
partners; in fact, all users must take basic steps to secure their data 
and systems. We need decisive responses at scale to threats and 
intrusions. That is where USCYBERCOM finds its mission.'' What have you 
done between the NotPetya and WannaCry attacks to decisively respond?
    Admiral Rogers. [Deleted.]

    16. Senator Blumenthal. Admiral Rogers, while attribution is 
important, it is not sufficient. Do you agree that North Korea, Russia, 
and other malicious actors must pay a steeper price for their 
cyberattacks? Do you agree that our actions so far have not made them 
realize that they have more to lose than gain with their behavior?
    Admiral Rogers. Deterrence is partially a function of perception. 
It works by convincing a potential adversary that it will suffer 
unacceptable costs if it conducts an attack on the United States, and 
by decreasing the likelihood that a potential adversary's attack will 
succeed. The United States must be able to declare or display effective 
response capabilities to deter an adversary from initiating an attack; 
develop effective defensive capabilities to deny a potential attack 
from succeeding; and strengthen the overall resilience of U.S. systems 
to withstand a potential attack if it penetrates the United States' 
defenses. In addition, the United States requires strong intelligence, 
forensics and indications and warning capabilities to reduce anonymity 
in cyberspace and increase confidence in attribution.
    Paying a ``steeper price'' for cyber attacks is one strategy for 
impacting the risk versus reward calculus but it must be considered as 
one component of a full range of options.
              countering russian disinformation campaigns
    17. Senator Blumenthal. Admiral Rogers, USCYBERCOM's National 
Mission Teams' mission is to defend the nation from cyberattacks of 
significant consequence. How can we best use these teams to counter 
Russia's disinformation campaigns for our elections?
    Admiral Rogers. Defending the nation from cyber attacks of 
significant consequence is a broad mission set encompassing support to 
civil authorities and Homeland defense. The National Mission Teams of 
the Cyber National Mission Force (CNMF) can best be employed as part of 
a larger whole-of-government response--in understanding 
vulnerabilities, identifying malicious cyber actors, actions, and 
activities and sharing information on adversary activities, mitigations 
and defensive measures.

    18. Senator Blumenthal. Admiral Rogers, I agree with your statement 
in your testimony that Russia's actions ``threaten the foundations of 
democracy.'' Would you also agree that Russia has not been deterred by 
our actions thus far? Would you concur with members of the 
Administration--such as CIA Director Pompeo and Secretary Tillerson--
that Russia will continue to seek to meddle in our elections?
    Admiral Rogers. [Deleted.]
                             cyber strategy
    19. Senator Blumenthal. Admiral Rogers, because the current 
Administration has yet to articulate a cyber strategy, this Committee 
required the President to develop a national policy on cyber in the 
Fiscal Year 2018 NDAA, including how to deter, disrupt, deny, and 
respond to cyberattacks to improve our resiliency and offensive 
capabilities. What is USCYBERCOM's role in the development of the 
President's cyber policy? Please provide a status update on the 
development of this policy.
    Admiral Rogers. Questions about a cyber strategy are better 
addressed to DOD. As an operational commander, USCYBERCOM identifies 
options and recommends courses of action to the SECDEF and President 
through the Chairman of the Joint Chiefs of Staff. Working through the 
Joint Staff and the OSD, USCYBERCOM supports the development of 
national-level strategy and policy.

    20. Senator Blumenthal. Admiral Rogers, how do you define a 
cyberattack? What constitutes an act of war in the cyber realm?
    Admiral Rogers. Whether a particular cyber activity rises to the 
legal definition of an armed attack or a use of force under 
international law, or otherwise constitutes an unlawful intervention, 
is highly fact-specific and is determined on a case by-case basis by 
our national policy makers. Similarly, the decision to declare an event 
an ``act of war'' resides in the hands of elected leaders in accordance 
with the law.

    21. Senator Blumenthal. Admiral Rogers, last month, DOD released 
its National Defense Strategy. I am concerned that it does not 
emphasize cyber enough. It notes DOD will ``invest in cyber defense, 
resilience, and the continued integration of cyber capabilities into 
the full spectrum of military operations.'' We must send a strong 
signal to our adversaries that we are serious about addressing this 
threat. How does the National Defense Strategy inform and strengthen 
USCYBERCOM's work?
    Admiral Rogers. [Deleted.]
                       north korea cyber revenue
    22. Senator Blumenthal. Admiral Rogers, what is USCYBERCOM doing to 
blind North Korea's cyber capabilities to prevent the regime from 
continuing to launch offensive cyber operations that provide illicit 
revenue for their nuclear weapons program?
    Admiral Rogers. [Deleted.]

    23. Senator Blumenthal. Admiral Rogers, last week, the 
Administration announced its largest tranche of sanction designations 
against North Korea, yet this did not focus on their cyber activity. Do 
you agree that we must do more to make North Korea pay a steeper price 
for its cyberattacks?
    Admiral Rogers. This is a decision for our Nation's leaders.
                  fancy bear targets defense industry
    24. Senator Blumenthal. Admiral Rogers, it was recently reported 
that Russian hacking group ``Fancy Bear'' targeted 87 United States 
defense contractors who work on weapon systems critical to our national 
security. While it is still uncertain what may have been stolen--what 
is clear is that Fancy Bear continues to target the U.S. with impunity. 
What should the U.S. be doing to address this intrusion? How do we 
address the loss of sensitive national security data?
    Admiral Rogers. [Deleted.]

    25. Senator Blumenthal. Admiral Rogers, it is reported that as many 
as 40 percent of the targeted contractors clicked on Fancy Bear's 
phishing links. How can employers improve their cybersecurity training 
to ensure their employees do not fall prey to these tactics?
    Admiral Rogers. [Deleted.]

    26. Senator Blumenthal. Admiral Rogers, how is USCYBERCOM working 
with the defense industrial base to prevent and protect against this 
exfiltration of industry data on our most advanced weapon systems?
    Admiral Rogers. [Deleted.]
                               __________
                Questions Submitted by Senator Tim Kaine
                               sharkseer
    27. Senator Kaine. Admiral Rogers, I'm sure you are aware of the 
NSA's SharkSeer cybersecurity program, which orchestrates 23 commercial 
technologies--most, if not all, of which have a large presence in the 
Commonwealth of Virginia--to provide automated cyber defense for the 
DOD information network. It is my understanding that since becoming 
fully operational, SharkSeer has increased DOD detection rates by 886 
percent and has discovered over 2 billion unique cyber events. I also 
understand that SharkSeer's automated means for detecting, analyzing 
and responding to nation-state cyber events has replaced the need for 
nearly 90 personnel to generate mitigations; now, only a few personnel 
are needed to approve automated work flows and interactive mitigations 
are executed in minutes rather than days--this means that DOD's 
security architecture is not only more secure, it's also more cost 
effective. Can you please share your general views on both the efficacy 
and the cost-effectiveness of the SharkSeer program?
    Admiral Rogers. [Deleted.]
                           sharkseer transfer
    28. Senator Kaine. Admiral Rogers, I understand that DOD is 
planning on transferring the SharkSeer program from the NSA to the 
Defense Information Systems Agency, though there appears to be a lack 
of clarity regarding that determination. How do you and the Defense 
Department intend to continue to support the great strides the 
SharkSeer program has made?
    Admiral Rogers. DISA and NSA plan to submit a Fiscal Year 2020 
Issue Paper to fund the transfer of the Sharkseer (SS) program to DISA. 
The Fiscal Year 2020 Issue Paper will address: continued sustainment of 
the current SS system; conducting a technical refresh of the current 
baseline, while seeking a reduction in sustainment costs; and the 
evolution of the SS system. DISA will sustain and operate the system, 
while NSA will conduct the research to evolve SS to combat more 
threats.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 8, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                     UNITED STATES EUROPEAN COMMAND

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Ernst, Tillis, Sullivan, Perdue, Sasse, Scott, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The committee meets to receive testimony on the posture of 
United States European Command, EUCOM. We welcome our witness, 
General Scaparrotti.
    Chairman McCain asked that I submit a statement for the 
record on his behalf, and read the following excerpt, ``The 
United States faces a new strategic reality in Europe. The 
first step in addressing it is to recognize the scope, scale, 
and seriousness of the challenges Russia presents to our 
national security and to the international order. Then we need 
to--a coherent strategy and policy to deter and, if necessary, 
defeat aggression against the United States and our allies. We 
must be prepared to face the world as it is, not as we wish it 
to be.''
    [The information referred to follows:]

               Prepared Statement by Chairman John McCain
    The United States faces a new strategic reality in Europe. The 
first step in addressing it is to recognize the scope, scale, and 
seriousness of the challenges Russia presents to our national security 
and to the international order. Then we need a coherent strategy and 
policy to deter and, if necessary, defeat aggression against the United 
States and our allies. We must be prepared to face the world as it is, 
not as we wish it to be.
    The administration's new National Defense Strategy recognizes this 
new strategic reality and provides a framework for prioritizing the 
most complex and dynamic global threat environment since the end of 
World War II. It identifies long-term interstate competition with 
countries like Russia as the primary challenge we face and offers a 
roadmap for adjusting to this new era of great power competition.
    As we decide how to move forward in this new reality, it is 
important to remember how we got here. Russia's recent investment in 
military modernization is designed to erode the United States military 
advantage. Its buildup of troops along its western border is designed 
to intimidate our allies. Its interference in democracies near and far 
is designed to undermine our confidence in our own institutions.
    Ultimately, each of these efforts is part of Mr. Putin's plan to 
shift the international order toward authoritarianism and lay the 
groundwork for future aggression. We cannot let this stand. If we 
continue to allow Russian provocation--from its invasion of Ukraine to 
its development anti-access/area denial capabilities in Kaliningrad to 
its violation of the INF Treaty to its interference in elections--to go 
unanswered, we are teaching Mr. Putin a very dangerous lesson.
    We have finally begun to impose costs on this provocation and work 
to deter future aggression. Efforts such as congressional support for 
the European Deterrence Initiative and the administration's decision to 
provide defensive lethal assistance to Ukraine are significant steps 
toward developing the right approach to dealing with Russian revanchism 
and assuring our European allies and partners. I hope this hearing will 
include a conversation about what kinds of new policies, resources, and 
authorities would help EUCOM further the recent progress we have made.
    Underlying each of these issues is another important reality: no 
United States policy or strategy in Europe can succeed without a strong 
NATO alliance. As we adjust to the renewed era of great partner 
competition and begin to implement the new National Defense Strategy, 
we must do so in close coordination with our European allies and 
partners. We should never forget that America is safer and more secure 
because we work with and through our allies, who are willing to step up 
and share the burden of collective security.

    Senator Inhofe. Your testimony today is extremely relevant 
as the United States is engaged in a renewed great-power 
competition with Russia. The National Defense Strategy 
prioritizes Russia and China. It's been stated, by several of 
the top people, that we're losing some of our edge that we've 
had in the past. We clearly see the growing threat that 
Russia--especially in Europe. Vladimir Putin recently discussed 
Russia's new nuclear capabilities, including a new ICBM 
[intercontinental ballistic missile], intercontinental 
hypersonic missile, nuclear-powered cruise missiles, and 
undersea drone. This is in addition to Russia's aggressive 
behavior in Ukraine and the cyber domain.
    Then there's China and their militaristic expansion in the 
Pacific. While this is not part of your AOR [Area of 
Responsibility], it's one where we--several of us--Senators 
Ernst and several of us who have just recently visited, we are 
watching what's going on there. If something should happen in 
the East China Sea that would draw our assets over, that would 
have a direct effect on you, General.
    This week, we received testimony from the Director of 
National Intelligence in which he stated, ``The risk of 
interstate conflict, including among the world's great powers, 
is higher than at any time since the end of the cold war.'' 
General Scaparrotti, we ask you to help this committee begin to 
think through the requirements necessary to implement the new 
strategy and what resources and authorities you might need that 
you don't currently have. Thank you very much for attending.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Scaparrotti, thank you for joining us this morning, 
and let me also thank you for your service to the Nation over 
many years. Please extend our gratitude to the military men and 
women and their families under your command for their 
commitment and service to the Nation. Thank you.
    The new National Defense Strategy marks a shift in United 
States defense priorities from terrorism to the reemergence of 
long-term strategic competition with near-peer rivals, 
particularly Russia and China. This morning's hearing is an 
opportunity to hear from General Scaparrotti on EUCOM's 
military plans and operational requirements for implementing 
the new defense strategy within the European theater.
    There can be no doubt that Russia poses a serious threat to 
United States national security, and that our allies and 
partners are also threatened. We have repeatedly heard from our 
intelligence leaders, including Director of National 
Intelligence Coats on Tuesday, that Russia is aggressively 
confronting the United States and its allies, seeking to 
destabilize the international order, which President Putin 
considers contrary to Russia's claim to great-power status. 
Russia is also seeking to reassert a sphere of influence over 
its neighbors, and has actively sought to prevent their further 
integration with Europe.
    To advance its strategic interests, Russia is using the 
full spectrum of capabilities at its disposal, from nuclear and 
conventional modernization to asymmetric operations below the 
threshold of direct military conflict. Just last week, 
President Putin gave to nuclear and conventional saber-rattling 
in his annual address to the Russian nation.
    The Kremlin's hybrid aggression against the West includes 
deception, information warfare, cyberattacks, political 
influence, and malign financial influence. Russia is using the 
war in Ukraine as a test lab for new hybrid warfare tactics, 
including, as the White House recently confirmed, the Russian 
military's ``NotPetya'' ransomware cyberattack against Ukraine. 
The intelligence community is already warning that Russia has 
launched an assault on the United States midterm elections this 
year with even more sophisticated tools than in the 2016 
presidential election. General Scaparrotti, we'll be interested 
in hearing what tasking, if any, you've received from the White 
House to disrupt or prevent Russian operations aimed at 
interfering with our democratic institution as well as those of 
our allies.
    Over the last few years, Congress has authorized critical 
resources to reassure our allies and ensure a credible military 
deterrent against Russian aggression. The fiscal year 2019 
defense budget request includes $6.5 billion for the European 
Deterrence Initiative, or EDI, to continue to enhance our 
deterrence and defense posture throughout Europe. The committee 
is interested in hearing your priorities for EDI for the coming 
fiscal year.
    I commend EUCOM for taking steps to start rebuilding the 
Command's expertise on Russia to better understand the Russian 
threat perception and the Kremlin's decisionmaking process. I 
remain concerned about our naval posture in Europe to counter 
the Russian threat, and EUCOM's cyber challenge.
    The U.S. EDI funding has also been an effective tool for 
leveraging increased defense spending by our NATO [North 
Atlantic Treaty Organization] allies, and I hope that will 
continue at the next NATO summit planned for July in Brussels.
    As Supreme Allied Commander Europe, you play a critical 
role in ensuring that the alliance is prepared to respond in 
the event of a crisis. In February, NATO defense ministers 
approved changes to the alliance command structure, including 
the establishment of a new joint force command for the 
Atlantic. An area of concern is the ability of the NATO force 
structure to respond quickly to any early stages of a crisis 
before NATO reaches an article 5 declaration. I would be 
interested in your views on whether additional authorities 
should be delegated to SACEUR to initiate the movement of force 
as the crisis begins to unfold and before NATO members reach a 
political decision.
    Strategic competition with Russia is but one of the many 
challenges with the EUCOM theater. Relations with Turkey have 
been tense due to the instability and violence in Syria and 
Turkey's decision to buy the Russian S-400 air defense system, 
which potentially jeopardizes the full range of United States-
Turkey defense cooperation. The flow of people seeking refuge 
across the Mediterranean to southern Europe has strained these 
nations' security resources and has helped fuel the rise of 
nationalistic anti-immigrant political parties in some 
countries. Longstanding simmering resentments in the Balkans 
risk increased instability in the region.
    I look forward to this morning's testimony, and again, 
thank you, General Scaparrotti, for being here today, and for 
your service.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    General, we have--there's another hearing that's taking 
place at the same time--we have nine members on--of this 
committee that are also on Environment and Public Works, so 
you'll see some movement back and forth. Forgive us for that. 
You are recognized for your opening statement, anything you 
want. Your entire statement will be part of the record. Try to 
confine it to around 5 minutes.

  STATEMENT OF GENERAL CURTIS M. SCAPARROTTI, USA, COMMANDER, 
    UNITED STATES EUROPEAN COMMAND, AND NATO SUPREME ALLIED 
                        COMMANDER EUROPE

    General Scaparrotti. Thank you, Chairman.
    Chairman Inhofe, Ranking Member Reed, distinguished members 
of the committee, thank you for the opportunity to testify 
before you today as the Commander, United States European 
Command.
    It's an honor to represent more than 60,000 men and women 
who are forward-deployed, supporting United States' mission in 
Europe. Our soldiers, sailors, airmen, and marines, our 
coastguardsmen and civilian workforce continue to demonstrate 
selfless service and dedication in an increasingly complex and 
competitive security environment. Our adaptation to this 
environment has made significant progress, thanks to the 
resourcing provided by Congress, particularly under the 
European Deterrence Initiative. EUCOM deeply appreciates 
Congress's support for EDI, which has supported the largest 
reinforcement of Euro-Atlantic defense in a generation.
    In this reinforcement, the U.S. has been joined by NATO 
alliance, which remains a keystone to our national security, as 
it has been for almost seven decades. I'm proud to report that 
the alliance is strong, it is unified, and it's committed to 
being fit for purpose. Our European allies in Canada have 
turned a corner on defense spending, with increases in each of 
the past 3 years. During this time, they've added $46 billion 
to defense spending, including $5 billion increase from 2016 to 
2017. In 2018, eight countries will meet NATO's 2 percent 
spending target, with at least 15 nations on pace to reach or 
exceed 2 percent mark by 2024. Backed by these collective 
commitments, NATO is adapting to ensure its vigilance in peace, 
responsiveness in crisis, and that it possesses the strategic 
depth for high-end, large-scale, multidomain conflict.
    Together with NATO, the United States has made significant 
progress, but we have much work to do as we execute our 
National Defense Strategy dealing in increasingly lethal, 
agile, and resilient joint force in long-term strategic 
competition with Russia, and ready to counter violent extremist 
organizations.
    Russia is carrying out a campaign of destabilization to 
change the international order, fracture NATO, and undermine 
United States leadership around the world. To this end, Russia 
is advancing asymmetric capabilities in accordance with its 
concept of warfare, which envisions the employment of the full 
spectrum of military and nonmilitary power. Throughout Europe, 
along its periphery, in the Middle East, and beyond, Russia has 
demonstrated a willingness and capability to exert influence, 
spread disinformation, and undermine confidence in NATO. At 
sea, on land, in the air--frankly, every domain--Russia's 
increasingly modernized military is operating at levels not 
seen since the cold war. In response to the challenge posed by 
Russia's pursuit of power, the United States has increased its 
posture in Europe by deploying rotational forces, to include an 
armored brigade combat team, a combat aviation brigade as well. 
Additionally, we've implemented the Framework Battalion Task 
Force for NATO's enhanced forward presence in Poland. We have 
pre-positioned equipment for an additional armored brigade 
combat team. We have doubled the maritime deployments to the 
Black Sea. We have exercised theater antisubmarine warfare 
operations. We have executed bomber assurance and deterrence 
missions and, for the first time, we've deployed fifth-
generation fighters to Europe. The United States has taken 
these actions in coordination with NATO, which, since the 2016 
Warsaw Summit, has made significant gains in meeting its 
security commitments and in implementing decisions to enhance 
our collective defense. NATO has implemented its enhanced 
forward presence with four multinational battle groups, backed 
by 29 nations. It's also established a tailored forward 
presence in the Black Sea region. Collectively, this enhanced 
deterrence posture is necessary to prevent further Russian 
aggression, preserve stability, and reassure allies and 
partners.
    The second major threat we face throughout the European 
area of operation is violent extremist groups. Since 2014, 
Europe has endured 18 major terrorist attacks. While the Defeat 
ISIS [Islamic State of Iraq and Syria] Coalition, which 
includes NATO, recovers seized territory in Iraq and Syria, 
ISIS remains active, and seeks to expand its operations across 
Europe. EUCOM provides forces for military operations against 
ISIS, such as Operation Inherent Resolve [OIR], and has 
increased information intelligence-sharing among its United 
States agencies, international partners, and the private 
sector. With the EU, NATO, EUCOM--with the EU and NATO, EUCOM 
supports a trinodal community of action to identify and counter 
terrorist threats. Also, EUCOM has increased coordination with 
EUROPOL [European Union Agency for Law Enforcement Cooperation] 
and INTERPOL [International Police] to thwart terrorist 
activities.
    Our European allies deploy forces worldwide to support 
United States-led counterterrorism operations, including OIR 
and Operation Freedom Central, and to conduct national 
counterterrorism missions. The allies are committed to this 
fight, and their support is essential to ongoing 
counterterrorism efforts.
    In addition to deterring Russia and defeating violent 
extremist organizations, EUCOM is working to strengthen 
strategic partnerships, bolster regional security, and 
reinforce a free and open international order conducive to our 
security and prosperity. Thanks to the resources provided by 
Congress, particularly through the European Defense Initiative, 
EUCOM has made significant headway in establishing a defense 
posture that is credible, capable, and relevant to our 
strategic objectives.
    As our National Defense Strategy states, ``A strong and 
free Europe bound by shared principles of democracy, national 
sovereignty, and commitment to article 5 of NATO's treaty is 
vital to our security.'' The servicemembers and civilians at 
EUCOM stand ready to protect the Homeland, strengthen the 
alliance, and defend a Europe that's whole, free, and at peace.
    Mr. Chairman, thank you, and I look forward to the 
committee's questions.
    [The prepared statement of General Scaparrotti follows:]

          Prepared Statement by General Curtis M. Scaparrotti
                              introduction
    Mr. Chairman and distinguished members of this committee, thank you 
for the opportunity to testify before you as the Commander of the 
United States European Command (USEUCOM). It is an honor to represent 
the more than 60,000 men and women who are forward-deployed supporting 
our USEUCOM mission. Our soldiers, sailors, airmen, marines, coast 
guardsmen, and civilian workforce continue to demonstrate selfless 
service and dedication in an increasingly contested and complex 
security environment, both in Europe and around the globe. We greatly 
appreciate the continued support of this committee.
    The Trans-Atlantic alliance is a keystone of our national security. 
USEUCOM, fully aligned with the National Defense Strategy (NDS), 
supports each of the President's four National Security Strategy (NSS) 
objectives by strengthening and safeguarding this alliance. Europe 
provides essential strategic access in support of United States global 
operations to protect the Homeland and the ability to pursue potential 
threats to their source. As our most significant trading partner, 
Europe is vital to promoting American prosperity. The North Atlantic 
Treaty Organization (NATO) enables us to preserve peace through 
strength as alliance unity fundamentally deters the aggression of 
potential adversaries. With shared history and values, Europe is also a 
critical partner in advancing American influence throughout the world.
    There are real threats, however, to United States interests in 
Europe and to Israel (which also falls within the USEUCOM area of 
responsibility). These threats are trans-regional, multi-domain, and 
multi-functional. Additionally, the speed, complexity, and breadth of 
new threats and challenges are increasing.
    USEUCOM continues to adjust to this dynamic strategic environment, 
aggressively adapting our thinking and approaches to meet our assigned 
missions. In doing so, the Command's focus has shifted from engagement 
and assurance to deterrence and defense. USEUCOM has adapted its plans, 
posture, activities, and strategic communications to shape the 
operational environment and prepare forces to respond to crisis at 
speed. In all these efforts, we are guided by Secretary Mattis's 
direction to sharpen our military edge, expand the competitive space 
with Russia, and provide a combat-credible military force to deter war 
and protect the security of our Nation.
    Our adaptation to the new European security environment has made 
significant progress thanks to the resourcing provided by Congress, 
particularly under the European Deterrence Initiative (EDI). USEUCOM 
deeply appreciates Congress' support for EDI, which remains crucial to 
preserving peace and stability in Europe. We have accomplished much, 
but we have much work to do to support an increasingly lethal, agile, 
and resilient Joint Force in long-term, strategic competition with 
Russia and in combat with violent extremist organizations.
                     useucom strategic environment
Russia
    Russia continues to destabilize regional security and disregard 
international norms, which have preserved the peace in Europe since 
1945. Russia seeks to change the international order, fracture NATO, 
and undermine United States leadership in order to protect its regime, 
re-assert dominance over its neighbors, and achieve greater influence 
around the globe. To achieve these ends, the Kremlin is prepared to 
employ the full spectrum of Russia's power, to include forcefully using 
its increasingly capable military. Russia has demonstrated its 
willingness and capability to intervene in countries along its 
periphery and to project power--especially in the Middle East. 
Additionally, Russia aggressively uses social media and other means of 
mass communication to push disinformation, test the resolve of the 
United States, and erode our credibility with European partners.
    The Russian military is improving and modernizing its capabilities, 
enhancing its ability to be a more agile force capable of executing 
operations across the entire spectrum of modern warfare. Moscow's 
strategic armament program has led to increased defense spending with 
an estimated investment of $285 billion in modernization from 2011 
through 2020. Russia continues to modernize its nuclear forces and to 
develop and deploy long-range, precision-guided conventional weapons 
systems. In the Baltic and Black Sea regions, and in the Eastern 
Mediterranean, Russia is expanding its anti-access area-denial (A2/AD) 
capabilities threatening freedom of movement to our land forces, our 
ships, and our aircraft. In the maritime domain, Russia is making rapid 
progress with its new Severodvinsk nuclear attack submarine, more 
capable Kilo submarines, and Kalibr cruise missiles. Russia continues 
to hold snap exercises and to limit transparency of planned exercises. 
Additionally, Russia continues to intercept our routine reconnaissance 
flight operations over the Baltic and Black Seas, flying dangerously 
close to our aircraft and occasionally causing unsafe conditions for 
our pilots operating in international airspace.
    Along with military modernization, Russia is advancing its indirect 
and asymmetric capabilities in accordance with its concept of warfare, 
which envisions the coordinated use of military and non-military 
elements of national power to shape the strategic environment. 
Throughout Europe, Russia exercises malign influence to disrupt and 
attempt to fracture NATO, undermine trans-Atlantic cohesion, and erode 
democratic foundations. Russia interferes in the electoral process 
across numerous states, including supporting a plan to violently 
disrupt elections in Montenegro, the newest member of NATO. Russia 
works to influence the geopolitical environment through the use of key 
acquisitions, proxies, and other agents of influence. Using indirect 
action, particularly against countries along its periphery, Russia 
seeks to use information operations and cyberspace operations to 
manipulate and influence the information domain and to shape a 
narrative of its choosing.
    Russia's strategy of malign influence also includes prolonging 
unresolved conflicts across Europe and Eurasia. In Ukraine, Russia 
continues to train and equip proxy forces in the east and refuses to 
implement its commitments to the Minsk Agreements. As part of Russia's 
effort to destabilize Ukraine, the Russian military launched the 
destructive and costly NotPetya cyber-attack in June 2017. Russia 
maintains its presence in Moldova, preventing a resolution of the 
conflict in Transnistria. Russia stations roughly 5,000 troops in 
Armenia and sells weapons to both Armenia and Azerbaijan despite 
ongoing tensions over the Nagorno-Karabakh conflict. In Georgia, Russia 
maintains 7,000 troops in South Ossetia and Abkhazia and has recognized 
both regions as independent states with military, economic, and social 
linkages to the Russian Federation, despite the fact that Georgia, 
supported by the international community, has opposed this recognition. 
In Bosnia and Herzegovina, Russia uses relationships with the 
leadership of Republika Srpska to undermine the state institutions 
established by the Dayton Accords.
    The threat from Russia is not limited to the European theater but 
extends all along its periphery and beyond. Russia is exerting its 
influence in the Middle East, where its intervention in the Syrian 
civil war bolstered the Assad regime, enabling the expansion of Iranian 
influence across the Levant. Russia is also increasing aid to Middle-
East states, deepening collaboration with Iran, and extending its 
influence in Saudi Arabia, Egypt, Libya, and Cyprus. These efforts are 
changing regional dynamics, adversely affecting Israel's security, 
stability in Lebanon, and other United States interests in the region.
    In the Arctic, Russia is revitalizing its northern fleet and 
building or renovating military bases along their Arctic coast line in 
anticipation of increased military and commercial activity. Russia also 
intends to assert sovereignty over the Northern Sea route in violation 
of the provisions of the United Nations Convention of the Law of the 
Sea (UNCLOS). Although the chances of military conflict in the Arctic 
are low in the near-term, Russia is increasing its qualitative 
advantage in Arctic operations, and its military bases will serve to 
reinforce Russia's position with the threat of force.
    Our highest strategic priority as a Combatant Command is to deter 
Russia from engaging in further aggression and exercising malign 
influence over our allies and partners. In accordance with the NDS, and 
thanks to Congressional support, we are working to create a combat-
credible posture in Europe that will underpin our deterrence. We are 
updating our operational plans to provide military response options to 
defend our European allies against Russian aggression. Finally, we are 
increasing our efforts to counter Russia's malign influence in Europe 
and compete below the level of armed conflict. This includes supporting 
the Russian Information Group (RIG), an interagency effort to counter 
Russia's propaganda and misinformation campaigns.
    To effectively expand our competitive space with Russia we must 
have a whole-of-government approach that employs all elements of our 
national power. Visible political, economic, and military commitments 
are critical in deterring Moscow while reassuring allies. Continued 
Congressional support is essential to our Nation's ability to 
successfully compete with Russia over the long-term, shore up the 
international order, and preserve European security.
Violent Extremist Organizations and Terrorism
    Violent extremists remain a significant threat to our allies and 
partners throughout the Euro-Atlantic. Decentralized transregional 
terrorist organizations thrive in the security vacuums of failed 
states. Additionally, violent extremists continue to pose a threat to 
United States personnel, our allies, and our infrastructure in Europe 
and around the globe.
    As coalition actions recover ISIS-seized territory in Iraq and 
Syria, ISIS remains active and seeks to expand its operations across 
Europe. ISIS operatives and sympathizers are targeting European 
citizens for radicalization and recruitment. In cyberspace, ISIS 
reaches across geographic boundaries to entice new followers, direct 
acts of terrorism, and spread their extremist ideology.
    USEUCOM works directly with our European partners and our Combatant 
Command counterparts to identify and counter threats to the United 
States and United States interests. USEUCOM provides forces for 
military operations against ISIS, such as Operation Inherent Resolve 
(OIR), in the Middle East. In addition, we continue to increase 
information and intelligence-sharing among United States agencies, 
international partners, and the private commercial sector. We also 
continue to pursue radicals in the digital domain where they are able 
to hide and recruit others. These efforts help close the seams 
exploited by terrorist networks and link global counterterrorism 
efforts to reduce the Homeland's vulnerability to terrorism emanating 
from Europe and to reduce the terrorist threat to our allies.
    Coordination among NATO, partner nations, and international 
organizations such as EUROPOL and INTERPOL is central to defeating 
VEOs. For example, information sharing and coordination with the 
International Criminal Police Organization (INTERPOL) has assisted 
investigations in more than 80 countries to date. Our EU, NATO, and 
USEUCOM-shared Tri-nodal Community of Action targets existing VEO 
networks and facilitates expanded intelligence and law enforcement 
information-sharing.
    European allies provide essential strategic access for United 
States, allied, and coalition counter-terrorism operations in the 
AFRICOM and CENTCOM Areas of Responsibility (AOR). The United States 
depends on countries in the USEUCOM AOR to grant overflight and use of 
host-nation facilities in countries where we do not have permanent 
basing. U.S. facilities in the USEUCOM AOR are not sovereign U.S. 
territory, and therefore basing and access permissions to conduct 
operations from these facilities are subject to limitations in 
bilateral agreements with host-nations. In addition to providing 
critical strategic access, European allies deploy forces worldwide to 
support United States-led counter-terrorism operations, including OIR 
and Operation Freedom's Sentinel (OFS), as well as to conduct national 
counter-terrorism missions. Allies are committed to this fight, and 
their support is essential to our ongoing counter-terrorism efforts.
    Deterring Russia and defeating violent extremist organizations 
constitute USEUCOM's two main priorities. Supporting these main 
efforts, within the NATO alliance and throughout the AOR, we are 
working to strengthen strategic relationships, bolster regional 
security, and reinforce a free and open international order.
NATO
    NATO allies are adapting to new strategic realities, recognizing 
their need to remain fit for purpose. They are making significant gains 
in meeting their security commitments and implementing decisions made 
at the 2014 Wales and 2016 Warsaw Summits. Latvia, Lithuania, and 
Romania have joined the United States, Greece, Poland, Estonia, and the 
United Kingdom in meeting NATO's 2 percent defense spending target, and 
by 2024, 15 allies are expected to reach or exceed the 2 percent 
guideline. Additionally, in 2018, 22 NATO members will meet the 20 
percent target for defense expenditures devoted to investment in major 
equipment and related research and development. We have now seen three 
consecutive years of growth among European allies and Canada, adding 
approximately $46 billion (USD) to defense.
    Another aspect of burden sharing is contributions to operations, 
missions, and other activities. Germany, Canada, and the United Kingdom 
serve as Framework Nations for NATO enhanced Forward Presence (eFP) 
battle groups in Lithuania, Latvia, and Estonia respectively. The 
United Kingdom, Romania, and Croatia contribute forces to the United 
States-led eFP battle group in Poland, and Italy is the Framework 
Nation for the 2018 NATO Very High Readiness Joint Task Force brigade. 
Allies are committing personnel to fill gaps in the Resolute Support 
Mission and Kosovo Forces (KFOR). Nations are also adding capabilities 
and skills in cyber, joint effects, and asymmetric action to remain 
relevant to the changing character of warfare in the new strategic 
environment. Allies are also working together to ensure the credibility 
and readiness of our nuclear deterrent, which requires continued 
commitment and investment.
    Given the realities of this strategic environment, the alliance has 
undertaken a NATO Command Structure Adaptation (NCS-A) effort. The new 
NCS design will account for the complexity stemming from the 
interrelation of crises and threats, the emergence of new warfare 
domains, the speed and breadth of combat action, and the requirements 
for the timely fusion of information and decision-making from the 
tactical to strategic levels. Proposed changes include increased 
manpower at command headquarters for situational awareness, planning, 
and targeting capabilities, a third Joint Force Command focused on the 
Atlantic maritime space, and a Joint Support and Enabling Command to 
facilitate multi-directional force maneuver and support in conflict. 
Combined, the proposed organizations, enablers, and processes will 
improve the capability and capacity of the Alliance for vigilance in 
peace, responsiveness in crisis, and strategic depth in a large-scale, 
multi-domain conflict.
    USEUCOM is supporting NATO's augmentations in deterrence and 
defense forces. Since April 2017, USEUCOM's 2nd Cavalry Regiment (2CR), 
based in Vilseck, Germany, and has fulfilled the United States 
commitment as the Framework Nation for the NATO eFP battle group in 
Poland. 2CR will hand off the eFP mission in September 2018 to the 
278th Armored Cavalry Regiment of the Tennessee Army National Guard. In 
the fall of 2017, USEUCOM's 493 Fighter Squadron deployed to Lithuania 
to conduct the NATO Baltic Air Policing mission. In addition to 
operational deployments, we are contributing to NATO defense and 
operational planning in such areas as NATO operational fires, 
integrated air and missile defense (IAMD), and hand-over/take-over 
between U.S. and NATO headquarters. Finally, USEUCOM support to the 
NATO exercise program includes leading the planning for United States 
participation in the Trident Juncture 18 exercise in Norway scheduled 
for late October 2018. Approximately 30,000 U.S., allied, and partner 
nation personnel are expected to participate in Trident Juncture 18.
    With the close support of other Geographic and Functional Combatant 
Commanders, the Joint Staff, the Services, and the Missile Defense 
Agency, USEUCOM and its Service components are augmenting NATO's 
Ballistic Missile Defense. The implementation of European Phased 
Adaptive Approach (EPAA) Phase 3 will increase NATO's strategic depth. 
Recent multi-national deployments in support of Operation Active Fence 
in Turkey, and NATO's ongoing development of complementary BMD 
capabilities demonstrate clear progress on a combined IAMD 
architecture.
    To enhance freedom of movement in the European theater, USEUCOM has 
formulated a military mobility strategy that will enable United States 
and Allied forces to respond to crises at speed. We have leveraged 
Armored Brigade Combat Team (ABCT) and Combat Aviation Brigade (CAB) 
rotations to refine our understanding of the requirements and timelines 
for Joint Reception, Staging, Onward Movement and Integration (JRSOI) 
of forces deploying into the theater. Through bilateral and 
multilateral key leader engagements, we have encouraged our European 
allies to address policies and procedures that impede freedom of 
movement.
    USEUCOM complements its support to NATO with bilateral partnership 
and capacity building efforts with allies and partners. In fiscal year 
2017, USEUCOM conducted over 2,500 military-to-military engagements, 
including over 700 State Partnership Program events in 22 countries, 
and under section 1251 authority, USEUCOM trained nine allies in 22 
exercises. These activities directly support ongoing United States and 
NATO operations, increase interoperability, promote partner nation 
integration in the Euro-Atlantic community, and foster relationships 
that enhance United States strategic access. Our partnership focus 
helps allies and partners in Eastern and Southern Europe meet emerging 
security challenges. For example, along with British and German 
counterparts, USEUCOM implements the Transatlantic Capability 
Enhancement and Training (TACET) initiative, which synchronizes the 
contributions of more than a dozen NATO allies in the Baltic states and 
Poland across the joint, land, air and maritime domains. Additionally, 
with approximately $35 million of fiscal year 2017 section 333 support 
and $18 million in fiscal year 2015 State Department Foreign Military 
Financing (FMF) support, USEUCOM is launching the Georgia Defense 
Readiness Program this spring. The program will augment Georgia's 
military readiness and ability to support both national and NATO 
missions. Through these and other activities, USEUCOM helps to ensure 
that NATO hones its operational edge that allies meet defense 
obligations, and that partners are equipped to defend their sovereign 
territory.
Ukraine
    USEUCOM continues its strong support of Ukraine's efforts to build 
its defense capacity to defend itself from Russian aggression. 
Following the occupation and illegal annexation of Crimea in 2014 and 
its invasion of eastern Ukraine, Russia has done little to nothing to 
implement the commitments it made in the Minsk agreements. Russia 
remains satisfied with the status quo in the hope that its multifaceted 
effort to destabilize Ukraine will eventually succeed so that Russia 
can reassert its sphere of influence. Russia continues to foment the 
conflict in eastern Donbas, where it arms, trains, leads, and fights 
alongside Russian-led forces. In Crimea, Russia has increased its post-
annexation military posture, forming a new Army Corps with 
reconnaissance and coastal defense forces and increasing capabilities.
    Despite Russia's destabilizing actions, Ukraine is making progress 
toward its goal to achieve NATO interoperability, but much remains to 
be done. USEUCOM, working with DOD and the interagency, supports 
Ukraine's development of capable, accountable, and transparent 
institutions. The Ukrainian Government recognizes its need to develop a 
capable, sustainable, professional defense force interoperable with 
Euro-Atlantic military structures. Ukraine's defense reforms will 
improve its ability to deter and defend against Russian aggression. The 
Multinational Joint Commission (MJC) for Defense Reform and Security 
Cooperation in Ukraine is the primary vehicle for United States and 
allied security assistance. The MJC meets semiannually with 
representatives from Ukraine, the United Kingdom, Canada, Lithuania, 
Poland, and the United States to identify Ukrainian requirements and 
prioritize training, equipment, and advisory initiatives.
    USEUCOM support to Ukraine falls into three broad areas. First, we 
lead the Joint Multinational Training Group-Ukraine (JMTG-U) program to 
train Ukrainian forces. Under United States Army Europe and Special 
Operations Command Europe, the JMTG-U provides individual and 
collective training to conventional battalions and special operations 
units within Ukraine's Armed Forces. JMTG-U also supervises train-the-
trainer efforts, which will allow Ukraine to assume full training 
responsibility by 2020. Second, USEUCOM provides recommendations on the 
utilization of security assistance funds to support Ukraine's self-
defense capacity. Since 2014, the United States has provided over $850 
million in security assistance to Ukraine through Department of State 
and Defense authorities. These funds have provided counter-battery 
radar support, medical assistance, communications, command and control, 
HMMWVs, night vision devices, and training and advising assistance. The 
President recently decided to provide enhanced defensive capabilities 
to Ukraine, as part of the United States effort to help Ukraine build 
its long-term defense capacity, to defend its sovereignty and 
territorial integrity, and to deter further aggression. Third, USEUCOM 
supports broader Presidential and Ministerial-level reform activity 
directed at Ukraine's defense institutions.
Balkans
    In the Balkans, our command directly supports United States efforts 
to promote regional stability. USEUCOM is assisting the Kosovo Security 
Forces (KSF) with implementing its Security Sector Review 
transformation recommendations. Security cooperation activities include 
developing English language capability, leadership training, equipment 
to support the KSF core competencies in search and rescue, explosive 
ordinance disposal and demining, hazardous material response, and fire-
fighting.
    USEUCOM also continues to support the United States contribution of 
approximately 600 personnel to Kosovo Forces (KFOR). In accordance with 
the United Nations Security Council Resolution 1244, KFOR's mission is 
to contribute to the maintenance of a safe and secure environment and 
freedom of movement throughout Kosovo for citizens of all ethnicities, 
as well as for NATO and EU personnel. KFOR helps ensure conditions 
remain conducive for continued EU-facilitated dialogue to normalize 
relations between Pristina and Belgrade, while Serbia sees KFOR as a 
way to ensure the security of ethnic Serbs in Kosovo. As a nonpartisan, 
professional presence, KFOR is essential to the security and stability 
of Kosovo and the greater region.
    In Bosnia-Herzegovina, our security cooperation activities focus on 
assisting the Bosnian Ministry of Defense and Armed Forces meet NATO 
standards and interoperability goals, while supporting their 
aspirations to join the Alliance. Troops from Bosnia-Herzegovina 
already support NATO operations, such as the Resolute Support Mission 
in Afghanistan.
    EUCOM works closely with interagency partners such as the 
Departments of Justice, Treasury, Energy, and State to facilitate and 
enhance support for democratic institutions and processes in the 
Balkans and to counter malign influence. Balkan nations view the United 
States as a major supporter of their efforts to develop institutions 
and processes that promote the rule of law and strengthen governmental 
systems.
    Russia is exerting its influence in the Balkans to prevent 
individual nations from progressing on a Euro-Atlantic path. We must 
assist our NATO Allies in the region as they seek to increase their 
resiliency in the face of Russian malign influence. We must also 
support our non-NATO partners as they pursue a brighter future as part 
of the Euro-Atlantic family of nations.
Turkey
    Turkey is a strategically for the United States and NATO, a proven 
enabler for combat operations, and a pivotal player in our long-term 
competition for a favorable balance of power. USEUCOM actively 
participates in several ongoing efforts to explore strategic issues and 
find bi-lateral solutions mutually supporting United States and Turkish 
interests. Through increased intelligence sharing, continued counter-
terrorism coordination, and regular military-to-military dialogue, 
USEUCOM is committed to strengthening the trust between the United 
States and Turkey.
    Situated within Europe's strategic southeastern security zone, 
Turkey is a key stakeholder of regional security, stability, and 
access. Turkey provides the United States with proven logistical 
support, as demonstrated in Operations Iraqi Freedom, Enduring Freedom, 
and now Inherent Resolve. Turkey also supports Operation Atlantic 
Resolve and NATO activities in the Black and Mediterranean Seas, while 
securing one of the region's most important sea lines of communication 
through the Turkish Straits.
    A major customer of our defense technology, Turkey has 334 open 
foreign military sales (FMS) cases, valued at over $9.9 billion. These 
sales are important components of the broad United States-NATO effort 
to ensure interoperability of equipment and combined training in 
Western tactics, techniques, and procedures.
    Turkey's geographic location also puts it at the crossroads of the 
theater's two primary security challenges--Russian subversion and the 
terrorist threat from ISIS. With instability along its southern border 
and more than 3 million Syrian refugees within its borders, Turkey has 
been affected by the Syrian war more than any other NATO country. 
Meanwhile, Russia benefits from political disputes between Turkey and 
NATO allies that it can exploit to undermine trust and unity. In 
alignment with the National Defense Strategy's direction to fortify the 
Trans-Atlantic alliance, USEUCOM will safeguard and strengthen the 
United States-Turkey relationship.
Israel
    The United States' commitment to the security of Israel is 
unwavering. Our ongoing support and commitment to Israel is focused on 
enhanced mil-to-mil cooperation to ensure our Israeli partners maintain 
a qualitative military edge. Israel continues to be the largest 
recipient of United States foreign aid, and in September 2016, the 
United States and Israel signed a new Memorandum of Understanding (MOU) 
that provides $3.8 billion a year in military assistance over the 
fiscal year 2019 to fiscal year 2028 period. As the executor of the 
United States-Israel military-to-military relationship, USEUCOM 
maintains a robust series of senior leader engagements, constant 
coordination, and multiple joint exercises. This bond has assumed 
greater significance as the regional security environment has become 
increasingly volatile and complex.
                             the way ahead
    USEUCOM is determined to address the diverse challenges in the 
European theater by capitalizing on our strengths, building new 
capabilities, and leveraging relationships with European allies and 
partners. We are working to optimize the force posture of land, air, 
maritime, and cyberspace units. We are enhancing the resiliency and 
redundancy of our infrastructure network to enable reliable and 
flexible response options. We are improving cyberspace security and 
operations through joint defense activities with allies and partners. 
However, we cannot accomplish our assigned missions without the 
continued support of Congress. The resources requested in DOD's fiscal 
year 2018 and fiscal year 2019 Budget Requests are needed to implement 
the National Defense Strategy, especially to deter, defend, and expand 
our competitive space with Russia.
    Deterring adversaries is contingent on U.S. Forces retaining a 
decisive edge in combat capabilities, agility and flexibility, on our 
ability to respond rapidly in a crisis, and on U.S. presence as a 
constant reminder of the costs of aggression and miscalculation. United 
States force posture in Europe has been augmented by increased 
rotational presence, enhanced pre-positioning of equipment, and 
military infrastructure improvements. Posturing a combat-credible force 
in Europe as called for in the NDS is essential to deterring future 
aggressors, preserving stability, and reassuring allies and partners. A 
combat-credible force includes a combination of assigned and rotational 
combat forces, flexible basing options, and pre-positioned equipment in 
the theater.
European Deterrence Initiative (EDI)
    USEUCOM's preparedness and agility to respond amidst the 
uncertainty posed by the current strategic environment is contingent 
upon adequate and predictable resourcing. The European Deterrence 
Initiative provides resources that are essential to deterring Russian 
aggression while assuring European allies of the United States 
commitment to NATO's article 5. These resources, in addition to the 
base budget funding that supports USEUCOM, enable our headquarters and 
Service components to: 1) increase presence through the use of 
rotational forces; 2) increase the depth and breadth of exercises and 
training with NATO allies and theater partners; 3) preposition supplies 
and equipment to facilitate rapid reinforcement of U.S. and allied 
forces; 4) improve infrastructure at key locations to improve our 
ability to support steady state and contingency operations; and 5) 
build the capacity of allies and partners to contribute to their own 
deterrence and defense.
    EDI-funded land forces capabilities are resourcing USEUCOM's 
requirement for an ABCT presence along with a Division Mission Command 
Element and combat support and service support enablers. Coupled with 
CAB rotations, integrated air and missile defense (IAMD) enhancements, 
ISR initiatives, and eFP support, this increased in-theater presence 
across Eastern Europe has fundamentally improved our readiness and 
posture.
    In the air domain, we leverage EDI to deploy theater security 
packages of bombers as well as 4th and 5th generation fighter aircraft 
to execute deterrence missions and train with ally and partner nation 
air forces. We are building prepositioned kits for the Air Force's 
European Contingency Air Operation Sets (ECAOS) and making improvements 
to existing Allied airfield infrastructure, which will afford us the 
ability to rapidly respond with air power in the event of a 
contingency.
    In the maritime domain, we are expanding our theater antisubmarine 
warfare capabilities both by improving our sensor capabilities as well 
as increasing our capability to surge P-8 antisubmarine assets to 
critical areas. Additionally, EDI dollars help fund USEUCOM's mission 
partner environment, which successfully linked into NATO's federated 
mission network during exercise Steadfast Cobalt last year. This was a 
significant step in improving interoperability with NATO.
    Finally, EDI supports mil-to-mil engagements and exercises that 
improve interoperability and build partner capacity. Joint exercise 
Saber Guardian 17, a United States Army Europe led event in Hungary, 
Romania, and Bulgaria focused on building readiness and improving 
interoperability under a unified command and control framework. In 
total, nearly 25,000 United States, Ally, and partner nation personnel 
from 21 European countries demonstrated the ability to execute the full 
range of military missions in the Black Sea Region.
    To retain our competitive edge and build on the progress made over 
the last few years since the implementation of the European Reassurance 
Initiative and EDI, we continue to work within Departmental processes 
to meet our posture requirements across warfare domains, with 
consistent targets and a long-term view.
Land Forces
    We continue to enhance our assigned and rotational land forces to 
meet the requirement for an armored division accompanied by critical 
enablers, such as a fully sourced combat aviation brigade, long-range 
fires, engineers, and sustainment brigades. This armored capability 
will be comprised of forward stationed and persistent rotational units 
as well as prepositioned stocks and infrastructure that enable us to 
rapidly aggregate these capabilities.
Air Forces
    USEUCOM requires additional combat and aviation support air assets, 
to include prepositioned assets, airfield infrastructure improvements, 
and dispersed basing. The fiscal year 2018 and fiscal year 2019 budget 
requests have begun the process of funding investments that enable the 
rapid reception of fourth and fifth generation fighters, close air 
support, bombers, and air mobility aircraft in a contingency. We have 
detailed these requirements in our ECAOS concept, funded through the 
Administration's EDI request.
Maritime Forces
    Additional maritime capabilities are being requested to increase 
our lethality in the maritime domain and to counter Russian maritime 
capabilities. Similar to the land and air domains, this necessitates 
infrastructure improvements to sea ports of debarkation (SPOD) as well 
as prepositioning critical naval capabilities such as munitions. The 
fiscal year 2019 request also provides additional capability for 
antisubmarine warfare (ASW) sensors and platforms such as the P-8s. 
Additionally, USEUCOM is working with the Department to increase the 
rotational presence of guided missile destroyers, a Carrier Strike 
Group, and attack submarines, all of which provide lethal combat power 
to deter our adversaries and counter growing threats in the undersea 
domain.
Amphibious Forces
    USEUCOM has requested enhancements to Marine Corps Prepositioned 
Program-Norway to allow the rapid deployment of naval expeditionary 
forces. USEUCOM has also asked the Department to assess the role that 
an increased Amphibious Ready Group/Marine Expeditionary Unit (ARG/MEU) 
presence could play in the AOR, recognizing that deployments in the 
Mediterranean allow for response to threats in three Geographic 
Combatant Commands.
Integrated Air and Missile Defense (IAMD)
    It is essential that our assigned and rotational multi-domain 
forces are protected by a robust, layered IAMD capability. The fiscal 
year 2019 budget calls for the development of an IAMD architecture that 
begins to address USEUCOM's requirements for capabilities such as those 
provide by Terminal High Altitude Area Defense (THAAD) and Patriot 
batteries. These capabilities will ensure we can effectively maneuver 
forces throughout the AOR. Our approach to IAMD must be inclusive with 
our NATO allies and key partners as we face a growing ballistic missile 
threat from regional adversaries.
C4ISR
    C4ISR is a fundamental capability set for the Global Operating 
Model articulated by the NDS. To this end, the fiscal year 2019 budget 
helps to reverse the long-term reductions in ISR platforms, in manning, 
and in processing, exploitation and dissemination (PED) capabilities. 
This includes growing our cadre of intelligence linguists and analysts, 
adding permanently stationed ISR platforms to the theater, and 
expanding our satellite footprint.
    USEUCOM's command, control, communications, computers and 
intelligence (C4I) networks must also become more resilient and 
survivable. More work is needed to ensure the sustainment of operations 
and to maintain freedom of maneuver in cyberspace. We are working with 
the Services to develop infrastructure that will significantly increase 
C4I capability and resilience.
Freedom of Movement
    The ability to rapidly surge combat ready forces into and across 
the theater is critical to deterring future Russian aggression. 
Improving freedom of movement and force maneuver both prior to and 
during conflict requires enhancing our logistics infrastructure. 
Additional organic logistical assets are being deployed to reduce 
reliance on commercial providers, mitigate distribution gaps, and 
accelerate steady state operations. We are also increasing our close 
coordination among United States agencies, NATO, the EU, and individual 
European nations.
    If fully funded, and once the necessary access agreements are in 
place, the fiscal year 2018 and fiscal year 2019 EDI program requests 
will increase freedom of maneuver for the Joint Force by establishing 
critical logistical hubs capable of supporting maritime operations in 
the North Atlantic and increasing pre-positioned forward stocks of 
equipment and munitions. USEUCOM will maximize cost sharing 
initiatives, such as the NATO Security Investment Program, and increase 
coordination with European nations and commercial entities to further 
enhance mobility.
Complex Exercises
    A key pillar of our overall deterrence approach is a campaign of 
high end, multi-domain exercises. We will continue to coordinate our 
Joint Exercise Program with NATO allies and partner nations to enhance 
our high-end combat capabilities, promote interoperability, and sustain 
strategic access.
Cyber
    USEUCOM is expanding its cyber capabilities and integrating cyber 
operations into full-spectrum military activities. USEUCOM is focused 
on refining cyberspace information sharing tactics, techniques and 
procedures. To ensure wartime interoperability, USEUCOM is engaged with 
NATO Allies' and partners' logistics and cyberspace experts to develop 
a shared framework for cybersecurity.
                               conclusion
    In closing, I want to again thank Congress for its continued 
support for USEUCOM--especially for the European Deterrence 
Initiative--and for helping us to articulate to the Nation the very 
real challenges that the United States and NATO face in the European 
theater. Russia is engaged in strategic competition with the United 
States, pursuing a strategy that undermines the international order and 
erodes U.S. leadership and influence. Violent extremists, also intent 
on destroying a Western, rules-based system, remain a significant 
threat. Faced with these challenges, we must reestablish our military 
competitive advantage and ensure our forces are prepared to address the 
challenges of this complex, dynamic, and competitive strategic 
environment. The Service members and civilians of USEUCOM stand ready 
to do so. We are fully committed to being the agile, lethal, and 
resilient force needed to protect and defend the Homeland while 
supporting a Europe that is whole, free, and at peace.

    Senator Inhofe. Thank you, General Scaparrotti. Excellent 
statement.
    I think we all look at Russia now--and with the new 
strategy that we have, we include both China and Russia as the 
threats. Of course, in your AOR, it's primarily Russia, and 
it's--we've seen the advancements. There was a RAND report that 
came out yesterday. There are three things in the RAND report 
that I want to refer to. One was: In 2016, Russia spent 5.3 
percent of its GDP [Gross Domestic Product] on the military. 
It's important, as we look at some of what we are expecting 
from our NATO partners, to recognize this. Second thing that 
was in that report, Russia has the ability to defeat a NATO 
ally and present NATO with a strategic and operational 
challenge; specifically, that Russian forces could reach the 
capitals of Estonia and Latvia in 60 hours. Third, they say 
Russia has approximately 32,000 troops in the Baltics region, 
compared to 78,000 for Russia; and the NATO is outnumbered 
757--that's Russia--to 129 in NATO, in tanks in the AOR. In 
addition to the RAND report that came out, The Army Times 
article this morning--says the Army plans on repositioning two 
fully modernized armored brigade sets of equipment in Belgium 
and Netherlands and, as you said in your opening statement, in 
addition to one, I guess, rotational armored brigade combat 
team.
    So, to set this hearing off, let me ask you a series of 
five--these should be yes-or-no questions. However, there's no 
such thing as a yes-or-no question in Washington.
    First, the National Security Advisor, General McMaster, 
stated that United States ground forces are ``outranged, 
outgunned, and overmatched by Russian ground forces.'' Do you 
agree with that?
    General Scaparrotti. Chairman, if you look at it in a 
concentrated way, on the border of eastern Europe and only on 
the ground force, I would agree with that statement. We----
    Senator Inhofe. All right.
    General Scaparrotti. We fight multidomain, however.
    Senator Inhofe. I understand that.
    The report--the RAND report paints a pretty bleak picture 
and warns that NATO could be overwhelmed by superior Russian 
firepower in a war in eastern Europe. Do you agree with that 
statement?
    General Scaparrotti. Chairman, would you state that again, 
please? I'm----
    Senator Inhofe. Yes. The statement that was in the report 
says that NATO could be overwhelmed by superior Russian 
firepower in a war in eastern Europe.
    General Scaparrotti. Chairman, I don't agree with that. 
When you look at NATO, writ large, it has the strength of 29 
nations. The effort that's being made in NATO, and the one 
that's being made here in the United States, is to increase our 
capability to deter and, if necessary, defend.
    Senator Inhofe. Okay. That's good statement. I'd--I'm not 
asking you to agree with this, but I am concerned, when we have 
so many reports coming out, that--it's important for the 
American people to understand the threats that we do face, not 
just here, but in China also.
    Then, the other--third thing it said. Do we have adequate 
United States forces postured throughout Europe to meet the 
challenge? I think you've already answered that.
    It says--and then, Russia has developed a ground-launch 
cruise missile, in violation of the INF [Intermediate Range 
Nuclear Forces] Treaty. Do you agree with that? Yeah, I'm sure 
you do.
    Lastly, the--like we saw in--2 weeks ago in China, and what 
they're doing in the South China Sea--and, as I said in my 
opening statement, this is not something that is in your AOR, 
but, as we have to meet those challenges--and this was a much 
greater challenge than I thought it was before I was over 
there, 2 weeks ago--this still would draw off resources from 
you and--from your AOR, so it's one you have to be very 
sensitive to. So, I would say, how does EUCOM partner with--on 
the cybersecurity side--with Cyber Command [CYBERCOM] to 
prevent and mitigate threats? That's in cyberthreats now. You 
want to talk a little bit about that?
    General Scaparrotti. Yes, Chairman.
    First of all, in terms of the cyber world, it's 
interesting, because we each have cyber centers, we each have 
teams committed, through CYBERCOM, to us, but cyber doesn't 
have boundaries, like we do between I and General Waldhauser on 
the ground. So, I think it's pretty fluid, and CYBERCOM is the 
one that helps us, you know, shift resources that might need to 
be shifted. Certainly, we share very closely with them any 
intelligence that we have, et cetera, that affects their AOR. 
So, I think there's a close relationship.
    Senator Inhofe. Yeah. Well, this is--and this is the new 
threat. This is something that the general public is not very 
familiar with.
    One last thing I'd want is--you to get on the record--you 
know, we have this requirement in NATO for--a 2 percent 
requirement. As it is right now, in 2018, the Secretary General 
estimates eight of 29 NATO allies will meet this, and then 
it'll get up to 15 allies by the end of 2024. Now, right--
recently, there have been a lot of these countries complaining 
about this. Are you concerned that some of the European 
officials criticize the 2 percent requirement as arbitrary and 
unrealistic?
    General Scaparrotti. Chairman, I'm concerned. They----
    Senator Inhofe. Yeah.
    General Scaparrotti.--need to invest in defense. We've 
discussed the complexity of this environment, and particularly 
in Europe. Of course, we strongly encourage them to meet that 2 
percent, but also the 20 percent requirement in modernization 
focused at specific capabilities that are relevant to the 
environment we're in.
    Senator Inhofe. Yeah, that was one of the first things, 
when President Trump took office, that he examined, was the 
burden-sharing of NATO. I agree with that, too.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, General Scaparrotti.
    As we all note, Russia has significant conventional power, 
and so does NATO, but it--they seem to be focusing their 
attention--asymmetric warfare, knowing that a conventional 
fight with NATO would probably not be something they could win. 
Is that your estimate?
    General Scaparrotti. Yes, sir. I think part of their 
strategy is, first of all, that, as you look at their doctrine, 
they intend to use activities below the level of conflict to 
undermine their opponent. If that would go well, they would 
undermine their opponent without firing a shot. I would like to 
make the statement that I think that, while they have 
advantages, even conventionally, due to interior lines, 
proximity, and size of force, which was noted by the Chairman, 
in the longer run, NATO has great advantages that they actually 
recognize and fear.
    Senator Reed. Thank you.
    Getting into the asymmetric warfare, one of the most 
disturbing aspects recently is the integration of information 
warfare in cyber operations. As you pointed out, cyber has no 
real limit. So, again, we've seen quite extensive activity in 
Ukraine. But, have you noticed that this--you know, similar 
organizations in Russia are concentrating, not just on Ukraine, 
but also the United States? Are you beginning to pick up 
indications of efforts that are directed against us, you know, 
directly?
    General Scaparrotti. Chairman, I'll say that I have, that 
I've seen activity related to, you know, infrastructure, 
reconnaissance, et cetera, within the United States. I'll leave 
it at that.
    Senator Reed. Fine. Are we, to your knowledge, the 
intelligence community and the geographic commanders, kind of 
map out the Russian, sort of, cyber infrastructure, the--how 
it's delegated to commercial ``enterprises'', how it's 
sometimes retained by the intelligence community in Russia, et 
cetera? Have we got a good picture of that? Because if we 
don't, then, you know, it's hard to respond.
    General Scaparrotti. My personal opinion is yes, we're 
trying to map that out. We're getting better understanding of 
it. I would not characterize it as a good picture at this 
point, not satisfactory to me. Thank you.
    Senator Reed. Are you getting, not only the resources, but 
the clear direction to fill in the missing pieces on your--from 
your perspective as well as worldwide?
    General Scaparrotti. Yes. I have had my Cyber Operations 
Center reinforced substantially. We've made good progress. Over 
the next 2 years, thanks to both the funding here in Congress 
as well as from CYBERCOM, that will continue to give me the 
skills that I need in my cyber center. I also, upon request, 
have the authorities that I've asked for with respect to Russia 
over the past year to 18 months.
    Senator Reed. Every time we get on this topic, very 
quickly, the ``whole-of-government response'' comes up. So, how 
would you assess our whole-of-government response? You have 
CYBERCOM within the chain of command, et cetera, but the 
intelligence community, the Treasury Department, Homeland 
Security--do you feel there's a unified effort among all these 
different agencies, and the State Department, to effectively 
confront this threat?
    General Scaparrotti. I don't believe there's an effective 
unification across the interagency, with the energy and the 
focus that we could attain.
    Senator Reed. That's something that would--is something we 
should do immediately, because--the nature of the threat.
    General Scaparrotti. Yes, Senator, it is.
    Senator Reed. Just changing slightly, we are--and you are--
constantly trying to assess the strengths, the weaknesses of 
the Russian forces, going forward. Not just the Russian forces. 
Any sort of top-line sort of estimate of, you know, long-term, 
their ability to be competitive with us?
    General Scaparrotti. Senator, in this setting, I would say 
that, given their modernization and the pace that it's on and 
what we are aware of they're doing, we have to maintain our 
modernization that we've set out so that we can remain dominant 
in the areas that we are dominant today. If we were not to do 
that, I think their pace would put us certainly challenged in 
almost every domain, in a military perspective, by, say, 2025.
    Senator Reed. Just a final question is that--part of this 
is significant investments, not just in platforms, but in basic 
research, which, during the cold war, they were--and we were--
deeply engaged at a national effort. Are they engaged in this 
kind of basic research--quantum computing, AI [Artificial 
Intelligence], et cetera--to a significant extent?
    General Scaparrotti. Yes, they are.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Wicker.
    Senator Wicker. General, you did read and study that RAND 
report, classified and unclassified, did you not?
    General Scaparrotti. Yes, I did.
    Senator Wicker. Okay. In that regard, Chairman McCain just 
asked Senator Inhofe to read a statement, in which he said 
there's a new strategic reality in Europe. General Dunford is 
quoted as saying the United States is losing some of our past 
edge. You have the report from RAND, which none of us enjoyed 
listening to or studying, where it said we--there are plausible 
scenarios where the United States can lose a war with Russia. 
What--in that regard, what have--did we learn from the Russian 
Zapad exercises--wargame exercises in eastern Europe in late 
2017 regarding their intentions and capabilities? How well 
prepared are we, based on what we've learned there? Then I want 
to ask you to respond generally about where you think the RAND 
report is missing the mark and where you think they're 
accurate.
    General Scaparrotti. Senator, with regard to Zapad, for the 
most part what Zapad did is reinforce what we believed was 
their direction, in terms of their doctrine, their training, 
their modernization. They focused on command and control, 
strategic to tactical. We saw that throughout the exercise. 
They focused on both conventional and nuclear, which we 
expected. They focused on both offensive/defensive operations, 
and they incorporated what I would call a whole-of-society 
approach. They mobilized their people, et cetera, in some 
aspects of this. For us, it was a reinforcement of the doctrine 
that we've seen developing over the last, I'd say, 10 years.
    From that--I mean, we learn from watching, and it helps us 
posture our force and train our force, and also, you know, the 
development of our plans, obviously. We take that very 
seriously, watch it very closely. We had a focused effort to do 
so. We'll employ it, and we'll be better as a result of that 
focused effort in their exercise.
    Senator Wicker. So, you were informed, but we weren't 
shocked by anything we saw----
    General Scaparrotti. I was not. I was not shocked by 
anything that I saw.
    With respect to the RAND report, we have worked with RAND 
on this. In fact, it was 2014 or 2015 when the base report was 
done. From the basis of the report, I don't have any argument 
with the basis of the report and the threat that we have, 
particularly in the eastern borders, with what it's focused on. 
That report was also a basis from which we've developed our war 
planning in EUCOM. Since 2014, we've come a good ways, both in 
planning and with the posture of our forces there. That 
report's been helpful in that regard. I would----
    Senator Wicker. Did you plan, assuming that sequestration 
was going to be lifted, as it has now been?
    General Scaparrotti. We planned with--for what we need, 
Senator, yes. Having said that, I would--the budget that we 
have before us today, with a 2-year look, as well, that 
Congress has agreed to, funds all of those areas that I need in 
EUCOM to get my posture and my capabilities where it needs to 
be throughout the FYDP [Future Years Defense Program]. So, it's 
an important one.
    The last point I'll make on this is, is that we have 
repostured forces since the RAND study was done. We've 
rewritten plans since that. We would fight this differently 
than RAND fought it--fought that--you know, that experiment or 
that exercise that they did. But, there's elements of that that 
are still, you know, true today. Hence, my comment that I don't 
have all the forces I need in Europe today, and we've got to 
continue to invest and establish the posture that's required.
    Senator Wicker. Okay. Based on what we're going to do the 
23rd of this month regarding this fiscal year and the next 
fiscal year, how are you going to get the forces you need?
    General Scaparrotti. The European Deterrence Initiative is 
a very foundational funding of the forces that I need. It is 
actually supporting the rotational forces that I noted in my 
opening statement. My intent is, is to use that as well to 
begin to station or rotate additional forces, particularly 
enablers that I need. As you look across the FYDP, I can build 
the posture that I believe I need, given the funding that I 
foresee within the FYDP.
    Senator Wicker. Just quickly, that's what number of troops 
today versus what you hope to get to?
    General Scaparrotti. Well, I can't--it's difficult to give 
you the number of troops. I can take this for the record, and I 
can provide you, by service, the posture that I believe that we 
should be in.
    [The information referred to follows:]

    [Deleted.]

    Senator Wicker. Thank you.
    Senator Inhofe. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    General Scaparrotti, thank you for being here and for your 
testimony.
    As we look at the potential for future Russian aggression 
in Europe, how important is it for them to feel some heat for 
what they're doing and to have that whole-of-government 
approach to respond to their activities? So, for example, how 
important would it be for us to go ahead and implement the 
sanctions on their CAATSA [Countering America's Adversaries 
Through Sanctions Act] so they understand that, if they 
continue their cyber intrusions, that there's going to be a 
price to pay?
    General Scaparrotti. Senator, I think fundamental to 
deterrence is either, you know, denial or an imposition of 
costs. So, an effective deterrent has to have one of those 
elements, or both, and it should have a communication aspect to 
it, as well, that demonstrates both our capability and our 
will.
    Senator Shaheen. Do you--as you talk about that whole-of-
government approach that you don't see happening right now, do 
you think that would accomplish a piece of the deterrence?
    General Scaparrotti. Well, I think--yes. You mentioned 
CAATSA. I think, across the board--I don't necessarily ascribe 
that we should always do what they do. We shouldn't mirror 
them. But even----
    Senator Shaheen. Sure.
    General Scaparrotti.--that underscores the importance of a 
whole-of-government approach, that we ought to use our other 
elements of power, as well, together to demonstrate deterrence 
and also to establish limits on what's acceptable.
    Senator Shaheen. As you look at the potential for mischief 
in the future in other parts of Europe, where do you see the--
where are you most concerned about future Russian interference?
    General Scaparrotti. They're involved in just about every 
aspect of Europe, in one way or the other. The area that I'm 
concerned about today is the Balkans, actually. It's an area 
that, through the international community's work, and the 
United States in particular, we've been able to keep stability 
there, we've been able to work on democratic governments, and 
to reinforce that. But, Russia's at work in the Balkans, and I 
think that we've kind of taken our eye off the area. It's an 
area where, in terms of diplomacy, we have to put some focus, 
in my opinion, and we have to continue our security reform and 
our capability-building that we and the international 
community's engaged in, in the Balkans. That's an area that we 
could have problems with again here in the future.
    Senator Shaheen. How--you mentioned our diplomatic 
efforts--how important is it that we have those robust 
diplomatic and economic efforts there in the Balkans?
    General Scaparrotti. I think it's essential. They view that 
diplomatic effort and presence, frankly--the people see that 
as--that's one way that they determine whether the West is 
serious about their desire to be a part of the West. That 
involvement, I think, is fundamental.
    Senator Shaheen. One of the things that some of our 
European allies in NATO have suggested is that, rather than 
looking at sort of an arbitrary 2 percent of GDP contribution 
to NATO, that we ought to be looking at capabilities instead. 
In view of some of the recent reports about the readiness of 
some of our NATO allies, how good an argument do you think that 
is as we think about what may be a better way to determine 
whether our allies are making the contribution that we really 
want to see to NATO?
    General Scaparrotti. Senator, I agree there's other ways. 
In other words, it's commonly called the ``three C's in NATO.'' 
Cash is one, at 2 percent. Contribution is one of those, and 
capabilities. But, I would tell you, I think it's all three. 
It's not one or the other, or more of one and less of the other 
two. Two percent's a reasonable percent of GDP, given the 
threat that we're under today, in my opinion. But, you have to 
look at, also, their contributions and their capabilities. 
There are some of the countries that aren't at 2 percent today, 
but their contributions to NATO missions and also other 
international missions is quite robust. That should be taken 
into account.
    Then last is the capabilities they provide. Are they using 
the money in their defense to develop capabilities that are 
interoperable and in sync with our NATO planning? That's 
important, too, in order to have a strong NATO defense and 
deterrence structure.
    Senator Shaheen. How worried should we be about some of 
those reports that have suggested that some of our NATO 
allies--some of the bigger NATO allies are not prepared as they 
should be?
    General Scaparrotti. I think we should continue to press 
them to meet the standards. NATO has very well laid out 
standards and expectations of the forces that nations provide. 
We should continue to press them to be a part of this defense. 
The alliance is strong as long as every member is strong and 
does their part.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Several references have been made to the report--the RAND 
report that just came out. I ask unanimous consent to be made a 
part of the record.
    Without objection, so ordered.
    [The information referred to follows:]

    Please refer to Appendix A.

    Senator Inhofe. Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, General Scaparrotti, for joining us once again.
    I'd like to continue the conversation about the Balkans 
that you started with Senator Shaheen. Many people tend to 
focus on the Baltics, since they are NATO countries 
exclusively, but I think that NATO status probably makes them a 
bit more stable, in terms of the threat Russia poses, than the 
Balkans, in which there are numerous countries that don't 
belong to NATO. Could you be more specific and say a little bit 
more about which countries in the Balkans are matters of 
concern for you, in terms of Russian meddling and interference?
    General Scaparrotti. Well, I think Serbia, in particular, 
there's a connection----
    Senator Cotton. Serbia proper or----
    General Scaparrotti. Serbia----
    Senator Cotton.--Republic of----
    General Scaparrotti. Well, I would tell you that it's 
Serbia, as a nation, but then the Serb population, as well, 
within the Balkans. There is obviously a historical connection 
there, an affiliation, and--but there is also a--because of 
that, a better opportunity for Russian influence. They take 
advantage of that, in terms of disinformation, influence upon 
those populations, a spoiling effect, in some cases, perhaps 
with Serbia with respect to Kosovo or within the tripartite 
government of Bosnia Herzegovina. That's my concern. I've seen 
an increase in that, I believe, in the year and a half that 
I've been in this job.
    Senator Cotton. Last year, the Senate ratified the 
Montenegro Accession Treaty to have Montenegro join NATO. 
Obviously, that was an important part of our strategy to close 
the Adriatic coast. They were the last piece of that. How has 
Montenegro's integration into NATO gone since they had their 
accession?
    General Scaparrotti. It's going very well. I've visited the 
country, spent time with their Chief of Defense. A small nation 
as a part of NATO at this point, but active in providing troops 
for our missions, focused on their military capabilities, and 
beginning to grow those and make them better. I think they're 
going to be a valued member, here, as they move on. They are a 
valued member, but I think they'll continue to increase in 
strength.
    Having said all of that, they're not out of the woods with 
respect to Russian interference in their government, influence 
and attempted influence in their government, which you know was 
very severe just short of their application to NATO.
    Senator Cotton. I was in the Balkans last August, and I 
heard some of these points, as well. One other thing we heard, 
and some of the things we witnessed, there was not just Russian 
influence in the Balkans, but also Turkish influence, sometimes 
not for the good. Could you say a little bit about what Turkey 
is up to in the Balkans?
    General Scaparrotti. Turkey primarily enters most of these 
countries in Balkans with a humanitarian approach and to assist 
in that regard. There are some that have said this influence 
isn't helpful, as you've said, in the ways that they operate. 
But, I haven't personally seen that, myself. I'd--if I could, 
I'd take this for the record, and I'll give you a little more 
concrete and accurate----
    Senator Cotton. Sure.
    General Scaparrotti.--response.
    Senator Cotton. Sure thing.
    [The information referred to follows:]

    Turkey maintains bilateral relationships with several Balkan 
countries and has especially strong defense relationships with Albania, 
Bosnia-Herzegovina, and Kosovo. Turkish engagement is often based on 
historical and religious ties, which date to the Ottoman period. In the 
wake of the July 2016 coup attempt in Turkey, we have observed 
increased Turkish pressure on Balkan countries to close schools and 
charities tied to the Gulen Movement. However, in general, Turkey's 
engagement objectives in the region align with EUCOM goals. Like other 
mature NATO Allies, Turkey mentors Balkan militaries through exercises, 
professional military education opportunities, and provides grant 
assistance to purchase military equipment from Turkish industry 
sources. Additionally, Turkey has supported NATO activities in the 
Balkans since the 1990s, including SFOR and KFOR in Bosnia-Herzegovina 
and Kosovo. Turkey currently has approximately 290 troops serving in 
KFOR and two to three staff officers at NATO Headquarters Sarajevo, 
along with approximately 250 troops at the European Union Mission in 
Bosnia-Herzegovina. To the extent that these activities build the 
capacity of Balkan nations, we believe they help strengthen the NATO 
Alliance.

    Senator Cotton. While we're on the topic of Turkey, there 
have been reports that Turkey may be on the verge of acquiring 
the Russian S-400 air defense system. That quite possibly could 
trigger sanctions under CAATSA, a law that Congress passed last 
year. Could you give your thoughts on what Turkey is thinking 
in buying a Russian system, especially now that CAATSA is on 
the books here and might target those kind of sanctions against 
a NATO partner?
    General Scaparrotti. The--you know, they've stated publicly 
that they intend to purchase and they've made a deal with 
Russia to employ the S-400 as an--as their air defense system. 
I've had this discussion with their Chief of Defense multiple 
times, and we continue to discuss it.
    If they were to employ this system, they obviously are 
interoperable with the NATO systems and the U.S. ones, and they 
couldn't be connected to the system. They're aware of that 
ramification. We've made--not only myself, but other members of 
our government, have made them clearly aware of the other 
ramifications of moving forward with a purchase of the S-400. 
So, they're aware of that.
    The last thing I'll say is, is that we're in a close 
discussion with Turkey with respect to air defense measures and 
the systems they could employ. I don't think that's a finished 
deal yet. I mean, I think that they are talking to us, as well 
as others, to purchase a system that's interoperable in NATO. I 
think we have some time. My intent's to continue to work that 
aspect, to convince them that the better system is, in fact, 
one of the NATO interoperable systems.
    Senator Cotton. Good. Thank you, General.
    My time has expired.
    Senator Inhofe. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, General Scaparrotti. Good to see you again.
    You were talking about the modernization--Russia's military 
modernization. Our big power competitors are Russia and China. 
Do you have, in terms of the scope and scale of Russian 
modernization, as compared to China's modernization, is China's 
modernization efforts many times more than Russia's 
modernization efforts?
    General Scaparrotti. Senator, if I could, I would say this, 
and I'd like to take that for the record, as well, so I could 
think about this a bit in comparison.
    [The information referred to follows:]

    Russia and China pose an enduring threat to United States and 
Allied interests. There are similarities in each country's military 
modernization programs and in our understanding of their approaches to 
conflict. Both are developing precision kinetic and non-kinetic 
capabilities capable of achieving strategic effects in all domains--
ground, air, sea, space, cyberspace, and electromagnetic. They are both 
developing asymmetric capabilities and strategies most likely to 
exploit perceived vulnerabilities in U.S. and U.S.-led military 
coalition capabilities, and which could be used to challenge United 
States force projection. Russian military modernization will support 
its posture to readily apply military force in response to crises--
directly or indirectly--across the extent of Eurasia as well as advance 
its interests over the long term in Europe, the Arctic, the Middle 
East, Central Asia, and parts of East Asia. Both countries will 
continue to develop capabilities to sufficiently pursue their interests 
at the expense of our own for the foreseeable future.
    Russia and China are developing formidable space and cyberspace 
capabilities which will extend their reach and allow them to challenge 
United States dominated space-enabled warfare capability. Russia and 
China continue to develop nuclear or conventional cruise missiles 
capable of striking CONUS and United States assets across the globe. 
Both Russia and China are reestablishing and refining their 
capabilities to conduct long duration blue water operations in an 
expanding sphere of naval influence, and potential threats to United 
States and allied interests in multiple theaters.
    Russia's operational experience in Syria has provided opportunities 
to conduct testing of precision strike, indirect fires, air defense and 
special operations. Russia has demonstrated the ability to conduct 
limited expeditionary operations for the first time in decades. Russia 
gained similar operational experience--direct and indirect--during 
their illegal annexation of Crimea and its on-going involvement in 
Ukraine. These scenarios have helped them develop tactics, techniques 
and procedures, gain valuable military training, and in turn drive 
defense acquisition program priorities.
    China continues to develop precision strike capabilities which 
enable them to militarily compete and potentially win in its theater of 
influence. China's continued development of military outposts, 
including artificial islands, furthers their goals of projecting 
sovereignty in the South China Sea. These outposts not only allow China 
to contest United States access in the event of a conflict, but allow 
China to forcefully claim natural resource rights in these areas, 
including fishing rights and hydrocarbon exploration.
    While China maintains a stronger economic standing, the continued 
integration of Chinese and Russian strategic interests emboldens their 
developing bilateral relationship. This potentially compounds the 
threat to U.S. and allied interests. Russia and China are developing 
multiple trade, development, and security agreements. Further military 
integration and training could probably be propelled by shared, but 
unequal, economic stimulus. Plans to develop central Asian markets will 
also invigorate both economies in the long term. Progressive 
collaboration will decrease vulnerability of either nation to western 
trade sanctions, eroding the ability of the west to check and limit 
hostile actions through political means. China's projected military 
investment for 2018 is approximately $175 billion dollars, compared to 
$65 billion for Russia. Hydrocarbon revenues account for nearly half of 
Russia's budget, and its economic growth in recent years has been 
strained by depressed oil prices, trade restrictions, and sanctions. 
Conversely, China's diverse, export-based economy returned an average 
of nearly 10 percent growth rates for almost four decades. Lastly, 
there are limits to the extent to which the two rivals will become 
``partners'' neither of which desiring it to be the ``junior'' partner.

    General Scaparrotti. But, generally, having been in the 
Pacific, the ways in which they're modernizing, particularly 
with respect to their capabilities, their weapon systems, the 
domains that they're focused on--maritime, et cetera--there's a 
lot of similarity in terms of where they're focused. And so, 
you know, Admiral [Harry] Harris and I, when you look at what 
we're focused on for either research and development or 
modernization or pacing in our forces, they very closely align. 
From that perspective, I think there's a--there are common 
areas there. But, again, I can be more specific, with a little 
bit of time to make a very specific comparison across domains.
    Senator Hirono. Well, that is not to say, of course, that 
that kind of comparison should lead us to take our eyes off 
either country.
    One of your main priorities is to deter Russia. You noted 
that they use activities below the line of what they--of what 
might cause us to respond in some clear way. One of the ways 
that--one of the activities that they use is to interfere with 
our elections, using social media, cyber, et cetera. You would 
consider that one of the ways that they are using to undermine 
our country, in that we need a whole-of-government approach to 
counter what Russia is doing with our elections.
    General Scaparrotti. Yes, Senator, I do. You see it in 
Europe, as well. They've been involved in----
    Senator Hirono. Yes.
    General Scaparrotti.--in elections in Europe, and the 
influence of political parties in Europe, as well.
    Senator Hirono. That was going to be my next question. Have 
we learned any lessons from Russian interference with European 
elections that would enable us to counter what they are 
continuing to do in our country?
    General Scaparrotti. I think we've learned from each other. 
I would put it that way. We helped French and--France and 
Germany as they approached their elections, based on what 
occurred here. As they've gone through it, we've exchanged that 
information. As a result, we've got a better idea of the 
Russians' approach, the capabilities that they use, and how 
they use it. That's all improving our ability to, you know, 
defend the sanctity and the sovereignty of our election 
systems.
    Senator Hirono. All well and good, but previous testimony 
from the--Director Coats and others, I think, is pretty clear 
that we do not have a whole-of-government strategy at this 
point to counter Russian interference with our elections. Are 
you part of the efforts on our country's part to come up with a 
whole-of-government strategy? Have they come to you? The 
executive branch.
    General Scaparrotti. I would--with respect to our 
elections, that's not really within my portfolio as the EUCOM 
Commander. That is at CYBERCOM, OSD [Office of the Secretary of 
Defense], Joint Staff level. If there's a specific area that I 
would be involved in, they would bring me into that. We have 
connections, we have discussions on cyber operations, 
information operations, et cetera, frequently. But, it wouldn't 
be one that I am directly involved in.
    Senator Hirono. No, there doesn't seem to be any one agency 
that is taking the lead on this, and that is a cause of concern 
for many of us.
    Let me turn to another subject. Many times, that it will 
require a whole-of-government approach for us to maintain our 
position, let's say, in the world. Concerns with the 
administration's cuts to the State Department and Treasury, 
along with the effects that these cuts would have on foreign 
diplomacy, which you have already noted as really important, 
can you talk a little bit about the effects of these cuts to 
State Department and Treasury personnel on your mission?
    General Scaparrotti. Yes. I can't speak to the cuts, 
themselves, and how that impacts inside of State. That's best 
to go to them. But, I will say this, that everything we do in 
EUCOM, we look at it as an interagency activity, generally with 
State in the lead, as diplomacy leads from our--is the way that 
we work here in a democracy. Everything I do, we look at from a 
whole-of-government approach. We look at it, usually, with one 
of the other agencies in the lead in most of what we do in 
Europe. In each country, my--you know, my first goal is to 
ensure--or our objective, I should say--is that we support the 
Ambassador and the Ambassador's country team and their efforts 
within that country. So, a reduction----
    Senator Hirono. Yeah.
    General Scaparrotti.--of their abilities would not be 
positive.
    Senator Hirono. Thank you. Including a 26 percent cut to 
the State Department and the departure of many senior 
personnel.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    General Scaparrotti, thank you so much for your service and 
your willingness to come in front of us and give us important 
updates today.
    As the U.S. is turning its focus to great powers and near-
peer threats, it is important for us to consider ways that we 
can best leverage our resources. One way that the United States 
has begun doing this is by putting into place the Army's new 
Security Force Assistance Battalions, or the SFAB, that's 
located at Fort Benning. We are currently leveraging the SFAB 
in the Middle East, in Afghanistan. Perhaps this unit, with its 
unique capabilities in the train-advise-and-assist areas, could 
be used to take stress off of our special operators, especially 
in EUCOM. Could EUCOM benefit from those capabilities? If so, 
where could you see us using the SFABs in EUCOM?
    General Scaparrotti. Well, first of all, it's not 
necessarily in EUCOM, but I'll respond, given that I'm also the 
SACEUR [Supreme Allied Commander Europe], and United States is 
a part of Resolute Support, you know, the mission within 
Afghanistan, which is where they're deploying the SFABs. I was 
just in Afghanistan last weekend. This is going to be a great 
boost to the mission there, because they're trained 
specifically for train, advise, and assist. They're organized 
for that. They're prepared for the mission in the place that 
they're going to. That's what we need in Afghanistan. We need 
to focus on train, advise, and assist to continue to build the 
capability of their force. I'm fully supportive of this, and I 
think it is an efficient use of resources and also helps us to 
maintain the readiness of our Army units as an--as a fighting 
force, in terms of those other brigades, as opposed to pulling 
one apart to do the SFAB job.
    Within Europe, there's a time and place. There's two ways. 
We do capability development throughout Europe with our allies 
and our partners. There may be an application there as we get 
into a focused training effort, like we do in Ukraine, for 
instance, or in a projecting-stability type of effort, where we 
assist in some countries in Northern Africa, perhaps, in order 
to build their capability and prevent destabilization.
    Those are just a couple of quick ideas. But, I think having 
that force, there's certainly plenty of opportunity when it 
comes to strengthening our partners and using a force like 
that.
    Senator Ernst. Right. Well, I agree, and I'm excited to see 
how their deployment goes in Afghanistan, and how we can 
utilize their--the adeptness of that type of unit in other 
cultural situations, as well. As we look to Europe and what we 
see going on in Ukraine, it might be another opportunity for 
our SFABs to excel. I appreciate your feedback there.
    Now, we know that Russia--that's the topic, it seems, this 
morning--but, the malign activity across the EUCOM AOR is, of 
course, extremely concerning. I think you've seen that 
demonstrated from all of us here, sitting with you today. 
Whether it's the illegal presence in Crimea, whether it is 
their information operations, their gray zone activities, we've 
talked about a lot of that today--violations of the INF 
Treaty--we need to bolster our posture in their destabilizing 
actions. We need to push against that. So, the DOD's budget 
request for fiscal year 2019 is $2 billion--or a near-2-
billion-dollar increase for the European Deterrence Initiative. 
If it weren't for that funding provided by the EDI, do you 
think that EUCOM could fully perform its mission to deter and, 
if necessary, defeat aggression in Europe? What if we no longer 
had those dollars?
    General Scaparrotti. Senator, I could not do my mission 
without the EDI and the increase. That--as I have said, it not 
only continues what I have today, what we've built, but, 
through the FYDP, this is what's going to establish the full 
posture that we need, in conjunction with our allies.
    Senator Ernst. If you had one dollar more, where would you 
spend it?
    General Scaparrotti. Well, that's--I would probably go--if 
you look at where we need to continue development, I would most 
likely start at C4ISR [Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance], 
because our intelligence, surveillance, and reconnaissance is 
so important to me, particularly when you don't have the 
posture you want. You've got to be able to get ahead of and be 
able to predict what your posture needs to be. That's probably 
the area that I'd put my next dollar into, if it were up to me.
    Senator Ernst. That is exceptional, because I think we hear 
from many of our other commanders, as well, that ISR 
[Intelligence Surveillance Reconnaissance] is in high, high 
demand. Thank you very much, General.
    Thank you.
    Senator Inhofe. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    General, thank you for being here again today, and thank 
you for your service, as always.
    General, how would you define the term ``political 
warfare''?
    General Scaparrotti. Political warfare. Well, I think it 
would be the attack or efforts to spoil policy or politics 
within a government. That could, you know, cover a range of its 
governmental activities, its individual agencies, its policy, 
and its values.
    Senator Peters. That's certainly been an element of 
strategy for--since the beginning of warfare, just different 
types of technologies. However, in today's digital domain, 
that--the ability to use political warfare is leveraged 
dramatically. I think most observers see that that's going to 
be a major part of conflict, going forward. It's a part of 
conflict that we're seeing right now with Russians.
    I had the opportunity, when I was in Latvia and Lithuania 
recently, to be there for Saber Strike, an exercise that went 
on with a number of countries. I had the chance to visit 
STRATCOM [United States Strategic Command]. That was dealing 
with communications that were coming from the Russians that 
were really about--were really--in my mind, were kind of the 
classic definition of political warfare, to sow confusion, to 
create distrust. In fact, some of the communications that I saw 
were put out by Russians on social media, that the Americans 
had dropped a bomb on a farmhouse or a store, some sort of 
civilian building, and that the Americans simply can't be 
trusted, because, when they're in your country, bad things 
happen. I'm sure there are other examples. Could you give us a 
sense of the types of things that the Russians are doing on a 
regular basis that interfere with NATO's ability to have the 
trust and confidence of the citizens of those countries?
    General Scaparrotti. Yeah, thank you.
    I would just tell you that the kinds of things you 
described that you saw there is not uncommon throughout 
particularly the east, but even into the depth of Europe. 
Typically, when you look at their disinformation, their social 
media, it is generally targeted at the undermining of Western 
values, the confidence in that government, confidence in their 
governmental leaders, almost always subtly just hedging away at 
that. Because of today's capabilities and information, where 
they can use a multiple--multiple platforms and generate great 
volume, it can really undermine a nation. Because all they have 
to do is just sow some confusion, primarily, sow enough 
confusion that there's distrust in the government. It's not an 
uncommon thing to see.
    Senator Peters. Yeah. In fact, it's going on constantly, is 
it not?
    General Scaparrotti. It is. It's subtle, but it's--it is 
constant. It is at greater volume in the countries in the east 
than it is, perhaps, in the south/southwest of Europe.
    Senator Peters. When I use the term ``political warfare,'' 
this--they are engaged in political warfare with the West, 
generally, as a result of these activities, in trying to sow 
this distrust, which undermines any of the--the fundamental 
basis of democracy is, the people have trust in their 
government and their ability to effect the changes in that 
government. If you sow distrust, it undermines it. I--what--we 
have to combat this. Obviously, this is something--we have to 
understand the Russians are not our friends, they're engaged in 
these activities, not just in the United States, but all across 
Europe and other parts of the world. What would be the role 
for--in your mind, as--in your capacity, for U.S. versus our 
allies, and the role of government operations versus what the 
private sector should be expected to do in civil society, 
generally? How do we grapple with this?
    General Scaparrotti. Well, I think one way is, is that--we, 
in the military, reinforce all of these civilian agencies and 
capabilities, to include national media, et cetera. We have to 
continue to focus on the values and--you know, the values that 
democracies profess--democratic institutions, international 
rule of law. That's a very high-level, general statement. But, 
we've kind of left that. Western democracies have kind of 
assumed that our people understood what was important about a 
democracy and the way that we live. We've got to reinforce 
that. It needs to be done across all the different levers that 
we can do it. That takes focus, and it takes volume. It takes 
information volume to do that.
    Senator Peters. Do you believe that we should actively 
engage some of the major tech platforms to be part of the 
solution, and to be more active in this space than they are 
now?
    General Scaparrotti. Yes, I do. On our side, in conjunction 
with NATO and the other nations, we're actually employing our 
capabilities to get our messages out, at volume.
    Senator Peters. Great. Thank you, General.
    General Scaparrotti. Thank you.
    Senator Inhofe. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    General Scaparrotti, it's good to see you again. Thank you 
for the time that you spent in my office, and also being at the 
official launch of the NATO--the Senate NATO Observer Group. I 
appreciate all the work you're doing, and Ambassador 
Hutchinson. We look forward, with Senator Shaheen, in getting 
more engaged as we continue the rollout.
    I want to probably talk about something you would have 
anticipated today, and it has to do with trade. We know that--
the discussions around the tariffs, we know that China is a bad 
actor, and that there legitimate, I think, national defense 
concerns there. But, the way that the tariffs get implemented, 
it could sweep in even some of our NATO allies if we don't get 
it right. I know this is a fairly new discussion, but I was 
wondering if, in your role, you have heard any of the 
discussions among some of our allies about concerns with how 
that gets rolled out.
    General Scaparrotti. Senator, actually, I haven't, at this 
point, because I was back in the States here for meetings and 
then hearings. As this has been a topic in the news and 
discussion, I've actually been in the States.
    Senator Tillis. Well, would the--it would be very 
interesting. Maybe we can get a readout once you get back over 
there, because, since these tariffs are moving forward on the 
basis of national defense concerns, it would seem to me that 
that will probably weigh into the discussion.
    The other reason--I'd be very interested in the feedback. I 
won't press you more on the question. But, I know that we're 
making great progress on our NATO partners' contributions as a 
percentage of GDP. A part of what's going to help sustain that 
upward trend is going to be good economic performance in those 
nations. If they start seeing a dip in their economy, then my 
guess is, this is one area where they may look at and move 
their continuing contribution to the right as they move up to 
the 2 percent target. I think it's very important for us to get 
feedback, and have that feedback get back to the administration 
so that, when they tailor it, they do it in a way that's not 
disruptive to the chemistry and the relationship that we have 
with our partners. I'd appreciate getting that feedback.
    The other question I have, How would you grade the mood of 
our NATO allies and their sense that the U.S. is absolutely 
committed to moving forward and building on the partnership? 
Strong?
    General Scaparrotti. Yes, I'd say it's strong. What they 
see is investments like EDI, 5 to 6 billion dollars, and then 
the presence of our troops. That's a strong statement.
    Senator Tillis. Could you talk a little bit about the--I 
think some people believe that--this is for the benefit of the 
public--when you're trying to get to that 2 percent margin, 
it's not like it's going into some NATO account, being spent on 
the new building and all the other things there. Can you talk 
about the inherent capabilities and the readiness, the benefits 
to the nations themselves, by virtue of upping that--their 
investment as a NATO partner?
    General Scaparrotti. Well, roger. First of all, we live in 
an environment today that's changed dramatically in the last 
even 5 years, but certainly 10, in terms of the threats that we 
have in the environment--European--the Euro-Atlantic 
environment. So, they need a force that's relevant to that. The 
force that they had 5 years ago, that we had 5 years ago, is 
not fully relevant. Take the cyber domain, for instance, as 
just one example. The increase in precision weaponry, in the 
types of weaponry, is another. So, to secure their population, 
their own sovereignty, which is a requirement of article 3 and 
4, and also to have the benefit of article 5, they have to 
invest in this, and they have to have a force that's relevant. 
It's to--it's for their own population's security and good, but 
it's also for us, as an alliance, the good of the NATO 
alliance.
    NATO alliance secures 50 percent of the GDP of the--you 
know, of our nations and theirs in the Euro-Atlantic alone. 
When you talk about prosperity, the increasing--their 
increasing economy, which it is improving right now, I think 
that security in NATO's foundational security is a part of 
that.
    Senator Tillis. Well, thank you. Just in closing, when you 
get back and you get an opportunity--it may be that nobody's 
talking about the looming concern over the--what the President 
described may be a trade war. I'd be very interested in seeing 
if that is having any sort of an effect on the relationships 
that you're most concerned with.
    Thank you, Mr. Chair.
    Senator Inhofe. Thank you.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, General, for meeting with me last week, and 
thank you for your service.
    Now, Russia continues to actively work to meddle in 
countries along its border and undermine unity within the NATO 
alliance. They do it through cyberattacks, they spread 
disinformation, they spread false stories through social media, 
they foment institutional corruption and use a lot of other 
manipulative measures. One of the countries in your area of 
responsibility is Sweden, which is not a member of NATO, but 
which did conduct major military exercises with the NATO troops 
last year. Sweden has a general election coming up in 
September, and I understand that they are taking preemptive 
steps to deter Russian interference.
    General, without divulging classified information, can you 
talk just a little bit about how you're working with Sweden and 
other countries in your area of responsibility to deter this 
kind of Russian information warfare, and what you've learned 
that we might apply here in the United States?
    General Scaparrotti. First of all, I'd say that Sweden is 
one of those countries that I think's more advanced in this, in 
terms of just my--that's a personal opinion, looking at the 
nations throughout Europe, in terms of their willingness to 
take it on. One of their techniques is, they're very open about 
an attack, they publicize it, they push back against it. 
They're, I think, very forward-leaning with respect to their 
population and the education and how to question information 
that they get, broadly, and ensure they know the source, et 
cetera.
    With respect to Sweden, they're a very close partner, a 
great partner within Europe, both as a partner to NATO, but 
also with the United States. We work with them and several of 
the other Nordic countries together in a routine conference in 
order to look at ways that we can strengthen our defense and 
also conduct training that's helpful to all of us.
    Senator Warren. Good. I think that's really helpful. 
Whether it's Sweden or the United States or a whole lot of 
other countries, Russia is hellbent on undermining democracy. 
Putin and his online trolls are not going away, and we face a 
choice. We can sit on our hands and let the Russians interfere 
in our elections, or we can be proactive and work with our 
allies to deter Russia and Russia's information warfare.
    Now, there's one other topic I want to ask you about, and 
that is, last year I asked you about your support from the 
State Department, and you told me that you believe our military 
and diplomatic agencies need to work together to confront 
threats to our security and threats to our allies. I 
understand, from your comments to Senator Hirono, that it's 
safe to assume you haven't changed your position on that. Is 
that fair?
    General Scaparrotti. That's correct.
    Senator Warren. Good. I thought so. I want to explore one 
aspect of how this works, in practice. In order to have robust 
diplomacy, we need to have the personnel to carry it out. Out 
of the countries in your area of responsibility as the head of 
European Command, the United States currently does not have a 
confirmed Ambassador or even an official nominee for six of 
them: Belarus, Belgium, Iceland, Ireland, Sweden, and Turkey. 
General, as an operational commander, do these diplomatic 
vacancies concern you as you carry out your mission? If so, 
why?
    General Scaparrotti. Yes, Senator, it does concern me. 
There's other organizations that have an Ambassador that don't 
have them, as well, yet, beyond the number you've given. The 
country teams, for instance, in the Embassies, have great 
staffs, and we work very closely with them. But, the Ambassador 
is a key individual appointed by the government, recognized by 
their government as the Ambassador. We need to fill those in 
each one of these countries, particularly in a country, for 
instance, where--Turkey, today, where we don't have an 
Ambassador now and we are in very sensitive discussions in 
order to continue to reinforce and strengthen, you know, our 
relationship with a key NATO ally.
    Senator Warren. Yeah.
    General Scaparrotti. The Ambassador's position is key.
    Senator Warren. Thank you. Thank you very much, General. We 
need to have both a strong military and a fully staffed State 
Department to best defend America and its allies. We can't do 
that with empty ambassadorial posts and vacant positions 
throughout the State Department and around the world. The Trump 
administration's failure to fill major diplomatic posts has 
damaged our diplomatic readiness, and that makes our military's 
job harder.
    Thank you. Thank you, General.
    Senator Inhofe. Senator Sasse.
    Senator Sasse. Thank you, Mr. Chairman.
    General, thank you for being here. Thanks for your 
generosity with your time the last few weeks as you've been 
in--back in the U.S. A bunch of us have a lot of respect for 
you and appreciate the tutorials you've given us.
    I think you said, earlier--you said it in your written 
statement, and I think you also said earlier, in response to a 
question, that Russia is now employing a broad menu of tactics 
and tools to manipulate and destabilize lots of nations, and to 
manipulate and distort public information in a lot of the 
nations in your areas of responsibility. I think, at one point, 
you also said that a lot of their tactics are just short of 
war. Could you unpack what the line is in information warfare 
between just short of war and being at actual cyber war?
    General Scaparrotti. I think that's the key question. It's 
something we've got to explore. It's particularly important in 
cyber, as well. There are discussions being had here in NATO, 
et cetera, to determine what the definition of that is. But, it 
would have to do with, you know, an attack that damages the 
vital interests of the United States, I think, is the first 
place I would start to--you know, to define that, and 
particularly true within cyber, as well. That's probably, at 
this point, what I would say. I would start at the vital 
interests and go from there. But, a better definition of that 
within our government, within NATO, then helps us when we are 
in a situation where we see a crisis or an attack that's 
approaching that, and we can have greater agility, greater 
flexibility in determining how to respond.
    Senator Sasse. Public trust is at an all-time low. We've 
had decent polling in this country since the 1930s. Public 
trust is at an alltime low in most of our institutions right 
now. When you look at every major culture-war dispute that 
happens amongst us--I think about when the President decided to 
pick the scab at the Kaepernick and NFL [National Football 
League] kneeling-before-the-flag issue, in the--it's public 
information now; I think it's been in the press enough times 
that, in the 2 or 3 days after the President decided to 
reignite that fight, two of the fastest trending hashtags on 
Twitter, Facebook, Instagram, Snapchat were#takeakneenfl and 
#standfortheanthem. I think those of us who have spent a lot of 
time on this issue are well aware--I know--I think the 
percentage is probably still classified, but the huge share of 
that culture warring in the United States was actually of 
Russian origin. Both sides of our culture wars. ``Take a 
knee,'' ``stand for the anthem,'' Putin loves it. When 
Americans hate Americans, and when we fight with each other, 
Russia wins. I know that you've seen lots and lots of similar 
things happening in European nations. I don't know how that is 
really different, in terms of the ultimate public negative 
consequences, than if this were done to a specific U.S. 
corporation, who then saw its market cap and its economic value 
collapse. We're nuts if we don't understand that the next round 
of this is going to include lots of specific economic warfare.
    When we see attacks on public trust, we're not sure that 
it's warfare. If it were an economic action and you saw a 
specific United States company devalued because of fake 
information that was out there from the Russians, would that be 
war?
    General Scaparrotti. I don't know. I don't--and I'd--you 
know, this is a policy question, actually, when you get to it, 
but I think what you're driving at is what I said earlier, and 
that is, is that we live in a different world today. The change 
in what is considered, you know, part of our environment, 
particularly having to do with information, the speed of it, 
the connectivity of it, the ability to, what I call, you know, 
develop volume, the impact of cyber activity, are all things 
that we're wrestling with. But, we need to wrestle with it, 
because we've got to get a better definition of our activity 
within those, and what's acceptable.
    In the international community, when it comes to conflict, 
what we've done since the end of the second World War was help 
to establish institutions that established an international 
rule of order that nations are expected to follow. I think, in 
these new dynamics here, the new strategic environment we're 
in, we've not done that yet, and we have to begin to move 
forward, in some means, to determine how we discipline 
particularly the cyber and the information domains, et cetera, 
to a certain extent.
    Senator Sasse. One of the things that's unfortunate about 
the ways that we're deliberating about where we are in the 
evolution of warfare and the emergence of cyberwarfare is that 
it's people in the uniform who are doing the hardest work and 
then come and stand before committees like this, and you end 
up--you and your colleagues end up taking a lot of the beating 
for what is really a failure of political leadership in both 
the legislative and executive branches, and both parties. 
Right? After the Chinese attack on OPM [Office of Personnel 
Management], 3 years ago, the last administration had no real 
response. In the current moment, with Russian attacks, the 
current administration has no real response. The legislature is 
not nearly serious as--serious enough about this issue. 
Regularly, we take people who are in your position who are 
trying to help develop a menu of options for us to understand 
the problem, we're not active in response, and you're the one 
who ends up having to take some of the brunt of the heat.
    I would love to follow up with you. You and I have 
discussed this in private and in the SCIF [Sensitive 
Compartmented Information Facility] in the past. I'd like to 
follow up with you, in a formal letter, and ask a question 
about this policymaking issue in the definition of ``war'' and 
in the cyber rules of engagement, because we'd like to help 
push forward, at the more senior levels of the Pentagon, and 
then ultimately at the handoff of the White House, where those 
discussions are. Because I've been here for only 3 years. I'm 
one of five people in this body who's never been a politician 
before. I've been here for 3 years, and I've asked these 
questions every 2-3 months for 36 months straight. Frankly, it 
doesn't seem like we're any closer now than we were 36 months 
ago to having answers to these questions. That's ultimately, 
chiefly the responsibility of the Congress, the article 1 
branch. But, we need the help of people like you to tee up 
those questions. I'll follow up in letter, too.
    General Scaparrotti. Thank you, Senator.
    Senator Sasse. Thank you, General.
    Senator Inhofe. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    General Scaparrotti, thank you for your service and your 
testimony today.
    You've been asked a couple of questions about the RAND 
study, the unclassified version of which was entered into the 
record. I want to ask you a question about that, too. We've 
been briefed about it, and one of the things I noticed that was 
interesting about that study is, it analyzed the state, sort 
of, power competitors we have, in terms of their capacities, 
but it didn't really look at, ``Well, what if a couple of them 
combine capacities.'' That really was not covered in this part 
that I read. We always talk about our combined capacity, with 
NATO, for example, but if you look at the RAND report, you 
would assume that we would face, potentially, a set of discrete 
competitors, but there's little thought, in the sections I've 
read, about what their relationships are with one another. 
We're not the only country that has allies, even military 
alliances.
    The area that I would probably have the most concern would 
be a Russia-China relationship that would seek to exert more 
influence to our detriment, although you've seen Russia and 
Turkey start to have some cooperation in areas that are--that 
maybe is a little bit unusual, given the history between those 
two countries.
    I'm wondering if you could, first, maybe address this issue 
from your standpoint. Are you seeing anything in the Russia-
China relationship that would signify that they are growing 
closer together, in terms of mil-to-mil activity or other 
activities, where the combined effect of their capacity should 
pose us concern?
    General Scaparrotti. I would still--start by saying, I 
think that there's not a--I think they still have issues that 
wouldn't make them natural partners. But, what we have seen, I 
think, in the last--I'll just go for this past year, for 
instance--we've seen Russian and Chinese naval operations 
training together in the European theater on a couple of 
occasions now.
    Senator Kaine. In the European theater.
    General Scaparrotti. In the European theater. Maritime 
operations. We know that there has been some work together, at 
least we think, in the port in Djibouti, a little bit of 
assistance for each other there. So, we've seen other areas, 
mil-to-mil, where they've come together for specific training 
purposes, et cetera. There's a little more collaboration there 
than we've seen in the past. Of course, that is somewhat 
worrisome.
    Senator Kaine. How about Russia and Turkey?
    General Scaparrotti. Yes. But, there again, I think they've 
always had an economic relationship. It was disturbed with a 
shootdown of the Russian aircraft. I think part of what the 
government has tried to do is reestablish the economic 
relationship. There has been, obviously, with respect to Syria 
and their operations there----
    Senator Kaine. Right.
    General Scaparrotti.--at a minimum, deconfliction, if not 
support between Russia and Turkey.
    Senator Kaine. How about Russia and Iran? Obviously, we 
know they are both backers of the Assad regime in Syria, but 
are you seeing Russia and Iran engaging in mil-to-mil 
activities, training, other things that would make you worry 
about their combined capacities?
    General Scaparrotti. There are activities where they work 
together. I think it's one of convenience. But, obviously, any 
of these nations that might be able to come together, 
particularly with respect to areas that we're operating in, 
would be of concern, mil-to-mil.
    Senator Kaine. Let me switch quickly to one last Turkey 
question. The Turkey issue is very vexing. A NATO ally, we use 
the base at Incirlik for important tasks in the fight against 
ISIS. Turkey has been very discouraged at the United States 
alliance with the Kurds in northern Syria in the ISIS battle. 
That is a very serious point of contention now between the 
Turkish Government and the United States. Just give us a little 
bit of a future look at the United States-Kurd relationship in 
northern Syria. The Kurds have been great fighting partners for 
the United States in defeating ISIS in northern Syria, but the 
United States has also been a great partner to the Kurds in 
enabling them to take back land that is theirs, from ISIS. 
Having--are we at a state now, in northern Syria, where we are 
now sort of reducing the work we do together with Syrian Kurds 
because of the diminished threat of ISIS in a way that should 
cool the temperature of this challenge between Turkey and the 
United States?
    General Scaparrotti. In this process, I work closely with 
Turkey. That's within EUCOM. The Kurds and those----
    Senator Kaine. Right.
    General Scaparrotti.--operations in Syria----
    Senator Kaine. CENTCOM [United States Central Command].
    Senator Kaine.--are with CENTCOM. So, we--I and Joe Votel, 
as you can imagine, talk frequently on this, as well of--our 
staffs, working together.
    My approach to this is, is that we work not only at--look 
at the immediate interests of both nations, but we look at the 
longer-term interests. Where do we want to be in a year, 2 
years, and 5 years? With that perspective, with a close NATO 
ally like Turkey, we know that we want to maintain and 
strengthen our relationship. That's the long-term objective. I 
think if we look at that long-term objective, it can begin to 
inform what we're doing today with respect to NATO as an ally 
and the Kurds, who are our partner, in defeating ISIS. Although 
it's a very difficult and complex situation, I'm hopeful that 
we can walk this path and attain both interests.
    Senator Kaine. Mr. Chair, thank you.
    Senator Inhofe. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chair.
    I want to thank my friend from Georgia, here, for letting 
me cut in line on the questioning.
    General, good to see you again, and thanks for all you're 
doing. I think there's--safe to say, there's a lot of us who 
are glad you're in your--the position you're in. It's--I know 
it's a difficult challenge. Thanks for your service.
    A lot of my colleagues on both sides of the aisle here have 
been talking about the importance of allies. I know you get it. 
I think we all get it, whether it's China or Russia, having our 
allies on board and expanding that network is really important. 
You have our full support on that.
    I do want to respond to Senator Warren's comment. The 
second time in the last 2 days we've heard colleagues--and I 
have the utmost respect for my colleagues on the other side, 
particularly on this committee--about how the President needs 
to get his people out to get people in positions--Ambassadors, 
Assistant Secretaries. I agree. I think we could have, maybe, a 
little deal here among Democrats and Republicans. We'll 
encourage the White House to get more nominees out, but my 
colleagues on the other side can't complain about it, like 
Senator Warren was just doing, and then go to the unprecedented 
lengths that they have been doing to block and delay and make 
sure President Trump doesn't get his nominees confirmed. So, 
can't have it both ways, Senator Warren and others. So, we'll 
work with the President. When they come to the floor, let's 
move them, not unprecedented blocking, which has been 
happening, which doesn't help the country, doesn't help our 
national security, and it's a little hypocritical to be 
complaining, when, when they get to the floor, they never get 
moved. But, that's not your problem, that's our problem.
    I'd actually like to talk about the Arctic. I know it's an 
area that you've been focused on. We appreciate that. There's a 
number of us, beyond just me, being from Alaska, who are 
concerned about it. How many bases in Russia--are the Russians 
building or refurbishing in the Arctic? Do you have a sense of 
that? Which would include their new Arctic military command. 
Can you talk a little bit about that?
    General Scaparrotti. Yes. They're--essentially, the 
majority of this is refurbishing old bases, probably seven to 
nine; in particular, those that are at the beginning and the 
end of what is the Northern Sea Route across there. Those are 
the key places. We're watching that closely, in terms of 
militarization of the Arctic.
    Senator Sullivan. What do you think their intentions are? 
Let me ask, are they installing any systems, including the 
fielding of major icebreakers, that would give them de facto 
control of the Northern Sea Route? Is that what they're trying 
to do, do you think? What are their----
    Senator Sullivan. It--well, their----
    Senator Sullivan.--intentions up there? They're clearly 
militarizing that part of the world. What do you think they're 
trying to achieve?
    General Scaparrotti. Their stated intent is to provide 
safeguards, security for the economic well-being of the Arctic. 
It's a very--you know, their statement is along those lines. 
But, if you look at what they're putting into place, they would 
have the capability, I think, in some time, you know, perhaps 2 
or 3 years, to control the Northern Sea Route, if they chose to 
do so.
    Senator Sullivan. Do you think that's in the interests of 
the United States, that a country like Russia would have a de 
facto control over a new and potentially incredibly important 
line of communication through the world?
    General Scaparrotti. No, I don't.
    Senator Sullivan. So, in our Arctic policy that this 
committee recommended--or, actually, requested that the 
Secretary of Defense promulgate 2 years ago, we talked about 
the ability to control that sea route, to run FONOPs [Freedom 
of Navigation Operations] there. Are we falling behind, in 
terms of the capabilities that we have, vis-a-vis the Russians, 
to do that?
    General Scaparrotti. We're not keeping pace.
    Senator Sullivan. Thank you, General.
    I wanted to ask another issue with regard to shortfalls 
that you may or may not have in the EUCOM AOR to counter and 
deter increasing Russian aggression. What's your thought of our 
shortfalls with regard to missile defense? How do we need to 
address that?
    General Scaparrotti. We have capable missile defense 
systems. When you look at missile defense, though, I think the 
things that we need to focus on are--first of all, we need to 
focus again on short-range and medium-range missile technology. 
We've--we have been operating in environments where we 
weren't--it wasn't a contested environment, et cetera. That's 
not the case any longer. So, we need to look at those systems. 
We need to look at the interoperability with our allies, 
because we can't do this in Europe without doing it correctly 
together. Then, we need to look at other parts of this, passive 
parts of our integrated air missile defense, as well. I--that's 
how I would answer that. I think it's a holistic system that 
we've got to put together, and it's the systems within the 
midrange that I am--and probably short-range--that I am most 
concerned about today.
    Senator Sullivan. Okay. Thank you very much, General.
    Senator Inhofe. Senator King.
    Senator King. Thank you, Mr. Chairman.
    General, welcome to the committee.
    First, I want to associate myself with the comments of 
Senator Sasse. I--we've talked about this a great deal. We 
really need to develop a cyber doctrine and a strategy in order 
to have a credible deterrent. I think that's one of the things 
that's lacking--prior administration, current administration. 
Let's just get it done. I hope you will take that message back. 
Because if all we do is try to defend--ultimately, as you know, 
the whole idea of your forces and the whole idea of our nuclear 
force is deterrence. We don't want to have to use them. We 
don't have a deterrent force, in terms of cyber. I think it's 
something that we certainly need to develop.
    Do you agree, General?
    General Scaparrotti. Yes.
    Senator King. Thank you.
    It seems to me that what's going on--and we've had a series 
of questions about what the Russians are doing in Europe. I 
think it'll be interesting to learn whether they were involved 
in the recent Italian elections over the weekend. What we're 
seeing before our eyes is a kind of deunification of Europe. 
We've had Brexit, we've had a populist election in Italy. We've 
had a very difficult election in Germany. They--we know they 
attempted to interfere in the election in France. We're trying 
to--they're trying to split the countries. It strikes me that 
what they are doing is a kind of geopolitical jujitsu. My 
memory of judo and jujitsu was, you used your opponent's 
strength against them. Our strength is our freedom and our 
First Amendment and our free press and our open society. That's 
exactly what they are using in order to turn it back on us and 
to divide us, not only within countries, but also within the 
alliance. I presume you see this Russian activity all the time, 
from your position in EUCOM.
    General Scaparrotti. Yes, sir, I do. I agree with your 
thoughts. I mean, a democratic government, the values that we 
profess, the freedom of the press, those kinds of things, those 
are the things that are vulnerabilities with respect to 
Russia's attack.
    Senator King. That's exactly what they're exploiting.
    General Scaparrotti. That's what they're exploiting. That's 
what they're leveraging. So, I said, earlier in my comments, 
that it's important today that we not take for granted the 
importance of these values, our active--individuals' active 
participation as a member of a democracy to protect all of 
those things. There's a certain sense that I have, both here 
and in Europe, that we've kind of begun to take that for 
granted. Now it's being attacked. We have to think about it 
that way, and begin to come together to protect the values and 
our way of life----
    Senator King. I know.
    General Scaparrotti.--because that's essentially what----
    Senator King. And it----
    General Scaparrotti.--they've gone after.
    Senator King.--leads us back to the issue of some kind of 
strategy and doctrine that we can develop, not unlike NATO at 
the end of World War II, not unlike the strategy of deterrence 
that underlay our nuclear policy for 70 years, which has 
worked.
    Let me change the subject for a moment. Javelins to 
Ukraine. Any concern about that leading to an escalation on the 
other side, particularly given the fact that Russia is so much 
more proximate to the battlefield? Give me your thoughts about 
that.
    General Scaparrotti. I wouldn't say I had zero concern, but 
I--it's not a lot of concern, particularly because, if you look 
at the Russian proxies and the force structures, the kinds of 
equipment provided by Russia, the presence of Russian 
leadership and the proximity of Russian units on the border to 
eastern Ukraine, I can't see--I mean, they would obviously take 
advantage of this in information warfare to say that it's of 
concern to them. But, it should not be.
    Senator King. Do you--in the few seconds that I have left, 
your thoughts about the status of that conflict. It seems to 
be, at least from the point of view of our attention, in a kind 
of limbo, in a kind of standoff. Is that the situation?
    General Scaparrotti. Well, you know, sometimes there will 
be those that add this to, kind of, the frozen conflicts that 
we see in Europe, particularly in the east. But, I would say 
it's not that. It's a hot war, yet. They take casualties on 
both sides, but particularly in Ukraine, you know, every week, 
to this date. We have seen the violence level go down, of late. 
But, I would tell you what you don't see is, within that lower 
violence level, it's less heavy artillery and more things like 
snipers, et cetera. So, the casualties haven't gone down. In 
fact, they've gone up a bit.
    Senator King. But, it's still a hot war.
    General Scaparrotti. It's still a hot war. My personal 
opinion is, is that, although Russia states that it's Ukraine's 
problem that we're not moving forward with the Minsk agreement, 
et cetera, I think it's actually Russia who doesn't want it to 
move forward. They could certainly do more than they're doing 
today with respect of helping us move in the right direction, 
protection of the mission monitors, for instance, in the 
Donbass, which they don't help with at all, et cetera.
    Senator King. Final question, on a different subject. It 
could be a yes-or-no answer. You note, in your testimony on 
page 4, Russia is revitalizing its northern fleet, as you just 
discussed with Senator Sullivan, in anticipation of increased 
military, commercial activity. They intend to assert 
sovereignty over the Northern Sea Route, in violation of the 
U.N. Convention on the Law of the Sea. Would it be advantageous 
to our country for us to ratify the U.N. Convention of the Law 
of the Sea so that we could be a participant in those 
proceedings?
    General Scaparrotti. Yes.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Perdue.
    Senator Perdue. General, thank you for being here, and for 
your decades of service.
    It--I want to talk about Russia just a minute, but 
particularly about Georgia and their intent there and our 
strategy there. It seems to me, when you look at their 
facilities in Murmansk, Kaliningrad, Sevastopol now, in the 
Crimea region, what they've done in Georgia, and now what 
they've done in Latakia and Tartus in Syria, I'm concerned 
about these frozen conflicts. I'd like to get your update on 
the Georgian frozen conflict. I guess we still call that a 
frozen conflict. What is--what's our posture there, and what's 
the long-term strategy regarding, specifically, Georgia, but 
also--you talked about the current situation in Ukraine. I'd 
love for you to also update us on your current thinking--the 
United States current posture with regard to Ukraine and 
Georgia, relative to what looks to be a solidification of 
Russia's positioning in a crescent around eastern Europe.
    General Scaparrotti. First, Senator, with respect to 
Georgia, one, I would state that, as a partner--Georgia, as a 
partner, is a strong one. They provide forces in Afghanistan 
and others. Not a large country, but a good fighting force and 
a good partner. What we see there today, when you look into the 
two areas that Russians have presence, those breakaway portions 
of Georgia--Ossetia, et cetera--they are now working to bring 
them into, I think, you know, almost the Russian Federation, in 
the sense that you--what you begin to see is the use of Russian 
administration within those----
    Senator Perdue. Putin calls them independent states now, 
those two----
    General Scaparrotti. He does, but it's not recognized 
internationally as----
    Senator Perdue. Right.
    General Scaparrotti.--independent states, neither one of 
them. They call it that. I don't think there's more than maybe 
three nations, or four, in the world that accept his 
definition. But, my point is, what he's doing is, he's drawing 
them into their administration. In some of these countries--and 
I can't recall if Georgia is one of them--but, in some of those 
countries, for those areas that they have presence, they have 
declared those soldiers' either ability to become a part of the 
Russian Federation military forces or they have agreements that 
they would become a part of that if there were a conflict. So, 
you--my point is, you can just see them drawing them into their 
orbit.
    Now, you asked about others. I think, if you go to Moldova 
or other areas where we have frozen conflicts, this is to their 
advantage, because they use that in order to help secure what 
they see as part of their strategic depth on the periphery. It 
points to their----
    Senator Perdue. Well, I apologize for interrupting, but----
    General Scaparrotti.--area of influence.
    Senator Perdue. What is our strategy in those frozen 
conflicts? I'd like a brief answer, and then--because I want to 
ask a quick question on Israel as I--as you finish up.
    General Scaparrotti. The--well, our strategy is--is, 
diplomatically, to stay very involved in a--different areas, 
whether it's OSCE [Organization for Secuirty Cooperation in 
Europe], Minsk, which is what it is for a couple of those, 
diplomatically, in order to resolve the conflicts and, at the 
same time, respect the sovereignty of the nations and the 
determination of the people involved, like in Nagorno-Karabakh 
[conflict between Armenia and Azerbaijan], for instance, their 
desire to determine their own government. We generally follow 
that track, but a better question for the diplomats who are 
working that.
    In our regard, we have a relationship with each of these 
countries, where we help them with security reform and also 
capacity-building, because, in each case, they're looking to 
the West, and they would prefer to come to the West. Russia's 
continuation of this frozen conflict is one way that they 
freeze that ability of a nation to then look to the West for 
either NATO or EU.
    Senator Perdue. Thank you.
    In the remaining time I've got, just a quick question about 
Iran and their increased activity in Syria. It seems that 
they've built a permanent base now outside Damascus that has a 
warehouse that's capable of storing missiles that could hit 
Israel. We know that they talk openly about a land bridge to--
from Tehran to Beirut. The changing situation in Syria 
certainly raises questions, particularly with the latest 
aggression with the drone incident in Israel. How does that 
situation in Syria--Israel is part of your area of 
responsibility, if I understand correct, correct?
    General Scaparrotti. That's correct, it is.
    Senator Perdue. What is the current situation? How do you 
assess that? What is your command's posture relative to the 
security of our ally, Israel?
    General Scaparrotti. My mission in EUCOM with respect to 
Israel is to support the defense of Israel. In fact, we have a 
large contingent there today doing an--defense and rehearsing, 
basically, you know, those operations that we planned in 
defense of Israel, should it be needed. I'm going there tonight 
in fact. We continue to work closely with them in a defensive 
means, but also to stay very close to them with intelligence. 
As you know, they see Iran as an existential threat. They're 
concerned about the posture of Iranian forces or Iranian-
supported forces in Syria, and perhaps that they might be 
intending to remain in Syria as this is resolved. They're 
concerned about the missile technology they believe maybe 
transferred from Iran to any of this--extremist organizations 
or the Lebanese Hezbollah to their north. We're watching this 
very closely with them. I agree that a land bridge, you know, 
between Iran--through into Syria would not be a good outcome.
    Senator Perdue. Thank you, sir.
    Thanks, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Gillibrand.
    Senator Gillibrand. Thank you so much, General.
    I want to continue the conversation you're having with my 
colleague. This week, more than 2500 United States personnel 
are taking part in EUCOM's Juniper Cobra missile defense 
exercise with the Israeli Defense Forces. According to Israeli 
media, this year's exercise will simulate a large-scale 
ballistic missile attack against Israel. Will the Arrow, Iron 
Dome, and David Sling missile defense system be involved in 
this exercise? Am I correct that this is the first such 
exercise since David Sling system went operational in April of 
last year?
    General Scaparrotti. The--this will involve their systems 
as well as ours, and, in particular, the interoperability of 
those systems and the interoperability and the connection of 
our command-and-control systems. In terms of their system, 
specifically, if it's a new system--this is the first exercise 
that we've done, but I couldn't comment. I can come back for 
the record after I look at it. I'm going there this evening to 
spend a few days as we conduct this exercise.
    [The information referred to follows:]

    Juniper Cobra 18 was the first large scale ballistic missile 
exercise with Israel involving the David's Sling weapons system. As you 
noted, David's Sling declared initial operational capability in April 
of 2017. Prior to Juniper Cobra 18, we did conduct procedural training 
with the Israelis using the system and updated our operational tactics 
and procedures accordingly.
    All three Israeli missile defense systems, Arrow, David's Sling, 
and Iron Dome participated in Juniper Cobra 18. From an operational 
standpoint, Arrow performed well in the simulation scenarios, as did 
David's Sling. Arrow and David's Sling operators conducted daily after 
action reviews of tactical performance to identify areas for 
improvement in communications and procedures. The IDF reviewed 
performance of the Iron Dome separately from the combined reviews 
conducted by United States and Israeli forces. However, these reviews 
focused on procedures and operator performance, not necessarily on how 
well the weapons system performed against its design specifications.
    As to how the respective systems performed against their technical 
design specifications, I would refer you to the Missile Defense Agency 
which provided simulation support during the exercises and conducted a 
technical demonstration of new Arrow software during the field training 
portion of Juniper Cobra 18.

    Senator Gillibrand. Do you think this exercise can 
effectively counter some of the threats to Israel?
    General Scaparrotti. Yes, I think it does. It's a matter of 
deterrence. It's--it is making sure that those who may think 
about doing them harm knows that we have a credible and a 
expert defense that we can establish rather rapidly.
    Senator Gillibrand. Have you discussed with Israel our 
commitment to maintaining their qualitative military edge?
    General Scaparrotti. Yes. I support that. We work very 
closely. I would--it's--in terms of our daily activity, it's 
one of the closest nations with EUCOM.
    Senator Gillibrand. Thank you.
    Switching gears. Media reported that, on February 7-8, 
hundreds of Russian military contractors were killed when 
United States Forces and Kurdish allies repelled an attack 
against a base in eastern Syria. Based on what you have seen in 
Europe, how does Russia tend to use military contractors? What 
is your assessment of the goal of this attack? From your 
viewpoint in EUCOM, what do you believe Russia is trying to 
accomplish in Syria?
    General Scaparrotti. I won't comment specifically on Syria 
that you noted. That's in CENTCOM's AOR. I would just say, 
generally, that Russia is known, through their oligarchs or 
some businesses, to establish and use private military forces, 
which is what I'd call them--private military forces.
    Senator Gillibrand. I was very interested in your exchange 
earlier about a Russian cyberattack. I understand, from many of 
your colleagues, that this is something that the President has 
not asked you to do. What recommendations would you make to the 
President to protect our country from a cyberattack that could 
harm American's vital infrastructure?
    General Scaparrotti. First of all, I--you know, the 
President wouldn't--it wouldn't be normal that he'd provide 
direction directly to me at EUCOM at my level with respect to 
this topic. It would be CYBERCOM's area. CYBERCOM's Commander 
would be the best to give him best military advice. So, to that 
expect, I'd probably go to Admiral Rogers. Mine would be, if 
asked for best military advice, is that we continue to develop 
the capabilities we have. I think we have excellent 
capabilities. We need to consider what a deterrent effect we 
want or need to have. But, I would leave it very generally at 
that and go to the specifics to the person that he turns to 
normally, being the Secretary and, within COCOMs [Combatant 
Commands], the CYBERCOM Commander.
    Senator Gillibrand. The NATO Secretary General has said 
that alliance members agreed that a serious cyberattack 
threatening critical military and civilian infrastructure could 
trigger article 5 of the NATO Treaty in the same way that a 
conventional military assault would. Is that--is this a 
possibility that your forces are training for, in cooperation 
with our allies? What can you tell us about any collaboration 
on this front?
    General Scaparrotti. Yes. We train. We're a member of NATO. 
Within NATO, for example, you know, we are defining the domain, 
with U.S. as a part of that, and we've actually conducted 
exercises, one this past year that involved ambiguous cyber 
activity or attacks, that involved attacks on infrastructure, 
et cetera, in order to get right at your point. That is to get 
better clarity on attacks on infrastructure, when is that of--
you know, an attack on a vital national interest? Then, how do 
we respond to that? There is, both the United States and within 
NATO at large, work on this very question.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    Good morning, General. Good to see you again.
    My concern--we've had a lot of conversation over the last 
several weeks about the state of Turkey and the region, and 
especially as a NATO partner of ours. Much of my concern has 
been focused on the fact that what used to be a very secular 
Turkey is moved in the direction of becoming a more religious 
Turkey, and the cultural shift seems to have had a significant 
impact on the behavior of Turkey. Can you walk me through your 
assessment?
    General Scaparrotti. Well, I think that, in Turkey overall, 
there is a shift of some note, specifically within the 
government, perhaps to be a government that's more Islamist, 
based on its religion, than in the past. Perhaps you might say 
it's less secular. But, I think it--the outcome of this remains 
to be seen. Most of this has happened just as a result of an 
attempted coup. President Erdogan has taken steps to, in his 
mind, secure his country and secure his form of government. I 
think we have to watch this and look a little deeper.
    Having said all of that, I have routine conversations with 
my counterpart in Turkey and their security officials. We have 
a close mil-to-mil relationship. They're a valued member as an 
ally and as a NATO ally. We're going to continue to develop 
that relationship and strengthen it. I think that, too, can 
have an influence on the government as a whole and--because 
they intend--I am sure, they intend to remain a member of NATO 
that is based on the Washington Treaty and the values that all 
of us profess.
    Senator Scott. Thank you, General.
    Russia's violated the Open Skies Treaty, refused to 
implement the Conventional Armed Forces in Europe Treaty, and 
the Vienna document suspended the PMDA [Pharmaceutical and 
Medical Device Agency] while placing outrageous and 
unreasonable conditions on resuming and undermined the Chemical 
Weapons Convention through its support to Syria and its 
chemical weapons program. What conclusions do you draw from 
this record about the reliability of Vladimir Putin and the 
Russian Government as negotiating partners? I would just point 
out that the PMDA, from my research, suggests that the 34 
metric tons that we had agreed to dispose of would lead each 
side to having about 17,000 metric tons, which could create 
multiple--thousands and thousands of weapons out of that 
weapons-grade plutonium.
    General Scaparrotti. Well, the short answer is, I think, 
with the Russians, just based on what you walked through--and 
it's obvious to us, in terms of their treaties--is that we--I 
believe in the treaty system. I believe in nonproliferation and 
to continue our weapons control treaties that we have in place. 
But, we have to verify what they say they're doing. That's what 
it's based on. It's not a trust. It's verification.
    Then, secondly, while they've stepped away from the CFE 
[Conventional Armed Forces in Europe] and others, and a 
violation of INF, I think we take steps, as this administration 
is doing, as the Secretary of Defense has laid out, that is 
using the different levers of power in order to bring them back 
into compliance with the INF Treaty, in particular. I think 
that's the right way to go.
    I think we had spent some time where we weren't confronting 
them with either their violations of that treaty or some 
others, and we need to take a strong stand.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I have advocated, for some time, strong measures to deter 
and counter the blatant Russian aggression in Ukraine--and 
around the globe, the assault on democracies through cyber and 
disinformation. But, Ukraine is a blatant ongoing instance of 
physical force that violates standards of common decency and 
norms of international law. The obligation of the United States 
to provide lethal military assistance, I think is clear. I have 
advocated, for some time, and we've included it in the National 
Defense Authorization Act, the Department of State has cleared 
the sale of Javelin antitank missiles to Ukraine, which is a 
long overdue move to increase Ukraine's defense capabilities. 
Although lethal, these arms are, essentially, defensive in 
nature. Would you agree with me that more of these type of 
weapons are necessary to deter and counter Russian aggression 
against Ukraine?
    General Scaparrotti. I think, for what we're providing of 
those types of weapons right now, I would personally--my best 
military advice--say let's put this into play. We've got 
training, et cetera, that we need to do. Then take a look at 
the situation from that point. There are more--there are--there 
is more, and there is equipment that they can use effectively 
that we in EUCOM will continue to advise Congress and provide 
our best advice for what will help them most.
    Senator Blumenthal. Let me ask a very simple question, 
which may be overly simplistic, but--Are we winning in Ukraine? 
Aren't the Russians effectively winning in accomplishing their 
objective?
    General Scaparrotti. Yeah, that's--I mean, it's--depends on 
your definition of ``win.'' I would say that we're not 
progressing, because our interest there is to resolve this 
conflict.
    Senator Blumenthal. If we're not progressing, we, meaning 
we and Ukraine, are losing.
    General Scaparrotti. I don't know that I would say we're 
losing. I would say, again, we're not progressing. We're more 
or less at a stalemate in where we're at. If you look at 
Ukraine--the reason I would say we're not losing is, Ukraine's 
forces, for instance, are steadily getting stronger and much 
more confident. The nation itself is----
    Senator Inhofe. Excuse me, General, let me interrupt for 
just a moment. Forgive me for this, but----
    Senator Scott, presiding.
    Go ahead.
    General Scaparrotti. The government itself, in terms of the 
reforms that they want and we expect as well, is moving 
forward, not at the pace we want, but it is moving forward. I 
said--so, even within that conflict still residing, I think 
we're making progress in important ways, and we should continue 
to press in that direction.
    Senator Blumenthal. We're making progress, do you think, in 
countering the endemic corruption that has existed? Is that 
what you meant by ``reforms''?
    General Scaparrotti. That's part of it, yes. They just 
voted for their anticorruption law, the first vote of three 
they think they have to take. That law is not everything we 
wanted in it, but it's a step in the right direction, as well.
    Senator Blumenthal. Because 2 years ago, at this hearing 
exactly--this kind of hearing--I asked your predecessor, 
General Breedlove, about the issue of corruption. He 
acknowledged that there was a lot to be done, it was a very 
unfortunate problem. I wonder whether there's more that can be 
done by your command to counter it.
    General Scaparrotti. It is still a problem, as I just 
noted, in the law. Between us and our interagency, particularly 
State, we continue to press. We've got--you know, we have 
personnel both in the mission there with the Embassy, but also 
a multinational joint committee that meets regularly, works 
with State and with the other nations that are involved, as 
well, in progressing both capability-building and the reform of 
their security institution. We need to continue to press in 
that regard. I think that there is more that can be done, in 
terms of other assets that we can bring to bear.
    Senator Blumenthal. I just want to note, finally, the--
because I'm almost out of time--the fiscal year 2019 budget 
request includes increases for the European Deterrence 
Initiative and the Ukraine Security Assistance Initiative. 
There is 200 million for the Ukraine Security Initiative, 50 
million above the President's request from the previous year. 
In addition, the President's asked for 6.5 billion for EDI, 1.7 
billion more than last year. I assume--I hope that you would 
agree these investments in our defensive capability are 
important in Ukraine, because they demonstrate resolve against 
Russian aggression there, but also in Europe generally and 
around the world.
    General Scaparrotti. I agree. They're foundational in 
Ukraine to the activity we have there and the progress that 
both we and their nation, and particularly their forces, are 
making.
    Senator Blumenthal. Thank you.
    Thank you, General. Thank you for your service.
    General Scaparrotti. You're welcome.
    Senator Scott [presiding]. Thank you, Senator.
    Just a couple more questions for you, General.
    Angus, do you have any questions?
    Senator King. I just want to compliment the Chairman on his 
meteoric rise.
    [Laughter.]
    Senator Scott. As fast as you go up, you typically go back 
down, by the way, so you may see me in the corner. Yes, yes, 
yes. Realize that.
    General, in my office, you and I had a robust conversation 
about the resources that you might need to make sure that we 
have the quickest response--rapid response is what I called it, 
not what you called it--in your command and your 
responsibilities. Can you perhaps remind me of the issues or 
the items that you would want to see included in the fiscal 
year 2019 budget so as to make sure that you have all the 
resources necessary to meet what we expect you to accomplish? 
Second, the problem of the anti-access aerial denial, or the 
A2AD, is a big one. But, if you can overcome it, it may help us 
avoid the escalate-to-dominate scenario. Which items in the 
budget request specifically help you become--deal with the A2AD 
problem?
    General Scaparrotti. Yeah, thank you. I'll give you a 
general answer----
    Senator Scott. Yes.
    General Scaparrotti.--Senator, here. If you want more 
detail, I'd be happy to do this in a classified means, as well.
    First of all, in terms of resources, generally if you look 
at our budget proposal and the way it's being used, I'd start 
by saying that, of those requirements that I have had, that 
this budget and the FYDP gets after virtually every one of 
those areas in some means. I'm very appreciative to Congress 
for that. If I were to categorize them, I would start, as I 
said before, with command-control computers, information, 
surveillance, and reconnaissance, C4ISR, areas that have to do 
with integrated air and missile defense. There are, across each 
of the services, specific areas that I could give you in a 
classified vein, and then, lastly, munitions.
    As you look at A2AD, or the anti-access area denial, 
problem set with respect to Russia, the combination of the 
services' requirements that I have laid out, as well as 
precision munitions, helps me with that second threat that you 
noticed--that you noted, of A2AD. The combination of those, 
together, I can underline those systems.
    Senator Scott. Thank you, General.
    Thank you, General, for your time. Hope you have a great 
day.
    [Whereupon, at 11:26 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Perdue
         turkey's purchase of russian s-400 air defense system
    1. Senator Perdue. [Deleted].
    General Scaparrotti. The Turkish decision to purchase the S-400, 
while regrettable, is not without precedent in NATO. Greece, for 
example, acquired the S-300 system during the 1990's and NATO 
successfully worked to limit any ill effects from the purchase. As 
mentioned, Turkey is working in accordance with NATO approved 
guidelines and the S-400 will not be allowed to connect to NATO command 
and control architecture. In addition, EUCOM and its components will 
follow already established guidance concerning foreign disclosure of 
assets and procedures as we would with any other foreign government.
    As for the data that Turkey will use to make the system 
operational, a list of critical assets and prioritization of their 
defense would occur no matter which system Turkey chose to buy. As a 
NATO ally, Turkey would make these decisions in concert with their NATO 
partners. We are cognizant of the threat and will act proactively 
counter it.

    2. Senator Perdue. General Scaparrotti, do you believe that NATO 
assets will have to be moved from Turkey to other, safer locations?
    General Scaparrotti. NATO is working with Turkey to ensure critical 
assets are protected from Russian influence during the S-400 
initialization and instruction; this includes limiting Russian access 
by conducting the training outside of Turkey and evaluating the 
operational security for NATO assets located within the country.
    Specifically related to the S-400 and the U.S. weapons for NATO's 
nuclear deterrence mission, there are no specific requirements for 
moving the weapons given the current situation. Under the arrangement 
described, Russian intelligence agencies would have the the possibility 
of collecting information on nuclear aviation operations including 
weapons movements and exercise requirements. There are additional 
factors related to engagements with Turkey in addition to S-400 that 
would necessitate a reevaluation of United States weapons for NATO's 
nuclear deterrence mission. EUCOM is actively working with the Office 
of the Secreatry of Defense, State Department, and the United States 
Embassy team in Ankara to address concerns regarding the S-400 purchase 
and United States nuclear weapons with the Government of Turkey (GOT) 
and Turkish Ministry of Defense.

    3. Senator Perdue. General Scaparrotti, is it possible for NATO to 
provide oversight during both the development and operational phases of 
the S-400 system to ensure that Russia does not collect valuable 
intelligence on our assets?
    General Scaparrotti. It is possible; however, this quickly becomes 
a sovereignty issue. Turkey stated the S-400 system will be stand alone 
and not link to any other NATO system. For NATO to provide oversight, 
Turkey would have to invite NATO to participate. Any caveats levied by 
Turkey would further limit and restrict this cooperation. In the event 
Turkey would like to link the S-400 to NATO systems, Turkey would have 
to adhere to the NATO guidelines regarding the development and 
operational use of the S-400 system.
                     eastern europe energy security
    4. Senator Perdue. General Scaparrotti, for many decades, the 
Eastern Europe has remained tethered to Russia by energy dependence, 
particularly through Russia's gas supply monopoly Gazprom. In 2017, 
Lithuania, among other European nations, received its first shipments 
of liquefied natural gas from the United States to help reduce 
dependence on. The pending Nord Stream II project, however, would build 
a pipeline between Russia and Germany and would double Russia's 
capacity to pipe gas across the Baltic Sea, possibly increasing 
Europe's overall energy dependence on Russia. From the military and 
defense perspective, what does energy dependence on Russia mean for the 
security environment of our NATO and European partners?
    General Scaparrotti. I remain concerned by the reliance of Europe 
on Russian gas supplies for critical portions of their national energy 
needs. Last year, the Russian gas supplier Gazprom reportedly provided 
about a third of the natural gas consumed in Europe. Gas is used not 
just for heating and cooking, but also to generate electricity. While 
European natural gas consumption has fluctuated recently, the region's 
shift away from nuclear power and coal coupled with the decline in 
Europe's own gas production will lead to a renewed and increased 
demand. Despite increased imports of United States liquefied natural 
gas, these developments are likely to create additional opportunities 
for Russian leverage. Russia can use this dependence as a weapon in 
time of war, or as a diplomatic lever during a crisis threatening 
hostilities. In a crisis, interruption of Russian gas supplies would 
result in urgent demands on European governments to make good the 
deficiencies in energy supplies. Failure to do so would likely lead to 
civil unrest and political instability and could impact alliance unity.
    Perhaps a more immediate concern, it's not just our allies who are 
exposed to Russian hostage-taking in the energy arena. United States 
forces in Europe depend on the same energy providers as their host 
nations. An interruption of Russian gas supplies in European countries 
that host United States forces would definitely impact our readiness, 
operations--and the families who accompany our servicemembers.
    This vulnerability suggests that Europe's search for energy 
diversification will improve our security. Europe is looking to develop 
additional sources of carbon fuels as well as ``green'' sources such as 
wind, solar, hydro, and geothermal energy. Norway remains the second 
largest source of natural gas in Europe, and we can anticipate an 
increase in United States gas deliveries with the construction of LNG 
terminals in the Baltics, Poland, and elsewhere in the region. The more 
Europe diversifies their energy supply, the more they secure themselves 
from Russian coercion.

    5. Senator Perdue. General Scaparrotti, what role does EUCOM play 
in stabilizing energy security in Europe?
    General Scaparrotti. Significant reliance on a single supplier for 
strategic commodities such as energy represents a vulnerability to 
allies and partners in the region in a number of areas. First, Russia 
has demonstrated a willingness to use energy supply disruption as a 
tool of leverage to affect partner and ally decision-making or as a 
punitive response to decisions made that are not aligned with Russian 
interests. Second, significant Russian presence, market share, and 
ownership in the energy sectors of partners and allies is often 
followed by illicit activities, bribery, and corruption that can alter 
government decision-making, for personal financial gain of those in 
positions of power, that will align with Russian interests and not 
necessarily those of their citizens. Third, European reliance on Russia 
could become a problem in a contingency environment if Russia were to 
cut off energy supplies (e.g. liquid fuels for military use). This 
would negatively impact NATO force readiness and mission capabilities. 
Without timely access to needed fuel supplies, we could experience a 
degradation in our ability to meet out our Article V responsibilities. 
Lastly, if NATO allies and partners experience significant energy 
supply disruptions due to a cutoff in Russian supplies, this would have 
a significant impact on civil society and a government's ability to 
provide basic services to its populations. The inability to provide 
basic services to a country's population has negative impacts on 
military readiness and overall national defense and security, 
particularly in an emergency situation. I am working to ensure energy 
supply diversification and enhanced energy security remain a priority 
for our partners and Allies.

    6. Senator Perdue. General Scaparrotti, what can EUCOM, along with 
the U.S. interagency, do to continue to assure our allies in the region 
and build security partnerships in relation to the energy sector?
    General Scaparrotti. EUCOM and our interagency partners will 
continue to train and exercise with our counterparts to improve their 
ability to protect critical infrastructure--both physically and in the 
cyber domain. Confronting adversaries and new approaches to hybrid 
warfare is a critical challenge that we all face, and it requires a 
whole-of-government approach to ensure we are using all of the tools 
available to our national governments. A specific example of how EUCOM 
is working together to enhance energy security and resilience in Europe 
is the EUCOM-funded, Department of Energy executed program with 
Estonia, Latvia, and Lithuania to enhance electrical grid reliability 
and cyber security. This program increases their awareness of 
vulnerabilities and identifies opportunities to mitigate risks to the 
electric grid.
                nato defense spending and burden sharing
    7. Senator Perdue. General Scaparrotti, how can we ensure that 
defense spending across NATO and in EUCOM is as cost effective and 
beneficial to the entire alliance as possible?
    General Scaparrotti. The NATO Defense Planning Process (NDPP) 
identifies capabilities that are required to meet the Alliance's level 
of ambition and then apportions capability target packages to Allies 
every four years to fulfill these requirements. These capability target 
packages are distributed according to the principles of ``fair burden 
and reasonable challenge'', meaning that each Ally is expected to 
deliver a set of capabilities that is commensurate with its size and 
composition of force and manage their national budgets to fulfill the 
quantitative and qualitative aspects of these targets on time. Internal 
to the Alliance, Allies report their progress on capability target 
package fulfillment through a rigorous, biennial Defense Planning 
Capability Survey (DPCS). The DPCS becomes the basis of bilateral 
consultations between the NATO International Staff and senior defense 
policy officials in capitols and then multi-lateral examinations at the 
Headquarters in Brussels. Both of these events are measures of 
accountability, and Allies hold each other accountable to ensure that 
resources are being adequately appropriated and used for the right 
purposes.
    As Commander USEUCOM, I'm focusing the work of our bilateral 
cooperation on allies' NATO capability targets so that our Foreign 
Military Sales (FMS), Foreign Military Financing (FMF), and other 
theater security cooperation efforts are aimed at specific outcomes 
needed to ensure the entire NATO force is ready for success.

    8. Senator Perdue. General Scaparrotti, what other metrics are 
important to bear in mind when looking at the efficacy of NATO defense 
spending? Is the 2 percent goal arbitrary and unrealistic, as some 
European officials have claimed?
    General Scaparrotti. Two percent as a goal first entered the burden 
sharing discussion at the Riga Summit in 2006 when the then-U.S. 
Ambassador to NATO, Victoria Nuland, called 2 percent the ``unofficial 
floor'' on defense spending for Allies. Since then, and especially in 
the context of the security environment that emerged in 2014 with 
Russia's invasion of Crimea, it has been a metric for gauging the 
general political will to prioritize defense investment within the 
overall context of national domestic agendas. It is certainly an 
imperfect benchmark that does not capture outputs (e.g. capability 
development and contributions to Alliance security), but its inclusion 
in the Defense Investment Pledge agreed to at the Wales Summit in 2014 
was meant to be a meaningful step toward addressing the Alliance's 
structural problem of underfunding in a manner that would be achievable 
by every Ally and underscore Alliance solidarity. Despite any flaws of 
this metric, all Allies agreed to aim for 2 percent by 2024.
    NATO Allies have agreed upon a set of indicators for providing a 
comprehensive picture of how and where Allies use their resources, 
which are all portrayed in an annual Metrics Report (see attached 
PO(2018)0135, ``Input/Output Metrics for 2018 Onwards,'' 29 Mar 2018, 
pgs 1-2 to 1-4). In addition to defense spending, these metrics portray 
burden sharing from the aspect of NATO Capability Target delivery and 
contributions to operations, missions, and activities both within and 
outside of the NATO Framework. Some Allies contend that outputs matter 
more than inputs when it comes to assessing whether a Nation is pulling 
its fair share within NATO. In this regard, NATO leadership and the 
United States have agreed that all three aspects of burden sharing (the 
``3Cs": cash, capabilities, and contributions) are all relevant and 
important, but that the ability to achieve and sustain what is needed 
in capability development and contributions is underpinned by 
sufficient defense investment. 2 percent is not an exact representation 
of what may be needed for a given Ally to achieve its requirements for 
national defense and what is asked from NATO. 2 percent is a political 
commitment and reflects a general target that Allies have agreed to 
aspire to. As far as being achievable, the Wales Summit Communique 
notes that the Pledge on Defense Investment is meant to be achievable 
by every Ally, but political realities have certainly affected the 
credibility of certain plans for achieving 2 percent within a decade. 
Currently, 15 Allies are expected to reach 2 percent by 2024 and 22 
Allies are expected to achieve the benchmark of allocating 20 percent 
of defense expenditure toward equipment modernization. We expect Allies 
to continue to strive toward meeting the Wales Pledge in full as a 
matter of meeting the challenges of the security environment and as a 
mark of Alliance solidarity.

    9. Senator Perdue. General Scaparrotti, while the 2 percent goal is 
important, it is also critical that our allies invest in real 
warfighting capability available to the alliance at the speed of 
strategic and operational relevance. How can the U.S. be more specific 
about what we believe the 2 percent should be directed towards?
    General Scaparrotti. EUCOM's country objectives for each Ally are 
based on a prioritization of those countries' respective NATO 
capability targets. In addition, we believe that the 2 percent should 
be directed toward improving the overall readiness, interoperability, 
and usability of forces for high-end conflict. This will require, among 
other things, investment in training and exercises with Allies and 
partners, and significant resources toward improving the maintenance, 
spare parts inventories, and ammunition available for major equipment. 
After years of high operational tempo in crisis response operations, 
Allies need to commit substantial funds toward achieving a credible 
posture of deterrence and defense against a peer competitor.

    10. Senator Perdue. General Scaparrotti, how else, besides 
spending, can we measure the growth of NATO partnerships?
    General Scaparrotti. Above all, we measure the growth of 
partnerships with Allies by measuring what those Allies are 
contributing to the security of NATO, specifically through 
contributions to operations, missions, and activities (e..g. Resolute 
Support Mission or training and capacity building in Iraq), financial 
contributions to NATO-managed trust funds, access and overflight 
agreements, or intelligence sharing. We see our Allied partnerships 
grow through improved interoperability and habitual participation in 
common exercises and training events, as well as through willingness to 
engage in NATO defense capacity and defense institution building 
efforts and opportunities.
                               __________
                Questions Submitted by Senator Ted Cruz
                                ukraine
    11. Senator Cruz. General Scaparrotti, the recent decision to 
provide United States lethal military assistance to Ukraine is a 
welcome policy shift. Ukraine's state-owned arms manufacturer 
UkrOboronProm (UOP) and its subsidiaries represent the bulk of the 
country's defense industrial base and coordinate Ukraine's defense 
export-import policies. Beyond providing lethal military assistance to 
Ukraine, should the United States also help develop the Ukrainian 
defense industrial base? If so, what is the most effective means of 
doing so?
    General Scaparrotti. Ukraine has tremendous intellectual and 
industrial resources. As a sovereign nation, Ukraine needs a defense 
industry that is responsible to its national requirements and able to 
provide defense products and services at a price Ukraine can afford. 
The Office of the Secretary of Defense has the lead and the expertise 
in interacting with Ukraine's state-owned defense industry.
                                ukraine
    12. Senator Cruz. General Scaparrotti, Ukraine's indigenous 
capacity has the potential of producing the means for Ukraine to defend 
itself and conduct military operations against Russian aggression. The 
United States must help develop Ukraine's indigenous capacity to 
produce the means to defend itself and conduct military operations 
against Russian aggression. How can we incentivize United States 
defense firms to cooperate and partner with UOP in a way that 
contributes to the development of Ukraine's defense industrial base?
    General Scaparrotti. EUCOM supports interagency efforts to drive 
Ukrainian reform processes, which build transparent, accountable 
systems within the Ministry of Defense. As a part of our defense 
institution building efforts, we regularly provide advice on developing 
responsive and transparent defense planning, procurement, and 
sustainment systems. We fully agree that Ukraine must take advantage of 
its intellectual and industrial capacity in the defense sphere. The 
Office of the Secretary of Defense has lead for defense industrial 
matters and is better preprared to address UOP.

    13. Senator Cruz. General Scaparrotti, UkrOboronProm (UOP) is 
requesting U.S. support to have itself audited by a reputable and 
independent third party. The audit may help improve UOP's efficiency 
and laying the groundwork for reforms in the Ukrainian defense sector. 
In your view, can this audit achieve these objectives? What role should 
the United States play in the audit?
    General Scaparrotti. We absolutely agree that reform of Ukrainian 
defense industry and UkrOboronProm is essential to the long-term 
efficiency and transparency of the Ukrainian defense sector. EUCOM 
fully supports the Office of the Secretary of Defense's leading role in 
this field, and we are prepared to include discussion of a UOP audit in 
coordination with the Ukraine Defense Reform Advisory Board.
                                lebanon
    14. Senator Cruz. General Scaparrotti, over the last few months, 
there has been more and more comments from Lebanon's military leaders 
in which they have publically made threats against Israel. As the Times 
of Israel reported:
    Lebanese Defense Minister Yaacoub Sarraf said Sunday that his 
country was prepared to defend itself if Israel launched strikes on its 
territory. The comments came after Prime Minister Benjamin Netanyahu 
said Israel had shot down an Iranian drone in its airspace, and would 
``act if necessary'' against Iran and its proxies, including the 
Lebanese terror group Hezbollah. Sarraf told participants at the Munich 
Security Conference that he had lived with ``an Israeli drone above my 
head for the past 15 years'' but that his country has ``no belligerent 
intent'' against anyone. But, Sarraf said, ``we will defend ourselves'' 
and ``we are for peace, yet we will not stand for any threat and we 
will not accept any aggression.''
    Another threat against Israel was made by the Lebanese Army 
Commander as well. As the Times of Israel reported:
    ``The Lebanese army commander has vowed to ``confront any Israeli 
aggression, whatever that costs'' amid increasing tensions over a 
border barrier Israel is building and a dispute over offshore gas. ``I 
affirm again our categorical rejection of the Israeli enemy infringing 
on Lebanon's sovereignty and its sacred right to exploit all its 
economic resources,'' Reuters quoted Lebanese army quoted General 
Joseph Aoun as saying. ``The army will not spare any method available 
to confront any Israeli aggression, whatever that costs,'' he said. 
United States acting Assistant Secretary of State David Satterfield has 
been in the region in recent days trying to mediate between Israel and 
Lebanon. The dispute is centered around a border wall the IDF is 
constructing along the boundary between the two countries, contested 
rights to offshore natural gas exploration, and Israeli warnings that 
Iran--through its proxy in Lebanon, Hezbollah--is turning the country 
into a forward base to manufacture rockets and attack the Jewish 
state.''
    These two examples are just from Lebanese military leaders and 
exclude many ongoing threats against Israel from Lebanon's political 
establishment. Given these comments, should we reconsider the 
continuation United States military assistance to the Lebanese Armed 
Forces (LAF)? If a conflict were to breakout, what is your assessment 
on the risk that United States military equipment being provided to the 
LAF could be used against Israel?
    General Scaparrotti. The Lebanese Armed Forces (LAF) values its 
strong and enduring partnership with the United States Defense 
Department, and would be very unlikely to directly or indirectly 
sanction the transfer of United States-provided arms and advanced 
weapons systems to aid Lebanese Hizballah (LH) in a conflict with 
Israel. The LAF continues to see the United States as the preferred 
supplier of arms and advanced weapon systems, trainer and partner over 
the long-term; moreover, the LAF likely recognizes that supporting LH 
in the event of conflict with Israel would be met with a strong and 
swift reaction from United States policymakers that could endanger the 
future of this bilateral security relationship for years to come. 
However, given the LAF and LH continue to vie for primacy over which is 
considered the defenders of Lebanon, the LAF may feel compelled to 
respond to defend Lebanon in a crisis with Israel, particularly if the 
populace is put at risk. Ultimately, how the conflict unfolds will be 
the determining factor in the LAF response, though under virtually all 
scenarios, we envision little potential for direct LAF cooperation with 
LH conventional forces. Nonetheless, we are concerned about LH's 
efforts to infiltrate and influence Lebanon's intelligence and internal 
security institutions and have made clear that any cooperation with LH 
will risk our continued cooperation and assistance.

    15. Senator Cruz. General Scaparrotti, Hezbollah is further 
establishing and strengthening its presence and control in Lebanon. It 
now has close to 150,000 rockets and missiles aimed at Israel, whose 
fighters now are beginning to return to Lebanon with combat experience 
from the Syrian civil war and/or are remaining in vSyria to help Iran 
establish a land bridge to the Mediterranean and a permanent military 
presence on Israel's borders. In addition, Qais al-Khazali, the 
commander of Iraq's Iranian-backed Asaib Ahl al-Haq militia, visited 
the border between Lebanon and Israel in December 2017. What specific 
steps and actions are the Lebanese Armed Forces (LAF) taking to combat, 
and counter Iran and its terrorist proxies including Hezbollah from 
expanding its control and strengthening its military presence in 
Lebanon and the Lebanese-Syria border?
    General Scaparrotti. Lebanon's response to the turmoil in Syria has 
been a policy of regional dissociation. Beirut regularly criticizes 
Hizballah's Syria deployments as undermining the Lebanese state, but 
has demonstrated limited recourse outside of the mostly public rhetoric 
and private recommendations. Much of this is attributable to 
Hizballah's increasing influence within Lebanese politics and the 
``blocking third'' it has held in Lebanese Cabinet since the early 
2000s. This has allowed Hizballah to effectively veto any potential 
legislation that could impact its strategic interests (e.g. keeping its 
weapons as a recognized domestic militia).
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                     air and missile defense (amd)
    16. Senator Shaheen. General Scaparrotti, I am aware that General 
Brooks, Commander, United States Forces Korea (USFK) has submitted 
requirements to improve the vertical and horizontal integration of air 
and missile defense systems on the Korean Peninsula. Have you submitted 
an urgent needs statement similar to USFK's Joint Emergent Operational 
Needs Statement to the department to address any capability gaps you 
may face?
    General Scaparrotti. I have not submitted an Operational Needs 
Statement similar to USFK's requirement to improve the vertical and 
horizontal integration of air and missile defense systems. I have, 
however, submitted two Joint Urgent Operational Needs Statements that 
the Joint Staff is currently assessing for resources, but they seek 
capabilities in areas other than air and missile defense.

    17. Senator Shaheen. General Scaparrotti, I understand that United 
States European Command (EUCOM) has explored upgrading its European 
Phased Adaptive Approach (EPAA), otherwise known as Aegis Ashore sites 
in Romania and Poland. Would the EUCOM benefit from leveraging the 
capabilities of the Navy's DDG-51 Flight III program (possible 
inclusion--that includes the navy's new Integrated Air and Missile 
Defense Radar, SPY-6)? If so, what is the plan/path moving forward to 
provide EUCOM these increased capabilities?
    General Scaparrotti. The AN/SPY-6 radar, installed on the Navy's 
Flight III DDGs, represents dramatic sensor improvements to the Aegis 
weapons system in the areas of detection range, search volumes, 
discrimination capability, raid capacity and complexity, and resiliency 
in high-clutter and jamming environments. EUCOM would welcome these 
improvements to the Aegis Ashore sites and our Forward Deployed Naval 
Forces (FDNF) Aegis Ballistic Missile Defense (BMD) ships stationed in 
Rota, Spain. EUCOM registered the need for this increased sensor 
capability in our ``USEUCOM Operational Requirements Statement for the 
BMD of Europe,'' on January 5, 2017, and perennially in our Integrated 
Priority List (IPL) submissions. The Services are working to provide 
increased sensor capability to EUCOM.
                               __________
            Questions Submitted by Senator Claire McCaskill
                  european deterrence initiative (edi)
    18. Senator McCaskill. General Scaparrotti, last year Mr. David 
Ochmanek of the RAND Corporation testified before this committee that 
there was a need to have three present Armored Brigade Combat Teams 
(ABCT) in Europe, with sufficient supporting artillery, to effectively 
deter potential Russian aggression.
    Do you agree with the assessment that there is a need for increase 
in military personnel in Europe, if so, how many and what types of 
units would you place in Europe, and is DOD making efforts to increase 
the number of units?
    General Scaparrotti. USEUCOM is currently assessing the 
implications of the new National Defense Strategy (NDS) and its impact 
on our force posture in Europe. As we continue to understand the 
requirements to develop a credible blunt layer as described in the NDS, 
we are assessing the right mix of capabilities required and whether 
those capabilities need to be persistent (either assigned to USEUCOM or 
heel-to-toe rotational), episodic, or provided by our NATO Allies. 
Pending our complete assessment, it is likely USEUCOM will identify 
additional units required persistently to generate a blunt layer, and I 
am on record that I believe I need a minimum of a Division's worth of 
armored forces in theater.

    19. Senator McCaskill. General Scaparrotti, we are now rotating 
units in and out of Europe and looking to potentially increase the 
number of units in Europe. Has the DOD done the analysis of the cost 
benefit of using rotating forces versus permanently stationing units in 
Europe? If not, why not? If so, what did the analysis conclude?
    General Scaparrotti. The Department is currently studying the costs 
and benefits of forward stationing versus rotating forces in Europe, 
especially considering the Dynamic Force Employment and Global 
Operating Model concepts introduced in the 2018 National Defense 
Strategy. That analysis is ongoing and no conclusions or decisions have 
been made.

    20. Senator McCaskill. General Scaparrotti, you stated in your 
testimony that you need another ABCT. Currently the Army in its 
modernization efforts to stay ahead of near peer competitors like 
Russia. One of the modernization efforts has been testing and fielding 
of Active Protection Systems (APS). Is the current rotational ABCT 
equipped with APS and should EUCOM receive another ABCT will it being 
given priority to be fielded with APS? If so, how will that impact 
getting the unit trained, equipped, and into Europe? What efforts are 
being taken to modernize the 2nd Stryker Cavalry Regiment with APS?
    General Scaparrotti. USEUCOM believes that increasing the lethality 
of the units and prepositioned equipment in theater is critical to our 
ability to compete and win against a near peer competitor. In our 
fiscal year 2018 EDI submission, approximately $170 million of the 
funding that has been authorized for Army Prepositioned Stocks (APS) 
will go toward outfitting one Armored Brigade Combat Team (ABCT) of M1 
Abrams and one Battalion of Stryker vehicles with Active Protection 
Systems.
    The Army has identified a shortfall in resourcing the outfitting of 
the Stryker vehicles meaning that only 70 percent of the vehicles will 
receive the upgrade. USEUCOM worked with Army to develop a fiscal year 
2019 European Deterrence Initiative (EDI) proposal to outfit the 
remaining 30 percent of the Stryker Battalion as well as one Battalion 
of Bradley Fighting Vehicles with Active Protection Systems, however 
the majority of those funds were not requested in fiscal year 2019 due 
to concerns with the program. The Department has requested $50 million 
within the APS budget line that represents the minimum level contingent 
on future developmental testing results.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                  ukraine: russian electronic warfare
    21. Senator Blumenthal. General Scaparrotti, it is clear that 
Russia believes they can use Ukraine to test and refine their cyber 
warfare capabilities with impunity. I am encouraged by news that DARPA 
is partnering with Ukraine to develop capabilities to counter Russia. I 
understand that EUCOM is facilitating these efforts. What can you 
disclose about these efforts?
    General Scaparrotti. UCOM is not part of, and has not received 
information on, the DARPA-Ukraine counter-Russia partnership.

    22. Senator Blumenthal. General Scaparrotti, what lessons have you 
learned from this partnership that can be applied to countering 
disinformation campaigns in the United States?
    General Scaparrotti. EUCOM is not part of, and has not received 
information on, the DARPA-Ukraine counter-Russia partnership.

    23. Senator Blumenthal. General Scaparrotti, do you agree that 
Russia must pay a steeper price for its cyberattacks, both against 
Ukraine and the United States? Do you agree that our actions so far 
have not made them realize that they have more to lose than gain with 
their behavior?
    General Scaparrotti. All state and non-state actors must be held 
accountable for their activities, including Russian state-sponsored 
cyber actors. To deter Russian activities and limit their freedom of 
action within the cyber domain, we must adjust the benefit to 
consequence model. Deterrence of Russian activities requires a whole-
of-government approach in concert with our Allies and partners, and 
this deterrence may require additional consequences for malicious 
activities.
    As ADM Rogers highlighted in his testimony on February 27, 2018, 
Russian-backed cyber actors are active in both the United States and 
Ukraine; our reactions to date have not deterred their activities.

    24. Senator Blumenthal. General Scaparrotti, in your testimony you 
note EUCOM is strengthening efforts to counter Russian activity through 
support for the interagency Russian Information Group that counters 
Russian propaganda and misinformation campaigns. Can you please expand 
on this group's work and your involvement?
    General Scaparrotti. [Deleted.]
                      ukraine: military assistance
    25. Senator Blumenthal. General Scaparrotti, the Department of 
State has cleared the sale of Javelin anti-tank missiles to Ukraine--a 
long overdue move to increase Ukraine's defense capabilities. How do 
you see this provision of defensive weapons to Ukraine impacting the 
conflict? Do you agree more should be provided? What resources and 
steps are needed--beyond lethal aid--to strengthen Ukraine's long-term 
stability?
    General Scaparrotti. EUCOM appreciates the support of the Congress 
in providing financial resources to augment Ukraine's self-defense 
capabilities. We believe that the provision of enhanced defensive 
assistance is an important signal of United States support to Ukraine 
and addresses a capability gap identified by the Multinational Joint 
Commission for Security Cooperation and Defense Reform in Ukraine. 
Ukraine's military forces are bravely defending their own nation 
against Russian aggression. At the same time Ukraine has outlined an 
ambitious reform agenda for its Ministry of Defense and General Staff 
to meet NATO standards. EUCOM, with other nations participating in the 
Multinational Joint Commission (MJC), delivers training, advisory 
efforts, and equipment to Ukraine with resources provided by the 
Congress. We work closely with Ambassador Yovanovitch, the Embassy 
team, the Office of the Secretary of Defense, and the State Department 
to ensure optitimal impacts for those resources. Our efforts focus on 
assisting Ukraine in developing responsive training and training 
management systems to provide ready forces for national defense. In 
addition, we continue to focus resources on assisting in the 
development of agile and capable command and control systems, 
situational awareness, long-term planning and resourcing systems, and 
improving Ukraine's logistical and medical capabilities. EUCOM 
represents only a part of a tremendous interagency effort to support 
Ukrainian reform activities, and the State Department and Office of the 
Secretary of Defense have important perspectives on strengthening 
Ukraine's long-term capability.

    26. Senator Blumenthal. General Scaparrotti, endemic corruption in 
Ukraine continues to undercut legitimacy, and stretches to the 
military. Just last month, the New York Times reported that while 
Ukraine's defense industrial base has grown exponentially since 2014, 
the increase in military spending has opened up new avenues for self-
dealing and insider deals that hinder anti-corruption efforts. Two 
years ago at this hearing, I asked your predecessor Gen Breedlove about 
the issue of corruption and he acknowledged it was a problem. How 
concerned are you regarding EUCOM's ability to help stabilize and build 
capacity in Ukraine when corruption remains rampant? In what ways can 
EUCOM work to address it?
    General Scaparrotti. European Command continues to collaborate with 
other nations via the Multinational Joint Commission on Security 
Cooperation and Defense Reform to identify areas of cooperation with 
the Ukrainian Ministry of Defense and General Staff.
    Corruption remains a challenge in Ukraine. As a part of our work 
and our cooperation with the U.S. Embassy, we work with the Ministry of 
Defense's Reforms Committee to assist the Ministry of Defense in 
building transparent and accountable systems across the Ministry and 
General Staff.
    As an example, along with the Defense Security Cooperation Agency, 
we provide expert advice to Ukraine through the Ministry of Defense 
Advisor program, to include areas like human resources and budget 
management. We also have a strong defense institution building program 
that works closely with Ukrainian counterparts to develop stronger and 
more transparent long-term planning programs. These efforts have 
assisted the Ukrainians in better understanding the relationship beween 
strategy, requirements, and resources and have set the groundwork for 
improved responsiveness and accountability.
    We agree that Ukraine must continue to move forward on key reforms 
as the Congress has outlined in the National Defense Authorization Act. 
Passage of a Law on National Defense that outlines roles and missions 
and accountability to the Parliament is an important step. We believe 
that Ukraine continues to needlessly classify budgetary and program 
information in a manner that hampers reform. However, we also recognize 
that in a short time Ukraine has made important steps forward at a 
critical time for this nation, and we will continue to support reform 
efforts going forward.

    27. Senator Blumenthal. General Scaparrotti, the fiscal year 2019 
budget request includes increases for the European Deterrence 
Initiative (EDI) and the Ukraine Security Assistance Initiative. There 
is $200 million for the Ukraine Security Assistance Initiative, a $50 
million increase above the President's request from the previous year. 
In addition, the President has asked for $6.5 billion for EDI--$1.7 
billion more than just last year. Can you describe how these increases 
will be used to counter and deter Russia? Will this address its cyber 
operations?
    General Scaparrotti. EUCOM greatly appreciates the continued strong 
Congressional support for the European Deterrence Initiative (EDI). EDI 
has provided critical supplemental funding to establish a credible 
United States posture to deter Russian aggression and assure our NATO 
Allies and partners in Europe. Our fiscal year 2019 submission 
continues to build on many of the larger initiatives that are in the 
fiscal year 2018 authorization, including: Army Prepositioned Stocks 
(APS); European Contingency Air Operations Set Deployable Air Base 
Systems (ECAOS DABS); ECAOS infrastructure upgrades at existing United 
States and partner airfields; heel-to-toe Armored Brigade Combat Team 
(ABCT) rotations; and, Special Operations Forces (SOF) equipment 
prepositioning.
    Although fiscal year 2019 EDI does include funding for Command, 
Control, Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) that contribute to backbone requirements in the 
cyber domain, as well as funds that contribute to countering Russian 
malign influence in multiple information domains, fiscal year 2019 EDI 
does not request funding specifically for offensive or defensive cyber 
capabilities. The additional $1.7 billion in fiscal year 2019 EDI will 
allow EUCOM to expand our deterrence capabilities in: theater 
antisubmarine warfare via undersea sensor systems and additional P-8 
contigency locations; Navy prepositioning for contingency logistics 
hubs and munitions storage; additional lethality and speed in APS via 
Multiple Launch Rocket System upgrades, configured-for-combat sets, and 
European road compliance upgrades; munitions starter stocks in JASSM-ER 
and Patriot MSE; and, Defense Logistics Agency Distribution Center for 
enhanced contingency distribution capability.
    The initial fiscal year 2018 budget requested $150 million for the 
Ukraine Security Assistance Initiative; however, the Department of 
Defense (DOD) revised the request to the current $200 million for 
fiscal year 2018, which now matches the fiscal year 2019 request. DOD 
requested the additional funds because the $150 million was not 
sufficient to address the train, equip, and advise efforts to build 
Ukranian capacity to defend its sovereignty and territorial integrity 
against Russian aggression. In 2017, the Multinational Joint Commission 
assessed and prioritized the following key capability gaps for Ukraine: 
NATO-standard training and institutional reforms in support of force 
generation for territorial defense and other missions; secure 
communications at the tactical and operational level; secure national-
level command and control systems; military medical capabilities for 
the rapid evacuation and treatment of casualties and rehabilitation 
following injury; situational awareness systems (e.g., counter-
artillery radars) to ensure secure borders and to protect troops from 
indirect fire and unmanned aerial systems; optics and night vision 
capabilities to conduct all weather and 24-hour defensive operations; 
and advanced defensive anti-armor capabilities. Without the additional 
funding to meet these capability gaps, I believe there will be a 
negative impact on our ability to assist in developing a sustainable 
and effective Ukrainian capacity to generate and deploy appropriately 
manned, trained, and equipped forces.
                           russian submarines
    28. Senator Blumenthal. General Scaparrotti, the increased presence 
of Russian submarines in the Greenland, Iceland, and UK (GIUK) gap 
requires the full attention of the United States and our allies. In 
December, the Washington Post published an article about increased 
Russian submarine activity near these cables and the British military 
has raised alarms over this as well. How are you working to address the 
vulnerability the GIUK gap presents? How can the United States prevent 
Russian submarines from exploiting it? Is the United States and its 
allies doing enough to ensure Russia does not gain a strategic 
advantage in this region?
    General Scaparrotti. The increased presence of Russian submarines 
in the Greenland, Iceland, and UK (GIUK) Gap has the full attention of 
the United States and our allies. The United States has been working 
with and through its allies to counter the increased Russian submarine 
presence in the GIUK gap and to ensure that Russia does not gain 
strategic advantage in this region.
    The United States and NATO responded to the increased Russian 
submarine activity by bolstering forces at sea and anti-submarine 
warfare (ASW) efforts. The U.S. is looking to improve sensors, sonar, 
weapons control, quieting technologies, undersea drones, and 
communications systems to help our submarines maintain their edge. The 
United States Navy has been upgrading hangars in Iceland to accommodate 
new P-8A Poseidon aircraft and the United States and Iceland have 
agreed to increase rotational operations in the GIUK gap this year. An 
example of recent activity to counter the Russian submarine threat was 
the deployment of multiple aircraft, to include eight United States 
aircraft, as well as planes from Germany, France, Norway and Canada, to 
RAF Lossiemouth in Scotland between January and November 2017. These 
aircraft conducted ASW operations aimed at detection and deterrence of 
Russian submarines operating in the GIUK gap.
    In addition, NATO allies are helping the UK monitor Russian 
submarine activity following a huge increase in Russian underwater 
maneuvers. NATO will expand its British naval command post in 
Northwood, North London by 100-200 staff this year due to the increased 
activity. In concert with this, countries affected by this malign 
activity have perused their own responses to counter this threat. For 
example, the UK has robust maritime surveillance in place and has 
purchased a new fleet of P-8 Poseidon aircraft that will patrol the 
GIUK Gap starting in 2020.

    29. Senator Blumenthal. General Scaparrotti, what do you assess 
Russia's intentions to be with their activity near undersea cables? How 
concerned should the United States be? Have you discussed this issue 
with our allies?
    General Scaparrotti. Academic research appears to indicate that the 
Russian military believes victory in future warfare depends on 
disrupting adversary information systems while protecting their own. 
Russian information warfare writings claim that 95 percent of United 
States military communications now use the same lines and 
infrastructure as civilian communications. Russian military thinkers 
and planners assert that United States military and economic prowess 
relies on assured information superiority, which, in turn, requires 
high-speed transoceanic data transfer and automatic control systems. 
According to Russian writing, targeting communication transmission 
systems offers the most effective way of causing the collapse of 
critical adversary war-fighting and governmental command and control 
systems, financial transactions, financial institutions, and the 
economy. Industry data shows that Russia does not significantly rely on 
international seabed cables.
    Russia puts a premium on capabilities that it believes can rapidly 
undermine United States confidence and war-fighting capability or cause 
major distractions, such as economic crises during a serious 
confrontation, thereby helping decrease United States incentives for 
pursuing conflict. Most Russian military planners and theorists see 
assured information superiority as essential for successful American 
military action and assert that Moscow must be able to eliminate or 
seriously degrade this advantage.
    The speed and capabilities of undersea cables vary widely depending 
on region. Undersea cables are primarily owned and operated by foreign 
cable owners, telecommunication services providers, and the maritime 
service sector. The Atlantic Ocean bears a high volume of modern 
undersea cables that provide communications services between the North 
American and European continents. The latency--the time it takes for 
data to traverse the network--limits the industry's ability to restore 
communications by rerouting data over alternative cables and causes 
disruptions to critical services dependent of timely transfer of data, 
in the event of a major transatlantic outage.
    In the event of such an outage, the United States would need to 
transfer data over Pacific and Indian Ocean cables, and then to Europe. 
The data would take approximately 10 times longer to reach its 
destination, resulting in widespread service disruptions.
    We have and will continue to discuss this issue with Allies.
                                 israel
    30. Senator Blumenthal. General Scaparrotti, the United States must 
continue to strengthen its relationship with Israel through ongoing 
security cooperation. Just this week, the annual joint United States-
Israel military drill ``Juniper Cobra'' began in Israel--involving more 
than 2,500 American troops and 2,000 Israelis. Can you provide an 
update on how this year's Juniper Cobra drill is progressing in its 
early days? What do you hope to achieve or learn this time around?
    General Scaparrotti. Juniper Cobra 2018 (JC18) began on March 4, 
2018 and concluded on March 15, 2018. United States forces integrated 
with Israeli forces to train for the combined defense of Israel against 
a ballistic missile attack. United States forces were able to integrate 
Aegis, Patriot and Terminal High Altitude Air Defense missile defense 
systems into Israeli defensive systems. Additionally, the United States 
conducted a crisis resupply exercise, a mass casualty medical exercise, 
and a combined United States-Israeli Patriot missile live fire 
exercise. JC18 was an overwhelming success and enabled our forces to 
practice integration into the Israeli air defense architecture, refine 
our combined standard operating procedures, exercise our reception, 
staging, onward movement and integration processes and train for the 
logistical support of deployed forces. While simultaneously exercising 
the defense of Israel, JC18 allowed United States forces to conduct a 
computer simulated exercise focused on the evacuation of non-combatant 
civilians from Lebanon. Collectively, JC18 allowed both United States 
and Israeli forces to exercise and refine defensive tactics, 
techniques, and procedures and identify gaps and seams in our 
capabilities. JC18 was USEUCOM's premiere military exercise for fiscal 
year 2018 and demonstrated the United States' commitment to the defense 
of Israel and to the overall stability of the region.

    31. Senator Blumenthal. General Scaparrotti, how else is EUCOM 
working to strengthen cooperation with Israel in an increasingly 
conflicted region?
    General Scaparrotti. UCOM frequently engages, with all levels of 
leadership, to strengthen our already solid relationship and 
partnership with Israel, one of our longest standing partners in the 
Levant region. We maintain cooperation and dialogue at the highest 
levels of the command. Additionally, we conduct a series of exercises 
with Israel, the scope of which I intend to expand to incorporate 
CENTCOM and SOCOM.
    My deputy commander, Lieutenant General Timothy Ray, has met 
recently with his Israeli, CENTCOM, and SOCOM counterparts to discuss 
expanded planning opportunities. These discussions focus on countering 
Iranian malign influence in Lebanon, Syria, and Yemen. The government 
of Israel has clearly signaled that continued Iranian expeditionary 
operations in these countries is an unacceptable risk that demands 
action. EUCOM and CENTCOM planners are working with the Israel Defense 
Forces (IDF), within United States policy and authorities, to develop 
options that will maximize the unique access, placement, and capability 
of each partner to act on this threat.
    As I work with CENTCOM and SOCOM to expand our relationship with 
Israel, and since EUCOM is responsible for managing the military-to-
military relationship with Israel, I have asked my team to re-examine 
the Strategic Cooperation Initiative Program (SCIP) to ensure that our 
myriad complimentary efforts progress toward well-developed and 
combined goals. In so doing, we will synchronize regional efforts among 
three combatant commands and Israel.
    Our future planning with Israel is principally based on guidance 
from the Chairman of the Joint Chiefs of Staff and a directive from the 
Secretary of Defense. EUCOM has also begun planning for our next 
iteration of Juniper series exercises, which will rehearse assistance 
to the Defense of Israel. I will seek to incorporate CENTCOM and SOCOM 
into future Juniper series exercises. The operational environment to 
Israel's east has changed greatly in the last two years. As such, a 
successful United States contribution to the defense of Israel requires 
a hard look at the role of CENTCOM and SOCOM in the future of Israel's 
defense. As these expanded defensive planning efforts progress, we will 
include the Government of Israel to the greatest extent possible 
without inadvertently emboldening unilateral Israeli action.
                               __________
              Questions Submitted by Senator Joe Donnelly
                     eucom cooperation with israel
    32. Senator Donnelly. General Scaparrotti, last year you testified 
in great detail about the importance of the EUCOM mission to assist in 
the defense of Israel. There has been important cooperation between 
United States and Israeli forces this year, including through the 
Juniper Cobra missile defense exercise. What cooperative activities are 
you planning with Israel for the coming year?
    General Scaparrotti. I would like to clarify that Exercise Juniper 
Cobra 18 rehearsed more than just the United States support to the 
ballistic missile defense of Israel. We took a multifaceted approach to 
exercise the entirety of our plan to assist in the defense of Israel. 
This included logistical support through our crisis resupply program 
and rehearsed the release of War Reserve Stocks for Allies--Israel. 
Additionally, my team incorporated combined training between Israel 
Defense Forces (IDF) and the United States Marine Corps' 26th Marine 
Expeditionary Unit.
    Our next major training exercise with Israel will be in February/
March of 2019 named Juniper Falcon 19. It will exercise scenarios 
similar to those in Juniper Cobra 18 and will incorporate lessons 
learned from this year's exercise while focusing on the nascent stages 
of potential regional conflict. Planning for this exercise will take 
place throughout 2018 via a sequence of combined conferences. We also 
maintain a series of events dedicated to missile defense and testing 
led by United States Air Forces Europe (USAFE) and United States Army 
Europe (USAREUR). These events are designed to improve our partnered 
capacity and capability in missile defense. Each service component 
conducts rhythmic exercises with Israeli counterparts. USAFE 
participates in the Israel Air Force-hosted Exercise Blue Flag, which 
tests the interoperability of regional air forces' tactics, techniques, 
and procedures. United States Naval Forces Europe (NAVEUR) conducts 
annual Search and Rescue, Explosive Ordinance Disposal, and dive-
salvage exercises on a rotational basis. USAREUR will exercise airborne 
assault operations with the IDF's parachute regiment during Exercise 
Sabre Strike in June 2018.
    We continue combined dialogue with the IDF through the Strategic 
Cooperation Initiative Program (SCIP), which includes elements of U.S. 
Central Command, U.S. Special Operations Command, and the Joint Staff 
to the greatest extent possible. Through the SCIP, we plan our combined 
events and discuss complimentary planning efforts. There are at least 
12 such engagements already planned in the third quarter of fiscal year 
2018.
    Lastly, I should note that we maintain dialogue at the highest 
levels with our IDF partners. I regularly meet with my IDF counterpart, 
Lieutenant General Gadi Eizenkot, members of his staff, and General 
Joseph Votel, Commander, USCENTCOM, to discuss progress and stability 
in the Levant region. In fact, I last met with Lieutenant General 
Eizenkot and his staff on 11 March. My Deputy Commander, Lieutenant 
General Timothy Ray, conducts similar events with his USCENTCOM and IDF 
colleagues. His next meeting with our IDF partners is scheduled at the 
end of May 2018.
                               __________
              Questions Submitted by Senator Maize Hirono
                 nato reorganization--two new commands
    33. Senator Hirono. General Scaparrotti, NATO has undertaken a 
reorganization to proactively combat Russian aggression. Part of this 
reorganization includes two new operational commands focused on moving 
allied forces back and forth across the Atlantic Ocean, and moving with 
greater speed around Europe. The two new commands are reported to be a 
joint forces and a logistics support command.
    What is the status of the reorganization and what are the strategic 
implications and benefits of the new commands?
    General Scaparrotti. On 14 February 2018, at the meeting of NATO 
Defense Ministers in Brussels, Secretary Mattis announced the United 
States will lead the establishment of a new Joint Force Command for the 
Atlantic (JFC-Norfolk). Detailed implementation planning is underway 
and work on the new JFC concept has been initiated with the office of 
Chief of Naval Operations in the lead. Close coordination is being 
conducted with NATO's Strategic Commands (Allied Command Operations and 
Allied Command Transformation) and USEUCOM in order to define mission, 
roles, responsibilities, and authorities. This JFC will provide NATO 
with the capacity to plan and conduct operations in the North Atlantic 
ensuring sea lines of communication between North America and Europe 
are protected. This reinforces Alliance deterrence and ensures a ready 
defense when needed.
    NATO Defense Ministers also approved the establishment of a new 
support Command for logistics, reinforcement and military mobility. 
Germany will lead its establishment. Germany has also initiated its 
work on a concept for the mission working closely with the NATO 
Strategic Commands. This new Joint Support and Enabling Command will 
provide NATO with the capacity to secure the timely movement of troops 
and supplies to where operationally required to preserve deterrence and 
defend if necessary.

    34. Senator Hirono. How will the two new commands impact readiness 
and training?
    General Scaparrotti. Both commands, the Joint Force Command for the 
Atlantic and the Support Command for logistics, reinforcement and 
military mobility will contribute to NATO readiness and speed the 
ability of the Alliance to respond. They will improve NATO's ability to 
command and control forces, enhance capability for planning, establish 
their proficiency and certification through exercising, and maintain 
relationships with the other relevant NATO Command and Force 
structures. In this way, they both will improve Alliance readiness and 
training and ensure a credible deterrence and defense posture is 
maintained.
               cyber security--nato cyber center planned
    35. Senator Hirono. General Scaparrotti, we are aware that Russia 
has conducted cyber operations in various countries including the 
Ukraine and Montenegro, by attacking military communications, secure 
databases, election infrastructure, as well as power grids. Another 
reported priority of NATO is the establishment of a new cyber center, 
one that is intended to bolster defenses against Russian intrusions to 
power grids and misinformation campaigns.
    What are some of the lessons learned in terms of what has worked to 
effectively combat Russian cyber operations in Europe?
    General Scaparrotti. The most important lesson learned by both 
USEUCOM and NATO is that the United States, Allies and partners must 
demonstrate both the ability and the political will to combat Russian 
activities in cyberspace. Our ability to deny Russian cyber actors 
access to critical systems relies on information sharing and 
implementation of cybersecurity best practices to minimize exposure and 
risk to critical systems. Information sharing is a cornerstone of 
effective cyber security and relies on close and open relationships 
between Allies and Partners. Once identified, indicators of compromise 
must be disseminated to deny Russian cyber actors the ability to use 
the same techniques multiple times. This information shapes cyber 
security best practices, including the maintenance, protection, and 
defense of both government and private networks. Well maintained 
networks provide a significant obstacle to Russian cyber actors, 
raising costs and resources associated with successfully attacking 
Allied or Partner networks.

    36. Senator Hirono. General Scaparrotti, what is the current status 
of the cyber center?
    General Scaparrotti. NATO Secretary General Stoltenberg announced 
the NATO Cyberspace Operations Center in November, 2017; its role in 
the Alliance's operations is evolving and maturing. The Cyber Center is 
not aligned against any specific threat or area, but will rather serve 
as a focal point for NATO's common defense concept for the cyber 
domain. The most pressing work involves normalizing attribution of 
where information comes from and information sharing agreements. 
Although all nations endorse the concept of information sharing, most 
are reluctant to put their specific sources, means and methods at risk. 
Discussions are ongoing to address these concerns, and the Cyber Center 
expects to achieve initial operating capability by autumn of 2019.

    37. Senator Hirono. General Scaparrotti, what is your greatest 
Russia cyber concern that you hope the cyber center will work to 
counter (infrastructure/grid, elections, or social media servers)?
    General Scaparrotti. NATO Allies and Partners have watched Russia 
aggressively exploit diverse portions of European civilian and 
government infrastructure to achieve both military and civilian goals. 
These activities cross national borders and require timely and open 
information sharing. The NATO Cyberspace Operations Center is intended 
to facilitate the sharing of cyberspace information, including 
indications and warnings, of future and on-going cyber actions between 
Allies and Partners. Sharing information will facilitate both denying 
Russian access to critical civilian and military systems and aid in 
restoral following an attack or successful intrusion. Through 
information sharing, the NATO Cyber Center will serve as a focal point 
for a collective cyber defense effort among Allies and Partners.
          energy resilience--dependency on russian natural gas
    38. Senator Hirono. General Scaparrotti, the Congressional Research 
Service reported that Russia is Europe's main energy supplier, and that 
40 percent of the European Union's natural gas is supplied by Russia. A 
large portion of that natural gas flows through the Ukraine, as 
tensions remain. Complicating matters, Russian companies and their 
subsidiaries have significant ownership stakes in European energy 
infrastructure, including pipelines, distribution, and storage 
facilities.
    Most recently, Russia's state-owned gas company Gazprom announced 
it will cut ties with Kiev-based Naftogaz. This was spurred by a 
Stockholm arbitration court's award to Naftogaz that resulted from a 
four-year legal battle. The decision by Russia's Gazprom to cut 
supplies could lead to gas shortages in European Union countries and in 
Ukraine.
    General Scaparrotti, what are your thoughts on this announcement? 
What impact would the reduction in supplies of natural gas have on 
Europe, NATO, and EUCOM?
    General Scaparrotti. This seems to be Russia's standard operating 
procedure. They do not get their way, so they threaten to, or actually 
cut energy supplies to the other party in a dispute. This is not the 
action of a reliable partner and supplier. A reduction in supplies of 
natural gas to Europe could have a broad impact, depending on the size, 
location, time of year, and duration of the supply disruption. Eastern 
European countries that are heavily reliant on Russian supplies would 
be hit the hardest. Loss of gas supplies could impact power generation 
and grid stability, industrial activities, and/or home and building 
heating, depending on the country in question. This could have an 
adverse effect on force readiness and operational capacity as NATO 
defense forces rely on host nation-supplied electricity and other 
platforms that may be supported with natural gas. Our partners may also 
be forced to make decisions that run contrary to the U.S. interests; 
the pressing need to sustain energy supplies could outweigh alliance 
commitments.

    39. Senator Hirono. General Scaparrotti, should we be more 
aggressive with sanctions to counter measures such as this one? What 
would you recommend?
    General Scaparrotti. I will defer to Congress and the broader 
interagency process as to how to proceed with specific sanctions 
measures to counter Russian malign influence. What I can say is that 
Russia continues its efforts to undermine American international 
leadership and fracture the alliance. Its brazen actions must be met 
with a strong and coordinated Alliance response, including a strong 
whole-of-government focus from the United States. As I mentioned in my 
testimony, countering Russian actions is not a DOD only activity but 
needs to be a coordinated whole-of-government approach that utilizes 
all of the tools of our elements of power--diplomatic, information, 
military, and economic.
             north korean and russian nuclear capabilities
    40. Senator Hirono. General Scaparrotti, despite reports that North 
Korea is willing to sit down and negotiate denuclearization, we know 
that the Pyongyang is committed to developing a long-range, nuclear-
armed missile that is capable of posing a direct threat to the United 
States, and that it continues to conduct a large number of ballistic 
missile tests.
    We also cannot forget about Russia. The Kremlin now claims a new 
class of hypersonic glide vehicle under development that will allow 
Russia strategic missiles to penetrate our missile defense systems.
    What are your thoughts on North Korea's perceived willingness to 
negotiate their nuclear capabilities?
    General Scaparrotti. We concur with PACOM's statement of suspicion 
regarding North Korea's intent and the truthfulness of Pyongyang's 
words. North Korea has a long and undistinguished track record of 
broken promises dating back to the 1994 Agreed Framework. However, if 
we take Kim Jong-un at his word and assume he actually is willing to 
negotiate, this might signal an important shift in his perspective.
    Any change in Kim Jong-un's willingness to negotiate is likely 
being driven by a combination of key factors: sanctions and economic 
pressure, diplomatic isolation, military pressure, and Pyongyang's 
perceived strengthened negotiating position.
    Although difficult to quantify, sanctions are impacting North 
Korea. Amid rising prices and limited availability, Kim Jong-un has 
been forced to issue edicts to the populace to mitigate impacts. 
Sanctions circumvention is also becoming more difficult, and North 
Korea is also grappling with the forced return of a sizeable percentage 
of its overseas workers, an important piece of North Korea's GDP.
    North Korea has no friends, and even its few ``business 
associates'' have largely turned their back. North Korean relations 
have deteriorated across the board over the past year. Despite this, 
Kim Jong-un may think recent missile and nuclear tests put him in a 
fundamentally better negotiating position.
    Although Kim Jong-un is likely overconfident in the Korean People's 
Army, he probably understands that fighting the United States would not 
end well for him, and North Korea is sensitive to the United States 
military presence on the peninsula. In exchange for steps towards 
denuclearization, Kim may seek concessions from the United States such 
as removal of forces from the Korean peninsula or promises to never use 
nuclear weapons against North Korea. This would be consistent with 2016 
regime statements and with Kim's likely desire to ensure regime 
survival and safety for North Korea.

    41. Senator Hirono. General Scaparrotti, can you shed some light on 
the current capabilities of Russia? How concerned should we be of 
Putin's recent claims?
    General Scaparrotti. Russia is developing an intercontinental-range 
hypersonic glide vehicle intended to defeat ballistic missile defenses. 
In reference to the President Putin's claim that you raised, Putin 
stated Russia's newest strategic weapon system, ``Avangard,'' differs 
from exisiting systems because its payload can perform intercontinental 
flights in dense atmospheric layers at a hypersonic speed exceeding 
Mach 20. He said the system performs wide-range horizontal and vertical 
maneuvers to defeat missile defense systems. Russian military and 
civilian leadership continue to claim that Russia is producing a 
variety of systems to defeat United States missile defenses.
              russia and china force modernization efforts
    42. Senator Hirono. General Scaparrotti, in your testimony, you 
mention that the Russian military is improving and modernizing its 
capabilities, enhancing its ability to be a more agile force capable of 
executing operations across the entire spectrum of modern warfare. And 
that Moscow's strategic armament program has led to increased defense 
spending with an estimated investment of $285 billion in modernization 
from 2011 through 2020.
    Can you compare and contrast the modernization of Russia with that 
of China?
    General Scaparrotti. Russia and China pose an enduring threat to 
United States and Allied interests. There are similarities in each 
country's military modernization programs and in our understanding of 
their approaches to conflict. Both are developing precision kinetic and 
non-kinetic capabilities capable of achieving strategic effects in all 
domains--ground, air, sea, space, cyberspace, and electromagnetic. They 
are both developing asymmetric capabilities and strategies most likely 
to exploit perceived vulnerabilities in United States and United 
States-led military coalition capabilities, and which could be used to 
challenge United States force projection. Russian military 
modernization will support its posture to readily apply military force 
in response to crises--directly or indirectly--across the extent of 
Eurasia as well as advance its interests over the long term in Europe, 
the Arctic, the Middle East, Central Asia, and parts of East Asia. Both 
countries will continue to develop capabilities to sufficiently defend 
and pursue their interests at the expense of our own for the 
foreseeable future.
    Russia and China are developing formidable space and cyberspace 
capabilities which will extend their reach and allow them to challenge 
United States dominated space-enabled warfare capability. Russia and 
China continue to develop nuclear or conventional cruise missiles 
capable of striking CONUS and United States assets across the globe. 
Both Russia and China are reestablishing and refining their 
capabilities to conduct long duration blue water operations in an 
expanding sphere of naval influence, and potential threats to United 
States and allied interests in multiple theaters.
    Russia's operational experience in Syria has refined its ability to 
conduct testing its precision strike, indirect fires, air defense and 
special operations. Russia demonstrated an ability to conduct limited 
expeditionary operations for the first time in decades. Russia gained 
similar operational experience--direct and indirect--in illegal 
annexation of Crimea and its on-going involvement in Ukraine. Both 
situations will develop tactics, techniques and procedures, military 
training, and drive defense acquisition program priorities.
    China does not have the same ability to operationally field its 
equipment in an active military conflict, but dominating its theater of 
influence. China continues to develop a comparable global strike 
capability. and has the ability to threaten United States allies and 
interests in the Indo-Pacific region. China's continued development of 
military outposts with the goal of projected sovereignty in the South 
China Sea has strengthened China's military power projection along the 
coasts of its neighbors. China developed 72 new acres above and below 
ground in 2017 alone. In addition, the considerable amount of natural 
resources of these areas continues to disadvantage China's neighboring 
countries under the guise of historic cultural dominion.
    While China maintains a stronger economic standing, the continued 
integration of Chinese and Russian strategic interests emboldens their 
developing bilateral relationship. This compounds the threat to United 
States and allied interests. Russia and China are developing multiple 
trade, development, and security agreements. Further military 
integration and training will probably be propelled by shared economic 
stimulus. Plans to develop central Asian markets will also envigorate 
both economies in the long term. Progressive collaboration will 
decrease vulnerability of either nation to western trade sanctions, 
eroding the ability of the west to check and limit hostile actions 
through civil means. China's projected military investment for 2018 is 
approximately $175 billion dollars, compared to $65 billion for Russia. 
Hydrocarbon revenues account for nearly half of Russia's budget, and 
its economic growth in recent years has been strained by depressed oil 
prices, trade restrictions, and sanctions. Conversely, China's diverse, 
export-based economy returned ``an average of nearly 10 percent growth 
rates for almost four decades.''
    Over the long term, both countries, individually and combined, will 
pose challenges to U.S. military power projection in all warfighting 
and geographic domains.

    43. Senator Hirono. General Scaparrotti, are you concerned with the 
pace of Russia's and China's force modernization efforts? What should 
be the United States response to their efforts?
    General Scaparrotti. We are concerned that Russia and China pose an 
enduring threat to United States and Allied interests. There are 
similarities in each country's military modernization programs and in 
our understanding of their approaches to conflict. Both are developing 
precision kinetic and non-kinetic capabilities capable of achieving 
strategic effects in all domains--ground, air, sea, space, cyberspace, 
and electromagnetic. They are both developing asymmetric capabilities 
and strategies most likely to exploit perceived vulnerabilities in 
United States and United States-led military coalition capabilities, 
and which could be used to challenge United States force projection. 
Russian military modernization will support its posture to readily 
apply military force in response to crises--directly or indirectly--
across the extent of Eurasia as well as advance its interests over the 
long term in Europe, the Arctic, the Middle East, Central Asia, and 
parts of East Asia. Both countries will continue to develop 
capabilities to sufficiently defend and pursue their interests at the 
expense of our own for the foreseeable future.
    Russia and China are developing formidable space and cyberspace 
capabilities which will extend their reach and allow them to challenge 
United States dominated space-enabled warfare capability. Russia and 
China continue to develop nuclear or conventional cruise missiles 
capable of striking CONUS and United States assets across the globe. 
Both Russia and China are reestablishing and refining their 
capabilities to conduct long duration blue water operations in an 
expanding sphere of naval influence, and potential threats to United 
States and allied interests in multiple theaters.
    Russia's operational experience in Syria has refined its ability to 
conduct testing its precision strike, indirect fires, air defense and 
special operations. Russia demonstrated an ability to conduct limited 
expeditionary operations for the first time in decades. Russia gained 
similar operational experience--direct and indirect--in illegal 
annexation of Crimea and its on-going involvement in Ukraine. Both 
situations will develop tactics, techniques and procedures, military 
training, and drive defense acquisition program priorities.
    China does not have the same ability to operationally field its 
equipment in an active military conflict, but dominating its theater of 
influence. China continues to develop a comparable global strike 
capability. and has the ability to threaten United States allies and 
interests in the Indo-Pacific region. China's continued development of 
military outposts with the goal of projected sovereignty in the South 
China Sea has strengthened China's military power projection along the 
coasts of its neighbors. China developed 72 new acres above and below 
ground in 2017 alone. In addition, the considerable amount of natural 
resources of these areas continues to disadvantage China's neighboring 
countries under the guise of historic cultural dominion.
    While China maintains a stronger economic standing, the continued 
integration of Chinese and Russian strategic interests emboldens their 
developing bilateral relationship. This compounds the threat to United 
States and allied interests. Russia and China are developing multiple 
trade, development, and security agreements. Further military 
integration and training will probably be propelled by shared economic 
stimulus. Plans to develop central Asian markets will also invigorate 
both economies in the long term. Progressive collaboration will 
decrease vulnerability of either nation to western trade sanctions, 
eroding the ability of the west to check and limit hostile actions 
through civil means. China's projected military investment for 2018 is 
approximately $175 billion, compared to $65 billion for Russia. 
Hydrocarbon revenues account for nearly half of Russia's budget, and 
its economic growth in recent years has been strained by depressed oil 
prices, trade restrictions, and sanctions. Conversely, China's diverse, 
export-based economy returned ``an average of nearly 10 percent growth 
rates for almost four decades.''
    Over the long term, both countries, individually and combined, will 
pose challenges to U.S. military power projection in all warfighting 
and geographic domains. The United States needs to be prepared to 
respond to and counter the modernization efforts of both Russia and 
China, but we should also pursue innovative strategies to maintain our 
advantage.
                               __________
               Questions Submitted by Senator Gary Peters
                     nato strategic communications
    44. Senator Peters. General Scaparrotti, the Fiscal Year 2018 
National Defense Authorization Act included Senate report language that 
``urges the Secretary of Defense to assign appropriate personnel to the 
NATO Strategic Communications Center of Excellence.'' Have any United 
States personnel been assigned to the Center?
    General Scaparrotti. USEUCOM submitted the required documentation 
to the Office of the Secretary of Defense for Policy in February 2018, 
to include a legal and fiscal review of the Center. Once OSD approves 
these documents and State Department agrees, I can assign an officer to 
the Center. In order to comply with 10 USC 344 pertaining to NATO 
Centers of Excellence, this process typically takes 18-24 months.

    45. Senator Peters. General Scaparrotti, please provide an overview 
of NATO and EUCOM strategic communications operations, including the 
number of personnel assigned to strategic communications positions and 
how EUCOM and NATO organizations interact.
    General Scaparrotti. The United States currently has 24 military 
officers assigned to NATO in Information Operations (IO), Strategic 
Communications, or Strategic Analysis/Plans positions. The NATO Center 
of Excellence for Strategic Communications (StratCom COE) is dedicated 
to improving strategic communication capabilities within NATO and with 
its Allied Nations. In February, 2018, USEUCOM identified a military 
billet and submitted a request to the Joint Staff seeking permission to 
join the NATO StratCom COE.
    USEUCOM has no organizations or positions that are specifically 
designated for Strategic Communications. We do have one position for a 
Strategic Communicator Process Manager. That position is currently 
vacant but the hiring process is underway. We have one military and 
three civilian information operations planners and our Public Affairs 
directorate has five military and nine civilian employees.
    USEUCOM Public Affairs routinely coordinates and communicates with 
NATO Public Affairs on public affairs guidance and strategic messaging 
and our NATO Branch communicates with NATO staff members daily. We 
participate in the NATO Assessments Working Group run by NATO's Public 
Diplomacy Division to obtain an understanding of the various messaging 
approaches and outputs of Allies.



                               APPENDIX A

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		 
 

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 13, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

     UNITED STATES CENTRAL COMMAND AND UNITED STATES AFRICA COMMAND

    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe, 
presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Scott, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The committee today meets to receive testimonies on the 
posture of the United States Central and African Commands.
    We welcome our witnesses, General Votel and General 
Waldhauser, and thank each one of you for your great service.
    In advance of this hearing, Chairman McCain asked that I 
submit a statement for the record on his behalf. I will quote 
that statement.
    [The information referred to follows:]

    The new National Defense Strategy provides a helpful 
framework for prioritizing the multitude of national security 
threats we face. As we turn our attention to the central 
challenge of great power competition, the National Defense 
Strategy challenges us to think about our efforts in the Middle 
East in new and different ways. With all of the recent success 
in the fight against ISIS, we must work to consolidate our 
gains and move forward with a coherent regional strategy to 
ensure security and stability.
    The current administration has succeeded in turning the 
tide in the fight against ISIS. The so-called caliphate that 
once threatened to engulf the Middle East has been reduced to a 
fraction of its former territory. But our hard-fought tactical 
victories cannot alone secure American interests in the region, 
and a single-minded focus on defeating ISIS falls far short of 
the strategic clarity needed to do so. We need a coherent 
strategy to account for all of the complexities of this 
difficult region and demonstrate American leadership.
    With a civil war raging in Syria and Assad continuing to 
massacre his own people, two successive United States 
administrations have failed to do anything meaningful to end 
the slaughter. This administration is more than one month late 
in delivering a strategy for Syria, which Congress required in 
the Fiscal Year 2018 National Defense Authorization Act. With 
the Assad regime poised to retake the last pockets of 
resistance in Syria, we cannot delay any longer in developing a 
strategy to change course.
    In the absence of American leadership, others have not 
hesitated to fill the void. Both Russian and Iranian influence 
are only expanding in the Middle East--much to the detriment of 
our interests, our values, and our partners. It is not that the 
United States is not active in the region, it is that our 
activities are unmoored from strategy.
    From Iraq to Afghanistan and Yemen to Niger, CENTCOM and 
AFRICOM face serious questions about the United States role in 
ensuring stability and supporting partner forces. Without 
broader strategic coherence, we cannot hope to achieve our 
interests and secure peace and prosperity across these vital 
regions.
    I hope this hearing can shed light on what policies, 
authorities, or resources our commanders on the ground need to 
accomplish that mission--particularly in light of a National 
Defense Strategy that identifies great power competition, not 
terrorism, as the primary concern in U.S. national security. In 
that context, we must be diligent in asking how CENTCOM and 
AFRICOM can pursue their counterterrorism missions with greater 
efficiency without compromising efficacy.

    ``As we turn our attention to the central challenge of 
great power competition, the National Defense Strategy [NDS] 
challenged us to think about our efforts in the Middle East in 
new and different ways. With all of the recent success in the 
fight against ISIS [Islamic State of Iraq and Syria], we must 
work to consolidate our gains and move forward with a coherent 
regional strategy to ensure security and stability.''
    This committee looks forward to working with this year's 
National Defense Authorization Act [NDAA] to provide the 
policies and authorities needed to adjust to this new approach 
both in the Middle East and in Africa, where the threat of 
violent extremism is in increasing dramatically.
    For CENTCOM [United States Central Command], over the past 
year, we have seen remarkable progress in the fight against 
ISIS. Military victories in Mosul and Raqqah and beyond have 
helped dismantle the caliphate ISIS once claimed in the Middle 
East.
    At the same time, significant challenges remain in the 
region. The Syrian civil war rages on. Iran continues to grow 
its influence and fund its proxies. According to the region, we 
face serious questions about the Kurds, many of whom have 
fought by our side valiantly.
    For AFRICOM [United States Africa Command], I will make one 
statement that I think is significant for us to keep in mind 
for the purpose of this hearing.
    General Waldhauser, it is my understanding the 
investigation into the October 2017 ambush in Niger by ISIS-
affiliated fighters that killed four United States soldiers is 
completed. I understand it is now pending review by the 
Chairman of the Joint Chiefs of Staff, General Dunford, and the 
Secretary of Defense, Jim Mattis. After his approval, AFRICOM 
will immediately offer a brief to the families of the four 
soldiers if they desire prior to any in-depth briefing to 
Congress. Obviously, we want the families to have an 
opportunity know what happened to their loved ones.
    Accordingly, I understand that you are not able to comment 
on the investigation's results during this posture hearing. At 
the conclusion of the briefs to the families, I know you will 
be providing us with a thorough briefing of the investigation's 
findings and recommendations.
    Now, we want to talk about Africa and AFRICOM. Our troops 
have an important mission there to train and assist regional 
partners so that they will be capable of handling security 
threats before they become global crises. Our engagements in 
Africa are critical not only to regional stability but to our 
own national security, but it lacks dedicated troops, 
resources, sufficient basing, and strategic access.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I want to thank our witnesses for appearing today, for also 
your service and the service of the men and women you command. 
Thank you very much and thank them, please.
    You are leading your commands in very challenging times. We 
are in the 16th year of military engagement in Afghanistan, for 
example. Early last year, General Nicholson, Commander of 
United States Forces Afghanistan, testified we were facing a 
stalemate. Since that time, the [Trump] administration has 
announced a new South Asian strategy, articulated a negotiated 
settlement as the desired end state, moved additional forces 
into the theater to support the military elements of the 
strategy, and curtailed security assistance to Pakistan.
    Despite these shifts, 2017 continued to be plagued by 
widespread violence and instability in Afghanistan as the 
Taliban expanded their territorial control and conducted a 
number of large-scale attacks against military and civilian 
targets.
    In addition, ISIS-Khorasan remains resilient despite 
significant pressure.
    While the administration has clearly laid out a military 
strategy, battlefield victories are hollow without political 
and economic progress, both of which seem stalled in 
Afghanistan.
    However, the Trump administration has yet to articulate the 
political governance or economic aspects of the strategy, much 
less the associated staffing and resources that will be 
required to implement it.
    General Votel, I am interested in your assessment of the 
situation in Afghanistan. I am sure all of my colleagues are 
also.
    In Iraq and Syria, the destruction of the so-called 
physical caliphate previously enjoyed by ISIS is a significant 
victory, and I commend the administration and your leadership 
and your colleagues too for this United States-led 
international coalition. Our Iraq and Syria partners on the 
ground have done so much. However, ISIS is not defeated and 
will remain a threat for the foreseeable future.
    Additionally, the underlying issues that gave rise to ISIS 
in the first place remain unaddressed. We need strong United 
States diplomatic leadership to help bring about the necessary 
political accommodations that will give Sunni communities a 
stake in their future and to bring the international community 
together to assist communities recovering from ISIS.
    As some experts have stated, the seeds of the next 
insurgency are sown in the rubble of Mosul and Raqqah. In Iraq 
alone, the cost of reconstruction is expected to be at least 
$88 billion, and the international community has pledged less 
than one-third of that amount.
    I am deeply concerned that the administration's 
marginalization of our diplomatic corps undermines our ability 
to stabilize the areas once held by ISIS, as well as the 
broader region. It is notable that across the CENTCOM and 
AFRICOM areas of responsibility, a number of ambassadorial 
posts remain vacant, most notably in Jordan and Somalia, where 
I recently visited, but also in Saudi Arabia, Qatar, Libya, and 
Egypt. This is not a question of congressional inaction. No 
nominations have been forthcoming, and I am sure our 
colleagues, all of them, would rapidly move to consider 
nominees for these very important positions.
    Military power alone will not be enough to address the 
national security challenges we face in these complicated 
regions in any enduring way. We must have the people in place 
to help ensure our long-term strategic objectives are met.
    On Iran, the President risks creating a foreign policy 
crisis by threatening to withdraw from the Joint Comprehensive 
Plan of Action, or JCPOA. By all accounts, the JCPOA is working 
as intended, and Iran is verifiably meeting its commitments 
under the agreement. Let there be no doubt. Iran continues to 
be a state sponsor of terror and abuser of human rights. Iran 
continues to destabilize the region through its development of 
ballistic missiles and support for proxies in Iraq, Syria, 
Lebanon, Yemen, and elsewhere. The JCPOA was not intended to 
address all of Iran's bad behavior, just the nuclear aspect. If 
Iran behaves this way without a nuclear weapon, imagine how 
much worse it would be with a nuclear-armed force.
    Withdrawing from the JCPOA would be a devastating blow not 
only for the Middle East, but also for our efforts 
diplomatically with North Korea and for any future diplomatic 
efforts to constrain aggressive behavior by our adversaries.
    General Votel, I am interested in hearing if you, like 
Secretary Mattis and General Dunford, believe that remaining in 
the deal is in the best interest of the nation.
    In Africa, the importance of relationships is paramount as 
we seek to engage by, with, and through our partners in the 
furtherance of our shared security goals. I recently traveled 
to East Africa where I saw firsthand the ongoing efforts to 
disrupt violent extremists and build capacity with critical 
partners in places like Djibouti and Somalia. I also saw the 
challenges from competitors, such as China and Russia, who are 
actively seeking investments and involvement across the 
continent.
    Despite some battlefield success against groups like Al 
Shabaab, Boko Haram, and ISIS affiliates, many governments in 
the region have struggled to translate security gains into 
durable outcomes.
    As we turn our attention to the great power competition 
articulated by the National Defense Strategy, we must be 
mindful not to focus exclusively on these issues at the expense 
of other threats such as terrorist organizations, rogue 
regimes, and other non-state actors and criminal organizations, 
issues that are unfortunately present in both of your commands.
    Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service.
    Senator Inhofe. Thank you, Senator Reed.
    We will now have opening statements by our two guests, and 
your entire statement will be made a part of the record. 
General Votel?

 STATEMENT OF GENERAL JOSEPH L. VOTEL, USA, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    General Votel. Senator Inhofe, Ranking Member Reed, 
distinguished members of the committee, good morning and thank 
you for the opportunity to appear today to discuss the current 
posture and state of readiness of the United States Central 
Command.
    I am pleased to be here today with my fellow combatant 
commander and fellow Minnesotan, General Tom Waldhauser of the 
United States Africa Command.
    I come before you today on behalf of over 80,000 members of 
the command, U.S. military, civilians, and coalition members 
from 71 nations. In the most complex area of the globe, they 
serve and sacrifice on a daily basis, in many cases for the 
benefit of not only American strategic interests but also the 
world's. Our people are the very best at what they do, and they 
and especially their families deserve our admiration and 
gratitude. It is my sincere honor to lead and be a member of 
such a fine team and dedicated professionals.
    Since I last appeared before the committee last year, we 
have made considerable military progress across the region. 
However, as we consolidate our gains in places like Iraq, 
Syria, Lebanon, and Yemen, we remain clear-eyed about the 
challenges that the region continues to present. In the past 
year, we have achieved incredible success against ISIS in both 
Iraq and Syria. The Iraqi Security Forces and the Syrian 
Democratic Forces are operating at their most effective levels 
and have liberated over 98 percent of the territory previously 
held by ISIS. The destruction of the ISIS physical caliphate is 
within our grasp and thousands of displaced persons are 
returning home and beginning the long task of rebuilding. Now 
we must consolidate gains by investing in the security forces, 
relationships, and capabilities that will hold the territory 
and keep ISIS from returning.
    Based upon that progress, CENTCOM is conducting an 
operational alignment and rebalancing effort to achieve three 
goals.
    The first goal is to complete major combat operations in 
Iraq and Syria to bring the Defeat ISIS campaign to a 
responsible close. Military success in the campaign presents us 
an opportunity to reposition forces from Iraq and Syria to 
Afghanistan in a manner that keeps the pressure on ISIS but 
also sets us up to break the stalemate in Afghanistan. We 
retain sufficient capability to continue our efforts against 
ISIS despite the increasingly complex situation across Syria 
and especially in the northwest province of Afrin. Our partners 
on the ground in Syria have gotten us a long way in Syria 
toward our objectives, and we must stick with them through the 
completion of this fight.
    In Iraq, the Iraqi Security Forces are rapidly 
consolidating gains and preparing to support elections later 
this spring.
    The second goal is to prioritize the implementation of the 
South Asia strategy in Afghanistan, reaffirming our enduring 
commitment to Afghanistan by reinforcing the two complementary 
military missions: the NATO-led [North Atlantic Treaty 
Organization] train, advise, and assist mission, and the United 
States counterterrorism mission. With our support, the Afghan 
National Defense and Security Forces are well postured to begin 
operations to seize the initiative, to expand population 
control and secure credible elections.
    Part and parcel of this effort is our regionalized approach 
to engage all countries with a stake in Afghanistan's 
stability, especially Pakistan where we seek a more productive 
and trustful relationship that benefits our mutual objectives 
in the region.
    The third goal is to ensure that we have aligned our 
military efforts with our broader interagency and international 
activities to neutralize, counterbalance, and shape the 
destabilizing impact of Iran. Make no mistake. Iran's malign 
activities across the region pose the long-term threat to 
stability in this part of the world.
    The recently published National Defense Strategy rightly 
identifies the resurgence of great power competition as our 
principal national security challenge, and we see the effects 
of that competition throughout the region. Russia's support of 
the Assad regime has not only propped him up but has also added 
complexity to the Defeat ISIS campaign. Moscow plays both 
arsonist and fire fighter, fueling tensions among the Syrian 
regime, Iran, Turkey, the Syrian Democratic Forces, the United 
States, and other coalition partners, then serving as a 
supposed arbiter to resolve disputes. Today, Russia's 
manipulative behavior has placed our campaign progress at risk 
with activities that are not focused on the defeat of ISIS, but 
rather preserving their influence and control over the outcome 
of the situation.
    China is pursuing long-term, steady economic growth in the 
region through its One Belt, One Road policy, but it is also 
improving military posture and force projection by connecting 
ports such as Gwadar in Pakistan with its first overseas 
military base in Djibouti, adjacent to the critical Bab al 
Mandeb Strait.
    Both China and Russia not only seek to fill in perceived 
gaps in United States influence with increasing defense 
cooperation and sales of their equipment to regional partners, 
but they are also cultivating multi-dimensional ties to Iran.
    Against this backdrop of increasing great power interaction 
are the enduring issues of the region: social, economic, and 
political challenges, high unemployment, falling oil prices, a 
youth bulge, large numbers of refugees, and longstanding border 
conflicts. We in CENTCOM stand ready with all of our partners 
to defend U.S. interests against these and other threats. Our 
strategic approach of preparing the environment, pursuing 
opportunities, and prevailing wherever we can is working. We 
are postured for purpose, proactive in pursuing opportunities, 
and resolved to win.
    I would like to close by sharing three dynamics that we 
assess are essential to prevailing in this region.
    First, in the conduct of our campaigns in Iraq, Syria, 
Afghanistan, Yemen, Lebanon, and Egypt, we have adopted a by, 
with, and through approach that places a heavy reliance on 
indigenous partner forces. While this approach does present its 
own challenges and can be more time consuming, it importantly 
provides local solutions to local problems. This approach is 
not without risk, as we are seeing unfold in northern Syria 
today, but it is proving very effective and will pay 
significant dividends going forward.
    Second, successful pursuit of U.S. objectives in this 
region comes only from an integrated approach aligned with 
interorganizational partners. Defense of the nation is a team 
sport. This applies not just within the command but with our 
fellow combatant commands, the central region's 18 country 
teams, other departments, agencies, and organizations of the 
U.S. Government and, most importantly, our coalition partners 
who have provided unwavering support for nearly two decades of 
persistent conflict. As the National Defense Strategy captures 
clearly, strengthening existing relationships and building new 
ones will be key to our future success.
    Finally, we could not do what we do on a daily basis 
without the support of Congress and, by extension, the American 
people. We sincerely appreciate this committee's continued 
strong support for our operations, authorities, and resources 
and especially for your support to the services, SOCOM [United 
States Special Operations Command], and the other defense 
agencies that we rely upon for our military wherewithal. Your 
support will remain important as we contend with what 
potentially are generational struggles to defend our Homeland 
from the threats outlined in our National Defense Strategy.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of General Votel follows:]

             Prepared Statement by General Joseph L. Votel
                              introduction
    Last month I walked down the main street of Raqqah, the former 
capital of the brutal Islamic State in Iraq and Syria (ISIS). Amidst 
the mountains of rubble, reminiscent of European cities in World War 
II, vegetable sellers and falafel carts have set up shop, Raqqawi 
citizens are coordinating reconstruction efforts, and children are 
preparing to return to school--evidence of the indomitable spirit of 
the Syrian population.
    Our Global Coalition to Defeat ISIS and partners, in particular the 
Iraqi Security Forces (ISF) and Syrian Democratic Forces (SDF), have 
made extraordinary progress for over 3 years, liberating Mosul and 
Raqqah--the former capitals of ISIS's self-proclaimed ``caliphate.'' 
Now, more than 98 percent of the territory in Iraq and Syria formerly 
held by ISIS is no longer under their control. In Afghanistan, our 
Operation Enduring Freedom Coalition of 39 countries is supporting an 
increasingly capable Afghan National Defense and Security Forces 
(ANDSF) as they destroy Taliban and ISIS safe havens, remove terrorists 
from the battlefield, and establish the conditions for greater Afghan 
governmental control. United States Navy vessels and the Combined 
Maritime Force (CMF) patrol the Gulf and Red Sea, ensuring the free 
flow of commerce through these strategic waterways. Every day, our 
military and civilian personnel, forward deployed across the region, 
conduct training exercises and strengthen our partners' abilities to 
defend themselves from external threats and challenge violent extremism 
within their borders. These activities, paired with robust diplomatic 
efforts from our country teams also help balance against Iran's 
destabilizing influence in the region.
    Our success over the last year is largely due to the unyielding 
support of our allies, tremendous cooperation with our interagency 
partners, provision of additional authorities, and the continued faith 
of the American people in our military. However, despite the great 
strides we have made, there is much work left to do. The challenges in 
the region are many: terrorism, violent conflicts, massive refugee 
populations, economic stagnation, social upheaval, great power 
competition, nuclear and ballistic missile threats, humanitarian 
crises, and radical violent ideologies to name a few. As our country 
begins to shift focus to threats in other parts of the world, the 
CENTCOM region remains vital to United States' security and economic 
interests. We will continue to ensure our nation's resources are 
responsibly employed to protect the American people from terror, 
promote American centers of trade and prosperity, and preserve peace 
through strength to deter future conflicts.
                   centcom's challenging environment
    The CENTCOM area of responsibility stretches from northeast Africa, 
across the Middle East, to Central and South Asia. The twenty countries 
within this vast region confront profound social, economic, and 
political upheaval while simultaneously facing grave security 
challenges in the form of widespread conflict, expansionist regional 
powers, violent extremist organizations (VEOs), and destabilizing 
behavior from outside actors. The enduring tension between the nuclear 
powers of India and Pakistan remains unreconciled while fractured 
states like Yemen and Syria are wrestling with enormous humanitarian 
concerns. The generational Israeli-Palestinian conflict simmers 
incessantly below the surface and complicates partnerships and 
coordination. Iran, Russia, and China are increasingly competing to be 
the partner of choice--militarily, politically, and economically--with 
United States allies. Turmoil in the Central Region seldom remains 
contained, and regional problems quickly become global as they bleed 
across Combatant Command seams into Africa, Europe, Asia, and threaten 
the United States.
    Humanitarian Crises. Years of conflict in Iraq, Syria, Afghanistan, 
and Yemen have caused large-scale humanitarian crises, created havens 
for extremism, blurred national borders, and provided Iran and Russia 
opportunities to expand their influence in the region. Millions of 
refugees stress Middle Eastern and European countries. The government 
of Iraq, in partnership with the UN, has facilitated the return of 
millions of Internally Displaced Persons (IDPs), but sustainable 
returns are contingent on successful security and stability efforts. In 
Syria, the return of displaced persons has started but the vast 
majority cannot safely return to their homes until fighting has ended, 
IDPs feel free from Syrian regime reprisals, and Explosive Remnants of 
War (ERW) are cleared from their roads and homes. Yemen is plagued by 
cholera and malnutrition, with nearly 80 percent of the population 
requiring urgent humanitarian assistance.
    Economic Uncertainty. Economic prospects across the region remain 
hampered by poor economic policies and corruption, which are compounded 
by inadequate education and health services. This has led to stagnant 
economies marked by inflation, low wages, and high unemployment. Many 
economies in the CENTCOM region depend on oil and gas revenues, but low 
oil prices have challenged governments' abilities to balance fiscal 
considerations with social contracts. Large state-owned sectors and 
bloated civil service departments are a drag on economic growth and 
limit opportunities for a burgeoning youth population.
    Corruption inhibits reform and stabilization efforts and undermines 
the population's confidence in its government. Unfortunately, 
corruption in the Central Region is at historically high levels; 
according to Transparency International Corruption Index, 90 percent of 
countries in the Middle East score a failing grade, and CENTCOM 
includes some of the most corrupt countries in the world--Syria, Yemen, 
and Iraq. President Ghani is challenging persistent corruption in 
Afghanistan by putting reforms in motion to fight corruption in the 
military and government. Iraqi Prime Minister Abadi is working with the 
World Bank and the International Monetary Fund to implement an 
ambitious reform program, but the challenges are daunting. Some of the 
countries in the region are working to address these economic 
challenges; Saudi Arabia's Vision 2030 program, Egypt's ambitious 
macroeconomic reforms, and Jordan's concerted efforts to boost GDP 
growth rates and reduce unemployment are a few examples.
    Violent Extremism. The violent extremist ideologies of ISIS, al 
Qaeda (AQ) and other VEOs remain a threat to the United States and our 
allies and partners, not just in the CENTCOM region but worldwide. 
Although ISIS has steadily lost control over physical territory and no 
longer controls any major population centers in Iraq or Syria, Sunni 
populations remain vulnerable to identity-based recruitment into VEOs. 
Violent extremists have utilized online forums to spread violent 
interpretations of Islam to audiences across the globe. The 
impressionable youth in this tumultuous region, seeking community and 
justice, are highly susceptible to extremists' teachings; consequently, 
a new generation of radicalized followers could become online citizens 
of a ``virtual caliphate,'' dedicated to the struggle against the West.
    Both ISIS and AQ are resilient and have proven capable of 
projecting propaganda and inspiring attacks throughout the region and 
outside of the Middle East. In Egypt, ISIS has expanded its reach into 
the mainland and carried out mass-casualty attacks. ISIS-Khorasan 
(ISIS-K) continues to orchestrate high-profile attacks in Afghanistan. 
Al Qaeda in the Arabian Peninsula (AQAP) continues to plan attacks on 
the Homeland from the ungoverned spaces in Yemen.
    Proxy Warfare. The Central Region has a long history of proxy 
warfare, violent militias, and irregular forces operating in the ``gray 
zone''--military competition short of war. Iran has extended its 
tentacles across the region through numerous proxies, including 
Lebanese Hizballah operating in multiple countries, hardline Iranian-
backed Shiite Militia Groups (SMGs) in Iraq and Syria, and Iranian 
support has enabled the Houthis. The result is prolonging the civil war 
in Yemen, threatening Saudi Arabia and the UAE, and risking expansion 
of Yemen's civil war into a regional conflict. Iran uses its proxies to 
secure supply lines for malign activities and influence neighboring 
governments. Militants operating out of remote areas in Pakistan 
threaten Afghanistan and India.
    Nuclear/Ballistic Missile Proliferation. Regional conflicts and 
power imbalances drive nations to seek and acquire nuclear weapons and 
extend ballistic missile capabilities to secure their influence. As an 
example, Iran continues to develop advanced ballistic missile 
capabilities and also transfer them to the Houthis and to its Hizballah 
proxies. This will enable them to strike United States partners and 
allies, and the possibility Tehran will reinvigorate its nuclear 
program in the out-years of the Joint Comprehensive Plan of Action 
(JCPOA) remains a potential risk. Nuclear proliferation, combined with 
proxy warfare, increases opportunities for miscalculation and generates 
a serious threat to the region and the United States.
    Regional Competitors. Iran remains the major threat to United 
States interests and partnerships in the Central Region. The 
competition between Iran and Saudi Arabia for influence in the region 
exacerbates multiple security dilemmas throughout the Middle East--from 
Iran's support of Houthis in Yemen, to Riyadh's attempt to diminish 
Hizballah's authority in Lebanon. Iran is also working through proxies 
and friendly political allies in Iraq, Syria, and Lebanon to establish 
an arc of influence, or ``Shiite Crescent'' across the Middle East. As 
we navigate the many challenges and relationships in our region, we 
partially view them through the lens of countering Iran and diminishing 
malign influence.
    We must also compete with Russia and China as they vie for access 
and influence in the Central Region. Russia's presence in Syria 
established Moscow as a long-term player in the region, and the Kremlin 
is using the conflict in Syria to test and exercise new weapons and 
tactics, often with little regard for collateral damage or civilian 
casualties. An increase in Russian surface-to-air missile systems in 
the region threatens our access and ability to dominate the airspace.
    On the diplomatic front, Moscow is playing the role of arsonist and 
firefighter--fueling the conflict in Syria between the Syrian Regime, 
YPG, and Turkey, then claiming to serve as an arbiter to resolve the 
dispute. Moscow continues to advocate for alternate diplomatic 
initiatives to Western-led political negotiations in Syria and Afghan-
led peace processes in Afghanistan, attempting to thwart the UN's role 
and limit the advance of American influence. Russia's insistence on a 
separate Syrian political peace process at Astana and Sochi detracts 
from the internationally-sanctioned UN talks in Geneva. In Afghanistan, 
Moscow has exaggerated the presence of the ISIS-K threat, and while the 
Coalition and the Afghans are the only forces actively fighting ISIS 
there, Russia has used familiar propaganda techniques to brand ISIS's 
presence as a United States/NATO failure.
    Russia is also trying to cultivate multi-dimensional ties to Iran. 
Though historic rivals, Moscow and Tehran share interests across the 
region, including an overarching desire to sideline, if not expel, the 
United States from the region. Russia and Iran are both trying to 
bolster a brutal regime in Syria, limit United States military 
influence in Iraq and Afghanistan, and fracture the longstanding United 
States-Turkey strategic partnership.
    Russia also maintains significant influence in Central Asia, where 
the countries of the former-Soviet Union rely on Russia to varying 
degrees for their economic and security needs. This is problematic as 
Russia's efforts could limit United States engagement options and 
provide Moscow additional levers of influence, particularly as NATO 
forces deployed in Afghanistan are dependent on Central Asian partners 
for logistical support. Since 2014, Russia has increased Eurasian 
integration efforts to reassert Moscow's dominant influence along the 
periphery or buffer zone.
    Likewise, an increasingly assertive China is testing Russia's 
dominance in the economic and security arenas of Central Asia but also 
posing challenges to United States influence. China seeks to capitalize 
on regional concerns over what it perceives as waning United States 
influence and support. Toward this end, Beijing is building and 
strengthening trade, infrastructure, defense, and political 
relationships across the Middle East, Central and South Asia.
    China is pursuing long-term, steady economic growth that bolsters 
its international influence and access to energy resources. Its Belt 
and Road Initiative (BRI), which includes the China-Pakistan Economic 
Corridor (CPEC), could serve as a stabilizing, profit-generating 
project in the region, but it could also improve China's military 
posture. This collection of infrastructure projects already provides 
China with access to Gwadar Port in Pakistan, which is operated through 
a Chinese-Pakistani agreement and has the potential to increase China's 
strategic presence in the Indian Ocean. China also recently established 
its first overseas military base adjacent to the Bab al Mandeb (BAM) in 
Djibouti. While Beijing claims both locations support peacekeeping and 
humanitarian operations, the new military base and port allow China to 
project forces more permanently within the region and influence 
strategically valuable trade waterways.
    China also seeks to increase its economic and diplomatic 
cooperation with Iran. The lifting of UN sanctions under the Joint 
Comprehensive Plan of Action (JCPOA) opened the path for Iran to resume 
membership application to the Shanghai Cooperation Organization, a 
Eurasian political, economic, and security organization. This, along 
with the existing BRI cooperation between the two nations, increases 
China's ties to Iran.
    China considers its relationship with the GCC states critical for 
its current economic needs. The Gulf States provide approximately one-
third of China's oil, and Qatar is its single largest supplier of 
natural gas. Like Russia, China has sought to arbitrate some conflicts 
in the region, offering to mediate between Saudi Arabia and Iran. While 
China will continue to develop its relationships with nations in the 
Middle East, Beijing will likely maintain its stance of avoiding a 
major role in ongoing conflicts.
    North Korea plays a relatively minor role in the Central Region, 
but its potential export of ballistic missile and nuclear technology 
remains an area of concern. For decades, North Korea widely 
proliferated ballistic missile expertise and materials to a number of 
actors including Iran and Syria. North Korea also exports cheap labor 
to various Middle Eastern countries; remittances from these laborers 
are a significant source of revenue for North Korea, despite the State 
Department's efforts to persuade our partners to expel these workers.
                        prepare--pursue--prevail
    CENTCOM's mission is to direct and enable military operations and 
activities with allies and partners to increase regional security and 
stability in support of enduring U.S. interests. We aim to accomplish 
this mission through our strategic approach of ``Prepare, Pursue, 
Prevail.'' This approach aligns with the recently published National 
Defense Strategy (NDS), which directs us to ``Compete, deter, and win 
in conflict and reinforce all levers of national power from sustainable 
positions of military advantage.'' It also aligns with the POTUS-
approved strategies for Iraq and Iran. These strategies look to 
consolidate gains achieved through defeating ISIS, while neutralizing 
and countering Iran's destabilizing influence, and ensuring a stable 
Iraq does not align with Iran and remains a productive strategic United 
States partner.
    Preparing in advance of crises creates decision space for leaders 
and allows for the responsible and effective employment of resources 
and forces. Effective preparation enables CENTCOM to compete with the 
other major actors in the region through strengthening alliances and 
partnerships. Pursuing opportunities ensures we seize and maintain the 
initiative as we meet each of the challenges in our complex region. We 
also retain the flexibility to effectively deter threats, preferably 
short of military force. We constantly seek to Prevail in conflict, 
winning the current fight and preparing for the next challenge.
                           centcom priorities
    While the CENTCOM team manages a broad range of difficult 
challenges on a daily basis, a significant portion of our efforts and 
resources are necessarily focused in three areas: supporting the 
Administration's South Asia Strategy--to include Operation Freedom's 
Sentinel (OFS) and Resolute Support Mission (RSM) in Afghanistan; 
countering VEOs in the Central Region, to include Operation Inherent 
Resolve (OIR) in Iraq/Syria; and countering Iranian destabilizing 
activities across the region.
    Supporting the Administration's South Asia Strategy. Since my last 
posture hearing, CENTCOM has begun a transition--an operational 
alignment and rebalancing to better address challenges, mitigate risk, 
and optimize resources in an ever-changing battlespace. With ISIS's 
territorial control crumbling in Iraq and Syria, we have shifted our 
main effort to implementing the military component of the South Asia 
Strategy in Afghanistan through OFS and NATO's non-combat RSM, while 
still retaining sufficient resources to enable local security forces to 
prevent the reemergence of ISIS in Iraq and Syria.
    The NDS directs us to deter adversaries from aggression against our 
vital interests and to discourage destabilizing behavior. Working ``by, 
with, and through'' the ANDSF, we have maintained constant pressure on 
the Taliban with the intent of removing their influence on the 
population and forcing them to reconcile with the Government of the 
Islamic Republic of Afghanistan (GIROA). Our conditions-based approach 
to the conflict gives hope to our Afghan partners and demoralizes the 
enemy. This strategy reaffirms the United States Government's enduring 
commitment to Afghanistan while supporting two complementary missions--
counter-terrorism operations and security force assistance of RSM. 
Preventing AQ and ISIS-K from directing or supporting external attacks 
against the United States and our allies is a vital national interest, 
and the RSM preserves peace through a strong network of alliances both 
regionally and globally.
    The GIROA is making dedicated and transparent efforts to combat 
corruption at every level and ensure an effective Afghan fighting 
force. Implementation of the current GIROA 4-Year Roadmap is improving 
overall ANDSF capabilities. Our method of working ``by, with, and 
through'' the ANDSF ensures we are training Afghan forces to take the 
lead in combat, enabling them with key assets like intelligence and 
logistics, and working through the GIROA to find Afghan solutions to 
Afghan problems.
    ANDSF capability to respond to crises has greatly improved over the 
last few years, and they are able to prevent security setbacks from 
becoming cascading events; however, the ANDSF does not have the ability 
to prevent the insurgency from maintaining a rural presence and 
occasionally threatening a population center or critical ground lines 
of communication (GLOC). The increase in U.S. and RSM partner military 
personnel enables the provision of enhanced train, advise, and assist 
capability to the ANDSF. This will advance the ANDSF's ability to plan 
and execute simultaneous offensive military operations, keeping 
constant pressure on the enemy.
    In addition to our plan for closer, more persistent advising, we 
are developing critical capabilities within the ANDSF to provide them 
clear advantages over the Taliban. The Afghan Air Force (AAF) continues 
to develop offensive capability, and our security cooperation funds are 
training maintainers as the AAF transitions from dated Russian 
platforms to modern United States aircraft. We are also working to 
double the size of the Afghan Army's Special Operations force--
currently the most effective combat element against the Taliban.
    Simultaneously, we are targeting many of the Taliban's revenue and 
support networks; illicit narcotics production and trafficking largely 
finances insurgent operations. The Taliban remains a resilient 
adversary capable of inflicting heavy ANDSF casualties, but we, 
shoulder to shoulder with our ANDSF partners, will continue to apply 
military and economic pressure to force the Taliban to the negotiating 
table.
    Kabul's uncertain political situation remains the greatest risk to 
stability as the ANDSF increases security nationwide and the GIROA 
prepares for planned 2018 elections. GIROA continues to suffer from a 
professional governmental capacity deficit, competing interests, and 
corruption. We are pursuing opportunities to develop bilateral 
relationships with Central and South Asian states to promote regional 
stability and to encourage them, and our NATO allies, to contribute 
financial and advisory support to the GIROA. As an example, we strongly 
support improved Indian-Afghanistan ties as a means to advance Kabul's 
economic interests and increase Afghanistan's financial independence.
    As Afghanistan's neighbor and a critical supply route for RSM 
operations, Pakistan presents both challenges and opportunities as we 
implement the new South Asia Strategy. Pakistan's cooperation is 
imperative for the success of our South Asia strategy. As the President 
made clear in the unveiling of the strategy last August, the United 
States expects Pakistan to take decisive action against the Taliban and 
Haqqani Network leaders that operate from its territory. Taliban and 
Haqqani leadership and fighters continue to find sanctuary in Pakistan. 
Other Pakistan based groups like Lashkar-e-Tayyiba threaten Pakistan's 
neighbor, India, and carry out attacks that jeopardize regional 
stability and United States strategic interests.
    Pakistan has made many sacrifices in the war against terrorism, 
including important contributions in significantly degrading AQ and 
combatting ISIS-K. Anti-Pakistan militant groups like Tehrik-e-Taliban 
Pakistan (TTP) are able to conduct devastating terrorist attacks within 
Pakistan, killing scores of civilians and military. The Pakistani 
military is conducting counter-terrorism operations against select 
terrorist groups that target the Pakistani state. Pakistan has also 
undertaken several high profile and effective counter-insurgency 
operations in North Waziristan and other parts of the Federally 
Administered Tribal Area (FATA) against TTP. Security along the border 
with Afghanistan will remain a priority in 2018 as Pakistan seeks to 
expand border control mechanisms and efforts to improve paramilitary 
security capabilities. Recently we have started to see an increase in 
communication, information sharing, and actions on the ground in 
response to our specific requests--these are positive indicators. 
However, ongoing national counter-terrorism efforts against anti-
Pakistan militants throughout the country have not yet translated into 
the definitive actions we require Pakistan to take against Afghan 
Taliban or Haqqani leaders. This problem is compounded by increasing 
cross-border terrorist attacks and fires between Pakistan and 
Afghanistan, which hinders both countries' abilities to coordinate on 
border security.
    We have preserved our valuable military-to-military relationship 
with Pakistan and attempted to increase transparency and communication 
with influential military leaders, while pressing our serious concerns 
about Pakistan's provision of sanctuary and support to militant and 
terrorist groups that target United States personnel and interests. 
Achieving long-term stability in Afghanistan and defeating the 
insurgency will be difficult without Pakistan's support and assistance. 
Although most security assistance for Pakistan is currently suspended, 
since 2002 Pakistan has been among the largest recipients of United 
States provided Foreign Military Financing (FMF) and International 
Military Education and Training (IMET). To date Pakistan has also been 
reimbursed hundreds of millions of dollars in Coalition Support Funds 
(CSF) for counter-insurgency operations that support United States 
security objectives in the region. We use ground and air routes in 
Pakistan to deliver materiel to Afghanistan. However we also have 
options to utilize routes through the other Central Asian nations.
    CENTCOM continues to promote United States interests in the rest of 
the Central Asia/South Asia (CASA) sub-region, which includes the 
countries of Afghanistan, Pakistan, Kazakhstan, the Kyrgyz Republic, 
Tajikistan, Turkmenistan, and Uzbekistan. While our Central Asia 
partners continue to seek United States engagement, Russia, China, and 
Iran continue to discourage cooperation and engagement between Central 
Asian countries and the United States. Despite this pressure, several 
CASA governments continue to support the transit of supplies to United 
States troops in Afghanistan and engage the United States on shared 
interests related to access, border security, counter-terrorism, 
counter-narcotics, and counter-insurgency.
    Our Central Asian partners remain concerned about the long-term 
stability of Afghanistan and Pakistan as well as the specter of 
returning foreign terrorist fighters to their home countries. We are 
postured not only to help them address transnational threats, but also 
to continue to develop our military-to-military relationships in the 
CASA sub-region. In support of these efforts, our two major forums that 
promote military cooperation, the CASA Directors of Military 
Intelligence Conference and CASA Chiefs of Defense Conference, are 
developing beyond ceremonial affairs into venues that encourage free-
flowing military-to-military communication and seek practical solutions 
to security challenges. These efforts, in addition to our operations in 
Afghanistan, will ensure that CENTCOM continues to support the 
Administration's South Asia Strategy in the CASA sub-region with a 
long-term, regional approach.
    The United States-Kazakhstan relationship is our most advanced 
military relationship in Central Asia. We are making notable progress 
as the Kazakhstani Ministry of Defense focuses on institutional reform 
of its Non-Commissioned Officer (NCO) corps, human resources 
administration, and its professional military education system. 
Reliance on Russian-produced equipment presents challenges to 
developing a more robust defense sales relationship. Despite these 
challenges, Kazakhstan looks to the United States to balance, not 
replace, Russian and Chinese influence through a multi-vector foreign 
policy, which allows more security cooperation possibilities.
    The Kyrgyz Republic has increasingly aligned its interests with 
Russia and China. The United States-Kyrgyz security relationship has 
declined since the closure of the Manas Transit Center and the 
termination of the bilateral Defense Cooperation Agreement in 2014. 
Despite the Kyrgyz armed forces' desire to improve military-to-military 
cooperation with CENTCOM, Kyrgyz senior civilian leaders have shown 
little interest in improving military relations.
    Tajikistan remains a key United States partner in Central Asia due 
to its 800-mile border with Afghanistan. While United States-Tajik 
relations are positive, Russia is increasingly impinging on United 
States influence and spreading inaccurate information about Afghanistan 
and the region. Tajikistan is Central Asia's poorest country, and its 
armed forces are habitually under-funded and ill-equipped, which 
complicates our efforts to help the Tajiks build and sustain long-term 
security capacity. Moreover, the Russian forces at the 201st Military 
base located outside of Dushanbe loom large on the political and 
military landscape. The Tajik Government also depends heavily on 
foreign assistance and on the remittances of its migrant laborers 
working in Russia, giving Moscow considerable leverage over the 
country. Despite all of these challenges, CENTCOM continues cooperation 
with Tajikistan focused on border security, counter-terrorism, and 
counter-drug trafficking. Tajikistan is a major transit point for 
Afghan opiates; our efforts to help strengthen Afghan-Tajik border 
security are important to reducing the drug trade that funds the 
Taliban and destabilizes the region.
    Turkmenistan is an important nation due to its strategic geographic 
location between Europe and Afghanistan. Turkmenistan, as other Central 
Asian states, is concerned about instability in Afghanistan and thus 
supports international counter-VEO, counter-terrorism, and border 
security efforts. Currently, we are building our partnership with 
Turkmenistan through medical exchanges.
    Uzbekistan remains a key United States partner in Central Asia due 
to its strategic geographic location at the heart of Eurasia and 
proximity to Afghanistan. Over the past year, Uzbekistan experienced a 
relatively smooth succession of power from the late President Karimov 
to President Shavkat Mirziyoyev, who has instituted a number of reforms 
as Uzbekistan's second president since independence in 1991. Our 
bilateral relations serve to counter Russian and Chinese influence in 
the region. Russia exercises a degree of political and economic 
influence, yet the Uzbeks continue to pursue a strategic relationship 
with the United States Uzbekistan has been a relatively closed society, 
but we are now seeing positive changes within Uzbekistan that are 
leading to improved military-to-military relations, to include 
increased military professionalization and training. CENTCOM is also 
working to improve its military's logistics and sustainment systems to 
better support previously transferred U.S. defense equipment. We also 
continue efforts to bolster Uzbekistan's Special Operations Forces.
    Countering Violent Extremist Organizations. Another critical 
objective from the NDS is to prevent terrorists from directing or 
supporting external operations against the U.S. Homeland, allies, and 
partners. In the past year, Operation Inherent Resolve has achieved 
remarkable success against ISIS in Iraq and Syria. The ISF and SDF are 
operating at their most effective levels since the operation began. 
Millions of IDPs have returned home and are starting to rebuild. The 
destruction of ISIS' so called physical ``caliphate'' is imminent, but 
now we must consolidate gains by investing in the population that will 
hold this territory and keep ISIS from returning. The United States 
Strategy for Iraq contains four primary objectives: stabilize Iraq, 
limit Iran's influence and its use of Iraq to shape the Middle East, 
achieve a stable Iraq economy, and sustain an enduring relationship 
with the ISF. We must now look to how we effectively resource these 
objectives along with the President's objectives in Syria.
    The Coalition's campaign to defeat ISIS has had considerable 
success. Coalition airstrikes have killed hundreds of ISIS leadership 
figures and facilitators in Iraq and Syria, which has disrupted ISIS' 
command and control network; degraded its use of unmanned aerial 
systems (UAS); reduced its ability to conduct research and development, 
procurement, and administration; and denied sources of funding for 
terrorist activities. These losses have undermined ISIS' ability to 
conduct attacks throughout the region and the world. With the loss of 
terrain and the liberation of the population, ISIS can no longer 
generate funding through extortion and taxation. Additionally, 
airstrikes and ground operations have crippled and seized hydrocarbon 
generating facilities and facilitation routes that moved and supplied 
ISIS fighters and supported illicit oil sales. We have also degraded 
ISIS media operations; the most recent version of their monthly online 
terror magazine ``Rumiyah'' was last published in September 2017.
    In Iraq, the ISF fought a vicious, urban battle to liberate Mosul, 
with ISIS providing stiff resistance using tunnels, vehicle-borne 
improvised explosive devices (VBIEDs), and unmanned aerial systems. The 
liberation of Mosul provided the ISF with the momentum that led to the 
quick liberation of Tal Afar and Hawijah. Our partnership with the ISF 
is an excellent example of the successful application of the ``by, 
with, and through'' approach. Using a minimal number of U.S. and 
Coalition advisors, we enabled the ISF with robust communications, 
logistics, intelligence, and precision fires. Iraqi forces led from the 
front in each operation, and their success elevated their legitimacy 
with the population.
    There remain enduring political and cultural challenges in Iraq. 
Reconstruction, discontent with corruption and any delay of rebuilding 
efforts as well as the Kurdistan stand-off could fuel future 
instability. ISIS' reversion to an underground insurgency will remove 
the greatest unifying factor among Iraq's competing factions and may 
reignite unresolved grievances. In the post-ISIS period, the GoI will 
be challenged to rebuild Sunni areas while balancing competing security 
demands, enacting government reforms, and managing tensions among 
Iraq's political factions. The KRG remains a strategic partner and 
their negotiations with Baghdad for a peaceful settlement are critical 
to ensure the disputed territories are not further complicated by 
intra-Iraq divisions.
    In Syria, the fight against ISIS has been complicated by the 
multiple countries involved in the conflict, many of whom have widely 
divergent interests. Syrian President Bashar al Assad remains in power, 
and, due to military support from Russia, Iran, and Lebanese Hizballah 
(LH), is attempting to bring all of Syria under regime control. In 
2017, the regime made significant territorial gains in central and 
eastern Syria, culminating in reducing opposition enclaves in western 
Syria and seizing urban centers from ISIS along the western bank of the 
Euphrates River from ISIS. Nevertheless, the Assad regime has 
insufficient forces to adequately secure recaptured territory and often 
faces insurgent counterattacks behind its lines. The regime is highly 
dependent on billions of dollars in external Iranian and Russian 
economic and military support, the cost of which press both Moscow and 
Tehran to seek an end to the conflict.
    The intervention of the Coalition and regional powers in the Syrian 
conflict has blocked Assad's ability to recapture major portions of 
northern Syria, and entrenched opposition fighters and VEOs across 
Syria continue to challenge regime control. Diplomatic efforts to 
establish de-escalation zones were most successful in a deal negotiated 
between Russia, the United States, and Jordan in southwest Syria. 
Russian and Iranian-led Astana talks have been far less successful, and 
Russian bombardment of the Astana agreed de-escalation zone in East 
Ghouta calls into question Moscow's sincerity in guaranteeing the 
security of these areas. There has been some success, often under UN 
auspices, to negotiate on humanitarian issues, but Syrian regime 
recalcitrance to allow aid deliveries is probably driven by Assad's 
choice to use starvation as a weapon of war. Assad's reluctance to 
negotiate directly with the Syrian opposition, and Moscow's reluctance 
to force him to do so, indicates significant challenges lie ahead in 
forging a political resolution to the conflict.
    For the Coalition, the SDF's liberation of ISIS' capital Raqqah in 
October 2017 was a significant turning point in the conflict. The SDF, 
which is composed of local Sunni Arabs and Kurds, has been a valuable 
partner in the fight against ISIS, and they sacrificed greatly to 
liberate large portions of their country. Simultaneous operations by 
the SDF in Syria and the ISF and PMF in Iraq effectively isolated ISIS 
remnants in the Middle Euphrates River Valley (MERV) and along the 
Syrian side of the Iraq-Syria border where both forces are currently 
conducting operations to kill or capture all remaining ISIS fighters.
    Pro-Regime Forces (PRF) and Russia also continue to operate in the 
MERV as they isolate ISIS fighters south of the Euphrates River, though 
Assad's decision to prematurely withdraw his forces has likely given 
valuable breathing room to ISIS on the western side of the river. With 
PRF operating in close proximity to Coalition-backed forces in the 
MERV, de-confliction measures are vital, and we have worked closely 
with Russia to prevent accidental strikes and to ensure the safety of 
the various forces on an increasingly complex battlefield. The 
Coalition does not seek to fight the Syrian regime, Russian or pro-
regime forces partnered with them. While the deconfliction efforts have 
been largely effective, the Coalition recently demonstrated its 
commitment to defend United States and partner forces operating in 
Syria by striking PRF that conducted an unprovoked attack on SDF and 
Coalition forces. We will continue to do so, as necessary.
    Though our partnership with the SDF is critical to defeating ISIS 
in Syria, it has created challenges with our NATO ally Turkey, who 
views the Kurdish People's Protection Units (YPG) elements within the 
SDF as analogous to the PKK terrorist group. United States Special 
Operations forces have been working with vetted elements of the SDF for 
several years to defeat ISIS. Our assistance to the SDF has been 
focused on this goal, and we have included safeguards and transparency 
measures to ensure it does not physically threaten Turkey. In January, 
Turkey began air strikes and ground incursions into the predominantly 
Kurdish enclave of Afrin, where CENTCOM has no presence or direct 
relationships in northwest Syria, in an attempt to, according to the 
Government of Turkey, ``remove the terrorist threat from its border.'' 
Though we have no relationship with YPG fighters in Afrin, who 
previously cooperated with Russia and the regime, these operations 
directly impact our ability to affect a lasting defeat against ISIS 
through the SDF. Many fighters in the SDF have familial ties to the 
Kurds in Afrin, and they are now forced to choose between completing 
operations against ISIS fighters in the MERV and assisting their fellow 
Kurds in northern Syria. Our alliance with Turkey is paramount, and we 
will continue to assist the Turkish military in countering the PKK and 
other VEOs that threaten their border, but we must continue to urge 
restraint as their actions have clearly increased risk to our campaign 
to defeat ISIS.
    Amidst the visible damage caused by the Syrian civil war, the 
country has also witnessed a far less-publicized change: democratic 
organizations in the form of local civil councils have assembled in 
places previously controlled by ISIS. These councils are providing the 
necessary basic functions of governance and starting to rebuild their 
war-torn communities. These ad-hoc democratic organizations come in 
various forms and engage in a range of activities from providing the 
most basic services to rallying the population against the re-emergence 
of VEOs. For example, in the cities of Manbij and Raqqah, local 
councils ran civic campaigns against ISIS in concert with more moderate 
rebel groups, providing a two-pronged strategy that ultimately 
prevented ISIS from regaining a foothold in these areas. In other parts 
of Syria, councils have developed a more sophisticated capacity and are 
building roads, repairing sewage lines, and holding local elections. As 
Secretary of State Tillerson has said, ``Interim local political 
arrangements that give voice to all groups and ethnicities supportive 
of Syria's broader political transition must emerge with international 
support.'' Any interim arrangements must be truly representative and 
must not threaten any of Syria's neighboring states. Similarly, the 
voices of Syrians from these regions must be heard in Geneva and in the 
broader discussion about Syria's future.'' The key to the success of 
these groups is their ability to maintain legitimacy among the 
populace.
    Although these local councils have made great strides, they can 
only provide aid and assistance to the population at the pace at which 
they receive it. As we enable local solutions to local problems, 
supporting these local councils with our full range of Department of 
Defense, interagency, and Coalition capabilities will help them 
maintain popular support and set conditions for enduring, stable 
governance.
    A significant challenge we face as we complete the defeat of ISIS 
is the repatriation of hundreds of foreign fighters to their home 
countries. The SDF and ISF are both holding several hundred fighters 
from a number of different countries in prisons or temporary detention 
facilities, with no clear process for prosecution or repatriation. The 
longer these fighters remain in detention together, the greater danger 
they pose as they form new connections, share lessons learned, and 
prepare to re-establish networks upon their release or escape. This 
urgent problem requires a concerted international effort involving law 
enforcement, intelligence sharing, and diplomatic agreements.
    Yemen is another area where VEOs pose a threat to the Homeland. The 
civil war continues unabated and the humanitarian crisis worsened in 
the last year. Saudi Arabia and the UAE continue to lead a coalition 
supporting Yemeni President Abdrabbuh Mansour Hadi, and despite 
attempts to reestablish itself in Aden, some elements of the Republic 
of Yemen Government (ROYG) remain in Riyadh, Saudi Arabia. Houthi 
forces control Yemen's capital, Sana'a, and are undeterred in their 
efforts to retain key territory and attack the Saudi coalition. The 
civil war has severely affected Yemen's population, with nearly 80 
percent of the population requiring urgent humanitarian assistance. 
Similarly, its economy has been devastated by insecurity, extremely 
high unemployment (35 percent) and near cessation of its petroleum 
industry. Neither the Houthis nor the exiled Hadi Government has the 
ability to govern effectively. In December 2017, the relationship 
between previously aligned Houthis and former President Ali Abdullah 
Salih disintegrated and culminated with Salih's assassination by his 
former allies. It is unclear if the Saudi-backed Hadi faction can 
capitalize on these events, and Salih's forces have splintered, adding 
continued chaos.
    Terrorist groups like AQAP and ISIS-Yemen continue to maintain a 
presence in Yemen and are focused on attacks against ROYG, the Saudi 
coalition, and Houthi targets. Since mid-2014, ISIS-Yemen has leveraged 
the chaotic security situation to expand its capabilities and conduct 
intermittent attacks against Saudi coalition and Yemeni security 
targets in Aden. AQAP still aspires to threaten Western interests with 
high-profile attacks, although United States and Saudi coalition 
strikes have removed successive levels of leadership and logistics 
support, critically damaging their network. Our Emirati partners have 
also played a key role in countering the threat from AQAP and ISIS-
Yemen in southern Yemen.
    The conflict in Yemen has opened opportunities for Iran, which 
continues to provide support to the Houthis with the aim of building a 
proxy to pressure the Saudi-led coalition and expand its sphere of 
influence. This support enabled the Houthis to launch missiles at Saudi 
Arabian and Emirati cities and target ships in the Bab al Mandab and 
Red Sea on multiple occasions in the last year, threatening Americans 
and our partners and raising the risk of broader regional conflict.
    CENTCOM is partnering with the Saudi-led coalition to help maintain 
a favorable regional balance. Our goal is to ensure that nations in 
close proximity to Yemen are able to secure their borders and safeguard 
their populations while negotiations lead to a cessation of hostilities 
between Houthis and the ROYG. Saudi Arabia has announced that it is 
working to facilitate the movement of humanitarian assistance, food, 
and fuel by opening ground and air avenues from Saudi Arabia into 
Yemen, utilizing additional ports, and partnering with NGOs to provide 
humanitarian and medical assistance.
    The Levant, which includes the countries of, Syria, Israel, Jordan, 
and Lebanon--and Iraq and Egypt remain an active area for CENTCOM 
theater security cooperation and partnership due to instability 
stemming from the Syrian Civil War, the rise of ISIS, and malign 
Iranian influence. Though the scourge of ISIS is receding, Levantine 
countries remain under threat of attack, as seen in Egypt where ISIS-
Sinai continues to carry out barbaric attacks against civilians and 
Egyptian security forces, including the November murder of over 300 
citizens in prayer at a mosque in northern Sinai. United States 
assistance to our partners in the Levant has enabled improved border 
security in Lebanon and Jordan. The Lebanese Armed Forces (LAF) 
demonstrated this kinetically in August--expertly routing ISIS fighters 
on their eastern border during Operation Dawn of the Hills.
    In Jordan, the Jordanian Armed Forces (JAF) remain a dedicated 
partner, providing access, basing, and overflight essential to 
furthering U.S. interests in the region--we must ensure we do not take 
them for granted. Though the GOJ and the JAF have successfully handled 
security concerns and domestic stability challenges, regional turmoil 
and persistently low economic growth rates have led to rising 
unemployment and high national debt. Additionally, Jordan currently 
hosts approximately 660,000 UN-registered Syrian refugees and 63,000 
Iraqi refugees, straining government resources, services, and 
infrastructure. Despite this strain, the GOJ recently facilitated 
critical humanitarian support to the Rukban IDP camp on the Syrian side 
of the border. Continued commitment to funding Title 10 programs, in 
addition to FMF and economic and humanitarian assistance, enables 
Jordan to mitigate its humanitarian and economic difficulties, while 
remaining a capable partner in coalition efforts. The JAF is also 
contributing to stabilization efforts in OIR, including reopening the 
Turaybil / Karama border crossing with Iraq in August 2017, a key step 
in normalizing relations and restoring trade between the two countries.
    Lebanon is critical to our national security interests and 
exemplifies our challenges in the Middle East. Wedged between a key 
friend in the region, Israel, and a corridor of Iranian influence from 
Tehran through Iraq and Syria, Lebanon has managed to remain relatively 
stable in a region embroiled in conflict. However, Lebanon faces a 
stagnant economy, a Syrian refugee crisis, and the growing influence of 
Hizballah, which holds a de-facto veto on Lebanese policy decisions due 
to their strategic political alliances, omnipresent threat of violence, 
strength as a social service provider, and financial support from Iran. 
Furthermore, the possibility of an Israel-Hizballah conflict is a 
constant threat to the stability of Lebanon and security of Israel.
    Our effort to strengthen the Lebanese security forces, especially 
the LAF, as the country's only legitimate security provider is a 
critical aspect of our policy to promote Lebanese sovereignty and 
security. With successful operations like Dawn of the Hills, the 
Lebanese people are realizing more and more that the LAF, their 
country's most trusted and respected institution, is increasingly 
capable of protecting them from external threats. The United States is 
the LAF's top security assistance partner, and our consistent, long-
term commitment and training efforts, in addition to the more than $1.7 
billion in security assistance provided since 2006, have successfully 
modernized and strengthened the LAF as a fighting force. U.S. Special 
Operations military and civilian personnel have forged a strong 
relationship with the LAF and enhanced their capabilities, making them 
a capable partner in our regional counter-terrorism campaign. During 
the most recent military operations against ISIS, United States 
military personnel assisted the LAF in planning and conducting combined 
arms maneuver, aerial reconnaissance, and integrated fires. Since our 
security assistance began, Lebanon has maintained an exemplary track-
record for adhering to regular and enhanced end-use monitoring 
protocols. We are confident the LAF has not transferred equipment to 
Hizballah. Nonetheless, we are concerned about Hizballah's efforts to 
infiltrate Lebanon's security institutions and have made clear that any 
cooperation with Hizballah will risk our continued cooperation and 
assistance.
    On the western edge of the CENTCOM area of responsibility, Egypt 
remains an anchor of United States interests in the region given its 
strategic location, demographic heft, religious and cultural influence, 
and its enduring peace treaty with Israel. Egypt is an essential 
partner in countering the flow of foreign fighters, materiel, and 
financial support to extremists transiting from Libya through Egypt 
into the Central Region. Egypt supports our overflight requests, 
ensures Suez Canal transit, and shares our commitment to defeat ISIS. 
The cornerstone of this relationship is our security assistance 
partnership. In one example of our intensifying joint efforts, in 
January 2018, we celebrated the successful signing of the bilateral 
Communications Interoperability and Security Memorandum of Agreement 
(CIS MOA), crowning over thirty years of effort to enhance security and 
counterterrorism cooperation.
    ISIS-Sinai continues to conduct daily attacks against the Egyptian 
Armed Forces (EAF) and security services, causing hundreds of 
casualties, while other extremist organizations have carried out 
attacks on the mainland. The United States commitment to continuing to 
support Egypt in this fight against terrorism, in bringing security for 
the Egyptian people, is steadfast. Until now, the EAF has contained 
most of the violence in the northeastern Sinai Peninsula; however, 
without a comprehensive whole-of-government strategy to defeat ISIS-
Sinai, the threat will persist and grow. The United States is committed 
to working with Egypt to develop a comprehensive counter-insurgency 
strategy that addresses the underlying political, economic, and social 
conditions that give rise to extremist elements, while defeating the 
threats that plague Egypt and the region.
    Through our partnership efforts, we have observed improvement in 
the security of Egyptian maritime and land borders. The EAF has shown 
some success stemming the flow of fighters and illicit material into 
Israel and the Central Region. We will look to strengthen our security 
cooperation partnership through continued engagement and with 
development of their counterterrorism/counter-insurgency strategy and 
capabilities, including the prioritization of FMF toward appropriate 
defense articles and training. In fiscal year 2016 and fiscal year 
2017, Congress appropriated up to $1.3 billion in FMF and $1.8 million 
in IMET. As a sign of our continued support of Egypt's efforts, the 
President requested Congress continue to provide $1.3 billion in 
military assistance for Egypt in fiscal year 2018, despite the 
increasingly constrained budget environment. Moreover, the United 
States and Egypt have elevated the strategic nature of the assistance 
relationship through mechanisms such as our Military Cooperation 
Committee and Defense Resourcing Conferences. Through these means we 
help Egypt plan for its security needs on a long-term basis.
    Countering Iranian Expansionism. Countering the Iranian regime's 
malign influence in the region is a key component of our efforts to 
defend allies from military aggression, bolster our partners against 
coercion, and share responsibilities for the common defense. Our 
relationships with the GCC countries play a key role in this effort.
    Iran is generating instability across the region, and the Iranian 
Threat Network (ITN) continues to increase in strength, enhancing its 
capacity to threaten United States and partner nation interests. 
Concurrently, the Iranian regime continues to maintain longstanding 
criticisms that the United States is a source of instability in the 
Middle East and cannot be trusted. While the International Atomic 
Energy Agency reports that it continues to monitor and verify Tehran's 
implementation of its JCPOA nuclear-related commitments, Iran continues 
to express frustration with the degree and pace of sanctions relief 
under the JCPOA and has publicly criticized United States statements 
regarding continued participation in the JCPOA. Iran seeks expanded 
economic, and in some cases diplomatic, engagement with the 
International Community to achieve what it views as the full benefits 
of sanctions relief afforded under the deal. The United States is 
upholding its JPCOA commitments and has made clear that Iran's economic 
troubles stem not from issues related to JCPOA implementation, but from 
internal economic mismanagement, a weak banking sector, and widespread 
corruption, among other factors.
    Over the past year, Iran has focused its regional efforts primarily 
on operations in Syria and Iraq to expand its influence in the region 
and secure supply routes to Hizballah to threaten Israel. Iran has 
provided increasingly sophisticated maritime and missile attack 
capabilities to the Houthis in Yemen. Additionally, Iran continues 
smaller-scale support to other groups such as Bahraini Shiite 
militants, Gaza militants, and the Afghan Taliban. It remains wary of 
U.S. and coalition intentions throughout the region, and continues to 
engage Western nations in the ``gray zone,'' rather than through direct 
conflict.
    Iran will continue to pursue policies that threaten United States 
strategic interests and goals throughout the Middle East while seeking 
to expand diplomatic and economic relations with a wide range of 
nations. Leaders in the Islamic Revolutionary Guard Corps--Quds Force 
(IRGC-QF) have taken advantage of surrogates, businesses, and logistics 
entities to execute direct action, intelligence, influence building, 
terrorism, and cyber operations against the U.S. and our partner 
nations. By supporting proxies in the fight against ISIS in Iraq and 
Syria and against the Saudi coalition in Yemen, Tehran seeks to gain 
lasting influence and indebted allies in each country. The conflict in 
Syria has also proven the ITN's expeditionary capacity; fighters from 
Iraq, Afghanistan, Pakistan, and Lebanon wage war there solely at 
Iran's behest. After the current conflicts abate, the ITN will 
undoubtedly turn its attention to other adversaries; future flashpoints 
could occur wherever there is a United States or allied presence.
    Iran continues to acquire and develop increasingly lethal weapons 
to raise the cost of direct military conflict. The expansion of Iran's 
military capabilities over the last decade enables Tehran to threaten 
international trade and regional stability throughout the Gulf and 
beyond. Production of advanced military equipment and threats to the 
free flow of commerce through the Strait of Hormuz are intended to 
challenge the U.S. enduring presence in the region. Iran's military is 
composed of approximately 700,000 personnel divided into two separate 
militaries: the Islamic Republic of Iran Armed Forces (Artesh) and the 
Islamic Revolutionary Guard Corps (IRGC), which both continue to 
improve. Iran's ground forces are improving their ability to quickly 
mobilize and deploy in response to internal and external threats. Iran 
has also advertised the development of quick reaction forces, 
consisting of armor, artillery, and heliborne assets that can deploy 
within 4 hours.
    Iran postures its forces and supports proxies to threaten--or be 
able to threaten--strategic locations like the Bab al Mandeb, Strait of 
Hormuz, and oil platforms. With little warning, Iran could quickly 
close the Strait of Hormuz using stockpiles of naval mines and disrupt 
key maritime chokepoints throughout the region. Iranian surface to air 
missiles (SAMs) along its littoral pose a significant threat to United 
States Intelligence, Surveillance, Reconnaissance (ISR) assets 
operating in international airspace. During 2017, Iran's capabilities 
improved with the deployment of advanced S-300 long-range SAM systems 
provided by Russia.
    Additionally, Tehran continues to increase its strategic power 
projection capability with its expanding ballistic missile force. Iran 
has the largest missile force in the Middle East, which can range 1,200 
miles and reach key targets in the region. Iran is continuing to 
increase the range, precision, and lethality of these missile systems. 
Tehran relies on these systems to deter adversaries and provide a 
reliable retaliatory capability against neighbors and United States 
Forces.
    Iran intends to expand its regional influence, counter Saudi 
Arabia, threaten Israel, and maintain a capability to threaten 
strategically important maritime transit routes in the Bab al Mandeb, 
Strait of Hormuz, and the Gulf. On a positive note, over the past year, 
we have seen an overall reduction in unprofessional Iranian actions 
toward United States and coalition vessels; such interactions decreased 
by 36 percent from 2016 to 2017.
    To counter Iranian expansionism and destabilizing activities, 
CENTCOM will deter conventional Iranian aggression, bolster our network 
of allies and partners, and compete for influence throughout the 
region. Our forces maintain a high level of readiness at bases across 
the region and consistently patrol the waterways--this persistent 
presence deters Iranian conventional military attacks against our 
allies and protects international sea lanes. By improving our Arab 
partners' capacity to defend themselves and encouraging them to work 
together as a coalition, we also create a bulwark against Iranian 
aggression and proxy warfare.
    Our efforts to compete to be the partner of choice for our Gulf and 
Levant partners further weakens Iranian threat networks and limits 
Tehran's malign political, economic, and military influence. This is 
especially crucial in Iraq, where Baghdad must work with Iran as a 
neighboring state, but limit Tehran's manipulation and infiltration of 
political parties and government institutions. We must continue to be a 
reliable partner to the ISF to build their capacity to provide internal 
security and protect their borders. Ongoing stabilization efforts that 
strengthen Iraqi social and economic institutions will also impede 
Iran's ability to negatively influence our Iraqi partner.
    On the Arabian Peninsula, GCC states are among the United States' 
best partners in the region and a counter-balance to Iran. The 
virtually unhindered access, basing, and overflight approvals from our 
Gulf partners, as well as their contributions of troops and airlift 
have been critical to the success of Defeat-ISIS operations over the 
past year. The GCC also represents the most promising baseline effort 
for promoting collective defense initiatives, including joint counter-
terrorism and ballistic missile defense. As they look to the United 
States for military equipment, training, and assistance, it is 
essential we seek opportunities to include GCC partners in our combined 
efforts to defeat regional threats posed by extremism and Iran's 
burgeoning influence. However, the most significant complicating factor 
in the unified deterrence to Iranian malign activity is the still-
unresolved rift between Saudi Arabia, UAE, Bahrain, and Egypt with 
Qatar. While efforts to reduce the impact on military-to-military 
relationships among the Gulf States have been largely successful, the 
rift continues to present challenges in the political sphere.
    Within the GCC, the Kingdom of Saudi Arabia (KSA) is undergoing 
potentially far-reaching changes in social, economic, and security 
spheres under the banner of Vision 2030 and the National Transformation 
Plan, which includes wide ranging fiscal and cultural liberalization. 
This could alter the dynamics of the Saudi economy. King Salman's 
appointment of his son Mohammed bin Salman as the Crown Prince, the 
purported anti-corruption campaign, and recent Saudi efforts to 
influence Lebanon have exacerbated an environment of uncertainty in the 
kingdom's future.
    Saudi Arabia remains embroiled in the conflict in Yemen, which 
appears to be at an impasse in terms of a political or diplomatic 
solution with the Houthis. To assist with the military aspects of the 
conflict, we have increased the number of advisors to the Saudi 
military over the past year to help improve command and control and 
formalize targeting processes. These additional training and advisory 
efforts will help mitigate incidents of avoidable civilian casualties 
in Yemen.
    The United Arab Emirates' strategic location, vast natural 
resources, willingness to engage terrorist organizations, and ambition 
to be at the forefront of military innovation makes them a valuable 
partner. The UAE was among the first countries to join the Defeat-ISIS 
Coalition. Although its military role tapered off when its resources 
shifted to Yemen in March 2015, Abu Dhabi remains active in pursuing 
many of the Coalition's lines of effort, including counter-ISIS 
messaging, stabilization, countering ISIS financing, and stemming the 
flow of foreign fighters.
    Bahrain hosts CENTCOM's naval component and CMF and has publicly 
supported the Defeat-ISIS effort, including allowing United States 
forces to conduct counter-ISIS strikes from its territory. In Yemen, 
Bahrain's air, land, and sea forces participated in Saudi-led coalition 
operations against AQAP and the Houthis; these deployments have 
improved the overall readiness of the Bahrain Defense Force. We 
continue to make strides in our collaborative efforts to enhance the 
Bahraini Coast Guard's capacity and expand Bahrain's role in countering 
piracy and violent extremism in the region's maritime domain.
    Internally, Bahrain is dealing with a domestic economy negatively 
impacted by low oil prices, political discord, and a persistent, low-
level threat from Iranian-backed militant groups. We continue to 
provide appropriate assistance to help it address security threats. 
Prior restrictions on FMS to Bahrain created tension in the bilateral 
relationship; recent movement on key FMS cases, however, has provided 
renewed strength in military and political ties with Bahrain. We 
continue to reassure our Bahraini counterparts that we remain committed 
to our partnership, while also encouraging them to respect freedom of 
expression and pursue dialogue with the nonviolent political 
opposition.
    The Government of Kuwait continues to provide a critical 
environment within the Central Region for access, basing, and 
overflight in support of U.S. and coalition operations and hosts the 
forward headquarters of CENTCOM's army component, U.S. Army Central 
Command. Kuwait is also CENTCOM's primary logistics gateway for 
movement into and out of the region.
    Over the last 20 years Qatar has provided the United States with 
invaluable regional access through basing and freedom of movement for 
United States Forces at Camp As-Sayliyah and Al Udeid Air Base--home to 
the Combined Air Operations Center, U.S. Air Forces Central Command, 
U.S. Special Operations Command Central Forward, and the CENTCOM 
Forward Headquarters. Qatar hosts approximately 10,000 United States 
servicemembers, and aircraft launched from Al Udeid Air Base support 
operations throughout the region.
    While the rift has had little direct impact on U.S. operations, it 
has imposed significant restrictions on Qatar's freedom of movement in 
the region through the closure of land borders and air space. 
Additionally, it has impacted Qatar's participation in Gulf state-
hosted multilateral exercises and eroded coalition building efforts. It 
has also proven to be a distraction from Saudi-led operations in Yemen. 
In a concerning development, the rift has pushed Qatar to become more 
reliant on Iran and less connected to the GCC.
    Despite its small size, Qatar has contributed to coalition 
operations throughout the region, including against ISIS, and seeks to 
expand its participation in other regional coalitions. Qatar is 
currently the second largest FMS customer in the world with $25 billion 
dollars in new cases and is on track to surpass $40 billion dollars in 
the next 5 years with additional FMS purchases. Qatar's efforts to 
expand its military both in size and capacity have resulted in 
increased bilateral military engagements between CENTCOM and the Qatari 
Armed Forces. This gives the United States an invaluable opportunity to 
make a positive impact on the military development of a key partner in 
a turbulent region.
    The Sultanate of Oman's relationship with the United States remains 
strong, and Oman continues to play a constructive role in regional 
diplomatic issues, including serving as an interlocutor for the United 
States in dealing with Yemen, Iran, and the GCC. However, unless the 
government successfully makes policy changes to constrain government 
spending and attract foreign investment, Muscat will likely face an 
economic crisis in the next few years. Oman's strategic location 
provides CENTCOM with key logistical, operational, and contingency 
capabilities; it provides important access in the form of over 5,000 
aircraft overflights, 600 aircraft landings, and 80 port calls 
annually. The Omani military also participates in numerous bilateral 
exercises and training events on a yearly basis.
             required programs, capabilities, and resources
    In order to ensure we can effectively execute the NDS and protect 
our national interests, we must be properly postured, alongside our 
interagency partners, with the necessary policies, capabilities, and 
resources to address the challenges and capitalize on the opportunities 
mentioned above. To this end, CENTCOM requires specific means in the 
form of programs, capabilities, and resources. We sincerely appreciate 
Congress' continued support for fiscal authorities and appropriations 
required to support on-going theater operations, as well as the 
increased responsiveness of the USG in tackling the challenges inherent 
to the Central Region's complex environment.
    Building Partner Capacity (BPC). The Counter-ISIS Train and Equip 
Fund (CTEF), Afghan Security Forces Fund (ASFF), Combatant Commanders 
Initiatives Fund (CCIF), Coalition Support Fund (CSF), and Commander's 
Emergency Response Program (CERP) have been key enablers to the 
battlefield successes the Coalition achieved in disrupting and 
dismantling ISIS and the Taliban. Your approval and increase in ASFF 
funding to support Afghan Aviation modernization allowed the ANDSF to 
begin closing their gaps in aerial fires and lift capability and 
reduced their reliance on United States and Coalition forces, while 
also making them more lethal against the Taliban and ISIS-K.
    In Syria, CTEF-procured equipment and supplies provided to the 
Vetted Syrian Opposition (VSO) like the SDF have been instrumental to 
their success against ISIS. We will continue to use Overseas 
Humanitarian, Disaster, and Civic Aid (OHDACA) and other humanitarian 
and civic assistance funding to improve conditions and access for other 
U.S. federal and international aid organizations' follow-on missions. 
These authorities must respond in a timely manner to environmental and 
operational challenges. We continue to prioritize our needs based on 
our most critical requirements, coalition and interagency capabilities, 
and the conditions on the ground.
    In Iraq, the success of the ISF in dismantling the physical 
caliphate and the fragmentation of the ISIS hybrid-conventional force 
over the past year is a validation of our Coalition's BPC effort. As we 
reduced major combat operations, the authorities granted to the Office 
of Security Cooperation--Iraq (OSC-I) were expanded to cover critical 
sustainment efforts. These authorities allow OSC-I to work with all ISF 
that are posturing to battle a potential insurgency and secure their 
border with Syria. OSC-I is currently executing programs to enhance 
professionalization of the ISF along with prudent implementation and 
oversight of FMF. In fiscal year 2018, OSC-I will leverage $42 million 
in authorities to transform the ISF into a sustainable, affordable, and 
effective force through security sector reform and security cooperation 
efforts.
    CENTCOM efforts to implement and focus BPC initiatives yielded 
increased capabilities to support security cooperation and partner 
nation goals. The section 333 authority also authorizes funds to be 
available for two fiscal years and program sustainment for up to 5 
years, allowing for execution of long-lead time programs without cross-
fiscal year constraints and improved program maintenance, training, and 
sustainment support.
    The CENTCOM Exercise and Training Program continues to be one of 
the most cost effective and efficient tools to conduct security 
cooperation engagement with partner nations throughout the region. 
Every exercise, including the planning process, provides an opportunity 
to demonstrate U.S. resolve in the region, strengthen partnerships, 
promote cooperation among our partners, conduct key leader engagements, 
and sustain and improve both joint and combined readiness. The program 
continued to grow in complexity and relevance with extended 
participation throughout the CENTCOM region during fiscal year 2017 and 
into fiscal year 2018.
    CENTCOM executed 53 bilateral and multilateral exercises during 
fiscal year 2017 with 42 partner nations, spanning seven Combatant and 
Functional Commands. This enhanced U.S. Joint Force capability supports 
theater-wide contingency operations and sustains U.S. presence and 
access in the region. Other program impacts include improving partner 
nation interoperability through military-to-military engagement, 
integrating staff planning, executing Joint and Combined operations, 
developing coalition warfare, and refining complementary partner 
warfare capabilities given conflicts that are increasingly trans-
regional, multi-domain, and multi-functional in nature.
    However, continued force reductions in the area of responsibility, 
as well as the increased operational use of forces remaining in 
theater, threaten the viability of the CENTCOM Joint Exercise Program. 
Exercises like Eager Lion--the largest CENTCOM exercise--are routinely 
affected by reductions in participating forces or threatened with 
cancellation due to competing requirements for operational forces. 
Mitigation is limited with current exercise program funding levels that 
provide restricted air/surface options for movement of out-of-theater 
(CONUS) based forces to participate in exercises.
    Forces and Equipment: The Key to Interoperability. With the greater 
focus on operations ``by, with, and through'' our partners to 
accomplish common objectives, interoperability is increasingly 
important, and our BPC and FMS programs remain instrumental to this 
process. The ``total package'' approach with which we pursue equipment 
support and long-term sustainment ensures that maintenance support and 
training are a part of the FMS plan from the outset.
    However, due to political considerations, cost, or delivery speed, 
some of our partners are seeking alternate sources of military 
equipment from near-peer competitors like Russia and China. When our 
partners go elsewhere, it reduces our interoperability and challenges 
our ability to incorporate their contributions into theater efforts.
    CENTCOM must also remain prepared for major unforeseen 
contingencies and crises; prepositioned war reserve materiel is a 
critical equipment enabler as we posture to address emerging and 
unforeseen threats. The tyranny of distance between our service depots 
and the Central Region requires ready, prepositioned capability sets 
that can rapidly integrate with deploying forces for contingency 
response. These capability sets provide the necessary shock absorber 
and help us preserve decision space for the national leadership at the 
front-end of emerging contingencies. Congressional support for the 
services' regeneration and reset of prepositioned war reserve materiel 
remains essential to our operational depth and resiliency.
    Integrated Air and Missile Defense (IAMD). We are also working to 
counter the adaptive threats from enemy networks and adversary states 
in the form of emerging missile and unmanned aircraft technologies. 
CENTCOM continues to employ IAMD and Counter Unmanned Aerial System 
(CUAS) resources to provide the best possible defense design to the 
theater.
    Threat missile systems continue to improve in accuracy, giving them 
the ability to selectively target CENTCOM's critical assets. Current 
IAMD resources remain vital to helping CENTCOM maintain acceptable 
levels of risk without creating additional demand on the force. 
Providing IAMD protection to deployed U.S. forces and our critical 
infrastructure is crucial to mission success and provides a visible 
deterrence to regional aggression. Moreover, it signals U.S. commitment 
to partners and provides flexibility to respond to contingencies.
    Partner nations continue to field missile defense systems that are 
technologically interoperable with U.S.-based defense systems. Several 
partner nations have also expressed interest in working together with 
the U.S. to address the growing CUAS problem set. We must work with our 
partners to integrate the systems into one comprehensive network that 
enables better interaction, flexibility, and increased levels of 
protection against all potential adversarial air and missile threats.
    Several of the GCC countries have expressed a desire to integrate 
their missile and CUAS defense systems with U.S. IAMD systems. The U.S. 
Patriot force in the GCC is an important warfighting capability and a 
visible symbol of U.S. partnership, resolve, and deterrence and is 
linked to bi-lateral defense agreements. Integration of these systems 
would increase duration and level of protection provided by the defense 
design against the spectrum of threats in theater.
    Critical Munitions. We appreciate continued Congressional support 
for the procurement and development of precision and specific purpose 
munitions, which are essential to defeat the threats to our national 
interests. Multiple factors increase demand on worldwide precision 
munitions stock levels, to include readiness to address threats from 
China and Russia, enduring combat operations, investment in our ``by, 
with, through'' approach, our directive to minimize collateral damage, 
and the drawdown in munitions funding prior to OIR. Projected 
expenditures coupled with partner requests for precision munitions show 
a system under stress down to the industrial level. Saudi Arabia, in 
particular, continues to request precision munitions to assist in 
reducing the threat from Iranian-supported Houthi forces in Yemen in 
the most precise manner possible.
    We have implemented controls for existing and projected 
requirements to ensure we can meet our current commitments while 
staying ready to meet future operational needs. We also continue to 
work across the Department on process improvements to provide a more 
precise demand signal to the Services and the industrial base and 
enable multi-year investment in this critical commodity area. 
Congressional support for base budget, production, and forward 
positioning of critical preferred precision and specific purpose 
munitions is vital to the future success of military operations.
    Intelligence, Surveillance, Reconnaissance (ISR) Assets. 
Competition with China and Russia are increasing demands across the 
theater for ISR assets. In addition to continued ISR requirements to 
enable our partners in Iraq, Syria, and Afghanistan, counter-Iran 
operations in Yemen, the Bab al Mandeb, and the Gulf place substantial 
ISR demands on already severely limited resources. We also anticipate 
additional requirements to assist Egypt in their counter-ISIS 
operations in the Sinai
    The Processing, Exploitation, and Dissemination (PED) enterprise is 
also stressed by continuous operations; shortfalls of PED for collected 
intelligence will continue in the foreseeable future, necessitating an 
increased focus on automation and development of new PED tools, 
including tools to exploit publically available information. Funding 
for organizations such as the National Media Exploitation Center is 
also critical to our ability to handle the volume of captured enemy 
material.
    In order to partially mitigate these ISR shortfalls, CENTCOM is 
working closely with the Services, Joint Staff, Combat Support 
Agencies, Office of the Secretary of Defense, and the interagency to 
acquire contract ISR solutions, incorporate non-traditional ISR (such 
as that collected from strike assets), and improve efficiency and asset 
de-confliction.
    Our Coalition partners are also assisting with ISR collection and 
PED, but this support is limited by national policies regarding 
deployed force levels and manner of employment as well as resource 
shortages. Further, partners are generally challenged to address many 
of CENTCOM's requirements, such as those where multi-discipline, low-
observable, or strike-capable assets are required. All of these factors 
combine to substantially increase operational risk in those areas that 
will not receive adequate ISR coverage due to decreased capacity.
    Information Operations/Strategic Communications. The operational 
information environment continues to evolve at a rapid pace; our 
adversaries are not limited by geographic boundaries as they increase 
global radicalization and recruitment online. Russia and Iran are also 
waging strategic communications campaigns to cloud perceptions of 
United States success in Syria and Iraq and to call into question our 
commitment to key partners in the region. Offensive Information 
Operations (OIO) capabilities developed and refined over the last 2 
years provide CENTCOM and the Department of Defense with the best 
``high impact/low cost'' investment to deter aggression, counter 
destabilizing behavior, and decrease the potential for direct action 
operations requirements. CENTCOM combines actions and information by 
employing assets ranging from print, radio, television, and the 
internet to conduct robust, synchronized information operations in 
order to influence, disrupt, corrupt, or usurp our adversary's decision 
making. These efforts also directly support both the Iran and Iraq 
strategies that specifically call for integrated strategic 
communications campaigns.
    The ISIS problem set has enabled the Department of Defense to 
closely collaborate with other United States Government agencies, 
Coalition partners, and regional allies to coordinate and synchronize 
messaging strategies. We are building on our combined experiences to 
create a broad, long-term, whole-of-government approach that amplifies 
our efforts toward conflict prevention. We also routinely work with 
Iraq, Jordan, Kuwait, and Saudi Arabia to improve interoperability, 
share lessons learned, and ultimately develop a collaborative strategy 
to counter violent extremism--our regional partners will play the 
largest role in shaping their own futures.
    As we work to address the propaganda that terrorist organizations 
use to recruit new followers, we must also address the serious threat 
that state-sponsored disinformation poses to U.S. national security. 
Amidst these trends in the information environment, it is more critical 
than ever that the U.S. Government has a comprehensive, whole-of-
government approach to strategic communication that supports and 
harmonizes with our military efforts. In this vein, the Department of 
Defense works closely with the Department of State's Global Engagement 
Center (GEC), and we appreciate that Congress has expanded its mandate 
to synchronize and coordinate the federal government's efforts to 
recognize, understand, expose, and counter these harmful propaganda and 
disinformation efforts. Recognizing that information operations will 
continue to be a force multiplier, we must ensure organizations like 
the GEC can compete and win in the information environment.
    Cyber Operations/Cybersecurity. All of the traditional threats 
within the Central Region are exacerbated by several challenges in the 
cyberspace domain. The global nature of cyberspace means it has no 
legal boundaries, challenging our legal system and ability to deter 
threats or respond to contingencies. We have an adaptive enemy who has 
proven creative in the information environment.
    Based on the speed of technological evolution, attackers in the 
cyberspace domain have an advantage over defenders. Worse, friendly 
capabilities can be co-opted by adversaries at a scale and ease greater 
than in other domains. Consequently, small groups can exercise state-
like powers, while a state actor can have tremendous impact. Defenders 
must expend a disproportionate amount of resources to protect multiple 
avenues of attack on many different networks and resources.
    Integrated Operations with Interagency Partners. Whole-of-
government solutions are critical to resolving the complex problems in 
the Central Region, and we strive to balance our own authorities and 
resources with our interagency partners' unique capabilities, 
expertise, and authorities. Our embassy country teams across the region 
are doing an incredible and critical job providing nuanced information, 
recommendations, and support for military operations, and senior 
embassy leadership is integral to facilitating our access to senior 
foreign leadership. We strive to ensure that our military activities in 
the AOR reinforce our embassy colleagues' diplomatic engagements in 
order to mutually advance national security priorities. The Department 
of State and United States Agency for International Development (USAID) 
have been invaluable partners from the inception of combat operations 
in Iraq and Syria to efforts focused on consolidating hard fought 
gains. As Secretary Tillerson mentioned in his recent remarks at 
Stanford, ``The United States has had diplomats on the ground in 
affected areas working with the UN, our partners in the Global 
Coalition to Defeat ISIS, and various NGOs. We will continue to devote 
personnel and resources to stabilization efforts.'' In partnership with 
USAID, CENTCOM has been heavily involved in the conduct of foreign 
humanitarian assistance and foreign disaster relief operations across 
the region. Steady-state foreign humanitarian assistance activities are 
a key security cooperation tool that enhance our BPC efforts and 
improve Department of Defense visibility, access, and influence while 
addressing critical humanitarian needs. We request your support of the 
Administration's annual OHDACA funding request to allow us to continue 
these important engagement activities.
    Counterdrug-funded train and equip programs have become 
increasingly important in the CENTCOM AOR. We work with our interagency 
partners in the region to reduce drug trafficking. This is most evident 
in the Central Asian states, where a large part of CENTCOM's security 
cooperation activities provide counter-narcotics support. We routinely 
send additional manpower to embassies in the region to assist them in 
executing counter-drug programs that include infrastructure 
improvements, communications equipment, and training in the latest 
technology such as scanners and ground sensors. Together this builds an 
effective capability to stem the flow of illicit trafficking in 
narcotics, weapons, and persons. For example, the Regional Narcotics 
Interagency Fusion Cell (RNIFC) in Bahrain continues to facilitate the 
maritime interdiction of heroin and weapons emanating from the Makran 
Coast of Pakistan, by providing intelligence support to Allied naval 
partners.
    We are also working closely with the Drug Enforcement 
Administration (DEA) and Department of Justice (DOJ) to provide 
counter-threat finance, counter-facilitation, and counter-procurement 
support to United States Forces-Afghanistan's reinvigorated counter-
threat finance cell. Continued linguist support and law enforcement 
training for Afghan DEA mentored units is critical to receiving time-
sensitive information from the DEA-sponsored judicial wire intercept 
program. We will also participate in the Department of Treasury-led 
Terrorist Financing Targeting Cell in Saudi Arabia. This initiative is 
part of a larger Saudi-led GCC effort to counter violent extremism in 
the Arabian Peninsula and throughout the Central Region.
    In the past year, we have also seen the effective expansion of our 
Department of Defense Rewards program, which allows for our IA partners 
to incentivize sources that deliver information, at great risk, that 
result in increased force protection or counter-terrorism kinetic 
strikes.
    A key component of our working relationship with the IA is the 
exchange of personnel; representatives from eight U.S. Government 
departments and agencies reside within the CENTCOM Headquarters, a 
majority co-located in our Operations Directorate's Interagency Action 
Group (IAG). We sincerely appreciate the provision of high-quality 
personnel to support CENTCOM operations. Reciprocally, we have embedded 
personnel within the headquarters of several USG partners. These embeds 
provide support to the gaining organizations and facilitate 
collaboration on mutually supportive IA objectives. Embeds also allow 
us to maintain visibility and coordinate activities across our 
``seams'' with EUCOM, PACOM, and AFRICOM.
    Coalition Partners. A unique characteristic of CENTCOM remains the 
presence of 49 nations at our headquarters in Tampa. Over the last 15 
years, the composition, task, and purpose of the national 
representation has changed based on security trends, ongoing 
operations, and our partner engagement strategy. Each nation is 
represented by a Senior National Representative, and most nations have 
additional officers that regularly synchronize with their counterparts 
in the Command staff, creating an integrated, coalition-centric 
approach to our operations.
    Many nations consider counter-VEO operations a focal point for 
their efforts. We capitalize on this extraordinary access to our 
partners to facilitate information sharing, interoperability, 
operational support, and force generation. Our co-location with SOCOM 
in Tampa also enables us to capitalize on economies of scale and 
synergies between our respective commands and coalition partners.
    In spite of the longevity of the Coalition, the current environment 
of fiscal austerity may inhibit our ability to sustain it at an optimal 
level of performance. Additionally, the lack of national-level 
intelligence sharing agreements often hinders the timely and 
comprehensive communication of information. Our classified networks are 
largely unavailable to our partner nations and inhibit our ability to 
integrate operations, often requiring costly and labor-intensive 
solutions to overcome.
    However, utilizing a coalition-centric approach necessitates a 
paradigm shift and a deliberate acceptance of risk in order to foster 
an environment of reciprocal information sharing. We have an 
opportunity to sustain momentum in the global campaign against ISIS and 
other VEOs while continuing to refine the whole-of-coalition approach. 
Opposition to violent extremism provides unique alignment of national 
interests and can increase trust, understanding, and cooperation on 
other critical issues. If we can sustain an enduring coalition, we will 
be able to deal with persistent conflict in the region and be postured 
for response when necessary. Our lessons learned can inform 
departmental and national strategies for attaining increased levels of 
integration with our partners.
                               conclusion
    Given the many forces driving change and uncertainty in the region, 
U.S. commitment to the CENTCOM area of responsibility is more important 
now than ever. Recent experience has shown that a precipitous 
withdrawal of support, before conditions for stabilization have been 
set, can lead to catastrophic results. We have also learned that a 
modest commitment of resources, applied steadily and consistently over 
time, and in a predictable fashion, can assist our partners in managing 
change, adjusting to new threats, and building their own capacity to 
act. This has the additional benefit of lessening our own requirements 
in future contingencies and building our reputation as a reliable 
partner. Working ``by, with, and through'' our allies and partners 
allows us to multiply the effect of relatively modest commitments to 
ensure this crucial and truly ``central'' region never again requires a 
mass deployment of United States Forces. We will retain the necessary 
American military presence in the region to protect the Homeland from 
terrorist attack, preserve a favorable regional balance of power, and 
achieve our strategic objectives and interests found in our national 
strategies.
    CENTCOM remains the only geographic Combatant Command executing 
Active combat operations. In the last year, we have made great strides 
toward defeating ISIS. This year we will shift our focus to the South 
Asia Strategy in order to push OFS toward a successful conclusion, 
while consolidating the gains we have made against ISIS, supporting our 
political and security objectives in the Gulf and Levant, and 
countering Iran. We must continue to degrade and destroy VEOs that 
threaten the safety of our citizens and partners by pursuing ISIS 
across the Central Region. We will continue to counter expansionist 
regional powers and inappropriate nuclear ambitions by developing 
strong allies and building peace through strength.
    We remain mindful that ours is a team effort and that success in 
the complex Central Region requires that we work together. This applies 
not just within the command but with our fellow Combatant Commands, our 
Component Commands, our established combined/joint task forces, the 
Central Region's 18 country teams, and the agencies and organizations 
of the United States Government which have continued unwavering support 
over the almost 2 decades of persistent conflict. Our deliberate and 
close relationships with the U.S. Department of State, USAID, the U.S. 
Department of Treasury, the Defense Logistics Agency, the Defense 
Threat Reduction Agency, the Defense Intelligence Agency, the National 
Security Agency, the Central Intelligence Agency, the Federal Bureau of 
Investigation, and the Joint Improvised Explosive Devise Defeat 
Organization have paid enormous dividends in the pursuit of shared 
national goals and objectives. We look forward to continuing to work 
with them and others on behalf of our nation. Further, we continue to 
benefit from our allies in the region, who support the CENTCOM 
headquarters with more than 200 foreign military officers from 49 
nations--all of whom are a part of the success of CENTCOM, and we are 
grateful for their partnership.
    In all of this, the outstanding men and women who comprise the 
United States Central Command are our finest and most precious 
resource. The world class CENTCOM team--which includes more than 90,000 
soldiers, sailors, airmen, marines, coastguardsmen, and civilians 
stationed throughout the CENTCOM area of responsibility--is highly-
skilled, motivated, and stands ready to do whatever is necessary to 
accomplish the mission. They continue to make great sacrifices and 
contributions to ensure the command meets our strategic objectives and 
protects our nation's interests. We must ensure they have everything 
they need to do their jobs as effectively and efficiently as possible. 
This includes ensuring a safe environment for all our personnel, 
regardless of their race, gender, creed, or religion.
    We are also keenly aware and grateful for the sacrifices made by 
our families. They are vital members of our team, and we could not 
complete our mission without them. They, too, make important 
contributions and tremendous sacrifices each and every day in support 
of us and on behalf of the Command and a grateful nation.
    CENTCOM: Prepare, Pursue, Prevail!

    Senator Inhofe. Thank you, General Votel.
    General Waldhauser?

  STATEMENT OF GENERAL THOMAS D. WALDHAUSER, USMC, COMMANDER, 
                  UNITED STATES AFRICA COMMAND

    General Waldhauser. Senator Inhofe, Ranking Member Reed, 
distinguished members of the committee, thank you for the 
opportunity to update you on the efforts of the United States 
Africa Command.
    I am also honored to be here today with General Votel and 
discuss many of the concerns we share between CENTCOM and 
AFRICOM, including countering violent extremist organizations.
    I would like to begin this morning by remembering the 
soldiers and sailor we lost on the continent during operations 
this past year. I also want to share my respects for the loss 
of our African partner forces who, during their efforts in the 
fight against extremism, gave the ultimate sacrifice this past 
year as well. We honor their commitment, service, and 
dedication to duty, and I offer my sincere condolences to the 
families of our fallen United States comrades and those of our 
African partners.
    Senator Inhofe, I have completed my review of the Niger 
investigation and forwarded the report to the Secretary of 
Defense through the Chairman of the Joint Chiefs of Staff. Once 
the Secretary completes his review and after the families have 
been briefed, I intend to provide a comprehensive and detailed 
account of the investigation to you as soon as practicable.
    This morning, I would like to talk to you about AFRICOM's 
strategy for the continent and update you on our priority 
regional efforts.
    The United States interests in Africa are reflected in our 
mission statement. AFRICOM with partners strengthens security 
forces, counters transnational threats, and conducts crisis 
response in order to advance United States national interests 
and promote regional security, stability, and prosperity in 
Africa. Our mission statement deliberately highlights the 
importance of ``with partners.''
    Following up on this point, very few, if any, of the 
challenges on the African continent can be resolved through the 
use of exclusive military force. Accordingly, AFRICOM's first 
strategic tenet underscores our military activities and is 
designed to support and enable United States diplomatic and 
development efforts. We can create time and space for 
governments to establish effective and accountable governance 
while fostering conditions for economies to develop.
    Our second theme describes our strategic approach of by, 
with, and through. This framework emphasizes our main effort to 
build the capacity of African partner defense forces to 
credibly provide for their own security. While African nations 
have enormous potential, they are often challenged by 
instability and exploitation stemming from the disruption 
caused by violent extremist organizations, or VEOs. These VEO 
groups take advantage of vast ungoverned spaces and recruit 
from populations lacking economic opportunities.
    We approach these security threats through our third 
strategic principle of keeping pressure on the networks of 
VEOs, such as Al Shabaab, ISIS, al Qaeda, and Boko Haram, in 
order to mitigate their destabilizing influence. At the same 
time, we remain postured and ready to respond to contingencies 
and to protect U.S. personnel and facilities on the continent.
    These strategic themes and AFRICOM's approach are aligned 
with the national level guidance. In accordance with the 
recently released National Defense Strategy and in the context 
of changes in the operating environment, we are updating our 
strategy and theater campaign plan to reflect the guidance 
provided by the Secretary of Defense.
    Turning now to our regional efforts, I would like to 
describe for you some of the challenges we face each day on the 
continent.
    In East Africa, AFRICOM's contributions are part of an 
international commitment to help Somalia implement their 
recently designed national security architecture. Al Shabaab 
remains a threat to Somalia and the region, as demonstrated by 
their October 2017 bombing in Mogadishu that killed over 500 
people. The challenges facing the federal government of Somalia 
are enormous. Nevertheless, they continue to slowly make 
progress with a long way to go before they are prepared to 
secure their own territory with international partners and 
organizations, including the African Union and the European 
Union, AFRICOM's kinetic and capacity building efforts to 
assist the federal government of Somalia with the 
implementation of their comprehensive approach to security 
sector reform.
    In North Africa, Libya remains politically and militarily 
divided with leaders and factions vying for power ahead of 
potential elections later this year. In close cooperation with 
the United States embassy's Libyan External Office, located in 
Tunis, and as part of the international effort, AFRICOM 
supports diplomatic objectives for political reconciliation. We 
will continue to work with the UN-established [United Nations] 
government of national accord and maintain pressure on the 
ISIS, Libya, and al Qaeda networks in that country.
    The Sahel refers to the Sahara to Savannah Transition Belt 
spanning the broadest part of Africa from the Atlantic Ocean to 
the Red Sea. AFRICOM supports multinational efforts in the 
western Sahel and in the nearby Lake Chad basin region of West 
Africa. We provide training, advice, and assistance to the G5 
Shahel countries and the multinational joint task force in 
order to help them contain violent extremism and secure their 
borders.
    In conclusion, the continued progress on the continent with 
our partners reflects dedicated efforts by the men and women of 
AFRICOM. I am proud to lead these professionals who have built 
strong and trusting relationships with the United States 
interagency and with our international community in order to 
foster the security, stability, and prosperity on the African 
continent.
    On behalf of the servicemembers, civilian employees, and 
families of the United States Africa Command, thank you for the 
opportunity to be with you this morning, and I look forward to 
your questions.
    [The prepared statement of General Waldhauser follows:]

           Prepared Statement by General Thomas D. Waldhauser
                              introduction
    Chairman McCain, Ranking Member Reed, distinguished members of the 
committee, thank you for the opportunity to update you on the efforts 
of United States Africa Command to protect and promote United States 
vital interests in Africa. At the outset, I want to remember the 
soldiers in Niger and Navy SEAL in Somalia we lost during operations in 
the past year. These brave men epitomize the United States Africa 
Command standard to which we all strive in the service of our country. 
I offer my sincere condolences to the families for their losses. I have 
reviewed the contents and signed the results of the Niger 
investigation, which are currently with the Chairman and the Secretary 
of Defense. Upon completion of the briefings to the families, our 
intent is to provide a full and comprehensive briefing to this 
committee as soon as practical. I also want to recognize all the 
families who stand with us and support the United States Africa Command 
mission across the continent. On any given day, up to 7,200 United 
States uniformed personnel, Department of Defense civilians, and 
contractors are in Africa representing all services, career fields, and 
specialties, protecting our national security and working tirelessly to 
tackle the many challenges on the African continent. Since I last spoke 
with this committee, the United States Africa Command team has made 
significant progress with our United States-Africa strategy and with 
building the defense capacity of our African partners. I am truly 
honored to lead this team and its efforts in a very dynamic strategic 
environment.
    In 2008, United States Africa Command was established as the first 
fully integrated interagency combatant command; its purpose was to 
foster United States long-term, security engagement in Africa. As we 
commemorate our 10 year anniversary, United States Africa Command 
continues to enhance the security and stability of Africa and its 
people. While our area of responsibility covers 53 countries with 
complex and varied issues, our mission is clear: United States Africa 
Command, with partners, strengthens security forces, counters 
transnational threats, and conducts crisis response in order to advance 
United States national interests and promote regional security, 
stability, and prosperity.
    African nations--their people, their increasing appetite for 
democratic principles, their growing economic impact and potential in 
global markets--remain an enduring interest for the United States. 
United States Africa Command supports our African partners in building 
the capability and the capacity to develop local solutions to 
radicalization, destabilization, and persistent conflict. By making 
targeted investments and maintaining strong partnerships, we can set 
the basic security conditions needed for good governance and 
development to take root. Africa, our allies, the United StatesUnited 
States, and the world stand to benefit from a secure, stable, and 
prosperous Africa.
    To achieve this end state, the United States must remain engaged in 
Africa. In the long term, United States interests in Africa are best 
served by stable nations with effective, accountable governments, well-
trained and disciplined militaries, and growing economies. None of 
Africa's challenges can be resolved through the use of military force 
as the primary agent of change. Therefore, our first strategic theme is 
that United States Africa Command activities directly support United 
States diplomatic and development efforts in Africa. Working with our 
interagency partners--primarily the Department of State and United 
States Agency for International Development (USAID)--is a core tenet of 
our strategic approach in Africa. In addition, United States Africa 
Command works alongside the African Union, the European Union, regional 
African economic and security communities, and the United Nations. 
Together, to provide alternatives to those who might otherwise be 
attracted to extreme ideologies, we work to develop government 
accountability, increase education opportunities, and develop strong 
economies. Further, to professionalize security forces, United States 
Africa Command provides human rights training to make forces more 
accountable to the people and lessen the abuses and drivers of 
radicalization among the civilian populations. Only by partnering with 
interested stakeholders can long-term U.S. strategic goals be achieved.
    United States Africa Command's second strategic theme is our focus 
on the By, With, and Through framework. This is a strategic approach 
that emphasizes U.S. military capabilities employed in a supporting 
role, not as principal participants in armed conflict. Security 
operations are executed almost exclusively by the partnered security 
forces. United States Africa Command works with partnered security 
forces based on their operational needs. The vital objectives of the 
United States and the partnered nation are achieved through a 
cooperative relationship in which United States Africa Command plays a 
supporting role. African leaders tell us how important it is to develop 
``African solutions to African problems.'' The framework of By, With, 
and Through recognizes the importance of partner ownership, which in 
turn, fosters enduring relationships.
                         strategic environment
    African agriculture, financial services, manufacturing, and 
construction are promising sectors attracting international trade and 
investment. The United States, therefore, is not the only prospective 
partner in Africa. We seek constructive, results-oriented relationships 
with other foreign interests who wish to develop Africa's 
infrastructure and tackle humanitarian and security issues. We must, 
however, be aware of interests that run counter to our own, as a larger 
number of external actors take a great interest in Africa. Though some 
of their actions contribute to Africa's infrastructure and defense, 
some of these actors are impeding the continent's long-term stability, 
economic growth and financial independence. Moreover, external actors 
may diminish United States influence by undermining our development and 
diplomatic efforts in Africa, and we share this message with our 
African partners during all levels of engagement. Nonetheless, as the 
strategic environment becomes more crowded and competitive, our 
engagement with external actors, like China and Russia, will continue 
with an open and clear discussion of intersecting interests and 
differences.
    Extremes in poverty, limited infrastructure, predatory governance, 
inadequate health care, and in many cases, violent ideology, exist 
throughout Africa juxtaposed with enormous economic potential and 
strategic opportunity. This volatile environment creates instability 
and uncertainty and allows violent extremist organizations (VEOs) to 
grow and recruit from disenfranchised populations. Keeping military 
pressure on this VEO network is our third strategic theme. This cycle 
of disenfranchisement and recruitment feeds extremist movements that 
aspire to spread their violent ideology. For instance, a youth 
population with significant unemployment and who are being harassed by 
predatory and rights-abusing governments and security forces create the 
perfect hotbed in which to garner ideological support and recruit 
fighters who will target our partners, allies, and U.S. interests. VEOs 
also utilize existing illicit networks to move drugs, weapons and 
persons across the continent. They foment fear and distrust which 
undermine governments, and when combined with the despair caused by 
lack of hope for the future, provide for VEO expansion. These VEOs are 
a significant threat to our partners, allies, and U.S. interests on the 
continent.
    Conflict, instability, and lack of economic opportunity in multiple 
regions across the continent lead to large numbers of internally 
displaced persons (IDPs), refugees, and migrants. According to the 
United Nations High Commissioner for Refugees, Africa has approximately 
18.5 million people categorized as refugees, asylum seekers, IDPs, and 
stateless persons as of January 2017. The continent hosts 30 percent of 
the world's displaced people, more than any other continent. In 2016, 
the Organisation for Economic Co-operation and Development (OECD) 
estimated there are more than 1.6 million new asylum requests 
worldwide, and of these, almost 1.2 million were registered in European 
countries. In Africa, many countries do not have the infrastructure 
necessary to absorb large influxes of refugees and displaced persons. 
These large numbers may destabilize already tenuous social, economic, 
and political institutions and further stress poor populations.
    In Africa, weak and ineffective governance is the leading cause of 
state fragility. According to the 2017 Fund for Peace ``Fragile State 
Index,'' 15 of the 25 most fragile countries in the world are in 
Africa. While governance is not the primary mission of United States 
Africa Command, we recognize building legitimate defense institutions 
is critical for African Governments that prioritize the security of 
their citizens over that of the state. Therefore, we work in concert 
with the Department of State, and other partners, to develop human 
rights-respecting security forces and inspire them to pursue military 
professionalism in their own institutions. For example, this past 
November, we hosted an African Senior Enlisted Leader conference to 
discuss the importance and value of enlisted leadership in the military 
ranks with noncommissioned officers (NCOs) from nineteen of our African 
partners. Empowering these NCOs is crucial to strengthening partner 
militaries, as enlisted force leaders are closest to the soldiers in 
the field and can relate to them in ways difficult for officers to 
match. For example, enlisted force leaders work to get soldiers paid on 
time, remove and reduce corruption, and continue to act as positive 
role models within their community.
    United States Africa Command conducts Military Information Support 
Operations (MISO) to advise and assist partners in countries such as 
Kenya, Niger, and Nigeria to enable their counter-VEO messaging and 
enhance their security operations. MISO empowers the government's 
ability to increase its outreach to the population and counter 
adversarial messaging.
                            command approach
Theater Strategy
    Transnational VEOs are not only the most direct threat to United 
States interests in Africa, but also a threat to stability across the 
continent. Just as the threat on the ground evolves, so too does our 
Strategy. United States Africa Command utilizes the National Security, 
Defense, and Military Strategies, Guidance for the Employment of the 
Force, and other U.S. policy documents to guide our current Strategy. 
The 2017 National Security Strategy (NSS) states that the United States 
seeks to partner with African states that exercise sovereignty over 
their whole territory, are integrated into the world economy, able to 
provide for their citizens' needs, and capable of managing threats to 
peace and security. To that end, United States Africa Command will 
continue to search out willing and capable partners, strengthen 
existing partnerships, and form new relationships that promote these 
goals. The 2018 National Defense Strategy (NDS) reinforces United 
States Africa Command's approach of ``working by, with, and through'' 
local partners to degrade VEOs, interdict transnational extremist and 
criminal activity, and increase the institutional capacity of partners 
to do so with limited foreign assistance. Increasing partner capacity 
cannot be limited to training and equipping front-line forces. In 
concert with interagency and international partners, we must also 
contribute to building the institutions that fortify recruiting, 
training, sustaining, and fielding of these forces. Such institutions 
create the stable security environment to allow democracy and 
development to blossom, which diminish the factors that allow violent 
extremism and criminality to grow. Put simply, a sustainable solution 
to instability in Africa involves supporting national institutions and 
regional organizations willing and able to address their own security 
challenges.
    In order to create the time and space necessary for this long-term 
effort, we maintain pressure on transnational VEOs. Our primary effort 
in this aspect is to execute programs with more capable partners. 
Working directly with these partners, we target VEOs who pose an 
imminent threat to partner, allied, and U.S. interests.
    United States Africa Command focuses on cost-effective solutions 
that leverage interagency and international support as we continue our 
decisive effort of building the capacity of and strengthening 
relationships with African partners, primarily executed through 
security cooperation activities. To support these efforts, our fiscal 
year 2019 Budget Request includes appropriate resources--notably, 
Intelligence, Surveillance, and Reconnaissance (ISR) assets.
Theater Posture
    To set the African theater, United States Africa Command's posture 
plan is designed to secure strategic access to key locations on a 
continent characterized by vast distances and limited infrastructure 
while adhering to Department of Defense guidance to maintain a 
tailorable, flexible, small, and expeditionary presence. Our posture 
network allows forward staging of forces to provide operational 
flexibility and timely response to crises involving United States 
personnel or interests without creating the optic that United States 
Africa Command is ``militarizing'' Africa.
    In Djibouti, Camp Lemonnier is an enduring U.S. military 
installation that serves as a vital hub for Security Force Assistance, 
operations, and logistics for five combatant commands: United States 
Africa Command, U.S. Central Command, U.S. European Command, U.S. 
Special Operations Command, and U.S. Transportation Command. Camp 
Lemonnier provides, operates, and sustains superior service in support 
of combat readiness and security of ships, aircraft, detachments, and 
personnel for regional and combatant command requirements; and enables 
operations in the Horn of Africa while fostering positive United 
States-African relations.
    Over the course of the last 2 years, United States Africa Command 
has endeavored to improve our distribution network. In January 2018, we 
initiated processes and procedures to establish the West Africa 
Logistics Network. This network will position right-sized aircraft on 
the continent to facilitate distribution from a primary logistics hub 
to support locations throughout West and Central Africa. That will 
vastly improve support to approximately 1,800 personnel supporting 11 
named operations across a 13-nation region, roughly the size of the 
Continental United States.
Combatant Command Campaign Plan
    To contribute to ``a secure, stable, and prosperous Africa,'' we 
focus on building partner capacity, protecting United States personnel 
and facilities, and maintaining U.S. access. This approach complements 
the efforts of our allies, such as France and the United Kingdom.
    United States Africa Command currently operates along five Lines of 
Effort (LOEs), which focus resources and operations throughout the 
continent: 1) Develop Security and Stability in East Africa; 2) Degrade 
VEOs in Sahel and Maghreb Regions / Contain Instability in Libya; 3) 
Contain and Degrade Boko Haram and ISIS-West Africa; 4) Interdict 
Illicit Activity in Gulf of Guinea and Central Africa; and 5) Build 
Peace Keeping / Humanitarian Assistance and Disaster Relief (HADR) 
capacity of African Partners.
    Each LOE links multiple tasks and objectives to achieve a desired 
end state. While each geographical region presents different 
challenges, the overall message that ``a secure, stable, and prosperous 
Africa is an enduring American interest'' remains our focus. The LOEs 
help translate our strategy into an operational approach while allowing 
flexibility to address each region's specific needs. This flexibility 
is key as we review and adjust our campaign plan. Over the next few 
months, we will work with partners, allies, and the interagency to 
review and then release an updated Combatant Command Campaign Plan in 
2018, covering fiscal years 2019-23.
    Our strategy features a whole-of-government approach utilizing the 
specific skill sets of the Department of State, USAID, Federal Bureau 
of Investigation, Department of Homeland Security, Department of 
Justice, and other interagency partners to synchronize and complement 
our approach. Many partners embed a liaison cell within United States 
Africa Command to support our strategy, a method we endorse and expand 
as needed. Additionally, United States Africa Command understands 
legislation generally consistent with a proposal outlined in the 
President's 2019 Budget and the National Security Strategy has been 
introduced to create a new development finance institution. We look 
forward to working with this new agency as well.
East Africa
    For East Africa, the desired end state is one in which VEOs are not 
able to destabilize Somalia or its neighbors or threaten the United 
States Homeland, United States persons, or our international partners 
and allies. Accordingly, the desired end state includes transitioning 
security responsibility from the African Union Mission in Somalia 
(AMISOM) to the Federal Government of Somalia (FGS) and Somalia's 
Federal Member States (FMS) so the central and regional governments 
ultimately secure their own territory, neutralize al-Shabaab, and 
interdict illicit flows of arms, drugs, money, natural resources, and 
persons.
    In Somalia, the 2017 election of President Mohamed Abdullahi 
Mohamed, known as President ``Farmajo,'' proved to be a strategically 
significant change in the region. Historically, Somalia has been 
plagued with drought, extreme food insecurity, and decades of 
political, economic, and military unrest. President Farmajo inherited 
clan-based conflicts, al-Shabaab's ongoing violent extremism, and the 
emergence of ISIS-Somalia.
    However, in the short time since taking office, President Farmajo 
has re-aligned the Somali National Army security sectors to coincide 
with the borders of the Somali Federal Member States. He also utilized 
2017 as a year of planning while gathering local, regional, and 
international support. At both the May 2017 London Conference and the 
December 2017 Mogadishu Conference, President Farmajo reiterated his 
administration's commitment to implementing Somali national security 
architecture in 2018 and refocused the AMISOM transition into a 
conditions-based turnover rather than a time- or date-based transition. 
International partners, including the United States, are committed to 
Somali progress leading to well-trained Somali security forces.
    President Farmajo fully supports U.S.-led train and equip missions, 
as well as U.S. kinetic efforts in support of the FGS. President 
Farmajo recognizes that Somalia's security cannot be manufactured by 
international partners but must come from Somali citizens in towns and 
villages across the country. President Farmajo supports a federal form 
of government, with power and security responsibilities shared among 
federal member states and local forces; he also supports military 
accountability to the civilian population. President Farmajo has 
demonstrated a willingness to integrate federal, regional, and local 
interests into his administration and encourages defections from al-
Shabaab. Also assisting in Somalia is a coalition of international 
partners, such as the European Union, the African Union, the United 
Nations, the United Kingdom, Turkey, and the United Arab Emirates.
    Even with President Farmajo's forward-looking Somalia strategy, al-
Shabaab remains a threat to the region, as demonstrated by the 
devastating October 2017 vehicle-borne IED attacks in Mogadishu that 
killed over 500 people. While some high-profile defections have 
occurred, only a small number of fighters have actually defected. In 
addition, Islamic State of Iraq and ash-Sham (ISIS)-Somalia remains 
isolated in northern Somalia with small, limited capabilities. By the 
end of 2017, sustained conflict and prolonged food insecurity drove 
more than two million people to flee their homes in Somalia. Though 
there are some improvements in 2018, unfortunately, forecasted drought 
conditions will likely lead to continued poor harvests and reduced food 
security in Somalia, sustaining and contributing to population 
displacement. As a component of our whole-of-government efforts, and 
building on longstanding and large humanitarian investments, in 2017, 
USAID signed an important development assistance agreement with 
Somalia, supporting that country's efforts to achieve stability through 
good governance, economic recovery, education and health. USAID has 
invested $400 million in development assistance in Somalia since 2011. 
Delivered over a 5-year period, the funds will support democracy, 
stabilization and governance, education, and economic growth activities 
to achieve economic recovery and resilience for Somalia.
    With the full support of the Federal Government of Somalia, United 
States Africa Command maintains pressure on the al-Shabaab and ISIS-
Somalia networks and seeks to accelerate the delivery of training and 
equipment to the Somali Federal Member States. Our joint Department of 
Defense-Department of State Security Force Assistance efforts in 
Somalia have built the 1st Danab Advanced Infantry Battalion, a combat-
tested unit at the leading edge in southern Somalia. Furthermore, with 
the Department of State and the Defense Threat Reduction Agency's 
(DTRA) Joint Improvised Threat Defeat Organization (JIDO), we are 
working to improve the security posture in Mogadishu and mitigate the 
destabilizing effects of vehicle-borne IED attacks in the city.
    Our relationship with Djibouti is strong, though we are carefully 
monitoring Chinese encroachment and emergent military presence. In 
November, Camp Lemonnier, Djibouti hosted a commemorative event 
celebrating the Africa First Initiative and its contract awardees, 
which President Ismail Omar Guelleh attended as the honorary guest. 
This long-term initiative to acquire local goods and services for 
United States military members helps boost African businesses. Camp 
Lemonnier remains the only enduring United States Military installation 
in Africa, and as such, a key component of the command's regional 
readiness. Furthermore, last August, the Chinese opened their first 
overseas naval base in Djibouti. United States Africa Command views 
security and access to Djibouti as a top priority. Consequently, we 
continue to monitor this development to ensure U.S. interests are not 
deterred.
    In South Sudan, the political climate continues to be volatile. 
United States Africa Command maintains constant communication with 
United States Embassy Juba and stands ready to assist them should the 
situation on the ground necessitate our support. This response 
capability means the United States can maintain diplomatic and 
humanitarian presence inside of South Sudan as United States Embassy 
Juba works to seek an end to one of Africa's largest humanitarian 
disasters.
    Ethiopia remains a longstanding partner and contributes over 4,000 
uniformed personnel to AMISOM, further advancing regional peace and 
security efforts in East Africa.
    Other countries in East Africa continue to develop reconnaissance 
and surveillance capabilities to build their capacity for 
counterterrorism operations. Kenya and Uganda have deployed tactical 
unmanned aerial vehicles (UAVs) in their fight against al-Shabaab in 
southern Somalia. The Kenyans use theirs to identify ambushes ahead of 
their patrols, and the Ugandans use theirs as artillery spotters 
against al-Shabaab concentrations. Both countries have seen the value 
of such capabilities, and Kenya is now investing their own money in 
additional platforms. Furthermore, as Kenya received guided strike 
capabilities, we are developing air-ground integration mentorship 
programs to optimize the impact of these tools. Both Kenya and Uganda 
receive helicopters, UAVs, and medium altitude reconnaissance 
platforms.
North Africa
    Turning to North Africa, our four primary objectives in Libya are: 
degrade terrorist groups who threaten United States interests and 
threaten to destabilize Libya and the region; avert civil war; support 
the political reconciliation process towards a unified central 
government; and assist to curb the flow of illegal migrants into Europe 
via Libya. Efforts by European allies and international organizations 
are underway to interdict the illicit flow of arms and drugs flowing 
into and through of North Africa due to porous borders and under-
governed spaces.
    In Libya, United States Africa Command continues to support the 
United States Libya External Office's diplomatic efforts to promote the 
UN-facilitated Libyan political reconciliation process. Our 
counterterrorism strategy has allowed time for the political 
reconciliation process to continue.
    Following its late 2016 expulsion from in Surt, ISIS-Libya remains 
dispersed and disorganized and likely capable of little more than 
localized attacks. Meanwhile, al Qaeda in the Lands of the Islamic 
Maghreb (AQIM) in Libya maintains a low profile yet still aims to use 
illicit means to move fighters and weapons and focuses on building 
influence within Libya's various extremist groups. The disrupted state 
of VEOs, however, has not translated into a stable Libya. Libya remains 
politically and militarily divided, with loyalties shifting based on 
tribal interests and personalities involved in the struggle for power. 
Given this turmoil, the risk of a full-scale civil war remains real. We 
will continue to apply pressure on the ISIS-Libya network, work with 
the Government of National Accord, and support the international 
community to consolidate a comprehensive approach to bringing stability 
and a political settlement to Libya.
    In Tunisia, we work to develop Tunisian counterterrorism and border 
security capabilities. Through programs that build partner capacity, 
like the JIDO counter-IED awareness program, we have trained and 
equipped Tunisia's Special Operations Forces. Recently, elements of the 
United States-trained Tunisian Special Forces airborne battalion 
successfully engaged a group of terrorists in the Kasserine Mountains, 
killing a senior ISIS attack planner. On border security, Tunisia is 
making use of United States-provided mobile ground surveillance radar 
systems and ISR aircraft to better monitor its border with Libya. 
Furthermore, the United States-funded border security project managed 
by DTRA is on track to provide fixed radar and camera coverage of the 
Tunisia-Libya border in November 2018. DTRA has begun a second radar to 
extend coverage to the southern portion of the Libya-Tunisia border. 
This second phase is funded by the German Government and managed by 
DTRA.
    On 31 January 2017, Morocco was admitted to the African Union (AU), 
more than 3 decades after it withdrew from the precursor Organization 
of African Unity. This means all African nations are now members of the 
AU. As the country with the largest Foreign Military Sales (FMS) 
program within our Area of Responsibility, Morocco has repeatedly 
demonstrated the ability to operate and maintain advanced United States 
equipment and seeks to increase interoperability with U.S. and NATO 
Forces. Morocco's role as a net exporter of security makes it a key 
partner in the region.
    Algeria is another highly capable partner in North Africa, who 
continues to implement an effective counterterrorism program against 
local extremist groups. Further, United States Africa Command and the 
Algerian People's National Armed Forces hold regular dialogues to 
advance cooperation on shared security interests.
Sahel Region
    The Sahel region of Africa is a critical battleground in the fight 
against violent extremism and jihadist terrorism. The African-led, 
French-assisted, United States-supported G5 Sahel organization (Burkina 
Faso, Chad, Mali, Mauritania, and Niger) has established a joint force 
to combat violent extremism within the region. United States Africa 
Command is contributing two operational planners to the G5 Sahel Joint 
Force.
    In Mali and adjacent countries, AQIM and its affiliates remain a 
threat to United States interests and the security of our African 
partners. Mali's government, rebel groups, and pro-government militias 
are struggling to implement the 2015 Algiers peace agreement. We remain 
committed to assisting the French-led operations to degrade VEOs and to 
build the defense capacity in Mali and its neighbors.
    Niger is at the crossroads of regional instability: Boko Haram, 
ISIS-West Africa, ISIS-Greater Sahara, Jamaat Nursat al-Islam wal-
Muslimin (JNIM), and affiliated extremist groups in the region; 
spillover from the Mali conflict in the west; instability emanating 
from Libya to the north; and a large flow of would-be migrants to 
Europe who converge on Agadez en route to Libya. Moreover, Niger faces 
internal governance and development issues with rapid population 
growth, environmental degradation, lack of economic opportunity, and 
stressed infrastructure. While the Department of Defense has increased 
Title 10 support to Nigerien forces, the United States military does 
not have a direct combat mission in Niger. Instead, United States 
Africa Command has provided training and equipment to the Nigerien 
Armed Forces and through the Trans Sahara Counter Terrorism Partnership 
since 2005, and advises and assists certain Nigerien combat units. 
Additionally, at the request of the Government of Niger and the 
Nigerien Armed Forces, United States Africa Command is establishing an 
expeditionary, contingency support location in Agadez. This will be a 
Nigerien base from which we will fly ISR assets to better identify and 
monitor threats in the region. Furthermore, Niger will host Exercise 
Flintlock 2018, a multi-national event among African, allied, and 
United States forces to develop capacity and collaboration between 
security forces to protect civilian populations. The fight against 
terrorism is a long-term effort, and Niger has shown itself to be a 
dedicated partner.
    In Burkina Faso, United States forces are supporting intra-theater 
mobility operations. Additional security assistance initiatives in 
Burkina Faso include training and equipping army companies dedicated to 
counterterrorism operations and logistics. On 2 March 2018, our 
partners sustained devastating attacks on the Burkinabe Army 
Headquarters and on the French Embassy, and we remain in steadfast 
support to their efforts.
    In Chad, United States forces conduct Security Force Assistance 
focused on logistics, sustainment, and maintenance with the Chadian 
Special Anti-terrorism Group (SATG). Key programs include counter-Boko 
Haram equipment (e.g. armored trucks, fuel, and radios), ISR aircraft, 
and command and control enhancements. In addition, U.S. forces are 
building intelligence and counter-IED capabilities to augment Chad's 
counterterrorism efforts. We trained and equipped the National Army 
with sixty light armored vehicles and provided fuel allotments to 
support border surveillance as well as counter extremists operations in 
the Lake Chad Region. In 2017, the Chadian National Army used some of 
these vehicles to assist in operations to contain ISIS-West Africa in 
Nigeria, decreasing attacks into Niger and Chad.
West Africa
    Unrest within West Africa is driven by local grievances, corruption 
and weak governance, human rights violations, and imported religious 
ideology. United States Africa Command's principal strategic objective 
in West Africa and the Lake Chad Region is to contain and degrade Boko 
Haram and ISIS-West Africa. United States Africa Command works with the 
four Lake Chad Region countries (Cameroon, Chad, Niger, and Nigeria) to 
build their capacity to ensure Boko Haram and ISIS-West Africa do not 
threaten partner, allied, or U.S interests.
    The Multinational Joint Task Force (MNJTF), composed of forces from 
Benin, Cameroon, Chad, Niger, and Nigeria, coordinates operations and 
facilitates intelligence sharing. Boko Haram and ISIS-West Africa 
continue to hold territory and conduct suicide IED attacks, and to 
varying degrees terrorize local communities, displacing people from 
their homes. The persistent violence limits the ability of 
international humanitarian aid organizations to deliver needed 
assistance. Basic health care, clean drinking water, adequate 
sanitation, and food supplies are in short supply to the millions of 
refugees and displaced persons in the area. United States Africa 
Command supports Department of State and USAID (the United States 
Government leads) who work closely with the UN and non-governmental 
organizations to provide humanitarian development assistance, and 
stability to the region.
    Nigeria's capabilities and capacity continue to grow, with 
intelligence sharing agreements and additional cooperation with United 
States forces. Nigeria has made arrangements to purchase 12 A-29 Super 
Tucano light attack airplanes with delivery of the first 8 expected in 
2020. Furthermore, President Buhari has encouraged trust in United 
States-Nigerian interaction. However, challenges remain, as MNJTF 
partners sometimes fall short of respecting international norms of 
human rights when dealing with local populations. We are closely 
monitoring reports of the armed forces of Lake Chad Region countries 
using heavy-handed counter-insurgency techniques and which have led to 
additional displacement of civilian populations and reports of forcible 
return of Nigerian refugees from neighboring countries in violation of 
international humanitarian principles and refugee-related conventions. 
We continually remind them techniques such as these not only increase 
regional fragility by undermining public trust and confidence in the 
state, but also produce the grievances that fuel support for the enemy. 
Partner nation fiscal challenges and competing security concerns add 
additional pressure in the region. Nigeria faces unrest in its southern 
Delta region, home to its oil fields and oil revenues, piracy in the 
Gulf of Guinea, and threats by Biafran separatists. As Boko Haram and 
ISIS-West Africa become localized to northeastern Nigeria, the 
remaining MNJTF partners have become reluctant to commit resources to 
what they view as ``a Nigeria problem.''
    United States Africa Command supports the efforts of the Lake Chad 
Region partners to counter Boko Haram and ISIS-West Africa by providing 
advisors, intelligence, training, and equipment instead of engaging in 
direct military operations. In July 2017, United States Africa Command 
started training and equipping MNJTF-designated units to counter IEDs. 
Over a hundred MNJTF soldiers are now less vulnerable to IEDs employed 
by violent extremists. We intend to expand counter-IED training and 
equipping programs to other affected regions.
Gulf of Guinea and Central Africa
    In the Gulf of Guinea, maritime security remains a strategic 
priority due to its role in global oil markets, trade routes, and the 
presence of approximately 75,000 American citizens residing in the 
area. Piracy and other illicit maritime activities threaten development 
efforts, weaken state security, and rob states of resources required 
for greater economic growth and more effective governance. Incidents of 
piracy and armed robbery at sea trended lower in 2017, but continued to 
threaten maritime trade and offshore hydrocarbon installations.
    In addition to the VEO threat throughout Africa, criminal and 
smuggling networks remain a persistent danger within the Gulf of Guinea 
and Central Africa. United States Africa Command supports our African 
partners who work with international and interagency partners to 
interdict and to disrupt illicit trafficking and smuggling networks 
that finance trans-national criminal organizations.
    United States Africa Command remains engaged with coastal nations 
and international partners to increase African maritime capacity and 
willingness to interdict illicit activity in the Gulf of Guinea. We 
execute the African Maritime Law Enforcement Partnership (AMLEP) and 
support the Yaounde Code of Conduct, a strong regional framework for 
information sharing and operational coordination. In 2017, under the 
AMLEP, U.S. Coast Guard and Cabo Verde security personnel embarked a 
Senegal Navy ship for joint patrol operations in Senegal and Cabo Verde 
waters. This represented the first combined African partner maritime 
law enforcement patrol hosted from another African partner nation's 
vessel.
    In Central Africa, the Lord's Resistance Army (LRA) used to 
terrorize isolated populations. Our surge efforts with the African 
Union Regional Task Force effectively diminished the LRA to a threat 
that can now be better addressed by local and state actors, in which 
the Department of State Bureau of International Narcotics and Law 
Enforcement Affairs and the United Nations Peacekeeping Operations are 
investing. Now, regional efforts are focused on expanding security in 
this region by investing in civilian law enforcement agencies to 
provide more security and address illicit trafficking of minerals, 
natural resources, narcotics and weapons which fuel violence.
Africa-Wide Capacity Building Efforts
    United States Africa Command continues to build the capacity of 
African partners to respond to crises including infectious disease 
outbreaks. Most of our engagement with Southern Africa is in this 
regard. Despite its relative stability, Southern Africa faces economic, 
social, and environmental challenges that include poverty, crime, 
social inequality, corruption, and lack of water. United States Africa 
Command will continue to work closely with our Department of State and 
USAID partners, providing support and complementing their efforts when 
requested.
    One of United States Africa Command's most valuable implementing 
partners is the National Guard's State Partnership Program (SPP). These 
state partnerships' enduring relationships build and improve 
peacekeeping capacity, disaster management competency, and overall 
partner readiness. For example, the SPP currently supports the Botswana 
Defense Force as they build various defense institutions such as an 
Office of the Inspector General and a Staff Judge Advocate program. 
Through United States Africa Command's Security Force Assistance, the 
SPP and other organizations are setting the stage for force development 
in Botswana. Currently, the SPP pairs 13 African nations with 11 United 
States states. Several more African countries have requested 
partnerships, and their requests are currently under consideration. We 
continue to see great value in the SPP program.
    Other programs that build partner capacity include the Global Peace 
Operations Initiative (GPOI), the African Peacekeeping Rapid Response 
Partnership (APRRP), and the Women, Peace, and Security (WPS) 
Initiative. GPOI, managed by the Department of State, works to 
strengthen the capacity and capabilities of international partners to 
execute UN and regional peacekeeping operations. Most GPOI partners are 
in Africa (23), as the program builds sustainable peacekeeping capacity 
within each country to aid in their participation in UN and regional 
peacekeeping missions. APRRP focuses on six African partners (Ethiopia, 
Ghana, Rwanda, Senegal, Tanzania, and Uganda) to allow for deeper 
investment in rapid response capability. APRRP allows for development 
of aviation, medical, engineering, and logistical capabilities; 
command, control, communications, and information systems; and the 
formation of police units to handle local law enforcement requirements. 
GPOI and APRRP professionalize partner militaries and security forces 
through training and equipping and institution building.
    United States Africa Command remains committed to aligning capacity 
building efforts with WPS objectives. WPS integrates a gender 
perspective in our military activities through two main efforts: 1) 
staff training and awareness, and 2) integration in the Combatant 
Command Campaign Plan. For training and awareness, we host ``Gender in 
Military Operations'' seminars and provide informative briefings to 
both United States Africa Command and partner leadership during 
conferences. WPS concepts are integrated into military-to-military 
engagements; training on human rights, rule of law, and prevention of 
gender-based violence; and exercises.
    United States Africa Command's whole-of-government approach 
includes building partners' capacity for responding to disease 
outbreaks. United States Africa Command Surgeon's Office leads the 
Africa Malaria Task Force (AMTF) programs through leadership 
engagements, assessments, and training for 18 African militaries to 
implement the United States Government's President's Malaria Initiative 
(PMI) and to support countries' malaria prevention programs. The 
command's components lead the Africa Partner Outbreak Response Alliance 
(APORA) that promotes effective military-civilian partnerships in 
health and security communities to manage emerging epidemics. Based on 
the initiative's successes, we are establishing professional 
development and training programs for emergency managers and responders 
in West Africa at the Kofi Annan International Peacekeeping Training 
Center in Accra, Ghana.
Implementing Our Approach
    United States Africa Command relies on partnerships not only with 
African nations but also with international, multinational, 
interagency, and specialized United States units to achieve U.S. 
strategic objectives. Fifteen of our international partners are 
embedded within the command staff in the Multi-National Coordination 
Center (MNCC). United States Africa Command leads and participates in 
multilateral planning groups for East Africa, North Africa, and the 
Sahel region, in addition to our component command-hosted senior leader 
staff talks with their respective component equivalents. In addition, 
the United States Army's Regionally Aligned Force (RAF) executes a 
significant share of the Security Force Assistance activities in 
Africa. Sustained access to the RAF is critical to mission success.
    United States Africa Command coordinates and integrates its 
activities with the Department of State and USAID through the annual 
Africa Strategic Dialogue in the fall and the Africa Strategic 
Integration Conference in the winter. Working with the Department of 
State and other departments and agencies, the Security Governance 
Initiative (SGI) builds the capacity of civil and defense institutions 
in six countries, Ghana, Kenya, Mali, Niger, Nigeria, and Tunisia. 
Additionally, the section 333 authority provided in the Fiscal Year 
2017 National Defense Authorization Act assists United States Africa 
Command in building security force capacity and has been essential in 
enabling African partners in their fight against home grown extremism.
    Relationships with United States European Command and United States 
Central Command are essential to our mission success. We rely on allies 
such as France, Germany, Italy, and Spain to project United States 
Forces out of Europe to support efforts in North Africa, the Sahel, and 
other location on the continent, and United States European Command 
helps orchestrate these efforts. We coordinate closely with United 
States Central Command for shared response forces, as well as shared 
equities in Egypt, the Arabian Peninsula, and the Gulf of Aden. In 
2017, for example, our Exercise Cutlass Express, sought to improve 
United States military interoperability with the armed forces of 
eastern African nations and European allies. The exercise was linked 
with U.S. Central Command's international maritime exercise to build 
capabilities in the region. Finally, our partnership with United States 
Special Operations Command (SOCOM)--through Special Operations Command-
Africa (SOCAFRICA)--is a vital link in containing and degrading 
extremism on the continent.
    To support the Department of State-led mission to protect U.S. 
personnel and facilities, United States Africa Command manages rapid-
response forces that are flexible and specialized: the Special Purpose 
Marine Air Ground Task Force-Crisis Response at Moron Air Base, Spain; 
the Crisis Response Force in Baumholder, Germany; and the East Africa 
Response Force in Djibouti. Also, when required, amphibious Marine 
Expeditionary Units offer another layer of reaction forces to protect 
U.S. personnel and facilities. Finally, United States Africa Command 
maintains Defense Cooperation Agreements with several African nations--
which allow for the forward staging locations enable faster recovery or 
evacuation of personnel.
    United States Africa Command is a supporting effort in the 
worldwide fight against violent extremism. With regard to resources, we 
have, historically, been viewed as an ``economy of force'' area of 
operations, particularly in comparison to other combatant commands. 
However, consistent with the National Defense Strategy, we continue to 
explore efficient and cost-effective ways to make the best use of the 
assets we are provided. This is best represented by United States 
Africa Command's limited ISR allocation. With personnel recovery and 
casualty evacuation, contracted search and rescue assets are an 
expensive but necessary substitute to our limited capacity. Moreover, 
most African partners neither have the organic assets nor the funding 
to assist with personnel recovery or casualty evacuation missions. 
While United States Africa Command will continue to meet its mission 
with the assets provided, we will also continue to find ways to help 
protect personnel and enhance mission success.
                               conclusion
    In summary, ten years ago, at the inception of United States Africa 
Command, many were skeptical of a United States combatant command for 
Africa. However, over the past decade, United States Africa Command 
professionals have built strong and trusting relationships with many 
African nations, key partners, and organizations. Today, we continue 
with our partners to contain and degrade transnational threats, protect 
United States personnel and facilities, prevent and mitigate conflict, 
and build African partner defense capability in order to promote 
regional security, long-term stability, and prosperity. In line with 
the National Security Strategy and National Defense Strategy, United 
States Africa Command will continue to bolster existing bilateral and 
multilateral partnerships and develop new relationships to deter or 
constrain threats to United States interests. We will focus on working 
by, with, and through local partners to build the capability required 
to counter violent extremism, human trafficking, transnational criminal 
activity, and illegal arms trade. As a command, we will apply small, 
wise investments toward ``African solutions to African problems,'' 
promoting United States interests and protecting the U.S. Homeland. I 
am honored to lead our servicemembers, civilian employees, and families 
of United States Africa Command. They inspire all of us every day as 
``we go further together.''

    Senator Inhofe. Thank you, General Waldhauser.
    Just less than a month ago, Senators Ernst, Rounds, and 
Sullivan and I spent quite a bit of time in the South China Sea 
seeing, witnessing firsthand what China is doing there. They 
talk about reclaiming land. I suggest it is not reclaiming land 
because there is no land to reclaim. It is creating land. While 
they have been doing this for some time, it has kind of gone 
unnoticed. They are up now to over 3,000 acres that they have 
created, all staffed with nothing but military staff in there. 
So obviously, it concerns a lot of people, and a lot of people 
in the region. In fact, a lot of our allies in the region look 
at China as someone more significant than we are because they 
do not see that type of thing from us.
    Now, I know this is not your AOR [Area of Responsibility], 
General Waldhauser. But recently--and you stated in your 
opening statement there are requests for a presence in 
Djibouti. This is very much of a concern. Djibouti is where we 
have had our marines for quite some time. It is an area that 
has control over the entrance in the Red Sea and ultimately the 
Suez Canal. So I am very much concerned about this, and you are 
too. You said at the House Armed Services last week, ``If the 
Chinese took over that port, then the consequences could be 
significant.'' Well, if China is successful in taking over the 
port of Djibouti, could they use their control to threaten 
United States access and our broader freedom to have navigation 
interests in that region like the Red Sea and Suez Canal?
    General Waldhauser. Senator Inhofe, thank you very much for 
the question.
    Although I am not an expert on port operations, I can tell 
you a few things about Djibouti that may lend some context to 
the question.
    Within the confines of the Djibouti port, there are five 
activities, two of which are run by the Chinese, obviously, 
their Chinese naval port for the facility there, and then they 
have control over what is called a multi-purpose port, which 
essentially offloads containers. There are three other pieces 
to the port, one of which is a fuel pier, which an Emirati 
company owns. Then there is this container pier, which is what 
has been discussed about the Djiboutian takeover in the past 
couple of weeks. Then there is what is called an old port where 
our ships also berth in order to pick up supplies and the like.
    The Djiboutians annulled a contract that they had with the 
Dubai Ports World here last week, and they essentially took 
control of that port. In discussions with our key leadership in 
the area and with the Secretary of State, who was there this 
past week, the Djiboutians indicated that they will run that 
port for the next 6 months and then determine where they will 
go in terms of sale or in terms of whether they will keep 
control of that port.
    The container port, as I described--basically all of the 
containers that come through there in Djibouti, whether it is 
spare parts, whether it is provisions, anything that comes in 
Djibouti comes through that port. That port is used quite a 
bit.
    We also use the fuel port quite a bit. Between October of 
2016 and October of 2017, there were 115 ships that came in 
there to refuel. The fuel also goes to the base in Djibouti to 
refuel airplanes and the like.
    Senator Inhofe. That is a significant area there. I am 
running out of time here, but that is what I wanted to get into 
the record.
    One area--in fact, it was Admiral Harris who called this to 
our attention. In some of the areas where we have done this 
IMET [International Military Education and Training] program, 
which I have always been very fond of and I think both of you 
have, they are seeing that China is going after our IMET 
program in that area. Are you seeing any of this in Africa, on 
the continent of Africa? Because we had worked extensively on 
the IMET program down there.
    General Waldhauser. So it is unclear. It is difficult to 
get data in terms of China and the IMET program in Africa. On 
average, the National Defense University in China graduates 
about 100 or so foreign students a year, some of whom are 
obviously from Africa. They usually come from about 70 or so 
countries.
    By the way, we in the United States--we have about 850 
officers from China who go--sorry--from Africa who go through 
various programs, National Defense University seminars and the 
like, at a cost of about $22 million.
    Senator Inhofe. That is good.
    Let me do this. For the record, because there is not time 
to do it now, General Waldhauser, I want you to kind of outline 
the resources because when we built AFRICOM, it was done 
without resources, and we know who we depend on in cases when 
we need those resources. So I would like to get in writing some 
detail on that.
    [The information referred to follows:]

    Per SASC and Senator Inhofe's office, ``no requirement for 
USAFRICOM to answer.''

    Senator Inhofe. General Votel, I know that you have some 
concerns about China and the efforts that you are seeing in 
China to project their influence in your AOR. Any comments you 
want to make about your AOR?
    General Votel. Senator Inhofe, the thing that I would just 
highlight is that the activities in Djibouti are not only 
important to AFRICOM, they are extraordinarily important to 
CENTCOM. This is certainly one of the key areas where we have 
strong cooperation and collaboration across our geographic 
combatant command areas here. So I certainly share General 
Waldhauser's concerns about what is playing out in Djibouti.
    Senator Inhofe. Yes. In your written statement, you also 
gave some details on that, and you do make a comment, while 
Beijing claims that both locations support peacekeeping and 
humanitarian operations--and you go on. I do not know how many 
people believe that. But it is a great concern to this 
committee.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Votel, as I indicated in my opening remarks, 
consistent with the Secretary of Defense, Secretary Mattis, and 
General Dunford, do you believe that it is in our national 
security interests to stay within the confines of the JCPOA?
    General Votel. I think from my perspective, the JCPOA 
addresses one of the principal threats that we deal with from 
Iran. If the JCPOA goes away, then we will have to have another 
way to deal with the nuclear weapons program. So, yes, I share 
their position.
    Senator Reed. Thank you.
    With respect to Syria, it is a very complicated situation, 
and that is an understatement. One issue involves the Kurds. 
They fought with us very reliably in the Syrian Defense Forces. 
Now they are moving to assist fellow Kurds against the Turks in 
Afrin.
    It appears that we do not have a policy as to our position 
vis-a-vis the Kurds within Syria, the Syrian Kurds, and also a 
longer-term policy as to what do we do. Are we going to have a 
de facto partition of the country with the SDF, Syrian Defense 
Forces, guarding that portion? Can you give us some clarity on 
the policy? I just do not think we have one, to be blunt.
    General Votel. Senator, we have not operated in the 
province of Afrin. In our interactions with the Syrian 
Democratic Forces, they understand that this is an area in 
which we do not operate and have no intention of operating at 
this particular point. The concern certainly that we have is 
that the activities up in Afrin are a distraction to our Defeat 
ISIS activities right now. There has been an impact of that. We 
are addressing that. I think we have got very innovative people 
and partners on the ground that are working to ensure we keep 
the focus on ISIS. But I am concerned about the long-term 
aspects of this.
    Senator Reed. There is a possibility that the Kurds would 
gradually leave our efforts in order to protect their fellow 
Kurdish forces in Afrin. That is a possibility. Is it not?
    General Votel. We have seen that already, Senator.
    Senator Reed. Thank you.
    General Waldhauser, thank you for your hospitality when I 
was passing through AFRICOM.
    One of the impressions that I received there is that we are 
keeping some of these forces on their heels by special 
operations particularly in working with AMISOM [African Union 
Mission to Somalia] and with local forces, but that the real 
long-term struggle is building capacity in every way, shape, or 
form. As I pointed out in my opening statement, the sheer lack 
of State Department presence, ambassadors in Somalia, 
ambassadors in Libya, ambassadors in Egypt--is that impairing 
your ability to get the job done?
    General Waldhauser. Thank you, Senator Reed, and thank you 
and your team for taking the time to come through our AOR. It 
was very helpful and we appreciate your support and concern.
    With regard to Somalia, we do two things there primarily. 
One is the kinetic piece, which we have authorities to strike 
Al Shabaab targets, and we have done that quite robustly here 
in the last few months.
    Additionally, we have a niche in building partnership 
capacity. But I also would say that the international community 
plays a big part in that as well. UAE [United Arab Emirates], 
Turkey, the UK, and so forth also build this capacity. The key 
there is that as we talk about AMISOM transition in around the 
2020 to 2021 time frame, the Somalian National Security Forces 
needs to be at a place where they can conduct their own 
security operations.
    With regard to the country team and the ambassador, our 
country team there--we are very, very tight with them. They, as 
you know, work out of Nairobi, but now they have a facility at 
Mogadishu, which they just have moved into here in the last 
week or so. We work very closely with them. The charge does a 
great job working with President Farmajo because the bottom 
line is the federal government of Somalia needs a lot of help, 
a lot of mentoring, and a lot of coaching as President Farmajo 
moves forward.
    Senator Reed. I concur, and we do have a good and very 
courageous team of diplomats on the ground in Mogadishu, but in 
order to have the impact we need in a very short period of 
time, we are going to have to up the game dramatically and I do 
not see that happening on the civilian side. Even your 
resources are limited as we shift to other priorities and as 
the National Defense Strategy moves near-peer competition with 
Russia and China to the forefront leaving both of you with 
maybe not an economy of force operations but certainly there 
are different priorities.
    But thank you all for your service, and please again convey 
our thanks to the men and women you lead.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you for being here today.
    General Votel, I will start with you. My best to Michele as 
well. Please send my greetings.
    General, when I was in Afghanistan a few months ago, I 
visited military and diplomatic leaders in Kabul, Kandahar, and 
Baghram. It seems as though the Taliban is now transitioning 
from an ideologically inspired group into a narco-terror group, 
which is using ideology as a veil. As such, the Department of 
Defense is focused on destroying processing facilities and 
their yields as opposed to just simply destroying the poppy 
fields. The State Department is very focused on enforcement in 
conjunction with the FBI [Federal Bureau of Investigation] and 
the DEA [Drug Enforcement Administration].
    Is this strategy different from those strategies that we 
have used in the past? If so, how are they different?
    General Votel. Senator, thank you.
    They are different. We are using the authorities that have 
been passed to us recently to ensure that we can go after, as 
you suggested, these funding streams that are fueling the 
Taliban right now, and they are proving effective. This is a 
lesson learned from Iraq and Syria where when we got serious 
about going after the funding streams that supported ISIS, we 
started to see an immediate impact. That is exactly the 
attention here.
    I do agree with you. They are well resourced by this 
narcotrafficking that takes place. So our efforts are not only 
targeting their production and storage locations but also 
working with regional partners to help limit the flow of that 
product out of the region, again trying to impede their ability 
to benefit from that.
    Senator Ernst. So you think it is fair that we call them a 
narco-terror group?
    General Votel. I think they are absolutely that way, and 
they take on many of the characteristics of a mob, mafia type 
of group.
    This is not a popular insurgency. I think that is an 
important thing for people to understand. Over 90 percent of 
the people in Afghanistan do not want the Taliban to be in 
charge of their country. It is not a popular insurgency.
    Senator Ernst. As we fight and try to eradicate their 
funding streams then, do you believe that we are adequately 
funded to achieve success?
    General Votel. I do. I think we have got the necessary 
resources right now to pursue the strategy that has been laid 
out for us.
    Senator Ernst. Then if we are successful in destroying 
their narcotics industry and their funding sources, what 
development do we need to see then in Afghanistan to make sure 
that their people are self-sufficient?
    General Votel. I think the big idea here is to force the 
Taliban to reconciliation. The way we do that is by focusing on 
military pressure, by focusing on political pressure working 
with the regional partners such as Pakistan, and it is through 
social pressure. This, of course, is ensuring that the 
Government of Afghanistan continues to make the necessary 
reforms that President Ghani has already committed to and that 
he is moving out on as we speak. This includes not only 
addressing endemic problems with corruption, but also ensuring 
that fair elections are conducted in the country and that they 
are addressing some of the leadership challenges they have. 
They are doing these things right now, and I think this will 
help build confidence in the Government of Afghanistan for the 
people.
    Senator Ernst. I do appreciate that.
    I am going to focus in a little bit more on the Afghan 
special operations units. We have had a lot of United States 
effort in Afghanistan building the Afghan air force and 
increasing the size of their Afghan special operations units. 
How will the creation of the Afghan air force and doubling the 
size of their special ops units change the conditions on the 
ground as we see them today?
    General Votel. Well, I think a key part of our operational 
approach here is to build on what is working in Afghanistan. 
Certainly their Afghan Special Operations Forces and the Air 
Force have been very, very good programs. Essentially what we 
are focused on doing by doubling the Afghan Special Operations 
Forces, by building out the air force is to really provide the 
Government of Afghanistan with a very good offensive capability 
that can really focus on gaining control of the population, the 
areas that we need to for the government to exert their writ.
    We look at the Special Operations Forces and the Air Force 
really as their kind of principal offensive capability. Then 
the Army plays the role as the hold force. Then we are working 
to get the police to become more competent in their policing 
functions that are important in the urban and populated areas.
    Senator Ernst. I appreciate that. Thank you very much.
    When I was in Afghanistan, I was able to visit with some of 
those pilots, and they are truly excited about being able to 
support their own country.
    Thank you, gentlemen, very much.
    Thank you, Mr. Chair.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for your service and for being here today.
    General Waldhauser, I and a number of other women Senators 
had the opportunity last week to meet with two young women who 
had been kidnapped by Boko Haram. They had horrific stories to 
tell us about seeing family members murdered before their eyes, 
about being forced into marriage, about being gang raped on an 
ongoing basis.
    I asked them what they would like Americans to know about 
what is happening in Nigeria. They were both Nigerian. What one 
of them said to me is that people in the United States should 
understand that this is not just the Chibok girls, several 
hundred who, as most of us remember, were kidnapped several 
years ago. But this is happening to thousands of girls on a 
daily basis in Nigeria.
    The translator who was with them, who was with the 
organization that brought them to the United States, said that 
this is a strategy by Boko Haram to impregnate women, to grow a 
whole next generation with that extremist ideology.
    I know that in your statement, you talk about Nigeria's 
capabilities and capacities growing. But in fact, they have not 
really been able to address this mass kidnapping of girls in 
Nigeria. Is that your understanding? What are we doing to try 
and support efforts to address what Boko Haram is doing?
    General Waldhauser. Thank you, Senator Shaheen. Good to see 
you again.
    Obviously, Boko Haram is one of the most deplorable 
organizations on the planet. Since 2009, they have killed, 
depending on what you read or what statistics you look at, well 
over 20,000 people, and they have displaced millions. They are 
notorious for the things that you talked about.
    With regard to the Chibok girls, you know, almost 4 years 
ago this month, in April 4 years, 276 were taken away. 163 have 
been returned, about 60 percent. In a closed session, I can 
discuss with you what we think or where we think the other 113 
girls are.
    On February 19th, this happened again in Dapchi. Dapchi is 
a location that is about 150 miles north of where Chibok is. 
Although no group has claimed responsibility, based on the 
location and based on several open sources, we believe it to be 
ISIS-West Africa. ISIS-West Africa was at one time part of Boko 
Haram, but they split for a whole host of reasons.
    One of the things I will tell you is that we have been 
asked to provide assistance to the Government of Nigeria to try 
to help find these girls, and we can talk more about that in a 
closed session. But we are providing assistance in terms of 
intelligence support, planning, and the like that they have 
asked us for. They are trying to find a negotiated solution 
here. That is their desire. But as you say, the security 
situation especially in Borno State and Yobe State where this 
took place is very, very precarious.
    Senator Shaheen. When we passed the NDAA in 2017, we 
created a new authority under section 385 that allows the 
Secretary of Defense to transfer up to $75 million to USAID 
[United States Agency for International Development] and to the 
Department of State to implement foreign assistance programs. 
Are these programs that would be helpful as we are looking at 
the challenges facing women and girls in places like Nigeria 
where they need to be reintegrated into their societies? There 
are challenges with doing that. Can either of you tell me if 
the Secretary of Defense has requested any of those dollars?
    General Waldhauser. So, thank you.
    The 385 program, as you said, is a new one this year. So we 
have had to work our way through several of the wickets to see 
how we could apply it and so on.
    We currently have two proposals that we have put through 
OSD [Office of the Secretary of Defense].
    One of them has to do with defections inside Niger where we 
would like to work with the State Department to follow through 
on our activities. They would complement our activities. So 
that one is one we put forward.
    A second one we put forward is in Nigeria but it is in the 
Gulf of Guinea basin where we are trying to get some of the 
people there to court on a legal perspective, and the State 
Department can help us there as they run illegal drugs, 
weapons, and the like.
    We have got two nominations in, and we are hopeful that 
this is something that can complement our overall kinetic 
effort as part of the development or diplomacy piece of our 
activities.
    Senator Shaheen. Well, I think if this committee can be 
helpful with that, I hope you will let us know.
    General Votel, I have only a few seconds left. But I wonder 
if you could tell us what happened in Syria when our forces 
engaged with Russia pro-regime forces. It appeared that those 
were Russian contractors. Is this a new mechanism that Russia 
is using to engage contractors to serve as mercenaries on the 
ground for them?
    General Votel. Senator, thank you.
    I cannot speculate on what Russia's intentions might be. 
But in this particular situation, this was in my view a very 
clear situation of U.S. coalition forces with our partners on 
the ground defending themselves. We were attacked in this 
particular case. My view is that our forces responded properly 
in this case. They immediately identified what was happening. 
They immediately got on the net with the Russians and were 
talking with them before, during, after the event and very 
effectively brought together the right capabilities, whether it 
was ISR [Intelligence, Surveillance, and Reconnaissance] or 
fire support, to address this. I think our people responded 
extraordinarily well.
    Senator Shaheen. I am not criticizing.
    General Votel. I do not know if this is some kind of change 
in their piece and how they are approaching this. I would just 
tell you that we remain extraordinarily vigilant to these types 
of threats and we retain the sufficient capabilities to protect 
ourselves and our partners on the ground against these types of 
activities.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Graham?
    Senator Graham. Thank you, sir.
    General Votel, is there any credible opposition to Assad 
left in Syria?
    General Votel. Senator, as you know, our mission is the 
defeat of ISIS.
    Senator Graham. That is not my question. My question is, is 
there any credible opposition left to Assad in Syria?
    General Votel. The only opposition that I am aware of is 
those that are out in the vicinity of Damascus in the Ghouta 
area and then up in the Idlib area that still controls some 
terrain. So they do pose some kind of threat to the regime.
    Senator Graham. Who is winning in Syria--the civil war?
    General Votel. Well, again, from a civil war standpoint, it 
would appear that the regime is ascendant here.
    Senator Graham. Do you see any likelihood that the forces 
you just named can topple Assad in the next year?
    General Votel. That is not my assessment, Senator.
    Senator Graham. Is Iran helping Assad?
    General Votel. Iran has been a key enabler of the regime 
for a while.
    Senator Graham. Is Russia helping Assad?
    General Votel. They also are a key enabler of the regime.
    Senator Graham. Is it too strong a statement to say that 
with Russia and Iran's help, Assad has won the civil war in 
Syria?
    General Votel. I do not think that is too strong of a 
statement. I think they have provided him the wherewithal to be 
ascendant at this point.
    Senator Graham. Is it still our policy that Assad must go?
    General Votel. I do not know that that is our particular 
policy at this particular point. Our focus remains on the 
defeat of ISIS.
    Senator Graham. Well, if you do not know, I doubt if 
anybody knows because it is your job to take care of this part 
of the world.
    What does it mean if Iran and Russia and Assad have won in 
Syria? What does it mean to us and to the region?
    General Votel. It means that we will contend with this 
influence of Iran in this particular area and with the 
influence of Russia.
    Senator Graham. What does it mean to Israel?
    General Votel. Well, certainly from an Iranian standpoint, 
it means that Iran could be in a position where they could 
support Lebanese Hezbollah better and then pose a great threat 
to Israel.
    Senator Graham. They are actually doing it. Are they not? 
They are actually doing that as we speak--the Iranians.
    General Votel. We have certainly seen some activities that 
would certainly support that.
    Senator Graham. What does it mean for Jordan?
    General Votel. It means that, again, there are unstable 
regimes to their north that pose threats to them as well.
    Senator Graham. Thank you for your clarity and your 
honesty. It is not your mission in Syria to deal with the 
Iranian-Assad-Russia problem. That is not in your things to do. 
Right?
    General Votel. That is correct, Senator.
    Senator Graham. Do you think it should be?
    General Votel. At this point, I think if that was the 
decision that was made by the U.S.-led coalition leadership 
here, then we would pursue that.
    Senator Graham. Detainees. We have rolled up about 400 and 
something detainees in Syria. The Syrian Democratic Forces have 
about 400 and some people in their charge. Is that correct?
    General Votel. Senator, I think you are referring to about 
400 or so foreign terrorist fighters that they have within 
their detention.
    Senator Graham. These are the people that did not die for 
the cause but were captured as we liberated Raqqah and other 
areas. Is that right?
    General Votel. As they attempted to escape the areas in 
which we are operating in right now.
    Senator Graham. Do you think we have a credible plan to 
detain these people?
    General Votel. We actually do have a plan to detain them on 
the ground, and we are working with our partners in the 
government here to work to get them back to their countries so 
they can be prosecuted in accordance----
    Senator Graham. If they do not go back to their countries, 
do you think we have a credible plan to detain them inside of 
Syria long term?
    General Votel. We are working on improving the capacity of 
the Syrian Democratic Forces to do that right now.
    Senator Graham. Africa, General Waldhauser. The Sahel is 
made up of how many countries?
    General Waldhauser. Well, five, five or so, yes.
    Senator Graham. Of those five countries, how many would you 
characterize as failed states?
    General Waldhauser. I do not think there is a failed state 
there yet, but there are certainly fragile states in that area.
    Senator Graham. If trends continue, will they become failed 
states?
    General Waldhauser. It is possible.
    Senator Graham. Do we have a strategy to prevent that?
    General Waldhauser. Our strategy is to support the G5 
Sahel. We do that bilaterally with these countries in order for 
them to----
    Senator Graham. Is it working?
    General Waldhauser. It is in the infancy stages. I mean, 
this G5 program has just begun. You have 5,000 individuals 
covering a very large territory.
    Senator Graham. So 5,000 people are covering five 
countries.
    General Waldhauser. That is correct, the border areas.
    Senator Graham. I am not a military guy, but that does not 
sound enough.
    Does it matter if the Sahel becomes a region of failed 
states to us, and if so, why?
    General Waldhauser. It does matter because the groups that 
are in that area, ISIS, JNIM [Jama'at Nasr al-Islam wal 
Muslimin], and the like--some of these have aspirations to 
conduct things regionally, as well as into Europe and into our 
Homeland. It is very important that we contain or that we 
degrade and we work with our partners because if we had a 
failed state and if these groups took over that failed state, 
then you have a situation where it is just vast wastelands 
where people can plan attacks against the United States.
    Senator Graham. One last question. Is Libya a failed state, 
fragile state, state on the mend?
    General Waldhauser. It is very difficult to characterize 
Libya, but I would have to say a fragile state. I mean, Salome, 
who is the UN representative, has got a plan to try to work 
through a restructuring of the political committees, a 
constitution, and potentially a vote later this year. But the 
bottom line is unless the security is there, unless a fair 
election can take place, and unless those individuals who are 
part of the process will agree to the outcome of the election, 
then it would not serve any purpose at this point.
    Senator Inhofe. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, General Votel and General Waldhauser, for your 
work.
    For nearly 3 years, a Saudi Arabia-led coalition has been 
bombing Yemen to counter Iranian-backed Houthi militias. The 
United States military has been providing intelligence, mid-air 
refueling, ammunitions to the Saudis.
    As I understand it, refueling operations are governed by 
something called a bilateral acquisition and cross-servicing 
agreement. The United States has one with both Saudi Arabia and 
the UAE. I have read over these documents, and there are a few 
things they do not seem to cover that I want to ask you about.
    So, General Votel, does CENTCOM track the purpose of the 
missions that it is refueling, in other words, where a U.S. 
refueled aircraft is going, what targets it strikes, and the 
results of the mission?
    General Votel. Senator, we do not.
    Senator Warren. Reuters recently reported on a Saudi 
coalition air strike in late February that killed five 
civilians and wounded 14, including four children. According to 
witnesses that were interviewed by Reuters, the coalition 
conducted two additional air strikes that hit paramedics who 
were trying to save civilians in the rubble.
    General Votel, when you receive reports like this from 
credible media organizations or outside observers, is CENTCOM 
able to tell whether U.S. fuel or U.S. munitions were used as 
part of that strike?
    General Votel. Senator, I do not believe we are.
    Senator Warren. The reason I ask about this is because the 
Yemeni people are suffering, and this is a humanitarian crisis. 
That is why I cosponsored the Sanders-Lee resolution that 
directs President Trump to stop our involvement in Saudi 
military operations in Yemen unless Congress provides specific 
authorization. The bill would allow our counterterrorism 
operations against al Qaeda and its affiliates to continue, but 
it would ensure that the United States is not giving the Saudis 
a blank check to bomb Yemen and worsen the humanitarian crisis.
    I know that Iran sanctions against Yemen are destabilizing. 
They are making the conflict worse, and that is unacceptable. 
But we need to be clear about this. Saudi Arabia is the one 
receiving American weapons and American support, and that means 
we bear some responsibility here. That means we need to hold 
our partners and our allies accountable for how those resources 
are used.
    I have one other question I would like to turn to, if I 
can. That is, earlier this year, Secretary of State Tillerson 
implied that United States troops would stay in Syria 
indefinitely. In addition to our forces, Hezbollah, Russian 
forces, Iran's Islamic Revolutionary Guard Corps, and now 
Turkish troops are also operating on the ground, and we have 
already had several run-ins with these forces.
    With my remaining time, I have just one question. General, 
how is CENTCOM deconflicting between these various forces that 
are operating on the ground, and what is your strategy for de-
escalation if a confrontation occurs?
    General Votel. Senator, thank you for the question.
    First off, the principal we are deconflicting is through 
direct communications. As you aware, we do have direct 
communication line with the Russian Federation forces on the 
ground. I would characterize our conversations with them as 
militarily professional. They take place several times a day, 
and they have been going on for a couple of years. I do think 
this has been a very effective way of ensuring that we can 
deconflict and prevent things from happening in ground space 
and in the air space.
    We also have the same thing with our Turkish partners to 
the north. In areas where we are in close proximity, again we 
have very good communications with them. We are able to 
deconflict. We are able to ensure that people have good 
situational awareness, they understand what we are doing with 
our partners on the ground. This direct communication really 
allows us to ensure that we can minimize the opportunities for 
escalation or for miscalculation on the ground. I think these 
are working very, very effectively.
    Senator Warren. So this is mostly about communications.
    I just worry, General, because the situation in Syria is 
extraordinarily dangerous. I am not sure that throwing a small 
number of U.S. troops in the middle of it is a sustainable, 
long-term solution. I believe we need a clear strategy here for 
ending the violence and for holding Assad accountable. But I 
appreciate your work in this area. Thank you very much, 
General.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, let me begin by thanking you both for your 
service to our country as well as to your families as well for 
their sacrifice and your time away from home.
    I would like to begin by talking a little bit about 
AFRICOM. General Waldhauser, I am curious. I have had the 
opportunity to accompany Senator Inhofe on several of his most 
recent trips to Africa. Senator Inhofe has now made over 150 
different nation stops in Africa over the last 20-plus years. 
What I find interesting in each of our trips has been the 
amount of interest that those countries and those leaders in 
those countries have in relationships with our country.
    In the case of AFRICOM and our abilities, right now, as I 
understand it, if you need resources--and you do in an area of 
the world in which things are not getting quieter, they are 
getting more intense--you basically borrow from other 
operations in and around for the resources that you need. Would 
you explain for us how AFRICOM actually receives the resources 
that it needs right now?
    General Waldhauser. Thank you, Senator Rounds.
    There are two or three ways we receive forces. One of them 
is if we are assigned forces, and we do not have assigned 
forces but we have allocated forces. For example, the Marine 
Corps special purpose MAGTF [Marine Air-Ground Task Force], 
which mission has to do with protection of U.S. citizens and 
property on the continent--we are allocated that organization.
    Senator Rounds. How large is that force?
    General Waldhauser. That force is company-sized units, six 
MV-22's and some C-139's, but it has lot of ground to cover on 
the continent.
    Senator Rounds. An entire continent.
    General Waldhauser. An entire continent. We have used that 
or we have moved that around to help on the entire continent.
    We also have a force in Djibouti, an East African response 
force from the Army. That is a company-sized unit, and that is 
also tied to the issue of protection of U.S. citizens with 
property.
    We have Special Operations Command, which has a large part 
of what we do in terms of the forces that come to do the train, 
advise, and assist.
    We also have episodic forces that come from the Army, for 
example, to train units. They just trained, for example, for 
about 6 weeks a battalion in Nigeria.
    Although we do not have assigned forces, we are allocated 
forces, and we compete for those through the Global Force 
Management process, which the Joint staff runs on behalf of the 
Secretary.
    Senator Rounds. Is it time to take a look at actually 
standing up AFRICOM, the same as the other combatant commands 
are stood up?
    General Waldhauser. Well, in that regard, I think we are 
the same as the other combatant commands. We have a COCOM 
[combatant command] staff of the same size, relatively 
speaking. We are located, obviously, in Stuttgart, Germany. We 
have great interagency partners with us, as well as military 
force. But AFRICOM staff per se is one that is like the other 
COCOMs.
    I think perhaps what you may be referring to is our 
components. Our components in some cases are dual-hatted. The 
Air Force is dual-hatted Europe and Africa. The Navy is dual-
hatted. The Army is separated.
    Senator Rounds. Do you find that working in the current 
capacity?
    General Waldhauser. It is working. There is no doubt about 
it, and we move assets around between the COCOMs. For less than 
30 days, we do not need the Secretary's approval to do so. We 
work with EUCOM [United States European Command] and we work 
with General Votel and his team all the time. If we have 
kinetic operations, for example, in Somalia that require a 
little bit more, we will schedule those and we will organize 
those around a period where we can gain assets from CENTCOM, 
for example.
    The continent of Africa is extremely large, and it is 
virtually impossible to cover the whole thing all the time with 
other priorities around the globe for the United States. But we 
have to be smart, innovative, and we have to have good 
relationships with our fellow combatant commanders in order to 
make it work.
    Senator Rounds. Are we placing the appropriate emphasis on 
Africa? Look, right now, we know there are hotspots. Long-term, 
this is a developing part of the world, which seems to me other 
super powers, other nations are paying a great deal of 
attention to, China in particular. Are we doing the same?
    General Waldhauser. Well, I think back to your original 
point, first of all, all the countries on the continent for the 
most part really want to be associated with the United States. 
They want our assistance. They want our leadership. But they do 
not really expect a lot. I mean, little things can go a long 
way. I think in the countries that you and Senator Inhofe have 
visited, perhaps you have seen that in spades. But we have to 
remain engaged there for a whole host of reasons, which I think 
you understand. I think a little goes a long way on the 
continent because at the end of the day, we are trying to 
develop capacity for their security forces to take care of 
their security problems.
    Senator Rounds. Thank you. My time has expired. I thank you 
both, once again, for your service to our country.
    Thank you, Mr. Chairman.
    Senator Inhofe. General Waldhauser, I do want to have a 
personal discussion with you in the next few days because I do 
not agree with you in the way this is set up. I was here when 
we established AFRICOM, and there was a debate about dedicated 
assets at that time. I would like to go over it to get 
clarification around that issue.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you both, gentlemen, for being here today and for 
your service.
    General Waldhauser, I would like to talk a little bit about 
Nigeria and add to some of the questions that my colleague 
asked you about.
    I had the opportunity to travel to Nigeria as part of my 
work on this committee last year, and I was very concerned 
about ISIS-West Africa, which you mentioned is basically a 
splinter group from Boko Haram. At that time, it looked as if 
the situation was deteriorating. My question to you is, what is 
the status? Where are we in relation to ISIS-West Africa? Is 
the situation getting better?
    General Waldhauser. ISIS-West Africa--of those two groups, 
if you divide them in half, Boko Haram and ISIS-West Africa, 
ISIS-West Africa is the group that is of more concern to us. 
They have ties to ISIS core. They have some funding from ISIS 
core. They have indicated in the past their desire to go 
outside the region to conduct activities, attacks, if you will, 
on U.S. interests in the area. They certainly are more of a 
concern to us at this particular time.
    Senator Peters. Are we applying adequate resources to deal 
with the issue?
    General Waldhauser. The strategy for ISIS-West Africa is 
with the Lake Chad basin region where we apply our assistance 
to the countries around there, Cameroon, Chad, Niger, and 
Nigeria. We have made progress with Nigeria in the last year or 
so with regard to our ability to share intelligence with them, 
to assist them in planning, and also to assist in training.
    Senator Peters. You mentioned in your written testimony 
that the multinational task force in that area in the basin 
does not seem to be as interested in dealing with the 
situation. They believe it is a Nigeria-centric problem. I 
gather you do not agree.
    What can we do to convince them otherwise? Based on your 
testimony here today, it sounds as if they do want to operate 
across a broader region.
    General Waldhauser. Well, they do want to operate--the 
countries that support the multinational joint task force. But 
in most cases, these countries have significant other 
challenges, whether it be Nigeria itself in the coastal area or 
in the central area, whether it is a country like Chad, for 
example, who has concerns about their border with Libya. Niger 
has all kinds of issues throughout their country, and so the 
ability to have large military forces that can do all of these 
things is difficult for these countries. Sometimes it appears--
let us just say over a period of months, the trend line has 
been in a negative way, if you will, on how Boko Haram has been 
acting, these countries may decide to move their assets other 
places because their interests and their security concerns--
Boko Haram, for example, may not be on the top of the list 
based on some internal issues that are going on within those 
countries.
    Senator Peters. You mentioned Chad which is in a very 
dangerous part of the world in the region that we are focused 
on. It has always been my understanding in some briefings that 
I have had related to some of the operations in the Sahel, that 
Chad has been a pretty capable and productive partner for U.S. 
operations. Is that accurate?
    General Waldhauser. That is accurate. But their main 
concern I think at the moment would be the issue of foreign 
fighters coming from Libya into their northern area.
    Senator Peters. Having a relationship with them is 
important because that could also have an impact to the United 
States. I know that yesterday Secretary Tillerson--I guess 
former Secretary Tillerson--indicated that the United States is 
considering removing Chad from the travel ban.
    Now, I have been concerned about some of the rhetoric we 
have seen from the President in relation to Muslims and African 
nations, including using some very disparaging language in 
reference to African nations. I think that can damage certainly 
our standing and working in that part of the world.
    I would like your thoughts as to any impact on the 
relations we have had with Chad as a result of them being 
included in the travel ban and how important our partnership 
with countries like Chad and others in dealing with what could 
be very serious issues arising out of the African continent.
    General Waldhauser. Senator, we continue to work with all 
the countries, Chad included, and show them our commitment and 
demonstrate our desire to help them build capacity. One example 
I would give to Chad. It is a small example and it is very 
simple, but it demonstrates I think AFRICOM's commitment.
    A few months ago, there was a huge storm in Chad and 
various aircraft hangars--and they have a very, very small air 
force. But a few aircraft hangars were destroyed, and they 
simply have no way to repair them. We were able to gather some 
funds and quickly send a team down there and erect several 
shelters that would replace these hangars that had been 
destroyed in the storm. That is a small way to demonstrate our 
commitment and AFRICOM's commitment to that country to let them 
know that we certainly are behind them and have a desire for 
their capacity to be built.
    Senator Peters. Thank you.
    Senator Inhofe. Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Good morning to you. Thank you for being here this morning.
    General Waldhauser, the National Defense Strategy describes 
the greatest threat to U.S. prosperity and security as a 
reemergence of long-term strategic competition by revisionist 
powers. These revisionists include Russia and China, two 
countries we see more and more activity in the continent of 
Africa. China just opened a new naval base in Djibouti, mere 
miles from our only enduring military presence in Africa while 
Russia has been courting leadership from both sides of the 
conflict in Libya and announcing major new investments in 
Zimbabwe. These Russian and Chinese efforts are self-interested 
as these countries are doing very little to counter the myriad 
of terrorist threats across the region. Groups such as Boko 
Haram, ISIS-West Africa, and Al Shabaab continue to operate 
freely.
    What is your assessment of the Russian and Chinese 
activities in Africa? First question. The second, as we shift 
our National Defense Strategy to the two revisionists, how are 
we working to make sure that the terrorist activities in Africa 
do not find their way to our country?
    General Waldhauser. Thank you, Senator.
    The first part, I will talk about Russia rather briefly.
    First of all, Russia's interest in the continent has to do 
with intelligence exchanges with various countries with arms 
sales and also with energy partnerships. You mentioned 
Zimbabwe. There is a platinum mine there that they have had 
some activities in. They have got a $4 billion investment 
there. They are also interested in arms sales because there has 
not really been any arms sales from the West since about the 
mid-2000s there. So they are trying to open those type of 
markets any way they can to show that the U.S. perhaps is not a 
good partner or someone that is not willing to work with them.
    My personal concern with the Russians is what they are 
trying to do in the northern part of the country from Egypt to 
Libya, Tunisia, Algeria. It is that part of northern Africa on 
the Mediterranean, which is on the southern part of NATO. They 
have got interests there. As you said, in Libya they are 
playing--on one hand, they talk about supporting the UN 
agreement, but on the other hand, the support that they provide 
for Haftar and the HOR [Tabrule-based House of Representatives] 
forces is something that needs to be addressed.
    With regard to China, they obviously have a lot of 
investments. They are interested in the One Belt, One Road. 
That gives them the ability to diversify economically imports 
and exports. I think that has been very well documented. So 
they obviously have a big part in there too.
    But there areas where we can work with China. I mean, we 
have a unique situation where their base in Djibouti is just a 
mile or so from ours. If there are interests that have to do 
with humanitarian, peacekeeping, safekeeping with regard to air 
flight and range usage by their ground forces there, we have to 
find a way to communicate that with them. On one hand, we are 
certainly aware of the great power competition, but we have a 
unique situation where they are a neighbor of us in Djibouti.
    With regard to the future and what the National Defense 
Strategy says, really if you look at what Africa is described 
in there, we are told to conduct a by, with, and through 
strategy. We are told to develop relationships, work with our 
partner forces to continue the C-VEO [violent extremist 
organization] struggle there. Even though a lot of it is China, 
Russia, Iran, and North Korea, the part on Africa basically 
tells us to continue what we have been doing to include 
building partnership capacity to defeat the terrorist 
organizations.
    Senator Scott. So, General, do you see the Chinese in 
proximity to our basis as an opportunity for partnership, as 
well as the Chinese being a competitor?
    General Waldhauser. It is, and that is the unique part. It 
is the only place on the planet where China has an overseas 
base. It is right next to ours. Not only do you have China and 
the United States in Djibouti, there is Japan. The French and 
the Italians are all located there as well. The Chinese have 
started to work closely with the French in terms of some of the 
exercises they do there. This is small-level operations. But 
again, the unique situation is what we do with China obviously 
has to be informed by our overall global strategy, but the 
unique situation that we have with those individuals being next 
door and participating in peacekeeping operations and anti-
piracy operations, we have got to find a way to work with them 
as well.
    Senator Scott. Thank you.
    General Votel, I have a few seconds left, 30 seconds. As 
opposed to naming the conflicts and the extraordinary 
complexity in your region, I will just ask a question.
    As you consider the strategic environment in the Middle 
East and competing interests among even our nominal allies such 
as Turkey, would you provide your assessment of Russia, 
Turkish, and Iranian goals in the Middle East and if you see 
their goals as mutually supporting the overall conflict?
    General Votel. Well, first off, Senator, Turkey is a NATO 
ally. Our relationship is deeply valued. They have been a key 
partner in the fight against ISIS here for a long period of 
time, and we do recognize they have legitimate concerns with 
security along their border from terrorism. Of course, this has 
led to a little bit of a tension between us at this particular 
point that we are working through largely diplomatically but 
also militarily at this particular point.
    I guess what I would highlight is what I mentioned in my 
opening remarks and that is Russia does play a role here. 
Again, it is cute to say arsonists and firemen is kind of what 
they try to do. They are trying to instigate tension among 
partners in the region and then trying to play a role in trying 
to be an arbiter in that. This is what happens, and this is 
what plays out on a regular basis. We really do have to take a 
look at our long-term relationships and make sure that we are 
focused in on that and staying as strong as we can on those. I 
am concerned about this role that Russia plays in northern 
Syria and how it impacts all of our relationships and 
especially the relationship between us and Turkey.
    Senator Scott. Thank you, General. I will submit a couple 
questions for the record as it relates to Turkey.
    General Votel. Thank you.
    Senator Scott. Thank you, Mr. Chairman.
    Senator Inhofe. Senator King?
    Senator King. Thank you, Mr. Chairman.
    General Votel, I want to follow up on a couple of the 
questions that Senator Warren asked about Yemen. What would be 
the implications and the impact if the United States stopped 
providing the aerial refueling, the intelligence, and the 
advice to the Saudi forces?
    General Votel. Senator, I think right now the provision of 
those things that you just covered right now gives us 
placement, it gives us access, and it gives us influence with 
Saudi Arabia. What I would highlight to you is that we have 
been working with them sharing our own experiences.
    Senator King. But you testified earlier that when we refuel 
a Saudi plane, we do not have any control over the mission, 
where it goes, what it does next. If the argument is that this 
allows us to maintain control, are we maintaining some level of 
control?
    General Votel. The influence that we derive with them is by 
working with them to demonstrate how we do our targeting 
process----
    Senator King. Do they listen?
    General Votel. They absolutely do.
    Senator King. Have they ever changed a mission based upon 
our input?
    General Votel. They absolutely do. In the work that we have 
been doing with them related to the ballistic missile threat, 
we have seen some very good progress in this area. Recently 
Saudi Arabia has followed many of the things that we have done 
in terms of how we stand up architectures to investigate 
civilian casualties. These are problems that we have on 
occasion even as good as we are.
    Senator King. So the principal argument against this move 
to limit or cut off that aid is if we do, the Saudi conduct 
might be worse.
    General Votel. Senator, from my perspective it is better 
for us to stay engaged with them and continue to influence 
this. They want this type of support, and they want to improve 
their capability.
    Senator King. You said for us. How about for the people of 
Yemen?
    General Votel. I think it is absolutely essential that we 
stay engaged in this for them. I think this does give us the 
best opportunity to address these concerns.
    Senator King. Thank you.
    Turning to Iran, I understand Iran--all the testimony is 
Iran is abiding by the JCPOA in terms of inspections and what 
they are doing. What would be the implications for the region 
if the United States abruptly terminated the agreement, and 
what would Iran do?
    General Votel. Senator, I cannot speculate on what Iran 
would do. You know, the implications for the region--I think 
there would be some concern I think about how we intended to 
address that particular threat, if it was not being addressed 
through the JCPOA. Of course, our approach here is one of 
assuring our partners, maintaining deterrent capabilities in 
the region, and then of course, where we can----
    Senator King. But if the agreement were terminated, would 
the Iranians not then be free to pursue a nuclear weapon within 
a matter of months?
    General Votel. Theoretically they would be able to do that.
    Senator King. That certainly would not contribute to--if 
the Iranians had a nuclear weapon, we would have two rogue 
states with nuclear weapons on our hands instead of one, the 
other one being North Korea.
    General Votel. Right. This could certainly be the case. 
Again, we are speculating that that would be the direction.
    Senator King. Do you think it would be in the national 
security interest of the country to maintain the Iran agreement 
at least for the near term?
    General Votel. I share the Secretary of Defense's and 
Chairman's comments on this, that right now I think it is in 
our interest.
    Senator King. There may be a different point of view in 4 
or 5 years when it is near the end of its term. Is that 
correct?
    General Votel. That could be true.
    Senator King. Thank you.
    Turning to Pakistan, by the way, you have one of the most 
complicated jobs in the world I think. You can go from one area 
to the other--I have not even mentioned Syria. Is Pakistan 
still supporting terrorist activity in Afghanistan, and has the 
recent get tough with Pakistan policy influenced their 
behavior?
    General Votel. It has. The pressure that has been put on 
Pakistan I think through our South Asia strategy and some of 
our public communication I think has helped gain their 
attention. As I have mentioned previously, we have seen some 
positive indicators as a result of this. I cannot tell you that 
we have seen decisive changes in the areas in which we are 
working, but I remain very well engaged with my partner to 
ensure that we are moving forward on this.
    Senator King. But there appears to be a surge of attacks in 
Afghanistan. You do not associate those with Pakistan?
    General Votel. Well, again, having sanctuary in Pakistan or 
having support from other actors in the region certainly is an 
aspect of the Taliban's success here. So I think we have to 
look at all of these to ensure we attribute the causes of these 
attacks to where that is. We also have ISIS that does have a 
different approach as well.
    Senator King. Final question. Should we be even tougher 
with Pakistan? Should we ratchet up the pressure because they 
still are providing sanctuary? It is still unclear whose side 
they are on in that region.
    General Votel. Senator, I think right now the strategy that 
we have is an appropriate one, and I think we have the 
mechanism to continue to keep them focused on our objectives, 
our mutual objectives here. So I do think we are pursuing this 
in the right way, and I think some of the positive indicators 
that we have begun to see, although it has not to led to 
decisive changes yet, are things that we have to pay attention 
to as we move forward.
    Senator King. Thank you. Thank you, gentlemen.
    Senator Inhofe. Thank you.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, good to see you. Thanks for your service.
    General Waldhauser, I just want to ask a very basic 
question. I know there is an answer to it that I am sure I am 
missing. But why is AFRICOM not located in Africa?
    General Waldhauser. Well, as you know, this is the tenth 
year of the Africa Command as it stood up. There have been 
several attempts to perhaps move it to the continent.
    Senator Sullivan. What is the roadblock? Is it because they 
do not want us there, or is it the Congress not helping you? It 
always seems to me a little disjointed that it is in Germany.
    General Waldhauser. Well, I think the roadblocks are, first 
of all, there is a financial aspect of this, the cost to do 
that. But then the second and third order effects, if you move 
to a country in Africa, then what does that mean to surrounding 
countries or other partners? They may view that as something 
that is perhaps skeptical.
    I think just to restate it, 10 years ago when the command 
was stood up--and Senator Inhofe is well aware of this--there 
was a lot of skepticism on the continent as to what the intent 
was for a military command for that particular area. It 
surfaces every once in a while, but to my knowledge, there has 
been no effort at the moment to move.
    Senator Inhofe. If you will let me use 10 seconds of your 
time, I would say that the reason is perceived colonialism. I 
was on your side back when we set this up 10 years ago, and I 
lost that battle.
    Senator Sullivan. Well, maybe we should relook at that. It 
just seems to me--anyway, it is probably a longer conversation.
    General Votel, I want to congratulate you and the men and 
women under your command on the campaign with regard to ISIS. 
You know, it is really remarkable what you have achieved over 
the last year. I do not think the press has done an adequate 
job of highlighting that, but it is quite commendable. So 
please pass that on to your men and women who are serving with 
you.
    But the next question is--so we are going to have troops 
remaining in Syria. There seems to be a bit of a disconnect 
regarding what that mission is. Obviously, we do not want ISIS 
to return. So that has got to be a key component. But in your 
testimony, there is a lot of focus on Iran. Obviously, they are 
in Syria or their proxies. I guess former Secretary Tillerson 
now gave a speech not too long ago at the Hoover Institution at 
Stanford and was very focused on Iran and how our mission there 
in Syria should be about countering the Iranian threat.
    I get a little bit nervous when we have troops on the 
ground in a very kind of complicated, hostile region where it 
is not 100 percent clear what the mission of our troops are. I 
do not think anyone wants us to get back to the situation like 
we had with the marines in Lebanon 3 or 4 decades ago where 
their mission was ``presence,'' and obviously that did not turn 
out very well for our troops there. What is the mission of our 
troops in Syria, and are they focused on countering the Iranian 
threat, which is probably the biggest threat that we have 
there. Is it not?
    General Votel. Senator, thank you.
    Our mission in Syria is strictly focused on defeating ISIS.
    Senator Sullivan. Okay. But what is the biggest threat in 
Syria right now?
    General Votel. Well, the biggest threat in Syria right now 
is all the other instability that is taking place that is 
preventing the country from moving forward----
    Senator Sullivan. Is Iran not behind it?
    General Votel. Certainly Iran is an aspect of this, but so 
is Russia and so is the regime itself. Our mission, of course, 
has been focused on ISIS. We still have ISIS that we are 
addressing. So that is where our particular focus is.
    I would tell you that while we do not have a specific task 
to do something against Iran in this particular area, our 
strong relationships with the Syrian Democratic Forces, 
certainly our strong relationships with the Iraqi Security 
Forces do put us in a position where we, through our strong 
relationships, can have influence, can encourage them to 
conduct operations and do things that are in the interest of 
their countries, as opposed to other parties in the area.
    Senator Sullivan. Can I just ask a final question? My time 
is running out.
    We know how that during the 2004, 2005, 2006 time frame, 
that the Iranians were supplying Iraqi Shiite militias some of 
the most sophisticated, deadly IEDs [improvised explosive 
devices] on the battlefield that ended up killing and maiming 
thousands of American troops. So in my view the blood of 
American soldiers and marines and sailors, airmen--the Iranians 
had that on their hands. Right? That is a fact. They, of 
course, denied it back then, but it is a fact that we all know 
now.
    I just want to make sure in terms of our rules of 
engagement, if there is any, any, any threat posed by any 
Iranian or Iranian-backed proxies, do our troops have the full 
authority to respond to defend themselves and kill these 
threats, again given that they have a history of killing our 
troops? Do they have that rule of engagement authority?
    General Votel. They do, and we have actually demonstrated 
that most recently in the middle of the Euphrates Valley. But 
as you will recall last year down around the Top area, we did 
have pro-regime forces supported by Iranian Shiite groups that 
attempted to encroach on us and we did use the full 
capabilities within our arsenal to protect ourselves. So I 
think our people clearly understand this, and they have all the 
authorities they need to protect themselves.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service in particular in very 
difficult areas of the world and parts of the world that are 
very important to the United States.
    General Votel, talking about America's mission in Syria 
that was just the subject of Senator Sullivan's questioning, is 
one of our missions or one of our responsibilities in Syria not 
to prevent war crimes?
    General Votel. Certainly within the forces that we work, 
certainly.
    Senator Blumenthal. War crimes are occurring in Syria with 
the support and apparent encouragement of Russia. Correct?
    General Votel. I think if you look at some of the 
activities that take place over in the Damascus area and the 
Ghouta area, I think we certainly would think that was the 
case.
    Senator Blumenthal. In fact, last week UN investigators 
linked Russia, specifically the Russian air force, to possible 
war crimes, citing the November attack near Aleppo when a 
Russian fighter killed at least 84 people and injured more than 
150. In the last 3 weeks, as you have observed, more than a 
thousand people were killed in Eastern Ghouta with Russian 
military support. My question is what can and are we doing to 
deter Russia from engaging----
    General Votel. Well, Senator, as you know, we do not 
operate in that particular part of Syria militarily. But 
certainly through our diplomatic channels, through our 
ambassador in the UN, Russia has, frankly, been one of the 
authors of this recent ceasefire. Their inability to enforce 
it, to enforce standards on this really means one of two 
things: one, they lack the ability to do that, or they are 
choosing not to do that. I think one of the things that we do 
have to do is hold them accountable for the actions that they 
are taking here and for the humanitarian disasters that they 
are perpetuating through their support to the regime and 
through their own activities.
    Senator Blumenthal. What would you recommend to hold them 
accountable?
    General Votel. Well, I think certainly the best way of 
doing this is through political and diplomatic channels, and 
certainly if there are other things that are considered, we 
will do what we are told. I do not recommend that at this 
particular point, but I think holding them accountable to the 
things that they have agreed to, particularly through the 
offices of the United Nations or others here, I think is a very 
important way of approaching this.
    Senator Blumenthal. So far, they have not been responding 
to whatever political or diplomatic steps that have been taken. 
Correct?
    General Votel. It does not appear that they are, Senator.
    Senator Blumenthal. In order to have some effect, the 
intensity of whatever we are doing diplomatically and 
politically has to be heightened, or there need to be some kind 
of military responses to protect people in that area from the 
war crimes that are being perpetrated. Would you agree?
    General Votel. It certainly needs to be addressed.
    Senator Blumenthal. In terms of diplomacy--I think others 
may have raised this before me--is the lack of ambassadors in 
the area, the lack of sufficient diplomatic capacity in this 
State Department not an obstacle to really effectively using 
diplomacy?
    General Votel. Senator, I cannot comment on the broader 
aspects of the Department of State. That is more appropriate 
for them.
    But what I can comment on is in the 18 country teams that 
we work with of the 20 countries that are in the region--we do 
not have a country team for Iran or for Syria--we have 
extraordinarily good relationships. Twelve of these countries 
do have ambassadors. Six do have charge d'affaires. The 
relationships we have with them I think are very good. We get 
good advice. We have good coordination with them in our day-to-
day activities. I think our relationships, certainly from a 
military standpoint, remain very, very strong with our 
diplomatic partners across the region.
    Senator Blumenthal. So 6 out of the 18 ambassadorships are 
vacant?
    General Votel. Six out of 18 that have country teams are 
being led by charges at this point.
    Senator Blumenthal. Does that not reflect an absence of 
leadership in the Department of State?
    General Votel. I think that is probably a more appropriate 
question for them than for me, Senator.
    Senator Blumenthal. Thank you, General. Thanks for your 
very helpful and forthright answers. Thank you.
    Senator Inhofe. Thank you.
    Senator Cotton?
    Senator Cotton. Thank you, gentlemen.
    I want to add my voice to Senator Blumenthal and his 
concerns about what is happening in Syria. I was in the grocery 
store at home on Friday, and an old, rough and tough retired 
marine came up to me. He was wearing a USMC [United States 
Marine Corps] hat. That is how I knew it, but I would probably 
be able to figure out even if he was not wearing the hat. He 
introduced himself and said he just wanted to ask me a 
question. You know, often in settings like that, the question 
might be about the VA [Veterans Affairs] and what they are 
doing for our vets. But the question was what are we going to 
do about Syria. How can anybody stand by and watch what is 
happening to those little children throughout Syria?
    I thought it was a very touching moment but also indicative 
of how much normal Americans pay attention, not just the 
humanitarian crisis there but to the strategic disaster Syria 
has been for 7 years.
    But for now, I want to turn my attention south to another 
civil war, in which Iran is meddling. General Votel, in Yemen, 
when this war started 3 years ago, much of the fighting was 
confined to the mountainous terrain of Yemen, and now long-
range missiles are being fired at King Khalid International 
Airport outside of Riyadh. It seems like a dangerous escalation 
in the fighting there. Does it not?
    General Votel. I would absolutely agree, Senator.
    Senator Cotton. Where are Houthi rebels getting long-range 
missiles that can range the airport in Riyadh?
    General Votel. Senator, they are getting them from Iran.
    Senator Cotton. Well, that is not very neighborly of Iran 
with its neighbor, Saudi Arabia.
    How are they getting those missiles into Yemen?
    General Votel. Senator, I think Iran has a very 
sophisticated network of doing this. They can certainly move 
them by components. They can move them by air. They can move 
them by maritime means. They can move them by land routes to 
get their stuff in there and then reassemble it and provide it 
to the Houthis.
    Senator Cotton. Can those missiles range the United Arab 
Emirates?
    General Votel. I think, Senator, some of this might be a 
discussion that is best handled in a classified setting. But as 
you pointed here, we have seen threats that have gone as far as 
the international airport outside of Riyadh.
    Senator Cotton. If you were a Saudi leader or an Emirati 
leader, you probably would not be very happy about those 
missiles being able to range your citizens. Would you?
    General Votel. I agree. It is a dangerous threat to them. 
It is a dangerous threat to us. We have 100,000 United States 
citizens that live and work in Saudi Arabia.
    Senator Cotton. We also have more than a few naval and 
merchant ships going through the Bab al Mandeb. Do we not?
    General Votel. We absolutely do.
    Senator Cotton. Could you tell us a little bit more about 
the nature of the intelligence and military support we are 
providing to the coalition fighting in Yemen?
    General Votel. Certainly. We are not parties to the civil 
war, as you know, Senator. Our principal focus in Yemen has 
been on the counterterrorism front against al Qaeda and now 
against ISIS there. But we are authorized to help the Saudis 
defend their border, and so we have done that. We are doing 
that through intelligence sharing, through logistics support 
and through military advice that we provided them. We are 
principally focused on the ballistic missile threat and the 
maritime threat that plays out in the Bab al Mandeb and in the 
Red Sea to the west of Yemen.
    Senator Cotton. Is it fair to characterize that as a 
primarily defensive operation in nature?
    General Votel. It is principally defensive. It is designed 
to, again, protect Saudi Arabia.
    Senator Cotton. Thank you.
    General Waldhauser, there has been some open source 
reporting about China's construction of the African Union 
headquarters in 2012. That open source reporting states that 
China installed microphones in the walls and under desks, and 
it has also copied data from servers each night. AU [African 
Union] has since installed new servers and swept its 
headquarters to remove these listening devices.
    This kind of public disclosure of blatant Chinese 
espionage, you would think, would cause many nations, but 
especially those victimized at the AU headquarters, to think 
twice about accepting such Chinese generosity, if you will.
    Have you seen any kind of growing reluctance by the AU or 
by African nations to cooperate with China or accept that kind 
of aid given this espionage against the AU headquarters?
    General Waldhauser. I really have not seen any reluctance 
on part of African countries individually to refuse any type of 
aid. I mean, I think that the Chinese assistance with 
infrastructure building and the like is something that is 
welcomed there, but then the agreements that they make, the 
arrangements that they make need to be scrutinized.
    I would say, however, to that point, with our base in 
Djibouti and the Chinese base right next door, what you 
described is a big concern to us. I mean, we have got to make 
sure that our operational security is such that we can operate 
freely there because it is not just AFRICOM that uses Djibouti. 
Special Operations Command, European Command, CENTCOM all use 
that area, and we need the ability to operate freely there.
    Senator Cotton. I agree.
    Thank you, gentlemen, both for your service and for your 
appearance today.
    Senator Inhofe. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you to our witnesses for your testimony.
    General Votel, I want to start. We had a good session with 
General Scaparrotti about EUCOM last week, and he mentioned 
that you and he spend a lot of time together especially talking 
about Syria and Turkey. There have been some questions about 
Syria. I want to really focus on the Kurds in northern Syria.
    The Kurds have been superb fighting partners of the United 
States. Or maybe I would put it in reverse. We have been superb 
fighting partners of theirs in trying to drive ISIS back. They 
have helped us and we have helped them significantly. But the 
United States-Kurdish relationship in northern Syria has been a 
real tough spot with our NATO ally, Turkey. Now that we, 
through the great work of your team and our coalition partners, 
have made some real battlefield success against ISIS in 
northern Syria, what do you see as sort of next steps forward 
in the relationship of the United States to the Kurds that can 
hopefully allay some of Turkey's concerns and maintain their 
ability as a NATO ally to provide us the support we need?
    General Votel. Thank you, Senator.
    As you know, there are ongoing diplomatic discussions with 
Turkey led by the Department of State. I will not comment on 
those. They certainly have our support with that to work 
through that.
    Our intention with Turkey--and we do, again, recognize 
their concerns here and have certainly kept that in the 
forefront of our mind--has been to try to be as transparent and 
clear with them on the things that we are doing with our 
partners on the ground, the Syrian Democratic Forces, which is 
about half and half Arab and Kurd. So they have proven to be, 
as you pointed out, very effective against ISIS. As we move 
especially in the liberated areas and the areas where we are 
now consolidating our gains, we are trying to move more into 
the stability phase here so we can root out the remainder of 
ISIS and we can allow people to come back into their villages 
and back into their homes. I think we have, again, got to 
continue to work closely with Turkey and with the coalition and 
certainly with our State Department partners here to work 
through this. It is, as you pointed out, an extraordinarily 
complex situation. The demographics of the area are all over 
the place frankly in this. This is going to take a lot of very 
close work on the ground.
    But I think the important piece to get in place right now 
is to make sure that we have good communication back and forth, 
we have a mechanism to reduce tensions and certainly to pass 
information and prevent these situations from escalating into 
conflict. That will make it extraordinarily difficult to 
resolve if we are instigating conflict among ourselves.
    Senator Kaine. Let me follow up focusing on Syria for a 
minute. If you will forgive me, I am going to read a statement 
out of the Marine Corps' doctrinal strategy publication to an 
Army general:
    ``What matters ultimately in war is strategic success, 
attainment of our political aims, and the protection of our 
national interests. History shows that national leaders, both 
political and military, who fail to understand this 
relationship sow the seeds for ultimate failure even when their 
armed forces achieve initial battlefield success. Battlefield 
brilliance seldom rescues a bad strategy.''
    I am very, very puzzled about the strategy right now in 
Syria. We have asked the administration to come up even in a 
classified session and talk to us about strategy because the 
battlefield success of the United States plus partners against 
ISIS has been very notable, very, very notable. But we read 
just in open source newspaper articles we need to stay in Syria 
to not let ISIS come back. We need to stay in Syria to check 
Iran. We did a missile strike against Syrian forces after 
Syrian forces pushed against Syrian opposition. We came in a 
couple of days later with a missile strike against them.
    We are seeing activity, but we are not really yet, in 
Congress, kind of read into a strategy. I do not know that this 
is really the place for a discussion of that. It might be 
better to do it in a closed session. But some of us have been 
asking the administration to read us into the full strategy. Is 
it just about keeping ISIS from reoccurring? Is it to check 
Iran's presence in Syria? Is it to actively push against the 
Syrian military, as we did with the missile strikes last April 
and then the recent missile strike that occurred last month? We 
are real puzzled about it. Anything you want to say about that 
in open?
    General Votel. Senator, our mission, as you know, has been 
strictly focused on ISIS. The coalition has been focused on 
addressing this common threat that virtually everybody agrees 
has to be dealt with. That is what we have been doing with 
this. By pursuing the consolidation operations, by stabilizing 
the areas in which we are operating, what we are hoping to do 
is create a platform, a platform upon which the international 
community can move forward under a Geneva process and begin to 
also address the broader underlying issues that are very 
apparent across Syria and that really cannot be resolved 
through fighting but have to be resolved through talking and 
through diplomatic means under the United Nations.
    Our focus on addressing this common threat that everybody--
everybody--agree is bad is really I think one of the 
preliminary steps that has to take place. Certainly I think 
continuing to keep them from rising, continuing to allow these 
areas to become stabilized, get people back in their home, 
reduce the refugee problem, I think contributes to, hopefully, 
creating an environment that the international community can 
step forward into with the leadership of the United States and 
others here to actually pursue a diplomatic solution to these 
problems through the United Nations.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Perdue?
    Senator Perdue. Thank you, Mr. Chair.
    Thank you both for your decades of service.
    I would like to echo earlier comments, General Votel, for a 
message sent to your troops for the outstanding success we have 
had over the last year. It goes without notice here many days, 
but I want you to know on record those of us who pay attention, 
we are very, very grateful for that.
    I have a question, General Waldhauser, before I get into 
the other question. Recently four United States servicemen were 
killed in Niger, and one of those, Staff Sergeant Dustin 
Wright, was a constituent of mine. So your investigation is 
obviously very important to us. When do you expect that 
investigation to be completed, sir?
    General Waldhauser. Senator, thank you very much.
    As you well know, the investigating officer did an 
exhaustive assessment, visited all these countries, 150 
witnesses and the like. He gave the investigation to me at the 
end of January. I reviewed it for about 3 weeks, and I turned 
it over to Chairman Dunford for him to pass it to Secretary 
Mattis. Secretary Mattis I believe now has it and will review 
it. As soon as he is done with his review, the families will be 
briefed. That has been our commitment all along, and we want to 
continue to that.
    Then as soon as practical as the families have been 
briefed, we will come her to the committee and we will brief 
you, myself, the two-star who investigated it, and a civilian 
representative from OSD, and we will answer all of your 
questions at that time.
    Senator Perdue. Thank you, sir, and thank you for that 
investigation.
    I would like for both of you to address the NDS briefly in 
your AORs. The most recent NDS obviously prioritized great 
power competition with China and Russia is a primary effort of 
DOD and directs a more resource sustainable approach to 
counterterrorism. General Votel, what does that mean in your 
AOR?
    Parallel to that, we are in a competition for influence 
there. With China's One Belt One Road issue and all the money 
they are putting behind it and Pakistan and other areas in your 
AOR, what does the NDS change mean to your mission and AOR? Are 
you resourced to accomplish it?
    General Votel. Thanks, Senator.
    I think as we look at great power competition--for example, 
we look at a resurgent power like Russia--Russia is, as we 
know, not just a European problem. It is a global problem. I 
mean, they have influence globally. So they are certainly 
acting out in the area of responsibility that I have.
    I think the first thing that the National Defense Strategy 
and the National Military Strategy that is being modified will 
recognize that aspect, that we have to be prepared to address 
these threats, not just in the areas in which they reside, but 
the areas in which they have influence.
    Under General Dunford's leadership, we have developed 
between all of the combatant commanders I think very good plans 
and processes for how we will do that.
    I think more specifically what it means for us in the 
region here, particularly as we look to potentially shift to 
other areas of the globe in accordance with the National 
Defense Strategy's priorities--what it means for us is we will 
put a premium on the by, with, and through approach and having 
strong relationships with the people we have always had 
relationships with but also fostering new relationships.
    Senator Perdue. Excuse me, General, but this does not send 
a message to the Taliban that we are not open for business in 
Afghanistan. Does it?
    General Votel. Absolutely not. Absolutely not. We remain 
very dedicated on this.
    So we are focused on sustaining these relationships, on 
working with our partners, on becoming more interdependent with 
them, on becoming more mutually supporting with them among 
ourselves. That is what it means for me.
    I am looking forward here in a couple weeks to meeting with 
a number of the chiefs of defense across the region to talk 
specifically about what the National Defense Strategy means and 
how we are going to approach it in the CENTCOM region.
    Senator Perdue. General Waldhauser, I know you have talked 
in the committee hearing already about China's effort in 
Africa, but I would like for you to address the NDS shift and 
what that means in your AOR specifically.
    General Waldhauser. Senator, I think one of the things that 
the NDS shift has done is it has put a spotlight on China's 
activities on the continent, which have been ongoing for quite 
some time. But now with this strategy and with this notoriety, 
I think it gives an opportunity for us to actually have a 
discussion and bring to awareness what actually the Chinese are 
doing and how that impacts us.
    But interestingly, on our future there, we are specifically 
told in the NDS to continue the by, with, and through approach. 
We are specifically told to work with partners and build 
capacity and continue the fight against counterterrorism 
forces.
    So, in essence, the strategy frames the overall global 
posture. It frames for us prioritization, but it also tells us 
to essentially continue to build capacity on the continent so 
the Africans can take care of problems themselves and continue 
to degrade and disrupt the VEO fight so that those problems 
either stay localized and do not get out of the region or 
certainly to Europe or to our continent.
    Senator Perdue. Thank you, sir. Thank you both.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    For both of you, I believe that some of my colleagues have 
already asked you about basically what I see as a hollowing out 
of the State Department at a time when we need to maintain that 
capacity. I just wanted to ask you, would you acknowledge that 
a proposed 25 percent cut in the State Department and a 12.5 
percent cut to USAID funding from the fiscal year 2017 would 
not be helpful to your mission, either one of your missions?
    General Votel. Senator, as I mentioned in my opening 
comments, we look at this as a team sport. We are very 
dependent upon our intergovernmental partners. Continuing the 
support for their activities is, I think, essential to the 
things that we do.
    Senator Hirono. Well, I would think that a 25 percent cut 
to the State Department would make it a lot harder for you to 
work with your partners. I think that that goes without saying, 
and I realize you have to be very tactful in your responses.
    Let me get to some other questions.
    General Votel, the President's South Asia strategy was 
announced nearly 7 months ago, and General Nicholson stated in 
November that new permissions granted within the strategy for 
Afghanistan means that the campaign is on the--quote--path to 
win. Yet, the Department of Defense Inspector General estimates 
that the Afghan Government is in control of only 18 percent of 
the districts in the country, and we are now in the 17th year 
of conflict in Afghanistan. The Director of National 
Intelligence stated that conditions this year are likely to 
deteriorate.
    In your view, what exactly does winning mean in Afghanistan 
at this point? Can the addition of troops, even the much 
heralded security force assistance brigade, really make enough 
of a difference to reach the level of winning?
    General Votel. Senator, I think we are on the right 
approach. I am aware of what you are citing there, but I would 
also highlight that the Government of Afghanistan also controls 
64 percent of the population, has control and is able to 
protect 64 percent of the population.
    Our strategy is really this year, using the additional 
authorities, the additional resources that we have moved within 
CENTCOM and those that are coming from the Department, to 
ensure that we are in a position to break the stalemate, to 
seize the initiative, to expand that population control, and to 
ensure that we have in this year provided the right security 
environment to support the upcoming parliamentary elections. I 
do think we are on the right track with this.
    Senator Hirono. That remains to be seen because a number of 
years ago when I went to Afghanistan, we were training the 
Afghan troops to be able to support their own military efforts 
and defense. At that time, we were told that we were on the 
right track, and here we are 17 years later. So it remains to 
be seen.
    I want to get to what is going on in Yemen. The United 
Nations has called Yemen the worst humanitarian crisis in the 
world, and the United States continues to support the Saudi-led 
coalition. But the situation on the ground continues to be a 
stalemate. Your testimony mentions both the challenge of this 
crisis and the threat of Iran's proxy war in Yemen growing into 
a regional crisis.
    Do you see a realistic path to hostilities in Yemen 
concluding? How long do you expect the hostilities to go on? 
Are there ways to deal with the humanitarian crisis immediately 
before a full cessation of hostilities?
    General Votel. Well, Senator, to answer your question 
directly, I think there are our diplomats and there are other 
international parties under the UN that are trying to pursue 
the diplomatic solution to this and get to some kind of a peace 
process. That has been difficult to do at this particular 
point.
    I guess what I would highlight first off is that what is 
happening in Yemen--there certainly is a humanitarian disaster 
taking place, but there is also a security disaster taking 
place, and there is a political disaster taking place. The 
people that are responsible for this are the Houthis, and they 
are the central nexus to all of this, enabled by Iran. They are 
refusing to cooperate in the political process. They are 
impeding humanitarian efforts that are being undertaken by 
Saudi Arabia and others here, and they are perpetuating the 
military situation with their support from Iran, which 
threatens to widen the conflict. So I think it is important to 
recognize that at the heart of these problems, humanitarian, 
security, and political, are the Houthis, enabled by Iran.
    I would also say----
    Senator Hirono. I agree with you. I acknowledge that. What 
is the opportunity for any kind of U.S. leadership? Because we 
are enabling the Saudis to continue their battle there.
    General Votel. Well, we are not parties to this conflict.
    Senator Hirono. But we are enabling the Saudis.
    General Votel. But what we can do is we can help them, we 
can advise them, we can share our lessons learned on how to 
more effectively apply their capabilities, how more effectively 
to apply their partnerships that they have in conjunction with 
this.
    I would also add, Senator, during my last visit to Saudi 
Arabia, one of the things I had an opportunity to do was to 
talk with them about how they are helping with the humanitarian 
aid or the humanitarian disaster situation. What I would share 
with you is what I learned is that they have a much more 
aggressive program in this area than even I had realized. They 
are not only going into the Port of Hodeidah, they are 
exploring other ports. They are bringing aid into airports in 
the central part of the country, and they are using their own 
ground routes across the border to do this. In many ways, they 
are pushing a lot of effort in this. It is not perfect. The 
situation is extraordinarily challenging here, but they 
recognize this and I do believe they are trying to take efforts 
to support this wherever they can with their coalition 
partners.
    Senator Hirono. I still do not know what the U.S. role 
there should be and is because we are very much a part of what 
the Saudis are doing.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Votel, I am deeply troubled by an incident that 
happened in Afghanistan on June 9th, 2014, in which five 
American troops and an Afghan soldier were killed by our own 
aircraft. This friendly fire incident was explored in a ``60 
Minutes'' segment last November that highlighted deeply 
concerning elements about the event, including the assignment 
of a JTAC [Joint Terminal Attack Controller] who had been 
demoted and kicked out of an Air Force special operations unit 
for poor performance and then assigned to these Green Berets, 
and the lack of understanding by the B-1 crew and the unit on 
the ground about what the crew could see. Are you familiar with 
this incident, and if so, what can you tell me about how 
something like this can actually happen?
    General Votel. Senator, I am familiar with the incident, 
although I will tell you I do not recall all the specific 
details of it right here today.
    What I can tell you is that in all of these instances--and 
I know this from my own experience--that we do exhaustive 
reviews, exhaustive investigations to determine the cause of 
what happens. If people are to be held accountable, they are 
held accountable. Then we make efforts to try to apply the 
lessons learned out of this to limit this.
    The unfortunate aspect of this business is that our people 
are operating oftentimes in confusing situations, making 
decisions in very dynamic environments, and unfortunately, 
things like this do occur. Our goal has been to minimize that 
by ensuring that we have the right people, they have the right 
training, and we have the right capabilities.
    Senator Gillibrand. Do you think that B-1's are appropriate 
airframes for close air support?
    General Votel. I think the B-1's have been very effective 
in that role as they played it in Afghanistan and other places.
    Senator Gillibrand. Do they have the technology available 
to be able to see the strobe lights that are placed on the 
helmets of our troops?
    General Votel. I believe they do.
    Senator Gillibrand. Were any changes made as a result of 
this incident?
    General Votel. Senator, again, I would take that question 
for the record, and we will go back and look and I will provide 
you a more thorough response to all the actions that we did 
take as a result of this.
    Senator Gillibrand. Specifically infrared strobes. I have 
asked the Pentagon for the investigation of this incident and 
have not yet received it. Can I please have your commitment 
that you will help me get this information?
    General Votel. You have my commitment, Senator.
    Senator Gillibrand. Thank you.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
    In early February, Israel intercepted an Iranian drone in 
its airspace resulting in an Israeli response striking what it 
described as the command center from which Iran had launched 
the drone. An Israeli F-16 fighter jet involved in the 
offensive was downed by a Syrian antiaircraft fighter which 
prompted the Israeli military to respond against eight Syrian 
targets, including three aerial defense batteries and four 
Iranian positions that it described as part of Iran's military 
entrenchment in Syria.
    What is your assessment of Iran's actions in Syria? Is it 
entrenching itself in the country?
    General Votel. Well, Senator, I am extraordinarily 
concerned about Iran's role. I think they are trying to 
perpetuate their influence and certainly they are trying to 
create an access so that they can continue to support Lebanese 
Hezbollah and use that relationship to threaten Israel. So I am 
extraordinarily concerned about that.
    Senator Gillibrand. Do you feel that this incident 
reflected a change in the Iranian rules of engagement in Syria?
    General Votel. I cannot speak for what the Iranian rules of 
engagement are. Certainly it was brazen and foolhardy for them 
to do this given the capabilities that Israel has.
    Senator Gillibrand. General Waldhauser, I took a CODEL 
[Congressional Delegation] with a number of Senators to Africa 
a few years ago to assess where we were with regard to the 
growth of terrorism because, as you know, the precursors to 9/
11 came out of Africa, whether it was the bombing of the 
embassy in Kenya or other terrorist attacks.
    I am very concerned about what is happening in Africa. Not 
only your previous answers today but even the front page of The 
New York Times yesterday a story that more than 650,000 
children under the age of five are severely malnourished in 
northern Kenya, Somalia, and Ethiopia and that famine 
throughout Africa is causing 12 million people to rely on food 
aid. You combine that with the effects of global climate change 
specifically on the ability of many countries within Africa to 
grow their own food and provide for food. It is creating crime. 
It is creating more terrorism. You add to that what is 
happening with the Boko Haram efforts to steal children, to 
have trafficking of females, and to destroy whole communities. 
I am really concerned about the direction of terrorism and its 
growth throughout Africa.
    Can you give me guidance on how these changes are impacting 
our mission and our posture in the area of your operations?
    General Waldhauser. Senator, some of the numbers that you 
stated are certainly overwhelming. When it comes to the African 
continent, unfortunately those numbers are sometimes the order 
of the day. Last year, for example, inside Somalia, there were 
over 6 million people who were food insecure. This year it is 
going to be around 5 million. That is just in that region.
    I would say from the climate perspective, we have seen the 
Sahel, the grasslands of the Sahel, recede and become desert 
almost a mile per year in the last decade or so. This has a 
significant impact on the herders who have to fight, if you 
will, for grassland, waterholes, and the like. So these 
environmental challenges put pressure on these different 
organizations. Some are VEO. Some are criminal. But it puts 
pressure on these organizations just for their own livelihood.
    Consequently in areas like northern Mali, ISIS-West Africa 
in the northern part of Niger, these are areas that are very 
concerning to us, and this is why we are trying to work so 
closely with those countries there so that they can maintain 
security, that they can at a minimum keep these challenges 
inside those particular boundaries. But there are some 
significant challenges, and the numbers sometimes in Africa can 
overwhelm you.
    Senator Gillibrand. Well, thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    We do not have any more members, and hopefully we will not 
have any more members.
    But let me--just for clarification, first of all, I did not 
want to be discourteous in that one interruption that I had 
during the course. But I think it is important because this is 
something that can be changed.
    I think what Senator Rounds is getting to is that we are 
all aware that prior to 10 years ago, the continent of Africa 
was divided into three different commands, PACOM [United States 
Pacific Command], EUCOM, and CENTCOM. It completely surrounds 
Africa.
    Now, when we decided to have AFRICOM, still under its 
construction, we had both allocated and assigned troops in 
PACOM, allocated and assigned troops in EUCOM, allocated and 
assigned troops in CENTCOM, but only allocated troops in 
AFRICOM. Now, that is the difference.
    I would still think that should be open to discussion 
because we have seen a lot of things. LRA [Lord's Resistance 
Army], for example. When we had problems, we had to bring in 
troops from other places.
    It is my intention and I am sure it is Senator Rounds' 
intention to put that in the focus to see if we have the right 
blend there or if, in fact, we should have assigned troops in 
AFRICOM.
    Now, do you have any comment to make on that?
    General Waldhauser. Senator, I think to a large degree we 
are saying the same thing. I mean, the technicality of assigned 
and allocated to those who do not do this on a daily basis may 
not seem like a big deal, but allocated is something that you 
might be able to count on all the time but you may not. 
Assigned forces, obviously, you can count on.
    Senator Inhofe. Exactly. I am sure that is what he was 
getting to. I think we are in total agreement on that.
    Any other thoughts?
    Senator Reed. No, thank you.
    Senator Inhofe. We are adjourned.
    [Whereupon, at 11:31 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Joni Ernst
                          illicit trafficking
    1. Senator Ernst. General Votel, we know that illicit trafficking 
has been used to some extent to finance terrorist groups. Would you 
agree that as we get better at choking off traditional financing 
mechanisms used by terrorists, illicit trafficking is becoming a 
greater concern?
    General Votel. [Deleted.]

    2. Senator Ernst. General Votel, what specific commodities are 
being illicitly traded to finance terrorist groups within the CENTCOM 
AOR?
    General Votel. [Deleted.]
                               __________
              Questions Submitted by Senator Dan Sullivan
                coast guard centcom patrol boat support
    3. Senator Sullivan. General Votel, the Coast Guard has six patrol 
boats working in direct support to CENTCOM. Are they valuable for the 
missions you have in the Persian Gulf?
    General Votel. [Deleted.]

    4. Senator Sullivan. General Votel, these patrol boats are well 
past their service life and need to be decommissioned soon. Have you 
requested new Coast Guard assets to replace these patrol boats?
    General Votel. [Deleted.]

    5. Senator Sullivan. General Votel, the Coast Guard has replaced 
their legacy patrol boats with new Fast Response Cutters (FRCs). Would 
they be a good fit for the missions in CENTCOM?
    General Votel. [Deleted.]

    6. Senator Sullivan. General Votel, the Navy also has small surface 
combatants (Patrol Coastal, PCs) that perform similar missions 
alongside the Coast Guard patrol boats. The PCs are also scheduled for 
a phased decommissioning which begins in 2022. However, the Navy does 
not plan to replace these with similar assets, instead, they plan to 
replace this capability with some (fewer number of) Littoral Combat 
Ships (LCS). However, LCS may not necessarily provide the right 
capability for the CENTCOM AOR. Does the Navy plan to provide you new 
ships to maintain this capability? Is LCS the right platform for the 
missions you have?
    General Votel. [Deleted.]
                               __________
              Questions Submitted by Senator David Perdue
                        syria--chemical weapons
    7. Senator Perdue. General Votel, Syrian President Bashar al Assad 
has committed many atrocities since the beginning of the Syrian Civil 
War, but one of the most disturbing is his use of chemical weapons 
against civilians. As we've seen with the recent CW attack in Idlib 
province, despite the Russian-backed plan to rid Syria of chemical 
weapons in 2013, Bashar Assad still has them and still uses them, and 
has not declared all the elements of its chemical warfare program to 
the OPCW. Recently, a United Nations Panel of Experts report was 
released that connects North Korea to the Syrian Government's use of 
chemical weapons against its own people. Disturbingly, the report 
uncovers that these heinous actions were exacerbated by North Korean 
technicians with specialized knowledge of chemical and ballistic-
missile technology, who have repeatedly visited Syria over the last 2 
years in Barzeh, Adra and Hama. Do you believe that without DPRK 
military assistance, President Assad would have been less able to 
inflict chemical weapons atrocities on his own people?
    General Votel. [Deleted.]

    8. Senator Perdue. General Votel, are there ways the U.S. and 
partner forces can halt this deadly cooperation?
    General Votel. [Deleted.]

    9. Senator Perdue. General Votel, given that the Assad regime has 
``made significant territorial gains in central and eastern Syria,'' do 
you believe there will be an increase in chemical weapons usage?
    General Votel. [Deleted.]

    10. Senator Perdue. General Votel, do you believe that the lack of 
American intervention against the Assad regime in Syria has empowered 
and emboldened Assad to continue on his path of detention, torture, and 
extermination of his own people?
    General Votel. [Deleted.]
                         jstars isr capability
    11. Senator Perdue. General Votel and General Waldhauser, in the 
past, I have written to both of you to inquire about the importance of 
the JSTARS platform to operations in your AORs. As you know, JSTARS is 
an Air Force platform that provides critical intelligence, 
surveillance, and reconnaissance (ISR), ground targeting, and 
battlefield command and control capabilities to all branches of our 
military in multiple regions of the world. General Waldhauser, your 
command replied to us that ``JSTARS' moving target indicator data, when 
fused with the data collected by cross-cued platforms, enhanced 
geolocation accuracy of ISIS activity in Libya, allowed new target 
discovery, and helped confirm ISIS presence in areas where previously 
we had low confidence, single-source reports.'' General Votel, you 
wrote that ``we employ JSTARS capabilities in our combat areas 12 
months a year. Any delay in providing this critical capability is 
detrimental to our mission.'' As you know, the Air Force has zeroed-out 
its FY19 recapitalization of the JSTARS fleet, when just last year this 
platform was the number 4 acquisition priority of the Air Force. While 
I agree that we eventually need to move to the new ``system of 
systems'' in the future, I'm very concerned we'll see critical gaps in 
ISR (especially with GMTI) for you and for troops on the ground. The 
Air Force is planning to take the JSTARS platform offline without 
acquiring more ISR assets. Have they explained to you how they plan to 
bridge the capability gap in GMTI-ISR that will arise in the upcoming 
3-12 year period? (If possible, I would appreciate a classified and 
unclassified response)
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]

    12. Senator Perdue. General Votel and General Waldhauser, what does 
this potential gap mean for you and your combatant commands' ISR 
requirements?
    General Votel, [Deleted.]
    General Waldhauser. [Deleted.]

    13. Senator Perdue. General Votel and General Waldhauser, how well 
are your ISR requirements being met currently?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]

    14. Senator Perdue. General Votel and General Waldhauser, in your 
experience, what mission-critical capabilities can be met with JSTARS 
that can't be met with another ISR platform?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]

    15. Senator Perdue. General Votel and General Waldhauser, could you 
provide me an example of a specific mission that you have commanded 
whose success depended on the JSTARS?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]

    16. Senator Perdue. General Votel and General Waldhauser, how 
important to you, as a combatant commander, is the role of JSTARS 
airborne battle management and command and control, in addition to 
being an ISR provider?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]
                reassurance of gulf partners and allies
    17. Senator Perdue. General Votel, former Secretary Gates gave a 
mixed assessment of the nuclear deal with Iran, but critiqued the 
overall policy approach because of the lack of a strong signal that the 
United States remains committed to Iran's geopolitical containment. He 
said, quote, ``We cut deals with the Soviets [on nuclear weapons] but 
at the same time pursued very aggressive policies'' to counter Soviet 
meddling around the world. ``I don't know why we didn't do the same 
things with Iran.'' The result, Gates said, is that allies like the 
Saudis and Israelis now fear the United States is deliberately 
acquiescing in Iran's emergence as the new hegemon in the region. Do 
you think our Gulf Cooperation Council partners have increased doubt 
about the commitment of the United States to their stability and 
security since the nuclear agreement with Iran? How about our other 
allies in the region like Israel, Jordan, and Egypt?
    General Votel. [Deleted.]

    18. Senator Perdue. General Votel, have you sensed a change in Gulf 
relations since the transition to a new administration? What kinds of 
steps could reassure them after an extended period of uncertainty?
    General Votel. [Deleted.]

    19. Senator Perdue. General Votel, how does the ongoing GCC rift 
impact your military operations in the region? How does the rift open 
the door for adversaries, like Iran?
    General Votel. [Deleted.]

    20. Senator Perdue. General Votel, how has Qatar stepped up as a 
partner since 9/11, and more recently, since the embargo?
    General Votel. [Deleted.]
                         north korea and africa
    21. Senator Perdue. General Waldhauser, as was reported last week, 
President Trump is planning to engage with North Korean leader Kim 
Jong-un over denuclearization of North Korea very soon. Unlike past 
failed negotiation attempts with North Korea, it is imperative that we 
keep our campaign of maximum pressure, including sanctions, on North 
Korea, and don't fail to take our eye off of the ball. Various 
countries in the African continent are among those who have been 
dealing with the Kim regime for decades. According to reports, trade 
between North Korea and African countries was at $216.5 million a year 
on average between 2007 and 2015. Construction agreements with various 
countries make up a significant portion of this amount, mostly through 
a North Korean state-owned enterprise called Mansudae. A UN Panel 
report that came out in September accused countries like Tanzania and 
Mozambique of contracting Pyongyang to provide support for their air 
missile systems. North Korean entities have built arms factories in 
some countries while providing military training to others, both in 
clear violation of the sanctions regime. It is vital that the United 
States steps up pressure on African states to cut longstanding military 
and diplomatic ties with North Korea as part of its push to squeeze the 
funding of North Korea's missile and nuclear programs. What actions has 
AFRICOM taken to monitor and combat North Korean sanctions-evasion 
activity on the continent?
    General Waldhauser. AFRICOM monitors North Korean activities in 
cooperation with the United States missions on the continent and is 
currently in the process of operationalizing our tasks associated with 
the Global Campaign Plan--North Korea to do even more to counter North 
Korea's activities in Africa. We are committed to supporting the 
Department of State and the maximum pressure policy using all tools 
available. This includes ensuring all our African partners are aware of 
the activities prohibited by UN Security Council Resolutions, as well 
as the degree to which North Korea will abuse its diplomatic, military, 
and trade relations to evade sanctions, often undermining the 
reputation of governments hosting its embassies and trade missions, and 
exposing these unwitting host governments to international penalties.

    22. Senator Perdue. General Waldhauser, how can the United States 
ensure and incentivize African compliance with United States and 
International sanctions on North Korea?
    General Waldhauser. [Deleted.]
                               __________
                Questions Submitted by Senator Tim Scott
                  russian behavior in the middle east
    23. Senator Scott. General Votel, with heavy assistance from United 
States and coalition partners, Iraq seems to for the most part have 
defeated ISIS and retaken most of the territory lost to that terrorist 
organization starting in 2014. But the situation in the region is only 
growing more complex. Russian involvement in Syria is growing, as 
Vladimir Putin works to ensure the survival of Bashar Assad and his 
murderous regime. Syria is Russia's only remaining ally in the Arab 
world and it is clear to me that Putin and Russia are investing a great 
deal in Syria and the Assad regime's survival. Iran continues to exert 
its malign influence throughout the region, from supporting the 
Houthi's in Yemen, to continued backing for Hezbollah in southern 
Lebanon. Competing interests in the Middle East are myriad, and I think 
it would be too easy for the United States to find itself stretched, 
distracted, and ultimately focused on the wrong issue. In the midst of 
this complexity, I am most concerned about Russia's role in the region. 
Ties between Russia and Turkey, a member of NATO, appear to be growing 
and solidifying. Russian mercenaries are fighting alongside Syrian 
troops, while Russian aircraft support them from above.
    General Votel, given the complicated environment, how do you 
prioritize your efforts in the region?
    General Votel. [Deleted.]

    24. Senator Scott. General Votel, the Washington Post reported on 
February 22nd that the Russian Foreign Ministry acknowledged ``several 
dozen'' Russians were killed when they attacked a position held by the 
United States and its allies. How far will Russia go to defend the 
Assad regime and ensure its survival?
    General Votel. [Deleted.]

    25. Senator Scott. General Votel, should we be concerned about 
Russia implementing its ``escalate to dominate'' strategy in Syria and 
threatening the use of low-yield nuclear weapons to ensure the survial 
of the Assad regime?
    General Votel. [Deleted.]

    26. Senator Scott. General Votel, if Russia does pursue its 
``escalate to dominate'' strategy in the Middle East, how do you think 
Israel will respond?
    General Votel. [Deleted.]
                               __________
             Questions Submitted by Senator Jeanne Shaheen
              women, peace, and security (wps) initiative
    27. Senator Shaheen. General Waldhauser and General Votel, how 
receptive have our partners in your Area of Responsibility been to 
efforts to implement the Women, Peace, and Security initiative and how 
has the WPS assisted you in accomplishing your Building Partner 
Capacity (BPC) missions?
    General Waldhauser. We seek opportunities to integrate WPS 
initiatives within our building partner capacity missions by: 
Supporting defense institutions that facilitate the capacity building 
of women as well as men in African partner defense forces; Ensuring our 
capacity building programs include requirements for the protection of 
civilians, specifically women and girls; Assisting the development of 
training and accountability mechanisms within African partner defense 
forces that facilitate professionalism and prevent sexual and gender 
based violence, to include sexual exploitation and abuse. The WPS 
initiative strives to inculcate in our partners that women and men have 
the necessary talent and capability to improve their armed forces. 
However, due to competing priorities and varying interpretation of the 
global WPS mandate, challenges remain on consistently implementing WPS 
across the continent. Despite these challenges, the majority of our 
partners are willing to send representatives to USAFRICOM-sponsored WPS 
events. Below is a summary of some of the most recent WPS-sponsored or 
inclusive events: USAFRICOM Intelligence Directorate facilitated a two-
part all-female intelligence officer training course attended by 
Burkina Faso, Cameroon, Chad, Mali, Niger, Nigeria, Senegal, and 
Tunisia. USAFRICOM Office of Legal Counsel hosts an annual colloquium 
attended by military justice personnel from 25 African countries which 
has twice focused on preventing and responding to sexual exploitation 
and abuse as the main topic. USAFRICOM leverages its Global Peace 
Operations Initiative (GPOI) funding to sponsor a biannual Gender in 
Peace Support Operations attended by African troop contributing 
countries to the UN. In 2017, Special Operations Command Africa began 
including a WPS Seminar as part of its annual Flintlock exercise to 
highlight the importance of women's leadership and understanding gender 
dynamics to countering violent extremist organizations. The 2018 WPS 
Seminar was attended by Burkina Faso, Cameroon, Chad, Ghana, Mali, 
Niger, Nigeria, and Senegal. In 2014 and 2015, United States Army 
Africa hosted a Regional Gender Mainstreaming Seminar attended by 
Botswana, Malawi, Mozambique, Namibia, Senegal, Sierra Leone, and 
Zambia to discuss best practices for integrating women into the force. 
Increasingly, some partners are requesting the integration of WPS into 
their bilateral BPC activities with USAFRICOM. For example, in January 
2018, United States Air Forces Africa began a four-phased engagement to 
support Mali's force generation and personnel readiness processes for 
the Malian Air Force, a key element of which is the development of a 
sexual harassment and assault policy. Additionally, Zambia leveraged 
GPOI funding to develop a Female Engagement Team Training in February 
2018 to prepare approximately 100 female soldiers to deploy to the 
United Nations Multidimensional Integrated Stabilization Mission in the 
Central African Republic. Through our cooperative relationships with 
our interagency, European, and multilateral partner organizations, such 
as the UN and African Union, we continue to encourage and support the 
integration of WPS initiatives through our collective BPC activities.
    General Votel. [Deleted.]
                            aid to pakistan
    28. Senator Shaheen. General Votel, in your advance statement for 
the record, you indicated that ``achieving long-term stability in 
Afghanistan and defeating the insurgency will be difficult without 
Pakistan's support and assistance.'' The administration recently 
suspended security assistance aid to Pakistan due to concerns about 
Pakistan's provision of sanctuary and support to militant and terrorist 
group that target United States personnel and interests, yet Pakistan 
and the United States are partners in targeting other terrorist groups. 
What has been the impact of the suspension of security assistance aid 
to Pakistan and are you concerned about its long-term impact on our 
military-to-military relationship with Pakistan?
    General Votel. [Deleted.]
                               __________
              Questions Submitted by Senator Mazie Hirono
                           influence of china
    29. Senator Hirono. General Votel, you mentioned in your written 
testimony increased Chinese investment and attempts to gain influence 
in the Central region of the world. China appears to have a long-term 
plan that it is executing now. What are the short- and long-term risks 
to the Central region from increased Chinese investment and influence 
campaigns?
    General Votel. [Deleted.]
                              isr deficit
    30. Senator Hirono. General Votel and General Waldhauser, one of 
the common themes we hear from the regional combatant commanders is the 
constantly increasing demand for Intelligence, Surveillance and 
Reconnaissance (ISR) assets. Both General Scaparotti and Admiral Tidd 
testified this year that large percentages of these requirements go un-
met. What percentage of your general ISR requirement is regularly met?
    General Votel. [Deleted.]
    General Waldhauser. USAFRICOM's ISR requirements are fulfilled at 
830 percent of its Joint Staff validated, but mostly unsourced, 
requirements. GFM-sourced solutions provide 820-25 percent; USAFRICOM 
attempts to overcome this deficit using the HAC-D / USD(I) ISR Transfer 
fund to obtain and maintain an additional 85-10 percent.

    31. Senator Hirono. General Votel and General Waldhauser, what is 
the ISR capacity of allies and partners in your region?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]

    32. Senator Hirono. General Votel and General Waldhauser, are you 
able to effectively leverage the ISR capacity of allies and partners to 
meet your requirements?
    General Votel. [Deleted.]
    General Waldhauser. [Deleted.]
                      scope of missions in africa
    33. Senator Hirono. General Waldhauser, your written testimony 
states that there are about 7,200 personnel in Africa on any given day. 
How does that number of personnel compare to 2015 or 2016?
    General Waldhauser. The average number of personnel on any given 
day in Africa in 2015 was 5,540. This is an increase from 2015 to 2018 
of 1,660 personnel. The average number of personnel on any given day in 
Africa in 2016 was 6,143. This is an increase from 2016 to 2018 of 
1,057 personnel. For reference, the average number of personnel on any 
given day in Africa in 2017 was 6,595. This is an increase from 2017 to 
2018 of 605 personnel. Over the past four years, the increase in 
personnel is primarily due to our efforts and engagements in Niger, 
Somalia, and Tunisia. Personnel in Niger increased from approximately 
300 to 900 from 2015 to 2017. This increase in personnel is principally 
tied to airfield construction and activities in Agadez which began in 
March of 2016. Thus, the components which saw the largest increase were 
United States Army Africa (USARAF) and United States Air Forces Africa 
(AFAF). The seemingly large increase in personnel in Somalia from 
approximately 50 to 600 from 2015 to 2017 is attributed to two main 
reasons. First, between 2015 and 2017, all major force operations in 
Somalia transitioned from Joint Task Force (JTF) 94-7 to Special 
Operations Command-Africa (SOCAF). Based on the manner in which Task 
Force 94-7 deployed into theater not all of the Task Force 94-7 
personnel were accounted for and thus not likely included in the 
initial number of 50 personnel in 2015. Moreover, prior to 2015, Task 
Force personnel numbers were not included in USAFRICOM personnel 
totals. Additionally, a new United States Code Sec.  333 Program stood 
up to train Somali National Army DANAB Advanced Infantry Battalions in 
Baledogle. This new training program required additional U.S. 
personnel. Second, as part of the Task Force 94-7 and SOCAF transition, 
Combined Joint Task Force Horn of Africa (CJTF-HOA) was tasked to 
assume Base Operating Support--Integrator from Task Force at Forward 
Operating Base Baledogle and Galcayo. As part of HOA's assessment, the 
CJTF-HOA Commander determined the contracted security force Task Force 
utilized to secure the Baledogle base posed too much risk to SOCAF 
forces and subsequently replaced the contracted security force with a 
sizeable and traditional DoD Security Force. In sum, with the transfer 
of responsibility from Task Force and their accompanying contracted 
security personnel, the components which saw the largest increase were 
Special Operations Command-Africa in Mogadishu, and the Combined Joint 
Task Force Horn of Africa (CJTF-HOA) in Baledogle and Galyco. Personnel 
in Tunisia increased from approximately 30 to 120 from 2015 to 2017. 
This primarily was a result of new basing of ISR aircraft and 
associated operations and security personnel in Tunisia. These ISR 
assets support operations in Libya and Tunisia as well as countering 
regional violent extremist organizations. Consequently, the component 
which saw the largest increase was AFAF.

    34. Senator Hirono. General Waldhauser, over the next year, do you 
expect the personnel commitment to AFRICOM to grow?
    General Waldhauser. Currently, USAFRICOM does not anticipate any 
growth in personnel over the next year. The new National Security and 
Defense Strategies reprioritizes near-peer competition against global 
state actors and Joint Force Readiness above Counter Violent Extremist 
Organization (C-VEO) contingency operations. USAFRICOM supports these 
strategies with a focus on building partner capability. By investing in 
training and investing in the operational needs of our partnered 
security, U.S. personnel and unit commitments on the continent may 
likely decrease. While there may be instances in time when we might see 
a short term increase of deployed forces to support U.S.-directed 
operations, we expect a reduction of forces and personnel over the next 
several years.

    35. Senator Hirono. General Waldhauser, of the 7,200 personnel, how 
many are directly involved in countering Violent Extremist 
Organizations, ISIS-West Africa and Boko Haram?
    General Waldhauser. In USAFRICOM's ``By, With, and Through'' 
framework, where the vast majority of operations in Africa are 
conducted ``by'' our partners on the ground, USAFRICOM provides 
approximately 2,500 servicemembers who directly Advise, Assist, and 
Accompany partner force units and enable these operations by ensuring 
the operation is resourced deliberately with supporting ISR, fire 
support, CASEVAC, and QRF enablers.

    36. Senator Hirono. General Waldhauser, is the force currently in 
Africa sufficient to contain the threat as it stands today?
    General Waldhauser. The current allocation of United States 
military force on the continent is sufficient to enable our African 
partners to contain most VEO threats and degrade their ability to 
conduct external operations. We employ a ``By, With, and Through'' 
strategic framework where the vast majority of security operations in 
Africa are conducted ``by'' our partners on the ground. They execute 
these operations ``with'' our assistance and enablement, and 
``through'' established mutually supporting partnership agreements. In 
the context of this framework, we have sufficient forces to accomplish 
the mission. The U.S. does not have enough deployed forces to contain 
the various VEO networks across the continent. Countering the numerous 
VEOs requires cooperative engagement with our partners. These partners 
are not limited to our African teammates, but include critical allies 
such as France and our continued support to their ongoing operations in 
Mali and the greater Sahel.
                     djibouti port terminal seizure
    37. Senator Hirono. General Waldhauser, related to Djibouti's 
recent seizure of a port terminal, there are reports indicating that 
President Guellah could turn it over to the Chinese as a gift or in 
lieu of repaying debt as the Chinese have provided over $1.4 billion in 
financing to improve the local infrastructure. You've stated that the 
``consequences could be significant'' for the United States and 
specifically your Command. This move also comes in the wake of China 
establishing a base in Djibouti--located a few miles from our only 
permanent base in Africa, Camp Lemonnier, which hosts 4,000 military 
and intelligence personnel and serves as a key outpost for 
counterterrorism operations targeting AQIP, al-Shabaab, Boko Haram, the 
Lord's Resistance Army and ISIS. Like the port facility recently 
seized, the U.S. operates Camp Lemonnier under a 20 year lease. What's 
to stop President Guelleh from breaking that agreement if the Chinese 
want to call in another debt?
    General Waldhauser. While we do not believe China could 
successfully pressure the government of Djibouti to break the lease 
agreement, we are carefully monitoring Chinese activities and its 
emergent military presence in Djibouti and elsewhere in Africa. The 
United States has a very strong partnership with Djibouti that has been 
mutually beneficial to both the United States and the government and 
people of Djibouti. In 2014, the United States signed a new 
international agreement that serves as a 20-year lease for Camp 
Lemonnier at the cost of $63 million per year (accounting for 8 percent 
of the Djibouti's Government revenue), with an option to extend the 
lease through 2044. Since 2002, DoD has invested almost $1 billion in 
developing Camp Lemonnier. Camp Lemonnier has awarded over $40 million 
in contracts since 2015. The Djibouti First legislation, which was 
expanded to Africa First legislation in 2017, has given us an 
important, and popular, tool to demonstrate directly to the people of 
Djibouti the benefits of partnering with the United States. The 
government of Djibouti, including President Guellah, has made clear 
they value their relationship with the United States, even as they 
expand their relationship with China.

    38. Senator Hirono. General Waldhauser, can you expand on the 
``consequences'' for the United States and our allies should Djibouti 
continue to act based on Chinese interests?
    General Waldhauser. Djibouti is located on the Bab el Mandeb 
Straits which is a geo-strategic chokepoint at the southern entrance to 
the Red Sea. Almost all of the maritime trade between Europe and Asia 
transits this point. Djibouti has no natural resources and is selling 
its one unique resource of strategic location. Djibouti is heavily 
indebted to China with estimates as high as 75 percent of Djibouti 
total GDP tied up in Chinese debt. This factor makes Djibouti highly 
vulnerable to Chinese influence. The Djiboutian port is the largest 
employer and biggest source of revenue in Djibouti. There is concern 
the Chinese could eventually control the Djiboutian Port and the 
Strait. This factor, coupled with their already established military 
forces at the Chinese Naval base in Djibouti, places the Chinese in a 
controlling position at one of the most critical strategic locations in 
the world for both commerce and power projection. The loss access to 
the Djiboutian Port would hinder Camp Lemonnier, tenant commands, and 
Naval Ship operations dependent on in-port replenishments. Camp 
Lemonnier relies on the port of Djibouti for replenishments of 
sustenance, construction material, fuel, military equipment end items, 
and medical supplies. To fill the supply chain gap created by the loss 
to the port, reliance would shift immediately to strategic airlift 
assets. The nearest available port capable of handing the throughput, 
in a permissive environment, is the Port of Mombasa. Utilizing this 
port poses a time distance challenge by adding an additional 2450 
kilometers of transit from source to warfighter. The transfer of 
maritime shipments is important to United States operations in Djibouti 
and East Africa. The United States base in Djibouti is the only 
permanent United States military base in Africa and is critical to 
United States counter-terrorism efforts. Conflicts in nearby Yemen and 
Somalia have also turned Djibouti into a critical staging ground for 
military operations in these countries. Chinese control of the port 
could also open the door for future Chinese-Russian cooperation.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                     UNITED STATES PACIFIC COMMAND

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Ernst, Tillis, Sullivan, Perdue, Sasse, Reed, 
Nelson, McCaskill, Donnelly, Hirono, Kaine, King, Warren, and 
Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order this morning 
to hear testimony from one of my favorite people, Admiral 
Harris. I was so excited to be there at the time that everyone 
was paying tribute to you in your upcoming retirement. I 
stumbled into that big party of people who were rejoicing the 
great contributions you have made. We appreciate so much having 
you here. I only regret that it'll probably be your last time 
here. The committee would like to congratulate you along with 
me.
    Chairman McCain has asked me to submit a statement for the 
record. I'm going to go ahead and quote him at this time, ``The 
National Defense Strategy offers a new framework for thinking 
about the global challenges we face and that places China 
squarely at the top of our priority list. As we turn our focus 
to great-power competition and near-peer threats, we must face 
up to the true nature of the reality of Chinese power and 
ambition.''
    [The prepared statement of Chairman McCain follows:]

               Prepared Statement by Chairman John McCain
    The evolving security situation in the Indo-Pacific presents a 
dynamic environment for safeguarding America's deep and enduring 
interests in the region. The National Defense Strategy offers a new 
framework for thinking about the global challenges we face and places 
China squarely at the top of our priority list. As we turn our focus to 
great power competition and near-peer threats, we must face up to the 
true nature and reality of Chinese power and ambition.
    For decades, many Americans hoped that China's ``peaceful rise'' 
would lead Beijing to assume a role as a ``responsible stakeholder'' in 
the rules-based international order. But China's Communist Party 
leaders have made a different choice. China's hostility to the rules-
based order--which has been increasingly brazen under Xi Jinping--
threatens to undermine peace and prosperity in the Indo-Pacific. 
However, this is not merely a regional issue. As a Pacific power, this 
reality threatens America's interests as well. I am convinced the only 
successful path to preserving the rules-based order in the Indo-
Pacific--and the peace and prosperity it has generated--is to renew 
America's leadership in the region in full.
    In the military domain, China's rapid modernization has been aimed 
at developing capabilities that directly challenge the American way of 
war. They have succeeded in eroding our conventional military overmatch 
and countering our ability to project power. While America's military 
remains the most powerful on earth, urgent action is required to keep 
to keep it that way. America no longer has the luxury of taking its 
military advantage for granted.
    We must think differently about capabilities and concepts, forward 
basing and force posture, and logistics and mobilization. We must 
prepare for future threats with an eye to how the rapid diffusion of 
advanced technologies has changed the landscape of warfare. We must 
recognize our adversaries are competing across the entire spectrum of 
conflict, which requires us to be more adaptive and innovative in order 
to expand the competitive space.
    While the long-term challenge of strategic competition with China 
looms, the most immediate threat in the Indo-Pacific is the situation 
on the Korean Peninsula. Last year in the National Defense 
Authorization Act, Congress required the President to submit a report 
setting forth the United States strategy for North Korea. The 
administration missed that deadline this week.
    A North Korean missile with a nuclear payload capable of striking 
the United States Homeland is no longer a distant hypothetical--it is 
an imminent danger. The threats to our allies and partners and U.S. 
military bases in the region are even more severe. While I welcome any 
efforts to resolve the situation diplomatically, I remain skeptical of 
any assurances that North Korea is ready to denuclearize after decades 
of pursuing its current program at grave cost.
    At the core of every issue in this important region is the reality 
that securing our interests relies on working closely with the 
countries who share them. I am encouraged that the new National Defense 
Strategy commits to strengthening United States alliances and 
partnerships in the Indo-Pacific. In addition to our long-time allies 
in Japan and South Korea, Secretary Mattis has focused his efforts on 
developing and deepening partnerships with India, Indonesia, and 
Vietnam--where we recently witnessed an historic port call by a United 
States aircraft carrier that demonstrates just how far we have come. I 
welcome these efforts because ultimately, no policy for deterring 
aggression, maintaining stability, and achieving prosperity in the 
region will be successful without our allies and partners.
    As much as I am encouraged by efforts to provide more funding to 
meet our military requirements and to improve defense cooperation 
across the region, I fear these efforts will be in vain unless the 
United States takes action, especially in the economic sphere, to 
demonstrate that we are not a declining or disinterested power--and 
that we remain committed to playing our historic role as a Pacific 
power. That is why I urge the Trump administration to show the courage 
required to change course by reentering negotiations to complete the 
Trans-Pacific Partnership. We also need to cease threats to withdraw 
from existing trade agreements, such as the Korea-United States Free 
Trade Agreement. We need to ensure that America's allies and partners 
in the Indo-Pacific are not targeted by steep steel and aluminum 
tariffs.
    Finally, on the occasion of today's hearing, let me express my 
deepest thanks to Admiral Harris, who has served our nation honorably 
for decades, and has been a faithful steward of the post my father once 
held. Admiral, we thank you for your friendship and leadership. We wish 
you well in retirement and as you continue to serve our nation as 
Ambassador to Australia.

    Senator Inhofe. For evidence--unquote--for evidence that 
Secretary Mattis identified priorities in the NDS [National 
Defense Strategy] correctly, we need to look no further than 
what's happening with China. Of course, everyone's familiar 
with Russia and with the threats that are out there with the--
North Korea, but they haven't thought, really, about China in 
the framework that we have now seen it from our trip out there. 
I was recently out with members of the committee, and we had a 
chance to see it firsthand. I'm hopeful that our recent 
agreement to increase United States defense spending will help 
us to recover from our current readiness and modernization 
crisis and prepare for future threats in Asia and beyond.
    I recently returned from that trip, and, with several 
members of this committee, we visited the Philippines, Taiwan, 
South Korea, and Japan. We observed firsthand the threat that--
Chinese expansionism in the region, and we need for American 
leadership to assure, if necessary, to defend, our allies.
    Admiral Harris, the committee looks forward to your very 
candid assessment of the threat that's out there. We appreciate 
your being here with us.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you, Mr. Chairman.
    Admiral Harris, thank you for being here to testify on 
behalf of yourself and for General Brooks. It's unfortunate 
General Brooks wasn't able to join us, but we appreciate the 
operational needs on the Korean Peninsula. I also believe it's 
the committee's expectation that General Brooks will testify 
before us as soon as it is feasible for him to return to 
Washington.
    In Asia, we are faced with two very different problem sets 
that will both require long-term, integrated, whole-of-
government strategies. I am concerned that the administration 
has not developed the comprehensive strategies for the threat 
posed by North Korea or our long-term competition with China. 
Both problem sets are interdependent. For example, I firmly 
believe that if we preemptively attack North Korea, we will 
forfeit any ability to prevail in our long-term competition 
with China. If we mishandle that competition, we will be poorly 
positioned to put the type of pressure on North Korea that is 
necessary to deter and contain the threat that the regime poses 
to the United States and our allies in the region.
    With regard to North Korea, the recent announcement that 
President Trump will be meeting with Kim Jong-un has led to 
cautious optimism about a path to a resolution in this crisis. 
Success in the proposed talks will require consistent strategic 
messaging, close coordination with our partners in China, and 
increased diplomatic capacity and empowerment for the experts 
at the State Department and other agencies. I am concerned that 
some of the critical players necessary for effective 
negotiation are not in place, since we are still lacking an 
Ambassador for South Korea, the Secretary of State is in 
transition, and the top diplomat who had the most experience 
with the North Koreans recently resigned. Additionally, there 
should be significant pre-negotiations with the Republic of 
Korea, Japan, and China to make sure that we are presenting a 
comprehensive position that has buy-in from all of the relevant 
stakeholders. I am concerned that there's a very short window 
of time for all of this work to take place.
    We should all be realistic about the prospects for 
negotiations. Given North Korea's all-consuming drive for 
strategic nuclear capabilities and its history of failing to 
adhere to negotiated agreements, we can all agree that the 
likelihood of either near-term or long-term success for the 
talks is relatively low. Even in the event that North Korea 
agrees to verifiable denuclearization on terms that we can 
accept, there is a strong likelihood that a long-term 
deterrence-and-containment strategy will likely need to be in 
place for decades to come.
    Finally, it is critical that, if negotiations are not 
successful, the administration does not pivot to preparing for 
a preemptive war with North Korea. I believe there is growing 
agreement that war is not an acceptable alternative to 
sustaining pressure on North Korea, preventing proliferation 
and deterring aggression. The talks should be seen as an 
opportunity to curtail the regime's nuclear missile programs 
while still maintaining the maximum pressure campaign.
    Admiral Harris, I'm looking to hearing your views on this 
latest development and the implications for U.S. national 
security and the security of our allies in the Pacific region.
    China is the largest economic, military, and global 
competitor that we face. It is critical that this 
administration develop a comprehensive strategy that focuses on 
all these areas of competition. First and foremost, the United 
States needs a better global messaging campaign to counter 
Chinese influence in the region. For years, China has been 
circulating a narrative that the West is in decline and that 
the economic future lies with China. Our consistent response 
must be that we are committed to the Asia-Pacific region, that 
we will stand with our allies and partners to counter Chinese 
aggression, and that we will continue to promote a shared 
vision of strong economies, vibrant civil societies, and open 
democracies. In the end, it is that vision and the human rights 
that we champion that will ensure American success in the 
region.
    China has not demonstrated a willingness to be a 
responsible global leader. The U.S. should ensure that 
international order is followed. Our contention with China is 
not over who owns the South China Sea, but over who has access 
to it. To that end, we must enable and assist our partners and 
allies in the region, especially Indonesia, Thailand, Vietnam, 
and Singapore, in defending their own sovereignty, the maritime 
rights, and provide them with economic alternatives to China.
    China is using state wealth and productive capacity to 
target key companies in entire industrial sectors in the United 
States to gain economic dominance. Even wise tax, regulatory, 
and trade policies would not be sufficient to overcome this 
mercantilist strategy. We must invest more in research and 
development, workforce development and training, and correct 
lagging private investment in American manufacturing. We must 
also improve our own defense against the theft of our 
intellectual property and technology. Only recently have we 
come to fully understand some of our own vulnerabilities.
    Admiral Harris, I'm looking forward to hearing your 
testimony and how you view our long-term competition with China 
as Commander of the Pacific Command. I'm interested in hearing 
about all these issues and much more.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Admiral Harris, you are recognized for your 
opening statement, and then we'll have questions from the 
Chair.

  STATEMENT OF ADMIRAL HARRY B. HARRIS, JR., USN, COMMANDER, 
                 UNITED STATES PACIFIC COMMAND

    Admiral Harris. Thank you, Senator Inhofe and Ranking 
Member Reed and distinguished members. It's an honor for me to 
appear again before this committee for what is likely my last 
posture statement--posture hearing to you all.
    I do regret, as the Senator said, that I'm not here with my 
usual testimony battle buddy, United States Forces Korea 
Commander, General Vince Brooks, but I think you'll all agree 
that he's where he's needed most right now, on the Korean 
Peninsula.
    General Brooks and I extend our thoughts and prayers to 
Chairman McCain and his family as he continues his tough health 
fight.
    There are many things to talk about since my last testimony 
before you 11 months ago, but I want to start by thanking the 
Congress for your action last month. I'm grateful for your 
bipartisan efforts to raise the budget caps for fiscal year 
2018 and fiscal year 2019, and I'm optimistic that Congress 
will resource the fiscal year 2018 NDAA [National Defense 
Authorization Act] in the coming weeks. I and many others have 
regularly highlighted the negative impacts that sequestration 
and the Budget Control Act have leveled against the military, 
so I would ask Congress to make these bipartisan measures 
permanent and end sequestration for good.
    One of the principal problems that we face in the region is 
overcoming the perception that the United States is a declining 
or disinterested power. A fully resourced defense budget 
leading into long term stability--budget stability will send a 
strong signal to our allies and partners, and all potential 
adversaries, that the United States is fully committed to 
preserving a free and open order in the Indo-Pacific.
    As your PACOM [United States Pacific Command] Commander, I 
have the tremendous honor of leading approximately 375,000 
soldiers, sailors, marines, airmen, coast guardsmen, and DOD 
[Department of Defense] civilians standing watch for the 
largest and most diverse geographic command. These men and 
women, as well as their families, fill me with pride in their 
hard work and devotion to duty. I am humbled to serve alongside 
them.
    The United States has an enduring national interest in the 
Indo-Pacific, and, as I stated last year, I believe America's 
security and economic prosperity are indelibly linked to this 
critical region, which remains at a precarious crossroad, where 
tangible opportunity meets significant challenge. Here we face 
a security environment more complex and volatile than any we 
have experienced in recent memory.
    Senator Reed, I join you in being encouraged by recent 
developments on the Korean Peninsula and the possibility of a 
summit between President Trump and Kim Jong-un. But, North 
Korea remains our most urgent security threat in the region. 
PACOM will continue to fully support the President's maximum 
pressure campaign and be ready to respond with our allies and 
partners to the full range of contingency scenarios.
    This past year has seen rapid and comprehensive improvement 
in North Korea's ballistic and missile--ballistic missile and 
nuclear capabilities, despite broad international condemnation 
and the imposition of additional United Nations Security 
Council resolutions. This includes the detonation of its 
largest nuclear device, first-ever launches of two different 
intercontinental ballistic missiles, and six launches of an 
intermediate-range ballistic missile, all of which Pyongyang 
emphatically states will target the United States, including 
Guam.
    While some might dispute both the reliability and quantity 
of the North's strategic weapons, it is indisputable that KJU 
[Kim Jong-un] is rapidly closing the gap between rhetoric and 
capability. The Republic of Korea and Japan have been living 
under the shadow of North Korea's threats for years. Now that 
shadow looms over the American Homeland.
    Meanwhile, China is leveraging military modernization, 
influence operations, and predatory economics to coerce 
neighboring countries to reorder the Indo-Pacific to their 
advantage. While some view China's actions in the East and 
South China Seas as opportunistic, I do not. I view them as 
coordinated, methodical, and strategic, using their military 
and economic power to erode their free and open international 
order. China's aggression in the South China Sea moves along 
unabated, despite the Permanent Court of Arbitration's tribunal 
ruling that invalidated China's Nine-Dash Line claim and 
unprecedented land reclamation in 2016. China is attempting to 
assert de facto sovereignty over disputed maritime features by 
further militarizing its manmade bases, to this very day.
    China's impressive military buildup could soon challenge 
the United States across almost every domain. Key advancements 
include fielding significant improvements in missile systems, 
developing fifth-generation fighter capabilities, and growing 
the size and capability of the Chinese navy, to include their 
first overseas base in the Port of Djibouti. They're also 
heavily investing in the next wave of military technologies, 
including hypersonic missiles, advanced space and cyber 
capabilities, and artificial intelligence. If the U.S. does not 
keep pace, PACOM will struggle to compete with the People's 
Liberation Army on future battlefields.
    Thailand's ongoing military buildup, advancement, and 
modernization are core elements of their strategy to supplant 
the United States as the security partner of choice for 
countries in the Indo-Pacific. China also holds global 
ambitions. But, don't take my word for it, just listen to what 
China says, itself. At the 19th Party Congress, President Xi 
stated that he wanted China to develop a world-class military 
and become the global leader, in terms of composite national 
strength and international influence. Ladies and gentlemen, 
China's intent is crystal clear, and we ignore it at our peril.
    These types of aspirational goals could be appropriate for 
a nation of China's stature, but, judging by China's regional 
behavior, I'm concerned China will now work to undermine the 
rules-based international order, not just in the Indo-Pacific, 
but on a global scale, as China expands its presence in Central 
Asia, the Arctic, Africa, South America, and Europe. This 
increasingly competitive environment necessitates continued 
dialogue between the United States and China and our militaries 
to improve understanding and reduce risk.
    For PACOM, my goal remains to convince China that its best 
future comes from peaceful cooperation and meaningful 
participation in the current free and open international order 
and honoring its international commitments. After all, the 
Chinese economic miracle could not have happened without the 
rules-based order the region has long supported. But, I've also 
been loud and clear that we won't allow the shared domains to 
be closed down unilaterally. So, we'll cooperate where we can, 
but remain ready to confront where we must.
    Now on to Russia. Russian operations and engagements 
throughout the Indo-Pacific continue to rise, both to advance 
their own strategic interests and to undermine ours. Russia 
intends to impose additional costs on the United States 
whenever and wherever possible by playing the role of spoiler, 
especially with respect to North Korea. Russia also sees 
economic opportunities to not only build markets for energy 
exports, but also to build, or in some cases rebuild, arms 
sales relationships in the region.
    Of particular note are Russian efforts to build presence 
and influence in the high north. Russia has more bases north of 
the Arctic Circle than all other countries combined, and is 
building more with distinctly military capabilities.
    In the PACOM region, one event dominated the 
counterterrorism fight in 2017, the siege by ISIS [Islamic 
State of Iraq and Syria] of the Philippine city of Marawi and 
the city's recapture by Philippine security forces. This was 
symbolic of the largest struggle against violent extremism that 
we saw in Iraq and Syria and Africa, and now see in South and 
Southeast Asia. Marawi underscores two important themes with 
regard to defeating ISIS in the Indo-Pacific. First, localized 
threats can quickly transform into international causes. An 
early and effective response is vital to control the fight and 
own the narrative.
    Second, counterterrorism operations are extremely 
challenging, and most regional forces are poorly equipped for 
such fights. Our engagement strategy and capacity-building 
efforts have remained, and will continue to remain, focused on 
enabling regional counterterrorism forces to win whatever 
fights they face. Through multinational collaboration, we can 
eliminate ISIS before it spreads further in the area.
    Every day, our allies and partners join us in addressing 
these global challenges to defend freedom, deter war, and 
maintain the rules which underwrite a free and open Indo-
Pacific. These mutually beneficial alliances and partnerships 
provide a durable asymmetric strategic advantage that no 
competitor or rival can match.
    In the Indo-Pacific, our alliance with Australia continues 
to anchor peace and stability in the region with increased 
collaboration in counterterrorism, space, cyber, integrated air 
and missile defense, and regional capacity-building. Our 
alliance with South Korea is ironclad, and our alliance with 
Japan has never been stronger. The attack on Marawi City served 
as a reminder of the value of our alliance to Philippine 
security and stability, and we reinvigorated our alliance with 
Thailand through continued engagement with military leadership 
to promote regional security and healthy civil/military 
relations. We've also advanced our partnerships with India, 
Indonesia, Malaysia, Singapore, Sri Lanka, Vietnam, and many 
others who are dedicated to the principles of longstanding 
customary international law.
    While United States interests in the Indo-Pacific are real 
and enduring, the growing challenges to our interests are 
equally real and cannot be overstated. In order to deter 
conflict initiated by revisionist powers, rogue states, and 
transnational threats, we must continue to develop, acquire, 
and field advanced capabilities. Our evolving force posture 
must decrease our vulnerabilities, increase our resilience, and 
reassure our allies and partners. America's resolve is strong, 
and it's imperative that we continue to show our commitment to 
the region in the years to come.
    I ask this committee to continue its support for these 
future capabilities that maintain our edge and prevent would-be 
challengers from gaining the upper hand. Based on your 
bipartisan efforts last month, I'm excited about the path 
ahead. Thank you for your enduring support to the PACOM team 
and our families who live and work in the Indo-Pacific, a 
region critical to America's future. I look forward to your 
questions.
    [The prepared statement of Admiral Harris follows:]

           Prepared Statement by Admiral Harry B. Harris Jr.
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, thank you for the opportunity to appear before you 
today. This is my third opportunity to present my posture assessment 
since taking command of U.S. Pacific Command (USPACOM) in May 2015. 
During my time at USPACOM, I have had the tremendous honor of leading 
the soldiers, sailors, marines, airmen, coast guardsmen, and Department 
of Defense civilians standing watch for the largest and most diverse 
geographic command. These men and women, as well as their families, 
fill me with pride with their hard work and devotion to duty. I'm 
humbled to serve alongside them.
    Since its inception in 1947, USPACOM and the joint military forces 
assigned to it have served as a shield protecting the U.S., its 
territories, its people, and its interests throughout the Indo-Pacific 
region. To accomplish this, USPACOM works hand-in-hand with the other 
U.S. Government agencies in this region to defend our Homeland and our 
citizens. This is USPACOM's enduring responsibility and my #1 command 
priority. To enhance our efforts, USPACOM works with our allies and 
partners to improve stability in the region by promoting security 
cooperation, deterring aggression, responding to contingencies, and, 
when necessary, fighting to win. The path to security is based on our 
commitments to mutual interest and partnership, continuous military 
presence, and global readiness.
    The United States has a lasting national interest in the Indo-
Pacific. As I stated last year, I believe America's security and 
economic prosperity are indelibly linked to this critical region, which 
remains at a precarious crossroad where tangible opportunity meets 
significant challenge. Of the five principal challenges that drive 
United States defense planning and budgeting--China, Russia, Democratic 
People's Republic of Korea (DPRK), Iran, and violent extremist 
organizations--four are found within the Indo-Pacific. To protect the 
Homeland, the American people, and the American way of life, we must 
target threats at their source and confront them before they ever reach 
our borders or cause harm to our people. America cannot ignore these 
challenges and should not allow any nation or treacherous non-state 
actor to erode the rules-based security order that has yielded 
tremendous benefits for our nation and this region for the last seven 
decades.
    Following the upheaval of World War II, the rules-based 
international order--or what the 2018 National Defense Strategy 
described as a free and open international order--flourished to keep 
the Indo-Pacific largely peaceful, creating the stability necessary for 
economic prosperity in the U.S. and countries throughout the region. 
Ironically, the country that has benefitted the most from regional 
stability is China. The collective respect for, and adherence to, 
international law and standards have produced the longest era of peace 
and prosperity in modern times. This was not happenstance. This was 
made possible by seven decades of robust and persistent United States 
military presence and credible combat power. America's security 
treaties with Australia, Japan, the Republic of Korea (ROK), the 
Philippines, and Thailand have buttressed this security order, which is 
consequently strengthened even further by growing partnerships with 
India, Indonesia, Malaysia, Mongolia, New Zealand, Singapore, Sri 
Lanka, and Vietnam. USPACOM recognizes the global significance of the 
Indo-Pacific region and that strong and independent states are the best 
hope for a peaceful world. Challenges are best met together; therefore, 
America will remain an engaged and trusted ally and partner committed 
to preserving the security, stability, and freedom necessary for 
enduring prosperity.
    A free and open order encompasses a number of critical principles: 
the rule of law; adherence to international law and other international 
standards; peaceful resolution of disputes; freedom of navigation for 
all civilian and military vessels and aircraft; and open access to the 
sea, air, space, and cyberspace domains. The outcomes of these 
principles are enhanced security and open, legitimate trade. 
Sustainable security requires effective and enduring institutions, both 
civilian and military, that are guided by these principles. Defense, 
diplomatic, and development efforts are intertwined and continue to 
reinforce each other to promote stability to build and sustain stable 
democratic states.
    The Indian and Pacific Oceans are the economic lifeblood that links 
the Indian Subcontinent, Australia, Southeast Asia, Northeast Asia, and 
Oceania with the United States Oceans that were once physical and 
psychological barriers keeping nations apart are now maritime 
superhighways that bring them together. Over half the global GDP comes 
from the region (including the United States) and roughly one-third of 
global shipping passes through the South China Sea. A quarter of United 
States exports go to the region, and exports to China and India have 
more than doubled over the past decade. This diverse region drives 
global growth and is home to the world's largest economies (United 
States, China, and Japan) and six of the world's fastest growing 
economies (Cambodia, India, Laos, Burma, Nepal, and the Philippines). 
Unimpeded lawful commerce, fair market economies, and free trade 
promote American prosperity and security, leading to a strong economy 
that protects the American people, supports our way of life, and 
sustains American power.
    The Indo-Pacific has the world's most populous democracy (India) 
and the world's largest Muslim-majority state (Indonesia), both of 
which we see as key United States partners in the region. The area is 
home to more than half the world's population. Eleven of the 15 largest 
militaries in the world are in or adjacent to the region, as are a 
majority of the countries that possess nuclear weapons. These regional 
characteristics merely reinforce the need for a strong and persistent 
United States presence in the region to preserve peace through 
strength. To be blunt, the stability of the Indo-Pacific matters to 
America. The region needs a strong America, just as America needs a 
vibrant, thriving Indo-Pacific that remains both politically and 
economically free.
    It is not just history that necessitates our continued presence in 
the Indo-Pacific region; it is the future as well. The U.S. must 
maintain credible combat power across the region in order to defend 
against revisionist powers that seek to subvert democracy and undermine 
a free and open international order. It is to our long-term benefit to 
remain the region's security partner of choice by working closely with 
our allies and partners who share our commitment to uphold peace, 
economic prosperity, and security. We must not cede ground in this 
endeavor.
    What follows is USPACOM's strategic approach to the region, as 
directed by the National Defense Strategy, including my assessment of 
the regional security challenges, the key strategic opportunities, and 
the capabilities necessary to preserve a free and open Indo-Pacific. I 
will emphasize critical needs in order to seek your support for 
budgetary and legislative action to improve our position and military 
readiness in the theater. I will detail the value of U.S. strategic 
force posture and forward presence, and describe how these 
preconditions improve the readiness of our joint force to fight 
tonight, while simultaneously enhancing our ability to reassure allies 
and partners. Finally, I will discuss how USPACOM can advance U.S. 
foreign policy by strengthening our existing alliances and cultivating 
important partnerships, thereby yielding strategic benefits that 
improve USPACOM's readiness to protect and defend U.S. interests.
                                overview
    Regional security and stability are threatened by a range of rogue 
and revisionist state and non-state actors who are challenging U.S. 
influence and the free and open international order that has helped 
underwrite peace and prosperity for America and throughout the region 
for over 70 years. The Democratic People's Republic of Korea (DPRK) has 
rapidly advanced and improved its ballistic missile capability and its 
nuclear weapons program. Sanctions, international condemnation, and 
even increased pressure from China, to date, have not yet compelled the 
DPRK to end their unlawful nuclear and ballistic missile programs. 
While tensions in the East China Sea between China and Japan have 
stabilized, China's provocative and destabilizing actions in the South 
China Sea continue unabated. China's historically unprecedented 
economic development has enabled an impressive military buildup that 
could soon challenge the United States across almost all domains. Key 
Chinese advancements include: significant improvements in missile 
systems; 5th generation fighter aircraft capabilities; and increased 
size and capability of the Chinese navy. A major initiative for that 
growing navy is China's first-ever overseas base in Djibouti. I am also 
deeply concerned about China's heavy investments into the next wave of 
military technologies, including hypersonic missiles, advanced space 
and cyber capabilities, and artificial intelligence--if the U.S. does 
not keep pace, USPACOM will struggle to compete with the People's 
Liberation Army (PLA) on future battlefields. China's ongoing military 
modernization is a core element of China's stated strategy to supplant 
the United States as the security partner of choice for countries in 
the Indo-Pacific. Russia's interest and influence in the region 
continues to increase through national outreach and military 
modernization--in both its conventional forces and nuclear strike 
capabilities. The threat of ISIS in the Indo-Pacific changed 
drastically from inspiration and support to direct action as ISIS-
Philippines seized control of the city of Marawi in May. The Armed 
Forces of the Philippines recaptured the city after a long fight and 
scattered what was left of ISIS-Philippines, but the incident 
highlights the dangerous and difficult problem transnational terrorism 
presents to the region. Drug trafficking, human smuggling, piracy, 
weapons proliferation, natural disasters--as well as illegal, 
unreported, and unregulated fishing--further challenge regional peace 
and prosperity.
    The U.S. military remains the most powerful in the world, but our 
relative advantage and ability to counter these threats have declined. 
For USPACOM to continue to underpin U.S. diplomatic efforts and deter 
future conflict against peer competitors, rogue states, and 
transnational threats, the joint force must maintain a clear ability to 
fight and win when called upon to do so.
                           strategic approach
    The 2018 National Defense Strategy aims to Compete, Deter, and Win 
alongside our allies and partners. In support of these aims, USPACOM 
maintains a strategic approach to the region that encompasses four core 
elements:
    1)  Maintain credible combat power and work with the Services and 
Departments to build the right force of the future;
    2)  Maintain a network of like-minded allies and partners to 
cultivate principled security networks which reinforce the free and 
open international order;
    3)  Continue to fly, sail, and operate wherever international law 
allows and encourage others to do the same. Be ready to counter the 
coercive influence of regional competitors;
    4)  Counter transnational threat and challenges, including 
terrorism and illegal/illicit trafficking, and be ready to respond to 
natural disasters.
    USPACOM recognizes the global significance of the Indo-Pacific and 
understands that challenges are best through a unified approach. Thus, 
USPACOM actions are guided by two unifying concepts: 1) communicate 
effectively and truthfully; and 2) synchronize efforts outside of 
USPACOM across the DOD, the interagency environment, and 
internationally with like-minded allies and partners. Together, fully 
aligned with our interagency, joint, and combined partners, USPACOM 
will remain prepared to meet the following key challenges.
                             key challenges
    Democratic People's Republic of Korea (DPRK):  Last year I 
testified that the DPRK was our most immediate threat, and since then 
the level of that threat has increased significantly. The past year has 
seen rapid and comprehensive improvement in the DPRK's ballistic 
missile and nuclear capabilities, despite broad international 
condemnation and the imposition of additional United Nations Security 
Council sanctions. This includes the first-ever launches of two 
different intercontinental-range ballistic missiles (ICBM) during three 
separate ICBM tests and six launches of an intermediate-range ballistic 
missile (IRBM). Pyongyang emphatically states its ICBMs are only 
designed to target the United States and its IRBMs are only designed to 
strike Guam. Two missile tests overflew sovereign Japanese territory, 
needlessly endangering Japanese citizens. Several commercial aircraft 
on standard flight routes also reported being close enough to see 
missiles in the air during tests, underscoring the DPRK's reckless 
research and development programs.
    The DPRK still holds the distinction of being the only nation to 
have tested nuclear weapons in the 21st Century, and the DPRK detonated 
its sixth and largest nuclear device at its underground facility at 
Punggye-ri in September 2017. Senior DPRK officials then threatened to 
conduct an air burst of a nuclear warhead mated to one of its long-
range ballistic missiles. Although this has not happened, Pyongyang 
could potentially do so to further demonstrate capability or to prove 
that its design and technical functions work. The international 
community has cautioned against doing so, and is certain to condemn 
such an act if it occurs, but Kim Jong-un has demonstrated over and 
over again his disdain for international norms, responsibilities, and 
prudent conduct.
    The combination of successful, or mostly successful, ballistic 
missile tests and the most recent nuclear test have advanced the DPRK's 
capabilities significantly. Following the 29 November 2017 Hwasong-15 
ICBM test, Kim Jong-un declared with pride that they now have ``finally 
realized the great historic cause of completing the state nuclear 
force.'' While some in the U.S. might dispute both the reliability and 
quantity of the North's strategic weapons, it is indisputable that Kim 
is rapidly closing the gap between rhetoric and capability. Our two 
close allies in Northeast Asia--the Republic of Korea and Japan--have 
been living under the shadow of the DPRK's threats; now the shadow 
looms over the American Homeland. USPACOM and the entire DOD fully 
support the President's maximum pressure campaign, led by the State 
Department. Nobody seeks or desires conflict with the DPRK, but the 
United States and its allies must prepare for the full range of 
military contingencies.
    Beyond the unanimous adoption of United Nations Security Council 
Resolutions (UNSCR) 2321, 2356, 2371, 2375, and 2397 in 2017, countries 
around the world are diplomatically and financially isolating the DPRK. 
In response to the efforts of Secretary Tillerson and other senior 
administration officials, the international community has drastically 
reduced trade with the DPRK, frozen assets, expelled overseas DPRK 
workers, and more. China's actions are critical as China is the DPRK's 
largest trading partner (approximately 92 percent of all trade). To 
Beijing's credit, China has taken significant steps to enforce the 
various UNSCRs, but Beijing can and should do more. I am also concerned 
about Russia's limited contributions to the pressure campaign. While 
Moscow voted in favor of the recent Security Council resolutions, 
Russia has the capability to undermine the efforts of other countries, 
thereby playing the role of a spoiler as the DPRK approaches a full 
ICBM capability. Overall, the pressure campaign does appear to be 
affecting Pyongyang's calculus, but Kim Jong-un continues to channel 
his reduced resources to weapons programs and high profile ``morale'' 
projects that benefit only the elites, leaving the DPRK's citizens to 
suffer.
    The DPRK's grossly oversized conventional forces provide the regime 
additional coercive options. Pyongyang's active military force of 
almost 1.2 million is the fourth largest in the world, though the 
DPRK's population (approximately 24.5 million) ranks as only the 52nd 
largest worldwide. By contrast, the 53rd most populous country, 
Australia, fields an active force of under 60,000. The DPRK People's 
Army boasts a substantial inventory of long-range rockets, artillery, 
and close-range ballistic missiles aimed across the Demilitarized Zone 
at the Republic of Korea and United States forces stationed there. Many 
of these systems are capable of delivering chemical and biological 
weapons. The DPRK's well-trained, highly disciplined special operations 
forces are another asymmetric option for Kim Jong-un. Additionally, the 
DPRK is arming its navy with longer-range anti-ship missiles and is 
continuing to work on a submarine-launched ballistic missile 
capability.
    I said last year that it was critical that the United States 
maintain a strong sense of resolve in order to bring Kim Jong-un to his 
senses, not his knees. That is even more true today.
    China:  The People's Liberation Army's (PLA) rapid evolution into a 
modern, high-tech fighting force continues to be both impressive and 
concerning. PLA capabilities are progressing faster than any other 
nation in the world, benefitting from robust resourcing and 
prioritization. During the 19th Party Congress in October 2017, Chinese 
Communist Party General Secretary Xi Jinping promised military 
development would remain a national priority, pledging to complete 
modernization by 2035 and to achieve ``world class'' status by 2049. On 
the current trajectory, USPACOM assesses the PLA will likely attain 
these goals well ahead of the projected completion dates.
    In the past year, PLA forces have become more expeditionary and 
more integrated. The reorganization that created geographically-focused 
Theater Commands is now 2 years old and the PLA is exhibiting a rapid 
maturation of processes and structures. As tensions on the Korean 
Peninsula increased, Chinese and regional press began highlighting 
exercises and preparations underway in the Northern Theater--the 
command responsible for Korean contingencies. Similarly, there was a 
variety of activities in the Western Command this past summer and fall 
during the standoff between Chinese and Indian forces at Doka La. While 
we assess the PLA will still face a number of challenges moving 
forward, the PLA has clearly embraced the need for increased joint 
interoperability.
    Perhaps nowhere is the PLA making more dramatic progress than in 
ballistic missiles. While the PLA is rapidly expanding the number, 
type, and sophistication of all of its missiles, China has made the 
most progress in intermediate-range ballistic missile (IRBM) 
technology, with IRBMs now constituting approximately 95 percent of the 
PLA's overall missile force. Chinese media routinely trumpets missile 
developments, carefully noting their missiles do not target any 
specific country. However, a simple comparison of missile ranges with 
geography suggests where Chinese missiles would most likely be 
targeted--SRBMs against Taiwan and United States carrier strike groups 
operating at sea, IRBMs against United States bases in Japan and Guam, 
and ICBMs against the continental United States. China's pursuit of 
advanced hypersonic missile technologies portends even greater 
challenges over the next few years.
    The PLA Navy (PLAN) is in the midst of a massive shipbuilding 
program. If this program continues, China will surpass Russia as the 
world's second largest Navy by 2020, when measured in terms of 
submarines and frigate-class ships or larger. The first Type 055 
(Renhai) guided missile cruiser was launched in June 2017--the lead 
unit in a class of advanced multi-warfare ships that we expect will 
enter operational service next year. At least four more of these ships 
are under construction. Six Type 052 (Luyang III) Guided Missile 
Destroyers are operational, with another seven being built or fitted 
out. Amphibious capabilities are also growing. Four of an expected six 
Type 071 (Yuzhou) Amphibious Transport Docks have joined the fleet in 
the past decade, and the first Type 075 Landing Helicopter Dock is 
under construction. In October 2017 China launched the lead ship in the 
Type 901 Fast Combat Support Ship class, the first logistics ship 
specifically designed to support China's aircraft carrier(s); the 
second PLAN carrier is in the water at Dalian and progressing toward 
sea trials. New submarines under construction include five more Type 
039A (Yuan) and four more Type 093 (Shang) Nuclear Attack Submarines. 
All of these ships boast improved communications suites and defensive 
systems, as well as more lethal and longer-range weapons.
    The advances shown in the PLA Air Force (PLAAF) and Naval Air Force 
(PLANAF) are less focused on new aircraft--though there are several 
noteworthy developments. Air and air-defense progress has been most 
evident in the increasing sophistication of operational training. When 
Chinese bombers began flying simulated strike profiles in the 
Philippine Sea, Sea of Japan, and South China Sea a few years ago, the 
exercises were very basic events. Now we see fighter escorts and 
supporting packages of other specialized aircraft, including aerial 
refuelers. Major training events are increasingly incorporating 
professional opposing forces, evaluators, and instrumentation to better 
challenge and assess capabilities. The J20 multi-role fighter program 
is progressing from development and prototypes into operational use. 
The J31 program appears to be advancing less quickly, but the two 
programs suggest a near-term capability for China to field 5th 
generation fighters within the next few years. At least two new heavy-
lift transports (Y-20) are the leading edge of a fleet that will help 
the PLA overcome a long-standing inability to move troops and equipment 
anywhere in China or across the world. New and/or upgraded bombers, 
electronic warfare, command and control, and anti-submarine aircraft 
all expand PLA abilities to conduct a wide range of operations.
    PLA ground forces are still in the midst of a force-wide 
reorganization as the PLA Army (PLAA) moves from divisions to combined 
arms brigades as its basic combat formation. These more flexible, 
integrated formations will give the PLAA the ability to respond more 
precisely to a wider variety of contingencies. Forces are training in 
unfamiliar locations, under challenging environmental conditions, and 
with increased realism in an attempt to gain proficiency across a range 
of circumstances. The expansion of the PLAN-Marines continues as well, 
as the force has grown from two brigades to possibly eight, with two 
brigades each allocated to most of the Theater Commands. A contingent 
of PLAN-Marines continues to garrison the PLA's first overseas base in 
Djibouti, having arrived late last summer.
    Following its establishment at the close of 2015, the PLA Strategic 
Support Force (PLASSF) has quickly matured to better manage and employ 
the PLA's impressive array of cyber, space, and other specialized 
capabilities. The PLASSF consolidates and employs specialized 
capabilities that could degrade or deny other countries the use of 
space, the electromagnetic spectrum, communications systems, and data 
networks. This joint organization reflects the PLA's emphasis on 
winning ``system versus system'' conflicts.
    To operationalize these new and expanded capabilities, Chinese 
forces--especially the PLAN--are operating in more locations, more 
often, leading to greater degrees of proficiency. The PLAN's counter-
piracy deployment to the Gulf of Aden is now in its ninth year, and has 
provided invaluable experience to many of the PLAN's surface ships and 
crews. Chinese submarines have deployed to the Indian Ocean seven times 
in the past 4 years, and Chinese ships have conducted dozens of port 
visits across Europe, Africa, the Middle East, and Asia. This does not 
mean the PLAN has become a global navy, but its presence and influence 
are expanding. Much of this activity is linked to China's ambitious 
Belt and Road Initiative, which is meant to increase China's global 
influence through a China-centered trading network. The majority of 
this activity was expected, and is consistent with the actions of a 
rising power, but some activities and China's lack of openness about 
its plans are reasons for concern. When the base in Djibouti opened 
last year, the base was touted as a logistics outpost; yet within the 
base's first few months of operation, PLAN-Marines held several live 
fire drills involving armored combat vehicles and artillery. This 
suggests the base also functions as a forward deployed location for 
expeditionary capabilities, rather than as simply a logistics hub.
    Recent efforts to introduce clarifying legislation--in the form of 
the Foreign Investment Risk Review Modernization Act (FIRRMA, aka 
``CFIUS 2.0'')--seek to improve the national security focus of the 
Committee on Foreign Investment in the United States (CFIUS) and will 
help focus the lens on activities conducted by the Chinese. The 
economic stimulus of Chinese investment in the United States and across 
the Indo-Pacific region, including real estate transactions in the 
vicinity of military installations, threatens to undermine our national 
security objectives and those of our allies and partners. I am fully 
supportive of these efforts, and believe we must view Chinese 
investment holistically to best understand Beijing's overall intent.
    Territorial Disputes and Maritime Claims:  Overlapping and 
competing territorial and maritime claims remain a source of friction 
in the region. I am most concerned about China's ongoing actions in the 
South China Sea. In 2017, China took significant steps to further 
militarize its bases on disputed features.
    South China Sea:  The United States takes no position on competing 
sovereignty claims to naturally formed islands in the South China Sea, 
but we do strongly call on all countries to ensure their claims and 
activities are consistent with international law. Specific to maritime 
claims and activities, countries should adhere to the law of the sea as 
reflected in the United Nations Convention on the Law of the Sea.
    The most significant territorial disputes in the South China Sea 
include: 1) the Paracel Islands, between China, Taiwan, and Vietnam; 2) 
Scarborough Reef, between China, Taiwan, and the Philippines; and 3) 
the Spratly Islands, where China, Taiwan, Vietnam, Brunei, Malaysia, 
and the Philippines each claim sovereignty over some or all of the land 
features. It is the last one that has drawn much of the attention in 
recent years. On September 25, 2015, Chinese Communist Party General 
Secretary Xi Jinping stated in a Rose Garden ceremony that China did 
not intend to militarize its outposts on the Spratly Islands. The plain 
fact is that China has built a number of clear military facilities and 
capabilities on all of their seven outposts, and China continues to 
build more.
    It is important to note that there are no military aircraft, air 
defense missile launchers, or anti-ship missile systems currently 
deployed to any of China's Spratly Island outposts. The only weapons 
present now are short-range defensive systems appropriate for close 
defense of the outposts. However, China has built a massive 
infrastructure specifically--and solely--to support advanced military 
capabilities that can deploy to the bases on short notice. The United 
States should assume Beijing plans to use these facilities for their 
clearly intended purposes at some point in the future. The Chinese also 
built the same sets of structures on each of its three largest outposts 
in the Spratly Islands (at Fiery Cross Reef, Mischief Reef, and Subi 
Reef), including:
    <bullet>  10,000 foot runways capable of launching and recovering 
all military aircraft
    <bullet>  Fighter aircraft hangars
    <bullet>  Large aircraft hangars, capable of supporting larger 
aircraft such as bombers, AWACS, and transports
    <bullet>  Protected air defense launcher sheds
    <bullet>  Protected anti-ship missile launcher sheds
    <bullet>  Water and fuel storage tanks farms
    <bullet>  Ammunition storage facilities
    <bullet>  Barracks, communications systems, deep water pier 
facilities, military radars
    These bases appear to be forward military outposts, built for the 
military, garrisoned by military forces, and designed to project 
Chinese military power and capability across the breadth of China's 
disputed South China Sea claims. China's explanation that Beijing was 
``forced'' to deploy these capabilities in ``response'' to an 
``increased'' United States presence--especially Freedom of Navigation 
Operations (FONOPS)--is disingenuous. The United States Navy has been 
navigating and operating in the South China Sea, and has been 
peacefully exercising freedom of navigation operations all over the 
world, for decades. On the other hand, China only recently began island 
reclamation earlier this decade. The overall design and execution of 
the projects strongly suggests a master plan was in place from the 
start. In July 2016, an Arbitral Tribunal under the Law of the Sea 
Convention issued its ruling in favor of the Philippines' South China 
Sea claims. Even though the Arbitral Tribunal is binding on both China 
and the Philippines, China has yet to abide by the ruling. The 
Philippines, preoccupied with the counter-terrorism fight on Mindanao 
and desirous of stable relations with China, has not pressed the issue 
since China is ``allowing'' Filipino fishermen some access to 
Scarborough.
    Across the South China Sea, China's air force, navy, coast guard, 
and maritime militia all maintain a robust presence. Routine patrols 
and exercises ensure Chinese forces are in and around all the features, 
not just the ones they occupy. China routinely challenges the presence 
of non-Chinese forces, including other claimant nations and especially 
the United States, often overstating its authority and insisting 
foreign forces either stay away or obtain Chinese permission to 
operate.
    Since 1979, the U.S. Freedom of Navigation program has peacefully 
challenged excessive maritime claims by coastal states all around the 
world, including those of our friends and allies. This program consists 
of diplomatic communications and operational assertions, which are not 
provocative and are not a threat to any country. These operations are 
conducted globally to maintain open seas and skies, which underpins 
economic prosperity for the U.S. and all countries.
    East China Sea:  Tensions between Japan and China over the Senkaku 
Islands have largely stabilized since last year, but there is no long-
term resolution in sight. With substantive military and coast guard 
assets in the area from both countries, the situation could easily lead 
to miscommunication, miscalculation, and escalation. China persistently 
challenges Japan's administration over the islands by sailing Coast 
Guard ships near the Senkaku Islands and protesting Japanese 
reconnaissance flights. Chinese exercises prominently feature military 
actions focused on the Senkaku Islands, including exercises training 
for a possible future physical occupation of the islands and 
establishment of a maritime blockade to isolate the disputed areas. 
Clearly describing Beijing's intent to the United States and Japan, 
Chinese media prominently features stories that highlight those 
specific capabilities and actions. America's policy is clear and has 
not wavered: the Senkaku Islands are under the administration of Japan 
and, as such, are covered by article 5 of the United States-Japan 
Treaty of Mutual Cooperation and Security. The United States opposes 
any unilateral action that seeks to undermine Japan's administration of 
these islands.
    Russia:  Russian operations and engagement throughout the Indo-
Pacific continue to rise, both to advance their own strategic interests 
and to undermine United States interests. Russia intends to impose 
additional costs on the United States whenever and wherever possible by 
playing the role of a spoiler, especially with respect to the DPRK. 
Additionally, Moscow seeks to alleviate some of the effects of 
sanctions imposed following their aggression in Ukraine by 
diplomatically wooing select states in Asia. Russia also sees economic 
opportunities to not only build markets for energy exports, but also to 
build--or in some cases rebuild--arms sales relationships in the 
region.
    Russia's strategic nuclear forces are modernizing and routinely 
practice nuclear strikes against the United States Homeland. The 
Russian Pacific Fleet's two Borey (Dolgorukiy-class) nuclear ballistic 
missile submarines (SSBN) have been integrated into operations since 
their arrival in 2015 and 2016, augmenting older Delta III SSBNs and 
substantially bolstering Russia's modern nuclear strike capabilities. 
Tu-95 Bear bombers fly off the coasts of Canada, Alaska, and 
occasionally the northwest part of the continental United States in 
profiles designed to train their crews and assess United States and 
Canadian responses. Additionally Russia uses its long-range aviation 
forces for strategic messaging on other issues, for example, flying 
around Japan or off the Korean Peninsula. Most recently, a pair of Tu-
95s deployed to eastern Indonesia, passing by Guam during their 
transits each way. Land-based nuclear missile forces similarly exercise 
and test-fire missiles oriented toward North America.
    Russian naval modernization is making their Pacific Fleet more 
capable and more lethal. The fleet is expected to receive as many as 10 
new ships in 2018, including several combatants. The first 
Steregushchy-class guided missile corvette was commissioned in January 
2017 with two more expected to arrive this year. This ship class is 
equipped with the advanced Kalibre missile system, a multi-functional 
weapons array that can fire a variety of long-range anti-ship and land 
attack missiles. The first of six modernized Project 636.3 (Kilo) 
nuclear attack submarines is scheduled to arrive in late 2018 (though 
it could slip into 2019), with all six in the fleet by 2021. The 
Russian Pacific Fleet's five Project 949A (Oscar II) nuclear-powered 
guided missile submarines are being upgraded to incorporate the Kalibre 
system as well. This will make these submarines, whose wartime missions 
include attacking aircraft carriers and other priority land and sea 
targets, much more lethal.
    Ground and air modernization efforts continue as well, including 
state-of-the-art Bastion coastal defense cruise missiles, S-400 
strategic air defense missiles, and new/upgraded helicopters and 
fighters. In 2017, Russian troops and warships held several combined 
training events with China and hosted India for their first tri-service 
bilateral exercise.
    Of particular note are Russian efforts to build presence and 
influence in the high north. Russia has more bases north of the Arctic 
Circle than all other countries combined, and is building more with 
distinctly military capabilities.
    ISIS/Violent Extremist Organizations (VEOs):  One event dominated 
the counter-terrorism fight in the USPACOM AOR in 2017: the siege by 
ISIS in the Philippines (ISIS-P) and recapture by government forces of 
the Philippine city of Marawi. The crisis began in May 2017, following 
a failed operation by the Armed Forces of the Philippines (AFP) to 
capture the leader of an ISIS-pledged group. A range of extremist 
actors, motivated by ideology, financial reward, clan ties, adventure, 
or other reasons descended upon Marawi, where they found a historically 
marginalized, predominantly Muslim population. ISIS-P became a focus 
for global ISIS media publications and statements, many of which 
encouraged additional supporters to flock to Marawi. A few tried, not 
many made it. USPACOM--with Special Operations Command, Pacific 
(SOCPAC) in the lead--provided counter-terrorism support and assistance 
to the AFP, enabling the Philippine Security Forces to disrupt ISIS-P 
activities in the southern Philippines. After a protracted fight, the 
AFP recaptured the city and killed or drove out what was left of ISIS-
P. According to the AFP, 962 ISIS-P, 165 AFP, and 47 civilians were 
killed during the siege and recapture.
    Marawi underscores several important themes with regard to 
defeating ISIS in the Indo-Pacific. First, localized threats can 
quickly transform into international causes. Prior to Marawi, few, if 
any, ISIS leaders or media coordinators had ever heard of the location 
or key actors involved. Within weeks, Marawi was the cover story on 
ISIS' flagship media product. An early and effective response is vital 
to control the fight and own the narrative. Second, despite such media 
attention and calls for support, few extremists from within the region 
responded, and even fewer came from outside the AOR. This underscores 
our assessments that most issues in the Indo-Pacific are ``local'' and 
the desire and ability to join someone else's fight are limited. Third, 
counter-terrorism operations are extremely challenging, and most 
regional forces are poorly equipped for such fights. Our engagement 
strategy and capacity-building efforts have remained--and will continue 
to remain--focused on enabling regional counter-terrorism (CT) forces 
to win whatever fights they face.
    USPACOM remains concerned about the potential for ISIS ideology to 
inspire terrorism in the Indo-Pacific, but cautiously notes that the 
number of successful attacks dropped significantly during the past 
year. The decline could be the result of an increased CT focus by 
governments across the region, as well as more effective efforts by 
host nation intelligence and security services--Indonesia, Malaysia and 
Bangladesh are among the places where authorities have successfully 
disrupted plots. The decline might also be due to the diminished 
stature of ISIS and its ideology following losses in Iraq and Syria. 
However, the region is still fertile for radicals and extremists 
looking to affiliate with the ISIS brand.
    Multinational partnerships represent the best method of countering 
VEOs across the region. USPACOM is engaging Malaysia, Indonesia, the 
Philippines, Australia, and New Zealand to degrade and defeat ISIS and 
other VEO threats. Many Indo-Pacific countries such as Australia, New 
Zealand, and Singapore have joined the coalition dedicated to ISIS' 
complete destruction. Through multinational collaboration, like-minded 
nations can eliminate ISIS before it spreads further in the USPACOM 
area of responsibility.
    Countering violent extremism in the Indo-Pacific requires close 
collaboration with U.S. Government interagency partners, such as the 
Department of State, the Department of Treasury, the Federal Bureau of 
Investigation (FBI), USAID, and the other agencies from the U.S. 
intelligence community. Through an interagency network reinforced by 
liaison officers embedded in USPACOM headquarters and Special 
Operations Command (SOCOM), we are able to leverage tools from across 
our Government to fight terrorism and counter violent extremism.
Transnational Crime:
    From finished opioids to industrial chemicals that support 
production of other illegal drugs, the Indo-Pacific is a key player the 
global supply chain for the illegal drug market. Transnational criminal 
organizations, operating across borders and across the globe, are 
responsible for the vast majority of the illicit activities that spill 
drugs and related violence into American communities. Characteristics 
of these threat organizations continue to evolve. They use technology 
as an enabler to further disperse and decentralize their organizations, 
thereby making effective targeting of these threats more challenging. 
The opportunistic nature of drug trafficking organizations enables them 
to stay ahead of law enforcement.
    At the same time countries in the Indo-Pacific are wrestling with 
growing internal drug consumption challenges. In the Philippines, the 
scourge of drug use has had multiple destabilizing effects, at the 
family-level, community-level, and the national level, as President 
Duterte's efforts to address the problems have created relationship 
challenges with the United States and others. Amphetamine Type 
Stimulant (ATS) use continues to grow throughout East and Southeast 
Asia, while heroin demand remains steady. Consistently high prices for 
cocaine in Australia and New Zealand support a small but extremely 
lucrative trade for Western Hemisphere drug traffickers.
    Across the Pacific Island Nations, expanding ATS usage, concurrent 
with expanding crime and corruption, aptly demonstrates the symbiotic 
relationship between drugs and these corrosive effects. United States 
territories such as Guam and the Commonwealth of the Northern Marianas 
Islands (CNMI) face these same challenges.
    Many of the drug trafficking challenges on America's southwest 
border start with the precursor chemicals that are sold through licit 
commerce, predominantly from China, and to a lesser extent, India. 
Criminal entities with ties to Mexican and South American drug cartels 
use these licit chemicals to produce methamphetamine, cocaine, and 
heroin.
    Another drug, fentanyl-laced heroin, has been responsible for a 
spike in United States overdose deaths. Fentanyl, and its numerous 
analogs, originate almost exclusively from China. To combat these 
threats, the United States Government works closely with the government 
of the People's Republic of China in a Joint Liaison Group (JLG) on Law 
Enforcement Cooperation led by the Department of Justice.
    Cyber:  The importance of cyberspace is growing rapidly as the 
world becomes increasingly interconnected and networked. National power 
and security depend on the ability to operate securely in and through 
cyberspace. The two most capable cyber actors worldwide are Russia and 
China. Both of these countries have incorporated cyber into their joint 
warfighting doctrine and routinely exercise these capabilities 
alongside more traditional elements as a force multiplier. In fact, 
China values cyber so highly it created the Strategic Support Force to 
integrate and synchronize cyber operations. Meanwhile, a provocative 
DPRK continues to employ cyber operations against its adversaries. Last 
May, the DPRK deployed the WannaCry ransomware attack, affecting over 
300,000 computers in 150 countries. As regional interaction becomes 
increasingly dependent on cyber activity, these threats to cyberspace 
will become more concerning.
    Proliferation:  The Indo-Pacific has the busiest air and maritime 
ports in the world. Technological advances have outpaced many 
countries' ability to effectively manage export controls to counter the 
proliferation of component technology. Trade includes dual-use 
technology, such as commercial items controlled by the nuclear, 
ballistic missile, and chemical/biological weapons control regimes, 
including manufactured or re-exported materials from other countries 
with limited export control enforcement. USPACOM's Countering Weapons 
of Mass Destruction (C-WMD) community supports Special Operations 
Command (SOCOM) global counter-proliferation strategy by addressing 
regional concerns through key leader engagements, combined and joint 
exercises, and international security exchanges focused on counter-
proliferation activities. Since 2014, an enduring Proliferation 
Security Initiative (PSI) Asia-Pacific Exercise Rotation (APER) is held 
annually between PSI Operational Experts Group (OEG) states in the 
USPACOM AOR. The United States, New Zealand, Singapore, Australia, 
Japan, and Republic of Korea rotate hosting the PSI exercises. This 
year, Japan is hosting the PSI APER followed by the Republic of Korea 
next year.
    Natural Disasters:  The Indo-Pacific region continues to remain the 
most disaster-prone region in the world. About 75 percent of the 
Earth's volcanoes and 90 percent of earthquakes occur in the ``Ring of 
Fire'' surrounding the Pacific Basin. According to a 2015 UN report, 
disasters over the last ten years took the lives of a half a million 
people in the region, with over 1.5 billon people affected, and damages 
greater than 500 billion dollars.
    While disaster response is not a primary focus for USPACOM, a key 
element of USPACOM's Theater Campaign Plan (TCP) is building capacity 
with allies and partners to improve their resiliency and capability to 
conduct humanitarian assistance/disaster response (HA/DR). HA/DR 
cooperation is also an effective means to deepen and strengthen 
relationships. USPACOM's Center for Excellence in Disaster Management 
(CFE-DM) serves as a regional authority on best practices for HA/DR and 
helps prepare regional governments for HA/DR events. Our service 
components are prepositioning HA/DR stocks to facilitate timely 
response and to build access in the region. When possible, U.S. 
military forces assist with their unique capabilities in the areas of 
air and sealift, infrastructure restoration, and emergency medical 
support. As just two examples, in 2016, USS Sampson (DDG 102) and 
Maritime Patrol and Reconnaissance Aircraft assisted New Zealand in its 
response to an earthquake on its South Island; and in 2017, USS Lake 
Erie (CG 70) supported Sri Lanka during flooding from a tropical 
cyclone and the rainy season.
    Workforce Challenges for Military Realignments in the Pacific:  I 
appreciate Congress' efforts in the fiscal year 2018 NDAA to provide 
much-needed relief for DOD on the problem of construction worker 
shortages in Guam and Commonwealth of Northern Marianas Islands (CNMI). 
By extending the authority to grant H2B visas from 2018 to 2023 for 
military construction (MILCON) projects, Congress will help alleviate 
labor shortages in these areas that would otherwise drive cost 
increases and delays in key MILCON projects that support the 
realignment of U.S. forces in the region. However, the same labor 
shortages that threaten MILCON also threaten much needed civilian 
construction for these communities. Unless directly supporting a MILCON 
project, civilian construction efforts will not receive the same relief 
from H2B Visas. In addition to slowing the economic growth of Guam and 
CNMI, the insufficient number of workers is causing friction between 
the military and civilian communities. The local communities perceive 
that the U.S. has favored military construction at the expense of 
civilian construction.
    Budget Uncertainty:  Fiscal uncertainty breeds a significant risk 
to USPACOM's strategic priorities. The Budget Control Act and yearly 
continuing resolutions (CR) interrupt USPACOM's ability to work with 
the Services, Unified Commands, and Sub-Unified Commands to effectively 
plan for the long-term mission. According to the Government 
Accountability Office's (GAO) September 2017 report, ``Budget 
Uncertainty and Disruptions Affect Timing of Agency Spending,'' we have 
had approximately 101 CR extensions between 1999 and 2017. This year 
added five more CR extensions. Under these conditions of perpetual 
uncertainty, we cannot efficiently and effectively plan and prepare our 
forces to meet today's challenges. This is no truer than in the Indo-
Pacific.
    Five years ago, sequestration cut almost every defense program 
equally. As a result, readiness and operational capability have 
suffered. While the recent tragedies in the Western Pacific involving 
surface combatants assigned to USPACOM were the direct result of gross 
negligence by the ships' crews, multiple reports cited additional 
contributing factors. Both the Secretary of the Navy's Strategic 
Readiness Review and U.S. Fleet Forces Command's Comprehensive Review 
identified the ``imbalance'' in surface combatant capacity and 
operational requirements. In fact, the Comprehensive Review noted that, 
``Under the Budget Control Act (BCA) of 2011 and extended Continuing 
Resolutions, the ability to supply forces to the full demand is--and 
will remain--limited.'' Additionally, the Strategic Readiness Review 
stated that, ``the lean fiscal environment, worsened by the BCA, 
coupled with a high operational demand for forces and reduced fleet 
levels, challenged the Navy even more, placing a heavy strain on the 
service. Coincidentally, as the BCA further constrained the fleet, it 
became clear that China was emerging as a peer Navy competitor.''
    The lean fiscal environment, coupled with a high operational demand 
for forces and reduced fleet levels, challenged the Navy even more and 
placed a heavy strain on the service. As the 2011 BCA further 
constrained the fleet, it became clear that China was emerging as a 
peer Navy competitor. China's adoption of advanced technology, its 
increasingly dispersed operations, and its doctrinal writings make 
clear that it aspires to a more robust regional capacity and global 
reach. Our peer competitors like China and Russia are quickly closing 
the technological gap. I need weapons systems of increased lethality 
that go faster and further, are networked, are more survivable, and 
affordable. If USPACOM has to fight tonight, I don't want it to be a 
fair fight. If it's a knife fight, I want to bring a gun. If it's a gun 
fight, I want to bring in the artillery, and the artillery of all of 
our allies. I have said during my last two appearances before this 
Committee, that sequestration could reduce us to wielding a butter 
knife in this fight. This is unacceptable. We must not let that happen. 
In order to deter potential adversaries in the Indo-Pacific, we must 
build a more lethal force by investing in critical capabilities and 
harnessing innovation. We must develop a lethal, agile, and resilient 
force posture that decreases our vulnerabilities. The force posture 
must also reassure our allies and partners and encourage them to be 
full and cooperative partners in their own defense and the defense of 
the free and open international order.
    Overall, I am grateful to Congress for the recent agreement on the 
DOD-budget caps for the next two years. The positive actions you took 
last week will help the DOD and USPACOM address many of the issues 
above, and I'm optimistic that the DOD is approaching an era of fiscal 
certainty. Over the long-term, fiscal certainty will allow us to build 
and train a force that is best postured to overcome the external 
challenges that we face in the Indo-Pacific.
                         critical capabilities
    The most technological, high-end military challenges America faces 
in the region continue to grow. While forward presence, alliances, and 
partnerships address these challenges, USPACOM requires our most 
technologically advanced warfighting capabilities to fully meet them. 
The critical capabilities in this section demand our attention and 
treasure. We must preserve our asymmetric advantages in undersea and 
anti-submarine warfare, and we must strengthen our abilities to counter 
strategies designed to limit our freedom of action.
    China has developed and fielded capability and capacity to 
challenge our regional maritime dominance. I need increased lethality, 
specifically ships and aircraft equipped with faster and more 
survivable weapons systems. Longer range offensive weapons on every 
platform are an imperative. We must also network this force and take 
advantage of man-machine teaming to improve our responsiveness.
    Pacing the threats we face in the region is not an option in my 
playbook. We must work hard and invest the money to outpace the 
competition by developing and deploying the latest technology to 
USPACOM. Examples include: Navy Integrated Fires and the AEGIS Flight 
III destroyer and its new Air and Missile Defense Radar (AMDR); 
rotational deployment of Air Force and Marine Corps 5th generation 
fighters; and new systems capable of defending our vulnerable bases 
from the full spectrum of current and emerging threats (e.g., 
hypersonic missiles and armed unmanned aerial systems). These tools are 
essential in today's complex operating environment.
    Munitions, Fuels, and Logistics Networks:  Critical munitions 
shortfalls continue to be my top warfighting concern. Shortages in our 
munition inventories pose a significant threat to our combat readiness 
and exacerbate the effects of the peer competitors who continue to 
modernize their weapon systems and expand their inventories. It is 
critical that we retain our capability to operate in contested 
environments, which requires dedicated investment in the industrial 
base and the development of new concepts and technologies. 
Additionally, we must continue to expand Intermediate Nuclear Force 
Treaty-compliant theater strike capabilities to effectively counter 
adversary Anti-Access/Area-Denial (A2/AD) capabilities and force 
preservation tactics.
    My priorities include multi-domain kinetic/lethal strike 
capabilities, including hypersonic, long-range strike, air-to-air 
missile, long-range precision fires, maritime strike, and integrated 
air and missile defense. Additional requirements include the command 
and control (C2) and integration of long-range, high-speed, lethal, 
survivable, and precision munitions capabilities in ships, submarines, 
patrol craft, land-based formations, bombers, and fighters. With 
respect to ship-to-ship and air-to-ship munitions that allow us to 
defeat an aggressor from greater range, we are pursuing capabilities 
similar to Long Range Anti-Ship Missile (LRASM) and Joint Air-to-
Surface Standoff Missile--Extended Range (JASSM-ER). In the air-to-air 
realm, I continue to seek advancements in munitions that will provide 
us an advantage in a denied environment, such as the AIM-120D and AIM-
9X air superiority missiles. We must continue to modernize and improve 
our torpedo and naval mine capabilities to maintain our undersea 
advantage. I appreciate Congress' efforts to address LRASM, JASSM, air-
to-air missiles, and undersea warfare capabilities in the fiscal year 
2018 NDAA. Continued improvements in the capability and capacity of 
ballistic/cruise missile defense interceptors will further enhance 
Homeland defense capabilities and protect key regional nodes from 
aggressive action. In support of the Korean Peninsula, the new policy 
on cluster munitions, signed 30 November 2017, helps to alleviate the 
capability gap created by the previous policy. However, I support 
efforts to acquire a replacement for cluster munitions--we need an area 
effects munition now.
    As new inventory becomes available, storage capacity will become 
critical. As an example, we are beginning to see the storage capacity 
limitations play out as Services reposition munitions on the Korean 
Peninsula. Admittedly, this is a nice problem to have. Beyond the 
capacity challenges posed, our current, legacy storage locations are 
inadequate to store specific types of modernized munitions and meet the 
requirements of fiscal year 2021 Department of Defense Explosive Safety 
Standards. We are currently operating on waivers in many areas and 
assuming risk to meet mission requirements.
    Fuel is the lifeblood of operations, and without resilient resupply 
capability, our operational effectiveness is severely degraded. Crucial 
to our ability to operate in increasingly contested and austere 
locations is the velocity of fuels support from source of supply to the 
point of use. Strategic positioning is a key pillar of our logistics 
posture. Ensuring we have the right fuel, in the right amount, at the 
right location, at the right time, is vital to USPACOM's ability to 
project power throughout the Indo-Pacific under combat conditions. 
USPACOM is closely integrated with the Defense Logistics Agency and the 
Services, and I am encouraged by the progress being made. In fiscal 
year 2018, investments are planned to increase fuels supply/operations 
infrastructure, storage, and resiliency in Guam, Japan, and Australia. 
I remain committed to building the capacity of our prepositioned war 
reserve stocks of fuel, including resiliency of the facilities, 
infrastructure, and distribution capabilities on which these stocks 
depend.
    USPACOM's ability to project power is underpinned by strong airlift 
capabilities. Unfortunately, budget instability and ongoing continuing 
resolutions have driven inflexibility into these critical areas while 
the global strategic environment requires increased flexibility. In 
today's global competition for airlift, increased demand and limited 
resources hinder the joint force's ability to promptly achieve 
operational objectives. In war, this shortfall will result in greater 
loss of life, increased risk to USPACOM forces, and increased risk to 
our nation's credibility with partners and allies.
    Strategic sealift assets play a significant role in PACOM's 
success. Whether during a contingency or during peacetime, the ability 
to deliver forces and sustain them with timely equipment, critical 
logistics, and service support is essential. Our adversaries continue 
to strengthen their capabilities, while many of our assets and 
platforms are approaching the end of their service life, resulting in 
shortfalls which reduce our ability to maintain sea supremacy. In order 
to adequately support current operations and prepare for future 
warfighter requirements, it is crucial that we increase investment in 
strategic sealift assets.
    As the Indo-Pacific region becomes more connected to other regions 
and more influential, we must be prepared to anticipate the need for 
key enablers that will ensure our influence in the region remains 
strong. Preparedness is underwritten by logistics and sustainment 
capability, capacity, resiliency, and agility. Our logistics capability 
is one of the U.S. military's key asymmetric advantages around the 
world. Unfortunately, due to budgetary pressures and decades of global 
engagement, our logistics systems and infrastructure are struggling to 
support the full range of military operations in the Indo-Pacific 
region. No one aspect of our logistics system is broken; but when 
examined as a ``system of systems,'' executed by logisticians, 
engineers, and medical experts, the overall logistics enterprise has 
become more vulnerable, or brittle, because the system has fewer 
redundancies. More specifically, risk against each key functional area 
in our logistics system has risen over the last decade. The slow 
erosion of our logistics system has been manifested in manpower cuts to 
key areas like maintenance manning or the consolidation of our 
engineers in the Pacific. Each service has made difficult choices -
balancing modernization with recapitalization and sustainment. Smaller 
munitions inventories mean the overall logistics enterprise must make 
up for that limitation by better, faster distribution processes to get 
the right munition to the right place at the right time to support 
operations. Additionally, the Services have consolidated and 
centralized important wartime materiel to better set the globe or have 
consolidated and reduced logistics staffs. Those changes have 
exacerbated the challenges associated with PACOM's ``tyranny of 
distance.'' The time consumed by logistically supporting operations 
from greater distances reduces my decision space in a very dynamic and 
fast paced crisis or contingency.
    Taken collectively, the complex problem of getting the right stuff 
to the right place at the right time in a contested environment is a 
vexing problem made worse by the slow erosion of capability, capacity, 
and agility. That reality requires that we make faster, more accurate 
logistics decisions to support operations. The Indo-Asia-Pacific 
Stability Initiative (IAPSI) is the single most important initiative 
that can reverse a dangerous trend toward an inevitably brittle Joint 
Logistics Enterprise in the Pacific, and I'm thankful for Congress' 
efforts to fund IAPSI. Our logistics systems, infrastructure, key 
supplies, and processes are in need of replenishment with new 
equipment, better infrastructure, additional trained professionals, and 
innovative logistics concepts to better prepare USPACOM for peer-level 
competition and large scale crises.
    Air Superiority:  For the last several decades the U.S. has enjoyed 
unmatched air superiority. The preponderance of aircraft ensuring this 
permissive air-domain has been 4th generation fighters and air-battle-
management platforms, which have benefitted from a technology gap over 
any potential rival. Our potential adversaries, however, are rapidly 
closing this gap as both Russia and China have fielded their own 
versions of 5th generation fighters which threaten our ability to gain 
air superiority at a time and place of our choosing. In order to deter 
and defeat potential adversaries in the Indo-Pacific region, we must 
have the capability to quickly gain and maintain air superiority long 
enough to complete critical missions. The U.S. is now beginning to 
field 5th generation platforms in the Pacific; however, our legacy 4th 
generation platforms will be in our inventory for years to come, and we 
must be prepared to address future threats. While we continue to invest 
in 5th generation platforms, we must also find innovative ways to make 
our 4th generation aircraft and air-battle-management platforms more 
capable.
    Undersea Warfare:  USPACOM must maintain its asymmetric advantage 
in undersea warfare capability including our attack submarines, their 
munitions, and other anti-submarine warfare systems like the P-8 
Poseidon and ship-borne systems. Roughly 230 of the world's 400 foreign 
submarines are in the Indo-Pacific, of which approximately 160 belong 
to China, DPRK, and Russia. Potential adversary submarine activity has 
tripled from 2008 levels, requiring an increase of U.S. activity to 
maintain undersea superiority. This growth of regional submarine 
fleets, and increasing demand from other Combatant Commands for SSNs, 
will challenge the Joint Force to address our SSN requirements in the 
decade ahead. The SSN imbalance will only be aggravated as the global 
U.S. Navy SSN inventory drops and submarines are retired faster than 
replacements are constructed. China is improving the lethality and 
survivability of its attack submarines, building quieter, high-end 
diesel and nuclear powered submarines, and has placed in service four 
nuclear-powered Jin-class ballistic missile submarines (SSBNs). An 
armed Jin-class SSBN will give China an important strategic capability 
that must be countered. Russia is modernizing its existing fleet of 
Oscar-class multi-purpose attack nuclear submarines (SSGNs) and 
producing their next generation Severodvinsk Yasen-class SSGNs. Russia 
has also homeported their newest Dolgorukiy-class SSBN in the Pacific, 
significantly enhancing its strategic capability. Current counter 
undersea capabilities include the Integrated Undersea Surveillance 
System (IUSS), including the Surface Towed Array Sensor Systems 
(SURTASS). While these platforms have operated since the early 1980s, 
these systems, along with the new autonomous Unmanned Underwater 
Vehicle technologies, play a key role in theater operations and must be 
resourced appropriately to ensure they remain relevant and capable. 
Maintaining pace with submarine activity growth is necessary and I 
support the Secretary of the Navy's 2016 ``Force Structure Assessment'' 
which calls for a 355-ship navy, including 66 attack submarines.
    Intelligence, Surveillance, and Reconnaissance (ISR):  The 
challenge of gathering credible, deep, and penetrating intelligence 
cannot be overstated. The Indo-Pacific presents a dynamic security 
environment requiring persistent and intrusive ISR to provide 
indications, warning, and situational awareness across a vast 
geographic area. Our treaty allies rely on U.S. ISR capabilities to 
support mutual defense treaties. ISR is required to prevent strategic 
surprise, buy decision space for national leadership, accurately assess 
the security environment, and defeat adversaries, if necessary. The 
rapid modernization of our peer competitors requires additional 
advancements in how our intelligence is collected and processed, 
including the associated risks. Our ISR capabilities must be suited to 
our unique operating environment.
    Space and Cyberspace:  USPACOM relies heavily on space-based assets 
for satellite communications (SATCOM), Intelligence, Surveillance, 
Reconnaissance (ISR), Missile Warning, and Positioning, Navigation, and 
Timing (PNT) capabilities to support missions across the range of 
military operations. USPACOM's region spans over half the globe and 
space-based assets are high-demand, low-density resources. As the 
electromagnetic spectrum grows increasingly congested and contested, 
our adversaries continue to develop means to deny our space-enabled 
capabilities. China continues to pursue a broad and robust array of 
counter-space capabilities, which include direct-ascent anti-satellite 
missiles, co-orbital anti-satellite systems, cyber-attack and 
exploitation capabilities, directed energy weapons, and ground-based 
satellite and PNT jammers. DPRK continues to develop and employ SATCOM 
and PNT jammers, while also continuing their development and testing of 
nuclear weapons and ballistic missiles despite UNSCR 1718 prohibiting 
such activities.
    USPACOM faces constant threats in the cyber domain from both state 
and non-state actors, such as China, DPRK, Russia, and criminal actors. 
The United States must ensure it has a robust and capable cyber force, 
as well as the equipment necessary to maintain command and control of 
our forces. USPACOM requires an agile and defensible mission command 
network infrastructure to enable interoperability with our allies and 
mission partners to fully leverage our combined capacity. In addition, 
offensive cyber capabilities provide additional tools to use as part of 
tailored options that bolster multi-domain effects, but these 
capabilities must grow faster. As we work across the interagency 
environment to develop whole-of-government solutions, we require a 
workforce that strikes the right balance between cyber forces assigned 
in the theater, working directly for USPACOM and its subordinates, and 
forces assigned to USCYBERCOM and other U.S. Government agencies at the 
national level.
    Integrated Air and Missile Defense (IAMD):  USPACOM faces unique 
Integrated Air and Missile Defense (IAMD) challenges despite efforts to 
forward station

additional IAMD sensors and weapons capabilities in the Indo-Pacific to 
protect
our forces and allies. Hawaii, Guam, and our Pacific territories are 
part of our Homeland and must be defended. Hawaii is currently 
protected from DPRK intercontinental ballistic missiles (ICBMs) by the 
Ground-Based-Midcourse Defense System. This system includes Ground-
Based Interceptors in Alaska and California; ground-, sea-, and space-
based sensors; and redundant command, control and communications 
systems. For the defense of Hawaii, the Homeland Defense Radar--Hawaii 
(HDRH) siting process is near complete. The Missile Defense Agency 
(MDA) plans to compete and award a Pacific Radar contract in fiscal 
year 2018 and deliver an initial capability by fiscal year 2023. The 
new radar will provide an enhanced ballistic missile sensing and 
discrimination capability in the Pacific, and will increase the 
capability of the Ground-Based Midcourse Defense System to defend the 
state of Hawaii. This radar is being built to stay ahead of potential 
future threats. DPRK's 3 September 2017 nuclear test, its KN-22 
``Hwasong-15'' ICBM test launch on 28 November 2017, and DPRK's 
continuing research and development of submarine launch ballistic 
missile technology, demonstrates the DPRK's desire for greater 
technical performance and capability. Also, China and Russia continue 
to develop and operationally field advanced counter-intervention 
technologies which include fielding and testing of highly maneuverable 
re-entry vehicle/warhead (i.e., hypersonic weapons) capabilities that 
challenge U.S. strategic, operational, and tactical freedom of movement 
and maneuver. China and Russia also present other notable challenges in 
the form of cruise missiles and small-unmanned aircraft systems (s-UAS) 
which fly different trajectories, making them hard to detect, acquire, 
track, and intercept due to unpredictable low-flight profiles and high-
potential use of countermeasures. I support MDA's intent to formally 
study the efficacy of putting an interceptor capability in Hawaii.
    USPACOM's IAMD priority is to establish a persistent, credible, and 
sustainable ballistic missile defense presence by forward deploying the 
latest advancements in missile defense technologies to the Indo-
Pacific. Through their forward and persistent presence, these active 
missile defense capabilities help mitigate the risk to missile threats 
that USPACOM faces in the AOR. USPACOM continues to work with the 
Department of Defense (DOD), our academic institutions and industry to 
improve or deploy systems capable of countering the missile threat 
challenges in the Indo-Pacific.
    USPACOM maintains an active Terminal High Altitude Area Defense 
(THAAD) battery on Guam to protect our fellow citizens and strategic 
military capabilities from the threat of DPRK intermediate-range 
ballistic missiles (KN-17 and MUSUDAN). USPACOM also employs additional 
radars across the theater to support Homeland defense and testing of 
the Ballistic Missile Defense System (BMDS). Additionally, USPACOM is 
supporting MDA's siting-study to identify a home for the new Homeland 
Defense Radar in Hawaii.
    USPACOM and USFK, with the support from the MDA and the DOD, 
deployed a Terminal High Altitude Area Defense (THAAD) battery to the 
Korean peninsula in 2017 that is fully operational. The U.S. Navy is 
moving forward with the port shift of the USS Milius from San Diego to 
Yokosuka, Japan this spring. This port shift provides the U.S. Seventh 
Fleet with improved capability to support the United States-Japan 
alliance. USPACOM will continue working with Japan, the ROK, and 
Australia to improve our level of staff coordination and information 
sharing with the goal of creating a fully-integrated Ballistic Missile 
Defense (BMD) architecture that addresses the increasing cruise missile 
threat.
    USPACOM continues to support MDA and the Services to develop and 
test emerging missile and counter-small UAS defense capabilities 
through modeling and simulation, as well as live-fire testing conducted 
at the Pacific Missile Range Facility, the Ronald Reagan Test Center at 
Kwajalein Island, Point Mugu, and other testing ranges located on the 
continental United States and Alaska. These tests encompass a number of 
developmental flight tests including: Standard Missile-3 (SM-3) Block 
IB Threat Upgrades; Distributed Ground Tests to assess the performance 
of the Ballistic Missile Defense System; two Standard Missile-6 (SM-6) 
missiles against a complex medium-range ballistic missile target; and 
SM-3 Block IIA allowing longer flight times and engagements of more 
complex threats higher in the exo-atmosphere. USPACOM will continue to 
support future flight tests to help improve the Ballistic Missile 
Defense System performance against more complex threats. Going forward, 
USPACOM supports all efforts that improve the capability and capacity 
of ballistic missile, cruise missile, and UAS defense technologies to 
further enhance Homeland defense capabilities and protect key regional 
locations from aggressive action. The development of a credible and 
effective defense against advanced and future missile and UAS threats 
remains vital to our operational plans and critical to the continued 
defense of the U.S.
    Innovation:  USPACOM increasingly relies on innovation to address 
USPACOM's capability gaps and maintain our military advantage. This 
includes testing and integrating new technologies, developing new 
capabilities, and exploring new concepts of operation and employment. 
This multi-pronged approach to innovation is paying dividends, and my 
innovators are getting these capabilities into the hands of the 
warfighters quickly in order to enhance our ability to fight tonight. 
Advances in man/machine teaming, artificial intelligence, machine-
learning, hypersonic technology, autonomy, and command and control will 
enable the Joint Force to maintain a velocity of precision operations 
our adversaries simply cannot match. USPACOM's ability to conduct 
operationally realistic exercises where we can rigorously test our 
innovative ideas makes me confident we will continue to identify, test, 
evaluate, and integrate the best technology our industry offers.
    Capitalizing on the vast open spaces of the Pacific, USPACOM runs 
the most complex field exercises in the world. For example, the Joint 
Pacific Alaska Range Complex (JPARC) is a premier location to focus on 
joint air and electronic warfare exercises, while the Pacific Missile 
Range Facility and ranges near Guam provide excellent opportunities to 
test naval and missile innovations. USPACOM forces conducted over 50 
more warfighting experiments in 2017 than any year before. I believe we 
can take this construct to the next level by combining innovation 
across multiple areas: operational planning, cutting-edge technologies, 
modeling and simulation, and execution of multi-Combatant Command 
exercises.
    Our innovation successes would not be possible without strong 
partnerships. USPACOM benefits from our continued relationships with 
organizations across the DOD, including the Defense Advanced Research 
Project Agency, the Defense Innovation Unit-Experimental, Service 
laboratories and innovation offices, national laboratories, university-
affiliated research centers, and industry. USPACOM has also 
significantly increased its interaction with U.S. Special Operations 
Command, and we continue to work closely with the OSD Strategic 
Capabilities Office (SCO) to develop and field game-changing 
technologies for the Indo-Pacific.
    Fires . . . Achieving Multi-Domain Battle (MDB):  Multi-domain 
battle is the ultimate joint concept that allows commanders to achieve 
cross-domain effects while mitigating significant advancements in our 
adversaries' ability to out-range and out-gun some of our most advanced 
platforms and systems.
    We have made significant progress in the past 12 months. This year, 
the Army and the Marine Corps ``signed out'' Version 1.0 of this 
warfighting concept in a document titled U.S. Army and Marine Corps 
Concept, Multi-Domain Battle: The Evolution of Combined Arms for the 
21st Century. This concept describes how U.S. and partner forces 
organize and employ capabilities to project and apply power across 
domains, environments, and functions over time and physical space to 
contest adversaries in relative ``peace'' and, when required, defeat 
them in ``war.'' The concept of MDB seeks a common and interoperable 
capability development effort to provide Joint Force Commanders 
complementary and resilient forces to prosecute campaigns and further 
the evolution of combined arms for the 21st Century.
    In execution, MDB broadens the options for Joint Force Commanders 
and poses a corresponding dilemma for our adversaries. Version 1.0 of 
this concept formally transitions emergent concepts and ideas to 
experimentation. The complementary capabilities described in this 
concept provide an initial set of ideas to test with regard to 
employment and capability requirements, while supplementary 
capabilities required for combined arms and maneuver serve as a 
starting point for common capability development efforts between the 
Army, Marine Corps and their joint partners. Our joint forces will 
revise this concept to Version 2.0, refining ideas and corresponding 
solution set by incorporating the results of experimentation, as well 
as other Service and Joint perspectives.
    I recently asked the USPACOM component commands to test MDB 
operational concepts as part of our Joint Exercise Program, to include 
demonstrations in one of our major capstone events--the Rim of the 
Pacific exercise (RIMPAC '18). Implementing a ``crawl-walk-run'' 
methodology, we will move from discrete events across domains to the 
fusion of joint capabilities across domains in a sensor to shooter 
agnostic environment that is both contested and integrated across the 
combined force. In keeping with the MDB concept vision--we will 
progress from experimentation to validation of concepts, culminating in 
a validation and demonstration of the Army's new Multi-Domain Task 
Force during the RIMPAC '20 exercise.
    We will capitalize on the existing MDB capabilities resident in 
much of our force, but in order to maintain our competitive edge, we 
must continue our rapid pursuit of new technologies and approaches. One 
of the biggest capability gaps in terms of joint effects is the lack of 
complete connectivity and integration between the Services' operational 
and tactical ISR, target acquisition, and fire control systems--such as 
the Navy's Cooperative Engagement Capability (CEC), the Army's Advanced 
Tactical Field Artillery Target Data Systems, Army's THAAD and Patriot 
Systems, and the USMC's C2 systems. Together with the Services, USPACOM 
is working to solve these problems with the Joint Staff and OSD.
              strategic force posture in the indo-pacific
    The Joint Force is forward-stationed throughout the Indo-Pacific 
region to deter conflict or to defeat adversaries should deterrence 
fail. The tyranny of distance, mobilization timelines for reserve 
component enablers, and strategic lift constraints hinder the ability 
to generate force flow early in a crisis. While USPACOM remains focused 
on fielding credible combat power, gaining access to new locations, 
upgrading existing operating locations, and encouraging whole-of-
government approaches to deter and confront regional adversaries are 
all critical to preserving our positional advantage in the region. As 
challenges in the Indo-Pacific region continue to evolve, the 
importance of infrastructure recapitalization and the fielding of 
advanced capabilities have increased.
    Global Force Management (GFM):  Credible combat power offers the 
greatest potential for meeting the Indo-Pacific region's complex 
security issues and enables our ability to prevail in combat. The DOD 
continues to strongly support USPACOM GFM priorities through the 
assignment of critical platforms and capabilities in Alaska and on the 
West Coast. USPACOM continues to prioritize forward stationing and 
deployment of 5th generation aircraft in the Indo-Pacific, to include 
the first Marine Corps F-35B Joint Strike Fighters to Japan in January 
2017 and the first Air Force F-35A squadron to the Republic of Korea in 
November 2017. In addition, United States commitment to the Indo-
Pacific is further evidenced by the deployment of our newest and most 
advanced aviation platforms such as the P-8 Poseidon, RQ-4 Global Hawk, 
MV-22 Osprey, EA-18G Growler, E-2D Hawkeye, and C-130J Super Hercules.
    The long-range capabilities of U.S. bombers are well suited for the 
Indo-Pacific region due to the vast distances and unique challenges. 
This mission enables Joint Force readiness and commitment to extended 
deterrence, offer assurances to our allies and partners, and strengthen 
regional security and stability in the Indo-Pacific region.
    In addition to the Pacific Pathways deployments and posture 
commitments, the Army is assessing existing U.S. inventories to 
prioritize requirements for focused readiness, critical munitions, 
sustainment stocks, mobility shortfalls, chemical defense, and facility 
operations within the region.
    The culmination of joint and combined force operations with our 
Service components and our partner nations in the Indo-Pacific region 
in 2017 was the three-carrier strike force exercise in the Western 
Pacific. USS Ronald Reagan (CVN 76), USS Nimitz (CVN 68), and USS 
Theodore Roosevelt (CVN 71) strike groups conducted coordinated 
operations in international waters to demonstrate the Navy's unique 
capability to operate multiple carrier strike groups as a coordinated 
strike force effort.
    Force Posture Initiatives:  USPACOM's ability to execute national 
tasking and meet national objectives is reflected in military 
construction investments that support increased resiliency for the 
Joint Force via projects in Japan, Guam, the Commonwealth of the 
Northern Mariana Islands (CNMI), and Australia. The vast distances 
associated with the Indo-Pacific, coupled with the short timelines to 
respond to crises, require investment in infrastructure to properly 
preposition capabilities and capacity throughout the region. Military 
construction supports critical capabilities to include Unmanned Aerial 
Vehicles for increased intelligence, surveillance and reconnaissance 
(Republic of Korea), Cyber Mission Force teams (Hawaii), Special 
Operations Forces (Japan), increased critical munitions storage 
capacity in Washington State, and quality of life investments for the 
Joint Force and their families in Guam, Republic of Korea, Japan, and 
the Republic of the Marshall Islands.
    Host country support at 23 established operating locations in the 
Indo-Pacific region remains robust overall. The U.S. military receives 
approximately $37 billion in new construction at a cost of less than $7 
billion to the United States taxpayer in the Indo-Pacific region. The 
Government of Japan committed resources in 2013 that continue to assist 
in the strategic realignment of United States Marine forces from 
Okinawa to Guam and other locations as a part of the Defense Posture 
Realignment Initiative (DPRI). Additionally, the Government of Japan is 
supporting the airfield expansion work underway at the Marine Corps Air 
Station Iwakuni, Japan and the Futenma Replacement Facility. The 
Republic of Korea continues to support the work on the Land Partnership 
Plan and Yongsan Relocation Plan, which are estimated to be finished 
within the next 4 years. Outside of the above initiatives, Japan and 
the Republic of Korea continue to provide other funding and support, 
which play a critical role in sustaining United States presence in the 
region.
    USPACOM continues to execute five major force posture initiatives: 
(1) United States-Japan Defense Policy Review Initiative (DPRI) / USMC 
Distributed Laydown; (2) United States Forces Korea Realignment; (3) 
Resiliency; (4) Agile Logistics; and (5) Agile Communications.
    Defense Posture Realignment Initiative (DPRI)/USMC Distributed 
Laydown:  DPRI is a vital part of the larger U.S. military Integrated 
Global Basing and Presence Strategy. A major goal of DPRI is to create 
an environment that is geographically distributed, operationally 
resilient, and politically sustainable to better support the enduring 
presence of United States Forces in Japan. USPACOM maintains 
significant focus and effort on these initiatives. DPRI is one of the 
largest construction efforts since the end of the Cold War. Much work 
by both the United States and Japan remain, but progress is being made 
towards realigning some United States Marines from Okinawa to Guam and 
build-up of facilities at other locations such as Marine Corps Air 
Station (MCAS) Iwakuni, Japan. Military construction investments in the 
fiscal year 2018 NDAA include projects for DPRI in Guam and Iwakuni. 
Another critical cooperative effort, the Futenma Replacement Facility 
(FRF) at Camp Schwab/Henoko will enable the United States to fulfill 
its security obligations to Japan while also enabling the return of 
MCAS Futenma to Okinawa. In the past year, top leaders from the United 
States and Japan have reaffirmed the commitment of both countries to 
construct the FRF. This solution maintains our presence at MCAS Futenma 
until the FRF is completed.
    USFK Realignment:  The consolidation of United States Forces in the 
Republic of Korea via the Land Partnership Plan (LPP) and Yongsan 
Relocation Plan (YRP) continues to progress as planned. Posture 
priorities remain the relocation of thousands of United States 
personnel to bases south of Seoul and setting conditions to support 
United Nations Command and the ROK-United States Combined Forces 
Command. The United States is committed to maintain the current level 
of United States military personnel assigned to the Republic of Korea 
through the next five years, at which point the Joint Force will become 
strategically flexible and exercise freedom of action throughout the 
AOR.
    Resiliency:  The Joint Force remains ready to fight tonight across 
all domains in the Indo-Pacific. USPACOM ensures sustained power 
projection capabilities exist forward in theater, and generates 
resiliency through the dispersal of our capabilities and the decisive 
aggregation of effects. USPACOM resiliency efforts include investment 
in more robust infrastructure in ally and partner countries and the 
hardening of critical facilities. USPACOM also works to disperse 
critical enablers, including communication nodes, fuel repositories, 
medical readiness centers, and logistic support equipment.
    Agile Logistics:  Combat operations in a contested environment 
require U.S. forces to disperse across multiple locations, both inside 
and outside the enemy's operational reach. We can no longer rely on the 
past strategy of consolidating in large, central locations that 
position combat capabilities close to the fight to maximize efficiency 
and time on target. To survive, our warfighters must move quickly in 
and out of enemy fire, placing a greater burden on the units that 
support them. Logistics plans can no longer construct central basing 
stockpiles of critical sustainment materiel without fear of attack. 
USPACOM must disaggregate those stockpiles, anticipate demand, and 
adapt to the speed of operational maneuver. Supported by other 
Combatant Commands and strategic partners, USPACOM is working to 
develop an agile, resilient logistics network, to included 
sophisticated logistics decision support tools.
    Agile Communications:  USPACOM must work with mission partners in 
order to further national objectives throughout the Indo-Pacific 
region. Five of seven U.S. Mutual Defense Treaties exist in the USPACOM 
area of responsibility (AOR), which translates to five alliances of 
national militaries that must operate together as a unified force on a 
daily basis and through all phases of planned operations. Similarly, 
USPACOM does not have formal agreements for exchanging information with 
many of the nation states or organizations within the USPACOM AOR, 
giving rise to the need for dynamic information technology capabilities 
to support the full spectrum of military operations. Agility with 
coalition information sharing environments that allow for the rapid 
addition or removal of mission partners must be available on short 
notice to adequately respond to natural disasters and contingencies in 
order to synchronize efforts, achieve synergistic results and to ensure 
forces do not interact with each other in a negative manner. As a 
result, we are not fully postured with the latest technology to 
interoperate with multiple partner combinations over all the phases of 
military operations. Furthermore, we will not have the communication 
capacity and sharable encryption capability to support the most modern 
warfighting platforms and associated weapon systems as they are built 
and deployed.
    Indo-Asia-Pacific Stability (IAPSI) Initiative:  I'm grateful for 
the inclusion of IAPSI in the Fiscal Year 2018 NDAA. IAPSI supports a 
number of the force posture initiatives addressed in this section, 
including enhanced resiliency and increased logistical agility. 
Overall, IAPSI helps USPACOM fully leverage the capabilities of our 
allies and partners, while also signaling our persistent commitment to 
the region.
    Readiness:  USPACOM is a ``fight tonight'' theater with short 
response timelines across vast spaces. Threats as discussed earlier 
require U.S. military forces in the region maintain a high level of 
readiness to respond rapidly to crisis. USPACOM's readiness is 
evaluated against its ability to execute operational and contingency 
plans, which place a premium on forward-stationed, ready forces that 
can exercise, train, and operate with our partner nations' militaries 
and follow-on forces to respond to operational contingencies. Forward-
stationed forces west of the International Date Line increase decision 
space and decrease response times, bolster the confidence of allies and 
partners, and reduce the chance of miscalculation by potential 
adversaries.
    The ability of the U.S. to surge and globally maneuver ready forces 
is an asymmetric advantage that must be maintained. Over the past two 
decades of war, the U.S. has prioritized the readiness of deploying 
forces at the expense of follow-on-forces and critical investments 
necessary to outpace emerging threats. As a result of high operational 
demands, delayed maintenance caused by sequestration and ongoing 
Continuing Resolutions (CR), and training pipeline shortfalls, a 
shortage of ready surge forces limit USPACOM's responsiveness to 
emergent contingencies and greatly increases risk. These challenges 
grow each year as our forces continue to deploy at unprecedented rates. 
We are overstressing the force as the Services are unable to establish 
conditions to reset their force elements with the current fiscal 
instability.
    Past budget uncertainty degraded USPACOM's ability to plan and 
program, leading to sub-optimal utilization of resources. Fiscal 
uncertainty forces the Department to accept risk in long-term 
engagement opportunities with detrimental strategic consequences to 
U.S. relations and prestige. Services must be able to develop and 
execute long-term programs for modernization while meeting current 
readiness needs. Constrained budgets over the last few years forced 
choices within the Services that have limited procurement and fielding 
of 5th generation fighter aircraft (F-35) in sufficient quantities and 
modernization of 4th generation aircraft (F-15, F-16, F/A-18) essential 
to prevent capability gaps and to maintain pace with potential 
adversary advancements. Much of the supporting infrastructure in the 
Pacific and on the West Coast of the continental United States was 
established during World War II and during the early years of the Cold 
War. The infrastructure requires investment to extend its service life 
but the Services struggle to maintain infrastructure sustainment, 
restoration, and modernization accounts at appropriate levels. 
Similarly, the shadow of budget uncertainty has exacerbated the 
industrial base's inability to meet and respond to increasing 
requirements to replace expenditures and field new systems and 
technologies. If funding uncertainties continue, the U.S. will 
experience reduced warfighting capabilities and increased challenges in 
pacing maturing adversary threats.
                          allies and partners
    U.S. national power depends on more than a robust economy and 
military strength: we need allies and partners. Our network of 
alliances and partnerships, established over the past 70-plus years, 
has contributed to the free and open order that we enjoy today. These 
countries do not follow U.S. lead on all issues, but allies and 
partners provide a foundation for like-minded nations to draw upon when 
dealing with major issues or crises. Australia, Japan, Republic of 
Korea, Philippines, and Thailand have all been long-standing allies, 
but Congress' designation of India as a ``Major Defense Partner'' in 
2016 provides USPACOM the opportunity to forge a new relationship with 
the world's largest democracy. A robust network of allies and partners 
creates an environment of cooperation to work together on shared 
challenges.
    USPACOM is directly connected to regional leaders. I am in frequent 
communication with my regional counterparts and appreciate the ability 
to reach out at any time to share perspectives. USPACOM maintains a 
close link with allies and partners through staff exchange and liaison 
officers, in addition to a series of formal bilateral mechanisms. In 
Australia, key engagements stem from the Australia-New Zealand-United 
States security treaty and are guided by USPACOM's principal bilateral 
event with Australia, the Military Representatives Meeting, which leads 
up to the Australia-United States 2+2 Ministerial Meeting with SecDef/
SecState and their Australian counterparts. Similarly, the annual Joint 
Senior Leader Seminar guides USPACOM's military-to-military 
relationship with Japan. The Military Committee and Security 
Consultative Meetings are the preeminent bilateral mechanisms that 
guide the United States alliance with the Republic of Korea (ROK). Each 
year USPACOM and the Armed Forces of the Philippines co-host the Mutual 
Defense Board and Security Engagement Board to deal with 21st Century 
challenges. USPACOM conducts annual Senior Staff Talks with Thailand to 
address security concerns and reinforce United States commitment to 
democratic principles. USPACOM also conducts annual formal bilateral 
activities with non-alliance partners throughout the region, including 
Bangladesh, India, Indonesia, Malaysia, Singapore, and Vietnam.
    Our multilateral cooperation is further enhanced by numerous Flag 
and General Officer (FOGO) exchange officers that work for the U.S. at 
USPACOM. These foreign officers from our ``Five Eye'' (FVEY) partners 
(Australia, Canada, New Zealand, and United Kingdom) serve under my 
Command as fully integrated members of the USPACOM team. Our operations 
and intelligence watch centers are FVEY environments and FOGOs are 
embedded within USPACOM and our service components
    Bilateral and Multinational ``Partnerships with a Purpose'':  The 
future lies in multilateral security mechanisms. USPACOM is broadening 
key bilateral relationships into multilateral ``partnerships with a 
purpose'' that will more effectively address shared security concerns. 
For example, the United States-Japan-Republic of Korea multilateral 
coordination in response to the DPRK's provocative behavior, while 
challenging, is improving. The ROK and Japan each recognize that 
provocative actions by the DPRK will not be isolated to the peninsula 
and greater coordination and cooperation are required. Historical 
tensions between the nations remain, but cooperation and collaboration 
are slowly improving. The November 2016 signing of the Japan-Republic 
of Korea General Security of Military Information Agreement (GSOMIA) is 
a major accomplishment in improving bilateral relations between Seoul 
and Tokyo; the GSOMIA lays an essential foundation for expanding 
cooperation and enables the U.S. to work more closely with both allies. 
Recognizing the benefits of this bilateral agreement, in November 2017, 
the Republic of Korea and Japan renewed GSOMIA for another year. I look 
forward to increasing the frequency and complexity of multilateral 
information sharing while simultaneously enhancing multilateral 
security cooperation.
    To encourage multilateral cooperation, USPACOM hosts the Chiefs of 
Defense Conference (CHODs) annually. The CHODs conference location 
normally rotates between Hawaii and a regional partner. In 2017, 30 
countries attended the CHODs conference in Victoria, Canada. USPACOM 
also participates in Australia-Japan-United States multilateral defense 
dialogues, including the Security and Defense Cooperation Forum (SDCF).
    The multilateral relationship between the United States, Japan, and 
India is growing stronger as well. All three countries share democratic 
values, interests in protecting sea-lanes of commerce, and respect for 
international law. On the security front, all three countries 
participate in India's increasingly complex annual Malabar military 
exercise as well as the multinational Rim of the Pacific exercise.
    In Southeast Asia, Indonesia, Malaysia and the Philippines formed a 
multilateral relationship aimed at countering violent extremists 
through coordinated maritime and air patrols. Additional Southeast Asia 
nations, such as Brunei and Singapore, and other Indo-Pacific regional 
nations, such as the United States, Japan, and Australia are all 
supporting the multilateral initiative through various support 
missions.
Allies
    Australia:  The United States-Australia alliance anchors peace and 
stability in the region. Australia plays a leading role in regional 
security, capacity-building efforts and addressing disaster response. 
Australia is a key contributor to global security and a significant 
contributor to counter-ISIS efforts in Iraq and Syria and the Resolute 
Support mission in Afghanistan. With the implementation of force 
posture initiatives, the Marine Rotational Force-Darwin successfully 
completed its sixth deployment while maintaining a presence of 1,250 
U.S. Marines. The seventh deployment begins in April 2018 and will 
consist of approximately 1,500 U.S. Marines with future growth informed 
by capability requirements and budget resource availability. The 2018 
deployment will include ten MV-22 Osprey aircraft, providing a more 
robust capability. The deployment of USAF F-22s to Australia for 
integration with Royal Australian Air Force E/A-18G, F/A-18F, and/or E-
7A as part of the Enhanced Air Cooperation force posture initiative 
will build upon the initial activities that occurred in 2017 by 
increasing the complexity of mutual tactics, techniques, and 
procedures. The United States and Australia are increasing 
collaboration in counter-terrorism, space, cyber, integrated air 
missile defense, and regional capacity building. Australia is procuring 
high-tech United States platforms that will further increase 
interoperability. These include the F-35A Lightning II, P-8 Poseidon, 
C-17 Globemaster III, EA-18G Growler, Global Hawk UAVs, and MH-60R 
helicopters. To enhance interoperability, the Australian Government 
provides a General Officer to USPACOM and a General Officer to United 
States Army Pacific on a full-time basis. Australia has also set a goal 
of reaching 2 percent of its GDP on defense spending over the next 
decade.
    France:  As a NATO ally, France has significant equities in the 
Indo-Pacific, and I welcome France's growing involvement in the region. 
The French territories in Polynesia and New Caledonia make France the 
sixth largest nation on the planet by area, which translates into an 
Economic Exclusion Zone (EEZ) of over 166,000 square miles. The French 
navy maintains a professional military force in both territories, 
focused primarily on maritime security. But, France aims to become more 
involved across the Indo-Pacific writ large. Not only is France 
providing submarines to Australia and India, France is currently 
operating a combatant frigate (FF VENDEMIARE) in the East and South 
China Seas with United States Pacific Fleet. France also maintains a 
contingent of forces on New Caledonia and remains active in support or 
regional Humanitarian Assistance and Disaster Relief operations. During 
my recent visit to New Caledonia, the French military Commander 
indicated a strong desire to increase their training interaction with 
USPACOM forces, and we are developing opportunities for increased 
interaction. Overall, I am very excited about France's increased 
willingness to stand by the United States as we confront revisionist 
state and non-state actors across the region.
    Japan:  The United States-Japan alliance remains the cornerstone 
for peace and stability in the Indo-Pacific region. Operational 
cooperation and collaboration between USPACOM and the Japan Joint Staff 
continue to increase. Japan's Peace and Security Legislation 
authorizing limited collective self-defense operations and the revised 
2015 Guidelines for United States-Japan Defense Cooperation have 
significantly increased Japan's ability to contribute to regional 
stability more broadly. Japan continues to support USPACOM activities 
to maintain freedom of navigation in the South China Sea, and remains 
concerned about Chinese activities in the East China Sea. We are 
strengthening our alliance with Japan, including through reviewing our 
roles, missions and capabilities, to ensure seamless alliance responses 
across a full spectrum of situations amid an increasingly challenging 
regional security environment. Japan is procuring high-tech United 
States platforms that will increase interoperability such as the F-35B, 
E-2D Hawkeye, Global Hawk UAS, and MV-22 Osprey; it has also announced 
its intentions to procure AEGIS Ashore.
    Republic of Korea (ROK):  The United States-ROK alliance is 
ironclad, and our commitment to the Republic of Korea is unwavering. We 
continue to work with our close friend and ally, as it moves toward 
obtaining the capabilities required under the Conditions-Based 
Operational Control (OPCON) Transition Plan (COT-P). In response to the 
evolving threat posed by the DPRK, the United States in coordination 
with the Republic of Korea, deployed a THAAD system to improve alliance 
missile defense posture. The Republic of Korea is also procuring high-
tech United States platforms that will further increase 
interoperability to include the F-35B, P-8 Poseidon, AH-64 Apache, and 
Global Hawk UAS.
    The resumption of inter-Korean dialogue in January and the North's 
decision to participate in this month's PyeongChang Olympic Games are 
encouraging developments, but any future talks with the DPRK must be 
focused on achieving a complete, verifiable, and irreversible 
denuclearization of the Korean peninsula. Accordingly, the alliance 
will maintain a high military readiness posture and will continue to 
provide support for the diplomatic pressure campaign through credible 
combat deterrence.
    The Philippines:  The United States-Philippine alliance has 
demonstrated resilience through President Rodrigo Duterte's pursuit of 
an independent foreign policy. The tenor of our bilateral relationship 
has improved over the past year, due in part to the relationship-reset 
in President Duterte's personal interactions with President Trump. 
Through frank and frequent dialogue with Philippine leadership, we 
continue to maintain a robust defense relationship comprised of 261 
activities for calendar year 2018, slowly expanding parameters of 
military-to-military cooperation. In particular, we have obtained 
Philippine commitment to resuming live fire exercises and close air 
support training. The attack on Marawi City in Mindanao by ISIS-P posed 
a significant challenge to the Armed Forces of the Philippines (AFP) 
and served as a reminder of the value of our alliance to Philippine 
security and stability. United States support, primarily in the form of 
providing Intelligence, Surveillance, and Reconnaissance (ISR), 
tactical advice, and the use of our Mutual Logistics Support Agreement 
(MLSA) to assist in the timely delivery of weapons and ammunition, 
proved crucial in the AFP's defeat of ISIS-P in Marawi. Our quick 
response to addressing AFP needs helped to bolster the bilateral 
relationship. Our military cooperation supports a broader whole-of-
government approach to countering terrorism and building resiliency and 
capacity in Mindanao, as well as continuing to work together to 
modernize the AFP. While the government of the Philippines refocused 
attention on internal security to address short-term security and 
political challenges in Mindanao, we must not lose sight of the long-
term objectives of building a territorial defense capability and 
creating a modern and self-sufficient AFP. Strategic patience has 
helped recalibrate the alliance relationship. I am convinced that the 
relationship pendulum will continue to swing in a positive direction 
and will continue to stabilize the region as it has for over 60 years.
    Thailand:  Our deep and longstanding military-to-military ties with 
Thailand go back to our 1950 Agreement Respecting Military Assistance 
between the Government of the United States of America and the 
Government of Thailand. Despite recent challenges, we remain close 
allies and important security partners. Our alliance is back on track 
at senior levels, capping off a year of re-engagement that included 
multiple 4-star visits, Secretary Mattis' visit to Bangkok for the 
Royal Cremation, and POTUS' hosting the Prime Minister at the White 
House. These discussions aimed to ``Reinvigorate the Alliance,'' and we 
have communicated that strengthening the alliance is a shared 
responsibility. Overall mil-to-mil engagements are also on a positive 
trajectory. Thailand facilitates world-class training opportunities for 
United States personnel across all services, and co-hosts Exercise 
Cobra Gold with us, Asia's largest multinational military exercise. 
Thailand provides logistical nodes essential to our forces operating 
throughout the Indo-Pacific region. Funding for International Military 
Education and Training (IMET) and Foreign Military Financing (FMF) are 
currently restricted, but a Foreign Military Sales (FMS) and Direct 
Commercial Sales (DCS) relationship continues. Thailand has publicly 
committed to hold national elections in November 2018, and our 
continued engagement with military leadership remains the best way for 
the United States to promote regional security and healthy civil-
military relations in Thailand.
    United Kingdom:  I'm excited about the trend of UK involvement in 
the Indo-Pacific. As a key NATO ally, the UK continues to support 
United States logistics and ISR operations across multiple Combatant 
Commands from the Indian Ocean territory of Diego Garcia. The UK is 
also looking to become more involved in maritime security in the Indo-
Pacific. The HMS Sutherland, a Type 23 Frigate, is currently conducting 
combined maritime operations with U.S. Pacific Fleet in Southeast Asia, 
and I expect this type of interaction will increase in the years to 
come.
                                partners
    India:  The United States-India strategic partnership continues to 
advance at a historic pace and has the potential to be the most 
consequential bilateral relationship of the 21st Century. The United 
States and India maintain a broad-based strategic partnership that is 
underpinned by shared democratic values, interests, and strong people-
to-people ties, and I expect 2018 to be a significant and eventful year 
in United States-India relations. The United States and India are 
natural partners on a range of political, economic, and security 
issues. With a mutual desire for global stability and support for the 
rules-based international order, the United States and India have an 
increasing convergence of interests, including maritime security and 
domain awareness, counter-piracy, counterterrorism, humanitarian 
assistance, and coordinated responses to natural disasters and 
transnational threats. India will be among the United States' most 
significant partners in the years to come due to its growing influence 
and expanding military. As a new generation of political leaders 
emerge, India has shown that it is more open to strengthening security 
ties with the United States and adjusting its historic policy of non-
alignment to address common strategic interests. The United States 
seeks an enduring, regular, routine, and institutionalized strategic 
partnership with India. USPACOM identifies a security relationship with 
India as a major command line-of-effort. Over the past year, United 
States and Indian militaries participated together in three major 
exercises, executed more than 50 other military exchanges, and 
operationalized the 2016 Logistics Exchange Memorandum of Agreement 
(LEMOA). Defense sales are at an all-time high with India operating 
United States-sourced airframes, such as P-8s, C-130Js, C-17s, AH-64s, 
and CH-47s, and M777 howitzers. USPACOM will sustain the momentum of 
the strategic relationship generated by the POTUS-Prime Minister-level 
and the emerging 2+2 Ministerial Dialogue through strengthening our 
military-to-military relationship and working toward additional 
enabling agreements to enhance interoperability. At the moment, India 
is considering a number of United States systems for purchase, all of 
which USPACOM fully supports: the F-16 for India's large single-engine, 
multi-role fighter acquisition program; the F/A-18E for India's multi-
engine, carried-based fighter purchase; a reorder of 12-15 P-8Is; a 
potential purchase of SeaGuardian UAS; MH-60R multi-role sea-based 
helicopter; and F-35 Joint Strike Fighter.
    Indonesia:  Indonesia plays an essential role as the maritime 
fulcrum of Southeast Asia. We maintain a robust defense relationship 
comprising over 200 annual activities as part of our Strategic 
Partnership. USPACOM continues to partner with Indonesia, particularly 
in maritime security. Indonesia desires to play a larger role in 
international economic and security issues. Their goal to provide 4,000 
deployable peacekeeping troops by 2019 is another important area where 
we can engage. Indonesia continues to build and exercise in strategic 
maritime border areas to bolster its defense capabilities, and has 
concerns with Chinese activities in the vicinity of the Natuna Islands. 
The money spent on professional military education and technical 
training in Indonesia has borne fruit in terms of Foreign Military 
Sales of excess defense article F-16s and new AH-64 Apaches. The 
Government of Indonesia is also considering the F-16 for the 
recapitalization of the Indonesian Air Force's aging fleet of fighter 
aircraft, most of which are of Russian origin.
    Malaysia:  Our close security ties with Malaysia are based on our 
Comprehensive Partnership. Malaysia's regional leadership role, 
technologically advanced industry, sizeable economy, and capable 
military make it an important partner in securing peace and prosperity 
in Southeast Asia. Over the past year, Malaysia has implemented air and 
maritime patrols in the Sulu and Celebes Seas in accordance with a 
multilateral arrangement with the Philippines and Indonesia due to 
increased security concerns in East Malaysia. We have worked closely 
with Malaysia as co-chairs of ASEAN's Humanitarian Assistance and 
Disaster Relief (HADR) working group. Malaysia also has an on-going 
dispute with China with respect to the Luconia Shoals, which China also 
claims. Malaysia has demonstrated the capacity and resolve to 
contribute to regional security, and we continue to support Malaysia's 
emerging security requirements. Malaysia recently selected MD-530 
attack helicopter, and the United States is also providing Malaysia 
with secure communications equipment to increase interoperability in 
maritime security and counter-terrorism missions.
    Mongolia:  Mongolia endures as a small, yet strong, partner in 
Northeast Asia and continues to demonstrate staunch support for United 
States regional and global policy objectives--especially those linked 
to the Global Peace Operations Initiative and security operations in 
Afghanistan. The government engages with the U.S. and other countries 
as part of their ``Third Neighbor'' policy. Mongolia also markets 
itself as a model for emerging democratic countries such as Burma, 
Nepal, and Timor Leste. My deputy visited Mongolia last summer and 
spoke at the Exercise KHAAN QUEST 2017 closing ceremony, reaffirming 
that USPACOM's goals are to assist the Mongolian Armed Forces through 
their defense reform priorities. These priorities include: development 
of professional military education for officers and non-commissioned 
officers; developing a professional NCO corps; and developing an Air 
Force and ready reserve force. The Mongolians punch above their weight 
and we should continue to support them where we can.
    New Zealand:  The United States-New Zealand partnership remains on 
solid footing and continues to evolve. New Zealand is increasing its 
leading role in regional security and capacity-building efforts while 
addressing disaster response in the South Pacific and Antarctica. New 
Zealand is a key contributor to global security and a significant 
contributor to counter-ISIS efforts in Iraq and Afghanistan. The United 
States is thankful for the New Zealand Defense Force's gracious offer 
of the Royal New Zealand Navy ship Te' Kaha to replace the USS 
Fitzgerald after she was involved in an unfortunate mishap in summer 
2017 during the USS Nimitz Carrier Strike Group deployment. We commend 
New Zealand's commitment to planned defense capability improvements 
identified in their 2016 Defense White Paper. These improvements 
acknowledge the threats posed by the rise of China's strategic 
influence in the Indo-Pacific, an escalation of military spending 
across Southeast Asia, and increasing challenges to the rules-based 
international system. Military-to-Military relations and defense 
engagements with New Zealand remain strong. New Zealand is procuring 
the P-8 Poseidon--continuing the strong legacy of interoperability 
among Maritime Patrol and Reconnaissance Aircraft with the United 
States.
    Singapore:  Singapore remains a steadfast partner in Southeast Asia 
with a strong commitment to promoting a free and open Indo-Pacific. We 
owe Singapore our sincere gratitude for its assistance in the aftermath 
of the USS John McCain accident and timely aviation support to 
Hurricane Harvey relief efforts this past year. Singapore leaders 
believe the United States plays an indispensable role in bolstering the 
region's economic and security frameworks. Though not a formal treaty 
ally, Singapore provides us invaluable access to the strategically 
located entrance of the Malacca Straits and South China Sea. Singapore 
also hosts Littoral Combat Ships, rotational Maritime Patrol Aircraft, 
and Seventh Fleet's Logistics Force headquarters, while maintaining 
training detachments in the United States for Singapore Air Force F-
15SGs, F-16C/Ds, CH-47 Chinooks, AH-64 Apache helicopters, and the 
Singapore Army's High Mobility Artillery Rocket System. We conduct 
dozens of high level and increasingly complex military exercises with 
Singapore each year to increase our interoperability. Furthermore, 
Singapore officers regularly attend United States professional military 
education at all levels, developing relationships that span careers. 
The combination of a shared outlook on regional security and 
prosperity, strong support for U.S. presence, and a deep and broad 
defense relationship enables the U.S. to promote our interests abroad 
and focus on shared regional challenges. Overall, we remain their 
defense partner of choice despite intense Chinese pandering of economic 
influence. USPACOM was excited to support Singapore's request for an F-
22 and an F-35B static display at the 2018 Singapore Air Show in 
February--a great opportunity as the Government of Singapore considers 
a purchase of F-35B in the future.
    Sri Lanka:  The trajectory of United States-Sri Lanka relations 
continues to ascend, with Sri Lanka emerging as a significant strategic 
partner in the Indian Ocean region. Despite recent political turmoil, 
President Sirisena, elected in January 2015, remains committed to 
reforms and addressing Sri Lanka's human rights issues. Over the last 
year he continued Sri Lanka's path toward reconciliation and democracy 
following its multi-decade civil war. I believe it is in America's 
interest to continue to increase military collaboration and cooperation 
with Sri Lankan forces. Accordingly, USPACOM expanded bilateral defense 
ties, military leadership discussions, rule of law training, increased 
naval engagement, and focused security cooperation efforts on defense 
institution building in areas such as demobilizing, peacekeeping, and 
military professionalism. In October 2017, the USS Nimitz became the 
first United States aircraft carrier to visit Sri Lanka in over thirty 
years. This visit, along with granting Sri Lanka an excess United 
States Coast Guard cutter, underscores the deepening relationship 
between the United States and Sri Lanka.
    Vietnam:  Vietnam is currently our boldest regional partner in 
standing up to China's provocative behavior in the South China Sea. A 
series of high-level bilateral visits in 2017 helped deepen our 
partnership, including visits to the United States by Prime Minister 
Phuc in May and Defense Minister Lich in August, as well as President 
Trump's travel to Vietnam in November and Secretary Mattis' visit in 
January. In March 2018, the USS Carl Vinson will make an historic port 
visit to Da Nang, Vietnam--an indication of the significant progress in 
the bilateral security relationship. Last year, we transferred a 378 
foot former United States Coast Guard High Endurance Cutter to the 
Vietnam Coast Guard. Over the next few years, we expect to continue to 
assist the Vietnamese to build their capacity for maritime domain 
awareness. In addition, we signed the Cooperative Humanitarian and 
Medical Storage Initiative (CHAMSI) Memorandum of Understanding in May 
2017. When implemented, CHAMSI will allow USPACOM to store humanitarian 
assistance and disaster relief equipment in Vietnam increasing our 
mutual ability to train for, and respond to, natural disasters in 
Vietnam.
Other Key Actors
    Oceania:  Maintaining strategic relationships in Oceania is 
becoming ever more important to U.S. national security. The provisions 
included in the Compacts of Free Association with the Federated States 
of Micronesia, the Republic of the Marshall Islands, and the Republic 
of Palau are important mechanisms that guide the relationships, 
including U.S. obligations for their defense. In return, these 
agreements provide assured access to the three Compact Nations in a 
contingency situation. They also give the U.S. authority to grant or 
deny access to another nation's military forces, which allows the U.S. 
to maintain a clear strategic line of communication across the Pacific. 
I am grateful to Congress for fully authorizing the 2010 Palau Compact 
Review Agreement in the fiscal year 2018 NDAA and would ask that 
Congress appropriate all required funds. The implementation of this 
legislation will have a significant impact on our defense relationship 
with Palau, and will provide a measurable advantage in our strategic 
posture in the Western Pacific. Continued United States commitment to 
defend the Compact Nations and to partner with other Pacific island 
countries enhances American influence and sends a strong message of 
reassurance throughout the region.
    ASEAN:  ASEAN turned 50 last year and the U.S. commemorated its 
40th year of United States-ASEAN dialogue relations. The United States 
and ASEAN share the common principles of a rules-based order, respect 
for international law, and the peaceful resolution of disputes. The ten 
ASEAN member states, under the chairmanship of the Philippines last 
year and Singapore this year, continue to seek ways to improve 
multilateral security engagements and advance stability in the Indo-
Pacific. During this past year, the United States strengthened its 
commitment to ASEAN with engagements at the Secretary of Defense and 
Presidential levels where we reached agreement on whole-of-government 
approaches to shared challenges in areas of maritime security and 
maritime domain awareness. USPACOM is committed to strengthening 
regional institutions such as ASEAN, ASEAN Defense Ministers' Meeting-
Plus, the East Asia Summit, and the ASEAN Regional Forum. Over the 
course of the last year, USPACOM participated in ASEAN exercises, key 
leader engagements, and practical multilateral cooperation related to 
the spectrum of shared transnational challenges. The United States is 
postured to support Singapore's Chairmanship priorities for 2018 in the 
areas of Counterterrorism (CT), Chemical, Biological, Radiological, and 
Nuclear (CBRN), and Confidence Building Measures. Malaysia and the 
United States co-chair the ASEAN Defense Ministers Meeting (ADMM)-Plus 
Experts' Working Group on Humanitarian Assistance and Disaster Relief 
over the next 2 years. A key objective will be to support ASEAN's 
effort to operationalize the ASEAN Military Ready Group to 
multilaterally respond to natural disasters. USPACOM's approach is to 
promote multilateral partnerships of sub-regional ASEAN nations to 
strengthen a rules-based international order. This includes USPACOM 
support to the Indonesia-Malaysia-Philippines multilateral Cooperation 
Arrangements and the Cambodia-Malaysia-Thailand-Vietnam Gulf of 
Thailand Initiative. USPACOM looks forward to supporting the ASEAN 
Defense Ministers' Meeting-Plus that Singapore will host in October.
    Burma (Myanmar):  Our engagement with Burma's military is extremely 
limited and is expected to remain so considering the ongoing crisis and 
human rights violations by the military in the Rakhine State. The 
primary goal of our engagement is to encourage a professional military 
that operates under democratic standards of civilian control, 
transparency, and accountability, while also complying with 
international law, including international human rights law and 
international humanitarian law, as applicable. We underscore these 
points in all of our limited engagements. In addition to the 
humanitarian rights violations, I am also concerned about Chinese 
involvement in the country. Beijing is attempting to move into Burma 
while other countries are taking a step back, and Chinese support comes 
with no string attached.
    China:  While the United States has an economic relationship with 
China, in my opinion, our two nations are in clear competition for 
influence and control of the Indo-Pacific. As the President commented 
in his recent State of the Union Address, China is now our ``rival,'' 
and I wholeheartedly agree with this assessment. For the last few 
years, I have advocated for dealing with China realistically--as it is, 
and not as we would wish it would be. In other words, our relationship 
with China should be based on candor and clear-eyed pragmatism instead 
of yearning and misty-eyed optimism. Some view China's actions in the 
East and South China Seas as opportunistic. I do not. I view Chinese 
actions as coordinated, methodical, and strategic. Beijing is using its 
military and economic power to coerce its neighbors and erode the free 
and open international order. As I have previously stated, I believe 
the Chinese are building up combat power and positional advantage in an 
attempt to assert de facto sovereignty over disputed maritime features 
and spaces in the South China Sea, where they have fundamentally 
altered the physical and political landscape by creating and 
militarizing man-made bases. While the United States has no claims in 
the South China Sea--and it is our policy not to take positions on 
sovereignty over the disputed land features--the United States 
resolutely opposes the use of coercion, intimidation, threats, or force 
to advance claims. These differences should be resolved peacefully and 
consistent with international law.
    This increasingly competitive environment necessitates continued 
mil-to-mil dialogue between the United States and China to improve 
understanding and reduce risk. USPACOM remains committed to a 
constructive, results-oriented relationship with China, so while we 
rightfully call out China for its aggressive behavior in some areas, we 
should also seek its support for shared security goals, such as the 
denuclearization of the Korean Peninsula. We will continue to cooperate 
with China where we have shared interests, such as military medicine 
and disaster response. USPACOM conducted numerous bilateral and 
multilateral engagements with China last year, and co-led the United 
States-China Military Maritime Consultative Agreement (MMCA) plenary 
and working group focused on operational safety. Encounters between our 
forces at sea and in the air are generally safe, but the MMCA provides 
a forum for continuous dialogue to identify and address safety issues 
when they arise.
    For USPACOM, my goal remains to convince China that its best future 
comes from peaceful cooperation and meaningful participation in the 
current free and open international order. China has the potential to 
emerge as a net security provider for the region, but to do so, Beijing 
must honor its international commitments. After all, the Chinese 
economic miracle could not have happened without the stability that 
emerged from the rules-based order--an order that Beijing now seeks to 
undermine. But I've also been loud and clear that we will not allow the 
shared domains to be closed down unilaterally, so we'll cooperate where 
we can but remain ready to confront where we must.
    Taiwan:  Taiwan's open economy and its prosperous, free, and 
democratic society reflect the shared values between Taiwan and the 
United States. In accordance with our One China Policy, based on the 
three United States-China Joint Communiques, the United States does not 
maintain diplomatic relations with Taiwan. Yet, we maintain a 
substantive and robust relationship with the people of Taiwan based on 
the Taiwan Relations Act of 1979. In line with this policy, USPACOM 
will continue supporting Taiwan's efforts to develop a credible, 
resilient, and cost-effective deterrent and self-defense capability. 
Continued, regular arms sales and training for Taiwan's military are an 
important part of that policy and help ensure the preservation of 
democratic institutions. As the military spending and capability of the 
PRC grow every year, the ability of Taiwan to defend itself decreases. 
We must continue to help Taiwan defend itself and demonstrate United 
States resolve that any attempt by China to force reunification on the 
people of Taiwan is unacceptable. USPACOM has supported extensive 
security cooperation activities with Taiwan in air and missile defense, 
maritime security, logistic support and joint operations and training. 
Recent sales of anti-ballistic missiles, anti-aircraft weapons, 
logistics helicopters, surveillance radar, Perry-class Frigates, and 
amphibious assault vehicle (AAV-7), and electronic warfare systems 
continue to improve their self-defense capabilities.
Activities, Direct Reporting Units, and Mission Partners
    Interagency:  USPACOM collaborates with a broad group of 
interagency partners that bring diplomatic, economic, reconstruction 
and stabilization, intelligence, law enforcement, health, national 
security, and scientific expertise to the discussion. This allows us to 
address key national security issues through a whole-of-government 
approach, synchronizing all instruments of power. Our interagency 
partners help USPACOM maintain relationships with key allies and 
partners in this region. Our interagency collaboration has yielded 
success in supporting the DPRK pressure campaign; supporting 
humanitarian efforts in the aftermath of natural and man-made 
disasters; countering transnational threats, including transnational 
crime; preparing for potential pandemics; and, in supporting 
traditional military-military engagements and in non-traditional 
security cooperation. Our emerging and complex problems will 
increasingly require whole-of-government solutions, and USPACOM stands 
ready to support interagency-led efforts where we are needed.
    Global Engagement Center (GEC):  The GEC is a key USPACOM partner 
in facilitating interagency collaboration and coordination of efforts 
to counter foreign propaganda and disinformation in the Indo-Pacific. 
While we work to address the propaganda that terrorist organizations 
use to recruit new followers, we must also address the serious threat 
that foreign state-sponsored disinformation poses to U.S. national 
security. To address these threats in the information environment, it 
is more critical than ever that the U.S. Government has a 
comprehensive, whole-of-government approach to informational power. In 
support of this effort, USPACOM has embedded a GEC officer within the 
Command and is actively prioritizing information related capabilities 
in its planning, operations, and activities.
    Security Cooperation and Capacity Building:  USPACOM's Security 
Cooperation approach focuses on building partner readiness, reducing 
partner capability gaps, and building partner capacity. To effect 
change in these endeavors USPACOM is working to fully employ the 
consolidated Security Cooperation authorities in the fiscal year 2017 
NDAA. The Section 333 Global Train and Equip authority, introduced in 
the 2017 NDAA, consolidates older train and equip authorities such as 
2282 and 1004, leading to significant benefits, such as a global 
approach to planning and greater visibility across lines of effort. We 
see great promise in advancing partners' readiness and capabilities. 
USPACOM continues to follow a Theater Security Cooperation planning 
process that identifies partners' priorities, to which the various 
authorities can be applied in concert. Additionally, the State 
Department is involved in the joint planning and development of section 
333 programs, and the Secretary of State must concur on any section 333 
program prior to Congressional notification. USPACOM greatly 
appreciates the State Department's foreign policy review of our global 
train and equip programs.
    USPACOM is also focused on improving partner-nation maritime domain 
awareness, which directly contributes to increased maritime security 
across the region. The fiscal year 2016 NDAA section 1263 ``Southeast 
Asia Maritime Security Initiative (MSI)'' is effectively enhancing 
maritime domain awareness and improving the maritime capacities and 
capabilities of partners and allies in Southeast Asia. Additionally, 
the Philippines, Australia, and the United States continue to discuss 
regional maritime security best practices through partnership 
workshops. These workshops facilitate whole-of-government discussions 
on maritime challenges that support creation of a regional maritime 
domain awareness network to share information between Southeast Asian 
partners. We need to go beyond maritime domain awareness and use an 
initiative like IAPSI to improve our partners' and allies' multi-domain 
awareness and increase their domain denial capability so that they can 
better protect their territory and enforce their maritime rights.
    USPACOM is also grateful for the State Department's long-standing 
Foreign Military Financing (FMF) and International Military Education 
and Training (IMET) programs. FMF enables USPACOM to meet regional 
challenges to include border security issues, disaster response, 
counterterrorism and maritime security, and IMET offers long-term 
relationship building and sustainment.
    State Partnership Program (SPP):  SPP states and territories have 
demonstrated an impressive ability to integrate and understand their 
partner nations, while integrating into USPACOM's long-term strategy 
for the region. Not only do the National Guard states travel to their 
partner nations, partner nation military and civilian personnel often 
travel to the states for visits and engagements. This consistent and 
constant contact helps PACOM assess and refine our strategy and helps 
the U.S. maintain influence in the region.
    Global Peace Operations Initiative (GPOI):  Countries of the Indo-
Pacific provide 31 percent of the world's uniformed peacekeepers to UN 
peacekeeping operations worldwide, and of these peacekeepers, 20 
percent come from the 12 GPOI partners in the Indo-Pacific. These 12 
countries support 13 of the 15 UN peacekeeping missions, as well as 
three political missions. GPOI builds the capability and capacity of 
our partners to deploy ready forces and is centered on providing high-
quality, action-oriented, challenging scenario-based training so that 
peacekeepers are better prepared to implement UN Security Council 
Resolutions of protecting vulnerable civilians, halting conflict-
related sexual violence, working to put a stop to the use of children 
soldiers, addressing misconduct, and trying to bring long-term peace 
and security to conflict torn regions. In 2018, USPACOM and Bangladesh 
will cohost a multinational peacekeeping exercise called SHANTI DOOT, 
which focuses on preparing personnel for deployment to UN peacekeeping 
missions. We expect participation in this exercise from 32 nations who 
recognize the value of working with other peacekeeping nations in a 
very demanding training environment. Many of our partners are meeting 
program goals, with six of twelve partners achieving a self-sustained 
indigenous training capability while the others continue to make 
progress toward this milestone. We continue to emphasize a ``train-the-
trainer'' approach enabling standardization and interoperability to 
work within United Nations guidelines. USPACOM will continue improving 
partner military peacekeeping skills and operational readiness, as well 
as provide limited training facility refurbishment. This program not 
only supports our efforts to improve UN peacekeeping, it is also 
helping to strengthen interoperability with U.S. Forces and builds the 
trust required to improve interoperability in other relevant areas.
    Joint Exercise Program:  USPACOM's Joint Exercise Program is vital 
for improving the operational and warfighting readiness of assigned 
Pacific Theater and partner nation forces, ensuring joint force 
readiness for crises and contingency operations while providing a 
visible and tangible deterrent to aggression. This important program is 
essential for advancing Combatant Commander Campaign Plan objectives 
including strengthening regional alliances and partnerships and 
deepening interoperability through combined training. Combatant 
Commander Exercise Engagement Training Transformation (CE2T2) program 
funding enables our Joint Exercise Program, helping to enhance the 
readiness of our assigned forward deployed forces.
    Joint Interagency Task Force-West (JIATF-W):  The drug trade in the 
Indo-Pacific threatens regional stability as drug trafficking 
organizations continue to utilize new supply chains and develop 
troubling partnerships across the globe. As USPACOM's Executive Agent 
for counter-narcotics activities in the AOR, JIATF-W combats drug 
trafficking in the region by disrupting flows of drugs and precursor 
chemicals that transit the region, and by hardening the theater against 
the expansion of transnational criminal organizations. JIATF-W 
continues to build partner capacity to counter illicit trafficking of 
narcotics in the coastal areas of Philippines, Vietnam, Indonesia, 
Malaysia, and Sri Lanka; and the border regions of Bangladesh and 
Thailand. In order to develop cooperative solutions and procedures to 
address the transnational criminal threats in the region, bilateral and 
multilateral cooperative engagements are also a focus in building the 
capacity of our partner nations.
    The global nature of illicit trafficking means that problems that 
exist in this area of the world may have their start on the other side 
of the globe, or vice versa. For example, some of the problems we are 
dealing with on the Southwest border of the United States with drug 
trafficking start with the precursor chemicals that are being sold 
through licit commerce, predominantly from China; and to a lesser 
extent, India. Criminal entities with ties to Mexican and South 
American drug cartels use these licit chemicals to produce 
methamphetamines, cocaine, and heroin. Another drug, fentanyl-laced 
heroin, has been responsible for a spike in U.S. overdose deaths. 
Fentanyl and its numerous analogs originate almost exclusively from 
China. To combat these threats, the United States Government works 
closely with the government of the People's Republic of China in a 
Joint Liaison Group (JLG) on Law Enforcement Cooperation led by the 
Department of Justice. JIATF-W collaborates with U.S. Government 
interagency partners to support the JLG. To date, China has agreed to 
list over 100 precursor chemicals on their controlled substance list. 
JIATF-W works with U.S. Government partners to facilitate information 
sharing and interagency efforts to disrupt the opioid scourge that is 
so quickly claiming over 100 U.S. lives every day.
    In fiscal year 2017, JIATF-W identified and tracked chemical flows 
resulting in the disruption of roughly 116,000 kilograms of 
methamphetamine precursor chemicals. JIATF-W also continues to work 
closely with United States and partner-nation agencies throughout the 
South Pacific, to include the French Armed Forces in Polynesia, as well 
as both Australian and New Zealand law enforcement, military, and 
intelligence services. With these partners, JIATF-W assists in the 
disruption of the lucrative drug trade in the region. In 2017, JIATF-
W's efforts contributed to the interdiction of 16.6 metric tons of 
methamphetamine precursor chemicals, nine small vessels carrying 
cocaine or methamphetamine, the seizure of approximately 6.5 metric 
tons of cocaine, and 1.5 metric tons of methamphetamines, resulting in 
the removal of over 1.5 billion dollars in revenue from the trafficking 
organizations.
    Center for Excellence in Disaster Management and Humanitarian 
Assistance (CFE-DM):  CFE-DM increases the capacity of U.S. and partner 
nation military forces to respond effectively to disasters and 
humanitarian emergencies, as well as enhances regional civil-military 
coordination through its education and training programs, regional 
civil-military engagements, and applied research and information 
sharing programs. The Center trains approximately 8,000 military and 
civilian personnel annually, including through bilateral and 
multilateral exercises focused on humanitarian assistance and disaster 
relief. CFE-DM also trains deployable U.S. forces and foreign 
audiences. Regional partnerships with key civilian international 
humanitarian community and military responders enhance cooperation on 
regional disaster response and preparedness, increase civil-military 
collaboration, and encourage a robust collection of best practices for 
future relief efforts.
    The Daniel K. Inouye Asia-Pacific Center for Security Studies (DKI 
APCSS):  While DKI APCSS is no longer a Direct Reporting Unit to 
USPACOM, I have formally designated it as a ``Mission Partner'' to 
underscore its importance to the USPACOM mission set. DKI APCSS builds 
and sustains key regional partnerships, improves partner nation 
capacity, and enhances cooperation on regional security challenges. The 
Center's courses, workshops, dialogues, and alumni engagements directly 
support OSD-Policy and USPACOM priorities and are integrated into 
USPACOM's Theater Campaign Order. Focus areas include: rule-of-law 
based governance emphasizing civilian oversight of militaries, defense 
institution building, maritime security, and enhancing regional 
security architecture; collaborative approaches to maritime security, 
domain awareness, and counterterrorism; and improved capability and 
cooperation in HADR. DKI APCSS has major competitive advantages in its 
location, credibility, convening power, and alumni network. APCSS has 
now graduated 12,000 students--many now serve in key leadership 
positions in nations throughout the Indo-Pacific. Those advantages, and 
the Center's focus on substantive and sustainable outcomes, have 
broadly improved security sector governance. Specifically, this 
organization is leading the DOD in the implementation of UNSCR 1325 
(Women, Peace, and Security) and the U.S. National Action Plan to 
achieve greater inclusion of women in the security sector.
    Joint Enabling Capabilities Command (JECC):  USPACOM continually 
benefits from the expertise and responsiveness the U.S. Transportation 
Command's (USTRANSCOM) JECC provides to Combatant Commanders world-
wide. JECC recently demonstrated the ability to respond effectively to 
time sensitive, real-world operational requirements of USPACOM and 
United States Forces Korea (USFK), specifically with surge support of 
dynamic targeting and contingency planning efforts related to DPRK 
provocations. JECC's deployable support teams remain critical to 
USPACOM's ability to establish joint force headquarters rapidly, 
fulfill Global Response Force (GRF) responsibilities, and bridge joint 
operational requirements by providing mission-tailored, ready joint 
capability packages. JECC supports real-world contingencies, 
operational plans, and exercises, to include USPACOM's high-end Pacific 
Sentry series.
    Logistics Support Agreements (LSAs):  USPACOM continues to view 
LSAs as critical Theater Security Cooperation (TSC) enablers, with 16 
logistics agreements in the region. We continue to actively work with 
eligible but as yet uncommitted partners to conclude as many of these 
agreements as possible, and I personally stress their importance in my 
engagements with partner country leadership. The logistics agreement 
with Japan was especially useful during the Kumamoto earthquake 
disaster in 2016, and the logistics agreement with the Philippines was 
absolutely crucial in our support to the Marawi counter-terrorism 
operations last year. I often share these success stories with our 
partners and ensure they understand that the ability of U.S. forces to 
provide support during a crisis or disaster is limited without an LSA 
in place.
    Pacific Area Senior Officer Logistics Seminar (PASOLS):  PASOLS is 
an annual forum that brings together senior logisticians from 30 
countries in the Indo-Pacific. The goal is to strengthen regional 
cooperation, improve interoperability, and develop partner capacity to 
cooperatively address regional challenges. The Republic of Korea hosted 
PASOLS 46 in September 2017. PASOLS is our most important annual 
logistics engagement event.
                               conclusion
    United States interests in the Indo-Pacific are real and enduring, 
while the growing challenges to our interests are daunting and cannot 
be overstated. In order to deter potential adversaries in the Indo-
Pacific, America must continue to invest in critical capabilities, 
build a force posture that decreases our vulnerabilities and increases 
our resiliency, and reassure our allies and partners. Simultaneously, 
we must also encourage our allies and partners to be full and 
cooperative partners in their own defense and the defense of the free 
and open international order. America's resolve is strong, and it is 
imperative we continue to show our resolve and commitment to the region 
in the years to come. I ask this committee to continue support for 
future capabilities that maintain our edge and prevent would-be 
challengers from gaining the upper hand.
    Thank you for your enduring support to the USPACOM team and our 
families who live and work in the Indo-Pacific--a region critical to 
America's future.

    [The prepared statement of General Vincent Brooks follows:]

            Prepared Statement by General Vincent K. Brooks
                              introduction
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Senate Armed Services Committee, thank you for your continued 
support to our efforts. I sincerely regret that I am unable, due to the 
ongoing mission requirements here in Korea, to appear before you in 
person. I am grateful to Admiral Harry Harris, my ``battle buddy'' of 
many years for shouldering the testimony load by himself.
    For nearly 2 years, I have had the distinct honor to command the 
men and women of the United Nations Command (UNC), the Republic of 
Korea (ROK) and United States Combined Forces Command (CFC), and the 
United States Forces Korea (USFK). These extraordinary soldiers, 
sailors, airmen, marines and civilians--Korean and American, and 
representatives of the original 17 UNC Sending States from the Korean 
War--remain forward-deployed, devoted to deterrence, and postured to 
defend the Republic of Korea and its citizens every day. I could not be 
prouder of their efforts.
    We could not accomplish our mission in the Republic of Korea 
without the steadfast Congressional support we receive each year. We 
are dedicated to maintaining strong relationships with our counterparts 
on Capitol Hill and are grateful for the opportunity to host 
Congressional delegations to visit our facilities, discuss our 
challenges, and meet with senior officials to engage on various issues 
to strengthen our posture and defend our allies. Your unwavering 
dedication to the Command enables us to foster the cohesion in 
Northeast Asia necessary for the Alliance to act as the guarantor of 
peace and prosperity on the Korean Peninsula. Thank you for your 
commitment to the maximum pressure campaign, and the implementation of 
United Nations (UN) Security Council Resolutions (UNSCR), all of which 
are vital to the international efforts to apply the diplomatic and 
economic pressure to further isolate the Kim regime while finding the 
way toward complete, irreversible, verifiable denuclearization.
    These diplomatic and economic efforts rest on the foundation of a 
credible, ready military capability. Our effort to maintain a high 
state of military readiness is coupled with developing and 
strengthening relationships within the United States-ROK Alliance, 
regionally with our allies and partners, and globally with UNC Sending 
States to ensure that we have a structure of relationships tailor-made 
to adaptively respond to the myriad of potential security challenges in 
the region. I am confident that our combined and unified team is 
prepared to address the complex and dynamic challenges we may 
potentially face. The ROK-United States Alliance--although increasingly 
tested by North Korea's military advancements--remains ironclad. A 
spirit of goodwill between the United States and the Republic of Korea 
as enduring allies undergirds our day-to-day interactions. Here in 
Korea, we (ROK and United States) go together.
                  activities across the three commands
    The three commands--UNC, CFC, and USFK--made improvements in 
numerous areas in the past year, which significantly increased our 
readiness to fulfill the unique missions of each command. UNC is the 
home for international commitments to the Korean Peninsula. CFC is the 
heart of the United States-ROK Alliance. USFK is living proof of 
America's enduring commitment to the defense of South Korea. Together 
the three Commands provide the collective capabilities necessary to 
enhance the security of the ROK and its citizens.
    Throughout the past year, UNC harnessed efforts to increase its 
vitality and relevance as the home for international commitments to the 
Korean Peninsula. While steadfastly maintaining the Armistice, we 
actively sought to expand our engagements with the 17 United Nations 
Command Sending States and our like-minded international partners. We 
continued to identify and enhance intelligence sharing, 
interoperability and unified training and planning opportunities. UNC 
Sending States provided liaison officers to augment the 2017 UNC 
Military Armistice Commission (MAC) Secretariat mission including 
advise and assist visits, inspections and investigations, observations, 
Armistice education, and DMZ access control. Over the last 2 years, 
other non-U.S. UNC Sending States have shared their perspectives and 
robustly supported exercises on the Peninsula by contributing a total 
of 755 service members.
    Efforts are advancing for the possible development of Visiting 
Forces Agreements (VFA) for UNC Sending States. We are also striving to 
establish greater end-to-end awareness with UNCRear Headquarters in 
Japan. Corollary efforts are being made to discuss the critical role of 
bases in and agreements with Japan. During 2017, UNC-Rear hosted a 
significant increase in multilateral engagements, including port calls, 
aircraft visits, and visits from UNC Sending States and other 
international partners. These notable activities serve to reinforce 
UNC's organic, multinational framework for international peace and 
security on the Peninsula.
    CFC is the heart of the United States-ROK Alliance (which, for the 
ROK, is the cornerstone of their foreign policy) and its primary 
warfighting command. Over the past year, CFC strived for an increase in 
naval, aerial, and special operations exercises, which highlighted the 
strength and readiness of the combined force. These bilateral efforts 
demonstrated that we stand ready to defend against all adversaries and 
support diplomatic, economic, and informational efforts of our two 
governments. CFC increased its interactions with multilateral partners 
through its robust exercise program. The Command also refined its 
Operations Plans (OPLAN); made significant advances in ballistic 
missile defense (BMD); closed early warning gaps; and advanced theater 
command, control, communications, computers and intelligence (C4I) 
capabilities. CFC continues to make progress in countering-weapons of 
mass destruction (CWMD), cyber, and joint information environment 
efforts.
    As living proof of America's commitment to the defense of the ROK, 
United States Forces Korea also made advances in readiness and 
capabilities. Based upon the Alliance decision this past year, the 
Command successfully deployed the Terminal High Altitude Area Defense 
(THAAD) BMD system to South Korea. This advanced system is the most 
effective BMD platform in the world and an important capability that--
when paired with existing systems like Patriot--reinforces the BMD 
architecture defending millions of ROK citizens, much of South Korea's 
critical infrastructure, as well as United States Forces and assets in 
the ROK. Action by the U.S. Congress improved our ability to logically 
integrate Patriot and THAAD systems so the ``right'' interceptor, not 
just the ``best'' interceptor defeats any incoming threats. Our ability 
to intercept inbound North Korean ballistic missiles threatening the 
areas defended by THAAD and Patriot have been remarkably enhanced.
    USFK also increased several critical munition stockpiles essential 
for the defense of the ROK. This major effort was accomplished with the 
tireless assistance of the military Departments, in close partnership. 
The Command continued to receive and integrate rotational brigades, 
which participated in numerous combined exercises with their ROK 
counterparts. Last year, the Command also relocated the United States 
Eighth Army from Yongsan Garrison, within the capital city of Seoul, to 
Camp Humphreys, approximately 50 miles to the south and well outside 
the Greater Seoul Metropolitan Area (GSMA). This is a milestone in 
USFK's efforts to return Yongsan Garrison to the ROK Government and a 
move that reflects the enduring nature of our commitment.
    The Command also continued to emphasize a robust and challenging 
exercise program that serves as a cornerstone of our readiness. We 
participated in bilateral exercises ULCHI Freedom Guardian (summer) and 
Key Resolve (spring), the two largest command post exercises supported 
by the Department of Defense (DOD). U.S. Eighth Army executed two Non-
combatant Evacuation Operations (NEO) exercises, named Focused Passage 
and Courageous Channel, in the spring and in the summer, respectively, 
which improved NEO readiness and better integrated our plans and 
actions with United States Embassy Seoul, United States Embassy Tokyo, 
United States Pacific Command (USPACOM) and United States 
Transportation Command (USTRANSCOM). United States Special Operations 
Command Korea (SOCKOR) executed nine joint combined exercise training 
events that focused on working with their ROK Special Operations 
counterparts. USTRANSCOM, U.S. Cyber Command (USCYBERCOM), and U.S. 
Strategic Command (USSTRATCOM) remain key partners who have enhanced 
their readiness to support contingency operations in Korea over the 
last year, and I remain grateful for their devoted support.
    In November, the USS Ronald Reagan, USS Nimitz, and USS Theodore 
Roosevelt carrier strike groups conducted a tri-carrier strike force 
exercise in U.S. Seventh Fleet's area of operation, the first of its 
kind in ten years. In a truly combined and joint fashion, CFC conducted 
two maritime counter-special operations forces (MCSOF) exercises where 
combined Army, Air Force, and Navy aviation assets operated under the 
tactical control of ROK Aegis ships and United States Navy strike 
groups to rehearse preventing infiltration along South Korea's maritime 
flanks. The U.S. Seventh Air Force-hosted Vigilant Ace exercise brought 
state-of-the-art capabilities to the Peninsula by incorporating F-22s 
and F-35s into our combined air operations for the first time. In a 
show of close cooperation between United States and ROK military 
forces, we conducted numerous multilateral shows of force utilizing B-1 
bombers and our newest 5th Generation aircraft, as well as combined 
live fire exercises utilizing the United States Army Tactical Missile 
System (ATACMS) and the ROK Hyunmoo-II Missile.
    We also cooperated with our ROK ally through other formal and 
informal frameworks. In October 2017, the ROK Joint Chiefs of Staff 
hosted the annual Military Committee Meeting (MCM) and Security 
Consultative Meeting (SCM) between the United States Secretary of 
Defense and the ROK Minister of Defense. The Foreign Affairs and 
Defense agencies of both countries also approved a framework for the 
Extended Deterrence Strategy and Consultation Group (EDSCG), which now 
works to strengthen the Alliance's deterrence posture against North 
Korean nuclear and missile threats. The second EDSCG meeting convened 
this past January, with increased emphasis on Alliance coordination of 
defense activities and strategic communications. Informal processes 
were also continuously at play through the conduct of our bilateral 
command post exercises and the recurrent engagements between members of 
our Command and various ROK officials.
                         strategic environment
    North Korea.  North Korea remains a significant threat to security 
and stability in Northeast Asia and beyond. The past year was marked by 
continued North Korean provocations, threats, and actions that have 
raised tensions on the Korean Peninsula and across the globe. The Kim 
Jong-un regime continues to hold security and stability in the Indo-
Pacific at risk with its conventional arms and further development of 
WMD and other asymmetric capabilities capable of posing a direct threat 
to the United States Homeland. Their strategy is aimed at fracturing 
consensus among the key regional actors by carefully orchestrating the 
timing and methods of their provocative actions and messaging.
    In 2017 alone, North Korea launched three ballistic ICBMs and 
conducted its sixth nuclear test along with 16 other missile launch 
events (two of which overflew Japan). North Korea's missiles threaten 
not only South Korea, but an increasing number of our allies. Pyongyang 
overtly threatens the safety of citizens in Australia, Japan, the 
United Kingdom, the United States, specifically calling out Guam, and 
South Korea. In addition, the Kim regime deployed a chemical agent in 
Malaysia to assassinate Kim Jong-un's half-brother Kim Jong Nam in the 
sovereign territory of another nation. While the sum of these unlawful 
activities and developments may have extended the reach of North 
Korea's threats, the international community has confronted the Kim 
Jong-un regime in months past with unprecedented diplomatic and 
economic pressure.
    Though the expanding range of North Korea's ballistic missiles is 
concerning, a serious, credible threat to 25 million ROK citizens and 
approximately 150,000 United States citizens living in the GSMA is also 
posed from its long range artillery. Nearly 250,000 United States 
citizens live in South Korea, with approximately 150,000 Americans in 
the GSMA. North Korea has deployed at least three artillery systems 
capable of ranging targets in the GSMA with virtually no warning. 
Conservative predictions of a likely attack scenario anticipate an 
initial artillery barrage focused on military targets, which would 
result in significant casualties, while a larger attack targeting 
civilians would yield several thousand casualties with the potential to 
affect millions of South Korean citizens, not to mention hundreds of 
thousands of United States citizens and nationals of other countries 
within the first 24 hours. North Korea also possesses the world's 
largest special operations force, the fourth largest standing army, and 
a long-standing chemical weapons program with the capability to produce 
nerve, blister, blood and choking agents. Moreover, North Korea could 
employ chemical weapons agents by modifying a variety of conventional 
munitions, including artillery and ballistic missiles. Considering its 
known research efforts, physical infrastructure, and weapons industry, 
the North also has a potential capability for biological warfare.
    Kim Jong-un's regime continues to expand its offensive cyber 
capabilities. In May 2017, ransomware attributed to North Korea 
attacked computer systems worldwide. This came on the heels of cyber 
operations that allowed the country to steal more than $80 million from 
international financial systems in 2016. According to reports, North 
Korea has more than 6,000 hackers, whose improving capabilities provide 
the regime a financial pipeline to support its weapons programs and a 
means to collect sensitive information from other parties and disrupt 
infrastructure in other countries.
    While North Korea continued its pattern of destabilizing 
activities, cooperation and consensus among concerned partners and the 
greater international community increased. Just this last year, the 
United Nations Security Council championed efforts to further isolate 
the North, unanimously adopting Resolutions (UNSCRs) 2345, 2356, 2371, 
2375, and 2397 to denounce its unlawful nuclear and ballistic missile 
tests, condemn its persistent defiance of the will of the international 
community and violations of international law, and further sanction the 
Kim regime. The full and strict implementation of UN sanctions will 
bring about greater pressure on North Korea.
    The year came to an end with a 73-day hiatus from North Korean 
provocations, interrupted by the 29 November (Korea date--and 28 
November in Washington) ballistic missile launch that achieved the 
highest apogee and longest flight time yet. In the time since that 
event to the submission of this report, we have experienced another 
hiatus from provocations. This is worthy of note, given the rapid pace 
of testing that characterized 2017.
    The steady application of focused international pressure may be 
having an effect, given the recent signs of rapprochement between North 
and South Korea. Both sides cooperated at the Pyeongchang Winter 
Olympics hosted by South Korea and have pursued cultural exchanges in 
conjunction with athletic engagements. In addition, they agreed to 
conduct military engagement around the re-established border hotline 
and explore other senior official meetings in order to improve 
relationships between the countries and ease tensions on the Korea 
Peninsula. We continue to observe and closely coordinate with our ROK 
partners during these recent developments. The ROK Government believes 
that dialogue must be added to pressure in order to move toward 
denuclearization. My frequent encounters with the senior leadership of 
the ROK Government make this clear. South Korea will respond to North 
Korea's sending an Envoy and a representative to the ROK during the 
Pyeongchang Olympics, while conveying a unified Alliance demand for 
complete, verifiable, irreversible denuclearization of North Korea.
    Republic of Korea.  Strong Alliance military cooperation persisted 
through South Korea's political transition in 2017, as the ROK 
continued to demonstrate commitment to increase its primary military 
role of conventional deterrence by developing and procuring modern, 
interoperable capabilities. The ROK Government continues to increase 
spending on defense (currently 2.7 percent of GDP), and ROK President 
Moon Jae-in committed to further raise ROK defense spending by 0.1 
percent of GDP each year through 2022. As a comparison, ROK defense 
spending as a proportion of GDP is higher than all NATO members save 
the United States. The ROK Government also contributes significant 
funds to the United States military presence in South Korea. In 2017, 
the Special Measures Agreement (SMA) provided approximately $830 
million in support of USFK activities that would have otherwise been 
paid by the United States Treasury, and the ROK Government approved a 
one percent increase to the SMA for 2018. South Korea is also funding 
92 percent of the total costs for the expansion, construction and 
relocation effort into United States Army Garrison Humphreys in the 
city of Pyeongtaek. In addition to strong fiscal support from the ROK 
Government, the South Korean public is strongly in favor of the 
Alliance, demonstrated by a high United States favorability rating that 
today ranges between 75 and 85 percent.
    Seoul is also investing heavily in defense modernization. The 
United States and South Korea currently manage over 650 foreign 
military sales cases, valued at over $26 billion. Our Korean ally has 
committed to acquire a number of military capabilities critical to our 
Alliance, particularly in the areas of intelligence, surveillance and 
reconnaissance (ISR), missile defense, air superiority, precision 
guided munitions, and maritime security. Some examples of recent 
acquisitions include Global Hawk unmanned surveillance aircraft, 
Patriot PAC-3 upgrades, Guidance Enhanced Missiles (GEM-T), Harpoon 
missiles, Aegis KDX-III destroyers, AH-64E Apache attack helicopters, 
upgrades of KF-16s, and F-35A Joint Strike Fighters. These capabilities 
and commitments are designed to greatly enhance the warfighting 
readiness of the ROK-United States Alliance and bring about many of the 
conditions required for successful transition of wartime operational 
control (OPCON) to South Korea. Additionally, South Korea recently 
began BMD modernization. Once completed, ROK Patriot BMD forces will 
have greater effectiveness against theater ballistic missiles. In 
concert with these advances in ROK defense modernization, we are 
striving for ever-greater transparency within the Alliance regarding 
these maturing capabilities to ensure there is a common understanding 
of all of the tools that will be available to the CFC in wartime. It is 
notable that South Korea not only invests in advanced United States 
technologies in a large way, but they also develop their own advanced 
capabilities as a sophisticated, technologically advanced ally.
    Beyond the Korean Peninsula, South Korea contributes to 
international security through peacekeeping operations, stabilization 
and reconstruction efforts, regional security cooperation initiatives, 
and humanitarian assistance and disaster relief. Seoul has also taken 
important steps to increase its cooperation with Japan by bolstering 
multilateral cooperation, particularly in the areas of information-
sharing and BMD. There is sufficient military willingness to cooperate 
more with Japan both trilaterally and multilaterally; however, the deep 
social and political issues that mark the history of the relationship 
between the two countries will determine the pace of progress toward 
this collective end.
    China.  China remains a pivotal player with unique global reach and 
is one of the region's most influential actors. While it once held a 
reputation for being as close to North Korea as ``lips and teeth,'' 
Beijing has expressed frustration with the North's repeated 
provocations, and supported multilateral sanctions against the regime. 
However, China also retaliated economically against Seoul in protest of 
its deployment of the THAAD BMD system on the Peninsula. One of the 
most impacted sectors was ROK tourism, with losses estimated to exceed 
$6.5 billion. During President Xi and President Moon's summit in 
Beijing in December, the deployment of THAAD to the Peninsula and 
China's pressure on the South continued to linger as an issue between 
the two nations. China and South Korea pledged to improve bilateral 
relations and bolster cooperation. I find that this has been partially 
acted upon, and there are still limits to the degree of cooperation and 
relief between South Korea and China.
    The United States is looking closely at how China approaches its 
relations with North Korea, especially regarding implementation of 
recent UNSCRs. There are open source reports of recent Chinese efforts 
to uphold sanctions which indicate China's trade with the North has 
fallen since strengthened international sanctions came into effect in 
September 2017 and January 2018. Such a drop in trade may be 
attributable to decreases in North Korean exports of coal, iron ore, 
lead ore, and seafood to China. It is evident that the relationship 
between China and North Korea is a strained one, perhaps at an historic 
low point. China's continued enforcement of sanctions will be vital to 
achieving the ``biting'' effect required to cause the North Korean 
regime to reconsider its strategic weapons development.
    Russia.  Russia remains opposed to North Korea's persistent 
provocations and has implemented some sanctions against Pyongyang. 
However, as it observes international cooperation, it also adopts the 
opportunist role in the Indo-Pacific that it takes elsewhere in the 
world. Recent signaling indicates that Moscow may attempt to continue 
to grow its role on the Korean Peninsula. In July 2017, Russia joined 
China in endorsing a ``freeze-for-freeze'' initiative that calls for 
North Korea to refrain from missile and nuclear testing and the United 
States and South Korea to halt large-scale bilateral military 
exercises. In December 2017, Russia also expressed a willingness to 
mediate talks between the United States and North Korea. We find 
Russia's actions to be based on self-interest and must always remain 
alert to their inclination to ``spoil'' progress being made around 
them.
    Japan.  In light of North Korean provocations, Japanese Prime 
Minister Shinzo Abe has sought to bolster his country's defensive 
posture and allow Japan to play a larger role in the United States-
Japan alliance. Along these lines, Tokyo is pursuing its largest-ever 
defense budget for FY 2018, with funds earmarked for introducing the 
United States military's Aegis Ashore land-based missile interceptor 
system to protect against North Korean missiles. Tokyo also sought to 
advance substantive cooperation with Seoul in areas where they have 
complementary interests. Japan's recent attendance at the Vancouver 
Foreign Ministers Meeting on Security and Stability on the Korean 
Peninsula and Prime Minister Abe's appearance at the Winter Olympics in 
South Korea are positive signals between South Korea and Japan. Japan 
and South Korea remain in a complex relationship, which I assess may 
improve in 2018 if internal domestic politics provide more room for 
cooperation and constructive engagement. UNC, which maintains a 
headquarters and seven bases in Japan, and USFK remain in unprecedented 
closeness to the Japan Self Defense Forces, and to United States Forces 
Japan, through engagements in South Korea and in Japan. The trajectory 
is measured, yet positive.
                         looking to the future
    Innovation.  USFK endeavors to become a hub for burgeoning 
technologies, innovative thinking, and the application of fresh 
strategic capabilities. With the addition of ROK and UNC partner 
capabilities, we seek innovative approaches to solve our challenges in 
this highly dynamic environment. I have directed the creation of a 
small team--the Emerging Capabilities and Innovative Effects Division--
to connect and apply the innovation that is emerging from across the 
DOD to the Alliance's opportunities and challenges on the Korean 
Peninsula.
    Initial efforts are centered on the integrated defense of the GSMA. 
The ability to destroy North Korean artillery and ballistic missiles at 
their firing positions, coupled with the ability to intercept and 
protect the South Korean capital from these threats, are options we 
seek to continually develop and employ with our ROK partners. We also 
look to develop a robust chemical, biological, radiological, nuclear, 
and explosive integrated early warning system with our ROK counterparts 
in order to provide immediate detection and public warning while 
informing decision making at the highest levels of the two governments. 
When examining many of the military challenges we face, there are 
opportunities for path-changing innovation. Through this work, USFK 
established unique partnerships with defense, government, industry, and 
academic organizations in the United States, South Korea and UNC 
Sending States. Recent Command engagements with Defense Digital Service 
(DDS), Defense Innovation Unit--Experimental (DIUx), Defense Threat 
Reduction Agency (DTRA), U.S. Army Research, Development, and 
Engineering Command (RDECOM), Defense Advanced Research Projects Agency 
(DARPA), and Massachusetts Institute of Technology-Lincoln Laboratory 
have enabled the Command to begin to sharpen its focus and spur 
innovation with our partners.
    Increased multilateral cooperation.  Nations in the Indo-Pacific 
and beyond are increasingly concerned about the North Korean threat, 
and many have demonstrated their willingness to work with South Korea, 
Japan, the United States, and like-minded partners to more rigorously 
implement UNSCRs that impose sanctions on the Kim regime. Our efforts 
extend to integrating UNC Sending States and FVEY partners into 
combined exercises and planning efforts in the Korean theater of 
operations. We are grateful to the Department of State for their 
successful sponsorship of the January 2018 Vancouver Foreign Ministers 
Meeting on Security and Stability on the Korean Peninsula, an idea that 
emerged from monthly meetings with the Ambassadors of the 17 United 
Nations Sending States of the Korean War. We will stand ready to enable 
any additional opportunities that may arise from this important 
international gathering.
    By reinforcing our multilateral efforts, we will work toward a 
coherent, collective response to our common security challenges and 
find ways to enhance interoperability and improve our collective 
defense capabilities. It is paramount that we continue to improve 
ballistic missile defenses, facilitate the sharing of information, and 
conduct exercises to maintain a common operational framework. We will 
bolster maritime interdiction operations, humanitarian assistance and 
disaster response exercises, and anti-submarine warfare capabilities.
    Improved readiness.  USFK's efforts to improve readiness on the 
Peninsula are a two-pronged approach aimed at ensuring we conduct 
robust combined and joint exercise cycles and continue whole scale 
integration efforts throughout each subordinate component command. We 
will execute the two major theater-level command post exercises and one 
theater-level field training exercise each year. These exercises are 
essential to strengthen the Alliance, deter North Korean aggression, 
ensure the UNC's ability to maintain the Armistice, improve force 
readiness and interoperability, and integrate UNC Sending State 
(multinational) forces and capabilities into theater defense 
operations. Maintaining and further developing these exercises in the 
future also provides the ability to execute certification requirements 
for the transfer of wartime OPCON, while concurrently assessing our 
combined warfighting readiness.
    The Combined Forces Command is also making great progress toward 
becoming more united at the component level. Cooperation between the 
Commander, Naval Forces Korea (CNFK) and the Commander of the ROK Fleet 
(CRF) hit an inflection point in February 2017 with the collocation of 
their headquarters (HQ) on the ROK Fleet base in Busan. This has 
dramatically increased cooperation, interoperability, and warfighting 
synchronization and effectiveness. Current initiatives are underway at 
U.S. Seventh Air Force to streamline the integration of combined 
component-level HQ staffs to operate together on a routine basis. 
SOCKOR is becoming more combined with their ROK counterparts through a 
recent increase in engagements, establishment of a co-located staff 
element within the ROK Special Operations Forces Headquarters, and a 
planned feasibility assessment for the collocation of the SOCKOR HQ 
with ROK Special Warfare Command.
    Yongsan Relocation Plan (YRP).  Our commitment to the timely 
completion of the Yongsan Relocation Plan (YRP) and Land Partnership 
Plan (LPP) remains one of my top priorities. USFK unit relocation and 
the closing and relocating of camps continue to progress favorably. 
Through the consolidation of U.S. Forces and positioning troops closer 
to air and sea installations south of Seoul, the relocation program 
enhances United States-ROK Alliance readiness, and improves USFK's 
capacity to respond to future defense initiatives. 2017 saw the 
relocation of the U.S. Eighth Army Headquarters to U.S. Army Garrison--
Humphreys. Relocation of most remaining units to that garrison--USFK, 
UNC, United States Marine Forces Korea and the 2nd Infantry Division 
Headquarters--is slated for completion in 2018. We continue to 
cooperate closely with the ROK Government to enable seamless progress 
of the remaining USFK base relocations, and to consult closely on camp 
return issues through the Joint Environmental Assessment Procedure 
(JEAP).
    Conditions-based OPCON Transition Plan (COTP).  The Alliance has 
made significant progress in setting the conditions for the future 
combined command. The command will continue to operate under the 
bilateral guidance of the Presidents of the United States and South 
Korea or their delegates. After this transition, a United States 
general officer will change roles to serve as the deputy commander of 
the future combined command and remain as commander of the UNC and 
USFK. U.S. Forces will continue to operate under U.S. national 
authorities. The Alliance is prepared to accelerate OPCON transition as 
South Korea continues to develop and acquire the critical capabilities 
required for the Alliance's wartime success. The OPCON transition 
process must proceed in a way that strengthens deterrence against North 
Korea and enhances our combined capabilities.
    The ROK Minister of Defense and U.S. Secretary of Defense pledged 
in October 2017 to make joint efforts to implement the commitment by 
President Trump and President Moon in June 2017 to enable the 
expeditious conditions-based transfer of wartime OPCON. The Minister of 
Defense emphasized South Korea's commitment to complete the 
preparations necessary to exercise OPCON in accordance with the signed 
COTP. The draft organization of the future combined command was 
discussed, and the Ministers decided to continue to refine the concept 
through combined exercises and certifications. They also committed to 
develop Alliance guiding principles for the further enhancement of 
combined defense posture post-OPCON transition. The two sides decided 
to reexamine the implementation plan for OPCON transition, such as the 
Alliance capability acquisition plan; Terms of Reference--Relationship 
(TOR-R) and Operation Plan; and combined exercises and certification 
plan. They also agreed to jointly review and update COTP by the 2018 
SCM.
                         critical capabilities
    Intelligence, surveillance, and reconnaissance (ISR).  CFC and USFK 
will seek multi-discipline, persistent ISR capability and associated 
exploitation support to extend the warning time available to the 
Commander. Deep-look ISR and moving target indicators provide the 
ability to continuously track indications and warnings (I&W) targets 
over longer durations. As North Korea grows its threat to the Homelands 
of the United States and our allies, it is essential to have the 
fullest possible picture of activities in all domains above the 
Military Demarcation Line. While there are restrictions, both generally 
under international law and under the Armistice regime, on using ISR 
assets outside of ROK territory or in international airspace and 
waters, an increase in assets available and a broadening of the 
spectrum of collection would be helpful to improve our I&W, and to 
better sense opportunities in our competition short of war.
    Command, control, communications, computers, and intelligence 
(C4I).  It is important that we strive for C4I interoperability with 
our Korean ally, in areas including tactical communications and blue-
force situational awareness and seek system survivability and 
robustness to enable modernized information sharing. Policies, 
agreements, and technologies must lean toward enabling bi-national and 
multi-national information sharing. We rely on military and commercial 
satellite capacity for mission command to provide assured 
communications and situational awareness down to the individual 
soldier. Advanced C4I capabilities that are compatible with the 
available frequency spectrum in Korea, able to penetrate underground 
facilities and capable of transmitting high bandwidth imagery and data 
via satellite are essential to our mission set.
    Ballistic missile defense (BMD).  We have made significant strides 
in BMD capability this year with the commitment to thicken the layers 
of missile defense through THAAD and Patriot system modernization. 
Increasing interoperability with ROK systems is a key part of improving 
Alliance missile defense, including program upgrades to the ROK Patriot 
system and procurement of PAC-3 interceptors. As North Korea continues 
to improve its missile forces, the ROK-United States Alliance must also 
continue to expand its BMD capabilities.
    Countering-WMD (CWMD).  North Korea continually demonstrates its 
commitment to develop its chemical, biological and nuclear weapons 
programs, so it is imperative that we work diligently to close any gaps 
in our CWMD capabilities that would put ROK-United States forces, 
civilian safety and our objectives at risk. We must ensure we have 
sufficient integrated early warning, protection, decontamination 
capabilities, and medical countermeasures and that our systems provide 
a shared picture of the combined operational environment.
    Critical munitions.  Thanks in large part to our U.S. military 
service partners, we made significant progress during the past year to 
increase our stocks of select munitions that are critical to early 
phases of conflict. However, there is still work to be done. Together 
with our ROK counterparts, we continue to identify ways to close these 
capability gaps through various procurement channels. The long-term 
U.S. solution is for the services to develop munitions requirements, 
fund, and procure munitions identified through the Joint Capabilities 
Integration Development System (JCIDS) and Munitions Requirements 
Process (MRP) to supply munitions that are not available from other 
sources.
                                closing
    Through the difficult challenges of the past year, UNC, CFC, and 
USFK have steadfastly defended United States security interests on the 
Korean Peninsula, and sought to maintain stability in Northeast Asia. 
The United States military presence on the Korean Peninsula and the 
strength of the United States-ROK Alliance are critical to deterring 
future aggression, and posturing for potential conflict. As Commander, 
I can report that over the past year the Command improved readiness; 
pursued innovative solutions to our challenges; and filled capability 
shortfalls that lessen North Korea's ability to hold the United States 
and South Korea at risk. By making thoughtful resource decisions, 
developing Alliance initiatives, and reinforcing relationships with our 
allies and partners, we will continue to shape our environment to 
advance security and stability on the Korean Peninsula. Thanks to the 
Committee for your support, and for the opportunity to communicate my 
assessment of our current posture. I am honored to have the privilege 
of leading American soldiers, sailors, airmen, and marines; our 
Government civilians; and their counterparts from the Republic of 
Korea. Our Alliance remains strong through daily trustbuilding 
interactions that are enabled by your support. We will remain ready to 
``fight tonight'' while also ensuring we take every possible route to 
prevent war and accomplish U.S. and ROK strategic objectives.
    ``Katchi Kap-shi-da!'' We Go Together!

    Senator Inhofe. Well, thank you very much. It was an 
excellent opening statement.
    You know, since we started the NDS as being the two-three 
approach, the two, of course, is China and Russia, and the 
changes, I've commented in my opening statement that, when 
Senator Ernst and Senator Sullivan and Senator Rounds and I 
were over there, and with you and then on through that area, it 
was very disturbing. During the trip, we came to the conclusion 
that our allies are worried about the pace of China, which is 
more evident, more visible than anything that we're doing.
    A key topic of discussion was China's built-up 
militarization in the South China Sea. In fact, over 3,200 
acres have now been--they call it ``reclamation.'' I don't call 
it ``reclamation,'' because there's nothing to reclaim. It's 
creation of new land. They don't have the legal authority to do 
the things they're doing, but they're doing them anyway. That's 
gotten everyone's attention. These reclaimed lands are up to 
over 3,000 acres now, and they have a shocking amount of 
military equipment there, and it's very disturbing. It's 
increased its military activities in the Sea to bolster its 
territorial claims there, despite U.S. and international 
efforts to maintain freedom of navigation. That's a serious 
problem.
    If you look at the location of these islands, it's right in 
the navigation province, creating problems, potentially, for 
us. It's also increased the pace of the military activities. 
The Trump administration's National Defense Strategy, as I 
mentioned, places an emphasis on improving our ability to 
expand the competitive space against China.
    Now, the thing that disturbs us--and I think I speak for 
all five of us who were over there just two weeks ago--is the--
our allies are actually having a hard time choosing between 
China and us because of the visibility of what they're doing. 
I'm talking about allies that I mentioned in my opening 
statement. We talked to the Philippines, Taiwan, South Korea, 
Japan, and they all seem to be divided between the leadership--
their Secretaries that--or Ministers of Defense and their 
Foreign Ministers are each taking a different side. So, it 
was--that was an awakening to us to see that happen.
    So, starting with China. I'll just ask you the question. 
You've covered it pretty well. You talked about, ``China's 
intent is clear.'' Well, let me ask you. Do you consider 
China's buildup in that area as a direct threat to the United 
States and its allies?
    Admiral Harris. Senator, I do believe that China's actions 
and what they've done in the South China Sea does threaten our 
position there. I think they're reaching a point of position on 
advantage in the South China Sea. If it comes to a conflict, 
we'll have to deal with that.
    Senator Inhofe. Yeah.
    Admiral Harris. I do believe that China gains when we don't 
call them out publicly. It's important that we maintain that 
public criticism of China.
    Now, I've talked, in the past, that we should compliment 
China and thank them for the things that they are doing in the 
international space that's good for the order, things like 
counter-piracy operations, their work to help the effort to 
remove chemical weapons from Syria, and on and on. These are 
positive things. Most recently, their work in the U.N. 
sanctions regime against North Korea. We should thank them for 
that, and appreciate that.
    Senator Inhofe. Yeah. I understand that.
    Admiral Harris. But, at the same time, we should hold them 
accountable for the things they're doing that are provocative 
and aggressive to their neighbors and to us. We do have to 
counter their perception, as I mentioned in my comments, that 
the U.S. is either a declining power, which I don't believe, or 
a disinterested power, which I also don't believe. But, that is 
the perception, and we must work to counter that, in my 
opinion.
    Senator Inhofe. Well, I know that's the perception, because 
we were there, and we heard that articulated, and there is no 
doubt what their feelings are.
    Just before I run out of time, I want to mention North 
Korea, and, of course, Russia is the threat. But, North Korea 
is something that is a changing scene. We had a hearing, last 
week in this chamber, of our intel. We had the DIA [Defense 
Intelligence Agency] and the CIA [Central Intelligence Agency] 
here, and we talked about this in some depth. I just disagreed 
with them. I've never disagreed with Dan Coats in my life until 
that--until last week. But, when he--asked the question, ``Do 
you really think that this recent communication from Un to our 
President was one that we cannot depend on having any 
results?'' They both said, ``No, we've gone through this drill 
before.'' To me, it's different this time. We had a very 
direct, harsh response from our President to Kim Jong-un when 
he made the statement about having the button, ``I'll press 
it,'' and all of that. It was immediately after that response 
that North Korea communicated with South Korea and said, ``We 
want to join in now with the Winter Olympics,'' and then, of 
course, they came out with this statement. I can't help but 
think----
    Look, his dad, Un's dad, never had the bargaining chip that 
he has now. The fact that, November the 28th, that they sent 
something over that can reach the United States, that's 
something that he can use. People argue, ``Well, it didn't have 
a payload, it wouldn't have performed that well with a 
payload.'' That doesn't give me any comfort at all. They say it 
doesn't have the reentry capability. But, you know, the fact 
that they can do that, puts him in a position, I think, to be a 
negotiator. Is there anything further concerning the threat 
from Un that you want to share before I turn this over?
    Admiral Harris. Sir, I'll just say that I do believe that 
the strength of the pressure campaign plan was part--a big part 
of bringing North Korea to the table, to the offer of a summit.
    Senator Inhofe. I----
    Admiral Harris. Without the strength of the pressure 
campaign plan and its effectiveness so far, I don't think we 
would be where we are.
    Senator Inhofe. I appreciate that very much.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, Admiral Harris, not only for your testimony, but 
for your service, particularly, as you've indicated, this might 
be your final meeting. You've served the Navy and the Nation 
very well. Thank you, sir.
    Admiral Harris. Final meeting with this committee, sir.
    Senator Reed. With this committee, of course. There are 
other committees, but let them----
    Admiral Harris. Downrange. Yes, sir.
    Senator Reed. Yes, sir.
    North Korea. Part of our approach must be multilateral with 
all of our allies, including South Korea and Japan. Any 
insights on Japanese participation? The South Koreans, of 
course, initiated these talks, and seem to be engaged--
President Moon. But, President Abe has his own problems in 
Japan, but, also, they--are they onboard? Are they going to be 
100 percent with us on this?
    Admiral Harris. I believe they will be, sir. I think that 
Japan is clearly an interested party in what happens on the 
Korean Peninsula and this summit that's coming up. But, I 
believe that Japan will be supportive of the outcome. They 
share our concerns about the trustworthiness of North Korea. 
So, you know, we--in the past, in talking about other countries 
and stuff, you know, we tend to use the term ``trust but 
verify.'' In this case, I think it's ``distrust and verify.'' 
But, I believe that we are--that Japan will be with us as we go 
forward, here.
    Senator Reed. And, you know, perhaps being overly 
optimistic, but if there is a--some type of an agreement, that 
would require years and years of intense verification and 
constant surveillance. So, we would be making a huge but, I 
think, appropriate investment in terms of following up the--any 
type of agreement with the kind of oversight and 
nonproliferation activities that would be essential.
    Admiral Harris. I agree with you, Senator. I do believe 
that our position will remain a complete, verifiable 
denuclearization, irreversible denuclearization of the 
Peninsula, as we go into this. I think we can't be overly 
optimistic on outcomes. We'll just have to see where it goes, 
if and when we have the summit.
    Senator Reed. Just two other questions. I presume, and I'll 
ask you to comment, that this would, at its best, be a stepwise 
process, that the likelihood of a total, complete agreement in 
one or two meetings would--is doubtful, that progress would be 
slow, that it would be a--concessions followed further 
concessions, et cetera. Is that your view, too?
    Admiral Harris. You know, I don't know, Senator. We've 
never been in a position where the President, our President, 
has met with a leader of North Korea, ever, and so, I don't 
have a way to predict the future. I just think that we have to 
go into this, eyes wide open.
    Senator Reed. And just so, with respect to North Korea, 
finally, a great deal of the pressure has been generated 
economically by the Chinese participation. It's actually--
they're getting better and better, in terms of curtailing trade 
with North Korea. Do you sense any kind of pullback now, based 
on other issues, like trade policies or anything else that----
    Admiral Harris. With regard to China?
    Senator Reed. China.
    Admiral Harris. No, right now, Senator. As I mentioned 
earlier, I think that we should compliment China for the work 
that they're doing to enforce the sanctions that the United 
Nations have--has put in place. I'm encouraged by China's 
activities in this space with regard to North Korea. They have 
a vested interest in the outcome, and I've said before that I 
think China remains the key to a peaceful outcome on the Korean 
Peninsula. But, China is not the key to all outcomes.
    Senator Reed. Now, with respect to China and our presence 
in the Pacific, the National Defense Strategy calls for a much 
more forward presence, denser positioning of platforms and 
personnel. That requires, obviously, the cooperation of the 
countries of the Asia area. Their trade relationships with 
China are increasing rather than decreasing. Would that make 
them hesitant to invite us in or support our efforts?
    Admiral Harris. It could, because they have to value--they 
have to weigh a continued relationship and alliance--in some 
cases, an alliance; certainly partnership, in all cases--with 
the United States against economic advantages of their 
relationships with China. But, I do believe that the United 
States remains the security partner of choice. The work that 
you all have done to fund the budget for the next 2 years, I 
think that sends a strong signal of America's resilience and 
continuing interest in the Pacific, in the Indo-Pacific region. 
And I--and that goes a long way. The National Defense Strategy 
acknowledges that we're in strategic competition with China. I 
think that alone serves notice to not only China, but to our 
friends, allies, and partners in the region.
    Senator Reed. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Good morning, Admiral.
    Last year, when you testified before the committee, you and 
I discussed PACOM's need for ISR [Intelligence, Surveillance 
and Reconnaissance]. I'm proud to represent Offutt Air Force 
Base and the 55th Wing, which provides support for that mission 
out of Kadina Airbase in Japan. Do you have enough ISR assets, 
including the RC-135s, to be able to meet the demands in your 
area of responsibility?
    Admiral Harris. I do not, Senator.
    Senator Fischer. Can you describe how you use the RC-135 in 
PACOM?
    Admiral Harris. Yeah, we're--yes, ma'am. We use the RC-35s, 
the Rivet Joint, for all--not all, but for a large portion of 
our signals intelligence requirements throughout the western 
Pacific, whether it's in the northwestern Pacific focused on 
North Korea, or whether it's in the South China Sea area 
focused on China. But, RC-135--the Air Force's RC-135 and the 
Navy's EP-3 are critical to signals intelligence collection 
against our potential adversaries and adversaries in the 
region.
    Senator Fischer. When you said you don't have enough, is 
that because demand's increasing?
    Admiral Harris. I don't have enough because there isn't 
enough to go around. When you look at a fixed amount of ISR 
assets, and all of the combatant commanders have requirements, 
then that--those requirements have to be apportioned by some 
entity. That entity is the Joint Staff, through the global 
force management process. You know, I think all of the 
combatant commanders would tell you that none of us have all 
that we want.
    Senator Fischer. Do you see demand increasing in the----
    Admiral Harris. I do see demand increasing, clearly.
    Senator Fischer. North Korea's pursuit and aggressive 
schedule of nuclear testing, in my understanding, is that the 
WC-135s operating in PACOM provide valuable intelligence on 
those activities. Is that correct?
    Admiral Harris. That is correct.
    Senator Fischer. Can you explain how that information helps 
inform your decisionmaking with regard to forces in the area 
of----
    Admiral Harris. Well, the----
    Senator Fischer.--your responsibility?
    Admiral Harris.--the WC-135 is a service retain asset that 
I have to ask for. When I ask for it, I always get it, which is 
a good thing. WC-135 helps me understand the nature of North 
Korea's nuclear testing.
    Senator Fischer. You mention, in your testimony, the fact 
that we risk losing the dominance of the air domain that we've 
enjoyed for decades in the Pacific. Both China and Russia are 
investing heavily in the A2AD [Anti-Access/Area Denial] and new 
fifth-generation fighters, and are rapidly closing the gap. Do 
you believe that we still have that air superiority in the 
region?
    Admiral Harris. I do believe we have that air superiority. 
I think it's unquestioned now, but I can see a path where it 
might not be, unless we continue to resource it.
    Senator Fischer. Under what scenarios do you believe that 
we risk losing that superiority and, really, the freedom of 
access that we have?
    Admiral Harris. If we don't overturn the Budget Control 
Act, if sequestration is the law of the land, remains the law 
of the land, and we're--and we fail to resource our 
requirements in air superiority, then Chinese development will 
continue apace, and there will be a timeline, a time of which 
those lines cross, and we'll lose our air superiority. Today, I 
believe we have it. I think the Congress's actions, as 
evidenced by the bipartisan agreement last month, I think that 
sends a strong signal and will help us maintain that advantage, 
at least through fiscal year 2019.
    Senator Fischer. When you talk about the advances that the 
Chinese are having, are you speaking of the technologies----
    Admiral Harris. I'm----
    Senator Fischer.--that they're----
    Senator Fischer.--speaking both the technologies, in terms 
of Chinese development of fifth-generation fighters, and the 
weight of their numbers, alone. You know, I've often said, in 
that quantity has a quality all its own. And so, while the U.S. 
equipment and personnel, in terms of quality, far exceeds that 
of any of our competitors or potential competitors, quantity 
has a quality all its own.
    Senator Fischer. Can you speak to any certain technologies 
that you believe might seriously threaten us?
    Admiral Harris. I believe China's development and research 
into hypersonic glide weapons is one of those technologies that 
they're working on that could threaten us significantly.
    Senator Fischer. Okay. Thank you.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, Admiral, for being here once again.
    Admiral Harris, I'd like to ask you about Australia. 
Australia, as you're well aware, has been a very consistent 
United States ally for decades, but a recent article in Foreign 
Affairs discusses how China interferes in Australia, working 
covertly to manipulate the Australian political system by 
access and influence, and stealing research and intellectual 
property to aid China's military. Australia is also very 
closely linked, economically, to China, with about a third of 
their exports going to China, as well. But, despite these very 
strong economic ties, Australia has taken steps to resist 
China's influence, with public warnings that have been 
amplified by the press, including investigations into links 
between major political donors in Australia and the Chinese 
Communist Government.
    Admiral Harris, could you elaborate a little bit on what 
you are seeing in Australia and their work? Are there perhaps 
lessons that we should learn as a country, based on Australia's 
experience with China?
    Admiral Harris. Senator, surely.
    I was in Australia last week. I visited with the Chief of 
Defense there, Air Chief Marshal Binskin. I believe that 
Australia is one of our strongest allies. They have been with 
us for literally 100 years. This year is the 100th anniversary 
of the first time American troops fought under a foreign 
leader, and that was General John Monash in 1918, in World War 
I. So, I have no doubt, there is no question about the 
solidness and strength of the American-Australian alliance.
    Specific to your questions about Chinese influence, it is 
real in Australia. There is a book out that complements the 
article that you spoke about, called ``Silent Invasion,'' and 
it talks about malign Chinese influence in Australia. I think 
Australia understands that. They get it. They're going after 
it.
    Senator Peters. Well, we should, and follow how they are 
doing. It's successful, you believe? Are those----
    Admiral Harris. I believe there are----
    Senator Peters.--are there some lessons there for us?
    Admiral Harris.--I believe there are lessons to be learned 
in the Australian case that are applicable to our situation.
    Senator Peters. Right. Thank you, Admiral.
    Admiral, in your written testimony, you talk about the 
Communist Party General Secretary promising military 
development that would remain a national priority in China, and 
that he pledges to modernize by 2035 and achieve, ``world-class 
status by 2049.'' You go on to say that you believe that they 
will achieve it well before those kinds of deadlines. So, talk 
a little bit about that progress. Perhaps, are there any 
benchmarks that we should look at to measure that progress, 
ones that should raise particular alarms to us?
    Admiral Harris. Yeah. So, I believe the development of 
hypersonic weapons is a benchmark. I think the development of 
China's fifth-generation fighters, fighter aircraft is another 
benchmark. They are beginning to field fifth-generation 
fighters now, the J-20, and they're developing the J-31. So, I 
think these are things that we should watch carefully. As we 
watch them, observe them militarize their bases in the South 
China Sea, they're doing the vertical improvements on them now, 
and they're turning these islands that they've built into 
military bases, clearly. So, I think we have to keep our eyes 
on that.
    I think the new move, politically, inside China is already 
a benchmark. Now, by that, I mean their decision to remove the 
term limits that has been in place in China since Deng Xiaoping 
became the leader there, and to have a president for life. I 
view that with concern. I mean, there is a possibility that, in 
2049, the centennial of the Modern People's Republic of China, 
Xi Jinping could be the president then. I think that's--we 
should view that with concern. The kind of country, the kind of 
nation that China could be, we're getting a sense of that now, 
with this move to remove term limits for its leader.
    Senator Peters. So, given these challenges--and we've 
talked about many of them, and there will be many more 
challenges we'll talk about during this hearing--you also 
mentioned, in your opening comments, that we need to figure out 
a way to help China become a peaceful, cooperative partner with 
the United States. What sort of things can we do to, hopefully, 
get to that point?
    Admiral Harris. Well, I do believe that we should continue 
to encourage China to be a peaceful, responsible partner. We 
shouldn't do that through rose-colored glasses. Our experience 
in the past has been that, if we--or our hope in the past, 
rather, has been that if we bring China into organizations like 
the World Trade Organization, and include China in our military 
exercises and the like, that somehow China will become like us. 
``Us'' being not the United States only, but our democratic 
friends, allies, and partners. I think the expectation is, the 
reality is, that that's simply not true. China has taken 
advantage of our openness with China to continue on the path 
that they've always been on. We're seeing that play out now, in 
2018. Certainly over the next 20 years or so, it'll be of 
concern to us. But, that shouldn't obviate the need to try. We 
should do so with eyes wide open.
    Senator Peters. Thank you, Admiral.
    Admiral Harris. You bet.
    Senator Inhofe. Thank you, Senator Peters.
    Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, Admiral Harris, for your testimony and, once 
again, for your service.
    I want to speak about critical munitions; specifically, 
ammunition. For all the fancy weapons we have in our military, 
if you don't have enough rounds, then you don't have much. The 
U.S. Navy has identified a number of shortfalls and unfunded 
priorities, going forward, in this area, including LRASM [Long 
Range Anti-Ship Missile], Harpoon Block II, AIM 96, and Mark 
48. What would a shortfall of these munitions mean for you in 
the PACOM area of operations?
    Admiral Harris. Ultimately, Senator--depending on the size 
of the shortfall, ultimately, it could mean we lose in war. I 
mean, you've got to have the munitions to beat the enemy.
    Senator Cotton. Yeah. Safe to say, then, that, given the 
budget deal we reached last month and the additional funding 
for our military, that if this committee and this Congress can 
find more money for those munitions, that's something you would 
support?
    Admiral Harris. The budget deal was very much appreciated, 
Senator. Thank you very much for that.
    Senator Cotton. But, you would support additional funding 
for those critical munitions?
    Admiral Harris. I would.
    Senator Cotton. Thank you.
    One kind of munition this country lacks, only country in 
the world that lacks it now, is a ground-launched intermediate-
range cruise missile, because of the INF Treaty. Russia is not 
supposed to have those. We now know that Russia does, because 
they've been cheating on that treaty. Last year, we discussed 
this topic, and you stated, ``The aspects of the INF 
[Intermediate-Range Nuclear Forces Treaty] Treaty that limit 
our ability to counter Chinese and other countries' land-based 
missiles, I think is problematic.'' Over the last year, China 
has continued to produce the DF-21, the DF-26 missiles. So, I 
think it's safe to assume that those challenges have continued 
to increase.
    If this country were no longer a part of the INF Treaty and 
we could produce ground-launched intermediate-range cruise 
missiles, could you explain what that would do to the military 
balance of power in the PACOM----
    Admiral Harris. Yes, sir.
    Senator Cotton.--area of operations?
    Admiral Harris. I think that we are at a disadvantage with 
regard to China today, in the sense that China has ground-based 
ballistic missiles that threaten our basing in the western 
Pacific and our ships. They have ground-based ballistic anti-
ship missiles. We have nothing, we have no ground-based 
capability that can threaten China, because of, among other 
things, our rigid adherence, and rightfully so, to the treaty 
that we signed on to, the INF Treaty.
    That said, there are good aspects of INF, and that is the 
nuclear piece of it, which we also adhere to. I think that's 
important. So, I'm not calling for us to pull out of the INF. I 
am asking and, suggesting rather, that we consider ways to work 
within the INF regime to overcome these shortfalls that are 
presented to us by China. Because INF, as you know, only 
affects us and Russia and the successive republics from the 
Soviet Union. It does not include China. China's not a 
signatory to it. We can't reasonably expect, nor should we 
expect, that China adhere to a treaty that they're not a 
signatory to. But, it puts us at a disadvantage in the western 
Pacific. So, we could do anything from one extreme, to pull 
out, to the other extreme, to do nothing. I think we should 
look at ways to maximize our operational flexibility with 
regards to the advantage that China has over us, in terms of 
ground-based ballistic missiles.
    Senator Cotton. Thank you.
    One final question about the impact of the recent sanctions 
legislation this Congress passed, designed primarily with 
Russia in mind, and specifically countries that continue to use 
Russian military hardware and systems. I supported that 
legislation. I still do. But, I do have some concerns about 
potential unintended consequences among countries that, for 
various historical reasons, still have Russian hardware, and it 
would be hard to avoid Russian hardware. Is that a area of 
concern in PACOM?
    Admiral Harris. It is, Senator. We're speaking here about 
the CAATSA [Countering America's Adversaries Through Sanctions 
Act] legislation. Secretary Mattis has sent a letter--it's 
classified in its entirety--to you all, asking for some relief 
from CAATSA. I can't get into the specifics of the letter, 
because of its classification, but I--my own opinion is that 
countries like India, where we are--we've made a key partner--I 
believe that India is a great strategic opportunity for the 
United States. Seventy percent of their military hardware is 
Russian in origin. You can't expect India to go cold turkey on 
that. I think they're--we ought to look at ways to have a 
glidepath so that we can continue to trade in arms with India. 
So, CAATSA affects that, and I hope that we can, you know, 
achieve some relief for the rigidity that's in that 
legislation.
    Senator Cotton. Thank you. Your point--and I assume 
Secretary Mattis's point in his classified letter--is that you 
have a country like India that's a close ally, and growing ever 
closer, but, for historical reasons going back decades, they 
just rely on a lot of Russian equipment, and it would really 
impair them, and therefore our relationship with them, to try 
to ask them to go cold turkey immediately.
    Admiral Harris. You are correct.
    Senator Cotton. Okay.
    Well, thank you very much for your testimony. I know you 
said this is the last time you'll appear in front of the Armed 
Services Committee. But, I know you'll have a hearing coming up 
soon in the Foreign Relations Committee, so you'll get to 
continue to tell the noble lie that it's a pleasure to be in 
front of Congress again today. But, most importantly, I know 
that I and probably most members of this committee will look 
forward to supporting your nomination to be our Ambassador in 
Australia. I'm very grateful you're willing to continue to 
serve in a new capacity.
    Thank you, Admiral Harris.
    Admiral Harris. Thank you, Senator.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    Several things you have mentioned today, you've talked 
about China's activities in the South China Sea, and you also 
talked about Russian activities in the Arctic. In your view, 
would it be in the United States national security interests 
for us to be signatories of the U.N. Convention on the Law of 
the Sea?
    Admiral Harris. My opinion, Senator, has not changed over 
the past decade or so. I'm an advocate of the United Nations 
Convention on Law of the Sea.
    Senator King. In fact, we're relegating ourselves to the 
sidelines as these disputes about continental shelf and 
relationships are being adjudicated.
    Admiral Harris. I believe that UNCLOS [United Nations 
Convention on the Law of the Sea] gives Russia the potential 
to, ``Own almost half of the Arctic Circle.'' We will not have 
that opportunity because of--we're not a signatory to UNCLOS.
    Senator King. We won't be in the discussion.
    Admiral Harris. That is correct.
    Senator King. Thank you.
    There's a great deal of discussion about a potential summit 
meeting between our President and Kim Jong-un. What, in your 
view, would Kim Jong-un want to get out of these discussions? 
In other words, number one, is it realistic that he would put 
his nuclearization on the table? Number two, if he did so, what 
would he want in return?
    Admiral Harris. Senator, I don't know what Kim Jong-un 
actually wants out of the summit, but I do believe that, in a 
general sense, Kim Jong-un seeks reunification of the Korean 
Peninsula under his leadership, he seeks respect and status 
that nuclear weapons gives him, and he seeks security, which he 
believes the nuclear weapons give him.
    Senator King. What you said at the beginning was very 
important, reunification of the Korean Peninsula. What would be 
the impact on his calculus if we removed our troops from, and 
various security arrangements, from South Korea?
    Admiral Harris. I believe he would do a victory dance.
    Senator King. In Seoul, probably.
    Admiral Harris. I think he'd be a happy man if we abrogated 
our alliance with South Korea and with Japan.
    Senator King. Let's talk about China for a minute. I've 
thought for a long time that China's primary intention was 
commercial and regional hegemony, but their military buildup, 
it seems to me, indicates greater ambitions. What's your view 
of China's ultimate goal, here? Then I'll ask a second question 
about President Xi's ascension.
    Admiral Harris. Yes, sir. I agree with you that I believe 
that China seeks regional hegemony. That means pushing the 
United States out of the Indo-Pacific region.
    Senator King. Do you think they have greater ambitions? 
They've now built a military base in Djibouti or----
    Admiral Harris. I do. I think that--you know, as I said in 
my opening statement, just take them at their word, and they 
seek to be a global military and a global force. That, of 
itself, is not a bad thing. A country with great economic power 
ought to be able to buy and build the military that they 
choose. But, it's how they go about it that's of concern. I 
think their actions speak for themselves, their provocative 
nature and their aggressive nature and how they deal with their 
neighbors. We see that play out in India--I mean, I'm sorry, we 
see that play in the Indo-Pacific on a daily basis.
    Senator King. As we see them develop this capability, my 
concern is, right now they may not have the will to be an 
aggressive territorial nation, but if they develop the 
capability, the will could change overnight.
    Admiral Harris. I believe they do have the will. They don't 
have the capability.
    Senator King. But, they're building the capability.
    Admiral Harris. They're clearly building to that 
capability.
    Senator King. I read recently that one commentator said 
they thought the greatest geopolitical development of recent 
years was President Xi's ascension to unlimited length, in 
terms of his authority. How do you see that--long term, do you 
see that as an advantage or a disadvantage?
    Admiral Harris. I don't know, to be honest with you, 
Senator. There hasn't--you know, we haven't seen it play out. 
We just know the fact of it. I'm concerned about it. I mean, I 
think countries, at least historically, that choose presidents 
for life, it doesn't end well for their own people. I don't 
know how it will play out. It's something that we must watch 
closely to see how it goes.
    Senator King. Finally, you mentioned, in your earlier 
comments, Russia's role in North Korea. I think you used the 
term ``spoiler.'' What do you see Russia, are they just going 
to--my father used to use the term ``officious intermeddler''--
are they going to just try to mess things up?
    Admiral Harris. I do believe they're trying to mess things 
up. I think they'll meddle. I believe that if the sanctions 
that are put in place over North Korea are too hard on North 
Korea, including the sanctions that China are following--I 
believe that Russia will seek to relieve the pressure of the 
sanctions regime in the pressure campaign plan.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chair.
    Admiral, you called us out about President Xi Jinping's 
move. In '82 Deng Xiaoping put term limits in after the 
excesses of Chairman Mao's cultural revolution. We saw 30 years 
of economic development. Today, we have a leader for life in 
China. I see that development, along with the Belt and Road 
strategy that you so eloquently have called out over the last 
year, as two major initiatives that I think give us a hint at 
their long-term strategy. It looks like, if you look at the 
global map, a new world order could be in mind, here, between 
Europe, Asia, and Africa. In Africa, alone, they've got over 20 
ports that they've invested in and developed. Today, they have 
$200 billion in loans in Asia, the Pacific, Africa, and Europe. 
They've promised over $1.2 trillion of future loans. That's ten 
times the size of the Marshall Plan that rebuilt Asia and 
Europe earlier, or in the middle part of last century.
    Sir, my concern is that we already see their intent. The 
Marshall Plan was not loans, primarily. It was philanthropy. 
This investment, the 1.2 trillion that's coming, is mostly in 
the form of loans. In Africa, as an example, they're loaning 
money into these ports, in the ports' development. Sri Lanka, 
we already have an example where some of those loans went bad, 
and they, China foreclosed, and now China, for 99 years, has a 
port in Sri Lanka, in addition to Djibouti and in addition to 
what they're doing in the Belt and Roads strategy.
    Can you tie together that for us, the danger it has to the 
world order we enjoy today, where representative democracies in 
the free world dominate the cultural/political situation? Do 
you see it this way? Are you calling that out for us to think 
about this in a longer-term perspective regarding to what we 
see evidence of right now, in terms of the China strategy with 
the Belt and Road, and also with President Xi Jinping's change 
to a lifetime leader?
    Admiral Harris. Senator, I do see it that way. As I said 
earlier, I do believe that, for those of us, myself included, 
who wonder the kind of country that China will be in 2049, I 
think we're seeing that now. We're seeing that play out with 
this move toward a leader for life. We're seeing it play out in 
OBOR, One Belt, One Road, or the Belt-Road Initiative, which is 
not only about development, which, of itself, is a good, but 
it's not about development as much as it is about malign 
influence throughout the region, making China the security 
partner of choice and pushing the United States and our 
friends, allies, and partners out of the region. So, I think it 
has a strategic impact beyond simple development.
    China announced, a few weeks ago, the Polar Silk Road. 
That's a clear indication that China views the Arctic as a 
sphere of influence for them. They are some--there are some 
Chinese scholars that would actually suggest that the resources 
in the Arctic, a portion of those resources, should be China's 
because they have a fifth of the world's population.
    So, I think we should look at that carefully, consider what 
that means in the long term. China is putting their money where 
their mouth is. They have four icebreakers, and building to a 
fifth. I think that's significant. You know, why would a 
country have that kind of capability if it has no border on the 
Arctic or Antarctic? Because they're interested in the 
resources that are there, because they've called that out and 
named it the Polar Silk Road.
    Senator Perdue. Thank you, sir.
    Following up on that, the committee took the lead recently 
in establishing the Southeast Asia Maritime Security Initiative 
in the fiscal year 2016 NDAA to support maritime domain 
awareness capabilities of our partners and allies confronting 
sovereignty challenges in the South China Sea. You've called 
out the dangers in South China Sea. You talk about thousands of 
acres of reclaimed property there, used primarily for military 
use. This program, the Southeast Asia Maritime Security 
Initiative, is now ramping up, with $98 million requested in 
the fiscal year 2019 budget. Would you please give us your 
assessment of the strategic importance of the Maritime Security 
Initiative? In your view, what signal would it send if this 
initiative did not receive full funding?
    Admiral Harris. Senator, I'm a big believer in the Maritime 
Security Initiative. It's $425 million across five years. It's 
not a lot of money. But, we have put the $190 million or so 
over the past 3 years, including this year, to good use. We've 
put it to use to improve maritime domain awareness. The 
Maritime Security Initiative affects our Southeast Asian 
partners, principally Indonesia, Malaysia, the Philippines, and 
Thailand, and Vietnam. We're using this funding to improve 
their maritime domain awareness, so they can understand what's 
happening in their water space. We're using it to improve 
things like the Zulu Sea Initiative, which goes after sea 
crime, kidnap for ransom, and piracy in the Zulu Sea, in the 
Gulf of Thailand area. These are important things that signal 
our interest and our willingness to help our friends and allies 
and partners that are affected by the Maritime Security 
Initiative.
    To cut that funding or to pull us out of it would send the 
wrong signal at the wrong time, in my opinion.
    Senator Perdue. Thank you, Admiral.
    I just want to echo the voices of my colleagues in thanking 
you for your decades of service, and for your willingness to 
continue that service in Australia. It's a very critical post, 
as you well know and as we heard earlier in question. I just 
thank God for your career and your help for the United States 
of America.
    Thank you, sir.
    Admiral Harris. Thank you, Senator.
    Senator Inhofe. Thank you, Senator Perdue. We all agree 
with that.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Admiral Harris, this being your last testimony before this 
committee, I certainly join my colleagues in thanking you for 
your distinguished service throughout your career, and 
especially your last two tours in Hawaii as Commander of 
Pacific Fleet and your current assignment as Pacific 
Commander--PACOM Commander. And we, in Hawaii, will miss you 
and your wife, Bruni, who I also had the privilege of getting 
to know, for your leadership and your participation in our--
support of the community in Hawaii. Of course, we wish you well 
as you move into your next chapter of life. You and Bruni will 
always be a part of our Hawaii ohana.
    There's no question that we're now in a period of great-
power competition with China and Russia. I think China's goal 
is to become a global military and economic power. As you say, 
it's how they go about it that's concerning. They do not play 
fair. I'm glad that you are very clear in your support for the 
United States signing on to UNCLOS. There might have been a 
time when our country not being a signatory to UNCLOS maybe 
didn't matter that much, but now, with global warming and 
climate change, places like the Arctic Circle become very 
attractive to countries such as Russia. As you note, there is a 
potential that Russia will control almost one-half of the 
Arctic Circle. So, I would say that it is time for Congress to 
visit the issue of signing on to UNCLOS, and we should sign on.
    In past hearings, you and I have discussed the importance 
of the whole-of-government approach to what we do and concerns 
with the administration's cuts to the State Department and 
Treasury, along with the effects that these cuts would have on 
foreign diplomacy, your mission, and the ability to combat our 
adversaries in the Pacific region. In your testimony, you 
specify that countering violent extremism in the Indo-Pacific 
requires close collaboration with United States Government 
interagency partners, such as the Department of State, 
Treasury, the FBI [Federal Bureau of Investigation], USAID 
[United States Agency for International Development], and other 
intel agencies. Can you discuss briefly the importance of this 
whole-of-government approach to accomplish PACOM's mission? 
What are the effects of cuts to the State Department and 
Treasury personnel on your mission? How do these cuts impact 
your ability to counter threats in the Indo-Pacific region?
    Admiral Harris. Thank you, Senator.
    I do believe that the challenges that we face are not 
solely military challenges, even though I'm a military officer 
in charge of a geographic combatant command. I believe that a 
strong State Department complemented by a strong Defense 
Department, and diplomats complemented by military personnel, 
is the key to a strong American position. In terms of funding, 
a weak State Department means you have to have a stronger 
Defense Department. I think it would be so much better to have 
both funded to the level they should be funded.
    Senator Hirono. So, at 26 percent cut to the State 
Department will be concerning to you, in terms of your ability 
to carry out your mission.
    Admiral Harris. As I understand the State Department, it 
would be. But, I suppose that, you know, I mean, the devil's in 
the details. It depends on how it's cut, what's cut, and so on. 
Generally speaking, I think we need a fully funded State 
Department complemented by a fully funded Defense Department to 
project American power correctly, in my opinion.
    Senator Hirono. As we see what's going on with North Korea, 
it is not helpful at all. I believe you have said that we 
should have an Ambassador to South Korea appointed.
    Admiral Harris. I don't believe I said that, per se.
    Senator Hirono. Or others have said.
    Admiral Harris. I'm----
    Senator Hirono. Do you join that?
    Admiral Harris. I'm pleased with Constable--with the 
Charge, rather, Mark Knapper. I think he's doing a great job. 
He works very closely with General Vince Brooks. I think our 
Korean allies know who to turn to for questions they have, 
whether they're diplomatic questions or military questions.
    Senator Hirono. And yet, we don't have an Ambassador to 
South Korea, and also, the Envoy to South Korea from the State 
Department also left. So, these are not helpful conditions.
    As you know, the United States, Japan, India, and Australia 
have a quadrilateral regional cooperation supporting a free and 
open Indo-China region. Can you discuss briefly the importance 
and impact of the quadrilateral regional cooperation to the 
U.S., its allies, and on your PACOM mission?
    Admiral Harris. I believe that the Quad is important. I 
think these are Japan, United States, Australia, and India form 
a natural grouping, if you will, a natural grouping of 
democracies to face the challenges that are out there in the 
region. So, I'm pleased with the Quad. I don't think the Quad, 
that it has to be four. I mean, I think the Big Ten has 12 
teams, and the Big 12 has 14 teams. So, I don't think we're 
obligated to the number four. But the nature of it, the sense 
of it is that these are democracies that are linked, in terms 
of values and in military relationships, and we should advocate 
for this.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I do want to just mention, because I know Senator Hirono's 
mentioned it, Senator Warren, you know, I think this comes up 
in the Armed Services hearings a lot lately, is, this concern 
about not getting enough nominees out to the State Department, 
for the Department of Defense, from the White House, from the 
administration. I think they could do a better job. But, I do 
think that my colleagues on the other side of the aisle then 
don't talk about the next issue, which is how there's 
unprecedented, historically unprecedented blocking of nominees. 
So, my colleagues, they can't have it both ways. We'll 
encourage the administration, get more people out, a South 
Korean Ambassador, Assistant Secretaries of State and Defense--
but, my colleagues on the other side of the aisle can't then 
just say, ``Now we're going to take 30 hours for every nominee 
that comes before the Senate.'' It's not--you can't have it 
both ways. Let's work on getting nominees, and then you guys 
can help us stop the historic obstruction of these nominees. I 
think that would be a good compromise, and I'm certainly ready 
to do that.
    I know that's not your issue, Admiral, although it might be 
your issue when you're nominated to be Ambassador to Australia. 
I certainly hope my colleagues don't block you for seven 
months. I think the German Ambassador has been blocked for 
months now, and few people on the other side want to talk about 
that.
    Admiral, I want to show you a slide. I think you have a 
copy, and it's right there on that chart--but, it's the 
evolution of how China has been talking about the South China 
Sea militarization. As you see there, in September in the Rose 
Garden with President Obama, Xi Jinping essentially said, 
``We're not going to militarize.'' So, that's standing next to 
the President of the United States. Then, slowly but surely, 
they've come out and--with the most recent Global Times-Voice 
of China, essentially saying, ``Hey, you know, we're going to 
be a big, strong military power. Yeah, maybe we will.'' So, how 
do you interpret that evolution? I don't think it's very useful 
to have the leader of a country standing next to the leader of 
our country, saying they're not going to do something, when--do 
you think, in 2015, the master plan was to do it, even though 
they said they weren't?
    Admiral Harris. I do believe that, in 2015, China had a 
plan to militarize the South China Sea. I don't think there's--
this is a pretty good graphic. I--it's--there's nothing to--
there's no interpretation needed, here. Clearly, China is 
militarizing the South China Sea.
    Senator Sullivan. In terms of their--I have very much 
appreciated your policy statement, which is, ``We're going to 
cooperate, where we can, but confront.'' I think sometimes 
China has come out and said, ``Well, we were forced to do this 
because you're running Freedom of Navigation operations in that 
region.'' How long have we been running FONOPs in the South 
China Sea as a United States Navy?
    Admiral Harris. Senator, as a policy item, Freedom of 
Navigation Operations, we've been doing those for decades. The 
United States Navy and the United States Air Force have 
conducted operations in and above the South China Sea for even 
longer periods of time. We have been a presence--we, the United 
States--we have been a presence in the western Pacific for over 
70 years.
    Senator Sullivan. Your point about how, in some ways, that 
was key to the rise of China, because keeping sea lanes open 
has helped the international order, and no country's benefited 
more from that----
    Admiral Harris. Right.
    Senator Sullivan.--than China. I think it's a really 
important one.
    Next you mentioned the Polar Silk Road. I'd just like to 
note that we're trying--right now, Russia has 40 icebreakers, 
and they're building 13 more. China has four, and you say 
they're building a fifth. We have two, and one is broken, and 
yet, we're an Arctic nation. We're an Arctic nation because of 
my State, and they're not. So, what do you, again, think their 
intentions are there?
    Admiral Harris. I believe their intentions are clear. 
They're interested--China is interested in the resources in the 
Arctic Circle. Russia is interested in the security aspects of 
the Arctic Circle. Russia is using UNCLOS to its advantage. I 
think that we are at a disadvantage because we don't have the 
icebreakers and stuff that the other countries have. But, I do 
want to acknowledge and thank the Congress for putting 
icebreaker in the 2019 budget.
    Senator Sullivan. Well, that's progress, but we need to 
make a lot more progress.
    Let me ask one final question, Admiral. So, I think we 
should acknowledge that China has actually been helpful with 
the administration's approach to North Korea. I think that 
they've done more than they ever have previously. I think we've 
made more progress on this maximum pressure campaign than 
previously done, including good work at the U.N. Security 
Council. Do you see China being helpful in the future on this? 
What do you think their strategic calculation is with regard to 
North Korea?--when, so far, they have moved pretty far. I think 
it's important that we acknowledge that. What do you 
anticipate, particularly as we get to this moment where, if the 
President's going to meet with Kim Jong-un, obviously there's 
going to be a lot of diplomatic focus, and focus with regard to 
our allies in countries like China on the importance of this 
issue?
    Admiral Harris. Yeah, I--Senator, I believe, in 2018, that 
China is probably--I mean, I don't know for a fact, but I 
believe that China is probably as worried about the path that 
North Korea is on, vis-a-vis its nuclear weapons, as we are. I 
think, in the past, China viewed North Korea as a way to 
pressure the United States. It could--and all that that 
entails. But, today I think what happened in 2017, in 2016, was 
a wake-up call for Beijing to--and it made them realize what a 
danger North Korea poses, not just to the United States or 
South Korea or Japan, but a danger it poses to China and the 
danger it poses to stability in the Indo-Pacific. So, now 
they're helpful. I appreciate that help. As you say, we should 
compliment and acknowledge them for the work that they're 
doing.
    Senator Sullivan. Right. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, Admiral. Thank you for your many years of 
service. Thank you for being here today.
    I'd like to spend my limited time this morning on our 
National Defense Strategy. The Trump administration recently 
released its National Defense Strategy report, and the 
unclassified version says that, ``Long-term strategic 
competitions with China and Russia are the principal priorities 
for the Department of Defense. The strategy stresses the need 
to modernize existing equipment, invest in advanced 
capabilities, and enhance the readiness of the joint force for 
a high-end fight.''
    Admiral, I know you've been focused on managing the 
challenge posed by China, but your area of responsibility also 
includes China's neighbor, North Korea. Many analysts estimate 
that a conflict on the Korean Peninsula could bog us down for 
years, degrading our equipment and potentially resulting in 
thousands of casualties both to our allies and to our own 
troops. So, let me ask, Admiral, What would be the impact of a 
long-term conflict on the Korean Peninsula on our ability to 
prepare for a high-end conflict like the kind described in the 
[National] Defense Strategy?
    Admiral Harris. Thank you, Senator.
    I do believe that a conflict on the Korean Peninsula will 
result in thousands of casualties. I believe that China could 
be opportunistic, in terms of what they do in their area if 
we're bogged down in Korea. But, I don't believe that we should 
allow our concern or fear for what could happen with China 
detract us from our treaty obligations with South Korea and to 
defending our own Homeland, which is the threat posed by North 
Korea.
    Senator Warren. I appreciate that, Admiral. I'm asking 
about the difficulties that are posed, here. So, let me just as 
a different question related to this. Would we be able to 
maintain our technological investments to counter China if we 
were engaged in a sustained ground war in North Korea?
    Admiral Harris. I think we would be able----
    Senator Warren. All right.
    Admiral Harris.--to do that.
    Senator Warren. You know, I was glad to see other 
President's renewed interest in diplomacy last week. I'm not 
sure if he recognizes the enormous complexity of these 
negotiations and the fact that a breakthrough may not occur 
overnight, but I think we should all be hoping for success, 
because a ground war on the Korean Peninsula would be 
devastating to our long-term strategic interests in the Indo-
Pacific region and around the world.
    Admiral Harris, while I have you--and I still have 2 
minutes left--I want to ask one other question. I know that you 
support CFIUS [Committee on Foreign Investment in the United 
States], which reviews acquisitions by foreign companies for 
threats to our national security. You support reform to capture 
a wider range of transactions and technologies, particularly as 
they relate to China. You have made the point that China is 
blurring the lines between military and civilian activity and 
exploiting America's open system to gain access to sensitive 
technologies.
    I agree with you that we need to protect our most advanced 
technologies. But, there are two sides to this coin. Our 
adversaries will be interested in stealing from us only as long 
as we continue to produce the most innovative science and 
technology in the world. Being at the top of that heap is not a 
guarantee, it's not a birthright, and, in fact, right now China 
is also investing heavily in R&D [Research and Development], 
including in areas like physics, robotics, high-performance 
computing, nanoscience.
    So, Admiral, do you think that government investment in 
research and development helps maintain our military advantage? 
Would we improve our chances of maintaining technological 
superiority over China by increasing our R&D investments in 
advanced technologies?
    Admiral Harris. I do. Senator, I'll also add that 
government investment can't be the only source of innovation in 
the United States, and it hasn't been in the past, nor should 
it be in the future. I'm a big supporter of what we 
colloquially call CFIUS 2.0. I wrote a letter to Senator Cornyn 
about FIRRMA [Foreign Investment Risk Review Modernization Act 
of 2017], the new law on this. I believe we have to be 
sensitive to our open society and what that does for our 
adversaries, the advantages that it gives our adversaries.
    In terms of China, that's manifested in both technology and 
technological change and in a Chinese acquisition of large 
tracts of land that are adjacent to our training and electronic 
ranges.
    Senator Warren. Yeah. Well, I do see this as--both sides. I 
think we're in agreement on this, that, on the one hand, we've 
got to be very sensitive about what they're trying to steal 
from us; but, on the other, we've got to continue and even, I 
believe, ratchet up our investments so that we maintain our 
technological superiority.
    Admiral Harris. Absolutely. No argument from me on that.
    Senator Warren. Good. I'm glad to hear it. Thank you, 
Admiral.
    Admiral Harris. Yeah.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Tillis.
    Senator Tillis. Good morning, Admiral Harris. It's good to 
see you again. Thank you for your service.
    I was thinking about you. You know, I'm from North 
Carolina, so, when I was filling out my bracket, I had to pick 
the Tarheels to go all the way. But, then I got another bracket 
so I could pick the Volunteers. So----
    Admiral Harris. Thank you, Senator.
    Senator Tillis.--I want you to know the--Tennessee's got a 
special place in my heart. I know it does for you.
    Just two questions. One, there were some press reports 
about the 1987 Intermediate-Range Nuclear Treaty [INF] that you 
have expressed some concern over, or at least there were some 
reports. Could you expand on that for the purposes----
    Admiral Harris. Yes, sir.
    Senator Tillis.--of this committee?
    Admiral Harris. The INF Treaty is an important piece of 
diplomacy. It was formed and signed in 1987 by Presidents 
Reagan and Gorbachev of the Soviet Union. It was the right 
treaty for that time, when we were in a bipolar world.
    Today, we're not in a bipolar world, we're in a multipolar 
world. I think the restrictions that the INF Treaty places on 
us ought to be looked at, particularly when you consider that 
countries like China and Iran are not signatories to the 
treaty, and there is no obligation for them to follow any part 
of the treaty. We follow it to the letter, because we're 
America, and we do what we are--we sign on to do. As has been 
mentioned earlier, Russia has violated the Treaty routinely for 
the last number of years. So, I think there are aspects of the 
treaty that we ought to look at.
    The nuclear restrictions in the treaty, I think are 
important and commendatory, and we should keep those in place. 
But, the treaty also restricts our ability to deploy ground-
based ballistic missiles that counter ballistic missiles that 
threaten us, our ships and our bases, from countries like 
China.
    Senator Tillis. Thank you. You're going to be moving, and I 
hope you will be swiftly confirmed as Ambassador to Australia. 
I'll be supporting your nomination. I hope my colleagues on the 
other side of the aisle will let us get that done quickly. But, 
I believe, when we met with you in PACOM a couple of years ago, 
we talked a little bit about trade and how alliances with how 
the economic alliances are pretty important. We know where TPP 
[Trans Pacific Partnership] ended up. But, what's your opinion 
on the--on that side of the equation? When you go to Australia, 
for example, who would have been one of the TPP partners, what 
do you think we need to do down there, at an economic level or 
strategic level, to make our military relationship stronger?
    Admiral Harris. Senator, I was interested in the TPP, when 
it was first postulated, because of the security linkages that 
I saw TPP affording us and our friends, allies, and partners 
that were also part of TPP, when it was the TPP 12. I talked to 
some folks yesterday. You know, there are very few things that 
are--that engender bipartisan support today. One of those was 
pulling out of TPP. Both parties were opposed to it, and both 
candidates were opposed to it.
    That said, the other 11 countries that were involved in 
TPP, they went ahead and formed, on their own, TPP 11. I think 
that, if we can get a fair and equitable and--a trade pact with 
them, that we might want to consider getting into it.
    But, I'm not a trade expert or an economics expert, for 
that matter. You know, my theory in life has been to buy high, 
sell low. It hasn't worked well for me. So, here I am today.
    I look at the security parts of it, though, and there were 
clearly advantages, because it links us, in the security space, 
with these countries. There are aspects of the original TPP 
that included cybersecurity, intellectual property security, 
and that kind of stuff, which I thought was important, and it 
merited some--it merited a deeper look.
    So, I don't know where we're going to be with regard to TPP 
11, whether we'll join it or not, it's an important grouping, 
and we'll have to look at it and see if there's a way that we 
can achieve what the President seeks, in terms of fair and 
equitable trade.
    Senator Tillis. Well, thank you very much. I appreciate 
your many years of service to the Nation. I look forward to 
your continued service in the position as Ambassador.
    Thank you.
    Admiral Harris. Thank you, sir.
    Senator Inhofe. Thank you, Senator Tillis.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Admiral, thank you very much.
    As you may know, last year's NDAA included a provision I 
authored requiring the White House to submit a report on North 
Korea strategy within 90 days. The report was supposed to 
include, among other components, a detailed roadmap that 
identifies United States objectives and a desired end state, a 
clear timeline, and an assessment of unilateral and 
multilateral policy options with respect to the situation in 
the Korean Peninsula. The administration is late on that report 
at the present time.
    In light of the recent developments that we've seen on a 
possible meeting between the President and Kim, I'm even more 
convinced than ever that the administration needs to have a 
clear vision and a comprehensive strategy, and they need to 
present it to Congress.
    So, I'm asking you, What do you think are our interim 
objectives for these talks with North Korea?
    Admiral Harris. Sir, I believe that we'll go into these 
talks, hopefully, eyes wide open, and that, you know, we 
continue to seek what we've said all along, a complete and 
verifiable and irreversible Korean--denuclearized Korean 
Peninsula. I think that's what we're going into those talks 
with, and hopefully we'll come out in--with a framework that 
satisfies the President.
    Senator Donnelly. Do you consider it a success if there's 
no discussion of denuclearization on the Korean--on the North 
Korean side, but simply just, ``We'll stay where we are right 
now''?
    Admiral Harris. I don't know where we're going to end up 
with the talks. I don't think that the talks will be such that 
we accept as a positive that we end up where we are. But, I'll 
go back to what Churchill once said, you know, ``It's better to 
talk, talk, talk than shoot, shoot, shoot.''
    Senator Donnelly. Right.
    Admiral Harris. So, the fact that we're talking at all has 
a positive framework around it.
    Senator Donnelly. What do you think happens if, after these 
talks, there's no agreement made? Does that change how things 
continue moving forward after that point?
    Admiral Harris. I couldn't tell you, looking into the 
future. But, I think that the fact that we talked, that has a 
value. If the talks produce nothing, you know, we're talking 
about talks in April or May, I guess--soon, anyway, so we 
haven't lost anything by talking. So, the opportunity to engage 
is--has value of itself, regardless of the outcome.
    Senator Donnelly. I'm just curious, what do you think Kim 
is hoping to get out of this? Obviously, I'm not holding you to 
an exact replication after the talks are over, but you know, 
you're in a position of great influence and have done 
extraordinary service for our country. What do you think Kim is 
looking for out of this?
    Admiral Harris. Well, if you're asking me to read his mind, 
I mean, that's a dark place. I'm----
    Senator Donnelly. I'm not asking you to read his mind.
    Admiral Harris. But----
    Senator Donnelly. I'm asking, your years of experience, to 
give me an idea.
    Admiral Harris. I believe that he seeks security and he 
seeks respect and he seeks a reunification of the Korean 
Peninsula under his leadership. Those are his ultimate gain--
ultimate objectives, in my opinion. The talks, if they produce 
results, or if they produce further talks to hopefully produce 
some good results, that'll be where the details lie.
    Senator Donnelly. What do you see as the biggest challenges 
with North Korea now? What can we do to help you solve those?
    Admiral Harris. I think the biggest challenge with North 
Korea is their nuclear program, their--both their missile 
development program and their weapons, themselves. I think that 
one of the areas that I need help in that I don't have is 
persistent ISR--intelligence, surveillance, and 
reconnaissance--so I can keep eyes on, an unblinking eye on 
North Korea, which we do not have today.
    Senator Donnelly. Well, let me just change, for one 
second--I've just got a little bit of time left--on 
Conventional Prompt Strike. It's my understanding that PACOM, 
alongside STRATCOM [United States Strategic Command] and EUCOM 
[United States European Command], has identified the 
development and fielding of a Conventional Prompt Strike system 
as a high priority. Is that correct? If so, could you elaborate 
on----
    Admiral Harris. It is correct, Senator, but I would like to 
respond to that question in a classified manner for the record.
    Senator Donnelly. Okay.
    Admiral Harris. I'll take that question, as well.
    Senator Donnelly. That would be great.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Donnelly.
    Senator Sasse.
    Senator Sasse. Thank you, Mr. Chairman.
    Admiral, thanks for being here.
    Could you say publicly on the record some of what you've 
said to a number of us in private the last 2 or 3 days about 
how big China's Belt and Road Initiative is?
    Admiral Harris. Senator, what I said the last couple of 
days was, it's probably the biggest development program in the 
world. It's five times the amount of money that the United 
States,--corrected for 2018 dollars, what the United States put 
into the Marshall Plan. It's a significant investment by China. 
The difference, as was mentioned earlier, was, the Marshall 
Plan was philanthropic in nature and was designed to lift up 
the countries in Europe following World War II. One Belt, One 
Road is designed to lift up China.
    Senator Sasse. Yeah. I think, just to underscore that, the 
Marshall Plan, which was foundational to the 75 years of 
military alliance across the Atlantic and of economic 
prosperity that benefited the United States and all of our 
allies, this current Chinese initiative is more than five times 
larger in net present value. Is the Belt and Road Initiative 
partially intended to marginalize the United States influence 
in the Pacific?
    Admiral Harris. I agree.
    Senator Sasse. What do our allies think right now--our 
military allies, think about China's Belt and Road plans?
    Admiral Harris. Well, our allies, as well as our friends 
and partners, they have to balance their own national 
interests, and they have to balance China with the United 
States. You know, we're not asking them--or any country, for 
that matter, to choose between China and the United States. 
What we hope is that they'll see One Belt, One Road potentially 
for what it is. I think that, you know, our allies are smart 
enough to do that, and they'll make the decisions that benefit 
them, and us, in terms of our alliances.
    Senator Sasse. I'd certainly agree with you that we view a 
world where people should have commerce and peace with lots and 
lots of their neighbors, even in a multipolar world where the 
United States and China, over the coming decades, are going to 
be outsized, relative to everyone else. And yet, nations are 
partly going to be forced to choose between a rules-based 
international order and a Chinese system that is more 
interested in lifting up China with more vassal state 
supplicant near neighbors.
    I know that you're not allowed, given your current calling 
and position, to answer a question as direct as, Was it wise or 
foolish for the U.S. to pull out of TPP? But, you can speculate 
with us. Is China happy that the United States pulled out of 
TPP?
    Admiral Harris. I believe that China took advantage of the 
fact that we're not in TPP to try to drive a wedge between us 
and our TPP partners. China had a plan, the RCEP, the Regional 
Comprehensive Economic Program, as a counter to TPP. Most of 
the countries--not all, but most of the countries that were in 
the original TPP formulation are in RCEP. So, that should tell 
you, right there, that China sought to drive a wedge between us 
and our TPP partners.
    Senator Sasse. Toggling between your current calling and 
where you're likely headed next, I'm, here with everybody else 
on this committee, sure that you're going to be easily 
confirmed as Ambassador, and we're grateful for your continued 
service--when you look at your current calling and your next 
calling, the TPP without the U.S., can you speculate a little 
bit about what the potential ways that we might get back in 
might be?
    Admiral Harris. I can't, Senator, other than to say that, 
if we can reach a fair and equitable trade agreement with the 
TPP 11 countries, then that's probably the key to us getting 
back in. But, as I said before, I'm focused on the security 
aspects of any relationship like TPP, rather than economic 
aspects, of which I'm not an expert.
    Senator Sasse. Thank you very much, sir.
    Senator Inhofe. Thank you, Senator Sasse.
    Senator Nelson.
    Senator Nelson. Senator Sasse, I asked Admiral Harris, upon 
him taking over as Pacific Commander, what was one--this is now 
3 years ago. Congratulations to you. This is a perfect position 
for you to go into as Ambassador. I asked, What's one of the 
most important things for our national security in the Pacific 
region? Three years ago, the Admiral said passing the Trans-
Pacific trade agreement. Okay. So, 3 years have passed, and all 
of this has happened. As brought out by your questioning, that 
puts us at a significant economic disadvantage.
    So, Admiral, you're going to be a diplomat in a short 
period of time. Now, of course, as a Commander and as a 
warrior, you've also been a diplomat, to wear those four stars. 
But, you're going be a real Ambassador. What do we do now to 
make up for the lost last year and a half?
    Admiral Harris. I'm not sure what we've lost in the last 
year and a half, Senator, I'm sorry.
    Senator Nelson. Well, how do we gain back the economic 
advantage in the Pacific?
    Admiral Harris. Well, I think we have to stay with it. You 
know, we have to keep at it. I mean, there--it's not just the 
economic issues that are resident in the Pacific that are 
important to America. It's the security relationships and the 
whole framework that's informed by security, on one part, the 
economy, on the other part, and cultural ties that bind us to 
the countries in the Indo-Pacific region.
    Senator Nelson. Okay, understood. Are you in a position to 
offer an opinion with regard to trying to resurrect something 
of a Pacific trade agreement?
    Admiral Harris. I am not in that position, Senator.
    Senator Nelson. Will you be, as Ambassador?
    Admiral Harris. I might be, depending, I've never been an 
Ambassador, so I'm not sure what challenges will cross my desk 
then if I am--if I'm given that opportunity, if you all give me 
that opportunity, but I'll take it on and do what I have to do, 
you know, if I'm fortunate enough to be confirmed.
    Senator Nelson. You will be confirmed.
    Admiral Harris. Thanks.
    Senator Nelson. As Ambassador to one of our important--very 
important allies in the region of the Pacific, I think it's 
going to be exceptionally important for you to weigh in on 
this, because I--this Senator, and by the implication of the 
Senator previously questioning, by his implication, his opinion 
that we're losing ground economically, that they're getting in 
ahead of us.
    Tell me, in your prepared testimony, you highlighted the 
threat of China's growing arsenal of intermediate- and short-
range ballistic missiles and on their threat to our forces. 
That certainly is a greater threat. How do we best defend 
against this threat, and particularly protect our people in the 
region and ensure their ability to operate?
    Admiral Harris. Senator, I think it's key that we maintain 
our credible combat power. I think it's important that we fully 
resource the Department's needs. I'm grateful to the Congress 
for doing that in this two-year budget deal. I'm hopeful that 
we'll get an appropriation to match the deal. But, that's the 
most important thing, that we demonstrate to our friends, 
allies, partners, and adversaries that the United States is 
neither a disinterested or a declining power globally and in 
the region.
    Senator Nelson. Do we need additional THAAD [Terminal 
Altitude Area Defense] missiles in the region?
    Admiral Harris. Today, I'm satisfied with the ballistic 
missile defense architecture that's resident in the region: 
THAAD, in Korea; THAAD, in Guam; Patriots, throughout the area; 
and Japan's intent to buy Aegis Ashore; and our Aegis ships, 
and our ally--and Japan's Aegis ships. That architecture works 
today.
    I'm concerned about the North Korean missile development 
and where it'll be in the future. I'm grateful that we funded--
that you all have funded the defense of Hawaii radar, the 
Homeland defense radar for Hawaii. That's an important thing. 
I've asked the Missile Defense Agency, the MDA, to study 
whether we should have ground-based interceptors in Hawaii, or 
not. I'm not smart enough on that to know, but I think we ought 
to study it in advance of where we think North Korea's missile 
development will go. Today, the architecture is sufficient, but 
it might not be, in the mid-2020s.
    Senator Nelson. In the mid-2020s, what we know about 
national missile defense, do you have the information, on the 
top of your head? What is our ability to hit an ICBM 
[Intercontinental Ballistic Missile] out of North Korea today 
with our national missile defense--with those radars in Alaska?
    Admiral Harris. Sir, without getting into the classified 
area, where--which I'm skirting pretty carefully right now with 
that question.
    Senator Nelson. Understood.
    Admiral Harris.--I'm confident in our systems today, and I 
don't own those systems for us. You know, that's Northern 
Command, and I'm confident in Lori Robinson's ability to do 
that today.
    I'd like to respond to that more fully, more fulsomely, 
with a classified question for the record.
    Senator Nelson. That would be good, especially for 2020 and 
beyond.
    [The information referred to follows:]

    [Deleted.]

    Senator Nelson. I thank you, Admiral.
    Admiral Harris. Yes, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Nelson. Congratulations, again, to you. He's a 
Pensacola boy. Florida makes good again.
    Admiral Harris. Thank you, sir.
    Senator Inhofe. Good.
    Senator King--Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Admiral Harris, I'll add my congratulations to you for 
wonderful service in this area. Look forward to working 
together with you in new ways.
    I want to ask you a couple of things. Might have been 
covered, but they matter to me, and I'll--and they're 
important.
    So, we've seen, in the press, discussion of, obviously, not 
just the concerns that we legitimately have about North Korea, 
but there's been a phrase that's been used publicly about, 
well, whether we could engage in sort of a ``bloody nose,'' 
some kind of a preemptive strike against North Korea. That 
makes it sound, you know, pretty de minimis. But, my assumption 
would be, in calculating the validity of any such step, you 
would need to calculate what a likely response would be by 
North Korea. You couldn't go in with the expectation that it 
would just be sort of a one-off thing and with a guarantee of 
no response. I think the response you'd have to contemplate 
would be twofold. One would be, What would North Korea's 
response would be? But also, If the United States took some 
sort of unilateral or preemptive action, might it draw others 
into a conflict--China, for example--with the historical 
precedent of the Korean War as an example? I'm assuming that, 
as the DOD contemplates its own options, those sort of 
downstream consequences are things that you definitely think 
about. Am I correct in my assumption?
    Admiral Harris. Yes, sir. We have no ``bloody nose'' 
strategy. I don't know what that is. The press have run with 
it. I'm charged with developing, for the National Command 
Authority, a range of options through the spectrum of violence. 
I'm ready to execute whatever the President and the National 
Command Authority directs me to do. But, a ``bloody nose'' 
strategy is not contemplated.
    Senator Kaine. Again, I'm not going to ask you about what 
you advised the President. I'm going to ask you about your 
military judgment. It would not be a smart thing to think we 
could take some affirmative action against North Korea and then 
assume that there would be no action in response, either 
against us or maybe against South Korea. We couldn't also 
assume that it wouldn't draw other adversaries, potentially, 
into the conflict, correct?
    Admiral Harris. Right. I believe, Senator, that if we do 
anything along the kinetic region in the spectrum of conflict, 
that we have to be ready to do the whole thing.
    Senator Kaine. Yeah.
    Admiral Harris. We are ready to do the whole thing, if 
ordered by the President.
    Senator Kaine. Thank you.
    You and I talked, and I know you've talked a bit about 
this, but I'm really intrigued with the notion of the Quad that 
has been discussed in some public hearings at Munich Security 
Conference, the notion of deepening the relationships between 
the United States, Japan, Australia, and India around security 
cooperation. Senator King and I visited India in October of 
2014, and visited the shipbuilding industry in India. Under the 
Indian President [Narendra] Modi's Government, it does seem 
like there's new opportunities for us to be partners. The 
Indian navy sent a delegation to the United States a year or so 
later to look at our shipbuilding capacity. So, talk a little 
bit about the Quad, and maybe, in particular, since we've had 
longstanding security cooperation with Australia and Japan, how 
the addition to India to some of our security cooperation 
enhances American interests in the area.
    Admiral Harris. Senator, I've said, for the last 2\1/2\, 
almost 3 years, that I think India is the biggest strategic 
opportunity for the United States. We share democratic values, 
we share the same concerns, and we operate more frequently in 
the Indo-Pacific region together. I think the Quad is an 
important construct of like-minded nations that can go after 
the challenges that are in the Indo-Pacific region. So, that's 
Japan, United States, Australia, India. But, as I said earlier, 
you know, it's not--the Quad is an idea. It's not rigid, I 
don't believe.
    Senator Kaine. It's not exclusive.
    Admiral Harris. Right. I mean, as I said, I think the Big 
10 has 12 teams, and the Big 12 has 14 teams, or something like 
that.
    Senator Kaine. That's a very astute observation that you 
made.
    Admiral Harris. So, I mean, we're going into March Madness 
now. So, I think the Quad is an idea. It's an important idea 
that I think the countries are starting to get their arms 
around, including the United States. But, India presents a 
great opportunity for us. I think we present a great 
opportunity for India.
    Senator Kaine. You also have said, and I agree with you, 
that Vietnam presents an opportunity. It's an opportunity with 
some challenges, obviously, and yet the [USS] Carl Vinson just 
was in Vietnam. I think it's the first carrier visit to 
Vietnam. That's a pretty big thing, in terms of showing the 
relationship of our nations. If you could, just maybe address 
opportunities there, as well.
    Admiral Harris. Yeah, Vietnam is an important country to 
the United States and to the region. What Vietnam says matters, 
regionally and globally. They stand up to China. They're 
concerned about Chinese expansion and aggressiveness in the 
South China Sea. To your point about Carl Vinson, the USS Carl 
Vinson was the first carrier to visit Vietnam since World--
since the Vietnam War, was a very successful visit. I was 
ecstatic about the visit, itself, the welcome by the Government 
of Vietnam, and the outcomes of the visit.
    Senator Kaine. If I could, Mr. Chair--I'm over time, but 
just to comment, sort of, for the committee as much as for 
Admiral Harris--I don't think anything shows the possibility of 
American magnanimity in the world more than a picture of the 
USS John McCain docked in Da Nang Harbor or the Carl Vinson in 
Vietnam, the fact that, with a former adversary, where the scar 
tissues are still very alive in the American public and Vietnam 
War veterans, this is an adversary that deeply wants a 
partnership with the United States, just as Japan and Germany 
deeply wanted partnership with the United States after World 
War II. That shows that people recognize the United States, for 
all its imperfections and warts, is still a country with high 
values and it's still a country that they want to be in 
partnership with. I think that's a positive sign.
    Admiral Harris, thank you for your testimony.
    Admiral Harris. We are the security partner of choice for 
many countries, including Vietnam.
    Senator Kaine. Thank you, Admiral.
    Senator Inhofe. Agreed. Having just returned from viewing 
the repairs that were taking place on that, I agree with you.
    Thank you so much, Admiral Harris.
    Before someone else shows up, we're going to adjourn this 
meeting. And appreciate very much your patience and your 
service.
    [Whereupon, at 11:13 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Perdue
                north korea sanctions--additional levers
    1. Senator Perdue. Admiral Harris, in your hearing before the House 
Armed Services Committee last month, you said, quote, ``I think what we 
should be doing is what we are doing, and that is to maintain and 
increase the pressure campaign run by the State Department, to convince 
Kim Jong-un that his nuclear ambitions are flawed.'' In the past year, 
President Trump has authorized the Treasury to block entities that 
trade with North Korea from the United States financial system, and 
imposed sanctions on North Korean military and regime officials, North 
Korean financial facilitators who prop up the regime with foreign 
currency earned through forced labor operations, and on Chinese 
entities that export metals and other goods to North Korea. 
Additionally, there were numerous United Nations Security Council 
resolutions passed that restrict North Korean coal, iron, oil, 
agricultural, and labor exports. However, due to this international 
pressure campaign, North Korea has upped its sanctions evasion 
strategy. In Africa, countries like Tanzania and Mozambique are 
reportedly contracting with Pyongyang to provide support for their air 
missile systems. Last August, it was uncovered that the Egyptians were 
buying military munitions from North Korea. China and Russia are 
estimated to have tens of thousands of North Korean workers, earning 
over $500 million to Kim Jong-un's regime. Recently, a UN report was 
released that that unveiled that North Korean technicians helped 
Assad's forces develop chemical weapons and ballistic-missile 
technology, and were aided by the Chinese and Russians. Finally, both 
China and Russia have been found guilty of trading oil and coal with 
North Korea. It is encouraging to read in your testimony that the 
international sanctions regime is ``changing Kim Jong-un's calculus.'' 
However, as you said, quote, ``Kim Jong-un continues to channel his 
reduced resources to weapons programs,'' and North Korea continues to 
skirt sanctions. Admiral, I also sit on the Banking Committee, which 
authorizes new Treasury sanctions. What additional levers in terms of 
sanctions have we yet to pull that can put additional pressure on North 
Korea? Is this a matter of authorities or enforcement?
    Admiral Harris. While I defer to the Treasury Department regarding 
additional authorities, PACOM works actively with interagency partners 
and regional allies to aggressively enforce UN Security Council 
resolutions. To date, the success of this effort supports enforcing the 
strongest sanctions regime against the DPRK. Over the past year and a 
half, the United States has significantly increased the actions taken 
against individuals and entities linked to North Korea's illicit 
activities, many of which have connections to UN sanctions violations.

    2. Senator Perdue. Admiral Harris, you said in your written 
testimony, ``To Beijing's credit, China has taken significant steps to 
enforce the various UNSCRs, but Beijing can and should do more.'' How 
can we pressure China to become more proactive in enforcing sanctions?
    Admiral Harris. The United States holds regular meetings with 
Chinese counterparts to share information on DPRK sanctions evasion 
that could lead to enforcement actions by the Chinese. In my view, 
these meetings should continue, but the United States should also 
consider calling China out publicly when it does not take action on the 
information provided. Additionally, the United States should consider 
increasing the application of sanctions against Chinese entities for 
illicit activities with the DPRK.

    3. Senator Perdue. Admiral Harris, are there additional secondary 
sanctions on Chinese entities that you believe would be effective?
    Admiral Harris. While I defer to the Treasury Department on the 
specifics of secondary sanctions, I believe the U.S. should consider 
secondary sanctions as part of the application of all instruments of 
U.S. national power in support of the Maximum Pressure Campaign.

    4. Senator Perdue. Admiral Harris, President Trump said in January 
that ``Russia is not helping us at all with North Korea. What China is 
helping us with, Russia is denting. In other words, Russia is making up 
for some of what China is doing.'' Can you speak to Russia's role in 
aiding North Korea in sanctions evasion?
    Admiral Harris. Direct evidence of Russian Government involvement 
in sanctions evasion is lacking, but recent activities suggest there 
may have been some degree of complicity in actions intended to shore up 
the North Korean regime. For example, numerous reports late last year 
noted the illicit transfer of oil from Russia to North Korea.
    While Russia generally supports limited UN sanctions, Moscow has 
consistently tried to water-down those sanctions and/or protect 
Russia's individual interests. During the most recent UN debate, Russia 
pushed to allow North Korean workers to remain in country for up to two 
years, an action that assures continued access to cheap North Korean 
labor despite awareness that a large percentage of the earnings flow 
back to Pyongyang. Russia also protects Kim Jong-un from justified 
criticism over his role in raising tensions. Over the past year, 
Russia's Foreign Ministry has repeatedly decried United States military 
deployments and exercises on or near the Peninsula as provocative and 
intended to provoke a North Korean response.
    Russia only has limited military relations with North Korea, with 
no combined training and very limited assistance. I do think, however, 
that Moscow may see an opportunity to try to re-establish some of the 
arms sales programs it previously had with Pyongyang.

    5. Senator Perdue. Admiral Harris, how can we combat North Korean 
sanctions evasion activity more effectively?
    Admiral Harris. The United States works with partners in the region 
to ensure the full implementation and strict enforcement of North 
Korea-related UN Security Council Resolutions. To increase 
effectiveness, the United States welcomes the support of allies and 
partners to maintain pressure on the DPRK, and particularly to enforce 
the maritime-based provisions to prevent illegal exports and disrupt 
illicit ship-to-ship transfers of petroleum.

    6. Senator Perdue. Admiral Harris, do you support the proposal made 
by a number of experts, including Admiral James Stavridis, for a 
maritime task forces to enforce UN sanctions and counter North Korean 
proliferation activities?
    Admiral Harris. [Deleted.]

    7. Senator Perdue. Admiral Harris, who are the likely countries 
that would join the United States in a maritime task force?
    Admiral Harris. [Deleted.]

    8. Senator Perdue. Admiral Harris, is PACOM examining options for 
expanded international cooperation in the maritime domain to increase 
pressure on North Korea?
    Admiral Harris. [Deleted.]
                         jstars isr capability
    9. Senator Perdue. Admiral Harris, as you know, the Air Force has 
zeroed-out its FY19 recapitalization of the JSTARS fleet, when just 
last year this platform was the number 4 acquisition priority of the 
Air Force. While I agree that we eventually need to move to the new 
``system of systems'' in the future, I'm very concerned we'll see 
critical gaps in ISR (especially with GMTI--Ground Moving Target 
Indicator) for you and for troops on the ground. The Air Force is 
planning to take the JSTARS platform offline without acquiring more ISR 
assets. Have they explained to you how they plan to bridge the 
capability gap in GMTI-ISR that will arise in the upcoming 3-12 year 
period? (If possible, I would appreciate a classified and unclassified 
response)
    Admiral Harris. [Deleted.]

    10. Senator Perdue. Admiral Harris, what does this potential gap 
mean for you and your combatant commands' ISR requirements?
    Admiral Harris. [Deleted.]

    11. Senator Perdue. Admiral Harris, how well are your ISR 
requirements being met currently?
    Admiral Harris. [Deleted.]

    12. Senator Perdue. Admiral Harris, in your experience, what 
mission-critical capabilities can be met with JSTARS that can't be met 
with another ISR platform?
    Admiral Harris. [Deleted.]

    13. Senator Perdue. Admiral Harris, could you provide me an example 
of a specific mission that you have commanded whose success depended on 
the JSTARS?
    Admiral Harris. [Deleted.]

    14. Senator Perdue. Admiral Harris, how important to you, as a 
combatant commander, is the role of JSTARS airborne battle management 
and command and control, in addition to being an ISR provider?
    Admiral Harris. [Deleted.]
                   china-russia military cooperation
    15. Senator Perdue. Admiral Harris, Russia and China are displaying 
the highest level of military cooperation in 3 decades, posing an 
escalated threat to the United States and its allies. Russia and China 
show no signs of stopping this level of military coordination for years 
to come. How does this cooperation stand to threaten United States and 
allied security objectives in the Asia Pacific?
    Admiral Harris. While it is true that Russia and China have 
increased military interaction, the relationship remains highly 
superficial and there is little evidence of true military integration 
or interoperability. As such, the threats to U.S. and allied security 
objectives still predominantly come from each country individually. I 
do not anticipate the relationship evolving to a point anytime in the 
near future that would produce integrated or interoperable military 
forces.

    16. Senator Perdue. Admiral Harris, what are you seeing in the 
theater? Does Sino-Russian military cooperation threaten current 
operations?
    Admiral Harris. No. Russia and China pose substantial military 
threats on their own, but the current level of cooperation between them 
does not increase the threat or threaten current operations.
    Bilateral military exercises remain limited with the annual naval 
exercise JOINT SEA as the most noteworthy. Russia and China have held 
this combined naval exercise annually since 2012, alternating hosting 
duties each year. JOINT SEA has modestly increased in size and 
complexity, but still lacks any significant degree of interoperability. 
I characterize the military cooperation as `synchronized' as opposed to 
`integrated.'
    Even so, both Moscow and Beijing incorporate aggressive strategic 
communications into their relationship, claiming levels of partnership 
and cooperation that are not supported by exercise design or execution.
    Finally, the exercise series does provide both navies access to 
areas in which they would otherwise not routinely operate. For example, 
the first phase of the 2017 JOINT SEA took place in the Baltic Sea, 
which allowed China to demonstrate its growing global capabilities; the 
2016 iteration was held in the South China Sea, a non-traditional 
operating area for the Russian Navy.

    17. Senator Perdue. Admiral Harris, are you responding to this 
defense coordination between Russia and China? If so, how?
    Admiral Harris. Russia and China have improved their level of 
military interaction; however, the relationship remains highly 
superficial and there is little evidence of true military integration 
or interoperability. I believe the current level of military activity 
and engagement in the Indo-Pacific deters aggression from these two 
competitors and assures our allies and partners of U.S. commitment to 
their defense and regional stability.

    18. Senator Perdue. Admiral Harris, what are more options for 
response?
    Admiral Harris. I view current military cooperation between China 
and Russia largely as a partnership of convenience at a superficial 
level to try to counter United States objectives in the region. While 
the United States has an interest in ensuring China--Russia military 
cooperation does not evolve toward integration and interoperability. 
China and Russia are not natural allies.
                     china-subs and naval advantage
    19. Senator Perdue. Admiral Harris, Chinese submarines have 
deployed to the Indian Ocean seven times in the past 4 years, and 
Chinese ships have conducted dozens of port visits across Europe, 
Africa, the Middle East, and Asia. This does not mean the PLAN has 
become a global navy, but its presence and influence are expanding. The 
PLA Navy (PLAN) is in the midst of a massive shipbuilding program. If 
this program continues, China will surpass Russia as the world's second 
largest Navy by 2020, when measured in terms of submarines and frigate-
class ships or larger. Last year, Admiral Harris, you told this 
committee that approximately 230 of 400 foreign submarines worldwide 
are located in the Indo-Asia-Pacific. Of these, 160 belong to China, 
Russia, and North Korea. And yet, you told us that as a combatant 
commander, you only gets 50 percent of the submarines you need, based 
on our 52-submarine force (attack sub force). However, the United 
States maintains a critical advantage in undersea warfare. What 
investments is China making to erode this advantage? What is your 
assessment of how successful these efforts have been?
    Admiral Harris. Historically, anti-submarine warfare has lagged 
behind anti-surface and anti-air warfare as a priority for the PLAN. 
Although anti-submarine warfare remains a relative capability gap, 
recent new-construction classes are equipped with a variety of new 
sonar systems, including towed arrays and variable-depth sonars, as 
well as hangars to support embarked helicopters. These helicopters are 
fitted with search radars, dipping sonar, sonobuoys, torpedoes, and 
depth charges. The anti-submarine warfare variant of the Y-9 fixed wing 
aircraft is equipped with a magnetic anomaly detector boom and a large 
surface search radar. Recent exercises suggest the PLAN has 
strengthened its training cycle and has made some progress in deep 
water anti-submarine warfare. The PLAN conducts complex multi-
discipline warfare training throughout the year, and the scope of naval 
training has broadened to include more robust anti-submarine warfare.

    20. Senator Perdue. Admiral Harris, is China on course to surpass 
the United States Navy in the same terms? If so, when?
    Admiral Harris. I believe that China will not surpass the United 
States Navy in the next several years. However, I expect to see a 
consistent erosion of United States advantage in this domain as China 
fields new and better capabilities, integrates them into a coherent 
system of systems, and trains to more effectively operate them. This 
assessment should generate a sense of urgency to maintain and improve 
U.S. undersea capabilities--a critical advantage that our nation must 
retain.
    That said, United States and Chinese naval capabilities do not 
easily support direct comparison. For example, China's submarine force 
is very different from that of the United States Navy, but has 
characteristics well suited for its more limited mission set. Most of 
China's submarine force is conventionally powered, with anti-ship 
cruise missiles, but without towed arrays. These submarines are 
optimized for regional missions that concentrate on anti-surface 
warfare near major sea lines of communication. China's small nuclear 
attack submarine force is more capable of operating further from the 
Chinese mainland; conducting intelligence, surveillance and 
reconnaissance; and anti-surface warfare missions. Finally, China's 
submarines lack optimization for two missions at the core of the United 
States submarine force: anti-submarine warfare and land attack.
                   burma (myanmar)--rohingya genocide
    21. Senator Perdue. Admiral Harris, since clashes in Rakhine broke 
out between the Rohingya and the Burmese military in last August, more 
than 688,000 Rohingya Muslims have fled Burma's Rakhine State to escape 
the military's campaign of ethnic cleansing. Many of these refugees 
fled to Bangladesh. The atrocities committed by Burmese security 
forces, including mass killings, sexual violence, and widespread arson, 
amount to crimes against humanity. Secretary Mattis said, ``This is a 
tragedy that's worse than anything that CNN or BBC has been able to 
portray about what has happened to these people.'' What are your views 
on the terrible atrocities that are ongoing in Burma?
    Admiral Harris. USPACOM views the atrocities in Burma as tragedy 
and a major setback and ongoing challenge in democracy for the Aung 
Sang Suu Kyi (ASSK) administration. Lack of civilian control of the 
military will continue to plague ASSK's efforts to stabilize and 
control military actions throughout Burma. This atrocity will have a 
long lasting effect impacting the ability to conduct military to 
military engagements.

    22. Senator Perdue. Admiral Harris, has PACOM played any role in 
facilitating aid to dispersed Rohingya refugees?
    Admiral Harris. USPACOM monitored the situation from the onset and 
stayed in constant communication with the United States Embassies in 
both Burma and Bangladesh. USPACOM remains ready to support at the 
request of the Department of State and direction from the Department of 
Defense. To date, no request has been made, and United Nations and Non-
Governmental Organizations are facilitating the dispersal of aid. 
USPACOM did conduct bilateral engagements with Senior Government 
Officials in Bangladesh and Thailand encouraging support for the 
refugees.

    23. Senator Perdue. Admiral Harris, how has this refugee crisis 
affected stability in that region?
    Admiral Harris. The Rohingya crisis has strained Burma's political 
relations with regional countries and increased tensions between 
Bangladesh and Burma. In the long-term, the large influx of Rohingya 
could create instability in southeastern Bangladesh due to tensions 
between the refugees and local population over competition in the 
informal labor market, rising food prices, and environmental 
degradation. The lack of sustainable employment opportunities for the 
Rohingya and protracted delays in the repatriation process could also 
exacerbate these tensions.
    The approaching summer monsoon season in South Asia will place 
significant additional stress on the displaced Rohingya. Severe weather 
is likely to increase disease, worsen living conditions, and complicate 
already insufficient sanitation systems. International pressure on the 
Governments of Bangladesh and Burma will almost certainly increase. In 
short, an already difficult situation will become even more difficult.
                 chinese investment in us-cfius reform
    24. Senator Perdue. Admiral Harris, gaps in the CFIUS process have 
allowed China to weaponize investment to achieve the back-door transfer 
of dual-use United States technology and related know-how, aiding 
China's military modernization and jeopardizing the ability of the 
United States to maintain its overall military advantage. CFIUS was not 
designed to stop investment-driven technology transfers, and many such 
transactions are occurring today, carefully designed to sidestep CFIUS' 
limited jurisdiction. Nor does CFIUS currently cover real estate 
transactions near military bases (or other sensitive national security 
facilities), which could pose a risk to national security. I also sit 
on the Banking Committee, which oversees this matter, so what is your 
view on CFIUS and do you believe we need reforms?
    Admiral Harris. Existing and emerging technologies are vital to 
maintaining our technological edge and military superiority. The CFIUS 
process is absolutely essential to protecting our defense technologies, 
military capabilities, and critical infrastructure. I likewise fully 
support the pending Foreign Investment Risk Review Modernization Act 
(FIRRMA) legislation. I'm pleased to see that the interests and 
concerns of the security community are increasingly represented in the 
CFIUS process, and that FIRRMA strengthens the process. I particularly 
appreciate the intent of FIRRMA to broaden the scope to include review 
of real estate transactions in close proximity to military facilities. 
I believe continuing to increase DOD's voice in the CFIUS process will 
help realize the intent of CFIUS and FIRRMA.

    25. Senator Perdue. Admiral Harris, what threats currently exist 
with Chinese investment in the United States?
    Admiral Harris. The United States has an open economy that is the 
largest in the world and the top destination for foreign investment. It 
attracts investment from all over the world, including China. It's only 
natural that China, as the world's second-largest economy, wants to 
increase investment in the United States. However, Beijing does not 
give our firms reciprocal access to its markets, which stifles fair and 
productive competition.
    Additionally, Beijing exploits United States open markets to 
promote its own strategic interests at the expense of ours and those of 
our allies and partners. The Chinese Communist Party has an 
unparalleled willingness and ability to leverage its economy for its 
own ends. It uses both private and state-owned Chinese companies and 
investors to advance the objectives of its overarching strategy to 
``rejuvenate the Chinese nation.'' When a Chinese entity seeks to 
invest in a strategic sector in the United States, it is often unclear 
at the outset if it is simply an ordinary business transaction, or if 
it is being undertaken in service of the regime. Often, the drivers are 
mixed. In many cases, Chinese investments enable regime goals at odds 
with United States interests in several key areas. First, China seeks 
to build a ``world-class military'' and uses extensive theft, 
absorption, and purchase of United States technology and expertise to 
advance its military modernization. Second, Beijing seeks to reshape 
international laws, regulations and technology standards to better 
align with China's political model and the authoritarian tools that 
accompany it.

    26. Senator Perdue. Admiral Harris, has China, in your view, been 
weaponizing investment?
    Admiral Harris. I believe China has weaponized investment. As I 
noted previously, the Chinese Communist Party has an unparalleled 
willingness and ability to leverage economics--including Chinese 
overseas investments--to serve regime objectives. China seeks to build 
a ``world-class military'' capable of deterring the United States and 
its allies, winning should conflict occur, and diminishing U.S. 
presence in the Indo-Pacific. In pursuit of this aim, Beijing 
institutes practices, such as ``military-civilian integration,'' that 
transfer advanced technologies and exquisite expertise acquired via 
licit and illicit access to United States private sector and research 
institutions to make the Chinese military more capable and lethal. 
China also frequently attaches political strings to its overseas trade 
and investments--turning on and off its economic spigots, or 
threatening to do so, to persuade recipient countries to comply with 
Beijing's demands.
                               __________
            Questions Submitted by Senator Senator Ben Sasse
      artificial intelligence and intelligence, surveillance, and 
                          reconnaissance (isr)
    27. Senator Sasse. Admiral Harris, in your prepared statement, you 
said you are concerned about China's investment in artificial 
intelligence (AI). You wrote that the Indo-Pacific requires, 
``persistent and intrusive ISR to provide indications, warning, and 
situational awareness across a vast geographic area'' and that our 
``ISR capabilities must be suited to our unique operating 
environment.'' Presumably, China has reached the same conclusions about 
the value of ISR in the region. Have you seen any indications that 
China is leveraging its AI investments to close the ISR capability gap?
    Admiral Harris. China is clearly researching and considering how AI 
can be used to improve development and use of ISR capabilities 
(satellites, unmanned aerial systems, reconnaissance aircraft, etc.). 
China released its New Generation Artificial Intelligence Development 
Plan in July 2017 which articulated its ambition to lead the world in 
AI by 2030. Some of the concepts could be used to enable better, 
``smarter'' ISR operations include intelligent and autonomous unmanned 
systems (such as swarm intelligence), AI-enabled data fusion, 
information processing, intelligence analysis, and intelligent support 
to decision making. China has pursued closer civil-military focus for 
AI, institutionalizing the relationship between cutting edge research 
efforts and military requirements.

    28. Senator Sasse. Admiral Harris, how are we using AI to maintain 
or grow our ISR advantage in the Indo-Pacific?
    Admiral Harris. [Deleted.]
                     cyber partnerships with allies
    29. Senator Sasse. Admiral Harris, in your prepared statement you 
noted, ``the two most capable cyber actors worldwide are Russia and 
China. Both of these countries have incorporated cyber into their joint 
warfighting doctrine and routinely exercise these capabilities 
alongside more traditional elements as a force multiplier. In fact, 
China values cyber so highly it created the Strategic Support Force to 
integrate and synchronize cyber operations.'' The 2018 National Defense 
Strategy aims to Compete, Deter, and Win alongside allies and partners. 
In the context of the cyber domain, how is PACOM aligning itself with 
allies and partners in the Indo-Pacific?
    Admiral Harris. [Deleted.]

    30. Senator Sasse. Admiral Harris, do any of our treaty allies and 
partners in the Indo-Pacific have offensive cyber capabilities? If so, 
are they using them?
    Admiral Harris. [Deleted.]
                               __________
           Questions Submitted by Senator Kristin Gillibrand
                            korean peninsula
    31. Senator Gillibrand. Admiral Harris, at the end of February, 
media reported on an unreleased UN report claiming that North Korea has 
been shipping acid-resistant tiles, valves, and other chemical weapons-
making supplies to the Syrian Government, as well as providing 
technicians that have been spotted working at chemical weapons and 
missile facilities inside Syria. According to reports, these shipments 
have gone on for a number of years, and ties between North Korea and 
Syria go back decades. In our CENTCOM hearing earlier this week, 
General Votel noted in his statement that ``For decades, North Korea 
widely proliferated ballistic missile expertise and materials to a 
number of actors, including Iran and Syria.'' What can we do to better 
prevent North Korea from providing this illicit aid to the Syrian 
Government, and how can we prevent Syrian funds from enriching the Kim 
regime?
    Admiral Harris. [Deleted.]

    32. Senator Gillibrand. Admiral Harris, does the fact that this 
illicit trade continues reflect a failure to detect North Korea 
shipments, or an inability to interdict them?
    Admiral Harris. [Deleted.]

    33. Senator Gillibrand. Admiral Harris, what role, if any, has 
China played with regard to stopping this trade?
    Admiral Harris. With regard to impeding the movement of personnel 
associated with missile or WMD programs, China acts when provided with 
evidence associating individuals with proscribed activities or when 
individuals have been `designated' by a sanctioning entity. However, 
China's enforcement of its domestic export control laws and 
international nonproliferation commitments is inconsistent. North 
Korean proliferation entities often use China's large role in global 
commercial markets to mask their illicit activity among legitimate 
trade transactions. The combination of weak Chinese enforcement and 
North Korean deception techniques presents a persistent challenge to 
United States and allied counter proliferation efforts.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                               diplomacy
    34. Senator Blumenthal. Admiral Harris, would you agree that we 
must strengthen our diplomatic arm of our efforts to address North 
Korea's nuclear ambitions? How have key diplomatic vacancies impacted 
your efforts?
    Admiral Harris. PACOM continues to support the Maximum Pressure 
Campaign, which has exerted an unprecedented level of pressure on North 
Korea to denuclearize. While the top United States diplomatic post on 
the Korean Peninsula has remained vacant for some time, this is being 
rectified. I believe that United States Government priorities and 
security interests are well represented and carried out in the Korean 
Peninsula. The State Department's Charge d'Affaires at the embassy in 
Seoul is a long-time Foreign Service Officer who has a strong 
relationship with the Republic of Korea. Furthermore, Secretary 
Pompeo's May 15 lifting of the State Department's hiring freeze will 
give the domestic bureaus and missions overseas the ability to fill 
essential positions vacated after December 31, 2017, to further advance 
U.S. foreign policy goals.

    35. Senator Blumenthal. Admiral Harris, the New York Times reported 
recently that satellite imagery indicates North Korea may be making new 
nuclear bomb fuel. What can you tell us about the activity at the 
reactor site?
    Admiral Harris. [Deleted.]
                          north korea strategy
    36. Senator Blumenthal. Admiral Harris, the FY18 NDAA required the 
President to produce a North Korea strategy within 90 days of the 
legislation becoming law. We have hit the deadline, yet no strategy has 
been produced. Are you aware of this strategy required by the most 
recent NDAA? Have you been consulted? Do you know when we will see the 
strategy?
    Admiral Harris. Yes, I am aware of the requirement in the FY 2018 
NDAA. PACOM has provided input and support via the Joint Staff and the 
Secretary's staff. I defer to the White House and the office of the 
Secretary of Defense (OSD) on the timing of the release.
                               submarines
    37. Senator Blumenthal. Admiral Harris, both Russia and China are 
modernizing their submarine fleets. As you testified before this 
committee both last and this year, ``potential adversary submarine 
activity has tripled from 2008 levels, requiring an increase of U.S. 
activity to maintain undersea superiority.'' Can you provide an update 
on our capabilities, as well as our adversaries' progress? How advanced 
are their anti-submarine warfare capabilities?
    Admiral Harris.
    United States: No country can match our ability to operate under 
the sea, but that is a perishable advantage that China and Russia are 
working to close. Therefore, we must continue to resource the undersea 
warfare capabilities that reside in the Navy today. We must also 
continue investments in our submarine and anti-submarine warfare 
forces, such as the Virginia-class SSN's and Mk-48 torpedoes. If we 
don't, China and Russia will close that gap.
    Russia: Although the Russian Federation Navy is mainly made up of 
Soviet-era surface ships and submarines, an extensive modernization 
program is underway, focusing first on the submarine force. The Russian 
Pacific Fleet has received two Dolgorukkiy SSBNs, will eventually 
receive Severodvinsk SSGNs, and a new fifth-generation general purpose 
nuclear-powered submarine is under development. The IL-38 MAY Maritime 
Patrol Aircraft has undergone numerous updates over the decades. The 
latest operational development concerns the IL-38N (Novella) variant 
that received an upgraded anti-submarine warfare system installation.
    China: The Chinese People's Liberation Army Navy (PLAN) is rapidly 
retiring legacy combatants in favor of larger, multi-mission ships 
equipped with advanced anti-submarine weapons and sensors. The PLAN 
remains engaged in a robust surface combatant construction program; the 
latest ships are anti-submarine warfare variants with towed-array 
sonars. The PLA is making gradual progress in the undersea domain but 
continues to lack a robust deep-water anti-submarine warfare 
capability.

    38. Senator Blumenthal. Admiral Harris, you note your support for 
the Navy's 2016 Force Structure Assessment that included an increased 
attack submarine requirement--from 48 to 66. Last month, the Navy 
released its FY19 Shipbuilding Plan, which considers building not only 
two attack submarines per year for the next 30 years, but possibly 
three per year in some years (FY21, 22, 25 at the earliest) to reach 
the 66 requirement sooner than the late 2040s. Would you support this? 
How would such an acceleration help PACOM?
    Admiral Harris. [Deleted.]

    39. Senator Blumenthal. Admiral Harris, what more can we do in 
terms of our submarine fleet to ensure that we remain able to mitigate 
any maritime threat in the Pacific?
    Admiral Harris. SSNs remain one of my top three readiness concerns 
along with critical munitions and fifth generation fighters. The SSN 
inventory stands at 52 but in the 2020s it will drop to the mid-40s. 
Additional investments made today will help fill tomorrow's 
requirements. So, I fully support the procurement of the 3rd Virginia 
Class SSN and additional Mk-48 torpedoes. The U.S. should also consider 
life extension programs for a number of later model Los Angeles Class 
SSNs. No country can match our ability to operate under the sea, but if 
we don't continue to resource undersea warfare capabilities, China and 
Russia will close that gap.
                           pacific collisions
    40. Senator Blumenthal. Admiral Harris, we were all very saddened 
and concerned by the multiple maritime mishaps in 2017 in the Pacific 
that led to the death of 17 sailors, including two from Connecticut. 
What was your involvement with the Navy's review of the fatal 
collisions? Did you provide input for the reviews that were conducted?
    Admiral Harris. I had no involvement with the Navy's review of the 
fatal collisions.

    41. Senator Blumenthal. Admiral Harris, following these tragedies, 
what steps have you taken to improve operations?
    Admiral Harris. As the PACOM Commander I supported the Navy's 
efforts to improve readiness for all Pacific Fleet naval forces.

    42. Senator Blumenthal. Admiral Harris, how has the loss of two 
U.S. destroyers equipped with the Aegis ballistic missile defense 
system impacted PACOM's ability to carry out its mission?
    Admiral Harris. The Navy mitigated the loss of the two Aegis 
Ballistic Missile destroyers through a homeport shift of one destroyer 
(USS Milius) from San Diego to Japan, and a change in the rotational 
deployment of USS O'Kane from CENTCOM to PACOM. To cover CENTCOM, the 
Navy deployed an additional Aegis ship from the east coast. PACOM 
experienced minimal impact to meeting its assigned missions.

    43. Senator Blumenthal. Admiral Harris, as I understand that no 
replacement ships have been sent to the Pacific, how has this impacted 
the operational tempo of those ships and sailors required to fill the 
gaps?
    Admiral Harris. The Navy mitigated the loss of the two Aegis 
Ballistic Missile destroyers through a homeport shift of one destroyer 
from San Diego to Japan, and a change in the rotational deployment of 
another destroyer from CENTCOM to PACOM. These actions allowed the 
operational tempo for PACOM's forward deployed ships to remain constant 
while focused on improving readiness and supporting operational 
requirements.
                       north korea cyber revenue
    44. Senator Blumenthal. Admiral Harris, North Korea's cyberattacks 
are estimated to provide the regime with as much as $1 billion per 
year--a staggering figure equivalent to one-third of the country's 
exports. What are you doing to blind North Korea's cyber capabilities 
to prevent the regime from continuing to launch offensive cyber 
operations that provide illicit revenue for their nuclear weapons 
program?
    Admiral Harris. [Deleted.]

    45. Senator Blumenthal. Admiral Harris, last month, the 
Administration announced its largest tranche of sanction designations 
against North Korea, yet this did not focus on their cyber activity. Do 
you agree that we must do more to make North Korea pay a steeper price?
    Admiral Harris. Yes. The Administration has focused on North 
Korea's nuclear and ballistic missile activities with the State 
Department-led Maximum Pressure Campaign synchronizing all instruments 
of United States national power--including diplomatic overtures, 
economic sanctions, and continued military readiness--combined with the 
efforts of the international community. PACOM fully supports the 
Maximum Pressure Campaign with military activities and capabilities. 
While these whole of United States Government and international efforts 
have contributed to Kim Jong-un's recent willingness to negotiate 
denuclearization, North Korea's cyber activity has changed very little.

    46. Senator Blumenthal. Admiral Harris, in December, DHS officially 
attributed the WannaCry attack that impacted over 300,000 victims in 
150 countries to the North Korean Government. While attribution is 
important, it is not sufficient. Do you agree that North Korea must pay 
a steeper price for its cyberattacks? Do you agree that our actions so 
far have not made North Korea realize that they have more to lose than 
gain with their behavior?
    Admiral Harris. Yes to both questions. Deterring malicious cyber 
activity is a difficult challenge, especially with North Korea, a 
country that does not accept or honor international rules and laws. 
United States Government actions to date have not deterred North Korea 
from conducting these types of malicious cyber activities. I believe 
that cyberattacks against the U.S. should result in consequences for 
the actor. The United States should employ a whole-of nation approach, 
in conjunction with allies and partners, to change North Korea's 
decision calculus about the cost of continuing its malicious cyber 
activity.

    47. Senator Blumenthal. Admiral Harris, North Korean hackers often 
operate from abroad, notably in China as they rely on its internet 
structure. What should be done to pressure China and others to crack 
down on North Korean hackers and prevent North Korea from accessing 
their networks?
    Admiral Harris. The United States should consider publishing timely 
reports of North Korean malicious cyber activity originating from 
abroad to convince China and others to crack down on these hackers and 
deny access to their networks. This will likely require establishing 
new and responsive processes to develop interagency consensus and 
crafting appropriate exceptions to national disclosure policies. If the 
U.S. can empower the international community with timely and relevant 
knowledge of such internet use, all countries stand to benefit from 
broader leadership to influence and potentially eliminate this 
malicious activity.
                               __________
              Questions Submitted by Senator Joe Donnelly
                       conventional prompt strike
    48. Senator Donnelly. Admiral Harris, it is my understanding that 
PACOM--alongside STRATCOM and EUCOM--has identified the development and 
fielding of a Conventional Prompt Strike system as a high priority. Is 
that correct and, if so, can you elaborate on that need?
    Admiral Harris. [Deleted.]

    49. Senator Donnelly. Admiral Harris, in your view, what are the 
tradeoffs between a land-based versus a sea-based capability?
    Admiral Harris. [Deleted.]
                               __________
              Questions Submitted by Senator Mazie Hirono
             joint interagency task force-west (jiatf-west)
    50. Senator Hirono. Admiral Harris, Congress has made changes over 
recent years on how the U.S. military works with its allies. This 
includes efforts to streamline security cooperation, and how the 
military contributes to the fight against illicit drug trafficking. 
Within your area of responsibility (AOR) are countries which produce 
and export products which go into the production of illicit drugs as 
well as final products themselves. This includes products contributing 
to our opioid epidemic. I am interested in determining if changes to 
security cooperation rules have impacted the operations and 
effectiveness of the Joint Interagency Task Force West to work with our 
allies in combatting the flow of illicit precursor and final products.
    Can you provide a brief status on how JIATF-West is doing to combat 
illegal drug operations, such as those related to Chinese produced 
Fentanyl which get sent to our country?
    Admiral Harris. JIATF West works in concert with foreign law 
enforcement and the U.S. interagency to identify and disrupt drug 
threats. Main focus areas include conducting partner capacity building 
programs, sharing intelligence, and assisting in the coordination of 
foreign partner interdiction efforts. JIATF West's counter fentanyl 
activities directly support ongoing U.S. law enforcement cases 
conducted by Homeland Security Investigations and the Drug Enforcement 
Administration. This work has primarily served to identify Chinese 
manufacturing and shipping networks, contributing to investigations of 
specific producers, vendors and distributors within China.

    51. Senator Hirono. Admiral Harris, how have congressional security 
cooperation changes impacted JIATF-West in doing its job, specifically 
focusing on second or third order negative effects? This includes 
things that have helped or hindered operational effectiveness and 
timeliness. Would you recommend and modifications to existing laws and 
regulations which would improve the abilities of JIATF-W in conducting 
its missions?
    Admiral Harris. Changes to security cooperation promulgated through 
the fiscal year 2017 and fiscal year 2018 National Defense 
Authorization Acts have reduced JIATF West's ability to engage and 
train partner nation law enforcement. Specifically, the new authorities 
have made it problematic to conduct long-term budgetary planning. 
Previously, the DOD Counternarcotics (CN) community could rely upon the 
predictability of dedicated funds in the DOD CN appropriation for train 
and equip activities which enabled long-term planning. The new security 
cooperation authorities require the DOD CN community to compete 
annually for Defense Security Cooperation Agency funds to conduct these 
activities, with uncertainty in the resultant funding outcomes. This 
uncertainty limits JIATF-West's ability to build enduring partnerships 
and effectively increase partner capacity/capability over the long 
term.
    I recommend amending 10 USC Sec.  333 to allow funding of CN train 
and equip activities using DOD Drug Interdiction and Counter-drug 
Activities, Defense.
       energy resilience-fuel and electric supply vulnerabilities
    52. Senator Hirono. Admiral Harris, there are concerns of the 
threats posed by our adversaries in the Indo-Pacific region to disrupt 
our ability to deliver fuel or electricity in support of PACOM's 
mission. In the region, DOD relies on vulnerable fuel and electric 
supplies to conduct its military operations, where power outages on 
military installations or fuel supply disruptions could hinder DOD's 
ability to conduct critical military operations. In your testimony, you 
state that we must ensure we have the right fuel, in the right amount, 
at the right location, at the right time, for PACOM to project power 
throughout the Indo-Pacific under combat conditions.
    Can you discuss the capabilities of China and Russia to disrupt our 
electric or fuel supplies in the Indo-Pacific region? Are we prepared 
to respond, and how?
    Admiral Harris. U.S. adversaries have the capability to disrupt the 
flow of fuel and potentially electric supplies. Additionally, the U.S. 
operates fuel systems that may be vulnerable to disruption through a 
loss of power. However, these systems have redundant capabilities, such 
as back-up power sources and manual operating systems, which mitigate 
the impact of a power loss.
    PACOM has sufficient fuel capacity in theater to support forces for 
contingency operations. However, the strategic placement of fuel stocks 
and the availability of commercial shipping to deliver it present 
concerns in a contested and denied environment. Annually, PACOM 
evaluates OPLAN requirements with the Defense Logistics Agency to 
ensure strategic fuel reserves and the global fuel market can meet the 
demand of contingency forces.

    53. Senator Hirono. Admiral Harris, based on expected growth in 
military capabilities in the Indo-Pacific region, do you believe we are 
appropriately planning for the growing energy demands in the region? 
What can be done better to ensure energy demands are met and will even 
be met during a contingency?
    Admiral Harris. PACOM plans for the growing energy demands in the 
region, but has some significant challenges. I view bulk fuel as the 
most critical commodity to sustain operations. In planning for 
contingencies, PACOM assumes the loss of access to fixed forward fuel 
reserves, which makes PACOM forces dependent on bulk fuel deliveries 
originating outside of the second island chain. This places a greater 
reliance on commercial tankers and the capability to distribute fuel 
from the tankers to other at-sea platforms or to locations on land. To 
ensure the ability to meet future energy demands to sustain operations, 
the U.S. should grow the number of combat refueling ships and expand 
the capability to move bulk fuel from commercial tankers to combat 
ships and ashore.
                  china/russia: military modernization
    54. Senator Hirono. Admiral Harris, in your testimony, you state 
that China's provocative and destabilizing actions in the South China 
Sea continue unabated. That, China's historically unprecedented 
economic development has enabled an impressive military buildup that 
could soon challenge the United States across almost all domains. You 
specifically express concern that the PLA Navy (PLAN) is in the midst 
of a massive shipbuilding program. And that if this program continues, 
China will surpass Russia as the world's second largest Navy by 2020, 
when measured in terms of submarines and frigate-class ships or larger.
    Admiral Harris, can you quantify the naval threat and capabilities 
of China and, for that matter, Russia in the Indo-Pacific region?
    Admiral Harris. With more than 300 ships, the PLA Navy is the 
largest in Asia. The PLAN has undergone a rapid shipbuilding and 
modernization program over the past decade, which has replaced older 
ships and submarines with more modern and capable platforms, many of 
which employ anti-air and anti-ship missiles that are among the best in 
the world. With over 20 advanced destroyers, over 90 frigates or 
corvettes, and nearly 60 attack submarines, the PLA Navy can maintain 
persistent presence throughout the adjacent seas and project 
substantial maritime power throughout the region. China currently 
operates one developmental aircraft carrier. The second carrier has 
begun early-phase sea trials and could reach initial operational 
capability as early as late 2019.
    Over the past decade, the PLAN has steadily expanded its operating 
areas, number of days spent at sea, and scale and complexity of 
training. Not only is the PLAN getting bigger, it is also getting 
better.
    Though Russia's navy is large, the Russian Pacific Fleet 
(RUSPACFLT) in the Indo-Pacific region is relatively small compared to 
its neighbors' navies. For example, Russia has only, at most, seven 
major combatants available for operations in the Pacific. These ships 
include one cruiser, one guided missile destroyer, four anti-submarine 
destroyers and one new frigate. Russia also has two of the new 
Dolgorukiy SSBNs and is slated to receive two more.
    Modernization is ongoing and will significantly improve the 
RUSPACFLT capabilities. Russia is slated to receive eight new frigates 
by 2025, and six new KILO-class diesel submarines. These vessels will 
be equipped with the Kalibr cruise missile weapons system--the same 
type Russia used to launch cruise missiles into Syria and which pose a 
significant threat to land targets, ships and submarines.

    55. Senator Hirono. Admiral Harris, in your opinion, what 
recommendations would you offer to counter the naval threat China and 
Russia pose in the region? Are future authorizations needed to counter 
this threat?
    Admiral Harris. [Deleted.]
               anti-submarine warfare (asw) capabilities
    56. Senator Hirono. Admiral Harris, your written testimony 
describes significant advances in the capabilities and quantities of 
China's submarine force as well as the modernization of Russian 
submarines. In the past, the Navy based several squadrons of P-3s at 
Barber Point and later at Kaneohe Bay. Once the successor aircraft, the 
P-8, began operations, decisions were made with a significant emphasis 
on efficiencies to move a vast majority of P-3s to Florida and 
Washington State. There is a plan to keep two P-8s in Hawaii, along 
with rotational crews. Further, the current and future submarine 
threats from China and Russia will also be primarily located within the 
Indo-Pacific.
    Should the Navy and PACOM take a fresh look at the basing of P-8s, 
given our primary threats will be in the Indo-Pacific, and to allow the 
P-8 fleet to be timely, responsive, and agile to satisfy PACOM's 
intelligence, surveillance, and reconnaissance (ISR) and ASW 
requirements?
    Admiral Harris. [Deleted.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                    UNITED STATES STRATEGIC COMMAND

    The committee met, pursuant to notice, at 9:24 a.m. in Room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe 
presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Cruz, Sasse, Scott, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Kaine, King, Heinrich, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The committee today is meeting to hear testimony on the 
posture of the U.S. Strategic Command, and we welcome our 
witness, General Hyten, Commander of STRATCOM.
    The Trump Administration's National Defense Strategy 
prioritizes the reemergence of long-term strategic competition. 
Nowhere is this reality more evident than in Russia and China 
intensifying their efforts in the nuclear, cyber, and space 
domains, which are a focus of a Strategic Command mission.
    The Nuclear Posture Review released last month orients our 
nuclear enterprise to address these strategic competitors. The 
NPR [Nuclear Posture Review] offers continuity in the U.S. 
nuclear modernization efforts and wisely advocates developing 
additional capabilities to achieve our fundamental goal of 
nuclear deterrence.
    Our potential adversaries are not standing still. In his 
recent state of the nation address, Putin unveiled new nuclear 
weapons, including heavy, mobile ICBMs [Intercontinental 
Ballistic Missiles] and hypersonic glide vehicles. Meanwhile, 
Russia's continued violations of both the INF [Intermediate-
Range Nuclear Forces] and Open Skies treaties threaten to 
undermine strategic stability.
    Then there is China. China is rapidly expanding its missile 
forces, including development of new ICBM capabilities and 
advanced ballistic missile submarines. It recently developed a 
new nuclear capable strategic bomb, achieving a nuclear triad 
for China.
    Beyond our strategic competitors threats from North Korea 
and Iran persist. In particular, recent North Korean missile 
tests suggests that they are capable of striking the Homeland 
with an ICBM. I would say I am more optimistic now about North 
Korea than I was just a short while ago. I think our response 
to North Korea's threat was one that actually produced some 
good results. So I think that right now I really believe that 
the meeting is going to take place with Kim Jong-un and our 
President.
    Russia and China are also increasingly active in space, 
intent on challenging our domain superiority to achieve an 
asymmetric advantage. Both countries invested significant 
resources in anti-satellite ISR [intelligence, surveillance and 
reconnaissance], direct energy, jamming, and cyber 
capabilities. We have got to do more to meet these challenges.
    Thank you for being here, General Hyten.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Hyten, thank you for your service to the country 
and for testifying on the posture of the United States 
Strategic Command as we prepare for the fiscal year 2019 
National Defense Authorization Act.
    I would like to hear from you about a number of topics 
based on your office call with me last week. Thank you again 
for making time.
    First and foremost is the Administration's Nuclear Posture 
Review. It adopts many of the same premises as the 2010 posture 
review that we will not use nuclear weapons against nations in 
good standing under the Nuclear Nonproliferation Treaty, but we 
always reserve the right in cases of extreme circumstances to 
use nuclear weapons. It affirms the importance of 
nonproliferation but places an emphasis on the changed threat 
conditions that exist today versus 2010. It reaffirms the 
importance of the 2010 review and modernizing the triad of 
delivery platforms and weapons and their nuclear command, 
control, and communication, or NC3 systems. But it also 
proposes two supplemental systems: a low-yield submarine-
launched ballistic missile and a sea-based cruise missile which 
was dropped in the 2010 posture review because it was not being 
deployed and maintained. I am referring to the sea-based cruise 
missile.
    While I agree with much of the NPR, I have concerns about 
the low-yield submarine-launched warhead. It is my 
understanding that this system is in response to Russia's 
military doctrine of using a small-yield nuclear weapon as a 
means to escalate to deescalate or escalate to win a 
conventional conflict. The Russian doctrine of escalate to 
deescalate could easily spin out of control if our response to 
their low-yield weapon is to use a similar one which could 
escalate into exchange of larger weapons. We have to devote 
considerable effort to war-gaming this problem and ensure that 
existing systems, both conventional and nuclear, cannot meet 
this doctrinal challenge of escalate to deescalate.
    In any case, such a proposal certainly opens up a debate of 
deeply held opinions. While this debate may be important to 
have--I think it is important to have, indeed--I worry that it 
may disrupt the bipartisan consensus that presently ensures the 
modernization of the triad and NC3 system. This process will 
take decades and I believe it should be our highest priority 
and sole focus.
    Beyond the nuclear mission, General, you also have an 
increasingly important space mission. I realize much of this is 
classified, but it is imperative that you communicate in an 
appropriate format what this budget request proposes and how it 
addresses the threats we face.
    You are also responsible for synchronizing global missile 
defense plans and operations. I would like to hear your 
thoughts on the state of our Homeland and regional systems, how 
we need to improve reliability and address advancing threats.
    Your command is also responsible for spectrum operations 
and electronic warfare. I would like to know what your command 
has been advocating to make this integrated effort across the 
Department of Defense.
    Strategic Command, as its name implies, is about deterrence 
with near-peer competitors. Today, deterrence is a seamless 
continuum between land, sea, air, electronic spectrum, and 
space. You have many issues on your plate, and I look forward 
to your testimony.
    Thank you very much, sir.
    Senator Inhofe. General Hyten, you are recognized for an 
opening statement. Your entire statement will be made a part of 
the record.

  STATEMENT OF GENERAL JOHN E. HYTEN, USAF, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Hyten. Thank you, Senator Inhofe, Ranking Member 
Reed, members of the committee. I am honored to be here today 
in a continuing privilege for me to represent the 184,000 
Americans, the 184,000 men and women performing the missions of 
U.S. Strategic Command every day.
    I want to start by thanking you for your enduring support 
to our nation's defense.
    As we sit here today, it is important to note that the 
appropriations bill funding our military is still awaiting full 
approval by the Congress. Passage of this bill is essential in 
ensuring our Department maintains the ability to field the most 
lethal, capable, and resilient military in the world. I remain 
optimistic that Congress will pass this bill as the existing 
continuing resolution expires this Friday. Reliance on 
continuing resolutions in lieu of stable budgets delays 
mission-critical modernization, degrades troop morale, and 
impedes readiness recovery. But I am grateful for this 
committee's continued support. But timely budgets are essential 
in order to ensure our all volunteer force remains fully 
trained and equipped to address the nation's existing and 
emerging future threats.
    The first and most important message I want to deliver 
today is that the forces under my command are fully ready to 
deter our adversaries and respond decisively should deterrence 
ever fail. We are ready for all threats. No one should doubt 
this. We just have to make sure that the future STRATCOM 
commanders that come after me will always be able to make this 
statement.
    STRATCOM is a global warfighting command. We set the 
conditions across the globe as the ultimate guarantor of our 
national and allied security. Our forces and capabilities 
underpin and enable all other joint force operations. STRATCOM 
forces are dispersed across the globe, under the sea, on the 
land, under the land, in the air, across cyber and into space. 
The men and women of this command are responsible for strategic 
deterrence, nuclear operations, space operations, joint 
electromagnetic spectrum operations, global strike missile 
defense analysis, and targeting, and still cyberspace 
operations until Cyber Command is elevated.
    Today, our country is challenged by multiple adversaries 
with an expanding range and capabilities available to them. To 
maintain military superiority in this multipolar, all-domain 
world, we must out-think, out-maneuver, our-partner, and out-
innovate our adversaries. Deterrence in the 21st Century 
requires the integration of all our capabilities across all 
domains, enabling us to respond to adversary aggression anytime 
anywhere.
    The bedrock of our nation's deterrence continues to be our 
safe, secure, ready, and reliable nuclear triad. The surest way 
to prevent war is to be prepared for it, and while the current 
triad continues to provide the backbone of our national 
security, we will eventually consume the last remaining margin 
from our investments made during the Cold War. And our 
modernization programs are critical and include the B-21 
bomber, the Columbia-class ballistic missile submarine, the 
ground-based strategic deterrent, the long-range standoff 
cruise missile, nuclear command and control, and life-extended 
nuclear warheads, which will provide, without a doubt, the 
nuclear deterrent capability that our nation needs now and well 
into the future.
    The recently completed 2018 Nuclear Posture Review 
reinforces and clearly defines longstanding national objectives 
regarding nuclear weapons. From a warfighter perspective, there 
is important consistency between the 2018 NPR and its 
predecessor. The biggest difference, as with the recent 
National Defense Strategy, is the return to threat-based 
planning and response to great power competition. We started 
the NPR with assessment of the threat--it was all about the 
threat--and based our approach on what our adversaries are 
doing today and the increasing challenges of the future. We 
have to remember the strategic environment is dynamic. It 
changes constantly. And our approach to deterrence must be 
equally dynamic to address these evolving threats.
    STRATCOM truly is a global warfighting command, and the 
strength of its command is its people. The soldiers, sailors, 
airmen, marines, civilians of this enterprise have the most 
important mission in our entire Department and our entire 
nation. Their hard work and dedication ensures our nation's 
strategic capabilities remain safe, secure, reliable, and 
ready. Sustained congressional support will ensure we remain 
ready, agile, and effective in deterring strategic attack 
assuring our allies and partners well today and into the 
future.
    So I thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of General Hyten follows:]

                  Prepared Statement by John E. Hyten
                              introduction
    USSTRATCOM is a global warfighting command, setting the conditions 
across the globe as the ultimate guarantor of national and allied 
security. Our forces and capabilities underpin and enable all other 
Joint Force operations.
    USSTRATCOM is globally dispersed from the depths of the ocean, on 
land, in the air, across cyber, and into space, with a matching breadth 
of mission areas. The men and women of this command are responsible for 
Strategic Deterrence, Nuclear Operations, Space Operations, Joint 
Electromagnetic Spectrum Operations, Global Strike, Missile Defense, 
Analysis and Targeting, and Cyberspace Operations (until USCYBERCOM is 
elevated). Nearly 184,000 soldiers, sailors, airmen, marines, and 
civilians support the USSTRATCOM mission, providing an umbrella of 
security for the United States and its allies every day. These critical 
capabilities are an integral part of our combat operations and enable 
warfighters across all domains to preserve the peace and when called 
upon, dominate in conflict and win.
    This past year, USSTRATCOM began restructuring in alignment with 
our warfighting mission. We now have an air component and will soon 
have a maritime component. Due to the command's unique 
responsibilities, we are also leading doctrine with our new Joint Force 
Space Component Commander.
    Our new Command and Control Facility is moving toward completion 
and will support the long-term viability and credibility of our 
strategic deterrent force. From this new facility, we will conduct 
strategic planning, warfighting operations, aid the President's nuclear 
response decision-making process, provide global situational awareness 
to the National Command Authorities and combatant commands, and, when 
necessary, deliver a decisive response in all domains.
    The focus of this command remains to deter strategic attack on the 
United States and its allies. USSTRATCOM stands ready to respond to 
threats anywhere, anytime across the globe. We acknowledge that we 
cannot do this alone and must continually work towards enhancing our 
alliances and partnerships, in all areas.
    The command's priorities remain:
    <bullet>  Above all else, we will provide Strategic Deterrence;
    <bullet>  If deterrence fails, we are prepared to deliver a 
Decisive Response;
    <bullet>  We will do this with a resilient, equipped, and trained 
Combat-Ready Force.
                      global security environment
    The strategic landscape of today is increasingly uncertain, 
complex, and volatile. Long-term, inter-state strategic competition 
between nation states is reemerging, rogue regimes are taking actions 
that threaten regional and global stability, and violent extremist 
organizations are bent on destroying peace across the globe. 
Nevertheless, we remain committed to strategic stability with China and 
Russia.
    China continues to challenge in the Indo-Pacific region, and our 
allies and partners look to the United States to provide balance. 
China's excessive maritime claims and aggressive conduct in both the 
South China Sea and East China Sea undermine international law and 
global maritime standards. Moreover, China's continued long-term 
military modernization of both conventional and strategic forces has 
implications in the Indo-Pacific region and beyond. They are 
aggressively modernizing their mobile nuclear forces and re-engineering 
their long-range ballistic missiles to carry multiple nuclear warheads. 
China is swiftly developing and testing a hypersonic-glide vehicle 
capability, a technology used to defeat ballistic missile defenses. 
China's pursuit of conventional global strike capabilities, offensive 
counterspace capabilities, and exploitation of computer networks also 
raises questions about its global aspirations. These developments--
coupled with a lack of transparency on nuclear issues such as force 
disposition and size--impact regional and strategic stability.
    Russia continues to pose challenges that require consistent and 
deliberate focus. Russia's support to forces in eastern Ukraine (which 
it continues to fight alongside with), occupation and purported 
annexation of Crimea, operations in the Middle East, and efforts to 
present itself as the mediator for concerns in Middle East and Asia-
Pacific regions reinforce its goal of being seen as a military and 
diplomatic global power. Russia continues to tout advances in cyber and 
counterspace capabilities along with improvements in its strategic 
nuclear and general purpose forces. In June 2017, as part of an effort 
to destabilize Ukraine, the Russian military launched the most 
destructive and costly cyber-attack in history. The effects of this 
attack spread globally and included devastating damage to U.S. 
businesses. On March 1, President Putin announced Russia's development 
of six new strategic nuclear weapons systems including an 
intercontinental-range nuclear-powered cruise missile, an 
intercontinental-range underwater drone, and a maneuverable hypersonic 
glide vehicle. President Putin's statements are not surprising and only 
reinforce Russia's commitment to develop weapons designed to intimidate 
and coerce the United States and its allies. Finally, Russia's 
violation of the Intermediate-range Nuclear Forces (INF) Treaty with 
the development of the SSC-8 ground launched cruise missile remains a 
significant issue as delivery of the treaty-violating system continues.
    North Korea remains a dangerous and unpredictable actor in the 
Pacific region, continuing to develop the capability to threaten the 
United States and allies with Pyongyang's evolving ballistic missile 
and nuclear weapons program. Kim Jong-un continues to defy 
international norms and resolutions through provocative actions 
including their sixth nuclear test, three tests claimed to be of 
Intercontinental Ballistic Missiles (ICBM), and the WannaCry cyber-
attack. North Korea is progressing in development of Submarine Launched 
Ballistic Missiles (SLBM) and Intermediate Range Ballistic Missiles. 
These developments highlight its commitment to diversify its missile 
forces and nuclear delivery options, while strengthening missile force 
survivability. North Korea continues efforts to expand its stockpile of 
weapons-grade fissile material and demonstrated its capability and 
willingness to conduct destructive cyber-attacks against the United 
States and its allies.
    Iran continues to develop ballistic, space, and cyberspace 
capabilities--and we remain focused on preventing the development of 
the new threats in the region. While the International Atomic Energy 
Agency continues to verify Iran is meeting its nuclear-related Joint 
Comprehensive Plan of Action obligations, we must remain vigilant to 
any Iranian intentions that indicate it will abrogate its commitments 
and pursue nuclear weapons.
    Ungoverned or ineffectively governed regions remain incubators for 
those who seek to attack the world's peaceful societies. Transregional 
Terrorist Organizations (TTOs) recruit and operate freely across 
political, social, and cyberspace boundaries. The effect of weapons of 
mass destruction (WMD) in the hands of TTOs could be catastrophic, 
which highlights the importance of our national nonproliferation and 
counter-WMD efforts.
                              the problem
    Today, our deterrent force is safe, secure, ready, and reliable, 
but the pace of change in the strategic environment is rapid and 
demands adapting how we operate in order to stay ahead of evolving 
threats. Failure to meet the pace of change will result in decreasing 
U.S. global influence, eroding cohesion among allies and partners, and 
reduced access to markets contributing to a decline in our prosperity 
and standard of living. The actions we take today assure continued 
American primacy in the future.
    Our budget, requirement, acquisition, and testing processes are too 
slow. We need integrated processes that are faster and tolerate a 
greater acceptance of risk. The velocity of change required to resolve 
our operational challenges is far higher than we have attained to date. 
Our culture must embrace competition, seek higher performance levels, 
and generate urgency in achieving innovative outcomes. We must remember 
that our military superiority is not a birthright, but rather actively 
sustained by each generation.
                          strategic deterrence
    We must look at deterrence through a new lens. We are no longer 
defined by the bi-polar world of two superpowers that simplified our 
approach to deterrence. The U.S. is challenged by multiple adversaries 
with an expanding range of capabilities available to them. With each 
potential adversary comes a different set of perceptions and internal 
dynamics. Deterrence is more complex and a `one size fits all' approach 
no longer applies. Operations countering one adversary have potential 
second and third order consequences when interpreted by other potential 
adversaries or our allies. This multipolar and all-domain environment 
requires collaboration among combatant commands, other DOD elements, 
allies, and partners ensuring individual efforts do not adversely 
affect the globally integrated approaches to each problem set. To 
maintain military superiority in this multipolar world, we must out-
think, out-maneuver, out-partner, and out-innovate our adversaries.
    The bedrock of our deterrence is our safe, secure, ready, and 
reliable nuclear Triad. The surest way to prevent war is to be prepared 
for it. While the current Triad continues to provide the backbone to 
our national security, we will eventually consume the last remaining 
margin from our investments made during the Cold War. Our modernization 
programs including the B-21 bomber; Columbia-class Ballistic Missile 
Submarine (SSBN); the Ground-Based Strategic Deterrent (GBSD); Long 
Range Standoff (LRSO) cruise missile; Nuclear Command, Control, and 
Communications (NC3); and life-extended nuclear warheads will provide--
without a doubt--the nuclear deterrent capabilities our nation needs, 
now and well into the future.
    Today, deterrence is more than just our nuclear capabilities. 
Deterrence requires integrated planning for all capabilities, across 
all domains. This enables the synchronized operation and decisive 
response to adversary aggression anytime, anywhere. We must make this 
concept operational for all domain warfighting throughout the DOD. We 
must normalize space and cyberspace as warfighting domains. There is no 
war in space, just as there is no war in cyberspace. There is only war, 
and war can extend into any domain. To fight wars in these domains we 
must develop the appropriate rules of engagement that allow for rapid 
response and delegate authority to the appropriate level to operate 
more quickly.
                    the nuclear posture review (npr)
    The 2018 NPR guides nuclear modernization efforts and establishes 
U.S. deterrence policy, strategy, and posture over the coming years. 
This document responds to the threats of today, the burgeoning 
challenges of tomorrow, and underscores nuclear deterrence as a 
foundational element of U.S. national strength. The NPR clearly ties to 
USSTRATCOM's priorities.
    The guidance in the NPR is based on the strategic environment of 
today. As Secretary Mattis states in the document's preface, ``We must 
look reality in the eye and see the world as it is, not as we wish it 
to be.'' Our previous efforts to deemphasize the role of nuclear 
weapons and reduce the size and variety of capabilities within our 
nuclear force did not have the reciprocal effect on other nuclear-armed 
states. China and Russia continue to place increased importance on 
nuclear weapons in their strategy and doctrine as well as expand the 
number and diversity of their nuclear weapons and weapon systems. We 
remain committed to strengthening nonproliferation and nuclear 
security, and we stand ready to reengage on future arms control 
agreements. However, a commitment to arms control and other reductions 
cannot be unilateral in the face of ever-increasing threats. This would 
harm the readiness of our nuclear deterrent, destabilize relations with 
potential adversaries, and reduce the confidence our allies place in 
our extended deterrence guarantees.
    While our nuclear posture is successful in deterring our 
adversaries today, we require a mix of yields and improved platforms to 
credibly deter the threats of the near future. The NPR directs near-
term fielding of a low-yield SLBM capability, and in the longer term, 
pursuit of a modern nuclear-armed sea-launched cruise missile (SLCM). 
These capabilities are necessary to enhance the flexibility and 
responsiveness of our nuclear forces to ensure potential adversaries 
understand they cannot achieve their objectives through force and there 
is no benefit in the use of nuclear weapons--in any scenario. Russia's 
increased ``non-strategic nuclear weapons'' and evolving doctrine of 
first-use in a limited conflict, give evidence of their perceived 
advantage at lower levels of conflict. North Korea's burgeoning nuclear 
capabilities demonstrate the belief that nuclear weapons provide 
escalation options against the United States and our allies in the 
Pacific. We must counter these dangerous perceptions with supplemental 
capabilities to our previously planned modernization programs. These 
enhanced deterrence capabilities ensure adversaries clearly understand 
U.S. resolve and do not miscalculate the consequences of nuclear use, 
raising the nuclear threshold and reducing the likelihood of nuclear 
weapon employment.
    The NPR clearly states the role of nuclear weapons in hedging 
against an uncertain future. While hedging is not new, this explicit 
statement communicates importance of nuclear weapons in ensuring we are 
ready and confident to address future threats. As we have witnessed 
over the past decade, the security environment can change quickly. 
Technology is constantly evolving, and countries are seeking to use 
these technologies to advance their own capabilities and diminish ours. 
This requires an agile, ready force that is flexible enough to meet the 
ever-changing strategic environment, and men and women who are 
dedicated to the mission and postured to win.
             nuclear weapons and supporting infrastructure
    To remain a credible nuclear state, the U.S. must have modern 
facilities and a highly skilled workforce able to maintain a credible 
nuclear deterrent. Across the nuclear enterprise, many of the 
specialized capabilities required to complete stockpile work have 
either atrophied or become obsolete. As a result, the U.S. is not 
capable of producing and/or manufacturing many of the materials and 
unique components in the quantities needed to sustain the stockpile 
over the long term.
    Re-establishing the capability to produce plutonium pits at a 
production rate sufficient to support planned weapon sustainment 
activities must be a national priority. Specifically, USSTRATCOM 
requires no less than 80 War Reserve plutonium pits delivered to the 
stockpile per year by 2030 to support future deterrent requirements. 
Delays in developing a viable plutonium pit production capability will 
eventually affect our ability to meet the nation's deterrence mission 
requirements.
    In addition to plutonium manufacturing, we require critical 
infrastructure investments in uranium processing, tritium processing, 
and lithium component production. Any shortcomings in these 
infrastructure projects represent a real risk to maintain force 
readiness and our capability to respond to either a technical issue 
with our stockpile or adversary advancements in their capabilities.
    Modern facilities are of little value without a highly skilled 
workforce to conduct the necessary surveillance, sustainment, and 
modernization activities necessary to maintain our deterrent. National 
Nuclear Security Administration's (NNSA) Administrator and each of our 
national security laboratory directors have expressed concerns with 
recruiting, developing, and retaining the workforce essential to 
sustain our stockpile. The U.S. must have a workforce and industrial 
base capable of designing, engineering, and producing materials and 
components necessary to sustain the number of warheads and develop a 
flexible stockpile to hedge against future risks.
    Since the Nuclear Weapons Council (NWC) approved the Long Term 
Stockpile Sustainment Strategy, we have made solid progress in life 
extending our aged weapon stockpile. The Navy's W76-1 ballistic missile 
warhead Life Extension Program (LEP) is over 90 percent complete and on 
track to finish in 2019. The B61-12 gravity bomb program is on 
schedule, on budget, and exceeding operational expectations. This 
weapon supports extended deterrence commitments to NATO and allows the 
U.S. to retire legacy gravity weapons that are approaching the end of 
their service lives. The Air Force and NNSA are progressing with work 
on the LRSO cruise missile and the associated W80-4 warhead design work 
to deliver that weapon system on schedule.
    Our next significant weapon LEP decision pertains to future 
ballistic missile warhead modernization. We must determine the 
appropriate approach for the replacement of the Air Force's W78 ICBM 
warhead. The NWC's Strategic Plan is examining the feasibility of 
producing a warhead with interoperable features for both Air Force and 
Navy ballistic missile systems. The W78 replacement study will 
determine the appropriate approach for developing and deploying this 
much needed capability.
                        nuclear weapons security
    Protection of nuclear weapons, installations, and personnel is the 
utmost priority. We continue to work closely with the Navy and Air 
Force to assess nuclear security requirements and adjust our force 
posture, training, and equipment to maintain the high standards this 
mission demands. While we continue to upgrade our security 
capabilities, there are areas where additional investments are required 
to ensure the absolute denial of unauthorized access to nuclear 
weapons.
    We need to replace the Vietnam-era UH-1N helicopters that provide 
security across our vast ICBM complex. I strongly support any effort 
that delivers a replacement helicopter with the necessary speed, 
armament, and carrying capacity to meet our security requirements as 
soon as possible.
    Additionally, we need to address the escalating costs of an aging 
security infrastructure. Our nuclear security program relies heavily on 
manpower that requires appropriate investments to ensure our existing 
nuclear security programs are capable of protecting this Nation's most 
vital assets against a wide-range of technological and human threats.
    The continued proliferation of sophisticated small Unmanned 
Aircraft Systems (sUAS) is concerning. The availability, ease of use, 
and capabilities of these sUAS vehicles represents a growing threat to 
our deterrence operations. We rapidly implemented counter-sUAS systems 
into our security architecture, and continue to refine our tactics, 
techniques, and procedures to address the developing threat. Pacing 
this sUAS threat will require vigilance and dedicated investment as 
these capabilities continue to evolve.
           nuclear command, control, and communications (nc3)
    Our nation's nuclear deterrent continues to be as effective as the 
command, control, and communications capabilities that enable it to 
function; therefore, we require an assured, reliable, and resilient NC3 
system across the full spectrum of conflict. Maintaining a credible 
nuclear deterrent requires sustainment, modernization, and 
recapitalization of key systems and capabilities throughout the NC3 
architecture that ensures effective command and control of the Nation's 
nuclear forces throughout today's complex multi-domain, multi-threat 
security environment. These capabilities must provide assured 
communications capabilities to the President and nuclear forces 
throughout all phases of hostilities and under all conditions.
    USSTRATCOM requires a robust NC3 capability operating throughout 
the space, aerial, and terrestrial domains to both effectively execute 
strategic deterrence operations and provide support for the President 
as an essential component of the National Leadership Command 
Capability. As an example of this, USSTRATCOM is working with the White 
House, national laboratories, and the private sector to develop 
decision support capabilities, setting the conditions for timely and 
informed senior leader decision-making under any circumstance.
    In the space domain, we are transitioning from the aging Military 
Strategic and Tactical Relay (MILSTAR) satellite communications system 
to the Advanced Extremely High Frequency (AEHF) satellite 
communications systems. The AEHF satellite constellation system, 
coupled with requisite ground node and airborne platform Family of 
Advanced Beyond Line-of-Sight terminals (FAB-T) extends enhanced 
capabilities to enable collaboration between the President and senior 
advisors under any circumstances and improves connectivity with the 
nuclear forces.
    Within the aerial domain, we are continuing to replace aging 
communications systems on the E-6B Airborne Command Post (ABNCP) and 
Take Charge and Move Out (TACAMO) aircraft as well as the E-4B National 
Airborne Operations Center (NAOC) to provide assured and worldwide 
connectivity to the nuclear forces. In conjunction with communications 
update efforts, the Air Force is pursuing a course of action to 
recapitalize the E-4B platform, which is approaching its end of service 
life. The Air Force continues efforts to field a very low frequency 
(VLF) capability for the B-2 bomber fleet and will leverage that 
capability to modernize the B-52s legacy VLF systems. These 
advancements, combined with our extremely high frequency 
communications, provide bombers with beyond line-of-sight connectivity 
throughout the spectrum of conflict.
                  intercontinental ballistic missiles
    The U.S. relies on ICBMs as a critical component of a credible and 
effective nuclear deterrent force. ICBMs promote strategic stability as 
no adversary can defeat our highly responsive and widely dispersed ICBM 
force with a limited, surprise attack. Additionally, our ICBM force 
provides the bulk of our day-to-day nuclear alert force with precision 
and professionalism. Serving over 60 years, our Minuteman force will 
retire in the mid-2030s, well beyond any deployed strategic missile in 
the world. We must execute a comprehensive ICBM modernization program 
to keep the force effective in this rapidly evolving strategic 
environment.
    In August 2017, the Air Force achieved a significant milestone when 
it awarded the GBSD Technology Maturation and Risk Reduction contract. 
The future GBSD weapon system will employ modern, proven technology to 
meet the varied threats of today and incorporate modular architectures 
able to adjust quickly to advancing adversary technologies. GBSD will 
employ enhanced security features to counter evolving threats while 
reducing resource demands. Likewise, GBSD's maintenance processes 
employ advanced diagnostic tools allowing us to predict and resolve 
technical issues before affecting operations.
    Finally, replacing 1960 and 1970s technology with state-of-the-art 
systems will increase effectiveness and provide better platform 
performance with greater resilience against improving adversary 
defenses. GBSD will deliver a modern missile system, supported by a 
fully updated infrastructure, all delivered at lower cost.
               bombers and air delivered nuclear weapons
    Bombers represent the most visible and flexible leg of the U.S. 
nuclear Triad. Their presence unambiguously demonstrate U.S. commitment 
and resolve to deter potential adversaries and assure our allies and 
global security partners. The bomber's operational flexibility provides 
the President a number of options in response to a crisis. The 
combination of stealth and long range denies adversaries the ability to 
use geography to protect high value assets.
    The B-52 will remain in our arsenal for several more decades and is 
receiving a communications upgrade to ensure command and control 
connectivity. Additionally, the B-52 requires a radar system upgrade to 
enhance weapons delivery, improve targeting capability, and improve 
weather detection and avoidance. Replacing the B-52's engines provides 
increased combat range, reduced air refueling demand, longer on-station 
time, and a significantly reduced maintenance footprint.
    As our nation's only penetrating long-range strike aircraft, we are 
enhancing the B-2's survivability to retain the platform's stealth 
attributes against modern air defenses. Beyond the B-2, the B-21 will 
ensure we maintain an effective penetrating bomber capable of striking 
any target around the world even as potential adversaries deploy 
increasingly sophisticated air defenses.
    While legacy gravity bombs and the Air Launched Cruise Missile 
(ALCM) meet current military requirements, declining sustainability and 
survivability challenges require a focus on replacement systems. The 
B61-12 gravity bomb and LRSO cruise missile programs must deliver on 
schedule to avoid any strategic or extended deterrence capability gaps.
    Legacy bombers and their associated weapons are beyond or quickly 
approaching their intended service life, requiring focused attention 
and resources to maintain combat readiness. To ensure our air delivered 
deterrent remains effective, ongoing sustainment and planned 
modernization activities must remain on schedule.
                     sea-based strategic deterrent
    Every day, a sizable portion of our Ohio-class SSBN fleet is 
silently patrolling at sea, un-locatable to our adversaries, and ready 
to respond when called upon. These submarines, and their highly capable 
Trident II (D5) SLBM, constitute the most survivable leg of our 
strategic deterrent force. As such, they send a very clear message to 
any adversary that they cannot hope to gain any benefit from a 
strategic attack against the U.S. or its allies.
    The robust design of the Ohio-class SSBN, along with a 
comprehensive maintenance program, allowed its operational life to 
extend from 30 to 42 years. However, with no engineering margin to 
extend them further, the Ohio-class SSBNs will retire starting in 2027. 
To avoid a capability gap in our strategic deterrent, the Columbia-
class SSBN must deliver on time for its first strategic deterrent 
patrol in 2031. Building the Columbia-class SSBN requires highly 
technical and unique skillsets spanning multiple manufacturing and 
trade disciplines. As production draws near, we must support our 
industrial partners' expansion of both infrastructure and training 
programs to minimize the risk of potential delays.
    To avoid two concurrent strategic weapon programs, the Navy 
extended the life of the D5 SLBM, enabling it to serve as the initial 
ballistic missile for the Columbia-class SSBN. The D5 SLBM was fielded 
over 25 years ago, and we must begin a follow-on SLBM program for the 
Columbia-class SSBN to remain effective to its projected end of life in 
the 2080s. USSTRATCOM and the Navy will work together in developing the 
strategic requirements for this follow-on SLBM that continues the 
unparalleled success of the D5 SLBM.
                                 space
    Space is a warfighting domain just like the air, ground, maritime, 
and cyberspace domains. The DOD, with the National Reconnaissance 
Office (NRO), is implementing the Space Warfighting Construct. This 
construct supports the National Space Policy and focuses on the forces, 
operations, and systems needed to prevail in a conflict that extends 
into space. As an enterprise, we must normalize how we think of space, 
operate in it, and describe it to each other. It is unique for many 
reasons, but the concepts that govern other military operations such as 
intelligence, maneuver, fires, protection, logistics, and command and 
control apply just the same.
    In April 2017, we re-named the Joint Interagency Combined Space 
Operations Center (JICSpOC) to the National Space Defense Center 
(NSDC). The NSDC is a partnership organization strongly supported by 
both the DOD and Intelligence Community (IC) that develops and improves 
our ability to rapidly detect, warn, characterize, attribute and defend 
against threats to our nation's vital space systems. The NSDC directly 
supports space defense unity of effort and expands information sharing 
in space defense operations among the DOD, NRO, and other interagency 
partners. Recently, the NSDC transitioned to 24/7 operations, marking a 
significant step for the growing interagency team focused on protecting 
and defending the nation's critical space assets.
    In 2016, Air Force Space Command (AFSPC) and NRO developed the 
joint Space Enterprise Vision (SEV) to advance their shared interest in 
designing, acquiring, and operating more agile and resilient space 
capabilities in response to emerging threats. A key goal of the SEV is 
to leverage synergies in AFSPC/NRO acquisition activities, where 
feasible, as the two organizations pursue architectures and operational 
approaches in support of their respective missions.
    Multi-national space operations initiatives are paramount in the 
safety and security of the space domain. As we continue our combined 
space operations initiative with Australia, Canada, New Zealand, and 
the United Kingdom, we are expanding the initiative with the addition 
of France and Germany. I have directed the Joint Force Space Component 
Commander to transition our Joint Space Operations Center (JSpOC) to a 
Combined Space Operations Center (CSpOC) by the end of 2018. The CSpOC 
model envisions a centralized hub for operational planning and tasking 
with distributed execution through contributing partners.
    Exercises and wargames continue to refine how we coordinate today 
and determine how we will work together in the future. This year, Japan 
is participating in the Schriever Wargame, joining France, Germany, and 
our Five Eye partners. GLOBAL SENTINEL, our operational experiment for 
space situational awareness, increased its international participation 
in 2017 and now includes Australia, Canada, the United Kingdom, France, 
Spain, Germany, Italy, Japan, and the Republic of Korea.
    Future satellite communications (SATCOM) systems are key to our 
continued strategic posture in space. We must design and fund 
replacement systems and remain on schedule for smooth transition of 
operations to these new systems. We must expand international SATCOM 
partnerships, strengthen our industrial base response to acquisition 
challenges, and integrate commercial pathfinder opportunities to 
leverage space operations.
    We must continue to build a robust SATCOM network that includes our 
allies and partners and leverages commercial SATCOM industries to 
integrate, synchronize, and share global SATCOM resources. Through 
multilateral SATCOM agreements Canada, Denmark, Luxembourg, the 
Netherlands, and New Zealand provided funding for Wideband Global 
SATCOM-9 (WGS-9) that launched in March 2017. These international 
partners receive a proportional share of the bandwidth provided by the 
WGS constellation based on their financial contribution.
    The department continues to close the gap in synchronizing 
terminals and ground infrastructure to match available satellite 
capability, a time-critical and essential element in operating freely 
in all other domains. Our protected wideband communications are 
essential for allowing the warfighter to communicate in contested 
environments. Our narrowband legacy constellation is approaching the 
end of its life cycle in a matter of years, and any additional loss of 
satellites will reduce our narrowband SATCOM capabilities. The 
narrowband follow-on Mobile User Objective System (MUOS) using Wideband 
Code Division Multiple Access (WCDMA) has experienced delays due to 
program development, waveform challenges, and Service terminal fielding 
schedules. The fielding of new AEHF Extended Data Rate (XDR) 
capabilities is improving over time, but delayed XDR terminal programs 
are hampering the transitions from MILSTAR to AEHF.
    USSTRATCOM, in conjunction with AFSPC, Fleet Cyber Command, and 
U.S. Army Space and Missile Defense Command / Army Forces Strategic 
Command (SMDC/ARSTRAT), is standing up the SATCOM Integrated Operations 
Environment (SIOE). The SIOE is designed to leverage key wideband, 
narrowband, protected band, and commercial SATCOM enterprise 
capabilities and expertise to improve the Joint Force Space Component 
Commander's ability to mitigate and fight through SATCOM degradation 
and continue to support the warfighter in a potentially contested 
domain. Interim SIOE operations will be located at headquarters SMDC/
ARSTRAT and is scheduled for completion in March 2018. SIOE is 
currently operating in a limited fashion, and we are working on 
providing additional joint manning positions to bring it to initial 
operational capability.
    In accordance with the direction of the 2018 National Defense 
Authorization Act, USSTRATCOM will deliver a space warfighting concept 
of operations (CONOPs) no later than June 11, 2018. This CONOPs will 
guide the Service's space capabilities development and acquisition 
programs.
               joint electromagnetic spectrum operations
    Achieving superiority throughout the electromagnetic spectrum is an 
essential prerequisite for achieving superiority across all other 
military domains. USSTRATCOM developed an electromagnetic spectrum 
operational employment guide for standardized and synchronized 
electromagnetic battle management, and we are working with the other 
combatant commands on the implementation of this guide in joint 
electromagnetic spectrum operations planning. In coordination with the 
Joint Staff, we are initiating development of a Joint Electromagnetic 
Spectrum Operations doctrine publication, working to re-align 
electronic warfare universal joint tasks, advocating for advancing 
joint training in realistic congested and contested electromagnetic 
spectrum environments, and identifying electromagnetic battle 
management requirements.
    This comes at a time when our ability to maneuver freely within the 
electromagnetic spectrum is at risk. Many countries have adapted their 
militaries for spectrum warfare, developing specific electronic/
spectrum warfare units and electronic attack capabilities to counter 
our spectrum dependent systems. The electromagnetic spectrum is not a 
utility to be managed, it is a maneuver space, the same as other 
warfighting domains. If we fail to change the way we resource, train, 
and operate within the spectrum, we risk allowing an adversary to 
control key terrain in the future.
                            missile defense
    Missile proliferation and lethality continues to increase as more 
countries acquire greater numbers of missiles and are increasing their 
technical sophistication specifically to defeat U.S. missile defense 
systems. In the past year, we continue to see missile tests from North 
Korea and Iran as well as other nations that are introducing 
increasingly sophisticated missiles--all of which cause us and our 
allies deep concern. Their efforts to advance missile technologies 
threaten global stability and seek to degrade our ability to project 
power. In response, we must continue our efforts to advance missile 
defense forces and capabilities to assure allies of our commitment for 
a common defense and to deter further aggressions from these regional 
and transregional actors.
    In addition to the NPR, the Department is conducting a 2018 Missile 
Defense Review (MDR). The MDR is broader in scope than the 2010 
Ballistic Missile Defense Review, addressing more than the ballistic 
missile threat, specifically hypersonic vehicles and cruise missiles.
    We cannot be successful in this endeavor by investing solely in 
active missile defense capabilities--we must strengthen and integrate 
all pillars of missile defense including the capability to defeat 
adversary missiles before they launch. We are exploring efficiencies 
gained by fusing non-kinetic, cyber, electromagnetic, and kinetic 
capabilities to deny, defend, and defeat adversary threats. 
Furthermore, we are requesting additional efforts invested in the 
Department's ability to find, fix, track, target, engage, and assess 
(F2T2EA) threats and the adoption of corresponding policy and 
organizational constructs. We continue to gain synergy through 
integrated missile defense planning, force management, and operations 
support ensuring global coordination of regional missile defense 
execution--thereby, matching the best interceptor with the best sensor.
    We must strengthen our collaboration with our allies and explore 
further integration of our collective capabilities toward an effective 
mutual defense. We are investing in collaboration with our allies 
across multiple venues, including the USSTRATCOM-hosted NIMBLE TITAN 
wargame. We conduct this biennial wargame with key allies and in 
partnership with the Department of State and other combatant commands. 
We continually explore and experiment with potential collaboration and 
integration approaches with our allies to inform development of options 
for operations, policies, and investments.
    As an essential element of the U.S. commitment to strengthen 
strategic and regional deterrence against states of concern, we 
continue to deploy missile defense capabilities and strengthen our 
missile defense postures. We operationally deployed the Aegis Ashore 
Missile Defense Complex in Romania completing the European Phased 
Adaptive Approach Phase II to defend against threats from the Middle 
East, particularly Iran. We deployed additional Ground Based 
Interceptors (GBIs) to meet the objective of 44 GBIs by the end of 
2017. We are continuing investments toward our warfighting missile 
defense priorities, which are essential. Priority missile defense 
upgrades and capability advancements include:
    <bullet>  Sensor and discrimination capabilities. Continued 
development of the Long Range Discrimination Radar (LRDR) in Alaska. A 
new Homeland discrimination radar to support the defense of Hawaii. A 
new Medium Range Discrimination Radar to provide additional precision 
and tracking. Upgraded and expanded land, sea, and space based 
detection and tracking sensors.
    <bullet>  Kill vehicles. Increase the reliability and lethality of 
our interceptors including the development of the Redesigned Kill 
Vehicles (RKV) for the GBI, completion of testing and deployment of the 
SM-3 Block IIA capability, and enhancements to the GBI, most notably 
the Multi-Object Kill Vehicle (MOKV).
    <bullet>  GBIs. Increase the GBI inventory to 64 and complete 
Missile Field-4 at Fort Greely, Alaska to provide silos for 20 
additional fielded interceptors as early as December 2023.
    <bullet>  Capability and capacity. Increase the robustness of 
regional missile defense capability and capacity including deployment 
of the Aegis Ballistic Missile Defense and the Terminal High-Altitude 
Area Defense (THAAD) capabilities and implementation of recommendations 
from the Department's Joint Regional Integrated Air and Missile Defense 
Capability Mix (JRICM) study.
    Finally, we depend on flight-testing, which is critical in 
assessing and validating the performance of the operational system in 
actual flight environments. The high cost of flight-testing often 
limits the number of flight test opportunities. The Missile Defense 
Agency strives to maximize opportunities for learning through flight 
test success or failure. The body of data collected in flight-testing 
is robust, and we discover unexpected findings with each test. Flight 
test failures are unplanned, but when failures happen--learning occurs. 
The root cause of failure is determined, corrective actions are 
implemented, and the overall capability of the system improves.
          conventional prompt strike (cps) / hypersonic strike
    Adversary anti-access / area denial strategies are challenging 
traditional U.S. approaches to power projection. Advancements in 
adversary integrated air defense systems and offensive missiles inhibit 
our ability to maneuver within the battlespace. Additionally, our 
strategic competitors are investing significant resources in hypersonic 
weapon research and development with the goal of deploying hypersonic 
strike weapons in the next few years. The Department is pursuing 
hypersonic capabilities along several lines of effort, but we need to 
prioritize and accelerate development if we are to field our own 
capability in the near term.
    New long-range, survivable, lethal, and time-sensitive strike 
capabilities, such as a hypersonic CPS weapon, will allow the U.S. to 
achieve its military objectives in these environments. This new weapon 
class prevents adversaries from exploiting time and distance and 
provides additional response options below the nuclear threshold. The 
Navy's successful CPS flight test last October demonstrated the 
technical maturity required to field an effective hypersonic strike 
solution within the near future. As our competitors continue to move 
fast in this area, we must retake the initiative and commit the 
necessary resources to develop and field hypersonic conventional 
weapons.
                               conclusion
    USSTRATCOM truly is a global warfighting command, and the strength 
of this command is its people. The soldiers, sailors, airmen, marines, 
and civilians in this enterprise have the most important mission in the 
entire Department. We expect them to perform to the highest standard, 
yet mission success often looks as if nothing happened. The hard work 
and dedication of the nearly 184,000 men and women supporting the 
USSTRATCOM mission ensures our nation's strategic capabilities remain 
safe, secure, reliable, and ready. Sustained Congressional support will 
ensure we remain ready, agile, and effective in deterring strategic 
attack, assuring our allies and partners today and into the future.
    Peace is our profession . . .

    Senator Inhofe. Thank you.
    When a quorum is present, we are going to shift over and do 
some confirmations, a brief interruption.
    As you heard the opening statements from both Senator Reed 
and myself, there is little difference of opinion in terms of 
low-yield capabilities. Both China and Russia have a robust 
nuclear arsenal and a triad of delivery systems, as you said in 
your opening statement. I think that China and Russia are 
identified a little differently than the rest of the threats. I 
think General Dunford said it the best way. He said we are 
losing our qualitative and quantitative edge.
    The 2018 Nuclear Posture Review calls for the development 
of a low-yield nuclear weapon in the range of approximately 10 
kilotons to counter Russia's tactical nuclear weapons, weapons 
that are not controlled by New START [Strategic Arms Reduction 
Treaty].
    Now, when you talk about 10 kilotons, sometimes we have to 
remember what is a kiloton. I think Hiroshima was 15 kilotons. 
The Minuteman 3 is around 300-350 kilotons. So you are talking 
about a capability that is not there right now.
    The New START limits both the United States and Russia to 
1,550 deployed strategic nuclear weapons. It has been stated 
policy that since the early 2000s, that Putin could use a 
nuclear weapon in a conventional fight to, using his words, 
escalate to deescalate the conflict by using a tactical nuclear 
weapon to halt hostilities. Now, I know that some worry that 
this might lead to increased nuclear proliferation.
    But I would kind of like to hear from you what your 
thoughts are. This is a part of the posture review right now. 
Do you think we ought to have a low-yield capability?
    General Hyten. So I strongly agree with the need for a low-
yield nuclear weapon. That capability is a deterrence weapon to 
respond to the threat that Russia, in particular, is 
portraying. President Putin announced as far back as April of 
2000 that the Russian doctrine will be to use a low-yield 
nuclear weapon on the battlefield in case of a conventional 
overmatch with an adversary.
    Senator Inhofe. Let us say if we do not have one, the only 
thing we could do, if we were to use a response, would be a 
larger one in terms of kilotons.
    General Hyten. So two limits in that are what Henry 
Kissinger recently said: that if you do not have the right 
response, you could put the United States in a position where 
the two choices for the President would be surrender or 
suicide, suicide if you escalate too high and the escalation 
comes back at you, surrender if you do not have the ability to 
respond.
    We do have low-yield nuclear weapons in our arsenal. They 
are with our aviation capabilities right now, but those 
aviation capabilities may not be the right response in terms of 
timeliness and survivability to get to where the threat is. 
Therefore, to respond to the threat, we need a small number of 
low-yield nuclear weapons that we can deploy on our submarine-
launched ballistic missiles, still in the New START limits.
    Senator Inhofe. I remember the conversation we had, when 
Kissinger was here, on that.
    We talk a lot about the hypersonic threats that are out 
there. Let us start off by--give me a definition of a 
hypersonic threat.
    General Hyten. A hypersonic threat is a system that starts 
out ballistic, and so you will see it like a ballistic missile, 
but then it depresses the trajectory and then flies more like a 
cruise missile or an airplane. So it goes up into the low 
reaches of space and then turns immediately back down and then 
levels out and flies at a very high level of speed. That is 
hypersonic. That is a hypersonic weapon.
    Senator Inhofe. Do both or either Russia or China have the 
hypersonic threat capability?
    General Hyten. Both Russia and China are developing 
hypersonic capabilities. We have watched them test those 
capabilities. So both Russia and China are aggressively 
pursuing hypersonic capabilities.
    Senator Inhofe. If that happens, what kind of defense do we 
have against a hypersonic threat?
    General Hyten. Our defense is our deterrent capability. We 
do not have any defense that could deny the employment of such 
a weapon against us. So our response would be our deterrent 
force, which would be the triad and the nuclear capabilities 
that we have to respond to such a threat.
    Senator Inhofe. Back to the triad, the capability that we 
would have with ours--when I talk to people back home who are 
not really into these issues, but they have heard of the B-52 
and how old it is today and to use that for the length of time 
that we anticipate we would have to use that before we are able 
to replace that. What do you think in terms of the age of the 
three elements of our triad and their capability relative to 
those of China and Russia?
    General Hyten. So as you look across our force, you can 
start with the B-52. It is such an amazing airplane. The 
designers of the airplane were geniuses way before their time. 
But it is basically a truck to carry weapons. It is not a 
penetrating bomber. It will never be a penetrating bomber. A 
penetrating bomber would be the B-21. We only have a small 
number of B-2s. We need a larger number of penetrating bombers. 
That will be the B-21. We will need a new weapon to go on the 
B-52. We will need the long-range standoff weapon.
    I am concerned about our ICBM force about the 2030 time 
frame and beyond. We replaced the propulsion, the guidance, the 
electronics on that system 15 years ago or so, and by 2030, all 
of those capabilities will have aged out. We did a detailed 
analysis that said the smartest thing we can do is just buy new 
this time instead of trying to replace all the components. We 
will have to do that.
    The Ohio-class submarine. At a certain point, it will not 
go down under the water anymore. We need a new submarine to 
replace that, and we need new command and control and we need 
new weapons as well.
    All those things come to fruition in the 2030s.
    Senator Inhofe. Yes. Thank you, General Hyten.
    Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman.
    Again, General, I think this is a very serious debate about 
the new proposed systems, particularly the low-yield submarine-
launched ballistic missile.
    As you indicated in your testimony, we have systems that 
are even lower yield than the one we are proposing today. They 
are generally airborne, I believe, launched by an aircraft.
    One of the things--and we talked about this--is there will 
be--my sense--a reaction and reaction. This will be a dynamic 
process. If there is a conventional attack, I do not think we 
will sit back and wait 'til they threaten to use a nuclear 
device. We will start positioning our resources immediately. 
Some of those resources will be low-yield nuclear weapons as a 
deterrent to their use of weapons.
    In that context, why can we not use something like the 
long-range standoff weapon as a deterrent to the use of small 
nuke by the Russians?
    General Hyten. The answer is basically the reason we have a 
triad. We have a triad to respond to the different elements of 
the threat that Russia brings to bear. Russia is going to have, 
in the unclassified world, at least 11 different delivery 
platforms for a low-yield nuclear weapon that they can use in 
different places and different times. Right now, we have one 
and that is an airplane. The airplane can be positioned in the 
right place in order to respond to that kind of threat, but an 
airplane is also difficult. It has to fight through a denied 
environment. It has to work in different areas.
    As we worked through the various gaming of the responses 
that the Russians may have to those capabilities, we felt 
strongly that we needed another delivery option. So a small 
number of low-yield nuclear weapons on the submarine-launched 
ballistic missile, still under the 1,550 deployed strategic 
nuclear weapons under the New START. In other words, we will 
take a big weapon out of a submarine and put a small weapon 
back in, still the same kind of structure. We believe that will 
give future adversaries significant pause before they act.
    Senator Reed. Again, I think the whole issue--and you put 
your finger on it--is deterrence. The flip side of that is that 
even if we have these new systems, if they make, I think, the 
extraordinary error of using a nuclear device, we respond. 
There is at least the option on the other side--as you point 
out, they have multiple launching devices and multiple nuclear 
warheads--is to maybe try a second one, in which case we try a 
second one. Again, we get into this nuclear escalation 
scenario, which I think we are concerned about.
    This is an issue I would like to say--I think it is a point 
we have to really think very, very clearly about and share with 
you your thoughts and the gaming that you have done and 
analysis you have done to see--again, for the public to vet 
this. So I look forward to doing that with you.
    One of the other proposals is the sea-based nuclear cruise 
missile. As you know, in 2010, the prior NPR canceled the 
submarine-based cruise missile because the Navy literally had 
it in storage, and NNSA [National Nuclear Security 
Administrator] was not modernizing its warheads. So it seemed 
to be sort of obsolete in effect.
    We have got some criticism from our colleagues, our allies, 
the South Koreans and the Japanese, because they see this as a 
very effective extended deterrent.
    Can you just state the military requirement now for 
bringing back this system?
    General Hyten. Yes, sir.
    The threat is from both Russia and China that drives the 
need for the sea-launched cruise missile. We have not made a 
decision yet about how to base that, whether it is on a surface 
ship or a submarine. We will look at that. Part of the 2019 
budget request is to start down that process and decide what 
the best basing for that would be.
    I can tell you the details in a classified session of why 
we believe the threat demands it, but I can tell you the threat 
is clear and I believe we need that to respond to the threat 
that is there.
    Senator Reed. Thank you, sir.
    Just a final question is that we mutually rely upon NNSA to 
create the nuclear pits and all the other basic components of 
our nuclear missile response. Your predecessor, General Keller, 
indicated that he had some doubts about the ability of NNSA to 
do this given the ongoing debate about whether production would 
be in Los Alamos or elsewhere or what kind of production, the 
big box or the small box. Do you share those concerns?
    General Hyten. Well, I still have concerns. Those concerns 
have not gone away.
    However, you should know that the Administrator of NNSA, 
Lisa Gordon-Hagerty--the first day that she took the oath, the 
first call she made was to me to commit that NNSA and the 
Department of Energy was fully on to deliver the capabilities 
that we need. As the STRATCOM Commander, my requirement for a 
future capability is that we need to build to 80 plutonium pits 
by 2030 in order to build out the nuclear weapons profile. I 
think that has been well studied, understood. We can talk about 
that further later if you desire.
    But I still am concerned because the infrastructure is 
challenged, but the current leadership in DOE [Department of 
Energy] has made a commitment to me that they will go after 
that. I guess the concern that I have left over is we do not 
have a lot of margin there, and anytime we do not have a 
margin, I am concerned.
    Senator Reed. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. I ask the committee to consider a list of 
2,901 pending military nominations. All of these nominations 
have been before the committee the required length of time.
    Is there a motion to favorably report this list of 2,901 
pending military nominations to the Senate?
    Senator Reed. So moved.
    Senator Inhofe. Is there a second?
    Senator Fischer. Second.
    Senator Inhofe. All in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. All opposed, no.
    [No response.]
    Senator Inhofe. The motion carries.

    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
Which are Proposed for the Committee's Consideration on March 20, 2018.
     1.  BG Timothy J. Hilty, ARNG to be major general (Reference No. 
1118)

     2.  In the Marine Corps Reserve there are 7 appointment to the 
grade of colonel (list begins with Eric G. Burns) (Reference No. 1432)

     3.  VADM Matthew J. Kohler, USN to be vice admiral and Deputy 
Chief of Naval Operations for Information Warfare, N2/N6, Office of the 
Chief of Naval Operations/Director of Naval Intelligence (Reference No. 
1455)

     4.  In the Marine Corps there are 2 appointments to the grade of 
lieutenant colonel (list begins with Thesolina D. Hubert) (Reference 
No. 1491)

     5.  In the Air Force there are 24 appointments to the grade of 
major general (list begins with Vincent K. Becklund) (Reference No. 
1551)

     6.  In the Marine Corps there are 6 appointments to the grade of 
major general (list begins with James W. Bierman) (Reference No. 1556)

     7.  In the Army there are 533 appointments to the grade of major 
(list begins with Rachel L. Adair) (Reference No. 1563)

     8.  In the Army there are 35 appointments to the grade of major 
(list begins with Rose Abido) (Reference No. 1564)

     9.  In the Army there are 2 appointments to the grade of colonel 
(list begins with John P. Kilbride) (Reference No. 1575)

    10.  In the Army there are 530 appointments to the grade of major 
(list begins with Gregory J. Abide) (Reference No. 1581)

    11.  In the Army there are 993 appointments to the grade of major 
(list begins with Steven Abadia) (Reference No. 1582)

    12.  In the Marine Corps there are 337 appointments to the grade of 
lieutenant colonel (list begins with Benjamin S. Adams) (Reference No. 
1592)

    13.  In the Marine Corps there is 1 appointment to the grade of 
major (Aaron J. King) (Reference No. 1611)

    14.  In the Army there is 1 appointment to the grade of major 
(Steven M. Hemmann) (Reference No. 1629)

    15.  LTG Timothy M. Ray, USAF to be general and Commander, Air 
Force Global Strike Command (Reference No. 1665)

    16.  MG David D. Thompson, USAF to be lieutenant general and Vice 
Commander, Air Force Space Command (Reference No. 1666)

    17.  VADM Christopher W. Grady, USN to be admiral and Commander, US 
Fleet Forces Command (Reference No. 1667)

    18.  RADM Timothy J. White, USN to be vice admiral and Commander, 
Fleet Cyber Command/Commander, TENTH Fleet (Reference No. 1670)

    19.  Capt. David A. Welch, USN to be rear admiral (lower half) 
(Reference No. 1671)

    20.  In the Air Force there is 1 appointment to the grade of 
colonel (Arthur W. Primas, Jr.) (Reference No. 1684)

    21.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Gregory J. Payne) (Reference No. 1685)

    22.  In the Air Force there is 1 appointment to the grade of 
lieutenant colonel (Michael J. Patterson) (Reference No. 1686)

    23.  In the Air Force there is 1 appointment to the grade of 
lieutenant colonel (Brad R. Matherne) (Reference No. 1687)

    24.  In the Air Force there is 1 appointment to the grade of major 
(Jonathan A. Morris) (Reference No. 1688)

    25.  In the Army there are 35 appointments to the grade of major 
(list begins with Hayley R. Ashbaugh) (Reference No. 1691)

    26.  In the Army there are 62 appointments to the grade of major 
(list begins with Jeffrey A. Anderson) (Reference No. 1692)

    27.  In the Army there are 169 appointments to the grade of major 
(list begins with Ahmad B. Alexander) (Reference No. 1693)

    28.  In the Army there are 137 appointments to the grade of major 
(list begins with Ashley K. Aiton) (Reference No. 1694)

    29.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Wilson R. Ramos) (Reference No. 1695)

    30.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Curtis D. Bowe) (Reference No. 1696)

    31.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Carl E. Foster III) (Reference No. 1697)

    32.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Michael A. Fowles) (Reference No. 1698)

    33.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Andrew K. Sinden) (Reference No. 1699)

    34.  In the Army there are 2 appointments to the grade of major 
(list begins with D013264) (Reference No. 1700)

    35.  In the Army there is 1 appointment to the grade of major 
(Christopher F. Ruder) (Reference No. 1701)

    36.  RADM Scott A. Stearney, USN to be vice admiral and Commander, 
US Naval Forces, Central Command/Commander, FIFTH Fleet and Commander, 
Combined Maritime Forces (Reference No. 1720)

    37.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with John J. Morris) (Reference No. 1736)

    38.  In the Army there are 2 appointments to the grade of major 
(list begins with Christopher M. Bell) (Reference No. 1737)

    39.  In the Army there is 1 appointment to the grade of colonel 
(Mikal L. Stoner) (Reference No. 1738)

    40.  In the Navy there is 1 appointment to the grade of commander 
(Jeffrey G. Bentson) (Reference No. 1740)

_______________________________________________________________________
                                                                    
TOTAL: 2,901

    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, for your service to this country, and I 
thank you for representing the men and women under your 
leadership.
    The NPR states, ``If Russia returns to compliance with its 
arms control obligation, reduces its non-strategic nuclear 
arsenal, and corrects its other destabilizing behaviors, the 
United States may reconsider the pursuit of an SLCM [submarine-
launched cruise missile].''
    However, in the debate, this statement has lost some of its 
nuance, and some now describe the SLCM as purely a chip to 
bargain for Russia's return to compliance with the INF Treaty.
    Can you clarify this? If Russia returned to compliance with 
the INF Treaty and otherwise maintained its current course with 
respect to non-strategic nuclear weapons, would it be your best 
military advice to cancel the deployment of the SLCM?
    General Hyten. Senator, I agree with my boss, Secretary 
Mattis. I do not like the term ``bargaining chip.''
    The capabilities that we proposed in the Nuclear Posture 
Review are in response to the threat. Everything that we talked 
about, including the low-yield nuclear weapon and the sea-
launched cruise missile, are in response to a threat.
    If that threat changes, then my military advice will 
change. But if that threat does not change, my military advice 
will stay that we need those capabilities in order to respond 
to the threat. I am not a diplomat. I am not a politician. 
Diplomats need to work those issues with our adversaries. I 
hope that they do, but my job as a military officer is to look 
at the threat, understand the threat, and propose capabilities 
to this body to deliver to the military so we can respond to 
any threat that exists. It is all about the threat.
    Senator Fischer. While we are on the topic of Russia's 
violations of the INF Treaty, your opening statement reads, 
``Russia's violation of the treaty with the development of the 
SSC-8 ground-launched cruise missile remains a significant 
issue as delivery of the treaty-violating system continues.''
    When you say delivery of the treaty-violating system 
continues, do you mean that Russia is continuing to produce and 
deploy the illegal system in greater numbers?
    General Hyten. Yes, ma'am.
    Senator Fischer. Since the NPR's release, some, the Russian 
Government in particular, deny that Russia genuinely has an 
escalate to deescalate strategy. I think you were questioned by 
a member of the Russian embassy staff on this point during a 
speech that you gave last month.
    Do you agree with the NPR's assessment that the escalate to 
deescalate strategy reflects that Russian doctrine?
    General Hyten. I guess I will say that I watch very closely 
what President Putin says, and I watch very closely what the 
Russian military does in response. President Putin in April of 
2000--April of 2000--almost 18 years ago, President Putin said 
that the doctrine of Russia will be to use nuclear weapons on 
the battlefield in a conventional scenario. That has been the 
continuing doctrine of Russia for almost 18 years. This is 
nothing new.
    We need the ability to effectively respond to that. We need 
the ability to deter that. We do not want that to ever happen. 
There is no such thing as a tactical nuclear weapon in my 
opinion. There is no such thing as a conventional nuclear 
weapon. All nuclear weapons are strategic, but you need 
different kinds to respond to different threats.
    Senator Fischer. Would you agree that when we are looking 
at this continuous threat of a Russian doctrine to escalate to 
deescalate that is based on the talk of their senior leaders? 
It is based on the fact that they are building weapons that are 
designed for this purpose and that they do conduct training 
exercises.
    General Hyten. There is no doubt that they do all of those 
things. When I have my intel--I do not speak Russian, but when 
I have my intels translate the Russian for me, it is not 
escalate to deescalate. It is escalate to win. It is escalate 
to win on the battlefield. We have to deter that kind of 
response. That cannot be allowed.
    Senator Fischer. General, critics have made a variety of 
arguments against the deployment of that low-yield ballistic 
missile warhead on a submarine. In sum, they believe the system 
is impractical because any use of the weapon would enable the 
submarine to be detected, destroyed, and they believe would 
initiate a full-scale nuclear war.
    Can you speak to those arguments, sir?
    General Hyten. Those arguments are not true, ma'am. I can 
tell you in a classified forum how a submarine would survive 
after launching. I can tell you how the Russians would see it. 
I can tell you how they would respond to that. I can also tell 
you that from a U.S. perspective, when we see a launch of a 
missile, we can characterize that threat. We understand where 
it is, where it is going. Unless it is a massive attack from 
Russia, any other scenario, there is actually a lot of time to 
respond, a lot of time to characterize, and it will be the same 
way on the Russian side. So each of those arguments is false. 
It is better to discuss the answers in a classified session.
    Senator Fischer. Thank you, sir, for addressing these 
immense threats that we face.
    General Hyten. Thank you, ma'am.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Nelson?
    Senator Nelson. Good morning, General.
    I am not too keen on ripping space out of the Air Force and 
creating a space corps. Do you want to state your position for 
the record?
    General Hyten. So I think I have stated my position many 
times. I think that some day we will have a space corps or a 
space force in this country. But I do not think the time is 
right for that right now. But I loved the fact that the 
President talked about space as a warfighting domain. I loved 
the fact that he embraces the fact that we need to have a 
future that looks at this warfighting domain.
    I am a big supporter of the bill that was passed by 
Congress last year in the National Defense Authorization Act 
that talks about looking at a space force and looking at when 
that would be the right time and what elements would be in 
place. I think the best example is the budget. The budget that 
was submitted this year is an 18 percent increase in space. 
Looking at warfighting, we are going to get after those pieces. 
Both the President and the Vice President and Members of this 
Congress, everybody is aligned with the threat. That is exactly 
where it should be, Senator. Thank you.
    Senator Nelson. So you gave a speech back in December that 
the days of viewing space as a benign environment are clearly 
behind us, and we need to maintain our lethal edge in space. 
You have said continually since then that in order to maintain 
the edge, we have to move faster. Do you think this is 
happening?
    General Hyten. I see good signs. The good signs I see is 
the leadership in the Department right now: Secretary Mattis, 
Secretary Shanahan, Lord, Mike Griffin in R&E [Research and 
Engineering]. I see leadership in the Air Force and AQ 
[Aquisitions] that all believe in going fast. I think the 
budget lays the groundwork for going fast, but Senator, we have 
not done it yet. We have not done any of that yet. We have not 
proven to anybody that we can go fast again. We used to be able 
to do that. We need to be able to do it again. We can do it 
again. But we have to get out of our own way. But I am excited 
about the leadership in the Department that has been put in 
place to help lead that change.
    Senator Nelson. General, I dare to touch the politically 
sensitive topic of the JCPOA [Joint Coalition Plan of Action]. 
If the President were to unilaterally withdraw, what kind of 
impact is that going to have on our global security 
environment?
    General Hyten. So my job, Senator, is to look at that 
treaty, look at what it does to our overall strategic 
deterrent, work with the intelligence community, as well as the 
broader interagency to evaluate whether Iran is in compliance 
with JCPOA. As I sit here today, Iran is in compliance with 
JCPOA.
    But JCPOA is about nuclear, and from a command that is 
nuclear, that is an important piece to me because it allows me 
to understand the nuclear environment better. But it does not 
say anything about Iran as a global sponsor of terrorism or if 
Iran is building huge numbers of ballistic missiles that 
threaten their neighbors and potentially us some day. All of 
those will be the decision that a policymaker has to make, but 
my job is to look at the nuclear capabilities and make that 
recommendation, which I have done.
    Senator Nelson. If we were to pull out of the JCPOA, does 
that send a message to North Korea?
    General Hyten. Any action the United States makes sends a 
message to everybody on the planet. So it will send a message 
to North Korea. It will send a message to Russia, China, our 
allies, Iran, Saudi Arabia. Everybody is impacted. That is one 
of the differences in deterrence in the 21st Century is that it 
is no longer a single country problem and a single issue 
problem. It impacts everybody. So every decision has to be 
considered in concert with the entire global environment.
    Senator Nelson. General, you already discussed in detail 
the threat of the hypersonics. Your answer was that we need 
this submarine-based low-yield nuclear capability. Is that the 
deterrent to hypersonics not only from Russia but also China?
    General Hyten. So that is where we stand today. But I 
believe we need to pursue improved sensor capabilities to be 
able to track, characterize, and attribute the threats wherever 
they come from. Right now, we have a challenge with that with 
our current space architecture and the limited number of radars 
that we have around the world.
    In order to see those threats, I believe we need a new 
space sensor architecture. The Missile Defense Agency and the 
Air Force are looking into that right now. There are $42 
million in the fiscal year 2019 budget in the Air Force line to 
look at that, alongside of MDA [Missile Defense Agency] as a 
prototype. I am going to advocate, as I have advocated for the 
last 30 years that we need to move into space and be able to 
build sensors to conduct both the characterization of these new 
threats that are appearing, as well as discriminate better and 
earlier the mid-course element of the threat that exists today.
    Senator Nelson. Mr. Chairman, in conclusion, I will just 
say I am sure that General Hyten lays awake at night after he 
has prepared all of this infrastructure up in space to protect 
us, and then he sees the threat of cyber attacks on that 
infrastructure, that that must keep you awake at night, 
General.
    General Hyten. All the threats keep me awake at night, sir. 
I wish they did not.
    Senator Nelson. Thank you.
    Senator Inhofe. Thank you, Senator Nelson.
    Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, General, for testifying once again in front of 
our committee.
    I want to return to something you said a few moments ago. 
You mentioned that Vladimir Putin first started talking about 
the use of nuclear weapons on the battlefield 18 years ago. Is 
that right?
    General Hyten. Yes, sir. I think it is worth going through 
that entire history because it goes across multiple 
administrations. It really talks about where Russia has been 
for the last 18 years. In April of 2000, he announced that the 
new doctrine of use of low-yield nuclear weapons on the 
battlefield was part of the Russian doctrine. He also announced 
a 50 percent increase that year in the budget for nuclear 
capabilities. 6 years later, he announced that Russia was going 
to modernize their entire nuclear arsenal and build new weapons 
and they were going to be 70 percent done by 2020. Dmitry 
Rogozin in 2015 came out and said we are not going to 70 
percent done. We are going to get 100 percent done by 2020. 
This has been a continuing pattern of behavior that creates a 
threat to the United States that we have to respond to. That is 
the work that we have been doing, and that is what the Nuclear 
Posture Review does. I think it is a very measured response to 
the threat that has been presented to us, much more measured 
than the speech Vladimir Putin gave on the 1st of March.
    Senator Cotton. So it is often perceived that Vladimir 
Putin and his senior general staff's rhetoric on this is a 
response to U.S. actions, especially post-2014 in their Crimea 
invasion. But what you are saying is he first started raising 
this in less than a year after he had taken over leadership in 
Russia.
    General Hyten. Almost immediately upon his first election 
in 2000, he made this.
    Senator Cotton. I think that is very telling. Now, 
sometimes talk is cheap with politicians, but when that talk is 
backed up by a substantial commitment of national resources, 
you can usually accredit it. Would you say that Russia has 
engaged in a substantial commitment of their national resources 
to modernize their nuclear force over these last 18 years?
    General Hyten. An enormous of their national treasure.
    Senator Cotton. That threat is primarily driving the 2018 
Nuclear Posture Review for our country.
    General Hyten. The Nuclear Posture Review is very 
consistent with previous, but it addresses the threat 
specifically.
    Senator Cotton. Let me ask you this broad question before 
you get into any details. So we have been doing nuclear posture 
reviews for a while. We have been a nuclear power for 73 years. 
Is there a single operating concept or capability in the 2018 
Nuclear Posture Review that is truly innovative or not 
reflective of 73 years of tradition in this country?
    General Hyten. It is all consistent with what we have been 
looking at from nuclear capabilities really since the beginning 
of the nuclear age in August of 1945.
    Senator Cotton. So let us now be specific on a few points.
    First, it has been this country's position for 73 years 
that we would not foreswear the first use of nuclear weapons. 
Is that correct?
    General Hyten. That is correct.
    Senator Cotton. It remains so today.
    General Hyten. It remains so today.
    Senator Cotton. Second, we have talked some about the low-
yield submarine-launched warhead. While that specific 
capability may not have existed to this point on a submarine, 
as you have testified before, we have had lots of other low-
yield weapons and we continue to have low-yield air-launched or 
bomb warheads. Correct?
    General Hyten. We used to have low-yield submarine-launched 
weapons too. As I think Senator Inhofe talked about, we did not 
maintain those going into the previous Nuclear Posture Review.
    Senator Cotton. Is that low-yield submarine-launched, or is 
that sea-launched cruise missiles?
    General Hyten. It was low-yield submarine-launched at that 
time.
    Senator Cotton. But we have also had sea-launched cruise 
missiles before.
    General Hyten. We have had sea-launched cruise missiles 
before. None of those capabilities are new. They are 
reintroducing previous capabilities that we felt were needed to 
deter our adversaries and we believe we need to deter those 
adversaries again.
    Senator Cotton. Again, driven primarily by the threat that 
Russia has posed by both the rhetoric and the reality of their 
nuclear modernization, as you have testified today, not just in 
the last year, not just in the last 9 years, but going back 18 
years across three prior administrations, the Clinton 
Administration, the Bush Administration, and the Obama 
Administration.
    General Hyten. That is true, but it is also important to 
add China and North Korea into that equation because they drive 
the threat as well.
    Senator Cotton. I think that is an important point. Almost 
all strategic discussions, certainly strategic arms control 
negotiations revolve around the bilateral threat between the 
United States and Russia. China is rapidly modernizing its 
nuclear forces. Much of that happens in a very clandestine 
fashion. So it is hard to say just how dire that threat has 
become. Certainly when you add Russia and China together, we do 
face the potential threat of nuclear overmatch in the future.
    I have to say we do not have a good history of estimating 
nuclear weapons programs. We usually, in the last 73 years, 
have gotten it wrong when you look at countries like the Soviet 
Union, like China, like India, like Pakistan, and erred on the 
side of caution saying that it would take them longer to 
develop those threats.
    So I think it is very important what you are doing at 
Strategic Command, what the entire administration has done with 
this new Nuclear Posture Review to counteract those threats 
that we face and to keep this country safe from ever having to 
face a nuclear war. The best way to do that is to have nuclear 
overmatch against all of our adversaries.
    Thank you.
    General Hyten. Thank you, sir.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General Hyten, thank you for being here and for your 
constant vigilance.
    I want to go back just quickly to a question that Senator 
Nelson posed about Iran's nuclear capabilities, recognizing 
that you are looking at it only from the nuclear perspective, 
and I share your concern about their other destabilizing 
activities. But in your assessment, are we not better off with 
an Iran that does not have nuclear weapons than we would be 
with an Iran that does have nuclear weapons?
    General Hyten. I would prefer nobody had nuclear weapons. 
That would make my job a whole lot easier.
    Senator Shaheen. I certainly agree with that. But on the 
issue of Iran----
    General Hyten. Would I prefer Iran without nuclear weapons? 
Absolutely. I would prefer Korea without nuclear weapons.
    Senator Shaheen. Thank you.
    General Hyten. I do not think nuclear weapons will ever go 
away. But I believe in nonproliferation, and the more nuclear 
weapons proliferate, the more difficult the world is.
    Senator Shaheen. Thank you very much.
    I want to go back to something you said at a hearing in 
2017 when you were before this committee because I asked you 
about cyber efforts and specifically whether you think we have 
a strategy that incorporates both a defensive and offensive 
strategy with respect to cyber attacks. I wonder if you can 
discuss whether we have made any progress since that hearing in 
2017 on these issues.
    General Hyten. So, ma'am, we have made progress.
    Senator Shaheen. Can you talk a little bit about what that 
is?
    General Hyten. We have made progress in moving forward and 
taking the fight to the adversary that is in the Middle East 
right now. But in my opinion, we have not gone nearly far 
enough. I think we have to go much further in treating 
cyberspace as an operational domain. Similar to the discussion 
we were having earlier about space as a warfighting domain, 
cyberspace needs to be looked at as a warfighting domain. If 
somebody threatens us in cyberspace, we need to have the 
authorities to respond.
    I always find it odd that we will give young soldiers, 
sailors, airmen, and marines lethal authority to operate far 
from home in harm's way to apply lethal force against an 
adversary using a set of rules of engagement, but we will 
hesitate to give a four-star admiral the authority to conduct 
cyberspace operations because we are concerned he will not 
follow the rules of engagement. We need to have specific rules 
of engagement in cyber that match the other domains that we 
operate in, but then we need to delegate that authority all the 
way down so we can deal with threats that exist that challenge 
the United States.
    Senator Shaheen. Well, I agree with that. So what do we 
need to do in Congress to make that happen? Do we need to give 
you expressed legislative authority? Do we need to delineate 
who has got those authorities?
    General Hyten. I always hesitate to advise Congress on what 
you should do. That is your responsibility.
    But I will tell you when I look at, what would be helpful 
to me is statements like we have had the last 2 years in space 
where space is a warfighting domain, and we need to develop 
responses to the warfighting domain. What that has done is it 
allowed us to push the envelope inside the Department. We are 
not there yet. We are going to be coming back in space with a 
number of different things about declassification of certain 
capabilities, additional authorities, those kind of things. But 
stating it is a warfighting domain similar to land, sea, and 
air was a huge step forward for us to move forward. I think we 
need similar things in cyberspace.
    Senator Shaheen. Well, does, to some degree, the Nuclear 
Posture Review not do that because it suggests that a response 
to a massive cyber attack might be the use of nuclear force? I 
mean, I do not agree with that, but it does sort of lay that 
out, that that is a potential response.
    General Hyten. I think it is clear that you could have 
catastrophic attacks on the United States through space or 
cyber and that we need to have the ability to respond to that 
and a means of our choosing in a domain of our choosing. People 
always ask me in space and cyber, how do you deter in cyber? 
How do you deter in space? How do you fight and win a war in 
space or cyber? You do not. War, conflict, deterrence is 
against an adversary, not against a place. You have to take the 
place out of it and focus on the adversary. What is the 
adversary doing? How do I deter that adversary? That is the 
piece that we have to go down, focusing back on an adversary.
    That is what you see in the Nuclear Posture Review, 
focusing on adversary threats. How do we respond to that? Then 
hopefully that allows room for our diplomats to sit down with 
our adversaries and say is this the world you really want to 
live in.
    Senator Shaheen. Well, thank you. I am out of time. Can I 
just ask one more question, Mr. Chairman?
    You talked about the progress, so to speak, that Russia has 
made in nuclear weapons and their military might. This is a 
country with an economy that I think is about the size of Italy 
that has been under sanctions for a number of years since they 
invaded Ukraine. They have done all of this military buildup 
despite those things. So what are they doing right to allow 
them to do this, and what lessons can we take from that?
    General Hyten. Well, ``right'' is in the eye of the 
beholder.
    Senator Shaheen. Right. You are right. I do not really mean 
to say ``right.'' But what have they done to be successful in 
this arena?
    General Hyten. So they have decided that that is the most 
important investment they have to make as a nation, and they 
have put the vast majority of the resources they have left into 
that. Oh, by the way, North Korea has done the same thing. That 
is a prioritization in Russia and North Korea.
    Senator Shaheen. Thank you.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General, first of all, thank you for your service to our 
country and thanks for the opportunity to visit with you today 
on some of these key issues.
    I would like to follow up a little bit with where Senator 
Shaheen was going. I want to talk about our policy versus the 
policies of our near-peer competitors.
    Let us just start out with the treaties that we have in 
place right now. With regard to INF, are we in compliance with 
the INF today?
    General Hyten. We are in compliance with the INF today.
    Senator Rounds. Would you say that Russia is in compliance 
with the INF today?
    General Hyten. They are not.
    Senator Rounds. Would you say that we have not only Russia 
to be concerned with with regard to similar weapons but also a 
near-peer competitor in China as well?
    General Hyten. I agree that all weapons have be looked at 
on the global perspective.
    Senator Rounds. Do you see any limitations on China with 
regard to the INF?
    General Hyten. They do not have any limitations in the INF, 
and they have built significant numbers of intermediate-range 
ballistic missiles that if they were in the INF, they would be 
contrary to that treaty.
    Senator Rounds. So with regard to our near-peer 
competitors, we have a deal with Russia. We do not have a deal 
with China. We are bound by the deal with Russia. We are 
honoring it; they are not. China, on the other hand, has no 
obligations to comply with it, and so they are free to move 
forward with their weapons development and deployment in place.
    Is it fair to say that that puts us at a competitive 
disadvantage, similar to having one hand tied behind our back?
    General Hyten. I think Admiral Harris testified to a 
similar thing the other day. It makes his job much more 
difficult.
    But there is no one-size-fits-all when it comes to 
deterrence. There is no one-size-fits-all. You have to look at 
all the adversaries separately and then you look at the impacts 
of any decision with those adversaries. I believe that we are 
better off if Russia would come into compliance with the INF 
and we would be in compliance with the INF in the overall 
scheme of the world. However, we have to make a decision in the 
near term. If they do not come into compliance with the INF, 
how long will we continue to, as you said, tie our hands?
    Senator Rounds. I think that is being recognized in your 
posture position at this time.
    Let me go on from there because what we have talked about 
now--we discussed the triad, the air, land, and the sea. I 
think you made a very clear statement about both cyber and also 
about space.
    With regard to cyber, do you believe that our near-peer 
competitors in cyber--that they have the same identification of 
what the norms are with regard to how we operate in cyberspace 
as we do?
    General Hyten. No, sir, they do not.
    Senator Rounds. In other words, if I could shortcut it a 
little bit, they do not see any problem with attacking us in 
cyberspace today while we probably do not take as active a role 
in attacking their infrastructures they do in attacking our 
infrastructures today?
    General Hyten. I think that the restrictions on Russia and 
China in particular are much less than the restrictions we put 
on ourselves.
    Senator Rounds. That is a policy decision on our part. Is 
it not?
    General Hyten. That is a policy decision on our part.
    Senator Rounds. What about with regard to space? Clearly 
any one of our weapon systems right now is dependent upon our 
ability to see and to hear and to monitor what other people are 
doing. Do they have the same norms with regard to operations in 
space as we do?
    General Hyten. There are no such things as norms of 
behavior in space.
    Senator Rounds. So are they more aggressive with regard to 
the deployment of militarily designed or systems that are 
designed with military purposes as we are?
    General Hyten. So I do not want to talk about that in an 
unclassified session. I would be glad in a classified forum to 
go into details of what they are doing, but all I can tell you 
is that they are being very aggressive in establishing what 
they perceive as norms that we see that I cannot talk about in 
here at the current time.
    Senator Rounds. Would it be fair to say that the eyes and 
ears that we have in space are at risk today from our near-peer 
competitors?
    General Hyten. Today they are not at risk, but I am 
concerned in the near term they would be at risk. Today we have 
such an enormous capacity that the capabilities that our 
adversaries are building cannot challenge it just because of 
the sheer capacity that we have. But in the not too distant 
future, they are going to build the capabilities that will 
allow them to challenge that across the board, and we have to 
make sure we stay ahead of that threat.
    Senator Rounds. Let me go to one other line of questioning 
for just a minute. The Air Force has recently announced their 
plans to retire the B-2 by the early 2030s, sustain the B-52 
through 2050, and move forward with procurement of 100 B-21's. 
Were you involved--was STRATCOM involved in making the 
determination of the overall bomber requirements?
    General Hyten. I was involved in the discussions.
    Senator Rounds. Do you believe that 75 B-52s and 100 B-21s 
will be sufficient to conduct a nuclear deterrence mission 
while supporting conventional bomber missions as well?
    General Hyten. I believe that is the minimum capability 
required.
    Senator Rounds. Has the Department begun planning for 
basing the B-1s--I am sorry--the B-21s.
    General Hyten. The B-21s? I know that the basing process is 
underway. I think that is an Air Force issue. That is something 
that they will come to me, STRATCOM, when they come to the 
Congress as well. But that is an Air Force issue that they have 
to work. But I know that process is underway because, well, I 
am an Air Force officer. So I do stay in touch with my service.
    Senator Rounds. I understand. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Welcome, General Hyten.
    I want to say that I appreciate that you have long 
expressed your frustration about our inability as both 
government and military to move more quickly in terms of 
acquisition, as well as in terms of decision-making. I 
certainly agree that we need to be more agile and responsive 
across the board. I think that applies to space systems. It 
applies to helicopters. It applies to our nuclear programs.
    Does it concern you that the NNSA conducted an analysis of 
alternatives on pit production that chose to ignore the Nuclear 
Weapons Council's previously endorsed plan to meet our nation's 
nuclear stockpile requirements and that it also took 3 years 
for that analysis to move forward?
    General Hyten. It does not concern me they conducted an 
analysis of alternatives. I think that is a smart thing to do. 
But it does concern me it took 3 years. I do not think any AOA 
[analysis of alternatives] should take 3 years. We take 3 years 
in the Department of Defense a lot too. I do not know why that 
is, Senator. I do not know why we spend so much time. It used 
to be we could build something in 3 years, but now we like to 
study things for 3 years.
    But like I said earlier, Lisa Gordon-Hagerty, the new 
Administrator of NNSA--she called me day one and said we are 
going to get you the answer. I do not have the answer yet on 
where we are going to go. As a member of the Nuclear Weapons 
Council and as the STRATCOM Commander, my job is to state the 
requirement. The requirement is 80 pits. And, oh, by the way, 
the first element of that is 30 pits at Los Alamos. That is 
regardless of whatever the AOA comes out. We have got to get to 
30 pits at Los Al first.
    Senator Heinrich. Do you think it would have been 
appropriate and smart for them to at least have considered the 
pathway that was chosen a few years ago as a response to the 
fact that NNSA was not moving fast enough at the time?
    General Hyten. So I think they are doing that in part of 
their engineering analysis now. I have not seen the results of 
that yet. I will see that shortly. I think Lisa Gordon-Hagerty 
has committed to this body to come back in the near future.
    Senator Heinrich. I have had some productive conversations 
with her.
    Can you talk a little bit about what any additional slip 
would mean in terms of our life extension programs?
    General Hyten. I am very concerned about any because 
basically all the new weapons that we just talked about, 
Columbia, sea-launched ballistic missiles, which is Trident, 
the GBSD [Ground-Based Strategic Deterrent], the new ICBM, the 
LRSO [Long-Range Stand-Off Missile]--all of those require 
weapons. Plutonium pits that are 100 years old are not a good 
thing for this country. We do not know how to characterize 
that. We do not know the material interaction of all those 
pieces. We have to make sure that we have a modern--if we are 
going to be a nuclear nation, we have to have plutonium pit 
production.
    So I am concerned that we have now pushed that just like 
everything else so everything will deliver just in time. 
Anytime we have something that delivers just in time, I get 
very nervous.
    Senator Heinrich. Well, I share your concern.
    The NDAA, Mr. Chair, that was just signed into law actually 
requires the Nuclear Weapons Council to certify no later than 
May 11th of this year that NNSA's recommendation actually meets 
requirements. So we have certainly got to get this thing back 
on track and get it on track quickly.
    I want to shift gears for just a minute to some of the 
developments around what was formerly called Operationally 
Responsive Space. It is now the Space Rapid Capabilities 
Office. It certainly received significant priority in resources 
in this year's budget request.
    Can you talk a little bit about the importance of 
responsive space in general and describe how the newly 
designated Space Rapid Capabilities Office will contribute to 
our nation's resilience in that domain?
    General Hyten. So the key, when you look at the budget, 
especially when you look at all the elements, including the 
classified side, is the beginning finally of building a 
resilient warfighting architecture for space. That is the path 
we are starting down to right now. The Space Rapid Capabilities 
Office will be a key piece of that because there will be 
certain elements that will be small, resilient that we need to 
go fast with. They will be the perfect place to do that. We 
have to give them the authority and responsibility, the 
funding, and let them go do that. But like I talked about with 
Senator Nelson before, that is the good news.
    The challenge we have now is we have not done it. We have 
not done anything. It is just sitting right there. I think, 
Senator, you have been involved in that discussion with me for 
at least the better part of a decade. We have never quite got 
there. Everything is lined up now. It is right there. Everybody 
understands the need. The administration, the Congress, and the 
Department understand the need. We have put a budget in place 
that starts down that starts down that path. Now we have to do 
it.
    Senator Heinrich. I could not agree more. I think for the 
first time we actually have that alignment. So let us take 
advantage of it.
    General Hyten. Yes, sir.
    Senator Heinrich. Thank you, sir.
    General Hyten. Thank you.
    Senator Inhofe. Thank you, Senator Heinrich.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    General Hyten, very good to see you. Thank you for your 
leadership of Strategic Command, and for the men and women that 
serve with you in STRATCOM, we thank them for their service as 
well.
    You have acknowledged over and over again today that space 
is becoming an increasingly contested and militarized domain. 
While we continue to hold that technological advantage in 
space, our adversaries are rapidly catching up to us. They are 
modernizing and developing their own space capabilities.
    So I do appreciate your efforts to streamline the Air 
Force's space acquisition process, which has significantly 
hampered our ability to rapidly develop and deploy our critical 
capabilities. I do believe more needs to be done to ensure the 
U.S. can overmatch our near-peer competitors and adversaries in 
space.
    So the only way to solve a problem is to understand exactly 
what we are up against. You have discussed what you can today 
in an open setting. But would you agree that the threats that 
we see in space are greater and more complex than they were in 
the year 2011?
    General Hyten. Significantly greater. I think tomorrow you 
will see in the closed hearing how all of that comes together 
because in the closed hearing, you will see the budget played 
out into the future against the threats that are now coming 
out. You will understand the integration of all those pieces 
together. So weather permitting, I sure hope we get together 
tomorrow so you can see that.
    Senator Ernst. Absolutely. Given that the last national 
security space strategy was developed in 2011, do you believe 
it would be worthwhile for the DOD [Department of Defense] to 
develop a modernized strategy to face today's threats?
    General Hyten. So if that is a yes or no question, which it 
sounded like, I will say yes. But I will tell you that the Air 
Force, the Services, the National Reconnaissance Office, and my 
command have worked together to build what I think is an 
integrated strategy. The challenge with it is it is so 
classified we can share it with only a very few people. We will 
be able to share it with you tomorrow.
    I think the work we have to do is actually figure out what 
really needs to be classified in the future, how do we do that 
because we need to be able to plan with the other combatant 
commands, plan timing and tempo of our operations. All those 
pieces have to come together, and unless we have things that we 
can talk about in forums like this, it is a very difficult 
problem to do. So I think we have a very good strategy now. The 
problem is not that many people know it. So we are going to 
have to work that issue.
    Senator Ernst. I do appreciate that. You can see the level 
of concern that is coming from those of us on the Armed 
Services Committee here in the Senate. We do hear it from our 
public as well. While they might not have access to the same 
level of information, they do have a concern about it. So we 
look forward to getting that information.
    On to the Nuclear Posture Review. The 2018 NPR stresses the 
importance of nuclear command, control, and communications, so 
our NC3 modernization, promising upgrades, new technology, and 
better governance and planning across the commands. What are 
the greatest challenges to sustaining and modernizing the 
Department's NC3 capabilities?
    General Hyten. So the biggest challenge is the integration 
of all those new weapons platforms I was describing before. Our 
nuclear command and control today is secure and reliable, but 
it operates on the old weapon systems, the old platforms, the 
old structure. We talked about in 2030, the new submarine, the 
new bomber, the new ICBM, new capabilities are going to come on 
line and they are going to have to fit into a new nuclear 
command and control architecture. We have not directly defined 
that for the Congress or for our nation yet, and we are going 
to have to do that. If you think about 2030, it sounds like a 
long time away, but it is only 12 years. This year, we have to 
make some critical decisions on governments. The Chairman and 
the Secretary are involved in that right now. We have to get 
after defining what that issue is.
    Senator Ernst. So you would characterize this as that we do 
not have sufficient and capable acquisition prepared.
    General Hyten. So I would say that the nuclear command and 
control today is fine. We can talk about that in a classified 
forum, but it is good. But we have to have an acquisition plan 
that delivers the nuclear command and control in 2030 that will 
match all the weapon systems. We have not matched that yet. The 
Air Force has done a good job in establishing the right 
structure. The Navy has done a good job establishing the right 
structure. But there is another element, which is the national 
piece, that is not as well defined yet, and how all those 
pieces are going to come together is probably the biggest 
question. So we understand the problem. We have clearly 
understood what the problem is. Now we have to explain to 
ourselves and then to you the approach to get there in the 
future.
    Senator Ernst. I appreciate that. My time is expired but, 
General, I do want to thank you again for your leadership in 
this area and appreciate the fact that you are very forward 
thinking. We really do need that at such a critical time. So 
thank you to you and for the men and women that serve with you. 
Thank you.
    General Hyten. Thank you, ma'am.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, General Hyten, for being here.
    General, we just passed a significant deadline for the New 
START, which requires both the United States and Russia to 
limit the number of deployed nuclear warheads and platforms. 
According to the terms of the agreement, both Russia and the 
United States were required to certify by February 5th of this 
year that we have met those caps.
    General, are you confident, based on the verification 
mechanisms we have in place, that the Russians have lived up to 
their end of the agreement so far?
    General Hyten. Again, a yes or no question. The answer is 
yes. There are some caveats. There are still disagreements on 
both the Russian and American side about certain elements of 
their bomber force, our bomber force. But we certified on the 
5th. They certified. We believe, given the current mechanisms, 
that we are in compliance.
    Senator Warren. All right, good. Thank you, General.
    Last year, you told Senator Kaine that you continue to 
support the New START limits, and I understand that New START 
applies only to strategic weapons not to the entire nuclear 
arsenal. I share your concerns about Russian verification in 
the INF Treaty that there are some areas where we have 
concerns. The Nuclear Posture Review calls for two new low-
yield warheads to be developed in our own nuclear arsenal.
    General, you said that you do not support increasing the 
number of strategic weapons. As part of developing these two 
new low-yield options, do you support increasing the overall 
size of the nuclear arsenal?
    General Hyten. No, ma'am. So here is what we will do. We 
will take each of the sea-launched ballistic missiles, the 
Ohio-class submarines that we have. We will pull a missile out. 
We will take the large warhead off. We will put a small warhead 
on, put it back on the submarine, and put it out to alert. So 
the total numbers of weapons that we have will be greater, 
which is kind of an interesting piece is that we will have the 
same number of weapons, lower total yield, and somehow that is 
creating a destabilizing structure which is an interesting 
dynamic.
    Senator Warren. Thank you, General. I appreciate the detail 
on this.
    If I can, just one more question on this. New START expires 
in February of 2021, but the agreement includes an option for a 
5-year extension. What conditions would you want to see in 
place for us to extend New START?
    General Hyten. So that is a question for the State 
Department. Again, I am not a diplomat. I am not in the White 
House.
    My desire and what I present to the State Department and to 
my leadership in the White House is that if we can create 
conditions for stability across nuclear weapons across the 
board, that makes my job easier. My job is to defend the Nation 
against nuclear threats, space threats, all the threats that we 
have. Knowing what our adversaries have and being able to 
verify that is hugely important. I would like to be able to do 
that across the entire spectrum of capabilities. But the most 
critical is the strategic limits that are in the New START.
    Senator Warren. Good. Well, I appreciate that, General. I 
have no illusions about Vladimir Putin. I think he is a thug 
and a bully. I think we will continue to disagree with him more 
than we agree, including on nuclear issues. But Russia and the 
United States still control strategic nuclear arsenals capable 
of blowing up the world many times over. So if it is possible 
to continue to make progress and, as you say, more stability in 
this one area, then I think we need to continue to have that 
conversation.
    With my remaining time, I would like to ask one other 
question and pick up on Senator Ernst's point and ask you about 
plans to modernize the nuclear command, control, and 
communications system, the NC3. Last month, Senator Reed and I 
visited Hanscomb Air Force Base in Massachusetts to meet with 
the program executive office for NC3. We have got some really 
talented people up there doing critical work. But I am worried 
because everyone I have talked to agrees that the Air Force 
Materiel Command, which is responsible for acquisition side of 
NC3 recapitalization, is understaffed for this mission.
    So can I just ask, General? Will you commit to working with 
me and with this committee and with General Pawlikowski to 
advocate that NC3 is appropriately staffed so that it can move 
forward as it needs to?
    General Hyten. I will commit to do that, Senator.
    If I could, just one addition to that is that we actually 
have really good people assigned to that job right now. The 
problem really is that you can create the slots and put people 
in those slots, but this is such a complicated problem, that it 
takes years to build the expertise that you have. So just 
because you get a smart person and put him in the chair, it 
does not mean you have solved the problem. We actually have to 
get training for them and build that expertise up because we 
took our eye off that expertise, and now we have to rebuild it.
    Senator Warren. Well, I understand that. Your point about 
we took our eye off this is absolutely spot on. The systems 
that comprise NC3 are aging, and they are far too critical to 
be left to chance. We need to make sure that this system is 
secure and that it is resilient, and we need the best 
acquisitions approach to it to make sure that we can get this 
done on time. I hope we can continue to work together on that.
    General Hyten. Yes, ma'am.
    Senator Warren. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General, thank you for being here and for your decades of 
service and dedication.
    One question I would like to start with--it was maybe an 
NDAA or two ago that we had a discussion about retiring some of 
the outdated weapons in our arsenal. How are we doing with 
that, and is there anything more that we need to do for some of 
the outdated weapon systems, some that are just either outmoded 
or potentially dangerous?
    General Hyten. So the stockpile--you are talking about the 
nuclear weapons here. The nuclear stockpile is secure. But as 
you said, a few years ago, we started looking at some of the 
old weapons, and slowly and surely started removing those from 
the stockpile. In order to get to what we have actually done, 
we have to go to a classified forum.
    But I think that is a smart thing to do because we need to 
make sure that the stockpile is there for two reasons: to 
support the fielded forces that we have but to also support a 
potential violation of the New START or a breakout of that 
treaty so that we have the ability to go forth. I mean the 
Minuteman missiles today, for example, only have one warhead on 
top of each of the missiles that we have deployed but we have 
the ability to put three on top. We need to have those extra 
weapons in case there is a problem with our adversaries in 
Russia or China that we need those capabilities. So we have to 
make sure we maintain the stockpile at the right level, but we 
should not maintain anything greater than that. So we have been 
making good progress on that.
    Senator Tillis. The 2-year spending bill. How is that 
affecting--what kind of time horizon do we really need for you? 
You have got some long-term execution horizons for your work. 
The 2-year spending bill helps, but can you tell me 
specifically in an open setting how that has been helpful to 
your command?
    General Hyten. We do not have the bill yet. That is the 
biggest concern I have. But assuming that we do, what we will 
do for the first time is we will have stability for 18 months, 
and stability is the most important thing. You know, all the 
things we----
    Senator Tillis. Eighteen months seems like a long time 
around here, but it is amazing that you consider that positive. 
But we all know that is not enough time for your line of 
business.
    General Hyten. The most important thing is a budget is a 
budget on the first of every year. That is the most important 
thing. Whether that budget comes through a 2-year budget or an 
18-month, but having a budget on the first of the year. When I 
look back at the history and the folks that used to go fast, 
the Shrevers, the Rickovers, the biggest thing--they always 
started with a budget on the first of the year, and because of 
that, they had the ability to make decisions and flex 
accordingly. When you do not, not only do you not go fast but 
you actually waste huge amounts of money. Both of those things 
bug me.
    Senator Tillis. So is it not fair to say--I know you do not 
want to give Congress advice, but if we come up short on these 
spending decisions, then some of the dates that you have talked 
about and some of the capabilities that will come on line will 
also shift to the right?
    General Hyten. Since I have almost no margin in some of 
those programs, that scares the ever-living heck out of me.
    Senator Tillis. On the INF with Russia, the ideal world 
would be that Russia is actually complying. But if they do not, 
at what point--is there a sufficient level of compliance where, 
even though they are cheating in certain areas, it is worth 
having, or at what point do we have to say we have got to take 
the handcuffs off?
    General Hyten. Well, you have seen in the budget for fiscal 
year 2019, we have proposed starting research and development 
on the ground-launched cruise missile. Research and development 
is not in violation of the treaty, but testing and deployment 
of that capability would be. But nonetheless, we have said it 
does not look like they are going to come back in compliance, 
and we are going to start down that path.
    President Putin yesterday said he did not want an arms 
race. Of course, on the 1st of March, he showed nuking Florida. 
So I am not sure exactly what the message is there, but I can 
tell you that if we have to build intermediate-range missiles 
to respond to the threat, I have no doubt that this country 
knows how to do it. We have done it before. We can do it again. 
We proposed starting the research and development in 2019 to 
start down that path.
    Senator Tillis. Do you agree that if we do not take that 
threat seriously, that some have testified before the committee 
they put us in a position of--I think the phrase was used--we 
could be in a position of either surrender or suicide?
    General Hyten. That is the Kissinger quote, and I agree 
with that. I think we need a low-yield nuclear weapon, very 
small numbers. I can tell you how many we need in a classified 
session. It is not many. But I think we need that to deter our 
adversaries to make sure we do not get into that point where 
the only decision for the President is suicide or surrender.
    Senator Tillis. Well, thank you, General. I for one will be 
doing everything I can to make sure that we provide you funding 
so that you can do your job the way I know you can do it. Thank 
you.
    General Hyten. Thank you, Senator.
    Senator Inhofe. Thank you, Senator Tillis.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, General Hyten, for being here today and for your 
testimony. As always, thank you for your service as well.
    We have heard from several members here today questions 
related to the low-yield submarine-launched ballistic missile, 
as well as the nuclear-capable sea-launched cruise missile. So 
my question relates to the discrimination issue that some 
people have raised, that with these particular capabilities, an 
adversary may not be able to identify that a low-yield SLBM 
[Submarine-Launched Ballistic Missile] is actually a low-yield 
weapon that has been fired and it could possibly trigger 
escalation thinking something more is coming at them.
    In fiscal year 2007, the Navy considered a conventional 
Trident modification where Trident submarines would carry 
conventional warheads, as well as nuclear warheads. At the 
time, Congress rejected funding for that modification. Ted 
Stevens, a former Senator here, said, ``A country that picks up 
or identifies a launch might legitimately worry whether the 
weapon carries a nuclear or conventional payload.'' This could 
be a provocative action if taken, which was part of his 
comments in rejecting that idea.
    So my question to you is, with a low-yield warhead, is the 
discrimination problem not still there? Is it more dangerous? 
What should we do about that?
    General Hyten. So there are a million ways to go down that. 
It is a very complicated answer. I will try to be brief.
    The first thing is that from detection to creation of the 
explosion is less than 30 minutes. It is a very short period of 
time. If somebody does detect that launch, they will see a 
single missile or maybe two missiles coming. They will realize 
it is not an existential threat to their country and therefore 
they do not have to respond with an existential threat. That is 
what I would recommend if I saw that coming against the United 
States.
    But I think the first thing you have to realize is that, 
first of all, it is a deterrence weapon. The first use of that 
weapon is to make sure that nobody use that kind of weapon 
against us.
    The second piece is that if we do have to respond, we want 
to respond in kind and not further escalate the conflict out of 
control. And so an adversary, Russia in this case, will see a 
weapon coming perhaps--I can talk about that in a classified 
forum as well. They will see it coming, but they do not have to 
respond right now and they will not have time to respond 
because they will not want to commit suicide.
    So all of those pieces, when you look at all the pieces 
coming together, actually if you are talking about a rational 
actor, will not be an issue in terms of it: so deterrence first 
and then a response weapon in kind to keep the conflict from 
escalating worse. It actually makes it harder for an adversary 
to use the weapon in the first place, and, if it does use it, 
it allows you to respond appropriately.
    Senator Peters. The key is a rational actor.
    General Hyten. The key is a rational actor. A rational 
actor is the basis of all deterrence policy.
    Senator Peters. Right.
    There have also been a number of questions related to NC3 
systems that you have answered. My question is about the 
priorities. Where does modernizing NC3 fit in with the 
modernization efforts of our broader nuclear enterprise? It 
seems to me that it is essential that we have secure and 
reliable command and control in place prior to new weapons, but 
how would you balance those priorities?
    General Hyten. So the way I have talked about it, it used 
to be the big four. The big four were bomber, ICBM, cruise 
missile, submarine. It is now the big six, bomber, ICBM, cruise 
missile, submarine, plus NC3, plus nuclear weapons. Those six 
elements have to come together for our nuclear infrastructure 
and for our nuclear deterrent to continue to be viable in the 
future. All six of those have to come together in the 2030 time 
frame for the future. They all come together today. We are 
fully ready today, but to make sure it comes together in the 
future, we have to be working all six.
    Senator Peters. Simultaneously.
    General Hyten. Simultaneously.
    Senator Peters. Earlier you testified that the sea-launched 
cruise missile is not a bargaining chip. But last month, 
Secretary Mattis testified at the House Armed Services 
Committee that the submarine-launched cruise missile will, 
``give our negotiators something with which to negotiate.'' 
Could you clarify that for us, please?
    General Hyten. Absolutely. I think the Secretary said it 
exactly right. I do not like calling anything a bargaining 
chip. That capability is against the threat. However, that 
capability also gives our negotiators something to talk about. 
If you do not have something to talk about, it is very hard to 
sit down and negotiate. But it is not a bargaining chip because 
it is to counter the threat. I think the only thing he did not 
like and I do not like is using the term, ``bargaining chip.'' 
But it does give our negotiators things to work with, which is 
a good thing.
    Senator Peters. Thank you, General.
    Senator Inhofe. Thank you.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Good morning, General. Thank you for your service to the 
country as well.
    General Hyten. Thank you, sir.
    Senator Scott. Russia's strategy to escalate to dominate is 
something this committee has heard about over the last 3 weeks 
several time. Senator Fischer mentioned it this morning. 
General Scaparrotti talked about it in my office when we met a 
few weeks ago as well. To me, it is chilling to think that 
Vladimir Putin sees the preemptive opportunity as a real one 
and a way to cement the gains that he is making as he tries to 
grab more territory and frankly intimidate as many of his 
neighbors. Eastern Ukraine comes to mind as does the 
possibility of Russia seeking to build a land bridge through 
Lithuania to its enclave Kaliningrad.
    I am confident the administration will use all available 
resources, whether it is diplomatic, military, and economic 
means, to counter such a strategy if we find ourselves or our 
allies in need of assistance.
    What we have learned, though, is that Russia truly respects 
strength. I am interested in what kind of strength we should 
have to put Russians' ambitions in check, and that being the 
recently completed Nuclear Posture Review proposes returning 
two capabilities you have already talked about with Senator 
Peters, both the sea-launched ballistic missile, as well as the 
cruise missile.
    My question for you is do you have all that you need in 
order for us to develop a complete low-yield nuclear program 
for missiles?
    General Hyten. So, first of all, as the Commander of United 
States Strategic Command, I have everything I need today to 
deter Russia from doing anything against the United States of 
America. We are fully ready against any threat that exists 
today, without a doubt.
    Senator Scott. Very good.
    General Hyten. What my concern is will that be the case for 
the commander after commander after commander after me as we go 
down looking in the future. In that case, we have a lot of work 
to do in order to make sure that those capabilities come on 
line. We believe that in order to deter Russia from using 
nuclear weapons on the battlefield, we should deploy a low-
yield nuclear weapon on our ballistic missile submarines. We 
believe, to respond to a number of threats both in Russia and 
China, that we should have a sea-launched cruise missile 
capability in order to respond to that. We know how to do all 
of that stuff. It is not new. It is work that we have done 
before both in the Department of Defense and the Department of 
Energy. We know exactly how to do it. We just have to go do 
that work.
    But the most important thing--and I think Senator Reed said 
it earlier. The most important thing is the continuing 
modernization of the triad because that is the foundation of 
our nation's defense, and that is the strength that will 
continue to deter Russia into the out-years.
    Senator Scott. As we look at the potential of those who 
succeed you or come after you, is congressional authorization 
as it relates to low-yield nuclear weapons essential or not 
necessary?
    General Hyten. That is really a question for lawyers not 
for a combatant commander because it is so important to me I 
talk to lawyers. They have told me that congressional 
authorization is required. Therefore, the Nuclear Weapons 
Council and I have talked to the Office of Management and 
Budget. The Department of Energy is working with them. I think 
they will have an approach to come look for authorization to 
begin that right away so we can start down that path. It is 
already in our 2019 budget submission. It was not in the 2019 
Department of Energy budget submission. That is the Department 
of Energy piece that will require authorization, and I think 
that will come in a fairly timely way.
    Senator Scott. Senator Tillis mentioned it earlier and you 
commented on it very clearly that the continuing resolutions 
that have presented real hurdles for our military are 
measurable in real dollars. I met with the Secretary of the 
Navy, and he said that over the last several CRs [Continuing 
Resolutions], it has cost the Navy in quantifiable dollars 
about $9 billion. That to me seems astounding that as tight as 
things have been--and frankly, we are hopeful for the $165 
billion that we are looking for to being deployed to help our 
men and women in uniform. The fact of the matter is that short-
term budgeting has got to be an obstacle that is preventable, 
number one, and number two, a major source of angst for folks 
in your position.
    General Hyten. So I worry about it for a number of reasons. 
I cannot even describe the impact on morale to the workforce 
because when it happens, the message that is sent--I know it is 
not intentional because I talk to each and every Member of 
Congress, and they all respect the military. But the message 
that is sent is they do not care, is that the Congress does not 
care, the Nation does not care when they do not get a budget. 
When the civilians employees have to sign a piece of paper that 
says, yep, I will go home, I will do no work, it is so 
deflating to the workforce that it is hard to describe what the 
impact of that is.
    Then the inefficiencies that we put into the overall 
conduct of the B-21 program, any new program that comes up that 
has a funding increase required that we cannot do, we 
incorporate all kinds of inefficiencies into that process.
    Then I still do not have a problem today conducting my 
mission, but I really worry about the long-term impact for 
continuing to do that. I know that if we do not get routine 
budgets, that the schedules now that deliver just in time will 
not deliver in time because we will not have an efficient 
program delivering them.
    So I worry about that in a lot of ways. I know each of the 
members here do, but as a body, it is so essential that the 
Congress come together and pass a defense appropriations bill.
    Senator Scott. Thank you. Certainty and predictability are 
absolutely essential for the success of our military.
    Senator Inhofe. Thank you, Senator Scott.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you, General, for being here.
    In your written testimony, General, you highlight the need 
to prioritize and accelerate development of hypersonic 
capabilities, and I could not agree more with you. Is the 
United States leading the way in development of hypersonic 
glide vehicles or are we behind the curve relative to Russia 
and China?
    General Hyten. We are ahead in some areas, behind in other 
areas. So as a whole, I would say it is a competition, and it 
is a competition I believe that we should have a goal of 
winning that competition, not tying, not losing, but winning 
the competition. So that means the areas we are behind in--and 
I can talk about those in a classified setting--the areas they 
are ahead in we should accelerate further. We need to make sure 
that that becomes a priority for our nation to understand what 
that is, and then we have to figure out how to respond to it. 
The first way to respond to it is to be able to see the threat, 
which right now is challenging. So we have to build 
capabilities to see what the threat is as well.
    Senator Donnelly. Thank you.
    In terms of that competition, as you look at Russia and 
China, is it that as we look forward, are we moving further 
ahead or are they closing in on us in terms of capabilities?
    General Hyten. They are closing in. I think we are still 
ahead. We are ahead significantly on the conventional side. I 
think we have stability with Russia on the nuclear side. We 
have an advantage with China on the nuclear side. But they are 
gaining ground quickly, especially when you look at space and 
cyber.
    Senator Donnelly. The Navy successfully demonstrated a 
conventional prompt strike missile last year that could become 
a sea-based capability in the future. What are the next steps 
for the development of a sea-based CPS [Conventional Prompt 
Strike] capability?
    General Hyten. The next step--you have seen it in the 
budget. The Navy has been given the program now. The Navy has 
to decide who is going to lead the program. So there is a joint 
task force underway involving the Navy, the Joint Staff, my 
command to look at the future of that program and to define it 
in 2019 so that we can execute the budget that we have put 
together. That work will be underway this summer and we will 
report out. Admiral Richardson, the CNO [Chief Naval Officer], 
is the lead on that. I talked to him about it the other day. He 
is committed to make sure that that comes across right because 
STRATCOM and other combatant commands have a valid need for 
that capability.
    Senator Donnelly. General, we have a new bomber, a new air-
launched cruise missile, the life extension of our current 
ICBMs, a new ICBM, a new SSBN [submersible ship ballistic 
missile nuclear-powered], warhead life extensions in our 
nuclear command and control systems. The Nuclear Posture Review 
adds to this potentially another warhead modification, a new 
submarine-launched cruise missile, any necessary modifications 
to the subs carrying the SLCM, and any warhead modifications 
necessary to arm it.
    Can you give us a list from first to last of how you rank 
these because our concern is we do not have a budget that can 
accomplish even the portion that we all see as absolutely 
essential? We know there are things we need to do, and I was 
wondering if you have a list of how you put these in place.
    General Hyten. I do not have a list, Senator.
    Senator Donnelly. Is it that they are all critical?
    General Hyten. They are all critical. The most critical is 
the modernization of the triad, the big six that I talked about 
with Senator Peters a while ago. That is the most important 
piece of it. But everything in the Nuclear Posture Review that 
we talk about, everything that is in the budget is in response 
to a threat. So I cannot sit in front of the Senate, I cannot 
sit in front of Congress, I cannot sit in front of the 
President and say, yes, sir, because of that threat, we do not 
need this capability because the threat exists.
    The only way I can change my recommendations to you is if 
we can change the threat, and I hope some day that threat 
changes. I hope it changes in Russia, China, North Korea, Iran. 
I hope those threats change, but if they do not change, I will 
sit in front of you next year and advocate for those 
capabilities because they are all in response to an existing 
threat to this nation.
    Senator Donnelly. In light of how critical all of those are 
and the budget challenges that we have as well, now more than 
ever we need to be sharing information, services, and parts 
across the Services to control cost and risk in this 
undertaking. Can I secure your commitment to find commonality 
between the Services and industry to try to reduce that cost 
and risk, that we are not reinventing the wheel in effect?
    General Hyten. So I am a combatant commander. So I need the 
capability. However, I am also a taxpayer. So I look for any 
way we can come up with commonality. I think there are ways to 
do that. But I will also point out that we have to be careful 
not create single point failures in the nuclear enterprise. So 
if we have everything common on the ICBM side and the SLBM 
side, that is actually not a good thing because now if one 
thing fails, we have lost two legs of the triad. So we have to 
be careful as we walk through that.
    But I am working with Strategic Systems Program and Admiral 
Benedict and Admiral Richardson to try to figure out with the 
Air Force where elements of commonality should be. We have an 
effort going on inside the Nuclear Weapons Council to define 
the strategy for modernization in the future so we understand 
what those pieces are.
    Senator Donnelly. General, thank you for your service.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Donnelly.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, General Hyten. I appreciate your being here 
today and your great service.
    I was looking in your written testimony because I saw a 
phrase that interested me, and now I cannot find it.
    General Hyten. I am sure it was brilliant.
    [Laughter.]
    Senator Kaine. It was brilliant. It said there is no cyber 
war, there is no space war, there is just war.
    General Hyten. That is correct. It is one of the few things 
I get frustrated about is when I get a question how are you 
going to fight and win a war in space. How are you going to 
fight and win a war in cyberspace? It occurred to me a couple 
of years ago that there is no such thing. There is just war. In 
war, there may be an element of it that extends into space. 
There maybe an element that extends--but war is against an 
adversary. If you have to deal with the adversary and if we get 
attacked in space, for example, is the United States' response 
going to be a response in kind in space? In many cases, that 
might be the exact wrong response. We may want to respond in 
another domain.
    Senator Kaine. But we ought to respond.
    General Hyten. But we ought to respond, but it should be 
focused on the adversary and what the adversary holds dear. If 
we hold space dear, maybe we will respond in some way that 
holds something the adversary holds dear. There is just war. 
There is just conflict.
    Senator Kaine. General, on page 3, you go over in your 
testimony the global security environment, and you have this 
phrase in your paragraph about Russia. In June 2017, as part of 
an effort to destabilize Ukraine, the Russian military launched 
the most destructive and costly ever cyber attack in history. 
The effects of this attack spread globally and included 
devastating damage to U.S. businesses.
    Is that war?
    General Hyten. I believe it is. I believe that war extends 
into cyberspace. I believe that our adversaries have figured 
out that that is part of the structure. War is against a nation 
state, and you attack the thing the nation state holds dear. 
Certainly I would hope that everybody in America holds our 
economic structure dear and holds our ability to live 
comfortably dear, holds our power grids dear, all those kind of 
things that could be attacked through cyberspace.
    Senator Kaine. Should we hold our election systems as dear 
as we hold our economic capacity?
    General Hyten. I believe that any attack against our nation 
should be considered an attack that we have to respond to.
    Senator Kaine. Including the Russian attack of 2016 against 
the election.
    General Hyten. I actually have talked to Admiral Rogers. I 
understand I believe it was. But I do not know exactly the 
relationship inside Russia about how that happened. All those 
kind of pieces are still to be worked.
    Senator Kaine. If it was attributed to the Russian 
Government rather than just rogue elements, is it an act of 
war? We are not talking about cyber war, space war is an act of 
war.
    General Hyten. So it is the job of the United States 
Congress to declare war.
    Senator Kaine. What if somebody takes action against us? We 
have not declared war on Russia. We had not in 2016. But when 
they took that action against the Ukraine, which you said was 
an act of war--I just asked you about that--because it effected 
the attack of a sovereign nation, on a sovereign nation, how 
about--I agree we had not declared war on Russia, but was 
Russia's effort to undermine the American electoral system, if 
it can be shown that it was with governmental imprimatur rather 
than rogue elements, would that be an act of war?
    General Hyten. So it would be an act of war by definition, 
but would we declare war? I would think not. I would think, 
however, that the United States would want to respond in some 
way to an attack on our nation.
    Senator Kaine. So it would be an act of war by the Russians 
against us. Obviously, the Administration, Congress has the 
ability to decide what to do. I think that is important.
    We had a hearing with Cyber Command, a very strong hearing 
with Admiral Rogers, a couple weeks back, and we were grappling 
with this. One of the worries that I think we have with a broad 
portfolio not only in Armed Services but we serve on other 
committees--we are dealing with the American election system; 
we are dealing with power grid; we are dealing with all kinds 
of things--is how do we protect the country. Admiral Rogers 
said, well, the protection of the election system really is 
more about how states run elections. Senator McCaskill said, 
you cannot expect the Secretary of State of Missouri to go head 
to head against the nation state of Russia if they want to 
attack the American election.
    So we are depending upon our defense, DHS [Department of 
Homeland Security], and others to protect us, but we also have 
to be clear because if we are unclear what it is, then we will 
likely be unclear what our response should be.
    General Hyten. I think that is the challenge we have in 
cyberspace today. So I have given you my best military advice, 
my personal opinion. But as a nation, we have not made that 
decision yet.
    Senator Kaine. Well, I would just say you call it out 
pretty clearly about what an attack on Ukraine is. I looked in 
that paragraph to see any reference to Russian attacks directly 
against the United States, and I did not see any. The one I saw 
was an attack against the Ukraine in June 2017 that affected 
American businesses. When I asked you about it, you said you 
thought that kind of attack of nation against nation vis-a-vis 
Ukraine was an act of war. I agree. We have to decide how 
seriously we will treat it.
    On our side there has been some ambiguity about it, and I 
will say on the side of the last administration and this 
administration, there is real ambiguity. I do not know of a 
mayor or a governor who believes that the Federal Government is 
really going to have their back to protect their electoral 
system in 2018. They have not seen the signal sent that we are 
going to have their back. I think it something we should send.
    Mr. Chair, I am over my time. Thank you.
    Senator Inhofe. Thank you, Senator Kaine.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    General, welcome. Thank you for your service. Good to see 
you again.
    In your written testimony, you stated ``we cannot be 
successful in this endeavor by investing solely in active 
missile defense capabilities. We must strengthen and integrate 
all pillars of missile defense, including the capability to 
defeat adversary missiles before they launch.''
    Building on this point, as you know, currently America's 
missile defense systems are limited to ones that intercept 
missiles during the mid-course when the missile is coasting in 
outer space and in the terminal phase, once it has entered back 
into the atmosphere. But the Missile Defense Agency has noted, 
``Intercepting a missile in its boost phase is the ideal 
solution for a ballistic missile defense since destroying a 
missile during this phase of its flight precludes the 
deployments of any countermeasures and also prevents the 
missile warhead from attaining the velocity necessary to reach 
its intended target.''
    As you know, the greatest challenge in targeting during 
boost phase is that a missile is only in boost phase for a very 
few short minutes at the beginning of the flight. This requires 
sensors that are able to quickly detect a missile launch and 
relay targeting information. A study conducted by the Hudson 
Institute and a senior review group consisted of two former 
Missile Defense Agency directors, two former NORTHCOM 
commanders, the former Under Secretary of Defense for Policy, 
among others, stated that, ``An SBI [Space-based Interceptor] 
capability would dramatically augment U.S. terrestrially and 
sea-based defensive capabilities, reduce the demand on current 
systems, and provide the United States with the optimal vantage 
point for destroying enemy missiles regardless of their launch 
or target location, whether on land, at sea, in the air, or in 
space.''
    Given the metastasizing nuclear threat from North Korea, 
given Iran's relentless pursuit of nuclear weapons, the growing 
development of anti-access/area denial capabilities in the 
Persian Gulf and the South China Sea, and great power 
competition in space, the case for urgently pursuing a space-
based intercept capability has never been stronger.
    Recent investments from China and Russia in missile 
technology like hypersonic glide vehicles that circumvent our 
current missile defense architecture further underscore the 
potential value of a space-based layer for the boost phase.
    General, understanding that the MDR [Missile Defense 
Review] is forthcoming, can you share some of your views on the 
path forward for developing the architecture necessary to make 
boost-phase defense a reality here?
    General Hyten. So as the Commander of STRATCOM, I have been 
on the record as supporting the requirement for boost-phase 
intercept for the entire time I have been in command, and I 
have supported that for many years now. I would love to drop a 
missile back on somebody's head that launched it. It is really 
that simple. I think there are multiple ways to do that.
    I think the most important piece of the puzzle that you 
described is the sensor architecture that you need in order to 
target it. I am a huge supporter of building space-based sensor 
elements to be able to target against all of those 
capabilities, as well as hypersonic capabilities, other 
capabilities in the boost phase to get after a number of those 
issues.
    The actual technical solution I am agnostic for. In my 
past, I have worked space-based interceptor solutions and 
spaced-based sensor solutions. I am convinced that space-based 
sensors are absolutely required. I am not convinced at this 
time that the space-based interceptor is required, but the 
requirement is there. I will advocate for that requirement. I 
think there are technologies that we can talk about in a 
classified session that can meet that. I think space is an 
element of that overall architecture, but the most important 
thing is the requirement for boost phase and left-of-launch. I 
think the Missile Defense Review will talk about that in more 
detail.
    Senator Cruz. What specifically is required? What is needed 
to get this accomplished, to make boost-phase intercept a 
reality?
    General Hyten. So I think that the Department has to decide 
to integrate the number of different programs that are out 
there. I think the leadership in the Department right now is 
the perfect leadership to do that. I know Dr. Mike Griffin. I 
know that he has looked at that technology in the past. He has 
only been in office now a few weeks, but that has been 
important to him for a long time. I think Secretary Lord, 
Secretary Shanahan, I think the Secretary of Defense support 
the boost-phase construct.
    So I think what we are going to have to do this year is we 
are going to have to align all of the elements that are out 
there and make sure we realize it is not just the interceptor--
it is coming up with the entire approach to dealing with boost-
phase intercept--and get after that. Like I said the Missile 
Defense Review will get to it in much more detail.
    Senator Cruz. So what can or should this committee do?
    General Hyten. I think the key is look at the Missile 
Defense Review. The Missile Defense Review will describe the 
approach of the Nation and the Department on how to do that. 
Then we will have a discussion about, okay, what is good, what 
is bad, where do you disagree, and we will have that discussion 
as we go through the year. But we really need the Missile 
Defense Review to start that discussion.
    Senator Cruz. Very good. Thank you, General.
    Senator Inhofe. Thank you, Senator Cruz.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Talking about the boost phase intercept, you think this 
technology is doable and feasible and should be pursued.
    General Hyten. Senator, I think the technology is actually 
pretty straightforward. I think the policy discussions are much 
more complicated because in order to attack a missile in the 
boost phase, you have to commit to dropping something on 
adversary territory. Now, if we are in the middle of a war or 
the middle of a conflict, that is really not a complicated 
decision. But if we are not and we want to make that decision, 
that is a very complicated policy discussion. We have not had a 
lot of discussion about the policy impacts of making a decision 
like that. But from a technical perspective, I think the 
technology is there.
    Senator Blumenthal. Thank you, General.
    I have a question about helicopters. This issue is one that 
you and I have discussed.
    General Hyten. Yes, sir.
    Senator Blumenthal. In fact a year ago, as you may recall, 
I asked you about your frustrations with the Huey replacement 
program, and you said, ``Of all the things in my portfolio, I 
cannot even describe how upset I get about the helicopter 
replacement program. It is a helicopter, for gosh sakes. We 
ought to be able to go out and buy a helicopter and put it in 
the hands of the people that need it, and we should be able to 
do that quickly. We have been building combat helicopters for a 
long time in this country. I do not understand why the heck it 
is so hard to buy the helicopter.''
    Do you still have the same frustrations with the Air 
Force's continued delays in fielding a replacement helicopter?
    General Hyten. I had a feeling somebody was going to quote 
me on that today, and I had a feeling it was going to be you.
    So I have been working to try to get a helicopter in the 
hands of the folks in the missile fields for over a decade. 
That is where my frustration comes from. That frustration will 
not go away until the helicopter is in the hands of the people.
    But the good news is the leadership, Dr. Roper, Dr. 
Griffin, Ms. Lord, Secretary Shanahan--they have taken it very 
seriously. We are in the middle of a source selection now. I 
hope contractor war is not imminent. There is a protest going 
on inside the source selection which limits how much I can talk 
about it. But the leadership of the Air Force, the leadership 
of the Department has taken it very seriously, and we are in 
the middle of a source selection now which is a good thing.
    Senator Blumenthal. Can you give us a date when you think 
it will be done?
    General Hyten. I cannot give you a date because of the 
protest right now. That is the piece that is still frustrating 
me. I would like to sit in front of you and give you a date 
saying here is where it is going to be.
    The good news is that my air component commander, General 
Robin Rand, has put a number of adjustments into the Huey force 
in terms of fuel, in terms of armament, in terms of arms to 
allow them to do the job until that helicopter comes into 
being. So the operational risk that I was concerned about 
significantly last year has really been eliminated in the near 
term. But I do not have a date where I can tell you, Senator, 
and I wish I did.
    Senator Blumenthal. But that is still a concern that this 
aircraft, even with that short-term measure, still is incapable 
of meeting requirements to protect our ICBM fleet. Correct?
    General Hyten. Well, especially the movement of nuclear 
weapons. That is the key. I can tell you in a classified 
session what we have done in terms of arming, in terms of 
fueling to allow us to adequately protect the weapons. I am 
comfortable with that protection system that is in there right 
now. But the Huey is still ancient and it has got to be 
replaced. It has got to be replaced, and the sooner we can 
replace it, the better.
    So I will continue to be demanding of my Air Force to 
deliver that capability. I can tell you the Chief, the 
Secretary, and the acquisition leadership have all committed to 
getting there as fast as we can. I hope that contract award is 
soon.
    Senator Blumenthal. I am concerned about the triad and 
American naval superiority. I attended the commissioning of the 
USS Colorado over the past weekend, a proud moment as all these 
commissionings and christenings are. Our undersea superiority 
is more important than ever for all the reasons that you have 
outlined so well in your testimony.
    I am concerned about the ramping up, which I think has to 
come in the construction of both the Ohio-class replacement, 
the Columbia, and the Virginia-class, which requires the 
defense industrial base to be strong, worker training, and 
worker skills.
    Would you agree that the worker training grants that are 
provided by the Federal Government play an important role in 
our national strategic superiority, that industrial base has to 
be trained, and the Federal Government has a role in funding 
it?
    General Hyten. The shipyards are a critical national asset 
to America. It is one of our strengths. That workforce is 
essential to us being able to build Columbia, to be able to 
build Virginia. I think it is the responsibility of all of us, 
including the Federal Government, to make sure that that 
workforce, which is a strategic asset, is supported across the 
board.
    Senator Blumenthal. When people talk about spending on our 
military security and our military budget, really our national 
security depends on that defense industrial base, as you just 
said.
    General Hyten. Every worker that is at a shipyard that is 
working on the Columbia is part of our national security 
infrastructure.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Blumenthal.
    Thank you very much, General Hyten, for your patience and 
your straightforward answers. We appreciate you very much.
    With that, we are adjourned.
    [Whereupon, at 11:16 a.m., the committee adjourned.]
              Questions Submitted by Senator David Perdue
                          columbia-class ssbns
    1. Senator Perdue. General Hyten, initially, the Navy planned to 
build up to 12 new, Columbia-class, nuclear-armed SSBNs, to be in 
service by the early 2040s and serve well into the 2080s. However, the 
Nuclear Posture Review revised previous commitments to a fleet of 12 
Columbia-class SSBNs to a fleet of ``at least'' 12 Columbia-class 
SSBNs. Do you believe we need more than 12 Columbia-class SSBNs?
    General Hyten. A force of 12 Columbia-class SSBNs provides the 
necessary survivability, performance, and flexibility to meet projected 
strategic deterrence requirements. However, as stated in the Nuclear 
Posture Review, the future international security environment remains 
uncertain and assumptions regarding deterrence requirements may change.
    USSTRATCOM will continue to work closely with the Department and 
Service leadership to analyze the security environment and determine 
the capabilities needed across the Triad to counter emerging threats.

    2. Senator Perdue. General Hyten, if so, how many SSBNS would 
suffice our nuclear triad needs?
    General Hyten. Our Triad force requirements are determined by our 
strategic deterrence objectives and by the threat potential adversaries 
project. The Navy program of record for the Columbia-class SSBN is 
sufficient to meet projected deterrence requirements. As the strategic 
security environment continues to evolve, we will assess if any program 
changes are required.

    3. Senator Perdue. General Hyten, is the Navy prepared to procure 
more Columbia-class SSBNs as necessary?
    General Hyten. I respectfully refer you to the Navy for program 
acquisition questions.

    4. Senator Perdue. General Hyten, how will this impact the overall 
shipbuilding budget?
    General Hyten. I respectfully refer you to the Navy for any 
questions about impacts to their shipbuilding budget.
    advanced battle management & surveillance (abms) vulnerabilities
    5. Senator Perdue. General Hyten, JSTARS is an airborne battle 
management, command and control, intelligence, surveillance, and 
reconnaissance platform that is currently housed aboard E-8C aircraft. 
As you know, the Air Force has zeroed-out its FY19 recapitalization of 
the JSTARS fleet, when just last year this platform was the number 4 
acquisition priority of the Air Force. While I agree that we eventually 
need to move to the new ``system of systems'' in the future, I'm very 
concerned about the survivability and reliability of their proposed 
Advanced Battle Management & Surveillance (ABMS) to replace the 
airborne battle management of JSTARS, given Chinese and Russian 
progress in the space domain. The ABMS connect satellites, drones, 
ground sensors and manned surveillance aircraft seamlessly in real time 
across a fast-changing, dispersed combat area of operations. However, 
Russia has tested the PL-19 Nudol, its direct ascent anti-satellite 
missile, at least twice, in November 2015 and May 2016. China has 
conducted at least two anti-satellite tests, one in 2007 and another in 
2013. Both are developing and to some extent have deployed technologies 
in directed energy, jamming, and cyber to counter satellite 
communications as well. Given our adversaries' emphasis on anti-space 
strategies, is their reason to be concerned about the Air Force's 
proposed ABMS's survivability? (If possible, I would appreciate a 
classified and unclassified response)
    General Hyten. Air Combat Command (ACC) is conducting an Advanced 
Battle Management Systems (ABMS) Analysis of Alternatives (AOA) 
assessing viability of multiple architectures (space & non-space). 
Until the AOA is complete, it would be premature for me to comment.

    6. Senator Perdue. General Hyten, are you working with the Air 
Force to address these potential survivability issues of the proposed 
ABMS? (If possible, I would appreciate a classified and unclassified 
response)
    General Hyten. Yes, USSTRATCOM is supporting ACC's AOA.

    7. Senator Perdue. General Hyten, where among these anti-satellite 
technologies are our adversaries most advanced?
    General Hyten. [Deleted.]

    8. Senator Perdue. General Hyten, are you concerned about US 
progress in space vis a vis our adversaries?
    General Hyten. Yes. Our adversaries have studied the way we conduct 
operations, have monitored U.S. statements highlighting the tremendous 
advantages provided to our military forces enabled by our space 
capabilities, understand our dependency on space, and are developing/
demonstrating a wide variety of counter-space technologies with the 
clear intent to contest our operations from and through space.
    The PB acknowledges the threat and makes initial investments to 
improve resiliency and incorporate self-defense measures into our 
future satellite architectures.
    Additionally, DOD leadership has recognized the legacy requirement 
and acquisition models and processes do not support today's need to 
increase speed and innovation in response to the growing threats.
    USSTRATCOM has also taken steps to operationalize space as a 
warfighting domain:
    <bullet>  The National Space Defense Center provides command and 
control for space warfighting operations and creates unity of effort 
among the DOD, IC, and interagency.
    <bullet>  The Joint Force Space Component Command, under Gen 
Raymond, builds a coherent, streamlined warfighting construct 
consistent with doctrine, enabling more effective command and control 
of forces and direct lines of authority.
    <bullet>  The DOD is preparing to submit to Congress a Space 
Warfighting Concept of Operations as directed in the Fiscal Year 2018 
NDAA.
                               __________
              Questions Submitted by Senator Mazie Hirono
                            missile defense
    9. Senator Hirono. General Hyten, even though talks with North 
Korea regarding its nuclear weapon and missile programs are scheduled, 
North Korea has made significant progress in its programs since the 
last time you testified before this committee, and they remain a threat 
to both the mainland United States and Hawaii. Are you confident that 
our Missile Defense System, as it stands today, can protect the United 
States and its territories from North Korean ballistic missiles?
    General Hyten. Yes. I agree with the USNORTHCOM Commander and am 
confident the Ballistic Missile Defense System can protect the US and 
its territories from current NK ballistic missile launches.

    10. Senator Hirono. General Hyten, what about in the future?
    General Hyten. The threat is evolving and the ability to sustain 
our advantage demands a strong commitment to sustained future 
investments.

    11. Senator Hirono. General Hyten, what capabilities will we need 
to add to maintain our ability to defend against ballistic missiles?
    General Hyten. Our ability to defeat advanced ballistic missiles, 
associated countermeasures, cruise missiles and hypersonic glide 
vehicles requires continued Congressional support of PB investments in 
sensors (space & ground), improved kill vehicles, and both boost phase 
defense and left of launch capabilities.
                     homeland defense radar-hawaii
    12. Senator Hirono. General Hyten, there is a request in the fiscal 
year 2019 budget from the Missile Defense Agency for $62.2 Million in 
Research and Development funds for the Homeland Defense Radar-Hawaii 
(HDR-H). Can you explain in detail why that radar and its location in 
Hawaii is important for the future of missile defense, especially in 
Hawaii?
    General Hyten. The Hawaii radar location provides 24/7 persistent, 
enhanced tracking and discrimination capabilities against increasingly 
complex threats. These advanced capabilities significantly improve 
midcourse and Aegis ballistic missile defense interceptor capabilities 
against long range ballistic missile threats targeted at Hawaii. 
Additionally, HDR-H will serve a multi-mission role as a Space 
Situational Awareness sensor.
                      maui space surveillance site
    13. Senator Hirono. General Hyten, your written testimony goes into 
some detail regarding Space as both a warfighting domain and a critical 
enabler of other military capability. The Maui Space Surveillance Site 
(MSSS) run by the Air Force Research Laboratory provides both research 
and operational capabilities to create Space Situational Awareness that 
don't exist anywhere else in the world. The Memorandum of Understanding 
between the Air Force Space Command, National Reconnaissance Office, 
and Air Force Materiel Command that funds operations at MSSS is set to 
expire at the end of fiscal year 2018. I am concerned that the 
inability to renegotiate an MOU may result in the loss of a unique 
space surveillance capability. With more and more objects in space to 
track, how important is it to ensure that a facility such as the MSSS 
Site maintains its research and operational capabilities as space 
becomes an increasingly crowded and contested domain?
    General Hyten. The MSSS is an integral part of the Space 
Surveillance Network (SSN) designed to detect, identify, catalogue and 
track on-orbit man-made objects to facilitate safety of flight 
operations and/or provide warning of hostile actions in space.
    MSSS hosts a unique mix of operational and research assets 
provisioned with visible and infrared sensors, adaptive optics, and 
telescopes to collect imaging and signature date on objects ranging 
from near-earth to deep space.
    The geographic location and unique SSN capabilities provided by 
MSSS require continued sustainment and modernization.
    I'm confident Air Force Space Command, National Reconnaissance 
Office, and Air Force Material Command understand the site's value and 
will conclude a fair and equitable MOU.
                 national guard space control squadron
    14. Senator Hirono. General Hyten, I am aware that the Air Force is 
considering creating a new Space Control Squadron that may be allocated 
to the National Guard, and that the Hawaii Air National Guard is a 
finalist to host this squadron. Both Pacific Air Forces and PACOM 
support this squadron being established in Hawaii due to its location 
and access to national security space facilities. While I understand 
this is outside the scope of your current command, your long career in 
space matters, including command of Space Command, makes you a 
recognized expert on our military's space operations. Can you describe 
the advantages of having this capability within the PACOM AOR as well 
as bringing in the Air National Guard?
    General Hyten. Prepositioning space control assets within the PACOM 
AOR enables greater operational integration and training. This leads to 
a more effective ability to execute STRATCOM and PACOM's contingency 
plans against potential adversaries in the Pacific theater.
    USSTRATCOM has not participated in the Space Control Squadron 
mission assignment analysis. Therefore, I must defer to the Air Force 
as to the advantages or disadvantages of Guard employment.
    nuclear command, control, and communication (nc3) modernization
    15. Senator Hirono. General Hyten, your written testimony describes 
a safe, secure, ready and reliable nuclear Triad as the bedrock of our 
deterrence. The Nuclear Command, Control and Communication 
infrastructure ties the National Command Authority to the operating 
nuclear forces, yet much of the NC3 architecture is decades old and 
dependent on Cold-War era platforms. Modernization of NC3 systems is 
critical to the reliability and safety of our nuclear deterrent yet 
technology is vastly since the last generation of NC3 systems was 
designed. How are you accounting for security and surety within the 
modernized NC3 system?
    General Hyten. [Deleted.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 22, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

CHALLENGES IN THE DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE PROGRAMS

    The committee met, pursuant to notice, at 10:04 a.m. in 
Room SH-216, Hart Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee Members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Cruz, Graham, 
Sasse, Scott, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our hearing will come to order.
    They are the force sitting right behind you, Rick. So you 
wave at them.
    The committee meets today to hear testimony from the 
Department of Energy's atomic energy programs.
    We welcome our witness, Energy Secretary Rick Perry, a good 
friend of all of ours.
    The DOE [Department of Energy] houses a number of defense 
programs, such as the National Nuclear Security Administration 
and the Office of Environmental Management that are under the 
jurisdiction of the Armed Services Committee.
    Even so, a hearing like this is rare. Our committee has not 
called a Secretary of Energy to testify for over 10 years. You 
ought to feel good about that.
    Secretary Perry. I am trying, sir.
    [Laughter.]
    Senator Inhofe. The DOE's defense programs, including the 
cleanup of nuclear waste, have gone without sufficient 
oversight.
    Chairman McCain has asked that we read into the record a 
statement that he would like to make concerning this hearing 
today, so I am quoting. The Department of Energy's defense 
atomic energy programs are critically important to our national 
security. Unfortunately, in recent years, the DOE has run up a 
long list of cost overruns, schedule delays, and violations of 
safety and security. Put simply, too often they have failed to 
meet mission requirements with billions of dollars in the DOE 
funding authorized by the NDAA [National Defense Authorization 
Act] each year. The Senate Armed Services Committee has the 
opportunity to conduct the kind of oversight that will help the 
Department correct course.
    The fiscal year 2019 budget request for the NNSA [National 
Nuclear Security Administration] and the Environmental 
Management totals over $20 billion. That comprises about 70 
percent of the Department of Energy's proposed budget for 
fiscal year 2019. It is up to us to ensure vigorous oversight 
of these taxpayer dollars.
    Secretary Perry, it is a pleasure having you here.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary. Thank you very much.
    The last Secretary of Energy to testify before the 
committee was Secretary Chu in 2010. The Augustine-Mies 
Commission which evaluated the effectiveness of the NNSA 
recommended in 2015 that the Secretary of Energy appear before 
the Senate Armed Services Committee on an annual basis. This 
appearance I hope fulfills that recommendation and becomes a 
recurring part of the committee's posture hearings given that 
the atomic energy defense funding in the Department of Energy 
totals approximately $19 billion, which is more than two-thirds 
of the Energy Department's fiscal year 2019 budget.
    Secretary Perry, there are a number of issues I am hoping 
you will address today.
    First and foremost is the ability of the Department and the 
NNSA to build 80 pits a year by 2030, as mandated by the 2014 
National Defense Authorization Act. This requirement was 
ratified by the Department of Defense based on a series of 
modules to be built at Los Alamos after spending about $600 
million to design a prior building there, whose costs became 
out of control and was canceled. The modular approach was also 
approved by the DOD [Department of Defense] and the NNSA and 
was authorized in the 2013 National Defense Authorization Act. 
I understand that you may again be reconsidering or considering 
a large building design rather than the modules. Since a single 
building approach failed in 2013, I am interested in your 
thinking on this issue.
    Second, the Department is modernizing six weapon systems, 
and at the same time is modernizing an infrastructure that in 
some cases dates back to the Manhattan Project, which includes 
the NNSA uranium and the plutonium infrastructures. For fiscal 
year 2019, $3 billion, or about 20 percent of NNSA's overall 
budget, is dedicated to this effort. Maintaining momentum on 
modernization will be a daunting challenge, and I am interested 
in your views on sustaining this effort.
    Third, I would like to know about the Department's plan to 
clean up the Hanford nuclear site. In 2014, after spending 
close to $8.3 billion at the Hanford site to treat 
approximately 55 million gallons of radioactive waste in 177 
underground tanks, the Department paused its efforts to treat 
and turn into glass the waste in those tanks. In addition, the 
Department now only intends to turn the low-activity waste into 
glass while leaving the high-level waste treatment, which is 
about 10 percent of the site, to a later date. I would like to 
know the status of the low-activity waste effort, when will you 
return to treating the high-level waste, and what is the 
estimated total cost.
    Finally, I would like to know how the Department is 
addressing the flow of loose nuclear material particularly from 
Russia. In just one example, a British newspaper has reported 
on four thwarted attempts in Moldova to stop the sale of 
nuclear material on the black market. In some cases, the sale 
is linked to Russia and buyers were linked to extremists in the 
Levant region. Proliferation of nuclear materials is one of the 
greatest threats facing our Nation, and I hope is the top focus 
of the Department of Energy.
    Again, I look forward to your testimony today and hope this 
becomes an annual event for this committee. Thank you, Mr. 
Secretary.
    Senator Inhofe. Thank you, Senator Reed.
    Secretary Perry, thank you again for being here, and we 
would like to have you give us your opening statement. Your 
entire statement will be made a part of the record. You are 
recognized.

   STATEMENT OF THE HONORABLE J. RICHARD PERRY, SECRETARY OF 
                             ENERGY

    Secretary Perry. Chairman Inhofe, thank you, to each of the 
members. Some of you I have worked with through the years. It 
is always good to see a governor or two in the crowd. Mike and 
Governor Shaheen, thank you for your kindness. It is my honor, 
Ranking Member Reed, others to be in your presence, and at your 
request, I will be here as often as you need me, sir. So I hope 
I can answer your questions, discuss this very important issue 
with you today, and in a succinct way, as we talk about the 
President's 2019 Budget request for the Department of Energy.
    But before I get started, I just want to share with you I 
had a wonderful conversation yesterday, a phone call, with 
Chairman McCain. He was lively, focused. Anyway, he sent his 
regards and said that you would ably chair the committee, 
Senator Inhofe. Anyway, it was good to talk to him. Certainly I 
know I think all of you keep him in your prayers and wish the 
best to him and his family.
    Mr. Chairman, this budget request capitalizes on the 
Department of Energy's scientific capabilities to advance our 
nuclear security, support our nuclear Navy, and reduce the 
threat of nuclear terrorism. It also confirms our commitment to 
clean up the environmental legacy of America's past efforts to 
maintain nuclear security. I appreciate this committee's 
steadfast support for these missions as they pertain to our 
efforts, past and present, to keep America safe and strong.
    I firmly believe that we have a moral obligation to protect 
the American people from adversaries who are wishing to do us 
harm. For the past 70 years, our government has advanced this 
goal by maintaining our nuclear deterrent.
    The Department of Energy's role in our national security is 
one I undertake with utmost seriousness. In the last year, I 
visited our national security facilities at Los Alamos, Pantex, 
Y-12, Kansas City. Next week, I am going to have the pleasure 
to go out west to Sandia and Lawrence Livermore. For these 
visits, I have identified key challenges facing our Department 
and its national security mission.
    First, through DOE's National Nuclear Security 
Administration, NNSA, we need to ensure that our nuclear 
strategy responds to the threats of today while anticipating 
those of tomorrow.
    Second, through our Office of Environmental Management, we 
need to increase the pace of cleaning up the legacy resulting 
from decades of nuclear weapons production. We aim to address 
both challenges through our partnership with our national 
laboratories. Those crown jewels are, I think, irreplaceable. 
They are clearly great incubators of innovation.
    The 2019 $30.6 billion budget request for the Department 
meets both of those needs that I have just pointed out.
    When it comes to our nuclear posture, we have long embraced 
a two-pronged strategy of deterrence and nonproliferation. We 
have sought to deter aggressors by maintaining a powerful 
nuclear arsenal and infrastructure, and we have sought through 
nonproliferation to prevent those foes from gaining such 
weapons for themselves or providing them to others.
    But since the end of the Cold War, we have not kept pace 
with rising threats to our nation and its allies. These include 
threats from borderless enemies and the potential sale of 
nuclear materials to bad actors. They also include new 
challenges from Russia and China who are upgrading their 
nuclear capabilities and, of course, the challenge posed by 
North Korea.
    Mr. Chairman, let me pause for a moment and just say thank 
you to you specifically, the committee as a whole. This 
committee understands that we have to keep pace with 
modernization. You understand that we have deferred maintenance 
for too long, that it is going to take a multiyear approach to 
get us back to a position of strength. Thankfully with your 
help, our administration is starting to turn the corner on this 
arena. Coupled with the National Security Strategy, the 
President's recently released Nuclear Posture Review, it 
reaffirms our nuclear triad as the bedrock of the Nation's 
deterrent. This strategy necessitates that our capabilities be 
more robust, more resilient, and more flexible than ever 
before.
    The President's Budget provides the resources to do exactly 
that. This budget will help us modernize our nuclear forces by 
extending the life of existing warheads, replacing them with 
systems that use today's technologies. It will ensure the safe 
and reliable operation of our nuclear-powered submarines and 
aircraft carriers and meet the Navy's requirement for 
modernized nuclear propulsion. It will help us replace our 
aging nuclear security infrastructure, much of which dates back 
to the Eisenhower administration, and it will keep nuclear 
weapons out of the wrong hands by aiding in nonproliferation 
efforts.
    While the President's Fiscal Year 2019 Budget request 
provides much needed resources for our nuclear security 
enterprise, we must be mindful that those resources are not 
unlimited, and we have a responsibility to the American 
taxpayers.
    I recently visited the Savannah River site, and it is a 
national asset, populated with some amazingly capable, 
patriotic men and women. Savannah River is a critical partner 
in our national security and our environmental management 
missions, and it has a very bright future ahead of it.
    We have a solemn moral duty to address the environmental 
legacy left at the sites, which produced the materials that 
helped us end a world war and to secure the peace. We also have 
a moral duty to the taxpayers to use scarce resources wisely, 
effectively.
    I will report to you that our Environmental Management has 
made undeniable progress in advancing its mission. It has 
completed cleanup activities in 91 sites in 30 States. However, 
there is still a lot of work to be done, and Mr. Chairman, we 
are committed to doing it. We will commission and start up the 
salt waste processing facility at Savannah River. In addition 
to our work at Savannah River, we will continue our progress at 
Hanford. We will ramp up activities to increase shipments of 
transuranic waste to Senator Heinrich's district out at WIPP 
[Waste Isolation Processing Plant]--for his State. Excuse me. 
We will complete design and initiate construction of the Oak 
Ridge mercury treatment facility, and we will continue to press 
forward with tackling these aging and excess facilities in some 
cases at various sites.
    I want to thank you again for your hospitality and for your 
continued support of our mission and for having me here this 
morning. I will attempt to answer your questions, as you have 
them, sir.
    [The prepared statement of Secretary Perry follows:]

               Prepared Statement by Secretary Rick Perry
    Chairman McCain, Ranking Member Reed, and Members of the Committee, 
it is an honor to appear before you on behalf of the Administration and 
the Department of Energy (``the Department'' or ``DOE''). I appreciate 
the Committee's strong support for DOE's enduring national security and 
environmental management missions and the opportunity to testify in 
support of the President's Budget request for fiscal year (FY) 2019.
    Since my confirmation a little over a year ago, two of my highest 
priorities have been to refocus the Department on restoring the nuclear 
security enterprise and enhancing national security through the 
military application of nuclear science, while also addressing the 
issue of legacy management and nuclear waste.
    While DOE is making solid progress, there still is much to be 
accomplished. We live in an evolving international security environment 
that is more complex and demanding than any since the end of the Cold 
War, which necessitates a strong national commitment to maintain modern 
and effective nuclear forces and infrastructure. To remain effective, 
it is critical that we modernize and recapitalize our nuclear forces.
    The U.S. nuclear deterrent has been the cornerstone of the United 
States' strategy to keep the American people safe and secure for more 
than 70 years, as well as a significant contributor to global 
stability. U.S. nuclear capabilities make critical contributions to one 
of our nation's highest priorities, the deterrence of nuclear and non-
nuclear aggression.
    The Department's enduring national security and environmental 
management missions are accomplished through the hard work and 
dedication of the highly-skilled men and women of the National Nuclear 
Security Administration (NNSA) and Office of Environmental Management 
(EM). NNSA is responsible for: maintaining the safety, security, 
reliability, and effectiveness of the nuclear weapons stockpile; 
reducing the threat of nuclear proliferation and nuclear terrorism 
around the world; and providing nuclear propulsion for the U.S. Navy's 
fleet of aircraft carriers and submarines. The mission of EM is the 
safe cleanup of the environmental legacy of five decades of nuclear 
weapons development and government-sponsored nuclear energy research.
    NNSA achieves its critical mission, in part, through a robust, 
healthy partnership with DOE's National Laboratories. There is close 
collaboration between the national laboratories and NNSA on several 
fronts including supercomputers, cybersecurity, and basic science, 
which help advance nuclear deterrence, naval reactors, and 
nonproliferation missions.
    In addition, the Department works jointly with the Department of 
Defense (DOD) through the Nuclear Weapons Council (NWC), which serves 
as the focal point for interagency activities to maintain the U.S. 
nuclear weapons stockpile. DOE's partnership with DOD ensures that our 
deterrent is modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st Century threats and reassure our 
allies and partners. In this partnership, DOE provides the weapons and 
DOD provides the delivery systems. DOE/NNSA oversees the research, 
development, test, assessment, and production programs that respond to 
DOD's military requirements.
                   accomplishments in the past year:
    Thanks to strong support from the Administration and Congress, over 
the past year, DOE has seen a move toward increased investment in its 
nuclear security mission. From flight qualification tests of the B61-12 
in the Nevada desert, to the removal of highly enriched uranium (HEU) 
in Ghana and Kazakhstan, to the commissioning of a new class of 
nuclear-powered aircraft carrier, DOE has lent its world-class 
expertise to the military application of nuclear science to help keep 
the United States safe and secure. Here are a few examples:
    <bullet>  Last year, NNSA continued to maintain the safety, 
security, and effectiveness of nuclear weapons through the Stockpile 
Stewardship Program (SSP), enabling the Secretary of Defense and me to 
certify to the President once again the reliability of the nuclear 
weapons stockpile.
    <bullet>  In November 2017, NNSA published the Fiscal Year 2018 
Stockpile Stewardship and Management Plan (SSMP), a detailed report on 
the programs, scientific tools, capabilities, and infrastructure 
necessary to ensure the success of NNSA's nuclear weapons mission well 
into the future.
    <bullet>  Throughout the year, NNSA actively participated in the 
recently released Nuclear Posture Review (NPR). The NPR was directed by 
the President and led by the Department of Defense to ensure that 
America's nuclear deterrent is modern, robust, flexible, resilient, 
ready, and appropriately tailored to deter 21st Century threats and 
reassure our allies and partners.
    <bullet>  The Uranium Processing Facility (UPF) project continues 
to make timely progress with the recent completion of the Site 
Infrastructure and Services subproject, two months ahead of schedule 
and $18 million under budget. Of the five remaining subprojects, two 
are underway and the final three will begin later this year. The 
Department is committed to delivering UPF by 2025 for no more than $6.5 
billion, assuming stable funding through the duration of the project.
    <bullet>  Working with the State of Missouri, NNSA transferred 
excess federal property at the Bannister Federal Complex in Kansas City 
to private developers. The transfer will save taxpayers hundreds of 
millions of dollars and will lead to further community development.
    <bullet>  NNSA partnered with the Institute of Nuclear Physics 
(INP) in Kazakhstan to remove its remaining HEU. NNSA has helped remove 
or down-blend 200 kilograms of Russian-origin HEU from the INP, enough 
for eight nuclear weapons.
    <bullet>  EM realized a significant accomplishment with resumption 
of waste shipments and emplacement at the Waste Isolation Pilot Plant 
(WIPP) in New Mexico. WIPP received approximately 130 shipments from 
April 2017 through December 2017.
                    building a strategic capability
    DOE is building on the previous year's achievements with new 
activities tailored to 21st Century threats. With the recent release of 
the 2018 NPR and the President's National Security Strategy, we are 
laying the foundation for strategic capabilities that will enable us to 
fulfill our national security and environmental management missions.
    The 2018 NPR reaffirmed the findings of previous reviews that the 
nuclear triad--comprised of silo-based intercontinental ballistic 
missiles, bomber aircraft, and nuclear submarines--is the most 
strategically sound means of ensuring nuclear deterrence. To remain 
effective, however, we must recapitalize our Cold War legacy nuclear 
deterrence forces, continuing a modernization program initiated during 
the previous Administration.
    The NPR considers the path ahead for the U.S. nuclear strategy and 
posture over the longer term, and states that we will pursue 
initiatives to ensure the necessary capability, capacity, and 
responsiveness of the nuclear weapons infrastructure and the needed 
skills of the nuclear enterprise workforce. We will continue to work 
with DOD to determine the resources, time, and funding required to 
address policies laid out in the NPR, including the potential low yield 
ballistic missile warhead, sea launched cruise missile, and B83-1 
gravity bomb. NNSA will work with Congress to ensure that the program 
of work is properly authorized and funded.
                    modernizing our nuclear forces:
    The Department is modernizing our nuclear enterprise to ensure that 
we have the scientific, engineering, and manufacturing capabilities 
necessary to maintain an effective and safe nuclear triad and respond 
to future national security threats.
    Unique, state-of-the-art capabilities for research, development, 
testing, evaluation, and production enable this critical effort. In 
coordination with DOD, we have fully integrated the scope, budgets, and 
schedules of the life extension programs (LEPs), infrastructure 
modernization, and nuclear delivery systems.
    We are making significant progress in the full set of LEPs while 
remaining aligned with the DOD through the NWC.
    <bullet>  W76-1 LEP: The $113.9 million requested for the W76-1 LEP 
directly supports the sea-based leg of the nuclear triad by extending 
the service life of the original W76-0 warhead. With continued funding, 
the W76-1 LEP will remain on schedule and on budget to complete 
production in fiscal year 2019. The W76-1 will have an extended life of 
approximately 30 years.
    <bullet>  B61-12 LEP: NNSA continues to make progress on the B61-12 
LEP that will consolidate four variants of the B61 gravity bomb. This 
LEP which is in the Production and Engineering Phase, will meet 
military requirements for reliability, service-life, field maintenance, 
safety, and use control while also addressing multiple components 
nearing end of life in this oldest nuclear weapon in the stockpile. 
NNSA will remain on schedule to deliver the First Production Unit (FPU) 
of the B61-12 in fiscal year 2020.
    <bullet>  W88 Alteration 370 Program: Currently in the Production 
Engineering Phase, the W88 Alt 370 is on schedule, with FPU planned in 
December 2019. The budget request for this program, which also supports 
the sea-based leg of the nuclear triad, is $304.2 million in fiscal 
year 2019.
    <bullet>  W80-4 LEP: The current air-launched cruise missile 
delivers a W80 warhead first deployed in 1982. Both the missile and the 
warhead are well past their planned end of life. To maintain this vital 
deterrent capability, NNSA, in close coordination with DOD, has 
requested $654.8 million in fiscal year 2019, an increase of $255.7 
million, or 64.1 percent over the fiscal year 2018 request to extend 
the W80 warhead, through the W80-4 LEP, for use in the Air Force's Long 
Range Stand-Off (LRSO) cruise missile.
    <bullet>  W78 Replacement Program: The W78 replacement program will 
replace one of the oldest warheads in the stockpile, and provide 
improved warhead security, safety, and use control. To replace the W78 
warhead, NNSA has requested $53.0 million to support the scheduled 
restart of the feasibility study and design options work suspended in 
2014.
Recapitalizing Our Cold War Era Infrastructure:
    DOE/NNSA's diverse national security missions depend on its 
extensive, complex, and in many cases antiquated infrastructure. More 
than half of NNSA's facilities are over 40 years old, roughly 30 
percent date back to the Manhattan Project era, and nearly two-thirds 
are rated as less than adequate to meet mission needs. NNSA is long 
overdue to build a modern, safe, streamlined complex that will meet 
mission requirements, keep the deterrent safe, secure, and effective, 
and enhance employee and public safety. We cannot accept this risk in 
an uncertain and evolving global security atmosphere.
    As reaffirmed in the NPR, an effective, responsive, and resilient 
nuclear weapons infrastructure is essential to the U.S. capacity to 
adapt flexibly to shifting requirements. Such an infrastructure will 
offer tangible evidence to both allies and potential adversaries of 
U.S. nuclear weapons capabilities and can help deter, assure, hedge 
against adverse developments, and discourage adversary interest in arms 
competition. These investments will include:
    <bullet>  An enduring capability and capacity to produce plutonium 
pits at a rate of no fewer than 80 pits per year by 2030. A delay would 
result in the need for a higher rate of pit production at higher cost.
    <bullet>  Reconstituting the U.S. capability to produce lithium 
compounds that are sufficient to meet military requirements.
    <bullet>  Fully funding the UPF and ensuring availability of 
sufficient low-enriched uranium and the necessary reactor capacity to 
produce an adequate supply of tritium.
    <bullet>  The full capability to develop and manufacture secure, 
trusted strategic radiation-hardened microelectronic systems beyond 
2025 to support nuclear weapon modernization.
    <bullet>  Pursuing the Stockpile Responsiveness Program established 
by Congress will expand opportunities for young scientists and 
engineers to advance warhead design, development, and production 
skills.
    In 2015, NNSA developed new methods to prioritize investments to 
improve infrastructure. With support from Congress, it successfully 
halted the growth of deferred maintenance in fiscal year 2016 and 2017 
for the first time in nearly a decade. NNSA is implementing innovative 
management tools that are data-driven and risk-informed, and are 
creating a science-based infrastructure stewardship approach to change 
the way NNSA manages infrastructure.
    EM's fiscal year 2019 budget request includes $150 million to 
continue decontamination and decommissioning of selected high-risk 
facilities not currently in the EM portfolio at the Y-12 National 
Security Complex and Lawrence Livermore National Laboratory. 
Decontamination and decommissioning of these facilities support the 
national security missions at these sites. DOE's disposition effort 
will stabilize degraded relatively high risk facilities, characterize 
their hazards and conditions, remove hazardous materials, place them in 
the lowest risk condition possible, and eliminate the risk posed by 
these facilities demolishing them and disposing of the resulting waste. 
With a vision to modernize, streamline, and sustain the infrastructure, 
Department's goal is to maximize the benefits of the resources 
provided. However, additional improvements are needed to ensure our 
infrastructure provides the responsiveness and reliability necessary to 
support evolving mission requirements.
                   preventing global nuclear threats:
    Effective nuclear non-proliferation and arms control measures can 
support U.S., allied, and partner security by controlling the spread of 
nuclear materials and technology; placing limits on the production, 
stockpiling, and deployment of nuclear weapons; reducing misperception 
and miscalculation; and avoiding destabilizing nuclear arms 
competition.
    NNSA's Office of Defense Nuclear Nonproliferation (DNN) works with 
international partners to remove or eliminate vulnerable nuclear 
material; improve global nuclear security through multilateral and 
bilateral technical exchanges and training workshops; help prevent the 
illicit trafficking of nuclear and radiological materials; secure 
domestic and international civilian buildings containing high-priority 
radiological material; provide technical reviews of U.S. export license 
applications; conduct export control training sessions for U.S. 
enforcement agencies and international partners; strengthen the 
International Atomic Energy Agency's ability to detect and deter 
nuclear proliferation; advance U.S. capabilities to monitor arms 
control treaties and detect foreign nuclear programs; and maintain 
organizational readiness to respond to and mitigate radiological or 
nuclear incidents worldwide.
    With the release of the NPR, DNN will continue its efforts to 1) 
minimize the number of nuclear weapons states; 2) deny terrorist 
organizations access to nuclear weapons and materials; 3) strictly 
control weapons-useable material, related technology, and expertise; 
and 4) support the State Department to make sure arms control 
agreements enhance security, and are verifiable and enforceable.
                   countering global nuclear threats:
    NNSA's counterterrorism and counterproliferation program is part of 
broader U.S. Government efforts to assess the threat of nuclear 
terrorism and develop technical countermeasures. The scientific 
knowledge generated by this program underpins the technical expertise 
for disabling potential nuclear threat devices, including improvised 
nuclear devices; supports and informs U.S. nuclear security policy; and 
guides nuclear counterterrorism and counterproliferation efforts, 
including interagency nuclear forensics and contingency planning.
    Nuclear counterterrorism and counterproliferation provides a 
flexible, efficient, and effective response capability for any nuclear/
radiological incident in the United States or abroad by applying the 
unique technical expertise across NNSA's nuclear security enterprise. 
Appropriately trained personnel and specialized technical equipment are 
ready to deploy in order to provide an integrated response for 
radiological search, render safe, and consequence management for 
nuclear/radiological emergencies, national exercises, and security 
operations for large National Security Special Events.
    The Office of Counterterrorism and Counterproliferation (CTCP) 
maintains an operational nuclear forensics capability for pre-
detonation device disassembly and examination, provides operational 
support for post-detonation assessment, and coordinates the analysis of 
special nuclear materials. Readiness is maintained to deploy device 
disposition and device assessment teams, conduct laboratory operations 
in support of analysis of bulk actinide forensics, and deploy subject 
matter expertise and operational capabilities in support of ground 
sample collections that contribute to conclusions in support of 
attribution.
    With the release of the NPR, the United States will continue to 
hold fully accountable any state, terrorist group, or other non-state 
actor that supports or enables terrorist efforts to obtain or employ 
nuclear devices. CTCP will strive, under a multilayered approach, to 
counter terrorist efforts to acquire, transfer, or employ nuclear 
weapons, material, technology, and expertise.
            moving forward with new scientific advancements:
    Science underpins everything we do, including our core 
responsibility to certify the safety, security, and effectiveness of 
the nuclear stockpile in the absence of nuclear explosive testing. 
DOE's world-class research, development, testing, and engineering are 
the key to this success. Through the science-based Stockpile 
Stewardship Management Program, we are fielding a suite of innovative 
experimental platforms, diagnostic equipment, supercomputers, and 
modern codes that build on past nuclear explosive test data to simulate 
the dynamics of nuclear weapons.
    With the Department as a world leader in computational capability, 
and four of the ten fastest supercomputers in the world located in 
NNSA's laboratories, it is clear that high performing computers (HPCs) 
are a critical component of the national security, energy, and science 
missions of the Department of Energy. Over the past six decades, U.S. 
computing capabilities have been maintained through continuous research 
and development and the deployment of new computing systems, with 
rapidly increasing performance on applications of major significance to 
government, industry, and academia. Maximizing the benefits of high 
performance computing in the coming decades will require an effective 
national response to increasing demands for computing power, emerging 
HPC technological challenges and opportunities, and growing economic 
dependency on and competition with other nations.
    In 2016, DOE initiated research and development activities designed 
to deliver an exascale (high speed) computing capability by the mid-
2020s. The Department's Office of Science and NNSA are jointly 
responsible for executing a program that focuses on advanced simulation 
through a capable exascale computing program, with an emphasis on 
sustained performance on science and national security mission 
applications and increased convergence between exascale and large-data 
analytic computing.
    To maintain the safety, security, and effectiveness of the Nation's 
nuclear deterrent, DOE/NNSA requires a trusted supply of strategic 
radiation-hardened advanced microelectronics (broadly defined), 
including R&D capabilities. The supply chain for nuclear weapon 
microelectronics must meet formal standards of trust to protect against 
the potential for sabotage, malicious introduction of an unwanted 
function, or subversion of a function without detection. The 
Microsystems Science & Technology Center at Sandia National 
Laboratories produces custom, strategic, radiation-hardened 
microelectronics for nuclear weapons. NNSA is examining options to 
extend the life of the Silicon Fabrication facility at Sandia beyond 
2025 to help meet microelectronics requirements.
    To ensure a diversified supply chain and provide risk reduction, 
NNSA intends to fund a demonstration project to produce R&D 
microsystems at the DOD-owned fabrication facility at Massachusetts 
Institute of Technology's Lincoln Laboratory (MIT/LL) to validate the 
production of radiation-hardened electronics at 90 nm. This investment 
would provide contingency and R&D options to NNSA, and would be 
conducted in collaboration with Sandia National Laboratories.
    Additive Manufacturing (AM) uses the three-dimensional printing of 
polymers and metals to shorten production schedules and design cycles 
for a variety of applications. To date, the use of additive 
manufacturing has provided multi-million-dollar cost benefits and 
significant schedule risk reduction in utilizing AM for tools, 
fixtures, and molds in NNSA's ongoing major modernization efforts, as 
well as the testing and evaluation programs. NNSA is continuing to 
develop and mature this technology to expand its applications to the 
NNSA mission where appropriate. Ultimately, NNSA's goal for AM is to 
exploit its capability for rapid response to emerging threats while 
significantly shrinking the footprint and time required for 
manufacturing. While working to achieve this long-term objective, NNSA 
is actively using additive manufacturing to supplement our existing 
manufacturing capabilities in order to increase our research, 
development and manufacturing flexibility for the benefit of our 
nation's nuclear deterrent.
    Cybersecurity is a high priority of the current Administration and 
the Department. The NNSA Stockpile Stewardship Management Plan calls 
for a strong cybersecurity program that implements a flexible, 
comprehensive information technology and cybersecurity system to ensure 
the protection of NNSA's classified and sensitive information assets 
related to the nuclear weapons stockpile. Adequate funding is crucial 
to managing cybersecurity risks across the nuclear security enterprise. 
NNSA will need to explore how technologies such as quantum computing 
and additive manufacturing influence the cyber threat landscape and 
manage risk accordingly. Conversely, NNSA will also need to explore how 
these technologies can be leveraged to combat cyber threats.
               responsible stewardship of the environment
    The government's nuclear weapons and nuclear energy research 
programs made significant contributions to our nation's defense. The 
Office of Environmental Management (EM) is tasked with the disposition 
of radioactive wastes; the management of spent nuclear fuel and special 
nuclear material; the cleanup of contaminated soil and water; and the 
decontamination and decommissioning of thousands of excess facilities. 
Since 1989, the federal government's investment in EM has resulted in a 
reduced risk that these materials and excess facilities may pose to the 
American people and the environment.
    EM has completed cleanup activities at 91 sites across 30 states--
with cleanup work remaining at 16 sites across 11 states. The remaining 
work is complex and challenging, and accomplishing the Department's 
cleanup goals will mean applying innovative strategies to one-of-a-kind 
challenges while ensuring the work is safely completed.
    In 2017, EM made significant progress including the following:
    <bullet>  At WIPP, waste emplacement resumed and, to date, the 
repository has received more than 12,000 shipments of transuranic (TRU) 
waste for safe disposal.
    <bullet>  At Hanford, the Department safely and successfully 
completed remediation of the 618-10 burial ground, as well as continued 
to make progress on the Waste Treatment and Immobilization Plant.
    <bullet>  At Los Alamos National Laboratory (LANL), workers safely 
and successfully completed treatment of a set of nitrate salt drums to 
prepare for disposal of these drums at WIPP.
    <bullet>  Idaho workers completed a near-15-year effort to retrieve 
65,000 m3 of TRU waste.
    <bullet>  At Oak Ridge, the Department broke ground on the Mercury 
Treatment Facility, which will enable EM to carry out additional 
cleanup activities at the Y-12 National Security Complex.
    <bullet>  At the Savannah River Site, the Department completed the 
construction of the 33 million-gallon Saltstone Disposal Unit 6.
    Over the past year, EM has continued to look for innovative ways to 
perform its cleanup mission in a safe and efficient manner while 
serving as a good steward of taxpayer resources.
    The EM mission not only addresses cleanup of the environment, but 
also helps the Department continue its important national security and 
scientific and energy research missions. The new alignment of the 
Offices of Science and EM reporting to the Under Secretary for Science 
will add momentum to environmental cleanup. By further leveraging the 
expertise of the DOE National Laboratories, and exploring various 
Science and EM project management and contract approaches, the 
Department hopes to manage costs better and solve environmental 
management challenges, while ensuring the highest level of safety for 
Federal and contractor employees, the public, and protection of the 
environment.
Workforce Safety
    DOE and EM are committed to ensuring the safety of our workforce, 
the public and protection of the environment. Safety is the top 
priority for the Office of Environmental Management. I am proud to say 
that EM has a lower rate of worker accident-related statistics than the 
Department of Energy as a whole and industries that perform similar 
work. We are also strongly committed to a workplace where all workers--
federal and contractor--are free to speak out, voice concerns or lodge 
complaints without fear of retaliation.
Project Management
    The processes the Department has established for capital asset 
projects continue to mature and have brought significant improvements 
to the rigor and consistency in how EM oversees management of capital 
projects.
    In 2017, the Project Management Institute (PMI) also recognized 
EM's track record of success. At Hanford, PMI recognized the AY-102 
tank recovery effort as its international project of the year after the 
site completed work ahead of schedule and $8.7 million under budget. 
PMI also recognized the Savannah River Site's successful eighth 
underground liquid tank waste closure.
Regulatory-Cleanup Commitments
    Generally, EM has worked successfully with state and Federal 
regulators in negotiating, updating and improving compliance 
agreements. The Department is actively working to meet its commitments. 
To the extent that milestones are delayed, DOE will follow the 
provisions in its cleanup agreements for making notifications and 
working with federal and state regulators regarding schedule 
adjustments if necessary.
          requirement and retention of highly qualified people
    The Departments greatest asset will always be its workforce. DOE's 
challenging national security missions require it to recruit, train, 
and retain highly skilled and dedicated federal employees and 
Management and Operating (M&O) workforce. DOE and Congress must 
continue to provide these highly-talented men and women with the tools 
necessary to support their work as they carry out complex and 
challenging responsibilities.
    The government-wide security clearance backlog is particularly 
acute at NNSA, where over 3,500 current employees are awaiting 
completion of their initial investigations and are unable to perform 
the duties for which they were hired. This number includes over 30 
individuals designated as mission critical. NNSA has undertaken several 
measures to mitigate the impact of these delays and is working with the 
National Background Investigation Bureau to expedite mission-critical 
background investigations. However, more needs to be done. This backlog 
is making it difficult to recruit the technical talent we need in our 
highly classified programs essential to DOE/NNSA missions.
    A skilled federal workforce is required for appropriate program and 
project oversight as NNSA enters the next phase of nuclear 
modernization efforts, including LEPs and major infrastructure project 
management. However, as of February 2018, NNSA on-board staffing levels 
were 10 percent lower than fiscal year 2010 Full Time Equivalent (FTE) 
levels, while funding increased 50 percent in the same period for 
Weapons Activities and Defense Nuclear Nonproliferation, primarily for 
the nuclear modernization program. To help manage growing program 
requirements, NNSA's fiscal year 2019 request includes funding for 
additional federal FTEs.
    Succession planning is an important part of NNSA workforce 
planning, since 44 percent of the current NNSA workforce will be 
eligible to retire by fiscal year 2023. Thus, NNSA uses career 
developmental initiatives such as the NNSA Graduate Fellowship Program, 
and the U.S. Office of Personnel Management (OPM) Pathways and 
Presidential Management Fellows programs to recruit, hire, and retain 
the federal workforce needed for the NNSA national security mission. 
Working with OPM experts, NNSA is developing a Human Capital Management 
Plan that will institutionalize a consistent staffing analysis and 
career development methodology to support NNSA's mission and address 
projected retirements.
                    fiscal year 2019 budget request
    The President's Budget for Fiscal Year 2019 requests $30.6 billion 
for the Department of Energy to advance U.S. national security and 
economic growth through transformative science and technology 
innovation that promotes affordable and reliable energy through market 
solutions and meets our nuclear security and environmental cleanup 
challenges. The fiscal year 2019 budget request provides: $15.1 billion 
to modernize and restore the nuclear security enterprise, a $2.2 
billion increase over fiscal year 2017 enacted levels, which makes 
necessary investments consistent with the NPR and National Security 
Strategy; and, $6.6 billion to continue our commitment to cleaning up 
the Cold War nuclear legacy.
    This budget request demonstrates the Administration's strong 
support for NNSA and EM. Decades of underfunding has left the nuclear 
security enterprise's infrastructure in a brittle state that requires 
significant and sustained investments over the next decade to correct. 
There is no margin for further delay in modernizing NNSA's scientific, 
technical, and engineering capabilities, and recapitalizing our 
infrastructure needed to produce strategic materials and components for 
U.S. nuclear weapons.
    The fiscal year 2019 budget request for NNSA's Infrastructure and 
Operations is $3.0 billion, an increase of $199.6 million, or 7.1 
percent above the fiscal year 2018 request. The request provides 
funding to sustain, operate, and modernize the NNSA enterprise. The 
fiscal year 2018 National Defense Authorization Act provided NNSA and 
its M&O partners with added flexibility to address the challenges of 
modernizing the enterprise by increasing the minor construction 
threshold to $20 million. This reform supports efforts to address 
deferred maintenance through recapitalization projects that improve the 
condition and extend the design life of structures, capabilities, and 
systems to meet NNSA's nuclear weapons and nonproliferation program 
needs.
    The fiscal year 2019 budget request for EM provides the resources 
to make progress on cleanup activities across the complex. At the 
Savannah River Site, the request will enable DOE to increase 
significantly the production of canisters of vitrified high-level waste 
at the Defense Waste Processing Facility, as well as support planned 
operation rates for the Salt Waste Processing Facility, and continued 
construction progress for necessary Saltstone Disposal Units. As a 
result, Savannah River will be able to build substantially on its 
record of successfully emptying and closing underground waste tanks.
    The WIPP investment the request supports will have wide-ranging 
benefits across the EM program, with the planned infrastructure 
improvements at WIPP intended to enable increased TRU waste shipments 
from other EM sites.
    We will continue to make steady progress on those portions of the 
Hanford Waste Treatment and Immobilization Plant necessary to initiate 
tank waste treatment through the Direct Feed Low Activity Waste (DFLAW) 
approach; and complete design and launch site preparations for the Oak 
Ridge Mercury Treatment Facility, which will help address mercury 
contamination and aid in the eventual decontamination and 
decommissioning of deteriorating facilities at the Y-12 National 
Security Complex. We also will complete buried waste exhumation at the 
Idaho National Laboratory and continue with preparations to transfer 
cesium and strontium capsules at Hanford from wet storage to a dry 
storage configuration. We will also implement an interim measure to 
address chromium groundwater contamination at LANL.
   project management execution--safe quality construction on budget:
    NNSA is driving continued improvement in contract and project 
management practices. This includes policies and procedures that employ 
rigorous analyses of alternatives (AOAs); provide clear lines of 
authority and accountability for federal and contractor program and 
project management; and improve cost and schedule performance.
    Since 2011, NNSA has delivered its $1.4 billion project portfolio 8 
percent under original budget.
    NNSA fosters competition beyond the M&O contractors through ``best 
value acquisition solutions.'' NNSA's diversified approach allows 
qualified contractors, other than the traditional M&Os, to compete in 
fixed price, non-nuclear contracts. Contractors have included the U.S. 
Army Corps of Engineers, the Tennessee Valley Authority, and others to 
meet mission requirements when a better value to government was 
demonstrated. The competition creates motivation among the parties to 
strive for exceptional performance, operate within budget, and execute 
on time.
    Additional oversight of M&O contractors involves aligning contract 
structures and incentives with taxpayer interests to encourage further 
contractor performance. For example, the contract for the TRU Waste 
Facility at LANL was structured so the contractor could earn more fees 
if it delivered under budget. Conversely, the contractor could lose all 
fees and pay for the overrun if the project delivered over budget. This 
contract model proved successful, and the TRU Waste Facility was the 
first nuclear facility NNSA delivered under budget. We are using this 
model at other locations.
    A final point on effectively managing and overseeing M&O contractor 
operations is that NNSA developed a systematic process to conduct 
independent third-party project peer reviews to ensure that all 
projects are tracking on budget and schedule. As part of this process, 
NNSA issued a 90 percent design policy requiring nuclear projects to 
achieve final design completion prior to starting construction. NNSA 
also has issued a Project Management Business Operating Procedure 
clarifying roles, responsibility, authorities, and accountability for 
the Programs, Field, and Functional offices across NNSA to ensure 
stakeholders are aligned to deliver safe quality construction on budget 
and schedule. Several of these policies and processes were later 
exported to the Department and codified in DOE Order 413, Program and 
Project Management for the Acquisition of Capital Assets.
                               conclusion
    DOE's diverse missions are critical to the national security of 
these United States: maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; and 
providing naval nuclear propulsion to the U.S. Navy's fleet of aircraft 
carriers and submarines. By investing in our nuclear security 
enterprise and continuing our efforts to modernize our scientific, 
technical, and engineering capabilities and infrastructure, the 
Department will continue to meet its national security missions while 
supporting other national and international stakeholders that also use 
our national assets. We are mindful of our obligation to improve our 
business practices continually, be responsible stewards of the 
environment, and use in a responsible manner the resources that 
Congress and the American people have entrusted to us. The investments 
in our nuclear security and environmental management missions pay 
abundant dividends across the DOE mission, and for the American people.

    Senator Inhofe. That is great, and I appreciate that very 
much.
    We are going to have 5-minute rounds, and I am going to 
adhere to it myself.
    I think you said it in your last few statements that we 
have catching up to do, and people do not realize that. You 
know, the Department of Defense recently completed its Nuclear 
Posture Review, and the administration's defense strategy and 
nuclear posture--they both highlight the acute threat that 
China and Russia are to us as peer competitors. Now, we are not 
used to that in America, but they are. We just got back from 
the South China Sea and we saw what they are doing with 
reclaiming land down there, and they are in the driver's seat 
in many parts. People question is it China or the United States 
who we should be partners with.
    Secretary Mattis put it the best way. He said we looked 
reality in the eye as the world sees us as it is not as we wish 
it were. That fits in with the National Defense Strategy 
because nuclear weapons are an unavoidable part of our return 
to great power competition, whether we like that or not.
    So we are talking about China and Russia in this part of 
our review.
    I would just first ask you just to get this out of the way. 
Do you support the recommendations of the Nuclear Posture 
Review? Just yes or no?
    Secretary Perry. Yes, sir.
    Senator Inhofe. Okay. That is good and I agree.
    Now, I want you to elaborate on that only if there is time 
because I have two other questions I need to get out of the way 
first.
    Both China and Russia have a robust nuclear arsenal and a 
triad. Now, we are talking about missiles and the bombers and 
submarines. In 2018, the Nuclear Posture Review recommends the 
development and procurement of a low-yield warhead for 
submarine-launched ballistic missiles. Now, this has become 
controversial, and I know there is honest difference of opinion 
at this table on this. Sometimes we talk about, well, we do 
have it now. We only have it with bombs. That would assume then 
a B-52 could get through, which I am not ready to assume. So 
the recommendation is to have this capability with the idea 
that if we ever got into something with Russia and they have a 
low-yield and we do not, it might put us in a position of 
having to respond with something that we would not want to 
start that could lead to mutual assured destruction.
    I would just ask you, Secretary Perry, how does the NNSA 
plan to provide this capability?
    Secretary Perry. Senator, I will try to be very brief in 
this answer. This program will be a modification of the W-76 
warhead using the existing components that we have. I respect 
the arguments on both sides of this, but I will say from my 
perspective is that I think it is necessary for us to go 
forward with this program to achieve our tailored deterrence 
objective. I do not think this raises the threshold for use of 
nuclear weapons. I think it will deter others, which is exactly 
from my perspective the role that we should have. We are 
working with DOD on the specific requirements, and obviously we 
will work with OMB [Office of Management and Budget] and this 
committee going forward for the necessary authorization to 
begin the engineering and production side of that.
    Senator Inhofe. I think also people need to understand when 
they talk about low-yield, we are talking about up to 10 
kilotons. Hiroshima was 15 kilotons. So we are talking about a 
lot of power and a lot of destructive power.
    Back when they were putting together the deal, when John 
Kerry was, with the Iran deal, I was opposed to that all the 
way through. But the Joint Comprehensive Plan of Action was 
established to ensure that Iran's nuclear program would be 
exclusively peaceful. I think a lot of people are walking 
around now believing that they want to have their enrichment 
program. They do not want to use that as weapons but for 
energy, for peaceful reasons. Now, let us assume that they are 
right on that, which I do not think they are. The most 
significant flaw in this agreement is they have the sunset 
provisions where they ease after a period of years, and another 
flaw is that does not apply to ballistic missiles or terrorism 
activities.
    In the short time that we have here, Secretary Perry, how 
can the United States mitigate proliferation potential in Iran 
after these provisions expire, if they go beyond the expiration 
date?
    Secretary Perry. Senator, I support the President's desire 
to put America in a stronger position relative to this 
agreement. My role, the Department of Energy's role is in a 
technical position. We are really not in the policy side of it. 
We will respect what you, this committee, Congress, and the 
President working together does relative to that.
    Senator Inhofe. Thank you very much.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, Secretary Perry.
    The issue of proliferation is one that is critical, and one 
aspect of this that you have already been asked about on your 
visit to the House is you have been in discussions with Saudi 
Arabia about the transfer of nuclear technology for power 
production. But there are indications that there may be a 
waiver of the traditional standards we insist upon, which is no 
nuclear enrichment, the so-called gold standard. In fact, we 
have arranged with the UAE, the United Arab Emirates, in which 
they have to adhere strictly to the gold standard.
    I think you already know that if such a deal was proposed 
where the Saudis would not be liable to and required to adhere 
to this standard, I would oppose it and I think many others 
would too. I just wanted to make that clear on the record, 
Secretary Perry.
    Secretary Perry. Yes, sir.
    Senator Reed, I think it is really important to look at 
each of these agreements not in a vacuum but certainly with the 
specificity of what we are looking at here. I like to remind 
people that our choice is at this particular point in time, it 
appears to me either Russia or China is going to be a partner 
in building civil nuclear capability in the Kingdom of Saudi 
Arabia or the United States. I am very confident that the prior 
two have no requirements of nonproliferation. So I think it is 
really incumbent upon us to sit down to work as closely with 
the Kingdom to not only bring them into our fold from the 
standpoint of being able to build that for them, our 
technology, our jobs being created, et cetera, but also from 
having those additional protocols and the International Atomic 
Energy Agency with their ability to go in and make sure that 
they are in fact not involved in any activities that would be 
untoward.
    I think it is important for us to negotiate in a powerful 
way, but recognizing that the alternative of who they are going 
to be doing business with is of great concern to me.
    Senator Reed. No. I appreciate that point. I think the 
proliferation dangers are so great that we should be able to 
wield all of the influence we have, which goes way beyond just 
this one transaction, to insist upon the same standards we 
applied to the Emirates, and there should be no difference.
    Let me turn quickly to the issue of pit production. General 
Hyten was here testifying, and he was very, very clear that we 
need 80 pits by 2030. In 2013, after spending $600 million on a 
design at Los Alamos, both Congress, NNSA, DOD, and this 
committee agreed in 2014 that we have to go ahead and proceed 
with the modular facilities there. Frankly, we are in a rush to 
get those 80 pits done by 2030.
    But now there is talk of sort of stopping and recalculating 
and looking at another approach. I just do not think we have 
the time to do that. So your comments.
    Secretary Perry. Yes, sir. Senator Heinrich and I have 
discussed this at length many times. I have been to Los Alamos 
and visited P-4 and the other facilities out there. It is 
populated with some extraordinary men and women. They have done 
fabulous work, pits 0 through 30. Los Alamos is going to be the 
center for plutonium excellence for as long into the future as 
there is a future. We are committed to that.
    Zero through 30 will be done there. I think it does make 
some sense to have--we have been given the directive with this 
analysis of alternatives to take a look at with GAO [Government 
Accountability Office] best practices. You know, there were two 
options that were identified, Savannah River and Los Alamos. 
That engineering study has not been done yet, but when it does, 
we will report to you on a very timely basis. I think we know 
to get the job done, I think 2026 is when the calendar is for 
the 30 pits per year to be done. Then that 31 through 80--it is 
important for us to be able to send a clear message that we can 
get it done, we can get it done on a timely basis and get it 
done in a way that the taxpayers' respect is thoughtful about 
their concerns.
    Senator Blumenthal. Thank you, Mr. Secretary. I might 
follow up with some questions about Hanford and otherwise. But 
thank you very much.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, Secretary Perry.
    The Nuclear Posture Review states the longstanding goal of 
building a responsive nuclear infrastructure but notes that 
despite being highlighted in all previous NPRs [Nuclear Posture 
Reviews], the United States has failed to make sufficient 
progress to achieve this objective.
    Are you committed to making the necessary investments to 
ensure that we meet the Department of Defense's requirements 
and the objectives described in the Nuclear Posture Review?
    Secretary Perry. With Congress' blessing and funding, 
absolutely.
    Senator Fischer. Thank you.
    Can you speak to how you will implement the NPR's 
recommendations and what steps you can take to ensure the goals 
of this Nuclear Posture Review result in real action when it 
comes to modernizing the nuclear complex?
    Secretary Perry. Well, I want to remind the committee that 
I just had the privilege of naming a new director or 
administrator, I should say, of the NNSA, Lisa Gordon-Hagerty, 
a brilliant, capable, and I might add, the first female that 
ever headed up that administration, that agency. She is very 
capable.
    When you look at the work that has to be done--and I think 
we all recognize this is going to be multi-years. This 
Congress', this administration's, focus on the increase in 
funding I think was very important, whether it is the 
modernization of those warheads or whether it is the 
facilities. Again, I have not been to all of the facilities we 
have. I am en route to get to all of them.
    But when I go to Oak Ridge and I am in facilities that were 
built in some cases before I was born--and that was a spell 
ago--then it becomes abundantly clear to me that both on the 
modernization side having the workforce, having the resources 
to dismantle in my home State of Texas with Pantex, being able 
to process those whether it is over in Senator Heinrich's 
district or whether it is at some of the other facilities, that 
is going to require a long commitment for as long as I am the 
Secretary of Energy and for years down the road. I hope that 
what we are doing today with this budget sends the message that 
modernization is a priority, dealing with these facilities is a 
priority, and putting America in a position to be stronger and 
do it in a way that our taxpayers recognize is very efficient.
    Senator Fischer. Thank you.
    I was pleased to see in your opening statement that you 
committed to achieving the required production capacity of 
those 80 plutonium pits by 2030 and affirms that there is no 
margin for further delay in modernizing NNSA's capabilities and 
infrastructure.
    Secretary Gordon-Hagerty, who I have strong confidence in, 
made similar points during a recent hearing that I chaired in 
the Strategic Forces Subcommittee, and I welcome that sense of 
urgency that you are both bringing to this important issue.
    Since the Department of Energy's budget was finalized 
before the Nuclear Posture Review, do you anticipate seeking 
funding increases for the National Nuclear Security 
Administration, the NNSA, beyond the out-year projections 
included in this budget request in order to implement the NPR's 
objectives?
    Secretary Perry. I do not. I think that the budget that 
is--actually the omnibus that was finished last night, the 2019 
budget is the appropriate amount of dollars. My commitment to 
you is that those dollars will be spent as efficiently, as 
effectively. As a former governor of a State and a manager of 
some pretty big line items, I hope I give some comfort to not 
only the governors that are represented around this table but 
to all of the members here that the management of the 
Department and into those
    enterprises that are outside of Washington, D.C. will be 
run as efficiently, as effectively as they have ever been in 
their history.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Secretary, for being here. 
I think it is very important for this committee to have more 
insight into what you are doing at the Department of Energy to 
address our defense requirements.
    There was a story in The New York Times on March 15th that 
was based on information provided by the Department of Homeland 
Security that talked about the Russian Government's series of 
cyber attacks targeting United States and European nuclear 
power plants, as well as water and electric systems. Separately 
on that day, there was also a story about a cyber attack on a 
Saudi petrochemical plant by the Iranian Government, or the 
suggestion was that it was the Iranian Government.
    I wonder if you could talk about what you are doing within 
the Department of Energy to try and address cyber attacks and 
the threat of cyber attacks on our nuclear infrastructure.
    Secretary Perry. Senator, thank you. A year ago in front of 
some of my committees, I made the statement that cybersecurity 
was one of the priorities of the Department. That has not 
changed. If anything else, it is even highlighted more by those 
activities that you mentioned here.
    As we looked at the administration, NNSA has some cyber 
work that they do and over at the enterprise level in the 
Forrestal building. We saw a lot of bifurcation, a lot of 
fragmentation, if you will. What I asked the administration to 
do was to come back with a plan where that we could really 
consolidate, we could focus, we could have as tight a process 
as possible to really focus on this issue of cybersecurity. As 
you well know, DOE is the sector-specific agency in the 
electrical side of things. So the grid, the reliability, the 
resiliency of that grid, attacks from cyber--all of that is 
statutorily in our house.
    With all of that said, we laid out to you, to the Members 
of Congress, this concept called CESER, the acronym. It is 
Cybersecurity, Energy Security, and Emergency Response. We 
bifurcated the Office of Electricity. Those two have assistant 
secretaries now that are equal.
    The reason I think this was wise from my perspective--it is 
certainly worth having a conversation about--to create a clear, 
important, and a chain of command on this issue of 
cybersecurity.
    Senator Shaheen. I am sorry to interrupt. My time is 
running.
    Secretary Perry. I am sorry.
    Senator Shaheen. I agree with you on the chain of command 
issue. I think that is very important.
    What I am concerned about is whether we have a chain of 
command throughout the whole-of-government. Who do you report 
to or who is it throughout government who is taking charge of 
this issue? Do you know?
    Secretary Perry. When you say this issue, sector-specific 
it is DOE and it is me through my Under Secretary of 
Electricity who will be in charge of this.
    I think what you are talking about, Senator, is do we have 
global relationship. And we do. We work very closely with the 
Department of Homeland Security. She also sits on the National 
Security Council.
    Senator Shaheen. In terms of national security threats from 
cyber, it is the Department of Homeland Security who you 
understand to be in overall----
    Secretary Perry. But not in the electrical sector. There is 
a clear bifurcation, if you will, statutorily. DHS [Department 
of Homeland Security] has a role. They are very comfortable 
with that. They are working on it. We coordinate. We talk to 
them. We got a great relationship with DHS. But sector-specific 
when it comes to the electrical grid, when it comes to 
protecting that grid, when it comes to having a cyber effort in 
place for that, that is in the Department of Energy.
    Senator Shaheen. Can you brief members of this committee 
about specifically what you are doing to address the potential 
for cyber attacks?
    Secretary Perry. In a smaller room.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again.
    I appreciate your focus in your testimony here on the 
nuclear modernization issue. It is an important issue. I think 
it still remains--I hope it still remains--a bipartisan issue. 
You and I had the opportunity to present at a forum at the 
Reagan Defense Forum a couple years ago, and that is when 
President Obama was still in office and I was touting their 
nuclear modernization program as important, something that we 
should all get behind. It seems to me the Trump 
administration's modernization program is very similar to the 
Obama one. I certainly hope we can have a bipartisan support 
for that. It is an important issue that should transcend 
politics.
    But I wanted to actually talk about another element of 
energy that you have been talking about. I actually read your 
interview in The Examiner this past week, a good picture there. 
So congratulations on that. But it is the issue of energy as a 
new instrument of American power, and whether it is renewables 
or natural gas or oil, we are on track, because of States like 
yours and States like mine, to become once again the world's 
energy super power, a position we had occupied for decades 
until a couple of decades ago.
    Just given your experience, I think it is important to kind 
of get on the table as a former governor of Texas--I am a 
former Department of National Resources commissioner in 
Alaska--we clearly have the highest standards in the world--our 
country--in terms of producing and exploring energy than any 
other place, say, like Russia or Iran or Kazakhstan or Saudi 
Arabia, other places that produce energy. Do we not, Mr. 
Secretary?
    Secretary Perry. Yes, sir.
    Senator Sullivan. So can you talk to us a little bit more 
about how you see energy as an instrument of American national 
security and economic security and jobs? A lot of my 
colleagues--I consider myself part of it--are looking at ways 
to push back against Russia. The New York Times recently 
reported that, ``Russia is increasingly wielding oil as a 
geopolitical tool, spreading its influence around the world and 
challenging the interests of the United States.''
    Yet, Senator McCain and I had a meeting about a year and a 
half ago with a very senior Russian dissident, someone that is 
trying to undermine the Putin regime, which I think a lot of us 
want to do, push back on that regime. At the end of that 
meeting, he said the number one thing we can do--number one 
thing we can do--to help push back against Putin is produce 
more American energy.
    So can you talk about that? It is this incredible 
opportunity we have. I think it should be bipartisan. You are 
clearly an expert on it with a lot of experience. I would love 
to hear your views on what we can do more and then what we 
should, as the Congress, do more to take advantage of this 
great American energy renaissance, American energy dominance, 
as you and Secretary Zinke and the President talk about it, but 
how it helps our national security, helps our allies. I would 
love to hear whatever you think we should be doing on this 
issue. You have been a leader on it and we appreciate it.
    Secretary Perry. Yes, sir. I will try to go fast. For a 
southern boy, I will talk as fast as I can.
    Senator Sullivan. Well, I have about a minute and a half 
left. So go for it.
    Secretary Perry. We all remember 15 years ago there was a 
person traveling around the country giving a pretty good speech 
called peak oil. We found it all, and even if we were going to 
produce anymore, it was going to be incredibly expensive.
    Senator Sullivan. We were going to be importing LNG 
[Liquified Natural Gas].
    Secretary Perry. Yes, sir. George Mitchell, with the help 
of national labs I might add--George Mitchell was an old 
geologist from down in Texas, a Texas A&M graduate I might add, 
who along with our national labs on hydrologic fracturing and 
directional drilling changed the world literally. Today, the 
geopolitical geography, if you will, has truly changed and it 
has changed because America decided that it was going to 
produce and we had the technology to do it and the innovation 
to do it.
    It is not just on the fossil fuel side. I mean, my home 
State of Texas produces more wind than any other state in the 
Nation. We did that in a decade period of time because we want 
to have a portfolio that was clearly diversified. I think when 
we talk about a bipartisan way to do this, I mean, whether it 
is wind, whether it is hydro, whether it is solar, whether it 
is LNG--I mean, we are sending LNG shipments to 27 countries 
now. I mean, the idea that American LNG was going to be 
anything--well, there was not an American LNG. We were going to 
import.
    So it is the most fascinating time to be----
    Senator Sullivan. How does that help our national security 
here on the----
    Secretary Perry. Certainly from the standpoint of--that 
dissident gave you good advice. Anytime that we can deliver 
LNG, for instance, whether it is sending it into Poland to that 
LNG facility up there, it sends the message to the rest of the 
European Union, you do not have to be held hostage by Russian 
gas.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you so much, Mr. Secretary, for joining us.
    One of the primary responsibilities of the Department of 
Energy is to promote international nuclear safety and 
nonproliferation. However, President Trump recently waved 
sanctions on Iran under the JCPOA [Joint Coalition Plan of 
Action] but threatened not to do the same again unless Congress 
put forth legislation to rewrite the agreement to meet his list 
of demands.
    Is the Department preparing to address any damage to 
international nuclear safety and worldwide nonproliferation 
efforts that would be caused by the United States reneging on a 
nonproliferation agreement that it helped to negotiate?
    Secretary Perry. Senator, I am going to support the 
President's position when it comes to JCPOA. I agree with him 
that, if we can get a better deal, we certainly ought to have 
that conversation.
    My role in that and the Department of Energy's role in that 
is from a technical standpoint to give him the technical 
expertise as he goes forward on that. We are not in the policy 
business.
    Senator Gillibrand. Yes, but as you know, the technical 
expertise is really important----
    Secretary Perry. Yes, ma'am.
    Senator Gillibrand.--because when we negotiated the JCPOA, 
the Department of Energy was very heavily involved, and your 
predecessor was in the room for all negotiations. So I hope 
that you can focus on that technical support but recognize that 
if we do walk away from this agreement, I think it will 
undermine nuclear nonproliferation.
    Do you have a plan to address any responses to us walking 
away from the agreement?
    Secretary Perry. Here is how I will address that. Our 
responsibility in the nonproliferation side of the equation is 
clear. We will use every means that we have, whether it is our 
ability to have detectors used, well, anywhere in the world for 
that matter, our scientists, the training of scientists in 
other countries. Our commitment to nonproliferation I think is 
as strong as it has ever been in this country. I intend to make 
it even stronger. So you have that commitment, Senator.
    Senator Gillibrand. I have a related question. Earlier this 
week, the Commander of Strategic Command testified that the 
effect of weapons of mass destruction in the hands of 
transregional terrorist organizations could be catastrophic. 
Yet, at the same time, the 2018 NPR states that the current 
environment makes further progress towards nuclear arms 
reductions in the near term extremely challenging.
    What is the Department of Energy doing to mitigate the 
possibility of nuclear materials ending up in the hands of 
terrorists?
    Secretary Perry. Senator, that may be a conversation that 
we need to have in a smaller room.
    Senator Gillibrand. Okay.
    Secretary Perry. But know that we are committed to that.
    Senator Gillibrand. Can I then ask for that briefing in 
closed session? If you prefer by letter, that is fine.
    Secretary Perry. Yes, ma'am.
    Senator Gillibrand. Thank you.
    One more issue. The safe and efficient cleanup of sites 
that are contaminated with legacy nuclear material is 
critically important to the communities that surround them. I 
appreciate your commitment to prioritizing your Department's 
responsibilities to clean up those sites.
    However, I am concerned that the DOE's fiscal year 2019 
budget request would decrease funding by 8.5 percent for the 
West Valley Demonstration Project. West Valley is a project 
authorized by Congress for decommission of a facility in 
western New York that was used to process high-level waste 
prior to 1980. It has been nearly 40 years since the facility 
closed down and the site remains highly toxic. A decrease in 
funding for this project will result in further delays while 
the site continues to pose a threat to health and safety of 
western New Yorkers.
    I know that in our omnibus we are going to restore some of 
that funding, but will you commit to prioritizing the West 
Valley Demonstration Project within DOE's Office of 
Environmental Management to ensure that the cleanup does not 
fall behind schedule?
    Secretary Perry. Yes, ma'am.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Welcome, Secretary Perry.
    For the record, I want to associate myself with the 
comments of the ranking member with regard to maybe looking at 
doing this annually. I think the Secretary of Energy's 
importance to DOD cannot be overstated.
    Secretary, I would like to start with DOE's capacity to 
produce plutonium pits. When General Hyten testified here on 
Tuesday, he reinforced DOD's requirement of up to 80 pits per 
year by 2030 with the initial 30 per year by 2026 taking place 
with the existing facilities at Los Alamos. As I see it, 
General Hyten is really DOE's customer here.
    Secretary Perry. Yes, sir.
    Senator Heinrich. Are you fully committed to meeting 
STRATCOM's requirement for pit production of 30 by 2026 and 50 
by 2030?
    Secretary Perry. Yes, sir.
    Senator, if I could, I'll just add one thing. I think it 
was Senator Fischer that asked about the budgeting side of it 
and if we were going to have the resources in the omnibus in 
the 2019, and I said yes. But the caveat here that I think is 
important is that we are going to work with DOD and the OMB on 
any issues that may come out about that, any equivalency. So I 
just wanted to, for the record, make sure that she recognizes, 
you all recognize that the budget, as written, appears to be 
sufficient. If DOD has additional requirements, then we will 
address those.
    Senator Heinrich. We will certainly work on the budget side 
of things.
    I asked that in part, Secretary, because spending 3 years 
on what I have viewed as a flawed analysis of alternatives 
[AOA] does not exactly inspire confidence with regard to the 
timeline. As you know, I had serious doubts about NNSA's 
analysis of alternatives to meet the 80 pits per year. In 
December, I sent you a letter expressing specific concerns with 
the AOA and that the modular approach at Los Alamos had not 
even been considered at that time.
    The AOA has now taken a full 3 years. We were assured that 
Administrator Gordon-Hagerty intends to meet the May 11th 
deadline to make a decision on NNSA's recommended strategy for 
pit production. General Hyten testified Tuesday that he would 
be concerned if there is any further delay in that timeline. So 
as these delays stack up, it means there is simply no room for 
error at this point.
    Can you assure me that the modular approach at Los Alamos 
will be fully considered in this process?
    Secretary Perry. I join General Hyten in telling you that 
that timeline is correct, and I will be greatly concerned if it 
is not met. Yes to your question.
    Senator Heinrich. Will you and the Deputy Secretary also 
commit to do a careful review of that recommendation by the May 
11th deadline?
    Secretary Perry. Yes, sir.
    Senator Heinrich. Finally, can you assure me that the best 
available cost estimates are used and that the recommended 
option will meet STRATCOM's required capacity by 2030?
    Secretary Perry. Yes, sir.
    Senator Heinrich. I am going to shift gears a little bit 
right now, Secretary, and talk a little bit about trusted 
electronics. The Nuclear Posture Review confirmed the need to 
maintain a robust capability for both research and also a 
production capability of trusted radiation-hardened 
microelectronics.
    The MESA facility at Sandia National Labs was built in the 
1980s. It must be upgraded to meet future national security 
requirements after 2025. A plan is now being developed to 
upgrade MESA to meet NNSA's requirements through 2040.
    Do you agree that NNSA should maintain the unique 
capability at Mesa for both the R&D [Research and Development] 
side but also the production capability of strategic radiation-
hardened microelectronics?
    Secretary Perry. Yes, sir. I hope before the next 7 days 
are up to have visited that site.
    Senator Heinrich. Yes, I look forward to that. Thank you 
very much for making that a priority.
    I was also really pleased to see an increase to $403 
million in the request for WIPP to help restore full operations 
at that facility. I know you are familiar with that facility 
and I thank you for that. I had been concerned about the 
growing backlog in maintenance and repair at that facility, and 
so it is good to see an additional $47 million to look at those 
systems and structures, including a significant fire 
suppression system and an existing salt hoist there that are 
going to be very important to maintaining that in a safe way.
    Secretary Perry. Yes, sir.
    Senator Heinrich. I want to thank you for your focus and 
your commitment to funding WIPP in a way that ensures proper 
maintenance but also safe operation because we cannot afford to 
have a deviation from the safe operation of that facility.
    Secretary Perry. Indeed.
    Senator Heinrich. Thank you.
    Secretary Perry. Yes, sir.
    Senator Inhofe. Thank you, Senator Heinrich.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, Mr. Secretary. Good to be with you.
    Secretary Perry. Thank you.
    Senator Kaine. I am really glad we are having this hearing, 
to the chair and ranking. One thing this hearing does is it 
kind of points out the somewhat arbitrary distinction that we 
often make between defense and non-defense spending as we are 
talking about budget caps.
    This is an agency, the DOE, with a $30 billion budget and 
$25 billion of it is defense programs. Those programs are 
authorized in the NDAA but then appropriated through not the 
SAC-D [Senate Appropriations Committee-Defense] but through the 
domestic committee. Having this hearing is really important 
because it shows the way we talk about budget caps and things 
can be a little bit arbitrary. These expenditures are critical 
to the Nation's defense.
    Mr. Secretary, I know that you know that in Virginia we 
care a lot about this. The Lynchburg area of Virginia--it is 
kind of odd how it developed, but is the center of production 
of nuclear reactors for the carriers and subs that are a 
critical part of the work we do. They are developed there in 
Lynchburg by amazing craftsmen and women and then on trains 
down to the shipyard where they are installed into carriers and 
subs. The deal we budget is absolutely critical to the Nation's 
defense.
    I thank you for the work that you are doing to make sure, 
and I am happy with the omnibus that I hope that the Senate 
will vote in the next day or so because I think it portends 
well for the consistency of those investments.
    I actually want to go, though, to a different space, which 
is you have a pretty amazing track record as a governor in a 
number of areas. Your tenure was pretty historic. But Texas and 
renewables. Texas produces more renewable energy than any 
State. Texas is in the top few in terms of the percentage of 
its energy that has been produced by renewables. If I got this 
right, I think Texas did a renewable portfolio standard in 1999 
and then a new one in 2005, and yet whatever standard was set 
by the governor and legislature, Texas innovators and industry 
beat the standard. My sense, from everything I have studied, is 
that sort of a combination of policy and then private sector 
innovation has been not only an environmental good but also an 
economic good for Texas. Would you agree with that?
    Secretary Perry. I could not have written it any better, 
sir. That was an awesome display of what we were able to do in 
the State, and I totally agree with you.
    Senator Kaine. How did Texas beat its standard? So you set 
CAFE [Corporate Average Fuel Economy]--I mean, not CAFE 
standards--renewable portfolio standards. Often we hear a 
debate about, oh, that is going to pit the environment against 
the economy. Yet Texas beat the standards again and again. How 
did that happen?
    Secretary Perry. I will try to be brief.
    One of the ways we did it was by giving incentives to 
companies. For instance, we had a program called the Texas 
Emissions Reduction Program. We gave incentives on the 
franchise tax for fleet operators to remove old, inefficient 
burning engines and replace them. We subsidized--the State 
did--the building of a CREZ [Competitive Renewable Energy 
Zones] line from out where the wind blows to where the people 
are. There were incentives to get the private sector to do 
particular things.
    The result of that and one of the things, Senator, that I 
am really proud of--Texas is a pretty good sized place, the 
12th largest economy in the world. We created a lot of jobs 
while this was going on. The rural economic development from 
the wind energy was fascinating to watch happen. But we lowered 
emissions: NOx [Nitrous Oxide] by over 60 percent, SOx [Sulfer 
Oxide] by over 50 percent. The total carbon dioxide footprint 
in the State of Texas during that period of time was almost 20 
percent in a State that grew by 7,000 people. That is a lot of 
pickup trucks on the road.
    Senator Kaine. Right. So a growing population, growing 
economic activity----
    Secretary Perry. Lowering emissions. It was driven by two 
of those. The third one that really drove it was changing out, 
shifting out those old, inefficient power plants, replacing 
them with natural gas plants.
    Senator Kaine. Well, I think Texas just offers such a bit 
of evidence for the country. We have had at least one vote 
during my time in the Senate on a national renewable portfolio 
standard. I think Texas and the States that have done it have 
demonstrated that if we are bold enough to lead, we will 
actually be surprised and go farther than the standards that we 
set.
    I remember a visit with Shimon Peres once where he said the 
same thing to me about the Middle East that was stated to you 
about Russia, Senator. He said, look, the best thing you could 
do for the Middle East is reduce your reliance upon oil, reduce 
your reliance upon foreign energy.
    I think Texas gives us a path forward, and I wanted to 
praise you for your work there. I hope we would embrace that 
kind of a policy as a Nation.
    Senator Inhofe. Thank you, Senator Kaine.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for being here, Mr. Secretary.
    As I know you are aware, DHS and the FBI [Federal Bureau of 
Investigation] highlighted a series of cyber attacks targeting 
United States Government entities and critical infrastructure 
sectors, occurring since at least March 2016, notably on the 
nuclear energy and water sectors. The New York Times reported 
last week that by 2013 researchers had linked Russian hackers 
to hundreds of attacks on United States and European energy 
grids. In my view, those attacks are an act of war. Would you 
agree?
    Secretary Perry. I would tend to agree with you, sir.
    Senator Blumenthal. Thank you.
    By December of 2015, in fact a noticeable change of 
strategy occurred. The Russians had gone from intelligence 
gathering to actually possibly seeking to shut down these 
operations, a more serious act of war.
    We know that Russia is willing to go much, much further. We 
know that fact from what they have done in the Ukraine in 2015 
and 2016 when Russian Government hackers, in fact, executed 
cyber attacks against Ukraine's critical infrastructure that in 
fact vastly disrupted electrical grids and disabled control 
systems that impacted hundreds of thousands of people.
    Can you assure us that the United States of America has 
taken dramatic action to deter such Russian attacks?
    Secretary Perry. I can.
    Senator Blumenthal. You can.
    Secretary Perry. I can.
    Senator Blumenthal. What kinds of actions have the United 
States taken?
    Secretary Perry. That conversation probably needs to occur 
in a smaller room, Senator.
    Senator Blumenthal. Well, I am asking what kinds of 
attacks. Are these verbal messages? Are they covert actions? 
Are they cyber messages of some kind?
    Secretary Perry. Senator, we are making, I think, every 
effort to protect the electrical grid from those types of 
attacks. Again, I am a bit--I am not a bit uncomfortable. I am 
quite comfortable telling you that we need to have this 
conversation in a room where we can talk classified.
    Senator Blumenthal. Is one of those actions to congratulate 
Vladimir Putin on his election? That kind of congratulations 
seems to, in effect, remove the deterrent effect of any action 
that we have taken.
    Secretary Perry. Senator, I think there are a lot of ways 
that we will be sending messages. My bet is that people call 
people from time to time that they are in great competition 
with and maybe tell them thank you on one sense, nice 
competitive work, but on the other side, rapping their kneecaps 
pretty hard to get their attention. In some other areas, you 
are making some big, big mistakes.
    Senator Blumenthal. Do you agree that Russia has to pay a 
price?
    Secretary Perry. I agree that the United States and the 
rest of the world need to send some very powerful messages to 
Russia relative to some of their activities.
    Senator Blumenthal. Do you agree that the only message the 
Vladimir Putin understands is one that makes him pay a price?
    Secretary Perry. That is exactly why the United States 
having an energy policy where that we can deliver energy to 
Eastern Europe, for instance, where we are a partner with 
people around the globe where they know that we will supply 
them energy and there are no strings attached is one of the 
most powerful messages that we can send to Russia.
    Senator Blumenthal. Do you agree that there has to be more 
cooperation between your Department and the utilities that are 
privately run and owned?
    Secretary Perry. Yes, sir.
    Senator Blumenthal. What steps are you taking to do that?
    Secretary Perry. We are working closely with that sector. 
With some specific companies, we are working even more closely 
with. There are some of these pieces of information that get 
into very sensitive areas. One of the conversations that we 
need to have, Senator Blumenthal, is being able to speed up the 
process of which we can get individuals classified so that if 
we need to bring them in and talk to them in a classified 
setting, we can do that. I know this is a little off subject 
here, but the point is I think it is really important for you 
and the committee to know that the process to get individuals 
classified so that they can do work is very slow and onerous. I 
think we need to have this conversation about how to speed that 
up and to be able to get these people into a classified 
designation.
    Senator Blumenthal. My time has expired.
    But, Mr. Secretary, it is not off topic. It is a very 
relevant issue in this space and in protecting our election 
system, as was raised yesterday in the Department of Homeland 
Security or, I should say, the Intelligence Committee hearings 
involving the Department of Homeland Security.
    But I would just emphasize to you that the Russians almost 
certainly know everything that you would tell me in a closed 
setting. They already know it. The ones who do not know it are 
the American people. They are the ones who deserve to know it. 
I would respectfully suggest that you and other leaders who are 
responsible in this area owe it to the American people to come 
in an open forum like this one and explain what we are doing to 
fight back against the Russians who are attacking our country 
every day not only our Department of Defense but also our 
critical grid.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Blumenthal.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, Secretary Perry, for your testimony here today.
    Secretary Perry, as you know, your Department plays a key 
role in national security particularly in advancing nuclear 
nonproliferation and promoting nuclear safety generally across 
the globe. This includes working with the international 
community and the International Atomic Energy Agency.
    One area that the IAEA [International Atomic Energy Agency] 
is involved in deals with the production and the reprocessing 
of plutonium. I would argue that the United States should take 
a leading role in pursuing strict enforcement of the IAEA 
agreement that requires participating countries to manage their 
production and their reprocessing of plutonium to maintain a 
balance between the supply created, as well as the demand for 
their peaceful purposes, the rightful peaceful purposes that 
they are conducting within their countries.
    Currently, however, there are countries that are members of 
this agreement that are not in compliance with the best 
practices of balance between plutonium production supply and 
peaceful use demand. I would also argue the United States 
should encourage strict compliance with the principle of supply 
and demand balance of plutonium and then work to the next 
standard which we should employ which is to have a supply/
demand balance for highly enriched uranium as well. This I 
think has the advantage of strengthening our global position in 
terms of nonproliferation norms before the JCPOA expires in the 
years ahead.
    If the United States takes swift action and can show the 
global leadership to raise and not lower international nuclear 
standards so that the JCPOA provisions, when they expire, will 
find a very different diplomatic environment where the world 
community understands that we need to have this balance and we 
are taking strict action now, I think it will help us move to a 
place where Iran does not begin the commercial and large-scale 
reprocessing of--or, I should say, enrichment of uranium, which 
would be a global threat to us.
    Secretary, my question is I would like you to share your 
views on this issue and whether or not it makes sense to try to 
push for a balance of supply and demand as is required in 
plutonium agreements and to move to highly enriched uranium as 
well.
    Secretary Perry. Yes, sir. I can answer that very briefly 
and directly. Yes, I believe that that should be our goal.
    Senator Peters. So what sort of diplomatic efforts will you 
be engaged in to promote that?
    Secretary Perry. My role is more on the technical side, 
Senator, than being a diplomat. That is the State Department. 
The State Department leads these types of efforts. So we have 
not a secondary role but I would say a supporting role on the 
technical side. I try to stay in my lane when it comes to--if 
the President asks me to be a diplomat in a particular way, I 
will certainly take my instructions.
    But let me go back and have a conversation with the folks 
in our office about the specificity of what you talked about, 
the balancing of that, and get back to you if I may.
    Senator Peters. Well, I would appreciate that, Mr. 
Secretary, because I think this is critically important. 
Certainly as a member of the cabinet with these 
responsibilities, your voice will be important. If it is 
something that you believe we need to pursue, I would certainly 
like to work with you to give a nudge to the administration to 
move in that area, particularly given the fact the JCPOA--every 
day we wait we get closer to its expiration, and we could see 
the production of enriched uranium.
    I think that is also related to a question that was asked 
by Senator Reed as well, that in dealing with Saudi Arabia, 
that we really need to push to make sure that they also agree 
to the gold standard that the UAE agreed to. I think it would 
set a horrible precedent to allow Saudi Arabia to begin 
enriching uranium and perhaps to higher levels at the same time 
we may be getting close to the JCPOA expiring. I would 
certainly hope that you would push aggressively to make sure 
that Saudi Arabia is held to the same standard that we should 
hold every single country to really across the planet.
    Secretary Perry. Yes, sir. Count on it. As we are asked to 
engage in whatever way, we will. But I always remind people 
that the alternative is not good. If Russia, China, or who are 
going to be chosen to do the civil nuclear projects in the 
Kingdom of Saudi Arabia, there will be no oversight.
    Senator Peters. That is why we need to push to make sure we 
have this balance of supply and demand. Certainly both China 
and Russia need to be a part of that as well. This is going to 
take a very large diplomatic effort, which I believe the United 
States should lead. This is common sense, and if we can 
implement that with other nuclear powers, we will make a safer 
world.
    Secretary Perry. Indeed.
    Senator Peters. Thank you.
    Secretary Perry. Yes, sir.
    Senator Inhofe. Thank you, Senator Peters.
    Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Welcome back, Mr. Secretary. Always good to see you.
    Senator Peters and I had a little vacation over the 
weekend. We went up--just a little, short flight up to the 
Arctic icecap where we got on a fast attack submarine and 
sailed underneath the ice and then surfaced about 24 hours 
later. It was a lot of fun. I would recommend to all of you 
that you do it. The quarters in the submarines are a little 
tight, though, I have to say.
    But we had a chance to tour the nuclear reactor on the 
submarine. Naval Reactors is considered probably the gold 
standard within our nuclear enterprise, one of the best run 
organizations, maybe one of the best run organizations in the 
entire government. Now that you have been on board for a little 
over a year, you have had a chance to get to know your 
organization and observe Naval Reactors. I just wanted to know 
what your thoughts are about what has made Naval Reactors such 
an outstanding organization for now 40-plus years, maybe what 
lessons could we learn from that and apply to some of the other 
more troubled parts of our nuclear enterprise or, for that 
part, across the government entirely.
    Secretary Perry. I will suggest to you it has had good 
leadership. Frank Caldwell is an incredibly capable leader. You 
look back to the man who started it, the extraordinary Admiral 
Zumwalt. So you have some really fine leadership. They have a 
tight focus. They basically stay in their lane. They have not 
gotten outside of that. They have a mission, and Naval Reactors 
has well run an operation, as I have had the opportunity to--
and that is not to say that there are not some other places at 
the DOE and other areas of government that are not as capable. 
But I think your observation is very succinct that they indeed 
are well run.
    Senator Cotton. I agree. It is really important for an 
organization to have leadership. There is no substitute for it. 
That is why we depend as a Congress on you and your people and 
the American people depend on all of you. As Secretary Gates 
used to say, when he was the Secretary of Defense, to his 
people, we can solve problems here with a scalpel or we can 
wait until Congress solves them with a meat cleaver. You have 
got some of the most important challenges that our government 
faces, not always pleasant business to think about these kind 
of things, but the American people are depending on you and the 
Department of Energy to make sure that our nuclear deterrent is 
safe, reliable, effective, credible.
    I want to turn to one specific point now in your testimony, 
in which you state that you are building the capability and 
capacity to produce 80 pits per year by 2030. Is the main risk 
of missing that mark lack of adequate and certain funding for 
your organization?
    Secretary Perry. I think if the adequate funding was not in 
place, you would be correct. At this particular point in time 
in this budget cycle, it is adequate. In the out-years, I 
cannot respond to that because I do not know what those numbers 
are going to be. But for us to continue to build those pits to 
have those 30 pits per year ready by 2026, obviously the 
funding has to stay in line.
    Senator Cotton. If the threats from Russia and China and 
Iran and North Korea, potentially other now or future nuclear 
states were to grow and our leaders determine that we need to 
produce more than that number of pits per year, with additional 
funding, do we have the technical ability to achieve that?
    Secretary Perry. Yes.
    Senator Cotton. Good.
    While we are talking about funding requirements as well, 
the Nuclear Posture Review, in addition to your testimony, 
observes that more than half of NNSA's infrastructure is over 
40 years old. More than a quarter of it dates back to the 
Manhattan Project in the 1940s.
    Your budget request had an increase of about $200 million 
for infrastructure and operations, much of that going to 
deferred maintenance for NNSA infrastructure. Secretary Perry, 
is the budget that we passed last month, the spending bill we 
may be on the verge of passing going to give you the money you 
need to make real progress on this infrastructure backlog?
    Secretary Perry. Yes.
    Senator Cotton. Good.
    Thank you very much for what you do, and thanks for all the 
men and women at the Department of Energy.
    Secretary Perry. Thank you, sir.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Mr. Secretary, Governor, welcome.
    Secretary Perry. Thank you, sir.
    Senator King. For 70-plus years, there has been no use of 
nuclear weapons since 1945 in the world, and that has 
principally been because of the strategy of deterrence, that 
there are nuclear-armed countries, but the deterrence strategy 
of, if you use them, you will suffer horrendous consequences 
has worked.
    My concern is that the whole strategy of deterrence breaks 
down if you are talking about terrorists having nuclear weapons 
or a nuclear device. They have indicated they do not care about 
dying. They do not represent a nation state, and we really do 
not have a strategy to deal with that except nonproliferation.
    What bothers me is that in your budget under NNSA, there is 
a significant increase for weapons activity. There is a 
significant increase for naval reactors. There is a decrease 
for nonproliferation. It is not a big decrease, but it is a 
decrease. It seems to me this is one of the most serious issues 
that we face in terms of the danger of nuclear weapons or even 
one nuclear device falling into the hands of either a small 
rogue state or more dangerously a terrorist organization.
    Why in the world in this situation are we seeing a decrease 
in the activities of the Department in nonproliferation instead 
of an increase?
    Secretary Perry. Senator, I do not think you are seeing a 
decrease in the activities. You may be seeing a decrease in the 
funding line item, but the focus of the Department--and if my 
information is correct, we actually have an increase of the 
entire nonproliferation budget. I think it is approaching 4 
percent.
    Senator King. Well, perhaps I am misinformed. I have got a 
Department of Energy budget request fact sheet, February 12th. 
It says 1.98 for defense nuclear nonproliferation, $17 million 
below fiscal year 2017 enacted. So maybe we need to get 
together offline and straighten out those numbers.
    So you are committing to me a serious and unrelenting 
commitment to nonproliferation.
    Secretary Perry. Regardless of what that budget may be, 
sir.
    Senator King. Thank you.
    NNSA has had some difficulty over the past years managing 
the life extension program, which is a very important part of 
the Nuclear Posture Review of recapitalizing. There have been 
cost overruns, schedule delays, reductions in numbers of 
weapons refurbishment. What are you doing to get a hold of that 
program and tighten the management so that we can meet the 
deadlines and also the cost limitations?
    Secretary Perry. I am sorry. Repeat that again, Senator.
    Senator King. On the life extension programs for nuclear 
weapons, there have been cost overruns, delays. The question is 
can we rely on the Department to focus management skills on 
this problem because this is going to be a part of the Nuclear 
Posture Review's recapitalization.
    Secretary Perry. Excuse me for making you repeat that, 
Senator.
    What I found a year ago when I came into the agency, there 
are a number of programs that had some pretty big cost 
overruns. There were some pretty big programs, whether it was 
in the environmental management side of things or whether it 
was in the programmatic side of life extension programs.
    We have a new NNSA Administrator. She and I have had very 
pointed conversations about the management of the modernization 
of the arsenal, the life extension programs. I will suggest to 
you and I hope that you will see a commitment to managing those 
programs where that the result is not only up to your 
satisfaction, but the expenditures are within the realm of 
thoughtful, efficient use of our taxpayer dollars.
    Senator King. Thank you.
    In just a few seconds, just a comment. You mentioned it 
earlier. The issue of clearances is a huge problem throughout 
the government. We had a hearing in the Intelligence Committee 
a couple of weeks ago just on this subject. It turns out there 
is a backlog of 791,000 people awaiting secret or top secret 
clearances, which is impeding our ability across the 
government, but I know it is in your Department. We discovered 
in that hearing that OMB seems to be the center of where this 
is focused, and I hope that you will work with OMB and add your 
voice to those of other departments that we have just got to 
solve this problem. Not only is it slowing down the activities, 
but we are losing good people. I know people who have been in 
the queue for a year and a half or 2 years, and finally they 
said I am going to go off and get a job in the private sector. 
I cannot wait for this anymore. I think that is a real loss. 
That is an opportunity lost to our country.
    Secretary Perry. I will not sit here in front of you and 
defend OMB, sir.
    Senator King. I want you to raise this with them and be 
insistent as only you can be.
    Secretary Perry. Yes, sir.
    Senator King. Thank you, Mr. Secretary.
    Senator Inhofe. Thank you, Senator King.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Perry. Senator.
    Senator Cruz. Welcome. Let me say first of all congrats on 
the Aggies beating North Carolina. I know you were celebrating 
loudly, and we all were. That was a good victory and I hope 
more to come.
    Secretary Perry. On to Michigan.
    Senator Cruz. It should have been Houston. That would have 
made an even better game. But alas, it was not to be.
    Mr. Secretary, often when people talk about the work of the 
Department of Energy, they think about physicists in 
laboratories and models being developed on supercomputers. But 
an important part of it is that we also have to be able to 
build and produce the things our scientists design, and for 
that we need production capacity like at the Pantex plant 
outside of Amarillo, Texas. We used to have huge production 
capacity in this country, but we have closed much of that down 
at the end of the Cold War. Now we have a few places left and a 
lot of the buildings in those places are too old and too small 
to do what we need to have them do.
    The Nuclear Posture Review the Department of Defense 
recently released mentions, ``developing a National Nuclear 
Security Administration road map that sizes production capacity 
to modernization and hedging requirements.'' Could you 
elaborate a little bit on what that means and what kind of 
production capacity we need that we do not have right now?
    Secretary Perry. Senator, I think the issue that you 
rightly focused in on--it is as much as, in a global sense, 
looking back over the last 25 years after the end of the Cold 
War, if you will, the peace dividend that we all appreciated. 
Then the world has changed since then. The requirement, whether 
it was in facilities, whether it was in modernization of our 
weapons, whether it was in keeping a supply chain in place, is 
a slight diversion here. It is the same challenge that we have 
got on our civil nuclear side, is that those got pushed back on 
the back burner.
    We are faced now with, on the civil nuclear side, a real 
challenge, whether it is keeping our companies engaged in this 
in a worldwide way, developing the engineers and the technology 
and the expertise to go forward with. The same is true in the 
sense of our weapons program. You have visited Pantex before. 
You have visited Senator Graham's facilities out at Savannah 
River. Oak Ridge has some facilities that are older than I am. 
For a building that is old.
    But my point is that this Nuclear Posture Review and this 
committee needs to be, as I said in my opening remarks, thanked 
for recognizing that we have got to have the resources to be 
able to get this country back on track from the standpoint of 
building the life extension programs, the modernization of the 
fleet. If we do not, then we put America in a place of jeopardy 
that I do not think anyone on this committee wants to see us 
in.
    Senator Cruz. Is the Department looking at expanding 
facilities in existing plants like Pantex?
    Secretary Perry. I do not know whether we are looking at 
expanding facilities. One of the things that is very close to 
being is a new headquarters building at Pantex that is going to 
get them out of some early 1950s buildings that are scattered 
around and all over that complex into one facility where I can 
assure you that your constituents that are getting up in 
Randall County every day and going to work are really going to 
like going to work there because it is a first class facility, 
but it is long overdue. So the facility side of this is a real 
challenge, and we should not be asking some of the people who 
are involved in some of the most important work in this country 
keeping us safe and deterring those that would do us harm from 
having to go to work in buildings that, quite frankly, are an 
embarrassment in some cases.
    Senator Cruz. Thank you, Mr. Secretary.
    Senator Inhofe. Thank you, Senator Cruz.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, Secretary Perry, for being here today.
    Secretary Mattis told this committee that, ``the central 
challenge to United States prosperity and security is the 
reemergence of long-term strategic competition with countries 
like Russia and China.'' More specifically, he said that China, 
quote, continues its economic and military ascendance asserting 
power through an all-of-nation long-term strategy. He called on 
the U.S. to pursue a similar whole-of-government response.
    Let me just ask. I will start with just a yes or no 
question here, Secretary Perry. Do you agree with Secretary 
Mattis on this?
    Secretary Perry. Yes, ma'am. I might expand on that.
    Senator Warren. But basic agreement. Good. Because I want 
to ask you how this plays out in your area of responsibility.
    According to the International Energy Agency, renewables 
accounted for almost two-thirds of new net power capacity 
around the world in 2016. Last year, according to Bloomberg, 
China accounted for 40 percent of all global clean energy 
investments. China has vowed to spend at least $360 billion on 
renewable energy by 2020. But here at home, President Trump's 
latest budget would cut the Energy Department's research office 
on renewable energy and efficiency by 65 percent.
    Very briefly, can you explain to me, Secretary Perry, how 
cuts to funding for research into energy efficiency and 
renewable energy improve America's future energy security?
    Secretary Perry. Senator, I will talk about two different 
arenas here. One is that we are different from China, and we 
are different from China in the sense that our private sector 
is where a substantial amount of R&D is done. We have a role in 
early stage development, which we have, I think, done a very 
good job of. Once those technologies become more mature and we 
can commercialize them, then the private sector will take over.
    Senator Warren. But why do we cut that by 65 percent, Mr. 
Secretary? That is what that is.
    Secretary Perry. But the point there is that these are 
technologies that are starting to mature.
    Senator Warren. I am sorry, Mr. Secretary, but that is the 
whole point is that we keep doing the early stage research so 
the next technology is supported and the next one and the next 
one. What I do not understand is how you can cut research into 
energy by 65 percent and how that is going to help us be a 
global competitor.
    You know, the Trump administration is rolling back rules 
designed to limit dependence on dirty fossil fuels, and our 
competitors at the same time, competitors like China, are 
making huge investments in solar power and other renewable 
energy sources. This is a $1 trillion market, and we are 
cutting ourselves out of it. Instead of leading the energy 
revolution, the Trump administration's policies are causing the 
United States to be left behind.
    Secretary Perry. Senator, as I look at our budget, the 
Office of Technology Transfer had a 23 percent increase in our 
budget. So I do not think we are arguing apples and oranges 
here.
    Senator Warren. Are you telling me the Trump administration 
budget did not propose a 65 percent cut?
    Secretary Perry. No. What I am telling you is that just 
because a line item does not have the same amount of money in 
it that it did in 2017 does not mean that the focus is not 
there.
    Senator Warren. Look, I got to say if you do not spend the 
money, you cannot support the research.
    I want to ask you about the nuclear deal between the United 
States, the five partner nations, and Iran and the restrictions 
this has placed on Iran's nuclear program under limits and 
inspections so it cannot develop nuclear weapons. I just want 
to start with a couple of baseline technical questions.
    As a result of the nuclear deal, has Iran eliminated 97 
percent of its low-enriched uranium stockpile?
    Secretary Perry. I think that is correct.
    Senator Warren. Yes. Has Iran removed the core of the Arak 
heavy water reactor and filled it with concrete so that it will 
not produce significant amounts of weapons-grade plutonium?
    Secretary Perry. That is correct.
    Senator Warren. Do international weapons inspectors have 
more access to and more monitoring of Iran's nuclear sites, 
their uranium mines, and their mills and centrifuge production 
facilities?
    Secretary Perry. I would say you are correct. There may be 
some other places that those inspectors would like to take a 
look at.
    Senator Warren. Right. I know that under the additional 
protocol, they are allowed to do that. But do you basically 
agree that that is what they have got now?
    Secretary Perry. With my caveat to that.
    Senator Warren. I know there are other technical aspects to 
the agreement, but one last question. I know I am out of time 
here. I am going to ask the indulgence of the chair. We will 
try to be short.
    In his most recent threat assessment, the Director of 
National Intelligence said the Iran nuclear agreement has, 
``extended the amount of time Iran would need to produce enough 
fissile material for a nuclear weapon from a few months to 
about 1 year'' and, ``has enhanced the transparency of Iran's 
nuclear activities.''
    Secretary Perry, do you agree with the intelligence 
community's assessment on that?
    Secretary Perry. I cannot tell that I do or I do not.
    Senator Warren. Okay. I am a little surprised by that. They 
are the intelligence community that has brought us this 
information.
    I will just say I understand that Iran supports terrorism, 
abuses human rights, develops nuclear missiles, in short, is a 
bad actor. But an Iran without nuclear weapons is at least a 
lot easier to deal with than an Iran with nuclear weapons. I 
think that is something we have to keep in mind as we talk 
about our agreement to keep Iran from having those nuclear 
weapons.
    Thank you.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Graham?
    Senator Graham. Thank you.
    Mr. Secretary, I think you are doing a great job for the 
President, and I really appreciate your service to our country.
    Secretary Perry. Thank you, Senator.
    Senator Graham. Just to pick up on the Iran deal, I was not 
going to talk about it, but I will now. Did the Iranians deny 
inspectors access to military sites in Iran?
    Secretary Perry. It is my understanding that they did.
    Senator Graham. Under the agreement, in 15 years from now, 
can the Iranians enrich and reprocess without limitation?
    Secretary Perry. Yes, sir.
    Senator Graham. Do you think that is a good deal?
    Secretary Perry. No, sir.
    Senator Graham. Thanks for coming to SRS [Savannah River 
Site]. It was a great visit. I know we have some differences on 
MOX, but you identified some things that we could work on at 
the site that are very exciting to us and the community.
    The President tweeted out a couple of days ago he wants to 
talk with Putin about stopping an arms race. Do you think that 
is a good idea?
    Secretary Perry. I think stopping an arms race would be a 
good idea.
    Senator Graham. I do too. Actually I think it is okay to 
talk to the Russians about where we are going with nuclear 
weapons.
    This nuclear-powered cruise missile that they displayed on 
a video in Russia--what did you take that to mean? What are 
they trying to tell us?
    Secretary Perry. They are back in the game and we better 
pay attention to them.
    Senator Graham. I could not say it any better.
    Your effort is to get us back in the game by rebuilding our 
triad system that has been depleted over time.
    Secretary Perry. Correct.
    Senator Graham. That is to modernize our nuclear force. I 
hope to God we never use it, but make sure it is a deterrent. 
That is correct.
    Secretary Perry. That is correct.
    Senator Graham. The money you think is well spent?
    Secretary Perry. I do.
    Senator Graham. I do too.
    Secretary Perry. I hope it is even more efficiently spent 
under the current administration.
    Senator Graham. I think we have to do two things at once: 
talk to the Russians about where we are headed but rebuild a 
nuclear deterrent force that is in decline. That is on your 
watch and I have a lot of confidence that you will get that 
done.
    As to the MOX issue, 34 metric tons of weapons-grade 
plutonium was agreed to be disposed of by both sides in early 
2000. You are aware of that agreement?
    Secretary Perry. Yes, sir.
    Senator Graham. The Russians had 34 metric tons of weapons-
grade plutonium in excess of their defense needs. We had the 
same amount. If you took 34 metric tons of weapons-grade 
plutonium, do you realize you can make over 10,000 warheads out 
of that material?
    Secretary Perry. Yes, sir.
    Senator Graham. So the goal is to take that off the table, 
turn it into a plowshare, no longer a sword.
    In 2010, are you aware of the fact that we signed an 
agreement with Russia where the MOX system would be our 
disposal method and they would burn their plutonium in a fast 
reactor?
    Secretary Perry. Yes, sir, I am.
    Senator Graham. The Obama administration decided to 
abandoned construction of the MOX program. Do you consider that 
a withdrawal of that agreement?
    Secretary Perry. No, sir. I consider the Russians are who 
walked away from the agreement.
    Senator Graham. What did they do to walk away?
    Secretary Perry. They unilaterally suspended the PMDA 
[Plutonium Management and Disposition Agreement]. Prior to that 
suspension, the Department had informed Russia both formally 
and informally that we would pursue the D&D [Dilute and 
Dispose] process.
    Senator Graham. Dilute and disposal.
    Secretary Perry. Dilute and disposal, yes, sir.
    Senator Graham. So your belief is the Russians walked away 
not us.
    Secretary Perry. Yes, sir.
    Senator Graham. Why did we go from MOX to dilute and 
dispose? Is that the new policy of the administration?
    Secretary Perry. Yes, sir. I will try to give you the short 
version of this. You and I have talked about it at length, but 
for the purposes of the committee, we think that the cost 
versus the cost of D&D, the timetable to being able to address 
the plutonium issue in the MOX versus----
    Senator Graham. You realize that I have a different view of 
all of this.
    Secretary Perry. Yes, sir, I do.
    Senator Graham. So let us look at the dilute and dispose 
option. It would go to New Mexico to the WIPP system--is that 
right--after it is diluted?
    Secretary Perry. Yes, sir.
    Senator Graham. Have you talked to the New Mexico 
delegation?
    Secretary Perry. I have talked to the delegation. I have 
talked to the Governor.
    Senator Graham. What did they say?
    Secretary Perry. They are in the process of having a 
conversation, a negotiation with their environmental 
commission.
    Senator Graham. Have they agreed to accept the material?
    Secretary Perry. We will know the answer to that in May.
    Senator Graham. Do you not think we should know the answer 
to that before we stop the other program?
    Secretary Perry. I am comfortable that we are already 
sending plutonium----
    Senator Graham. Let me ask you another question.
    Secretary Perry.--to the WIPP as we speak, 5 metric tons.
    Senator Graham. What regulations would be required to be 
changed to do dilute and dispose? Have you inventoried what 
regulations would be required to be changed?
    Secretary Perry. Can I get back to you on that?
    Senator Graham. Sure.
    [The information follows:]

    Secretary Perry. The Department of Energy (DOE) has reviewed 
existing regulations and determined that no regulations would be 
required to change for dilute and dispose. DOE is working with the 
State of New Mexico to address Waste Isolation Pilot Plant capacity 
issues, regardless of any decisions on the 34 metric tons of surplus 
plutonium. The current tracking method, which uses outer container 
volume, counts a significant amount of air between the inner and outer 
containers as waste. A proposed permit modification, which does not 
require changes to current law, identifying a more accurate tracking of 
actual waste volumes was submitted to the New Mexico Environment 
Department on January 31, 2018. The public comment period on this Class 
3 modification ended September 20, 2018. We'll continue to work with 
the State on the process moving forward.

    Senator Graham. What legislation would be required to be 
changed?
    Secretary Perry. Same response.
    Senator Graham. Okay.
    Have the Russians agreed to dilute and dispose?
    Secretary Perry. No. The Russians basically said that their 
waiver would require----
    Senator Graham. They object to it.
    Secretary Perry. Yes, in some pretty harsh ways basically 
saying that we got to--anyway.
    Senator Graham. Thank you.
    I think what we have done is ended the biggest 
nonproliferation program in the history of the world for no 
good reason, and I am going to try to fix that.
    Thank you.
    Senator Inhofe. Thank you, Senator Graham.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you.
    Secretary Perry. Thank you.
    Senator Nelson. You are looking very well.
    I want to pick up on this discussion about nuclear 
proliferation. Do you think that Iran--do you have any reason 
to believe that Iran by denying access to some of these 
military facilities is cheating on the JCPOA?
    Secretary Perry. Senator, if history is a teacher, then the 
Iranians do not have a real good track record of living up to 
agreements or telling the truth.
    Senator Nelson. What do you recommend that we do?
    Secretary Perry. I think anytime that you can renegotiate 
an agreement that puts you in a better position, you should do 
it, whether it is the North American Free Trade Agreement or 
whether it is the Joint Comprehensive Plan of Action. I think 
this President properly and for the right reasons is 
renegotiating some agreements that from his perspective is not 
in America's best interest.
    Senator Nelson. The agreement basically keeps Iran from 
having a nuclear weapon for a specified number of years. Is 
there anything that you know of that would indicate that that 
is not going to be fulfilled?
    Secretary Perry. I think the President's focus here is on 
being able to push that timeline even further down the road. I 
think everyone around your dais agrees that that is a good 
idea. The idea that we could push Iran back from the standpoint 
of when they can start processing is a good thing.
    Senator Nelson. Beyond the 15 years.
    Secretary Perry. Yes, sir.
    Senator Nelson. Let me ask you about our concern that Saudi 
Arabia might be wanting to get into the nuclear bomb business. 
So they are wanting to have a whole bunch of nuclear reactors 
for electricity production. We worked with the IAEA to produce 
these protocols called additional protocols to monitor for 
diversions from technology used for electricity to get it over. 
Do you think Saudi Arabia should adhere to those protocols?
    Secretary Perry. Yes, sir.
    Senator Nelson. So do I.
    Mr. Secretary, back to an earlier discussion that you had 
with Senator Blumenthal. It is troubling--and I am saying this 
from my standpoint. I have the privilege of, along with Senator 
Rounds, leading the Cyber Subcommittee of the full committee 
here. We are quite concerned with what Russia is able to do to 
us, in addition to a whole bunch of other countries and 
parties, in cyber attacks.
    If an electric company--and I am making this point--in the 
private sector, an electric company, a banking company, a water 
company, whatever in the private sector--if they were attacked 
with, say, a bomb, a sabotage, a missile from Russia, that 
would be a direct attack on our country. Would it not be the 
same thing if they use cyber to attack and shut down, say, an 
electrical grid?
    Secretary Perry. Senator Nelson, I think you are absolutely 
correct. I think the world has changed greatly over the course 
of the last decade when it comes to using a digital way to 
attack a country and that we have to have this conversation. We 
have to be not only on the cybersecurity side of this but also 
on the rules of engagement standpoint, that when there is 
massive amounts of damage done--for instance, if a hospital 
were to be shut down and their ability to deliver lifesaving 
procedures because of an attack on their information technology 
system, that is every bit as much a direct effect on people's 
lives as if someone would explode a bomb in an emergency room.
    Senator Nelson. Well, I think I can speak for Senator 
Rounds. So you know this is in a bipartisan spirit. We are 
concerned that the DOD, which is our only capability now as the 
commander--we are concerned--and he is also, the head of NSA 
[National Security Agency]. We are concerned if he has the 
authorities in order to, number one, prevent or, number two, 
counterattack in the case of such a thing. I want to bring this 
to you since you are definitely a part of the national security 
apparatus to please give counsel to this because it is upon us, 
and it is going to happen one way or another. We have already 
seen how an attack undermines our very democratic institutions.
    Secretary Perry. Yes, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Nelson.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Good morning, Secretary.
    Secretary Perry. Senator.
    Senator Scott. Good to see you again.
    Secretary Perry. Good to be in your presence, sir.
    Senator Scott. Thank you, sir.
    Thank you for visiting the MOX facility and the entire 
Savannah River site.
    Can we just revisit why the Russians withdrew from the PMDA 
because from my perspective nonproliferation equals the PMDA in 
many, many ways? It has been widely reported that the Russians 
withdrew from the PMDA because of our lack of progress on the 
MOX facility. Would you agree or disagree?
    Secretary Perry. Yes, sir. They are the ones that walked 
away.
    Senator Scott. But would you agree that part of the reason 
why they walked away, at least the focus that I have read--part 
of their rationale for walking away--is that we were not 
upholding our part of disposing of and eliminating the weapons-
grade component of the material?
    Secretary Perry. Senator Scott, without having any more 
information, I might agree with that simplistic approach. But 
here is what I think from my perspective, and I am not going to 
base this on anything other than some facts.
    The Russians suspended it because I think they were looking 
for a reason to suspend it. That is my read on this. I think 
when they put the requirements for the resumption out on the 
table, then that even solidified it more for me. When they talk 
about they require the reduction of military infrastructure and 
manpower in certain NATO [North Atlantic Treaty Organization] 
countries before they will come back to the table, when they 
say they want a repeal of the Magnitsky Act and the Ukraine 
Freedom Support Act, so I start seeing a real political 
pushback from the Russians. You and I--we have done a few 
negotiations before. I think they were looking for a reason to 
walk away from this so that they could make some political 
points.
    Senator Scott. Let me suggest that what you are talking 
about is a part of the aftermath. The fact of the matter, that 
which opened the door for them to walk away was us not honoring 
the obligation and our responsibility to develop the technology 
that eliminates the weapons-grade component. So the reality of 
it is that we opened the door. Actually we did not open the 
door. We took the door off the hinges and said please feel free 
to walk away with your part of the 34 metric tons of weapons-
grade plutonium that at least creates 10,000 warheads, perhaps 
15,000 warheads. So the reality of it is we opened a door and 
we still focus on the importance of nonproliferation. We opened 
the door with a bad actor from my perspective.
    A question for you. What if New Mexico says no? What if the 
capacity levels that seem to be in question already becomes an 
answered question that there is no capacity? What if the 
incidents that have occurred at the New Mexico site become more 
problematic or we find more reasons and rationale why it will 
not work?
    What if the Russians actually say that the D&D does not 
eliminate the weapons-grade component and we find ourselves 
back at the table and back in South Carolina at a site that 
according to some--I am sure that you guys would disagree--is 
between 60 and 65 percent complete? We have invested billions 
of dollars. What if the United States Congress is unwilling to 
change the laws and the administration cannot find ways to 
change regulations in order for us to move forward on some 
alternative other than the current alternative that is about 65 
percent finished and is the only means we have in the United 
States to eliminate the weapons-grade component?
    Secretary Perry. Senator, I do not get to work on ``what 
ifs.'' I have to work on concrete evidence. This committee has 
put forward a directive from my perspective that MOX is shut 
down, and MOX is shut down because it is horrendously over 
budget. The timetable for it that we are looking at now is 2048 
before the first plutonium could be processed versus dilute and 
dispose, which is substantially less so. In the NDAA, we were 
clearly given instructions that I think this committee may have 
passed twice and sent out that says here are the four 
parameters of which you need to meet. We will have the answers 
to those in the very near future. But what I am looking at is 
my own GAO-supported numbers and this committee's instruction 
that we look at this alternative. And so I know we have had 
disagreement about whose numbers are right.
    Senator Scott. Yes.
    Secretary Perry. But this committee has sent a really 
powerful message to me that this is what we want you to do.
    Senator Graham and you and I both talked about at length 
some legacy programs that can go into Savannah River, and there 
are. We want to work with you all, with the governor, with the 
people out there to find those opportunities.
    Senator Scott. We welcome that.
    I know I am over time, but Mr. Chairman, I will close with 
this to our Secretary, whom I have a great respect for and 
admiration.
    Secretary Perry. Thank you.
    Senator Scott. We disagree fundamentally on this issue. I 
will say, however, that looking for concrete evidence--let me 
lay out the concrete evidence from my perspective. What is 
concrete is that we simply do not know the cost of transferring 
to WIPP. That is concrete. Number two, what is concrete is we 
do not understand the timeline. Concrete is we do not 
understand the process for getting the regulatory environment 
or Congress to approve. Concrete, we do not have any 
confirmation that the New Mexico delegation will move forward.
    What we do have concrete is billions of dollars of concrete 
in the ground in South Carolina. What we do have concrete is 
that the only known way for us to dispose and eliminate the 
weapons-grade component is the MOX facility, and we have very, 
very strong disagreements on the price, the time of completion.
    I think the chairman is telling me to stop. Thank you, sir.
    Secretary Perry. Senator Scott, thank you. The only thing 
that I would say in response very quickly is the dilute and 
dispose technology has been proven, and the reason it has been 
proven is that we have put 5 metric tons of plutonium into the 
ground at WIPP.
    Senator Scott. Mr. Chairman, thank you so much for allowing 
us to go forward.
    Senator Inhofe. Thank you very much, Mr. Scott.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your highlighting the 
importance of a trusted supply of strategic radiation-hardened 
advanced microelectronics, including R&D capabilities, in your 
testimony. NNSA is our nation's source for these critical 
supplies for our nuclear weapons. But the challenges related to 
the production of trusted microelectronics and circuit boards 
exist with all of our weapon systems, not just nuclear. The 
declining U.S. industrial base and the proliferation of threats 
in our supply chain is creating new and dangerous ways for 
adversaries to attack our systems.
    How are you coordinating with DOD to ensure we are 
investing properly and not duplicating efforts or leaving gaps 
in critical areas?
    Secretary Perry. Senator, I know you have probably had the 
opportunity to meet the new Administrator at NNSA, a very 
capable, bright, and hard charger. I have every confidence in 
the world not only does her history of where she came from, 
national security, but also her--I mean, I would not have asked 
her to come and serve in that role if I was not very confident 
that she is going to be able to stand in there and deliver to 
you exactly what you want.
    Senator Donnelly. I just want to emphasize to you that this 
is not only an important issue to me but to national security.
    Secretary Perry. Absolutely.
    Senator Donnelly. Thank you.
    As ranking member of the Strategic Forces Subcommittee, I 
am a strong supporter of modernizing all three legs of the 
nuclear triad. I am pleased to see we agree on that. The work 
of the NNSA is integral to our nuclear modernization. We held a 
hearing just last week in our Strategic Forces Subcommittee 
with Administrator Gordon-Hagerty, with Admiral Caldwell, Mr. 
Owendoff, and Mr. Trimble from the GAO. I want to get your 
thoughts on some of the issues raised there.
    We have a new bomber, a new air-launched cruise missile, 
the life extension of current ICBMs, a new ICBM, a new SSBN 
[Submersible Ship Ballist Missile Nuclear Powered]. Now the 
Nuclear Posture Review adds to this potentially another warhead 
modification, a new sea-launched cruise missile, any necessary 
modifications to the vessels carrying that cruise missile, and 
any warhead modifications necessary to arm it.
    Do you have a budget proposal for that warhead, and how 
much will it cost for fiscal year 2019 and over the 5-year 
defense plan?
    Secretary Perry. This is not a new capability. This a 
weapon that we have had in the fleet before that we are 
bringing back up. Let me, with your permission, get back to you 
on the exact budgetary requirements for that.
    [The information follows:]

    Secretary Perry. There is no funding in the fiscal year 2019 
request or associated Future Years Nuclear Security Program for the 
Sea-Launched Cruise Missile initiative. As the Department of Defense 
continues the work of translating the policy of the Nuclear Posture 
Review, through the Nuclear Weapons Council, into requirements for the 
nuclear security enterprise, the Department of Energy's National 
Nuclear Security Administration will support as needed. The process 
building the fiscal year 2020 request will consider any new 
requirements, as they are identified.

    Senator Donnelly. Okay.
    The last thing I want to ask. I think it is important to 
ensure we are investing in our national labs. I think they are 
extraordinarily critical and investing in their workforce while 
also providing oversight of management and operation 
contractors. It will take a joint effort to build and sustain 
our nuclear security enterprise into the future.
    Can you tell me how you think about this challenge and the 
importance of the labs? I heard you mention early on today that 
you said they are a jewel. They really are.
    Secretary Perry. They really are, yes, sir. If it is the 
one thing that I have been the most impressed with with my time 
as the Secretary, it has been to be able to go visit with these 
labs, have the lab directors in fairly regular, and share with 
the rest of the country through a lot of different means, 
including social media, just how good these labs are. It is one 
of the reasons that this lab-directed research and development 
program is so important. It is one of the reasons that we think 
that the ability for our national labs to have some autonomy, 
if you will, when it comes to being able to let the labs direct 
some of this funding to where it needs to go. So I am sure 
there are some really big cheerleaders for the national labs, 
but I am going to put myself right up there with the best of 
us.
    Senator Donnelly. Thank you for your hard work.
    Secretary Perry. Thank you, sir.
    Senator Inhofe. Thank you, Senator Donnelly.
    I am going to go ahead and adjourn the meeting here because 
we are out of time.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Ben Sasse
                   cybersecurity and the energy grid
    1. Senator Sasse. The Department of Energy is the lead agency for 
combating cyber threats to the electric grid and our energy 
infrastructure. Since at least March 2016, Russian hackers have tried 
to infiltrate sectors of American infrastructure, including energy, 
nuclear, commercial facilities, water, aviation and manufacturing, 
according to a Department of Homeland Security report published this 
month. In 2015 and 2016, Russian cyber attacks brought down parts of 
Ukraine's electrical grid. Clearly Russia has both the capability and 
will to harm an opponent's energy grid. This makes them a cyber threat. 
What is the Department of Energy doing to protect itself and the energy 
grid from cyber attacks?
    Secretary Perry. Cybersecurity of the energy sector is a top 
priority for the Department of Energy (DOE), which established the 
Office of Cybersecurity, Energy Security, and Emergency Response 
(CESER) in May 2018 to focus on early-stage activities that improve 
cybersecurity and resilience to harden and evolve critical grid 
infrastructure. CESER programs will work in an integrated manner in 
partnership with industry and other stakeholders, as well as other DOE 
offices, to enhance the resilience (the ability to withstand and 
quickly recover from disruptions and maintain critical function) and 
security (the ability to protect system assets and critical functions 
from unauthorized and undesirable actors) of the U.S. energy 
infrastructure.
    DOE, the Sector-Specific Agency (SSA) for the energy sector, is 
working closely with the critical infrastructure security lead, the 
Department of Homeland Security, as well as stakeholders across 
industry, law enforcement, the intelligence community, and state 
governments, to ensure resilience is factored into ongoing grid 
modernization efforts. DOE works with its energy sector partners, 
through forums such as the Electricity Subsector Coordinating Council 
(ESCC) and Oil and Natural Gas Subsector Coordinating Council (ONG 
SCC), to prioritize efforts to strengthen cybersecurity preparedness in 
the energy sector, improve capabilities to coordinate cyber incident 
response and recovery and accelerate innovative research and 
development of resilient energy delivery systems.
    DOE advances industry-wide cybersecurity risk management and 
practice by disseminating information through classified threat 
briefings and security workshops and providing access to tools and 
technical resources that are used to improve decision making and inform 
investments by our sector partners. One of these resources, DOE's 
Cybersecurity Capability Maturity Model (C2M2), helps organizations 
evaluate their current cybersecurity capabilities and prioritize and 
improve future activities to improve them, and has been used by over 
1,200 energy sector organizations.
    DOE has also worked with Idaho National Laboratory and the 
Electricity Information Sharing and Analysis Center (E-ISAC) to host 
the Energy Sector Security Workshop series, which provides energy-
sector owners and operators with a hands-on, simulated demonstration of 
a cyberattack. The lessons learned from these workshops help to better 
inform future security and resiliency investments by furthering 
attendees' understanding of the range of methods and tools, as well as 
common targets, associated with a cyberattack. These engagements are 
further complemented by DOE's partnerships with the E-ISAC, Oil and 
Natural Gas Information Sharing and Analysis Center (ONG-ISAC), and 
Downstream Natural Gas Information Sharing and Analysis Center (DNG-
ISAC). DOE works with the energy sector ISACs to regularly share threat 
information and trends with a broad range of industry stakeholders to 
help them better protect their current networks and inform future 
security decisions.
    In addition to cybersecurity preparedness and information sharing 
initiatives, maintaining a robust pipeline of cutting-edge technologies 
is essential to helping the energy sector continue adapting to the 
changing cyber landscape. As the technology landscape in the energy 
sector continues to advance, including the growing use of digital 
communications and control systems to improve reliability, so do the 
capabilities of the threat. DOE has been working with the energy sector 
for more than a decade to get ahead of this continual evolution through 
investments in advanced R&D to develop resilient systems that can 
survive a cyber event without loss of critical functions. More than 40 
tools and technologies resulting from the Office of Electricity 
Delivery and Energy Reliability's cybersecurity research, development 
and demonstration (RD&D) projects have transitioned to the energy 
sector and are in use today. Nearly 1,000 utilities in all 50 states 
have purchased technologies developed under our Cybersecurity for 
Energy Delivery Systems research program.
    DOE's current RD&D portfolio of more than 60 projects builds on new 
concepts from past R&D to develop groundbreaking cybersecurity 
solutions. Several of these projects are led by DOE national 
laboratories, including the Argonne, Brookhaven, Idaho, Lawrence 
Berkeley, Lawrence Livermore, Los Alamos, National Renewable Energy, 
Oak Ridge, Pacific Northwest, and Sandia National Laboratories. 
Researchers are developing tools and technologies that can be 
transitioned to the energy sector to prevent, detect, and mitigate 
cyber-attacks intended to disrupt the computers and networks that 
manage, monitor, protect, and control energy delivery, the power grid, 
and oil and natural gas.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                nuclear power assistance to saudi arabia
    2. Senator Shaheen. Secretary Perry, the government of Saudi Arabia 
has indicated it plans to build nuclear power plants in Saudi Arabia. 
As the Trump administration considers whether the United States 
Government should provide assistance to Saudi Arabia in its pursuit of 
nuclear energy, how would the Department of Energy (DOE) balance 
fulfilling the nuclear nonproliferation mission of the National Nuclear 
Safety Administration (NNSA) on one hand, against preventing Russia and 
China from offering Saudi Arabia a ``no strings attached'' type of 
alternative?
    Secretary Perry. The United States has discussed for several years 
potential terms for a peaceful nuclear cooperation agreement (123 
Agreement) with Saudi Arabia, which last year announced its intention 
to build at least two large nuclear power plants. DOE provides 
technical support to the State Department, which is charged with 
negotiating nuclear cooperation commitments from partner countries that 
meet statutory requirements relating to nuclear nonproliferation, 
safety and security, while at the same time creating a relationship and 
foundation to facilitate effective overseas competition by the U.S. 
nuclear industry.
               joint comprehensive plan of action (jcpoa)
    3. Senator Shaheen. Secretary Perry, the NNSA's 2016 ``Year in 
Review'' noted the technical expertise within the NNSA along with other 
DOE national laboratories played a pivotal role in support of the 
negotiations for the Joint Comprehensive Plan of Action (JCPOA) to 
ensure the scientific underpinnings of the deal were solid. Further, it 
noted the NNSA continued to play a leading role in JCPOA implementation 
by verifying the complex technical parameters of the agreement were 
met. This week, Saudi Crown Prince Mohammed Bin Salman stated that if 
Iran builds nuclear weapons, then Saudi Arabia will, as well. What 
would be the likely impact of nuclear proliferation in the Middle East 
Region--and around the world--if the United States effectively 
withdraws from the JCPOA?
    Secretary Perry. DOE/NNSA will continue to leverage our unique 
technical capabilities in support of the Administration's goal to 
prevent Iran from developing a nuclear weapon. In particular, as part 
of our support for the International Atomic Energy Agency's (IAEA) 
broader safeguards mission, DOE/NNSA will continue to provide technical 
support, training, and expertise to the IAEA to strengthen the IAEA's 
ability to monitor and verify nuclear activities worldwide. Further, 
DOE/NNSA will work with international partners and the IAEA to prevent 
the spread of materials, equipment, technology, and expertise that 
could be used in weapons of mass destruction.

    4. Senator Shaheen. Secretary Perry, if President Trump refuses to 
issue any additional waivers to continue the suspension of sanctions on 
Iran--and thereby effectively withdraws the United States from the 
JCPOA--how would the role of the NNSA regarding the Iranian nuclear 
program change, especially for its Office of Defense Nuclear 
Nonproliferation (DNN)?
    Secretary Perry. NNSA/DNN will continue to provide technical 
support, training, and expertise to the International Atomic Energy 
Agency (IAEA) to strengthen the IAEA's ability to monitor and verify 
nuclear activities worldwide.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                              north korea
    5. Senator Blumenthal. Secretary Perry, as noted in your testimony, 
the Office of Defense Nuclear Nonproliferation will continue efforts 
to, ``support the State Department to make sure arms control agreements 
enhance security, and are verifiable and enforceable.'' Has the 
President requested assistance from the Department of Energy to prepare 
for negotiations with North Korea?
    Secretary Perry. The Department of Energy's (DOE) National Nuclear 
Security Administration (NNSA) is an active participant in the 
interagency process run by the National Security Council, providing 
guidance on nuclear weapons, nuclear materials, and the nuclear fuel 
cycle.

    6. Senator Blumenthal. Secretary Perry, what role do you see the 
Department of Energy having in preparing the President to meet with Kim 
Jong-un?
    Secretary Perry. DOE/NNSA was an active participant in the 
interagency process supporting preparations in advance of the June 12, 
2018 North Korea Summit in Singapore. DOE/NNSA is uniquely capable of 
and responsible for the development, production, verification, and 
disposition of nuclear weapons and nuclear materials, including all 
activities to verifiably dismantle a nuclear fuel cycle.

    7. Senator Blumenthal. Secretary Perry, is the National Nuclear 
Security Administration providing research and advice on nuclear 
materials and weapons to better inform the President prior to these 
negotiations?
    Secretary Perry. DOE/NNSA is an active participant in the 
interagency process run by the National Security Council, providing 
guidance on nuclear weapons, nuclear materials, and the nuclear fuel 
cycle.
                               __________
              Questions Submitted by Senator Joe Donnelly
                         nuclear modernization
    8. Senator Donnelly. Secretary Perry, do you have a budget proposal 
for the sea-launched cruise missile warhead and an estimate of how much 
will it cost for fiscal year 2019 and over the five year defense plan?
    Secretary Perry. There is no funding in the fiscal year 2019 
request or associated Future Years Nuclear Security Program for the 
Sea-Launched Cruise Missile initiative. As the Department of Defense 
continues the work of translating the policy of the Nuclear Posture 
Review, through the Nuclear Weapons Council, into requirements for the 
nuclear security enterprise, DOE's National Nuclear Security 
Administration (NNSA) will support as needed. The process building the 
fiscal year 2020 request will reflect any new requirements, as they are 
identified.

    9. Senator Donnelly. Secretary Perry, when will the NNSA Stockpile 
Stewardship and Management Plan be updated to include any additional 
requirements derived from the Nuclear Posture Review, including 
facilitization and production?
    Secretary Perry. The Fiscal Year 2019 Stockpile Stewardship and 
Management Plan will reflect the policy outcomes of the Nuclear Posture 
Review. Policy outcomes and initiatives will be translated into 
requirements by the Nuclear Weapons Council.
                        trusted microelectronics
    10. Senator Donnelly. Secretary Perry, your testimony highlights 
the importance of a trusted supply of strategic radiation-hardened 
advanced microelectronics, including R&D capabilities. NNSA is our 
nation's source for these critical supplies for our nuclear weapons. 
But the challenges related to the production of trusted 
microelectronics and circuit boards exist with all of our weapon 
systems, not just nuclear. The declining US industrial base and the 
proliferation of threats in our supply chain is creating new and 
dangerous ways for adversaries to attack our systems. How are you 
coordinating with the DOD to ensure we are investing properly--and not 
duplicating efforts or leaving gaps in critical areas?
    Secretary Perry. The foundry at Sandia National Laboratories 
produces radiation-hardened microelectronics for U.S. nuclear warheads. 
DOE/NNSA is working to extend this capability beyond 2025. NNSA's 
foundry follows security and supply chain requirements established by 
DOE for assuring the integrity of the people and processes used in 
producing critical integrated circuits and microsystems. This foundry 
is also accredited as a trusted supplier by the Defense 
Microelectronics Activity, which manages DOD's Trusted Foundry Program. 
In addition, DOE/NNSA continues to collaborate with DOD as they develop 
a comprehensive national strategy for government access to 
microelectronics.
                           nnsa nuclear labs
    11. Senator Donnelly. Secretary Perry, I believe that the 
government needs to be an effective steward of the taxpayer dollar. In 
this regard, I'd like to ask about a December 2017 DOE Inspector 
General Audit report that analyzed the management and operation (M&O) 
at the Y-12 National Security Complex and the Pantex Plant. This report 
was critical of a focus on cost savings as well as of the lack of cost 
savings achieved by the current contract structure. What are your views 
on how to balance between mission delivery and cost savings in the NNSA 
enterprise, particularly in the production plants?
    Secretary Perry. NNSA's priority at the Y-12 National Security 
Complex and the Pantex Plant is mission delivery in a safe and secure 
manner. Cost savings are only approved once NNSA determines there is no 
adverse effect on our safe and secure mission accomplishments. The DOE 
Office of Inspector General Audit analyzed cost savings achieved under 
the NNSA Production Office Management and Operating contract with CNS 
as a result of the contract merger in 2014. Since assuming the contract 
to manage and operate the Y-12 and Pantex production sites, CNS 
generated savings to NNSA under this first-of-a-kind contract through 
the merger, consolidation, and transformation of the sites. The intent 
of the merged contract is to free up savings for site reinvestment and 
site improvement, and that is being realized. A distinctive feature of 
this unique contract is that a portion of the savings generated through 
improved efficiency are being reinvested by NNSA to support the short- 
and long-term mission needs of both Y-12 and Pantex. Through 
reinvestment of cost savings, NNSA is appropriately balancing mission 
delivery with cost savings resulting from the merger.


                               APPENDIX A

   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		   


                               APPENDIX B

      

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]		
    
      
    Energy Secretary Rick Perry is focused on an ``all-of-the-
above'' energy strategy as he moves into his second year as 
head of the Energy Department. He tells the Washington Examiner 
in an exclusive interview that the Trump administration is not 
only focused on fossil fuels, but also wants to support a 
global market for U.S.-made solar and renewable energy 
technologies.
    Perry is also working with the White House on rolling out 
an energy strategy for Appalachia this year, which will look to 
build out the petrochemical capacity of coal country, which is 
now at the center of the shale natural gas boom.
    He is also pushing ahead on the national security front by 
ramping up a new cybersecurity office at the Energy Department 
to be the lead agency in helping the energy industry respond to 
cyber attacks. He is also heading up a robust agenda to 
modernize the nation's nuclear weapons arsenal, which is a 
central part of the president's fiscal 2019 budget and Nuclear 
Posture Review. The Energy Department houses the National 
Nuclear Security Administration, which oversees the nation's 
nuclear weapons enterprise. Nearly half of the Energy 
Department's budget in fiscal 2019 goes to NNSA.
    Washington Examiner: I just wanted to first touch on coal, 
and understand where you are. You were trying to get a proposal 
through the Federal Energy Regulatory Commission, and I was 
just wondering if there is a new iteration of that in the 
works, and if you're looking to do something after that? I know 
they're doing something as well, but just wanted to see what 
you were doing for the power plant side, what you're doing for 
coal?
    Rick Perry: Let me back up . . . We're an all-of-the-above 
department. We're not here just to promote the fossil fuels. 
We're here to promote a wind, and solar, and hydro, and maybe 
some forms of energy that we haven't even dreamed up yet. But 
for the foreseeable future, fossil fuels are going to play a 
really important role, not just in America, but in the world. 
By, I think, 2040, over 70 percent of the electricity that's 
created in the United States is going to come from fossil 
fuels. So, our goal is to produce it, develop it, make it 
available cleaner. That's the key for us. So, we're promoting 
American technology around the world; we're promoting American 
fossil fuels around the world.
    As the governor of Texas, I oversaw a rather interesting 
period of time as we transitioned out of older, inefficient 
power plants to a massive amount of natural gas plants. We put 
programs to move old, dirty-burning diesel engines out of the 
fleets of big fleet operators to cleaner burning engines. We 
had the largest wind energy development in the nation. Texas 
developed more wind energy now than five countries. So, I've 
got a history of being an all-of-the-above guy promoting it. It 
makes a lot of sense from an economic standpoint for us to be 
selling our coal, exporting it. Obviously, LNG [liquid natural 
gas]. Crude, now. So, America is in the energy business. My 
role in that is not only to be a really good salesperson as we 
travel around the country, we interact with world leaders, my 
counterparts, but also to promote this technology that we have, 
CCUS, for instance.
    Washington Examiner: The clean coal technology.
    Perry: Clean coal technology. Yes, sir. The carbon capture, 
utilization, sequestration. It's really an exciting time to be 
the secretary of energy, partly because of American ingenuity, 
American technology, and we're just coming out of a period of 
time from, let's say, the mid-70s when America was all about 
regulation. You know, we're going to regulate our way forward, 
no matter how draconian it may be or how dark the future may 
look. We don't believe in that. We believe that it's innovation 
rather than regulation. Because if you will give Americans 
stability, predictability in the regulatory world, they will 
risk their capital. They will go spend dollars. A lot of those 
dollars will go into research and development, our national 
labs and things that we do there. I just think it's a 
fascinating time to be the secretary of energy, and an all-of-
the-above strategy is the wise way to go.
    Washington Examiner: We're now becoming a net exporter of 
natural gas. What's your outlook there?
    Perry: We are the No. 1 oil- and gas-producing country in 
the world. We will soon be the net gas exporter. So, it's a 
fine line producing versus exporting. But the point is, 15 
years ago, if someone had said you and I were going to be 
having this conversation, ``Boy, you boys are not in touch with 
reality.''
    Washington Examiner: You're talking about innovation over 
regulation, or laying the foundation for the private sector to 
come in, the private sector has come in, they're investing 
more. They're asking you to approve facilities for export. 
Where do you see that role for the government in helping move 
faster toward an energy export economy?
    Perry: So, I've got a history. I was the governor of the 
12th largest economy in the world, and during that period of 
time, one of the things that I heard often was the regulatory 
climate is what affects us more so than anything, have a 
predictable, stable regulatory climate. The way we did that in 
my home state was we said, ``OK, here are the rules. You've got 
the rules written down. When somebody comes to get a permit, 
here are the rules; you make these rules. Those get made by 
legislators or by agencies. I mean there's a process that you 
go through to get those. But once those are out there, 
government's role should be simply: ``Here are the rules. You 
meet these rules, here's your permit.'' That's not what we saw 
in the last eight years at the federal government, in 
particular. We saw a government with their thumb on the scale. 
They had a definite bias against coal. They had a bias against 
nuclear, and if you were in the renewable business, hallelujah.
    We don't think that's fair. We like for people to have a 
lot of options out there from a national security standpoint 
and from the security of our citizens standpoint, so we believe 
that if you will have a stable, fair, and if you don't like the 
rules, work through the process to change them, but don't stop 
a permit going forward because you've got a political bias 
against a particular type of fuel. The Trump Administration all 
across the board, whether it's EPA, Department of Interior, 
whether it's Commerce, whether it's over here at DOE, the 
message is clear. You have a regulatory climate that is fair, 
predictable, and if a rule is blocking something going forward, 
if it's in the way, if it costs more than it benefits--out the 
door.
    Washington Examiner: Now, I know for LNG, you have 
principal authority to approve permits in line with FERC.
    Perry: FERC has a role. They're an independent agency. I 
don't mind giving them advice. They don't mind giving me 
advice.
    Washington Examiner: Is there any specific way you're 
looking to speed up permits? Is there a certain number you want 
to see approved in the next year?
    Perry: The market will decide what's the right number. My 
job is to basically say, here are the rules. You meet the 
rules, here's your permit. My job is not to say, ``Well guys, 
we're looking at this, and we think the market is a little 
oversaturated.'' That's not our job. That is for the private 
sector to decide how they're going to risk their capital, and 
when they think that the market is ripe for them to be building 
an LNG facility, they'll show up here and make the application. 
At that particular point in time, our job is to look and make 
sure that they follow all the rules and then deliver a permit.
    Washington Examiner: There are new market opportunities in 
Appalachia. There's a lot of natural gas in Pennsylvania, in 
Ohio, a lot of liquids in Ohio.
    Perry: Kentucky, Ohio, Pennsylvania, West Virginia.
    Washington Examiner: They're talking about opening 
refineries for things like ethane, which is a precursor to a 
whole bunch of other things. The administration seems to be 
supportive of that. How do you see that coming to bear in the 
next year or so?
    Perry: The administration is highly supportive of that. The 
president really likes the concept of duplicating the 
petrochemical footprint that's in the Gulf Coast region in 
Appalachia. Here's why it's wise. As the governor of Texas in 
August and September, I always was very wary about hurricane 
season, a major hurricane, a category five, storm up the 
Houston ship channel. Devastating not just to the city of 
Houston and the millions of people that live there, but that 
petrochemical footprint. It could literally knock out the 
economic and national security basis of this country. So, 
wouldn't it make sense to have a duplicate of that, if you 
will, in another region of the country? I think Appalachia 
makes a lot of sense, partly because of the economics that come 
along with that, the transition in a region of the country that 
could really use the help economically, sitting on top of a 
massive amount of natural gas in the Marcellus and then below 
that the Utica, and the close proximity to the East Coast, to 
those ports there that they could be sending that value-added 
product out of.
    So, I think it's a brilliant concept that the president 
really likes. I think that the members of Congress, as they are 
educated on it and take a look at it, there'll be support in 
Congress for that. At the end of the day, the private sector 
will build it out. The private sector will be the ones who 
decide. Our job will be, don't get in the way. We have our role 
to protect the environment, protect the people with our rules, 
``You meet the rules, here's your permit.''
    Washington Examiner: That proposal is attracting a lot of 
investment to the tri-state area--West Virginia, Ohio, 
Pennsylvania--looking for places to set up, seeing the huge 
resource there. How's that affecting DOE as far as the 
workload? Are you looking to set up an Appalachian division?
    Perry: I think we're yet to announce anything from the 
standpoint of here's how DOE is going to be structured around 
this project, but we'll be very involved at the appropriate 
time. I think it's a little early to be laying it out with 
great specificity. But the other side of that is that we're not 
too far away from being able to do it.
    Washington Examiner: You mentioned the hurricanes and the 
threat they pose and that being a reason for expanding refinery 
capacity. The other threat is cyber, and you have structurally 
proposed some changes at DOE to embrace that. Also, today's 
news about Russian sanctions and some of what was revealed at 
the White House that the Russians were trying to undermine the 
electric grid. What is DOE's role in combating that?
    Perry: So, from a bit of a high-level look down, the 
Department of Energy is the sector-specific agency dealing with 
the protection, the resiliency of the electric grid that 
includes any natural disasters that would occur. It also covers 
any cyber attacks that would occur. So, the decision was made 
to clearly define that, to stand up an office that sent that 
message clearly, not to just the public, but also to our 
friends on the Hill, that this is where sector-specific, 
relative to the electrical grid, the real work is going to be 
to protect it. So, CESER [Cybersecurity, Energy Security, and 
Emergency Response], it's cyber, and the back end of that is 
emergency recovery. So, this has a number of areas, cyber is in 
there, the security of the grid, you have emergency response 
and recovery, all in one shop. One of the things the president 
wants to do is to, he talked about on the permitting process in 
his infrastructure plan, a one-stop shop, if you will. We're a 
long way away from that because of the massive amount of 
government agencies that if you're building some type of 
infrastructure, you got to go to all these different agencies. 
Sometimes, it's pitting agency against agency. The president 
wants to cut through all of that as much as he can.
    On cyber for the electrical side, that's one of the things 
that we're doing, clearly defining that this is where you come 
if you're in the electrical generation business and you've got 
big panels, the Department of Energy is going to be here to 
help you deal with any cyber attacks. If you're in the 
transmission business, this is the place you would come to 
partner. We've got national labs that work on this, we've got a 
real focus on cybersecurity, dealing with the resiliency and 
the protection of the electrical grid.
    Washington Examiner: There had been some concerns in the 
past by the electricity sector that they would have to go to 
DHS, Department of Homeland Security, but they'd rather go to 
FERC or DOE. So, is that what you're addressing?
    Perry: DHS certainly has a very important, I would suggest 
even a lead, role in global cybersecurity, the issues that are 
dealing with the Department of Homeland Security [are] efforts 
that you would see in the attack of a hospital computer system. 
DHS would be the lead on that. With that said, we work very 
closely together. There's no space between DHS and DOE. We've 
probably from time to time borrowed some of their things; from 
time to time, they use our national labs to see if they can 
break a particular piece of equipment, or get into all the 
things they do.
    Washington Examiner: Is the president asking the Department 
of Energy to do anything in light of the Russian revelations? 
Are you collecting information? What is your role as they 
impose sanctions? Are you being asked to do anything by the 
White House in light of these attacks?
    Perry: We know what our duties are. Some of them we can 
share with you, and some of them we can't. We've pretty much 
shared with you our public side of what we do. You know, 
there's a reason that the Department of Energy and the 
secretary is on the National Security Council. There's a lot of 
work out there that we classify, and we're right up to the edge 
of that now.
    Washington Examiner: That brings me to National Nuclear 
Security Administration, and the arsenal. The budget proposal 
for NNSA is pretty robust. There are some reforms that the 
national academies and others have proposed. Where do you see 
the reorganization of the nuclear weapons arm of DOE in the 
next few years?
    Perry: Again, I want to take you back to a little higher 
level and observe. For 25, 30 years, the members of Congress 
did not see the importance of modernizing our weapons program. 
They patched it up from time to time, but there was no effort 
to modernizing. I moved into a house in Austin one time that 
hadn't had any upgrades done to it for about 40 years. I mean 
it literally still had fuses that you screwed into the 
electrical system, OK? This was in the early 90s, but still 
that's maybe a poor analogy, but these systems are old. They 
deteriorate. Both the DOD and the DOE recognized that we have a 
responsibility, and we were getting to a point where these 
weapons systems were at the end of their ability to just sit on 
the shelf and replacing a few parts here and there wasn't 
enough. So, I think the administration wisely and Congress, 
saluting properly, they added dollars that have gone to 
modernize that fleet, and it's going to be a lot of work. NNSA 
is going to be tested if they are up to it.
    But the better news in all of that is that the message that 
it sends around the world is that United States technology, 
United States readiness is going to be as good as it's ever 
been. That is an appropriate response and an important duty at 
the DOE.
    Washington Examiner: What was the meeting you had with the 
president on Monday at the White House? What was that about?
    Perry: Man, in an hour we covered the watershed. We talked 
about a lot of different things. As a rule that I don't break, 
I don't talk about my conversations with the president. One 
thing I will tell you is that we talked about some veterans' 
issues because we have a program over here called ACTIV, A-C-T-
I-V, which we use our massive computing capability to deal with 
traumatic brain injury, post-traumatic stress, and mental sides 
of the veteran world. But it's more than just the veteran; it 
reaches into the world of first responders into professional 
athletes anywhere in the country. It could be a young lady who 
played soccer who's had a concussion. The data that we're going 
to be making available is literally going to change the world 
if you've had a traumatic brain injury or been affected by 
post-traumatic stress.
    Washington Examiner: Why did the president want to hear 
about that? Is he planning something?
    Perry: I don't know whether he wanted to hear it or not. I 
wanted him to hear it. That was my job, is to share that with 
him so that he understood the importance of what we were doing 
over here. And you know, the president's curious. He asked a 
lot of questions. He wants to know what's going on, ``What have 
you been doing? How's this sector, that sector doing?'' I mean, 
he covers the watershed. So, we talked about a lot of different 
things. What he didn't talk about was me changing jobs. I know 
there's a lot of interest in that over the last 48 to 72 hours. 
The president knows I like where I am. He knows that we have a 
done a really good job of getting this agency focused, 
particularly in those areas that he's interested in, selling 
American, running an agency effectively. It was a good 
conversation, and I'm glad I got to sit down with him and share 
with him. So, he knows what's going on at DOE. He knows what 
our priorities are, he knows about what we're doing with cyber, 
he knows what we're doing on the promotion of American energy 
resources globally. He knows what we're doing on a regulatory 
front.
    This veteran's program, some might look at and say that's a 
little outside of your lane. Actually, it's not because of the 
national labs and what the national labs had been doing on 
brain science for a long time and this massive amount of 
computing capability now. So, we're right up to the point of 
both machine learning, verging on artificial intelligence, if 
you will, with computers of that capacity. Five of the 10 
fastest computers in the world belong to the Department of 
Energy.
    I've just got a passion about these veterans, particularly 
veterans who have had both TBI and post-traumatic stress 
events, and we know that both in professional sports and and 
public school sports. The public that we will be servicing with 
this program is relatively small. Obviously, we are doing some 
programs with the VA as well. There's one called the Million 
Veterans Program, which draws the blood, runs the DNA, and then 
be able to go back to the vet and say, here are the things you 
have a propensity [for], here's what you need to be looking out 
for as you go on with your life.
    Washington Examiner: Have you been at the Department of 
Energy a year yet?
    Perry: March 2 was my one-year anniversary. That's also 
Texas independence day. So, it's easy for us to remember 
anyway.
    Washington Examiner: How do you see the next year shaping 
up?
    Perry: I look back over the last year and say what was the 
most successful thing? It was putting a really good 
professional team together, and we still have a few openings 
out there. But we brought in a highly capable professional team 
of men and women who are serving well.
    So, the next year, what I full well expect is we'll get the 
2018 budget done, knock on wood, and we'll have some surety and 
our funding going forward. We'll have the 2019 process in 
place. The Senate and the House will both look at what we've 
done and say, ``good job,'' continue with the tweaks that they 
want. Certainly given us direction on what we need to be 
working on together. But cyber and the standing up with the 
CESER office, continuing to promote American energy, that is 
probably as target-rich an environment as there is. We've got 
trips into India, into Europe, into some other regions ... 
South America, of which the potential for American innovation, 
American technology, American products, whether it's fossil 
fuels or whether it's our solar and wind energy technology. I 
think the potential here in the next year is quite good.
    Domestically. This Appalachian plan, we hope to be able to 
not only flesh it out, but to announce it. This is one of those 
on the infrastructure side. I mean, the president's vision 
about infrastructure is really big, as it should be. I've had 
the privilege of visiting almost every state in the nation, not 
in the last year, but over my public service years, and what I 
saw was a crumbling infrastructure. Roads that need work, 
bridges that need work, and then, when you think about rail, 
wires, and pipelines, those are owned by the private sector. 
So, there's a lot of infrastructure out there that we need to 
see built back up and, in some cases, expanded.
    For instance, pipelines in the Northeast, that's a real 
restriction for citizens living in, say, New York. They don't 
have access to all of this abundance of energy and they're 
having to pay substantially higher rates, or in the case of 
these really cold snaps that came along, they were burning fuel 
oil up there. I mean, it sure would have been a lot better for 
the air if they were burning natural gas.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Mark Warner eyes liability for software developers as key way 
to shore up cybersecurity.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Trucking industry pushes teen drivers to fill shortage.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
New England faces `horror story' of expensive power.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Environmentalists split on letting carbon-free nuclear power 
die.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
The Navy wants just one littoral combat ship this year, but it 
may get three.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Mark Zuckerberg heads into Capitol Hill firestorm.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Arthur Brooks: `I'm going to stay at it'.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Mick Mulvaney plans to defang CFPB, Democrats ready to pounce.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Can mark Zuckerberg convince lawmakers to be Facebook's 
friends?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Would the Senate banking bill boost economic growth?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Washington becomes first state to ban nonstick chemicals in 
food packaging.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Long-simmering battle over e-cigarettes erupts as FDA clamps 
down on nicotine.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Perry travels to India for high-level energy talks.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 10, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                  UNITED STATES TRANSPORTATION COMMAND

    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee Members present: Senators Inhofe, Wicker, 
Fischer, Rounds, Ernst, Tillis, Sullivan, Cruz, Scott, Reed, 
Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Hirono, King, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. The meeting will come to order.
    The committee today meets to receive testimony from General 
Darren McDew on the current state of the U.S. Transportation 
Command [TRANSCOM].
    In the contested environment described within the new 
National Defense Strategy [NDS], TRANSCOM's capacity to 
mobilize and deploy forces across the globe becomes ever more 
crucial to our ability to project power.
    The National Defense Strategy provides clear focus on the 
great power competition with China and Russia. We have been 
talking a lot about that recently.
    Further, the National Defense Strategy emphasizes the 
importance of resilient and agile logistics.
    The assumptions that U.S. forces will have uncontested 
access to airspace and sea lanes is becoming less and less 
likely.
    General McDew, you appear before this committee at a time 
when these responsibilities are of vital importance to the 
nation's security. Our adversaries are not standing still. They 
are moving fast, and we are very distressed at some of the 
things that we see on a firsthand basis. TRANSCOM's job is to 
ensure that our operational plans contain valid assumptions for 
how our soldiers, sailors, marines, and airmen will get to the 
fight and how they will be sustained in a contested forward 
environment.
    Efforts are currently underway to conduct an overarching 
mobility study that would articulate how TRANSCOM would operate 
in a contested environment as well as execute its joint 
distribution and deployment responsibilities. Our current 
approach relies on moving materiel to large air and sea ports 
which serve as efficient hubs but are also well known to our 
adversaries and would be very hard to defend against a 
precision weapon attack.
    The Department must begin to focus on improving resilience. 
Anything less would significantly increase the risk of our 
missions.
    So we thank you for appearing today and look forward to 
your frank discussion on TRANSCOM's potential problems and 
successes.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming General McDew to the committee this 
morning and to testify on the plans and programs of the United 
States Transportation Command, or TRANSCOM, as we continue to 
review our fiscal year 2019 authorization. We are grateful to 
you for your service and the service of the men and women of 
TRANSCOM. Please thank them for us and their families who also 
serve with great distinction.
    The men and women of TRANSCOM perform duties that sustain 
the whole Department of Defense [DOD] effort in protecting our 
nation's security. With the competitive edge and its ability to 
deploy and sustain America's armed forces, TRANSCOM provides 
DOD with unique capabilities that we have come to expect and 
perhaps too frequently take for granted. TRANSCOM forces are 
busy supporting all of the combatant commanders every day, and 
without these TRANSCOM forces, the United States would be at a 
significant disadvantage almost everywhere in the world.
    TRANSCOM faces a number of daunting tasks, including a 
unique set of cyber threats because you must work extensively 
with private sector entities in the transportation and shipping 
industries to support DOD deployment operations.
    Three years ago, the committee issued a report on certain 
aspects of TRANSCOM's cybersecurity situation. General McDew, I 
would like to get an update from you on the progress in the 
cybersecurity efforts that you have made since last year.
    The Ready Reserve Force, the RRF, a group of cargo ships 
held in readiness by the Maritime Administration, is aging and 
will need to be modernized over the next decade. Last year, the 
committee authorized the Department to start a program to 
recapitalize the Ready Reserve Force by authorizing DOD to 
purchase up to two foreign-built vessels while the Navy moves 
forward on a plan to design a family of auxiliary vessels for a 
number of uses, including recapitalizing the Ready Reserve 
Force.
    This authorization to purchase two vessels was intended to 
cover recapitalization requirements for the first several years 
of the future defense program. However, this year, the 
administration is asking to increase that authorization to 
include purchasing up to 24 foreign-built vessels. General 
McDew, I am interested in your perspective on this request, 
whether such a large increase is needed, and if there are any 
alternative options.
    In addition to the Ready Reserve Force, the Defense 
Department also needs to ensure that the Civil Reserve Air 
Fleet, or the CRAF, the CRAF program which provides as much as 
40 percent of wartime airlift needs, remains viable after 
operations in Iraq and Afghanistan and will be able, as needed, 
to surge capacity in the future. General, I am interested in 
your views on the state of the fleet and if anything needs to 
be done to ensure their readiness.
    Our global transportation capability, owned and managed by 
TRANSCOM, has been one of our asymmetric advantages for many 
years now. However, we cannot assume that potential adversaries 
will allow us free rein in this area in the future. General 
McDew, I understand that you have been conducting an analysis 
to assess requirements for an environment where our mobility 
forces would be challenged. I also understand that the 
Department will share those results later this year. Perhaps 
you could give us an update on when we are likely to see the 
results of your analysis.
    Thank you again for your decades of service, and I look 
forward to your testimony.
    Thank you, sir.
    Senator Inhofe. Thank you.
    General McDew, we would like to hear your opening 
statement. Your written statement will be made a part of the 
record. Thank you for being here. You are recognized.

 STATEMENT OF GENERAL DARREN W. McDEW, USAF, COMMANDER, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McDew. Thank you, Senator Inhofe, Ranking Member 
Reed, and distinguished members of the committee. It is an 
honor to be with you this morning, and thank you for your 
leadership and unwavering support you give the men and women 
who serve our great and mighty nation.
    I also want to thank you for the opportunity to represent 
the United States Transportation Command and the work of our 
soldiers, sailors, airmen, and marines and coast guardsmen, 
civil servants and contractors and their families. The men and 
women who make up this command underwrite the joint forces' 
lethality with unparalleled capability, and I am exceptionally 
proud of what they do. As a matter of fact, we are probably the 
only command that has a watch party for this event. So they are 
all watching back home in the cornfields of Illinois right now.
    USTRANSCOM's total force team works every day to provide 
our nation with a broad range of strategic capabilities and 
options, but they do not do it alone. I wish every American 
citizen could understand how much we rely on the nation's truck 
drivers, conductors, commercial pilots, mariners, stevedores, 
and much, much more to meet national defense requirements. 
USTRANSCOM is a global warfighting command with functional 
expertise and we move and sustain the joint force, but we are 
also responsible for operating the expansive joint deployment 
and distribution enterprise. I can say with full confidence 
that today USTRANSCOM stands ready to deliver on behalf of 
national objectives anywhere at any time.
    However, I do remain concerned about the future. As we 
refocus our efforts on great power competition, we are faced 
with potential challenges to our democratic values, our 
security. In this environment, we must always be ready. As we 
increase lethality across the joint force, the resources 
necessary to transport and sustain America's military must keep 
pace. Our ability to project a decisive force is foundational 
to the National Defense Strategy. The size and lethality of the 
force is of little consequence if we cannot get it where it 
needs to go when it needs to get there.
    To that end, the 2018 National Defense Authorization Act 
[NDAA] directed a mobility capabilities and requirements study. 
This study will determine if in fact the current inventory of 
mobility assets is sufficient to support national security 
requirements. The study will consider the impact of multi-
domain contested environments as well as the implications for 
attrition. The outcomes of this study will provide valuable 
insight to ensure we continue to meet today's needs while 
simultaneously evolving for tomorrow.
    But USTRANSCOM cannot get there alone. We must have the 
weight of the entire nation behind us to ensure that when our 
diplomats go to the negotiating table, they do so from a 
position of strength. One of the greatest threats to that 
strength is malicious activities in the cyber domain. Our 
adversaries no longer have to stop us with bombs and bullets. 
All they have to do is slow us down with 1's and 0's. That, 
ladies and gentlemen, is the challenge of our time. We must 
grow in this domain as a nation so that we can protect 
ourselves and protect each other.
    We also face challenges in the physical domain. The current 
ratio of active duty and reserve component forces means we must 
rely on the reserves and the National Guard to fulfill wartime 
requirements. For 3 decades, our reserve component has been 
used to sustain day-to-day operational requirements, a function 
for which they were not properly resourced or structured. 
Meeting the challenges of the future may require adjustments to 
mobilization authorities or force mix to assure access to vital 
capacity.
    While USTRANSCOM operates the most robust patient movement 
system in the world, we lack sufficient capacity to surge for a 
large-scale conflict. The combination of a number of factors 
decreases the likelihood that we will see the same high 
survival rates we have seen in the more recent conflicts. We 
continue to work with the services, the Joint Staff, and the 
national health enterprise to address these challenges.
    Finally, if we are to maintain our nation's power 
projection capabilities, we must first acknowledge our waning 
sealift capacity. The U.S. flag fleet has steadily declined 
since World War II from 1,288 ships in 1951 to 81 U.S.-flagged 
ships operating in international trade today. The degradation 
of the fleet also means fewer qualified merchant mariners, the 
simple backbone of our maritime industry. With the decline in 
our maritime capacity, it is becoming increasingly difficult to 
characterize America as a maritime nation.
    In response to an aging organic sealift fleet, the fiscal 
year 2018 Defense Authorization Act authorized the purchase of 
two used vessels. We thank you for supporting this first step.
    Thank you again for inviting me to speak to you today. 
Please say hello to all the folks in the cornfields of Illinois 
who are watching you today. And we thank you very much for 
allowing me to speak on behalf of USTRANSCOM and I believe 
America's heroes and those of the civilians, contractors, and 
servicemembers who project and sustain power around the globe 
every single day. Thank you.
    [The prepared statement of General McDew follows:]

             Prepared Statement by General Darren W. McDew
                        america as a superpower
    The United States of America is the world's only superpower. The 
Nation maintains this status because of our global influence and 
ability to project power around the world at a moment's notice. United 
States Transportation Command (USTRANSCOM) is a critical element in 
this national capability. The men and women who make up this command 
provide an unparalleled expeditionary capability and underwrite the 
Nation's ability to rapidly respond to emerging crises. A global, 
warfighting combatant command (CCMD) with functional responsibilities, 
USTRANSCOM's role in projecting and sustaining power is the cornerstone 
of the Joint Force's efforts to meet national policy objectives.
    Established in 1987, United States Transportation Command's marked 
its 30th Anniversary in 2017. Operationalized during Operations Desert 
Shield and Desert Storm, the command now delivers global mobility 
solutions every day in both peace and war through its component 
commands: Military Surface Deployment and Distribution Command (SDDC), 
Military Sealift Command (MSC), Air Mobility Command (AMC) and what I 
call our fourth component, the commercial industry. Together, with our 
subordinate commands, Joint Transportation Reserve Unit (JTRU) and the 
Joint Enabling Capabilities Command (JECC), our Total Force team of 
Active Duty, Guard, Reserve, civilians and contractors, remains 
postured to preserve the Nation's comparative advantage and provide the 
President a broad range of options today, and tomorrow.
    In the past year, USTRANSCOM bolstered American influence around 
the globe. We exercised our deployment capabilities, sustained combat 
operations, and managed the expansive Joint Deployment and Distribution 
Enterprise (JDDE). USTRANSCOM's team of Joint Warriors also enabled the 
movement of America's sick and wounded to medical treatment facilities 
worldwide, relocated thousands of families, and responded to every 
Geographic Combatant Command's requirements without fail. We performed 
33 Brigade Combat Team (BCT)-sized movements, shortening deployment 
timelines and demonstrating our ability to deliver a decisive force at 
the time and location of our choosing. When hurricanes ravaged Texas, 
Florida, Puerto Rico, and the United States Virgin Islands, our joint 
enabling and strategic mobility assets deployed to provide critical 
capabilities including planning support, aeromedical evacuation, and 
life-saving supplies. Our efforts demonstrated the Nation's resolve and 
strengthened partnerships worldwide.
                                mission
    The President of the United States designated USTRANSCOM's five 
primary roles and responsibilities through the 2017 Unified Command 
Plan (UCP). The UCP established USTRANSCOM as the Joint Deployment and 
Distribution Coordinator (JDDC), merging and expanding our previous 
roles as Distribution Process Owner and Global Distribution 
Synchronizer. This evolution of our responsibilities provides extended 
authorities to coordinate operations and planning across all domains 
spanning the JDDE. As DOD's Single Manager for Transportation, 
USTRANSCOM provides common user and commercial air, land, and sea 
transportation, as well as terminal management and air refueling in 
support of deployment, employment, sustainment, and re-deployment. We 
are responsible for providing joint sourcing solutions for all mobility 
forces and capabilities, in close coordination with the other CCMDs in 
our role as the Mobility Joint Force Provider. Enabling America's 
unprecedented patient movement capability, we arrange timely and safe 
movement for the Nation's ill and injured in support of the CCMDs, 
other U.S. Government agencies, and key international allies and 
partners as the DOD Single Manager for Patient Movement.
    Our fifth and final UCP responsibility is the provision of Joint 
Enabling Capabilities, performed by the JECC. The JECC provides alert 
postured communications, planning, and public affairs capabilities to 
accelerate the formation of Joint Force headquarters. Delivering high-
impact experts with knowledge in joint warfighting functions, the JECC 
supports SECDEF-directed deployments as well as immediate Global 
Response Force (GRF) missions. This Total Force team offers a unique 
capability not replicated by any other organization within DOD.
                 the contemporary security environment
    USTRANSCOM has been successful for 30 years, but the Nation is at 
an inflection point, and we must evolve to remain viable in the future. 
Volatile geopolitics, shifting demographics, and emerging technologies 
are changing the character of war. These considerations are changing 
societies and the way we fight--they are also changing why and where 
wars are fought, and who is fighting them. Today, every domain is 
contested, with conflict unconstrained by Geographic Combatant Command 
boundaries or principles of sovereignty. Lower barriers of entry are 
expanding our adversaries' access to disruptive technology, placing our 
technological superiority at risk. Mobility forces may be required to 
transport and sustain US and allied forces while under persistent 
multi-domain attack, including deception and data manipulation in 
cyberspace. We face the most complex and volatile security environment 
in recent history. Our past successes will not ensure success tomorrow.
    The Joint Force has taken domain dominance for granted for 70 
years, but we can no longer assume logistics will arrive in theater 
unchallenged by our adversaries. In an effort to better understand 
contemporary threats and operate effectively in the current context, 
USTRANSCOM hosted a series of Contested Environment Wargames and 
Summits. Lessons learned from these events drove changes in how we plan 
for attrition, cyber, mobilization, authorities, access, and command 
and control. We now consider the attrition of organic sealift and 
airlift fleets in our planning and requirements analysis, as well as 
the need for global mission command of disparate mobility forces. A 
growing realization that the Homeland is no longer a sanctuary led us 
to plan for denied access to our own strategic nodes, as well as those 
abroad. Our analysis revealed that an adversary can derive immense 
strategic benefit from cyber operations alone. The reality of our time 
is that adversaries no longer have to stop us with bombs or bullets; 
all they have to do is slow us down with ones and zeroes. Yet our 
preparation for these challenges cannot exist solely on paper. We must 
make some tough fiscal decisions today, prioritizing readiness and 
modernization to assure our strategic advantage tomorrow.
                         our global perspective
    In a contemporary environment filled with uncertainty and rising 
geopolitical tensions, the logistics enterprise must always be ready. 
Key to this preparedness is USTRANSCOM's effort to set the globe for 
logistics on behalf of the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff, continuously shaping the Nation's ability to 
respond to simultaneous threats within a trans-regional, multi-domain, 
and multi-functional security environment. With our global perspective 
and responsibilities, this command is uniquely postured to balance 
resources worldwide and understand the risks associated with surging 
and swinging mobility assets between theaters.
    Setting the globe for logistics involves balancing resources 
historically employed in a theater-centric paradigm and regularly using 
the worldwide network of modes, nodes, and routes to ensure the network 
remains active and resilient. Balancing and using the globe builds 
resilience within the JDDE, maximizes scarce strategic transportation 
assets, and strengthens relationships with our fourth component, 
allies, and strategic partners. Balance requires having the proper 
authorities to position and reposition mobility assets, thus enhancing 
agility, mitigating risk across the JDDE, and increasing the 
President's decision space. Effectively using the globe means 
unshackling ourselves from our habituated uses of the JDDE. The 
previous practice of only using finite strategic nodes for deployment 
and sustainment operations limits the Joint Force's flexibility to 
compete over the long term and deter conflict in multiple regions, 
while preparing to win in any war. We must implement new and innovative 
ways of using the globe by fostering strong partnerships and agreements 
with commercial industry, allies, and other partners to build network 
resiliency, expand our competitive space, and proliferate our power 
projection capabilities. When USTRANSCOM sets the globe, it creates 
options . . . and options create opportunities.
                      challenges and opportunities
    The Secretary of Defense has deemed his number one priority, 
``Restoring Readiness as We Build a More Lethal Force.'' As we restore 
readiness and increase lethality, the resources necessary to transport 
and sustain the Joint Force must keep pace. Current operations and on-
going sustainment requirements engage a significant portion of the 
total force, limiting capacity to surge or meet increased deployment 
and distribution demands. The DOD has historically viewed the Reserve 
Component as a strategic reserve. However, capacity shortfalls in the 
Active Component required the DOD to leverage Guard and Reserve assets 
to maintain steady-state activities for nearly three decades. Several 
conditions exacerbate this concern; fiscal uncertainty, aging fleets, 
workforce shortages, and an increasingly contested maritime domain. 
Despite the many challenges of our time, global integration, emerging 
technologies, and the collective experience of our mobility forces 
present opportunities to strengthen our distribution networks and 
improve the effectiveness of our logistics operations while decreasing 
risk to force. Whether to pursue opportunities or overcome challenges, 
we must continue to invest in key areas to secure victory on tomorrow's 
battlefields. These areas fall into the following four broad 
categories, which mirror USTRANSCOM's priorities: Readiness, Cyber, 
Evolving for Tomorrow, and Workforce Development.
Readiness: State of the Command
    USTRANSCOM stands ready to deliver in support of national 
objectives today. However, as we look to the future, contested domains 
and fiscal uncertainty present a threat to the viability of the JDDE. 
If we fail to address a number of these challenges in the coming years, 
the strength on which the Nation has historically relied will no longer 
be there when needed. Specifically, we must address issues of capacity, 
availability, and proficiency within USTRANSCOM's air, land, and sea 
components; shore up commercial industry's capacity and security gaps; 
and provide the necessary resources to rebuild readiness and modernize 
the mobility force.
  Fiscal Uncertainty
    The Budget Control Act (BCA) and recent Continuing Resolutions 
prevent the force from adequately addressing our most pressing 
readiness concerns. These legislative measures force the Services to 
prioritize immediate operational needs over prudent long-term planning 
and investment, eroding readiness over the long term. Specifically, the 
BCA prevents the Services from adequately manning, training, and 
equipping their forces for contemporary challenges, ultimately 
threatening USTRANSCOM's ability to deploy forces when necessary. After 
more than 16 years of conflict, rebuilding readiness and modernizing 
the force is a national imperative.
    However, timely and predictable funding is essential if we are to 
make progress toward meeting tomorrow's demands; the uncertainty that 
comes with government shutdowns and continuing resolutions only delays 
these efforts.
  Sealift
    When the United States goes to war, USTRANSCOM moves 90 percent of 
its cargo requirements with the strategic sealift fleet, which consists 
of government-owned ships augmented by the commercial U.S.-flagged 
fleet. The ability to deploy a decisive force is foundational to the 
National Defense Strategy, as the size and lethality of the force is of 
little consequence if we are unable to project power in the pursuit of 
national objectives. Therefore, the readiness of the entire strategic 
sealift portfolio, both organic and commercial, remains the top 
priority for USTRANSCOM.
    USTRANSCOM's Navy component, Military Sealift Command (MSC), 
controls the organic strategic sealift ships that deliver logistics and 
humanitarian relief, move military equipment, supply combat forces, and 
forward position combat cargo around the world. MSC also assumes 
operational command of the Maritime Administration's (MARAD) Ready 
Reserve Force (RRF) ships during periods of activation. However, our 
organic sealift capabilities will degrade rapidly over the coming years 
if we fail to pursue a responsible recapitalization strategy. Although 
the Navy added service-life extension funding for 22 vessels in POM19, 
30 of 65 Roll-on/Roll-off (RO/RO) vessels and all 11 special capability 
vessels could age out over the next 15 years. As further directed by 
the Fiscal Year 2018 National Defense Authorization Act (NDAA), 
USTRANSCOM is working with the Navy on a comprehensive recapitalization 
plan which includes acquiring used vessels, extending the service life 
of able vessels, and building new ships--all three of which are 
required to stabilize the fleet.
    The 2018 NDAA authorizes the Secretary of Defense to purchase two 
used vessels. This provision was intended to serve as a bridging 
strategy within the recapitalization program but is insufficient to 
bridge the impending capacity gap. Based on the estimated build rate 
and size of newly constructed vessels, 24 additional ``buy-used'' 
authorizations are needed by 2030. Available capacity for used vessel 
acquisition presents a prime opportunity to pursue this strategy.
    As a result of changes in market conditions within the maritime 
industry, USTRANSCOM will be the only remaining owner of steam ships in 
the United States by 2020. We possess a sufficient number of certified 
steam engineers to operate this legacy vessel today. However, the pool 
of certified steam engineers will rapidly drop in number and 
proficiency as steam-powered commercial vessels leave service. Due to 
this diminishing capability, recapitalization of steamships with newer 
technology, such as diesel ships, is a high USTRANSCOM priority.
    Opportunities to regularly exercise the organic Strategic Sealift 
Fleet ensures MSC maintains the highest state of readiness. Activating 
ships for exercises and sea trials is the primary mechanism for 
assessing RRF and MSC Surge Fleet readiness. These operations allow MSC 
and MARAD to better assess changes in material degradations, vessel and 
Mariner availability, and corresponding risk to mission accomplishment. 
However, in a fleet of 61 vessels, current resourcing only allows for 
10 training activations per year. We regularly pursue additional 
opportunities to integrate our organic fleet into DOD-supported 
exercises and support unit-level missions, including participating in 
exercises with other CCMDs . We will continue to pursue means to 
increase activations and extend sea trials, where possible, to get 
these ships underway with more frequency and improve the overall 
readiness of the fleet.
    An aging organic sealift fleet coupled with a reduction in U.S.-
flagged vessels threatens our ability to meet national security 
requirements. The U.S.-flagged fleet has been in steady decline since 
World War II as a result of decreasing demand and the rising cost of 
the U.S.-flagged fleet compared to international fleets. In 1951, 1,288 
U.S.-flagged ships were registered in the United States. In 1990, the 
fleet was down to 408 ships, and in 2013 just 106. Today, 82 U.S.-
flagged ships operate in international trade, representing a 25 percent 
reduction in just the last 5 years. This reduction in actively trading 
U.S.-flagged vessels correlates to a decline in the numbers of 
qualified Merchant Mariners, the workforce required to deliver U.S. 
Forces to war. If the fleet continues to lose ships, a lengthy, mass 
deployment on the scale of Desert Shield/Desert Storm could eventually 
require U.S. Forces to rely on foreign-flagged ships for sustainment.
    The U.S.-flagged commercial fleet is vital to the Joint Force's 
ability to accomplish its mission. USTRANSCOM's relationships with 
U.S.-flagged sealift partners are formalized through the Voluntary 
Intermodal Sealift Agreement (VISA) and the Maritime Security Program 
(MSP). Since their establishment in 1996, participation in these 
programs by privately-owned U.S.-flagged commercial shipping has proven 
a cost-effective means to assure access to sealift capability, 
capacity, and worldwide networks. The Merchant Marine Act of 1920, or 
the Jones Act, and the Cargo Preference Act are intended to ensure a 
baseline of ongoing business to support our inter-coastal shipping 
capacity and maintain a market for U.S. industrial shipyard 
infrastructure to build, repair, and overhaul U.S. vessels. However, 
the dwindling size of the domestic U.S. inter-coastal shipping fleet 
demands that we reassess our approach to ensure that the U.S. retains 
critical national security surge sealift capabilities. We also may need 
to rethink policies of the past in order to face an increasingly 
competitive future.
    The MSP provides an intermodal and logistics capability outside of 
the DOD portfolio that would be cost prohibitive to replicate. MSP 
assures access to 60 militarily useful vessels, the mariners who crew 
those ships, and commercial carriers' global networks and 
infrastructure. Without this program, DOD's asymmetric advantage in 
logistics would be put at significant risk as many of the vessels 
currently in the program would reflag under foreign flags and no longer 
participate in VISA. In this scenario, DOD would be forced to augment 
organic capacity with foreign-flagged vessels to deploy and sustain the 
Joint Force. During Operation Desert Shield, 13 of 192 (7 percent) 
foreign-flagged vessels declined to enter the area of operations, while 
U.S.-flagged vessels provided steadfast support. Although the security 
environment today is more complex than it was 27 years ago, MSP remains 
a critical enabler in our ability to execute the National Defense 
Strategy (NDS), and it must continue to evolve. We are reviewing MSP 
this year to ensure the program's next evolution is best suited to 
support national defense.
    Along with declining capacity, we are also concerned about the pool 
of current and qualified licensed Merchant Mariners who crew America's 
ships. If the international U.S.-flagged fleet continues to decline, 
the Merchant Mariner labor pool will also decline, putting at risk our 
ability to surge forces overseas and sustain a protracted conflict with 
U.S. Mariners. Although the qualified Mariner labor pool industry-wide 
is adequate to support a surge requirement today, a protracted need for 
Mariners would stress the labor pool beyond acceptable risk. The DOT, 
with DOD support, must seek innovative ways to recruit and retain 
sufficient Mariners to sustain sealift operations across the full 
spectrum of conflict. A healthy and viable U.S.-Flagged Fleet remains 
the foundation for a suitable Merchant Mariner pool.
  Airlift/Air Refueling
    USTRANSCOM's air mobility forces provide the Joint Force with a 
distinct advantage, projecting and sustaining immediate power in 
response to crises and contingencies around the world, any time the 
Nation calls. USTRANSCOM's Air Component, Air Mobility Command (AMC), 
provides airlift, air refueling, aeromedical evacuation, and air 
mobility support functions in support of all CCMDs by leveraging a team 
of Total Force Airmen and commercial partners. Although the air 
mobility enterprise stands ready to deliver an immediate force tonight, 
we must address several readiness concerns in our airlift and air 
refueling capabilities, as well as our patient movement system, to 
ensure we are able to meet our defense objectives in the future.
    America's air refueling fleet is the most stressed of our air 
mobility forces. The combination of an aging fleet, increasing demand, 
and global tanker distribution puts a significant strain on this scarce 
national resource. At an average age of 61 years old, the KC-135 
remains the workhorse, comprising 87 percent of the tanker force. 
Investments are necessary to allow the aircraft to continue to operate 
in a changing environment and stem the decline in aircraft 
availability. Nonetheless, as the fleet ages, sustainment costs and 
dwindling availability rates will eventually become untenable. The KC-
10, which served as a key part of the tanker force for decades, is 
programmed for retirement in Fiscal Year 2019-2024. The current tanker 
requirement, set at 479, was based on the 2013 Mobility Requirements 
and Capabilities Study (MRCS). The 2018 NDAA-directed Mobility 
Requirements and Capabilities Study (MCRS-18) will reflect requirements 
articulated in the new National Defense Strategy and address the 
current and future levels of risk to the air refueling mission, which 
may drive the Department toward increasing air refueling capacity for 
CCMDs. However, we already know the convergence of an aging air 
refueling fleet with protracted KC-46 production puts the Joint Force's 
ability to effectively execute war plans at risk. Day-to-day, high 
levels of air refueling fleet utilization are approaching a point that 
challenges the Total Force to sustain current levels of support. Thus, 
the tanker fleet's end strength will require careful synchronization 
between KC-10 and KC-135 retirements and KC-46 production and delivery 
to sustain current force projection capabilities.
    The uneven geographic allocation of the tanker fleet requires an 
agile command and control construct to balance this high-demand asset 
across GCCs. The practice of stockpiling resources in specific regions 
with no single organization possessing the capacity and authority to 
dynamically reallocate assets creates deficiencies in some theaters and 
surpluses in others. Global sourcing solutions, on the other hand, 
generate capacity out of multiple regions to support emerging crises in 
prioritized theaters.
    To that end, the SECDEF directed USTRANSCOM, through the 2017 
Global Force Management Allocation Plan (GFMAP), to manage in-theater 
air refueling assets that exceed the minimum required by Geographic 
Combatant Command (GCC) war plans. However, legislation enacted in 2011 
reserves a disproportionate number of theater-assigned tankers for 
USPACOM and USEUCOM, limiting USTRANSCOM's ability to balance scarce 
resources against total requirements. Optimal allocation of assets 
requires a trans-regional perspective and the flexibility to manage 
mobility forces at an enterprise level. Given its global visibility, 
command and control resources, and geographic impartiality, USTRANSCOM 
is uniquely suited to manage the entirety of the tanker fleet. Relief 
from legislation that restricts changes to operational control of 
tanker forces in USPACOM and USEUCOM would allow USTRANSCOM to optimize 
the air refueling fleet and mitigate risk across the Joint Force.
    The Operational Support Airlift (OSA)--Executive Airlift (EA) 
enterprise provides vital transportation for senior DOD and Federal 
officials, including the President, Vice President,
    Secretary of Defense and Presidential Cabinet. The EA fleet remains 
a necessary asset, providing our senior military and government leaders 
with in-flight command, control, and communication capabilities as well 
as dedicated, secure transportation. Given its high-visibility and 
national level impacts, USTRANSCOM and the Joint Staff are reviewing 
options for long-term management and oversight of the EA enterprise.
    The Air Force has made key investments in upgrading, modifying, and 
recapitalizing its airlift fleet, and we must stay the course. The last 
of 52 C-5M aircraft is scheduled for delivery in 2018 through the 
Reliability Enhancement and Re-Engineering Program (RERP). Similarly, 
advances in the C-17 fleet are enhancing its viability through the 
development of high altitude airdrop capabilities and improved secure 
communications for portions of the fleet. The Air Force also modernized 
the tactical airlift fleet through acquisition of new C-130J aircraft 
and various upgrades to the Air Force Reserve Command and Air National 
Guard C-130H fleets. The health of the airlift fleet remains strong and 
continues to improve through these timely upgrade and modification 
efforts.
    However, the growing pilot shortage challenges our ability to 
sustain current force projection levels. Roughly 30 percent of the Air 
Force's pilot shortages come from air mobility platforms. By fiscal 
year 2019, we project mobility manning shortfalls will reach or exceed 
about 650 pilots. A nearly insatiable demand for commercial pilots, 
coupled with a high OPTEMPO, is leading to a larger-than-expected 
number of pilots leaving the service. Last year, the Air Force took 
actions to mitigate the loss of experienced pilots and increase 
production of new pilots. We expect to see initial results from these 
efforts by fiscal year 2020.
    Today, the mix of Active to Reserve Component resources in 
USTRANSCOM means the command relies on the Reserves and National Guard 
to fulfill war-time requirements. For example, more than 50 percent of 
AMC's airlift and air refueling assets are in the Reserve Component. 
The current force balance creates component command dependence on 
National Guard and Reserve units to volunteer for activation. 
Furthermore, for the past three decades, the Reserve Component has been 
used as a reliable and trustworthy asset to sustain day-to-day 
operational requirements, a function for which, historically, they were 
not resourced or structured. Funding increases in fiscal year 2018 and 
fiscal year 2019 will alleviate some of the strain on the force but the 
disproportionate force mix may still have broader implications across 
the department. The Department's vigilance is required to ensure the 
means support the ends against which the Services have aligned our 
Reserve Component.
    Our Civil Reserve Air Fleet (CRAF) partners are critical to the 
success of our enterprise, and today, the CRAF program is healthy and 
fully subscribed to meet national security objectives. CRAF is a 
voluntary program by which U.S. air carriers are awarded government 
airlift business to assure access to commercial capacity during 
contingencies and emergencies. This resolute relationship has 
historically afforded our partners the opportunity to lift about 93 
percent of all DOD passengers and 40 percent of DOD air cargo in direct 
support of our warfighters. As our 25 CRAF carriers remain in a steady 
state of readiness to support DOD cargo and passenger requirements, we 
are committed to maintaining a viable CRAF program to continue to meet 
national defense requirements.
  Surface
    When the Nation goes to war, American forces begin deployment 
operations using U.S. transportation infrastructure. USTRANSCOM relies 
on the DOT, along with other Federal and State agencies to ensure our 
roads, rails, and ports are capable of supporting the warfighter's 
deployment and distribution requirements. Our Army component command, 
SDDC, represents the interests of the DOD to access and safely use both 
private and public transportation infrastructure and services. Today, 
these networks are capable of effectively deploying the Joint Force. 
However, it is imperative that we remember that our transportation 
infrastructure is not merely a medium for commercial and civilian use, 
it is a national strategic asset, critical to moving military members, 
equipment, and supplies in times of crisis.
    Highways and railways are strategic links that serve as routes for 
the DOD to deploy military forces from fort to port and to project 
warfighting materiel from factories to foxholes. Currently, public road 
networks are capable of meeting DOD ground transportation needs while 
providing adequate access to commercial trucking capacity to meet 
current and anticipated surface transportation requirements. America's 
rail networks rapidly move large quantities of heavy equipment from 
military installations to ports of embarkation, a capability that is 
critical to national security. SDDC collaborates closely with the DOT 
and the railroads to assess the suitability of our rail networks (most 
of which are privately owned) to continue to support military needs. 
Although rail networks remain adequate, we face age-mandated 
retirements of some of our uniquely capable, DOD-owned railcars. We are 
developing a plan, in close cooperation with the Department of the 
Army, to replace this critical deployment enabler.
    The health of America's strategic sea ports are also of vital 
national interest. There are 23 designated Strategic Seaports along our 
coasts--17 commercial and 6 military--which serve as major springboards 
from which the Nation delivers diplomatic and military solutions around 
the world. The infrastructure of each of these ports, to include their 
cyber-enabled infrastructure, must be viable and resilient to allow the 
flow of equipment and cargo during times of conflict or distress.
    Military Ocean Terminal Concord (MOTCO) on the West Coast and 
Military Ocean Terminal Sunny Point (MOTSU) on the East Coast are 
critical to DOD's ammunition distribution mission, and remain a top 
readiness priority. MOTCO, in particular, was identified as requiring 
increased investment due to aging infrastructure and lack of 
acceptable, ready alternatives to support ammo movement to the Pacific. 
The U.S. Army is in the process of a $300 million modernization program 
at MOTCO, to include construction of a new pier. We must continue to 
maintain and modernize both of these strategic seaports, as well as 
build capacity at other ports to enhance resilience, as their unique 
mission set underwrites the Joint Force's lethality.
  Patient Movement
    Today, USTRANSCOM operates the most robust patient movement system 
in the world, safely and efficiently moving America's ill and injured. 
Last summer, we completed our Aeromedical Evacuation Requirements 
Analysis to evaluate the number of aeromedical evacuation crews, 
Critical Care Air Transport teams, and patient movement equipment items 
required to move patients on time in a single scenario. Although we 
conduct patient movement without falter in the current operating 
environment, we found shortfalls in our ability to surge for large-
scale conflict with mass casualties. We are currently working with the 
Air Force to determine the appropriate way ahead to mitigate these 
shortfalls.
    Limitations on patient movement in a non-permissive context 
highlighted the need to develop interoperable, multi-modal solutions 
for joint casualty transportation. Current plans create a near 
dependence on airlift which may not be feasible to meet requirements 
depending on the scenario. Furthermore, as military medical facilities 
consolidate or close, the military infrastructure to support patient 
movement is increasingly strained. Insufficient access to en route 
medical care (transfer, staging, and treatment) at critical 
distribution nodes will further challenge our ability to safely move 
expected numbers and types of casualties in future conflicts. 
Additionally, a decrease in CONUS-based health care capacity in the 
National Disaster Medical System (NDMS) partnership will further 
complicate our ability to move patients to the care they need.
    The combination of insufficient patient movement personnel, 
equipment, infrastructure, and capacity significantly decreases the 
likelihood that our Joint Warriors with survivable injuries and 
illnesses will have the same high survival rates we have seen in recent 
conflicts. In partnership with the Joint Staff, we initiated a 
capabilities based assessment which will be completed this year. We are 
also working with the Services, the Joint Staff, and the National 
Health Enterprise to address these challenges.
Cyber
    Threats in the cyber domain pose the greatest threat to our 
decisive logistics advantage. The return of great-power competition is 
characterized by activities in the so-called ``gray zone.'' In this new 
normal, both state and non-state actors conduct persistent probes and 
malicious cyber activities, seeking to erode the U.S. military 
advantage and alter existing international order. The logistics 
enterprise is more susceptible to these malicious activities than other 
military organizations based on our unique relationship with commercial 
partners. Although logistical and operational planning generally takes 
place on classified networks, ninety percent of military logistics and 
global movement operations executed on unclassified commercial 
networks. This challenge is exacerbated by the inadequacy of 
implementing existing cybersecurity standards and the fact that DOD's 
extensive cyber protections do not extend to industry, critical 
vulnerabilities in our cyber security posture. Defending DOD 
information on those commercial networks goes beyond the authority of a 
single combatant commander. Mission assurance, particularly in degraded 
and contested environments, requires a collaborative effort between the 
Department of Homeland Security, other national agencies, commercial 
industry, and the Nation's leading experts. We will not solve this 
problem alone.
    In 2017, USTRANSCOM made strides toward hardening our overall 
cybersecurity posture in collaboration with commercial industry. We 
strengthened our partnerships through the National Defense 
Transportation Association (NDTA) with the inclusion of cybersecurity 
training programs for the entire enterprise. Moreover, several industry 
CEOs participated in our Cyber Roundtables, creating future options to 
improve national defense, incorporate commercial equities in the 
initial stages of contingency planning, and share information across 
domains. Learning from these venues, we began modifying existing 
Transportation Service Provider contracts to mandate compliance with 
the National Institute of Standards and Technology's (NIST) Special 
Publication 800-171, which governs the protection of covered defense 
information, including unclassified controlled technical information. 
Prior to this update, transportation contractors were not required to 
upgrade security systems or comply with threat reporting measures. We 
are beginning to implement contractual language, which requires our 
industry partners to adhere to NIST standards commensurate with Defense 
Federal Acquisition Regulation System (DFARS) rules. This measure will 
protect information systems handling of comprehensive DOD transactional 
information. We are also embedding a contractual requirement for 
participants to perform self-assessments against NIST standards and 
submit a plan of action to USTRANSCOM to address deviations from the 
standard and non-compliance. USTRANSCOM may conduct an on-site visit or 
request a third-party assessment to review progress toward meeting 
action plans.
    The completion of an initial Mission Assurance Assessment of the 
Joint Deployment Distribution Enterprise (JDDE) also offered insight on 
where we need to improve our cyber defenses. With the knowledge gained 
from this study, we are completing a more comprehensive, OSD-directed 
assessment of selected strategic seaports. We incorporated cyber events 
in multiple major exercises and learned it is impractical to defend 
everywhere, all the time. Instead, resiliency is key, not only in our 
cyber-enabled systems, but also in the operations that depend on those 
cyber-enabled systems. As demonstrated by Maersk's June 2017 NotPetya 
incident, one cyber incident has the potential to impact the entire 
enterprise.
    To address these challenges, we must iteratively improve risk-
reduction measures to include identifying and hardening security risks 
for National Key Cyber Terrain, developing and implementing 
cybersecurity standards, sharing information across agencies, 
conducting routine vulnerability assessments, mitigating insider 
threats, and developing contingency plans for significant cyber 
incidents. We need to link DOD and DHS cyber authorities across 
critical defense networks and develop procedures to share information 
with our fourth component as we all operate among the same threats. 
Finally, cybersecurity standards must advance beyond the minimum 
requirements and facilitate a collective framework to defend against 
competitors and adversaries. Our challenge is everyone's challenge.
Evolving for Tomorrow
    USTRANSCOM delivers on behalf of the Nation and has done so 
successfully for 30 years. However, we must avoid complacency. We face 
a challenging future marked by growing uncertainty, risk, and complex 
demands. We have to be ready for any possible set of circumstances. 
With that reality in mind, the Command is focused on evolving to 
respond to the Nation's needs today, while simultaneously preparing for 
the future. In doing so, we continue to pursue opportunities in cyber 
and technology to modernize our systems and processes and ensure the 
enterprise remains ready and resilient across the spectrum of 
operations.
  Transportation Management System (TMS)
    The Joint Force's transportation requirements demand transparency, 
affordability, and asset visibility to preserve options in the current 
operating environment. Over the last three decades, USTRANSCOM 
developed technical solutions with the best available technology 
platforms at that time. As a result, the command now has a diverse set 
of programs that link movement requirements with available 
transportation assets across the enterprise. In 2015, USTRANSCOM 
identified 12 performance gaps in the current network structure that 
prevent the command from conducting integrated multi-modal operations. 
Most major manufacturers and distribution companies (e.g., Walmart and 
Amazon), use a Transportation Management System, a single platform for 
end-to-end shipment planning and execution, to increase return on 
investment. While the dollar may not be the bottom line for the DOD, a 
TMS promises to improve support to the warfighter and boost 
auditability.
    In August 2017, the command initiated a proof-of-principle to 
determine the feasibility of implementing a TMS. This four-month proof 
of principle validated our assumptions on the capabilities and benefits 
of a TMS and confirmed its broad reaching value to the JDDE. TMS 
streamlines transportation and financial management processes, enhances 
enterprise-wide asset visibility and flexibility, and increases 
readiness. With plans for an enterprise-wide TMS, USTRANSCOM is forging 
ahead with implementation, beginning with a full-scale prototype. We 
are strengthening strategic partnerships with Defense Logistics Agency 
(DLA) and Pacific Command (PACOM), and inviting the Services, CCMDs, 
and other partners to a joint planning event early this year. These 
engagements will build universal acceptance and allow the enterprise to 
leverage the operational power of a TMS.
  Cloud Computing
    This year, USTRANSCOM is in the process of rapidly transitioning 
all our digital applications to cloud-based technology. Leveraging 
best-of-breed commercial technology allows us to control costs, 
enhances Mission Assurance, and improves our agility and network 
resiliency. Furthermore, the cloud allows our program managers, 
developers, and software engineers to keep pace with industry, and 
track, review, and plan costs associated with IT projects, in real 
time. Economies of scale, standardization, and automation in cloud 
computing also promise to substantially reduce the cost of IT 
infrastructure. We anticipate completing this effort in the summer of 
2018, to include secret level applications.
    Pathfinding for the Department as its ``Cloud Center of 
Excellence,'' the command is executing its migration, with about 25 
percent of programs and applications already in the cloud. We are 
increasing security, access, and reliability while freeing resources 
and manpower to tackle our toughest cyber challenges. Most importantly, 
we are providing a production contract model and repeatable process for 
the entire Department to leverage. Establishing secure IT 
infrastructure for commercial industry must be a priority. USTRANSCOM 
is setting conditions for success for the rest of the DOD--we'll 
proudly continue to serve as the pathfinder for defense cloud-
computing. Moving to the cloud not only improves security, it is also a 
key requirement in harnessing the power of data.
  Building the ``Data Lake''
    Developments in the field of big data analytics suggest that 
transformative solutions to many of the most complex problems within 
the logistics enterprise are just over the horizon. Access to large 
data-sets and the interrelationship between them, along with tools to 
translate data into knowledge, will enable the enterprise to rapidly 
convert knowledge into action. We must have the proper tools to 
actually derive meaningful insight from data and subsequently, convert 
knowledge into action. Currently, the transportation enterprise uses 
data to inform daily transactional functions but fails to fully 
leverage big data and advanced analytics to inform logistics 
forecasting and rapid decision making. Last year, we partnered with 
Defense Innovation Unit Experimental, Defense Digital Services, and the 
Strategic Capabilities Office to build a roadmap for constructing the 
enterprise's ``data lake'' and take advantage of the power of living 
data for logistics.
  Leveraging Emerging Technologies
    Transitioning our systems to the cloud and building the data lake 
are the foundational steps to realizing the potential in future 
technologies like machine learning, artificial intelligence, and 
autonomy. When distribution requirements surge and operator shortages 
strain the distribution system, demands will eventually overcome 
capabilities. To mitigate these challenges and meet dispersed 
distribution requirements, industry is innovating a future of low 
technology and high volume, in contrast to our current high technology 
and low volume model of more advanced and expensive defense assets. 
This future is based on machine learning and artificial intelligence 
platforms that eclipse the human advantage. We are embedded with the 
OSD Artificial Intelligence Working Group to realize this technology 
and ensure we are maintaining pace with industry and rival nations. 
Focusing on these technologies will also allow the enterprise to pursue 
a future in autonomous systems--trucks that drive themselves, ships 
that can navigate oceans without human inputs, and wide-body aircraft 
that can land on their own.
Workforce Development
    Meeting the challenges of our time and realizing the full potential 
in the opportunities ahead, demands an innovative, agile, and diverse 
workforce. These challenges are only increasing in complexity, and 
recruiting, developing, and retaining talent is more important than 
ever. At USTRANSCOM, we strive to cultivate a force that is agile 
enough to operate across GCC boundaries and adaptable enough to thrive 
in a complex and dynamic operating environment. To achieve this end, we 
undertook several initiatives within the past year to enhance our 
developmental opportunities and ensure we retain high-performing 
individuals. In an effort to broaden our workforce and expand 
partnerships, we instituted a civilian exchange with the Defense 
Logistics Agency (DLA) and National Geospatial-Intelligence Agency 
(NGA) through our civilian experiential development program. Through 
initiatives like this one, we intend to diversify thought and reinforce 
an already strong, collaborative relationship with our strategic 
partners. We are also developing robust strategic workforce planning 
initiatives that will help the Command identify and access the right 
talent needed to continue to meet national security mission 
imperatives. Among these workforce initiatives are adding data 
scientists, data analysts, data managers, and cyber professionals to 
the workforce, all critical to mission assurance in the future.
            our commitment to meeting tomorrow's challenges
    For 30 years, the Nation has turned to USTRANSCOM's strategic power 
projection capabilities to respond to global threats and disaster. We 
do not know what tomorrow will hold, but the next year promises to be 
as busy and challenging as the last. The actions we take today to 
improve readiness, modernize the force, and assure our future 
capabilities have to be sufficient to ensure we remain the preeminent 
military power. USTRANSCOM will not get there alone. Together, We
Deliver.

    Senator Inhofe. Well, thank you very much. You will be 
happy to know that all of your corn guys are right down here to 
my right.
    [Laughter.]
    Senator Inhofe. I have two things I want to----
    Senator Donnelly. There is corn in Indiana too.
    Senator Inhofe. That is right.
    Senator Wicker. There is corn in Mississippi too.
    Senator Shaheen. There is some corn in New Hampshire.
    [Laughter.]
    General McDew. We are okay with all of you.
    Senator Inhofe. It is great to eat but not good in your gas 
tank.
    [Laughter.]
    Senator Inhofe. You really started something. Did you not, 
General?
    You have said some things that I look at and I try to do 
the math and figure out how this is going to work as we get our 
aging fleet going. You made the statement, America's air 
fueling fleet is the most stressed of our air mobility forces.
    Now, the KC-135 is 61 years old. They have quit making the 
C-5 and the C-17, and we are looking at the KC-46. That is 
great and it is going to be well maintained at Tinker, and I am 
very happy that that is going to come. However, they have 
ordered 179 of them.
    I would like to have you kind of explain how this is going 
to work. You are going to see a phasing out. At the same time, 
it is going to take 10 years apparently to get to the 179, and 
then we have our KC-135, which will be at that time over 70 
years old.
    So I really have two questions on this. Do you think that 
the KC-46 will be delivered this year as projected and the 
impact on the current operations in maintaining the existing 
air fueling because of production delays of the KC-46? Do you 
believe the current inventory of C-17's and C-5's are 
sufficient to provide the necessary gap that we are looking at? 
How is the math going to work on that down the road?
    General McDew. Well, Senator, that is a very insightful set 
of questions, and I will try to give as concise a set of 
answers as I can.
    Believing whether or not the KC-46 will be delivered on 
time, I talked to the Chief of Staff of the Air Force 
yesterday. He has some concerns about the ability to deliver 
the airplane as projected but is committed to having the 
airplane that is delivered be operationally capable when it is. 
I believe Boeing and the Air Force are both trying to get to 
that point.
    Your discussion about whether or not our fleet is of 
sufficient size--thank you for having us do another mobility 
capabilities requirements study because that will answer that 
question. All the studies we have had to this point have not 
included things like a contested environment, cyber, and some 
other things that we have discovered over the last few years 
that we really need to put a focus on the mobility forces 
because no one before has believed that we are going to lose 
anything.
    Senator Inhofe. I appreciate that, and we will look forward 
to getting that report.
    Now, I do want to have time to get an answer to this one. 
It was just a month ago that Senators Ernst, Rounds, Sullivan, 
and myself were in the Pacific area. We were talking to our 
international partners in South Korea, Taiwan, Japan, and the 
Philippines. It kind of solidified my understanding of the 
expansionist activities of China and what they are doing. 
People do not realize they are actually creating these islands. 
There is not any legal justification in my mind for this, but 
it is being done. They are actually set up as if they were 
preparing for World War III, everything from runways, cannons. 
It is 100 percent military. They have got seven locations down 
there, and the seven outposts add up to over 3,000 acres. So it 
is a big deal over there and it has got a lot of attention. 
Then when you stop and realize where the seven outposts are in 
the Spratly Islands, they are located in international waters 
between Vietnam and the Philippines.
    So I would like to get from you how concerned you are in 
terms of what this does to our seaways and our capability that 
you are going to have to be using.
    General McDew. Senator, freedom of navigation and access to 
global ports is one of the most significant things I deal with 
on a regular basis, not just for me but for our partners and 
allies around the world, anybody that loves freedom and 
understands how important it is to the global economy.
    Senator Inhofe. Yes, but in that particular area, though, 
it would seem to me that could be very obstructive in our 
ability to fulfill the missions that we have on those sea 
lanes. Apparently you do agree with that.
    General McDew. Absolutely.
    Senator Inhofe. Okay, good.
    Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman.
    General McDew, you indicate in your comments and my 
comments also that cyber is probably the number one challenge 
if you look at your responsibilities. Can you elaborate a bit 
about what you are doing? But also I am under the 
understanding--and correct me if I am inaccurate--that many of 
your contractors do not have adequate cyber protection--
civilian contractors. In fact, there is even some notion that 
they are not required to report immediately when they detect 
breaches. Can you give us kind of an evaluation of not only 
what you are doing but the problems you have in your contractor 
force?
    General McDew. Yes, Senator. So cyber is the number one 
threat to U.S. Transportation Command, but I believe it is the 
number one threat to the nation. The nation's problem is there 
is not a clear national cyber standard.
    All of our contracts with our contractors include a cyber 
standard, a hygiene standard for our contractors. It doubles 
down on the requirement federally to report intrusions. But a 
greater problem is in our headquarters, cyber is the 
commander's business, but not everywhere across our country is 
cyber a CEO's [Chief Executive Officer] business.
    Senator Reed. How are you doing in terms of compliance? You 
have teams that will go out and review a major contractor for 
either ships or planes, et cetera, and then require them to 
make corrections. Can you do that?
    General McDew. We have the authority to go out and do 
inspections, but that is a relatively new one that we have not 
exercised yet. Across our civil reserve air fleet contractors, 
they get a regular inspection as part of their safety 
inspection, and we are trying to get that to be a regular part 
too with cyber.
    Senator Reed. Do you have the resources to do those types 
of intensive inspections?
    General McDew. Not at the pace we probably would like to. 
But we also require that they have someone check on their 
security as well. The problem is I am not sure everybody 
understands how problematic it is.
    Senator Reed. Right. I think what you have said before is 
that unless it is a command priority--and in your shop, it is, 
but over in civilian shipping lines and aircraft, it is not so 
much a leader responsibility. It is there but it is not being 
fully enforced. Is that accurate?
    General McDew. In some. Some are probably leading the 
nation in their ability to look at this problem set. But in our 
cyber roundtables, which is one of the things we are doing to 
raise our level of awareness, some of the CEO's chief security 
officers cannot even get to the see the board, they cannot even 
to see the CEO. So that is a problem.
    Senator Reed. Thank you.
    We are trying to deal with that on the Banking Committee 
with requiring someone on the board to be a cyber expert. We 
are running into some trouble, but the SEC [Securities & 
Exchange Commission] should do that immediately without waiting 
for us.
    Shifting gears, we gave you authority to buy two foreign 
ships as, we thought, a bridge to a longer-term plan. Now you 
are coming and asking for 24.
    The first question that strikes me is can our American 
shipyards not produce these ships if they are given the design? 
Why do we have to go off and acquire so many foreign ships?
    General McDew. Our American shipyards build some of the 
finest ships in the world. So that is not really a problem. It 
really comes down to how much money we want to spend and when 
we want to recapitalize this program.
    So, first, thank you for the authority to buy two used 
ships. You know that I focus on the fact that they are used. 
Many of these ships were built in foreign yards. However, they 
are sailing for us today under the U.S. flag, and they have 
been converted to U.S.-flagged and they are U.S.-crewed ships. 
What we would like to be able to do is to get rid of the steam 
plants that I own. In 2020, I become the largest owner of steam 
plants in all of the maritime industry across the world. I do 
not want that title, Senator.
    Senator Reed. But we will look carefully at that request. 
Obviously, last year we were sensitive to your requirements for 
an immediate, quick fix and we did.
    Another aspect here, which is I think very important, is 
that in your prepared statement, you point out that the medical 
evacuation system has some shortcomings that we have to respond 
to in terms of the ability to move injured personnel quickly to 
a suitable facility. Can you just quickly--I only have a few 
seconds--make a comment on that?
    General McDew. The biggest part is that we have 
transitioned ourselves to thinking that we are no longer going 
to work in a permissive environment, that every environment 
will be contested. If that is the case, then it compounds every 
one of my missions that I have been given. The biggest part as 
well is that our medical infrastructure in the United States is 
not the same as it was in, say, 19--whatever. You want to pick 
the date. It started to atrophy. And so if we are going to move 
back hundreds of patients from the theater in a big war, our 
ability to scale and use American hospitals is not the same as 
it was, say, 20 years ago.
    Senator Reed. And you have alternative plans to cope with 
that situation?
    General McDew. We are working with the national health 
agencies to try to come up with those alternative plans, but 
they are not as easy as you could imagine. If you start to 
think that we are going to lose more people in a potential big 
end fight and have to transport more people back, we do not 
have the military hospitals we once had and we do not have the 
civilian hospitals we once had.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Wicker?
    Senator Wicker. Senator McDew, thank you for your service. 
General McDew.
    [Laughter.]
    General McDew. I could not do your job.
    Senator Wicker. Well, we could not do yours.
    But let me ask you to follow up on this question that 
Senator Reed asked. Of these 22 ships, you are asking for 22 
more--24 used ships. Where were they manufactured? I guess you 
have not identified them.
    General McDew. All those ships have not been identified 
yet.
    Senator Wicker. But typically they would have been 
manufactured other than in the United States.
    General McDew. Most of them.
    Senator Wicker. Would all of these be currently U.S.-
flagged ships?
    General McDew. The ones we would target would be U.S.-
flagged ships that are sailing for us--many of them--in the 
maritime security program that a company might shuttle after 20 
years of life. That cuts my fleet's age in half overnight. They 
are pennies on the dollar right now on the open market.
    Senator Wicker. What is their life expectancy after you 
would purchase them? These two that you are already in the 
process of acquiring and the other 24.
    General McDew. We would probably end up using those ships 
for another 20 to 30 years. And so you are talking about a ship 
you can purchase right now from $20 million to $30 million on 
the open market that you would use for another 20-30 years 
versus buying a new ship, which is the ultimate goal is to 
build ships in the U.S. yards that would be built new but maybe 
cost $850 million a ship. It would take a while to 
recapitalize.
    Senator Wicker. Now, do you support the Jones Act and the 
Cargo Preference Act as being vital to national security?
    General McDew. I do, Senator, but for a number of different 
reasons. My primary focus is on national security and the 
capacity that I need to take this nation to war. It is our 
asymmetric advantage to deliver a decisive force in the 
maritime domain. The rheostats I have to effect that balance 
right now is helped by the Jones Act and Cargo Preference 
because being able to get more mariners to work allows us to 
have the capacity we need to go to war. If there were other 
rheostats--and currently there are not--maybe we could use 
those, but those are the ones I have to use.
    Senator Wicker. What has happened in a year to cause you to 
go from a request of two ships to 24?
    General McDew. The fact that my request was larger last 
year. I am happy to get the two that I got. We have a 
requirement to try to recapitalize about 26 steam plants. So 
two is the beginning to try to get to 26. We will not have a 
brand new ship built that I understand in the Navy's recap plan 
till about 2030. Between now and then, I am going to age out 
some ships.
    Senator Wicker. What does the 25 percent reduction in U.S.-
flagged ships do to our labor pool? What help do you need from 
this committee and this Congress in that regard, sir?
    General McDew. The labor pool--we are approximately a 
couple thousand mariners short of the need that we have--we 
think we will have in the early days of a conflict. That labor 
pool is the true heroes of our national defense. Those mariners 
who went to war in World War II and lost at the highest rate of 
any single population are the ones I believe that will be with 
us in the next big conflict. An incentive to keep those people 
going to sea is the kind of help we need.
    Senator Wicker. Well, okay, but part of that is having the 
ships for them to serve on.
    General McDew. The cargo for them to put on a ship. We have 
got to be able to also decide as a nation is this country still 
a maritime nation. I believe it is.
    Senator Wicker. I believe it ought to be.
    General McDew. However, we have a hard time right now 
finding the evidence in our policies and laws that would be 
able to convince us.
    Senator Wicker. One other quick point just for you to 
emphasize. I notice on page 15 and 16, you talk about the 
nation's infrastructure, and you make the point that an 
infrastructure program is great for commerce and great for 
transportation domestically but it is also very much part of 
your national security program.
    General McDew. A strong U.S. economy, a strong U.S. 
infrastructure, and a strong industrial base--and I am not 
talking about the defense industrial base. Those are the people 
that make our exquisite widgets. I am talking the industry base 
in this country that does things for us. It is the military 
that we have today that heavily relies upon those and the 
infrastructure they ride on.
    Senator Wicker. Specifically you have a concern going 
forward about our nation's rail system being up to speed in 
terms of what the military is going to need to transport on 
rail going forward.
    General McDew. Our rail companies do a very nice job 
because they actually work on that infrastructure. So it is 
probably the best shape of our infrastructure. The concerns I 
have are in the cyber domain when it comes to rail. Cyber 
defenses--we have got to continually look at it. I would 
imagine that every one of our potential adversaries understands 
our vulnerabilities in rail.
    Senator Wicker. Thank you. I apologize for calling you a 
Senator.
    General McDew. I am actually flattered but I cannot do your 
job.
    Senator Wicker. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Well, General McDew, thank you very much for your service 
and for being here today.
    I want to follow up on some of the cyber issues that have 
been raised already in your testimony and by others. Have there 
been any changes to how TRANSCOM writes its contracts with 
private providers or commercial partners to address cyber 
issues?
    General McDew. Absolutely. I am quite proud of our 
acquisition professionals. When we had our cyber contested war 
game, the first in the history of the command after 30 years of 
existence--we have since had two. When cyber came at the top of 
that list of things we ought to be considering, we put cyber 
standards in every one of our contracts. They are not as 
stringent as we want them to be, but we are trying to work with 
industry to bring them along because if we push them too fast 
and too hard without the help of Congress and the national 
standard, I am not sure they will stick with us.
    Senator Shaheen. Are those standards that have been 
developed by TRANSCOM? Are they DOD standards? Are they 
reflected across the Federal Government? Do you know the answer 
to that?
    General McDew. The standard is a NIST [National Institute 
of Standards and Technology] standard. It is a NIST-800 
standard we have adopted.
    Senator Shaheen. Great. Is that consistent with what the 
rest of DOD is doing? Do you know?
    General McDew. I cannot say that all of DOD in all of their 
contracts has that standard in there.
    Senator Shaheen. But it is probably something we should 
strive for.
    General McDew. There should be a standard across the nation 
in the Federal Government of how we are dealing with cyber.
    Senator Shaheen. One of the things you mentioned in your 
testimony last year was that you believed we need a cyber-
related--you called it--bridging of the gap between DOD and the 
rest of the Federal Government. Have you seen any progress on 
that, and can you enunciate what that is?
    General McDew. I have not seen as much progress as I would 
have liked to have seen. However, there has been incremental 
progress. U.S. Cyber Command and DHS [Department of Homeland 
Security], the two entities that are responsible for each side 
of the gap, are completely coordinating and involved. I sit in 
the middle of that gap in a lot of areas that we do not focus 
on. I go back to the defense industrial base. Everybody is 
focused on the defense industrial base. Not everybody is 
focused on all of industry. I deal with a lot of mom and pop 
organizations, single owners, the folks that make our country 
run. They do not have the help and the cyber technical 
expertise to do what they need to do.
    Senator Shaheen. So when there is a question about who is 
complying and who is not, who is in charge of that? One of the 
concerns that I have is that we do not have a singular person 
or entity who is responsible for cyber throughout the Federal 
Government.
    General McDew. So on the civil side, .com, .gov, it would 
be DHS. On the .mil side, it is U.S. Cyber Command.
    Senator Shaheen. If there is a difference for some reason 
around an issue, who resolves that?
    General McDew. I would imagine that it would have to go to 
a cabinet-level discussion because the Cyber Command commander 
is a COCOM [combatant command]--well, about to become a COCOM--
just like me. So he cannot argue with the Department of 
Homeland Security.
    Senator Shaheen. It is my understanding that there have 
been some issues with the European Deterrence Initiative and 
movement of personnel and equipment around Europe. Can you 
describe what those challenges have been and what we need to do 
to address them?
    General McDew. I believe that U.S. European Command [EUCOM] 
and our NATO [North Atlantic Treaty Organization] allies have 
done a very nice job of illuminating some things that we have 
lost track of over the last few decades. When we had 300,000 
soldiers on the European continent, we had a better 
understanding and relationship with the multiple countries that 
would be involved, the border crossing issues, and all of those 
things that you just routinely dealt with because you had a lot 
of people there. Now we are facing some atrophy in that 
understanding. We have been seeing changes in how the Europeans 
themselves deal with transportation across the continent. So 
all of that is compelled us to say that we need to put more 
focus in that area, and EUCOM is doing a nice job of that.
    Senator Shaheen. So the issue has not been so much the 
transportation capacity. It has been around the coordination of 
how we move people and equipment?
    General McDew. A little bit of both. So many of the things 
that used to be government-owned are contracted out in Europe, 
as well as in our country. So you have got multiple contractors 
now where it might have been a government-owned entity before 
at some point. You have got different rail gauges in one side 
of Europe to another. All of those things are a bit more 
complicated because we do not have the forces in the theater 
that actually just make that much smoother.
    Senator Shaheen. How important have our allies been in 
helping us address some of those issues?
    General McDew. One of the reasons that we are as good as we 
are is we have some wonderful allies in some wonderful places. 
We have got to continue, as the National Security Strategy 
says, by, with, and through our allies and partners, and they 
have been exceptional.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. I would like to 
thank the chairman for bringing up the importance of corn as a 
food source and also recognizing the availability of our 
farmers to produce enough to not only produce food but energy 
as well. It does a great thing when it comes to the petroleum 
produced in your State because when added to petroleum, it 
actually improves petroleum. So I appreciate the opportunity to 
bring that up again today, Mr. Chairman.
    General McDew, first of all, thank you for your service. I 
most certainly appreciated the time that you spent with us 
ensuring some of the concerns that you have expressed here 
today publicly. Let me just work through a couple of items that 
I think I would like to flesh out just a little bit.
    We have heard from GAO [Government Accountability Office] 
and others that decisions about transportation infrastructure 
such as ports and equipment have struggled because of the lack 
of prioritization by the services and the lack of visibility to 
TRANSCOM and the larger community of transportation 
professionals where they may be existing issues.
    To your knowledge, is DOD working to establish some sort of 
internal capability to expose capability gaps and funding needs 
for transportation infrastructure?
    General McDew. Senator, DOD is working on and continues to 
work every year on prioritizing how we spend our money to get 
the best use of every taxpayer dollar that we get. We have been 
very blessed to get the amount of money we have gotten 
particularly for the next couple years of a budget cycle. But 
when the services go and decide that they have to--and they 
balance their budget every year. But when they balance it under 
constraint and the fact that it is not always delivered on 
time, that means that a service chief and the service secretary 
has to make a decision on what priorities get funded. When they 
make those, sometimes logistics falls at the end and the bottom 
of that priority list.
    I fully understand having to have a kinetic effect, but I 
am parochially interested in the fact that our ability to 
project that power is what makes us the world's last super 
power.
    I think the priorities that are established are as about as 
good as they can get. What I would like to get is more emphasis 
on kinetic. Also it has to have projection.
    Senator Rounds. I think I was fortunate to accompany the 
chairman on a CODEL [Congressional Delegation] earlier this 
year where we went into the Pacific region. Clearly, the 
distances there are critical. As we have said, if we have to 
fight a war, we want to do it away from our shores. We fight 
away. We do not fight at home. That means that in order to get 
there, we have got to have your operation be as successful as 
possible. It has got to be efficient, and it has got to have 
the means to not only get people there and get them home safely 
but to resupply them while they are there as well.
    I am just curious. You have talked about cyber and about 
the need to continually improve the cybersecurity that we have 
got right now.
    There has been a little discussion today about where you 
believe we are at today. Can you share how serious the cyber 
threat is to your command? Can you give us some examples in 
this open setting about how serious the threats are that are 
out there today?
    General McDew. Senator, I believe it is serious enough for 
me to challenge one thing you just said, and I try not to 
challenge a Senator in public testimony. But you talked about 
us fighting away games versus fighting on our home field. I 
believe in the cyber domain we are fighting on our home field 
right now. That is how serious I think it is. I believe every 
single day in both the information space and the cyber space, 
we are fighting right now, and our contested environment is 
actually inside the continental United States.
    Senator Rounds. I think that is well taken, and I would 
agree with you. But I think sometimes we have a tough time 
publicly being able to discuss how serious that threat is. 
Assuming that we are actually fighting it right now at home, is 
this something that happens once in a while? Is this something 
that happens occasionally? Is this a case of where you are 
concerned about somebody checking to see whether or not they 
can get into your plans? Or how deep is the threat? Just for 
the public, how deep is the threat to our ability to actually 
wage war and keep the kinetic war off of our home borders?
    General McDew. The American public needs to understand how 
advanced the cyber threat has become, so advanced that an 
adversary can every day--and I believe that every single day 
across this country an adversary or potential adversary is 
probing us to see how we operate, where our most important data 
resides, and what triggers they can use to stay short of armed 
conflict. Nobody right now wants to take on the United States 
military head to head. So why would they?
    Senator Rounds. One last thought, Mr. Chairman, if I could. 
The point I guess I would make is this just is not the peer 
adversaries looking at our military operations. They are 
looking at the soft underbelly, which is our non-defense but 
critically important resources that we rely on to move our men 
and women and our equipment from our shores to any place in the 
world. It is the civilian side that they are also looking at as 
well.
    General McDew. Absolutely. I would like to point to the 
fact that we have a National Security Strategy. Many people 
believe that it is actually a national DOD strategy. It is the 
nation that most of our big adversaries and small adversaries 
will try to attack. I do not think they will actually try to go 
after, say, a United States Pacific Command [PACOM] or a 
European Command when they could easily get into the United 
States of America.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    First, General, by the power vested in me, I want to bestow 
upon you the rank of honorary Maine citizen. I know that you 
started your career I believe and not only that in Aroostook 
County, which is a particular honor. I want to acknowledge that 
and delighted to have you here today.
    I consider your command one of the most important, if not 
the most important, in all of the commands that we have because 
without you, none of the combatant commands can function. On 
July 2nd, 1863, the 15th Alabama was charged with coming up 
Little Round Top and dislodging the 20th Maine. Joshua 
Chamberlain gets a great deal of the credit and should for the 
leadership that day that he displayed. But a key element in 
that engagement was that the Alabamans did not have water. 
Their canteens were empty. They had marched 20 miles on a very 
hot day, and the fact that they did not have water and were 
exhausted was a factor in what happened, which turned American 
history at that moment. I think it exemplifies how important 
what you do is--it does not get the headlines or the credit, 
but what you are doing in supplying both people and materiel is 
so critical.
    Here is one of the things that concerns me. A great deal of 
your capability is in the private sector, and you are given the 
responsibility without full authority because you cannot tell 
Delta Airlines or a shipping line exactly what to do. Do you 
feel that we are sufficiently wedded, that the contracts are 
strong enough that the responsibilities are being met in the 
private sector that will allow you to meet your obligations in 
a time of conflict?
    General McDew. First, Senator, I duly accept the honor of 
being an honorary Maine citizen. My daughter was born in Maine 
in Aroostook County in lovely downtown Limestone. She has a 007 
Social Security number, which I just gave out some PII 
[Personal Identifying Information] on her.
    [Laughter.]
    General McDew. But that double 0 means a lot to us, and we 
spent 5 and a half years and six lovely winters in upper Maine.
    Logistics, as you said--and the folks that are watching 
this back in the cornfields of Illinois are quite proud of the 
fact that we do things for other people and we take great pride 
in it. It is like oxygen. When you have it, you do not think 
about it; when you do not have it, it is all you can think 
about.
    The contracts are not as strong as I would like them to be. 
I do not believe that all of our vendors across the country 
fully understand the threat they are under, nor do they have 
necessarily the capabilities. We are trying to strengthen our 
contracts through relationships and bringing our commercial 
partners along with us. I call them my fourth component. I am 
just as interested in their readiness and their viability as I 
am the other military components I have. So we try to bring 
them along with us and educate them as well.
    Senator King. I hope that you will be very tough on your 
partners in these situations because my sense is from dozens of 
hearings here both in this committee and others that the 
private sector is not fully cognizant of the threat that they 
are under, and we do not want to find that out in a time of 
crisis.
    The other thing that has changed in your situation is that 
we have been operating essentially in an uncontested 
environment for 2 or 3 decades. I understand you did a war 
game, a contested environment war game, recently. Insofar as 
you can share in this setting what you learned from that 
because now the whole National Defense Strategy is shifting 
toward peer competitors, and how does this play out in your 
strategy and capabilities?
    General McDew. Our big revelation, Senator, was that cyber 
is in fact a bigger problem than we had thought before and that 
we had to do some things to secure our networks better, which 
they are pretty secure, but also provide ourselves a level of 
resilience.
    The biggest takeaway for me as a warfighting combatant 
commander is the fact that all of our exercises to this point 
had assumed no loss of any logistics capability, like the enemy 
would not target it and so we did not have to think about it. 
Some of the numbers that were relied on to say this is the 
requirement assumed no attrition of the force. Attrition is 
everything from kinetic effects to the lack of maintenance and 
reliability.
    Senator King. But if we are dealing with a peer competitor 
who has submarines and underwater drones and aircraft, that is 
a whole different calculation.
    General McDew. It is and it is generational. So go back to 
World War II. We had that lesson learned. We have forgotten it.
    Senator King. I take it that we are now trying to play 
catch-up in terms of our capabilities to operate in a contested 
environment.
    General McDew. We are actually trying to catch up on what 
this new contested environment looks like. Before, we always 
thought we were in either peace or war, and the gap between the 
two is about the gap between my hands now. We now realize there 
is a bigger gap in that space. What is in that space is the 
difference between being at peace one day and the nation 
deciding to go to war. The last time we decided to go to war as 
a nation and the entire nation was behind it was 1942 in 
Romania. That space in the middle is not an easy space to live 
in, and we live in it every day and it is contested.
    Senator King. Thank you, General. Thank you again for the 
work that you are doing. I know that we are very cognizant of 
how important it is. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, General McDew, for your service, for your hard 
work here.
    The U.S. military is one of the largest consumers of fuel, 
and TRANSCOM's operations in particular are highly fuel-
dependent. According to the U.S. Information Administration, 
the price of crude oil has been on the rise for more than 2 
years now.
    So let me ask, General, what impact does the rising price 
of fuel have on TRANSCOM's budget?
    General McDew. Obviously, amongst the large consumers of 
fuel, we are the largest, I believe, in the Department of 
Defense. So every time the price of fuel goes up, that 
increases the amount of money we must spend to do our 
operation.
    Senator Warren. Right. I take it it is large enough that it 
has a real impact on your budget. That is what I am really 
asking.
    General McDew. It does. I am also blessed enough to have a 
budget that is a little different than everybody else's. 
However, the services' budgets are the ones that are more 
directly impacted.
    Senator Warren. So in your prepared testimony, you discuss 
the current stress on our logistics fleet, both air and sea. 
DOD has been working for years on efforts to reduce fuel 
consumption and incorporate alternate fuels. In my home State 
of Massachusetts, for example, the Army scientists at the 
Natick Laboratory have been experimenting with new, more energy 
efficient shelters in base camps with a goal of reducing fuel 
demand for the deployed Army by about 25 percent. Would a 25 
percent reduction in fuel consumption by our deployed forces 
help mitigate some of the stress on your command and the 
Defense Logistics Agency?
    General McDew. Yes, Senator, it would.
    Senator Warren. So that would be a helpful direction. Good.
    You know, we know that transporting fuel to our forward 
deployed forces in combat zones is expensive and dangerous even 
when we have full control of the skies and the shipping lanes. 
But as Senator Inhofe said earlier, that is not guaranteed in 
the future.
    The new defense strategy says that DOD must be prepared to 
fight a high-end adversary. That guidance applies not only to 
the tip of the spear but also to your ability to supply the 
logistics chain our deployed servicemembers rely on over time.
    So let me ask this one, General. Would it be challenging 
for TRANSCOM and the Defense Logistics Agency to refuel assets 
and meet deployed energy needs in an environment where we did 
not have air or sea supremacy?
    General McDew. Everything gets more challenged when we do 
not have domain dominance. That is air, land, sea, and cyber 
and space.
    Senator Warren. Thank you.
    Reducing use of our fuel and exploring renewable 
alternatives is not just about the environment. It improves 
mission effectiveness and it saves money that we can use to 
reinvest in the kinds of capabilities that you need. In a 
future combat situation like the ones the defense strategy 
describes, it is going to be an operational necessity. I think 
we need to get ahead of this now while we can. If we wait until 
our resupply lines are under threat, it is going to be too 
late.
    So I appreciate your good work in this area, General. Thank 
you.
    General McDew. Senator, if I can just add one more thing.
    Senator Warren. Please.
    General McDew. The fact that cyber is such a warfighting 
domain now, we are under threat right now.
    Senator Warren. A fair point. So all the more about the 
urgency of this moment, and we have got to make these changes. 
Thank you. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Warren. Thank you, Senator Warren.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Nice to see you again, General. Thank you for your work.
    You mentioned that the cyber threat is one of your major 
concerns and that the contested environment is inside the U.S. 
You also said that our adversaries will not go after PACOM or 
European Command but that they would get into the U.S. Can you 
talk a little bit more about what you mean by they are going to 
get inside the U.S. and what can we do to counter them getting 
inside the U.S., as you put it?
    General McDew. I probably misspoke, Senator. A potential 
adversary will always fight head on with the fighting force. 
However, what we have been seeing over time is that the 
information warfare space and the cyber warfare space does not 
have the geographic boundaries that we once thought of. So 
PACOM geographic boundary or CENTCOM [Central Command] 
geographic boundary is not as interesting to a cyber or an 
information warfare officer. So they will go to where they can 
go. So the United States of America, without a strong cyber 
standard or without us debating the information warfare space, 
means that it is a potential target for a potential adversary.
    Senator Hirono. So can you give a concrete example of the 
kind of vulnerability that we have? You mentioned that we have 
a National Security Strategy, which should include a cyber 
strategy, but are you saying that it is not implemented? It is 
not robust enough for your comfort?
    General McDew. No, it is really not.
    I visited Estonia last fall. Estonia in 2007 was taken down 
by a cyber threat, took to their knees, and they changed their 
entire perspective as a country on what the cyber threat means 
to them and their survival as a country. And so they put coding 
in elementary schools because they thought the threat was 
significant enough.
    I am not sure if we have gotten to a point that we believe 
that something that we can do as a nation would strengthen our 
ability to protect ourselves from this new threat. It is a new 
threat. And so the specifics would be I may be a bit paranoid, 
but when I see an airline company's reservation system go down, 
I do not immediately think that it is just a problem part. I 
think is that an actor potentially probing. If I see a rail 
switch not work, I also want to make sure that it is not a 
cyber problem, and it could be just mechanical. But we have all 
got to think about how do we protect ourselves ahead of the 
investigation after a problem happens.
    Senator Hirono. So what I get from your response is that we 
certainly are not prepared as a nation to counter effectively 
all of the different ways that particularly our infrastructure 
can be vulnerable to cyber attacks. This is why we have a Cyber 
Command [CYBERCOM], and there is a lot of emphasis in this 
committee, as well as other committees, on our cyber 
vulnerabilities. I can see where we need more. What I would 
like to see is more of a whole-of-government kind of approach 
to what we can do regarding the cyber issue, and I do not think 
we have that.
    In your testimony, you stated that the maritime security 
program provides an intermodal logistic capability outside of 
the DOD portfolio that would be too expensive to replicate. Can 
you describe the challenge as to the TRANSCOM mission if you 
did not have this program?
    General McDew. So the maritime security program provides 
about 60 U.S.-flagged ships with U.S. mariners on board to do 
our needs and to potentially take this nation to war. Without 
that stipend paid to those companies, I believe that many of 
them might cease to exist as U.S.-flagged companies, and that 
has been something we have been doing for a number of years to 
assure that access to that capability and capacity.
    Senator Hirono. You also indicated the number of U.S.-
flagged ships are also decreasing, have decreased over time, 
and that you also have concerns about whether we have a labor 
pool of U.S. personnel that can staff these ships. So this is a 
double-edged problem, and what are we doing to counter these 
problems?
    General McDew. Similar to the CYBERCOM issue that you 
brought up--so USCYBERCOM cannot defend the entire nation. It 
does not have the authorities to do so. I personally cannot 
change all the things that need to probably be changed. I am 
not sure where the young men and women who grew up in my day 
who wanted to be mariners and truckers and pilots are because 
we are seeing a decline in a lot of those. I am not sure what 
all of the forces that are in play to have 1,288 ships flying 
the U.S. flag in 1950 dwindle down to 88 ships today. I am not 
sure of all the forces. But the MSP [Maritime Security Program] 
program allows 60 of them to keep their U.S. flag and to stay 
with us.
    Senator Hirono. Mr. Chairman, if I could just ask one 
follow-up question. Is it your preference that you have access 
to U.S.-flagged U.S.-crewed ships as opposed to, at some point, 
having to resort to internationally owned ships?
    General McDew. It is not a decision that I made. It is a 
decision the country made that we will move our U.S. forces on 
U.S.-flagged and U.S.-built ships--U.S.-flagged ships. If the 
nation wants to change that, that is a debate the nation can 
have, but I right now will comply with what I am told to do.
    Senator Hirono. Well, as a strong supporter of the Jones 
Act, that is kind of where we should be, I would say.
    Thank you very much.
    Senator Inhofe. Thank you, Senator Hirono.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    General, good morning. Thank you for being before the 
committee.
    In your last war games exercise, what vulnerabilities were 
exposed that we should think about addressing, and in what 
order would you address those exposures?
    General McDew. It was a grand flash of the obvious after we 
did it. The importance of doing it was it identified several 
areas that we need to focus on internal to U.S. Transportation 
Command and I would say possibly across the nation because our 
problems are actually not just our problems. They are actually 
national problems.
    The first and foremost is cyber. Cyber is, I believe, the 
challenge of our time. It is the one that will define this 
period of time in our history more than just about any other 
challenge, and it brings potentially the fight that we would 
have on other people's shores--it brings it here.
    The other for us is attrition. The fact that logistics 
capabilities and mobility capabilities have not been counted on 
to attrit in a fight is something that we cannot probably have 
as a reality going forward.
    Mobilization. Just about every option I give to the nation 
today requires me to mobilize the Reserve and Guard. I do not 
think we formulated them, resourced them to be the operational 
force that they have become over the last 3 decades.
    That is just a few of those things, Senator.
    Senator Scott. Let us take a little more time on the cyber 
exposure. I understand that 90 percent of your command's 
mission takes place over unclassified communication networks. I 
think you said in your written statement establishing secure IT 
[information technology] infrastructure for our commercial 
industry must be a priority.
    Can you walk me through the complex exposures and 
vulnerabilities that you have when 90 percent of it happens in 
a commercial environment?
    General McDew. Senator, what I have been learning over time 
is there are many companies out there who understand how 
vulnerable they are in the cyber space. Because I bridge the 
gap between the authorities that are invested in U.S. Cyber 
Command and the authorities inherent in the Department of 
Homeland Security to protect respectively the .com and .mil 
different domains--because I live in that space, we have had a 
series of cyber roundtables as a result of our contested 
environment war game where we are inviting academics, 
commercial industry, and some hackers to help us understand the 
problem better. In one of those roundtables in one of the 
panels, a series of security officers in corporate America said 
that they cannot get in to see the board or can they get in to 
see the CEO to talk about the problem. That is not every 
company, but it is at least a few that do not understand the 
severity of the problem. Even if they understand it 
intellectually, they may not have all the tools required to 
fully understand the sophistication of today's threat.
    Senator Scott. On the attrition aspect, there is a 
likelihood that during transportation you lose something. Is 
that pretty simple?
    General McDew. I think that is pretty simply stated and 
quite true.
    Senator Scott. On the mobilization, can you expound upon 
that for a minute?
    General McDew. Absolutely. So when I was a youngster 150 
years ago coming in to fly airplanes for the very first time, 
the majority--and I will use one example and it can apply to 
all of the logistics force. The KC-135 was heavily invested in 
the active duty. Strategic Air Command existed. And so 80 
percent of those airplanes were in active duty units. 
Transition to today, and about 60 to 65 percent of that is now 
in the Guard or Reserve. It has nothing to do about my trust 
and confidence in their ability to do the mission. It has 
everything to do with how available they are.
    With all of that shift in the Guard and Reserve, a high-end 
fight says we must mobilize. If our history says that we would 
immediately decide to go to war, immediately decide to 
mobilize, that is fine. If history shows that we will live in 
this space between peace and war for a period of time, I am 
worried that I will have access to those folks that I need when 
I need them.
    Senator Scott. Chances are pretty high we are going to live 
in that purgatory for a lot longer than we are comfortable. 
Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Scott.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General, good to see you, and thanks for all you are doing.
    I just want to ask you a very--just off the top--your 
command does so much and it is so critical to the warfighter, 
to any kind of military operation. I think it is unsung in many 
ways how much work you do and how we cannot function as a U.S. 
military without you operating effectively, efficiently. What 
is the top issue that keeps you up at night right now, General, 
and the biggest challenge?
    General McDew. Well, first, let me thank you for 
acknowledging the great men and women who live in the 
cornfields of Illinois who are watching you right now in watch 
parties all across the command.
    Senator Sullivan. They do a great job, and I think they are 
unsung.
    General McDew. Then you just pumped me up because all of my 
self-esteem is derived from how good they are because I do not 
actually do much anymore.
    Our number one threat, Senator, is cyber and how well we 
are able to protect ourselves and protect my fourth component, 
which is commercial industry, in the cyber domain.
    Senator Sullivan. And so you have some control over the 
cyber domain as it relates to the military, but it is much less 
control in the commercial realm. Is that not correct?
    General McDew. I have no personal control in the cyber 
domain in the military. U.S. Cyber Command does and they do an 
effective job of that. I have zero control except through 
contracting mechanisms with the commercial industry.
    Senator Sullivan. I want to ask a question relating to the 
great State of Alaska. You know, with the National Defense 
Strategy out, which I strongly support the kind of shift in 
focus--I think most Senators do, by the way--to kind of a great 
power competition and some of our national security challenges, 
whether it is Russia, North Korea, China. My State actually 
happens to be close to all of those countries. And as you know, 
we are the hub air combat power for the Asia-Pacific and the 
Arctic with soon to have over 100 fifth generation fighters 
based in Alaska, and all the C-17's and C-130's and F-16's and 
a whole host of important military assets, including 
expeditionary forces that can get to North Korea or the Korean 
Peninsula or anywhere else in a moment's notice.
    I know that you--and I have talked to the Secretary of the 
Air Force and General Goldfein a lot about this--are looking 
soon at the OCONUS [outside the continental United States] 
decision with regard to KC-46's and the tanker refueling 
deployments. I have been trying to make the case that it makes 
a lot of strategic sense not just because of the assets that 
are in there but every airplane that flies over the Asia-
Pacific from the Lower 48 actually flies over Alaska.
    Can you give us a sense of where we are in the OCONUS KC-46 
deployments and give me assurances that Alaska's strategic 
location--as you know, Billy Mitchell, the father of the Air 
Force, called it the most strategic place in the world--is in 
strong consideration for those OCONUS deployments?
    General McDew. I will acknowledge that Alaska is 
strategically important. Although I wear this wonderful blue 
uniform and I am an airman and have been a proud airman for 35, 
nearly 36 years, I am not currently in the Air Force right now. 
So I cannot talk to you about the choices the Secretary of the 
Air Force and the Chief of Staff of the Air Force made about 
the actual basing of those assets.
    The thing I would like to highlight, though, is as the 
combatant commander who has combatant command authority over 
those assets in a war fight, our ability to set, balance, and 
use the globe entirely is going to be important.
    Senator Sullivan. Thank you.
    One final question, General. I am sorry I missed my 
colleague, Senator Scott's question but I think it relates to 
that. But on the integration of Reserves and Guard and active 
forces with regard to your command, how important is that, and 
how important is it that we continue to make sure that our 
Reserve and Guard components are fully trained, fully funded, 
fully resourced to make sure that when called upon they can do 
the mission that is so important to your command?
    General McDew. My command would cease to exist and operate 
the way it does today without the Reserve component. A good 
portion of my force is in the Reserve component across all the 
services, and my Army component--I am not sure of the 
percentage, but the plurality is in the Reserve component. The 
air component--the majority is in the Reserve component. I am 
very interested in both their readiness and training and 
resourcing, and it is not the way it should be based on how 
often we will use them and how much we will be able to rely on 
them.
    Senator Sullivan. Do continuing resolutions [CRs] help or 
hurt the readiness of those forces?
    General McDew. CR's are probably the most disastrous thing 
that we could have happen to a military force that is trying 
to, one, recapitalize and maintain a level of readiness to 
fight today's high-end fight.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Welcome and thank you for your service.
    As you know, the United States has continued to reassure 
our partners in Europe, our NATO allies, of America's 
dedication to that region in the face of Russia's continuing 
belligerent and aggressive actions. TRANSCOM continues to 
support the services of our presence in Europe, including 
aircraft, tanks, personnel, so that we do joint exercises and 
we demonstrate a joint resolve.
    I would like to know what capabilities Russia has to 
interfere with our logistics pipeline in Europe. Should we be 
more concerned about the physical obstruction and manipulation 
that Russia can present, the potential destruction of our 
pipeline, including the cyber realm but in other domains as 
well?
    General McDew. Senator, because our contested environment 
war game allowed us to see more clearly the problem set and how 
contested the world is, we see access as being one of those 
areas in the physical domain. If we look around the globe and 
particularly the European continent, we are going to have to be 
able to use as many ports of entry, as many lines of 
communication as possible if we were to find ourselves in a 
potential fight in that theater. All of those are not as 
assured as they once were, say, 20-30 years ago. So Russia has 
levers of influence in that domain that we probably have not 
considered for a number of decades.
    Senator Blumenthal. As you know--and I think you made 
reference to it--compared to the 300,000 troops in the Cold 
War, we have about 64,000 now. They could be used in crisis. 
The European Union is also seeking to build European defense 
capabilities. Do you think that Europe is contributing or doing 
enough?
    General McDew. There are several ways to go down this path, 
and I am going to choose one. One is I have great faith and 
confidence that one of the reasons that America is as respected 
as we are around the globe is our partnerships and allies. The 
things that we can do today with partners and allies is 
something that some other great powers in the world just do not 
have. The fact that we have an alliance like NATO, the fact 
that we have partners that are willing to be with us and 
contribute what they can when they can is important. Many of 
them can contribute more, and I believe the administration is 
trying very hard to get them to that level of contribution. But 
I will tell you there are some potential adversaries out there 
that do not have any partners and allies, and I would go to war 
with us anytime.
    Senator Blumenthal. You would go to war with our allies.
    General McDew. With our allies anytime.
    Senator Blumenthal. Do you think they can and should do 
more?
    General McDew. I believe that every country ought to do as 
much as they can. I think sometimes our asks are not as 
specific as they need to be in today's environment. For 
example, Estonia has some of the greatest cyber experts on the 
planet. Maybe that is their contribution. Maybe they do not 
have exquisite planes or exquisite ships, but they have the 
cyber capability. So contribute where you can.
    Senator Blumenthal. And some of their contributions are in 
kind, not necessarily monetary.
    General McDew. Correct.
    Senator Blumenthal. So they are more difficult to measure. 
They still are material.
    General McDew. They are. However, there are some countries 
that can provide monetary aid at a higher level than they are 
and they ought to.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Blumenthal.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    General, good morning.
    I have the privilege, along with Senator Rounds, of heading 
the Cyber Subcommittee. He is our chairman. Needless to say, I 
think that we are very vulnerable in cyber. What authorities do 
you need to help the private sector improve their cyber 
defenses before we end up having a major disruption?
    General McDew. Senator, I do agree with you that cyber is 
one of the challenges of our time, probably the greatest 
challenge of this generation. In that regard, we need a 
national cyber standard. We need to decide where the low 
watermark is for the country and get at least everybody to that 
direction.
    I believe the other help we need is to understand this 
generation, as they grow up as high-end users of cyber, 
understand the high-end vulnerabilities of cyber. We taught 
them at one point in their lives to cough into their sleeves 
and to wash their hands when they are sick, but we have not 
taught them the dangers that face them in the cyber realm.
    Senator Nelson. What is it going to take? Is it going to 
take a major cyber attack and therefore a shutdown of American 
industry for the private sector to really realize what is 
happening?
    General McDew. Senator, I hope not. I still believe in 
America and I still believe in America's ingenuity. I still 
believe that we will eventually get it right. However, our 
history shows that getting our attention sometimes is difficult 
and painful, and sometimes it takes an economic crisis or 
sometimes it takes a financial ruin for some companies to get 
kind of religion on this one.
    Senator Nelson. Over in the Commerce Committee, General, we 
are, hopefully, going to be able to pass an FAA [Federal 
Aviation Administration] bill, and since your Transportation 
Command certainly involves a lot of the use of the airspace, I 
think we have pretty well put to rest the fact that there was 
an effort by the airlines to want to privatize air traffic 
control. I think that is pretty much over and done with. Do you 
want to do any comment about that?
    General McDew. No, Senator.
    [Laughter.]
    Senator Nelson. Well, just so the record is complete, I 
will say that for several years now, up until just recently, it 
was the position of the Department of Defense, as articulated 
by the Secretary of Defense's Office, that since they had about 
20 percent of the airspace, they did not want to privatize air 
traffic control. So I will just leave it at that.
    The KC-135's are really doing a workhorse job for you. Are 
they not, General?
    General McDew. They are. They have been for 60-plus years, 
Senator.
    Senator Nelson. But now the delays on the KC-46 are putting 
additional pressure on the 135's. Are they not?
    General McDew. There are actually a number of factors 
working on those things besides age. I would love to be as 
young as some of them, but I am not. The other, maintenance 
capability and the fact that the parts are not as readily 
available as possible--but those great young men and women, 
particularly the ones who maintain them, are doing a great job.
    Senator Nelson. Well, has this impacted your readiness?
    General McDew. It has. And a series of continuing 
resolutions do not help the fact that the Air Force has had to 
make some tough decisions on what they can fund and what they 
cannot fund, when they can fund those things. It has taken a 
slight dip in readiness in the KC-135 fleet.
    Senator Nelson. When is it going to become apparent that it 
is a significant issue that is going to have to be confronted 
by the Air Force?
    General McDew. I believe the Air Force understands the 
nature of the problem. They have also had a problem with being 
able to fund all the things that they need to fund and to be 
able to do it on a regular recurring basis. I am thankful for 
the budgets we have. I am hoping that they continue at least to 
be on a regularly scheduled period of time.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Nelson.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    General, welcome. Thank you for being here.
    In your testimony today, you explain that in today's 
operational environment, mobility forces may be required to 
transport and sustain U.S. and allied forces while under 
persistent multi-domain attack, including deception and data 
manipulation in cyberspace.
    In your opinion, which TRANSCOM assets are most vulnerable 
in this contested environment?
    General McDew. This may surprise you a little bit when I 
talk about TRANSCOM assets. The ones most vulnerable are the 
ones I do not own, and that is commercial industry. We have a 
strong cyber defense standard inside the Department of Defense, 
but outside the Department of Defense, I am not sure it reaches 
all of American citizens and all of American industry the way 
it ought to.
    Senator Cruz. If those assets are compromised, how would 
that impact your ability to perform the task given to you?
    General McDew. It would be disastrous because 90 percent of 
our ability to take troops to war is in the commercial 
industry. Fourty percent of the cargo capability is in the 
commercial industry. It would be disastrous.
    Senator Cruz. So from your perspective, are there aspects 
in your budget that are focused on dealing with the 
vulnerability on the commercial side?
    General McDew. Not at all, Senator.
    Senator Cruz. Let us shift. In your testimony, you also 
state that volatile geopolitics, shifting demographics, and 
emerging technology have all changed the character of war, the 
way we fight, and they are changing where wars are fought and 
who is fighting them. These new dynamics have a potential to 
bring a dramatic shift from the wars in the Middle East that 
have shaped much of the current force's expertise and 
experience.
    How have you begun to shape the training and the mindset of 
TRANSCOM forces to prepare them for a war fought under these 
new conditions?
    General McDew. Senator, we have not been perfect to date, 
but what we are purposely good at is understanding where our 
problems are now. Our contested environment war game that we 
had 2 years ago, followed up with one last year, has 
illuminated a number of the problem areas that we will have so 
that we have problem statements and solutions that we are 
trying to go after in each of them. I do not control all the 
areas because in my components that do the business of this 
nation projecting power to go to war, a good portion of it is 
outside of my control. So we are using contracting mechanisms 
to bring people up to a certain standard in some of those 
areas, and then we are continually having war games and 
exercises where we invite not just the services but commercial 
industry and academia to participate.
    Senator Cruz. Now, you just mentioned the contested 
environment war games. How are you measuring success during 
these training events?
    General McDew. Unfortunately, Senator, we are in its 
infancy. Success right now is bringing everybody's knowledge 
level up. Two and a half years ago, we did not have a cyber 
standard in our contracts. We have one now. That is a direct 
result of that level of learning and understanding. If you were 
to come to my headquarters--and the invitation is out there 
now. If you were to come to our headquarters, you would see a 
level of discussion and dialogue and language being used that 
is vastly different from any other combatant command. I am a 
little bit parochial and proud, but I would say that would be 
true.
    Senator Cruz. I understand.
    Have you all been able to take any lessons learned that 
have been operationalized as a result of the war games?
    General McDew. We have. Most of it has been through what we 
have included in our exercises. So all of our exercises now 
assume some level of cyber degradation, every last one of them. 
It may be just at the tabletop level, but it is in every 
exercise. We bake attrition into every one of our exercises and 
everything we discuss, and then, as I said, the contracts all 
have cyber standards in them.
    Senator Cruz. One area that has been a persistent concern 
for me has been our vulnerability in space, and we are seeing 
more of our near-peer competitors targeting space assets. To 
what extent in war games or exercises are you all exercising in 
a space down environment with no satellite support or contact 
whatsoever?
    General McDew. I cannot say that we do it in every 
exercise, but the cyber degradation also has a level of space 
because it is the precision navigation and timing aspect. That 
loss is catastrophic. So we are trying to bake more and more of 
that in every time we have an exercise.
    Senator Cruz. Very good. Thank you, General.
    Senator Inhofe. Thank you, Senator Cruz.
    Senator King, did you have a follow-on question?
    Senator King. Thank you, Mr. Chairman.
    I was struck by your testimony a few minutes ago that we 
went from, I think you said, 1,288 U.S.-flagged ships in 1950 
to 80 today. Is that the correct number? It seems to me that 
really underlines the importance of the MSP program. I never 
thought of it that way before, but it is kind of an insurance 
policy. Should we be investing more heavily in that program in 
order to be sure that 80 does not become 20?
    General McDew. Right now--I love the way you stated that. 
It is an insurance policy, and I think it is a very cheap 
insurance policy. If we were to have those 60 ships in our own 
yards, I would tell you it would cost you a lot more than $300 
million, and that is all it costs us right now. It is an 
effective policy.
    In our next set of mobility capability study, we will look 
at how much maritime capacity do we need and is it sufficient. 
I will be able to come back to you with that answer.
    Senator King. I hope you will because I would hate to low 
ball this and end up with a lack of capacity again in a crisis 
and say, gee, why did we not spend a relatively small amount 
compared with trying to build that fleet ourselves in-house. So 
I hope you will track that, and perhaps in your presentation 
for next year's budget, that is a factor.
    General McDew. That study is due in September of this year 
to the Senate.
    Senator King. Good. Thank you very much.
    Senator Inhofe. Thank you, Senator King.
    Thank you very much, General McDew. We were commenting how 
excellent your answers have been during this hearing, and we 
appreciate that very much.
    We are adjourned.
    [Whereupon, at 10:53 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Roger Wicker
                       additional service to guam
    1. Senator Wicker. General McDew, the United States has a 
significant and growing military presence on Guam. The United States 
military's footprint includes Andersen Air Force Base, Naval Base Guam, 
and about 7,000 servicemembers. Given its distance from Hawaii and the 
United States mainland, it is important that Guam has access to 
adequate container-fleet shipping. In 2015, a second shipping carrier 
began providing service to Guam from both Asia and the West Coast of 
the United States. What have been the implications of adding more 
shipping capacity from TRANSCOM's perspective?
    General McDew. From a USTRANSCOM perspective, having additional 
options to provide global mobility solutions during a contingency is 
highly desirable, regardless of the theater of operations. The vast 
distances between land masses in the U.S. Indo-Pacific Command's 
(USINDOPACOM) area of responsibility (AOR), make a robust sealift 
capability particularly critical to the support of operations in the 
USINDOPACOM AOR. The addition of a second shipping carrier providing 
container service to Guam from Asia and the West Coast of the United 
States strengthens our commercial partnerships and enhances the 
resiliency of our lines of communication to this critical logistics 
hub. The additional capacity provides redundancy, flexibility, and 
additional sustainment capability that increases USTRANSCOM's ability 
to support USINDOPACOM humanitarian and contingency operations.

              maritime security program importance to guam
    2. Senator Wicker. General McDew, according to your written 
testimony, the Maritime Security Program (MSP) ``provides an intermodal 
and logistics capability outside of the DOD portfolio that would be 
cost prohibitive to replicate.'' Guam is served by an MSP container 
carrier. What is the military significant of having Guam served by 
shipping carrier that participates in MSP?
    General McDew. Whether it's Guam other locations in the 
USINDOPACOM's AOR, or other locations around the globe, in the event of 
a major contingency, the Department of Defense will rely on the 
commercial capacity provided by the international carriers 
participating in the MSP and the domestic (Jones Act) carriers to meet 
sealift mission requirements. USTRANSCOM needs as many options as 
possible to service theater locations, in terms of lines of 
communications and the number of available carriers.
    However, the Fiscal Year 2018 National Defense Authorization Act 
(Public Law 115-91), changed title 46, chapter 531 of the U.S. Code, 
prohibiting certain MSP participants to operate in mixed foreign and 
domestic trade, once they renew their MSP operating agreements. As a 
result, this option to service Guam will no longer be available in the 
near future.
                               __________
               Questions Submitted by Senator Mike Rounds
               operation control of assets in pacom/eucom
    3. Senator Rounds. General McDew, when we met in my office some 
months ago, you commented that statutory language prohibits TRANSCOM 
from operational control of KC-135s and C-130s stationed in the Pacific 
and European theaters. What is the state of play with this issue?
    General McDew. USTRANSCOM will address questions surrounding 
operational control of mobility assets as we execute the Chairman's 
Dynamic Force Employment concept. In the interim, USTRANSCOM 
implemented a strategy of Global Mobility Agile Command and Control 
(GMACC). GMACC enhances command relationships between COCOMs, enabling 
the rapid movement through transfers of tactical control. While not a 
perfect solution, GMACC facilitates movement at the speed of war while 
Dynamic Force Employment continues to take root in the DOD.
                               __________
            Questions Submitted by Senator Claire McCaskill
                         cyber vulnerabilities
    4. Senator McCaskill. General McDew, you testified that TRANSCOM 
began modifying existing Transportation Service Provider contracts to 
mandate compliance with the National Institute of Standards and 
Technology's (NIST) Special Publication 800-171. Has your staff looked 
into the possibility of including provisions in these agreements that 
enable the federal government the right of access to the Transportation 
Service Provider's systems to ensure compliance, and to monitor those 
systems or provide assistance in specific contingencies, such as in 
case of a cyberattack?
    General McDew. When a contractor discovers and reports a cyber 
incident that affects covered contractor information or affects their 
ability to perform operationally critical services, current DOD cyber 
language included at Defense Federal Acquisition Regulation Supplement 
clause 252.204-7012 requires the contractor to allow DOD, upon request, 
access to information or equipment to conduct a forensic analysis and/
or damage assessment. In addition to the Defense Federal Acquisition 
Regulation Supplement, USTRANSCOM's contract language allows for the 
conduct of an on-site review to assist the contractor in evaluating the 
extent of an incident and to share information with the contractor in 
an effort to minimize the impact to both parties. An on-site assessment 
may also be performed if a carrier is having difficulty in achieving 
compliance with NIST 800-171.

    5. Senator McCaskill. General McDew, if you have, what has been 
your findings?
    General McDew. To date, USTRANSCOM has not conducted an on-site 
assessment.

    6. Senator McCaskill. General McDew, if you have not will your 
staff look into this being a possibility and the impact it may have?
    General McDew. This capability is available to utilize should a 
cyber attack threaten USTRANSCOM's mission or impact readiness.
                               __________
              Questions Submitted by Senator Mazie Hirono
                    maritime security program (msp)
    7. Senator Hirono. General McDew, the Maritime Security Program 
(MSP) provides an intermodal and logistics capability outside of the 
DOD portfolio that would otherwise be cost prohibitive to replicate. 
The MSP provides for a fleet of 60 militarily-useful commercial vessels 
operating in international trade. The vessels themselves are obviously 
valuable and essential to mobility planning, but the carriers operating 
under MSP also provide the American citizen crews that man the 
government-owned reserve fleet and a global intermodal logistics 
network that is available to the DOD. There are estimates value these 
ships and networks in the tens of billions of dollars. What are the 
challenges to the TRANSCOM mission if you didn't have the program?
    General McDew. According to the National Security Directive on 
Sealift (NSD-28), ``The U.S. owned commercial ocean carrier industry, 
to the extent it is capable, will be relied upon to provide sealift in 
peace, crisis, and war. This capability will be augmented during crisis 
and war by reserve fleets with national defense features that are not 
available in sufficient number or types in the active U.S. owned 
commercial industry.''
    Without the capabilities provided by U.S. flagged commercial 
industry through the Voluntary Intermodal Sealift Agreement (VISA) and 
the MSP, the DOD would have insufficient capacity to meet requirements 
and would be forced to expand the government-owned (organic) reserve 
fleets to replicate what commercial industry provides, at significant 
cost. Additionally, the organic fleets are manned and operated by 
commercial merchant mariners. Without the commercial manpower provided 
by the VISA and MSP programs, DOD would also be required to create the 
manpower programs (including training, certification and proficiency) 
necessary to operate an expanded organic fleet.

    8. Senator Hirono. What is the value of the MSP carriers' global 
networks to TRANSCOM and its mission?
    General McDew. USTRANSCOM accesses U.S. flag commercial sealift 
capacity through the VISA and the MSP. These critical programs provide 
approximately twenty-five percent of required force deployment capacity 
and are used to transport nearly all sustainment cargo to meet global 
DOD sealift requirements.
    Given the precipitous decline of the U.S. flag internationally 
trading sector from more than 1,200 ships in the early 1950s, to only 
82 today, the MSP's 60 ships and the associated 2,400 highly qualified 
U.S. Merchant Mariners are holding the line against the further loss of 
this capability and its critical support to the Nation.
      energy resilience--fuel and electric supply vulnerabilities
    9. Senator Hirono. General McDew, the committee is aware of 
concerns related to a stressed air refueling fleet, and that attention 
is needed to the air refueling mission. Further, the fuel carried by 
these tankers is critical to conducting missions in the PACOM region. 
Our adversaries pose serious threats in the Indo-Pacific region that 
would disrupt our ability to deliver fuel or electricity in support of 
TRANSCOM's mission. In the region, DOD relies on vulnerable fuel and 
electric supplies to conduct its military operations, where power 
outages on military installations or fuel supply disruptions could 
hinder our ability to conduct critical military operations. What are 
TRANSCOM's main concerns if our adversaries disrupted our fuel supplies 
in the Indo-Pacific region? How would TRANSCOM prepare and respond to 
such a disruption?
    General McDew. USTRANSCOM's main concern, in any disruption of the 
bulk petroleum supply chain in support of the USINDOPACOM AOR, is our 
reduced organic capacity, specifically access to tankers to distribute 
bulk petroleum. The Voluntary Tanker Agreement (VTA) program, which is 
similar to the VISA, provides commercial tankers in a surge. The 
Maritime Administration is working to renew the VTA program to ensure 
more effective commitment of tanker capacity. The VTA is not part of 
MSP, though two product tankers (OVERSEAS SANTORINI and OVERSEAS 
MYKONOS) are in service under the MSP program providing assured access 
to these ships for DOD. USTRANSCOM is working with Maritime 
Administration to identify possible options for increasing the 
availability of militarily useful U.S. flag tankers for assured access 
by DOD.
    Finally, the Mobility Capability Requirement Studies (MCRS) 2018 
will examine the required capacity needed from our commercial partners. 
The study is due to Congress by September 2018.

    10. Senator Hirono. General McDew, based on expected growth in 
military capabilities in the Indo-Pacific region, how is TRANSCOM 
planning for the growing energy demands in the region? Can you provide 
recommendations for the committee to assist you?
    General McDew. USINDOPACOM in collaboration with Joint Staff, 
Defense Logistics Agency Energy and Bulk Petroleum community continues 
to explore solutions in addressing the myriad of complex challenges for 
bulk fuel storage and distribution in the USINDOPACOM AOR. No single 
solution can mitigate theater-wide risks. However, DOD must think in 
terms of risk mitigation options across the Joint Force, commercial 
industry, Service components and DOD Agencies. Some of those options 
are continued support of new capability through the following:
    a.  Research, Development, Test and Evaluation (RDT&E) process
    b.  USN development of modular, adaptive and scalable sea-based 
petroleum discharge system program of record to augment or replace Off 
Shore Petroleum Discharge System capability
    c.  Development of Services' tactical storage and distribution 
system
    One particular Research, Development, Test and Evaluation (RDT&E) 
project I would like to highlight is the Expeditionary End-to-End 
Fueling Concept (E3FC) RDT&E Project. USTRANSCOM, in collaboration with 
the U.S. Navy and U.S. Army Pacific as partners, is funding the E3FC 
project. The goal of the E3FC effort is to demonstrate a service 
interoperable capability that addresses ``end-to-end'' fueling 
requirements from ship-to-shore to inland distribution.
    The E3FC deliverables will be a prototype modular pumping system 
which will reduce risk and inform development of the U.S. Army's Early 
Entry Fluid Distribution System. E3FC will also provide a development 
path for Navy/USMC ship-to-shore technology supporting transformational 
enhancements to improve USTRANSCOM's ability at providing the Combatant 
Commands with premium deployment, distribution, and sustainment.
 energy resilience--strategic importance of red hill for fuel resupply 
                          during contingencies
    11. Senator Hirono. General McDew, the Red Hill Bulk Fuel Storage 
Facility at Joint Base Pearl Harbor is a key component of the DOD's 
operations in the Pacific and Asia, as it provides secure underground 
fuel storage for ships and aircraft. It is of vital strategic 
importance for strategic supplies of fuel for critical mission 
operations. What is the importance of this secure storage facility on 
the reliability and resilience of refueling in the Pacific?
    General McDew. The Red Hill Bulk Fuel storage at Joint Base Pearl 
Harbor-Hickam is critical infrastructure and is a vital strategic node 
in the bulk petroleum supply chain. We are concerned about its age and 
maintenance upkeep. USTRANSCOM, as a voting member on the Defense 
Logistics Agency Energy Installation Planning Review Board influences 
the prioritization of Military Construction, Sustainment Restoration, 
and Modernization projects towards global posture. We seek continued 
support in funding for Red Hill's maintenance and restoration. 
Additionally, there are other storage facilities in the USINDOPACOM AOR 
that are critical to the bulk petroleum supply chain. We will continue 
to explore adversary capabilities and operational requirements in a 
contested environment to ensure storage facilities are at their optimal 
location in terms of risk mitigation and resupply operation.
                         china: south china sea
    12. Senator Hirono. General McDew, Admiral Harris recently 
testified to this committee that China's provocative and destabilizing 
actions in the South China Sea continue unabated. And expressed great 
concern in actions to expand its influence by what appears to be the 
building of forward military outposts, built for the military, 
garrisoned by military forces, and designed to project Chinese military 
power and capability across the breadth of China's disputed South China 
Sea claims. As China continues to expand in the South China Sea, what 
is the main concern associated with its expansion in the region, and 
how will this expansion affect how TRANSCOM conducts its mission?
    General McDew. The unrestricted flow of commercial and military 
surface and air traffic through the South China Sea is critical to 
national security, and the continued placement of advanced long range 
weapons systems and military bases within the South China Sea provides 
China the ability to effectively disrupt the air and sea lanes of 
communications in one of the world's busiest maritime choke points. 
China's continued development of precision long range weapons systems, 
construction of surface fleet combatant vessels, and improvements in 
air refueling capability is enlarging the envelope of People's 
Liberation Army anti-access operations.

    13. Senator Hirono. General McDew, does TRANSCOM have sufficient 
assets to project power and sustain military operations if current sea-
lanes are impeded? What recommendations could you provide to ensure the 
readiness and resilience of our transportation forces to counter this 
threat?
    General McDew. USTRANSCOM has sufficient strategic mobility force 
structure to achieve the objectives of the 2012 National Defense 
Strategy, which at that time assumed uncontested access to ports and 
infrastructure in theater. The 2018 National Defense Strategy asserts 
that every domain is contested--air, land, sea, space, and cyberspace, 
and the DOD can no longer assume uncontested deployments, and must 
prepare for mitigating risk in contested domains. To that end, 
USTRANSCOM and OSD-CAPE, in coordination with the Joint Staff, 
Services, and Combatant Commands are conducting the Mobility 
Capabilities and Requirements Study--2018 (MCRS-18) which will address 
the sufficiency of the mobility force structure to achieve the 
objectives of the 2018 National Defense Strategy which includes 
deployment in contested domains. MCRS-18 will be delivered to Congress 
in September 2018 and we look forward to more dialogue with you, plus 
collaboration with the Joint community in addressing these issues after 
the MCRS-18 findings and recommendations are shared.
     federal and state partnerships (whole-of-government approach)
    14. Senator Hirono. General McDew, TRANSCOM's mission relies on a 
whole-of-government approach with the Department of Transportation 
(DOT), along with other Federal and State agencies to ensure roads, 
rails, and ports are capable of supporting the warfighter's deployment 
and distribution requirements. This is because, the transportation 
infrastructure is not merely a medium for commercial and civilian use, 
but that it is a national strategic asset, critical to moving military 
members, equipment, and supplies in times of crisis. How does the 
TRANSCOM integrate a whole-of-government approach to accomplish its 
mission? And, how are Federal and State partnerships integrated into 
your mission?
    General McDew. The Department of Transportation provides 
representatives on-site in the USTRANSCOM headquarters. These 
representatives are integrated with the USTRANSCOM staff and work 
routinely with the Surface Deployment and Distribution Command's 
Transportation Engineering Agency. The Transportation Engineering 
Agency monitors the strategic health of the national infrastructure--
highways, railroads, and ports--to support military operations. The DOT 
leverages regulations, grants, and matching funds as well as the state 
and municipal partnerships already in place to maintain or upgrade the 
local highways, railroads, and ports. The Transportation Engineering 
Agency coordinates with the DOT to ensure the nation's transportation 
infrastructure adequately meets DOD needs.
    Beyond our work with DOT, much of our interagency activities are 
operationally oriented and coordinated in our Global Operations Center. 
Most support for other agencies occurs through our supporting 
relationships with USNORTHCOM where the preponderance of interagency 
coordination occurs.
                   cyber security: national strategy
    15. Senator Hirono. General McDew, threats in the cyber domain pose 
a serious threat to our decisive logistics advantage. And, this 
challenge is exacerbated by the inadequacy of implementing existing 
cybersecurity standards and the fact that DOD's extensive cyber 
protections do not extend to industry, creating vulnerabilities in our 
cyber security national posture. Although logistics and operations 
planning generally takes place on classified networks, ninety percent 
of military logistics and global movement operations are executed on 
unclassified commercial networks. Similarly, we have seen the lengths 
Russia has gone to disrupt our democracy in United States elections, 
and their use of social media for information operations. As our 
adversaries, such as China and Russia, continue to consolidate and 
integrate their cyber operations, are we losing a competitive advantage 
in cyber space by not doing so as well?
    General McDew. Yes, I believe we can do more to integrate cyber at 
the national level, however I firmly believe that we are not 
disadvantaged against any competitor. USTRANSCOM advocates for and 
supports an integrated, whole-of-government approach to cyber. We are 
already leading the way in partnership with DHS, USCYBERCOM, and other 
federal agencies to leverage expertise collaboratively across the 
government. We are also laying the groundwork to leverage information 
provided to us by our Transportation Service Providers (TSPs). Our goal 
is to reach real-time information sharing across the government and 
with our TSPs to mitigate cyber threats and respond rapidly to emerging 
threats.

    16. Senator Hirono. General McDew, do you believe the U.S. should 
develop a national strategy to consolidate and integrate our cyber 
operations to counter these threats? What is the greatest concern to 
your mission by a lack of national cyber strategy?
    General McDew. Yes, I strongly believe a unified, whole-of-
government approach to securing our nation's cyberspace is greatly 
needed. USTRANSCOM's greatest vulnerabilities lie in the fact that the 
Command operates by leveraging networks that traverse two distinct 
environments--the secure DOD Information Network (DODIN) and the 
unsecure, commercial Internet. These diverse environments are governed 
by organizations with differing authorities, roles and 
responsibilities, with unclear, undefined boundaries between them. 
USTRANSCOM has very limited visibility into the security posture of the 
various networks and nodes that its data transits on the internet, so 
it is not possible to guarantee security of this unclassified, mission-
relevant information that must be provided to commercial carriers that 
operate exclusively on the unclassified internet, yet are responsible 
for conducting 90 percent of the USTRANSCOM mission. We are not the 
only federal government entity facing these issues and I support and 
advocate for a national-level strategy that encompasses and integrates 
all cyber efforts.
                               __________
             Questions Submitted by Senator Martin Heinrich
                  cyber attack on commercial partners
    17. Senator Heinrich. General McDew, our ability to project and 
sustain force, at the time and place of our choosing, is one of the 
most critical elements of our military might. As you noted, our 
logistics enterprise relies heavily on commercial partners, making it 
more susceptible to cyber-attacks than other military functions. 
Despite this, the DOD's cyber protections do not extend to industry 
partners. Do you think this poses a risk to our ability to reliably 
deploy and sustain military force?
    General McDew. Cyber vulnerabilities to the DOD mobility enterprise 
pose a significant risk to our ability to deploy and sustain military 
force. The Joint Deployment and Distribution Enterprise's Command and 
Control / Information Systems must send information on the classified 
and unclassified Department of Defense Information Networks (DODIN), as 
well as unclassified commercial networks. While DOD provides formidable 
cyber defense across the DODIN, commercial providers present a more 
vulnerable attack surface to adversaries and other nefarious actors. 
Select industry partners are better incentivized and therefore, better 
prepared than others. USTRANSCOM has incorporated initial cyber 
security standards in its contracts and established cyber security 
information sharing arrangements requirements with its Transportation 
Service Providers. USTRANSCOM is also assessing other solutions to 
include options such as third-party compliance inspections, enhanced 
information sharing, enhanced cyber safety standards within IT 
manufacturing, and potentially ``War Powers Act'' like authorities for 
DOD to provide cyber security for vendors that are consequential to 
national defense. As a last resort, USTRANSCOM must ensure there is 
sufficient resiliency across the strategic mobility enterprise to 
enable continued operations in a denied or degraded cyber environment.

    18. Senator Heinrich. General McDew, what is TRANSCOM doing to 
mitigate this threat?
    General McDew. I am addressing these vulnerabilities by proactively 
enhancing partnerships with Transportation Service Providers (TSPs) and 
leveraging relationships with whole-of-government partners such as DHS, 
FBI, and others to work together to solve this problem that affects 
military, government, and industry partners. Certainly enhanced 
contract language and legislation can help, but strong partnerships 
will be just as important to our collective success in this space in 
the future. I am pursuing a partnership that assures our TSPs that we 
want to help them achieve better security without penalizing them, as 
their strong cybersecurity practices will ultimately improve their 
bottom line while enhancing USTRANSCOM mission success--a win-win 
scenario for both communities.
                      cyber authorities / doctrine
    19. Senator Heinrich. General McDew, you wrote in your statement 
that ``we need to link DOD and DHS cyber authorities across critical 
defense networks and develop procedures to share information as we all 
operate among the same threats.'' What authorities do you think need to 
be linked between the DOD and DHS?
    General McDew. I see a ``gap'' in authority to defend our mission 
critical data as it traverses the commercial internet. Title 6, title 
10, title 50 and title 32 authorities need to be re-examined to keep up 
with the rapid evolution of the cyber frontier. Our nation needs a 
holistic approach to cyber spanning ``.gov'', ``.mil'' and ``.com'' and 
what federal authorities each agency can enact. As it stands today, 
DOD, DHS, and DOJ could all have varying responses to the same events 
in cyberspace with conflicting actions and mission sets. These 
individual agency ``playbooks'' all need to be brought together at the 
national level to ensure unity of effort and action.

    20. Senator Heinrich. General McDew, what networks do you identify 
as ``critical defense networks?'' Does this include commercial networks 
being used for TRANSCOM or other military missions?
    General McDew. Critical defense networks include both the DODIN 
networks that are protected by DOD cybersecurity providers and the 
commercial networks that USTRANSCOM relies heavily upon that are owned 
by its transportation service providers. Further, these critical 
defense networks also extend to our various defense contractors who 
also have networks attached to the commercial internet with whom our 
data is entrusted.

    21. Senator Heinrich. General McDew, do you agree that a national 
cyber doctrine would help clarify the authorities and responsibilities 
for our various cyber defense organizations?
    General McDew. I have sought and continue to advocate for a 
national-level dialogue on cyber security. In the near term, Congress 
can assist in this mission area by promoting this national dialogue on 
the importance of cybersecurity to every facet of our national fabric--
from education to industry to defense and everything in between. It 
will be through this national dialogue that we can begin to seed the 
thought of baking in cybersecurity from the beginning--in our schools, 
health care, technology, and key infrastructure.
                         aircraft survivability
    22. Senator Heinrich. General McDew, the proliferation of long-
range anti-aircraft weapons is bringing US high value assets such as 
our airborne ISR, command and control, and refueling tankers under 
increasing threat. For example, the sale of the Russian SA-20 Gargoyle 
SAM system to Iran could limit our ability to operate as freely in the 
Persian Gulf area.
    As you may know, the Air Force is developing high-energy laser 
systems, like the Self-protect High Energy Laser Demonstrator (SHiELD) 
program, to protect fighter aircraft. It stands to reason that these 
systems would be even more effective on larger, slower aircraft. Given 
the availability of space and power, High Value Airborne Assets (HVAA) 
including Air Refueling tankers, Cargo, Bombers, and Command and 
Control aircraft are excellent candidates for early self-defense laser 
prototypes. Have you considered the use of high-energy lasers to 
protect TRANSCOM's high value assets?
    General McDew. USTRANSCOM has considered the use of high-energy 
lasers to protect its Air Refueling tankers and Cargo aircraft. 
However, the Air Force has not been able to fund the advanced R&D and 
the follow on procurement of these systems within available Total 
Obligation Authority. Targeted funding for the Air Mobility Command, 
Air Force Reserve Command, and Air National Guard assets would allow 
USTRANSCOM to better protect its air arm. In order to make SHiELD work, 
tankers and cargo aircraft require additional systems. Air Mobility 
Command aircraft lack situational awareness of the threat environment, 
and integrated systems to tie that situational awareness to the 
protection provided by a high-energy laser.

    23. Senator Heinrich. General McDew, what aircraft self-protect 
requirements have you requested through the military services? What 
type of resources do you need from the military services for this 
purpose?
    General McDew. There is a long-standing requirement for aircraft 
self-protect and awareness in the form of the Advanced Situational 
Awareness & Countermeasures Capability Development Document. This 
document was issued as a requirement in 2006. However, the Air Force 
does not have the funding necessary to enable pursuit of the 
requirement. In order for USTRANSCOM air assets to be protected, Air 
Mobility Command will need funding in the form of RDT&E to develop and/
or acquire systems that provides a common operating picture of 
battlespace situational awareness and own-ship self-protection.

    24. Senator Heinrich. General McDew, adapting the mature SHiELD pod 
HEL system for larger aircraft self-defense can be accomplished at an 
expedited pace in parallel with the SHiELD prototype. Do you support 
also applying the SHiELD program to your larger aircraft?
    General McDew. As long as funding is programmed to integrate SHiELD 
into a conformal aircraft design rather than the initial pod, then yes. 
There are several concerns that need to be addressed with the SHiELD 
program that in its current and forecast form will limit or inhibit 
operational effectiveness.


  DEPARTMENT OF DEFENSE AUTHORIZATION REQUEST FOR APPROPRIATIONS FOR 
         FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                              ARMY POSTURE

    The committee met, pursuant to notice, at 9:37 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee Members present: Senators Inhofe, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Graham, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order. Let me 
explain what we'll be doing. We have two votes. One vote's 
taking place right now. Those members who are here now have 
already voted. We're going to be working right through the 
second vote so that we won't have to keep you folks any longer 
than necessary.
    The committee meets today to receive testimony on the 
posture of the United States Army and its fiscal year 2019 
budget request. We welcome Dr. Mark Esper, Secretary of the 
Army, and General Mark Milley, Chief of Staff of the Army.
    The National Defense Strategy directs our Nation's military 
to prepare for the return of great-power competition. This 
means that we must be prepared to deter and, if necessary, 
defeat potential near-peer adversaries, both China and Russia. 
With their alarming speed of modernization of both conventional 
and nuclear forces, these adversaries now present a credible 
threat to America and our allies in the regions. It's time for 
us to take stock and act. Senior Army leadership has said the 
service is outranged and outgunned. That's a frightening 
thought, and we've heard it over, over again, and it is a fact.
    As currently organized and equipped, the future of the 
Army's readiness and relevance requires modernization now. The 
Army's modernization program unveiled last fall shows you take 
this challenge seriously. The solutions for acquisition and 
program management will help the Army repair identified 
capability gaps within the force. Any successful modernization 
strategy must focus on results. Rapid prototyping, and the 
realistic experimentation will be vital to getting modern, 
reliable, lethal weapons into the hands of our soldiers, and 
doing so on time.
    With the calculation of Crusader and Future Combat Systems, 
we have fallen woefully behind in our artillery. That's 
something that I'm very sensitive to, and we remember how much 
money both the Crusader and the Future Combat System ended up 
costing, and really, we got nothing from it, and we're not 
going to let that happen again. A lot of that's going to be the 
acquisition that we are working on now.
    Now we have a system integral in solving these issues. We 
have no doubt but the cross-function at teams currently 
operating there--we're talking about Fort Sill--will help solve 
the disparity with our adversaries. We look to you gentlemen to 
lead the effort for real, sustained modernization. It will 
require your engagement, leadership. It will require you to 
make hard choices, set priorities, and accept some risk, and it 
will require an open and transparent dialogue with Congress 
along the way. We look forward to working with you to make our 
shared modernization vision a reality as the Army reinvents 
itself to become the 21st Century fighting force prepared for 
it.
    We're waiting now for Senator Reed to get here, and we're 
going to get his opening statement and start right away, but 
this is different than anytime that I recall. I've been on this 
committee for 24 years, and on the House committee for 8 years 
prior to that, and to see that we're going to finally have to 
do something with acquisition. But, we've never been faced 
with--several of us just came back from the South China Seas, 
and we watched what China is doing with the islands they're 
building out there. It's almost as if they're preparing for 
World War III. Our allies in that part of the world--and I've 
talked to you folks about this before--realize that this is a--
that they're watching China flex its muscles out there, and 
they are kind of taking--deciding who to take sides with. These 
are our allies. So, this is something that I'd suggest you guys 
have not had the opportunity to experience prior to the time 
that we're experiencing today.
    Let me just see--yeah, what we're going to do, we're going 
to start with your opening statements. Senator Reed is on his 
way, and what we'll do is interrupt your statements so that he 
can give his opening statement. Is that all right? Very good.
    Let's start with you, Secretary Esper.

STATEMENT OF THE HONORABLE MARK T. ESPER, SECRETARY OF THE ARMY

    Dr. Esper. Well, Senator Inhofe, distinguished members of 
the committee, good morning, and thank you for the opportunity 
to appear before you today.
    Let me say up front that the Army's readiness across its 
formations is improving, and, if called upon today, I'm 
confident we would prevail in any conflict. This is due, in 
part, to the increased funding Congress provided last year. For 
this, I would like to say thank you.
    The Army's mission to defend the Nation has not changed, 
but the strategic environment has. Following 17 years of 
sustained combat, we now face a future characterized by the 
reemergence of great-power competition and the continued 
challenges posed by rogue states and nonstate actors, making 
the world ever more complex and dangerous. To address these 
challenges, the Army is changing. We have a comprehensive plan 
to ensure our long-term dominance. In fact, since my previous 
testimony before the committee on December 7th of last year, we 
have released our vision for the Army. Our vision is fully 
consistent with the National Defense Strategy, and one that 
General Milley and I believe will ensure our success for years 
to come.
    We will achieve this vision through focused and enduring 
priorities encompassing several major long-term lines of 
effort. But, a vision alone will not make the Army successful. 
We must have predictable, adequate, sustained, and timely 
funding. Fiscal uncertainty has done a great deal to erode our 
readiness and hamper our ability to modernize. While the Army 
must be ready to deploy, fight, and win anytime, anywhere, 
against any adversary, the National Defense Strategy has 
identified China and Russia as the principal competitors 
against which we must build sufficient capacity and 
capabilities.
    Senator Inhofe. Yes, thank you, Mr. Secretary.
    Just for a moment--would you like to give your opening 
statement?
    Senator Reed. Well, Mr. Chairman, would it be better for 
the Secretary and the Chief to finish, and then I'll----
    Senator Inhofe. That's a good idea.
    Continue.
    Dr. Esper. Yes, sir.
    With regard to Russia and China, both countries are taking 
a more aggressive role on the world stage, and either possess 
or are building advanced capabilities that are specifically 
designed to reverse the tactical overmatch we have enjoyed for 
decades. In support of the National Defense Strategy, the Army 
is increasing our lethality along three focus priorities: 
readiness, modernization, and reform.
    Readiness is the top priority, because only a ready total 
Army--that's regular Army, Guard, and Reserve--can deter 
conflict, defeat enemies, and enable the joint force to win 
decisively. We are refocusing training for our soldiers to be 
more lethal and more resilient on the high-intensity 
battlefield of the future. We are also increasing home station 
training, getting more repetitions for our formations at the 
company level and below. We are giving training time back to 
commanders by reducing certain self-imposed mandatory training 
requirements not tied to increased lethality and by eliminating 
excess reporting. We have maximized the number of Combat 
Training Center rotations to 20 per year, four of which are 
dedicated to the Reserve component. These rotations are focused 
on the high-end fight, replicating near-peer competitor 
capabilities, including increased enemy lethality, degraded 
communications, persistent observation, and a contested 
environment.
    While the quality, training, and spirit of our soldiers are 
what make the U.S. Army the most ready and lethal ground combat 
force in history, our superiority is enabled by the best 
weapons and equipment we can provide. As such, our second 
priority is modernization, or future readiness. To ensure our 
soldiers never enter a fair fight, the Army is now increasing 
the investments in modernizing the force. Our modernization 
strategy is focused on one goal: making our soldiers and units 
far more lethal and effective than any adversary. The 
establishment of the Army Futures Command this summer is the 
best example of our commitment to the future lethality of the 
force. Army Futures Command will address the key shortcomings 
of the current acquisition system, providing unity of command, 
effort, and purpose to the modernization process.
    The Army has also identified its top six modernization 
priorities for the coming years. Each of these priorities is 
detailed in my written statement, and each is the purview of a 
newly established cross-functional team. The purpose of these 
CFTs [Cross Functional Team] is to determine the requirements 
of needed capabilities to ensure all stakeholders at the table 
from day one, and to focus Army resources on accelerated 
experimentation, prototyping, and fielding. In order to ensure 
battlefield success, our doctrine must reflect the threat 
environment we face and remain apace with our efforts to 
modernize our equipment.
    Our third priority is reform, freeing up time, money, and 
manpower to enhance readiness, accelerate modernization, and 
ensure the efficient use of resources provided to us by the 
American people. Our reform efforts, particularly within the 
acquisition system, are long overdue. While Futures Command is 
probably the boldest reform we are pursuing, other reform 
initiatives owe much to the acquisition authorities delegated 
to the services in prior NDAAs. Within these authorities, we 
are reinvigorating the Army Requirements Oversight Council, 
moving major defense acquisition programs back to the service, 
and using other transactional authorities to accelerate 
fielding in limited situations.
    Another essential reform effort is development of a 
modernized personnel system based on the principles and 
practices of talent management found in the private sector, a 
system much more open, flexible, and dynamic so that we can 
better attract, develop, and retain the best and brightest our 
Nation has to offer.
    A ready and modernized Army is critical to defend the 
Nation, but we must not overlook what makes us remarkable. For 
this, I have outlined three enduring priorities. First, taking 
care of our soldiers, civilians, and their families. Second, a 
servicewide recommitment to the Army's values, especially by 
leaders, to treat everyone with dignity and respect. Finally, 
strengthening our alliances and partners by building stronger 
ties through a number of initiatives. I look forward to 
discussing these with you, as time permits.
    With that, let me thank you again for this committee's 
continued support of the Army, and specifically the defense 
authorizations and funding increases requested in the fiscal 
year 2018 and 2019 budgets. I look forward to your questions 
and appreciate the opportunity to discuss these important 
matters with you today.
    Thank you.
    Senator Inhofe. Thank you, Secretary Esper.
    General Milley.

STATEMENT OF GENERAL MARK A. MILLEY, USA, CHIEF OF STAFF OF THE 
                              ARMY

    General Milley. Thanks, Senator Inhofe. I appreciate the 
opportunity. Thanks, Ranking Member Reed and all the 
distinguished members of the committee, for the opportunity to 
testify today.
    Although he's not here today, I also want to acknowledge 
and recognize Chairman McCain for his immeasurable support to 
our Army and his lifetime of incredibly brave and dedicated 
service to our Nation. Each of us in the Army prays, as you do, 
for his speedy recovery and return to the Senate.
    I want to start by thanking Congress for the 2018 bill. 
That was significant. It has tremendous impact on the future 
readiness and the current readiness of our Army, and impact on 
morale of the force. As you know, this funding is vital, and we 
will all work diligently to spend these dollars in a 
responsible manner over the last two quarters of this fiscal 
year.
    Thank you, also, for the general increases in the defense 
caps for 2018 and 2019. These increases support the new 
National Defense Strategy and advance the Army's readiness and 
lethality while allowing our Army to modernize for the future.
    In short, what these monies have done is stopped a steep 
decline, it stopped the bleeding of the Army, and we are on the 
mend. I can report out to you today that 2 and a half years 
after I became the Chief of Staff of the Army, we are in 
significantly better shape through the generosity of the 
American people and this Congress. It's essential, though, that 
we maintain these increases, as returning to BCA [Budget 
Control Act] caps will halt our ability to modernize, and it 
will reverse any recent gain in readiness.
    The demand for ready, able, and lethal Army continues. 
Today, we have about 180,000 or so soldiers supporting 
combatant commands around the globe, including ongoing 
operations in the Middle East and supporting our posture in 
order to deter operations--order adversary operations in Europe 
and Asia-Pacific. The Army roughly fills about 50 percent of 
annual planned demand by any of the combatant commanders. And, 
of emergent demand or unplanned demand, the Army fills between 
60 and 70 percent of all of those requirements. Our newly 
created SFABs [Security Force Assistance Brigades], for 
example, are already in high demand from all the combatant 
commanders. One of them, just yesterday, asked for an SFAB to 
be assigned to him. The first deployed this past couple of 
months, and the second has been activated, and we are quickly 
proceeding with a third, fourth, fifth, and sixth. Your support 
has allowed the Army to field those units, and has allowed the 
Army to become significantly more combat ready today than we 
were just 24 months ago.
    We have increased the number of Combat Training Center 
rotations, as Secretary Esper talked about. We've improved our 
equipment operational readiness rates. We've improved these 
flow of spare parts. We've replenished our Army pre-positioned 
stocks in both Asia and Europe. We've improved munitions around 
the world. We've significantly improved our manning shortfalls 
and filled holes inside of our operational and deployable 
units. In short, we have a better Army today than we had just a 
short while ago.
    The bottom line is that the United States Army continues to 
meet all the missions required of us. Thanks to your support, 
we are more ready. But, we cannot be content with simply being 
ready for today's global demands. Instead, we must focus on 
readiness both now and in the future. The National Defense 
Strategy calls for us to build a more lethal force. As noted by 
Secretary Esper, we face long-term competition with China and 
Russia, and regional and serious threats from Iran and North 
Korea, as well as ongoing operations against terrorism.
    The strategic global environment is increasingly unstable 
and increasingly dangerous, and there is no time to pause. We 
know these competitors, these great-power competitors, both 
China and Russia, have made significant advances in the 
development of advanced weapons, technology, and the 
capabilities of their military forces. I'd be happy to go into 
great detail in a classified briefing on that.
    We must maintain our overmatch to achieve victory against 
any adversary at any time. The increased lethality on a future 
battlefield is going to require that. To both stay ready and to 
build a force of the future, that's going to require 
predictable, adequate, sustained, and timely funding. The 
Army's fiscal year 2019 budget requests our priorities to grow 
and maintain a highly capable force both today and to modernize 
and build our future force and to take proper care of our 
soldiers and family members and Army civilians while being good 
stewards of the taxpayer dollar. We recognize the American 
taxpayer entrusts us with a significant amount of money to meet 
these demands. We will be diligent stewards of our resources, 
and we will enforce accountability to make effective use of 
every single dollar. Your support for the fiscal year 2019 
budget will ensure our soldiers remain ready to fight tonight 
as we prepare for the unforeseen conflicts of tomorrow.
    Thank you for the opportunity to testify, and I look 
forward to each of your questions.
    [The joint prepared statement of the Honorable Mark T. 
Esper and General Milley follows:]

  Joint Prepared Statement by the Honorable Mark T. Esper and General 
                             Mark A. Milley
                              introduction
    America's Army is lethal and effective. Our lethality provides the 
assured capability to defeat enemy ground forces through sustained land 
campaigns in defense of our vital national interests. To maintain our 
land power dominance, we will concentrate our efforts on our 
priorities--Readiness, Modernization, and Reform--to ensure America's 
Army is always ready, now and in the future. We also live by enduring 
priorities to take care of our soldiers, civilians, and their families; 
to re-commit to the Army values and warrior ethos that guide us; and to 
strengthen relationships with allies and partners.
    We thank Congress for its strong support, which has enabled the 
Army to halt the decline in our warfighting readiness. Importantly 
though, the Army needs timely, predictable, adequate, and sustained 
funding to preserve these readiness gains now and in the future. The 
Army's fiscal year 2019 (FY19) budget prioritizes our resources based 
on the President's guidance, and our strategy is consistent with the 
National Defense Strategy. This year's budget allows us to continue to 
build readiness for high intensity conflict and begin building our 
future force through key modernization efforts. It also enables us to 
continue to take care of our people and institute reforms across the 
Army to free up time, money, and manpower. Army leadership, with 
congressional support, is committed to ensuring America's Army is ready 
now and modernizing for the future.
                         strategic environment
    Our Army faces a complex and demanding strategic environment. This 
will require the Army to remain ready for a wide range of missions to 
defend American interests. We must build readiness for high-intensity 
conflict and modernize our forces to ensure overmatch against near-peer 
competitors, while sustaining irregular warfare as a core competency.
    Our competitors are seeking to alter global strategic realities for 
their own benefit, often at the expense of U.S. interests and those of 
our allies and partners. Russia and China continue to assert themselves 
in an effort to gain dominance in key regions, and are developing 
advanced weapons to achieve parity both strategically and in close 
combat. North Korea has pursued nuclear weapons and ballistic missiles 
for decades with significant advances over the last year. Iran is 
attempting to expand its regional influence by developing more advanced 
ballistic missiles and supporting insurgent groups against United 
States allies in the region. Additionally, these state actors use a 
range of actions short of armed conflict, from cyber-attacks to 
irregular warfare through proxies that destabilize regions without 
attribution. Finally, terrorist groups continue to threaten the U.S. 
Homeland, U.S. citizens, U.S. interests abroad, and our allies and 
partners.
    Soldiers directly contribute to our Nation's efforts to counter 
these challenges by serving combatant commanders worldwide with over 
178,000 soldiers operating across a wide array of missions. The Army is 
committed to maintaining peace, stability, and security in the Asia-
Pacific with nearly 80,000 soldiers assigned, deployed, and forward-
stationed throughout the region. Twenty-four thousand soldiers continue 
to deter North Korean aggression, with the Army focused on building 
readiness to respond to any contingency, including potential conflict. 
In Europe, the Army has over 30,000 forward stationed and rotational 
forces. In the Middle East, the troop increase in Afghanistan has 
already begun to advance the train, advise, and assist mission at the 
tactical level. In support of Homeland defense, the Army provides over 
15,000 soldiers as well as a Global Response Force of 9,500 personnel, 
capable of deploying anywhere in the world within 96 hours. Over the 
last year, Army forces were critical in disaster relief efforts in 
Puerto Rico and the United States Virgin Islands resulting from 
Hurricanes Maria and Irma, the California wild fires and mud slides, 
and widespread flooding in the central United States.
    The Army's competitive advantage is our soldiers' ability to 
rapidly deploy when and where required, gain and maintain overmatch, 
and achieve decisive victory against any adversary. This produces a 
combat-credible deterrent against potential adversaries who are hostile 
to our Nation's interests. Sustained, predictable, adequate, and timely 
funding will secure the Army's ability to continue to defend our 
Nation's interests.
                       the army's budget request
    The Army's total fiscal year 2019 budget request totals $182.1 
billion which consists of $148.4 billion in the base budget and $33.7 
billion for Overseas Contingency Operations (OCO). This represents an 
eight percent increase over our total fiscal year 2018 President's 
Budget plus amendments. Our request reflects the Army's priorities: 
grow and maintain a ready high-end force; build our future force 
through key modernization efforts; continue to take care of our people; 
and institute reforms that lead the Army to be even better stewards of 
taxpayer dollars.
                       readiness to fight tonight
    Ready forces ensure that the Army can compete against our 
adversaries, deter conflict, and win decisively. Fiscal year 2017 and 
fiscal year 2018 authorizations and fiscal year 2017 appropriations 
provided critical support to fill manning requirements, fund important 
gains to training such as increasing combat training center rotations, 
increasing equipment operational readiness rates, building and 
modernizing Army Prepositioned Stocks, and beginning to address 
munitions shortfalls. Barring a significant increase in demand for land 
forces, the Army will attain our Total Force readiness recovery goals 
in 2022. To ensure that we meet this goal, we need predictable, 
adequate, sustained, timely funding, enabling us to sufficiently 
organize, man, train, and equip our formations.
    We are growing the Army by both recruiting and retaining physically 
fit, mentally tough soldiers without lowering standards. Increased end 
strength has enabled the Army to fill manning shortfalls in key 
formations. Soldiers within the ranks are also increasingly deployable, 
with a four percent decrease in Regular Army non-deployable rates over 
the past year, and an overall goal of a five percent non-deployable 
rate by fiscal year 2021. Contributing to this is increased holistic 
fitness, improved medical tracking, unit injury prevention and physical 
therapy programs, and leveraging end strength increases to raise 
operational unit manning levels. These are accompanied by new policies 
intended to rebuild a culture of deployability across the force. As a 
result, the number of brigade combat teams (BCTs) in the highest state 
of personnel readiness has more than doubled.
    Tough, realistic training is key to maintaining our competitive 
advantage in the current security environment. In order to increase 
soldiers' opportunity to conduct training focused on lethality, we have 
reduced, and will continue to reduce, ancillary mandatory training, 
requirements, and distractions at home station. We are also using 
virtual simulations to increase training repetitions for small units, 
creating greater proficiency at unit collective tasks. Leaders across 
the Army are taking steps to ensure a predictable training management 
cycle, and returning our training focus to preparation for a high-end 
fight validated at combat training centers. However, these units can 
only remain ready if they remain together, so we must also find 
innovative ways to meet combatant command demand without breaking apart 
our baseline combat formations.
    An important part of the Army's effort to maintain the readiness of 
the Army's BCTs for major combat operations is the security force 
assistance brigade (SFAB). The SFAB will provide combatant commanders 
with a skilled advisory force to team with our security partners 
worldwide. Previously, we assigned BCTs to conduct advisory missions, 
breaking those formations apart. The first SFAB deployed to Afghanistan 
in the spring of 2018. We request congressional support to man, train, 
and equip six SFABs: five in the Regular Army and one in the Army 
National Guard.
    In addition to improved training, our Army must have sufficient 
equipment. We are modernizing our equipment, refining our supply 
distribution systems, and enhancing our Prepositioned Stocks to balance 
our capabilities across multiple threats and theaters. However, we 
continue to have shortages of some critical preferred munitions. As a 
result, Holston Army Ammunition Plant in Tennessee is expanding 
production capacity, and Pine Bluff Arsenal in Arkansas and McAlester 
Army Ammunition Plant in Oklahoma are beginning repair and upgrade 
programs. We request congressional support as we continue to reform and 
align requirements and resources within the Organic Industrial Base.
               modernization: ready for the future fight
    Over the past decade, the Army made necessary but difficult choices 
to defer modernization in order to support combat operations. We 
upgraded current weapons systems rather than acquire new or next 
generation technologies. However, we can no longer afford to delay 
modernization without risking overmatch on future battlefields. Thanks 
to congressional support, the Army now has the means to modestly 
increase investments towards modernization and lay the groundwork for 
increased funding in the coming years. To improve modernization we will 
focus on three things. First, we will establish the Army Futures 
Command to reform our acquisition process through unity of command, 
unity of effort, and increased accountability. Second, through the 
efforts of eight cross functional teams, we will focus these additional 
resources towards six modernization priorities to ensure future 
overmatch. Third, Army leadership will strengthen our relationship with 
industry, our allies, and the top intellectual and innovative talent 
our Nation has to offer. Collectively, these improvements and others 
will help ensure our lethality and future readiness.
    The Army must adapt quicker than our adversaries to maintain our 
competitive advantage. This is the rationale for the Army Futures 
Command. The formal establishment of Army Futures Command in the summer 
of 2018 will represent the most significant organizational change to 
the Army's structure since 1973. The new command will consolidate the 
Acquisition process under one organization with a mission to deliver 
integrated solutions for increased lethality and capabilities to the 
soldier when and where they are needed.
    The fiscal year 2019 budget coupled with our reforms will enable 
the Army to accelerate upgrades to critical capabilities, managing 
current risk while we innovate and prototype with a goal to begin 
fielding the next generation of combat vehicles, aerial platforms, and 
weapons systems by 2028. These vehicles and weapons must be better than 
anything our adversaries will deploy in the future. We will focus 
modernization, science and technology, and research and development 
efforts on six modernization priorities, managed and assessed by eight 
cross functional teams:

    <bullet>  Long Range Precision Fires--modernize a cannon for 
extended range, volume, and increased missile capabilities to restore 
Army dominance in range. Systems like the Extended Range Cannon 
Artillery, which has been accelerated to fiscal year 2023, and the Long 
Range Precision Fires Missile, accelerated to fiscal year 2021 protect 
and ensure freedom of maneuver to forces in contact with the enemy in 
deep, close, and rear operations. The Army has included $73.7 million 
for Long Range Precision Fires in the fiscal year 2018 Enhancement 
Request, with $22 million in additional requested funds in the fiscal 
year 2019 President's Budget.

    <bullet>  Next Generation of Combat Vehicles--develop prototypes 
that lead to the replacement of our current fleet of infantry fighting 
vehicles, and later tanks, in manned, unmanned, and optionally manned 
variants. A next generation vehicle is needed to enhance soldier 
protection, increase mobility, and make our forces more lethal. 
Prototypes for both manned and robotic vehicles will arrive in fiscal 
year 2021, with $13.1 million requested in the fiscal year 2018 
Enhancement, and $84 million in the fiscal year 2019 President's 
Budget.

    <bullet>  Future Vertical Lift--incorporate manned, unmanned, and 
optionally manned variant vertical lift platforms that provide superior 
speed, range, endurance, altitude, and payload capabilities. These 
include the Future Unmanned Aircraft System, which is undergoing 
experimentation and will be prototyped in fiscal year 2024, and the 
Modular Open System Approach, a software prototype that has been 
accelerated from fiscal year 2028 to fiscal year 2026. $25.1 million is 
included in the fiscal year 2018 Enhancement Request for Future 
Vertical Lift, with additional funds included in the fiscal year 2019 
President's Budget.

    <bullet>  Network--develop expeditionary infrastructure solutions 
to fight reliably on the move in any environment. The Army Network 
should incorporate electronic warfare; resilient, secure, and 
interoperable hardware; software and information systems; assured 
position, navigation, and timing; and low signature networks. $180 
million is included in the fiscal year 2018 Enhancement Request to 
conduct Network related experimentation next fiscal year, including an 
Infantry Brigade at the Joint Readiness Training Center this summer, 
and a Stryker Brigade by early 2019.

    <bullet>  Air and Missile Defense--ensure our future combat 
formations are protected from modern and advanced air and missile 
delivered fires, including drones. We are focusing on capabilities that 
include Mobile Short-Range Air Defense with directed energy and 
advanced energetics. We are also accelerating the fielding of existing 
air defense capabilities over the coming years.

    <bullet>  Soldier Lethality--develop the next generation of 
individual and squad weapons; improve body armor, sensors, and radios; 
and develop a synthetic training environment that simulates the modern 
battlefield, allowing our soldiers multiple iterations before they ever 
deploy. The fiscal year 2018 Enhancement Request includes $81 million 
to experiment and procure Enhanced Night Vision Goggles by fiscal year 
2021.

    These modernization priorities illustrate how our Army will adapt 
to future threats. The cross functional teams are the driving force for 
the modernization priorities. Each cross functional team uses technical 
experimentation and demonstrations, in conjunction with increased 
engagement with industry and commercial sector partners, to inform 
prototype development and reduce the requirement process.
    The Army remains concerned about preserving key skills and 
capabilities for our original equipment manufacturers and their key 
supplier bases. Collaboration with our private sector partners early in 
the process helps reduce risk. Efforts such as the Army Manufacturing 
Technology Program have provided affordable and timely manufacturing 
solutions that assist our industry partners to address manufacturing 
risks. Collectively, congressional support for the Army Futures 
Command, implementation of the future recommendations of the cross 
functional teams, and a strong relationship with the commercial base 
has one simple goal: make soldiers more lethal and ready for the 
future.
                                 reform
    To achieve these objectives, we are assessing everything we do 
across the Army, looking for ways to free up time, money, and manpower 
for our top priorities. In support of DOD reform efforts, we have 
placed increased emphasis on a number of business reforms and 
stewardship initiatives. Specifically, we are instituting Army-wide 
programs that address Acquisition Reform; Contract Management; Budget 
Execution; divestiture and consolidation of legacy information 
technology systems; and auditability of our resources.
    The Army's Acquisition Reform Initiative shortens the development 
timeline and approval process of capabilities requirements. This reform 
initiative directs the consolidation of two oversight groups into one 
and provides Army leadership with access to decisions earlier in the 
decision cycle. The Army is creating strategic enterprise metrics 
through policies and procedures intended to drive significant savings 
from the reform of contracted services per year from 2020 to 2024. We 
are also monitoring de-obligating funds through the Command 
Accountability and Execution Review to increase Army annual buying 
power. Additionally, we are improving our auditability. This year, we 
plan to complete an independent audit that will further enable the Army 
to improve our business practices and management of our resources.
    Another key area of reform is in Army institutions. We are 
undertaking efforts to optimize non-divisional two-star headquarters 
and above to enable faster decision making. We are beginning by 
optimizing key essential tasks at the Army Secretariat, Army Staff, and 
Army Commands to address manning requirement needs at the division 
level and below. Next, revised experimentation and war gaming will 
accelerate new Army warfighting doctrine, providing a comprehensive 
framework to underpin how we train and how we fight. Finally, a new 
talent management based personnel system will optimize individuals' 
effectiveness and professional development, and ensure we develop and 
retain exceptional leaders and soldiers of unmatched lethality.
         soldiers, civilians, and families: our greatest asset
    The United States Army is composed of Regular Army, Army National 
Guard, and Army Reserve soldiers, civilians, and family members serving 
the Nation at home and abroad. The quality of soldiers the Army 
attracts and retains is extremely high. Quality metrics for Army 
recruits are at their highest point, exceeding every DOD-mandated 
education and aptitude threshold for the eighth year in a row. Waivers 
for recruits are down nearly eight percent over the past decade. The 
Army's long term success depends on developing smart, innovative 
leaders of character who bring a wide range of skills and experiences 
to our ranks. We will remain a standards-based organization and 
maintain the values that we have established for those who enter and 
serve the Army and for those soldiers who remain for a career. We will 
not lower standards to meet our end strength goals.
    The Army is committed to taking care of our soldiers, civilians, 
and their families by maintaining opportunities for promotions and 
schooling, providing attractive career options, and continuing quality 
of life programs. We ensure the well-being of our people through world-
class medical services, quality facilities to live and work, and child 
care and youth services. New civilian hiring initiatives for spouses 
promise to accelerate work opportunities on Army installations, while 
other reforms may allow them to sustain careers by reducing the 
frequency of moves. The cumulative effect of these programs is to 
increase retention through increased satisfaction with Army life.
    We also take care of individual soldiers and strengthen teams 
through Sexual Harassment/Assault Prevention and Response initiatives, 
active Suicide Prevention measures, Army Warrior Care, and transition 
assistance through our Soldier for Life program. In particular, a new 
task force is addressing suicide reduction in the Army National Guard 
and Army Reserve. Taking care of our people ensures soldiers and 
families have the support they need to focus on preparing to deploy, 
fight, and win our Nation's wars.
                               conclusion
    On behalf of the entire Army, we thank Congress for their support 
that allows us to continue to improve readiness and make an increased 
investment in our future Army. Our current security environment 
continues to have numerous challenges, and they are growing. With 
predictable, adequate, sustained, and timely funding, we will increase 
capacity, train advisory forces, close critical munitions gaps, improve 
modernization, and take care of our soldiers, civilians, and their 
families. We are a standards-based organization accountable to Congress 
and the American people. We know that the only acceptable result of our 
efforts is a lethal Army, ready now, and prepared for the future.

    Senator Inhofe. Thank you, General Milley.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in welcoming Secretary Esper and General 
Milley. Thank you, gentlemen, for your service. Please thank 
the men and women of the Army for their great service. I look 
forward to your response to our questions as we move forward.
    The President's Budget request for fiscal year 2019 
includes $182 billion in the funding for the Army. Of that 
amount, 148 billion is for base budget requirements and 34 
billion for overseas contingency operations. As the committee 
considers the Army's funding request, we must be mindful, as 
you've pointed out, of the risks facing our country and our 
national security challenges.
    The new National Defense Strategy is focused on the 
reemergence of long-term strategic competition, which makes the 
threat posed by China and Russia the primary focus for the 
Department. This strategic shift will require the Army to train 
for full-spectrum operations and to field equipment necessary 
for a high-end fight. The new strategy also assumes risk in our 
counterterrorism mission, as it is no longer the primary 
national security concern. As you go forward, your comments on 
views on how the Army is going to balance that shift to the 
high-end, near-peer fight while seeking more efficient 
approaches to counterterrorism would be deeply appreciated.
    Several months ago, the Army created a number of cross-
functional teams, as you pointed out, Mr. Secretary, that were 
designed to break down acquisition stovepipes so new 
technologies and modernization platforms could be delivered to 
the force in a more effective manner. I would ask, going 
forward this morning, that you would share with us what you've 
learned so far from these efforts, and how these teams will 
inform your modernization efforts throughout the Army.
    In addition, given the new emphasis on great-power 
competition, I hope you will also discuss the necessary 
investments in modernization that you're emphasizing in this 
budget, and not this--just this budget, but budgets that might 
follow. Modernized military platforms and upgraded equipment 
are necessary to prevail in great-power competitions, but 
success against a near-peer adversary also requires the Army to 
build and maintain readiness levels, as you've pointed out. 
This hearing is an opportunity to update in more detail the 
Army's current efforts to rebuild and sustain readiness.
    Finally, the budget request seeks an increase of 4,000 
Active Duty soldiers, as well as increased full-time support 
for the Reserve component. It's imperative that, as the Army 
grows, it remains focused on the quality of our soldiers rather 
than the quantity. The training and readiness of our soldiers 
is paramount. Enhancing the fighting ability of the force, we 
must have a situation where we don't allow size to overcome 
quality.
    The President's Budget also requests an across-the-board 
pay raise of 2.6 percent for all military personnel, which I 
think has universal support here. But, the President does not 
request an increase in civilian pay. In fact, there's a freeze. 
That will make it very difficult to recruit the high quality 
civilians that you need, and reward those that you need to stay 
with the Army.
    I hope, again, to get your comments on these and many other 
issues. Again, thank you very much for your testimony and your 
service.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Let's start off with--we talked about the condition that we 
were in a year ago, in terms of our brigade combat teams, our 
readiness. We are, you know, understandingly, happy with what 
happened with our fiscal year 2018 and fiscal year 2019 
budgets. The problem is, that is good only up to fiscal year 
2020. Now, I think it's a good time to get on record--let's 
assume that we, for some reason, had to go back to the BCA 
spending caps, starting in 2020, and that we were not fortunate 
enough to keep up the increase that we achieved in 2018 and 
2019. I would like to have each of you express what our 
condition--the condition of our Army would be if that were to 
occur and we had to go back to those caps.
    Secretary Esper.
    Dr. Esper. Well, thank you for that question, Senator 
Inhofe. It's clear that what it would mean if we are unable to 
sustain funding is that we would revert back to where we were a 
few years ago, that we would reverse the gains that we are 
currently making with regard to either training readiness, 
equipment readiness, munitions purchases that are critical for 
warfights, and the personnel gains that are necessary to ensure 
that we have sufficient end strength to meet the demands of the 
combatant commanders and are prepared to execute the National 
Defense Strategy. So, it would be a lost opportunity as we--
we're really building momentum right now.
    I think, to address Senator Reed's question, the critical 
thing is, as we continue to improve our readiness, which we've 
seen good growth in, we need to make sure that we can sustain 
it, then, through 2020, 2021, 2022, because, after 9-10 years 
of warfighting and bad budget challenges, it will take many 
years to get back to the readiness posture we need to be in.
    Senator Inhofe. Yeah. Right.
    General Milley.
    General Milley. Yes, Senator. We've done extensive analysis 
over the last couple of years, just in the event that that were 
to happen. If we went to sequestration caps, bottom line is, 
for the ground force, the Army, that we would end up 
essentially doing individual training and collective training 
up through squad level and, in some cases, platoon level. Squad 
and platoon training, an Army does not make. You've got to be 
able to do company, battalion, brigade, and so on. Training 
only at those levels, and funded only at those levels, would 
not work.
    Flying hours, right now we're coming in at close to 14, 14 
and a half hours with current budgets. We'll drop back to 10, 
11, 12. That's not good for our aviation rotary wing. Home 
station training will come to a halt. The CTCs will come to a 
halt.
    It will not be good if we went backwards. If the 
intangibles, the effect on morale, cohesion, enlistment, 
reenlistment--right now, in terms of reenlistment, we've 
already exceeded our 2018 reenlistment. We're working on 2019 
reenlistment, which is an indicator of morale that's going up. 
All of those things would take steps backwards. So, I would 
strongly encourage not to do that.
    Senator Inhofe. Yeah. I think it's important to get that 
out in the open now, talk about it now.
    Now, another area that I'm particularly interested in, of 
course, is our artillery, the fact that other--both China and 
Russia have passed us up, in terms of range, in terms of rapid-
fire. Right now we're in a position, we're--are working the 
system to correct that, the PIM program. In my opening 
statement, I talked a little bit about what's happened in the 
past with the Crusader, the Future Combat System. But, now we 
have this program that I think is going to be--put us in a 
position where we should be, getting back up in--ahead of our 
adversaries. That's what we want to get done.
    Secretary Esper, can you articulate what your number-one 
priority is for modernization to meet the new National Defense 
Strategy? Let's start with that.
    Dr. Esper. Yes, Senator. The Army has outlined six 
modernization priorities, beginning, number one, with long-
range precision fires, and the sixth being soldier lethality.
    With regard to long-range precision fires, we are pursuing 
technologies at the tactical, operational, and strategic level. 
So, at the tactical level, as you mentioned, the PIM program is 
very important. At the operational level, it's the extended-
range cannon artillery. At the strategic level would be 
hypersonics, the ability to really reach deep and--in support 
of the Navy and the Air Force to do that. I will tell you that, 
as I've traveled the Army, in the 4 and a half months, and 
spoke to a few combatant commanders, they have also conveyed to 
me the importance, the criticality of long-range precision 
fires to their respective warfights.
    Senator Inhofe. That's good.
    General Milley, I--just one real quick question as to--your 
goal has always been to be up to 66 percent. We actually in--my 
information was, we dropped down--in the--our BCTs, capability 
went down as low as, what, 33 percent. Now we're--I understand 
we've improved dramatically on that. We're going to continue to 
do it. But, how close are we now to your goal, 66 percent?
    General Milley. Our readiness goal for the regular Army, 
the Active Duty Army, is 66 percent of all units, all types of 
units--brigade combat teams, logistics units, aviation units, 
et cetera--so 66 percent for the regular Army, and 33 percent 
for the Reserve component, both Guard and Reserve. We are not 
at those benchmarks right now, but we are working towards them, 
and we predict, given consistent funding and if the world stays 
the way it is right this minute, then we should achieve those 
benchmarks sometime in 2021, 2022. We have made significant 
progress.
    Senator Inhofe. Okay.
    General Milley. What you're citing as 30 percent or so is 
from a year or so ago. We're at--for brigade combat teams, 
which is only one slice of the total force, we're in the range 
of the 50 percent mark. So, we have made significant progress 
in the last 24 months.
    Senator Inhofe. Yeah, that's good.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    My question--first question will follow at least the theme 
that the Chairman has set, and that is that he pointed out one 
area of technological overmatch by our adversaries, but there 
are several, unfortunately, including command-and-control 
disruption because of cyber. So, in general, how are you going 
to--dealing with this issue of technological overmatch, not 
just in precision fires, but in a host of other issues?
    Dr. Esper. Senator, another one of the six modernization 
priorities is the network. We know that we've learned, from 
various studies, what we saw the Russians do in Ukraine, that 
we need a network that is reliable, that is resilient, that is 
mobile, that can meet our needs in such an environment. We are 
fairly confident that the future adversaries will certainly 
strike asymmetrically at our space systems, at our information 
systems, our networks. So, we need to do everything from 
looking at the next-generation technology to make sure we have 
resilient systems, but, at the same time, we need to look at 
training, make sure soldiers are training now to operate in a 
environment in which they either have no data or coms, or 
limited.
    I was pleased to see, on my first trip to National Training 
Center in November, that the 1st Cavalry was actually doing 
that. The Op4 out there were presenting that type of scenario, 
and we were training in a--an environment of limited 
communications. That's the guidance we have set out for 
commanders, as well, to be able to train along that spectrum.
    Senator Reed. General Milley, are there other areas of 
overmatch that you want to emphasize?
    General Milley. The six priorities that we've laid out, 
which are related to the fundamental functions of an Army to 
shoot, move, communicate, protect, and sustain are long-range 
precision fires, the upgraded vehicles, rotary wing aircraft, 
future vertical lift, the network that the Secretary just 
mentioned, ballistic and air missile defense, and then all the 
soldier improvements in the soldier lethality--those are the 
areas where we want to laser focus, where we think that we can 
make significant advances.
    There's two particular technologies that we need to put the 
pedal to the metal to, both as a country, a Department of 
Defense, and as an Army: artificial intelligence and robotics. 
Those are significant. We're in a period of the changing 
character of war. Those two technologies, perhaps more than 
others, will have fundamental impact on the character of war 
coming up. So, we are shifting monies in our R&D [Research & 
Development] and S&T [Science & Technology] accounts into those 
technologies, as well as many others.
    Senator Reed. Do you think there is enough resources going 
to those accounts, not just in the Army, but DOD-wide and 
governmentwide?
    General Milley. I think we should put more, is my 
personal--or my professional opinion is, we should add monies 
into those particular research, development, science, 
technology accounts.
    Dr. Esper. I would add--Senator, that I meet frequently 
with Secretary Spencer, the SECNAV [Secretary of the Navy], and 
Secretary Wilson. We've had these same discussions about those 
technologies, hypersonics, and a couple of others, where we 
really need to pull our efforts together and look at how we can 
make sure that we're making advances and not duplicating 
efforts, to get more bang for every dollar we put toward it.
    Senator Reed. As I mentioned in my opening statement, as I 
think we've all mentioned, is that the new defense policy has 
pushed us up into the area of near-peer competition. There is a 
tendency of Army's--based on my experiences, you only can do, 
really, one thing, and that's what you focus on. You know, 
when--1970s and 1980s, we got out of counter-guerrilla warfare 
and we got into the air-land battle. We did it very, very well. 
But, we had to reimmerse ourselves into counterinsurgency 
warfare techniques and equipment and practices in Afghanistan 
and Iraq.
    Now we have not just two dimensions, but probably three 
dimensions. You have conventional warfare, you have hybrid 
warfare, which is right below that, with a sophisticated enemy 
with technological advantages and disadvantages, and then you 
have the counter-guerrilla warfare, like we're practicing in--
or counterinsurgency in Afghanistan. How are you going to keep 
that balance between these three missions and avoid the danger 
of we-just-do-and-we-do-it-very-well X?
    General Milley, you want to start?
    General Milley. Well, I think you're correct that, post 
Vietnam, we sort of did away with any kind of skillsets that we 
had, for the most part, within our inventory, in terms of 
counter-guerrilla/counterinsurgency warfare. We don't have that 
luxury. Guerrillas, insurgents, terrorists are going to be 
around for a long time in various different forms. We have to 
maintain the skillset. We can't throw the baby out with the 
bath water. So, we have to keep that going, and we intend to 
keep that going. That's part of the SFABs [Security Force 
Assistance Brigades]. There's a large resident capability 
within our Special Operations Forces for that. But, our 
conventional forces also need to have skills in that regard. 
But, at the same time, we have to recapture our skills at 
combined-arms maneuver warfare against near-peer competitors in 
great-power competition, because, you know, frankly, you know, 
probably the word ``peace through strength'' is sometimes 
overused, but it's true. In the international environment, you 
have to maintain the capabilities so that your opponent, your 
adversary, believes and knows that you have incredible 
dominating strength and incredible lethality on the 
battlefield. So, we have to be able to do both capabilities--as 
a military, not just as an Army--in order to deter any 
potential aggression from any other country. If we don't do 
that, then you invite aggression, in my view.
    So, it's incumbent upon us to do that, to invest in those 
capabilities, to maintain those skills. That's a very expensive 
proposition, and we recognize that. But, maintaining the peace 
is a very expensive proposition. The only thing more expensive 
than that's fighting a war. The only thing more than that is 
losing one.
    So, it's really important, I think, as we go forward in 
these budgets, that we continue to sustain predictable funding 
to be able to do both counterinsurgency, counterterrorist-type 
operations within our force structure, and higher-end 
conventional operations against a great-power competitor.
    Senator Reed. Thank you.
    Senator Inhofe. Thank you.
    The second vote has started. Senator Reed is, I believe, 
going to go down and vote at the first of it, and I'm going to 
wait toward the last.
    Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your appearance 
again. Thank you for your service to our country.
    General Milley, let me just follow up on what you just said 
about sustained funding. So, we passed a budget a couple of 
months ago. Last week--or last month, we passed spending bill 
for this fiscal year. I don't think we should spike the 
football about those things, though. Those were long overdue. 
We still have to pass a defense appropriations bill for the 
next fiscal year. So, is the point you're making--and, 
Secretary Esper, you made it to Chairman Inhofe--is that you 
needed Department of Defense appropriations bills done in a 
timely and predictable fashion this summer?
    Dr. Esper. Absolutely, Senator. If--timeliness is critical 
to that. If not, what it does is push back our spending 
authority. If we're--we are under a CR [Continuing Resolution], 
as you know, we are not allowed new starts. We are not allowed 
to in--spend money greater than the previous-year funding 
level. We are not able to procure additional munitions. It 
impacts training, because we have reduced O&M [Operations & 
Maintenance] dollars. So, there are a--any number of reasons 
why the timeliness is critical to ensuring we are able to 
maintain the positive glide slope we're on with regard to 
readiness.
    Senator Cotton. That carries us out to the next fiscal 
year, fiscal year 2019, that is covered by the 2-year budget we 
just passed. But, we still have fiscal year 2020 and 2021 ahead 
of us, about 16-18 months away, for which the Budget Control 
Act and sequestration still comes into effect. Is it your 
judgment that Congress needs to act now to stop that kind of 
sequestration from even looming over the Army's head, come the 
summer of 2019?
    Dr. Esper. Yes, sir. For all the services, it's critical to 
all of us achieving our readiness goals. With regard to the 
Army, in particular, as I said earlier, we endured 7, 8, 9 
years of falling budgets, a very high operational pace. It's 
going to take many years to get out of that. If you step back, 
we have this goal of achieving our readiness status by around 
2022. It's that point in time where we want to--really want to 
start making significant investments and start fielding--
prototyping the next generation of technologies that we've 
outlined in our modernization priorities.
    Senator Cotton. General Milley?
    General Milley. Absolutely, Senator. I mean, you're not 
going to dig out of a 10-year trough, 8-year trough, in 
readiness and modernization--you're not going to do that in 2 
years. It's not one-and-done sort of thing. So, it has to be 
consistent, it has to be predictable over time. The 
sequestration, the BCA [Budget Control Act] caps, they just 
need to go away. It's an incredibly efficient--inefficient 
means of funding, when we're only given part of the year to 
spend. With industry, it's not predictable, so you can't do 
long-term contracts. There's a wide variety of reasons why it 
is not an effective or efficient means of using the taxpayer 
dollars. It needs to go away.
    Senator Cotton. Yeah. So, the Budget Control Act was 
designed to have 8 eight years of potential sequestration cuts 
if budget caps aren't met. We have now gone through three 
iterations of 2-year budget cycles. I predict that, if we don't 
repeal the Budget Control Act, we'll have a fourth iteration in 
2020 and 2021 before that law expires. I think Congress should 
just repeal it outright this summer.
    General Milley, I want to return to what you said about 
readiness. So, you predict that, barring some significant 
increase in the demand for land forces, all Army elements will 
be--will meet your readiness goals by 2021-2022?
    General Milley. That's the glide path I'm currently 
estimating, that's correct.
    Senator Cotton. Where are brigade combat teams today?
    General Milley. I don't want to give specific numbers in 
open testimony. I'll be happy to do it in classified testimony. 
But, it's in the range of 50 percent.
    Senator Cotton. Where were they when you took this job, 3 
years ago?
    General Milley. Significantly less than that. When I came 
in,
2-\1/2\ years ago, we had two brigades at the highest level of 
readiness.
    Senator Cotton. Okay. Good work.
    Secretary Esper, I'd like to turn to a point about long-
range fires. It has a policy implication. So, Department of 
Defense, Department of State have long recognized and 
acknowledged publicly that Russia is violating the INF 
[Intermediate Nuclear Forces] Treaty. If Russia continues to 
violate the INF Treaty and the United States continues to 
observe the INF Treaty, doesn't it stand to reason that there's 
no way the United States can make up the gap in long-range 
fires in Europe?
    Dr. Esper. It is. We are looking at hypersonics as a 
potential way, a promising way to be able to reach beyond the 
treaty constraints imposed by the INF. So, that's one option. 
But, clearly, as I've spoken to industry, if that constraint 
did not exist now, we could certainly do it with missiles.
    Senator Cotton. It would be the easier way to do it than 
developing hypersonics that might be compliant----
    Dr. Esper. Probably easier and quicker, although 
hypersonics provide--have some benefits that--in terms of 
volume of fire and other things that you can do. But, yes.
    Senator Cotton. General Milley, I'd like to turn to an 
operational aspect of another one of the six modernization 
priorities, the network, and, specifically, fighting in a 
denied environment. Both of you have discussed with me how 
we're working with our soldiers to make sure that they can go 
back to the old-fashioned way of fighting, with compass and map 
and so forth, in the call for fire and navigation and what have 
you. If that were to happen, if our soldiers had to fight in a 
denied environment, surely the enemy soldiers would also be 
fighting in a denied environment, as well, right? There's no 
situation in which, to use the football term, it won't be 
raining on both sides of the field?
    General Milley. No, I think that all modern militaries are 
incredibly reliant on very sophisticated command-control 
communication systems, reliant on space systems, GPS, you know, 
precision in navigation and timing capabilities. All modern 
militaries rely on those. Those are vulnerable for all forces. 
So, yes, I guarantee that any adversary that takes on the 
United States will be operating in a significantly degraded 
environment.
    Senator Cotton. So, if our soldiers are using compasses and 
hand-and-arm signals, so to speak, to put it in colloquial 
terms, their soldiers will be using compasses and hand-and-arm 
signals.
    General Milley. I would imagine that that is very likely.
    Senator Cotton. Do you have any doubt that our soldiers 
fighting on those terms are going to be able to defeat their 
soldiers?
    General Milley. Well, as you know, that our Army, like 
modern armies, we're very reliant on these things for 
navigation and for precision munitions and for calling in 
close-air support. It's important that we have systems that are 
resilient, that are capable of operating in degraded 
environments, and that our soldiers are trained to do so. I'm 
confident that our soldiers' ability to operate in a degraded 
environment is improving. A couple of years ago, we started 
doing cyber operations against ourselves, out at the National 
Training Center. It's a very effective way to increase the 
training levels and the comfort of our soldiers to operate in 
those environments.
    So, it's not going to be a perfect world. Combat's not a 
perfect environment. It's a very lethal environment. It is 
something that we'll have to adapt and overcome the ability of 
operating in a degraded electronic warfare environment. There's 
no question about it.
    Senator Cotton. Thank you General, my time is expired.
    Senator Inhofe. Senator Rounds, presiding.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    I also have to go to vote, so I'm going to be quick with my 
questions.
    I think, to follow up on Senator Cotton's questions, Are we 
training our troops now with compasses and maps, just as at 
Annapolis, after a 20-year gap, they're now teaching how to do 
celestial navigation? In other words, are we specifically 
training for the failure of the GPS system?
    General Milley. Yes.
    Senator King. That's a very succinct and--that's the answer 
I hoped I would get.
    Dr. Esper. We are reinforcing, Senator, the importance of 
doing that in training scenarios, in training activities, that 
you have to be prepared to operate without communications, 
without electronics across a range of specialties.
    Senator King. Good. I think one of the most important 
things that's going on now is the Army Futures Command. I guess 
my question is, Should that be a four-star in order to give 
that person sufficient authority to do the kind of coordination 
and pulling together of authorities to make it work?
    Secretary?
    Dr. Esper. Yes, sir. We believe so. Not just that, but the 
Army Futures Command is envisioned to be a peer institution to 
the other four-star major commands. That's Army Materiel 
Command, TRADOC [Training and Doctrine Command], and Forces 
Command.
    Senator King. I think that's important, because there's 
going to be some important turf battles, I think, going on 
there, and I think it's important that the authorities be 
equivalent.
    Secretary Esper, this isn't a hostile question, but it's a 
challenging question. You talked about acquisition. The Army 
doesn't have a very stellar record in the history--in recent 
history, in terms of acquisition. You talked about, ``We're 
going to do it better.'' Why? What--why--the people that didn't 
do so well before weren't bad people, and they were doing their 
best. What are--what is changing, systematically or 
structurally, in order to give you the assurance that we're not 
going to have some of the disasters that we had in the 1990s?
    Dr. Esper. Yes, sir, it's a fair question. Needless to say, 
we have taken a hard look at what experts have said in the past 
who have revealed--reviewed Army programs. We have studied 
reports, such as the Decker-Wagner report. We've had officers 
working on this for a couple of years. We know that one of the 
fundamental problems with the current big-A acquisition system 
is lack of unity of command and unity of effort. In other 
words, we have piece-parts of the acquisition system spread 
across multiple commands and, in some cases, not under a 
specific command. So, the promise of Army Futures Command, in 
one aspect, is to pull them under, get--pull them all together 
under a single commander, who can manage everything from what 
he or she believes the future threat environment may look like, 
to operational concepts, into materiel solutions, all the way 
through testing and evaluation and procurement. And so, you'd 
have that single chain of command. That's number one.
    The other big problem has been a requirements process that 
has crept along, that has extended the timelines and costs----
    Senator King. Requirements creep.
    Dr. Esper. Yes, sir. And so, the--what the cross-functional 
teams are doing now, have been doing, and successfully, and we 
will--this will be imported into Army Futures Command--is to 
put all those stakeholders that I just described at the table 
up front, and to agree on what is a--what are the reasonable 
requirements that we know that we can achieve in a date certain 
that provides us overmatch, that the technology is sufficiently 
available to do, and move along that type of line. As 
technology matures, we will continue to incrementally approve--
improve vehicles or systems, whatever the case may be.
    Senator King. Well, one way to make sure that happens is to 
build the initial platform in a modular way that--so it can be 
upgraded without having to scrap the whole platform.
    Dr. Esper. Yes, sir. We're doing that right now as we look 
at deploying a mobile SHORAD (short-range air defenses), in 
Europe in the next couple of years. We've already decided on a 
chassis to do that, and we're working on the effectors. But, 
one of the things, as I've talked to the CFT [Cross Functional 
Training] lead on, is to make sure that you build sufficient 
size, weight, and power into that vehicle so that, as the 
technology matures, for example, we could put lasers on it, 
because lasers provide an unlimited magazine, if you will, at 
very minimal cost to do that.
    Senator King. Well, I'd like to follow up with you offline, 
because, just the number of hearings that we've had, there are 
lots of lessons. I think it's so important to try to avoid some 
of those issues that have plagued us in the past.
    Dr. Esper. Yes, sir.
    Senator King. I appreciate your attention.
    General Milley, my understanding is that the increases that 
have taken place in your funding in the last few months are 
going almost entirely to capital and not to personnel. Is that 
accurate?
    General Milley. In terms of modernization and putting it 
into, you know, remanufacturing of the helicopters or new 
helicopters, new aircraft--is that what you're talking about, 
Senator?
    Senator King. Well, just that the increase--the increment 
of increase----
    General Milley. Yeah.
    Senator King.--is going into capital improvements rather 
than manpower and other----
    General Milley. Well, we've taken the additional monies, 
and we're putting it in modernization.
    Senator King. That's my point.
    General Milley. Yeah. Into--absolutely, modernization, 
because modernization--we, the Army, took a modernization 
holiday in the last 16 years. We've been fighting a war, we've 
been consumed with current operations in Iraq and Afghanistan 
and elsewhere. Our modernization has lagged behind 
significantly. So, we're trying to redress that and dig 
ourselves out of that hole. That's really--in part, is the 
reform of AFC, but we are shifting monies----
    Senator King. But, we have to realize that----
    General Milley. Yes.
    Senator King.--that there are still unaddressed issues on 
the personnel side.
    General Milley. There are. But, we are increasing by 
4,000--this budget, 2019 and 2018, is an increase of 4,000 
personnel. We have a steady growth in the military personnel, 
of 4,000 a year. And we--we're shooting to get north of 
500,000--or 500,000 in the regular Army. We'll cap out at about 
343-five in the Guard and at 199 in the Reserve. So, in terms 
of military end-strength growth, there's a gradual modest 
growth in order to fill the holes in the existing units, but we 
think we needed to shift additional monies into modernization. 
That's the need.
    Senator King. I understand.
    Thank you, gentlemen. I want to thank you particularly for 
the progress that you've made, both of you. It's, I think, 
quite remarkable, necessary, and I just hope that we can see it 
maintained. I look forward--I'll have some questions for the 
record, and, Mr. Secretary, talking to you about the 
acquisition process. We've got to get it right this time.
    Dr. Esper. Absolutely.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds [presiding]. On behalf of the Chairman, 
Senator Graham.
    Senator Graham. Thank you.
    I want to echo what Senator King said. Bottom line, I think 
you all make a heck of a team for the Army. Hats off to you. 
You've been in a bad spot, and we're trying to dig out. I 
appreciate both of your leadership.
    So, let's talk a little bit about Syria, because it's sort 
of the hot topic. The President said that Assad is an animal 
who killed innocent children by using chlorine gas, and maybe 
some other form of gas, and he is going to pay a big price. Do 
you agree with that statement, Mr. Secretary, that Assad should 
pay a big price?
    Dr. Esper. Senator, it's something that, you know, is a--my 
responsibility is for title 10, making sure the Army is 
organized, trained, and equipped. It's something that is--it 
obviously is playing out in real time. So, I would, at this 
point, defer to SECDEF.
    Senator Graham. General Milley, do you agree with that 
statement?
    General Milley. Absolutely yes.
    Senator Graham. Okay. Thank you.
    General Milley. No question he should.
    Senator Graham. So, do you agree with the following. If 
Assad doesn't pay a big price, we will, because we have now 
challenged him.
    General Milley. Well, in--you know, Assad or any others----
    Senator Graham. Once you challenge somebody----
    General Milley.--unanswered aggression leads to more 
aggression.
    Senator Graham. I couldn't agree with you more. The only 
thing worse than war is losing a war. And----
    General Milley. That's right.
    Senator Graham.--you said that.
    General Milley. That's right.
    Senator Graham. So, the President, I think, rightly said 
that, ``Enough is enough when it comes to Assad. You're a war 
criminal, by any definition, and a big price.'' Do you think a 
big price should include that he'll have less capability to gas 
people in the future?
    General Milley. I think his ability to use chemical 
munitions on the innocent needs to be significantly degraded.
    Senator Graham. Do you think he's a legitimate target, 
given what he's done?
    Assad?
    General Milley. I'll not answer that question in public at 
this point.
    Senator Graham. Okay, fair enough.
    I just hope a big price, when it's all said and done, that 
Kim Jong-un says, ``Hey, that was a big price.'' I hope that 
the Iranians believe that Assad paid a big price, the Russians 
believe that he paid a big price. I hope they start paying a 
price for supporting Assad. Because the President's right to 
say he's going to pay a big price, given the fact that he's 
killed 500,000 of his own people, disrupted the entire Mid-
East, and is a war criminal, by any measure. The question of 
whether or not it's a big price is yet to be determined. I 
would say this. If, after saying that, he doesn't pay a big 
price, America will pay a big price.
    Residual forces. Do you support leaving residual forces in 
Iraq, if the Iraqis would agree, to make sure ISIS doesn't come 
back, General Milley?
    General Milley. I think we need to continue to sustain our 
level of effort in order to achieve our national security 
objectives, which have been----
    Senator Graham. Would it----
    General Milley.--clearly stated.
    Senator Graham.--include a residual force?
    General Milley. Well, I think the Iraqis--absolutely, 
because I think the Iraqis----
    Senator Graham. Yeah.
    General Milley.--need continued support, so you--you don't 
see----
    Senator Graham. Sure.
    General Milley.--the return of ISIS. That's important. We--
--
    Senator Graham. Well----
    General Milley.--learned this lesson in 2011. We don't want 
to learn it again.
    Senator Graham. Well, that's right. It's in our national 
security interest to make sure we don't do this twice.
    Syria, we have a couple thousand troops training the Syrian 
Democratic Forces and doing operations against ISIL. Do you 
think that's in our national security interest, to have that 
presence?
    General Milley. I believe it's in our national security 
interest to destroy ISIS----
    Senator Graham. Right. And----
    General Milley.--absolutely.
    Senator Graham.--make sure they----
    General Milley. That's what----
    Senator Graham.--don't come back.
    General Milley.--we're doing.
    Senator Graham. And make sure they don't come back.
    General Milley. That's correct. And----
    Senator Graham. Do you think it's in our national security 
interest to counter the Iranian aggression throughout the Mid-
East?
    General Milley. I do.
    Senator Graham. Okay.
    As to all these things that we're asking you to do, do you 
think it's in our national security interest to maintain troops 
in Afghanistan?
    General Milley. I do.
    Senator Graham. All right.
    So, the bottom line is, Russia is on the prowl, China's 
making it difficult for us in their part of the world, and only 
God knows what's going to happen in North Korea. Bottom line 
is, the budget we just passed, how much of help has it been to 
the Army?
    General Milley. In my view, it's enormous help--enormously 
helpful. Again, what I mentioned earlier, it can't be one-and-
done, though. It--you can't dig yourself out of a--an 8- or 10-
year trough in readiness and modernization, which was getting 
consumed with current operating--we can't do that in just two 
budgets.
    Senator Graham. Do you agree with that Mr. Secretary?
    General Milley. This has got to be sustained over time.
    Senator Graham. Do you agree with that?
    Dr. Esper. Absolutely. What we're getting n 2018 and what 
we'll see in 2019 is tremendous. We thank the Congress. But, it 
will take many years to get to the readiness level and then get 
to the next generation of technologies we need for the future 
fight.
    Senator Graham. Yeah, I couldn't agree with you more.
    In 2011, CBO [Congressional Budget Office] projected that 
military spending in 2018 would be 801 billion. It's 700 
billion. In 2010, nondefense spending was 611, today it's 589. 
So, these are just facts. Sequestration's cost us a lot.
    So, is it fair to say that the Congress needs to understand 
that we're making progress, but we're a long way--long away--
long's way away from actually fixing the problem caused by 
sequestration? Is that true, General Milley?
    General Milley. In my view, I think that's accurate. In 
terms of the readiness and modernization of the United States 
Army, I think that's true.
    Dr. Esper. Yes, sir.
    Senator Graham. Thank you.
    Thank you both for your service.
    Senator Rounds. On behalf of the Chairman, Senator 
McCaskill.
    Senator McCaskill. Thank you very much.
    Thank you both for your service. We are glad that you are 
there.
    As you both probably are aware, I've spent a lot of time on 
this committee talking about contracting. I want to really 
drill down on some contracting issues in my time here this 
morning.
    I began some oversight on the Legacy Program, beginning way 
back in October of 2012. As you all know, the Legacy Program is 
a very expensive American effort to build the intelligence 
capacity of Afghanistan and Iraq.
    We are now very engaged in an investigation into parts of 
this contract. I have sent a lengthy letter, in August of last 
year, to Secretary Mattis requesting a lot of information that 
we--through both SIGAR and Robert Portman and I, we have all 
been asking for more oversight on this. We learned that, in 
August of 2017, that there was a nonpublic DCAA [Defense 
Contract Audit Agency] audit of the subcontractor, New Century 
Consulting. This audit, we know, includes questioned costs 
amounting to over $50 million, including Bentleys, Alfa-Romeos, 
assistant salaries of $420,000. It is--you know, it's so 
discouraging to me, after all the work we've spent on 
contracting, after all--after the War Contracting Commission 
and all the reforms we've done in contracting, that we have not 
yet figured out how to get at these abuses, close in time and 
close to the source. I don't even think leadership finds out 
about this until it's way too late. We're always engaged in the 
clawback process.
    So, I have been on this for awhile, and I would like a 
couple of things that we're not getting right now, and I'd like 
to bring them to your attention.
    One of the things that we would like is a full list of 
contracts and subcontracts in which New Century Consulting is 
still engaged in. We would also like the NCC performance 
assessments. Now, we're being told we can't get the audit 
because the audit agency is worried that, if they publicly 
disclose some of the audits, that that would discourage 
contractors in the future because their financial information 
would become public. I think we can get around that, and I 
think we've got to figure out a way to get all this information 
out. Because if I just don't embarrass the hell out of you 
guys, I don't know how we're ever going to stop this stuff. 
Ultimately, what--I'm not going to issue this investigative 
report until I figure out who was seeing this stuff and not 
saying anything, who on the ground.
    Which brings me--Secretary, when you were here on your 
confirmation, you know I talked to you about the IG [Inspector 
General] report, the DOD IG report, in terms of top management 
challenges. Ironically, the DOD IG, no surprise, had overseen 
contracting officers' representatives was one of the biggest 
challenges, and assessing and reporting on contractor 
performance was one of management's biggest challenges.
    Can you give me some good news, Secretary, as to whether or 
not you've now digested this report and whether or not you, 
along with General Milley, are actually strategizing how we 
can--I mean, we've made progress on CORs, because when I went 
to Iraq in the beginning, it was clear that a guy was just 
getting a clipboard. I mean, all that stuff with LOGCAP 
[Logistics Civil Augmentation Program] and all of the abuses 
with the cost-plus, that was really sitting at the feet of a 
very ineffective CORs training and assessment program. When 
those--the contracting representatives that are right there on 
the ground that see what's going on.
    So, give me some good news about how you view this problem. 
Please tell me that a Senator 20 years from now is not going to 
be sitting here and going, ``How in the world are taxpayers 
paying for Alfa-Romeos and Bentleys?"
    Dr. Esper. Yes, ma'am. You're correct. You know, after you 
raised the issue with regard to the contracting, with regard to 
aviation, I think it was 2,000 separate contracts amongst 
hundreds of contractors for hundreds of millions of dollars, 
and, in many cases, for the same parts at different prices, I 
went back and went through that report. I've discussed it with 
folks internally. I will tell you, in the 4 months I've been on 
the job, I have met with Contracting Command twice, as recently 
as 3 weeks ago. I've had a conversation with my senior 
acquisition executive. It's something that General Milley and I 
recognize is a challenge. The head of Army Materiel Command is 
all this week. We recognize that, as the--as that report 
outlined, is, we need to have clear metrics and hold leaders 
accountable for meeting those metrics with regard to 
accounting--contracting, I'm sorry.
    One of the reform initiatives we're pursuing right now is 
to--is aimed to reduce the number of contracts, reduce that 
process. We're looking at savings of possibly over a billion 
dollars over a multiyear period. But, there's a lot more work 
we need to do with regard to this. It's--we just don't have--we 
have to be good stewards of the taxpayers' dollars, and that 
means reform includes, certainly, contracting.
    Senator McCaskill. Well, I look forward to having a 
meeting. And you've been kind and tried to reach out to my 
office, have a meeting. When we have that meeting, let's talk 
about these contracting representatives----
    Dr. Esper. Yes, ma'am.
    Senator McCaskill.--on the ground, and what next step we 
need to take to augment their ability to be the eyes and ears. 
I won't regale you now, because I'm out of time, with all of 
the time and energy that has been spent on this.
    General, if you could help get this information that I've 
asked for, I would really appreciate it. I think----
    General Milley. We will get you the information.
    [The information referred to follows:]

    [The documents received will be retained in the committees 
files.]

    Senator McCaskill. Thank you so much.
    General Milley. What you're describing is unacceptable, 
smacks of corruption and criminal activity. It's unacceptable, 
and the people are going to be held accountable.
    Senator McCaskill. By the way, we keep doing business with 
them. This goes all the way back to the alcohol at a party.
    General Milley. I got it. We owe you answers.
    Dr. Esper. I would just add briefly, I had a good meeting 
with the head of GAO [Government Accountability Office] a 
couple of weeks ago to talk about a number of issues, past 
reports, along the same lines you raised. We made a commitment 
to work together to help us look at issues and solve them. So.
    Senator McCaskill. Thank you very much.
    Senator Inhofe [presiding]. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General Milley, I commend the Army for already reaching 
full operational capability on the fielding of Cyber Force 
ahead of the October 2018 requirement. Can you share the 
lessons learned on that process and from the Army's 
experimentation with placing offensive and defensive cyber 
capabilities down to the brigade combat team level? And also, 
would you share your perspective on integrating artificial 
intelligence to enable both superior performance and security 
of Army networks?
    General Milley. I'd say, really, two or three things, here, 
on the cyber piece of it. First of all, we have a lot--even 
though we've achieved FOC [Full Operational Capability] we 
have--on our objectives that we stated, in terms of our 
organizations and our capabilities, the cyber protection teams 
and the offensive teams, there's still more growth, and that's 
a big growth industry. Cyber is an area, a domain of warfare 
that is going to require us to continue to grow in the out 
years. So, we're not really done, even though we've achieved 
FOC for the stated objectives that you're referring to.
    Some of the key lessons learned. I think one of the biggest 
lessons learned is to empower the youth. You and I and probably 
most in this room are essentially digital immigrants into a 
world in which we are really semi-familiar with a lot of the 
digital technologies that are out there, but these young 
soldiers and sailors and airmen and marines that are coming 
into the force, they're digital natives, and this is all second 
nature to them. So, it's best to arm them, equip them, and 
listen to them as they create the capabilities and the forces 
that are going to be required in this new domain of war. That's 
probably the biggest lesson. We've embedded them into the 
units, the tactical and operational units, and we also have 
ones at operational and strategic level, as well. But, the 
tactical-unit ones are doing tremendous work. We're learning a 
lot more about the vulnerabilities of our systems and how to 
make them more resilient. But, I think the biggest single 
lesson learned is, listen to the young, on this one. This is 
one where they have far more wisdom than the rest of us.
    Senator Rounds. These young people are vital to the long-
term security defense----
    General Milley. No question.
    Senator Rounds.--in our Nation.
    General Milley. That's right.
    Senator Rounds. We want them to stay in the Army. We want 
them to feel like this is a good profession for them and that 
there is a place for them, long term. Fair enough?
    General Milley. Absolutely.
    Senator Rounds. Part of that--I'm going to ask your 
personal opinion now, and part of it's because I think you do 
listen to these young people coming in--what's the scuttlebutt 
on TRICARE?
    General Milley. TRICARE is a very large capability--
insurance capability that takes care of our soldiers. I am, as 
well as my family, recipients of that, and have been for years. 
There are--like there are with any large system, there are 
bureaucratic issues sometimes with it. I will tell you that, on 
balance, TRICARE is an effective system for our soldiers. There 
are areas, though, of improvement that we need, in terms of its 
responsiveness to people. But, on balance, it's not a bad 
system at all.
    Senator Rounds. Part of the challenge is, is making sure 
the claims get paid on time.
    General Milley. That's right.
    Senator Rounds. Are they getting paid on time?
    General Milley. I'd have to look at the exact statistics, 
but I have not heard--I don't have any evidence that there's 
any wide disparity of being paid on time.
    Senator Rounds. Thank you.
    You know, one of the other items that I think a lot of 
these young people appreciate is the fact that they don't get 
paid a whole lot of money, and they want to make that money go 
as far as it possibly can. We provide, on bases, the 
commissary.
    General Milley. Right.
    Senator Rounds. Do you think those commissaries are 
valuable to the young people that are coming in?
    General Milley. My professional opinion is yes, because the 
commissary--you know, food is one of your big--bigger household 
item expenditures--housing, food, medical, education, those 
sorts of things, but food is a big one. So, a family of four--
our demographic is, the majority of our soldiers, well over 50 
percent, are in the E4-E5 range, they're in the 26-27-28-year-
old range, and they are--about 60 percent are married, and, of 
those that are married, on average, there's two children. So, 
you--on average, you know, the bulk of the Army is about a 
family of four. A family of four, on average, their monthly 
food bill is several hundreds of dollars. The commissary--use 
of the commissary knocks off a significant portion of that, in 
lieu of having to go to some commercial entity to buy food 
every month. So, the commissary is a big benefit and advantage 
to the soldiers, sailors, airmen, and marines out there, in my 
view.
    Senator Rounds. Do you think that those young people coming 
in, the ones that we want to keep in--do you think they feel 
that the commissary system is working to their benefit today?
    General Milley. I think so, yes. I think the commissary is 
one of those areas where you almost universally get positive 
comments, in terms of the cost, performance, the quality and 
diversity of goods that are sold there. Commissary gets pretty 
high marks.
    Senator Rounds. Very good. Thank you.
    Thank you both for your service to our country.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, to our witnesses, for being here.
    I'd like to follow up on an issue that really hits a nerve 
in my home State. Secretary Esper, during your confirmation 
hearing, you may remember that I asked you to look into 
complaints from National Guard officers about delays in Federal 
recognition of their promotions. According to the National 
Guard Association, many Guard officers are waiting 200 days or 
more. This can have a really negative effect on their pay, on 
their benefits, on their command opportunities.
    So, Mr. Secretary, what have you found, and what actions is 
the Army taking to address this issue?
    Dr. Esper. Yes, Senator, thank you for that question.
    After we did have that during--that exchange during the 
hearing, I spoke to the TAG [State Adjutant General] of the 
Massachusetts Guard, and then, about 4 weeks ago, met with all 
54 TAGs at the Army National Guard headquarters, and this issue 
came up again. I took it back and had a meeting with my 
Manpower and Reserve Affairs personnel, and you're right, the 
numbers are too long, and it's unacceptable. And, frankly, I 
endured--my time in the Guard, I had a similar type of action, 
you know, happen to me.
    So, what we're doing is, we're digging through it right 
now. Part of the challenge is, there are multiple steps. The 
process begins at the State TAG level, goes through NGB----
    Senator Warren. Yeah.
    Dr. Esper.--the G1, all the way through, and, in some 
cases, the Senate, if it's a colonel, above. There are things 
we need to do to improve the process. We have added additional 
manpower. We're looking at greater automation. I think there 
are ways we can reduce the time. There's about--anywhere from 
30 to 45 days added on to determine if they have exhibited 
exemplary behavior. Then there are other things out there that 
may require congressional action. For example, part of the 
process, as I understand it, is the scrolling, which is an 
antiquated pen-and-paper process that also adds time to it. So 
we're trying to attack it on a number of fronts, but we need 
to--it needs to be much, much more timely.
    Senator Warren. Okay. Well, I really do appreciate your 
working on this. I'm going to keep pushing on this.
    You know, I understand the need to thoroughly vet our 
officer corps, but this has become a morale issue for the 
Guard. I don't think it's right to make our junior officers pay 
the price for bureaucratic delays and antiquated systems, 
regardless of where those delays originate.
    So, let me ask you another question on this. Would you 
support providing back pay to the guardsmen whose promotion 
sits idle for months while they're waiting for Federal 
recognition and actually doing the next-level job?
    Dr. Esper. Senator, I think that's a fair approach to it. 
As I discussed with you, I would want to make sure I talk to 
National Guard, make sure it's fair to them, we all understand 
what the implications are. But, I think, in principle, that's 
fair.
    Senator Warren. Good. I'm glad to hear that. You know, 
these young men and women who volunteer to serve their country 
don't get paid all that much, and I think it's just plain wrong 
when National Guard officers earn their promotions, serve at a 
higher level of responsibility for months, and then don't get 
that rank's pay while they're waiting for Federal recognition 
of that. We've got to find a way to speed this up and--or else 
I worry that it really is going to do a lot of damage to 
morale.
    Dr. Esper. I do, too, Senator. The National Guard has 
become integral to our operational readiness. They're serving 
around the world now in support of real-world activities. I was 
with the Guard in both Poland and in Ukraine in January, doing 
a fantastic job. So, we need to fix these things. And not 
just--we have similar problems in Reserves and the Active side, 
as well. It's just--to get the bureaucracy out of the way and 
make the system much more efficient.
    Senator Warren. Good. I'm really glad to hear that.
    With my remaining time, what I'd like to do is follow up on 
Senator King's question. The Army has announced plans to 
establish a new Futures and Modernization Command. The idea is 
to bring people who need new technology and the people who 
acquire that technology together under one roof so they can get 
the technology into the hands of our soldiers faster. But, 
today a lot of the cutting-edge technology is not developed 
within the Pentagon, but in the commercial sector or in 
laboratories at our colleges and universities.
    Secretary Esper, how important is it to capitalize on 
commercial and academic developments in advanced technology? 
Here's the key. As the Army establishes this new command, what 
steps are you taking to make sure it is closely tied to outside 
innovators?
    Dr. Esper. Yes, Senator, you're right, Army Futures 
Command, it's critical that we have access to talent, to 
talent, not just on the material side, particularly with the 
hard sciences, but also talent that can help us think about the 
future strategic environment, thinking in the 2030s-2040s, 
because that will inform, in many ways, the steps we take with 
regard to materiel.
    So, we are looking at a number of locations. I think we 
started out with around 150. We've winnowed it down to around 
30, and I think the next step, in a week or so, will be to get 
it down to 10, 11, 12. But, each time we go through this, we 
look at different filters, whether it's talent, it's then 
specific areas of talent, it's the proximity to innovation, 
it's proximity to academia. Then, there are other issues, of 
course, that we have to look at--quality of life, cost of 
living, all these things. So, we're really trying to be smart 
about it. We want to make sure we can attract the top talent, 
we can--we have access to an ecosystem of talent, where we put 
it. That's why we're really trying to get into a--into an area 
that really offers much of that.
    Senator Warren. Well, I'm really glad to hear that the Army 
is focused on taking advantage of existing talent and where 
technological innovation is occurring. Of course, General 
Milley and I both come from a State where a lot of that is 
going on. I know you've lived there, Secretary Esper. Anytime 
you want to come to Massachusetts and look around, you're 
welcome.
    Dr. Esper. Thank you, ma'am.
    Senator Inhofe. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for your 
service to our country, as well. We appreciate having you 
before the committee.
    Secretary Esper and General Milley, I'd like to ask about 
the Army's plans for production of the Stryker vehicle. I 
understand that the Army intends to produce Stryker A-1s, which 
include both improved protection of the double-V hull and 
improved mobility and the power provided by engineering change 
proposal number 1. But, I'm concerned that the current budget 
request for fiscal year 2019 doesn't seem to provide for 
converting the Army Stryker brigade combat teams to modern 
Stryker A-1s quick enough. Getting them out in the field seems 
to be important, particularly with new threats emerging around 
the world. Could you please give me an update on the Army's 
plans for production of the Stryker vehicle?
    Dr. Esper. Yes, sir. We are looking at, like you said, 
improving the survivability by adding the double-V hull. We're 
looking at improving lethality by adding the 30-millimeter gun 
and some antitank weapons. I had the privilege of actually 
seeing a Stryker when I was in Grafenwoehr, Germany, in 
January, walked around a vehicle, spent some time with the 
soldiers. They are very impressed with what they're doing. It 
will go through operational testing now for several months, and 
I think that we will make an assessment with regard to its 
performance. All the feedback now is good.
    I would note, in terms of procurement, we've increased 
about--over 18 percent over the fiscal year 2018. So, it's 
something that General Milley and I are watching closely, but, 
you know, the commitment is to make sure we improve the 
survivability and lethality of all these vehicles as we look 
at, you know, this great-power competition that we're in now.
    General Milley. As you're aware, Senator, the--you know, we 
are putting money against it, but we're also--it's a balance 
right now. So, for the Bradley, the Abrams, and the Stryker, 
these systems were designed and came online many, many years 
ago. Now, they've had various upgrades and improvements over 
the years, but they are products of technologies and ideas that 
come out of the 1960s and 1970s, vice today's world. So, the 
next-generation combat vehicle, ground combat vehicle that 
we're working on, it's in the R&D and S&T phases, and the 
prototyping, et cetera. That will eventually replace the entire 
family of vehicles that we have.
    The Abrams, Bradley, and Strykers, realistically their 
lifespan is probably 10, maybe 15 years. So, we are putting 
improvements in double-V hull, lethality, and some other 
things, but what we really need to do now is to make the shift, 
in money and investments, to a next-generation combat vehicle, 
and that's what we're doing with our modernization accounts.
    Senator Peters. Well, speaking of the--or the next combat 
vehicle, could you please talk a little bit about--or at least 
give us an update on the prototyping effort, which is something 
different that seems to make some sense?
    General Milley. Yeah, the philosophy or the methodology, 
we've shifted in--and we're incorporating much more 
prototyping, which will crunch down the amount of time it 
takes. There's a long lead time to the Army acquisition 
process. It's very linear. It's step-by-step. It's left-right 
or left-right or left-right or left, down the line. So, what we 
want to do is accelerate that by bringing in prototypes.
    In terms of the next-generation combat vehicle, one of the 
things that we're accentuating in it, it must be optimized for 
urban operations, which our current families of vehicles are 
not. It must be optimized so that it can be both manned and 
either autonomous or semi-autonomous, robotic, depending on 
what the commander chooses to do at the time in the situation 
in the battlefield. Those are significant radical changes to 
the current system or family of vehicles.
    So, there are companies, there are corporations and 
industries out there, that are already producing robotic 
vehicles. We are modifying them, and we are prototyping them. 
We have several experimental prototypes going on right this 
minute that are showing some promise. We're not there for down-
selecting or picking vendors or anything, but we are 
experimenting with the various technologies. We think that, by 
2028, we should be able to begin fielding a next-generation 
combat vehicle that's optimized for urban operations, that's 
both--either manned or unmanned for ground operations, that has 
lethality, power, speed, weight, that's optimized for the next 
generation of a battlefield that we perceive. We think we'll 
have that fielded inside of 10 years, which, under current Army 
practices, would take 15 or more.
    Senator Peters. Yeah, and as mentioned in a previous 
question, a great deal of this work is being done on the 
civilian side. Obviously, I'm very involved in self-driving 
vehicles, from Michigan----
    General Milley. Yes.
    Senator Peters.--and what's happening in the auto industry. 
A lot of work is being done in Michigan, in TARDEC [Tank 
Automotive Research Development and Engineering Center], and 
other places.
    General Milley. Absolutely.
    Senator Peters. You mentioned the next-generation vehicle 
with the autonomy features. Do you see having two different 
variants, or will all of these capabilities be----
    General Milley. There will be multiple variants. There will 
be a tank-like variant, there will be a infantry carrier-type 
variant, there will be logistics and medical variants. I mean, 
it's a family of vehicles. It's not a single vehicle, but 
they'll be based off of common chassis and common engines and 
power packs and so on.
    Senator Peters. Well, my question related to those 
variants. Will they all have autonomous capabilities----
    General Milley. Yes.
    Senator Peters.--or will some----
    General Milley. Every ground and rotary wing vehicle that 
the United States Army produces from now on, the next 
generation, after Bradley, after Abrams, every single one of 
them has to have the base requirement. It has to be either 
manned or unmanned, robotic--either fully autonomous or semi-
autonomous, built into its very basic requirement. It has to be 
able to have that option so that the commander on the 
battlefield of the future has the option, based on mission and 
enemy and terrain and time and troops available, to pick 
whether he wants this objective to be seized with manned 
vehicles, or not, and it depends. It depends on the situation 
sort of thing at the moment in time. But, we want that option 
to be available to company commanders, battalion commanders, 
brigade commanders in the future. So, the requirement for all 
vehicles, in the air or on the ground, is both manned and 
unmanned.
    Dr. Esper. Senator, to be clear, we're looking expansively. 
It's--it is beyond combat vehicles, as the Chief just alluded 
to. So, for example, within this year, the 101st will be 
experimenting with an unmanned squad support vehicle. I'm 
talking to our senior acquisition executive about unmanned 
trucks so we can transport, you know, supplies. We hope to 
accelerate that, as well, so we could be experimenting in the 
next couple of years with regard to, you know, unmanned 
sustainment, logistics support.
    Senator Inhofe. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and for your service.
    General Milley, thank you. Actually, for the 3 years that 
I've had the opportunity to get to know you, the only thing I 
don't like about you is, you're a Patriots fan. But, I thank 
you for your generous time in the office the--yesterday.
    Just a quick update. You and I talked. I think it bears 
repeating. Talk a little bit about what it means to become a 
more lethal force, and, you know, in, hopefully, a limited 
amount of time. I've got one, two other questions. But, I think 
running through that's very important.
    General Milley. Well, just briefly. I mean, the way I look 
at it is, you evaluate an organization, both based on its 
individuals, but also on its collective capability, and we look 
at the training, the equipping, the manning, and the 
leadership.
    So, for training, we want to make sure that a lethal force 
collective entity--a squad, platoon, company, et cetera--has 
got many, many reps at their basic mission-essential tasks. Not 
one or two reps, but hundreds of reps, if not thousands of 
reps. That's what makes the Patriots a great football team, is 
because they do it thousands of times before they win, except 
against the Eagles. So, the--but, reps matter. Reps matter. So, 
one of the things, the initiatives we're doing, is a synthetic 
training environment, which will give leaders and collective 
units thousands of reps, relatively cost-free, without going 
out into the field. So, training's important, lots of reps. 
That applies to the individual, as well.
    In terms of equipping, to make sure that, not only do you 
have the right amount of equipment on hand, but that equipment 
works, so spare parts and the maintenance of that equipment so 
it's fully operational. We want to make sure that that 
organization has the most modern equipment that is available, 
really, that money can buy.
    In terms of your manning levels, we don't want units going 
out to training at home station or at the Combat Training 
Center at 75 or 80 percent fill. We want them going out into 
the field to train at 90, 95, or 100 percent, or even more, to 
train, because they get the full benefit of the collective 
training experience.
    The leadership is key. We want leaders who can operate in 
intense environments, middle of the night, smoke's going on, 
bombs are going off, people are screaming and bleeding right 
next to you, and yet you can still make incredibly complex and 
difficult decisions under intense pressure. They can be morally 
correct decisions, ethically correct decisions, and tactically 
correct decisions. You can do that in unbelievable pressure. 
That's what it takes in a modern environment, but that's the 
same type of leaders that it took in World War II, at Normandy, 
or Iwo Jima and the Korean War and Vietnam, and so on.
    So, that's what--increased lethality. It's the combination 
of training, equipping, manning, and having excellent leaders 
that are up to the task, units that are fit, they're able to 
shoot, move, communicate, protect themselves, and sustain 
themselves.
    Senator Tillis. Do either of y'all think that 
sequestration's going to be helpful to achieving that increased 
lethality?
    General Milley. No, it'll kill it.
    Senator Tillis. I want to talk briefly about Futures 
Command. I believe that the Army Futures Command that Senator 
Warren made a--may have brought it up. I look forward to seeing 
you all go through the process in assessing the various States 
that may be the most hospitable to house that command. I know 
that you're going to start proceeding through the process over 
the next week or two. It's like I've said a number of times 
before, I will never fight for a dollar in North Carolina that 
can be better spent somewhere else. I look forward to that 
selection process being a level playing field, absent political 
pressure to go one place or another because of the jobs or 
economic impact. When we're constantly trying to fight to get 
you all more money, the last thing we can possibly do is 
satisfy the political pressure of any one person or any one 
delegation, when you know in your heart of hearts there's a 
better or more optimal place to put it. The States that are 
under consideration, the cities that are under consideration, 
have the onus on presenting the best possible case. And your 
onus is to make sure that whoever doesn't get it, should it be 
North Carolina, Massachusetts, any other State that you may be 
considering, that you've got a well-articulated reason for why 
whatever choice you had, based on the numbers, based on the 
empirical data, was the best place. I will heartily support 
that decision, regardless of where it goes. I obviously would 
like for it to be in North Carolina, but only because it's the 
best and highest use of the limited dollars that you have.
    General Milley. I can assure you, Senator, that Secretary 
Esper has laid out a rigorous process, it's totally apolitical, 
it's totally based on data and analysis, and that we are very 
rigorously and deliberately going through that and evaluating 
each location based solely on its own merits, with no political 
interference whatsoever.
    Senator Tillis. Thank you all very much for your service. 
We may submit a few questions for the record.
    General Milley. Thank you, Senator.
    Senator Inhofe. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Secretary Esper, I understand you'll be visiting White 
Sands Missile Range next week.
    Dr. Esper. Yes, sir.
    Senator Heinrich. So, I want to thank you for taking the 
time to visit that facility. I think you'll be incredibly 
impressed at the scale of the range, in part, which is very 
unique.
    I want to ask, if you're able, if you might take a few 
minutes and quickly visit what used to be the old 2nd 
Engineering Battalion facilities. It's about $170 million worth 
of brand-new facilities at White Sands that is currently 
sitting vacant. At the very least, drive through that 
footprint. I think it'll give you a better understanding of the 
potential for hosting a security force assistance brigade at 
that site. So, if you would, I'd ask you to fit that into your 
schedule.
    Dr. Esper. Yes, sir.
    Senator Heinrich. Super. I very much appreciate that.
    As you know, the full New Mexico delegation and local 
communities support the addition of that mission. I think one 
of the things you'll find at White Sands is that it's an 
incredibly safe community, with good-quality family housing, 
and, for that matter, one of the best schools in the State. So, 
it's a very attractive place for folks to serve.
    General Milley, I was really glad to see the Army place a 
high priority on modernization, and the short-range air and 
missile defense, in particular, and was particularly impressed 
to see that General McIntire and the Army's new cross-
functional team have accelerated some systems by up to 5 years. 
I think that's good news to all of us here who recognize, as 
you've said, that we've sort of taken a break from 
modernization for far too long. Do you believe that CFTs will 
be able to shorten the prototype development and fielding 
timelines for your modernization objectives? How are you seeing 
that come together?
    General Milley. I do, I think it's coming together 
tremendous. I think that the process that we've put in place, 
the organization that we've put in place, and the governance or 
oversight we've put in place is very effective. I have no doubt 
that it's going to shorten the procurement and acquisition 
timelines. The Vice Chief of Staff of the Army, General Jim 
McConville, and the Under Secretary of the Army, Ryan McCarthy, 
are driving this, and these guys are driving it hard. They're 
sitting on top of the six cross-functional teams--there's 
actually eight, but two of them are embedded under two others, 
so there's six total teams that are working--each of those six 
modernization priorities--long-range precision fires, next-
generation future vertical left, and so on.
    With respect to air missile defense and McIntire, he's 
doing a great job in driving that. You're correct, we, the 
Army, have been blessed by having the greatest Air Force ever 
known throughout the history of mankind, in that we, the Army, 
have not come under enemy fixed-wing air attack since the 
beaches of Normandy. If we get into a conflict with a great 
power, those days'll be gone. We will likely be under attack 
from enemy fixed wing. Our Air Force would again do a 
tremendous job, but we, the Army, must protect ourselves. So, 
air and missile defense is a critical capability to protect our 
unit formations, and it's a critical vulnerability right now. 
So, we want to speed that up as fast as we can. We're doing 
that. McIntire is leading the way, under the supervision of 
McCarthy and McConville. So, the three ``Macs'' are bringing it 
home.
    Senator Heinrich. Are you comfortable with how much the 
Army is budgeting towards RDT&E [Research Development Testing & 
Evaluation] funding to meet those modernization and testing 
goals?
    General Milley. Well, from my perspective, I would always 
like more to put in there, but it's a balanced portfolio----
    Senator Heinrich. Sure, I get that.
    General Milley.--and we think--the Secretary and I think 
that we have balanced it for the FY---for this proposed budget, 
2019, we think we have about the right amount. We've increased 
it--I think it's 8 percent or so, in terms of our R&D and S&T 
capabilities. So, we think it's balanced. It's not optimized, 
but it's balanced.
    Senator Heinrich. I very much appreciate that approach.
    During the AUSA Global Force Symposium, General McIntire 
said that the first prototype platoon of Strykers equipped with 
directed energy weapon systems will be fielded by 2023, but 
that he'd like to move that timeline further to the left. What 
can we do? Is it just a matter of funding, or are there other 
things that we can do to assist with that? Because I think 
that's a very important development.
    Dr. Esper. I think, Senator, I'd have to look at whether 
it's the funding challenge, but there is a technology 
challenge, as well. That's why we're trying to work with the 
other services on that, and he's talking about fielding. We are 
trying to push hard to move left as quickly as we can. It does 
get to the bigger issue about sustained funding beyond 2019 to 
make sure we can make those big procurement bets at that point 
in time. But----
    Senator Heinrich. You know, Secretary, if anything, I 
finally see that we're turning a corner on recognizing just how 
far the technology has moved. Now it's more a matter of getting 
all of these technologies through the various processes----
    Dr. Esper. Right.
    Senator Heinrich.--working out how they're going to be used 
in the field. It's not so much a limitation, in my view, on the 
technology anymore, it's a limitation in how quickly we can----
    Dr. Esper. Yes, sir.
    Senator Heinrich.--work out the details of how they will 
operate in the field.
    Dr. Esper. Right. Our view is, don't make the perfect the 
enemy of the better. So, even if we get limited power at a 
limited range, we'll start there, and then we'll continue to 
upgrade as the technologies mature, and build upon it.
    Senator Heinrich. Look forward to working with you on that, 
Secretary.
    Thank you both.
    Senator Inhofe. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Secretary, General, welcome. Thank you for your 
service.
    Secretary Esper, the capability gap separating the United 
States and its competitors, Russia and China, has reached a 
troubling inflection point. Over the past two decades, for a 
whole lot of reasons, the United States military hasn't been 
able to match the rapid pace of Russian and Chinese military 
modernization. Both nations are reaching parity in some areas 
once dominated by the United States, such as field artillery, 
reactive armor, air defense artillery, electronic warfare, and 
antitank guided munitions. Furthermore, the training and 
professionalism of the Russian and Chinese militaries have seen 
steady improvements, as well. That's why the recently released 
National Defense Strategy explicitly directs the United States 
military to prioritize the threats emanating from Russia and 
China. The NDS [National Defense Strategy] will have far-
reaching implications for how the U.S. military trains, equips, 
and postures its forces. Each of the services will play a 
significant role in the implementation of the NDS, which 
requires new and innovative ways of conducting joint 
operations.
    In light of the NDS, what does the Army see today as its 
primary mission?
    Dr. Esper. Our primary mission is to deploy, fight, and win 
the Nation's wars, Senator. As the National Defense Strategy 
has outlined in this era of great-power competition, our focus 
is on high-intensity, near-peer threats, possibly Russia and 
China--or namely Russia and China. So, that is our core focus.
    Now, in addition to that, the NDS outlines the need to, of 
course, protect the Homeland, the need to preserve irregular 
warfare as a core competency. But, those two strategic 
competitors are our primary focus.
    Senator Cruz. How is the Army prioritizing threats posed by 
Russia and China, both in the context of weapons procurement, 
but also transitioning the mindset of our soldiers from a 
global war on terror to a more expeditionary posture?
    Dr. Esper. So, we have moved to focus on high-intensity 
conflict in our home-station training and our national training 
centers, particularly the National Training Center. When I was 
there in November visiting and the 1st Calvary was going 
through the training, they were actually facing scenarios that 
the Ukrainians saw in eastern Ukraine against the Russians--
high-intensity use of drones, et cetera. So, training is one.
    With regard to materiel, as we've outlined today, there are 
six modernization priorities that we think, if fully exploited, 
will ensure our overmatch in the out years. So, that's the 
second part of it. Again, we must, as the Chief spoke 
eloquently on earlier, continue to develop our leaders to make 
sure that they are prepared for the future battlefield, and 
train the soldiers, as well, so that they can fight along the 
entire spectrum of conflict, which well may--which well may 
mean that they don't have access to communications, 
electronics, et cetera.
    Senator Cruz. I'm also concerned about the modernization of 
our armored brigade combat teams, such as those at Fort Hood 
and Fort Bliss in Texas. Technology such as active protection 
systems and reactive armor have failed to keep pace with where 
Russia is currently. I understand the Army has started fielding 
systems like Trophy before deploying to Europe. What is the 
status incorporating APS systems like Trophy on our armored 
vehicles such as the Bradley or the Stryker?
    Dr. Esper. Senator, you're correct, we are looking to--we 
are outfitting some armored brigades with active protection 
systems. We're looking at the same with regard to Bradleys and 
Strykers. But, there are other things going on, as well. We're 
upgrading the Abrams tanks. With the budget we see in 2018 and 
2019 will allow us to accelerate the upgrade of five ABCTs from 
10 years to 5 years. And, of course, we are pursuing other ways 
to improve the survivability and lethality of these systems.
    Senator Cruz. Additionally, how are you working to ensure 
that our armored formations incorporate technology such as APS, 
FLIR, and other off-the-shelf technologies to keep pace with 
the threats that exist today?
    Dr. Esper. I would defer to the Chief here, as well--and 
this is one of the areas where the schoolhouses are looking at 
requirements for the future fight, certainly cross-functional 
teams, to make sure that we are incorporating whatever 
technologies are available to do that. Certainly with regard to 
communications we have pivoted now to looking a lot more at 
commercial off-the-shelf technology that we could ruggedize. 
I've seen that already with regard to how we are outfitting the 
Stryker and infantry brigade combat teams, and it's the only 
way we're actually going to be able to keep up with the 
changing pace of technology in the communications sphere.
    Senator Cruz. General, anything to add on that?
    General Milley. Yeah, in the seconds remaining, I would 
just tell you that we are actively upgrading our Bradley and 
Abrams formations. But, as I mentioned earlier to a previous 
question, the Bradley and the Abrams came into service when I 
was commissioned as a 2nd lieutenant. They have served the 
Nation extraordinarily well, but they are fundamentally at the 
end of their lifespan. We'll probably get, max, another 10, 
maybe 15 years out of these vehicles. We have maxed out their 
weight, the technological upgrades that we can do. So, hence, 
the modernization program of a next-generation combat vehicle.
    But, we are aggressively upgrading Abrams and Bradley and 
Stryker in all of our formations throughout the Army. I'm very 
confident that those weapon systems will continue to serve us 
well, even against a Russia or a China in the near term. 
Because, you know, armies don't go to war, nations go to war, 
and armies don't win wars, nations win wars, and we go as part 
of a joint force. So, it's not just the Army. It's the Army 
with the Marines, the Navy, the Air Force, the CIA, and so on 
and so forth. It's the synergistic effect of all that combat 
power in time and space against the opponent, whether it's 
China, Russia, no matter what the country, that's what brings 
victory or defeat.
    We do know that decision in war happens on the ground. We 
know that, because that's--war is part of politics, people live 
on the ground, and so on. So, it's important. The Army's 
contribution to that piece is critically important, that we 
have a decisive conventional capability that can conduct 
campaigns over extended periods of time to do combined arms 
maneuver and defeat the armies of the opponent, and then to 
take control of the land mass from the enemy army. That's the 
fundamental task of any army, and that's our task, as well. 
We're confident in our current capabilities, we're confident in 
our current systems, relative to Russia, China, or anyone else, 
for that matter. But, we are keenly aware of the modernization 
programs of both Russia and China right now, and we are keenly 
aware that we need to shift gears rapidly into the 
modernization in order to make sure that we don't have parity 
or that they don't close the gap or cross the gap.
    We want a military, across the board, to be unbelievably 
lethal and unbelievably dominant so that no nation will ever 
challenge the United States militarily. That's what we want.
    Senator Inhofe. Good----
    Senator Cruz. Thank you, gentlemen.
    Senator Inhofe. Good statement.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    This is for both Secretary Esper and General Milley. 
Senator Cruz has touched upon the National Defense Strategy and 
how ready we are, but I want to focus on the Asia-Pacific area. 
China, of course, is a significant rival in the Pacific. It's 
important for the United States to project strength, reassure 
our allies, and build partnerships in Asia-Pacific, 
particularly in light of the actions of China and North Korea.
    So, I have a series of questions for both of you. How are 
you resourced for mil-to-mil exercises in the Asia-Pacific 
region? How are you resourced to cover Army requirements in the 
region? Is the Army's force laydown appropriate to meet current 
threats? Does the Army envision directing additional assets to 
the Asia-Pacific area of operations?
    Let's start with you, Mr. Secretary.
    Dr. Esper. Senator, I'll take a shot at the first question. 
One of the most important programs we have out there for 
improving interoperability and addressing training in the 
Pacific is the Pacific Pathways Program. The U.S. Army Pacific 
Commander has requested $61.8 million for that program in 
fiscal year 2019, and the Army fully funded it. So, I think we 
will continue to sustain that level of training and readiness 
as we look ahead.
    With regard to disposition of forces, there are currently 
no plans to put more forces in the Pacific, that I'm aware of. 
I'll defer to the Chief if there is something else. But, really 
what we're focusing now is to make sure that we--the troops 
prepare, both at home station and through our training centers, 
for the high-end conflict, whether it occurs in Europe, Asia, 
or elsewhere.
    Senator Hirono. Chief?
    General Milley. I would echo that, Senator, that our--we 
have a very wide variety of exercises in the Pacific that 
you're very familiar with. Pathways is one of those. We think 
we have adequate funding in the 2017-2018 series of bills, and 
we're requesting adequate funding in the 2019 series of bills. 
Those are really important that the United States Army remain 
continually engaged, because China, Asia-Pacific--Indo-Pacific, 
really--is the priority in the National Security Strategy and 
in the National Defense Strategy that Secretary Mattis has laid 
out for us. We think we have adequate funding and resources to 
do that. We have a considerable amount of Army forces, not only 
in your State of Hawaii, but up in Alaska, on the West Coast, 
in Washington, and forward in Guam, Japan, and Korea. So, we've 
got a good array of forces throughout the Pacific region.
    Senator Hirono. Well, there is a concern about the fact 
that the service deputies testified in the Readiness 
Subcommittee in February, and they all stated that nearly 70 
percent of young people in the U.S. today are not qualified to 
join the military. Your fiscal year 2019 request calls for an 
increase in end strength of 487,500 regular Army soldiers. Will 
you be able to continue increasing end strength without 
lowering standards, giving the small pool of people who meet 
the current standards?
    General Milley. The short answer is yes. I believe--we've 
done a lot of modeling and estimates on that--that we can 
increase our force by 4,000 or so each year that we've been 
shooting for. We've been meeting that, to date. I think we'll 
meet it in the future within lowering any standards. So, the 
key is standards. It's a standards-based Army. We're not going 
to lower those. I think we can meet the end strength.
    As far as, you know, 70--and what the vices all said, 70 
percent, that's a statistic that's been out there for a 
considerable length of time. That's well known and, we focus on 
those that do meet the standards, and we're not going to move 
the standards.
    Senator Hirono. Yes.
    Dr. Esper. I completely occur, and I would say, actually, 
in many ways, though, you know, we all face that same problem--
we, being the services--in terms of how we attract youth. We 
are putting more money into recruiting and into other ways in 
which we can attract youth. The National Guard is doing the 
same, and so, it's a challenge, but we will not lower standards 
to bring a young man or woman into the service. In fact, if 
anything, we are raising standards and we are looking at--you 
know, for example, how can we extend either basic training or 
one station unit training to make sure that the product we put 
through is ready to go, that young man or woman, when they 
arrive at their first unit.
    Senator Hirono. Let me ask a question about cyber capacity, 
because that is an issue of concern throughout these services. 
Last month, General Nakasone testified about the success of the 
Army Cyber Center of Excellence that they--you are having in 
developing and training a cyber workforce, including the first 
class of enlisted cyber operators who graduated from the Army 
Cyber School last August. What percentage of soldiers trained 
at the Army Cyber School come from the Reserve and Guard 
components? Do you envision growth in these numbers in the 
future? As the Army continues to successfully train cyber 
operators, how will that affect the Army cyber efforts across 
the service? Could the model--Army model employed at the Cyber 
Center of Excellence be scaled up to train other services or 
members throughout the Government?
    Dr. Esper. Senator, if I can, I mean, speak broadly, and 
then I'll get to one of your questions there. I--one of the 
things I was most pleased to find when I came into this role, 
about 4 and a half months ago, was how far the Army had 
progressed and what it had achieved with regard to cyber. So, 
we have a Cyber School, a Cyber Command, a cyber MOS, a cyber 
branch, and are doing really well with regard to bringing 
people in.
    The goal was to have 62 cyber mission force teams. We 
currently have 41 in the regular Army and are building 21 in 
the Guard and Reserve. I was at the Guard Bureau a couple of 
weeks ago, and they told me that they are up to, like, 30 teams 
in the States, and building more. So, I think there is--we 
continue to grow. I think the Guard, the States provide good 
opportunities, because there's a lot of talent out there that 
is familiar with these skills, and they are working in the 
private sector. So, to bring them in as a guardsman is a great 
opportunity to capitalize on skills they already have.
    Senator Hirono. Do you want to add something before----
    General Milley. It's--yeah. On the percentage, it's roughly 
a third. We can get you the exact numbers.
    [The information referred to follows:]

    In fiscal year 2017, the U.S. Army Cyber School graduated 
1,020 soldiers. Of those, 28 percent came from the Reserve and 
National Guard. Specifically, 243 National Guardsmen (component 
2), 43 Reserve (component 3) soldiers, and 734 Active duty 
(component 1) soldiers graduated from Cyber School courses. 
Thus far in fiscal year 2018, as of April 12, 2018, 26 percent 
of the Cyber School's graduating soldiers have come from either 
the National Guard or Reserves. Of those 380 soldiers who have 
graduated before April 12, 2018, 90 came from the National 
Guard, 7 from the Reserves, and 283 from the Active Army. Of 
the 278 soldiers still attending training on April, 12, 2018, 
16 percent were from the National Guard and Reserves, with 28 
from the National Guard and 15 from the Reserves.

    General Milley. You were asking about other RC at the--that 
are getting trained.
    In terms of growth, absolutely. The cyber is a domain of 
warfare--you know, land, maritime, and air, the normal three 
traditional ones, but now space and cyber. So, developing 
capable cyber forces in the joint force, in all of the 
services, is critical to our warfighting capability in the 
future. So, this is an area of absolute growth. No question 
about it, and we're very fortunate--and you know him well--
General Nakasone has led the way for the Army, and done a great 
job there, and, of course, he's the nominee who will be taking 
command of CYBERCOM, here, shortly.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chair.
    Thank you both for your service.
    General, I just returned from North Korea, and I just want 
to make a comment to you. I've been around high-performance 
teams all my life, and I have to tell you, General Brooks and 
your team over there is absolutely the best of the best. I want 
to thank you for the training and the preparation of those 
young men and women over there. I was really proud to be 
surrounded by them. So, please pass that message along, both of 
you.
    General Milley. Will do, Senator.
    Senator Perdue. You've got about 24,000 soldiers over 
there. I think this--the National Commission on the Future of 
the Army recommended that the Army consider forward deploying a 
combat aviation brigade in Korea in order to bolster the 
aviation readiness on the peninsula. This spring, an Army--as 
you mentioned, I believe, earlier--an Army tank brigade, the 
1st Brigade 3rd Division, I think, from Fort Stewart, deployed 
to South Korea to deter potential aggression over there and to 
make sure people around the world know we're serious. Can you 
give us an update on the forward-deployment strategy with 
regard to Korea, as you can--as you best can in an open 
conversation like this?
    General Milley. Yeah. As you know, we've got 28,500 U.S. 
military personnel. Of those, 24,000 to 25,000 or so are U.S. 
Army.
    Senator Perdue. Sure.
    General Milley. We rotate an armored brigade combat team, 
as you noted, through there on a regular basis. They go over 
there for a deployment. That's a heel-to-toe rotation. That's a 
critical capability that's necessary in order to deter North 
Korean aggression. In addition to that, we've got the 
headquarters of the 2nd Division, we've got artillery 
capabilities, we've got ballistic missile defense, with Patriot 
and THAAD [Terminal High Altitude Area Reserve], forward 
deployed. We've got appropriate sustainment and intelligence 
capabilities and a variety of other capabilities built within 
that 24,000 soldiers.
    As you know, the situation on the Korean Peninsula is 
dynamic right now. We've got a very important strategic-level 
summit meeting between the President and Kim Jong-un coming up, 
here, shortly. Right now, the U.S. strategy is to maintain 
maximum pressure, and if--and to continue our capability to 
deter, and we'll see what develops in the diplomatic realm. The 
main effort is clearly to resolve our issues with North Korea 
through peaceful diplomatic means, but to retain the capability 
and--for the options to be presented to the President if 
diplomacy does not work.
    So, that's what we're doing. We're maintaining our maximum 
pressure. We're maintaining our readiness. We're keeping those 
forces, under General Brooks, at a very, very high state of 
readiness.
    Senator Perdue. Yes, sir, thank you.
    Mr. Secretary, you both have spoken to the five domains, 
and the growing domains of space and cyber in addition to 
maritime, land, and air. We've been getting these cyber 
briefings, in the Subcommittee on Cyber, and I have to say it's 
very sobering. In an open environment like this, though, there 
are some concerns that we can discuss relative to the 
integration. I know we have one approach for the Government, 
but when we look at the services--and this is your 
responsibility--talk to us about the integrated efforts between 
the services so that we don't--so that we have best practices--
we share best practices and we also have a concerted effort 
that can efficiently compete with the absolute rapid 
development in both China and Russia.
    Dr. Esper. Yes, sir. This is a--an area of focus, as well, 
for all the concerns you outlined. There is certainly a lot of 
cooperation going on between the services--and with OSD [Office 
of the Secretary of Defense], I might add--to make sure that we 
are protected from the tactical through the strategic level. 
Certainly, for the Army, we're building a lot of capability at 
the brigade level and above to deal with the tactical problems 
that we might face. I can tell you, with regard to the 
modernization priorities and the cross-functional teams, I've 
talked to them, and they're committed to making sure that 
whatever we procure for the future is cyber hardened and cyber 
resilient. As you think higher and look across the DOD, we're 
looking at the same thing to make sure we can protect our data. 
It's recognized that this is a vulnerability. I can't go into 
too much detail, but there is clear recognition that that's the 
case, and we need to be able to attract the talent, as the 
Chief spoke to, the talent from the private sector, to make 
sure that we are on the cutting edge and are capable of 
defending ourselves in this--in what is considered a--could be 
an asymmetric vulnerability.
    Senator Perdue. Thank you both.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Gillibrand.
    Senator Gillibrand. Thank you.
    Dr. Esper and General Milley, thank you for being here, and 
thank you for your service.
    On April 3rd, 2018, the American Medical Association wrote 
a letter to Secretary Mattis decrying the recent policy release 
by the White House. Echoing concerns raised by the Americans 
Psychological Association and two former surgeon generals, the 
American Medical Association said, quote, ``We believe there is 
no medically valid reason, including the diagnosis of gender 
dysphoria, to exclude transgender individuals from military 
service.'' The memo mischaracterizes and rejected the wide body 
of peer-reviewed research on the effectiveness of transgender 
medical care. Yet the DOD, quote, ``panel of experts,'' quote, 
``came out to a drastically different conclusion from the 
preeminent medical organizations in America about gender 
dysphoria, the effectiveness and impact of gender transition on 
medical and psychological health, and the ability of 
transgender servicemembers to meet standards of accession and 
retention.'' Who represented the Army on this panel?
    General Milley. For the Army, it was, I believe, the Vice 
Chief of Staff of the Army, General McConville.
    Senator Gillibrand. Did the Army include any health 
professionals on the panel? If so, who?
    General Milley. I don't know the specific answer to your 
question, in terms of ``on the panel,'' but there were--General 
McConville consulted with lots of internal folks, medical 
professionals. Absolutely, yes.
    Senator Gillibrand. Can you submit to the committee who was 
consulted, specifically?
    General Milley. Absolutely. Yeah, sure.
    [The information referred to follows:]

    The Panel received support from medical and personnel 
experts from across the Departments of Defense and Homeland 
Security. The Medical and Personnel Executive Steering 
Committee, a standing group of the Surgeons General and Service 
Personnel Chiefs, provided the Panel with an analysis of 
accession standards, a multi-disciplinary review of relevant 
data, and information about medical treatment for gender 
dysphoria. The Panel also received input from military medical 
professionals and civilian medical professionals with 
experience in the care and treatment of individuals with gender 
dysphoria.

    Senator Gillibrand. Do you know whether any health 
professionals from within the Government and outside of it 
testified before, or consulted with, the panel in written 
testimony, or was it just verbal?
    General Milley. With the DOD panel?
    Senator Gillibrand. Uh-huh.
    General Milley. I don't know if it was written or verbal, 
but I can get you the answer.
    Senator Gillibrand. Whatever you--whatever was submitted, 
we'd like to see, please.
    General Milley. Yeah, yeah. Sure.
    Senator Gillibrand. Thank you.
    General Milley. Sure. Sure.
    [The information referred to follows:]

    Department of Defense medical providers from all Services 
who provide health care services for transgender Service 
members and civilian medical experts in the field of 
transgender care consulted with the panel in a verbal 
discussion. Input was provided to the Panel in many forms, both 
written and verbal.

    Senator Gillibrand. Are you aware of anyone else who 
contributed to the panel?
    General Milley. Each of the service vices, I believe, was 
on it. There were several DOD folks. I think the--I'm pretty 
sure the panel was led by DOD P&R, if I remember right--
Personnel and Readiness--the Under Secretary for Personnel and 
Readiness. We can get you the exact names.
    Senator Gillibrand. Great. Thank you----
    General Milley. Sure.
    Senator Gillibrand.--so much.
    General Milley. Yeah.
    Senator Gillibrand. And any information they submitted.
    [The information referred to follows:]

    The Army representatives on the Panel included the Senior 
Officer Performing the duties of the Under Secretary of the 
Army, Mr. Thomas Kelly, the Army Vice Chief of Staff, General 
James McConville, and the Sergeant Major of the Army, Sergeant 
Major Daniel Dailey.

    General Milley. Sure.
    Senator Gillibrand. Dr. Esper and General Milley, in light 
of the existing injunctions, DOD is currently operating under 
the previous transgender open service policy put in place by 
the last administration, yet transgender soldiers have now seen 
the Department's recommendations and are on notice that, if the 
policy is implemented, they will get kicked out for seeking 
care or treatment for their gender dysphoria. I'm worried that 
this uncertainty will get--will have a negative impact on these 
individuals, but also on their units, and that fear of these 
recommendations will stop these soldiers from seeking care. 
What are you doing to ensure readiness in light of the pall 
that has been cast on the future of transgender soldiers?
    Dr. Esper. Senator, we continue to treat every soldier, 
transgender or not, with dignity and respect, ensure that 
they're well trained and well equipped for whatever future 
fights. With regard to accessions, our accessions folks 
understand that we are operating under the Carter policy, if 
you will. We've had some persons already join, transgender 
persons join, and we will continue to access them and train 
them and treat them well, in accordance with that policy.
    Senator Gillibrand. Well, I'm concerned, because the report 
that was included with the memo claimed that transgender 
persons serving in our military might hurt unit cohesion. So, 
that is different than treating everyone with dignity and 
respect. When asked by reporters, in February, whether soldiers 
have concerns about serving beside openly transgender 
individuals, you said it really hasn't come up. Are you aware 
of any problems with unit cohesion arising since you made that 
comment? If so, can you tell us how they were handled by the 
unit leadership involved?
    Dr. Esper. Senator, nothing has percolated up to my level. 
When I made that comment, I was--it was a question about, you 
know, have I met with soldiers and talked about these issues? 
What do they raise? As I said then, the soldiers tend to--you 
know, young kids tend to raise the issue in front of them at 
the day. It could be that they're performing all-night duty or 
didn't get their paycheck, and this was just not an issue that 
came up at that moment in time. Beyond that----
    Senator Gillibrand. Have you since heard anything, how 
transgender servicemembers are harming unit cohesion?
    Dr. Esper. Again, nothing has percolated up to me.
    Senator Gillibrand. General Milley, have you heard that?
    General Milley. No, not at all. The--and we have a finite 
number. We know who they are, and it is monitored very closely, 
because, you know, I'm concerned about that, and want to make 
sure that they are, in fact, treated with dignity and respect. 
And no, I have received precisely zero reports of issues of 
cohesion, discipline, morale, and all those sorts of things. 
No.
    Senator Gillibrand. Okay. That's good news.
    I know that the Secretary spoke with transgender soldiers 
recently. Of all the ones that you have personally spoke with 
of the Active Duty transgender soldiers, were you concerned by 
any of them continuing to serve?
    Dr. Esper. Well, I actually met with them in the first 30 
days on the job, Senator. And no, nothing came up that would 
cause me concern. I was, you know, impressed by what I heard.
    Senator Gillibrand. Have either of you spoken to any 
transgender servicemembers since this set of recommendations 
was released by the administration in March? If you have, what 
did you hear?
    Dr. Esper. No, ma'am.
    General Milley. I have not. I did before. I have not. But, 
as you know, the case, as you are well aware, is in litigation. 
It's in four different courts. So, we're limited in, what we 
should or could say right this minute, because it could, either 
one way or the other, impact that litigation. But, let me just 
say that our feeling and I'll say my feeling, my view is that 
we have an Army that is standards-based. It has always been 
standards-based, it will remain standards-based for medical, 
physical, psychological, conduct, et cetera. Those soldiers or 
those applicants of people who want to access into the Army 
that meet those standards--and they're rigorous standards--if 
you meet those standards, then you're on the team. If you don't 
meet those standards, for whatever reason, then you won't be on 
the team. It's that simple, and those standards are based upon 
the rigors of ground combat, and it's important that this 1 
percent who wear this uniform and the cloth of our country, 
we're giving up certain civil rights so the other 99 percent 
can retain their civil rights. We know that. We do it 
willingly, and volunteer to do it.
    So, this is not an issue--with respect to transgenders, 
this is not an issue, in our--my view, it's not a civil rights 
issue. This is an issue of standards and maintaining the 
deployability and the combat effectiveness and lethality of the 
United States Army. I think I speak for the other services--
service chiefs, as well.
    Senator Gillibrand. Thank you.
    General Milley. Standards-based.
    Senator Gillibrand. Thank you.
    Senator Inhofe. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses, for this important hearing.
    Secretary Esper, I want to ask you about a passion of mine. 
I've got two bills filed in the Senate now, which I am hoping 
might be included, ultimately, in the mark for the NDAA. One is 
a Military Spouse Employment Act, and colleagues on this 
committee, including Senators Gillibrand and Perdue, are 
cosponsors. The second is the Childcare for Military Families 
Act. Senator Rounds on this committee is a cosponsor.
    What I've tried to do in both of these bills is take a 
significant amount of feedback from spouses all across the 
country to address major factors leading to an unacceptably 
high unemployment rate among military spouses. As I've worked 
with spouses on this issue, we've identified a whole series of 
challenges and causes: lack of direct employment opportunities 
with other Federal agencies, lack of childcare, lack of or 
underutilization of education and training resources, lack of 
counseling, frequent moves. Additionally, the first bill tries 
to encourage more public/private partnerships for the DOD and 
more opportunities for entrepreneurship on military bases for 
military spouses.
    These bills, the two, address each of these issues. I don't 
think there's a silver bullet that's going to drop the 
unemployment rate of military spouses from three to five times 
the national average to the national average, but I think these 
bills offer a great start in beginning this conversation and 
moving us in the right direction.
    I want to ask if you've had a chance to review the 
legislation. Is this an effort that the Army would be 
supportive of?
    Dr. Esper. Senator, I looked over the legislation. I'm 
impressed by what you put in there. As I shared with you 
before, I think these are some of the most important 
challenges, if not the most important challenges, facing our 
spouses--Army spouses. I know my wife experienced the same 
challenges when I was on Active Duty.
    Everywhere I go, if there's a family readiness group, 
spouses, I meet with them, and this issue comes up over and 
over and over again. They are intricately linked. The fact that 
it takes, on average, 140 days to hire someone is hurting the 
Army, it's hurting our readiness, and it's certainly hurting 
spouses, and as a result, it hurts retention.
    The direct link here, as I think I shared with you, is, if 
you can--we have daycare centers that go unfilled with 
supervisors because it takes months to hire them. The supply is 
there to tap into, but the--it's cluttered up in everything 
from things that we are doing within the building all the way 
up to, you know, how OPM handles it.
    So, I've talked to staff, I've talked to members about the 
need to fix this problem, because it's--there's nothing but 
good if we can.
    Senator Kaine. I have a son in the military who signed up 
and then did--for a first four, and then a second three, as a 
single individual, and now is married. As he gets to the 7-year 
point and he has to make another decision, it's fundamentally a 
very different decision.
    Dr. Esper. Yes, sir. Well, we like to say you recruit 
soldiers and retain families.
    Senator Kaine. It's very true, and so, you know, the 
ability of spouses to feel like, with the sacrifice that they 
bear, there is going to be an opportunity for them to put their 
talents to use is a really important part of retention. I 
appreciate your answer to this.
    I have one other question. We had a Readiness Subcommittee 
hearing--Chair Inhofe is the chair of our Readiness 
Subcommittee--in February, had the service vices in, and I 
asked about how the services are balancing reconstitution 
efforts against the COCOM [Combatant Command] force requests. 
Focusing specifically on the Army, to each of you, General 
McConville answered, that day, and he said, basically, ``We 
need more people and fewer missions.'' The funding that we just 
did in the budget, I think, is going to be really helpful over 
the next 18 months on the first part of this, the funding for 
the additional people, but how about the second part, the fewer 
missions? Is there an opportunity to reconstitute, since we now 
have fewer troops in Iraq and Afghanistan, or are the 
additional necessary missions that we're engaged in around the 
world sort of immediately taking up whatever slack there was 
from that drawdown in Iraq and Afghanistan?
    Dr. Esper. Yes, sir. This is a supply-and-demand issue, and 
I think, with the 2018 and 2019 bills, we can grow end 
strength. It helps us create more supply, fully flesh out our 
units, et cetera. But, there is the demand side of the 
equation. It's something that we've had discussions with 
internally, we've discussed it with OSD to look at, you know, 
the range of demands placed on the Army. Can we do some of it 
differently? Can we look at lower-value exercises or training, 
and, you know, if not limit them, reduce them, make them at 
least more productive to preserve readiness?
    What we really have to do is get the soldier deployment 
rate, the bog-to-dwell, as we call it, up to the 1-year to 2-
year standard. Right now, we're well below that. We're 
somewhere just north of one. That has an impact on the force, 
both in terms of readiness, and retention, it has a range of 
impacts that we need to address with regard to that.
    Senator Kaine. Thank you very much.
    Appreciate it, Mr. Chair.
    Senator Inhofe. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chair.
    Thank you, to both of the witnesses.
    I know the Army's committed to addressing military suicide. 
I'm sure both of you know that suicide risk among 
servicemembers often isn't tied to deployments or combat 
experiences. We can't be restricting our most rigorous mental 
health assessments to the deployment cycle. This committee 
helped pass legislation in 2014 to ensure every servicemember--
Active, Guard, or Reserve--receives a thorough in-person mental 
health assessment every year. It was named after a brave 
Hoosier soldier, Jacob Sexton, who was lost to suicide in 2009. 
It's my understanding that the Army is now fully implementing 
the Sexton Act requirement for a robust annual mental health 
assessment. Is that correct?
    Dr. Esper. Correct.
    Senator Donnelly. Thank you.
    General Milley. That's correct.
    Senator Donnelly. What are your top priorities, looking 
forward, for combating military suicide, the best tools you 
think you have in improving mental health services for our 
soldiers this year and in the years ahead? What do you think 
are some of the areas where, when you look at general--that you 
look, and you go, you know, ``Here's one of the causes of some 
of this, and the best way to try to reduce it"?
    Dr. Esper. Well, Senator, thank you for raising this issue. 
It's very troubling. I sign too many condolence letters 
associated with, you know, the scourge of suicide, and the 
rates that I see across the Army are not heading in the right 
direction. I mean, we need to get them, rather than flat, 
heading the right direction. The challenge is, you know, 
particularly troubling in the Guard and Reserve, where you--
where units only come together every 30 days and break back up.
    You're right, it's not related to--necessarily, to 
deployments. The experts will tell you it's hard to pin it 
down. But, we do know the most vulnerable population are these 
young soldiers, 17 to 22 or so. It often is--the cause is a 
relationship issue, you know, a breakup, whatever the case may 
be.
    As I've looked at this problem, I've asked our folks to 
come back with, you know, new thinking with regard to 
strategies that we can deal with this. We already put 
behavioral health experts in the units. We provide a lot more 
access. As I've talked with some of the committee staff, we 
need to make sure the commanders and the officers in the units 
have greater access to that type of information so they know 
how to deal with soldiers. But, I also think it's critical that 
we make sure that the chain of command is responsible and in 
charge. In some cases, we've moved away from that. So, making 
sure that we implement programs like Not in My Squad, that we 
put NCOs, junior officers, back in charge of teaching their 
soldiers resiliency. All that is important.
    Senator Donnelly. General?
    General Milley. Yeah, I think the key, Senator, is two 
things in order for--for prevention. We have a lot of 
resources, and we appreciate the support of Congress in helping 
us do that. But, I think the key--and the resources have to be 
focused in two particular areas. One is situational awareness 
of the soldiers in a squad, in a platoon, in a company, of the 
early warning indicators and signs of potential suicide, the 
stressors that are on an individual soldier. The first key is, 
recognize the early warning signs--the second key is, know that 
you can intervene, that we are, in fact, our brother and 
sister's keeper, that being silent is not okay--to intervene, 
to take action, and to get that soldier help. They are reaching 
out, they are crying out for help. Get them help. So, 
situational awareness, and it's okay to intervene.
    Senator Donnelly. Great. Thank you.
    To both of you, I just wanted to mention that, in Indiana, 
we have a training center, Muscatatuck. It's used for all types 
of training. It's a national asset. It's a venue that can help 
prepare our forces for current, future threats. I just wanted 
to make both of you aware of it. Hope you both have a chance, 
at some point soon, to go there.
    Dr. Esper. Yes, sir. It's on my visit list. I think----
    Senator Donnelly. Great.
    Dr. Esper.--in the next 4 or 5 months, I plan on coming out 
there.
    Senator Donnelly. Terrific.
    General, what does stability look like in Afghanistan? When 
you look at that, and you look and go, ``This is an acceptable 
state to move forward with,'' how do you see that?
    General Milley. A couple of things, Senator, that we've 
defined in the strategy. One is that Afghanistan--and this has 
been the objective since 2001--that Afghanistan no longer is a 
platform for terrorists to conduct strikes on the continental 
United States, or in the United States. That's key. That's why 
we're there, and that's why we're still there.
    Secondly, how do you achieve that? You achieve it through a 
stable Afghanistan. So, what does that look like? It means that 
the armed opposition--the Taliban, the Haqqani Network, al 
Qaeda, ISIS-K, and all these other groups--are reduced, in 
terms of capability, that they no longer present an existential 
threat to the regime in Kabul, and that the Afghan National 
Security Forces, writ large--their army, their police, their 
intelligence forces--can handle the violent threat against the 
regime at a level that is something akin to crime or banditry, 
and they are no longer capable of--the enemy is no longer 
capable of actually presenting a downfall to the regime.
    Senator Donnelly. The last thing I want to ask, real quick, 
is just, can we do that without the real cooperation of 
Pakistan?
    General Milley. Well, that's the end state of Afghanistan, 
is reduce the threat to something that can be handled on a 
routine basis by the internal security forces. In order to do 
that, you have to essentially do several things. You mentioned 
Pakistan. That is key. It's important that Pakistan is part of 
the solution. It's a regional solution. Part of our strategy is 
a regional strategy. That involves--very much involves 
Pakistan. It's very, very difficult to eliminate any insurgency 
if that insurgency has safe haven in another country. Right 
now, the Taliban, Haqqani, and other organizations do, in fact, 
enjoy some safe haven in the border regions on the Pakistani 
side of the border. Pakistan's got to be part of the solution.
    Lastly is reconciliation. At the end of the day, the Afghan 
Government has got--is on the path right now to establishing 
some sort of political reconciliation with the various opponent 
groups. We're in support of that effort.
    So, it's important that we realign the forces, that we 
reinforce the capabilities that we're already doing, and that 
we regionalize the problem, including Pakistan, and that 
there's some sort of reconciliation process. At the end of the 
day, that's how that ends, and it ends successfully. I believe 
that's achievable.
    Senator Donnelly. Thank you, General.
    Thank you.
    Senator Inhofe. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I join my colleagues in thanking you for your service, and 
thank you for being here today.
    I want to focus on Ukraine. I know, Mr. Secretary, you 
visited with some Ukrainian soldiers recently. You have been to 
Europe and various Army posts there, and discussed this issue 
with them. Operation Atlantic Resolve, as you know, is an Army-
led operation designed to reassure our NATO allies and partners 
of America's dedication in the region after Russia's illegal 
annexation of Crimea and its continued aggression--I might say, 
overt defiant military aggression in Ukraine. Since April of 
2014, the Army has conducted continuous multinational and 
security cooperation training through the European Deterrence 
Initiative. As someone watching from the outside, my conclusion 
would be that whatever we're doing there has had no impact, no 
effect whatsoever on Russian aggression, either to deter it or 
defeat it. Maybe you can dissuade me.
    Dr. Esper. Senator, I did visit Europe in January. I went 
to Belgium, Poland, Germany, and Ukraine, with different focus 
on each. My takeaway was that, at least with regard to Atlantic 
Resolve when I met with the Poles, both the military and on the 
Ministry of Defense side, that they were very happy with our 
presence there, that they felt it provided not just a 
reassurance role, but also a deterrence role. It was not just 
because of United States troops, but you had NATO [North 
Atlantic Treaty Organization] troops in all the Baltic states 
and Poland. They were very eager to continue to improve that 
relationship, to increase the number of forces. When I was in 
Germany, for example, with regard to exercises, a Polish 
brigade was training in Germany with American, Italian, British 
units underneath it. So, a lot of great training happening. 
But, my sense--and I recently met with a Lithuanian Vice 
Defense Minister--again, very happy with our presence there, 
and very reassured in the helpfulness of what the EDI funding 
has provided.
    Senator Blumenthal. I apologize. I probably was less than 
fully clear in my question. Focusing on Ukraine.
    Dr. Esper. Ukraine, I was very impressed by the New York 
National Guard at the time was training, and the training was 
going exceedingly well. What's interesting is the degree to 
which Ukraine is really adapting to NATO doctrine, NATO 
standards, really building a--quite a capability. What's 
interesting is, they're using the facility that we're training 
at in western Ukraine not just to bring in new recruits, but to 
bring soldiers off the front lines in eastern Ukraine, in 
Donbass, and coming back to the training site and incorporating 
those lessons learned.
    Senator Blumenthal. Is it having an effect on the 
battlefield?
    Dr. Esper. Yes, sir. I think what the Ukrainian officers 
told me was, it was having an effect, in terms of their 
performance. The soldiers felt reassured. But, that was my 
takeaway. I don't----
    General Milley. Yes, Senator, it has. The violence along 
the Ukrainian in the--along the line of contact is at a 3-year 
low right now. That's significant.
    Senator Blumenthal. The level of violence is at a 3-year 
low.
    General Milley. That's correct.
    Senator Blumenthal. But, have they pushed back?
    General Milley. Well, there is cause and effect as to why 
it's low. It's, in part, because the Ukrainian capability has 
increased since we have begun an advisory effort in our support 
efforts, and because they're fighting against the various 
separatist groups in eastern Donbass. So, the Ukrainian 
military's performance has increased, the enemy's performance 
has met that and is reduced, and they recognize what they're up 
against, therefore the violence has subsided. It's not done. 
There's still violence. Don't get me wrong.
    Senator Blumenthal. The other way of interpreting the 
situation--and I say it with all due respect--is, the Russians 
have gotten what they want, for now, and they and their 
proxies--and I mean the Russians--are staying put, maybe 
because they sense a little bit more strength from the 
Ukrainians; but, in terms of their ill-gotten gains, they are 
satisfied they've divided the country.
    General Milley. That is a way of looking at it, that's 
correct.
    Senator Blumenthal. Is there a Ukrainian determination to 
push back and to recover----
    General Milley. From my visit there and, I think, Secretary 
Esper's visit there, the Ukrainians have determined that 
Ukraine is a sovereign nation and that they intend to remain a 
sovereign nation. They do not accept annexation of eastern 
Donbass. That's what the Ukrainians told me, and I believe 
that's what they told you, and I believe that's their stated 
policy position.
    Senator Blumenthal. Thank you.
    I really appreciate both of----
    General Milley. Yes, sir.
    Senator Blumenthal.--your candor and your very informed 
presentation today.
    Thank you.
    Senator Inhofe. I want to say thank you to our witnesses. 
It's been--I appreciate your patience and your responses. 
They've been excellent.
    We're adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                          army missile defense
    1. Senator McCain. Secretary Esper and General Milley, what is the 
impact of M-SHORAD's pull to the left on the Army's existing failure to 
deliver IFPC in a timely manner?
    Secretary Esper and General Milley. Maneuver-Short Range Air 
Defense (M-SHORAD) fielding schedule is not linked to IFPC's fielding 
schedule. IFPC is currently on schedule for an Initial Operating 
Capability (IOC) in fiscal year 2021 with fielding of the fourth 
battalion complete by fourth quarter fiscal year 2022 and is not linked 
to M-SHORAD's fielding schedule.

    2. Senator McCain. Secretary Esper and General Milley, please 
explain how the investment in M-SHORAD will contribute to the overall 
National Defense Strategy.
    Secretary Esper and General Milley. The National Defense Strategy 
(NDS) prioritizes readiness against great power competitors. M-SHORAD 
supports this focus through the protection of maneuver forces from air 
threats, manned and unmanned, during potential operations in the Blunt 
and Surge layers of the NDS Global Operating Model. The M-SHORAD 
program will enable a more lethal, resilient, agile, and ready Army and 
allow forces to survive while maneuvering and operating without domain 
superiority. Recent studies have shown that M-SHORAD increases the 
ability to achieve the desired ends. Given the change in focus codified 
in the new NDS, the Army must return to this much-needed capability in 
order to deter and win in a contested and challenging environment.

    3. Senator McCain. Secretary Esper and General Milley, what risks 
is the Army taking on in order to field M-SHORAD five years faster than 
originally anticipated?
    Secretary Esper and General Milley. There is no risk because the 
Initial Maneuver--Short Range Air Defense (IM-SHORAD) addresses a 
subset of the Initial Capabilities Document (ICD) requirements. Several 
vendors have demonstrated capability and IM-SHORAD will execute in an 
interim capacity until M-SHORAD meets the full ICD requirements. The 
initial IM-SHORAD fielding is being accomplished in fiscal year 2020 
accelerating the original Initial Capability Document (ICD) anticipated 
fielding of fiscal year 2025.

    4. Senator McCain. Secretary Esper and General Milley, how will the 
Army's Cross-Functional Teams contribute to successful deployment of M-
SHORAD?
    Secretary Esper and General Milley. The Air and Missile Defense 
(AMD) Cross-Functional Team (CFT) will accelerate the fielding of 
maneuver short-range air defense (M-SHORAD) battalions to divisions 
starting in fiscal year 2021 with a plan to cover all 10 active 
divisions by fiscal year 2025. M-SHORAD will be employed as part of a 
tiered and layered approach to establish cross-domain dominance of 
tactical airspace. This will enable the Land Component to penetrate the 
A2AD in support of multi-domain operations in a contested environment. 
In addition to accelerating the material solution, the CFT will assist 
in overseeing the synchronization of the Doctrine, Organization, 
Training, Leader Development, Personnel, and Facilities (DOTMLPF).

    5. Senator McCain. Secretary Esper and General Milley, how will M-
SHORAD contribute to the Army's mission to protect the joint force?
    Secretary Esper and General Milley. Currently, there is need to 
better protect the maneuver force, and developing a solution for this 
problem is of the highest priority. Maneuver-Short Range Air Defense 
(M-SHORAD) will employ a mix of sensors and shooters to protect Army 
Divisions, focused on the Brigade Combat Team and below, by providing 
defense against rotary wing, fixed wing, and Unmanned Aircraft Systems 
(UAS). Commanders will integrate this Stryker-based, maneuverable 
capability into combat formations to employ multiple effectors, guns 
and missiles, up to eight kilometers against fixed and rotary wing 
threats, and up to six kilometers against UAS. The system will utilize 
an on-board sensor and links to air defense networks for additional 
situational awareness and combat identification. While not directly 
assigned to support other Joint Forces, the Combatant Commander (based 
on a defined critical asset list) has the flexibility to prioritize key 
assets across all phases of the operation in support of all components 
on the battlefield.

    6. Senator McCain. General Milley, will M-SHORAD have capabilities 
to defend against cruise missiles?
    General Milley. No. M-SHORAD will not have the capability to defend 
against cruise missiles. The Army program to counter cruise missiles is 
the Indirect Fire Protection Capability, Increment 2-Intercept (IFPC 
Inc. 2-I) with planned Initial Operating Capability (IOC) in fiscal 
year 2021. We also have cruise missile defense capability with the 
Patriot system and the Integrated Air Defense System (NCR-IADS).
                               __________
              Questions Submitted by Senator Dan Sullivan
                     brigade combat team readiness
    7. Senator Sullivan. Secretary Esper and General Milley, in your 
joint testimony, you state the number of brigade combat teams in the 
highest state of personnel readiness has more than doubled, which is 
certainly worthy of praise. Three years ago during the end of the Obama 
administration, we only had one ``ready'' BCT and three at the ``almost 
ready'' level. How many BCTs are considered ``ready'' now or ``almost 
ready''?
    Why do you think BCT readiness has improved so dramatically? It is 
related to Congressional funding? End strength?
    Secretary Esper and General Milley. The Army has eight Brigade 
Combat Teams fully ready. The Army's emphasis on readiness is the 
primary factor for our improvement enabled by additional funding from 
Congress. With focus comes the actions over time necessary to 
synchronize and improve training, equipment, maintenance, and 
personnel. In the last three years there are numerous examples of how 
the Army's emphasis has improved readiness. These include a re-focus on 
Decisive Action training against a near-peer adversary; increasing the 
number of Combat Training Center rotations from 15 to 20; implementing 
the Sustainable Readiness process; working with combatant commands to 
ensure deployed Brigade Combat Teams continue to build readiness when 
possible; improving the Army's training strategy.
    Stable, consistent and adequate funding is critical to the Army's 
effort and ensures the Army can plan, resource and fund readiness. 
Increased end strength authorization and funding will also increase 
readiness. While it will take some time to bring the additional 
soldiers into the Army, a responsible increase in end strength does two 
things. First, in the near term it helps fill personnel shortages in 
key units. Second, it allows the Army to make existing units more 
robust with critical capabilities like aviation, rocket artillery, 
ballistic and air defense, cyber, electronic warfare, and unique 
sustainment elements.
                      reducing mandatory training
    8. Senator Sullivan. Secretary Esper and General Milley, I applaud 
your continued efforts to reduce mandatory training so our soldiers can 
actually focus on critical combat training. How much mandatory, non-
combat training has been reduced or eliminated thus far and--due to 
these reductions--what benefits are you seeing in improving the 
lethality of the force?
    Secretary Esper and General Milley. We are building a more lethal 
force by reducing requirements in brigade and below units. Our efforts 
are providing commanders more time to prioritize activities and time to 
enhance the readiness and lethality of our formations. We are 
underwriting prudent risk assessment and risk mitigation so commanders 
at each echelon are empowered to prioritize combat-related tasks over 
all others. Our efforts have identified numerous mandatory tasks not 
directly supporting combat readiness. To date, our proponents have 
recommended adjustment to roughly 25 percent of the over 1,800 tasks 
identified as affecting brigades or below. We expect more change 
recommendations as we continue this effort. As tasks are approved by 
the Secretary of the Army for elimination, simplification or 
consolidation, we are publishing policy changes to rapidly implement 
the changes across the force. The Secretary of the Army published four 
policy change memorandums in April 2018. We plan to publish an Army 
Directive summarizing all changes after the June 2018 Senior Leader 
Readiness Forum.

    9. Senator Sullivan. Secretary Esper and General Milley, what is 
the percentage or hours of duty time that soldiers should ideally 
devote to mandatory, non-combat training and when do you anticipate 
being able to reduce down to that amount?
    Secretary Esper and General Milley. The percentage of duty time 
devoted to mandatory, non-combat related training is at the discretion 
of the commander. Commanders must train to standard and not to time. 
However, the Army is continuing to review mandatory, non-combat related 
training to eliminate, consolidate, and simplify requirements in order 
to reduce the administrative process and reduce the burden on soldiers. 
This effort will take some time but ultimately will help build a more 
capable and lethal force.

    10. Senator Sullivan. Secretary Esper and General Milley, can you 
talk about moving away from mandatory online training and moving back 
toward empowering unit leaders to properly train their soldiers?
    Secretary Esper and General Milley. Commanders have full authority 
to simplify, reduce, or eliminate those tasks which are not combat 
related, while making prudent risk-informed decisions. Mandatory 
training no longer has a prescribed duration and will have alternative 
methods of delivery which do not require the use of an automated online 
or projected system. Online training may be used to supplement training 
conducted by leaders, but does not suffice as a substitute for it. 
Training must be led and conducted by their leaders.
               jparc for advanced ground and air training
    11. Senator Sullivan. General Milley, in order to properly prepare 
for intense joint combat operations (such as North Korea), as well as 
near-peer conflicts, would you agree that we need specific and large-
scale Joint Air and Ground combat exercises that improve our joint 
readiness?
    General Milley. The Army agrees that large-scale joint air and 
ground combat exercises improves joint readiness. The Army will 
continue to seek these types of exercises to improve its joint 
interoperability. Current examples include the U.S. Army Combat 
Training Centers (CTCs) and large-scale exercises such as the Joint 
Warfighting Assessment (JWA) exercise program, utilizing the Decisive 
Action Training Environment (DATE) to train Brigade Combat Teams 
(BCTs), Division and Corps level Commanders plus staffs. Bilateral 
agreements between the Army and the Air Force exist to support the 
Army's CTC rotations and large scale exercises, as well as improve and 
facilitate joint interoperability in the air and land domains.

    12. Senator Sullivan. General Milley, following up from the 
previous question, the JPARC in Alaska is the largest joint overland 
training area in the U.S. with airspace the size of Florida. Would you 
agree that it is an ideal location for the type of advanced integrated 
training we will need to best counter high-end and near-peer threats
    General Milley. The Army recognizes the unique and important 
training opportunities at the Joint Pacific Range Complex (JPARC). The 
Army's training areas associated with Fort Wainwright are central to 
that capability. The facilities and infrastructure within the JPARC can 
enable scenarios supporting advanced integrated training; primarily for 
Army division and above assets including Grey Eagle, HIMARS, AH-64, and 
Patriot. Readiness of joint formations to fight large-scale integrated 
battle campaigns is primarily the responsibility of Combatant 
Commanders and are accomplished through joint exercises. The Army 
infrastructure supports integrated training at JPARC, notably the 
USAF's Red Flag.
  small unit support vehicle (susv) and joint all-terrain all-weather 
                    support vehicle (jaasv) advocacy
    13. Senator Sullivan. General Milley, Alaska, as well as several 
State National Guard units, rely on the Small Unit Support Vehicle 
(SUS-V) to maneuver in cold weather, austere environments. While the 
SUS-V is no longer a program of record, it is a necessity for areas 
like the Arctic. What is the Army's plan to keep these vehicles 
maintained, which is becoming increasingly more difficult?
    General Milley. The current Small Unit Support Vehicle (SUS-V) is 
maintained with unit operation and maintenance funding. Recognizing the 
increasing difficulty in maintaining the current fleet, the Army's 
Training and Doctrine Command is conducting a business case analysis to 
evaluate replacement options, assess the capabilities of available 
commercial options, and provide recommendations on changes to SUS-V 
tactics, techniques and procedures. This analysis is scheduled to be 
completed by the end of fiscal year 2018.

    14. Senator Sullivan. General Milley, the plan for the procurement 
of the Joint All-terrain All-Weather Support Vehicle (JAASV), a much-
needed replacement to the SUS-V, is not scheduled to even compete until 
the 2020-2024 POM. That means that a replacement to the SUSV could be 
over a decade away. Isn't there already a commercially available 
solution that Army could utilize?
    General Milley. Yes, we understand that there may be commercial 
vehicles that provide some of the capabilities required of the Small 
Unit Support Vehicle (SUS-V) / Joint All-terrain All-Weather Support 
Vehicle. The Army's Training and Doctrine Command is conducting a 
business case analysis to evaluate replacement options, assess the 
capabilities of available commercial options, and provide 
recommendations on changes to SUS-V tactics, techniques and procedures. 
The analysis will also consider alternative acquisition solutions, such 
as leasing rather than conventional procurement, to significantly 
reduce the amount of time required to field a SUS-V replacement. This 
analysis will be completed by the end of this fiscal year and will 
inform funding decisions for next year's budget request.
                               __________
                Questions Submitted by Senator Ben Sasse
                    cyber policy and force structure
    15. Senator Sasse. Secretary Esper and General Milley, recently 
stated that the Army had to change its force structure to have 
sufficient capacity and capability to ensure overmatch in everything, 
including cyber. Please explain how the Army is doing this, including 
any regulation or policy that is guiding the Army's cyber development, 
and how the Army is working with USCYBERCOM on cyber issues, including 
training and equipping the force.
    Secretary Esper and General Milley. The Army is modernizing its 
force structure to ensure capacity and capabilities overmatch through 
force structure development, capability modernization, and critical 
infrastructure and weapon systems hardening. Published in 2016, the 
Army Cyberspace Strategy for Unified Land Operations 2025 guides Army 
cyberspace capability development through five lines of effort: 
building the workforce, cyberspace operations, capability development, 
facilities/systems and infrastructure, and building partnerships.
    Army Cyber Mission Force teams are being equipped with cutting-edge 
cyber tools to protect against sophisticated cyber attacks and to 
ensure military advantage in cyberspace. In support of the USCYBERCOM 
led DOD Cyber Mission Force, the Army is building cyber threat realism 
into the virtual scenarios within the Persistent Cyber Training 
Environment to keep pace with adversaries' Tactics, Techniques, and 
Procedures. In addition to the Cyber Mission Force, the Army is 
currently reviewing proposed force structure changes to increase 
cyberspace capacity and capability for Corps and below commanders, 
including the recently approved Multi-Domain Task Force (MDTF) pilot.
    The Army continues to improve the defensive posture of C4 networks 
and reduce vulnerabilities of weapons systems, warfighting platforms 
and mission critical infrastructure, through network improvements, 
equipment modernization, and cyberspace operational resilience 
assessments.
                    cyber direct commission program
    16. Senator Sasse. Secretary Esper and General Milley, please 
describe why the Army chose to create this program, your estimation of 
its success, and how many officers have been commissioned through the 
program.
    Secretary Esper and General Milley. In accordance with National 
Defense Authorization Act 2017 section 509, the Army designed the Cyber 
Direct Commissioning Pilot Program to assess into service uniquely 
skilled and experienced individuals who meet program requirements. The 
program leverages existing expertise in academia and industry to close 
existing gaps in key competencies within the Army's cyber mission 
forces. These technical officers will support and lead rapid cyber 
capability development and analytics.
    The Army began the direct commission program in October of 2017, 
reviewing a total of 205 applications. Two iterations of the selection 
process have been completed, and the third iteration is currently 
underway. The quantity and quality of applicants has increased with 
each iteration. There is an expectation that this upward trend will 
continue as we work to recruit more and better qualified cyber 
specialists by working with Congress to increase the amount of 
constructive credit (up to the grade of O6) that may be offered direct 
commission applicants.
    Two officers have commissioned through the program as First 
Lieutenants. These officers are currently in the Direct Commissioning 
Course at Fort Benning, Georgia. Upon graduation, they will attend the 
Cyber Basic Officer Leaders Course at Fort Gordon, Georgia and are 
expected to report to their units in late October 2018.
                      land-based anti-ship missile
    17. Senator Sasse. Secretary Esper and General Milley, describe the 
Army's current capability to sink enemy ships, what future capabilities 
the Army is developing to gain or increase that capacity, and how it is 
working with sister services in this effort.
    Secretary Esper and General Milley. The United States Pacific 
Command identified a doctrinal capability deficiency in 2017 and 
submitted an Operational Need Statement requesting the Army to develop 
a Land Based Anti-Ship Missile (LBASM) to address this gap. The 
Strategic Capabilities Office (SCO) has lead on the effort and plans to 
modify an existing Army Tactical Missile System (ATACMS) with a seeker 
capability to engage selected maritime targets and designated the 
missile the Cross-Domain ATACMS. The Army is developing doctrine and 
policy that could include the use of sister service (Navy and Air 
Force) sensors and target acquisition platforms to enhance an anti-ship 
kill chain. Further study is needed to adapt a future LBASM capability 
into any operational need within a COCOM.
                       sensor-shooter integration
    18. Senator Sasse. Secretary Esper and General Milley, describe the 
Army's efforts to integrate its Long-Range Precision Fires systems with 
existing and planned sensor systems fielded by the rest of the 
services. What obstacles are you encountering in this area and how are 
you overcoming them?
    Secretary Esper and General Milley. The Army currently has ongoing 
efforts to explore expanding the capability of the sensor-to-shooter 
network. These efforts involve integrating additional shooters from the 
U.S. Air Force (USAF)/U.S. Navy (USN) aircraft to National Technical 
Means through utilization of the LINK-16 architecture to Advanced Field 
Artillery Technical Data System (AFATDS). Within the LRPF area, Army 
Science and Technology has two efforts utilizing the AFATDS technology, 
Multiple Simultaneous Engagement Technologies (MSET) and Land-Based 
Anti-Ship Missile (LBASM). MSET starts in fiscal year 2020 (FY20), and 
will demonstrate technology readiness level (TRL) 6 in fiscal year 
2024. MSET utilizes a weaponized unmanned air system platform with a 
data link that could potentially provide an additional sensor-to-
shooter pathway. During the Rim of the Pacific Exercise 18, the Army 
will work with the U.S. Pacific (USARPAC) to demonstrate LBASM fires 
that are cued from USN aircraft using LINK-16 and AFATDS. A significant 
challenge facing new sensor-to-shooter pathways is authority; as the 
list of available sensors and entities that can call for fire expands, 
determining who has the authority to direct a fire mission and the 
responsibility for clearance of fires needs to be resolved. A possible 
solution to this challenge is developing a Common Operation Picture to 
process inputs from sensors and shooters.
                               __________
               Questions Submitted by Senator Bill Nelson
                     u.s. army future command needs
    19. Senator Nelson. Secretary Esper and General Milley, as we 
continue to go after terrorist and support our allies and partners in 
Afghanistan, Africa, and anywhere else we're needed, I'm pleased that 
the National Defense Strategy has focused on our near-peer competitors. 
I'm even more pleased that in order to achieve this objective, the Army 
has decided to create Futures Command, which will modernize our forces 
and ensure we continue to have the most technologically advanced force 
in the world. As I mentioned to General Milley yesterday, Orlando would 
make the perfect home and has everything that Futures Command needs in 
order to succeed: world class universities, home to existing innovation 
in the modeling and simulation sector, and access to civilian experts. 
The Army doesn't know it yet, but ask the Air Force and the Navy and 
they'll tell you Florida is where you want to be. Given the need for 
our Army to keep up with rapidly changing technology and near-peer 
competitors, what will the needs of Futures Command be?
    Secretary Esper and General Milley. The most critical need for the 
Army Futures Command is that it must inculcate a culture of change and 
possess the talent to make it happen, in both the headquarters and the 
entire modernization enterprise from concepts through system delivery 
to the soldier. Thus, we seek to locate the headquarters (because the 
headquarters must lead the change) in a location that at a minimum 
meets four criteria: rich in workforce talent with the skills to 
support the Army's future needs; an established eco-system of 
innovative commercial entities and academic institutions, where we can 
partner and learn; and has a high quality of life measurement in order 
to attract and retain top talent. Further, we have been, and will 
continue pursuing a data-driven broad-based approach to avoid 
unintentional confirmation bias based on anecdotal evidence to make the 
most informed decision possible. We must be the best possible stewards 
of the resources entrusted to us, and we have taken a deliberate 
approach to ensure we are positioned to best partner with a broad 
spectrum of innovators in industry and academia in an eco-system that 
helps the leadership generate the large scale cultural change necessary 
to set conditions for the future.

    20. Senator Nelson. Secretary Esper and General Milley, what 
criteria are the Army using to decide where the Command will be 
located?
    Secretary Esper and General Milley. In order to select the first 15 
candidates, four sets of criteria have been applied to the selection 
process for the headquarters. First, proximity to talent in key 
technical fields that support the Army's needs for the future, 
emphasizing computer software and hardware, novel materials, and both 
emerging and traditional engineering specialties; second, proximity to 
private sector innovation to ensure our access to commercial partners 
with track records in delivering innovative solutions; third, proximity 
to academic R&D focused on Science, Technology, Mathematics, and 
Engineering (STEM), so we can easily and pervasively access cutting 
edge basic and applied research; and fourth, a quality of life 
assessment (based on the AARP Livability Index), to ensure we attract 
and retain top talent. We will use the inputs received from the 
candidate cities, and other factors, to further enrich our analysis and 
assist in down selection to a smaller number of cities that we can 
reasonably visit.
                      cyber and electronic warfare
    21. Senator Nelson. Secretary Esper and General Milley, our Army is 
an extremely lethal fighting force. No one wants to go head to head 
with our soldiers. Instead, our peer competitors are investing heavily 
in technologies to take away our advantage in cyberspace and the 
electronic spectrum. How is the Army balancing the requirement to fight 
in the physical space with the growing need to fight in the digital 
space?
    Secretary Esper and General Milley. The Army recognizes that in 
order to fight and win today's and future battles, it needs to be able 
to dominate both the physical battlespace and also in cyberspace and 
the electromagnetic spectrum (EMS) simultaneously.
    In addition to the 62 Cyber Mission Force teams, the Department of 
the Army is undertaking a number of complementary efforts that 
holistically integrate cyberspace and Electronic Warfare (EW) 
capabilities at the Corps and below. These efforts include five 
potential EW-related force initiatives designed to increase operational 
capacity throughout the Army. The Army's Cyber Electromagnetic 
Activities Support to Corps and Below pilot at the Army's Combat 
Training Centers is increasing Brigade Combat Teams' ability to deliver 
cyberspace effects and conduct electronic warfare in support of their 
operations in an increasingly contested and congested cyberspace domain 
and EMS environment.
    Additionally, the Army continues to improve the network defensive 
posture and reduce cyber vulnerabilities to weapons systems, 
warfighting platforms and mission critical infrastructure at our most 
critical installations thru network improvements, equipment 
modernization, and cyberspace operational resilience assessments.

    22. Senator Nelson. Secretary Esper and General Milley, what are 
you doing outside of CYBERCOM to prepare our Brigade Combat Teams for 
battle in the cyber and electronic warfare environment?
    General Milley and Secretary Esper. The Department of the Army is 
working to increase the pace, stress and rigor of Combat Training 
Center (CTC) training operations to match a near-peer competitor, 
including the intensity of OPFOR Cyber, EW, air attacks, indirect fires 
and chemical warfare.
    Since 2015, the Army's Cyber Electromagnetic Activities (CEMA) 
Support to Corps and Below (CSCB) pilot has been integrated into nine 
rotations at the Army's Combat Training Centers (CTCs), enabling 
Brigade Combat Teams (BCTs) to integrate CEMA, which spans both 
offensive and defensive cyberspace, electronic warfare, and information 
operations into a BCT's operations with emphasis on the ability to 
operate in a contested or denied Cyber and Electromagnetic Operational 
Environment. This pilot has helped BCTs to deliver cyberspace effects 
and conduct electronic warfare in support of their operations and 
better understand their unit's footprint in the cyberspace and in the 
electromagnetic spectrum. It is also helping BCTs maximize the role of 
their organic Electronic Warfare Section and identify the best methods 
of using the new Expeditionary CEMA Team concept under the proposed 
Cyberspace Warfare Support Battalion (CWSB).
   joint surveillance target attack radar system (jstar) capabilities
    23. Senator Nelson. Secretary Esper and General Milley, the Air 
Force has announced the desire to stop recapitalization efforts for the 
JSTARS aircraft in favor or newer capabilities on the horizon. We 
developed this platform specifically to give the Army the edge in 
defeating a highly-capable enemy ground force on the battlefield. 
Modernization is what our military needs but I'm concerned the future 
technology won't be ready for prime time when we need it. Have you been 
briefed and are you comfortable with the Air Force plan to replace 
JSTARS? If our soldiers are called upon to stop a heavy Army in the 
Europe, how critical is the capability the JSTARS offers to our 
soldiers on the ground?
    Secretary Esper and General Milley. I have / have not been briefed 
on the Air Force's plan to replace the Joint Surveillance Target Attack 
Radar System (JSTARS). The Army is involved in discussion about the Air 
Force's plan to replace JSTARS with a new capability and is working 
closely with the Joint Staff and the Air Force to ensure that the new 
capability provides the Ground Moving Target Indicator (GMTI) data 
required to support the Army. The Air Force's plan is not final. We 
will coordinate with the Office of the Secretary of Defense and the 
Joint Staff to ensure that the JSTARS replacement satisfies Army 
requirements for GMTI data. We are supportive of the Air Force's plan 
to use JSTARS recapitalization funding to pursue a follow-on capability 
that will be more effective and address threats as outlined in the 
National Defense Strategy, but are concerned with the cost to the Army 
to upgrade our ground systems to ensure interoperability with any new 
system. The Army remains platform-agnostic to how we receive GMTI data. 
The Army requires GMTI data regardless of the platform to provide early 
threat warning and que other intelligence, surveillance and 
reconnaissance sensors to identify threats and support long-range 
targeting in support of ground maneuver commanders.

    24. Senator Nelson. Secretary Esper and General Milley, if our 
soldiers are called upon to stop a heavy Army in the Europe, how 
critical is the capability the JSTARS offers to our soldiers on the 
ground?
    Secretary Esper and General Milley. Against a near-peer threat 
prior to hostilities, the Ground Moving Target Indicator (GMTI) sensor 
data that the Joint Surveillance Target Attack Radar System (JSTARS) 
provides is critical. GMTI sensor data provides early threat warning; 
indicators of slow moving aircraft, ground vehicle and personnel 
movement; and cues other intelligence, surveillance and reconnaissance 
(ISR) platforms and sensors with multi-disciplinary intelligence 
capabilities. However, the Army remains platform-agnostic to how we 
receive GMTI data. GMTI data provides wide area collection perspective 
and enables both Joint Force and ground commanders to cue other ISR 
platforms and collection capabilities to identify threats and enable 
long-range targeting. The JSTARS GMTI sensor data can mitigate the 
Army's critical stand-off ISR capability gap to enable long range 
targeting, which is fundamental to conducting a successful campaign in 
a near-peer armored (heavy) engagement.
                               __________
              Questions Submitted by Senator Jeanne Shaeen
                        research and development
    25. Senator Shaeen. Secretary Esper, while I admire your desire to 
reform the acquisition system and your efforts to power down to the 
general officers in the acquisition community, the title 10 
responsibility for managing the Research, Development, Technology, and 
Evaluation (RDTE) funds remains with your acquisition executive, Dr. 
Jette. We put these legal responsibilities with the Secretary's 
Civilian staff for a reason. I am concerned that that in your zeal to 
improve acquisition that you will be delegating too much decision 
making power to the Future Missions Command without proper authority 
and as a result will make it unnecessarily difficult, if not impossible 
for Dr. Jette and his staff to carry out their title 10 
responsibilities. Will you ensure us that your staff will have final 
say on the allocation of RDTE funds in the budget and across the 
program years?
    Secretary Esper. Yes, I can ensure you that the final decision over 
the allocation of Research, Development, Test and Evaluation funds in 
both the budget and future year's program will remain with me and the 
Army Acquisition Executive. Army Futures Command will have authority 
over the development and rapid integration of future requirements into 
the Army, and will provide valuable insight into what and how the Army 
modernizes in the future. However, the Planning, Programming and Budget 
Execution process will remain at Army Headquarters, exercised through 
our existing process that appropriately balances authority between the 
Secretariat and the Army Staff and enables my staff principals to 
exercise their statutory responsibilities.

    26. Senator Shaeen. Secretary Esper, what will you do to ensure 
that the Assistant Secretary of the Army for Acquisition, Logistics, 
and Technology (ASA-ALT) remains in charge of planning, programming, 
and budgeting RDTE funds?
    Secretary Esper. The Army Acquisition Execution will retain co-
chairmanship of the Equipping Program Evaluation Group; this is the 
body that I charge with the planning, programming and budgeting of 
Research, Development, Test and Evaluation funds.

    27. Senator Shaeen. Secretary Esper, the Army Medical Research and 
Material Command (MRMC), the Army Corps of Engineers Engineer Research 
and Development Center (ERDC), and others perform important cross 
cutting research in supporting the Army that has a significant positive 
impact on the rest of the Department of Defense and the nation. I am 
concerned that your efforts to realign Science and Technology (S&T) 
funds into cross functional teams that support the acquisition 
community will have the unintended consequence of stopping important 
research that is important to the nation and the Army that is not and 
should not be tied to the acquisition of new equipment. The Army has 
many problems and challenges that require research that don't require a 
new piece of equipment to be solved. What are you doing to ensure that 
the Army Medical Community and the Army Corps of Engineers will 
continue to have sufficient funds to conduct cross cutting research and 
research that solves Army problems that is not tied to acquisition?
    Secretary Esper. For the Army, we are committed to the research 
done by our medical and engineering communities that are aimed at 
solving Army problems that are not duplicated by other institutions. As 
part of our reallocation of funds to support modernization priorities, 
lower priority research programs will be reduced. From the medical 
research perspective, some programs will be reduced. For combat 
engineering research, we resourced programs aimed at Protection from 
Advanced Weapons Effects, Expedient Passive Protection of Critical 
Assets, Power Projection in Anti-Access/Area Denial Environments, 
Adaptive & Resilient Installations, and Advanced/Additive Manufacturing 
but other programs may be cut. The Army has to focus it dollars on our 
six Modernization priorities.

    28. Senator Shaeen. Secretary Esper, I understand that the Army 
staff is in the process of developing their recommendations for 
Military Construction projects for fiscal year 2020 (FY20) to fiscal 
year 2024. I am concerned that the Army's laboratory research 
facilities have not had sufficient priority in the past and many of 
them need to be replaced with modern technologies and efficiencies. 
Will you ensure that the fiscal year 2020-24 Military Construction 
(MILCON) Program Objective Memorandum (POM) considers the needs of our 
laboratories and begins to recapitalize our S&T infrastructure?
    Secretary Esper. Yes, The Army's Infrastructure Planning Team (IPT) 
infrastructure programing process ensures this with the Office of the 
Assistant Secretary of the Army (Acquisition, Logistics and Technology) 
representation on the team. This allows the Army's S&T infrastructure 
requirements to compete on an equal footing with other Army 
infrastructure requirements.

    29. Senator Shaeen. Secretary Esper, will you ensure that your 
MILCON Integrated Planning Team (IPT) membership includes voting 
members that will represent the laboratory community?
    Secretary Esper. Yes, The Army's Infrastructure Planning Team (IPT) 
infrastructure programing process currently includes a representative 
from the Office of the Assistant Secretary of the Army (Acquisition, 
Logistics and Technology). This participation allows the Army's S&T 
infrastructure requirements to compete on an equal footing with other 
Army infrastructure requirements.
                         cold weather conflict
    30. Senator Shaeen. Secretary Esper, the U.S. Army Cold Regions 
Research and Engineering Laboratory (CRREL) is conducting valuable 
research with the goal of improving the readiness of the U.S. military 
by enhancing its ability to effectively operate in cold weather 
environments. Do you believe that it is important for the U.S. Army to 
be ready to conduct large-scale combat operations in a cold weather 
environment?
    Secretary Esper. Yes. The National Defense Strategy (NDS) directs 
the Army to prioritize long-term strategic competition with near-peer 
and peer competitors, while deterring and countering rogue regimes like 
North Korea. Our competitors possess immense territory, much of which 
borders or contains regions where we might face cold weather 
challenges. Similarly, winter warfare on the Korean Peninsula would 
involve significant challenges from cold weather. We man, organize, 
train, equip, and lead the Army to deploy, fight, and win our Nation's 
wars as part of the Joint Force in any environment; our focus on the 
priorities given to us by the NDS necessitates an appropriate focus on 
preparing for cold weather warfare.

    31. Senator Shaeen. Secretary Esper, do you believe that additional 
cold weather-related research, as well as realistic, large-scale 
military exercises in cold weather environments, would be useful to the 
U.S. military, particularly the U.S. Army?
    Secretary Esper. Cold weather related research and exercises 
conducted in extreme environments ensure that the U.S. Army will not 
fight unprepared in these conditions.
    The Army continues to evaluate future investments to meet Army 
modernization priorities such as cold weather related research. The 
Army currently includes cold weather-related research conducted across 
the Army S&T enterprise. The Fiscal Year 2019 President's Budget 
request provides an appropriate funding level for this cold-weather-
related research. Examples of recent Army S&T efforts include: modeling 
and high-resolution mapping of permafrost and ground ice to assess 
impacts on infrastructure, training, and deployment in arctic and sub-
arctic environments; modeling of environmental contaminant effects in 
arctic and subarctic climates; arctic camouflage solutions for both 
vehicles and dismounted soldiers; and demonstration of improved soldier 
cold weather protection technologies.
                        army mtrs gen ii program
    32. Senator Shaeen. Secretary Esper, it has now been six months 
since the Army awarded the Man Transportable Robotics System Increment 
II (MTRS Inc II) for next generation combat engineer robotics units. As 
the Army continues to modernize and prepare for emerging threats on the 
modern battlefield, what is the status of the MTRS Inc II program?
    Secretary Esper. The MTRS Inc II program is progressing on 
schedule. The Government awarded the development and production 
contract to Endeavor Robotics on 29 September 2017. Since then, the 
Government and Endeavor team has completed the Critical Function 
Analysis (12 December 2017) and the Cybersecurity Preliminary Design 
Review (28 February 2018), and is currently preparing for the system 
Critical Design Review (30 May to 1 June 2018).
    The MTRS Inc II competitive source selection resulted in contract 
production pricing well below the robot that the MTRS Inc II is planned 
to replace. This reduced pricing results in an Army cost avoidance of 
approximately $127 million and allows the Army to field all systems 
three years sooner than originally planned. The MTRS Inc II 
capabilities are on track for meeting or exceeding the Army's 
operational requirements.

    33. Senator Shaeen. Secretary Esper, has the Army received initial 
MTRS Inc II robotics systems for testing and/or evaluation?
    Secretary Esper. No, the Army has not yet received the initial MTRS 
Inc II robotics systems for testing and/or evaluation. However, under 
the contract timeline, the MTRS Inc II program contractor is scheduled 
to deliver initial engineering systems in August 2018 for early 
Developmental Testing and Production Qualification Test (PQT) systems 
in November 2018. Upon completion of PQT the MTRS Inc II program will 
begin fielding production systems in fourth quarter, fiscal year 2019.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                      transgender service members
    34. Senator Gillibrand. General Milley, can you please provide me 
with the following information as we discussed during this hearing: Who 
served on the DOD panel of experts on transgender service?
    General Milley. The Army representatives on the Panel included the 
Senior Officer Performing the duties of the Under Secretary of the 
Army, Mr. Thomas Kelly, the Army Vice Chief of Staff, General James 
McConville, and the Sergeant Major of the Army, Sergeant Major Daniel 
Dailey.

    35. Senator Gillibrand. General Milley, who were the medical 
professionals consulted by the DOD panel of experts, if any?
    General Milley. The Panel received support from medical and 
personnel experts from across the Departments of Defense and Homeland 
Security. The Medical and Personnel Executive Steering Committee, a 
standing group of the Surgeons General and Service Personnel Chiefs, 
provided the Panel with an analysis of accession standards, a multi-
disciplinary review of relevant data, and information about medical 
treatment for gender dysphoria. The Panel also received input from 
military medical professionals and civilian medical professionals with 
experience in the care and treatment of individuals with gender 
dysphoria.

    36. Senator Gillibrand. General Milley, was consultation from 
health professionals received verbally or in writing? Please provide 
any such materials.
    General Milley. Department of Defense medical providers from all 
Services who provide health care services for transgender Service 
members and civilian medical experts in the field of transgender care 
consulted with the panel in a verbal discussion. Input was provided to 
the Panel in many forms, both written and verbal.

    37. Senator Gillibrand. General Milley, please provide the names of 
individuals who testified before this panel as well as any information 
that was submitted for consideration in developing this new policy.
    General Milley. The Army representatives on the Panel included the 
Senior Officer Performing the duties of the Under Secretary of the 
Army, Mr. Thomas Kelly, the Army Vice Chief of Staff, General James 
McConville, and the Sergeant Major of the Army, Sergeant Major Daniel 
Dailey.

    38. Senator Gillibrand. General Milley, are you aware of anyone 
outside the Departments of Defense and Homeland Security who was 
involved in crafting the final report?
    General Milley. I know the Panel of Experts consulted with civilian 
medical experts. However, I am uncertain of who these experts are by 
name or whether they were involved in crafting the final report.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                 improved turbine engine program (itep)
    39. Senator Blumenthal. Secretary Esper and General Milley, does 
the Improved Turbine Engine Program (ITEP) remain the Army's number one 
aviation modernization priority? What is the near and long term 
development timeline for ITEP? Are you planning to fully fund ITEP in 
fiscal year 2019 and beyond?
    Secretary Esper and General Milley. The Improved Turbine Engine 
Program (ITEP) remains a priority for our current fleets, providing our 
attack and utility helicopter fleets with significant increases in 
performance, fuel efficiency, and sustainability. ITEP is a bridge from 
our highly capable current fleets to Future Vertical Lift (FVL) 
platforms and has the potential to power certain FVL variants. We 
believe ITEP will achieve milestone (MS) B by 1st quarter fiscal year 
2019 (FY19), which will allow development, building and testing of the 
capability. We anticipate that ITEP will achieve MS C in fiscal year 
2024, which will enable low rate initial production and initial 
operational test and evaluation to support initial operational 
capability in fiscal year 2027. ITEP is fully funded in fiscal year 
2019 and across the Future Years Defense Program.
                               __________
              Questions Submitted by Senator Mazie Hirono
                           acquisition reform
    40. Senator Hirono. Secretary Esper and General Milley, the Army's 
recent history with large acquisition programs, specifically the Future 
Combat Systems and Ground Combat Vehicle programs, has not been very 
successful. Your testimony outlines a very ambitious acquisition plan 
to increase the Army's capabilities across the force, and as you said, 
its success is critical to maintaining overmatch against near-peer 
competitors. What lessons has the Army learned from the failed programs 
of the recent past and what changes have been made to make current 
modernization plans successful?
    Secretary Esper and General Milley. The Army remains committed to 
continuous improvement in our acquisition process to deliver overmatch 
capabilities to our warfighters rapidly, effectively, and affordably. 
We have taken a hard look at the many expert reviews of cancelled Army 
programs of the recent past and as a result, are taking efforts to 
address a lack of unity of command, unity of effort, efficiency, cost 
effectiveness, and leader accountability in our current acquisition 
system. The Army is moving toward utilizing more prototyping efforts 
and experimentation in an effort to not overestimate technology 
readiness levels for programs. If the Army is going to fail, we need to 
be able to fail early and learn quickly in the early stages of a 
program versus later when the mature product is getting ready to be 
fielded. As part of that process, we must put equipment in the hands of 
the soldier earlier so they are involved from the very beginning.
    In order to help accomplish these initiatives, we have established 
Cross Functional Teams (CFTs) to address the top priorities to contend 
with the full spectrum of existing and emerging threats. These CFTs 
integrate S&T, R&D, acquisition, sustainment, and warfighter 
perspectives to establish a sound footing for modernization programs. 
The CFTs will fall under our new Army Futures Command (AFC), bringing 
together these various elements of the modernization enterprise onto 
one team. Having all the stakeholders under one command will allow us 
to better define requirements and better ensure we go after technology 
that is achievable.
                            missile defense
    41. Senator Hirono. Secretary Esper and General Milley, in the 
fiscal year 2018 NDAA the Committee directed the Army to transition 
ownership of the Terminal High Altitude Area Denial (THAAD) missile 
defense system from the Missile Defense Agency (MDA). In January, 
Lieutenant General Dickinson mentioned that the Army is working on an 
updated Integrated Air and Missile Defense Strategy. How is the 
transition of THAAD going with MDA?
    Secretary Esper and General Milley. The transition of Terminal High 
Altitude Area Denial (THAAD) from Missile Defense Agency (MDA) to the 
Army is still under discussion and several issues related to resources 
and authorities have not yet been resolved. One of my greatest concerns 
is that the transfer of THAAD to the Army is accompanied by the full 
amount of funding to modernize and sustain the system, as well as 
preserve the required munitions. Without that, the Army will incur a 
very significant resourcing bill that would compete with our six 
Modernization priorities.
    We have had RAND examine this transition and they found that there 
are key risks of large scale transfer such as performance of the BMDS, 
disruption of pending Foreign Military Sales cases, and potential 
unfunded requirements for Army and MDA. The study found that there is 
an inherent tradeoff between focusing MDA on the future (transfer) 
versus the performance of the Ballistic Missile Defense System (do not 
transfer). The Army, MDA, and the Office of the Secretary of Defense 
continue to evaluate all options.

    42. Senator Hirono. General Milley, was the Army's Integrated Air 
and Missile Defense Strategy undertaken within the context of the 
national-level Missile Defense Strategy expected to be released soon or 
was it a stand-alone effort?
    General Milley. Space and Missile Defense Command (SMDC) is leading 
the Army effort to develop the updated Air and Missile Defense (AMD) 
strategy. This effort will be informed by the results of the DOD 
Missile Defense Review and other strategic documents and is currently 
expected to be released before the end of the calendar year. SMDC is 
working closely with the Army National Guard, Joint, and Coalition 
partners on the AMD way ahead.

    43. Senator Hirono. Secretary Esper and General Milley, what is 
your top priority for improving the capability of the Air and Missile 
Defense System?
    Secretary Esper and General Milley. Maneuver Short Range Air 
Defense (M-SHORAD) is our top Air and Missile Defense System priority. 
M-SHORAD will defeat a wide range of aerial threats including rotary 
wing, fixed wing and unmanned aerial systems. M-SHORAD will increase 
survivability of our maneuver formations and improve our ability to 
fight and win against near peer competitors. We have accelerated 
development of the initial M-SHORAD capability and will field 4 
battalions by fiscal year 2022.
                         military construction
    44. Senator Hirono. Secretary Esper and General Milley, the cost of 
construction in Hawaii and other parts of the Pacific is acknowledged 
to be higher than in many parts of the continental United States. It is 
encouraging to see that the Army is planning for a MILCON 
revitalization effort for Army facilities in Hawaii. I have visited 
many Army facilities in Hawaii and highly encourage these MILCON 
projects and revitalization efforts which will impact the readiness, 
safety and morale of men and women serving in our Army. While the costs 
are higher, will you commit to the extent possible, to ensure that the 
men and women serving in Hawaii have comparable facilities such as 
company operations facilities and quarters as their fellow soldiers do 
in other parts of the country?
    Secretary Esper and General Milley. Yes, installations provide 
critical infrastructure and services that generate combat power and 
keep the Army ready. The Army recognizes some infrastructure is failing 
and deficient in key categories within Hawaii. As a result, the Army is 
addressing these critical shortages through dedicated funding and 
attention.
                            pacific pathways
    45. Senator Hirono. Secretary Esper, the Pacific Pathways program 
has been a great way to build military to military partnerships in the 
Asia-Pacific. Does your budget request for fiscal year 2019 maintain 
support or expand this program?
    Secretary Esper. The Pacific Pathways provides our Army in the 
Pacific with unique training opportunities by connecting a series of 
security cooperation exercises to maximize readiness and achieve 
regional engagement objectives. The fiscal year 2019 budget request 
increases our Army investment in Pacific Pathways by $20 million to 
$61.8 million. The increase ensures U.S. Pacific Command a robust, 
versatile force, forward-deployed of the International Date Line for up 
to nine months each year. These opportunities generate interoperable 
combat-ready units and support regional security and stability. The 
Pacific Pathways program builds our warfighting readiness, increases 
our collaboration with regional partners and provides relevant land 
forces support to the Pacific Area of Operations.


IN REVIEW OF THE DEFENSE AUTHORIZATION REQUEST FOR FISCAL YEAR 2019 AND 
                    THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 19, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                              NAVY POSTURE

    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee Members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Ernst, Tillis, Sullivan, Perdue, Graham, 
Scott, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The committee meets today to receive testimony on the 
posture of the U.S. Navy and its fiscal year 2019 budget 
request.
    We welcome our witnesses, the Honorable Richard Spencer, 
Secretary of the Navy--welcome; Admiral Richardson, the Chief 
of the Naval Operations (CNO); and General Neller, Commandant 
of the Marines. Welcome, all three of you. We thank you for 
your dedicated service.
    The National Defense Strategy aims to build a more lethal 
and ready force and reform the Department of Defense for 
greater performance affordability. We look forward to hearing 
from each of you as to how the Navy and the Marine Corps plan 
to support these objectives.
    I was pleased to see requested procurement increases that 
align with the new strategy, including 11 more ships, dozens of 
aircraft, and expanded investment in long-range precision 
fires, air defense, electronic warfare, and other critical 
capabilities over the next 5 years. I continue to be concerned 
about the readiness, with the number of recent air and sea 
mishaps and the tragic loss of life in results. And I hope you 
have the chance to talk about that. You know, when we have this 
accelerated mishaps that we have had, obviously it has 
something to do with OPTEMPO, with maintenance, with training. 
It's difficult to identify just where that is. However, I think 
it's something that we need to be talking about.
    I'm encouraged to see the Navy and the Marine Corps 
prioritizing manning challenges during a time when our sailors 
and marines have been asked to maintain a high operational 
tempo. We look forward to hearing where you would use 
additional end strength to fill in gaps at sea and support 
priorities outlined in our National Defense Strategy.
    Finally, recognizing service in the military is inherently 
difficult, I'd like to ensure we're doing all the things that 
we can do to relieve stress on our sailors, marines, and 
families, and prioritize the readiness of the force.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I--and let me welcome Secretary Spencer and Admiral 
Richardson and General Neller. Thank you, gentlemen, for your 
service over many, many years, and to all the men and women of 
the Department of the Navy and their families. We're grateful 
for that service, and please give them our appreciation.
    As the leaders of the Navy and the Marine Corps, you face 
huge challenges as you strive to balance the need to support 
ongoing operations and sustained readiness with the need to 
modernize and keep the technological edge so critical to 
military success. The Department of the Navy face serious 
readiness problems caused by deferred maintenance, reduced 
steaming and flying hours, and canceled training and 
deployments. We are all keenly aware of the number of ship 
collisions, and I want to work with the Navy to implement 
changes that should help to prevent such incidents in future 
operations.
    These challenges have been made particularly difficult by 
the spending caps imposed in the Budget Control Act. 
Fortunately, we have a budget deal under the defense top line 
for 2 years, but additional challenges loom on the horizon, as 
the Budget Control Act will be back in force for fiscal year--
fiscal year 2020. I look forward to hearing your testimony on 
progress you're making in correcting these readiness problems 
while the funding levels are increased.
    All areas of our naval forces are maintaining extremely 
high operational tempo. Demand is overwhelming for attack 
submarines, air and missile defense cruises, destroyers, and 
strike fighter inventories. In addition, the Navy is now in its 
sixth year of operating with fewer than the required 111 
aircraft carriers. During the next decade, as a first priority, 
the Navy will need to buy the new Columbia-class ballistic 
missile submarines to replace the Ohio-class submarines. I am 
interested in hearing how the Navy is managing current demands 
on its assets, and how it plans to manage future modernization 
demands, particularly how it is using the additional 
authorities that are granted under the National Sea-Based 
Deterrence Fund, beginning with the Columbia-class program 
funding in fiscal year 2018.
    The Marine Corps continues to make modernization of ground 
vehicles a priority by balancing the procurement of new systems 
while upgrading existing platforms to meet current operational 
needs. The amphibious combat vehicle will replace the aging 
inventory of assault amphibious vehicles in order to provide 
marines with increased force protection and enhanced lethality. 
The Marine Corps is also partnering with the Army to develop 
the joint light tactical vehicle, the JLTV, to replace the 
Humvee. I would welcome an update from our witnesses on the 
status of these programs.
    Last year, we were presented with a document that 
identified a new force-structure goal, as recommended by the 
Chief of Naval Operations. That was the new Force Structure 
Assessment (FSA). The Navy's current high-level operations 
contributed, in part, to the CNO's conclusion in this 
assessment that calls for increasing the goal for the Navy 
fleet from 308 ships to the level of 355 ships. The Navy 
submitted a new 30-year shipbuilding plan with the fiscal year 
2019 budget request. While the plan would lead to increasing 
the size of the fleet, it would not meet the new 355-ship goal. 
This 30-year plan would achieve the attack submarine force goal 
of 66 boats in 2048. However, in the same year, we would have a 
force of nine aircraft carriers, compared to a goal of 12 
carriers, and 92 large service combatants versus the goal of 
104. We need to understand the steps the Navy will be taking to 
address these shortfalls.
    In addition, a significant factor that bears on our 
discussions this year is that Secretary Mattis has published a 
new Defense Strategy that is intended to guide force-structure 
development and modernization programs through increased 
capability. It is reasonable to speculate that the implications 
of this new Defense Strategy under the Department of the Navy 
could yield increased demand for naval forces and complicate 
the Navy's plans to achieve its force-structure goals. I am 
interested in hearing how the Department is implementing these 
strategy decisions, and how this might affect future force-
structure goals of the Navy and the Marine Corps.
    Again, I thank the witnesses and look forward to their 
testimony.
    Thank you.
    Senator Inhofe. Thank you, Senator Reed.
    Let's start with you, Admiral. Your entire statement will 
be made a part of the record, but--so, we'll be anxious to hear 
your opening statement, and then get to your questions.
    Why don't we start with you, Secretary Spencer.

STATEMENT OF THE HONORABLE RICHARD V. SPENCER, SECRETARY OF THE 
                              NAVY

    Secretary Spencer. Thank you, Senator, Ranking Member Reed, 
distinguished members. It--I want to thank you for the 
opportunity to come before you today and present to you the 
posture of the Department of the Navy.
    It's an honor--truly an honor to sit here with Admiral 
Richardson and General Neller, who, over the last 9 months, 
ladies and gentlemen, have truly become my business partners in 
tackling the issues that are facing the Department of the Navy, 
specifically as they pertain to my title 10 responsibilities.
    On behalf of the Navy and Marine Corps team, thank you for 
the effort put forth by Congress in reaching a bipartisan 
agreement to support the President's Budget request. We 
completely understand and appreciate that this stretched people 
to the farthest extent of their comfort zone, and we are very 
supportive of this and just want to know that we thank you all 
for your efforts, collectively.
    We look forward to receiving these resources as soon as 
possible to enhance the readiness and lethality across the team 
while expending them in a focused manner in support of the 
National Defense Strategy. Today, 94,000 sailors and marines 
and 101 ships are forward deployed and stationed using the 
global maritime commons as a medium of maneuver, ensuring the 
maritime lanes of commerce remain free and open, assuring 
access to overseas regions, defending key interests in those 
areas, protecting United States citizens abroad, and 
leveraging--and preventing adversaries from leveraging the 
world's oceans against us 24 hours a day, 365 days a year. Our 
budget request enhances readiness and continues increasing 
capability and capacity of the Navy-Marine Corps team. As 
directed in the 2018 National Defense Strategy, our budget 
submission supports a more lethal, resilient, agile force to 
deliver and defeat aggression by peer competitors and other 
adversaries in all domains across all spectrums.
    My priorities for the Department center on three 
categories: people, capabilities, and process.
    The ability to accomplish our mission relies on people. 
Eight-hundred-thousand sailors, marines, Active Duty and 
Reserve, and their civilian teammates and families, comprise 
that number. We are building a more lethal, agile, talented, 
and rapidly innovating workforce as we speak.
    The ability to accomplish our mission relies on having 
capabilities necessary to fight tonight, challenge competitors, 
deter our rivals, and to win. We're investing in modernization 
of key capabilities and new technologies to attain this goal.
    Lastly, the ability to accomplish our mission relies on 
having efficient processes in place that will speed the value 
and ability to support our warfighters in more effective and 
efficient manners.
    We are creating a continuous-improvement mindset in both 
our culture and management systems to deliver performance with 
affordability and speed. I deliver to you today a plan with 
urgency. We cannot and will not allow our competitive advantage 
to erode. With your guidance and help, these planned 
investments will provide combat-credible maritime forces for 
the future. We will ensure we are good stewards of the money 
and resources you give us. We will drive efficiency across the 
Department to maximize every dollar and invest smartly in order 
to leverage the return on our investments.
    I look forward to your questions.
    [The prepared statement of Mr. Spencer follows:]

         Prepared Statement by the Honorable Richard V. Spencer
                              introduction
    Chairman McCain, Ranking Member Reed, distinguished members of the 
Committee, thank you for the opportunity to appear before you today to 
testify regarding the Department of the Navy (DON) 2019 President's 
Budget request (PB19).
    First, on behalf of our sailors and marines, I would like to 
express gratitude for the efforts put forth by Congress addressing the 
President's Budget request. We are very aware that this process has 
stretched members to their limits on many fronts. Please know that the 
resources we receive will be expended in focused alignment with the 
National Security Strategy (NSS) and National Defense Strategy (NDS) 
building our combat credible force.
    Our Nation supports maritime operations worldwide. Forward-deployed 
and forward-stationed naval forces use the global maritime commons as a 
medium of maneuver, ensuring the maritime levels of commerce remain 
free and open, assuring access to overseas regions, defending key 
interests in those areas, protecting U.S. citizens abroad, and 
preventing adversaries from leveraging the world's oceans against the 
United States. The ability to sustain operations in international 
waters far from U.S. shores constitutes a distinct advantage for the 
United States--a Western Hemisphere nation separated from many of its 
strategic interests by vast oceans. Maintaining this advantage in an 
interconnected global community that depends on the oceans remains an 
imperative for the Sea Services and the Nation.
    Our President's Budget 2019 request enhances readiness and begins 
increasing the capability and capacity of the Navy and Marine Corps 
team. As directed within the 2018 National Defense Strategy (NDS), the 
President's Budget 2019 budget submission will support the building of 
a more lethal, resilient, and agile force to deter and defeat 
aggression by peer competitors and other adversaries in all domains and 
across the conflict spectrum. Ultimately, our budget submission 
reflects the DON's efforts to protect the Homeland and preserve 
America's strategic influence around the world. The Navy's overarching 
plan--the Navy the Nation Needs (NNN)--consists of six dimensions: 
Readiness, Capability, Capacity, Manning, Networks, and Agility. The 
Marine Corps' plan--Modernizing for the Future Force--focuses on 
investments in Modernization, Readiness, and Manpower; further 
increasing its competitive advantage and lethality resulting in a Next 
Generation Marine Corps. The resourcing of both services aligns with 
the NDS, ready to fight and win across the range of military operations 
(ROMO).
    The strategic environment is rapidly changing and the Navy and 
Marine Corps is engaged in a competition that they have not faced in 
over twenty years. To meet the objectives of the NDS, and as part of 
the Joint Force, the Navy and Marine Corps' primary force contributors 
are Carrier Strike Groups (CSG) and Amphibious Ready Groups / Marine 
Expeditionary Units (ARG/MEU), and ballistic missile submarines--the 
most survivable leg of the nuclear triad. These units remain forward at 
all times, while additional CSGs and ARG/MEUs are ready to surge in 
support of Operational Plans. Our President's Budget 2019 budget 
continues to make strides in achieving that requirement to once again 
re-establish the standard that has ensured preeminence. This will be 
imperative to winning peer-on-peer competition, as we move forward to 
deliver enhanced distributed lethality.
    The Department is committed to follow reform guidance and has 
identified savings of over $1 billion in fiscal year 2019 and $5 
billion over the Future Years Defense Program (FYDP) which will be 
reinvested in force structure and readiness. Savings were achieved 
through reform efforts focused on improving organizational 
effectiveness; eliminating, restructuring, or merging activities; and 
workforce management. One specific fiscal reform effort has been the 
Department's focus on improving the expenditure of funds through an 
emphasis on the quality of our obligations. Leadership is committed to 
ensure that a dollar appropriated to the Department is expended by the 
Department to achieve the direction laid out by the NDS. Additionally, 
the Department has also reviewed duplicative programs or programs that 
are no longer mission essential. This has resulted in the divestiture 
of legacy F/A-18 Hornets, the transition of the HH-60H reserve squadron 
from legacy aircraft to newer MH-60S aircraft, and a review of Marine 
Corps training munitions. Representative investments resulting from the 
reform initiative include an additional DDG-51, one additional F/A-18 
E/F, increased procurement of Rolling Air Frame missiles and MK48 
torpedoes, and funding afloat readiness to maximum executable levels. 
Moreover, the Department is focused on improving business processes 
heightened through the audit of our financial statements.
    As we continue to look forward to the President's Budget 2019 
budget, our priorities center on people, capabilities, and processes, 
and will be achieved by our focus on speed, value, results, and 
partnerships. Readiness, lethality, and modernization are the 
requirements driving these priorities.
                                 people
    The ability to accomplish our mission successfully relies on the 
Navy and Marine Corps team--800,000 sailors and marines, active duty 
and reserve, our civilian teammates and families. We rely on their 
superior talent, recruiting the most promising workforce for the 
future, and making strategic investments in training and retention 
initiatives.
    Our forward-deployed forces suffered tragic mishaps in 2017, both 
on the sea and in the air. We will never forget those we lost and we 
stand by our fellow sailors and marines along with their families in 
solidarity.
    We do not take these losses lightly; both the Comprehensive and 
Strategic Readiness Reviews have examined the factors that led to the 
series of incidents on the sea and provided recommendations we are now 
implementing. The Strategic Readiness Review found that institutional 
deficiencies were the cumulative result of well-intended decisions 
developed over decades. Accepting deviations from our standards 
translated into the acceptance of higher risk, which then gradually 
became normalized, thereby compounding the accumulating risks. The 
entire Department of Navy leadership is committed to addressing these 
issues across the Force. The action plan, well underway, commands my 
full support and oversight and while we operate with a sense of 
urgency, we are steadfast in ensuring this is addressed correctly the 
first time.
    Good order and discipline are key ingredients to unit cohesion and 
lethality. Sexual assault is a cancer effecting the aforementioned. The 
Department of the Navy has come a long way in addressing sexual 
assault, but until we get to zero, there is still work to be done. As 
with any cultural change in an organization, our challenge involves 
sustaining positive momentum. We continue to resource and monitor our 
progress and address preventing sexual assault along with prosecution. 
My commitment is enduring and fundamental, and my position of 
intolerance for sexual assault anywhere is unequivocal.
    While the Navy and Marine Corps are achieving overall military 
recruiting objectives, the Department faces ongoing challenges from an 
increasingly competitive marketplace and a decline in the propensity 
for military service among young people as our accession goals are 
modestly increasing. The Department continues to explore systematic 
improvements to support recruitment and retention, to include programs 
which maintain the health and resilience of the force, and maximize 
professional, personal, and family readiness. Our success in sustaining 
maritime dominance relies on our ability to attract America's best. We 
will continue to recruit superior talent and invest in long-term 
measures to retain it, while fostering an environment where our 
sailors, marines, and civilians are provided the opportunities and 
resources they need to thrive and be successful. Aligned with our Core 
Values of Honor, Courage, and Commitment, we continue to strengthen our 
investment in the ethical development of our sailors, marines, and 
civilian employees. While competition for talent with the private 
sector continues to increase, I believe we are resourced and positioned 
to overcome our manning and retention challenges.
                              capabilities
    As we build our lethal capabilities to fight tonight and challenge 
rivals, we must respond on all fronts, to include research and 
development, rapid prototyping, accelerated learning, and partnership 
with industry. These efforts and partnerships will be built on shared 
risks and shared benefits. We are now working with industry in a true 
partnership to achieve a sustainable acquisition process that will 
provide us solutions to problems we face in order to remain ahead of 
the competition.
    The Department of the Navy has an overarching plan to meet 
warfighting requirements in support of the NDS. For example, the long 
range ship acquisition plan:
    (1)  Establishes acquisition profiles to grow the force at a 
steady, sustainable rate. This includes sustainment of the industrial 
base at a level that supports more affordable acquisition while growing 
an experienced workforce to support more aggressive growth if 
additional resources become available.
    (2)  Implements Service Life Extensions (SLE) based upon return on 
investment--we will modernize rather than replace when appropriate as 
good stewards of taxpayer dollars.
    (3)  Provides options for aggressive growth as resources and 
industrial capacity permit. President's Budget 2019 includes four 
additional DDG 51 Flight IIIs over the FYDP, for a total of 14 Flight 
III ships and three additional fleet oilers across the FYDP. New ship 
construction totals have increased since last year's plan, with three 
additional ships (1 DDG 51 Flight III, 1 Expeditionary Sea Base, and 1 
fleet oiler) added in this request for fiscal year 2019. Throughout the 
FYDP, the Department added a net total of 11 battle force ships.
    With sustained funding and SLEs, President's Budget 2019 puts the 
Navy on a path to 355 ships while we are simultaneously increasing our 
capabilities. By setting the conditions for an enduring industrial base 
as one of our priorities, the Navy is postured to take advantage of 
additional funding that may be provided through reform initiatives in 
future years. This can be achieved without threatening the long-term 
competitive posture of a balanced warfighting investment plan while 
retaining an option to accelerate a targeted portfolio of weapons 
systems.
    The Navy is aggressively pursuing cost reduction opportunities to 
deliver fully capable assets at the most efficient possible cost. The 
Ford-class Aircraft Carrier program refined the ship construction 
process for CVN 79 by, capitalizing on technological improvements, and 
enhancing shipbuilder facilities to drive towards the targeted 18 
percent reduction in labor hours from CVN 78. The Navy is also 
executing advance procurement and negotiating long-lead time material 
for CVN 80, and full funding for CVN 81 begins in fiscal year 2023.
    Naval Aviation continues to operate forward, fully prepared for 
conflict across the ROMO while managing near-term service life 
extensions, mid-term procurement and modernization, and long-term 
investment in research and development. With the support of Congress, 
the U.S. Navy and Marine Corps are implementing our ``Vision for Naval 
Aviation 2020.'' The Department has initiated a Next Generation Air 
Dominance Analysis of Alternatives (AOA) study that is investigating 
technology and program investment requirements to recapitalize Navy F/
A-18E/F and EA-18G tactical aviation platforms. The future of DON 
tactical aircraft relies on a combination of F-35B and F-35C 5th 
generation aircraft. Continued investment in capability upgrades for 
both platforms is required to improve the lethality of the CSG and ARG/
MEU. We will see our first operational deployment of F-35Bs later this 
year with our ARG/MEUs in the Pacific.
    The MV-22B Osprey's unique combination of vertical flight and 
fixed-wing capabilities continues to enable effective execution of 
missions that were previously unachievable. Marine Corps MV-22B's 
continue to extend operational reach, revolutionizing our ability to 
operate from the sea, austere locations, and previously damaged 
airfields within a contested environment. The DON begins procurement of 
the Navy CMV-22B variant in support of the Carrier On-Board Delivery 
mission in fiscal year 2018.
    Navy and Marine Corps Expeditionary Forces will soon receive the 
next generation protected mobility. The Joint Light Tactical Vehicle 
begins fielding in 2019. In fiscal year 2019, the Marine Corps is set 
to receive the first Amphibious Combat Vehicle Low Rate Initial 
Production units in preparation for Operational Test and Initial 
Operational Capability in 2020. These capabilities are vital for our 
continued efforts to adapt and modernize our expeditionary forces with 
the requisite protected mobility. As we work through the programmatic 
schedule with these vehicles, we are continually looking at ways to 
improve their ability to counter ever changing threats from potential 
engagement with peer adversaries.
    The Department of the Navy is determined to lead the way in the 
development and responsible integration of cyber metrics and artificial 
intelligence, establishing aggressive goals for the acceleration of 
integrating these unmanned systems. One of these future systems is the 
Snakehead Large Displacement Unmanned Underwater Vehicle which is 
designated as a Maritime Accelerated Capability Office program to fast-
track this capability. Surface operations will be augmented through an 
integrated team of manned and unmanned enhancing capabilities and 
capacity. Investments in autonomous platforms and mine countermeasure 
technology will reduce the threat of mines in contested waters while 
reducing risk to our sailors conducting this dangerous mission.
    Steady progress will continue in developing and fielding unmanned 
aviation assets. Today the MQ-4C Triton Unmanned Aircraft System 
enhances awareness of the operational environment and shortens the 
sensor-to-shooter kill chain. The Navy is committed to future unmanned 
carrier aviation with the MQ-25 Carrier Based Unmanned Aerial System 
that will deliver an unmanned tanker. The Marine Corps continues 
development of the unique Marine Unmanned Expeditionary (MUX) system to 
further increase lethality and resilience of the fleet while also 
enhancing aggregate ISR capability.
    We are also investing in strike weapons as well as theater and high 
value target multi-layer area defense weapons for the Fleet. 
Investments are enhancing warfighting capability and increasing 
magazine depth. Along these lines, the Marine Corps is pursuing ground 
based fires to restrict freedom of movement along sea lanes while 
requesting the integration of Vertical Launch Systems to amphibious 
shipping.
    Efficiently operating Navy and Marine Corps installations are 
essential in generating naval forces. Over the last decade the DON has 
taken risk by underfunding infrastructure capital investments and 
installation operations to fund other warfighting, readiness, and 
modernization requirements. Under-investment has created a backlog of 
maintenance and repair requirements and reduced facility effectiveness. 
The DON's fiscal year 2019 budget request acknowledges and begins to 
address these installation investment challenges. The budget funds 
infrastructure that supports new platforms and an increase in 
infrastructure sustainment funding; begins to address the significant 
requirement to recapitalize our naval shipyards; and recapitalizes 
critical enabling infrastructure.
                               processes
    The Department is actively reforming business processes and driving 
efficiencies to increase speed, value, and support to the warfighter, 
while concurrently enhancing lethality and increasing readiness. We are 
identifying and clearing constraints caused by burdensome policies and 
regulations, and are increasing adoption of agile business models and 
technologies to support our need for urgency. Layers of overhead are 
being removed and organizations are being flattened to return decision-
making authority further down the command structure. We are also 
demonstrating progress in the area of data-driven decision making and 
problem solving. The Department of the Navy's fiscal year 2019 budget 
request reflects extensive use of modeled campaign and mission level 
outcomes to evaluate capabilities and force structure and maximize 
naval power. We stood up a Digital Warfare Office to harness the power 
of data by executing digital pilot projects that informed decisions on 
operational effectiveness and readiness. Moving forward, the fiscal 
year 2020 Navy budget features additional force level analytic tools, 
developed at our Federally Funded Research and Development Centers and 
in conjunction with industry that will further assist us in integrating 
valuation and capability assessments to optimize the Navy's budget for 
the highest warfighting return on investment.
    Growing the Fleet requires a strong and integrated relationship 
with our private sector partners. We are working closely with our prime 
contractors to ensure suppliers are prepared to support the increasing 
demand of building a larger Fleet. We need industry to provide 
solutions and capabilities at the speed of relevance and at an 
affordable value. As the same time we also need to be a better 
customer. Industry needs predictable and stable programs, which require 
a stable budget. If we are effective at long-range planning, we can 
increase our buying power by using all of our tools to provide stable 
commitments to our industrial partners. We appreciate the much needed 
two year budget deal and look forward to working with you to produce 
stable and flexible funding that will drive improved productivity, 
efficiency, and competitiveness across the supplier base.
    We continue to pursue acquisition reforms contained in recent 
legislation, with emphasis on provisions that increase Service 
acquisition oversight and the role of the Service Chiefs in the 
process, along with those that provide opportunities to accelerate the 
fielding of critical capabilities. We are employing new constructs, to 
include the Maritime Accelerated Capabilities, the Marine Corps Rapid 
Capability Office, and an Accelerated Acquisition Board of Directors. 
These solutions will improve innovation, speed, and agility through 
strategy-driven investments addressing our highest priorities.
    The DON is undergoing its first full audit of all financial 
statements, which will help us gain a clearer picture of the 
effectiveness and an opportunity to improve our processes and internal 
controls. The Marine Corps was the first from our Department to 
complete the Full Financial Statement Audit for fiscal year 2017, 
sharing lessons learned across the Department. As our data quality 
improves, we will be able to harvest savings generated through process 
reform and reinvest in lethality. We are committed to full 
accountability for every dollar.
                               conclusion
    I deliver you today a plan with a sense of urgency. The fiscal year 
2019 President's Budget request seeks to provide sustained and 
predictable investments to modernize and increase the readiness of our 
Navy and Marine Corps team. We cannot and will not allow our 
competitive advantage to erode.
    These planned investments will provide combat-credible maritime 
forces for the future. I commit to you that we will not just look 
forward but will lean forward. I will focus the Departments support to 
the NSS and NDS. We will gain efficiencies and effectiveness through 
business reforms at my level while supporting both the Chief of Naval 
Operations and the Commandant of the Marine Corps' programmatic efforts 
to fulfil their needs to meet the challenges our Nation faces in the 
evolving strategic environment and maritime domain. We are grateful to 
Congress for their support and efforts. We will ensure we are good 
stewards of the provided resources, drive efficiency across the 
department to maximize every dollar, and invest smartly to leverage the 
return on our investments.
    I appreciate this opportunity to present our plan and will continue 
to work with the Congress to provide our Nation the Navy and Marine 
Corps team it requires.

    Senator Inhofe. Thank you, Mr. Secretary.
    Admiral Richardson.

 STATEMENT OF ADMIRAL JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Richardson. Senator Inhofe and Ranking Member Reed, 
and distinguished members of the committee, thank you for the 
opportunity to testify today to discuss our Navy.
    I'm honored to be here with Secretary Spencer and General 
Neller, two great leaders with whom I am working to increase 
the warfighting lethality and readiness of our Navy-Marine 
Corps team.
    That Navy-Marine Corps team is the Nation's response force, 
and a strong and responsive Navy matters to America's security 
and economic prosperity now more than ever. As our National 
Defense Strategy makes clear, more naval power is essential in 
a new era of great-power competition. With a rising China and a 
resurgent Russia, America no longer can enjoy a monopoly on 
seapower or sea control. Meanwhile, regimes like North Korea 
and Iran threaten global stability.
    Given these challenges, it's absolutely critical that we 
increase American naval power with a sense of urgency, just as 
Secretary Spencer said. Every day, we must earn our place as 
the world's best Navy. To do that, we must take a balanced 
approach to building the Navy the Nation needs.
    The Navy the Nation needs requires a bigger fleet, as you 
said, Senator, more ships, submarines, aircraft, and special 
operating forces. Congress agreed with the conclusions of 
several thoughtful studies, and a 355-ship Navy is the now the 
law of the land. This will increase our Navy's ability to 
protect our Homeland and our allies, to expand our influence as 
America's global maneuvering force, and to support American 
prosperity by safeguarding access to critical waterways. And, 
while there will always be a debate about the eventual number 
of ships to build, we can all agree on one thing: the Navy must 
get bigger, and we must start building now.
    The Navy the Nation needs requires a better fleet, more 
capability achieved through modernization, networking, and 
agile operating concepts. The Navy the Nation needs requires a 
ready fleet, more at-sea time, more flying, more maintenance, 
and more weapons of increased lethality that go faster and 
farther. All of these things demand a talented force of sailors 
and civilians, with officers of character and competence to 
lead them.
    Thank you, to the efforts of this committee and the 
Congress, the readiness funds in 2017 and the enactment of the 
fiscal 2018 authorizations and appropriations has put us on a 
strong trajectory towards increasing American naval power. As 
we discuss the 2019 budget request today, that will help us 
achieve a bigger, a better, and a more ready fleet, I commit 
that your Navy will be a good steward of every precious 
taxpayer dollar.
    Finally, on behalf of all the sailors serving around the 
globe, I think we all agree and wish Senator McCain a speedy 
recovery. I look forward to being grilled by him in this room 
in the future. I am grateful for his work, and that of the 
entire committee, to increase our naval power.
    We've started down a good course, and I look forward to 
navigating with Congress to build the Navy the Nation needs, a 
Navy lethal to our enemies, committed to our partners, and safe 
for our sailors.
    Thank you. I look forward to your questions.
    [The prepared statement of Admiral Richardson follows:]

            Prepared Statement by Admiral John M. Richardson
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, thank you for the opportunity to testify today on the 
Navy's fiscal year 2019 budget.
    This hearing comes at a critical time in our Navy's and our 
nation's history as we confront a dynamic security environment. The 
maritime domain--which I define as the sea floor to the stars--is 
indisputably more complex than it was when I took my oath in 1978. 
Within the past quarter century, global waterways have become more 
congested, with maritime traffic increasing by a factor of four. On the 
seabed, transoceanic cables carry 99 percent of all information, and 
new technologies are making undersea resources more accessible. The 
polar ice caps are receding, opening new trade routes, exposing new 
resources, and redrawing continental maps. People are migrating to 
megacities dotting the coastlines. Rapid technological advancements in 
cyberspace, artificial intelligence, robotics, and directed energy are 
changing the face of naval warfare. There can be no doubt that 
stability and economic prosperity both here in the United States and 
around the world are inherently linked to freedom of movement and 
security on, below, and above the world's oceans.
    But just as we have come to depend on this rules-based security 
order, there are those who would seek to turn the tide and upend it. 
For the first time since the fall of the Soviet Union, we are 
experiencing a return to great power competition. With a rising China 
and a resurgent Russia, the United States does not enjoy a monopoly on 
sea power or sea control. Rogue regimes like North Korea and Iran 
persist in taking actions that threaten regional and global stability. 
Given these challenges, a balanced strategic approach is more important 
than ever.
    Our priorities have been clearly defined by the President's 
National Security Strategy, which directs our Navy to protect the 
American Homeland, promote American economic prosperity, and advance 
American influence throughout the world. The National Defense Strategy 
(NDS) operationalizes these imperatives and articulates our plan to 
compete, deter and win in the new competitive security environment of 
our time.
    The maritime expression of the NDS--what we are calling Navy the 
Nation Needs--articulates the Navy's role as part of the broader 
military joint force across three lines of effort. First, we must 
restore readiness while building a more lethal joint force--the prime 
objective of the Navy's fiscal year 2019 budget submission. Next, we 
must strengthen traditional alliances while building new partnerships 
to expand American influence and fortify global resolve. And finally, 
we must reform the Department to achieve greater performance through 
agile acquisition processes, early engagement with industry, capability 
iterations that ride the technological curve, and thoughtful 
stewardship of America's tax dollars.
    As the NDS makes clear, unstable funding over the past decade has 
contributed to ``erosion of military advantage,'' and recent action by 
Congress to restore stable and predictable funding demonstrates that 
you share this viewpoint. The recent passage of the Bipartisan Budget 
Act of 2018 (BBA-18) and the fiscal year 2018 defense appropriations 
are major steps in the right direction, underscoring our shared 
responsibility to provide, maintain, and operate a global Navy. The 
importance of stable and predictable funding cannot be overstated. It 
facilitates more planning time, productivity, and purchasing power; 
restores readiness through planned and precise resource allocation; 
sharpens perishable warfighting skills by steaming ships and flying 
planes; stabilizes the industrial base--especially shipbuilding--so 
that it is efficient, agile, postured to respond; enables us to mature 
technologies on a thoughtful path; and allows us to maximize every 
taxpayer dollar spent.
    In fiscal year 2017 we arrested readiness decline with the Request 
for Additional Appropriations, and the fiscal year 2018 enacted 
appropriations and fiscal year 2019 budget request further restore 
readiness while beginning to increase warfighting capacity and 
capability. The fiscal year 2019 budget submission is strategy-based, 
seeking a $2.4 billion increase for the Navy over fiscal year 2018 
enacted levels. The single most effective way to maintain the strategic 
momentum started in fiscal year 2017 and fiscal year 2018 is to enact 
the fiscal year 2019 President's Budget by the start of the fiscal 
year. This funding will help us fulfill our responsibilities in the NDS 
by building the Navy the Nation Needs. Everything we do must contribute 
to increasing America's naval power, which must be balanced in six 
specific dimensions to achieve needed wholeness.
    To increase America's naval power, we'll build a bigger fleet--more 
platforms like ships, submarines, aircraft, and more special operations 
forces. Congress made a 355-ship Navy the law of the land, and this 
increased capacity will strengthen our ability to prevail in any 
warfighting contingencies, meet demand signals from Combatant 
Commanders, expand global influence, and support American prosperity by 
safeguarding access to critical markets, waterways, and chokepoints. In 
fiscal year 2019, this budget requests over $55 billion in procurement 
accounts, funds a 299-ship deployable battle force, procures 10 new 
ships and submarines, and buys 120 fixed and rotary wing, manned and 
unmanned aircraft for the Navy and Marine Corps. Expanded across the 
Future Years Defense Program (FYDP), President's Budget 2019 funds 
construction of 54 battle force ships--11 more than the President's 
Budget 2018 baseline--and extends the service life of six guided 
missile cruisers, four mine countermeasure ships, and one attack 
submarine to further increase the size of the fleet. Just as they have 
every day since the early 1960s, our ballistic missile submarines 
continue to patrol the deep as the only survivable leg of our nuclear 
triad. President's Budget 2019 includes $3 billion in ship construction 
(SCN) funds to ensure lead Columbia-class ship construction commences 
on time in fiscal year 2021, guaranteeing defense of the Homeland into 
the 2080s. Additionally, our Annual Long Range Plan for Construction of 
Naval Vessels, which accompanies the budget request, outlines a path to 
reach the Navy the Nation Needs. While there will always be debate 
about the final number of ships for our Navy, we can all agree on one 
thing. The Navy must get bigger, and we must start building NOW.
    To increase America's naval power, we'll build a better fleet--more 
capability across all our naval platforms. This means fielding state-
of-the-art systems and continually modernizing legacy ones. Keeping 
pace with advances in technology demands consistent, unwavering, and 
aligned financial, programmatic, and operational commitments. To that 
end, the fiscal year 2019 budget includes almost $18 billion for 
research and development in addition to other modernization efforts. 
For example, President's Budget 2019 includes $276 million for guided 
missile cruiser modernization and $79 million to upgrade eight cruisers 
to AEGIS Baseline 9, enabling them to perform critical Integrated Air 
and Missile Defense (IAMD) and Ballistic Missile Defense (BMD) 
operations simultaneously. By the end of fiscal year 2019, the Navy 
will have 41 ships modified for BMD missions to defend our ships and 
the Homeland. President's Budget 2019 also invests over $2 billion per 
year over the FYDP in land- and carrier-based aviation modernization 
and training to include improved radars, common avionics, structural 
enhancements, sensor upgrades, and refreshed mission computers. The 
budget maintains fiscal year 2018 enacted funding levels for acoustic 
superiority modernization to improve large vertical arrays, advanced 
hull coating, and ship machinery quieting technology. The budget also 
requests $420 million for Surface Electronic Warfare Improvement 
Program (SEWIP), which will enhance shipboard electronic support 
capabilities and continue delivery of Block 2 systems currently in full 
rate production. We are also leveraging accelerated acquisition and 
rapid prototyping--for directed energy, lasers, STANDARD Missile (SM)-
2/6 weapons, MQ-25 Stingray, and Unmanned Underwater Vehicle 
capabilities, just to name a few--to deliver capability faster.
    To increase America's naval power, we'll build a networked fleet--
allowing our fleet and the broader joint force to connect and combine 
in rapidly adaptable ways. History is replete with examples where 
networked forces that shared information executed more efficiently and 
effectively. The fiscal year 2019 budget builds on the progress made in 
fiscal year 2018 by requesting an additional almost $500 million 
investment in command, control, communications, computers; 
intelligence, surveillance, and reconnaissance; and cyber resiliency. 
By establishing and requesting $27 million to fund the Digital Warfare 
Office under the Deputy Chief of Naval Operations for Information 
Dominance (N2/N6), we continue to centralize our efforts to identify 
material and non-material solutions to mitigate warfighting gaps. 
Finally, critical upgrades to our E-2D Hawkeyes, F/A-18 E/F Super 
Hornets, and EA-18G Growlers will improve Naval Integrated Fire 
Control-Counter Air (NIFC-CA) architecture and introduce sensor netting 
and Cooperative Engagement Mode, allowing air- and seaborne units to 
optimize sensing, tracking, shooting, and controlling functions.
    To increase America's naval power, we'll build an agile fleet--more 
innovative concepts of operating to increase our competitive advantage. 
This past year alone, we leveraged the global maneuver power that is 
inherent in our Navy through concepts like Distributed Maritime 
Operations, in which fleet commanders are able to distribute but still 
maneuver forces across an entire theater of operations as an integrated 
weapon system, leveraging multi-domain capabilities and harnessing the 
power of the fleet tactical grid; Third Fleet Forward, during which our 
San Diego-based numbered fleet commander retained command and control 
for forces operating west of the International Date Line; and 
electromagnetic spectrum management, which safeguards our units and 
preserves our capabilities. Over the past year, we also established the 
Navy Analytic Office to better integrate the results of wargames, fleet 
exercises, and experimentation and continually learn and improve our 
technical and tactical operations at sea. We are focusing four global 
wargames--facilitated through the Naval War College but sponsored by 
the Commanders of the Pacific Fleet and Naval Forces Europe--on peer 
competitors and high-end warfare. Finally, we are sharpening our focus 
on countering unmanned threats through programs such as the Surface 
Navy Laser Weapons System, as well as targeted experimentation, 
wargames, and innovation competitions to more rapidly integrate 
capability against these continuously emerging threats. In fiscal year 
2019, we are investing over $300 million in research and development to 
develop and field laser weapon systems which include advanced 
capabilities to destroy unmanned threats. Additionally, our fiscal year 
2019 budget requests $60 million to improve existing systems and other 
equipment to be able to identify and destroy unmanned aerial systems.
    To increase America's naval power we'll build a talented fleet--
more recruiting, training, education and retention. America's sons and 
daughters have always been our greatest source of strength. But make no 
mistake, we're in a competition for talent. So the fiscal year 2019 
budget requests an additional $1.6 billion for military personnel, 
which will increase the size of the active force by 7,500 billets, thus 
providing more accessions and support personnel to meet projected 
shipbuilding and special operations forces growth. Additionally, our 
Sailor 2025 initiative seeks to maximize all authorities and non-
monetary incentives to attract and retain skilled teammates in all 
warfare disciplines. We are transforming Manpower, Personnel, Training, 
and Education by investing in user-friendly systems and by updating our 
personnel detailing and assignment processes. Finally, while we remain 
on track for mandatory headquarters reductions, the fiscal year 2019 
budget adds about 1,400 critical civilian billets above current fiscal 
year 2018 estimates for ship depot maintenance, base security, 
intelligence, contracting, and training.
    To increase America's naval power, we'll build a ready fleet--more 
at-sea time, more flying, more ammunition and parts, more maintenance. 
Readiness--both materiel and practice time--transforms our Navy from 
potential power to actual power. The fiscal year 2019 budget continues 
the readiness and wholeness commitments we made in fiscal year 2017 and 
fiscal year 2018 by funding ship operations to 100 percent of the 
requirement and ship depot maintenance to 100 percent of executable 
capacity. It also funds flying hours to the maximum executable 
requirement and increases aviation depot maintenance funding to 92 
percent (the maximum executable capacity) as we grow capacity on our 
flight lines. In addition, $1.9 billion requested in fiscal year 2019 
for military construction will fund 33 Navy projects--the largest such 
request in over a decade. Recognizing the inherent link between 
readiness and lethality, the budget also increases procurement of high-
end ship-, sub-, and air-launched munitions over the FYDP, including 
Long-Range Anti-Ship Missile (LRASM), SM-2/6, Rolling Airframe Missile 
(RAM) Block II, Evolved Sea Sparrow Missile (ESSM) Block II, Advanced 
Lightweight torpedo, and Advanced Anti-Radiation Guided Missile 
(AARGM). Because the element of time is unforgiving, still other 
investments over the FYDP accelerate the delivery of critical 
capabilities and capacities into our magazines and launchers, such as 
multi-mission Maritime Strike Tomahawk ($239 million), Mark-48 
Heavyweight torpedoes ($184 million), and Littoral Combat Ship Over-
the-Horizon (LCS OTH) missile system ($177 million). Finally, we 
continue to work to stabilize and incentivize the industrial base. The 
fiscal year 2019 budget also includes 12.7 percent capital investment 
in public shipyard depot facilities, exceeding the six percent 
legislative requirement, underscoring our commitment to increase our 
capacity to maintain and modernize our fleet.
    As part of building readiness, we are also making immediate 
readiness improvements by funding the recommendations in our recent 
Comprehensive Review (CR) and Strategic Readiness Review (SRR). Across 
all appropriations categories, the budget requests $79 million in 
fiscal year 2019 and continues to invest an average of $130 million 
each year across the FYDP to address the individual and unit training, 
navigation equipment, command and control, and manning issues 
identified in the reports. We are also committed to improving the 
quality and duration of our training--both at sea and in realistic, 
shore-based simulators. The fiscal year 2019 requests $81.9 million 
over the FYDP to upgrade and integrate navigation, seamanship, and 
shiphandling trainers in Fleet Concentration Areas. We are already 
seeing progress: as just one example, a U.S.-based guided missile 
destroyer today has at least 30 more crew members onboard during the 
training phase before they are scheduled to deploy than a similar ship 
had in 2012 while on deployment. Additionally, we restored funded 
billets for our United States- and overseas-based destroyer squadrons 
across the FYDP from 64 percent to 100 percent of the validated 
requirement, an increase of 306 total billets. This will add more 
experience in critical waterfront positions, improve the quality of our 
assessments, and ensure our units sail over the horizon ready to meet 
any challenge they may encounter. We are exploring ways to adjust 
assignment policies and expand incentives because our commitment to 
prioritize manning for our deploying units--particularly those ships, 
submarines, squadrons, and platoons based in Guam, Japan, and Spain--
remains steadfast.
    A fundamental tenet of our budget request is that naval power is 
about maintaining balance across all six dimensions of naval power. 
Naval power is not a choice between increased capacity or better 
capability--it is a combination of both. Naval power is not a choice 
between readiness and modernization--it requires a balance of both. 
Naval power is not a choice between more complex stand-alone 
technologies or networked systems--it is achieved through both. The 
talent to operate and sustain a larger and more lethal force is not a 
choice between more people or better training--it must draw on 
components from both. Optimizing this balance ensures the fleet can 
maneuver as desired, respond when directed, and win in a short or 
prolonged fight.
    Of course, no number of ships, no new technologies, and no crews of 
talented sailors are, by themselves, sufficient to respond to today's 
complex challenges without commanders of competence and character to 
lead them--they are the glue that binds our Navy team together. Just as 
we have done throughout our history, we will continue to develop and 
empower leaders who are obsessed with building teams that win.
    From the Black Sea to the Bab el Mandeb, from the North Atlantic to 
the South China Sea, and from the Indian Ocean to the waters off the 
Korean Peninsula, the stakes are high. As we have learned from history, 
war at sea--whether lasting a day or a decade--is unforgiving: the 
winners sail away and the losers sink to the bottom of the ocean.
    Let there be no doubt: America is a maritime nation and a maritime 
power, and our way of life and our economic prosperity have always been 
linked to the sea. For 242 years, in rough seas and calm, America's 
Navy has operated around the world protecting our Homeland from attack, 
ensuring common domains remain open, and advancing our interests to 
include defending our allies from military aggression.
    In the competitive environment we face now and in the future, we 
must increase naval power in a balanced approach to meet our national 
strategic objectives. I am grateful to this committee and to your 
colleagues in the Congress for starting this important work, and we 
look forward to sailing alongside you to build the Navy the Nation 
Needs--a lethal Navy for our enemies, a steadfast Navy for our allies 
and partners, and a safe Navy for our sailors.

    Senator Inhofe. Thank you, Admiral.
    General Neller.

STATEMENT OF GENERAL ROBERT B. NELLER, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Neller. Chairman Inhofe, Ranking Member Reed, I 
would just associate myself with the comments of the Secretary 
and the CNO.
    You expect a lot of your marines, and 34,000 of them are 
deployed right now outside the continental United States, doing 
what you expect them to do: prepare to fight and win. We 
appreciate the appropriation, and we're hopeful that we'll get 
the same in 2019 so that we have consistency and stability in 
our budgeting process.
    That's--I'll curtail the rest of my comments, because I 
think it's more important we get to the questions. I look 
forward to your questions.
    [The prepared statement of General Neller follows:]

             Prepared Statement by General Robert B. Neller
                 marines--vital to our nation's defense
    As set forth by the 82nd Congress and reaffirmed by the 114th, the 
purpose of our Corps is to provide maritime expeditionary combined arms 
air-ground task forces that are ``most ready, when the Nation is least 
ready.'' We are a naval force whose mission requires us to be ready--a 
fight-tonight, forward deployed, Next Generation force--able to respond 
immediately to emergent crises around the globe either from the sea, 
forward bases, or home station. While our organization, training, and 
equipment must continually adapt to meet changes in the operational 
environment, this fundamental purpose is unchanging. Our adaptation 
requires consistent, predictable funding--a reality we haven't 
witnessed in nine years. Your Corps continues to be responsible 
stewards of our Nation's resources, innovating to meet new challenges 
and leverage new opportunities to further increase the lethality of our 
marines. As our annual requirement to meet before this body and report 
our status, this statement aims to do three things: Broadly describe 
how your Marine Corps is adapting to increase its competitive advantage 
against pacing threats; explain our budget priorities for the 
President's Budget Fiscal Year 2019 (PB19) submission; and describe how 
continued support from Congress will result in a more lethal force, 
postured to prevent conflict, yet ready to prevail in the next fight.
                  our contribution to national defense
    Combatant Commander (CCDR) demand for Marines and tailored Marine 
Air-Ground Task Forces (MAGTFs) continues to drive an aggressive 
operational tempo. We consistently maintain about 35,000, or one-third, 
of our operating forces forward deployed across the globe. Of those 
forward deployed forces, more than 11,000 served aboard Navy warships 
last year. Furthermore, our current posture encompasses several global 
tasks: Marines supporting multiple CCDRs with offensive air support and 
strikes from our Amphibious Ready Groups / Marine Expeditionary Units 
(ARG/MEU) afloat; building partner capacity in both Iraqi and Afghan 
Armies confronting Islamic State and Taliban fighters; providing 
critical fixed-wing and artillery fire support to coalition-enabled 
Syrian Democratic Forces as they fought to clear the Islamic State from 
Raqqa, Syria; providing tailored military combat-skills training and 
advisor support to foreign forces as part of Marine Corps Forces 
Special Operation Command (MARSOC); deterring aggressive behavior in 
the East and South China Seas through the forward posturing of 5th 
Generation aircraft within the Pacific; providing immediate disaster 
response from our ARG/MEU and Special Purpose Marine Air-Ground Task 
Force (SPMAGTF) to Americans in the wake of four hurricanes; supporting 
continued efforts to ensure freedom of navigation through the Bab al-
Mandab strait; and enabling full spectrum cyberspace operations while 
supporting Joint and Coalition Forces as part of Marine Forces Cyber 
Command (MARFORCYBER).
    Marines continue to foster and strengthen relationships with our 
allies and partners, executing 62 joint, bilateral, and multinational 
exercises last year. Exercises like Balikatan in the Philippines, Eager 
Lion in Jordan, and Joint Viking in Norway, increase our effectiveness 
and help us to gain an understanding of how to best complement one 
another's strengths. The Marine Corps also maintains a vital 
relationship with the State Department, providing security at our 
Embassies and Consulates worldwide. Today, Marines routinely serve at 
178 Embassies and Consulates in 148 countries around the globe. Marine 
Security Guard Security Augmentation Unit teams deployed 36 times last 
year at the request of the State Department, executing 17 Embassy / 
Consulate and 18 VIP (POTUS/VPOTUS/SECSTATE) security missions. In 
short, as the Nation's ``911 force,'' we are forward postured across 
the Geographic Combatant Commands (GCCs), engaged daily in deterrence 
and security cooperation efforts, all while remaining capable of 
rapidly aggregating marines from adjacent GCCs and the Homeland to 
effectively respond to national crises.
             adapting to increase our competitive advantage
    The strategic environment continues to be complex, uncertain, 
technologically charged, and dangerous. The proliferation of modern 
conventional and cyber weapons to a broader range of state and non-
state entities, along with the erosion of our competitive advantage in 
areas where we have long enjoyed relative superiority, is likely to 
continue as rival states and organizations attempt to contest our 
influence. Competition for natural resources, violent extremism, 
natural disasters, social unrest, cyber-attacks, regional conflict, and 
the proliferation of advanced weaponry and weapons of mass destruction 
create a wide range of challenges for a globally responsive force. 
Further, complex terrain, technology proliferation, information as a 
weapon, the battle of signatures, and contested domains are driving 
change across the strategic environment. Through the lens of these 
drivers, your marines look for ways to adapt and modernize to increase 
our competitive advantage against pacing threats.
    The ascendant threats posed by revisionist powers and rogue states 
require change--we must become more lethal, resilient and as a 
consequence, a more capable deterrent. The Navy-Marine Corps team can 
no longer rely on concepts and capabilities premised on uncontested sea 
control. We have begun to re-evaluate our capabilities to operate in 
all domains and conduct sea control, power projection, maritime 
security, and deterrence knowing that we must consider the tactical and 
operational details of a contingency--and how our contributions could 
shape the strategic environment to prevent conflict. Modern sensors and 
precision weapons with expanding ranges and lethality are redefining 
how we assess our posture and relative combat power. Advanced defensive 
networks are forcing us to re-consider the methods of power projection 
required to compete against rising peers.
    We have focused on preventing and deterring conflict by providing 
combined-arms task forces to theaters either already in crisis or at 
the risk of crisis to meet the Congress' mandate to be `` . . . ready 
to suppress or contain international disturbances short of large-scale 
war.'' We remain poised to quickly respond within the Contact Layer 
should deterrence fail to keep local disturbances from cascading into 
larger contingencies requiring the attention and resources of the 
larger Joint Force. As stated within the recently released National 
Defense Strategy (NDS), we must re-posture in a manner consistent with 
being the Nation's sentinels--preventing large-scale war and managing 
crises as an extension of the naval force. Steady-state requirements 
have degraded our readiness to support naval campaigns and degraded our 
combined-arms training necessary to create credible combat deterrent 
forces. Two challenges must be addressed to remedy these problems--(1) 
the resilience of our posture and (2) the pace of our naval force's 
availability and modernization. We require Congress' assistance with 
aspects of each.
    First, our global posture must adapt. To best adapt we must 
increase our strategic flexibility and freedom of action. The NDS 
introduces a Global Operating Model consisting of four layers--Contact, 
Blunt, Surge, and Homeland Defense--and apportions a combination of 
U.S.-based forces and theater-based ready forces to provide a method to 
mitigate the challenges outlined above. Your Marine Corps operates 
regularly within three of the four layers--Contact, Blunt, and Surge. 
ARG/MEUs, allocated forces, MARSOC, and MARFORCYBER are part of the 
Nation's Contact Layer--that competitive space where the military 
element of national power preserves the alignment of shared interests 
with our partners and allies. When competition escalates to conflict, 
these forces must be able to rapidly transition to combat operations. 
They are more often than not operating within the maritime domain, an 
area proving to be increasingly contested, compounding the challenges 
presented by the strategic environment. We must do so while 
simultaneously preparing to conduct challenging naval campaigns against 
adaptive competitors such as China and Russia. Despite being 
responsible and prudent with our Nation's resources, the cost of war 
and war readiness today is higher than ever. We have been innovative in 
meeting past challenges and leveraging emergent opportunities, yet we 
face ever growing threats from rising peers and irregular foes that 
require us to take a hard look at our global disposition.
    The development and acquisition of long-range precision weapons by 
our Nation's chief competitors and threats--China, Russia, North Korea, 
Iran, and Violent Extremist Organizations (VEO)--have placed many of 
our forward deployed forces within the effective range of their weapons 
systems, or ``threat rings.'' Forward deployed and stationed marines 
are now vulnerable to attacks in ways we have not considered for 
decades. To operate within the Contact and Blunt Layers, Marine forces 
must be combat-credible and oriented on warfighting to provide credible 
deterrence. Marines who are stationed at and rotate through III Marine 
Expeditionary Force (MEF) in the Pacific are forward postured, 
providing expeditionary forward presence. The Blunt Layer requires a 
resilient, dispersed basing posture with sufficient forward stockpiles 
of logistics items and a reliable command and control (C2) network to 
delay, degrade, and deny aggression. Conversely, most of our forward 
bases and stations lack sufficient resilience against long-range 
kinetic and non-kinetic attacks; thus, jeopardizing our ability to 
prepare, project, and sustain combat power. Efficiencies in the 
construction and configuration of these bases made possible by relative 
security now pose as risks; however, there are remedies to these 
problems. We need additional hardening of our facilities to include 
aircraft hangars and command posts, the capability to rapidly repair 
damage to our air stations, and counter-precision guided munitions and 
advanced air-defense capabilities.
    From our current posture, rapidly aggregating Surge Forces will 
prove challenging. Responding to global contingencies against peer 
rivals in an expeditious manner may be contested every step of the 
way--we are going to have to fight to get to the fight. Surge Forces 
are those war-winning forces that deliver capable mass to the fight, 
primarily from the Continental United States, but also from across 
GCCs. They are highly ready and able to fight in all domains, degrading 
and penetrating anti-access area denial (A2AD) networks, as well as 
assuring access and projecting power with C2, fires, maneuver, and 
logistics. The rapid aggregation of Surge Forces is a problem that is 
not unique to the Marine Corps. Sea control has become more important 
now than in past decades, and the Marine Corps must further develop and 
integrate force capabilities in support of the Navy. This will require 
measured shifts from a focus on a near symmetric land-based enemy to an 
asymmetric view in which Marine forces ashore threaten enemy naval and 
air forces from expeditionary advance bases. There are elements of 
naval security cooperation concerning maritime security, all domain 
access, and power projection that could be assumed by the Marine Corps 
to alleviate pressure on our over-stressed fleets, particularly in the 
Pacific.
    Secondly, the operationally available inventory of amphibious 
warships and connectors is well below the requirement to satisfy a 
competitive global strategy. This is forcing CCDRs to rely on shore-
based MAGTFs that lack the advantages resident in shipborne formations. 
38 L-class Amphibious warships are required to meet a 2.0 MEB Joint 
Forcible Entry requirement, and upwards of 50 would be needed to meet 
CCDR demand. Maritime Prepositioning Force (MPF) and Expeditionary-
class ships offer cost effective alternative platform options to help 
mitigate a lack of warship capacity and for low-end, low-risk missions 
in an uncontested maritime domain; however, they do not supplant our L-
class warship requirement.
    Ships acting within a networked fleet must contribute to the 
lethality of the fleet with the ability to protect themselves from air, 
surface, and sub-surface attack, while also possessing organic ship-to-
ship and ship-to-shore strike weapons. Current amphibious ships lack 
these capabilities and therefore must rely on support from other 
combatants to perform sea control and power projection missions. This 
could be remedied by upgrading command and control suites, introducing 
vertical launch systems and organic air defense, decreasing ship 
signatures to become less targetable, and installing the ability to 
launch and capture the MAGTF's growing arrangements of unmanned aerial 
systems (UAS). Incorporating these capabilities, with the help of 
Congress, would increase the lethality of our ARG/MEUs and the entire 
Joint Force while supporting operations throughout the Range of 
Military Operations (ROMO).
                 increasing the lethality of our corps
    Your marines continue to innovate and build a Next Generation 
Marine Corps--a lethal, adaptive, and resilient Corps that implements 
combined arms as a means to conduct maneuver warfare across all 
domains, no matter the challenge--directly supporting the NDS, ready to 
fight and win across the ROMO. This transformation began in 2016 with 
the implementation of the Marine Corps Operating Concept (MOC). The MOC 
represents our institutional vision for how the Marine Corps will 
operate, fight, and win despite the challenges described above. As 
mentioned at the outset of this statement, while the Corps' fundamental 
purpose does not change, our concepts--and the organization, training, 
and equipment changes they drive--must adapt to effectively accomplish 
it. The MOC provides the foundation and context for subordinate 
operating and functional concepts--like Littoral Operations in a 
Contested Environment and Expeditionary Advanced Base Operations 
(EABO)--and it guides our analysis, wargaming, and experimentation. 
Further, the MOC drives the evolution of our Service doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities (DOTMLPF) through a detailed and thorough Capabilities 
Based Requirements System.
    Whereas the MOC provides the concept for how marines will fight and 
win, it is through extensive experimentation and wargaming that we 
validate our capability development choices and inform our investment 
strategies. Our experimentation and wargaming focuses on designing a 
balanced MAGTF, optimized for the future that incorporates marines 
capable of leveraging cyber, information, and artificial intelligence 
capabilities. As a driver of innovation to identify these future 
capabilities, our Marine Corps Warfighting Lab (MCWL) completed the 
first phase of our long-range experimentation plan called Sea Dragon 
2025, which focused on augmenting an infantry battalion with 
experimental equipment, developing an analytically-based wargaming 
process, and leveraging commercial technological advances through our 
Advanced Naval Technical Experiment series. Phase two of Sea Dragon 
2025 is underway, initiating our Experiment Campaign Plan. This plan 
spans three years, focusing on MAGTF hybrid logistics, operations in 
the information environment, and EABO. Through these efforts, the 
Marine Corps will continue to adapt and refine our capability 
development, force structure, and investment strategy that modernizes 
the force.
                            our 2019 budget
    Our overall theme for President's Budget 2019, Modernizing for the 
Future Force, focuses on three key budget priorities--modernization, 
readiness, and manpower--directly aligning with the Secretary of 
Defense's guidance to improve warfighting readiness, achieve program 
balance, and increase lethality. Driven by Marine Corps Force 2025 (MCF 
2025), the capability investment strategy which modernizes the force 
toward implementing the MOC, we plan to rebuild a more lethal, 
maneuverable, and resilient force able to operate in the emerging 
strategic environment. To accomplish this goal, we require a budget 
that is delivered on-time, with consistency--adequate, sustained, and 
predictable funding is needed to properly plan for and resource a 
ready, capable force. That said, your Marine Corps remains committed to 
building the most ready force our Nation can afford, allocating $40.4 
billion to our ground and aviation baseline budget, and an additional 
$3.1 billion in Overseas Contingency Operations funding as part of the 
President's Budget 2019 submission--a 7 percent increase over last 
year's submission. We plan to use the resources to increase our 
lethality to maintain our military advantage in a fiscally prudent and 
executable manner, addressing critical modernization requirements and 
investing in key warfighting capabilities without sacrificing near term 
readiness. Additionally, we plan to resource our infrastructure reset, 
Indo-Pacific strategy, new structure, materiel, munitions, maintenance 
and training requirements that together generate the right capability 
and capacity required. Allocating money across our budget priorities 
supports Department of Defense (DOD) guidance to restore military 
readiness and provide solutions that proactively shape the strategic 
environment.
    The Marine Corps is committed to audit readiness and business 
reform, viewing both as critical enablers to Warfighter readiness. The 
Marine Corps recently completed the Full Financial Statement Audit for 
fiscal year (FY) 2017, the first within the DOD. Although a disclaimer 
was issued for this first-year effort, the Marine Corps continues to 
push forward as the lead military service for a full audit of its 
financial statements. The Marine Corps has a commitment to achieve and 
sustain favorable audit opinions regarding the presentation of its 
annual financial statements. The transparency afforded with auditable 
financial statements demonstrates our commitment to the prudent 
management of taxpayer provided resources. Efficiencies gained through 
audit efforts enhance the overall support to the Warfighter and ensure 
the effective use of funds received. Progress will be measured not by 
the auditor's opinion in 2017, but by the velocity of corrective action 
as we continue to improve financial processes, systems, internal 
controls and accountability of equipment to achieve a clean financial 
opinion in the years to come. As the rest of the military services 
commence their full financial statement audits in fiscal year 2018, the 
Marine Corps continues to share our lessons learned across the 
Department.
    As part of ongoing business reform initiatives, the Marine Corps 
has identified more than $3.6 billion in savings and cost avoidance, 
$567 million in fiscal year 2019 alone, to provide for reinvestment in 
warfighting readiness. We continue to make strategic choices in the 
divestiture of certain programs to reallocate funds toward building a 
more lethal, modern, multi-domain, expeditionary force. This has 
included reducing depot level maintenance for the legacy Light Armored 
Vehicle (LAV) and Assault Amphibious Vehicle (AAV) as we look to 
accelerate the replacement of each vehicle. Similarly, the Marine 
Corps' Infrastructure Reset Strategy seeks to improve infrastructure 
lifecycle management and ensure infrastructure investments are aligned 
with Marine Corps installations that are capable, adaptive, and 
economically sustainable platforms from which to generate readiness and 
project combat power in a fiscally constrained environment. 
Implementation of this strategy consolidates and appropriately resets 
the infrastructure footprint within existing installations to improve 
operational readiness and generate resources for reinvestment.
    Marine Corps business reform initiatives have also included the 
more effective use of operating resources and force restructuring 
throughout our military and civilian manpower. An in-depth 
organizational structure and design review of Marine Corps Systems 
Command, for instance, led to a reorganization to enhance MAGTF 
alignment across product lines, maximizing economy of force by reducing 
overall program office structure, achieving better rank and 
responsibility alignment, and optimizing alignment with key 
stakeholders. In another example, a review of our ground conventional 
ammunition portfolio led to training requirements refinement; the use 
of new, less-expensive training munitions; and the elimination of 
duplicative munition requirements. We are focused on continuing 
business reforms in fiscal year 2019 that foster effective resource 
management and streamline the requirements and acquisition process.
         modernization--the foundation of our future readiness
    Our Marine Corps must be modernized to meet the demands of the 
strategic environment. Given this urgency, we appreciate the 
Congressional action to improve acquisition through the National 
Defense Authorization Acts of fiscal year 2016 and fiscal year 2017, 
and we continue to leverage the opportunities provided by this 
legislation. While we are leveraging technology to advance promising 
capabilities in a range of information related areas, funding stability 
and flexibility must be increased to enable us to keep up with the 
rapid pace at which technology evolves. What we desire to achieve is a 
Corps capable of exploiting, penetrating, and destroying advanced 
adversary defenses in all domains in support of naval or Joint Force 
operations. That modernized force would deter adversaries, prevent 
conflict, and provide capabilities required to `` . . . suppress or 
contain international disturbances short of large-scale war;'' thus, 
preventing the consumption of readiness from the larger Joint Force. To 
do that, we must be afforded the flexibility to experiment with new 
technologies available on the market, determining what will work best 
in the future operating environment, and then delivering those 
capabilities to the force quickly to mitigate the rapid rate of 
technological change. Our newly chartered Marine Corps Rapid 
Capabilities Office (MCRCO) accomplishes that end, seeking emergent and 
disruptive technologies to increase our lethality and resiliency. The 
MCRCO leverages fiscal year 2016 and fiscal year 2017 NDAA provisions 
and partnerships to accelerate the acquisition process--with the 
consistent and steadfast support of Congress--we will continue to fund 
this office. Accelerated modernization is the most effective remedy to 
our long-term readiness problems and we must abstain from burying our 
modernization efforts under cumbersome acquisition processes--we have 
to get this right.
    President's Budget 2019 provides $13.8 billion towards our 
investment accounts, nearly 32 percent of our total request to 
modernize the force. This represents a 19 percent increase in 
investment funding over our fiscal year 2018 budget submission. The 
President's Budget 2019 investment approach is synched with the 
implementation of MCF 2025, specifically investing in areas such as: 
Information Warfare (IW), long range precision fires, air defense, C2 
in a degraded environment, and protected mobility / enhanced maneuver. 
These capability areas support building a Next Generation Marine Corps 
across the Active and Reserve components of the force. This approach 
includes changes to the structure of our Tables of Equipment into 
equipment sets that balance affordability with the need for a 
networked, mobile, and expeditionary force. Over the past decade and a 
half, fiscal instability, funding decreases, and operational demand 
increases have forced us to take risk in modernization to preserve 
readiness, deferring critical future aviation and ground programs. 
President's Budget 2019 continues the efforts started by the fiscal 
year 2017 Request for Additional Appropriations and President's Budget 
2018 to reverse this trend by investing in, and in some cases 
accelerating, our modernization programs that directly correlate to 
improved readiness by reducing unit costs, increasing efficiencies, and 
providing needed operational capabilities sooner.
    President's Budget 2019 invests in our C2 capabilities needed to 
build a Next Generation Marine Corps that will dominate the information 
domain. This requires transforming MAGTF C2 through a unified network 
environment that is ready, responsive, and resilient, with initiatives 
that integrate Navy and Marine Corps systems. Enhanced C2 and digitally 
interoperable protected networks are modern capabilities that will 
facilitate improved battlefield awareness to and from small, dispersed 
tactical units--achieving this end is my top acquisition priority. Such 
programs as Tactical Communication Modernization (TCM), Common Aviation 
Command and Control Systems (CAC2S), and Networking On-the-Move (NOTM) 
provide significantly increased capabilities associated with maneuver 
and fires across the battlespace. As warfare evolves into a battle of 
signatures and detection, these information capabilities are vital to 
maximize the lethality, maneuverability, resilience, and effectiveness 
of our multi-domain, naval expeditionary forces.
    We continue to prioritize the integration of information 
capabilities throughout the MAGTF. Within the Command Element, 
investments in the Marine Intelligence Program allowed the formation of 
the MEF Information Group (MIG) to establish IW coordination centers 
for MAGTF Commanders, filling the IW gap at the operational level. 
Additionally, we have increased funding to MARFORCYBER to man, train, 
and equip cyber forces and conduct full-spectrum cyberspace operations. 
The coordination, integration, and employment of information and cyber 
capabilities will enable the MAGTF Commander to facilitate friendly 
forces maneuver and deny the enemy freedom of action in the information 
environment.
    The Ground Combat Element (GCE) is likewise being adapted to 
operate and fight more effectively in the strategic environment through 
the incorporation of information-related capabilities and the overall 
modernization of its ground formations. President's Budget 2019 
continues to invest in key ground systems like the ACV 1.1, Ground / 
Air Task Oriented Radar (G/ATOR), High Mobility Artillery Rocket System 
(HIMARS), and Increment 1 of the Joint Light Tactical Vehicle (JLTV). 
Furthermore, investments are being made to ensure more technological 
advances are being incorporated into our infantry units. We continue to 
increase the maneuverability, lethality, and resiliency of our infantry 
by decreasing loads, enhancing Company Level Operations and 
Intelligence Centers, increasing small UAS capacity and unmanned 
teaming with robots, adding engineering capacity to provide direct 
support to every infantry battalion, and increasing long range fires 
capacity. It is in areas like these that we need to garner flexibility 
within our acquisition process to assist in the streamlining of our 
modernization efforts. We must be able to outfit the individual Marine 
with the most modern technology and gear as soon as it becomes 
available. The investments being made across the GCE will result in a 
more lethal fighting force able to better support the Joint Force 
across the ROMO.
    President's Budget 2019 invests in our aviation systems to 
modernize the Aviation Combat Element (ACE) by funding increases in the 
procurement of 5th Generation aircraft. The Marine Corps is challenged 
to replace aging aviation platforms that have reached the end of their 
service lives or suffered accelerated wear in ongoing combat 
operations. Our aviation modernization plan is a phased multi-year 
approach to modernization that encompasses aircraft transitions, 
aircraft inventory shortfalls, manpower challenges, safety and fiscal 
requirements. Our modern expeditionary force requires fixed-wing 
aircraft capable of flexible basing ashore or at sea in support of our 
Marine units. A top priority is the F-35B/C and its future sustainment. 
This aircraft is not just a replacement for three aging platforms; it 
provides transformational electronic and information warfighting 
capabilities for the future naval and Joint Force. Maximizing the 
potential of this aircraft requires further analysis of our joint 
training ranges to ensure our aircrews are able to train to its full 
capability. Other priorities for aviation include investing in lethal, 
persistent, multi-role intelligence, surveillance, and reconnaissance 
(ISR) Vertical Take-Off and Landing (VTOL) UAS like our MAGTF Unmanned 
Expeditionary (MUX) program; supporting capabilities such as electronic 
attack; implementing robust strike weapons programs; creating manned-
unmanned teaming capabilities; and pursuing other sustainable modern 
aviation platforms ultimately increasing our competitive advantage 
against current rivals. Additionally, the CH-53K (Heavy Lift 
Replacement) remains a critical replacement to the CH-53E, as it has 
triple the lift capacity and is the only maritime, heavy-lift 
helicopter capable of supporting current and future warfighting 
concepts. Much like the MV-22 Osprey, this helicopter will change the 
scope of our amphibious operations through its increased lift and load 
capacity.
    The Next Generation Logistics Combat Element will optimize tactical 
distribution with unmanned platforms, flatten the supply chain through 
additive manufacturing (AM), and enhance preventive and predictive 
supply / maintenance with sense and respond logistics. Further, state-
of-the-art logistics C2 / Information Technology, enabled by artificial 
intelligence, will extend the operational reach of the MAGTF. Our MCWL 
and Next Generation Logistics (NexLog) organizations continue to stay 
at the cutting edge of military innovation. Marines are at the 
forefront of this effort, optimizing the potential of AM in garrison 
and overseas in austere environments. Our marines are the world's 
military leaders in the realm of 3D printed tactical level unmanned 
aerial vehicles and using AM to produce time and mission critical 
components. We have more than 70 3D printers throughout the Marine 
Corps, and are fostering innovation through the establishment of 
``makerspaces'' (areas where 3D printers are made available for use by 
Marines) in the operating forces and supporting establishment. Once 
fully integrated, this capability will enable our marines to create 
custom solutions to tactical problems, enhancing flexibility and speed, 
while fundamentally altering the supply chain and wartime logistics. We 
are experimenting with various unmanned aerial and surface platforms to 
increase our ISR and logistical capacity and capability on the modern 
battlefield. Lastly, we are conducting a series of innovation 
symposiums and challenges to harness the creative energy of all marines 
in the development of Next Generation warfare capabilities for this 
century's five domain warfighting environment. This is the future and 
your marines are working to change the way we conduct logistics in 
combat.
                    readiness--the core of our ethos
    The Marine Corps is unique among the Armed Services because your 
expectations require marines to be a fight-tonight, forward deployed 
force, ready and capable of acting with minimal preparatory time--we 
should therefore be resourced accordingly. Our ability to rapidly 
deploy Marines to support missions across the spectrum of conflict is 
incompatible with tiered readiness. Marines do not get ready when a 
crisis occurs; we must be forward deployed and ready to respond 
immediately from within our rival's threat rings. President's Budget 
2019 provides $13.1 billion towards our operation and maintenance 
accounts, over 30 percent of our total request, enabling us to meet all 
of our steady state and contingency requirements within established 
timelines, while balancing efforts across the force to meet operational 
demands.
    The Marine Corps is committed to building the most ready force ``to 
suppress and contain international disturbances short of large-scale 
war,'' and one capable of gaining and maintaining sea control as 
required by the larger naval force. Readiness, however, is the product 
of two metrics. The first is the ability of the force to execute its 
mission with ready people, ready equipment, and the right training. The 
second metric compares the force against potential adversaries in 
various circumstances. Within the context of global competition against 
rising peers, the scope of the second metric grows dramatically. For 
instance, if our units are ready (near-term readiness levels), then by 
the first metric we are ready. If, however, the force is outranged or 
outpaced by potential adversary capabilities (long-term capability 
modernization), then by the second metric we are not ready. We either 
assume risk to mission or modernize our capabilities to mitigate 
against the second metric.
    The Marine Corps is ready to execute missions assigned with 
deployed and next-to-deploy forces, but maintaining this readiness has 
come at the expense of the readiness of non-deployed forces, 
modernization, and infrastructure sustainment. This shortfall in 
readiness of our non-deployed forces limits our ability to respond to 
unexpected crises or major contingencies. In the event of a major 
contingency, degraded units could either be called upon to deploy 
immediately at increased risk to the force and the mission or require 
additional time to prepare, thus incurring increased risk to mission by 
surrendering the initiative to our adversaries. The fiscal year 2017 
RAA provided the investment needed to arrest this decline, and the 
President's Budget 2018 and President's Budget 2019 budget submissions 
provide the resources needed to accelerate our readiness recovery.
    Another aspect of our readiness for major combat operations 
involves the capacity of our War Reserve Materiel to enable and sustain 
large-scale force mobilizations for major contingencies against rising 
peers. Historically, readiness of deployed and next-to-deploy forces 
also takes precedence over War Reserve Materiel, increasing risk and 
cost in the event of a major contingency. President's Budget 2019 
invests in our War Reserves in such areas as munitions and emerging 
starter stocks, maintenance modernization, and our MPF fleet; all vital 
parts of our Surge Forces. It also invests in our prepositioning 
programs in Norway, which includes the maintenance of our prepositioned 
equipment. The security threats to our Nation, as articulated by the 
Secretary of Defense and Chairman of the Joint Chiefs of Staff, demand 
that America has a globally responsive, truly expeditionary, 
consistently ready, forward-postured naval force. This is beyond 
dispute. To deliver on that requirement, there are four primary 
challenge areas within readiness that the fiscal year 2019 budget 
addresses: aviation; amphibious, maritime, and expeditionary ships; 
deployment-to-dwell; and infrastructure.
                                aviation
    Our most acute readiness issues are in aviation units. A 
combination of aging aircraft, a lack of ready basic aircraft, an 
unresponsive supply of parts and spares, and maintenance backlogs at 
the depots contribute to high over-utilization rates of available 
aircraft needed for training and certifications. This in turn hastens 
the induction of these aircraft into maintenance cycles. Lack of 
predictable and stable funding affects industry. Often when funding 
becomes available late in the year through Continuing Resolutions, the 
industrial base is not energized to meet demand. This negatively 
influences training and certification opportunities for our maintainers 
and aircrew.
    Our priority remains building aviation readiness for combat by 
balancing modernization with readiness recovery. President's Budget 
2019 works to assist with this by providing support to our 
comprehensive aviation recovery plan that, if sufficiently resourced 
and supported by our industrial base, recovers the force to an 
acceptable readiness level by fiscal year 2020 with a ready bench by 
fiscal year 2022. Further, President's Budget 2019 plans to fund 
aviation readiness accounts at maximum levels and spares at 93 percent 
of the requirement across both legacy and Next Generation platforms. We 
are also continuing to fund and support readiness initiatives to the F/
A-18, CH-53E, and MV-22B. Budget challenges, production delays, and 
increasing sustainment costs for aging aircraft place the recovery plan 
in a fragile state--this readiness goal has already been delayed once. 
While aviation readiness recovery remains a priority--the introduction 
of the F-35B/C and accelerated modernization of our Next Generation ACE 
is just as important. Furthermore, the continued funding of legacy 
aircraft is a necessary bridge to the future as we continue to increase 
the size of our Next Generation fleet of aircraft.
             amphibious, maritime, and expeditionary ships
    The Joint Force must maintain access to and the ability to maneuver 
through the global commons, project power, and defeat a competitor 
attempting to deny freedom of action via the employment of A2AD 
capabilities. To meet these challenges, the naval force must be 
distributable, resilient, and tailorable, as well as employed in 
sufficient scale and for ample duration. Due to existing shortfalls 
within our amphibious, maritime, and expeditionary ship capacity, the 
naval force currently struggles to satisfy these basic requirements--an 
issue that will only grow worse over time if we cannot remedy our 
current budgetary issues. President's Budget 2019 puts us on a path to 
address these issues, but we need Congress to act on this in a timely 
manner, consistent with a return to the regular order of business.
    The naval services must have optimally trained and equipped 
amphibious forces tailored to each theater and threat and ready to 
deploy with a suitable quantity of forces, on the designated timeline, 
and with the reservoir of non-deployed yet ready forces that can surge 
to meet the demands of large-scale operations or unplanned 
contingencies. The operational availability of the existing amphibious 
fleet is insufficient to meet global demands, negatively impacts the 
unit training necessary to recover full spectrum readiness, and does 
not support CCDR requirements for power projection. Consequently, the 
strategic risk to the larger Joint Force and mission is increased. The 
Navy possessed 62 amphibious ships in 1990, yet possesses only 32 
today. Of the 32 amphibious ships, 18 are available to support current 
or contingency operations. The stated requirement of 38 amphibious 
warships is the minimum number to fulfill our title 10 obligation. 
Resourcing to a lower number puts CCDRs requirements and contingency 
response timelines at risk. The Navy and Marine Corps are currently 
operating below the minimum acceptable level and will continue to do so 
until fiscal year 2033 when we reach the minimum amphibious ship 
requirement of 38 per the fiscal year 2017 30-year shipbuilding plan. 
That said, we recommend exploring the acceleration of LHA-9--a project 
that can begin within the out years of the FYDP, bringing continuity to 
our industrial base and directly increasing the lethality of our Navy 
and Marine Corps team.
    While some ships in the amphibious inventory have undergone 
upgrades to support the F-35B and are fundamentally more capable 
platforms than those they replaced, the naval force lacks the capacity 
necessary to conduct requisite training to build total force amphibious 
readiness and simultaneously prevent conflict. The Marine Corps, in 
coordination with the Navy, is exploring innovative ways to employ 
alternative platforms for amphibious operations in more permissive 
environments in order to provide more global coverage in the most 
resource-appropriate manner. These alternatives are by no means 
replacements for amphibious warships, but instead provide cheaper, 
additive alternatives in certain environments. Tailored MAGTFs afloat 
on these vessels would replace those on shore due to limited shipping. 
Regardless of the ship, whether an LHD equipped with F-35Bs and MV-22s 
or an Expeditionary Sea Base with embarked crisis response forces, 
Marines require additional maritime expeditionary shipping to satisfy 
current requirements and the NDS. Congress could help remedy this by 
supporting the President's Budget 2019 request.
    Ship-to-shore connectors move personnel, equipment and supplies, 
maneuvering from a sea base to the shoreline. These are critical 
enablers for any naval force. Modern aerial connectors, such as the MV-
22 Osprey and CH-53K, extend operational reach and lift capacity, 
revolutionizing our ability to operate from the sea, austere locations, 
and previously damaged airfields within a contested environment. Aerial 
connectors alone do not suffice; the Navy is in the process of 
modernizing the surface connector fleet by replacing the aging Landing 
Craft Air Cushion (LCAC) and the 50-year-old fleet of Landing Craft 
Utility (LCU). This system of surface and aerial connectors would 
enable the Joint Force to establish a web of sensor, strike, decoy, and 
sustainment locations based on land and sea that would complicate the 
strategic and operational decision making of our most advanced rivals, 
thus attacking their A2AD strategies. Continued funding of the 
modernization, maintenance, and service life extension programs of our 
existing fleet of connectors is critical to enabling our success in 
future security environments.
    Mine Countermeasure (MCM) capabilities are consistently 
underfunded, affecting the Joint Force's ability to operate in the 
littorals. The assault element of an amphibious task force, as well as 
any amphibious force maneuvering to establish expeditionary advanced 
bases, requires assured maneuver through very shallow water, surf 
zones, and beach zones to inland objectives. The Naval force has a 
deficiency in MCM capability and capacity in these areas, which has a 
direct effect on options available to fleet commanders within contested 
seas. Naval MCM is in a transitional period where legacy systems are 
reaching the end of service life. Although President's Budget 2019 
extends the service life of four MCM systems, we must accelerate future 
capability to ensure continuous MCM coverage during the shift from 
legacy to future MCM systems. Future MCM systems could provide 
solutions to identified gaps in detection and neutralization in very 
shallow water, the surf and beach zones. Sufficient, sustained, and 
focused resourcing for this transition is needed to provide required 
capabilities and capacities--a critical capability to support 
amphibious operations. If the naval force possessed the capability to 
easily overcome layered mine defense in contested near-seas, such as 
the South and East China Seas, through a more robust MCM capability, 
then we would in effect be attacking the adversary's A2AD strategy. 
This would demonstrate our ability to penetrate their defenses at a 
time and place of our choosing, and force them to revalidate 
assumptions, change decisions, and invest in other more costly 
capabilities. Assured naval surface access and assured sea control 
cannot be achieved without an acceleration of our MCM capabilities.
                          deployment to dwell
    The rate by which Marines deploy largely depends upon what unit 
they are assigned to and the operational demand for those units. 
Currently, that rate is favorable for Marines assigned to many of our 
headquarters elements; however, a majority of the Active Force is 
experiencing a deployment to dwell (D2D) ratio that is unsustainable. 
We confront this challenge daily. While these demands are clear and 
unmistakable evidence of the continued relevance of Marines, this tempo 
is not sustainable as it limits time to train to our full naval mission 
sets. We must return to a 1:3 D2D force to have the time required to 
train for the high-end fight and achieve balance with our Marines and 
their families at home. Continued high operational tempo is affecting 
our ability to retain Marines and we need to ensure we are doing what 
we can to sustain our career force.
    There are three types of Marines in our Corps: those who are 
deployed, those getting ready to deploy, and those who just returned. 
President's Budget 2019 supports an 186,100 Active and 38,500 Reserve 
component end-strength force while maintaining an approximate 1:2 D2D 
ratio in the aggregate. Funding at a 1:2 D2D ratio, although not 
sustainable, is a conscious, short-term decision we must make to 
balance modernization while meeting current demand and simultaneously 
recovering our readiness. We owe our Marines and their families the 
necessary time to reset and train for the next deployment or 
contingency. Historically, Marines have benefited from being a 1:3 D2D 
force. The Marines that were not deployed, had adequate time to prepare 
across the full spectrum of conflict and could be counted on to be 
ready when called upon to reinforce their teammates if a major 
contingency happened. This would require a substantive increase in 
supply or decrease in demand--we are not asking for the former in this 
year's budget. Consequently, a temporary reduction of our operational 
tasking is required to improve our D2D ratio. Although accepted in the 
short-term for the reasons outlined above, we must not accept a 1:2 D2D 
as the new normal. We routinely talk about our readiness--fixing these 
dwell challenges will help to better our readiness.
                             infrastructure
    We must prioritize Infrastructure Reset--we must improve 
infrastructure lifecycle management and ensure infrastructure 
investments are aligned with Marine Corps capability-based requirements 
to support the warfighting mission and contribute directly to current 
and future Force readiness. President's Budget 2019 funds the 
Infrastructure Reset Strategy with realized long-term cost savings 
through a reduction of 1056 failing structures (14 million square feet) 
during the Future Years Defense Program (FYDP) and yield savings in 
Facilities Sustainment, Restoration and Modernization (FSRM) accounts. 
Our installations provide three critical force enabling functions. 
First, they are deployment platforms from which our expeditionary 
forces fight and win our Nation's battles; second, they are where our 
MAGTFs train and hone their combat readiness; and third, they house our 
Marines and families.
    The Marine Corps has historically taken risk in facilities funding 
to protect near-term readiness and service-level training. While 
proposed investments in FSRM will allow our facilities to maintain an 
average condition, if long term underfunding of FSRM requirements 
continue, the progressive degradation of our infrastructure will 
result, potentially creating a bow wave of long-term costs and in a 
manner inconsistent with the National Security Strategy (NSS), NDS, or 
National Military Strategy (NMS). President's Budget 2019 begins the 
work to ensure our infrastructure is resilient against not only long-
range precision strike, but also cyber-attacks. The greatest need of 
enhanced resilience exists on our strategically significant overseas 
bases in the Pacific on Okinawa and Guam. These locations are vital to 
reassuring partners and allies in the region.
        manpower--growing and sustaining our high quality people
    Our people--Marines, civilians, and their families--are the 
foundation of all that we do; they are our center of gravity. 
President's Budget 2019 provides $15.7 billion towards our manpower 
accounts, over 36 percent of our total request as it begins to 
implement MCF 2025. It also supports building a more experienced, 
better trained, and more capable force by increasing the number of 
Marines we have with special skills like MARSOC; those required for 
intelligence operations; and electronic, information, and cyber 
warfare. Our manning requires leaders with the grade, experience, and 
technical and tactical qualifications associated with their billets, 
which is essential to the Marine Corps as a ``fight tonight'' force. 
The resources we dedicate to recruiting, retaining, and developing our 
people directly contribute to the success of our institution. Our 
commitment to our Marines, their families--and the civilians who 
support them at bases, stations, and depots across the globe--must 
never waiver.
    Marine recruiters consistently meet our recruiting goals by finding 
motivated and qualified men and women within our Nation who are willing 
to raise their hands and volunteer to wear the Eagle, Globe, and 
Anchor. These men and women are smarter and more capable than past 
generations and we continue to effectively lead them, both at home and 
in combat. Devoted to upholding our values of honor, courage, and 
commitment, we are dedicated to holding ourselves to the highest 
standard of personal conduct. To this end, we have taken an 
introspective look at our culture in light of social media 
controversies and have created a task force and permanent office to 
examine and correct conditions that enable disrespect or misconduct to 
exist. We are committed to ensuring Marines treat each other with 
dignity and respect. As issues arise, our commanders take necessary 
action to ensure we maintain an organization that values the 
contributions of all Marines based on their individual merit and 
commitment to warfighting excellence.
    Increasing the effectiveness of our Marines requires constant 
reflection on how we conduct training; training to prepare for combat 
and training that sustains the transformation of Marines into resilient 
leaders who are mentally, morally, and physically fit. That 
transformation begins with entry-level training, whether it be recruit 
training or Officer Candidate School, and continues throughout a 
Marine's service--whether it be a single enlistment or 40 years. We 
believe in returning quality citizens to society when they leave the 
Marine Corps--entry-level training is where that begins.
    Over the last year, we have examined how we conduct recruit 
training and made adjustments, while strictly maintaining the standards 
necessary to ensure all Marines are proficient in the skills required 
of our Nation's premier warfighting force. We have integrated a 
majority of the recruit training phases at Marine Corps Recruit Depot 
Parris Island. Additionally, the Recruit Depots have redesigned the 
last 11 days of entry-level training--as a new, fourth phase--to 
enhance a recruit's new identity as a Marine. The training focuses on 
mentorship and leader-led instruction aiming to better prepare the new 
Marines for the transition to follow-on training and the operating 
forces. The newly created Transformation Enhancement Program (TEP) 
improves our existing curriculum at our Formal Schools--reinforcing the 
values and principles emphasized during the Fourth Phase of recruit 
training. The TEP has been implemented at our combat training 
battalions and Schools of Infantry with plans to continue 
implementation into all formal schools over the next year.
    Our Marines want to deploy, serve our Nation, and protect our 
country from threats overseas. As Marines, we pride ourselves on being 
ready and on training for combat in conditions that are as close to 
reality as possible to enable success when called to fight. To ensure 
their success in future conflicts, we continue to build upon our 
lethality as we adapt our training, driving changes in our programs. 
Conducting combined arms in multiple domains, counter-unmanned aerial 
systems, managing signatures, and increasing integration of simulation 
technologies are all part of the new training regimen. Innovation 
remains a critical aspect of our Corps as Marines continue learning 
through the testing and evaluation of new methodologies and 
technologies to gain advantage over our rivals. Cyber operations, 
information and electronic warfare, more capable command and control, 
intelligence, engineering, civil-military operations, manned-unmanned 
teaming, robotics, AM, and the leveraging of artificial intelligence 
are critical skills we need for the future fight. Accordingly, we are 
updating course materials and developing new programs of instruction to 
ensure the Marine Corps remains a step ahead of our rivals.
    Taking care of our Marines, civilians, and their families is a key 
element of overall readiness, combat effectiveness, and warfighting. 
Today's requirements mandate that we not only provide equipment, but 
also focus on other important aspects of readiness, such as family 
stability, housing, spousal support, behavioral health, education, 
professional development, transition assistance, financial literacy, 
and wounded warrior support. Deployment Readiness Coordinators help 
ensure our families get the support needed before, during, and after 
their Marines deploy. Additionally, our comprehensive packages of 
services (Sexual Assault Prevention and Response; Suicide Prevention 
and Response; Behavioral Health; Wounded Warrior Regiment; Personal and 
Professional Development; and Transition Assistance) support the 
complete fitness and readiness of our Marines and their families. The 
Marine Corps remains focused on solutions to reduce destructive 
behaviors, particularly sexual assault, suicide, hazing, and excessive 
alcohol consumption. The abuse of alcohol is a known factor and 
contributor across the spectrum of force preservation issues and 
negatively impacts the readiness of our force. We are keenly focused on 
dramatically reducing these destructive behaviors.
                               conclusion
    Today, the Marine Corps faces many challenges; some as a 
consequence of rival adaptations, and some as a result of unpredictable 
funding. Years of sustained operations ashore in Iraq and Afghanistan 
have increased the divide between the Marine Corps and the Navy. For 
years, the Marine Corps and Navy have taken presumptive sea control for 
granted, despite warnings. We have focused on power projection and 
assured access, assuming sea control would remain uncontested. Since 
the fall of the Soviet Union, the Sea Services have enjoyed well-
earned, uncontested global dominance. Those days are over. We need to 
modernize and address peer competition or risk falling further behind. 
Our budget priorities, coupled with the evolution of our global 
posture, will provide our Nation's leaders the right instruments of 
power and the right places to create the decision-making space 
necessary for competition and contingency at the lowest cost in 
resources possible.
    The Marine Corps will adapt its global posture. As a naval force, 
deployed Marines predominately reside aboard ship, fully integrated 
with the Navy and expanding the competitive space and advantage of the 
Joint Force. The ocean provides flexibility, freedom of maneuver, 
survivability, and agility. Despite being the subject of competitor 
tracking, hitting a moving target is much more difficult than one that 
has been in the same position year after year, and thus affords much 
greater unpredictability--imposing a cost on any competitor. In recent 
history, we have found our forces tied to fixed locations in special 
arrangements to support necessary requirements during times of 
increased instability throughout specific regions of the globe. We must 
put these forces back on ship, whether on upgraded amphibious warships 
postured to respond to conflict or on alternative platforms. This 
postures us to assure partners and allies, compete with rivals, and 
defeat VEOs. We recognize the continued issues with our amphibious, 
maritime, and expeditionary ship inventory; however, we must focus on 
increasing the capabilities of the ships we do have, while developing 
cheaper alternatives for more permissive environments.
    We will continue to foster and strengthen our partnerships and 
alliances as today's strategic environment requires strong global 
partners. When our adversaries choose to test our will or capabilities, 
we must be ready with our allies to act with the appropriate force to 
overcome those hostile acts with such speed and decisiveness as to 
prevent further acts of aggression. We will prioritize those joint, 
multinational and bilateral exercises that offer the greatest return on 
investment as measured in readiness gains with select partners. These 
exercises increase our lethality as we gain an understanding of where 
we can strengthen each other's weaknesses.
    Despite the challenges facing us in today's strategic environment, 
our Marine Corps remains the Nation's forward deployed, agile, 
Expeditionary Force in Readiness. As the service with unique readiness 
requirements, we require sustained, adequate, and predictable funding 
to develop the correct mix of advanced capabilities and ensure a ready 
force. As we look ahead to the 2019 budget, we have prioritized the 
modernization of our Corps, the recovery of our current readiness, and 
investments to resource the next generation of Marines. The continued 
investment in these priorities will ensure Marines are capable as a 
high-end, conventional combat deterrent, able to respond to immediate 
contingencies and conduct crisis response across the continuum of 
conflict. With the Congress' support and sustained commitment, we can 
begin to restore our competitive naval advantage, enhance global 
deterrence, and ensure that we send our sons and daughters into the 
next fight with every advantage our Nation can provide.

    Senator Inhofe. Well, you know, your last comment was 
significant, when you say in fiscal year 2019. My concern is, 
fiscal year 2020 and fiscal year 2021. I think that we--maybe 
during the course of these questions, you'll be asked, What 
happens if we don't continue what we started with the 2-year 
budget? It could be a disaster.
    Let's start off with China a little bit. A few of us--four 
of us on this committee just got back recently from South China 
Seas, visiting with our allies there and just--it's--most 
people don't know what really is going on with China in that 
part of the world. You know, they hear about the islands that 
are out there, and they talk about reclaiming islands. It's not 
reclaiming, because there's nothing to reclaim. It's building, 
creating, and now they're up to seven different areas, very 
important areas for our movement in that part of the world. 
Everything that we see there is as if they're preparing for 
World War III. Everything's military--not offenses, it's 
defense, and it's really gotten the attention of our allies.
    One of the things that I think all of us would agree on is 
that, whether it's the Philippines, South Korea, Taiwan, Japan, 
they're all concerned and kind of covering both bases. This 
sounds pretty extreme. But, it's almost as if they're trying to 
decide whose side are they going to be on when this happens. I 
mean, that's the kind of preparation that's taking place, and 
we know that China is producing at least a dozen warships a 
year, developing new long-range weapon systems and fifth-
generations.
    So, I'd like to have--let's start with you, Admiral 
Richardson. What do you see those potential challenges in--what 
are they up to in this, what they refer to as--they were 
reclamation projects that they have, that now exceeds, what, 
3,000 acres, I guess?
    Admiral?
    Admiral Richardson. Sir, I think you've characterized that 
exactly right, and I would say that the Chinese have been very 
clear about what they're up to with their discussions of the 
Belt and Road Initiative, which may begin in the South China 
Sea, but actually extends around through the Straits of Malacca 
into the Indian Ocean, up into the Middle East, and into 
Europe. And so----
    Senator Inhofe. Yeah. No, it's all around. We understand 
that. We know what they're doing right now in Djibouti. This is 
the first foreign-based operation that they've had, I guess, in 
recent history. And so, it's not just there, it's in--it's 
certainly in Europe, the same. But, that's a place where we 
recently were, and that is--it really does affect the Navy's 
attention more than the other areas.
    How about you, Mr. Secretary? What's your thinking about--
what are they up to over there in the South China Seas?
    Secretary Spencer. Well, Senator, I--we know what their 
activity is in the South China Seas. I'd like to actually 
elevate it and tell you what they're--what we're observing 
they're doing across the whole spectrum.
    Senator Inhofe. I understand that, yes.
    Secretary Spencer. Just the other day, we were about to let 
a contract to one of our primes, and we found out that, in that 
division that we were going to contract to, Wahweh was a joint 
venture partner. We turned around and said, ``Whoa, stop the 
horses. We'd like to know what this means.'' Talked to the 
prime. The prime said, ``No problem, we're not going to use any 
of the assets of Wahweh North Software.'' It was a very 
enjoyable call. Then all of a sudden we said, ``Great. Can we 
see the governance documents of the joint venture?'' Things got 
very frosty. We have now put prophylactic language in this 
agreement to prevent any creeping further.
    I bring this up as an example, so it's not just the South 
China Sea, it's across the full spectrum that China is coming 
at us.
    Senator Inhofe. I agree. This is fresh in our minds right 
now, and it's something very overt, and it's one that is 
considered serious enough in that part of the world that our 
allies--historically, our allies are kind of divided as to what 
they think, where their allegiance may be changed to. That's 
very concerning.
    Let's talk a little bit about the pilot shortage. I know--I 
understand it's not quite as serious with you guys as it is 
with the Air Force. But, are you looking down the road, now 
that we've made some changes, and we're looking at 2 years--in 
fiscal years 2018 and 2019, we're going to be able to make some 
changes--any--express your concern right now. But, maybe with 
you, General Neller, in the Marines, or----
    General Neller. So, we share the same concern. Our numbers 
are not as drastic or dramatic as the Air Force, but we have 
instituted a bonus that we haven't paid for many, many years. 
And we've extended it out to 16 years. We're looking at 
different ways to take advantage of people that might be 
leaving, to keep them in the Reserves. We're in direct 
competition with the commercial airlines, because they have a 
huge pilot shortfall around the world. It's not just pilots, 
it's maintainers. We just offered a reenlistment bonus to our 
younger maintainers, and a significant number of them took it, 
which will give us some stability, because that's an experience 
base that you----
    Senator Inhofe. What about flying hours?
    General Neller.--Senator, they've gone up. I can show you--
--
    Senator Inhofe. Okay, that's good.
    General Neller. Probably 4 hours per model-type series 
across the force in the last year. I saw a story the other day 
that said it was really only the forward-deployed forces, so I 
got the data call on that. Actually, depending upon what model-
type series you're talking about, some of the home-station 
forces are actually flying more than the forces that are 
forward deployed. Is it where we want to be? No, and this 
budget that you have given us will allow us to create a steady 
stream of parts and spares. Because a lack of parts and spares 
is the number-one downing requirement for aircraft. Again----
    Senator Inhofe. Well, in the Marines, specifically, the F-
18 has been a problem, in terms of what's ready to fight. I 
know that that's gone up from about 40 to 50 percent right now. 
Do you project getting on up where you need to be, which I 
understand to be about 65 percent?
    General Neller. We want to get it as high as we can. We 
funded, in this budget--this budget funds parts and spares and 
aviation maintenance at a higher level than we ever have 
before. So, is--there's a certain flash-to-bang time on that. 
The Secretary has done some work with the depots to require 
them to provide back to us, upon completion of depot 
maintenance, an aircraft in a better state of condition so that 
it's more ready to fly at a sooner time.
    Senator Inhofe. Okay.
    General Neller. We're resetting the 53s, so you are 
correct, the two most distressed communities in marine aviation 
are F-18s and CH-53s.
    Senator Inhofe. The Secretary and I share in our 
backgrounds some of these things, and I think you pretty much 
agree with the comments that he's making.
    Thank you.
    Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    Mr. Secretary and Admiral Richardson, I mentioned, in my 
comments, the National Sea-Based Deterrence Fund. Could you 
tell us how you're using that to provide for the efficient 
acquisition of Columbia, which is a--not only a big-ticket 
item, but actually essential to the national security? Whoever 
wants to go first.
    Secretary Spencer. Senator, I'll go first on that.
    Yes, that vehicle does provide us authorities that do 
provide us the flexibility to address Columbia specifically, 
which is going to be, as you know, the biggest modernization 
leg of the nuclear triad. It is our number-one priority in the 
Navy. That--like I said, that vehicle has been very helpful in 
providing us authorities for future buy, long-lead buy to keep 
Columbia on track. We will continue to use it, the authorities 
in there, primarily. I'll tell you that we now have no margin--
no time margin at all involved in Columbia. We are marking this 
program with great sight, going forward, because we can't have 
any slippage.
    Senator Reed. Right.
    Admiral Richardson. I would just----
    Senator Reed. Admiral.
    Admiral Richardson.--pile onto that, sir. As I see the 
combination of appropriations and authorities that are going to 
be required to get this major acquisition program delivered on 
time, I see that the flexibility of the National Sea-Based 
Deterrent Fund both lowers cost and lowers risk, at the end of 
the day. You can buy material at its optimum time rather than 
the last time, and it allows you to move things to the left as 
much as possible to buy margin back into the schedule.
    Senator Reed. I only would ask, if there are additional 
authorities or additional techniques that you want to apply 
because of the importance of this program, please let us know 
as we go forward.
    Commandant--General Neller, the Marine Corps has a series 
of accusations and cases of sexual misconduct. You're not the 
only service that's facing this. But, some of them have been 
quite notorious--Marines United, a recent incident involving a 
colonel who had a record of misbehavior and--but was only 
discovered when he abused a young child; and then you have, 
also, a marine brigadier general whose responsibility included 
sexual assault prevention, and he made some comments that are--
I think, have drawn appropriate criticism. Can I ask you very 
seriously--and with the difficult challenge that you face, is--
how are you addressing a culture that might be contributing to 
this issue?
    General Neller. Senator Reed you and I have talked about 
this, and I appreciate the question.
    Aside from those events, as disturbing as they are, I think 
today you look at our Marine Corps, we're as diverse, as 
integrated and inclusive as we've ever been. I would give 
credit to members of this committee for holding the mirror up 
and making us look at ourselves and ask ourselves some hard 
questions.
    So, since the Marines United, we've clarified policies and 
rules and regulations, so all marines know what's expected of 
them. We had to clarify commanders, what they could do to hold 
people accountable. That doesn't mean we're perfect. I've had a 
couple of my senior officers--one was an allegation and one was 
investigated by ourselves, and was substantiated, where I had 
to say that I didn't have confidence in them to lead their 
organization. They are not the majority. They're not even close 
to the majority, and yes, you should expect more from a more 
senior officer.
    So, are we where we want to be? Are we where you want us to 
be? No. Are we in a better place than we were a year ago? I 
believe we are. That's on me, and I'd just remind everybody 
that, in my heart of hearts, I've gone out and talked to 
thousands and thousands and thousands of marines. I'm not going 
to use as an excuse that 62 percent of the Marine Corps is 25 
years old or less. That's no excuse. But, it's going to take us 
some time, and I assure you--give you my word that anyone who 
does violate the rules, regardless of whether they're a general 
or a private, they're going to be held accountable. With the 
help of this committee, we'll continue to work to make 
ourselves even more inclusive than we are today.
    Senator Reed. General, are you concentrating on senior 
leadership? I know you're addressing the entire Corps, but 
making a special effort to ensure that senior leadership is 
fully attuned with your views?
    General Neller. Yes, Senator.
    Senator Reed. Thank you.
    One other issue, too, is, Do you reflect adherence to these 
standards specifically in the efficiency reports for marines? 
Is there something in the efficiency report that the rater 
would have to indicate yea or nay, follows Marine Corps policy 
regarding sexual harassment, sexual conduct?
    General Neller. If someone--obviously, were to do something 
which would cause them to--the commander, their senior. to lose 
confidence, then they would receive an adverse report. But, in 
the actual report, itself, that was something that would have 
to be in the narrative. We are in the process of reviewing our, 
what we call, fitness reports or OERs, and one of the 
categories we're going to put in there is something to do with 
diversity. Because I believe that we need a command climate. 
We're in a tough business, and it's taken some people some 
adjustments. Those that can't adjust are going to have to 
either get onboard or get out. But, to answer your question, 
right now our fitness report does not reflect that unless the 
reporting senior chose to write it in. But, in the future, it 
will.
    Senator Reed. Well, I think that is a--an important step.
    My time is expired. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Admiral Richardson, I want to discuss the littoral combat 
ship (LCS). In my view, it's some concerning news. According to 
a U.S. Naval Institute story published this week, the Navy will 
not deploy an LCS in 2018, 11 LCS ships have been delivered to 
the Navy as today, but we'll have none deploy. Two days ago, at 
a Seapower hearing, Admiral Mertz testified, quote, ``The 
typical deployment model is three to five ships to one, to keep 
one deployed. So, this is really just math. There's going to be 
gaps that'll fill in over time. We're not concerned about 
that,'' end quote.
    However, in September, just 8 months ago, the Commander of 
Naval Surface Forces in the Pacific Fleet said that you can 
maintain three to four littoral combat ships deployed when you 
take on the Blue/Gold crew system. What is the answer, here, to 
the actual deployment ratio?
    Admiral Richardson. Senator, as you know, the littoral 
combat ship has been a program that has been through some 
troubled times. I would say that, in the past, we probably 
pushed that ship out forward deployed a little bit ahead of its 
time, before the program had stabilized and we'd done the 
appropriate testing and gained the confidence. As soon as I got 
in as the Chief of Naval Operations, I directed the Commander, 
Naval Surface Forces, to take a look at that program, 
rationalize it, and make it look a lot more like a normal 
shipbuilding program and a ship-operating program. So, this is 
what led to changes in the maintenance approach, changes in the 
Blue/Gold crewing, the way that we are going to home port these 
squadrons, and forward deploy them.
    The year 2018 is really a reflection of that shift. And so, 
it is--starting in 2019, we're going to start forward deploying 
those. They'll be sustainable, they'll be more lethal by virtue 
of the enhancements we're putting on those littoral combat 
ships. We have 24 deployments planned between 2019 and 2024. 
And so, you know, it really--2018 is a reset year to get 
maintenance and manning in place so that we can deploy this in 
a sustainable fashion.
    Senator Cotton. So, starting in 2019, then, which of those 
ratios will be correct? Will we be able to keep three out of 
four ships deployed, or one-fifth to one-third of those ships 
deployed?
    Admiral Richardson. Senator, I'll tell you what. There's a 
little bit more to the math. If I could get back to you for the 
record on exactly how that ratio works out, I'll be happy to 
show you the way this all----
    Senator Cotton. I would appreciate that----
    Admiral Richardson. Yes, sir.
    Senator Cotton.--for the record.
    [The information referred to follows:]

    Admiral Richardson. When at full maturity, the Blue/Gold crewing 
model implemented on Littoral Combat Ships will enable a higher forward 
presence rate than can be achieved in a traditional single-crew model. 
LCS will initially be organized into six, four-ship divisions--three 
per coast (Mayport, FL and San Diego)--with focused mission areas of 
anti-surface warfare (SUW), mine countermeasures (MCM), and anti-
submarine warfare (ASW). Within each four-ship Division, the Blue/Gold 
Crew concept generates two ships forward, a third in either 
maintenance, pre-deployment training or deployed, and a fourth serving 
as a dedicated training ship to certify the six Blue/Gold crews that 
will man the three deployable ships of each cohort. This new divisional 
structure is designed to provide Fleet Commanders approximately two 
(out of every four) ships for continuous mission capability. Blue/Gold 
deployments will begin in 2019 and increase in numbers as additional 
LCS join the fleet.

    Senator Cotton. There's a second question I want to ask, as 
well. Even by Admiral Mertz's statement of one-fifth to one-
third of ships deployed, we should still have two or three LCS 
ships deployed this year. I think you may have just answered 
that question, though, by saying that this is a reset year to 
try to get----
    Admiral Richardson. Yes, sir.
    Senator Cotton.--to your future model.
    Admiral Richardson. This is part of that plan that Surface 
Forces put together.
    Senator Cotton. We've spent $6 million now on these ships. 
I think the taxpayer deserves to have them out, performing 
their job.
    Admiral Richardson. Could not agree more.
    Senator Cotton. I hope that's the case, starting next year.
    General Neller, I want to speak to you about some changes 
in foot-march standards at the infantry officer course. It was 
recently changed from requiring infantry officers to pass five 
out of six evaluated foot marches to only three evaluated foot 
marches. I find that a little worrisome, given that the overall 
physical fitness testing standards have increased for everyone, 
to include enlisted marines, which means we may be lowering 
standards for our infantry leaders compared to our enlisted 
marines on something that is, I would say, a pretty core 
competency for an infantry leader. I assume you would agree 
with that?
    General Neller. Senator, there was a change, because we 
looked back at what was going on at infantry officer course. At 
one time, you had to pass five of six events to graduate. A 
couple of those events, we could not relate them to events in 
the training and requirements manual for infantry. So, I got a 
group of my senior infantry leaders together and I said, ``Why 
are we doing what we're doing?'' One event in particular, ``I 
thought that I wouldn't think I would ever have anybody do 
that.'' So, they came back to me and they said, ``Look, these 
are three that equate. We're still doing all of them. They're 
still all done. They are all still a part of the overall''----
    Senator Cotton. But, the--but fewer are being evaluated.
    General Neller. They're all evaluated.
    Senator Cotton. Evaluated is a----
    General Neller. They're all evaluated, and overall is the 
performance of that officer to graduate from that course. But, 
three of three, now, to include the one with the heaviest load 
and the time and duration, those three all have to be passed in 
order for an officer to graduate from that course.
    Senator Cotton. Let me just read you a statement from 
General Bohn, the commanding officer of the Marine Corps 
Training Command. He said, quote, ``The principal driver behind 
us making modification to the course, it was not about lowering 
attrition, it was about making students more successful to 
complete the course.'' I don't really understand the difference 
between lowering attrition and making students more successful 
to complete the course. Both of those sound like you're 
tailoring the standards not to the mission, but to the 
graduation rates that you have at the course.
    General Neller. I'm not going to speak for General Bohn, 
but my view is, when I was approached with this, says, ``This 
is what we can equate to training in our requirements manual 
for the infantry. These are the three that we should evaluate 
as go or no-go for graduating from the course.'' That's what we 
did.
    Senator Cotton. Thank you.
    My time is expired.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator Nelson.
    Senator Nelson. Admiral, long ago we learned a lesson from 
having too many assets in one place at Pearl Harbor. Today we 
have six aircraft carriers at Norfolk. But, it's not only an 
aircraft carrier problem. I understand we face a dispersal 
problem with other ships, as well, including those that make up 
the amphibious readiness groups.
    I know you'll be releasing a strategic laydown and 
dispersal plan shortly, so I don't want us to get ahead of 
that, but what are some of the viable options, as far as home 
ports, for helping to achieve dispersal objectives when it 
comes to these ships? And knowing that different infrastructure 
exist at these ports, once you decide to move ships or to place 
new ships at a port, typically how long does it take to get 
that specific base ready for having those ships? How critical 
is it that we begin the planning and design now in order to 
support these ships that will be moving in the future?
    Admiral Richardson. Senator, I thank you for that question. 
And we've had a number of conversations about this critical 
strategic issue of laydown and dispersal, particularly on the 
East Coast. As you mentioned, we're in the final phases of 
putting together the strategic laydown and dispersal plan. I 
look forward to coming to you with that final plan.
    As part of the considerations in that plan, there is not 
only the warfighting strategic dispersal that we have to take 
into consideration, but also the infrastructure in each of 
those ports. And so, as we consider Norfolk, Little Creek, 
Mayport, primarily for our surface ships on the East Coast, our 
submarines there at Norfolk, King's Bay, and Groton, there is 
the geographic dispersal from a force-protection standpoint, 
there is the infrastructure of the port itself to be able to 
accommodate those ships pierside, particularly under heavy-
weather conditions if we're talking a port like Mayport, and 
then there's the maintenance capacity of those ports so that we 
can keep them repaired and ready to go to sea.
    So, in terms of how long it takes to get a port ready, it 
really sort of depends on where you're starting and what your 
goal is. But, 3 to 4 years is not an unreasonable number to 
start to consider these sorts of plans. As you know, the sooner 
you get started, the more prepared you are.
    Senator Nelson. Okay, thank you, Admiral.
    Mr. Secretary, it's good to see you. Thank you for the good 
job that you're doing.
    We have the E-2D Hawkeye. It's manufactured in Florida. 
Knowing that these planes are vital to the Navy mission in 
combatant commander requirements, we have an opportunity to 
block buy these planes at a significant savings to the 
taxpayer. Have you got any comments that we might have been 
able to see cost savings when negotiating the next multiyear 
contract? If so, is it in line with industry standards?
    Secretary Spencer. Senator, it's underway and there is more 
to come. I think is the best explanation that I can give you. 
We will share with you what we see as we come to closure with 
the options available to us. But, you're exactly right, that is 
one path that we can extract savings and efficiencies. As 
you've heard, we've said it since my feet were on the ground--
we're looking to industry to be our partner now, not simply 
just a transaction orientation. And, in that light, we hope 
that we can work together to get the best goal; i.e., What do 
we both need to succeed? That's the conversations that are 
having now.
    Senator Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chair.
    Thank you guys for being here today, and for your service. 
No kidding.
    Secretary Spencer and Admiral Richardson, Admiral Harris, 
in repeated visits to the Hill in the last couple of years, has 
previously stated that approximately 230 of the 400 foreign 
national submarines worldwide are located in the Indo-Pacific 
region. And, of those, 160 belong to China, Russia, and North 
Korea. We've got about 74 submarine capabilities around the 
world. Without asking how many are in the Pacific, the question 
I have is, As the NDS focuses more pressure on naval marine 
capabilities, particularly with regard to the near competitors 
of Russia and China, how does this bode--what--how does it--
what does this--how does this impact the shortfall in undersea 
capability? Talk to us a little bit about unmanned 
capabilities, in terms of development. I know Admiral Moran has 
talked to us a good about it. In this setting, can you talk to 
us about how you're going to mitigate the potential attack 
submarine shortfalls in the 2020s?
    Admiral Richardson. Sir, I'll tell you. We're looking at 
this from a very integrated approach. And I'll just speak to 
the U.S. Navy approach, and the Secretary will speak to his 
efforts with our allies.
    Maintaining our superiority in the undersea domain is going 
to rely on a integrated approach between manned and unmanned 
technologies. And so, we're working very closely with the 
undersea submarine industrial base to make sure that, as we 
move through the Columbia-class program, as we move through 
enhancing the Virginia-class submarine with the Virginia 
payload module and look forward to all those manned types of 
approaches, that we are doing so in a way that really maximizes 
the capacity of the industrial base to deliver those submarines 
on time.
    Senator Perdue. Do we have the supply chain now? If not, 
how long will it take to develop that supply chain to meet 
those needs?
    Admiral Richardson. The supply chain, particularly the 
second- and third-tier vendors, have really--has really been 
leaned out over the past years. And so, the signal that has 
started in 2018 and hopefully will continue in 2019--they had 
the 18 months of uninterrupted, stable, and sufficient 
funding--will be a tremendous bolster of confidence to those 
second- and third-tier suppliers, will allow them to make some 
investments to bring that system back to health.
    But, even if we do all that, sir, I don't think that an 
only-manned approach is going to get us where we need to go. 
That's why I've made a family of unmanned undersea vehicles an 
acquisition priority. It's in the accelerated acquisition 
program for the Navy. And so, you can start to see this 
combination of manned enhanced by unmanned vehicles as being 
the key to maintaining our superiority undersea.
    Senator Perdue. Mr. Secretary?
    Secretary Spencer. Senator, coupled with that, the second 
pillar of the National Defense Strategy is a robust 
constellation of partners and allies.
    Senator Perdue. Sure.
    Secretary Spencer. I will tell you that we are spending a 
good amount of time out there hugging our allies and partners, 
to include Australia, Japan, Singapore, Korea, and, more 
recently coming into the fold, India and even Vietnam. And it's 
going to be a collective effort that's going to make up any 
gapping that we have there. They are committed. They are buying 
the right equipment. They are working with us. I invite 
everyone on the Senate Armed Service Committee--this is a 
formal invitation to join us in RIMPAC, where you're going to 
see a complete coordination of faces and partners.
    Senator Perdue. Will China be a part of that this year?
    Secretary Spencer. China has been invited.
    Senator Perdue. Will they be a part of it?
    Secretary Spencer. I don't know what the response was from 
the invitation, but they have been invited----
    Senator Perdue. Thank you, sir.
    Mr. Spencer.--to select series.
    Senator Perdue. With my time remaining, I'd like all three 
of you, or certainly Admiral Richardson and General Neller, to 
comment on the risk we have with regard to space and cyber 
domains. These are the two new domains that you guys are having 
to deal with. Particularly with our precision munitions and our 
communication capability, on the ground and on the sea, what 
are we doing right now to mitigate the risk that we now are 
realizing we have in the space domain and in the cyber domain?
    General Neller. Well, Senator, I think you characterize it 
correctly. We recognize that we've built a way of war which is 
not totally, but significantly, dependent upon----
    Senator Perdue. Yes, sir.
    General Neller.--on space and the network. And so, we 
realize that we have to keep our network up, it has to be 
resilient, and we have to be able to operate with a minimum of 
bandwidth, and we've got to make, in the requirements for 
anything else that we buy, that it has more than one way to 
find its way to its destination.
    Senator Perdue. Yes, sir.
    General Neller. So, the cyber piece is first defend, 
protect yours and deny the adversary theirs, and then make sure 
that the munitions you have are going to operate, even if that 
network is degraded or the constellation is degraded. So, space 
is a place where we're going to operate in a different kind of 
way. If General Hyten were here, he would tell you that there 
is maneuver in space and there is shaping operations in space, 
and, other than that, we'd probably get into a classified 
domain beyond my capacity to explain it to you.
    Senator Perdue. Yes, sir.
    General Neller. But, clearly it's something that's on 
everybody's mind. It's--the number--and, for us, in the Marine 
Corps, and with the Navy, through the Secretary's leadership, 
we realize we've got to have integrated network, we've got to 
have a naval grid so that all ships can communicate, and 
airplanes can communicate with the ships and ground forces. And 
so, that's a big effort, and that's part of the modernization, 
and that's partly what the appropriation that we have is going 
to help us figure out a way to do.
    Admiral Richardson. Sir, I'll just pile on quickly, because 
I know we're getting out of time.
    Senator Perdue. Yes, sir.
    Admiral Richardson. But, I will tell you that, in addition, 
the command and control of the entire battlespace, including 
those two new domains that you mentioned, has got to be 
something that is completely integrated, as well. And so, 
we've--are starting to wargame more and more robustly how you 
would command and control those two domains, really down to 
nanosecond timing to be effective there.
    Finally, just to address your comments on GPS, we're 
accelerating our efforts to get precision navigation and timing 
techniques that will allow us to continue to operate in the 
absence of GPS, if that's the way it goes.
    Senator Perdue. Yes, sir.
    Thank you.
    Senator Inhofe. Thank you, Senator Perdue.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for your service and for being here today.
    Secretary Spencer, I was really pleased to hear your 
anecdote about the contract with Wahweh, and how the Navy 
handled that. I think, just as we saw with Kaspersky Software, 
the threat from our adversaries is not just external, based on 
weapon systems and firepower, but it's also internal, based on 
information--disinformation campaigns and cyber. According to a 
February 2018 article in Breaking Defense, the commander of 
Naval Information Forces, Rear Admiral Matthew Kohler, said 
that--well, he actually likened the Navy's IT [Information 
Technology] workforce situation to that of recent ship 
collisions in the Pacific. He's concerned about the assumption 
that if IT professionals are operating all the time, they're 
getting all the practice they need, and they don't need 
training. So, can you talk about the extent to which the Navy 
is looking at training that our IT professionals need and what 
you might need also in the way of equipment?
    Secretary Spencer. Yes, Senator. We've brought this up--not 
only IT, but collectively in the cyber community. We look at 
the work that N-1 has done with Admiral Burke on our future 
force needs. We are tailoring. We are looking at new ways to 
get at this. We're going to be coming in front of you all 
possibly to nibble on the sides of DOPMA [Defense Officer 
Personnel Management]. As an example, the ability to have 
people come in and out of the service to remain current, this 
would specifically pertain to our cyber community, and probably 
also to parts of our IT community. We have to start thinking 
outside the box in order to accommodate, access, and retain the 
talent that we need in these areas.
    Turn it over to the CNO, if he had any further----
    Admiral Richardson. Thank you, Mr. Secretary.
    I'll just pile onto that, ma'am, is--I would highly 
encourage you to take a quick visit down to Suffolk, Virginia, 
where we--Admiral Kohler has his command, and you get to see 
the stunning talent that the Secretary alluded to in our 
sailors and civilians that are actually prosecuting this fight 
in the cyber domain. Right now, our recruiting and our 
retention is good there, which is a tribute to the values and 
ideals and dedication of that team. But, I do take the point 
that you cannot assume that, just because you're doing 
operations, that you're doing the sets and reps that are 
necessary for full readiness. And so, Admiral Kohler and I, 
Admiral Tighe and the rest of the information warfare community 
are looking at that very closely.
    Senator Shaheen. Well, thank you. I'm pleased to hear that, 
and I'm sure this committee is interested in supporting those 
efforts.
    There is a report to Congress on extending the service life 
of the Los Angeles-class sub. I support this effort. I think it 
is important to span the gap between 2021 and 2031, where we 
will need those submarines to address the threat that we face. 
I was pleased to see that the report proposes that most of the 
work be done at the Portsmouth Naval Shipyard, which obviously 
I'm very interested in, and that it includes the need for 
investments in infrastructure in order to support that effort. 
But, it doesn't really speak to the workforce that's going to 
be needed. Given what we're seeing already at the shipyard, in 
terms of the challenge of getting the STEM [Science, 
Technology, Math, and Engineering] workers that we need for 
those jobs, can you speak to what your thinking is about how we 
make sure the workforce is there to do this work on the Los 
Angeles-class subs?
    Admiral Richardson. Yes, ma'am, thank you. Just a-- kudos 
to the team at Portsmouth Naval Shipyard. They really do 
terrific work on our nuclear powered submarine force.
    Senator Shaheen. Absolutely. I'm going to be meeting with 
some of the superintendents later. I will share that with them.
    Admiral Richardson. Thank you, ma'am.
    But, I'll tell you that the workforce is, I think, the 
central challenge when we talk about expanding capabilities, 
whether it's in acquisition or in maintenance, repair. Finding 
those talented people is the principal challenge. We are on a 
plan to increase our shipyard workforce up north of 36,000 
nationwide. We think that that will be the proper number to get 
our arms around the workload, which includes the potential life 
extension of Los Angeles-class submarines. One is in the 
budget, and we're looking at the engineering basis for more.
    We address this through, one, you know, heavy-duty 
recruiting, but also successful intern programs and all of 
those--the word escapes me right now, but the schools that 
really go out to the community and bring these people in and 
give them the essential training that they need to be effective 
shipyard workers.
    Secretary Spencer. I want to just put a footnote on there, 
Senator, which is addressing workforce. One of the beauties of 
this job is to go incognito and wander around the assets. And, 
two weekends ago, with my bluejeans on and a hat, I wandered 
into the STEM festival, which was going on at the Walter 
Washington Convention Conference. And, first of all, I was 
wildly invigorated seeing the number of kids that were there. 
But, on the first floor, front and center, is Lincoln Welding, 
with its welding exhibition. And had to them--and I went up to 
them, and I said, ``Bravo. This is exactly what we need to get 
people interested in science, technology, engineering, 
mathematics, and manufacturing.'' So, it's happening.
    Senator Shaheen. Absolutely. I applaud the Navy's work to 
support those kinds of programs, like the CPARS [Contractor 
Performance Assessment Reports System] challenge that Admiral 
Richardson and I were talking about.
    Secretary Spencer. Yes, ma'am.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Admiral Richardson. These apprentice programs is the thing 
that----
    Senator Shaheen. Yes, absolutely. That's critical if we're 
going to get the workforce we need for the future.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Wicker.
    Senator Wicker. Thank you.
    Secretary Spencer, how often do you go around incognito?
    [Laughter.]
    Senator Wicker. Do you feel safe?
    [Laughter.]
    Secretary Spencer. I do. I do, Senator.
    Admiral Richardson. I don't when he does that.
    [Laughter.]
    Senator Wicker. Okay.
    Well, let me ask both of you. The Navy is at 324,000 Active 
Duty sailors. I'm told that is the lowest in almost a decade. 
The Navy reportedly is 11,000 sailors short of the required 
manpower levels in the near term, and 50,000 short of the 
estimated force needed to crew a 355-ship Navy, which is the 
requirement that was set by the admirals and generals. Senator 
McCain and I have introduced the Surface Warfare Enhancement 
Act. And, Secretary Spencer, you and I have discussed this 
previously. The legislation, among other things, includes 
provisions to help the Navy retain critical personnel by 
offering some relief from DOPMA and Goldwater-Nichols. What 
steps do each of you recommend that we take in Congress to help 
the Navy attract and retain the personnel required to operate a 
355-ship fleet?
    I might mention, thank you for the decision to extent the 
service lives of destroyers. Of course, this will give us 355 
ships much earlier, but we must also accelerate the end 
strength of the force. So, if you would discuss that. I guess 
we'll begin with you, Mr. Secretary.
    Secretary Spencer. Thank you, Senator.
    I think starting with 355 and working down, you know, we 
will get there. We've told you we'll get there, and I think, 
when--in October, when we came to a coalescion on this, we said 
there were a couple of plans underway. You see the extension of 
the DDG-51s for 45 years, Los Angeles-class. We also have some 
other plans we're working on. So, stand by. We also realize 
that we have to drive the anvil and build new, also, and we're 
going to work every way we can to find the resources necessary 
to do that.
    When, in fact, we do sign up for new platforms--i.e., 
ships--just putting my business hat on, that's just one tube, 
that's just one column of the resources needed. We also need 
the maintenance column, and we also need to have on the graph 
the personnel column, so--to really have the full lifecycle 
cost of the weapons platform, itself. If you see----
    Senator Wicker. But, let's talk about the sailors----
    Secretary Spencer. Yeah.
    Senator Wicker.--aspect.
    Secretary Spencer. As we see--I'm working into that--as we 
see 7500 that we're asking for, going forward, we are going to 
have to work in--at tooth and nail, because we're fishing in 
the same pool as the Air Force and the Army. We believe we have 
a very compelling story. We believe we have the ability right 
now to attract those necessary. We're not seeing a tremendous 
stress yet, although we are going to prepare for it. ``Forged 
from the sea'' is the message going out there. Right now, we 
believe that the 7500 we're looking for is within reach and not 
threatened by any targets to date.
    Admiral Richardson. Senator, I'll just pile onto what the 
Secretary said.
    As you know, the budget does request 7,500 new sailors this 
year, which is really more--you know, more than--an increase in 
the end strength, which really is regulated by about the 
maximum capacity that we can bring them through the training 
program and get them to be useful sailors.
    With respect to DOPMA reforms, I can't thank this committee 
enough for their support in our proposals to allow-- I would 
say, sort of, three things would provide some tremendous 
flexibility. One is sort of merit reordering so that we can get 
our talent to go to the top, and accelerate that talent. One is 
the opportunity to maybe postpone your board for promotions so 
that you can make sure that you've got all of the wickets met 
before you go before the promotion board. Then, finally, the 
opportunity, as we've hinted at earlier, to bring in talent 
horizontally, particularly in areas like cyber and those niche 
skills that would allow us to inject, you know, those highly 
skilled people at the appropriate level.
    Again, you know, the committee's been very supportive in 
these efforts, and I--you know, I thank you for that.
    Senator Wicker. Thank you.
    General Neller, the--let's talk about lethality and the tag 
line, ``If it floats, it fights.'' Do you have any thoughts for 
us on increasing the lethality of our amphibious ships?
    General Neller. Well, Senator, I think every surface 
combatant is exactly that, it's a warship, and there's 
capabilities that we could leverage on--LPD hull form, for 
example.
    Senator Wicker. What if we put the vertical launch system 
on the Flight II LPDs?
    General Neller. I think that's a great idea.
    Senator Wicker. Do you agree, Secretary Spencer?
    Secretary Spencer. Most definitely.
    Senator Wicker. All right.
    Thank you very much, gentlemen.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    I just want to be clear, for the record, that the 
Portsmouth Naval Shipyard is in Kittery, Maine. We just want to 
clarify that.
    [Laughter.]
    Senator King. Senator Shaheen is--have some--she and I sued 
each other over that, 20 years ago.
    [Laughter.]
    Senator King. United States Supreme Court solved that 
question.
    [Laughter.]
    Senator Inhofe. How many years ago?
    Senator King. It was about 25.
    Senator Inhofe. Who won?
    Senator King. The answer is contained in the fact that it's 
Kittery, Maine.
    [Laughter.]
    Senator King. First, I want to compliment our naval 
personnel for having the foresight to hire the pilot of the 
Southeast Airlines who did such a marvelous job landing that 
plane, who, by the way, was rejected by another armed service, 
which we won't mention in this hearing, at the time, who did 
not take female pilots. The Navy did, and the training and work 
that she performed in the Navy saved a lot of lives this week. 
So, I want to acknowledge that.
    Admiral, can you give us a quick update, given the time 
constraints, on the collision review, what happened, root 
causes, and what's--what we're doing to prevent that kind of 
tragedy in the future?
    Admiral Richardson. Yes, sir. Thank you, Senator.
    I'll tell you, I'd just echo the impressive performance of 
the pilot, and representative of the professionals in--naval 
aviators, men and women, in all parts of our naval aviation 
force right now.
    With respect to the collisions, you know, we are moving out 
briskly on the plan that addresses, to our very best ability, 
the root causes of those collisions. Those root causes being, 
you know, the fact that, as we discussed earlier, you must 
spend some time on just--first of all, completing the 
maintenance completely, and then, once out of maintenance, 
doing the training required to get those skillsets up to where 
they need to--to do the combat missions and just the basic 
operations, and then certifying that that training has met all 
of the requirements before you go on out and do that. And so, 
we've taken a number of steps, from examining the career path 
of surface warfare officers to make sure that they are getting 
the requisite time at sea as they execute their career and go 
on up to becoming competent and confident commanding officers. 
Along that career path is not only at-sea experience, but also 
education and certification. We've adjusted the command-and-
control structure to make sure that we've got firm advocates 
for training and certification in each of our home ports.
    Senator King. Let me interrupt, because of the time 
constraints.
    Admiral Richardson. Yes, sir.
    Senator King. Could you supply, for the record, a--an 
outline of where you are?
    Admiral Richardson. I'd be happy to, yes, Senator.
    Senator King. Next steps--root causes, next steps.
    Admiral Richardson. Yes, sir.
    [The information referred to follows:]

    Admiral Richardson. Readiness reform remains a critical Navy 
priority in the wake of the tragic USS Fitzgerald and USS John S. 
McCain collisions. Following the accidents at sea, the Navy 
commissioned the Comprehensive Review (CR) and Strategic Readiness 
Review (SRR) to identify causal factors and recommend corrective 
actions. In January 2018, the Navy established the Readiness Reform 
Oversight Council (RROC) to oversee implementation of CR/SRR 
recommendations as well as related recommendations from other sources 
(e.g., Government Accountability Office, Navy Inspector General). 
Chaired by the Vice Chief of Naval Operations and Undersecretary of the 
Navy, the RROC is currently addressing 111 recommendations. To date, 35 
of 111 recommendations have been fully implemented with over 70 percent 
expected to be implemented by the end of September 2018. Along with 
aggressively implementing the remaining recommendations, the Navy is 
simultaneously developing the tools and processes to ensure that 
implemented recommendations are effective. $38.3 million was 
appropriated for readiness reform in fiscal year 2018, $79.1 million 
requested for Presidents Budget 2019, and $601 million programmed for 
Surface Warfare readiness reform through the fiscal year 2019-2023 
FYDP. The RROC also seeks to expedite an additional $66 million of 
unfunded priorities during the Mid-Year Review. The status of a select 
few key actions taken to improve readiness across the fleet are 
described below. 7th Fleet Operations--7th Fleet has adopted new 
scheduling and force generation processes that identify mismatches in 
force employment and force generation while protecting training/
certification periods for ships. Naval Surface Group Western Pacific 
(NSGWP) has been established to oversee maintenance and training for 
surface ships assigned to Forward Deployed Naval Forces Japan. Command 
and Control--The Navy is undertaking a clean sheet review of the 
Administrative Chain of Command to optimize readiness, clarify C2 at 
all echelons and provide clear responsibility and accountability for 
force generation. As part of this initiative, 2nd fleet has been re-
established to focus on warfighting and certification of deploying 
forces. Mitigating Risk of ``Can-Do Culture''--Multiple steps have been 
taken to properly manage supply and demand of operational forces to 
prevent overstressing individuals and units and avoid putting ship COs 
in a position to commit forces that do not meet full readiness 
standards. In addition to the above changes to C2 and operational 
scheduling practices, force-wide circadian rhythm implementation is 
underway to allow COs to better manage crew fatigue and properly 
mitigate operational risk. Manning--Navy manning policies now 
prioritize Japan based ships. Six of 11 Japan based Cruisers and 
Destroyers meet their manning targets with 10/11 expected by June 2018. 
New incentive policies have been enacted place to encourage sailors to 
select and extend in Japan-based billets. Manning statuses are reviewed 
monthly by Fleet Commanders to identify shortfalls. Surface Warfare 
Officer (SWO) Career Path--The SWO career path is being restructured to 
emphasize mastery of seamanship and navigation skills. First and second 
tour lengths for Junior officers have already been adjusted to maximize 
at sea experience while changes to Senior Officer tour lengths are 
under review. Proficiency assessment and tracking mechanisms are also 
under consideration by senior Navy leadership. SWO Training--Short and 
long term improvements are underway to expand training for bridge watch 
standers, emphasize higher-stress scenarios representative of high 
density shipping and extremis situations, and better utilize integrated 
simulator systems and yard patrol craft. Surface Force Navigation 
Equipment-Plans are ongoing to accelerate replacement of surface search 
RADAR, modernize bridge equipment and transition to next generation 
electronic navigation systems.

    Admiral Richardson. As you know, we've committed to come 
over and briefing both the staff and the members quarterly on 
our execution of that plan. The Vice Chief of Naval Operations 
and the Under Secretary have already provided the first of 
those updates. We look forward to continuing those.
    Senator King. Thank you.
    Mr. Secretary, the Navy and the Marine Corps are undergoing 
their first full audit. Can you give me a quick update on where 
that process is and any lessons learned, thus far?
    Secretary Spencer. Yes, Senator. You'll find out here, if 
not today, that we, at the Navy side, will have a qualification 
announced by the auditors. I want to manage everyone's 
expectations as to what that means. As we said originally, the 
audit process is not only creating a tool for us to manage by, 
but it's also an educational process. As the auditors get in 
there and start drilling down, we are already started learning.
    The qualification comes from the fact that--the number of 
transactions the Navy has, the dissimilar systems that we're 
using to actually collate this information. And it's--I believe 
this is actually a benefit, because what the auditors must stop 
doing is sample testing and actually get down to rolling up the 
sleeves and doing individual education on systems to understand 
how the buildup comes.
    Senator King. When can I tell the people of Maine we're 
going to have a final audit?
    Secretary Spencer. A clean audit?
    Senator King. Yes, sir.
    Secretary Spencer. Maybe 5 to 7 years.
    Senator King. But, you're in the process now of----
    Secretary Spencer. We are clearly in the hunt.
    Senator King. Thank you.
    I spent some time earlier this week with the joint force in 
Florida that does drug interdiction. This is just a request. We 
are only able to interdict 25 percent of drug shipments by sea 
that we know of. In other words, we have intelligence to tell 
us there are 100 units out there; we can only stop 25 of them. 
The problem is assets, particularly in the Coast Guard. My 
request is simply that you think creatively, cooperatively with 
the Coast Guard to see if there's a way to improve that 
miserable record.
    Secretary Spencer. Senator, timely observation requests, 
the CNO and I have been working on this now for a couple of 
months to see what we can put down there as usable resources, 
because we're painfully aware of the situation. It's not a 
quick and easy fix, in that we--you have the difference between 
our titled responsibilities, and we will have to cooperate, and 
gladly cooperate, with not only the Coast Guard, but with the 
Department of Homeland Security.
    Senator King. Well, I understand the limitations, but in 
the--since we've been talking for the last hour, four people in 
America have died from drug overdoses, and we're under attack. 
This is a place where we should be able to shore up our 
defenses. So, thank you for taking that initiative, and I'll 
look forward to updates.
    Secretary Spencer. Yes, sir.
    Senator King. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Secretary Spencer, Senator King brought up some great 
questions about incidents and collisions at sea. I'm going to 
move that up a little bit. Let's go to the air. I've been 
closely following the physiological episodes, those incidents 
that have plagued the Air Force and the Navy aviation 
platforms. Just yesterday, it was reported that the T-6 Texan 
II trainer aircraft pilots have experienced 12 PEs 
[physiological episodes] since the 1st of March. I know that 
you're working with the Air Force to solve the problem, but, 
going back to Senator King's point earlier, is--what is that 
root cause? We still don't have a root cause for those 
physiological episodes. And so, can you please update our 
committee on the efforts to identify and remedy the Navy's 
physiological episodes?
    Secretary Spencer. Senator, I'd be more than happy to, for 
the record, put our latest update, which has--it's quite 
voluminous, as far as efforts. I will provide a topical 
overview, though, which is fascinating when you come to a 
numbers analysis.
    [The information referred to follows:]

    Secretary Spencer. Please forgive me in advance for the length of 
this response as I outline our many efforts to identify and correct the 
root causes of Physiological Events (PEs) in our high performance 
aircraft, however our efforts are extensive. Tremendous combined 
efforts are being put forth by Naval Air Systems Command (NAVAIR), 
Commander Naval Air Forces (CNAF) and Bureau of Naval Medicine (BUMED) 
to identify, correct and address the causes of PEs. Corrections to the 
machine are being identified by our engineers and vary by aircraft. 
However, we remain challenged by differences in human physiology to 
determine what variables are causing our aviators to be negatively 
impacted. We have found individual aviators react differently to 
environmental variations thereby adding to the complexity of 
identifying contributing problems. There is not a single cause for PEs 
but rather multiple contributing factors that are negatively impacting 
our aviators. We are making progress in our efforts which include 
training, material requirements, emergency procedures, maintenance 
procedures, depot/industry repair acceptance procedures, direct 
engagement with Fleet and external reporting of corrective actions 
identified by our Root Cause Corrective Actions (RCCA) team. To date we 
have made tremendous progress with our T-45s, are reducing the severity 
and rate in our F/A-18 series, and are working in concert with the USAF 
to address T-6 PE events though we are not experiencing the same rate 
or severity of PE events on our T-6s. The next few paragraphs will 
highlight lines of effort and root causes identified to date. We have 
turned the corner on PEs in the T-45 training aircraft. Due to the 
simplicity of the system and through the installation of the CRU-123 
solid-state oxygen monitor, we identified marginal oxygen pressure to 
the pilot's mask in some of the aircraft that could contribute to a PE 
in specific regimes of flight. We took immediate action to increase the 
oxygen flow through the On-Board Oxygen Generating System (OBOGS) by 
increasing low airflow from the engine and reducing flow constrictions 
in the system. Additionally, we added warnings to the pilot to alert 
them of low flow in the system so they can take immediate steps to 
ensure their safety. We were able to mitigate the problem and have 
observed a marked reduction in the T-45 PE rate. Development of longer 
term corrections to the system are in progress which include items such 
as an automatic backup oxygen system (ABOS) to improve the flow. Since 
we have returned to flight there have been only 2 PEs tied to OBOGS 
malfunction and both were indicated in the cockpit, which enabled the 
pilots to safely land. We also have removed any concerns regarding 
toxins in the system through the analysis of over 20,000 OBOGS air 
samples with no contamination found. We have a full understanding of 
the T-45 breathing system challenges and we have implemented data 
driven corrections to the aircraft. While F/A-18 is showing 
improvements in the PE rate and severity, the complexity of the system 
continues to challenge our engineering force. The aircraft has two 
contributing factors that we have identified as detrimental to our 
pilots; failure modes of the environmental control system (ECS) 
resulting in cockpit pressurization anomalies (loss of pressure, 
fluctuating pressure and overpressure) and breathing gas anomalies 
resulting in respiration impacts. We are pursuing root causes in both 
the aircraft and the pilot. For the aircraft, we are working closely 
with industry partners to accelerate their progress and make corrective 
modifications to improve aircraft performance. Our Boeing partners, 
with NAVAIR, are addressing the F/A-18 series environmental control 
system (ECS) software to ``smooth out'' the cabin pressurization flow, 
identifying valve deficiencies/failures and compromised muscle pressure 
ducting that contribute to pressure instability. We are developing and 
fielding performance and reliability improvements to the primary and 
secondary bleed air regulators. For our oxygen system, we are accepting 
proposals for a next generation OBOGS concentrator which will not only 
comply with the MILSTD 3050 released in 2015 but will also provide data 
logging of oxygen and pressure provided to the pilot's mask. NAVAIR and 
Boeing have accepted a new digital cabin pressurization system to 
replace the current F/A-18's analog cockpit-pressure altimeter--a 
needle that moves up and down on the instrument to reflect cabin 
pressurization. The Cockpit Pressure and Oxygen Monitoring System 
(CPOMS) will constantly display cabin pressure to the aircrew and alert 
them visually and aurally--through their headset--if there is a change 
in air flow. CPOMS also will record cabin pressurization data 
throughout the mission for post-flight review. CPOMS phase one will 
allow data logging as well as indications and warnings of pressure 
anomalies in the cockpit while phase two will automatically actuate 
emergency oxygen for the aircrew. We realize that data recording is 
critical to identifying the root causes of PEs and we are leaning 
forward to find better ways to obtain the data and warn the aircrew. 
Recognizing that we may have future problems with the Navy T-6s, we are 
assisting the Air Force Safety Investigation Board (SIB) with both a 
member from the PEAT and an engineer from NAVAIR. Our close 
coordination with the U.S. Air Force has already enabled us to develop 
joint solutions and achieve a better understanding of the cockpit 
environment and our oxygen systems. We are also working closely with 
the Unexplained Physiologic Events (UPE) Integration Team that serves 
as Air Force's focal point for identifying solutions to optimize human 
performance in tactical aviation and eliminate or minimize the impact 
of PEs. To address the human side of PEs, data and research are 
critical. While we have been challenged to identify and field sensors 
for the pilot that function accurately in the challenging environment 
of our fighter aircraft, we do have a few systems showing promise and 
are currently in testing. Cobham's VigilOX pilot breathing sensor 
system has been tested on our F-18 and T-45 aircraft. VigilOX is a 
pilot-worn sensing system that captures real-time physiological, 
breathing gas and cockpit environmental data during flight, and helps 
identify conditions around unexplained physiological episodes. We are 
reviewing the post-flight data, which is correlated to reported 
hypoxia-like symptoms. This data will form the basis of a predictive 
algorithm that will ultimately drive oxygen equipment to automatically 
adjust oxygen dosage as needed to protect the pilot. Cobham's sensor 
that measures the inhaled gas is functioning but there are issues with 
their exhalation sensor block. The Inhalation Sensor Block (ISB) is 
filling in gaps of data at rates that are not measured by a CRU-123 or 
any other current system we have. We can now see the effects of G-loads 
and changes in cabin pressures on breathing patterns, O2 concentration, 
and gas flow. In short, we can accurately measure how much product gas 
(hopefully with enough O2 concentration) is being used by the aircrew 
and will no longer need to rely on estimates. These data points will 
support our medical community in understanding what TACAIR flying does 
to the human system, and after the ESB is consistent enough, we will 
start picking up on what effects too much or too little O2 has on the 
aircrew. While extremely promising, the Exhalation Sensor Block (ESB) 
still remains a few iterations away from fielding. The team also is 
looking at how the flight gear fit might restrict aircrew breathing, 
such as an overly tight harness or a leaky mask. A test set has been 
fielded to test aircrew breathing systems to ensure proper form, fit 
and function. Utilizing our Navy and USAF laboratories, testing will be 
done to develop a better understanding of gear function in the 
centrifuge, impacts of pressure fluctuations on human physiology and to 
better understand oxygen delivery impacts such as variations in oxygen 
content. BUMED is actively supporting this research as well as our 
treatment regimens for aviators impacted by a PE by establishing 
centers of knowledge and excellence at Navy Portsmouth and Balboa 
hospitals. Finally, we are conducting cross talks with major academic 
and medical research agencies to increase the pool of expertise being 
brought to bear against the physiological aspects of PEs. I hope that 
this brief update is useful and provides insight into our current 
efforts to counter PEs in our aircraft. The application of measurement 
and data remains key to our discovering and resolving the root causes 
of these events. We are dedicated to addressing PEs in our tactical and 
training aircraft and this issue remains the number one safety concern 
for the entire Naval Aviation community. As we move forward to 
implement numerous technical and operational measures to mitigate the 
risk to aircrew, we are achieving a notable reduction in the number of 
PE occurrences. We continue to utilize every available resource, the 
knowledge of internal and external partners, and our subject matter 
experts to resolve these issues. Admittedly, this is a complex issue 
with no single root cause or single solution. However, we are making 
progress with identifying multiple contributing factors and 
incorporating the associated mitigating solutions. Thank you for your 
continued support to help us resolve this challenging problem.

    Secretary Spencer. We are not--the Navy is not witnessing 
the same failures that the Air Force is witnessing in the same 
type aircraft. I'm not saying that one's better than the other. 
We're doing the same type maintenance and analysis, and we're--
this is kind of a confounding issue. We are working the root 
causes. We are replacing parts--OBOGs [Onboard Oxygen 
Generation Systems]. We are replumbing. We are resoftwaring. 
When it comes to the F-18, as you know, some of those 
depressurizations were just due to age of aircraft. But, it 
still means we have to come to solutions. We are at it. We are 
tooth and nail, and we are also reaching across to the Air 
Force to work hand in hand with them.
    Senator Ernst. I appreciate the collaboration on that.
    Is there a way that Congress can provide additional 
supports in that effort?
    Secretary Spencer. We will definitely let you know when 
we----
    Senator Ernst. I'm sure you will.
    Mr. Spencer.--find more, yes.
    Senator Ernst. I expect it. Okay. Thank you, Mr. Secretary.
    General Neller, through my work as chairman of the Emerging 
Threats and Capabilities Subcommittee, which has jurisdiction 
over SOCOM, I've really learned a lot about the care and the 
treatment programs that our special operators have, as well as 
their families. And one of the programs that I feel that has 
been very, very helpful in this regard is the Preservation of 
the Force and Family (POTFF). Senator Heinrich and I recently 
held a hearing with our SOCOM and--with the SOCOM and its 
component commanders, and they all agreed that this particular 
program of POTFF has been very, very successful in getting our 
warfighters back into the fight.
    Would you be able to speak to the value that POTFF provides 
for MARSOC [Marine Special Operations Command]? Is this a 
program that you think could be expanded to the rest of the 
Marine Corps?
    General Neller. Well, clearly the Preservation of Force are 
in the efforts that SOCOM is able to deliver, as far as mental 
health and fitness to their family, because their smaller 
numbers is a big deal, and because of the frequency of their 
appointments, albeit shorter, and the type of actions that they 
take when they deploy, it's very critical for them to keep 
those soldiers, sailors, airmen, and marines in the fight.
    So, we fully support that. I'm in--I was talking to General 
Mundy, our MARSOC Commander, about what they're doing, as far 
as health of the force. Several years ago, the Marine Corps, 
from our aviation community, used that. We adopted almost--
every unit has a--what's called a Force Preservation Council, 
where they sit down with--the leadership sits down--when a new 
marine checks in, they go over, they review their record, any 
stressors in their life. When people have an issue or something 
happens that would elevate--whether it's a discipline or 
something like that--then they become reviewed by the Force 
Preservation Council to see, ``Okay, what do we have to do to 
help this individual marine?'' We have the Marine Life 
Intercept Counselors that go. And we do this--we're still--the 
mental health capacity of the force is much better than it was 
15 years ago, but it's probably never going to be what we want 
it to be. So, I think that that type of activity has 
transitioned itself into the Active Duty or the conventional 
force.
    Senator Ernst. Okay.
    General Neller. We work with it, but we're never going to 
get the results we want, which is everybody's healthy and 
nobody--everybody's successful as they can be.
    Senator Ernst. I think the point is that we try to do the 
absolute best we can for our warriors. So, if there are best 
practices that we can take from Preservation of the Force and 
the Family, we certainly would like to make sure that those are 
extended into the Marine Corps and then, as well, of course, 
across the Navy, as well.
    Admiral Richardson. Working with Naval Special Warfare, 
they also have a very vigorous----
    Senator Ernst. Yes, they do.
    Admiral Richardson.--Preservation of the Force and Family, 
and ask that exact question, What can we do across the entire 
Navy to adopt best practices?
    Senator Ernst. Absolutely, and if there are ways that we 
can support it, we certainly want to do that.
    Thank you, gentlemen, very much for being here today.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, to our witnesses, for being here today.
    So, the Defense Department spends hundreds of billions of 
taxpayer dollars every year on goods and services provided by 
contractors. Federal workplace safety inspectors have found 
that some companies, including Navy shipbuilding contractors, 
have endangered their workers, resulting in deaths, extensive 
burns, and other serious injuries, and they keep right on 
getting massive government contracts. We have plenty of laws 
requiring these Federal contractors to operate more safely, but 
all the laws on the books won't do any good unless there's 
serious enforcement.
    So, Secretary Spencer, I appreciate your willingness to 
work with me to ensure that American workers employed by the 
Navy can work in safe conditions. Can you briefly describe the 
efforts that you've directed the Navy to undertake to improve 
contractors' compliance with worker protection laws?
    Secretary Spencer. Thank you, Senator. When I first 
testified to take this position, I think you and I had this 
conversation.
    Senator Warren. Yes, we did.
    Secretary Spencer. I promised you that we would take 
action. What we have done--this really is a whole-of-government 
solution, and I'm certainly not taking the responsibility off 
the back of the Navy whatsoever, but OSHA is in here, front and 
center. They, like many organizations, have their constraints, 
both fiscally and manpower--does not alleviate the fact the 
situation is being focused upon. We have spoken to those that 
we are contracting with that have violations and said, one, we 
will not tolerate this on our next--if, in fact, there is a 
breach from normal safety manners to cause accident and/or a 
detriment to the workers, we have the ability, through funds, 
to correct behavior.
    Senator Warren. Okay. So, I'm glad you've started with them 
in a conversation, but I think we're going to have to be 
systematic about this in order to make sure that they keep 
everyone safe.
    Let me ask you about some examples. To comply with Federal 
rules, Navy contractors must have a safety officer onsite to 
identify dangerous conditions and enforce occupational safety 
standards. But, the person could be anyone, from a trained and 
certified professional to the most junior person hanging out at 
the site. So, when the Navy signs a contract, the contracting 
officer can designate a list of key personnel. These are 
specific skilled or technical individuals who are identified as 
being critical to the success of the work.
    Secretary Spencer, for contracts that meet a threshold of 
cost or complexity, do you think that the Navy should consider 
designating the safety officer as key personnel?
    Secretary Spencer. Yes.
    Senator Warren. Good. I like that. And are--the contractors 
need to know that the Navy expects them to protect their 
workers if they're going to get taxpayer dollars. Last year, 
the NDAA required the Government Accountability Office to study 
DOD's procedures for evaluating workplace safety records for 
the contractors. But, we don't have to wait for a GAO report. 
We can start now. I appreciate your help on this.
    Secretary Spencer. Most definitely.
    Senator Warren. Good. So, let me ask about another area.
    The Trump administration recently released National Defense 
Strategy says that, quote, ``Long-term strategic competitions 
with China and Russia are the principal priorities for the 
Department of Defense.'' The strategy stresses the need to 
invest in advanced capabilities for a high-end fight. The Navy 
has a number of ambitious technological goals in the coming 
years, from unmanned autonomous systems to electronic warfare 
to nanotechnology. Today, a lot of this cutting-edge technology 
is not developed within the Pentagon, it comes from the 
commercial sector or laboratories at our colleges and 
universities.
    So, Secretary Spencer, how does the Navy intend to 
capitalize on commercial and academic developments in advanced 
technology? Can you just say a brief word about what steps 
you're taking to make sure that the Navy is closely tied to 
outside innovators?
    Secretary Spencer. Senator, it's a--it warms my heart to 
answer this question, because we do have a tall task in front 
of us. One of the things we're doing right now, just to start 
at the top, is, we are binning our science and technology 
investments to align with the National Defense Strategy, the 
ten buckets that Mike Griffin is helping us identify and bin. 
It is imperative that we do not only our work internally within 
the Office of Naval Research, but it is imperative that we 
reach out into the--our private-sector community. As you know 
up in Massachusetts, between Lincoln Labs and other efforts we 
have up there, Woods Hole, we have some amazing research going 
on outside the organization.
    One of the things that I have taken on at the turn of the 
year was a crown jewel, Senators, that we have in the Navy, 
which is the Naval Postgraduate School. It is a research-
oriented educational institutional. We are now supercharging it 
to put it into its next orbit. We had conversations with the 
likes of Eric Schmidt and some others from the Innovation Board 
and said, ``We continue to try to have a relationship with you 
and drive up and say, What can we buy? What we can we do 
together?'' The thesis that I had was, what better way to 
create a relationship than to research--basic, relevant 
research, where we can get two organizations working together 
on a solution? If, in fact, they commercialize that solution, 
we'll take a licensing agreement and provide some value to us 
and value to them, and then we can take that intellectual 
property and apply it within the DOD. The Naval Postgraduate 
School will be the center of excellence for this for, not only 
the Navy and the DOD, but, we hope, all of government.
    Senator Warren. Good. I'm very glad to hear this, Secretary 
Spencer. You know, the Navy needs to stay closely integrated 
with our innovators, whether they're in government or out of 
government. I'm glad to see you take this approach.
    Secretary Spencer. Actually, the conversation I had just 
last week, Senator, was with Bob Millard at MIT, who----
    Senator Warren. Yeah.
    Mr. Spencer.--welcomes this and looks forward to doing what 
he can do with the Naval Postgraduate School.
    Senator Warren. Good. Well, let us know how we can help.
    Thank you.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Graham.
    Senator Graham. Thank you.
    Thank you all for your service.
    That was a good discussion about the high-end fight. I want 
to get down to the trenches on how we protect this Nation from 
radical Islam.
    To the American people, you may be tired of fighting these 
people, but they're not tired of fighting you. You can build a 
wall on the southern border, but that's not going to protect 
you from Mid-East threats. If some of us are not over there 
working with our partners, they're going to come here again.
    So, that's my general theme. If you want to be safe against 
radical Islam, you need to be in their backyard so they're not 
in our backyard. Does that make sense to the Marine Corps?
    General Neller. We don't want to play any home games, 
Senator.
    Senator Graham. Great answer.
    What about the Navy? Just say, ``I agree with the 
Marines.''
    Admiral Richardson. I agree with the Marines, sir.
    [Laughter.]
    Senator Graham. Never thought I'd hear the Navy say that.
    [Laughter.]
    General Neller. I think that----
    Senator Graham. Okay. So, this is a----
    General Neller.--goes without saying----
    Senator Graham.--breakthrough moment.
    General Neller.--doesn't it?
    Admiral Richardson. There's no daylight between us. No 
daylight between us.
    Senator Graham. He objects.
    So, let's talk about what that means. Do you support a 
residual force in Iraq to make sure ISIS [Islamic State in Iraq 
and Syria] never comes back if the Iraqis would agree to that 
force?
    General?
    General Neller. If the Iraqis were to ask us to stay, it 
would be my opinion that that would be a good decision for us.
    Senator Graham. Thank you.
    Syria. We have 2200 people in eastern Syria, working with 
the Syrian Democratic Forces to make sure ISIS is destroyed. Is 
that correct, General?
    General Neller. The mission of that force is to defeat 
ISIS.
    Senator Graham. Right. About 250 marines. Is that correct?
    General Neller. I'd rather not get in the exact number of 
marines.
    Senator Graham. That's all right. Some marines.
    General Neller. There are some marines there, yes, sir.
    Senator Graham. Okay. So, here's my question. To hold the 
territory, there has to be a holding force, or they'll come 
back.
    General Neller. If there's a vacuum, then they will move 
into it, yes.
    Senator Graham. I like partners helping us hold. Do you 
believe it would be smart for America to be part of that 
holding force?
    General Neller. In order to get to some sort of a political 
settlement at Geneva or elsewhere, there--we have to have 
stability, and if the decision were made that our partners were 
to come in there, I think our present--we cannot create a 
vacuum, because it'll be filled by somebody that we don't want.
    Senator Graham. Right.
    General Neller. And so, I think that that would be part of 
the negotiation as to who would be in there. But, I agree with 
you, there has to be stability. Someone's got to be there.
    Senator Graham. Right. So, as to that ``someone,'' would 
you agree that we have capabilities no army in the region has, 
and that we add some value that probably can't be replaced by 
somebody else?
    General Neller. I would agree with that.
    Senator Graham. Okay.
    Secretary Spencer, on 12 June 2017, Secretary Mattis said, 
``No enemy in the field has done more to harm the combat 
readiness of our military than sequestration.'' Do you agree 
with that?
    Secretary Spencer. I do.
    Senator Graham. Would you tell every member of this 
committee, without hesitation, ``Don't put me back into 
sequestration''?
    Secretary Spencer. Don't put me back in sequestration.
    Senator Graham. There you go. Y'all are really good.
    [Laughter.]
    Senator Graham. I think it's the single biggest mistake 
I've seen since I've been here. That's saying a lot, given 
Congress's record for the last 20 years.
    Navy. Do you agree that a bigger Navy provides more 
deterrence, Admiral?
    Admiral Richardson. I do, sir.
    Senator Graham. Have you ever seen a time when we need more 
deterrence than now?
    Admiral Richardson. It's as complex as it's been in my 
career.
    Senator Graham. So, as a matter of fact, the threats have 
gone up since sequestration, not down. Is that fair to say?
    Admiral Richardson. Absolutely.
    Senator Graham. So, as we cut our force, the threats did 
not reduce proportionally, did they?
    Admiral Richardson. The assumptions of the security 
environment didn't pertain. It got more complex, not less.
    Senator Graham. So, as we were trying to deal with the 
chemical weapons attack in Syria, I think a more than a handful 
of ships were sent to the region to provide that capability and 
deterrence. Is that correct?
    Admiral Richardson. Yes, sir.
    Senator Graham. So, a bigger Navy means that you'll have 
more ships in more places, which will hopefully make some of 
our adversaries think twice. Is that a fair statement?
    Admiral Richardson. That's a very fair statement.
    Senator Graham. So, you think 355 ships in 2030 gets the 
job done?
    Admiral Richardson. That's the best estimate we've got 
right now. In light of the National Defense Strategy, we're 
going to reassess those numbers in the context of great-power 
competition and the other threats that face us.
    Senator Graham. So, final question. A bigger Navy and a 
bigger Marine Corps provides more deterrence, more capability. 
Don't you think it also improves the quality of life for those 
who serve, because they don't have to be gone so much and 
they'll have more help?
    Admiral Richardson. Absolutely. You get that rotational 
math going, and you get more time to recover.
    Senator Graham. Do you agree with that, General?
    General Neller. We would like to get back to a three-to-
one, because it's better for the preparation, the training of 
the force, and it's better for our families.
    Senator Graham. Well, I think the Department of the Navy 
should be proud of what it's done. And you're the best in the 
business. And, pound for pound, the Marine Corps is the best on 
the planet.
    So, thank you all.
    Senator Inhofe. Thank you, Senator Graham.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today, as always.
    I'd like to take an opportunity to follow up on Senator 
Cotton's questions regarding the LCS. I think I agree with 
Senator Cotton that those ships need to be out to sea, they 
need to be deployed. I certainly understand that this may be a 
reset year, as described by Admiral Richardson, in terms of 
that deployment. But, I would follow up to say that shipyards 
don't get a reset year, as you may have with deployment. 
Today's Navy's acquisition strategy certainly underpins the 
ability to deploy for many years in the future.
    Secretary Spencer, earlier this week, I joined my 
colleagues, Senators Baldwin, Stabenow, and Johnson, as well as 
a number of House members from Michigan and Wisconsin, 
including Speaker Ryan, in sending you a letter on acquisition 
strategy for the littoral combat ship in fiscal years 2018 and 
2019. We're all concerned that, under the current acquisition 
strategy, the Navy may be missing out on a variant that 
provides the best value when accounting for differences in 
capabilities, service life, and total lifestyle cost. Given the 
transition from LCS to the competition for a new frigate, the 
decisions that are made today will impact the shipbuilding 
industrial base for years to come, as well as impact the Navy's 
ability to grow to the fleet size that it needs in an 
affordable and timely way. I know the Navy has used an 
alternating contracting strategy for LCS, awarding two ships to 
one shipyard and then one ship to the other in alternating 
years, which the shipyards have optimized for. But, my question 
to you, Mr. Secretary, as I look forward to your response, 
certainly, to the letter, but, in the meantime, could you 
please provide an update on LCS acquisition strategy? 
Specifically, will the Navy award two Freedom variant LCSs 
across the fiscal years 2018 and 2019?
    Secretary Spencer. Senator, I've said this before, and I 
just want to highlight it, one of the jobs, and one of my 
responsibilities wearing the title 10 hat, is to care and 
beware and nurture, when necessary, the industrial base. I want 
to make sure that everybody in here knows that that does not 
mean it's a welfare situation and that our pocketbook is open 
just to be open. It is not. We will use the contracts that we 
have in the most meaningful manner to keep everybody healthy 
within the bounds that we can. And we are portfolio managers. 
There is a lot of demands, obviously, on our resources, and we 
have to manage a full portfolio of acquisitions.
    That being said, Senator, we will provide you the letter.
    [The information referred to follows:]
      

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
      
    Secretary Spencer. The overview is that there will be the 
ability for the Secretary to be involved in the allocation of 
the ships and the awarding of the ships. As you know, when it 
comes to Wisconsin, the Saudi award is up there. One of the 
other levers that we'd like to see what we could do is see how 
do we pull that to the left, how do we manage the industrial 
base with all the tools available to us in light of the awards 
that we have? But, rest assured that the health of all the 
organizations involved in supplying goods and services to the 
Navy are being taken care of and analyzed.
    Senator Peters. Thank you, Mr. Secretary, I appreciate 
that.
    General Neller, as you are well aware, the future of 
warfare will be changing dramatically. We've had the--those 
discussions on many occasions, as I've had with the other two 
gentlemen here. But, as we bring in new technology, whether 
it's autonomous vehicles or AI [Artificial Intelligence] 
systems, you need to make sure that you can actually deploy 
those, and that the men and women who are out in the field are 
able to integrate that into doctrine and tactics.
    I was taken by an article that recently came out that 
showed the Marines are giving quadcopters to every squad, that 
are actually integrating that technology into the field as we 
speak. Could you speak to that and the importance of it and how 
we need to continue to be looking at integrating this 
technology in our units every day?
    General Neller. Senator, thanks for the question.
    That's a fact, that we are going to deploy, whether we make 
them ourselves in our own fab labs or we procure them, that 
every rifle squad is going to have this ability to fly a 
quadcopter in front of them so that they can get a better 
appreciation of what lays in front of them. But, it's not just 
that. It is all the things that you mentioned, whether it be 
autonomy, robotics. I think we're still trying to figure out 
what AI can do, as far as the analysis of big information, 
making decisions, the future of biomedicine, things like that.
    So, the way we're doing it--and I think the other 
services--certainly my shipmate, Admiral Richardson's folks are 
the same--where you take an exercise that we're going to do, 
and we'll take some technologies, and we'll apply them in that 
exercise so we don't have to create another event. And we'll 
use the exercise as an experiment. And whether it be autonomous 
ships or undersea vehicles or swarming drones under the water 
to find mines or to find pathways or to destroy mines, unmanned 
aircraft provide radio relay or electronic warfare, or to give 
you better ISR, all those things are doing on. What we're 
trying to do is, we realize that we need it to go faster.
    As was mentioned about the development of technology in the 
commercial world, we all have officers out in Silicon Valley. 
They maintain contacts through an office called DOAX. There's 
also one in Boston and Austin that was developed by the 
previous administration, Secretary Carter. So, we're out there 
kind of doing reconnaissance of what's out there so that we 
know what's happening. We look at these different technologies 
and we take a chance and play with them. We make a bunch of 
small bets, and then, if anything works and we let the Marines 
look at it, and they say, ``Yeah, this is good,'' or, ``This is 
not,'' and then we'll try to figure out how we're going to put 
some money down on it and further develop it.
    Senator Peters. Thank you, General, appreciate it.
    Senator Inhofe. Thank you, Senator Peters.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Good to see you, gentlemen. Thank you very much. I really--
very much appreciate your fine leadership, as demonstrated by 
your decades of service to your country and by your testimony 
today. I think it's been outstanding and direct.
    I want to get back to this topic of the National Defense 
Strategy and the return to great-power competition, which means 
countries like Russia, China, North Korea--not that they're a 
great power, but that kind of battle. As you know, gentlemen, 
through history, that also means, particularly when you're 
looking at that part of the world or those countries, that 
means cold weather, that means mountainous terrain, that means 
large-scale maneuver in high-end fights. The last time we did 
that as a country was in the Korean War. I know all of you have 
read T.R. Fehrenback's ``This Kind of War,'' but, as you know, 
that didn't go so well initially in that fight, because we 
weren't ready.
    So, a couple of questions that relates to getting back to 
that. You may have seen, in the Arctic Strategy that was 
required by this committee, Secretary Mattis stated that, ``The 
Arctic is key strategic terrain. Russia is taking aggressive 
steps to increase its presence there. I will prioritize 
development of an integrated strategy and training for the 
Arctic.''
    Two questions. General Neller, I was glad to see that the 
Marines had just taken part--I think several hundred marines--
in Arctic Edge 2018, up in Alaska. I would welcome your 
thoughts on more cold-weather training, more large-scale 
maneuver training, lessons learned, perhaps, from your Alaska 
training, more opportunities for training in cold-weather 
places, like Alaska, which has enormous ranges, as you know.
    Mr. Secretary--Secretary Spencer, I would like to get your 
views, just on--you know, the NDAA last year required the DOD 
and DHS to look at the strategic Arctic port idea. The Arctic 
Strategy talks about FONOPS [Freedom of Navigation Operations] 
in the Arctic, which Admiral Richardson has mentioned. It's a 
good idea, but right now we don't have the capacity or 
capability. So, your thoughts, actually, both of you gentlemen, 
you know, on the 355-ship Navy, the idea of ice hardening. I 
mean, what are we doing, in terms of a strategy? A high-end, 
great-power competition fight could be in the Arctic, certainly 
could be cold-weather mountain training, large-scale, high-
intensity. What are the Marines and Navy doing? Basically, 
focused on those questions, maybe, General Neller, if we can 
start with you, sir.
    General Neller. Well, Senator, you know that we've gotten 
back into the cold-weather business. When Soviet Union was the 
only pacing threat, we were at a mission in Norway as part of 
the defense, the NATO mission. And whether it be at the end of 
Desert Shield, Desert Storm, and the dismemberment of the 
Soviet Union, and then operations in Iraq and Afghanistan, you 
know, we just kind of went away with it. We still sent units up 
there, because going to cold weather is a good training--is a 
good discipline-builder. But, the skillsets, the equipment, and 
the expertise atrophy.
    General Neller.--to lead to more than small units. And so, 
we realized we needed to get back into it. So, part of it was 
what we did up there on Arctic Edge. We've had engineers, as 
you know, up there, working on a road project. We've got 300 
marines in Norway. We're waiting for the Norwegian Government 
to potentially give us the opportunity to send more there to 
work with our NATO partners, because it's an opportunity to 
learn from them, because they really do understand how to 
operate and move large formations.
    There will be a large exercise in--NATO exercise this fall, 
called Trident Juncture, which will be a big amphibious 
exercise, where the Navy--many navies will be there, operating 
in a cold environment, for all the reasons you say. We can't 
assume that we're going to fight in a desert. It's not going to 
be a temperate climate. It could be in the Arctic. It could be 
in the northern edges of any portal latitude or longitude of 
the world.
    And so, we're working hard on that. The whole force is not 
going to be able to get trained in that. We need--just need 
enough people who know what they're doing so, if we get there, 
particularly the maneuver forces are able to function in--
effectively in that type of an environment. But--we're a work 
in progress, but we're headed in the right direction.
    Senator Sullivan. You see more opportunities for training 
in Alaska?
    General Neller. You know, I've been up there with--at your 
invitation, in Alaska. We send our aircraft up there, because, 
at Eielson Air Force Base, the range up there is three times 
the size of the range at Nellis. It's a great place for our 
partners to go. But, I do think we're going to try to do our 
very, very best to get certainly more deployments for training 
up to Alaska to take advantage of the terrain and the climate.
    Senator Sullivan. Thank you.
    Mr. Secretary?
    Secretary Spencer. Senator, you and I have spoken about 
what Alaska has to offer. Suffice it to say that I'm a bull in 
that regard. You have infrastructure up there, you have the 
ranges up there. And we have the ability, as the Commandant 
just said, to access that. And we look forward to seeing how we 
can maximize that, going forward.
    When it comes to the Navy and the Arctic--how we're 
handling the Arctic--as you know, in 2014, we had our Arctic 
Roadmap. And now you will see, this summer, we will deliver the 
Navy's Arctic Strategy. In October of last year, one of my 
first trips, OCONUS [Outside the contiguous United States], was 
to go to the Arctic Conference in Reykjavik. And before that, I 
stopped off with our terrific allies in Norway who are just 
doing yeoman's work monitoring the gap. But, they opened my 
eyes as to what's going on in the Arctic. I had read about it, 
but, when you see what's going on there, what Russia is doing, 
repaving 12,000-foot runways, 10,000 spetznaz up there in 
Barracks four, search and rescue, we need to have presence up 
there.
    The complication, as you well know, because we've talked 
about this, is--icebreaking is one of the complications. It's 
not a mission of the Navy. We are working hand in hand with the 
Coast Guard. In fact, we have just finished helping them design 
in requirements for the next class of icebreaker. But, that is 
their mission.
    That being said, we do not have ice-hardened ships. There 
is a new terminology up there, called the Blue Water Arctic, 
that there now is open blue waters up there. The CNO and I have 
talked about, How do we have presence up there? We're working 
on that. And when we see our strategy roll out, you will see 
more this summer.
    Senator Sullivan. Great. I appreciate it.
    Thank you, gentlemen.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Admiral Richardson and General Neller, General Milley told 
me, last week, that there were, quote, ``precisely zero reports 
of issues of cohesion, discipline, morale, and all sorts of 
things in the Army as a result of open transgender service.'' 
Are you aware of any issue of unit cohesion, disciplinary 
problems, or issues with morale resulting from open transgender 
service?
    Admiral Richardson. Senator, I'll go first on that. You 
know, by virtue of being a Navy sailor, we treat every one of 
those sailors, regardless, with dignity and respect that is 
warranted by wearing the uniform of the United States Navy. By 
virtue of that approach, I am not aware of any issues.
    Senator Gillibrand. General Neller?
    General Neller. Senator, by reporting, those marines that 
have come forward--there's 27 marines that have identified as 
transgender, one sailor serving--I am not aware of any issues 
in those areas. The only issues I have heard of is, in some 
cases, because of the medical requirements of some of these 
individuals, that there is a burden on the commands to handle 
all their medical stuff. But, discipline, cohesion of the 
force, no.
    Senator Gillibrand. Can you amplify what burdens on the 
command are related to medical issues?
    General Neller. Some of these individuals--and, you know, 
they've resolved whatever it was that--as they went through the 
process of identifying other than their birth sex, and so 
they're going forward. And I think those that came forward, we 
have a--we have to honor the fact that they came out and they 
trusted us to say that, and that we need to make sure that we 
help them get through that process. Some of them are in a 
different place than others. And so, there is--part of it's an 
education, but part of it is that there are some medical things 
that have to be involved as they go through the process of 
transitioning and real-life experience and whatever their level 
of dysphoria is. So, for commanders, some of them have said, 
``No, it's not a problem at all.'' Others have said that there 
is a lot of time where this individual is--may or may not be 
available.
    We're all about readiness, we're looking for deployability. 
But, in the areas that you talked about, no, I have not--I have 
not heard of or have reported to me any issues.
    Senator Gillibrand. Have you had the opportunity, General 
Neller, to meet with any of your transgender troops?
    General Neller. Yes.
    Senator Gillibrand. What did you learn from those meetings?
    General Neller. I learned that--I learned a lot about the 
experience that they had. I learned that--I met with four--
actually, one was a naval officer, one was an Army staff 
sergeant, one was a marine officer, and one was a Navy 
corpsman--and I learned about their desire to serve. I learned 
about, you know, where their recognition of their 
identification opposite their birth sex. We had a very candid, 
frank conversation. I respect--as CNO [Chief of Naval 
Operations] said--respect their desire to serve. All of them, 
to the best of my knowledge, were ready and prepared to deploy, 
and they-- as long as they can meet the standard of what their 
particular occupation was, then I think we'll move forward.
    Senator Gillibrand. Thank you, General Neller.
    Admiral Richardson, what are you doing to ensure readiness 
at the personnel and unit level, in light of this new policy 
that's come forward from the White House, in terms of a new 
burden placed on transgender sailors and marines?
    Admiral Richardson. Ma'am, I will tell you that we're--it's 
steady as she goes. We have a worldwide deployable Navy. All of 
our sailors, or the vast, vast majority of our sailors, are 
worldwide deployable. We're taking lessons from when we 
integrated women into the submarine force. And one of the 
pillars of that was to make sure that there were really no 
differences highlighted in our approach to training those 
sailors. That program has gone very well. And so, maintaining 
that level playing field of a standards-based approach seems to 
be the key to--a key to success, and that's the approach we're 
taking.
    Senator Gillibrand. Thank you, Admiral.
    You and I had a long conversation about military justice. 
We talked about some of the sexual harassment and assault 
issues that are within the Navy. We had a issue with regard to 
``Bad Santa,'' as you know, where your public affairs officer 
was allowed to stay in his position for several months despite 
his clearly inappropriate behavior. Do you have a sense of what 
message members serving under you received from him being 
allowed to stay in that position? Have you changed your 
approach because of that incident?
    Admiral Richardson. The beginning of that approach was 
really defined by making sure that we got a thorough 
investigation into a complicated scenario there with 
allegations and counter-allegations. So, that--the 
investigation took some of the time.
    Having said all that, I've become acutely aware that that 
may have sent a bad message, particularly to the survivors of 
the behavior. And so, that--you know, my radar has been 
completely retuned, in terms of sensitivity to that message. I 
hope that we've arrived at a good place at the end of the--at 
the end of this event. It took longer, in hindsight, than it 
should have. If I was going to do it again, I would move 
faster.
    Senator Gillibrand. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    Thank you, to the panel. Thank you all for your service to 
the country.
    Secretary Spencer, good to see you again. I'm sure that 
you're fully aware of the Navy Working Capital Fund created 
back in 1949. These working capital funds insulate the military 
services from Government shutdowns, labor strikes, and other 
destructions. They ensure many of our Government-owned repair 
depots and facilities can stay operational and keep our most 
highly skilled workers employed when Navy requirements for 
similar work slows down.
    We have some of the greatest capabilities in and around 
Charleston. SPAWAR [Space & Naval War Systems Command], to be 
specific. The capitals--their capabilities are pretty powerful. 
My question is: As you look at the restrictions on the work 
that the SPAWAR and other facilities like that can do outside 
the scope of the Navy--I know that there were some restrictions 
placed on how those resources can be used--do you see any 
restrictions being lifted? Because, as I think through the 
process of finding the talent that we see at SPAWAR, it's 
really difficult to replace that talent if we don't use and 
maximize their potential outside the scope of the Navy.
    Secretary Spencer. Senator, that's a question that is front 
and center when it comes to our human resources allocation and 
what we're going to do to keep people. Obviously, whether a 
pilot, you want to give them flight hours; whether an IT 
technician, you want to give them challenges, you want to 
provide work; whether SPAWAR is doing exploratory work, you 
want to keep them engaged, because that's the quality of life, 
that's what they're there for. We are working right now at any 
way possible to make sure that we're at 100 percent capacity 
for the people, to give them the desire to stay and have a 
career in the Navy.
    Senator Scott. Does that suggest that looking for work in 
other service branches outside of the Navy is something that's 
on the table?
    Secretary Spencer. If, in fact, we have the bandwidth, yes.
    Senator Scott. Okay.
    I understand that Russia is building several new classes of 
submarines. Are you concerned that Russia may develop an 
advantage in this area?
    Secretary Spencer. Always concerned, Senator. If you look 
at the era that we're entering now with the power competition, 
they did not put down their research pens and pencils over the 
past 20 years. They have launched a new submarine that I can 
safely say is closing the gap on some of our technologies. But, 
we are hard at work, also, to make sure that gap does not close 
and that the rate of the gap does not increase.
    Senator Scott. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    General Neller, I share Senator Reed's concerns regarding 
what you are doing to address sexual harassment and assaults in 
the Marines, and the importance of staying the course. So, 
thank you for what you're doing. Keep doing it. And, of course, 
the concern regarding sexual harassment extends to the other 
services and--as brought out by Senator Gillibrand.
    I have a question for Secretary Spencer. The Navy has laid 
out an ambitious plan to spend $21 billion over 20 years to 
modernize our public shipyards, which I applaud, because, as 
you know, Hawaii has one of these public shipyards. But, I am 
concerned that, as we talk about shipbuilding and service-life 
extensions to get to the 355-ship Navy, we might lose focus on 
maintenance capacity and capability. What is the impact on the 
shipyard modernization plan now that the Navy is pursuing 
service-life extensions of five attack submarines? Will the 
modernization timeline be sufficient to meet this new demand in 
addition to other work already programmed and still meet the 
biggest challenge of being ready to handle the Virginia payload 
module-equipped ships in the future?
    Secretary Spencer. Senator, the maintenance equation in the 
three pipes that I talked about--platform, people, and 
maintenance--is front and center. Just last week--we have a 
terrific repository of institutional knowledge in a fellow by 
the name of Ev Pyatt, who worked under the Reagan 
administration in building and maintaining the Navy's growth 
during that period of time. He has been charged by me to go 
look specifically at the present state of shipyard maintenance 
and what is needed going forward with our projected plan to 
grow the fleet and maintain the fleet.
    Right now, as we look at the steady-state, as the report 
said, we can accommodate what we have now. As we grow, we're 
going to obviously need to not only fix--and when I say 
``fix,'' that means improve the flow through our existing 
yards--and also enhance the processes available to our existing 
yards. We're going down to speak to--it's fascinating--speak to 
some of our civilian counterparts to talk about flow control. 
That's the key thing when it comes to maintenance through 
yards.
    Senator Hirono. Well, I'd like to have your commitment that 
we will continue to focus on the need to modernize and increase 
the capacity and capability of our people at the shipyards, 
because they are all ready and eager to go, but they need the 
tools in which to proceed. I'd also like to point out that the 
Pearl Harbor Navy Shipyard has a special challenge, in that a 
huge percentage of that shipyard is historically preserved. So, 
you know, it takes more to get the kind of modernization 
infrastructure changes that we need to do at Pearl Harbor----
    Secretary Spencer. Senator, I will put a footnote on there 
that we are going to have to come back to you all about 
historical preservation, because historical preservation and 
industrial modernization do not go hand in hand.
    Senator Hirono. Often there is----
    Secretary Spencer. Yes.
    Senator Hirono.--big tension there. I am well aware. So, I 
want to work with you to figure out how we can make sure that 
our shipyard in Hawaii gets what they need also.
    Admiral Richardson, in your written testimony, you 
mentioned that the Navy was able to arrest the decline in 
readiness with the request for additional appropriations, RAA 
in 2017, while using 2018 and 2019 funding to further restore 
readiness. How long will it take to get fleet readiness to an 
acceptable level that we are able to sustain?
    Admiral Richardson. Ma'am, thanks. A lot of that's going to 
depend on the continuation of stable and adequate funding and, 
you know, the passing of budgets on time. The most toxic thing 
to readiness has been continuing resolutions and the Budget 
Control Act. And so, you know----
    Senator Hirono. Assuming that we give you adequate funding 
and it's not a start-and-stop every 3 months of CRs [continuing 
resolutions]----
    Admiral Richardson. Yes, ma'am.
    Senator Hirono.--how long will it take?
    Admiral Richardson. We see--you know, it took some time, a 
decade, to get into this. We anticipate in getting out of this 
in about half of that time. And so, I look to the early 2020s--
2021 and 2022--to start getting back to that level of 
readiness.
    Senator Hirono. Totally dependent on the steadiness of our 
funding.
    Admiral Richardson. One-hundred percent----
    Senator Hirono. Understand.
    Admiral Richardson.--dependent on that, ma'am.
    Senator Hirono. Secretary Spencer, you noted in your 
written testimony that the Department has taken risks by 
underfunding infrastructure investment in installation 
operations over the last decade. I'm pleased to see the budget 
request includes the largest request for MILCON [Military 
Construction] in quite some time. Besides the public shipyard 
plan, how long and how much MILCON funding will be required to 
dig out of the hole we have in infrastructure and 
installations? And again, let's assume steady funding.
    Secretary Spencer. Yes. Underscoring, again, steady 
funding. Right now, Senator, we're going to--I think that that 
what--the number is, we're coming up to funding 80 percent of 
our needs, which, to me, is an anathema, but I realize we are 
portfolio managers. Our infrastructure is a key component of 
readiness, and we have to address it in such. With the present 
line, you're probably looking at the same for readiness with 
the fleet, which is in the early '20s.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Hirono.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and for your service.
    General Neller, I had the pleasure of sitting next to Ms. 
Neller yesterday in a meeting with a few dozen military 
spouses. I tallied up the number of years that they have 
experience, about 467 years of experience in the room as 
military spouses, some as--in your case, as far as 40 years 
back. Can you tell me a little bit about your belief or 
agreement that making sure that we take care of the families 
and we take care of the issues of multiple deployments as 
having some effect on the readiness of the marine?
    General Neller. Well, Senator, first, thanks for taking the 
time to meet with our spouses. A lot of experience in the room, 
a lot of wisdom, a lot of PCS moves, a lot of overseas time, a 
lot of time without us being around. But, clearly, we all know, 
when we serve, that--or even in the corporate world--I think 
you recruit the individual, and then you've got to retain the 
family. The family's got to be onside with doing what they're 
doing, particularly this kind of a life. So, I don't think they 
expect everything, but they do have a certain expectation that 
there's going to be housing available and schools available, 
and they're going to be able to live their lives, and that 
those that wear the uniform are going to be around on occasion.
    If they have a profession--and the demographics has 
changed. When I came in, not that many, particularly of the 
officer spouses, worked. Now that's very different. And so, 
there's an expectation that they'll have an opportunity at 
least to compete for a job. Certain places where we are, you 
know, we're in a more rural area or more isolated area, finding 
that job, particularly if you have a profession, is difficult. 
And so, I don't think they expect special treatment. I think 
they just would appreciate, you know, recognition and some 
opportunity.
    Obviously, in a place like Washington, D.C., or in southern 
California, it's not anywhere near the issue as it is in some 
place like Camp Lejeune, North Carolina, or 29 Palms.
    So, we have to work to make sure that, not just the 
servicemember wants to stick around, but the family does, too. 
And so, that's part and parcel, whether it be facilities or 
recreational opportunities or schools or stuff for the 
children, mental health. Medical is a big deal. All those 
things go together as a whole package to try to retain the best 
and most capable members of our force.
    Senator Tillis. Well, we're working with the staff on some 
specific ideas that came out of the meeting yesterday, and that 
I've heard time and time again. But, I think that many--people 
need to understand that the unemployment rate among military 
spouses, depending upon which numbers you want to believe, is 
somewhere between 12 and 28 percent. National average is about 
4 percent. That's a problem. If you've got a marine worried 
about paying the bills and putting their kids through school, 
that's a problem. It's a distraction they don't need. So, we're 
going to work on that, but I think we're--we also need to 
gather better data so we can be directed. It's not only the 
professional positions, it's somebody that just wants a job. 
We've got to figure out a way to do it, make them more mobile, 
make it less costly and less disruption to them as they're 
deployed.
    In my remaining time, Mr. Secretary or Admiral, we tend to 
get caught up with numbers here, and we have a checklist. I 
know the magic number for the Navy is 355. I believe that we're 
going through a period of time now that I'm more worried about 
the capabilities that that current 355 number looks like than 
the number 355. So, as you move forward and you think about 
modernization over time, I'd be kind of curious to see how 
you're going to come back to us and say, ``Guys, the number is 
a little bit different, because we've got--we may have to have 
fewer or more, but we're going to a capability for the least 
amount of money spent, particularly because Congress is not 
particularly good at completing its mission, giving you 
certainty over funding.'' So, I'd like to get your thoughts on 
exactly how you're going to deal with that. Because you're not 
going to go to another hearing in the foreseeable future where 
people aren't going to be ticking off, ``Where are my ships 
going to be built, particularly if it's in my State? How am I 
getting to that 355 number?'' I want to really start changing 
our thinking on that so you're focused on capabilities and not 
hitting one number target.
    Admiral Richardson. Senator, that's a great question. I 
would tell you, as I think about it, it's about naval power. 
And naval power has a lot of components: capacity--you know, 
we--there is a big convergence of intellectual thought that 
says we do need a bigger Navy, right?--capacity, quantity has a 
quality all of its own. But, to your point, we also need a 
better Navy, right? We need a more capable Navy that 
incorporates new technologies, directed energy, high-power 
microwave, hypersonics, you know, and so forth, that make each 
one of those platforms more capable. Then, finally, we need to 
find a way to increase the power of that force by networking it 
together to allow it to adapt and reconfigure on the fly in the 
face of threats. So, there's much more to naval power than just 
number of ships.
    Senator Tillis. Thank you.
    Secretary Spencer. Senator, I'd just reverberate that. I 
mean, the whole goal is, whether in a F-22 in the air, 
targeting a target and pushing a button and the GMLRS rockets 
hit it, or the Tomahawk out of the submarine hits it, or the 
Standard Missile 6 off the DDG hits it, it's all going to be 
intertwined. That is the game-changer. So, it's power we're 
really focused on. Yes, we need a goal to increase the 
capacity, totally agree. But, we need to focus on the power, 
which is exactly what--we're going to use technology as a force 
multiplier.
    Senator Inhofe. Thank you, Senator Tillis.
    Senator Kaine.
    Senator Tillis, presiding.
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, to the witnesses, for your service and your 
testimony.
    General Neller, I was also at the event yesterday with 
Darcy, who is a great example, and the folks around the table 
were really, really sharp in offering us perspectives. I have 
two pieces of bipartisan legislation, the Military Spouse 
Employment Act of 2018 and the Jobs and Childcare for Military 
Families Act, that have been introduced with bipartisan 
colleagues on this committee, that we're hoping to add to the 
NDAA as we work in the coming weeks. But, I appreciate Ms. 
Neller's leadership in this area.
    I want to ask each of you sort of a budget question. I'm 
happy with the budget we passed, the fiscal year 2018 budget, 
in terms of support for investments to do the kinds of things 
you're talking about. But, there can always be a challenge. 
When the budget gets done 6 months into the fiscal year, and 
then the money comes at the end of the fiscal year, there's the 
question about whether you can spend the money and do it 
responsibly. So, we want to increase the investment. We also 
want to do it responsibly. We made that challenge harder by 
being so late. What are you doing to grapple with that issue?
    Secretary Spencer. I'll start at the top, Senator, and then 
defer to my two business partners, here.
    But, we have started the message, before the turn of the 
year, with the BSOs, in saying, ``We are going to hopefully 
have the pressure to put resources out in a very responsible 
manner, so get your teams lined up. At this point, large--let's 
start executing to 100 percent of where we were, which, at that 
point, was fiscal year 2017, and get the muscle movements 
correct.'' We now have the new dollars and cents, the curve is 
now working on the fiscal year 2018 curve. We have teams set 
up, and the arc now of de-obligating money down to a--much more 
of a science than we had before, to be very frank with you, and 
if, in fact, teams are saying, ``I don't think I can make my 
goal,'' we're going to come back to you--we're going to hit the 
BTR at 25 percent or we're going to come back to you for the 
reallocation. And we're having the other projects lined up so 
we can use as much of these funds as totally possible. That's 
the mindset everyone's working at in both services.
    Senator Kaine. Admiral Richardson and General Neller, you 
want to add to that?
    Admiral Richardson. Sir, I'll tell you, it's like that 
quote about real estate. For us, it's just--the three most 
important things are execution, execution, and execution. And 
we are monitoring that day by day to make sure that we are, 
one, you know, executing those funds; two, executing them on 
things that are going to deliver naval power; and the--three, 
executing them in a way that is auditable and transparent to 
you.
    Senator Kaine. General Neller?
    General Neller. Sadly, we're getting pretty good at this 
because we've gotten a lot of practice. Last fiscal year, we 
got the money late, and we had to spend a certain amount of 
money every day, and everybody kind of raised their game up. It 
would be nice, one year, to just get the money at the beginning 
of the year and have the whole year to spend it. I think we'd 
make better decisions. I think it would settle the force down. 
I think everybody would realize that, hey, we're going to get--
it's going to be there. I think our vendors would appreciate 
it.
    But, to answer your question, Senator, you know, we're pre-
stage, we're ready to go, we watch it every single day. At a 
certain point, if people can't spend it, then we'll move it to 
other people who have other things that are viable that we can 
put on contract. Contracting is kind of the long pole in the 
tent, just to write the contract in a proper way so that the 
money is spent properly. And we're not going to go out there 
and buy furniture and carpet. You know, we've got other really 
more important things to do.
    Senator Kaine. General Neller, I want to ask you just an 
example of this, because it affects readiness. I'm looking at 
your written testimony, how you're dealing with this challenge. 
Page 12, ``Our most acute readiness issues are in aviation 
units. A combination of aging aircraft, a lack of ready basic 
aircraft, an unresponsive supply of parts and spares, and 
maintenance backlogs at the depots contribute to high 
overutilization rates of available aircraft needed for training 
and certifications. This, in turn, hastens the induction of 
these aircraft into maintenance cycles. Lack of predictable and 
stable funding effects industry. Often, when funding becomes 
available late in the year through CRs, the industrial base is 
not energized to meet demand.'' Talk a little bit about how 
you're trying to grapple with this aviation issue in light of 
the budget that we just passed.
    General Neller. There are a number of things that we're 
trying to do, the most important of which is buy new aircraft 
and make sure that the aircraft we get are of sufficient 
quality that we can replace old aircraft and we don't have to 
spend money twice to buy new but, you're always in a legacy 
fleet, whether it's ground equipment or air equipment. So, 
first, buy new. Second, we've funded readiness in this budget 
at a much, much higher level than we ever have before, so we 
got more money for parts and spares. The flight-hour program is 
out there. Flight hours are up--not yet to where we want it to 
be. It's hard to say that you could ever fly too much. But, 
we've--part of our recent readiness issues, and some of the 
things that have happened is, we've got a whole, like, 5 or 6 
years of pilots who were--used to be, if they were senior 
captain and major, they are, like, 1,500 to 2,000 hours; now 
they've got under 1,000, because they haven't been flying 
enough. And so, we're trying to remedy that. And, just like CNO 
said, if we didn't--it didn't happen overnight to get to this 
point, it's not going to get fixed overnight.
    So, steady, consistent funding is what's going to allow 
suppliers out there to get us parts, because they're going to 
believe that the Government's going to be there, that they can 
keep their workforce, they can order the stuff that they need 
to build the parts, and then we can get it faster and get more 
airplanes and other equipment ready.
    Secretary Spencer. Senator, let me add something on there. 
One of the things that we've been working on, obviously, is a 
statement that I make that the best solution provider for a 
problem is the person looking at the problem. This bubbled up 
through the wings all the way up to our depot maintenance.
    We have a new pilot program underway, called Depot 
Readiness Initiative. What we were finding out was, in the case 
of a legacy plane, it goes up into depot, it's 1,000 man hours 
to take it apart and do the depot-level maintenance, while, 
back at the squadron, the calendar maintenance clock was still 
running. So, down the plane comes back to the squadron, and 
you've got to spend another 500 hours taking things apart and 
putting things back on to make sure that it's brought up to 
certification. Why not do that up at the----
    Senator Kaine. Right.
    Mr. Spencer.--depot-level maintenance? Sounds like a very 
simple thing to do, but there were funds that had to be 
arranged from different pools of money. We're trying this. The 
flow is increasing. We think this is something we're going to 
do. But, this is an example of how we're getting at it.
    Senator Kaine. Excellent. Thank you.
    I'm over my time. I appreciate it, Mr. Chair.
    Senator Tillis [presiding]. Senator Kaine, I also wanted to 
thank you for participating in the marine spouses meeting 
yesterday morning. Appreciate your focus on the issue.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to reiterate my thanks to all of the families. As 
the numbers of deployments have increased and the proportion of 
Americans involved directly in these wars over the last 15 
years has diminished, we've been fighting a longer period of 
time in our history than ever before, with a smaller part of 
the population, which exacts a heavy toll on our families. I 
appreciate your sensitivity to those issues. And we need to do 
more, and do better, to support them.
    Mr. Secretary, in last year's NDAA, I required, through an 
amendment that I offered, or the NDAA did, the Navy to submit a 
report on how the maintenance backlog will be addressed. I know 
there's been some discussion already this morning. The report, 
delivered in February, stated, quote, ``The Navy intends to 
execute all the workload programmed at the naval shipyards with 
no availabilities moving from public to the private sector.''
    In the House Armed Services Committee just last month, you 
stated and acknowledged that private yards have to be more 
involved with maintenance. It's a simple fact that there's more 
work than the public yards can be done. Is that still your 
view?
    Just for the record, let me state my view, that, with 
respect to submarine maintenance, the private yards are 
tremendously important, and use of them is vital, not only 
because there's more work than the public yards can do, but 
also because our defense industrial base, our workforce, needs 
to be retained and, in fact, enhanced because of the need to 
smooth the maintenance work and new work, and keep those people 
on the job. So, perhaps you'd care to comment.
    Secretary Spencer. I'd--I'm going to use your statement as 
my answer, Senator. Definitely, the way that we are looking at 
it is, we'll load the public yards to 100 percent, and then we 
have to look at elsewhere to relieve the pressure. This goes in 
concert with not only the efficiencies that we'll get by 
putting ships through the maintenance process on a flow-control 
basis, but this also addresses your concern, and mine also, 
which is the health of the industrial base.
    Senator Blumenthal. So, you would commit to shifting a 
number of near-term backlog maintenance availabilities to the 
private yards to help smooth out the workload.
    Secretary Spencer. If--yes. If, in fact, Senator, we have 
the workflow charts that we can actually work with to make sure 
that we're not overloading someone, yes. We're going to do it 
for efficiencies.
    Admiral Richardson. Yes, Senator. I think, in fact, we've 
already decided to do some of that, so our behavior is really 
the biggest indicator of where our thinking is. It's just a 
plain fact that we've got to work together to get this done.
    Senator Blumenthal. Well, I agree that actions speak louder 
than words, and I'm glad those actions are taking place.
    Secretary Spencer. The public yards--I mean, behind the 
private yards, Senator, are also very engaged in this.
    Senator Blumenthal. Let me ask you--General Neller and I 
spoke a little bit yesterday about the F-35. Could you give me 
your assessment, in terms of the Navy and the Marine Corps, 
about the capabilities of the F-35 and your commitment to 
continuing that program?
    Secretary Spencer. Senator, the F-35 is an amazing piece of 
gear in many fronts. In fact, I'll say all fronts, including 
the procurement side and the sustainment side. It's proving 
out, in the Marine Corps, to be what we've advertised it to--
what they advertised it to be. It's hitting the requirements. I 
would not be--I'd be remiss if I was to say that we don't have 
our challenges, as far as procurement price and sustainment, 
which we are working on tooth and nail right now, from the 
Deputy Secretary on down to the JPO [Joint Program Officer], 
Ms. Lord, and the service secretaries, Air Force and Navy.
    You saw our latest move that was made. We are going to be a 
responsible client, and we are not going to accept gear that is 
not of quality. We will work with the prime to make sure we 
come to a conclusion on how we're going to handle that. But, 
going forward, all parties are focused on, as I said earlier, 
not only the acquisition cost, but, almost more importantly, 
the sustainment costs.
    Senator Blumenthal. I think there's agreement among all of 
the contractors, from the prime to the subs, that driving down 
the cost is a priority. The war on cost----
    Secretary Spencer. Exactly.
    Senator Blumenthal.--as it's been called, is a common 
objective, here.
    Secretary Spencer. We are partners in that regard.
    Senator Blumenthal. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Tillis. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here with us.
    Secretary Spencer, I've had the privilege of having Admiral 
Richardson and General Neller at Naval Surface Warfare Center 
Crane. I am hopeful that you'll be able to come out, as well, 
and see the hard work of all those good people.
    Secretary Spencer. Most definitely. It's on the list, 
Senator.
    Senator Donnelly. Thank you very, very much.
    Additionally, Admiral Richardson and General Neller, I 
appreciate all the work you've done on addressing military 
suicide. You know that suicide risk, it often isn't tied to 
deployments or combat experiences. We can't be restricting our 
most rigorous mental health assessments just to the deployment 
cycle. You've been incredibly helpful in all of this and in 
implementing legislation. You told me, last year, that your 
services were on track for full implementation of the Sexton 
Act requirement for the annual mental health assessment by 
October of 2017. Can you confirm that you've reached that 
milestone? Were there any difficulties, or are there any other 
things that you feel we might be missing in this area on this 
end?
    Admiral Richardson. Sir, we've reached that milestone, last 
July, ahead of the October deadline. We've conducted close to 
100,000 of these types of assessments. I will tell you that it 
is a vexing problem. Last year was not a great year for us with 
respect to suicide in the Navy. It is not linked, all the time, 
to deployment cycles, as you say, or even deployment in any 
sense.
    We've also had some tremendous, stories, where 
servicemembers have seen their shipmate in trouble, have 
intervened, and have saved a life. I think that is where the 
center of gravity of our efforts are, is at that peer-to-peer 
level.
    Senator Donnelly. Pushing it down.
    Admiral Richardson. Exactly right, yes, sir. And so, those 
are the people that have the most sensitivity, the most 
awareness. I think that they are the most capable, in terms of 
stepping in, making feel--making that sailor feel like they're 
not alone, there's hope at the end of the tunnel, here, and 
shepherding them through that hard time.
    Secretary Spencer. Senator, as an example--and I'll throw 
out a vignette, because I think it's important--last Christmas 
holiday time, one of our sailors out at Joint Base Andrews was 
coming back from an engagement with a fellow airmen and noticed 
something was wrong. They checked into their rooms, and the 
sailor went back to knock on the door and prevented a suicide.
    Senator Donnelly. General, how is the Corps doing? Is there 
anything on our side here that we can do to be of help to you, 
sir?
    General Neller. With regard to suicides, like the Navy, we, 
despite our best efforts--I mean, your goal is none. We know 
we're never going to get to zero. The people that have issues, 
then we do the health assessment, that are willing to come out 
and say they have issues, then we get them help, and there's 
things that we can do. All too often, though, we find--I mean, 
in some cases, when someone is--does take their own life, you 
know, there was some knowledge--the command. In many cases, 
though, Senator, there's--it comes as a complete surprise, 
despite our best efforts to know our people, then get involved 
through force preservation, particularly the more senior. We've 
had a number of officers, some senior enlisted, and not 
everybody just kind of sits around and goes, ``I mean, I just 
talked to him or other the other day, and we can't explain 
it.''
    So, I think the Congress, and you particularly, have been 
very helpful. I think we have all the tools that we need. This 
is--you know, it's a mystery of life. I'm not going to blow it 
off. We're never going to stop trying to get to zero and make 
sure that people know that if they have an issue, there's no 
problem that can't be solved if you're willing to come forward 
and talk about it.
    But, it's kind of a steady-state. I'm not saying that's 
where we are, but I could show you the numbers, and it's been 
pretty consistent over the last few years.
    Senator Donnelly. Well, please let us know if there's 
anything else we can do here to be of assistance to you.
    I just want to mention quickly, Mr. Secretary, Admiral, 
yesterday the USS Indianapolis was launched. Our city is very 
proud of it. Our State is very proud of it, and it is going to 
be going into harm's way, and you have extraordinary 
crewmembers, an extraordinary group of people who are serving 
to make that successful.
    I just want to follow up on Senator King's discussion about 
opioids, very quickly, and the role the Coast Guard is playing 
and anything you can do to help. We lost 60,000 young people 
last year, 40,000 to opioids, another 20,000 on top of that to 
overall losses to drug abuse. And so, this product's coming in 
from Mexico. It's coming in through our shores, and at the end 
of the road on each of these is somebody who makes a tragic 
decision, where we lose the next nurse in Jennings County or 
the next teacher in Marion County or the next sailor or marine 
from Evansville. And so, anything you can do as you coordinate 
with the Coast Guard, as you work with them to help with this 
scourge, and anything you, as you look at--and do it in a very 
unvarnished way--anything you see that we can do better--
because, as I said, 60,000 this year, and next year's expected 
to be even more. It is an American tragedy and an American 
crisis.
    I want to thank you both for all your service. Mr. 
Secretary, also, you for your service. It is the highest honor, 
and we're really grateful to have you here.
    Thank you.
    Senator Tillis. Thank you, Senator Donnelly.
    Gentlemen, thank you for being here, for your service.
    This committee is adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
          strategic readiness review and comprehensive review
    1. Senator Wicker. Secretary Spencer, please provide an update on 
the status of implementing the recommendations contained in the SRR and 
CR to help prevent future collisions at-sea.
    Secretary Spencer. The Navy has identified readiness reform as a 
critical priority in the wake of the tragic USS Fitzgerald and USS John 
S. McCain collisions. In January 2018, the Navy established the 
Readiness Reform Oversight Council (RROC) to oversee implementation of 
CR/SRR recommendations as well as related recommendations from other 
sources (e.g., Government Accountability Office, Navy Inspector 
General).
    Chaired by the Vice Chief of Naval Operations and Undersecretary of 
the Navy, the RROC is currently addressing 111 recommendations. To 
date, 35 of 111 recommendations have been fully implemented with over 
70 percent expected to be implemented by the end of September 2018. 
Along with aggressively implementing the remaining recommendations, the 
Navy is simultaneously developing the tools and processes to ensure 
that implemented recommendations are effective. $38.3 million was 
appropriated for readiness reform in fiscal year 2018, $79.1 million 
requested for President's Budget 2019, and $601 million programmed for 
Surface Warfare readiness reform through the fiscal years 2019-2023 
FYDP. The RROC also seeks to expedite an additional $66 million of 
unfunded priorities during the Mid-Year Review.
    The status of a select few key actions taken to improve readiness 
across the fleet are described below.

    7th Fleet Operations--7th Fleet has adopted new scheduling and 
force generation processes that identify mismatches in force employment 
and force generation while protecting training/certification periods 
for ships. Naval Surface Group Western Pacific (NSGWP) has been 
established to oversee maintenance and training for surface ships 
assigned to Forward Deployed Naval Forces Japan.
    Command and Control--The Navy is undertaking a clean sheet review 
of the Administrative Chain of Command to optimize readiness, clarify 
C2 at all echelons and provide clear responsibility and accountability 
for force generation. As part of this initiative, 2nd fleet has been 
re-established to focus on warfighting and certification of deploying 
forces.
    Mitigating Risk of ``Can-Do Culture''--Multiple steps have been 
taken to properly manage supply and demand of operational forces to 
prevent overstressing individuals and units and avoid putting ship COs 
in a position to commit forces that do not meet full readiness 
standards. In addition to the above changes to C2 and operational 
scheduling practices, force-wide circadian rhythm implementation is 
underway to allow COs to better manage crew fatigue and properly 
mitigate operational risk.
    Manning--Navy manning policies now prioritize Japan based ships. 6 
of 11 Japan based Cruisers and Destroyers meet their manning targets 
with 10/11 expected by June 2018. New incentive policies have been 
enacted place to encourage sailors to select and extend in Japan-based 
billets. Manning statuses are reviewed monthly by Fleet Commanders to 
identify shortfalls.
    Surface Warfare Officer (SWO) Career Path--The SWO career path is 
being restructured to emphasize mastery of seamanship and navigation 
skills. First and second tour lengths for Junior officers have already 
been adjusted to maximize at sea experience while changes to Senior 
Officer tour lengths are under review. Proficiency assessment and 
tracking mechanisms are also under consideration by senior Navy 
leadership.
    SWO Training--Short and long term improvements are underway to 
expand training for bridge watch standers, emphasize higher-stress 
scenarios representative of high density shipping and extremis 
situations, and better utilize integrated simulator systems and yard 
patrol craft.
    Surface Force Navigation Equipment--Plans are ongoing to accelerate 
replacement of surface search RADAR, modernize bridge equipment and 
transition to next generation electronic navigation systems.
                               __________
               Questions Submitted by Senator Tom Cotton
             national maritime intelligence center facility
    2. Senator Cotton. Admiral Richardson, why was the Office of Naval 
Intelligence parking garage replacement--located on the National 
Maritime Intelligence Center facility--not included in your fiscal year 
2019 budget submission or the Future Years Defense Program?
    Admiral Richardson. First and foremost, the parking garage is safe 
for continued use. Project development is underway for the parking 
garage replacement project. The Navy intends to request funding in a 
future budget, not via the 10 U.S.C 2803 Emergency Construction 
authority as the estimated cost exceeds the $50 million statutory 
limit.
    The Navy uses a rigorous process for prioritizing construction 
projects that evaluates requirements based on support to global 
posture, basing decisions, Fleet readiness and corrections required for 
documented life, safety, and health deficiencies. The Navy considers 
more than $4 billion of valid requirements each year.
    As a result of multiple engineering studies, the Navy has completed 
$12 million of repairs to keep the garage safe and operational. To 
ensure the garage remains safe, the Navy conducts quarterly structural 
inspections.
    Although there are no plans to demolish the garage in 2021, we are 
developing the replacement project. As required by the National Capital 
Planning Commission, a traffic study and site master plan are ongoing 
and scheduled for completion by the end of 2019.
    Thank you for your continued support for the Navy and our maritime 
mission. I assure you we will continue to provide safe parking at NMIC, 
and look forward to continuing to work with the Congress regarding this 
issue.

    3. Senator Cotton. Admiral Richardson, what are you plans for 
replacing the critical parking infrastructure at this important 
intelligence facility, and what is the current state of those plans?
    Admiral Richardson. First and foremost, the parking garage is safe 
for continued use. Project development is underway for the parking 
garage replacement project. The Navy intends to request funding in a 
future budget, not via the 10 U.S.C 2803 Emergency Construction 
authority as the estimated cost exceeds the $50 million statutory 
limit.
    The Navy uses a rigorous process for prioritizing construction 
projects that evaluates requirements based on support to global 
posture, basing decisions, Fleet readiness and corrections required for 
documented life, safety, and health deficiencies. The Navy considers 
more than $4 billion of valid requirements each year.
    As a result of multiple engineering studies, the Navy has completed 
$12 million of repairs to keep the garage safe and operational. To 
ensure the garage remains safe, the Navy conducts quarterly structural 
inspections.
    Although there are no plans to demolish the garage in 2021, we are 
developing the replacement project. As required by the National Capital 
Planning Commission, a traffic study and site master plan are ongoing 
and scheduled for completion by the end of 2019.
    Thank you for your continued support for the Navy and our maritime 
mission. I assure you we will continue to provide safe parking at NMIC, 
and look forward to continuing to work with the Congress regarding this 
issue.

    4. Senator Cotton. Secretary Spencer and Admiral Richardson, what 
has the Navy done to acknowledge and act upon specific Fiscal Year 2017 
Appropriations language, urging the Department and Services to 
prioritize needed workplace replacement projects, including the NMIC 
parking structure, in fiscal year 2018 and future budget submissions?
    Secretary Spencer and Admiral Richardson. First and foremost, the 
parking garage is safe for continued use. Project development is 
underway for the parking garage replacement project. The Navy intends 
to request funding in a future budget, not via the 10 U.S.C 2803 
Emergency Construction authority as the estimated cost exceeds the $50 
million statutory limit.
    The Navy uses a rigorous process for prioritizing construction 
projects that evaluates requirements based on support to global 
posture, basing decisions, Fleet readiness and corrections required for 
documented life, safety, and health deficiencies. The Navy considers 
more than $4 billion of valid requirements each year.
    As a result of multiple engineering studies, the Navy has completed 
$12 million of repairs to keep the garage safe and operational. To 
ensure the garage remains safe, the Navy conducts quarterly structural 
inspections.
    Although there are no plans to demolish the garage in 2021, we are 
developing the replacement project. As required by the National Capital 
Planning Commission, a traffic study and site master plan are ongoing 
and scheduled for completion by the end of 2019.
    Thank you for your continued support for the Navy and our maritime 
mission. I assure you we will continue to provide safe parking at NMIC, 
and look forward to continuing to work with the Congress regarding this 
issue.
                               __________
              Questions Submitted by Senator Dan Sullivan
                              section 811
    5. Senator Sullivan. Secretary Spencer, as a result of the 
misrepresentation of section 811 of the Fiscal Year 2010 National 
Defense Authorization Act, any small business, Native 8(a) sole-source 
contract above $22 million has to be approved by the head of Agency, in 
the Navy's case the Secretary of the Navy. This is an onerous 
requirement based on transgressions that occurred seven years ago and 
it has led to valuable contractors being excluded from sole-source 
contracts; zero in 2014. Per your commitment to me during your 
nomination, you stated you would determine if you could delegate down 
the level of approval authority below the Secretary level to approve 
Native 8(a) small business contacts above $22 million. If you found 
that you legally could, you committed to sending a memo to your 
contract officers telling to not hesitate to bring you 8(a) contracts 
over $22 million. What progress have you made on these two issues?
    Secretary Spencer. I have signed a memo to Department of the Navy 
contracting activities reaffirming that section 6.302-5(a)(4) of the 
Federal Acquisition Regulation (FAR) provides the authority to enter 
into sole source awards under the 8(a) program, including those valued 
over $22 million. Those sole source awards exceeding that value must be 
justified in accordance with FAR 6.303, and approved in accordance with 
FAR 6.304 by a flag or general officer or a civilian serving in a 
position above GS-15 under the General Schedule. The authority to 
designate approval authorities for all Justification and Approvals that 
do not require the approval of the Navy Senior Procurement Executive is 
delegated to the Department of the Navy's Heads of Contracting Activity 
(HCAs). The memo states that HCAs must ensure that dollar approval 
thresholds in the regulations do not unduly influence a contracting 
officer's business decisions. These thresholds are not intended as 
barriers to executing contracts that reflect the best business 
decisions for the Department of the Navy. I have asked that HCAs 
streamline the approval process for these and other actions within 
their contracting activities, consistent with the exercise of sound 
business judgment.
                           aviation readiness
    6. Senator Sullivan. Secretary Spencer, General Neller and Admiral 
Richardson, following recent accident data, Military Times published 
online a database of records that outline the rise of aviation mishaps 
during the past five years. Listed in the Marine Corps Times article 
``Aviation in Trouble'' on April 16, 2018, reports show that the 
problem in the Navy and Marine Corps appear to be much more severe than 
those in the Air Force. What steps are being made to mitigate these 
deficiencies in aviation readiness? Can you provide a detailed response 
to the assertions addressed in this article?
    Secretary Spencer. The Department of Navy (DON) is capable today 
and will become more capable in the future. Recovering readiness and 
reversing years of strain on the force will take time, predictable and 
sustained funding and balanced investments. To recover aviation 
readiness and get aircraft back to the fleet, the DON has deliberately 
prioritized investments in both its primary and enabling readiness 
accounts. The enacted 2018 budget and the President's 2019 Budget 
request fund the Flying Hour Program and Aircraft Depot Maintenance to 
maximum executable levels. Equally important, the 2018 enacted budget 
with the budget enhancement and the DON's 2019 request increases 
funding for aviation logistics, air systems support and aviation 
spares. Aviation spares are funded above historical levels to reduce 
repair part shortages and improve the range and depth of afloat spare 
parts in line with our intended operational availability. These efforts 
are beginning to take effect, with a steady reduction in aviation 
maintenance backlogs and with greater parts availability, more Fully 
Mission Capable and Mission Capable aircraft will be available for 
essential aircrew training and proficiency. This is a very high 
priority for the Department.
    General Neller. Although mishap trends have nearly doubled since 
2013, the increase has been attributed to Class ``C'' mishaps (damage 
to aircraft of $50,000 or more, but less than $500,000; or a nonfatal 
injury or illness that results in one or more days away from work, not 
including the day of the injury).
    <bullet>  The more serious Class A and B mishap rates, among manned 
aircraft, have remained relatively steady over the last 5 years and are 
not contributing to the increasing trend we observed.
    <bullet>  Marine aviation's focus is readiness for combat. We 
continue to make moderate gains and recover readiness across every 
type/model/series aircraft while simultaneously transitioning to a 
modern fleet.
    <bullet>  We are incrementally stepping up to T 2.0 levels to 
ensure the Marine Corps remains the Nation's Force in Readiness. Our MC 
and FMC rates are steadily improving. The Marine Corps expects to 
recover training capability in fiscal year 2020 and a ready bench by 
fiscal year 2022.
    <bullet>  Flight hours are the true metric of health. Aircrew 
averaged 19.3 flight hours per pilot in March fiscal year 2018--an 
increase of nearly 20 percent from last year, and up almost 50 percent 
from two years ago. All communities have improved--some more than 
others. The Hornet community, for example, is flying 50 percent more 
hours today than it was two years ago.
    <bullet>  Previously underfunded readiness enabler accounts were 
funded to their maximum executable levels in fiscal year 2017 and 
fiscal year 2018. This allows us to focus on our number one readiness 
degrader: the lack of spare and repair parts. Fully funding our spares 
accounts is critical to recovery and modernization. We must have spares 
to recover readiness in our legacy aircraft and we must have spares to 
build up and sustain readiness in our new aircraft.
    <bullet>  We have a comprehensive approach to building readiness 
that includes several maintenance, supply, and manpower initiatives. 
These initiatives require stable, predictable funding and time in order 
for us to receive a return on our investment.
    Admiral Richardson. Our Navy is capable today and will become more 
capable in the future. Recovering readiness and reversing years of 
strain on the force will take time with predictable and sustained 
funding and balanced investments. To recover aviation readiness and get 
aircraft back to the fleet, the Navy has deliberately prioritized 
investments in both its primary and enabling readiness accounts. The 
enacted 2018 budget and the President's 2019 Budget request fund the 
Flying Hour Program (FHP) and Aircraft Depot Maintenance to maximum 
executable levels. Equally important, the 2018 enacted budget with the 
budget enhancement and the Navy's 2019 request increases funding for 
aviation logistics, air systems support and aviation spares. Aviation 
spares are funded above historical levels to reduce repair part 
shortages and improve the range and depth of afloat spare parts in line 
with our intended operational availability. These efforts are beginning 
to take effect, with a steady reduction in aviation maintenance 
backlogs and with greater parts availability, more Fully Mission 
Capable and Mission Capable aircraft will be available for essential 
aircrew training and proficiency. We are giving this very high 
priority.
                           training standards
    7. Senator Sullivan. Secretary Spencer and General Neller, ``This 
Kind of War'' by T.R. Fehrenbach details the devastating loss of 
American lives at the start of the Korean War due to a lack of 
readiness. Would you agree that we must continue to ensure our military 
training standards are hard and rigorous to reflect the realities of 
combat, and that they should not be influenced by politics? In your 
personal opinion, do you think that training standards should be 
delegated to the service chiefs as directed by section 531 of the 
Senate-passed Fiscal Year 2018 National Defense Authorization Act?
    Secretary Spencer and General Neller. Yes, training standards 
should reflect the realities of combat. For the Marine Corps, a good 
standard is measureable, able to be evaluated, and demonstrated during 
those conditions units will most likely encounter during combat 
operations such as cold weather, jungle, or littorals. The Secretary of 
the Navy must retain ultimate responsibility for training of the Marine 
Corps as required by 10 USC 5013. However, 10 USC 5043 assigns 
responsibility to the Commandant to transmit plans and recommendations 
to the SECNAV and to execute when approved. As a practical matter, Navy 
Regulations have delegated training requirements to the Commandant. 
Paragraph 0504 charges HQMC (under the direction and control of SECNAV) 
with training of the Marine Corps. Paragraph 0505.2.a assigns CMC 
responsibilities ``to plan for and determine the needs of the Marine 
Corps for equipment, weapons, or weapon systems, materials, supplies, 
facilities, maintenance, and supporting services. This responsibility 
includes the determination of Marine Corps characteristics of equipment 
and material to be procured or developed, and the training required to 
prepare Marine Corps personnel for combat.''
                               __________
              Questions Submitted by Senator David Perdue
                                 audit
    8. Senator Perdue. General Neller, in 2017 the Marine Corps became 
the first military service within the Department of Defense to ever 
undergo a full financial statement audit although you received a 
disclaimer. In 2013, the Marine Corps came very close to reaching a 
clean opinion on a limited financial audit. We are gaining momentum in 
this area and I want to ensure that the Department continues to pursue 
completing the audit and eventually reaching a clean opinion in every 
fiscal year. What is the current status of the Marine Corps' fiscal 
year 2018 audit?
    General Neller. The Marine Corps is currently undergoing the fiscal 
year 2018 Full Financial Statement audit. We recently completed the 
Planning Phase of the audit and transitioning to the Internal Control 
Phase. To date, the Marine Corps has delivered supporting documentation 
for over 1,080 Provided-by-Client (PBC) requests and responded to a 
total of 210 follow-up-questions.
    We considered the Planning Phase of the audit a success. During 
this phase, auditors visited 11 locations to include commands located 
in Okinawa Japan and Camp Lejeune, North Carolina. Auditors also 
visited supporting establishments located in Cleveland, Columbus, 
Indianapolis, and Kansas City. This successful planning effort required 
collaboration across multiple Marine Corps commands, service providers, 
the Department of Defense Inspector General and the Independent Public 
Accountant (IPA) Kearney & Company.
    In the review of the Marine Corps' financial statements, auditors 
have started testing the Statement of Budgetary Resources (SBR) and the 
Balance Sheet. To support the SBR testing efforts, we provided official 
documentation for sample requests that includes unpaid obligations 
consisting of 218 sample transactions. During the site visits, auditors 
performed a thorough analysis of Marine Corps' assets. This includes 
the Existence and Completeness testing of 2,591 samples transactions 
related to Garrison Property, Real Property, Military Equipment, 
Garrison Mobile Equipment and Operating Materials and Supplies (OM&S).
    To date, auditors have observed 49 conditions that could 
potentially result in noted deficiencies. Of the 49 observations, 38 
were previously noted during the fiscal year 2017 Full Financial 
Statement Audit. We worked hard to correct these deficiencies and 
continue to make notable improvements. The auditors plan to highlight 
our progress in the correction of these repeat deficiencies during the 
formal Notification of Findings and Remediation (NFR) process which may 
reduce their impact and severity. We anticipate this iterative process 
will continue for years to come as we move toward our goal of obtaining 
a clean opinion.

    9. Senator Perdue. Admiral Richardson, what is the current status 
of the Navy fiscal year 2018 Audit?
    Admiral Richardson. Navy met the NDAA requirement and commenced a 
full scope audit in January of 2018. In mid-April, Navy's audit firm 
sent notification that they intend to issue a ``disclaimer of opinion'' 
later this year--meaning that during this year's audit, they cannot 
gather enough information to form an opinion about the accuracy of the 
Navy's statements. This is an expected outcome for a first-year audit 
of a large, complex agency, and of course there are few organizations 
worldwide which match the size and intricacy of the Military 
Departments.
    Factors which contributed to audit team's conclusions:

    <bullet>  Navy's challenge to account for all of its financial 
transactions, owing to a complex array of business IT systems and the 
prevalence of ineffective manual internal controls governing this 
data's flow.
    <bullet>  Large volumes of accounting adjustments, resulting from 
weak internal controls--which we are strengthening but many of which 
are still inadequate--over business processes and IT systems.
    <bullet>  Navy's ability to account for and accurately value its 
global, diverse asset portfolio--worth hundreds of billions of 
dollars--because of weak process and system controls.

    We are identifying and correcting our deficiencies as quickly as we 
can. The Navy's senior leaders are relaying this sense of urgency to 
the rest of the Department, and they recognize that correcting business 
process and system deficiencies is a Departmental priority. Flag 
officers or senior executives manage each corrective action plan.
    In addition, because the audit team has signaled its intent to 
disclaim, they no longer are required to gather documentation generated 
by thousands of Navy business transactions, as they would have done had 
they continued the audit's course. This brings two beneficial 
consequences: the auditors can divert their attention from testing and 
instead help the Navy identify business areas which need the most 
improvements; and it also relieves operational commands from the 
resource-intensive task of gathering volumes of documentation to pass 
to the audit team.

    10. Senator Perdue. General Neller, Admiral Richardson, and 
Secretary Spencer, on April 17, a former Defense official told the 
House Armed Services Committee, quote, ``If I were the master of the 
universe, I would give up the audit . . . Five billion dollars over 
five years, I'd say it's not worth it . . . I would say that we already 
know . . . the deficiencies we have in our financial systems. We know 
we have a laundry list of things that need to be fixed--and until we 
fix them, we're going to continue to fail audits.'' Do you agree or 
disagree with these claims?
    General Neller. The Marine Corps believes that the audit is 
critical to mission readiness and should continue. The transparency 
afforded with auditable financial statements demonstrates our 
commitment to responsible full financial statements and the prudent 
management of taxpayer provided resources. Efficiencies gained through 
audit efforts enhance the overall support to the Warfighter and ensure 
the effective use of funds received.
    In an effort to reduce the cost of audits to the Department, the 
Marine Corps understands the importance of forming partnerships with 
our service providers. The Marine Corps is reviewing our shared 
processes and systems in an effort to gain efficiencies. Paramount to 
working with our service providers is ensuring that we have adequately 
written and agreed upon service level agreements (SLA) in place to 
ensure the establishment of partnerships with respect to the audit and 
the remediation of audit findings. We are currently working with our 
service providers to determine that SLAs are complete and are being 
periodically reviewed to ensure they accurately reflect the roles and 
responsibilities for each party.
    As a result of fiscal year 2017 audit findings, the Marine Corps 
was made aware of issues effecting the accounting for property, plant, 
and equipment. Several key issues were brought to our attention 
regarding real property to include assets that were not being reported, 
assets that were reported but belonged to other entities, and assets 
that were not valued correctly. Similarly, the Independent Public 
Accountant concluded that the Marine Corps did not properly record the 
value of ammunition. These conditions can cause a misstatement of the 
Marine Corps financial statements and are not a true reflection of our 
financial position. The Marine Corps is dedicated to making corrective 
actions that include upgrades to systems, formalized operating 
procedures, and training to ensure that account balances on the 
financial statements are accurate and can be fully supported by 
evidential documentation.
    Each year we continue to see improvements and gain benefits from 
the audit. It has provided the Marine Corps with an honest assessment 
of our organization and processes. Each audit cycle serves as an annual 
checkup, not unlike an annual physical conducted by a doctor, providing 
us critical feedback on the health of our operations. Some of our 
processes require reengineering. For example, we are reviewing our 
method to record, report and document assets listed on our balance 
sheet inclusive of Property, Plant and Equipment, and Operating 
Materials and Supplies. The audit has also identified processes that 
are operating efficiently which we are leveraging in a road map to 
assess inefficient processes. Lastly, the Marine Corps will continue to 
improve our collaboration across the enterprise in regards to our 
internal controls, internal reviews, and audit support efforts.
    Admiral Richardson and Secretary Spencer. The Department of the 
Navy is investing in transforming its business operations to comply 
with accepted accounting principles and audit standards. These changes 
are necessary to adhere to existing legislation, and the future result 
will be a favorable audit opinion. Our Department can then better 
assure the public that appropriated funds are being spent and accounted 
for as Congress intended.
    The framework provided by annual financial statement audits is 
necessary for a successful business transformation. Audit activity and 
subsequent findings focus our Department's attention top-to-bottom on 
the sustained fixes which must be made and give a sense of urgency to 
the pace of remediation. Without the rigor and discipline required by 
the audit process, the Defense Department will not be able to readily 
make the required leap to a ``clean'' opinion--a hurdle already crossed 
by every other federal agency.

    11. Senator Perdue. Secretary Spencer, how have your services 
benefited from undertaking the audit?
    Secretary Spencer. Benefits include:

    <bullet>  Expanding the sphere of accountability for spending 
appropriated funds as intended. End-to-end ownership of each of the DON 
business processes has been assigned to senior leaders, who report 
audit remediation progress to the DON Audit Committee. Internal 
controls governing business processes are being strengthened to bring 
them in compliance with accepted accounting principles and audit 
standards. These improved controls will be performed by the tens of 
thousands of Departmental personnel who spend dollars for goods and 
services to support warfighters.

    <bullet>  Ensuring security controls for business information 
systems are being performed. Audit procedures include assessing 
physical security of information systems; ensuring system access lists 
are updated using a regular, methodical process; and ensuring that user 
roles performed within the system are properly segregated.

    <bullet>  Reducing the risk of funds misuse. Strengthened business 
internal controls, coupled with a rigorous testing and monitoring 
program, reduce the risk of unscrupulous or unlawful exploitation.

    <bullet>  Efficiencies will continue to accrue. As business 
controls are strengthened, some processes will become more efficient, 
and savings and cost avoidance will result. Examples include: one major 
command was able to re-purpose approximately $50 million annually in 
current year funds by strengthening its contract close-out controls; a 
fleet command also increased its buying power in one year by about $50 
million through improving its controls over requisition validation and 
fuel billing.
   intelligence, surveillance, and reconnaissance aircraft & future 
                                threats
    12. Senator Perdue. Admiral Richardson and Secretary Spencer, the 
Navy's P-8 Poseidon is a maritime intelligence, surveillance, and 
reconnaissance aircraft. Like other aircraft across the services to 
include the Air Force's Joint Surveillance Target Attack Radar System, 
it is built on a Boeing civilian aircraft platform. The P-8 has some of 
the same capabilities and performs similar missions in the maritime 
domain as the Air Force's JSTARS does over land. The Navy plans on 
buying more P-8s to bolster its ISR resources in its fiscal year 2019 
budget request. Meanwhile, the Air Force plans to divest completely in 
the JSTARS platform recapitalization and cites that it will not be a 
viable capability in the future due to survivability concerns in a 
contested environment. How does the P-8 fit into the Navy's role in the 
future fight?
    Admiral Richardson and Secretary Spencer. The P-8A's primary 
mission is broad area Anti-Submarine Warfare (ASW). The P-8A's primary 
role during major combat operations is to conduct ASW operations in 
support of Strike Group operations. The P-3C Orion, which retires in 
2020, and the P-8A are the only fixed-wing, long range platforms 
capable of performing this ASW mission set.
    Secondary missions for the P-8A include Anti-Surface Warfare (ASuW) 
and Intelligence, Surveillance, and Reconnaissance (ISR) missions. As 
an ISR asset, the P-8A has a robust systems suite and the longest range 
and endurance of any manned airborne ISR platform. The P-8A ISR systems 
suite includes a radar capable of surface search, inverse synthetic 
aperture radar (ISAR), and synthetic aperture radar (SAR), an electro-
optical and infrared (EO/IR) high definition camera, and an electronic 
support measures (ESM) system capable of detecting, locating, and 
identifying threat emissions from long range. Additionally, the P-8A is 
capable of carrying the Advanced Airborne Sensor (AAS) active 
electronically scanned array radar. Onboard systems automatically 
correlate data from many sensors, synthesize this information, and 
provide input to national and regional intelligence databases. When 
used in conjunction with other fleet and joint assets, the P-8A 
Poseidon expands the reach and lethality of our military forces in the 
current and future fight.
    The P-8A is not designed to perform JSTARS airborne battle 
management missions or participate in the high-end air-to-air battle. 
Like most large profile, non-radar evading aircraft, the P-8A has a 
considerable radar cross section and it presents a large target for 
radar guided missiles. As our adversaries and near-peer competitors 
develop longer range surface-to-air and air-to-air missiles, the Navy 
continues to study and evaluate radar counter-measure systems to 
provide onboard protection for the P-8A. When dictated by mission 
location and increased threat levels, P-8A can be supported by Strike 
Group or theater fighter escorts to perform their primary mission. 
Through use of advanced long range stand-off sensors, netted C4I 
systems, and well-developed Strike Group procedures, the P-8A will 
remain aware of threats and will operate away from the high-end air 
fight.

    13. Senator Perdue. Admiral Richardson and Secretary Spencer, what 
are your concerns about the survivability of the P-8?
    Admiral Richardson and Secretary Spencer. The P-8A's primary 
mission is broad area Anti-Submarine Warfare (ASW). The P-8A's primary 
role during major combat operations is to conduct ASW operations in 
support of Strike Group operations. The P-3C Orion, which retires in 
2020, and the P-8A are the only fixed-wing, long range platforms 
capable of performing this ASW mission set. Secondary missions for the 
P-8A include Anti-Surface Warfare (ASuW) and Intelligence, 
Surveillance, and Reconnaissance (ISR) missions. As an ISR asset, the 
P-8A has a robust systems suite and the longest range and endurance of 
any manned airborne ISR platform. The P-8A ISR systems suite includes a 
radar capable of surface search, inverse synthetic aperture radar 
(ISAR), and synthetic aperture radar (SAR), an electro-optical and 
infrared (EO/IR) high definition camera, and an electronic support 
measures (ESM) system capable of detecting, locating, and identifying 
threat emissions from long range. Additionally, the P-8A is capable of 
carrying the Advanced Airborne Sensor (AAS) active electronically 
scanned array radar. Onboard systems automatically correlate data from 
many sensors, synthesize this information, and provide input to 
national and regional intelligence databases. When used in conjunction 
with other fleet and joint assets, the P-8A Poseidon expands the reach 
and lethality of our military forces in the current and future fight. 
The P-8A is not designed to perform JSTARS airborne battle management 
missions or participate in the high-end air-to-air battle. Like most 
large profile, non-radar evading aircraft, the P-8A has a considerable 
radar cross section and it presents a large target for radar guided 
missiles. As our adversaries and near-peer competitors develop longer 
range surface-to-air and air-to-air missiles, the Navy continues to 
study and evaluate radar counter-measure systems to provide onboard 
protection for the P-8A. When dictated by mission location and 
increased threat levels, P-8A can be supported by Strike Group or 
theater fighter escorts to perform their primary mission. Through use 
of advanced long range stand-off sensors, netted C4I systems, and well-
developed Strike Group procedures, the P-8A will remain aware of 
threats and will operate away from the high-end air fight.

    14. Senator Perdue. Admiral Richardson and Secretary Spencer, why 
will the P-8 continue to be a valuable ISR asset to the Navy?
    Admiral Richardson and Secretary Spencer. The P-8A's primary 
mission is broad area Anti-Submarine Warfare (ASW). The P-8A's primary 
role during major combat operations is to conduct ASW operations in 
support of Strike Group operations. The P-3C Orion, which retires in 
2020, and the P-8A are the only fixed-wing, long range platforms 
capable of performing this ASW mission set.
    Secondary missions for the P-8A include Anti-Surface Warfare (ASuW) 
and Intelligence, Surveillance, and Reconnaissance (ISR) missions. As 
an ISR asset, the P-8A has a robust systems suite and the longest range 
and endurance of any manned airborne ISR platform. The P-8A ISR systems 
suite includes a radar capable of surface search, inverse synthetic 
aperture radar (ISAR), and synthetic aperture radar (SAR), an electro-
optical and infrared (EO/IR) high definition camera, and an electronic 
support measures (ESM) system capable of detecting, locating, and 
identifying threat emissions from long range. Additionally, the P-8A is 
capable of carrying the Advanced Airborne Sensor (AAS) active 
electronically scanned array radar. Onboard systems automatically 
correlate data from many sensors, synthesize this information, and 
provide input to national and regional intelligence databases. When 
used in conjunction with other fleet and joint assets, the P-8A 
Poseidon expands the reach and lethality of our military forces in the 
current and future fight.
    The P-8A is not designed to perform JSTARS airborne battle 
management missions or participate in the high-end air-to-air battle. 
Like most large profile, non-radar evading aircraft, the P-8A has a 
considerable radar cross section and it presents a large target for 
radar guided missiles. As our adversaries and near-peer competitors 
develop longer range surface-to-air and air-to-air missiles, the Navy 
continues to study and evaluate radar counter-measure systems to 
provide onboard protection for the P-8A. When dictated by mission 
location and increased threat levels, P-8A can be supported by Strike 
Group or theater fighter escorts to perform their primary mission. 
Through use of advanced long range stand-off sensors, netted C4I 
systems, and well-developed Strike Group procedures, the P-8A will 
remain aware of threats and will operate away from the high-end air 
fight.
                 concerns regarding hypersonic threats
    15. Senator Perdue. General Neller and Admiral Richardson, in an 
Emerging Threats Subcommittee hearing, we heard from Dr. Griffin, the 
Under Secretary for Research and Engineering about some alarming 
developments. Dr. Griffin told us that China has fielded, or is close 
to fielding, hypersonic delivery systems for conventional prompt strike 
that can reach out thousands of kilometers from the Chinese shore and 
hold our carrier battlegroups or our forward deployed forces on land 
that we have based in the region. Equally troubling, DARPA, which has 
done some of the most significant work on hyper-sonics in the nation, 
has only one wind tunnel that they can use for hypersonic research. 
What are your concerns regarding the growing threat from China and 
Russia on hyper-sonics to hold your forward deployed forces or your 
carrier battlegroups at risk?
    General Neller. This spring, the Secretary of Defense directed the 
Joint Staff to conduct a competitive area study of all five battle 
domains in order to address threats in each domain. This study takes 
into consideration the National Defense Strategy and the Defense 
Planning Guidance. The Marine Corps is actively engaged in this joint 
study. This combined effort includes working with the Strategic 
Capabilities Office, DARPA, and with industry to examine how we can 
improve the capabilities we have and develop future capabilities to 
detect, track, and defeat hypersonic threats. Further, we recognize 
that we must both defend against hypersonic threats, as well as, pursue 
hypersonic offensive capabilities to counter land and sea-based 
threats. These on-going efforts can be addressed in a classified 
setting at your convenience.
    Admiral Richardson. Navy is focused on the hypersonic problem. 
Because of their long range and high speed, these weapons can deny 
access to vital areas of operation, diminish our ability to exert 
influence, and endanger our forces in theater. Navy has been working 
closely with the Missile Defense Agency (MDA) \1\ for the past two 
years to assess and perfect our ability to detect, track, and engage 
these difficult threats. The Navy works collaboratively with the Air 
Force, DARPA, MDA, Conventional Prompt Strike (CPS) Office, and NASA on 
hypersonic research and leverages the advances to apply to Navy and 
Marine Corps warfighting needs. We are giving this project highest 
priority because of the seriousness of the hypersonic threat, and the 
offensive opportunities hypersonic weapons provide.
---------------------------------------------------------------------------
    \1\ In accordance with Section 1687 of Public Law 114-328, National 
Defense Authorization Act for Fiscal Year 2017, which designates the 
MDA Director as Executive Agent for development of Hypersonic Defense 
(HD), MDA, working with the Services and Defense Agencies, is 
developing defensive architectures from detection to intercept.
---------------------------------------------------------------------------
    More details can be provided in a classified setting.
    16. Senator Perdue. General Neller and Admiral Richardson, how are 
you working to defeat and defend against the hypersonic threat?
    General Neller. We recognize that we must both defend against 
hypersonic threats, as well as, pursue hypersonic offensive 
capabilities to counter land and sea-based threats. These on-going 
efforts can be addressed in a classified setting at your convenience.
    Admiral Richardson. Navy is focused on the hypersonic problem. 
Because of their long range and high speed, these weapons can deny 
access to vital areas of operation, diminish our ability to exert 
influence, and endanger our forces in theater. Navy has been working 
closely with the Missile Defense Agency (MDA) \1\ for the past two 
years to assess and perfect our ability to detect, track, and engage 
these difficult threats. The Navy works collaboratively with the Air 
Force, DARPA, MDA, Conventional Prompt Strike (CPS) Office, and NASA on 
hypersonic research and leverages the advances to apply to Navy and 
Marine Corps warfighting needs. We are giving this project highest 
priority because of the seriousness of the hypersonic threat, and the 
offensive opportunities hypersonic weapons provide.
    More details can be provided in a classified setting.

                                 cyber

    17. Senator Perdue. General Neller, I understand the Marine Corps 
has created a cyber military occupational specialty with enlisted 
positions and offensive and defensive officer roles. Will Marines in 
these cyber MOS's rotate into non-cyber related jobs or will they 
primarily be able to remain in the cyber field?
    General Neller. The Marine Corps traditionally fences off its new 
investments to assure mission success. Every Marine seeks personal and 
professional satisfaction.
    Our specialists in cyber are no different; they are first and 
foremost Marines. ``We will make them as we make all other Marines, 
deliberately and with due consideration for our investment in human 
capital.''
    Wisdom dictates that we apply the best Marine into the most 
appropriate fit. We anticipate many of these Marines will be thrust 
into the throes of cyber operations and be fully occupied from day one 
of their careers. We continue to plan for cases where some marines may 
pursue additional challenges such as Drill Instructor, Marine Security 
Guard or Recruiting Duty, but they will be exceptional instances.
    There are cross-functional advantages to be had and the Marine 
Corps is not limiting itself in this new endeavor. We are excited at 
the road which lies ahead and our marines are chomping at the bit. It 
is gratifying to see Marines from all walks of life and more than two 
dozen different occupational fields seek lateral entry into 
Occupational Field 17.

    18. Senator Perdue. General Neller, what will be the career 
progression of Marines in the cyber MOS's?
    General Neller. Our Cyber Marines will cut their teeth in the 
Marine Expeditionary Forces Information Groups. After Boot Camp and 
initial schooling they will learn the role of the network defender, 
protecting those deployed furthest from the shield. This will ensure 
that Cyber Marines operating at the tactical edge understand the 
integrated nature of the Marine Air Ground Task Force and can master 
effects in cyberspace. Proficiency with the tools of the trade and 
familiarity with the operational tactics, techniques and procedures 
that prevail in amphibious environments keep us grounded, focused on 
the Navy-Marine team in every domain of warfare.
    As those marines gain experience and expertise, we anticipate they 
will advance as Non-Commissioned Officers into the ranks of the Cyber 
Mission Forces. The diversity of missions will lead to a well-rounded 
and enthusiastic cadre of Staff Non-Commissioned Officers who can then 
specialize into the restricted officer ranks where they might grow into 
Chief Warrant Officers and Limited Duty Officers. Or perhaps even 
pursue commissions as 1702 Cyberspace Operations Officers.
    Marines coming from the cyber forces will naturally align to 
positions of greater responsibility where their operational savvy and 
technical acumen raise them to advise our Marine Expeditionary Forces 
and Marine Corps Forces worldwide. Our aim is to establish a virtuous 
rotation where Marine leadership is the first lesson learned and placed 
into practice to guide fulfilling careers.

                  marine corps logistics base--albany

    19. Senator Perdue. General Neller, as you know, Marine Corps 
Logistics Base Albany suffered hundreds of millions of dollars in 
damage to equipment and facilities in the 2017 tornados. Could you give 
the total dollar amount of that damage?
    General Neller.
    <bullet>  Funding for Equipment Repairs (Mar 18)

        -  Fiscal year 2017: $7.8 million in expenditures approved by 
HQMC
        -  Fiscal year 2018: LOGCOM expects to receive $61.2 million 
ISO of storm regeneration
        -  Fiscal year 2019: $61.2 million programmed, controls 
currently reflect $52.0 million, a reduction of $9.2 million
        -  Fiscal year 2020: $106.7 million programmed, controls 
currently reflect $103.8 million, a reduction of $2.9 million

    <bullet>  Total facilities related costs for clean-up, emergency 
repairs and permanent repairs and construction = $208 million

        -  Fiscal year 2017--$88 million (MC O&M) funded and contracted 
for facility repairs
        -  Fiscal year 2017--$15 million (DLA WCF) funded and 
contracted for facility repairs
        -  Fiscal year 2018--$16 million (MC O&M) approved in the 
straddle program for facility repairs
        -  Fiscal year 2018--$43 million (MILCON) funded for 
replacement warehouse
        -  Fiscal year 2020/21--$46 million (MILCON) requested for a 
2nd replacement warehouse (not approved)

    20. Senator Perdue. General Neller, what is the status of the 
recovery and repair of Albany?
    General Neller.
    <bullet>  Equipment

        -  Equipment storm regeneration LTIs is 73 percent complete (4 
May 18)
        -  Of the 47,390 Principle End Item requirement:
        -  34,681 have been completed
        -  12,709 require Limited Technical Inspection (LTI)

    <bullet>  Sixty-four facilities damaged and in various stages of 
disrepair

        -  All forestry related clean-up and replanting is complete
        -  Twenty facilities repairs are complete
        -  Fourty-four facilities repairs are underway
        -  Sixty-five percent of the overall repair work is completed
        -  On track to award the final $16 million in O&M funded 
repairs NLT 30 June 18
        -  The first MILCON project (P977 200,000SF Climate Controlled 
Combat Vehicle Warehouse) is in the pre-award phase and is on track to 
be awarded by NAVFAC before 31 Dec 2018.

    21. Senator Perdue. General Neller, what was the impact of 
Congress's inability to pass the 2018 budget on time to the recovery 
efforts in Albany?
    General Neller. No reportable impacts based on the CR specifically 
to storm recovery.
              use of defense logistics agency for services
    22. Senator Perdue. Admiral Richardson, the military services have, 
to varying degrees, transferred retail supply, storage, and 
distribution functions at their depot-level industrial sites to the 
Defense Logistics Agency (DLA) and achieved some efficiencies. 
Specifically, Air Force Air Logistics Complexes (ALC) and Navy Fleet 
Readiness Centers (FRC) transferred all retail supply, storage, and 
distribution functions to DLA over the course of several years, which 
has led to a number of benefits, including a 20 percent reduction in 
on-hand inventory and a 10 percent reduction in backorders at the Air 
Force ALCs over a 5-year period. By contrast, the Army and Marine Corps 
have retained most supply functions at their depots and DLA manages 
inventory at the Navy shipyards while still using Navy systems and 
processes, rather than those of DLA. What steps are the Navy pursuing 
in collaboration with DLA to improve the efficiency and effectiveness 
of retail supply, storage, and distribution functions at the depots and 
shipyards?
    Admiral Richardson. The Navy's transfer of SS&D functions within 
the depots and shipyards to DLA have been completed. The Navy and DLA 
continue to finalize a Strategic Memorandum of Agreement (SMOA) to 
align the command and control structure within the shipyard to improve 
the efficiency and effectiveness of supply support functions executed 
by both DLA and Navy.

    23. Senator Perdue. General Neller, why has the Marine Corps been 
reluctant to transfer aspects of the noted functions to DLA and are 
there plans/efforts underway to do so?
    General Neller. MARCORLOGCOM transferred depot-level industrial 
retail storage and distribution functions to the Defense Logistics 
Agency (DLA) in 2009. In Q1 of fiscal year 2018, MARCORLOGCOM launched 
a study to develop a Business Case Analysis (BCA) that would provide an 
objective, third-party perspective on the merits of transferring the 
depot-level industrial ``Supply'' functions to DLA. Based on the 
results of the BCA, LOGCOM intends to move forward with transferring 
industrial supply functions to DLA in order to gain additional 
efficiencies in support of depot-level maintenance.
                               __________
            Questions Submitted by Senator Claire McCaskill
                      upgrades to e/a 18g growler
    24. Senator McCaskill. Secretary Spencer, I understand that the 
Navy plans to request upgrades for Tactical Targeting Network 
Technology, Engine Enhancements, and Reactive Electronic Attack 
Measures for the E/A-18G Growlers, but the current plan begins funding 
in fiscal year 2020. What benefits will exist for the Navy and 
warfighter if these capabilities were funded earlier?
    Secretary Spencer. The President's Fiscal Year 2019 Budget (PB19) 
reflects the best balance of warfighting requirements given available 
resources. If additional funds are made available, the Navy's Fiscal 
Year 2019 Unfunded Priorities List (UPL) includes requests to 
accelerate recovery from capacity and capability risk that has 
accumulated in Naval aviation. The list includes: Tactical Targeting 
Network Technology (TTNT); F/A-18E/F Super Hornet engine enhancements; 
and EA-18G Reactive Electronic Attack Measures (REAM) Cognitive 
Electronic Warfare (EW). Tactical Targeting Network Technology (TTNT): 
Additional fiscal year 2019 funding accelerates TTNT System Design and 
Development, accelerating platform integration for the E-2D, EA-18G and 
F/A-18E/F to achieve an Initial Operational Capability (IOC) of 2021. 
Engine Enhancements: Additional fiscal year 2019 funding accelerates 
timelines by 1 year. Reactive Electronic Attack Measures (REAM) 
Cognitive EW for the E/A-18G Growlers: Additional fiscal year 2019 
funding accelerates timelines by 1 year.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                         submarine maintenance
    25. Senator Blumenthal. Secretary Spencer, through last year's 
NDAA, I required the Navy to submit a report on how they plan to 
address this maintenance backlog. The report delivered in February 
stated, ``The Navy intends to execute all the workload programmed at 
the Naval Ship Yards, with no availabilities moving from the public to 
the private sector.'' Just last month at a HASC hearing and this month 
before this committee, you acknowledged that private yards will be more 
involved with maintenance. As we are receiving mixed messaging, can you 
please provide more clarity on how you plan to proceed?
    Secretary Spencer. The Navy intends to continue to utilize the 
entire industrial base as it annually assesses future workload 
requirements and seeks to mitigate workload peaks within any given 
year. As such, consideration will be given to balancing the workload 
across the public and private sectors to support future maintenance and 
modernization requirements, as well as supporting the growth of the 
private sector workforce to prepare for the new construction of future 
ship classes.

    26. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
does the Columbia-class Program remain the Navy's top priority program? 
Do you agree we must do everything to ensure it remains on track? As 
such, do you agree that ensuring a healthy workforce in the yards 
building this program is in the Navy's best interests? Will you commit 
to reviewing the feasibility of shifting a small number of near-term, 
backlogged maintenance availabilities to the private yards to help 
smooth out this workload valley?
    Secretary Spencer and Admiral Richardson. Columbia is the Navy's 
top acquisition program. The Navy is committed to taking all necessary 
actions to ensure the fulfillment of U.S. STRATCOM requirements as it 
balances other priorities within the enterprise. Ensuring a healthy and 
capable private sector workforce is critical to satisfying this 
commitment. As such, consideration will be given to balancing the 
workload across the public and private sectors, including shifting 
backlogged submarine maintenance availabilities to the private yards to 
support the growth of the private sector workforce to prepare for the 
new construction of future ship classes.
              columbia-class and submarine industrial base
    27. Senator Blumenthal. Secretary Spencer and Admiral Richardson, I 
spoke with STRATCOM Commander General Hyten last month on the 
importance of the defense industrial base for the Columbia-class. He 
said, ``the shipyards are a critical national asset to America. It's 
one of our strengths, and that workforce is essential to us being able 
to build Columbia, to be able to build Virginia. And I think it's the 
responsibility of all of us, including the Federal Government, to make 
sure that that workforce--which is a strategic asset--is supported 
across the board.'' He went on to say, ``Every worker that's at a 
shipyard that is working on the Columbia is part of our national 
security infrastructure.'' Do you agree with General Hyten?
    Secretary Spencer and Admiral Richardson. Yes. A skilled shipyard 
workforce is critical to the infrastructure that produces the Navy's 
submarines, carriers, and other combatant ships that are vital to 
national security. With respect to the shipbuilding industrial base 
supporting our submarine and carrier construction, the Navy is actively 
engaged with the shipbuilders to ensure the right skillsets and 
capacity are available as the nation ramps up production.

    28. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
would you support increased advance procurement funding to add capacity 
and capability to prepare the industrial base for a substantial 
increase in work?
    Secretary Spencer and Admiral Richardson. The Navy appreciates the 
additional $225 million Advance Procurement (AP) funding added by 
Congress in the fiscal year 2018 appropriations bill for the Virginia-
class submarine program, specifically for industrial base expansion. 
This additional funding will be used to improve the supplier base's 
ability to support future submarine construction demand. Investments in 
2018 in supplier base risk reduction will begin to address specific and 
validated facility, skilled labor, and machinery shortfalls. AP funding 
helps the industrial base prepare for increased work. Additional 
funding reduces the schedule risk for the Columbia-class construction 
along with the Virginia-class construction, and supports facility 
investments, workforce increases, vendor equipment decisions, and 
workload leveling.
    The Navy is continuously looking for ways to reduce the risk to 
Columbia-class procurement while also balancing these investments 
against other Navy priorities.

    29. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
do you agree that worker training grants provided by the Federal 
Government play an important role in supporting the defense industrial 
base, and therefore DOD? Do you think we should increase funding that 
helps train workers that build our systems?
    Secretary Spencer and Admiral Richardson. Yes, the worker training 
grants (such as the U.S. Department of Labor Sector Partnership 
National Emergency Grant and U.S. Department of Labor Workforce 
Innovation Fund) play an important role and have directly benefitted 
the defense industrial base. Grants such as these have resulted in the 
support of the hiring needs and the critical competencies required by 
the defense industrial base. The Navy is projecting a significant 
workload increase across the entire shipbuilding industry, especially 
in the submarine industrial base with the addition of the Columbia-
class. This increase in work will require training and hiring outside 
of the current shipbuilding industry, and these grants help to ensure 
there are enough people with the right skills available in the right 
places to support the Navy's shipbuilding plan. An increase in funding 
to these programs would be beneficial to the Navy and its partners.
                   fiscal year 2019 shipbuilding plan
    30. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
the Fiscal Year 2019 30-Year Shipbuilding Plan considers adding three 
Virginias per year in a dozen of the out years--with the nearest 
possibilities being fiscal years 2022, 2023, 2025--to reach the 
required 66 attack submarines sooner than the late 2040s. How can 
Congress best support you in this goal to further accelerate 
production?
    Secretary Spencer and Admiral Richardson. The 30-year shipbuilding 
plan, and the Navy's fiscal year (FY) 2019 submission establishes an 
acquisition profile that grows the force at a sustainable, affordable 
rate while protecting the overall balanced warfighting investment 
strategy. Should additional funding become available to pursue a more 
aggressive acquisition strategy, principally to reach 66 attack 
submarines sooner than the late 2040s, the Government will need to 
commit as early as possible to building additional Virginia-class 
Submarines to support facility/fixture additions, workforce increases, 
and vendor equipment manufacturing decisions. An early commitment in 
the form of three-year Advance Procurement (AP) funding in fiscal year 
2019 and funding for additional fixtures is required as detailed below.

    1.  Three-year AP for the Nuclear Industrial Base (NIB) is required 
to support the additional submarines in fiscal year 2022 and fiscal 
year 2023 and then in fiscal year 2025 (outside the Future Years 
Defense Program (FYDP)). Given the current capacity of the NIB and 
manufacturing lead time associated with nuclear propulsion plant 
equipment, the ability to provide funding three years prior to 
authorization is critical to the efficient construction of these 
submarines.

    2.  Three-year AP for contractor furnished equipment is also 
required to support the additional submarines in fiscal year 2022, 
fiscal year 2023 and fiscal year 2025. This funding would be used to 
procure critical parts in advance thereby reducing risk to 
manufacturing. Additionally, to further reduce the risk to the fiscal 
year 2022, fiscal year 2023 and fiscal year 2025 ships, the Navy would 
accelerate its AP buys--what would traditionally be purchased with two-
year and one-year AP would now be purchased with three-year AP and two-
year AP respectively--to purchase items such as Virginia Payload Module 
tube components, air conditioning plants, and other critical path 
items. Procuring material via three-year AP has the added benefit of 
allowing for more efficient production without the need to facilitize 
to support a short-term increase to three-per-year production.

    3.  Fourty-six million dollars in direct facilities funding is 
necessary in fiscal year 2019 to allow for additional fixtures (tube 
insertion and tube pairing) required for the increase in production. 
Other funding for acceleration of or additional facilities will be 
addressed through contract incentives.

    4.  Comparable amount of economic order quantity (EOQ) funding is 
included early in the Block V for the third ships in fiscal year 2022 
and fiscal year 2023 and in Block VI for the third ship in fiscal year 
2025.

    Additionally, within projected Navy top line in the FYDP, without a 
commitment to provide the funding for the additional ships during the 
construction of the Columbia-class SSBN, Navy will be forced to reduce 
funding for other necessary procurement programs.

    31. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
what changes or planning is required for the near-term additions in 
fiscal years 2022, 2023, 2025? Do you believe you are ready to meet 
this challenge?
    Secretary Spencer and Admiral Richardson. The Navy is ready to meet 
the challenge, but lacks the funding to do so. The 30-year shipbuilding 
plan, and the President's Fiscal Year 2019 Budget submission 
establishes an acquisition profile that grows the force at a 
sustainable, affordable rate while protecting the overall balanced 
warfighting investment strategy. Within the projected Navy top line in 
the Future Years Defense Program, without a commitment to provide the 
funding for the additional Virginia-class Submarines (VCS) during the 
construction of the Columbia-class SSBN, Navy will be forced to reduce 
funding for other necessary procurement programs.
    The near term need is three-year advance procurement and economic 
order quantity funding of $1 billion in fiscal year 2019 for additional 
VCS in the fiscal year 2022 and 2023.
    In addition to supporting additional funding requirements for VCS 
in fiscal year 2022, 2023 and 2025, facility additions and upgrades, 
beyond sustained two VCS per year requirements, are necessary across 
General Dynamics Electric Boat and Huntington Ingalls Industries--
Newport News Shipbuilding manufacturing, outfitting, and final assembly 
and test facilities. These facilities requirements reflect the 
increased pace and capacity needed to support all stages of 
construction. The shipbuilders would require acceleration of their 
current facilities master plans as well as new facilities and fixtures. 
As the VCS program has used a Capital Expenditure (CAPEX) provision in 
prior Multi-Year Procurement (MYP) contracts to encourage facility 
investment, the Block V MYP (and Block VI, as necessary) contract will 
contain a similar CAPEX/Construction Readiness provision to incentivize 
executing the accelerated, increased facilities footprint. Therefore, 
there is minimal direct funding associated with fixtures as the 
majority of the facilities changes would be incentivized through CAPEX 
provisions and would come from each ship's funding.
    Executing the increased VCS production, while not impacting the 
stated priority of Columbia on-time delivery, will likely result in 
increased construction spans for all VCSs in the three per year build 
years. It is expected that shipbuilder facility additions, additional 
labor resources, and efforts to shorten construction cadences will 
serve to mitigate construction span increases to some degree.
                       submarine strike capacity
    32. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
what can you tell us about the Navy's desire to continue building 
additional Columbia-class submarines beyond the 12 boats to be 
completed in the 2030s?
    Secretary Spencer and Admiral Richardson. The Navy the Nation Needs 
(NNN) strategy is sized to ensure a minimum of 10 operational SSBNs are 
available. This force structure is based on force survivability. A 
minimum force of 12 total Columbia SSBNs ensures that the nation has at 
least 10 operational SSBNs to accommodate the ship's planned mid-life 
overhaul. The Navy could potentially procure additional Columbia-class 
SSBNs or similar platforms if necessitated by changes in the strategic 
environment.
                    isr capabilities in the pacific
    33. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
in PACOM Commander Admiral Harris' recent statement to this Committee 
before PACOM's posture hearing he stated, ``the challenge of gathering 
credible, deep, and penetrating intelligence cannot be overstated. The 
Indo-Pacific presents a dynamic security environment requiring 
persistent and intrusive ISR to provide indications, warning and 
situational awareness across a vast geographic area . . . The rapid 
modernization of our peer competitors requires additional advancements 
in how our intelligence is collected and processed, including the 
associated risks. Our ISR capabilities must be suited to our unique 
operating environment.'' Do you believe the Navy possesses the ISR 
capabilities to accomplish its missions in the Pacific?
    Secretary Spencer and Admiral Richardson. ISR Capabilities are in 
very high demand across the globe, including the Indo-Pacific. The 
Indo-Pacific operating environment presents a dynamic set of 
challenges. To address these challenges, Navy has taken steps to field 
capabilities that are agile, resilient, persistent, and networked 
ensuring all Naval and Combatant Commander (CCMD) requirements are met. 
The Maritime Intelligence, Surveillance, Reconnaissance & Targeting 
(MISR&T) capabilities fielded by the Navy are integral to achieving a 
more lethal, agile, and responsive Naval Force.
    The initiatives included in the Navy's Fiscal Year (FY) 2019 budget 
submission advance the ability to operate effectively in all warfare 
domains. Fiscal year 2019 programmatic adjustments represent the best 
balance of cost effective capabilities necessary to meet challenges in 
the Pacific and around the world. The following programs highlight a 
few of the key initiatives Navy is taking to improve capabilities:

    <bullet>  The Navy is pursuing Integrated Undersea Surveillance 
System (IUSS) recapitalization that supports Combatant Command and 
Fleet requirements and partner nation agreements in the Pacific. This 
effort includes consideration of a replacement for the Navy's aging 
cable repair ship and a mix of mobile and deployable sensor systems to 
provide flexible coverage against shifting current and future threats 
across large areas of ocean. Navy also funds research and development 
designed to improve our ability to detect and classify submarines in 
large expanses of ocean.

    <bullet>  The Navy has funded design and procurement of the 
Surveillance Towed Array Senor System (SURTASS) T-AGOS replacement, all 
five of which are currently stationed in the Pacific Area of 
Responsibility. The seven new T-AGOS vessels are expected to be more 
capable than the current vessels and more responsive to fleet 
operational needs. Construction of is scheduled to begin in fiscal year 
2022. Navy is also investigating the options for an Expeditionary 
SURTASS capability which will allow rapid fielding on vessels capable 
of hosting the system.

    <bullet>  The MQ-4C Triton Unmanned Aerial System (UAS) will 
provide the Fleet and CCMD with a persistent, robust, and agile network 
of sensors to provide indications and warnings (I&W) and situational 
awareness across vast geographic areas like the Pacific. Triton's high-
altitude, long-endurance, and advanced maritime sensors provide 
capability in high-density sea-lanes, littorals, and areas of national 
interest. When fully operational, Triton will provide near worldwide 
coverage through a network of five orbits. Triton will field in a 
baseline configuration in fiscal year 2018, with an Advanced Radar 
system, Automatic Identification System, Electronic Support Measures, 
Link-16, and Common Data Link. Baseline capability will be replaced in 
fiscal year 2021, by a multiple intelligence (multi-INT) configuration 
which adds additional SIGINT apertures. Throughout the lifecycle of the 
MQ-4C Triton system, the Navy will implement phased capability upgrades 
to outpace the evolving threat, to better adapt to near-peer 
competitors.

    <bullet>  As part of the Distributed Maritime Operations Concept, 
Navy is integrating the Government owned Minotaur geo-fusion engine 
across the fleet. Minotaur provides a platform agnostic decision 
superiority tool which allows for single and multi-platform cueing, 
collection, detection, classification and identification which bring 
the ability to better network all Navy assets. Minotaur is already 
resident on the Navy's EP-3E ISR aircraft and planning is in progress 
for future integration across all air, surface, and subsurface 
platforms.

    The Navy also leverages National Technical Means (NTM) to support 
persistent wide-area ocean surveillance as well as naval intelligence 
functions such as: I&W, current operational intelligence, intelligence 
preparation of the operational environment, intelligence assessment, 
and security. NTM capabilities also feed all-source intelligence 
analysis to inform Navy warfighting decisions, planning, and actions at 
the strategic, operational, and tactical levels of warfare.

    34. Senator Blumenthal. Secretary Spencer and Admiral Richardson, 
what options are you considering to improve ISR capabilities in the 
Navy; specifically, those suited for the vast expanse of the Pacific?
    Secretary Spencer and Admiral Richardson. The Navy plans, develops, 
and deploys Maritime Intelligence, Surveillance, Reconnaissance & 
Targeting (MISR&T) capabilities and capacity to satisfy Combatant 
Command requirements. The MISR&T capabilities funded by the Navy are 
integral to achieving a more lethal, agile, and responsive Naval Force. 
Navy continues to leverage our service partners and the intelligence 
community to ensure full spectrum Battlespace Awareness is available in 
the Pacific during all phases of warfare.
    The initiatives included in the Navy's Fiscal Year (FY) 2019 budget 
submission advance our ability to operate effectively in all warfare 
domains. Fiscal year 2019 programmatic adjustments represent the best 
balance of cost effective capabilities necessary to meet and defeat 
challenges in the Pacific and around the world. The following programs 
highlight a few of the key initiatives Navy is taking to improve 
capabilities:

    <bullet>  The Navy is pursuing Integrated Undersea Surveillance 
System (IUSS) recapitalization that supports Combatant Command and 
Fleet requirements and partner nation agreements in the Pacific. This 
effort includes consideration of a replacement for the Navy's aging 
cable repair ship and a mix of mobile and deployable sensor systems to 
provide flexible coverage against shifting current and future threats 
across large areas of ocean. Navy also funds research and development 
designed to improve our ability to detect and classify submarines in 
large expanses of ocean.

    <bullet>  The Navy has funded design and procurement of the 
Surveillance Towed Array Senor System (SURTASS) T-AGOS replacement, all 
five of which are currently stationed in the Pacific Area of 
Responsibility. The seven new T-AGOS vessels are expected to be more 
capable than the current vessels and more responsive to fleet 
operational needs. Construction of is scheduled to begin in fiscal year 
2022. Navy is also investigating the options for an Expeditionary 
SURTASS capability which will allow rapid fielding on vessels capable 
of hosting the system.

    <bullet>  The MQ-4C Triton Unmanned Aerial System (UAS) will 
provide the Fleet and Combatant Commander (CCMD) with a persistent, 
robust, and agile network of sensors to provide indications and 
warnings (I&W) and situational awareness across vast geographic areas 
like the Pacific. Triton's high-altitude, long-endurance, and advanced 
maritime sensors provide capability in high-density sea-lanes, 
littorals, and areas of national interest. When fully operational, 
Triton will provide near worldwide coverage through a network of five 
orbits. Triton will field in a baseline configuration in fiscal year 
2018, with an Advanced Radar system, Automatic Identification System, 
Electronic Support Measures, Link-16, and Common Data Link. Baseline 
capability will be replaced in fiscal year 2021, by a multiple 
intelligence (multi-INT) configuration which adds additional SIGINT 
apertures. Throughout the lifecycle of the MQ-4C Triton system, the 
Navy will implement phased capability upgrades to outpace the evolving 
threat, to better adapt to near-peer competitors.

    <bullet>  As part of the Distributed Maritime Operations Concept, 
Navy is integrating the Government owned Minotaur geo-fusion engine 
across the fleet. Minotaur provides a platform agnostic decision 
superiority tool which allows for single and multi-platform cueing, 
collection, detection, classification and identification which bring 
the ability to better network all Navy assets. Minotaur is already 
resident on the Navy's EP-3E ISR aircraft and planning is in progress 
for future integration across all air, surface, and subsurface 
platforms.

    The Navy also leverages National Technical Means (NTM) to support 
persistent wide-area ocean surveillance as well as naval intelligence 
functions such as: I&W, current operational intelligence, intelligence 
preparation of the operational environment, intelligence assessment, 
and security. NTM capabilities also feed all-source intelligence 
analysis to inform Navy warfighting decisions, planning, and actions at 
the strategic, operational, and tactical levels of warfare.
                    navy rotary wing aircraft report
    35. Senator Blumenthal. Secretary Spencer, last year's NDAA 
included a reporting requirement that directed you to submit a report 
that describes and assesses production of anti-submarine warfare 
helicopters and search and rescue helicopters in support of the 355-
ship Navy; however, the letter you provided to this Committee merits 
further consideration. Does the current rotary wing aircraft inventory 
meet the needs of a 355-ship Navy--regardless of the mix?
    Secretary Spencer. In accordance with House Report 115-219, 
accompanying the Department of Defense Appropriations Bill for Fiscal 
Year 2018, the Navy recently completed a Force Structure Assessment and 
force level study for its helicopter fleet. This assessment and ensuing 
Report to Congress, which we are providing to the Congressional 
Committees under separate cover, assessed the increasing capacity 
requirements for MH-60R/S aircraft as ship inventories grow to achieve 
the Navy's 355-ship objective outlined in the 30-year shipbuilding 
plan. This report concluded that, assuming current deployment ratios 
and aircraft-support requirements for the Navy's surface fleet remain 
as they are today, the Navy's inventory of MH-60 helicopters is 
sufficient to meet demands until the early 2030's, though some modest 
service-life extension measures may be required. However, a gradual 
increase in the surface ship inventory is expected to create demand 
that will eventually exceed current inventory. The report concluded 
that the Navy will require adjustments in rotary wing aircraft 
inventory, principally the MH-60R, in order to meet this demand. The 
MH-60R capacity requirement is driven primarily by the number of 
Carrier Air Wings, Large Surface Combatants, Small Surface Combatants, 
and their requisite air wing and helicopter detachment compositions. 
Options to achieve the increased capacity requirements include 
procurement of Future Vertical Lift (FVL). The Navy is participating in 
the Army-led, FVL effort. FVL will address concerns about the 
increasing demand signal while accounting for service life of existing 
MH-60R/S aircraft. FVL will phase in modern, state-of-the-art manned 
and unmanned air vehicles that will meet all of the Navy's future 
warfighting needs both in terms of capability and capacity. Other 
options include Service Life Extension Program (SLEP) for MH-60R/S, 
continued minimum sustaining rate procurement of MH-60R, and 
combinations of FVL, SLEP, and continued MH-60R procurement.

    36. Senator Blumenthal. Secretary Spencer, on the 40 aircraft you 
mention that are to be put in storage for future use, is there a 
current plan for them? Will they be used as spares?
    Secretary Spencer. Those aircraft will eventually be returned to 
the active inventory as demand increases. In the interim, the storage/
preservation of aircraft--to include the nearly 40 that are in storage 
today--will be used to manage flight-hour expenditures on our high-hour 
airframes.

    37. Senator Blumenthal. Secretary Spencer, the letter mentions, 
``the Navy will also employ modernization efforts, mid-life upgrades, 
and service life extension programs as needed to meet unforeseen 
variations in inventory demand.'' Is the Navy considering moving away 
from a service life extension program for the MH-60 fleet?
    Secretary Spencer. The cost and scope of service-life extensions 
needs to be balanced against available resources and competing 
priorities. It is likely the production timeline of follow-on Future 
Vertical Lift will necessitate some sort of limited MH-60 extension 
program.

    38. Senator Blumenthal. Secretary Spencer, the mid-life upgrades 
you reference in your letter have not yet been budgeted for the MH-60 
fleet. If the Navy is going to conduct a service life extension program 
for the MH-60 fleet, should it also plan for a mid-life upgrade?
    Secretary Spencer. The fiscal year 2019 President's Budget request 
includes limited funding in the PE 0604216N budget exhibit (R-1 Line 
#108) to commence mid-life upgrade capability studies. The results of 
these studies coupled with the timeline for production of Future 
Vertical Lift, will drive requirements for a mid-life upgrade.
                               __________
              Questions Submitted by Senator Mazie Hirono
                               navy rotc
    39. Senator Hirono. Secretary Spencer and Admiral Richardson, the 
University of Hawaii provides an ideal location for the establishment 
of a Navy ROTC unit, given its close proximity to the Pacific theater 
and excellent educational programs. Senior Navy leadership have 
promoted the idea of bringing Navy ROTC to the University of Hawaii due 
to the strong Naval presence in the state, the university's diverse 
pool of talented students and because the nearest Naval ROTC detachment 
is at least 2,500 miles away in California. The University of Hawaii 
has been home to Army and Air Force ROTC programs which have produced 
excellent officers for many decades. If you agree with the rationale I 
just described, will you work with me to help make Navy ROTC at the 
University of Hawaii a reality?
    Secretary Spencer and Admiral Richardson. We agree that University 
of Hawaii has high potential as a NROTC unit, and we look forward to 
working with you on making it a reality. Given our program's current 
excess capacity, it would be essential to disestablish some under-
performing units to better align capacity with the true officer 
commissioning requirement, and to serve as a funding offset for 
consideration of any new units. Toward that end, we would request your 
assistance with gaining statutory relief from the prohibition in recent 
Department of Defense Appropriations Acts against planning for and 
executing Senior ROTC unit disestablishments as a path for establishing 
a new unit at the University of Hawaii.
                            aviation mishaps
    40. Senator Hirono. Admiral Richardson and General Neller, in 2017 
the Navy and Marine Corps combined had 20 Class A aviation mishaps, 
which was the worst year for the Marine Corps since 2004. Already there 
have been several Class A mishaps in 2018 as well, including several 
fatalities. This tragic loss of life and significant damage to aircraft 
comes on top of significant issues with Physiological Episodes in 
tactical aircraft. While each mishap is unique and requires its own 
investigation into root causes, I hope that both services are looking 
deeply to find trends that apply across all Naval Aviation. Have any 
trends or causal factors common to these incidents been identified at 
this time?
    Admiral Richardson. Mishaps can be characterized which allows for a 
year-to-year comparison. The characterizations typically include: 
aircrew human factors, maintenance human factors, facilities human 
factors, and material failure (including bird-strike mishaps). 
Especially in cases where investigations are immature or the aircraft 
has not been salvaged, ``unknown'' is the only possible 
characterization. In some cases, two or more characterizations are 
assigned to a mishap (e.g. material failure followed by aircrew human 
factors).
    In fiscal year 2017 Naval Aviation experienced 19 Class A Flight 
Mishaps (One mishap was recently downgraded to a Class B). The initial 
analysis of those mishaps shows, 14 had an aircrew human factors 
component, one had a maintenance human factors component, two had a 
facilities human factors component, two have a material failure 
component, and one is unknown.
    Thus far in fiscal year 2018, Naval Aviation has experienced 12 
Class A Flight Mishaps. The initial analysis of those mishaps shows, 
five have an aircrew human factors component, zero have a maintenance 
human factors component, zero have a facilities human factors 
component, five have a material failure component, and three are 
unknown.
    When comparing mishap characterizations to the total number of 
mishaps in a fiscal year the percentage trends indicate a decrease in 
mishaps with an aircrew human factors component and an increase in 
mishaps with a material failure component.
    Despite a short term spike (in conjunction with recent and pointed 
media coverage), Class A Flight Mishap rates have changed very little 
over the last decade. Mishap prevention is always an utmost priority to 
the Naval Aviation Enterprise.
      
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		
    
      
    General Neller.

    <bullet>  It goes without saying that safety is our top priority. 
Although mishap trends have nearly doubled since 2013, the increase has 
been attributed to Class ``C'' mishaps (damage to aircraft of $50,000 
or more, but less than $500,000; or a nonfatal injury or illness that 
results in one or more days away from work, not including the day of 
the injury).

    <bullet>  The more serious Class A and B mishap rates, among manned 
aircraft, have remained relatively steady over the last 5 years and are 
not contributing to the increasing trend we observed.

    <bullet>  We must eliminate all factors that cause or contribute to 
mishaps. We have determined that the increase in Class C mishaps is 
attributed to human error--primarily due to reduced supervision and 
attrition of experienced maintainers.

    <bullet>  We learned from the Navy's 2017 Strategic Readiness 
Review that we must develop a more structured data-driven learning 
culture to increase the institutional attention to the core 
fundamentals. We are doing that in our aviation communities by 
developing a consolidated Naval Air Forces Safety Management System 
policy to refocus commands on getting ``back to the basics.'' This 
effort includes methods to increase awareness and oversight on 
Squadrons, Wings, and Carriers maintenance processes.
                          assignment of forces
    41. Senator Hirono. Secretary Spencer and Admiral Richardson, 
following the collisions in the Pacific last year there have been 
several competing recommendations made regarding the responsibility for 
readiness generation in the Pacific. Given that China and Russia have 
significant naval capabilities in the Pacific and are clearly named as 
strategic competitors in the National Defense Strategy, it appears to 
me that it will be more important than ever to protect the speed, 
flexibility, and agility of our Pacific forces to respond to potential 
emergencies, crises, and contingencies in an expeditious manner. Do you 
consider speed, flexibility, and agility to be essential to carrying 
out naval operations in the Pacific?
    Secretary Spencer and Admiral Richardson. Yes. Speed, flexibility, 
and agility enable the U.S. Navy to maneuver rapidly to gain advantage 
and are essential to carrying out naval operations in the Pacific.

    42. Senator Hirono. Secretary Spencer and Admiral Richardson, do 
you support any changes to the existing command and control Naval 
Forces in the Pacific, including readiness generation, to the extent 
that such changes would limit the speed, flexibility, and agility of a 
response, and/or place into question our resolve and commitment to our 
adversaries and allies in the Indo-Asia Pacific region?
    Secretary Spencer and Admiral Richardson. Our in-depth C2 
examination and several table top exercises have revealed that force 
generation capacity as well as force employment authority are 
capabilities that must be retained by both the Pacific Fleet and Fleet 
Forces Commanders because of the large areas and scope of 
responsibility their positions hold. Their authority must be 
commensurate with their responsibility in repairing, training, and 
deploying units as required in time of crisis or war.
                    energy resilience and assurance
    43. Senator Hirono. Admiral Richardson and General Neller, U.S. 
energy resilience is a vital component to our national security. The 
need to reduce energy consumption, use clean alternative energy 
sources, and increase U.S. security is closely tied to our overall 
national security and an important goal for all our branches of the 
military. How has the Navy and Marine Corps prioritized long-term 
energy resilience needs in this budget request in terms of operational 
fuel and delivery of electricity to installations?
    Admiral Richardson. The Navy addresses energy as a strategic 
resource that is essential to the successful execution of the Navy's 
afloat and ashore missions. Accordingly, the Navy Energy Strategy 
encompasses robust investments in people, technology, and programs 
across the Aviation, Expeditionary, Maritime, and Shore enterprises.
I. Operational Energy Investments
    The Navy's fiscal year 2019 Energy investments prioritize efforts 
that increase lethality and effectiveness of forces through resilience, 
operational reach, and forward presence. To increase combat readiness 
and mission success, the Navy will make significant short-term gains by 
adjusting policies to enable more energy efficient operations, 
encouraging awareness and energy-conscious behavior, optimizing 
existing technologies to reduce energy consumption, and accelerating 
the implementation of new technologies. This includes making 
investments in technologies for both our maritime and aviation 
platforms, as well as researching the technical feasibility of cost-
effective alternatives for diversifying energy supply and increasing 
flexibility.
II. Installation Energy Investments
    The Navy recognizes installation energy security as a critical 
component to our national security. The fiscal year 2019 budget 
emphasizes Energy Security Framework as the model for investments in 
our installations, focusing on the three pillars of reliability, 
resiliency, and efficiency. The Navy is making investments in 
infrastructure to enable a more efficient use of our facilities and 
utility systems. We are working with our partners in industry and in 
the community to incorporate emerging technologies and processes, as we 
continue to leverage third party financing and in kind consideration to 
improve mission critical assets. We are enhancing cyber security for 
our utilities and other facility-related control systems. Finally, we 
are conducting mission assurance assessments to identify 
vulnerabilities that will help to prioritize energy security and 
infrastructure investment decisions in support of the Navy's mission.
    General Neller. The Marine Corps has identified energy resilience 
as a priority to ensure that our installations are able to generate 
combat power and our ability to protect our nation's interests are 
assured through the delivery of reliable and resilient power. We are 
reducing our energy consumption and partnering with industry to make 
our installations both energy efficient and resilient.
    The Marine Corps is making strategic investments that enable 
efficiency, cost savings, infrastructure improvements, increased 
security and resilience, and increased productivity. Future investment 
focuses on six installations that represent approximately 60 percent of 
the Marine Corps' total energy consumption including some of the 
following projects:

    <bullet>  Marine Corps Base Camp Lejeune has undergone a large 
steam decentralization project that transitioned the installation from 
the use of coal-generated steam plants to individual high-efficiency 
natural gas-fired boilers. The $150 million project is planned to 
produce 636,000 MBTU annual savings (accounting for approximately 6 
percent reduction in total USMC energy consumption).

    <bullet>  The Marine Corps is also taking advantage of OSD-level 
funding not only to address energy efficiency, but to increase the 
resilience of our installations. Utilizing funding under the Energy 
Resilience and Conservation Investment Program (ERCIP), a micro grid is 
being constructed (targeting completion March 2019) at MCAS Miramar 
which will provide power and control, including the ability to restore 
electrical power to continue full operations during times of 
compromised energy supply, of electrical distribution systems 
supporting mission critical buildings along the flight-line.
                               __________
               Questions Submitted by Senator Angus King
                           navy shipbuilding
    44. Senator King. Secretary Spencer and Admiral Richardson, the 
Navy awarded conceptual design contracts for the FFG(X) to five 
companies worth $15 million each. Does the current acquisition timeline 
still support the release of the request for proposals (RFP) in 4th 
quarter fiscal year 2019, and to award a detailed design and 
construction (DD&C) contract for the FFG(X) program in fiscal year 
2020?
    Secretary Spencer and Admiral Richardson. Yes, while the 
acquisition timeline for FFG(X) is aggressive, the Navy is maintaining 
the schedule to release the DD&C RFP in the fourth quarter of fiscal 
year (FY) 2019 and to award the DD&C contract in the fourth quarter of 
fiscal year 2020.

    45. Senator King. Secretary Spencer, by ending LCS procurement in 
fiscal year 2019 and starting procurement of FFG(X) in fiscal year 
2020, what do you assess the implications are for the non-selected 
shipyards?
    Secretary Spencer. The Littoral Combat Ship (LCS) industry teams 
have the ability to compete for, and already are competing for, 
Government, non-U.S. Government, and commercial work. Should the LCS 
industry teams not be successful in securing sufficient workload beyond 
LCS, they will have to make business decisions to align with the market 
place.

    46. Senator King. Secretary Spencer and Admiral Richardson, the two 
DDG-51 shipbuilders are in the process of responding to the Navy's 
fiscal year 2018-22 DDG-51 Multiyear Procurement RFP. Are you committed 
to a DDG-51 multiyear outcome that will sustain both yards in the large 
surface combatant shipbuilding base?
    Secretary Spencer and Admiral Richardson. Yes, the Department is 
committed to a DDG 51 multiyear outcome that will sustain both yards in 
the large surface combatant shipbuilding base. The Navy considered both 
Government and industry objectives, including workload stability and 
the opportunity to earn a fair profit, in developing the competitive 
strategy for the fiscal year 2018 to fiscal year 2022 DDG 51 Multiyear 
Procurement. The solicitation included 10 firm ships (minimum award 
quantity of four ships to each shipbuilder). The solicitation also 
includes a request for priced option ships to provide further 
opportunities to increase DDG 51 workload at each shipyard. This option 
ship strategy will be used to award the additional ships included in 
the President's Fiscal Year 2019 Budget request, one per year in fiscal 
years 2019, 2021 and 2022. This approach maintains a stable and 
efficient workload at each builder while fostering competition across 
the procurement.

    47. Senator King. Secretary Spencer, what hull designs and other 
existing technologies are under consideration for the new CG(X) 
program?
    Secretary Spencer. The President's Fiscal Year 2019 Budget Request 
contained funding to commence the Future Surface Combatant Force 
Analysis of Alternatives (AOA). The planned force level AOA will 
produce the Future Large Surface Combatant Capabilities Development 
Document which will inform the hull designs and other existing 
technologies to be incorporated into the Future Large Surface Combatant 
(LSC). The Future LSC capability requirements will be targeted, in 
part, at recapitalizing the capabilities associated with the CG 47 
Ticonderoga-class cruisers as they retire.
    As part of the Future Surface Combatant Force AOA, a number of hull 
designs and existing (as well as developmental) technologies will be 
analyzed to determine the contribution to the warfighting effectiveness 
of the Future LSC as well as their contributions to the effectiveness 
of the overall force. Efforts will be made to utilize design and 
development work already completed through the Research and Development 
of earlier programs to incorporate lessons learned in a fiscally 
responsible manner.
                              acquisition
    48. Senator King. Admiral Richardson, you mentioned in your opening 
statement that the Navy is trying to achieve greater performance 
through more agile acquisition processes. How is the Department of the 
Navy making it easier for small businesses to compete for contracts and 
partner with the Navy?
    Admiral Richardson. The Department of the Navy (DON) has undertaken 
a number of initiatives to make it easier for small businesses to 
compete for contracts and partner with the Navy. These initiatives 
include the following:

    <bullet>  Small Business Advocacy: Each Deputy Program Manager 
(DPM) is tasked as a Small Business Advocate responsible for 
identifying opportunities for small business within their program. 
Specific actions include:
        o  In fiscal year 2017, Small Business Advocate training was 
provided to DPM's to educate the workforce on advocacy responsibilities 
and expectations; and,
        o  Contracting Commands and Program Executive Offices have a 
written Small Business Strategy focused on fiscal year 2017 to 2018, 
with specific actions to increase opportunities for small businesses to 
participate in procurements as prime and subcontractors. Strategies 
will be updated over the summer with focus on fiscal years 2019 to 2020 
and posted on a public facing website.

    <bullet>  Contracting: The Chief of Naval Research is planning a 
``Catapult'' initiative which is designed to minimize the time it takes 
to bring a solution from discovery to deployment. This initiative will 
allow small businesses the opportunity to speak directly with subject 
matter experts from the DON to promote their solutions.

    Small Businesses offer innovative, flexible, agile and affordable 
options in achieving the DON's mission. As stated in the National 
Defense Strategy, ``Maintaining the Department's technological 
advantage will require changes to the industry culture, investment 
sources, and protection across the National Security Innovation base.'' 
The DON is committed to streamlining our contracting processes and 
making it easier for small businesses to compete for contracts and 
partner with the Navy.
                               __________
             Questions Submitted by Senator Martin Heinrich
                             uss los alamos
    49. Senator Heinrich. Secretary Spencer, this year is the 75th 
anniversary of Los Alamos National Laboratory. The people of Los 
Alamos, and the national laboratory, have had a strong relationship 
with the Navy, supporting the Department since World War II, through 
the Cold War, and continuing to enable it today. This support was 
critical during the Manhattan Project, through the creation of the 
nuclear Navy, and the development of the sea-based leg of the strategic 
nuclear triad. In recognition of the contributions of the people of Los 
Alamos and the national laboratory, the full New Mexico delegation is 
hopeful you will consider naming the next nuclear-powered fast attack 
submarine the USS Los Alamos. When are the next opportunities for 
naming nuclear-powered fast attack submarines?
    Secretary Spencer. Ship and submarine naming packages are initiated 
once a contract has been awarded. The next expected availability for a 
fast-attack submarine is early 2019. Traditionally, and in accordance 
with the established naming convention, Virginia-class submarines are 
named after states but exceptions exist in USS Rickover and USS John 
Warner. The earliest opportunity to name a Columbia-class ballistic 
missile submarine is expected to be in the 2021 timeframe. As you 
pointed out, the patriotic men and women who have worked at the Los 
Alamos National Laboratory over its 75-year history have made a lasting 
and monumental contribution to national security and global stability. 
Honoring Los Alamos on this significant anniversary is a worthy 
recommendation, and one which I will give every consideration at the 
next opportunity to name a submarine.
                  naval installation energy resilience
    50. Senator Heinrich. Secretary Spencer, I am concerned about the 
vulnerabilities of the military's energy infrastructure to cyber-
attacks, physical attacks and severe weather, which threaten our 
ability to recover from multiday utility disruptions. Our adversaries 
are actively targeting our utilities infrastructure and have the 
potential to disrupt energy supplies to our military facilities at 
critical times, putting the nation at risk. I understand that the 
Navy's Resilient Energy Program Office has been working to improve 
energy resilience through microgrids, fuel cells, and bulk battery 
facilities.
    Can you discuss the advances the Navy is making in energy 
resilience, particularly in energy storage improvement?
    Secretary Spencer. The Department of the Navy is indeed working 
hard to identify vulnerabilities and mitigation strategies to close 
critical energy security gaps. Through our Energy Security Framework 
(ESF), our installations commands are working closely with the DOD 
mission assurance community to prioritize investments and operational 
procedures to ensure critical facilities on priority installations can 
operate under any scenario/situation. While always searching for the 
most cost-effective solutions and remaining technology agnostic, 
targeted investments in island-capable micro grids, advanced control 
systems, distributed generation resources, and energy storage systems 
are intended to ensure critical missions will remain operational during 
disruptions in the power grid.

    51. Senator Heinrich. Secretary Spencer, where else do you see 
opportunities to improve energy resilience?
    Secretary Spencer. In addition to the Energy Resilience and 
Conservation Investment Program (ERCIP), the Department is primarily 
relying on private capital and alternative financing mechanisms to 
obtain energy resilience. Additional opportunity exists to improve 
reliability, resiliency, cyber security and efficiency of our existing 
utilities and facilities infrastructure but the Facilities Sustainment, 
Restoration and Modernization (FSRM) account in the Operations and 
Maintenance (O&M) appropriation is consistently pressurized to meet 
critical and significant deficiencies in poor and failing facilities 
across the Department.
    Additional FSRM investment levels in the modernization of electric 
and water distribution systems, metering/data acquisition, advanced 
cyber control/monitoring systems and data analysis capabilities would 
greatly improve the Department's energy resilience. Given the current 
state of FSRM accounts, the Department will continue to plan and 
program energy investments that provide greatest improvement to 
critical facilities on priority installations and those that have 
financial payback within the FYDP.

    52. Senator Heinrich. Secretary Spencer, what obstacles, if any, 
are delaying implementation of these emerging technologies?
    Secretary Spencer. As the Department modernizes and expands our 
warfighting capabilities, installation infrastructure continues to 
compete for scarce funding resources. Years of underinvesting in 
facilities and utility systems has resulted in a significant backlog in 
sustainment, restoration and modernization across the Department. Some 
additional obstacles that delay the implementation of emerging 
technologies, include:
    <bullet>  Business case--many new technologies do not provide a 
lower life-cycle cost in the initial stages of implementation. As 
responsible stewards of taxpayer dollars, DON has made a conscious 
decision to be technology agnostic and to conduct life-cycle cost 
analyses on all proposed energy security solutions.
    <bullet>  Design criteria of existing facilities may not 
accommodate emerging technologies. Established criteria such as UFC 3-
520-1 ``Interior Electrical Systems'' that prohibit lithium batteries 
in occupied DOD facilities prevent us from implementing modern 
Uninterruptible Power Supplies (UPS) systems in critical operations and 
data centers. Prudent concerns over ventilation, fire suppression, and 
heating and air conditioning design standards require additional study 
before this technology can be used in occupied facilities
    <bullet>  The pace of evolving cyber threats and the lengthy 
timelines to assess, test, authorize, acquire and implement new control 
systems to operate on DOD infrastructure delays implementation of the 
latest ``smart'' technology in our utilities and facility related 
control systems. The Department is working to streamline the DOD Risk 
Management Framework processes to reduce the timeline necessary to 
obtain Authority to Operate (ATO) for modern control systems but 
competing requirements in the IT and Cyber domains continue to burden 
the system.
    The Department of the Navy works closely with DOD and Congress to 
ensure the highest priority missions are protected and implementation 
of emerging technologies is expedited where needed to minimize the risk 
to critical facilities.
                            uss desert ship
    53. Senator Heinrich. Admiral Richardson, New Mexico is proud to be 
the home for USS Desert Ship (LLS-1), one of only two land-locked ships 
in the U.S. Navy. USS Desert Ship has a long history of testing the 
Navy's next generation of weapon systems. What role will USS Desert 
Ship play in the testing and development of weapon systems like the 
electromagnetic railgun and the Navy Laser Family of Systems?
    Admiral Richardson. Electromagnetic Railgun (EMRG) and Hyper 
Velocity Projectile (HVP) have conducted or plan to conduct significant 
tests at the New Mexico White Sands Missile Range (WSMR) in the near 
term. The EMRG Test Site at WSMR was purposely located adjacent to the 
Desert Ship in order to enable future testing in combination with the 
AEGIS combat system and fire control capabilities provided by Desert 
Ship.
    The Navy has decades of experience evaluating laser weapon 
technology at the WSMR High Energy Laser System Test Facility (HELSTF) 
and such testing will continue in the future. One of the Navy Laser 
Family of Systems (NLFOS) initiatives, the Solid State Laser Technology 
Maturation (SSL-TM) project, will be conducting land-based testing at 
HELSTF in fiscal year 2019 before installation on USS Portland (LPD 
27). The interface between SSL-TM and the Ship Self Defense System 
combat system on LPD 27 precludes using Desert Ship, which is AEGIS-
based.
    The NLFOS HELIOS project will install laser weapons on DDG51 Flight 
IIA ships and will be integrated with the AEGIS combat system. Test 
locations and requirements are still being evaluated in the context of 
schedule requirements, cost, and operational fidelity of the 
environmental conditions. Desert Ship may be a viable facility for 
testing and development of HELIOS and/or other follow-on systems in the 
future.
                            directed energy
    54. Senator Heinrich. Admiral Richardson, I am pleased to see that 
the Navy is placing a high priority on developing directed energy 
weapons systems in the fiscal year 2019 budget request. The necessary 
technology for directed energy weapons is nearly there and I think the 
$299 million in the budget for the Navy Laser Family of Systems will do 
a lot to drive this home. If funded, do you think this budget well get 
directed energy weapons through the valley of death and into 
operationally fielded prototypes?
    Admiral Richardson. Yes. The Navy has formally designated its Naval 
Laser Family of Systems (NLFOS) as Rapid Prototyping, Experimentation, 
and Demonstration (RPED) programs. This puts NLFOS at the top of the 
Navy's acquisition priorities behind only Columbia and near-term safety 
issues. The Navy's strategy with the NLFOS projects is structured to 
provide near-term capabilities that bridge the ``valley of death'' 
between technology and capability while simultaneously increasing the 
pace of learning that enables the Navy to make informed decisions in 
the future on how to incorporate laser weapons into a layered defense. 
The Navy's budget request for fiscal year 2019 provides essential 
funding to keep the Navy on track to install several NLFOS prototypes 
and demonstration units on Navy ships in fiscal year 2019, including 
two Optical Dazzling Interdictor Navy (ODIN) systems on DDG 51 Flt IIA 
ships and the Solid State Laser Technical Maturation (SSL-TM) system to 
be installed on USS Portland (LPD 27). The Navy's fiscal year 2019 
request also includes funds to continue development of the High Energy 
Laser with Integrated Optical-dazzler & Surveillance (HELIOS) systems 
that could be available for installation on DDG 51 Flt IIA as early as 
fiscal year 2020. It is anticipated that all of these systems will be 
operationally fielded as part of the normal deployment schedules of the 
ships they are installed upon.

    55. Senator Heinrich. Admiral Richardson, what is the path from 
here to a program of record for these weapon systems?
    Admiral Richardson. Yes. The Navy has formally designated its Naval 
Laser Family of Systems (NLFOS) as Rapid Prototyping, Experimentation, 
and Demonstration (RPED) programs. This puts NLFOS at the top of the 
Navy's acquisition priorities behind only Columbia and near-term safety 
issues. The Navy's strategy with the NLFOS projects is structured to 
provide near-term capabilities that bridge the ``valley of death'' 
between technology and capability while simultaneously increasing the 
pace of learning that enables the Navy to make informed decisions in 
the future on how to incorporate laser weapons into a layered defense. 
The Navy's budget request for fiscal year 2019 provides essential 
funding to keep the Navy on track to install several NLFOS prototypes 
and demonstration units on Navy ships in fiscal year 2019, including 
two Optical Dazzling Interdictor Navy (ODIN) systems on DDG 51 Flt IIA 
ships and the Solid State Laser Technical Maturation (SSL-TM) system to 
be installed on USS Portland (LPD 27). The Navy's fiscal year 2019 
request also includes funds to continue development of the High Energy 
Laser with Integrated Optical-dazzler & Surveillance (HELIOS) systems 
that could be available for installation on DDG 51 Flt IIA as early as 
fiscal year 2020. It is anticipated that all of these systems will be 
operationally fielded as part of the normal deployment schedules of the 
ships they are installed upon.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                  marine mammal protection act (mmpa)
    56. Senator Warren. Secretary Spencer, the Navy submitted a 
proposal to the Committee for the fiscal year 2019 NDAA to amend the 
Marine Mammal Protection Act (MMPA), which ensures protections from 
human harm to whales, dolphins, and other marine mammals. The current 
process requires the Navy to participate in an MMPA rulemaking every 
five years, to analyze impacts to marine mammals and propose mitigation 
measures to the extent ``practicable,'' and to obtain an Incidental 
Take Authorization for five years (known as a Letter of Authorization, 
or LOA). The Navy's proposal would strike the requirement to obtain 
these MMPA permits every five years, leaving the final permits obtained 
by the Navy in place indefinitely.
    Has the Navy ever been denied an Incidental Take Authorization from 
the National Oceanic and Atmospheric Administration (NOAA)?
    Secretary Spencer. To date, the National Oceanic and Atmospheric 
Administration (NOAA) has been able to make the requisite statutory 
findings that taking associated with the Navy's actions would: (1) have 
no more than a negligible impact on those marine mammal species or 
stocks, and (2) not have an immitigable adverse impact on the 
availability of the species or stock for subsistence use, and issue the 
Navy incidental take authorizations (ITAs) it has requested. However, 
the rulemaking process to finalize the ITAs consistently takes us to 
the 5-year expiration date, and requires extraordinary effort to ensure 
timely MMPA coverage and maintain Fleet readiness. The 5-year 
limitation unnecessarily risks Navy training and testing activities 
without benefiting the species.
    The Navy's fiscal year 2019 NDAA proposal seeks only to remove the 
5-year limitation on the duration an MMPA permit can be authorized. 
This would allow the duration of future MMPA permits to be consistent 
with the duration of the action so long as the action and effects do 
not substantively change. This change would align the MMPA's permitting 
process with that of the Endangered Species Act (ESA) consultation 
process. The ESA allows the regulatory agency's Biological Opinion to 
have a duration that is aligned with that of the action, or that 
extends into the foreseeable future, provided the action and its 
effects on protected species do not substantively change and no other 
provisions outlined in 50 CFR 402.16 are triggered that would require 
re-initiation of formal consultation.

    57. Senator Warren. Secretary Spencer, what is the overall annual 
financial cost that the Navy incurs to comply with the current five-
year LOA permitting process?
    Secretary Spencer. The administrative cost for the Navy's At-Sea 
environmental compliance for the years 2005 through 2017 was $362.5 
million. This translates to an annual average cost of $28 million.
    The estimated annual average financial cost (fiscal year 2019-
fiscal year 2023) that the Navy will incur to comply with the aspects 
of the at-sea compliance program that are strictly associated with the 
current five year LOA permitting process is 8$20 million per year. This 
cost is broken up into two main aspects: (1) costs associated with the 
modeling, analysis, and development of compliance documentation; and 
(2) manpower to execute and provide oversight to the compliance 
processes.
    On average, $13-15 million per year of the costs are associated 
with the modeling, analysis and development of compliance 
documentation. This money funds the following key tasks:
    <bullet>  the development of new or updating of existing marine 
mammal density models;
    <bullet>  the acoustic modeling of Navy sound sources (e.g. sonar, 
explosives, airguns, etc.) and their associated impacts to marine 
mammals;
    <bullet>  the analysis of acoustic modeling results and the 
development of other qualitative analyses of Navy activities;
    <bullet>  the development of an MMPA LOA application and an ESA 
Biological Assessment consultation package
    <bullet>  the generation of National Environmental Policy Act 
(NEPA) documentation to support the LOA rulemaking \2\
---------------------------------------------------------------------------
    \2\ Because issuance of five year regulations under the MMPA is 
classified as a major federal action it requires the development of 
National Environmental Policy Act (NEPA) documentation. Therefore, each 
five year permit requires the Navy to update or re-do its existing NEPA 
documentation. The National Marine Fisheries Service is a cooperating 
agency on the Navy's NEPA documentation and adopts the Navy's NEPA 
document as their own. However, all costs associated with the NEPA 
documentation to support NMFS's issuance of the five year regulations 
are borne by the Navy.
---------------------------------------------------------------------------
    The remaining $5 million per year in costs, are associated with the 
Navy's manpower to provide oversight, and review of all of these 
products. There are over 50 Navy employees (Military and Civilian), 
throughout the following commands DASN(E), OPNAV N45, USFF, CPF, 
NAVAIR, NAVSEA, ONR, SPAWAR, and NAVFAC, whose primary responsibilities 
are to support the above functions. Therefore, the manpower costs 
associated with these staff are estimated to add up to 8$5 million in 
additional costs per year that the Navy incurs to comply with the 
current five year LOA permitting process.
    These annual requirements cost the Navy an additional $11-12 
million dollars per year (fiscal year 2019-23), and are associated the 
following:
    <bullet>  Marine mammal monitoring requirements of the LOA
    <bullet>  Sonar and explosive reporting requirements of the LOA
    <bullet>  Marine mammal mitigation requirements of the LOA (e.g. 
North Atlantic Right Whale aerial surveys, updating the Navy's PMAP 
program with mitigation requirements)
    Lastly, the above costs also do not include research investments 
the Navy voluntarily makes as part of its environmental stewardship 
role, to improve the general knowledge about marine mammals and to 
advance the Navy's understanding of the potential impacts of our 
activities to marine mammals. The Navy invests between $14-15 million 
annually in basic and applied research on marine mammals. This research 
is primarily funded through two main programs: Office of Naval 
Research's Marine Mammals and Biology Program, and the Chief of Naval 
Operation N45's Living Marine Resources program. A small amount of 
research is also funded through the Naval Air Systems Command (NAVAIR), 
Naval Sea Systems Command (NAVSEA), and the Space and Naval Warfare 
Systems Command (SPAWAR).

    58. Senator Warren. Secretary Spencer, what percentage of the 
Navy's total annual budget is represented by the overall annual 
financial cost incurred by the Navy to comply with the current LOA 
permitting process?
    Secretary Spencer. The Navy's total financial costs to comply with 
the 5-year LOA permitting process is approximately $20 million per year 
(see response to Question 56, for additional details).
    As laid out in the Department of Defense Presidential Budget 
Exhibit #28 submitted to Congress, the average annual cost of the 
Navy's entire Environmental Compliance, Pollution Prevention, and 
Conservation Program is approximately $470 million (fiscal year 2019-
23). The costs associated with complying with the 5-year LOA permitting 
process all fall within the Conservation program area. The average 
annual cost of the Navy's Conservation portfolio is $76.1 million per 
year (fiscal year 2019-23). Therefore, the $20 million annual cost of 
complying with the 5-year LOA permitting process represents 826.3 
percent of the entire Conservation Program Area, and 84.25 percent of 
the Navy's entire Environmental Compliance, Pollution Prevention, and 
Conservation Program.
    The Navy's total financial cost to comply with the 5-year MMPA 
permitting process represents a very small percentage (0.01 percent) 
when viewed in the context of the Navy's total annual budget, currently 
proposed at $194.1 billion (Base and Overseas Contingency Operations) 
for fiscal year 2019.

    59. Senator Warren. Secretary Spencer, to your knowledge, has the 
Navy's readiness been compromised in any manner due to the current 
five-year LOA permitting process required by the MMPA?
    Secretary Spencer. Litigation under the MMPA has on various 
occasions unreasonably restricted Navy training and testing activities, 
and does limit the time, place and types of training and testing 
activities that Navy is able to conduct. Two examples are illustrative.

    Surveillance Towed Array Sensor System (SURTASS) Low Frequency 
Active (LFA) Sonar: There have been nine cases that have sought to 
restrict the Navy's use of SURTASS LFA sonar. Three cases concerned 
Navy's employment of SURTASS LFA sonar as authorized by regulators in 
2002, 2007, and 2012 under the MMPA and ESA. In two of these cases, the 
Navy's activities were subject to significant geographic restrictions 
beyond what had already been imposed by the regulators. In 2002, for 
example, the court granted plaintiffs' request for a preliminary 
injunction, which limited to four areas the locations in the western 
Pacific where the Navy could use SURTASS LFA sonar. In 2007 the parties 
entered into a stipulated settlement after the judge again ruled that a 
preliminary injunction was appropriate. In this settlement, use of 
SURTASS LFA sonar was prohibited in portions of the western Pacific.

    Hawaii and Southern California Testing and Training: In 2015, 
plaintiffs filed suit against the Navy and the NMFS alleging violations 
of NEPA, the ESA and the MMPA. The subject of the lawsuit was the Navy 
proposal to conduct training and testing activities using mid-frequency 
active (MFA) sonar in waters surrounding Hawaii and off the southern 
California coast, and NMFS issuance of MMPA letters of authorization 
for these activities. The lawsuit was filed in the Hawaii district 
court and that court ultimately ruled in favor of plaintiffs on all 
claims on March 31, 2015. Before the judge could rule on the remedy, 
the Navy, NMFS and plaintiffs settled the case; settlement included 
significant geographic restrictions to MFA sonar related testing and 
training activities in Hawaii and Southern California waters.

    To date, the Navy has taken the necessary steps to mitigate impacts 
on readiness as a result of the current five year LOA permitting 
process required by the MMPA. Although the MMPA was amended to make it 
more efficient for military readiness activities, the Navy has 
requested that the Secretary of Defense invoke the Department's 
National Defense Exemption (NDE) to the MMPA three times since the 
provision was inserted into the law in 2004 in order to maintain Fleet 
readiness. Additionally, the Navy has expended funds on environmental 
compliance documentation at the expense of other priorities. Given the 
temporal limitation under the MMPA for letters of authorization (five 
years), the record shows Navy will continue to confront this risk on a 
recurring basis.

    60. Senator Warren. Secretary Spencer, has the Navy conducted an 
assessment of any kind of the impact of its proposal on marine mammals? 
If yes, can you please share that assessment with the Committee? If no, 
please explain whether the Navy will conduct such an assessment.
    Secretary Spencer. The Navy's assessment is that this proposal will 
have no impact on marine mammals. Currently the Navy requests Marine 
Mammal Protection Act (MMPA) take authorization based upon training, 
testing and other military needs such as in water construction. Under 
the MMPA in the case of military readiness activities, the Secretary of 
Commerce or the Secretary of the Interior (Commerce or Interior) 
``shall allow'' the incidental taking of marine mammals upon request 
after notice and an opportunity for public comment so long as certain 
findings are made by the Secretary and once regulations are prescribed. 
These authorizations are currently issued under Letters of 
Authorizations (LOA) that are only valid for up to 5-years.
    Removal of the 5-year time limit on MMPA authorizations will not 
result in Navy requesting greater take authorization. The Navy's 
request will continue to be based upon the forecasted future level of 
required military activity. Under the proposal either Commerce or 
Interior will continue to have to find that the total taking authorized 
will have a negligible impact on such species or stock. Commerce or 
Interior will also still be required to publish regulations setting 
forth permissible methods of taking, and other means of effecting the 
least practicable adverse impact on such species or stock. Although 
under the Navy proposal the 5-year limit will be removed, either 
Commerce or Interior will retain the discretion to issue LOAs for 
whatever time period the applicable Secretary deems appropriate. As 
under current law, the Navy will not be authorized to exceed this level 
of take without seeking additional authorization from Commerce or 
Interior. And as under current law, should Commerce or Interior find 
that Navy was not substantially complying with its authorization, or 
that the taking allowed under the authorization was having more than a 
negligible impact on the species or stock, Commerce or Interior would 
be required to withdraw or suspend permission to take marine mammals.
                    readiness and operational tempo
    61. Senator Warren. Admiral Richardson, last year, the 7th Fleet 
suffered three collisions in the Western Pacific, and 17 sailors lost 
their lives. I recently returned from a trip to Japan, where I visited 
the 7th Fleet at Yokosuka. We discussed the results of the Navy's 
review and what has changed for them.
    In October 2017, the Comprehensive Review concluded that: ``the 
pressure to meet rising operational demand over time caused Commanders, 
staff and crew to rationalize shortcuts under pressure.'' However, when 
I spoke to the 7th Fleet earlier this month, they told me that their 
operational tempo had not changed very much.
    What changes has the Navy has made in the Pacific Command (PACOM) 
area of responsibility (AOR)?
    Admiral Richardson. Within the past year, the Navy has established 
Naval Surface Group, Western Pacific (NSGWP) to provide training and 
readiness oversight to surface ships assigned to Seventh Fleet, as a 
result of implementing recommendations of the Comprehensive Review and 
Strategic Readiness Review. The Navy continues to increase the 
capability and capacity of air, surface, and subsurface assets by 
assigning more and more capable platforms to the AOR to bolster combat 
credible forward presence.
    Additionally, a few key actions have been taken to improve 
readiness:

    7th Fleet Operations--7th Fleet has adopted new scheduling and 
force generation processes that identify mismatches in force employment 
and force generation while protecting training/certification periods 
for ships. Through restoring the Optimized Fleet Response Plan-Japan 
(OFRP-J) construct, Japan-based Cruisers and Destroyers now have 
dedicated time to accomplish maintenance, training, and certification. 
Operational tasking is being adjusted to protect training requirements.

    Risk Assessment Mitigation Plans (RAMPs) replaced by Certification 
Deficiency Risk Management Plans (CDRMP)--All pre-existing RAMPS have 
been cancelled. Ships only conduct missions they are certified for. If 
a ship is ever required to conduct operations before completing its 
Basic Phase, a CDRMP must be prepared by NSGWP, agreed to by CNSP and 
C7F, and approved by COMPACFLT.

    Ready for Sea Assessments (RFSAs)--In order to determine their 
material and operational readiness, RFSAs have been completed for FDNF-
J ships not currently in a maintenance availability. All remaining 
FDNF-J ships are being closely tracked for RFSA completion, as they 
transition out of maintenance and resume normal operations.

    62. Senator Warren. Admiral Richardson, what steps, if any, has the 
Navy taken to reprioritize mission demands across combatant commands?
    Admiral Richardson. The Navy generates maritime capability (defined 
as forces which are properly manned, trained, equipped, and certified) 
in support of Joint Staff adjudicated combatant commander requirements 
and consistently reviews its force posture to best support the National 
Defense Strategy. The Joint Staff prioritizes and balances combatant 
commander mission requirements across the Joint Force in accordance 
with the strategic priorities found in our governing strategic 
documents. Ultimately, The Secretary of Defense approves all 
operational deployments and the assignment of forces to combatant 
commanders.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 24, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                           AIR FORCE POSTURE

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee Members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Cruz, Scott, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Heinrich, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. The committee meets today to receive 
testimony on the posture of the U.S. Air Force and its fiscal 
year 2019 budget request.
    We welcome our witnesses: Secretary Heather Wilson and 
General David Goldfein. Fein is fine. We all remember that.
    The Air Force is at a critical moment in its history. It 
faces a dual task of digging out of a readiness crisis while at 
the same time managing a broad modernization effort. You do not 
have the luxury of choosing one or the other. You got to do 
both.
    I was pleased to see increases in the budget request for 
fiscal year 2019 to address both readiness and modernization, 
but I am interested to hear from you how the Air Force will 
manage this balance in the years ahead, particularly if the 
Budget Control Act funding levels return in 2020.
    I continue to be concerned with the availability of 
aircraft and the preparedness of our airmen. Trends in pilot 
retention remain troubling with the current shortage of some 
2,000 pilots. It was not long ago that we were using the figure 
1,500. So it does not seem to be getting any better and we need 
to address that.
    The NDS [National Defense Strategy] makes clear that space 
is and will continue to be a contested environment. Both Russia 
and China continue their robust efforts to extend warfighting 
into outer space, and we can no longer take our space-enabled 
capabilities for granted. All of this makes our dismal space 
failures even more detrimental.
    Despite recent reforms, lasting change will require your 
leadership and vision to sustain a whole-of-the-government 
approach.
    Finally, I look forward to hearing about the progress of 
the Air Force nuclear modernization efforts. As we heard in the 
Nuclear Posture Review earlier this year, we cannot afford to 
stand still in this area when our adversaries have been 
investing in their nuclear forces for the last 2 decades. I 
know the Air Force has been working hard on the new bomber and 
missile programs, as well as new engines for the B-52. New 
engines for the B-52. I just noticed that the life extension 
now is going to be 2050. It is going to be 100 years old by 
that time.
    But anyway, Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
join you in welcoming Secretary Wilson and General Goldfein. 
Thank you for your service and thank you for your great 
leadership of the United States Air Force. We are grateful also 
to the men and women of the Air Force who do so much, and 
please convey to them our deep appreciation and thanks, as you 
always do.
    Our witnesses this morning face huge challenges as they 
strive to balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge in the three critical domains of air, space, 
and cyberspace.
    The Air Force has produced a budget that even with proposed 
budget increases reflects very tough decisions. The budget 
increases the Air Force is proposing for fiscal year 2019 would 
seek to increase readiness, address shortfalls in munitions, 
address shortfalls in pilots and maintenance personnel, and 
modernize our strategic deterrent capability.
    In addition, the Air Force faces a continuing challenge in 
managing the cost and progress of its major acquisition 
programs, including the Joint Strike Fighter, the most 
expensive DOD acquisition program in history, and a new tanker 
and a new bomber. We should hear from our witnesses on the 
progress of all three of these programs this morning.
    I would also like to hear more about another modernization 
program. In this budget, the Air Force is proposing to truncate 
the program to modernize the Joint Surveillance and Target 
Radar System, or JSTARS program. The Air Force deserves our 
careful consideration of this proposal, but we must consider it 
against the recent history of abrupt Air Force program changes.
    The Air Force tried several years to retire the A-10 fleet. 
Congress turned down the proposals. Now the Air Force is 
keeping the A-10 and will continue experimenting with a new 
light attack aircraft (OA-X) that would undoubtedly be less 
survivable than the A-10. Spending for OA-X could cost the Air 
Force several hundred million dollars or more.
    The Air Force supported a Nunn-McCurdy certification that 
the Global Hawk remotely piloted vehicle was critical to 
national security and then proposed canceling the program in 
favor of the U-2 program within a few months of the Global Hawk 
certification. Later the Air Force wanted to cancel the U-2 
program in favor of the Global Hawk.
    The Air Force first proposed to retire nearly half of the 
Compass Call aircraft without replacement, then decided that 
modernizing the Compass Call program was so important that they 
had to pursue a sole-source contracting strategy for the 
program.
    The Air Force was pursuing a program to buy the C-27 
airlift aircraft because Air Force witnesses said that the C-
130 airlift aircraft could not meet their requirements. Later 
the Air Force canceled the C-27 program and said that the C-130 
was perfectly fine for meeting the direct support mission.
    With regard to the JSTARS program, the Air Force originally 
proposed to retire a sizeable portion of the current fleet of 
JSTARS aircraft with no immediate replacement in sight. When 
Congress turned down that proposal, the Air Force submitted a 
modernization plan to replace the existing capability with a 
new business jet and a new radar. The contract to implement the 
JSTARS modernization plan is currently in source selection. But 
now, as I mentioned earlier, the Air Force's fiscal year 2019 
budget proposes to cancel that JSTARS solicitation and pursue 
another path. The Air Force has mentioned the National Defense 
Strategy as a reason for making this decision, but the 
indication about this decision seems to have been made before 
the National Defense Strategy.
    I look forward to hearing about updating these efforts and 
all your efforts, including progress on improving shortfalls 
within the remotely piloted aircraft community and shortfalls 
within the larger pilot personnel community.
    Again, thank you very much for your committed leadership to 
the Air Force, and thank you for being here today.
    Senator Inhofe. Thank you, Senator Reed.
    Secretary Wilson and General Goldfein, we want to hear your 
opening statements. We will start with you, Secretary Wilson.

STATEMENT OF THE HONORABLE HEATHER A. WILSON, SECRETARY OF THE 
                           AIR FORCE

    Dr. Wilson. Thank you, Mr. Chairman.
    I would like, with consent, to put my entire statement in 
the record.
    Senator Inhofe. Without objection.
    Dr. Wilson. And just summarize a few points.
    First of all, Mr. Chairman and Ranking Member Reed, thank 
you very much for the hearing today.
    I would like to highlight a few things that are in our 
fiscal year 2019 budget proposal.
    The budget proposal for fiscal year 2019 does align with 
the National Defense Strategy, and we developed this budget 
proposal at the same time the National Defense Strategy was 
being drafted. And so there is a direct influence there.
    The National Defense Strategy recognizes that we face a 
more competitive and dangerous international security 
environment than we have faced in decades. Great power 
competition has reemerged as the central challenge for U.S. 
security and prosperity.
    There are what I would say are two bold moves in this 
budget and one continuing theme.
    With respect to the bold moves and the changes, we are 
accelerating defendable space to deter, defend, and prevail 
against anyone who seeks to deny our ability to freely operate 
in space. There is an 18 percent increase from the fiscal year 
2018 5-year defense plan to the fiscal year 2019 5-year defense 
plan in space, and there are significant changes there.
    The second bold move is the shift to multi-domain 
operations, particularly with respect to command and control 
and the way in which we do command and control in a 
disaggregated way rather than relying on a platform-centric 
upgrade, which is the JSTARS program.
    So those are the two large shifts and changes driven by the 
environment within which we find ourselves.
    The continuing theme and the continuing effort is to keep 
improving the readiness of the force to win any fight anytime. 
In fiscal year 2017, we kind of started to turn the corner. The 
additional resources added by the Congress in fiscal year 2018 
are helping us to start to climb out of a readiness deficit, 
and the fiscal year 2019 proposal with the budget certainty 
that the Congress has given us will help us to restore the 
readiness of the force. And I wanted to thank you publicly for 
that effort. We need that certainty and we are committed to 
using the dollars which you appropriate wisely in the defense 
of the nation.
    Chief?
    [The prepared statement of Dr. Wilson and General Goldfein 
follows:]

Prepared Statement by Honorable Dr. Heather Wilson and General David L. 
                                Goldfein
                         strategic environment
    The United States now faces a more competitive and dangerous 
international security environment than we have seen in generations.
    Great power competition has reemerged as the central challenge to 
U.S. prosperity and security. China is rapidly modernizing its military 
and seeks regional preeminence. Russia aims to restore its national 
prestige and has shown its willingness to use military force and 
coercion in Europe and the Middle East. North Korea uses the threat of 
nuclear weapons to secure the survival of the regime. Iran has been a 
source of instability in the Middle East through the sponsorship of 
terrorism and exploitation of internal conflict in the region. Violent 
extremist organizations rooted in the Middle East, North Africa, and 
South Asia create instability and threaten the United States Homeland 
and our allies and partners.
    With global trends and intensifying pressure from major 
challengers, our relative advantage in air and space is eroding in a 
number ofcritical areas. The projected mismatch between demand and 
available resources has widened. Any American weakness emboldens 
competitors to subvert the rules-based international order and 
challenge the alliance and partnership network that underpins it.
    In accordance with the National Defense Strategy, the Air Force 
must build a more lethal and ready force, strengthen alliances and 
partnerships, and deliver greater, more affordable performance. The Air 
Force requires the right size and mix of agile capabilities to compete, 
deter, and win in this environment, brought to bear by Airmen steeped 
in the business of joint and combined warfare.
                     air and space power in demand
    Air and space power is indispensable to every joint force 
operation. The Air Force's first responsibility is to integrate air and 
space capabilities across the domains--delivering unmatched global 
advantage as an equal member of the joint team. We must be ready to 
design and lead joint and combined operations in support of national 
objectives.
    We have five core missions:

    <bullet>  Air and Space Superiority . . . freedom from attack and 
freedom to attack. Air and space superiority gives our military and 
coalition forces the freedom to operate. Accelerating the campaign to 
defeat ISIS, airmen conducted more than 172,000 sorties and 98,000 
precision air strikes last year--over 70 percent of the total in the 
campaign--to support Iraqi and partner forces in Syria and Iraq. In the 
NATO-led mission in Afghanistan, the Air Force executed a sustained air 
interdiction campaign of over 4,000 sorties to support Afghan partners, 
targeting Taliban so-called safe zones, command and control nodes, 
illicit revenue-generating ventures, and logistical networks. In space, 
the Air Force operates 6 constellations and 12 satellite systems vital 
to national security that provide communications, command and control, 
missile warning, nuclear detonation detection, weather, and GPS for the 
world. In 2017, the Air Force supported 28 space launches from our 
facilities at Vandenberg and Cape Canaveral, a 40 percent increase from 
2016. We are planning 45 launches in 2018, sending both national 
security payloads and an increasing number of commercial payloads into 
orbit.

    <bullet>  Global Strike . . . any target, any time. Airmen maintain 
the continuous alert of our missile forces. Last year, Airmen conducted 
16,425 intercontinental ballistic missile alert tours and 248 missile 
convoys across 3 missile wings and 5 states. Our bombers flew 580 
missions in the Indo-Pacific, strengthening security and stability in 
the region and reassuring our partners. Reinforcing NATO's eastern 
flank, American bombers flew 70 assurance and deterrence missions.

    <bullet>  Rapid Global Mobility . . . delivery on demand. In 2017, 
airmen transported nearly 1 million personnel, the equivalent of moving 
the population of Montana, and delivered over 738 million pounds of 
warfighting equipment and humanitarian supplies, the weight of 82 U.S. 
Capitol Domes. Our tanker force extended joint power projection at 
intercontinental distances by passing more than 1 billion pounds of 
fuel in-flight, which could fill the Rose Bowl to the top, while 
aeromedical evacuation airmen airlifted more than 5,000 patients to 
safety. Closer to home, airmen delivered 13,600 short tons of relief 
supplies following the string of record-setting hurricanes, and helped 
combat multiple wild fires in the western United States.

    <bullet>  Intelligence, Surveillance, and Reconnaissance (ISR) . . 
. global eyes and ears on adversaries. Last year, the Air Force was 
tasked with nearly 25,000 ISR missions, collected 340,000 hours of full 
motion video, and produced 2.55 million intelligence products--which 
averages almost 5 products every minute that close intelligence gaps 
and support target analysis and development. Persistent ISR closely 
tied to precision weapons from the ground and air has been a linchpin 
element in the destruction of ISIS.

    <bullet>  Command and Control . . . right info, right person, right 
time. Last year, our E4-B National Airborne Operations Center--
thesurvivable mobile command center--conducted 53 alert tours and 
provided travel support to the Secretary of Defense. Our E-8C Joint 
Surveillance Target Attack Radar System flew over 5,000 hours, enabling 
a range of support for combatant commanders from command and control in 
the ISIS campaign to the interdiction of over 12,500 kilograms of 
illicit drugs before they entered our Nation's borders. The E-3 
Airborne Warning and Control System was integral to coordinating search 
and rescue efforts during the 2017 hurricane season.

    Increasingly, we are conducting these missions with allies and 
partners. The Air Force engaged in more than 85 exercises with 
international partners last year, including 5 focused on high-end 
combat. We furthered the international role of the F-35, training with 
partners in both Europe and South Korea, and began delivery of F-35s to 
Israel, Norway, and Italy. We concluded 42 International Arms 
Cooperation agreements worth $2.95 billion, including a cost-sharing 
agreement that launched the ninth Wideband Global SATCOM satellite 
which enables international partners access to shared high-capacity 
global communications. In 2017, Foreign Military Sales expanded nearly 
three-fold from the year prior to $22.7 billion. These sales strengthen 
the United States' position as the security cooperation partner of 
choice, and expand interoperable airpower.
                          strategic direction
    The Air Force budget request of $156.3 billion for fiscal year 2019 
builds onthe progress made in 2018 to restore the readiness of the 
force, increase lethality, and cost-effectively modernize. Sustaining 
these efforts requires predictable budgets at the requested funding 
levels.
    In alignment with the National Defense Strategy, this budget 
prioritizes long-term competition with China and Russia.
    This budget moves the Air Force in the direction of multi-domain 
operations. Future wars will be won by those who observe, orient, 
decide, and act faster than adversaries in an integrated way across 
domains--land, sea, air, space, and cyberspace.
    The squadron remains the foundational fighting unit of the Air 
Force. The Air Force currently has 301 frontline operational squadrons 
\1\ to execute our core missions, supported by squadrons that directly 
enable the fight and provide reachback capability. Based on the new 
National Security Strategy, National Defense Strategy, and Nuclear 
Posture Review, the Air Force is in the process of determining how many 
squadrons we need to deliver the combat capability required to execute 
the new defense strategy.
---------------------------------------------------------------------------
    \1\ Fighters, bombers, airlift, intelligence/surveillance/
reconnaissance, command and control, special operations, space, cyber, 
missile, and personnel recovery squadrons are counted here.
---------------------------------------------------------------------------
                           continuing efforts
    Some elements of this budget continue programs and strategies that 
are well established:

    <bullet>  Readiness:  Restoring readiness to win any fight, any 
time remains a primary objective. The budget funds 1.5 million flying 
hours--1.2 million executable peacetime training flying hours and 
300,000 flying hours supporting overseas contingency operations--at a 
cost of $8.7 billion. We propose to buy 54,443 preferred munitions to 
reverse previous declining inventories at a cost of $1.8 billion. This 
budget also funds training ranges, simulators, instructors, and key 
infrastructure required to improve the quality of our training in 
alignment with the National Defense Strategy prioritization of peer 
competition.

    <bullet>  People:  The fiscal year 2019 budget proposal represents 
an increase in the size of the Air Force by 4,700 airmen. \2\ Our five-
year plan calls for achievable, steady growth to approximately 339,000 
Active Duty airmen while we simultaneously review existing manning 
across the Active Duty, Guard, and Reserve components. In addition, 
this budget submission funds important support to airmen and families 
with a 2.6 percent military pay raise, increased housing and 
subsistence allowances, and family support programs. We will invest in 
purposeful development of airmen to strengthen our joint warfighting 
excellence--integrating education, training, and experience for our 
leaders and teams.
---------------------------------------------------------------------------
    \2\ Total Force number including Active Duty, Guard, and Reserve.

    <bullet>  Nuclear Deterrence:  Our budget proposal supports the 
Defense Department's principal priority to maintain a safe, secure, and 
effective nuclear deterrent that safeguards the Homeland, assures 
allies, and deters adversaries. The budget improves our nuclear 
command, control, and communication systems as directed in the Nuclear 
Posture Review. It initiates development of B-52 replacement engines, 
continues development of the Long Range Stand Off missile, and 
continues development of the replacement for the Minuteman III 
---------------------------------------------------------------------------
intercontinental ballistic missile.

    <bullet>  Modernization:  The budget funds our priority 
modernization initiatives with the purchase of 48 F-35 fighters, 15KC-
46 tankers, and continued development of the B-21 bomber. This year, we 
will decide the new T-X advanced trainer aircraft and the replacement 
for the UH-1 helicopter. Critical to mission success is continued 
investment in our classified portfolio, which will be briefed in a 
closed session.
             changes to implement national defense strategy
    Some elements of this budget reflect a change to confront the 
reemergence of great power competition:

    <bullet>  Space Superiority:  The fiscal year 2019 budget 
represents a 33 percent increase from last year in the research, 
development, test, and experimentation budget for Air Force Space to 
meet the threat from China and Russia. We will build more jam-resistant 
GPS satellites, improve missile warning, improve space situational 
awareness, and increase our ability to defend our Nation's most vital 
assets on orbit. We are taking advantage of changes in legislative 
authorities to return program decision authorities back to the Air 
Force, including 14 of the 19 Major Defense Acquisition Programs within 
the space portfolio. Using tools such as the Defense Acquisition 
Workforce Development Fund, we are investing in our people, ensuring 
they have theright skills and training to succeed.

    <bullet>  Multi-Domain Command and Control:  Technological advances 
are changing the character of warfare. The budget proposes to change 
the way we execute battlefield management command and control in the 
multi-domain environment. We propose to modernize 7E-3 Airborne Warning 
and Control System (AWACS) aircraft and keep the current E-8C Joint 
Surveillance Target Attack Radar System (JSTARS) operational through 
the mid-2020s, as we developand transition to an advanced battle 
management system. This approach will integrate space, air, and ground 
based sensors on manned and unmanned platforms and satellites to meet 
more combatant commander requirements in both contested and non-
contested environments.

    <bullet>  Air Superiority:  Central to lethality is our ability to 
gain and maintain air superiority when and where needed against 
potential adversaries in 2030 and beyond. Over the next five years, we 
will develop an integrated family of systems that can establish and 
maintain air superiority in a contested environment. The fiscal year 
2019 budget includes $1.0 billion as part of a $63.8 billion effort 
over the five-year plan. This will be a multi-domain effort with a 
renewed emphasis on electronic warfare, networked capabilities, and 
control of the electromagnetic spectrum.

    <bullet>  Light Attack:  Retaining irregular warfare as a core 
competency at a lower cost and strengthening our alliances are key 
elements of our National Defense Strategy. The Air Force proposes to 
continue the light attack experiment, developing concepts of operation 
and further defining requirements in preparation for fielding a force 
of U.S. light attack aircraft during this five-year plan. We are 
focusing on rapid fielding and rapid procurement strategies that 
leverage existing capabilities with little or no development. Designed 
to be coalition at the core, we will invite and lead allies and 
partners to train in the U.S., buy common equipment for their own 
affordable light attack squadrons, and build those international 
squadrons on a network that shares information.

    <bullet>  Science and Technology:  The Air Force launched a review 
of our science and technology strategy that will be complete later this 
year. This budget increases emphasis on basic and applied research to 
drive long-term innovation and dominance in air and space power.

                           budget priorities
    Improving Warfighting Readiness:  Readiness is first and foremost 
about having enough trained people. We continue to address the aircrew 
shortage through a multi-pronged approach. This budget boosts pipeline 
capacity, expands pilot training and addresses experience shortfalls, 
continues incentive pay and bonuses, improves administrative support at 
the squadron level, and funds flying hours to executable levels. It 
also addresses gaps in space, nuclear, cyber, and intelligence career 
fields, and supports Battlefield Airmen, our air-to-ground integration 
force.
    The budget proposal funds aircraft depot maintenance, parts, 
logistics support, and invests $2.8 billion in operational training 
infrastructure needed for relevant, realistic training for the multi-
domain environment. It fully funds preferred munitions to industry 
capacity. This includes Hellfire missiles, Joint Direct Attack Munition 
bombs, the Small Diameter Bomb, and the Advanced Precision Kill Weapon 
System.
    The Air Force recruits airmen, but we retain families. To improve 
family support, the budget funds expanded childcare hours, increases 
off-base childcare support, and funds more respite care and support 
coordinators for special needs families. We are improving the 
assignment system so families can better plan for future assignments, 
sustaining our morale and resilience programs, and implementing 
initiatives that support unit cohesion in our squadrons.
    The Air Force is also significantly changing the way we collect 
operational tempo metrics. Prior methods underreport how much time 
airmen are away. By now accounting for temporary duties away from home 
station for training exercises or mission-related requirements in 
addition to deployment time, we more accurately capture the true impact 
of service demands on airmen, families, and home units.
    Safe, Secure, and Effective Nuclear Deterrent:  Deterrence works if 
our adversaries know that we can hold at risk things they value. We 
must concurrently modernize the entire nuclear triad and the command 
and control systems that enable its effectiveness. The Air Force 
stewards two legs of the triad and operates 75 percent of the Defense 
Department's nuclear command, control, and communication (NC3) 
capabilities.
    Modernizing the air-based leg of the nuclear triad, the budget 
continues development of the replacement air-launched cruise missile, 
which is 25 years past its design life and faces improving adversary 
air defense systems.
    This weapon will equip the B-52, B-2, and forthcoming B-21 bombers 
to maintain flexible and effective stand-off capability that can 
penetrate and survive the most challenging environments.
    This budget continues to update the B-52 bomber fleet and funds 
development of replacement engines. With adequate sustainment and 
modernization, including new engines, the B-52 will remain a key part 
of the bomber enterprise well into the future. Additionally, the budget 
proposal begins to replace our Vietnam-era UH-1N helicopter.
    The budget moves forward modernization of the ground-based leg of 
the nuclear triad. The Ground-Based Strategic Deterrent program will 
replace the retiring Minuteman III, which has remained viable four 
decades past its design life through a series of costly service life 
extensions, but cannot be extended further beyond 2030.
    Today's nuclear command, control, and communications system was 
last comprehensively updated almost three decades ago. The budget 
targets investments to modernize the integrated land, air, and space-
based systems to ensure secure, survivable connectivity with the 
President and national command leadership.
    Cost-Effective Modernization:  Underfunded in modernization for 
over a decade, the Air Force must manage a bow wave in modernization 
over the next ten years.
    The budget proposes to upgrade F-16 and F-15 C/D aircraft to retain 
affordable capacity. We propose to buy 48 F-35A aircraft in FY19 and 
258 F-35A aircraft over the next five years. The F-35A fighter brings 
unparalleled global precision attackcapability. The Air Force will 
integrate the F-35 with fourth-generation aircraft as well as space and 
unmanned aircraft, to maintain air superiority in highly contested 
environments.
    Tanker recapitalization remains a top acquisition priority. The 
multi-role KC-46 is capable of refueling joint and coalition aircraft 
with both boom and drogue in the same sortie, and augments the airlift 
fleet with improved cargo, passenger, and aeromedical evacuation 
capabilities. This budget proposes to buy 15 more KC-46 tankers in 
fiscal year 2019.
    Our budget proposal continues to develop the B-21 bomber as a key 
component to the joint portfolio of conventional and nuclear deep-
strike capabilities. The B-21 will be able to deliver both gravity 
bombs and the Long Range Stand-Off missile, ensuring options for our 
Nation's leaders to hold targets at risk around the world.
    Moving Faster to Defendable Space:  The fiscal year 2019 budget 
accelerates our efforts to deter, defend, and prevail against anyone 
who seeks to deny our ability to freely operate in space. The budget 
recognizes that adversaries are developing the ability to deny our free 
use of space and includes capabilities to confront that threat. The 
development of these capabilities will continue over the future years 
defense plan and beyond.
    Fore going the continued buy of today's Space Based Infrared System 
satellites 7 and 8, the Air Force will develop the next-generation 
Overhead Persistent Infrared system. This system will detectandreport 
on current, emerging, and anticipated threats, and will be designed for 
survivability.
    The budget adds resilience features and user protection to the 
Advanced Extremely High Frequency and Wideband Global Satellite 
Communications systems, and continues to fund development of next-
generation protected satellite communications services for both 
strategic and operational military users. We continue to explore more 
affordable and innovative ways to acquire satellite communications 
services with investment in both commercial industry and international 
partner capabilities.
    The budget proposal increases funding for anti-jam, anti-spoof, and 
anti-tamper military GPS development and integration into multiple 
joint platforms, and continues to grow Space Situational Awareness and 
Space Control capabilities to enhance our ability to identify, 
characterize, and attribute threatening actions. The budget also funds 
a Weather Satellite Follow-on program using rapid acquisition 
authorities.
    Building upon the foundational architecture for space warfighting, 
we will deliver highly responsive capabilities to connect tactical and 
operational systems to strategic-level decision makers. The recentst 
and-up of the National Space Defense Center supports this mission. The 
budget also funds the Standard Space Trainer that provides realistic, 
live, virtual, constructive training to prepare our Space Mission Force 
Airmen to prevail in a contested space domain.
    Networked Battle Management:  Integrating capabilities that span 
all domains of warfare will be required for success in future combat. 
With the other Services, we are shifting from a model of 
interdependence to one of integration, which includes better integrated 
communications systems, development of tailorable units, and policies 
in key areas that enable adaptability and innovation. Concurrently, we 
will advance our command and control systems to reflect the changing 
character of warfare.
    The Air Force capability that delivers persistent battle management 
command and control and ground moving target indications to joint 
warfighters is in high global demand that far exceeds supply. We 
currently conduct battlefield command and control from JSTARS, AWACS, 
Combined Air Operations Centers, Tactical Operations Centers, and 
mobile Control and Reporting Centers, and monitor many targets on the 
ground from JSTARS, Global Hawk, and other unmanned aerial systems. We 
had planned to recapitalize our aging fleet of E-8C JSTARS on a newer 
aircraft, however, we believe that system will not be viable in future 
contested environments and the recapitalization plan brought no 
additional capability or capacity to meet future demands despite over 
$15 billion in total lifecycle costs. In developing an alternative 
approach that will meet more warfighter needs, we propose to keep the 
current E-8C JSTARS operational through mid-2020s and replace the 
recapitalization program as we transition to an advanced battle 
management system for the future. This approach, as directed in the 
National Defense Strategy, will network sensors from space, air, land, 
and sea, and fuse information to create a more comprehensive picture to 
support the jointfight, even in a contested environment.
    Strengthening Alliances:  The National Defense Strategy emphasizes 
the importance of alliances and partnerships. The fiscal year 2019 
budget reinforces the Air Force commitment to our allies and 
international partners through programs such as the European Deterrence 
Initiative and Indo-Pacific security initiatives.
                        reforming the department
    While this budget proposes additional resources for the Air Force, 
we have to gain full value from every taxpayer dollar we spend. We will 
drive innovation, reinforce budget discipline and affordability, and 
deliver performance with the funds entrusted to us.
    Zero-Based Review: For the first time in more than two decades, we 
are conducting a zero-based review of all Air Force programs, budget 
accounts, and manpower authorizations to prepare for fiscal year 2020 
and the future years defense plan. We will examine the relevance of 
every requirement and program to align with the new defense strategy. 
Everything we do is ``on the table'' during this review.
    Headquarters Air Force Staff Review:  Simultaneously, we are 
reviewing the structure and manning of the Headquarters Air Force 
staff. We are the smallest and most integrated of the service staffs 
and intend to stay that way. We will ensure each position is used 
efficiently and effectively to support the warfighter.
    Acquisition:  Enabled by the fiscal year 2016 and fiscal year 2017 
National Defense Authorization Acts, we are streamlining Air Force 
acquisition. We have mile stone decision authority for more programs 
and we are pushing authority to run programs down to lower levels and 
using new techniques to innovate, including rapid proto typing and 
experimentation. We appreciate Congress' continued support of the 
Acquisition Workforce Development fund and expedited hiring authorities 
to attract, recruit, hire, develop, and retain a high-quality 
workforce.
    Streamlining:  We are systematically reviewing, reducing, and 
clarifying onerous internal instructions, additional duties, and 
computer-based training. There are over 1,300 Air Force instructions 
that levy 85,000 requirements on our wings and squadrons. Every one of 
them will be reviewed, rescinded, or rewritten over a 24-month period. 
We will significantly reduce the number of Air Force publications and 
ensure the remaining ones are concise, current, and relevant. We have 
already rescinded over 100 Air Force Instructions. While this review 
reduces stifling bureaucracy and associated cost, the more important 
impact is on our ability to fight. This supports the culture of 
centralized intent and decentralized execution we need for competent 
and entrusted airmen to make decisions in future highly contested 
environments, where we cannot expect continuous centralized control.
    Air Force Warfighting Integration Capability (AFWIC):  The Air 
Force is implementing changes to program development that will better 
integrate the budget across the force and allow for more rapid change 
to meet emerging threats. This will improve force design analysis to 
support national defense priorities and improve our ability to engage 
in multi-domain operations.
    Revitalizing Squadrons:  Squadrons are the warfighting core of our 
Air Force. We organize, train, and equip to deploy from the squadron 
up. By revitalizing our squadrons, we are reinforcing cohesive, ready, 
and agile fighting forces to defend our Nation's interests in the 
complex security environment. We depend on exceptional leaders to lead 
the world's most powerful Air Force and joint teams. We will develop 
future leaders, address cultural shifts to embrace 21st Century talent 
management, and unlock the true potential of our airmen.

STATEMENT OF GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Goldfein. Thank you, Senator Inofe, Ranking Member 
Reed, distinguished members of the committee. It is an honor 
for Secretary Wilson and I to represent 670,000 airmen as we 
update you on the Air Force and our budget proposal for 2019.
    And I will begin by thanking this committee for its 
leadership in building and then gaining approval for a historic 
budget that will continue the rebuilding of the U.S. military 
as we return to an era of great power competition. And central 
to this effort was the perseverance, tenacity, and leadership 
of Chairman John McCain, who we know is recovering today in his 
beloved Arizona. As airmen we will never forget that he shared 
his Vietnam POW experience with men like Bud Day and Lance 
Sijan. We admire his leadership and wish him and his family our 
warmest regards as he takes on this latest challenge and we 
hope to see him soon in these hallowed chambers.
    A fitting testimony to his unwavering dedication and 
commitment, this budget request allows our nation to confront 
today's threats and moves us towards an Air Force we need to 
face tomorrow's challenges. As airmen, we first defend the 
Homeland and our allies with a safe, secure, and effective 
nuclear deterrent, and we are expected to own the high ground 
with air and space superiority. And as stated in the National 
Defense Strategy, we are expected to project America's military 
power forward with our allies and our partners as we bring 
global vigilance, global reach, and global power to the joint 
team.
    This historic budget we discuss today continues the 
recovery you set in motion in 2017 when we stopped the 
continued erosion of our readiness following years of budget 
instability. In 2016, our pilots averaged just 17 hours of 
flying time per month. We were able to advance that number to 
19 hours in 2018, and with this budget, we begin restoring 
pilot proficiency to 21 hours per month in 2019. Pilots join to 
fly and this budget gets them back in the air.
    In 2016, we faced a shortage of over 4,000 maintainers. In 
2018, we will reduce that number to almost zero. 10 years of 
maintenance experience lost cannot be gained overnight. Yet, 
this budget builds the foundation for a full recovery.
    Nine years of continuing resolutions have negatively 
affected our munitions manufacturers and the industrial base 
that we will need in a peer fight. Under CRs [Continuing 
Resolutions], we placed industry in a difficult situation to 
retain capacity and a roster of highly skilled workers with 
appropriate security clearances without being able to clearly 
identify what we could afford to purchase each year. This 
budget request fully funds preferred munitions to industry 
capacity, allowing for 9,000 line items above fiscal year 2018 
totals. With your continued support of this 2019 budget, for 
the first time in years, we have a National Security Strategy, 
a National Defense Strategy, and a Nuclear Posture Review and 
the resources required to support them.
    Strategic alignment. Said another way as has been argued so 
loudly by this committee, for the first time in years, we have 
a strategy-driven budget versus a budget-driven strategy. And 
on behalf of all of our airmen, I can only say thank you.
    However, we also know that we only have visibility on this 
plan through 2019, and a return to the disastrous budget caps 
of BCA [Budget Control Act] in 2020 would repeat the damage 
caused by the 2013 sequester from which we are still recovering 
as a service.
    And finally, we are acutely aware that every dollar we are 
given is a dollar that was earned by Americans. It is our 
solemn obligation to remain good stewards of those dollars.
    Thank you again for the opportunity this morning to testify 
on behalf of airmen who are standing the watch.
    Secretary Wilson and I welcome your questions.
    Senator Inhofe. Thank you, General Goldfein.
    I appreciate your comments about Senator McCain, and on his 
behalf right now, I will read his statement since a quorum is 
present.
    Since the quorum is now present, I ask the committee to 
consider a list of 256 pending military nominations. Included 
on this list are the nominations of Admiral Davidson to be 
Commander, U.S. Pacific Fleet; General O'Shaughnessy to be the 
Commander of the U.S. Northern Command (NORAD). All these 
nominations have been before the committee the required length 
of time.
    Is there a motion to favorably report this list of 256 
pending nominations to the Senate?
    Senator Reed. So moved.
    Senator Wicker. Second.
    Senator Inhofe. All in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. The motion carries.
    [The information referred to follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
Which are Proposed for the Committee's Consideration on April 24, 2018.
     1.  MG Dorothy A. Hogg, USAF to be lieutenant general and Surgeon 
General of the Air Force (Reference No. 1110)
     2.  In the Navy there is 1 appointment to the grade of captain 
(Edward M. Crossman) (Reference No. 1276)
     3.  RADM Richard P. Snyder, USN to be vice admiral and Inspector 
General, Department of the Navy (Reference No. 1555)
     4.  In the Marine Corps there is 1 appointment to the grade of 
major (Douglas R. Burian) (Reference No. 1590)
     5.  VADM John C. Aquilino, USN to be admiral and Commander, US 
Pacific Fleet (Reference No. 1596)
     6.  In the Air Force there are 4 appointments to the grade of 
colonel (list begins with Richard G. Anderson) (Reference No. 1597)
     7.  In the Air Force there are 14 appointments to the grade of 
lieutenant colonel (list begins with Ronnelle Armstrong) (Reference No. 
1600)
     8.  In the Air Force there are 51 appointments to the grade of 
lieutenant colonel (list begins with Alison Lee Beach) (Reference No. 
1601)
     9.  VADM Charles A. Richard, USN to be vice admiral and Commander, 
Naval Submarine Forces/Commander, Submarine Force, US Atlantic Fleet, 
and Commander, Allied Submarine Command (Reference No. 1668)
    10.  Capt. Gregory N. Todd, USN to be rear admiral (lower half) 
(Reference No. 1721)
    11.  Capt. John S. Lemmon, USN to be rear admiral (lower half) 
(Reference No. 1723)
    12.  In the Navy there are 2 appointments to the grade of rear 
admiral (list begins with Ronald C. Copley) (Reference No. 1725)
    13.  In the Navy there are 3 appointments to the grade of rear 
admiral (list begins with Brian K. Corey) (Reference No. 1726)
    14.  RADM(lh) Darse E. Crandall, USN to be rear admiral (Reference 
No. 1727)
    15.  In the Navy there are 2 appointments to the grade of rear 
admiral (lower half) (list begins with Kristen B. Fabry) (Reference No. 
1729)
    16.  In the Navy there are 3 appointments to the grade of rear 
admiral (lower half) (list begins with Heidi K. Berg) (Reference No. 
1732)
    17.  Capt. John J. Adametz, USN to be rear admiral (lower half) 
(Reference No. 1733)
    18.  Capt. Thomas J. Anderson, USN to be rear admiral (lower half) 
(Reference No. 1734)
    19.  In the Navy there are 19 appointments to the grade of rear 
admiral (lower half) (list begins with James A. Aiken) (Reference No. 
1735)
    20.  In the Navy there are 11 appointments to the grade of 
lieutenant commander (list begins with Nana K. Appiawiah) (Reference 
No. 1741)
    21.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Tia W. Caphart) (Reference No. 1753)
    22.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Napoleon A. Campos) (Reference No. 1754)
    23.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Kevin R. Embry) (Reference No. 1755)
    24.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Andrew J. Furjanic) (Reference No. 1756)
    25.  In the Army there is 1 appointment to the grade of colonel 
(Daniel L. Lee) (Reference No. 1757)
    26.  In the Army there is 1 appointment to the grade of colonel 
(John M. Williams) (Reference No. 1758)
    27.  General Terrence J. O'Shaughnessy, USAF to be general and 
Commander, US Northern Command/Commander, North America Aerospace 
Defense Command (Reference No. 1770)
    28.  Col. Michael T. Gerock, ANG to be brigadier general (Reference 
No. 1771)
    29.  MG Stephen G. Fogarty, USA to be lieutenant general and 
Commanding General, US Army Cyber Command (Reference No. 1772)
    30.  BG Raymond S. Dingle, USA to be major general (Reference No. 
1774)
    31.  MG Francis M. Beaudette, USA to be lieutenant general and 
Commanding General, US Army Special Operations Command (Reference No. 
1775)
    32.  In the Army Reserve there are 16 appointments to the grade of 
major general and below (list begins with Eugene J. LeBoeuf) (Reference 
No. 1776)
    33.  Admiral Philip S. Davidson, USN to be admiral and Commander, 
US Pacific Command (Reference No. 1777)
    34.  RADM David M. Kriete, USN to be vice admiral and Deputy 
Commander, US Strategic Command (Reference No. 1778)
    35.  RADM(lh) Michelle C. Skubic, USN to be rear admiral (Reference 
No. 1781)
    36.  In the Navy there are 14 appointments to the grade of rear 
admiral (list begins with Eugene H. Black III) (Reference No. 1782)
    37.  RADM(lh) Brent W. Scott, USN to be Chief of Chaplains of the 
Navy (Reference No. 1783)
    38.  Capt. Darin K. Via, USN to be rear admiral (lower half) 
(Reference No. 1784)
    39.  LTG Michael G. Dana, USMC to be lieutenant general and 
Director, Marine Corps Staff (Reference No. 1785)
    40.  LTG David H. Berger, USMC to be lieutenant general and Deputy 
Commandant for Combat Development and Integration, Headquarters, US 
Marine Corps (Reference No. 1786)
    41.  In the Marine Corps there are 8 appointments to the grade of 
brigadier general (list begins with Stephen E. Liszewski) (Reference 
No. 1787)
    42.  In the Air Force Reserve there are 65 appointments to the 
grade of colonel (list begins with Michael J. Abbott) (Reference No. 
1788)
    43.  In the Army there is 1 appointment to the grade of major 
(Roberto Sorianoolivas) (Reference No. 1789)
    44.  In the Army there is 1 appointment to the grade of major 
(Jason Palatas) (Reference No. 1790)
    45.  In the Army there are 2 appointments to the grade of major 
(list begins with Jose R. Reveles, Jr.) (Reference No. 1791)
    46.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (D012279) (Reference No. 1792)
    47.  In the Army there is 1 appointment to the grade of major 
(Russell B. Gilliland) (Reference No. 1793)
    48.  In the Army there is 1 appointment to the grade of colonel 
(Erik M. Bauer) (Reference No. 1794)
    49.  In the Army there is 1 appointment to the grade of colonel 
(Lawrence W. Henry) (Reference No. 1795)
    50.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Kenneth A. Willeford) (Reference No. 1796)
    51.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (D012941) (Reference No. 1797)
    52.  In the Army there is 1 appointment to the grade of major 
(Roxanne T. Sickles) (Reference No. 1798)
    53.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Chad R. Fitzgerald) (Reference No. 1799)
    54.  MG Charles G. Chiarotti, USMC to be lieutenant general and 
Deputy Commandant, Installations and Logistics (Reference No. 1813)
    55.  In the Army Reserve there is 1 appointment to the grade of 
colonel (James F. Huggins II) (Reference No. 1814)
    56.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Denny L. Rozenberg) (Reference No. 1817)

_______________________________________________________________________
                                                                    
TOTAL: 256

    About a month ago, several of us on this committee, Senator 
Ernst, Senator Rounds, Senator Sullivan, myself, and also a 
couple of members from the House Armed Services Committee were 
in the South China Sea. It is kind of hard to convince the 
American people that our image in that area is not really up 
and equal to China's image. We all know about what has happened 
in terms of the islands that they have created, and they are up 
over 3,000 acres right now. It is all as if they are preparing 
for World War III, and those words came from our allies over 
there, not from me. It is pretty frightening when you see some 
seven islands that were illegally created and have nothing 
except really military equipment, cannons, and all of that.
    And so we are finding allies that we have there, and we 
talked to all of them, the Philippines, South Korea, Taiwan, 
Japan. It is almost as if they are taking sides. Who shall it 
be? China or the United States? Whether we like it or not, that 
is our current image there, and I am really concerned about 
giving some kind of assurance to our allies that we are being 
prepared in a different way that may not be visible now.
    Do you have any thoughts about that, Secretary Wilson, 
about reassuring our allies over there that we are in the game?
    Dr. Wilson. Mr. Chairman, our responsibility is to be 
strategically predictable to our allies and to be there and to 
be operationally unpredictable to our adversaries.
    The Chief and I went to the Pacific to the Philippines, 
South Korea, Japan. The Chief then went on to India.
    Senator Inhofe. When was this?
    Dr. Wilson. In January to reassure them. Last week, we had 
a Five Eyes meeting, as well as meetings with the Japanese, the 
French, the Norwegians, and others about our space partnerships 
and opened up our space schoolhouse to more allies and 
partners. We are stronger together than we are alone.
    I do not know if the Chief wants to talk a little more 
about our operational partnerships.
    Senator Inhofe. And, Chief, what I am getting at here is 
the image that we have over there, which I am sure you saw at 
the same time that you were there.
    General Goldfein. Yes, sir. And what I will tell you is 
that a big part of the air component story in the Indo-Pacific 
region is the stability of our forces over time. If you take a 
look at the drastic reductions that we have taken over time 
across the Air Force, where we have had to pull forces is 
primarily from CONUS [Continental United States], or here in 
the United States, and in Europe where we have come down 
significantly over the years. If you look at where we are in 
the Pacific, it has actually been fairly stable over time. And 
so our commitment to our fellow air chiefs there and how we 
exercise, how we operate, whether that is on the Korean 
Peninsula or throughout the region, has remained stable, and I 
project it will remain stable over time. Then with this 
increased budget, it gives us an opportunity to further 
reinforce that air component solidarity with our allies and 
partners there in the region.
    Senator Inhofe. I think that is significant, and I 
appreciate that very much. I wanted to get that on record.
    Senator Reed mentioned several of the vehicles that are out 
there that we are modernizing right now. The one that is of 
greatest interest to me perhaps is the KC-46. When you stop and 
think about the KC-135 having endured--what--59 years, I look 
at this as something that is going to be probably in that same 
situation.
    Secretary Wilson, we are anxious for the first KC-46 to get 
delivered to the Air Force. We understand that is going to 
happen this year. We have had some delays on the first 
delivery, and we are all very interested in that.
    The President's Budget had, I think, 15 coming on board, 
the KC-46. Do you agree that that is an adequate number, an 
achievable number, and a desirable number?
    Dr. Wilson. Yes, sir. I think that is a desirable number.
    We have had meetings with Boeing and additional meetings 
last week to get an agreement on a schedule. We believe, the 
Air Force believes, that the schedule that Boeing has is still 
overly ambitious, and we would like to get agreement on a 
delivery date and drive to that delivery date.
    Senator Inhofe. What do you think about the President's 
Budget having 15 in it, General Goldfein?
    General Goldfein. Sir, also I agree with the Secretary that 
it is absolutely a desirable number and a sustained number over 
time as we bring that weapon system on. As you know, I would 
offer that we are a global power because of our global reach, 
and it is all the services that rely on that tanker force and 
our allies and partners to be able to project power globally. 
So it is a critical capability that we need to bring on as fast 
as we can bring it on.
    Senator Inhofe. Agreed. Thank you.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    First, let me note that I had the opportunity to go down 
and visit the B-21 facilities in Florida and was very impressed 
with the management, both the Air Force and the contractor. I 
know you are paying quite a deal of attention to that, and 
thank you for your efforts in that regard.
    I want to go back to the JSTARS issue I raised. My sense of 
the back and forth--and it has been over several years. So this 
is not a recent development--is that originally the aircraft 
was going to be retired without replacement, and then Congress 
said no. Then the Air Force came back with a modernization plan 
for a business jet with a radar and then went into a source 
solicitation process for that. Then now in 2019, the proposal 
is they canceled that solicitation and pursued another path. 
And some rationale has been the National Defense Strategy, but 
we got a sense that this was going to be the 2019 proposal even 
before the NDS came out.
    So either the Secretary or the Chief of Staff, can you give 
us some ideas about what is going on?
    Dr. Wilson. Senator, we were working on the National 
Defense Strategy for about 9 months before it was published, 
and I think the last version that I saw had version 67 on it. 
So we understood the direction we were going to be guided to go 
before it was actually published in January. So it did 
influence our fiscal year 2019 budget submission.
    There are several things that have changed. And I was on 
the National Security Council staff in 1991 when JSTARS was a 
new invention. We pushed it forward into the fight when Saddam 
Hussein invaded Kuwait, and it was a transformative capability. 
But in 1991, I did not have a cell phone. Nobody in this room 
had a cell phone, and technology was different. So is the 
threat.
    So the threat is changing and we have been guided to say 
what do we need to do in a contested environment to support the 
ground operators because that is what this is about. We know 
that it will not survive close to the battle area. It looks 
forward about a couple hundred miles onto the ground to look at 
what troops are amassing out there to attack us.
    So we asked them to see if they could come up with a better 
way to solve the problem. The proposal we put forward 
integrates multiple sensors, space, air, manned, unmanned, 
ground, fuses that data instead of having one aircraft doing a 
loop close to the battle area. We also know that we can keep 
JSTARS. We have looked at the airframes. We think we can keep 
them a little longer than we thought. That opens this 
opportunity. We will extend and bring back some AWACS [Airborne 
Early Warning & Control] to help as well, and they are a little 
further off from the forward edge of the battle area. We had 
the engineers come in and scrub this plan so that the 
technology readiness level is high. We think this is a better 
answer, and that is why we put it forward in the budget.
    Senator Reed. General Goldfein, your comments, please.
    General Goldfein. Yes, sir. First, I would like to make 
sure that there is no question in anybody's mind that we are 
committed to staying shoulder to shoulder with Army, Navy, 
Marine Corps as we continue to look at the fight in the future. 
I have been fighting side by side with the Army my entire 
career, and it is my obligation I believe, as the Secretary 
organized train and equip, to ensure that any soldier, sailor, 
marine, airman who are on the ground who hear jet noise--I 
never want them to look up. I want them to know it is us, and 
we owe that to them.
    So this is about ensuring that we understand the problem 
that we have to solve, and the problem, as the Secretary has 
laid out, is that we have to simultaneously be able to provide 
a common ground picture to an individual on the ground of enemy 
movement in both a contested and a non-contested environment. 
And we do not have the luxury of doing it either/or.
    And so given that challenge, we went and looked at original 
assumptions. And you asked what has changed that caused us to 
change. The Secretary laid this out. The most fundamental 
change is when we did a deep dive into the fuselage, we learned 
that we can fly the current frame through the mid to late 
2020s, 2028. So the fundamental assumption we started with was 
that these airplanes were going to stop flying in 2018. So we 
had to solve the platform problem with a platform solution. 
That gave us time to step back and say is this the best plan to 
be able to solve both the contested and uncontested because we 
do not want someone in a contested environment on the ground, 
which is where we will be, to be blind to enemy movement on day 
one of that campaign.
    So given the fact that we can fly longer, we looked at how 
could we use those resources in a different way to be able to 
provide that ground moving target and the battle management 
simultaneously for both Yemen and Kaliningrad. The best way 
forward for us is to move into a multi-domain sensing 
capability that uses space, leverages where commercial space is 
going, leverages every platform that we are building as a joint 
team that does ground moving target indicator, or GMTI [Ground 
Moving Target Indicator], and look at disaggregated command and 
control.
    And so the plan we moved forward allows us to keep the 
current capacity through 2028, possibly longer, and gives us 10 
years now to build a multi-domain capability to be able to fill 
in the gaps. The gap that we have got to fill is that 
Kaliningrad, China campaign gap in a contested environment.
    Senator Reed. Just quickly because my time has expired. I 
understand that. It is a very logical presentation. But we are 
starting now with a new concept and we are at the very 
beginning stages of trying to develop the many different parts. 
Is that fair?
    General Goldfein. I will just say that here is one of the 
things that we are able to do. Previously we were going to 
retire seven E-3 AWACS. This allows us to not only bring those 
airplanes up but to modify them so we can get top secret feeds 
into AWACS so they can start getting feeds from all kinds of 
different platforms and capabilities to do that battle 
management. Every airplane and every platform the joint force 
is building that has an electronically scanned radar does that 
business. And so we have access to more capability.
    The other thing we are going to do is we are going to take 
MQ-9's and build a GMTI capability on MQ-9's. So a soldier now 
will have the capability that he does not have today to find, 
fix, and finish on a single platform based on being able to see 
movement, put a sensor against it, validate it, fix it, and 
destroy it with weapons on the wing. So to the soldier on the 
ground, this is going to be transparent to them. The soldier on 
the ground in a contested environment is going to be served by 
the better plan.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Wicker?
    Senator Wicker. Thank you.
    Thank you for a bit more optimistic report than we have had 
in the past years.
    Let me talk about a problem we still have, the pilot 
shortage problem in the Air Force, the pilot shortage problem 
generally, and also pilot training.
    It has been estimated that there is approximately a 2,000 
pilot shortage in the Air Force, including 950 fighter pilots. 
Boeing reports that North America will need 117,000 more pilots 
over the next 20 years.
    So what are we doing about this? Are we going to max out 
the UPT [Undergraduate Pilot Training] bases? And what about 
this somewhat controversial proposal to add a new contractor-
run undergraduate pilot training facility? Do you want to start 
first, Madam Secretary?
    Dr. Wilson. Senator, I will.
    You are right that there is a national shortage of pilots. 
The airlines are going to be hiring over 4,500 pilots a year 
for the foreseeable future, and they cannot hire anyone for the 
airlines who have less than 1,500 hours of flying time or 750 
hours with the Air Force. There is an inverse relationship 
between hiring in the airlines and retention in the services. 
We are going to have to face that challenge.
    We are facing it in three different ways.
    The first is to validate our requirements, how many pilots 
do we really need, and really scrub those numbers.
    The second is we are trying to do everything we can to 
retain the pilots we have with quality of service, quality of 
life, reducing the operating tempo, giving them more choice and 
options to be able to manage their own careers so that we keep 
more pilots on Active Duty. They came to serve. So there are 
ways to increase retention but retention cannot be the only 
answer.
    Third is we have to increase the number of pilots we are 
training. The first step is to maximize the capacity of the 
pilot training bases that we have. We trained about 1,100 
pilots last year I think was the number. The maximum capacity 
of our current infrastructure is about 1,400 pilots a year.
    Senator Wicker. So that is three UPT bases?
    Dr. Wilson. Yes, sir. Shepherd--the current UPT bases we 
have--it is about 1,400. And it is to do with the airspace, 
training ranges, runways, ramp space. But it is about 1,400.
    When you get beyond that, we are looking at whether we 
should have some flexibility with some contractor undergraduate 
pilot training, and we are looking at that option. It gives us 
the ability to increase for a bit and to recover faster and 
also to ramp back down without affecting the indigenous Air 
Force capability. So it is an option that we are looking at.
    Chief?
    General Goldfein. Sir, I will just add that as we look at 
this, as you might imagine, we have been out eyeball to eyeball 
with our pilot force listening to them, squinting with our ears 
to make sure we understand what are those actions that we could 
take that would keep them in the Air Force because the part we 
cannot control is the overall problem statement, and that is 
that we as a nation do not produce the pilots we need to 
adequately service business, commercial, and military aviation. 
That is a national challenge. We cannot control that.
    But what we can control are those things that we do within 
the service. And as the Secretary laid out, it is about 
increasing production. It is about increasing retention through 
quality of service and quality of life initiatives, and it is 
about ensuring that we understand with great fidelity the data 
that drives the requirement for pilots to go to do the nation's 
business.
    Senator Wicker. General, on that last statement--and that 
follows up what the Secretary said about validating the 
requirement. Are you saying that the requirement might not 
quite be 2,000 pilots and it might not quite be 950 pilots? Is 
that what you are saying?
    General Goldfein. No, sir. What I am saying is that where 
we actually place pilots--because to have a healthy and mature 
weapon system, you have to have enough pilots that actually fly 
the aircraft.
    Senator Wicker. Okay, well, are you pretty sure that we are 
in the ballpark on a 2,000 pilot shortage?
    General Goldfein. Yes.
    Senator Wicker. Do we need to be part of a larger 
conversation with industry and frankly with our allies about 
the international pilot shortage? Yes, ma'am.
    Dr. Wilson. Sir, I think we do. This is a national 
shortage. I would say that the only pathway for someone outside 
of the military to get into the airlines--I mean, there are 
very few of them--crop dusting, flight instructing, or going 
overseas and flying with a foreign commercial carrier because 
they do not have the 1,500-hour requirement.
    Senator Wicker. Thank you.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Since we are talking about pilots, I was struck by the news 
coverage of the Southwest problem last week with its engine and 
the pilot did such a terrific job. And one of the pieces of 
that news story was that she had hoped to join the Air Force 
and had wound up joining the Navy because the Air Force was not 
as open to women. I assume that is no longer a problem.
    Dr. Wilson. Senator, I came into the Air Force at about the 
same time. The Navy opened fighter pilots flying to women 
earlier than the Air Force, but they could not fly in combat. 
And I was also part of the effort to change that law back in 
1991.
    Senator Shaheen. Thank you very much. I appreciate that. I 
thought it was important to make that point.
    I want to thank you, Secretary Wilson, for taking time to 
meet with me last week and for the responsiveness of the Air 
Force to the issue we have at the former Pease Air Force Base 
with perfluorinated carbon, or PFCs, which have affected the 
groundwater. It is an issue not just in New Hampshire but at 
military installations across this country.
    And I also appreciated Assistant Secretary Henderson coming 
up and meeting with folks in the community. As you know, 
through the defense bill last year, the authorization and 
through the appropriation in the omnibus, we have funding for a 
health study that is going to be done by the Agency for Toxic 
Substances and Disease Registry through the CDC. And I just 
wanted to urge you to do everything you can to make sure that 
that funding gets transferred as expeditiously as possible. We 
have 1,500 people who have been tested with elevated levels in 
the Portsmouth area who are anxious about their future and 
their children's future. And I know there are many people 
throughout the Air Force and our other military installations 
who share that concern.
    Dr. Wilson. Senator, we will work with you and with HHS, as 
well as CDC, to make sure that study is done.
    Senator Shaheen. Thank you very much.
    You talked about the bold new move, one of which was 
accelerating defendable space. General Hyten testified at a 
recent STRATCOM posture hearing regarding his view that the 
U.S. military should eventually stand up a separate branch for 
space domain but that now is not the right time to do so. Do 
you share that view, or do you feel differently about it?
    Dr. Wilson. Senator, I feel that the United States is the 
best in the world at space, and our adversaries know it and 
they will seek--I know they are developing the capabilities to 
deny us the ability to freely operate in space in crisis or 
war. This budget reflects an alignment of the American 
leadership. The President has set out a National Security 
Strategy and a National Space Strategy, restarted the Space 
Council, which the Vice President is chairing. The Secretary of 
Defense and the Air Force are all aligned on the need to 
accelerate capabilities which are here in the President's 
Budget. We are building a more lethal and more agile force, and 
I think this fiscal year 2019 budget has a significant 
commitment to being able to defend ourselves on orbit.
    Senator Shaheen. So does that mean you think we do not need 
to set up a separate space force, at least in the foreseeable 
future?
    Dr. Wilson. Senator, we are open to discussing ideas that 
people have in this realm. I think the most important thing is 
not the organization but what we actually do and that is to 
defend ourselves on orbit and make clear to any adversary that 
if they take us on in space, we will prevail.
    Senator Shaheen. And is there a role for our National Guard 
in the space domain?
    Dr. Wilson. Senator, we have National Guard units that are 
involved in aspects of space, as well as Reserves.
    Senator Shaheen. Thank you.
    General Goldfein, you were talking about our efforts in 
Kaliningrad. And I know one of the things that our European 
allies are very interested in is our support for the European 
Deterrence Initiative. Can you talk about what more the Air 
Force is doing to support that initiative?
    General Goldfein. Yes, sir. We talked earlier a little bit 
about our stable presence in the Pacific. The air component 
story in Europe is actually slightly different. We have taken 
down significantly over time. And we as an Air Force have 
gotten so much smaller over time. I mean, if I had been the 
Chief in 1991 with the Secretary, we would be talking to an Air 
Force of just shy of a million Active, Guard, Reserve, and 
civilians. And just to give you one force element, 134 fighter 
squadrons. Today we have 56 total and 670,000. So a lot of that 
reduction came in Europe.
    And so with this smaller force, the European Defense 
Initiative from the air component perspective has been an 
investment in access and basing so we can take this smaller 
force and push it forward very quickly to compete, deter, and 
then win, if required, working side by side with our NATO 
allies. So that is why you have seen so much investment in 
basing, so much investment in infrastructure as our part of 
EDI, and I think as we go forward, you will see that continue.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    General, the RC-135 is the latest in a family of platforms 
that have served as the backbone of the Air Force's manned ISR 
mission since 1962. And I am very proud that Nebraska's 55th 
Air Wing at Offutt Air Force Base is the home of this very 
unique mission. And as we race to match the pace of new 
threats, it is critical that we adequately fund this aircraft.
    The fiscal year 2019 Air Force budget requests funds to 
make upgrades to the platform. And how have global threats 
generated a need for this capability?
    General Goldfein. Yes, ma'am. Thank you.
    Not only is it a critical capability, as you know, it is a 
critical capability for our allies. And we share this with the 
United Kingdom who has this capability as well. So we are 
finding that this particular capability, without going into the 
operational details on what happens on that airplane, as we 
look at peer threats and the return to great power competition, 
our ability to understand the global picture to be able to 
ensure that we understand more than our adversaries and can 
then decide and act in ways that can produce dilemmas for our 
adversaries and enhance 21st Century deterrence, the RC-135 is 
central to that effort and it will remain so.
    Senator Fischer. You mentioned it is important for our 
allies. What about our combatant commanders? What do you hear 
from them?
    General Goldfein. Same. As a matter of fact, the demand 
signal for RC-135 and its capabilities are going up, especially 
as we look at the peer competitors, the China, the Russia 
threats, when we look at our posture vice Iran, North Korea. 
And it has been very successful in our fight against violent 
extremism. So it actually works across the spectrum of 
conflict.
    Senator Fischer. You have also requested funds to convert 
three KC-135R aerial refueling tankers into a specialized WC-
135R aircraft used to detect evidence of nuclear detonations. 
And how will this conversion, I guess, help to improve the WC-
135R mission?
    General Goldfein. It allows us to give more time to be able 
to continue to accomplish this mission because the current 
airplanes are old. They are wearing out. Our mission-capable 
rates and, more importantly, our aircraft availability rates to 
be able to do this mission are much lower than not only the 
Secretary of Defense but the combatant commanders require under 
that mission. So being able to convert this into the KC-135 
gives us more longevity for that critical mission.
    Senator Fischer. Thank you.
    And I would also like to thank the dedicated men and women 
that we have at the 55th wing and the missions that they 
perform.
    Madam Secretary, the Air Force's physical infrastructure is 
essential to the lethality and the readiness of our nation's 
forces, both key goals of the NDS. Put simply, maintaining 
readiness means maintaining our runways. Unfortunately, there 
are several instances where Air Force installations are 
operating with runways in increasing states of deterioration 
and in need of substantial repair. Offutt in my home State of 
Nebraska is one such example. And while I am encouraged that 
the Air Force is working on a planned solution, I do worry 
about this in a systemic sense as an issue.
    To what degree do you believe the Air Force is experiencing 
a larger runway maintenance problem?
    Dr. Wilson. Senator, I have actually stood on that runway 
and seen some of the problems with the concrete there. And it 
did not last to the extent it was supposed to. And as the 
engineers there know and as you know, there were problems in 
the way they built that runway, and it is going to have to be 
replaced earlier than it should have been. We do not see that 
as a systemic problem across the Air Force. I think it was a 
problem with that contractor.
    Senator Fischer. I thank you for your interest and your 
commitment to the runway at Offutt. And I thank you for coming 
to stand on the runway. It is important to see that firsthand, 
the issues that our airmen are facing there.
    What system do you have in place to monitor the risk that 
is posed to installations, though, as a result of any kind of 
degradation to the runways?
    Dr. Wilson. Senator, we have civil engineers who are at our 
bases who monitor the condition of the runways and other 
critical facilities.
    Senator Fischer. Do you believe that is sufficient to 
mitigate any risk?
    Dr. Wilson. Senator, I do, but I can also kind of take that 
for the record and go back and push on that a little bit, if 
you would like me to.
    [The information referred to follows:]

    Dr. Wilson. The Air Force has several systems in place which work 
in tandem to assess and track the condition of airfield pavements, 
predict current and future degradation, identify current and future 
requirements.
    These systems include:

    a. Airfield Pavement Evaluations Team: Performs complete 
assessments providing Pavement Condition Index and Structural 
evaluation every 12 years and complete Pavement Condition Index every 4 
years (via contract) for Active Duty airfields. The Airfield Pavement 
Evaluation Team presents reports documenting the condition and 
recommending maintenance/repair requirements to the installations and 
enters findings into the database of record (PAVER).

    b. PAVER Sustainment Management System: Department of Defense 
mandated software system that uses assessment data collected by the 
Airfield Pavement Evaluation Teams and contractors to catalog airfield 
condition in detail; to include pavement section, predict future 
condition, identify current requirements, and predict future (out year) 
airfield requirements.

    c. Transportation Network & Airfield Pavements Activity Management 
Plan and its pavement Sub-Activity Management Plans: Uses assessment 
data and PAVER products to manage the activity (airfields), identify & 
prioritize requirements, and predict future needs. The Air Force uses 
PAVER information to develop a risk-based integrated list of airfield 
priorities, which is coordinated with installation civil engineers and 
Major Command staffs.

    d. Base Civil Engineer Squadron and Airfield Manager: Works in 
concert to monitor all aspects of the airfield continuously and 
identify future requirements.

    Senator Fischer. Okay. I thank you very much, and I 
appreciate your support for us. Thank you.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Secretary Wilson, General Goldfein, welcome to you both.
    I wanted to ask you a little bit about the plans by the Air 
Force to divest of its HH-60G Pave Hawks as the new Whiskey 
models become available. The entire New Mexico delegation wrote 
to you a few months ago and expressed support for transitioning 
some of those legacy helicopters to the 150th Special 
Operations Wing. Doing so would help the Air Force with pilot 
production but also help alleviate the stress on the 58th 
Special Operations Wing to train both the legacy and the new 
airframes.
    So as the Air Force upgrades to the HH-50W combat rescue 
helicopter, would you agree that an interim location using the 
legacy airframe would be beneficial to that transition? For 
either of you.
    General Goldfein. Yes, sir. We appreciate that option and 
we are looking into it. So we do agree.
    Senator Heinrich. I would very appreciate it if you would 
look at the New Mexico Air National Guard as having the 
potential to fill that role.
    Secretary Wilson, I was really encouraged to see the Air 
Force prioritization on modernization in this year's budget. It 
is a very welcome focus.
    I am, however, concerned that it is not necessarily 
adequately reflected in the basic and applied research 
accounts, which is really the foundation for a lot of the 
defense labs. So the fiscal year 2019 budget request increases 
RDT&E by almost 19 percent, but the basic and applied research 
lines stayed pretty flat.
    Do you think we are putting enough emphasis right now on 
basic and applied research?
    Dr. Wilson. Senator, I actually share your concern. Our 
research, development, test, and evaluation did go up 
significantly in this budget, but it is more on the test and 
evaluation end of things. We have a science and technology 
strategy review underway to help identify what are the areas 
where the Air Force needs to focus for the future and how can 
we best conduct that research. We expect that review to be done 
this fall and into the end of the year, and that will help 
guide us with the future.
    Senator Heinrich. I am very happy to see the focus on 
RDT&E. I just worry that if we do not pay attention to that 
foundation that it is going to catch up to us.
    One of the other things I wanted to ask your opinion on, 
Secretary, I have long been an advocate for a more resilient 
and responsive space architecture that allows us to move faster 
and counter threats that we are facing in the current 
environment. So I was incredibly pleased to see that the Space 
Rapid Capabilities Office received such priority in resources 
in this year's budget request.
    Can you just talk a little bit about the importance of this 
newly designated office, Space Rapid Capabilities, and how it 
is going to contribute to our nation's resilience and fit into 
the overall architecture?
    Dr. Wilson. Senator, the Operationally Responsive Space 
Office has been renamed the Space RCO. There are four different 
satellites that that office is working on now.
    But I think even more than just renaming the office, we 
have been going through a series of sprints with the Space and 
Missile Systems Center since December of 2 and 3 weeks in 
duration to look at how do we buy satellite systems, how do we 
need to change the way in which we buy satellite systems. There 
are a number of results of that work, but one of them will be 
to robust or strengthen the Space Rapid Capabilities Office to 
be able to drive forward on prototyping and rapid responses to 
combatant commander needs.
    Senator Heinrich. Great.
    General Goldfein, I wanted to ask you a little bit about 
light attack aircraft. You recently announced that the Air 
Force will undergo another experiment at Holliman this year 
rather than the originally planned combat demonstration. How is 
this experiment going to be different than the one conducted at 
Holliman last year?
    General Goldfein. Sir, three ways.
    Number one, we are taking a really deep dive on this one on 
the sustainment aspects of it, how many maintainers we need, 
how we sustain them both at home and forward. We determined 
that we could actually get a better outcome by not doing a 
combat experience downrange but doing an experiment at Holliman 
Air Force Base like we did the last time.
    Second, we are looking at this through the lens of allies 
and partners because a big part of the light attack experiment 
is a common architecture and information and intelligence 
sharing network so that those who would join us would be able 
to be part of the counter-violence, the campaign against 
violent extremism.
    The third thing that we are looking at is how do we 
integrate this particular weapon system in ways that allows us 
to get to a price point where those that we are affecting in 
the fight against violent extremism for the long term, that we 
are able to do that in the $2,000 per flying hour range over 
time as opposed to the $20,000, $30,000, $40,000 per flying 
hour range. Given the fact that we are going to be in this for 
a long time, it is why it has been in the National Defense 
Strategy.
    So as we go look at this, we are hopeful that we will get 
the outcomes that will allow us possibly to come back to you 
and look at even accelerating this to the left if, in fact, we 
think that is worth pursuing.
    Senator Heinrich. I look forward to that. It has taken 
quite a long time to get this moving. So we are looking forward 
to seeing that capability fielded.
    Thank you, Chairman.
    Senator Inhofe. Thank you, Senator Heinrich.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Secretary Wilson, General Goldfein, first of all, thank you 
for your service to our country.
    Secretary Wilson, you said that if you currently have a 
bomber base, you will be getting the B-21. We are very happy 
with that decision, and we are looking forward to getting the 
B-21 at Ellsworth Air Force Base. The aircraft is expected to 
arrive in the mid-2020s, which is only about 7 years away. To 
prepare for the arrival, there are significant amounts of work 
that have to be completed. The MILCON work that would have to 
be done is going to take some time.
    I have just got a couple of questions with regard to what 
the planning is for this particular movement.
    It is my understanding that the Air Force still must 
complete the strategic basing process in order to make the B-21 
basing decision official. Am I correct in that assumption? When 
would this be done?
    Dr. Wilson. Senator, you are correct that if you have a 
bomber base now, you will have a bomber base in the future. We 
expect a minimum of 100 B-21's, as a minimum. The rest of the 
fleet will be B-52's. The Chief has also directed a review of 
the entire number of squadrons that we have of all kinds of 
aircraft in light of the National Defense Strategy, which 
should be done by the end of August.
    We would not expect to move forward with a strategic basing 
initiative in the near term honestly because this is still 7 
years out or so. If we get a validation of numbers, I suppose 
we could move forward earlier on it, but there is really 
probably not a need to move on it for another couple of years 
at least.
    Senator Rounds. That is the reason for my question. It 
would appear to me that with the amount of work, the military 
construction that is going to have to be done and the fact that 
it is going to have to move through an appropriations process, 
it seems to me that there would be at some point a plan in 
which the MILCON would start to become a part of that process. 
That is really what my question is. How soon would it be before 
we expect to see the Air Force making recommendations with 
regard to MILCON activity for these improvements in those bases 
in order to be able to receive the B-21 in a timely fashion?
    Dr. Wilson. Senator, it is not on my radar screen now for 
the basing actions that we expect in the near term. So the B-21 
will start coming on in the mid-2020s and then there is a ramp-
up after that. I will take this under advisement as to whether 
we should move this forward to give communities some certainty.
    But I do not know. Chief, do you have anything on the 
bomber structure, the force structure?
    General Goldfein. Yes, ma'am.
    So, sir, what I would just offer is that if you look at our 
MILCON submission in this budget, our priority starts with new 
mission MILCON and then we go to combatant commander critical 
requirements, and then we get to what we call worst first, 
those worst facilities that we have got to build across all of 
the major commands. So the top of our submission is in new 
mission beddown. So that is why you see MILCON going in on the 
F-35, MILCON going in on the KC-46. So the process that we use 
to align that MILCON with new mission to ensure that it is in 
place before the aircraft arrive because you have got to go do 
the maintenance and sustainment of the weapon system before you 
actually operate it, that same process will be used for the B-
21.
    Senator Rounds. So what I am hearing you say is that 
because of the time frame and you have got other items such as 
the 135 that has got to bed down first, and that is where your 
priority is going to be or the next couple years with regard to 
the MILCON mission. Am I saying that correctly?
    Dr. Wilson. Senator, we generally do not plan MILCON 
outside of the 5-year window. And so this is for us beyond the 
5-year window of where we would be planning.
    Senator Rounds. Today just now, once again, we have used 
the term that we would have a minimum of 100 B-21's, or at 
least that is the structure today. Is it not about time that we 
really started talking about what our needs are and about what 
the real discussion should be?
    I understand that when we are talking about 100 aircraft, 
there is a cost involved because on a per-copy basis, the more 
you build, the less expensive per copy it can become. The 
sooner you have certainty with regard to that, perhaps the 
better off we all are in terms of how we budget for it. Is it 
not fair to say that under most analyses that have been done, 
we are somewhere between 170 and 200 B-21's or at least that 
number of bombers necessary to fulfill the missions as you 
currently understand them?
    General Goldfein. Yes, sir. That is why I have directed the 
study that will be done by August on exactly what the size of 
the Air Force needs to be, bombers, fighters, command and 
control, personnel recovery, all those elements that we bring 
to do the missions of the Air Force.
    The National Defense Strategy--the Secretary said we were 
on version 67. We had folks that were helping the Secretary of 
Defense with the writing of that document. We were getting 
periodic updates, and we were looking at the 2019 budget 
throughout that time frame.
    As we look forward to the future, we owe you now what the 
size of the Air Force needs to be to be able to accomplish the 
National Defense Strategy tasks, and that is where we will come 
back to you with telling you what the requirement is for the 
force of bombers we need. Right now, what we know is the 
minimum is 100. I fully expect that the requirement is going to 
be above that.
    Senator Rounds. Let me, just for the record, ask you once 
again just so that I understand it. When would you expect to be 
able to come back to the committee with a recommendation as to 
what our force should look like?
    General Goldfein. Our plan is to do that by August.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman. My time has expired.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    To our witnesses, thank you for your testimony here today 
as always.
    Secretary Wilson, when you appeared before this committee 
in December, you said you are--and I am going to quote you 
here--a big fan of the A-10, which I certainly like to hear. 
But I am concerned because a significant number of A-10's will 
have to be grounded unless they receive new wings. So that is a 
big concern. The Air Force's fiscal year 2019 budget request 
included $80 million for additional wing sets for the A-10. But 
last week in the Airland Subcommittee, we heard testimony that 
the Air Force has only committed to maintaining a minimum of 
six of the nine A-10 squadrons through 2032.
    Secretary Wilson, could you please clarify the Air Force's 
intent for the future of the A-10, and has there been a 
decision made to reduce from nine to six?
    Dr. Wilson. Senator, there has been no decision to reduce 
from nine to six. The current fiscal year's budget includes the 
funds to restart the line for the rewinging of the A-10 and to 
buy the first four wing sets. The fiscal year 2019 proposal has 
$80 million, which should get us somewhere between 8 and 12 
additional wing sets. Earlier this week, I asked our 
acquisition folks to see whether that production can be 
accelerated for delivery so that we do not have groundings, and 
they are taking a look at that. But there has been no decision 
made to reduce the number of A-10 squadrons.
    Senator Peters. Is that decision based on current funding, 
or will you require additional appropriations in fiscal year 
2019 above the budget request for the A-10?
    Dr. Wilson. Senator, we have the money in the budget 
request I think for between 8 and 12 additional wing sets. We 
have not gotten the final proposals and made a decision to be 
able to analyze how many wing sets per year is the maximum that 
industry could produce, but I may be able to get that 
information to you.
    Senator Peters. I would appreciate that, if you could, 
Secretary.
    Dr. Wilson. Yes, sir.
    Senator Peters. You mentioned the contract. Could you 
please provide an update on the competition for the A-10 wing 
contract? I know there were some issues in the supply chain. Do 
you expect any issues in the industrial base to delay this 
program?
    Dr. Wilson. Senator, I do not expect any now, but it is a 
good example of supply chain problems. The prime contractor for 
the A-10 no longer exists. North American was the aircraft 
producer at the time. There are, as I understand it, 102,000 
parts on an A-10 wing. So I do not know how many of those are 
different part types, but I am hoping a lot of them are the 
same rivet. But it is a complicated wing.
    Senator Peters. Right.
    With disruptive technologies making it easier and less 
expensive to put satellites in orbit, we are likely to see the 
beginning of a satellite boom. Several companies have applied 
for and received licenses to launch large satellite 
constellations in the next 20 years. Recently, as you know, 
SpaceX was approved to launch a constellation of more than 
4,000 satellites to provide rural broadband, certainly a very 
important issue for the United States, but one particularly 
important for me and for northern Michigan in the upper 
peninsula of Michigan. But needless to say, space situational 
awareness or space traffic management is going to become far 
more complicated in the upcoming years.
    Recently Vice President Pence, as the head of the National 
Space Council, announced that the Department of Commerce will 
become responsible for a basic level of space situational 
awareness using data provided by the Air Force. However, I am 
personally concerned that the orbital debris regulatory 
landscape is already extremely complicated, and adding a new 
organization in the Department of Commerce would probably only 
add to that complexity.
    So my question to either one of you is, what steps do you 
recommend to improve our whole-of-government approach to space 
situational awareness? What role specifically should the Air 
Force play, and what other agencies and departments do you want 
to see in leading roles?
    Dr. Wilson. Senator, a number of questions there.
    The Air Force has been doing notification of possible 
collisions in space since the 1950s, not only for the United 
States but for the world and for companies. We track any object 
greater than about a softball size, and there are 20,000 of 
those currently orbiting the earth. Last year our group out of 
Annenberg, California gave notice of about 300,000 potential 
collisions in space.
    We are increasing our space situational awareness 
capabilities. We have four satellites on orbit. We will put two 
more satellites on orbit for co-orbital space situational 
awareness, but we also have a ground-based system to be able to 
watch things and not just keep a catalogue, but to be able to 
see things in near real time. So if anything is moving, we 
figure out why, and we are able to protect our assets on orbit.
    With respect to who we cooperate with, I had a meeting last 
week with the Secretary of Commerce. They are going to come out 
to our Schriever wargame this fall, and we will have a civil 
cell there so they can start to learn how we do this now. We 
are quite happy to move that to the Commerce Department and 
stand up their capability. The sensors will probably all come 
from us, but there may be some advantages to having the 
Commerce Department doing this as well. There are other sources 
of data on space situational awareness, and they may be able to 
do some things that, honestly, right now we just--our sensors 
track and we notify off of our sensors. They may be able to do 
some additional things based on other people's data sets, and 
that may be an advantage for all of us.
    Senator Peters. Thank you so much.
    Senator Inhofe. Thank you, Senator Peters.
    Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Madam Secretary, General Goldfein, thank you for being here 
today. I am sorry I am late. I just came from the White House 
arrival ceremony for President Macron. I will say that your Air 
Force platoon performed excellently, almost as good as the Army 
platoon.
    [Laughter.]
    Senator Cotton. Secretary Wilson, we passed a 2-year budget 
a couple months ago and an omnibus spending bill for the rest 
of this year. Obviously, that has given a bit of a reprieve 
from the budget caps and sequestration under the Budget Control 
Act. However, we still have to implement the second year of 
that budget agreement.
    Could you explain to me the impacts that continuing 
resolutions have had on the Air Force and why it is important 
that we pass a DOD appropriations bill in a timely fashion this 
summer?
    Dr. Wilson. Yes, sir. Senator, I think that nothing has 
done more damage to the United States Air Force than budget 
uncertainty or sequester over the last decade. Certainty allows 
us to do things like work with industry to maximize the 
munitions production up to industry capacity. It allows us to 
sign contracts other than in the last half of the year. So 
probably the most important thing is industry certainty. We 
have not sequestered ourselves this year. We have acted as if 
the budget was ultimately going to be passed, but the 
uncertainty with industry is a major issue.
    Senator Cotton. Thank you.
    Then, of course, we will be back in this situation in about 
18 months because the last 2 years of the Budget Control Act, 
fiscal years 2020 and 2021, remain. I assume that it is 
imperative that Congress act to eliminate those caps and the 
risk of sequestration for the same reasons for those two fiscal 
years?
    Dr. Wilson. Yes, sir.
    Senator Cotton. Thank you.
    The Air Force's unfunded priorities list states that the 
ground-based strategic deterrent and long-range standoff weapon 
programs are both expected to run out of funding by the end of 
the year due to accelerated timelines. Please explain a little 
bit more about the acceleration of the timelines of those 
programs.
    Dr. Wilson. Senator, they are ahead of schedule. They are 
making very good progress and they are ahead of schedule.
    Senator Cotton. So that is a good news story then, not a 
bad news story.
    Dr. Wilson. Yes, sir.
    Senator Cotton. Thank you.
    What impact, if any, would the Air Force face on these 
programs if it does not receive the extra funding that is 
identified in that unfunded priorities list?
    Dr. Wilson. Senator, our unfunded priorities list this 
year, because of the increase in the money that the Congress 
appropriated in the budget deal, is actually smaller than it 
has ever been, at least in probably the last decade. But what 
we did in those unfunded priorities, which we are required by 
statute to provide, is accelerate things that are already in 
our 5-year plan. So pull more things to the left if there were 
an additional top line.
    We are actually executing on the nuclear modernization, on 
the research and development phase of that faster than we 
thought, and that would be a good place to keep the progress 
going.
    Senator Cotton. Thank you.
    General, how many fighter aircraft does the Air Force have 
today?
    General Goldfein. Sir, currently we have 2,151 aircraft.
    Senator Cotton. How many are combat-coded?
    General Goldfein. Approximately 75 percent of those.
    Senator Cotton. A little over 1,500 then?
    General Goldfein. Yes.
    Senator Cotton. So you are in compliance with the NDAA 
provision from a couple years ago----
    General Goldfein. We are.
    Senator Cotton.--to maintain a minimum of 1,900 aircraft 
and 1,100 combat-coded.
    Does the new National Defense Strategy have any impact on 
what our requirements are today for both total aircraft and 
combat-coded aircraft?
    General Goldfein. It does, and in fact, we are going to be 
coming back to this committee by August with our assessment of 
not only the number of aircraft, but more importantly, the 
number of squadrons that are required, not only with fighters 
but with fighters, bombers, command and control, personnel 
recovery, all those elements that are required to successfully 
support the National Defense Strategy.
    To the previous discussion on A-10, we discussed earlier 
that we have gone from 134 fighter squadrons to 56. One of the 
reasons that the Secretary and I are looking at all of those 
fighter squadrons is because the last thing we want to do right 
now is get smaller. We need to work with this committee to get 
larger and make sure that we can source the number of 
airframes, the maintainers, the people in the squadrons we need 
to adequately support the strategy.
    Senator Cotton. Thank you, General.
    Madam Secretary, thank you for your visit to Arkansas to 
sit with our National Guard and Little Rock Air Force Base.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Secretary Wilson, peace and stability in the Indo-Pacific 
is essential. I am glad that you are paying a lot of attention 
to the region given its importance.
    You made some recent visits to the region, which also 
included a stop in Hawaii where you discussed recognizing that 
we have returned to an era of great power competition and that 
adversaries in the Indo-Pacific area are rapidly modernizing 
and we need to keep pace in this highly contested region to 
ensure our national security.
    From your visits, as well as your thinking about the 
region, being the Indo-Pacific region, what concerns you most 
as Secretary of the Air Force?
    Dr. Wilson. Senator, what concerns me most is the pace of 
innovation of China and their rapid growth in their military 
capabilities.
    Senator Hirono. So do your budget requests reflect 
recognition that you have a concern and that we are stepping up 
in terms of our pace of modernization acquisitions?
    Dr. Wilson. Senator, I think it does.
    Senator Hirono. Do you believe additional assets and 
investments are needed for the Air Force to maintain its 
competitive advantage against our adversaries in the Indo-
Pacific region? If so, in what areas?
    Dr. Wilson. Senator, we have put an unfunded priorities 
list together that would accelerate things faster. I would say 
that one of the things we are trying to do in the Air Force is 
to accelerate the pace of acquisition, to do more prototyping, 
more experimentation, to use the authorities that this 
committee has given us to get to capability faster, from the 
lab bench to the flight line faster. I think you have given us 
a lot of authorities. We now have to execute on those 
authorities.
    Senator Hirono. You talk about your concern, the pace of 
innovation of China. So in what areas are they innovating that 
causes you great concern? General?
    General Goldfein. Ma'am, I will talk first and foremost 
about some of the work they are doing in space. It is very 
aggressive. We built our space architecture in an era where 
space was a rather benign domain, and so as the Secretary has 
laid out, we are very focused and taking some bold moves in 
this budget to increase our ability to defend what we have in 
space. I would also tell you that in areas of hypersonics, in 
the areas of some of the game-changing technologies that we 
have investments in, we are also watching very clearly what 
China is investing in the same.
    Senator Hirono. What about Russia? Are they not investing 
in the space domain?
    General Goldfein. They are investing, but they do not have 
the economic base that China has to be able to advance as 
quickly.
    Senator Hirono. General, you are an advocate of Air Force 
readiness consistently testifying on its importance. I also 
believe in the importance of readiness for our airmen.
    This March, I visited the Guard unit at Joint Base Pearl 
Harbor-Hickam, where I revisited a readiness challenge that I 
have been working on with Air Force leadership for a number of 
years now. The challenge involves adversary air capability. And 
you are nodding because I think you are familiar with the 
situation in Hawaii. There the Guard unit is forced to go F-22 
against F-22 in many cases. Unlike other bases, Joint Base 
Pearl Harbor-Hickam does not have T-38's or aggressor squadrons 
that are there to conduct adversary air operations. I 
understand that the Air Force is looking at some commercial 
solutions for adversary air, and of course, I would like to see 
T-38's or other aggressors based at Joint Base Pearl Harbor-
Hickam as a future goal.
    But in the meantime, as you work the new contract adversary 
air capability, are there other solutions being considered?
    General Goldfein. Ma'am, primarily we are looking at this 
from a contract solution for Hawaii specifically. I will tell 
you this is a home station training challenge. When those 
squadrons deploy to a Red Flag to Alaska and to other areas, 
they are able to actually then train against a robust 
adversary. When they train in the simulator, they are able to 
train now against a rather robust adversary. This is about 
filling that gap for daily home station flying training. The 
primary vehicle we are looking to fill that gap is through a 
contract.
    Senator Hirono. So you are telling me that you are making 
progress so that our airmen do not have to go F-22 against F-22 
because that is not the way we would like to use our resources.
    General Goldfein. Less than optimum, yes, ma'am.
    Senator Hirono. One more question to both of you. I know 
you often have to wave priorities and readiness, modernization, 
and additional capabilities versus MILCON. In your recent 
MILCON fiscal year 2019 budget request, the Air Force states 
that MILCON investments support the combatant commanders' 
highest construction priorities such as the posture of forces 
in Europe and Indo-Pacific resiliency. I am encouraged by the 
prioritization of MILCON investments in the Indo-Pacific region 
in support of your mission.
    Can you discuss very briefly the importance of MILCON 
investments to improve your capabilities to deter our 
adversaries in the Indo-Pacific region? We will just go with 
you, Secretary Wilson.
    Dr. Wilson. Senator, I take a point, and it is a priority 
not just to put MILCON in the Pacific but to pursue agile 
basing in the Pacific and the ability to move in unpredictable 
ways in a crisis and disperse forces.
    I would say that our budget--when we look at the actual 
numbers, the way things fell out, we may have overemphasized 
the European Defense Initiative a little bit and possibly 
underemphasized what we are doing in the Pacific Security 
Initiative a little bit. That seems to show up on the agile 
basing issue.
    Senator Hirono. But because of your understanding of the 
importance of the Indo-Asia-Pacific area to our national 
security, you are placing more emphasis on what we need to be 
doing there.
    Dr. Wilson. Yes, Senator.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Hirono.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair. Thank you very much.
    General Goldfein, thank you for mentioning Iowa, Colonel 
Bud Day. He is gone but will never be forgotten. He really is a 
true hero to so many of us.
    Secretary Wilson, thank you very much for your service. It 
is good to have you in front of the committee.
    I am going to start with an issue that has been very 
important to me and for our aviators, something that I continue 
to be concerned about, the physiological episodes that our 
aviators experience. It is burdening not just the Navy but our 
Air Force pilots as well.
    In March alone, we have 12 episodes that were reported 
amongst the T-6 trainer aircraft fleet. Last week during the 
Navy hearing, Secretary Spencer provided an update to the 
committee on some of the efforts that the Navy and the Air 
Force have undertaken to solve this problem. As I told him, the 
fact that we have not been able to find the root cause is very 
disturbing.
    Secretary, do you have any updates for the committee from 
the Air Force's perspective?
    Dr. Wilson. Senator, we are working with the Navy and with 
NASA, as well as with different elements of the Air Force, to 
try to bear down on a root cause and figure these out. The most 
recent incidents have been with the T-6, which both the Navy 
and the Air Force fly. We pulled all of ours off the line, took 
out those systems, rebuilt the systems. We now have over 270 of 
them back flying, but we have experienced some other incidents.
    We have, in recent weeks, set up a safety investigation 
board which for the Air Force has the advantage of being able 
to get information without consequence. We have used that 
mechanism in the Air Force in the past to get more information 
from the pilots, the maintainers, try to really figure this 
out.
    Chief, do you want to add anything on this one?
    General Goldfein. Ma'am, I will just tell you just to give 
you a sense of how serious we took it, we stood the whole fleet 
down. I was involved in that discussion, as you might imagine. 
We just had too many that we could not connect to one 
particular causal effect. So when we pulled those off, we put a 
team of engineers, operators, physiologists, brought the Navy 
in, brought NASA in to really drive in. So although we have 
fairly high confidence that we have identified the highest 
brake rate items that could contribute, we do not have the 
smoking gun yet. We are not going to stop until we find it.
    Senator Ernst. I appreciate that. I know we have talked 
about in the past monitoring the oxygen that is exiting the 
system and also perhaps what is coming out of the aviators as 
well. So monitoring the levels.
    I know we are studying equipment and potential equipment 
malfunctions. You mentioned physiologists. Are we examining the 
pilots as well and conducting surveys of the pilots? Maybe are 
they drinking too much coffee in the morning, you know, just 
things like that? Is there something that maybe perhaps is 
going on outside of the realm of the equipment?
    General Goldfein. Yes, ma'am. I will just share with you 
that we learned a lot when we started the F-22 and we were 
having some very similar issues. And because--pilots, we all 
grow up and we go to the altitude chamber and we are actually 
deprived of oxygen so we know what our individual symptoms are. 
So once we recognize our individual symptoms, we know how to 
react.
    And so when we looked at the F-22, we started with an 
engineering analysis of the F-22, and we were going subsystem 
by subsystem to try to find it. It was not until we actually 
looked at the entire ecosystem with the pilot as part of that 
system that we determined that what we were experiencing was 
not actually hypoxia, loss of oxygen, but actually hypocapnia, 
which is a completely different issue but has very similar 
symptoms.
    So we are using the same structure of looking at the entire 
ecosystem of the T-6 with the pilot as a part of that system, 
and that is why that safety investigation board now is so 
important.
    Senator Ernst. Very good. Again, we need to figure out the 
root cause of the issue looking at all aspects there.
    Just very briefly, General, during our STRATCOM hearing a 
few weeks ago, I visited with General Hyten about the need for 
the United States to really articulate a new space strategy. 
Our last national security space strategy was published in 
2011, and the threats have exponentially increased since then.
    Can you talk to us, please, about the need to update this 
national security space strategy?
    General Goldfein. Yes, ma'am. I will tell you that the 
Secretary mentioned the strategic alignment that we have right 
now from the President to the Vice President, who has stood up 
the National Space Council, and Secretary Wilson has been very 
helpful to the Vice President in that. And so from the top 
leadership of the nation through those of that are entrusted 
with the mission of space superiority, we have this strategic 
alignment right now, and the space strategy that the National 
Security Council is working its way through is going to be very 
important.
    Senator Ernst. I appreciate it.
    My time has expired. Thank you, Mr. Chair.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    General Goldfein, I think you have acknowledged 
previously--and I think the Secretary has as well--the 
excessive operations and sustainment costs of the F-35. The 
recent estimate is, I think GAO said, $1 trillion over the 
lifecycle of the airplane. You are the largest customer on the 
F-35. What do we need to do to reduce those numbers? I think a 
specific question I would ask, could you give me a ratio of 
sustainment cost for an F-35 versus a fourth generation 
fighter? Is it twice as much, a third again as much? I just 
want to get a flavor of what we are talking about here.
    General Goldfein. Yes, sir. So I will start with the last 
part of the question first. So our initial estimate right now 
is that the sustainment costs of the F-35 are in some cases 
upwards of about two-thirds as much or two-thirds more than 
what we are finding in a fourth generation fighter. It is why 
you have seen me on record to say that our target for 
sustainment costs is equivalent to a fourth generation 
airplane. We want to get those sustainment costs so that it 
costs the same amount for an F-35 as we currently fly in an F-
16 or an F-18. That is because those are the airplanes we are 
replacing, and those are the costs that we have funded in.
    Senator King. What I would like to ask is if you could give 
me for the record what you are doing to meet that goal, given 
the limited time we have here. But that would be very helpful. 
And are we making progress and how is it played out.
    [The information follows:]

    The Air Force continues to work closely with the Joint 
Program Office (JPO) and Industry to evaluate and analyze 
actual data to find opportunities to reduce operations and 
sustainment and production costs, and build better sustainment 
strategies. JPO's Affordability War Room is dedicated to 
reducing operations and sustainment costs. The affordability 
war room includes participants from JPO, Services, Office of 
Secretary of Defense, and industry. The team will provide an 
actionable plan for each initiative with subsequent impacts on 
F-35 sustainment affordability. Some specific examples of the 
F-35 affordability war room initiatives for cost reduction 
include:
    a.  Depot Standup
    b.  Spares Increase
    c.  Strategic Sourcing
    d.  Reliability and Maintainability Improvement Plan (RMIP)
    e.  Flight Line / Joint Technical Data
    f.  Electro-Optical Distributed Aperture System Reliability 
Improvements
    You also raised the issue of the combat pilot shortage. As 
of October 2017, the Air Force is short approximately 2,000 
pilots, including Remotely Piloted Aircraft (RPA) pilots, 
across the Total Force. The shortage is most acute in the 
fighter community, but that shortage generates second and third 
order effects for other pilot communities who backfill 
shortages from the fighter community, most notably in initial 
flying training and non-flying staff positions.
    In order to recover from this shortage, the Air Force 
established the Aircrew Crisis Task Force (ACTF) in 2017 to 
build a comprehensive strategy to address the Air Force's pilot 
shortage. After studying the problem, the ACTF created a 
holistic approach to resolve the pilot shortage by focusing 
resources along three lines of effort: retention, production, 
and requirements. Our objective is to rebuild pilot manning to 
95 percent by FY23, and so far we are on track.
    The retention line of effort explores initiatives to retain 
pilots in service past their initial commitment. Two sub-
efforts address retention through a package of talent 
management initiatives and compensation reform. The talent 
management package is designed to allow aircrew to master their 
primary combat duties while maintaining a sustainable work/life 
balance. Initiatives include rebuilding administrative support, 
reducing operational tempo, exploring possible technical 
tracks, and creating incentives for individual deployments. 
Compensation reform will explore transitioning from the current 
bonus and incentive pay structure to a professional pay 
structure similar to medical professionals.
    In the production line of effort the Air Force recently 
initiated a thorough reexamination of its 30-year-old pilot 
training syllabus. Updating the Undergraduate Pilot Training 
(UPT) syllabus will transform pilot training by incorporating 
new learning technology, improving the quality of instruction 
pilots receive, and gaining efficiencies. After maximizing 
production at each of the Air Force's existing UPT bases, 
adding contract UPT will enable the service to produce 
approximately 100 more pilots per year. Stringent contract 
requirements and oversight, combined with military instruction 
in subsequent training, will ensure all pilots arrive at their 
operational unit with the same high-quality training. The 
potential introduction of light attack will enable higher crew 
manning and utilization rates over current fourth and fifth 
generation aircraft; providing the Air Force the opportunity to 
get experience for pilots more quickly.
    The Air Force is constantly reviewing and managing non-
flying requirements for pilots, the third line of effort, to 
ensure any positions out of the cockpit use and effectively 
complement a pilots flying training. For example, the plan 
realigns some staff positions to be filled with RPA pilots, 
which will provide them with career progression opportunities.

    Senator King. A different question. Madam Secretary, the 
Air Force is undergoing its first full audit. The first 
question, how is it going? Second question, how long do you 
think till we can get to a place for a clean audit?
    Dr. Wilson. Senator, the audit so far is going well. The 
auditors are on board. The Air Force has worked up to this over 
the last 2 years. So we are kind of going from spring ball into 
the real season.
    To me, the value of these audits is identifying things that 
we need to fix and get better. And so I would expect that it is 
going to be a while before the Air Force has a completely clean 
audit.
    I would say that the things that they are identifying early 
on as areas of concern or areas of focus are going to be, at 
least initially, in real property management and accountability 
there. So we know we are going to have some work there. But as 
they identify things, we will work on them and get better.
    Senator King. I would urge you to make this a priority. We 
are all talking about funding and increasing funding. Some of 
the pressure I get back home in Maine is they are not even 
audited. Why should we be spending all this additional money? I 
am just saying, as we look forward for the next few years as we 
are looking toward increasing funding for what amounts to 
deferred maintenance in many cases, modernization, having that 
audit or the closer we can get to the real audit will be a 
defense for you that I think is important.
    Dr. Wilson. Senator, this is our first full audit this 
year. So we will have an audit--this is an audit for the first 
full year.
    Senator King. Yes, and I do not think anyone expects it to 
be a clean audit the first year. The Navy testified I think it 
would be about 4 or 5 years before they feel they are going to 
get to a clean audit. But I just wanted to urge you to make 
that a priority because I think it is part and parcel of our 
funding decision.
    Dr. Wilson. Yes, sir.
    Senator King. It will help us to be able to provide you 
with the funding that you need if we can tell our constituents 
they are being audited and we are doing that work.
    On the pilot shortage, we have got all these projections. I 
know it is a very serious problem. Senator Cotton and I had a 
meeting on that with a group of pilots.
    What about the effect of UAVs? Will that mitigate the 
problem 5-10 years from now? I mean, autonomous automobiles are 
going to change the world in the next 10 years. Is there a 
greater role there?
    Dr. Wilson. Sir, our UAVs are remotely piloted, so you 
still need a pilot there. We have actually recovered and put in 
place a recovery plan.
    Senator King. But do those pilots of UAVs have to be--they 
do not have to be officers and there is a different----
    Dr. Wilson. Senator, for the Global Hawk, we have enlisted 
pilots. I would say that the pilot retention issues will be the 
same for enlisted or officers because they can be hired by the 
airlines. So we face that same issue.
    We are close to recovery for the remotely piloted aircraft, 
and we will continue to have the need for pilots----
    Senator King. Close to recovery. You mean close to where 
you need to be?
    Dr. Wilson. Yes, sir.
    Senator King. So UAV pilots--we are doing okay.
    Dr. Wilson. Sir, we had a deficit and we recovered, and 
part of the way we recovered was there is an insatiable demand 
for intelligence, surveillance, and reconnaissance. We told the 
combatant commanders we can provide 60 combat air patrols a day 
of remotely piloted aircraft. We have got to get to recovery 
because we were burning out. You know, the pilots were flying 
remotely 6 days a week, 12 hours a day, never a break.
    Senator King. Well, let me follow up on this question, as I 
did on my first question. I am out of time. For the record, if 
you could provide a page summary of the steps being taken to 
remedy the pilot shortage----
    Dr. Wilson. Yes, sir.
    Senator King.--what is being done, what is working, what is 
not working. The conclusion from the meeting that Senator 
Cotton and I had was that it was not necessarily about bonuses. 
It was more about we have got pilots that want to be pilots, 
and they do not necessarily want to be moved into the path 
toward leadership. They want to fly airplanes. So anyway, I 
would like to see a little write-up on exactly how you are 
addressing this issue.
    Dr. Wilson. Senator, I am happy to.
    [The information follows:]

    The Air Force continues to work closely with the Joint 
Program Office (JPO) and Industry to evaluate and analyze 
actual data to find opportunities to reduce operations and 
sustainment and production costs, and build better sustainment 
strategies. JPO's Affordability War Room is dedicated to 
reducing operations and sustainment costs. The affordability 
war room includes participants from JPO, Services, Office of 
Secretary of Defense, and industry. The team will provide an 
actionable plan for each initiative with subsequent impacts on 
F-35 sustainment affordability. Some specific examples of the 
F-35 affordability war room initiatives for cost reduction 
include:
    a.  Depot Standup
    b.  Spares Increase
    c.  Strategic Sourcing
    d.  Reliability and Maintainability Improvement Plan (RMIP)
    e.  Flight Line / Joint Technical Data
    f.  Electro-Optical Distributed Aperture System Reliability 
Improvements
    You also raised the issue of the combat pilot shortage. As 
of October 2017, the Air Force is short approximately 2,000 
pilots, including Remotely Piloted Aircraft (RPA) pilots, 
across the Total Force. The shortage is most acute in the 
fighter community, but that shortage generates second and third 
order effects for other pilot communities who backfill 
shortages from the fighter community, most notably in initial 
flying training and non-flying staff positions.
    In order to recover from this shortage, the Air Force 
established the Aircrew Crisis Task Force (ACTF) in 2017 to 
build a comprehensive strategy to address the Air Force's pilot 
shortage. After studying the problem, the ACTF created a 
holistic approach to resolve the pilot shortage by focusing 
resources along three lines of effort: retention, production, 
and requirements. Our objective is to rebuild pilot manning to 
95 percent by FY23, and so far we are on track.
    The retention line of effort explores initiatives to retain 
pilots in service past their initial commitment. Two sub-
efforts address retention through a package of talent 
management initiatives and compensation reform. The talent 
management package is designed to allow aircrew to master their 
primary combat duties while maintaining a sustainable work/life 
balance. Initiatives include rebuilding administrative support, 
reducing operational tempo, exploring possible technical 
tracks, and creating incentives for individual deployments. 
Compensation reform will explore transitioning from the current 
bonus and incentive pay structure to a professional pay 
structure similar to medical professionals.
    In the production line of effort the Air Force recently 
initiated a thorough reexamination of its 30-year-old pilot 
training syllabus. Updating the Undergraduate Pilot Training 
(UPT) syllabus will transform pilot training by incorporating 
new learning technology, improving the quality of instruction 
pilots receive, and gaining efficiencies. After maximizing 
production at each of the Air Force's existing UPT bases, 
adding contract UPT will enable the service to produce 
approximately 100 more pilots per year. Stringent contract 
requirements and oversight, combined with military instruction 
in subsequent training, will ensure all pilots arrive at their 
operational unit with the same high-quality training. The 
potential introduction of light attack will enable higher crew 
manning and utilization rates over current fourth and fifth 
generation aircraft; providing the Air Force the opportunity to 
get experience for pilots more quickly.
    The Air Force is constantly reviewing and managing non-
flying requirements for pilots, the third line of effort, to 
ensure any positions out of the cockpit use and effectively 
complement a pilots flying training. For example, the plan 
realigns some staff positions to be filled with RPA pilots, 
which will provide them with career progression opportunities.

    Senator King. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to first commend General Goldfein, Madam 
Secretary. Your leadership--I think it raises a broader issue. 
You know, there has been a strong bipartisan approach to 
national security, foreign policy nominees and confirmations. 
General Goldfein, you were nominated by President Obama, and I 
think President Obama did a great job in nominating outstanding 
admirals and generals to run our military services. I think 
both of you are doing an outstanding job, and I just want to 
commend you. Madam Secretary, you have been responsive. I know 
you are meeting with some of my constituents tomorrow. I 
appreciate that.
    There is a broader point here, though. I certainly hope my 
colleagues on both sides of the aisle here recognize this is 
really a historic, important tradition in the United States 
where Presidents put forward exceptional individuals, whether 
it is the Secretary of State or the Secretary of Defense. It 
might not have been the person we would have chosen if we were 
President, but they are still good people. On the issue of Mr. 
Pompeo, I certainly hope we do not have a really partisan vote 
here. That would be I think unfortunate and moving in dangerous 
territory.
    You two are an example of an Obama nominee, a Trump 
nominee, strong support on both sides of the aisle, both doing 
an outstanding job, and I just want to commend you for that.
    But I emphasize the broader point. We cannot go into the 
dangerous territory of full-blown partisanship when there are 
good people on both sides of being nominated.
    Both of you know that I have taken a lot of interest in the 
OCONUS basing of the KC-46. General, you know that prior to 
your confirmation, I sent you a letter on that and got some 
commitments from you. Importantly, in the NDAA in both 2017 and 
2018, this committee and the Congress put forward kind of 
characteristics that they thought would be important. I am 
going to review a few of those, and if you can just say yes or 
no. I would like to get your sense.
    So on the OCONUS selection, do you think it is important, 
if possible, to have the KC-46's located near not just one but 
several COCOMs? Can you just quickly answer a yes or a no?
    General Goldfein. Yes.
    Senator Sullivan. Madam Secretary, I know you are going to 
be part of that.
    How about collocated near outstanding training facilities 
with joint and international partners?
    Dr. Wilson. Yes, sir.
    General Goldfein. Absolutely.
    Senator Sullivan. How about sufficient airfield and 
airspace available? I am paraphrasing the NDAA. This is the 
law. Two NDAAs.
    Airspace availability and capacity to meet KC-46 refueling 
requirements?
    Dr. Wilson. Yes, sir.
    General Goldfein. Yes.
    Senator Sullivan. How about collocated near facilities that 
have runways, hangars, aircrew and maintenance operations, and 
very large fuel storage and distribution capabilities?
    Dr. Wilson. Yes, sir.
    Senator Sullivan. How about collocated where there are 
dozens, over 100, fifth generation fighters?
    Dr. Wilson. Sir, I am not so sure on that one. I am not 
sure I would put that in a criteria for a base.
    Senator Sullivan. For basing of air refueling aircraft? I 
am not talking about a base. I am just talking about the OCONUS 
location of the KC-46. You would not put it next to the place--
--
    Dr. Wilson. Sir, I am not sure on that one. If somebody 
gave me the criteria for selection, I am not sure that one, 
collocation with over 100 fighters, would be one of the 
criteria.
    Senator Sullivan. How about collocation to where most 
aircraft from the Lower 48 going to the Asia-Pacific fly over?
    General Goldfein. Sir, what I think what you are driving at 
is this idea of mission synergy which we do factor into every 
one of our basing decisions, which is how do we get to a point 
where what we placed there--you know, one plus one equals three 
because you are actually able to get the synergy of the 
mission. And so in that regard, I agree.
    Senator Sullivan. I am summarizing, but these are all 
characteristics in the law. I just hope you take those very 
seriously as you committed in your confirmation, General, you 
would.
    Let me ask one final question kind of switching topics 
here.
    In your personal opinion, do the Chinese or Russian cruise 
missiles that are being developed and they have now present a 
significant to United States air bases in the European and 
Indo-Asia-Pacific theater, including installations in Alaska 
like JBER or Eielson or Fort Greeley?
    General Goldfein. I am concerned, Senator, but I am also 
confident, as others before me have testified, that we have 
what we need to defend the nation at this time.
    Senator Sullivan. So you think the Army is capable to 
provide you the Air Force and the bases that you are in charge 
of globally with sufficient short-range air defense systems to 
defend overseas air bases?
    General Goldfein. I believe the Army has--and I cannot 
speak for my fellow joint chief, General Milley, in terms of 
what is in his budget submission, but I will tell you that I 
know the Army is invested and committed to their responsibility 
for base defense.
    Senator Sullivan. But not just ballistic missile. I am 
talking cruise missile.
    General Goldfein. Right.
    Senator Sullivan. Madam Secretary, do you have a view on 
that?
    Dr. Wilson. Senator, I do think that when it comes to air 
base defense, that is an area where we probably need to look 
really carefully. It is one that long term I think all of us as 
airmen have concerns about. Are we going to be able to defend 
the bases from which we fight?
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Gillibrand?
    Senator Gillibrand. Hi, General Goldfein. Hi, Madam 
Secretary. Thank you so much for being here.
    General Goldfein, in the last 2 weeks, General Milley, 
General Neller, and Admiral Richardson have told me that they 
have seen zero reports of issues of cohesion, discipline, and 
morale, as a result of open transgender service in their 
respective service branches. Are you aware of any specific 
issues of unit cohesion, disciplinary problems, or issues of 
morale resulting from open transgender servicemembers in the 
Air Force?
    General Goldfein. Not the way you have presented the 
question, ma'am, I am not. I will tell you that I have talked 
commanders in the field, first sergeants, senior NCOs, and I am 
committed to ensure that they have the right levels of guidance 
to understand these very personal issues that they are dealing 
with. And so we continue to move forward to ensure that we 
understand the issues.
    Senator Gillibrand. Have you personally met with 
transgender servicemembers?
    General Goldfein. Yes, ma'am, I have.
    Senator Gillibrand. What did you learn from those meetings?
    General Goldfein. A combination of, one, commitment to 
serve by each of them, and then number two, how individual each 
particular case is. It is not a one-size-fits-all approach. It 
is very personal to each individual. That is why I go back to 
we have an obligation to ensure that we understand this 
medically and that we can provide our commanders and 
supervisors the guidance they need to be able to deal with this 
so we do not have issues.
    Senator Gillibrand. Thank you.
    Secretary Wilson, on April 3rd, 2018, the American Medical 
Association wrote a letter to Secretary decrying the recent 
policy released by the White House. Echoing concerns raised by 
the American Psychological Association and two former Surgeon 
Generals, the American Medical Association said, quote, we 
believe there is no medically valid reason, including a 
diagnosis of gender dysphoria, to exclude transgender 
individuals from military service. The memo mischaracterized 
and rejected the wide body of peer-reviewed research on the 
effectiveness of transgender medical care. Yet, this DOD panel 
of experts came to a drastically different conclusion from the 
preeminent medical organizations in America about gender 
dysphoria, the effectiveness and impact of gender transition on 
medical and psychological health, and the ability of 
transgender servicemembers to meet standards of accession and 
retention.
    Do you know who represented the Air Force on this panel?
    Dr. Wilson. On the advisory panel to the Secretary of 
Defense?
    Senator Gillibrand. Yes.
    Dr. Wilson. Yes, ma'am, I do.
    Senator Gillibrand. Who?
    Dr. Wilson. Ma'am, it as our Under Secretary of the Air 
Force.
    Senator Gillibrand. What Air Force health professionals 
were on the panel?
    Dr. Wilson. Ma'am, I do not know.
    Senator Gillibrand. Do you know whether there were any 
health professionals from within the government and outside of 
it to testify before or consult with the panel?
    Dr. Wilson. Ma'am, I do not know who testified or was 
involved in those discussions.
    Senator Gillibrand. Can you provide that to the committee, 
please?
    Dr. Wilson. I would be happy to provide that.
    [The information follows:]

    <bullet>  Under Secretary of the Air Force, the Honorable Matthew 
Donovan
    <bullet>  Vice Chief of Staff of the Air Force, General Stephen 
Wilson
    <bullet>  Chief Master Sergeant of the Air Force, CMSAF Kaleth O. 
Wright

    Senator Gillibrand. Thank you.
    Are you aware of any organizations or people outside of the 
government who contributed to the work of the panel?
    Dr. Wilson. Ma'am, I was not involved in the panel.
    Senator Gillibrand. At any point since your confirmation, 
have you recommended to the Department of Defense leadership or 
to the panel of experts on transgender service any change in 
policy from the guidelines established by Secretary Carter?
    Dr. Wilson. Ma'am, this is a matter that is in the courts, 
and I think it is probably best, when things are under 
litigation, that that process play out. The guidance that the 
Chief and I have given in the service is that all airmen are to 
be treated with dignity and respect, and we comply with the 
court order on accessions, as well as retaining airmen who have 
disclosed that they are transgender.
    Senator Gillibrand. Well, the White House has not taken 
your advice about leaving it to the courts. They have issued 
policy and they have a panel of experts that have listed a 
recommendation that is contrary to what the Service Chiefs have 
said in terms of good order and discipline and unit cohesion 
and morale.
    Dr. Wilson. Ma'am, that is now in the courts, the new 
recommended policy change. While that is being considered by 
the courts, the court order that we are under continues, and we 
continue to assess transgender members in accordance with court 
order.
    Senator Gillibrand. Ms. Wilson, recently the Air Force 
Academy's handling of sexual assault cases made national news. 
Several current and former cadets recounted their experiences 
of being assaulted and how they were disbelieved, retaliated 
against, and denied justice.
    Since your confirmation as Secretary of the Air Force, what 
specific actions have you taken to protect survivors at the 
academy and hold its leadership accountable?
    Dr. Wilson. Senator, the Sexual Assault and Prevention 
Office at the academy when through a command-directed 
investigation shortly before I was confirmed. The Chief and I 
have made sure that those positions were filled as a matter of 
priority and worked with the current superintendent of the 
academy to make sure that other resources were available for 
sexual assault prevention and response at the academy while 
they were hiring to fill those positions.
    Senator Gillibrand. Have you personally spoke to the Air 
Force Academy cadets about the academy's current climate 
surrounding sexual harassment and assault?
    Dr. Wilson. Senator, I have talked to cadets at the 
academy. I do not think I have talked to them particularly 
about that issue, but I had a number of meetings with cadets 
with no one else there other than the cadets and me for them to 
talk about whatever they wanted to talk to me about.
    Senator Gillibrand. I would recommend you make the effort 
to do that.
    Dr. Wilson. Thank you.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Good morning to the panel. Thank you both for being here, 
and thank you for your service to our country.
    I was happy to read about the Air Force's efforts to 
advance its hypersonic weapons program. It is no secret that 
our nation and our military are facing competition from both 
Russia and China. It was during a recent HASC hearing when 
Under Secretary Griffin stated concerns about our country's 
slow pace of advancement in hypersonic technology. He said we 
will, with today's defensive systems, not see these things 
coming. That is a little disconcerting.
    My question, Secretary Wilson, what is the Air Force doing 
in the field of hypersonic weapons to ensure the U.S. does not 
lose its technological advantage?
    Dr. Wilson. Senator, we had a summit on hypersonics in the 
Air Force last summer in July and made the decision to pursue 
two different prototypes as part of that work. One of those 
prototypes we are doing in partnership with DARPA. The other 
one was the one that you saw announced in the paper last week.
    I think the other piece of good news is that the services 
are working very closely together on these technologies, and 
the guidance is to go fast and to leverage the best technology 
available.
    Senator Scott. Thank you.
    If funded to the level requested in the President's Budget, 
when do you expect we will be able to deploy a hypersonic 
weapon on Air Force aircraft? Either. General?
    General Goldfein. Sir, there are actually two programs that 
we are working on right now. One is a hypersonic conventional 
strike weapon, and the other one is an air-launched rapid 
response weapon. Both of those are what you see in our budget 
in terms of our investment in hypersonic technology. I do not 
have right now a prediction of when we can actually field 
those. I can just tell you that we are committed to them and we 
are moving out.
    Senator Scott. Thank you.
    I was very pleased to hear earlier this year that South 
Carolina's Shaw Air Force Base was chosen to be the home for a 
new remotely piloted aircraft group flying the MQ-9 Reaper. 
Shaw Air Force Base is already home to the 20th Fighter Wing, 
the largest F-16 wing in the Air Force. So I certainly welcome 
the new and different mission. I understand the Air Force has 
already started moving personnel to Shaw in support of this new 
group.
    To either you, Secretary, or General, would you give me an 
update on where we are in that move and how close we are to 
seeing things happen?
    General Goldfein. So the wing at Shaw is going to be a 
mission wing. We chose Shaw Air Force Base because of the 
mission synergy associated with the command and control 
headquarters there, the 9th Air Force, 3rd Army, all those. So 
right now we are in the process of moving the personnel and 
equipment there. Right now my look of our timeline for the full 
beddown of being able to bring us to initial operating 
capability is we are on track. So I do not see any show 
stoppers right now with what we are going at Shaw.
    Senator Scott. Can you talk about the MQ-9 Reaper program 
and the importance it plays in our future Air Force?
    General Goldfein. I can, and I can talk to you about this 
as an MQ-9 pilot. I had a chance to check out and fly that 
aircraft as a general officer. I will tell you, sir, that I 
believe that we have only scratched the surface on the true 
capability of what happens when you separate the aircraft and 
the cockpit. And it is our young RPA drivers-- we call them our 
A teen Xers--who are going straight into that program, the 
oldest of which right now are reaching major to lieutenant 
colonel. They are going in and coming up with absolutely new 
ways of being able to employ this weapon system in areas that 
we had not anticipated before.
    There is one thing about these remotely piloted aircraft. 
They are absolutely fearless. You send them anywhere. I think 
not only in the fight against violent extremism, but if you 
look at the National Defense Strategy and where we look at 
China, Russia, Iran, North Korea, all those areas, I think the 
MQ-9 but more broadly unmanned aviation is going to bring some 
significant dilemmas to future adversaries.
    Senator Scott. Thank you very much. That is exciting news, 
frankly.
    The Air Force has been emphasizing the importance of 
distributed, adaptive, and resilient basing to address the 
challenges posed by both Russia and China's advanced area 
denial capabilities. However, in this year's budget, Air Force 
investments in prepositioned equipment and improved 
infrastructure in Europe are at least 10 times the investment 
in the Pacific.
    What explains this enormous disparity?
    Dr. Wilson. Senator, I think as I mentioned before, I think 
the European Defense Initiative was out ahead of what we were 
starting in the Pacific, and I think it got a higher priority 
and perhaps better refinement earlier. And it may be something 
that we need to look at rebalancing.
    Senator Scott. Thank you.
    General Goldfein. Sir, I will just offer that if you take a 
look at the air component in the Pacific, in the Indo-Pacific, 
the story there is as we got smaller as an Air Force, 
significantly smaller over the last several years, we reduced 
our footprint in Europe primarily and in the CONUS, in the 
continental United States. But our footprint in the Pacific has 
been fairly stable over time. And so to take this smaller Air 
Force that needs to go forward very quickly in support of 
operational planning by virtue of the fact that we can get 
there very quickly to blunt and stop adversary activity, you 
saw us investing in the European Defense Initiative on basing 
and access so that that smaller force can be more agile as the 
chairman, as the global force integrator determines where he 
wants to move forces. That is one of the reasons why you saw so 
much investment in infrastructure in Europe. To our Secretary's 
point, it is time for us that we are looking at what does that 
commensurate investment need to look like for agile basing in 
the Pacific.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Scott.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here today.
    Secretary Wilson and General Goldfein, you may know that I 
have been asking questions about the future of the F-15C and D 
variants, which the Massachusetts National Guard flies to keep 
24/7 watch over our country. Frankly, it seems like I am 
getting a different answer every time I ask the question.
    I think part of the challenge here is that the Air Force 
does not seem to have a strategic road map for its fighter 
force. We know that the Navy wants 355 ships because the CNO 
put out a strategy that said so. We know the Air Force wants to 
buy fifth generation fighters because you have told us that, 
but you have not explained your budget plans or how you will 
prioritize tradeoffs between capability and capacity and how 
that will translate into the aircraft that we keep and the new 
aircraft that we will buy.
    So let me ask. Secretary Wilson and General Goldfein, is 
the Air Force working on that kind of a road map? When can we 
expect this committee to get a look at it?
    Dr. Wilson. Senator, just to clarify a couple of things.
    Senator Warren. Sure.
    Dr. Wilson. With respect to the F-15 and F-16, the budget 
puts $1.7 billion into those aircraft for radar and electronic 
service life extension programs.
    The Chief directed and we took a look at how do we think 
about the Air Force, what is our current structure. We did a 
deep dive on readiness as well. We have about 300 operational 
squadrons, bombers, fighters, attack, intelligence, 
surveillance, reconnaissance. Then the question becomes with 
the new National Defense Strategy released in January, what do 
we really need given the threats that we face. The Chief has 
directed a review, and we expect in August to have a review of 
what are the squadrons we need, not just where are we now and 
how can we keep things in pretty good shape. So August is when 
we----
    Senator Warren. So August we expect to see a road map. 
Thank you. I think this is really important because we are 
having to make decisions now about upgrading and retiring 
platforms, and it is hard for this committee to know what to do 
until we get a look at the full strategy.
    The Air Force says that it is a total force, including the 
Guard and Reserve, and we have moved a lot of capacity into the 
Guard, so much so that today the Air Force could not complete 
its mission without the Guard.
    So with that in mind, can you give me your commitment that 
our Guard flying wings will be made whole on the planes that 
they will have available as part of whatever the final strategy 
calls for?
    Dr. Wilson. Senator, I think the review that we are doing 
is probably going to show that we need more force structure 
than we currently have. As General Goldfein mentioned, at the 
beginning of the Gulf War, we had 134 fighter squadrons. Today 
we have 56, Active, Guard, and Reserve. The operations tempo 
for the last 27 years for the Air Force has been very, very 
high and has stressed our airmen across Active, Guard, and 
Reserve. You are absolutely right. We cannot do the missions 
that we do without the Guard.
    Senator Warren. Well, I appreciate that. I hope that is a 
commitment to make our Guard whole. But I appreciate that you 
fully understand how important our Guard is in protecting us.
    Dr. Wilson. Yes, ma'am.
    Senator Warren. I want to ask about one other area, if I 
can. I know you mentioned this to Senator Heinrich, but I want 
to follow up, Secretary Wilson. Last September, you announced 
that the Air Force research lab would lead a yearlong review of 
the Air Force's science and technology portfolio to update 
research priorities and strategy. I was very glad to be able to 
host you earlier this month at MIT [Michigan Institute of 
Technology] Lincoln Lab where there is so much incredible 
cutting-edge research going on.
    I understand that your review is also focused on how the 
Air Force can more productively engage with places like Lincoln 
Lab and with States, universities and the commercial sector to 
be able advance your priorities.
    Can you just say a word about how you plan to build on 
these partnerships and what role they will play in the future 
of the Air Force's efforts to modernize its capabilities?
    Dr. Wilson. Senator, it is my perception that when the Air 
Force went through sequester, we reduced research and 
development, particularly basic and applied, which is kind of 
the seed corn of the Air Force long term, and we kept it 
largely internal. I think we are better and stronger when we 
partner particularly with universities, research universities, 
on basic and early stage applied research for a variety of 
reasons, which you and I probably understand. I am looking 
forward to the science and technology review which had helped 
to highlight the areas in which we need to do research and will 
also tee up ways in which we can partner with others to do 
research better.
    Senator Warren. I very much appreciate that. You know, I 
understand that the AFRL [Air Force Research Laboratory] is 
doing a number of research center site visits. I hope they come 
to the commonwealth. But I was very pleased to see the 
increased emphasis on basic and applied research in the Air 
Force's fiscal year 2019 request.
    But as you know, I think we can still do better in this 
area. Our technological superiority is not guaranteed in the 
future. We have to fund these programs today because they are 
the seed corn for our technological advances in the future. 
Thank you.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Thank you both for your service and for being here today.
    I probably will not use my 5 minutes. I got a couple of 
business questions to ask you. I think you all know I do not 
focus much on the job that I think you all do well, which is 
how to position us best against our adversaries.
    But, General Goldfein, when you were doing your opening 
comments or it may have been an answer to the chair's question, 
you were talking about--first off, I think both of you talked 
about your 5-year plan. I think that is great, but you have got 
2 years of certainty to execute that plan.
    Let us take a look at China's modernization program. Do 
they historically fund those programs in 1-year or 2-year cliff 
intervals?
    General Goldfein. No, sir, they do not.
    Senator Tillis. So when is the last time that we would ever 
have intelligence that China was about to dramatically cut 
their out-year spending in connection with their strategic 
plans to grow their air force?
    General Goldfein. Sir, we have not seen that----
    Senator Tillis. Like never in modern history?
    General Goldfein. Not that I know of.
    Senator Tillis. So when you look at your 5-year plan and 
you know you only have 2 years of certainty, another Congress 
to deal with, then how do you handicap the likelihood that you 
are really going to reach that 5-year objective? I mean, you 
got to look at it the way I would in business. I have gotten my 
investors to give me 2 years. I go back and convince them to 
give me 2 to 4 more years. So when you look at the probability 
of succeeding on your 5-year objective with the uncertainty of 
spending in the out-years, how do you handicap your probability 
of being successful? I know everybody in uniform says we are 
going to make it work no matter what, but there has got to be 
something behind the scenes that says there is a major risk 
here because Congress has not done its job and given us any 
long-term spending trail. And, Secretary, you can start with 
that and, General, follow up.
    Dr. Wilson. Senator, to us, having a 2-year certainty is so 
much better than we have been in the last 10 years. In 9 out of 
the last 10 years, the military has started out the year with a 
continuing resolution. Budget certainty matters a lot to us. 
But we also accept that this is a constitutional republic and 
that we propose a budget and that the Congress appropriates and 
authorizes that budget. I would much prefer this system than 
many of the others, including honestly what China deals with.
    Senator Tillis. I agree, Madam Secretary, but we also have 
created a construct that was one of the worst ideas out of 
Congress, and that is called the Budget Control Act. So on the 
one hand, we have exactly what you say is a need to come back 
and appropriate every couple of years. But now we have got this 
construct that is punitive to the Department of Defense when we 
do not do our job. That is where some of the weight of your 
argument, which was very well put, loses its steam because we 
have created this condition that if we fail to do our job, then 
you all suffer.
    I think when we look at these modernization plans, we take 
a look at these weapon systems acquisitions, we ask ourselves 
why it is costing so much more money. Every once in a while, 
Congress ought to look in the mirror because it is because we 
are not providing any level of consistent certainty for you all 
to do your jobs.
    You have got your own work to do, and that is the next 
thing I want to talk about. How well are you doing on getting 
to the business of the Air Force, improving procurement, 
acquisition, sourcing, and all the things that you all--to me I 
have got a third, third, third view of the world. A third of 
the problems here are constructs like the Budget Control Act 
that Congress has imposed on the process. A third of them are 
events out of our control. You just got to deal with it. And a 
third of them are your own self-imposed regulatory burdens and 
things that you do to yourself that you have not gone back and 
looked at modernizing. And I view acquisitions, procurement, 
sourcing as being one of the big ones. So what progress have 
you made since you were before us last?
    Dr. Wilson. Senator, with respect to procurement, we put 
out and I think delivered to all of you a report on how did we 
do on acquisition last year for all of our programs. And where 
we had problems, there was a common theme and that was 
software. We are looking actually at standing up a particular 
program office specific to software and digital systems because 
we do not do that well. But we are also implementing a lot of 
the authorities that you have given us in prototyping and 
experimentation to be able to go faster.
    Senator Tillis. Shorter cycles?
    Dr. Wilson. Exactly. Shorter cycles, learn what we can, and 
then come back with a program of record. The adaptive engine is 
a great example of that, $1.8 billion over the fiscal year 
defense plan, prototyped engines intended to get 10 percent 
increase in thrust, 25 percent increase in fuel efficiency.
    We just let a contract using your other transactional 
authorities, which you gave to us, for $100 million put towards 
space systems. The first two contracts were let for micro-
satellites to go direct to geosynchronous orbit using these 
very rapid other transaction authorities.
    So we are trying to move forward at speed to get great 
capability, to learn and fail fast, and use everything you have 
given us to defeat and dissuade the adversaries.
    Senator Tillis. Good. Thank you both.
    Thank you, Mr. Chair.
    Senator Inhofe. Thank you, Senator Tillis.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Just a quick couple of points. General, we have been in 
touch over and over about things trying to keep your Gulf 
testing and training range without incursion and development. I 
see that we are going ahead with your investment down there on 
additional telemetry and so forth.
    I was just down there flying with some of your folks and, 
again, looking at it from a different perspective, up in the 
air, about how necessary it is to protect your training range.
    Likewise, you know, we had a little dust-up down there 
because fortunately when you stepped in as the top general, the 
Chief, and said you do not want your undeveloped barrier island 
messed with because it is going to mess up your training 
mission, and then I stepped in pursuant to that and stopped the 
cutting of a pass through there that would increase all of that 
boat traffic and start to mess up your situation.
    So I just want to thank you for standing on that. It is one 
thing for a colonel down there at Eglin to say it, it is 
another thing for the Chief of Staff of the Air Force to say 
it. And so, I think we have all of that under control.
    But do you want to just--maybe a sentence or two to say how 
important your Gulf training and testing range mission is?
    General Goldfein. Yes, sir. And what I will emphasize for 
the committee is the test part of it because the training piece 
is clearly important, but having a pristine range that we are 
able to test, whether it is low observable capability and all 
the things that we do with weapons procurement and testing it 
at Eglin there, is absolutely critical that we protect that.
    Senator Nelson. Without going into all the background, are 
you all aware of the single-point failure of the bridge going 
across the Indian River to get to not only the Kennedy Space 
Center but also the Cape Canaveral Air Force Station?
    Dr. Wilson. Senator, yes, I am.
    Senator Nelson. Well, as you know, it is actually owned by 
NASA [National Aeronauticcs and Space Administration], but 
obviously the Air Force uses it and it is critical to the Air 
Force getting your various missions across there and then to 
their facilities to prepare. Do you want to say anything about 
that?
    Dr. Wilson. Senator, it is an important way for us to 
operate there at Cape Canaveral. With respect to that bridge, 
of course, the property is not owned by the Department of 
Defense. So with respect to military construction, we cannot 
fix the bridge, but it is owned by NASA.
    Senator Nelson. But it is my understanding that you can 
participate with NASA in some way to--basically the bridge is 
going to have to be rebuilt.
    Dr. Wilson. Senator, I understand that the bridge does not 
meet the structural requirements. It is a piece of property 
that we do not own. So it is not something that we have 
assessed from an engineering point of view.
    Senator Nelson. Do you think that that bridge is important 
to you? If it is not repaired, are any of your launch missions 
going to be impacted on the eastern test range?
    Dr. Wilson. Yes, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Nelson.
    Senator Perdue?
    Senator Perdue. Well, I thank both of you for being here 
again. It seems like you spend more time on the Hill talking to 
us than you do with your command. But thank you for being here.
    General Goldfein, as you and the Secretary have been more 
than patient with us in both open and in classified briefings 
about the advanced battle management system, ABMS, that you are 
envisioning--and I fully support that. As we have also talked 
about, there is this gap somewhere in the 2020s on ISR 
[Intelligence, Surveillance, and Reconnaissance] capabilities.
    For today, though, I want to talk about how that decision 
to move to space capabilities and protecting assets in space, 
given what is going on in particularly the China development in 
space--you know, in our past in the United States, we have 
always looked at space as sort of the scientific endeavor. 
China looks at it totally differently. It is a military 
endeavor. They just recently launched this supposedly debris 
clearer and other snuggler satellites behind our GPS [Global 
Positioning System] capability.
    So help me understand how moving capability from air domain 
to the space domain actually increases survivability? In this 
open environment, help us understand what your long-term plan 
is, including the gap that we have sometime in the 2020s.
    General Goldfein. Yes. Thanks, Senator.
    I would offer to you that the gap that we are required to 
fill is that gap between both a contested environment and an 
uncontested environment. As we have discussed, the challenge we 
face today with the current Joint STARS is that the threats can 
actually keep them far enough away not to be able to do its 
job. So this is about supporting soldiers, sailors----
    Senator Perdue. I am sorry to interrupt, General. I 
apologize. I hate to do that with somebody with four stars on 
their shoulder.
    But with regard to the Navy, the Navy is going in a little 
bit different direction. Can you tell us the difference in 
their demand structure versus what our demands on ISR in that 
regard?
    General Goldfein. It is based on mission. But actually the 
Navy long term is going in the same direction. I can tell you 
that the CNO [Chief of Naval Operations], Admiral Richardson, 
and I have--we have had warfighter talks. We are talking about 
going to a network disaggregated architecture. But the gap that 
we are filling now is that we have got to make sure that 
soldiers, sailors, airmen, and marines on the ground in a 
contested environment, being Kaliningrad, understand enemy 
ground movement on day one of that campaign at the same time, 
that I have got it in an uncontested environment, Yemen.
    The fact that we can fly Joint STARS [Surveillance Target 
Attack Radar] longer through 2028 and possibly longer allows us 
to take a look at moving now to a disaggregated architecture. 
It is more than just space. It is actually how you connect 
space and air and sea and land together to produce a common air 
picture, a common ground picture that equally serves someone in 
Kaliningrad inside a contested domain where Joint STARS cannot 
help today and in Yemen where Joint STARS can.
    So this has got to be transparent to those on the ground, 
and as the service that organizes, trains, and equips and 
presents forces, we got to fill that gap. That gap exists 
between contested and uncontested.
    Senator Perdue. In the recent action that the United States 
took in Syria, those weapons were GPS-benefited weapons. 
Because of that, as we know today, I think it is still true 
that no collateral damage was incurred because of the pinpoint 
action. We also know that Russia and China can jam and can 
affect GPS.
    I know this is an open environment, but again, are we 
moving in a direction where those capabilities are hardened and 
can be protected in the new battlespace? Secretary?
    Dr. Wilson. Senator, the current plan for the Air Force is 
to move to jam-resistant GPS, and that is in the budget 
proposal. Of our 77 satellites that the Air Force operates, 31 
of them are GPS. We not only provide position navigation, we 
also provide timing to the New York Stock Exchange and to the 
ATM machine that you get your cash from. So it enables a huge 
industry. It also enables a lot for the warfighter.
    Senator Perdue. I have one last question. On a recent trip 
to China, we were so privileged to stop in Alaska and met the 
F-22 squadron there. I have to tell you it is a lot of money, 
but boy, is that impressive, the people, the equipment, the 
mission, the capability. I slept better for the next week or 
two.
    The commanding officer, though--I asked a question. I said, 
you know, the primary mission up here--and we had pictures and 
we saw this information about how the F-22 is tailing a TU-95. 
So you have a pre-gen one aircraft being tailed by a fifth gen 
aircraft. My question, obviously not being an expert--I said 
why do we have a gen five chasing a gen one, and he said, sir, 
because we are here.
    Can you speak to that? I mean, this is a very 
sophisticated, very expensive piece of equipment. It is now 
aging, even though it is in the first few years. What are the 
replacements for that? What is the future of that? We got to 
fly the wings off it to train people. I get that, but help me 
understand. This, again, is a limitation of money and funding, 
but help me understand the mission and strategy of that fifth 
gen capability.
    General Goldfein. Thank you, sir.
    It is true that we use those assets and we place those air 
superiority assets, be that F-15, F-22, F-35, F-16, and we 
place those where we need to be able to intercept, whether it 
is Chinese or Russian long-range aviation. So no surprise that 
we would be using the F-22 to intercept Chinese long-range 
aviation.
    Very important, though, that I think we acknowledge because 
the previous question talked about sustainment costs of the F-
35. I will tell you from the Secretary of Defense on down with 
Secretary Shanahan, we are all involved in wire brushing down 
sustainment costs of new aircraft.
    But what has not been talked enough about is the 
operational successes that we have enjoyed. Just to share with 
you a couple. We took the F-35 to Red Flag last year. 86 
percent mission-capable rate of our newer F-35's, a 20 to 1 
kill ratio against the most advance adversaries we could put 
up, more advanced than anything we might face because we were 
up against ourselves. 26 of 27 direct hits on air-to-ground 
targets in the most difficult threat environment that we could 
put them in from both an air and a ground perspective.
    We went to Combat Hammer and Archer, which is where we test 
capabilities, and they were a 100 percent hit rate on air-to-
ground munitions and 11 for 11 on shooting AMRAAMs. So the 
newer F-35's, which is a fusion machine that allows it to 
actually take information from space and cyber, fuse it 
together with onboard and off sources, is allowing this weapon 
system to become the quarterback for the team.
    I will just finish by saying I had a great conversation 
with the Israeli Air Chief, who are now flying the F-35, and he 
said it is an absolute game-changer for them. They are able to 
see and sense and fuse information that they have never seen 
before across the region. So this F-35 and fifth gen is a game-
changer for us.
    Senator Perdue. Thank you.
    Mr. Chairman, I am so gratified that the rebuilding and the 
future of our Air Force is in the hands of these two former 
U.S. Air Force Academy classmates. Thank you both.
    Senator Inhofe. Thank you, Senator Perdue.
    I might add that was quite a discussion when they cut that 
back to--I think we currently have 177 of the F-22's. It was 
considerably more than that I believe. Do you remember the 
figure?
    General Goldfein. Yes, sir. We were on track for upwards of 
plus 300 to 500, and it was cut to 187.
    Senator Inhofe. Yes, it was about half.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank you both for testifying here.
    Secretary Wilson and General Goldfein, I do not want to 
talk too much of our time on the subject today, but I do want 
to quickly touch on the manned fighter mission in Fort Wayne. I 
know you are aware of all the great work that the men and women 
do there every day. General Goldfein, I am sure you will recall 
our conversation prior to your nomination, in which you told me 
that you would honor General Welch's commitment that he made to 
me personally as Air Force Chief of Staff that the Air Force 
would be maintaining a manned air combat mission in Fort Wayne 
that would continue to identify opportunities for mission 
conversion going forward.
    Secretary Wilson, you likewise said that you would stand by 
the commitment.
    It is my understanding that the platform transition that we 
are looking for requires a strategic basing action. That action 
is still awaiting a final formal decision. Those decisions are 
made at the Secretary level.
    Madam Secretary, what is the status of the strategic basing 
action?
    Dr. Wilson. Senator, we have the A-10's there. 173 of the 
A-10's have had rewings. The fiscal year 2018 budget restarts 
the line for rewinging the A-10 and buys four more wing sets. 
The fiscal year 2019 budget, which is in front of you, will buy 
somewhere between 8 and 12 additional wing sets, and we have 
asked the acquisition folks to see, once they get the contract 
in place, whether we can continue to accelerate the rewinging 
of the A-10.
    Senator Donnelly. But the platform transition. Is there 
anything regarding the status of the strategic basing action 
regarding that?
    Dr. Wilson. Senator, we expect to fly the A-10 through the 
2030s. So there is no strategic basing action with respect to 
that.
    Senator Donnelly. As you know, this is an issue of great 
concern to me. They were talking about the F-16's, and what we 
want more than anything is a combat mission, as you talked 
about. So I would appreciate it, in regards to the discussion 
today, if you will come back and meet with me again for that 
purpose in my office. We have talked before. This is very, very 
critical to Fort Wayne, to the promises that have been made to 
us, the word of the Air Force Chief of Staff, and I would 
appreciate it if you would commit that you--I can come over to 
the Pentagon or have you come by my office, either way. But I 
would appreciate it if we can get together again soon.
    Dr. Wilson. Yes, sir. Happy to.
    Senator Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Donnelly.
    Any further--Senator King?
    Senator King. Secretary Wilson, a couple of weeks ago, the 
Defense Department stopped taking deliveries on the F-35's 
because of a disagreement about the priming of some fastener 
holes. I guess two questions. I think we have had 200 of these 
that have been delivered. Was this a defect that should have 
been picked up sooner, and is this a change in the Air Force's 
quality requirement, or is this a problem in terms of the 
contractor?
    Dr. Wilson. Senator, as I understand it, in this case, it 
was identified--I do not know whether it was the Navy, Marine 
Corps, or Air Force aircraft that identified corrosion around 
those rivet holes. The root cause was a failure to prime the 
rivet holes. Lockheed was apprised of that.
    The reason that the joint program office, because this is 
not an Air Force-run program, but the joint program office 
stopped deliveries because there is a disagreement with 
Lockheed about who bears the cost of going back to fix that. It 
was a requirement of the contract, and they, in my view, need 
to fix the problem over time so that we do not have corrosion 
around those rivets.
    Senator King. That is your position that it is the 
contractor's responsibility to take care of this problem.
    Dr. Wilson. Yes, sir.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Thank both of you, the witnesses, for your patience and 
your great knowledge and sharing that with us.
    We are adjourned.
    [Whereupon, at 11:38 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Joni Ernst
                             pilot shortage
    1. Senator Ernst. General Goldfein, how does the Air Force plan to 
address its critical pilot shortage, given the lack of needed aircraft 
and the Physiological Episodes its current trainer fleet are 
experiencing?
    General Goldfein. The Air Force is focusing on three main lines of 
effort: increased retention of current pilots, increased production of 
new pilots, and optimizing pilot requirements. The Air Force has an 
Aircrew Task Force that is implementing a plan with major efforts in 
each of these areas. The unexplained physiological episodes in a small 
number of aircraft will directly affect production, but does not alter 
the Air Force plan.
                           training aircraft
    2. Senator Ernst. Secretary Wilson, does the Air Force see a need 
for the procurement of a low-cost primary and evaluation aircraft to 
extend its capacity for candidate evaluation in the early stages of 
training?
    Secretary Wilson. Not at this time. Currently, we have the 
efficiency and training capacity with our initial flying training 
program located in Pueblo, Colorado.
                     low-cost airframe requirements
    3. Senator Ernst. Secretary Wilson, outside of the Light Attack 
Aircraft program currently being demonstrated, does the Air Force have 
a need for additional low-cost airframes to free up more complex and 
expensive aircraft?
    Secretary Wilson. Not at this time. With the acquisition of the T-X 
advanced pilot trainer, the Air Force will be able to perform mission 
tasks of the high-end fighters on a trainer aircraft, at a reduced 
cost. If the light attack platform is acquired and once it is proven in 
combat, it will free up 4th and 5th generation fighters executing 
missions against violent extremist organizations resulting in the same 
capability being executed at a lower cost per flying hour.
                               __________
              Questions Submitted by Senator Dan Sullivan
               readiness for large-scale air-land battle
    4. Senator Sullivan. Secretary Wilson and General Goldfein, the 
National Defense Strategy emphasizes the threat of near-peer 
competition with China and Russia where the United States military 
could face large scale, air-land conflict. In your personal opinion, is 
the Air Force fully prepared for a potential great power, joint, Air-
Land conflict?
    Secretary Wilson and General Goldfein. The Air Force still enjoys a 
relative advantage over Russia and China, however without continued 
investment in new platforms and realistic training our advantage can 
erode. Readiness for near-peer large scale conflict requires 
integration of joint capabilities across all domains. Over the past two 
decades the Air Force supported the land component in counter-
insurgency operations and perfected air support tactics, techniques, 
and procedures in an uncontested environment. To prevail in a large 
scale air-land conflict and reduce risk to mission accomplishment, the 
Air Force continues to integrate the newest survivable and lethal 
weapon systems, such as the F-35, to support joint operations with the 
land component. At the same time the Air Force is divesting itself of 
the least survivable systems such as JSTARs, which are not suited for a 
contested Russia or China environment. Planned increases in manpower, 
flying hours, munitions production, and new systems purchases are all 
geared at restoring full capability to USAF units.

    5. Senator Sullivan. Secretary Wilson and General Goldfein,this 
committee has discussed the need for high-end readiness for both the 
Air Force and Army. In order to properly prepare for near-peer 
conflict, would you agree that we need large-scale Joint Air and Ground 
combat exercises that improve our Air Land Battle joint readiness?
    Secretary Wilson and General Goldfein. Yes. The Air Force is 
committed to preparing for near-pear conflict and works closely with 
the Army to improve joint readiness. The bilateral agreements between 
the Air Force and the Army exist to improve and facilitate joint 
interoperability in the air and land domain. In addition to supporting 
Army large scale exercises at the National Training Center, the Joint 
Readiness Training Center, the Joint Multinational Readiness Center, 
and through the Army's Mission Command Training Program, and the Joint 
Warfighting Assessment, the Air Force conducts a total of 20 Air Land 
Battle tactically focused exercises at Green Flag East and Green Flag 
West. These and other exercises provide the opportunity to practice the 
critical tactical skills which enable joint operations. The Air Force 
also provides numerous training opportunities aimed specifically at 
jointly combating near-peer enemies and integrating joint capabilities 
in high end exercises such as Red Flag Alaska and Red Flag Nellis, each 
of which are conducted three times a year.

    6. Senator Sullivan. Secretary Wilson and General Goldfein,the 
Joint Pacific Alaska Range Complex (JPARC) in Alaska is the largest 
joint overland training area in the U.S. with airspace the size of 
Florida. Would you agree that the JPARC it is an ideal location for the 
type of advanced integrated training we will need to best counter high-
end and near-peer threats?
    Secretary Wilson and General Goldfein. The weather and the cost of 
moving forces to and from Alaska for exercise participation are 
sometimes challenging. The size of the JPARC combined with the 
extensive organic training resources located on the range, creates a 
significant advanced integrated training opportunity. The Air Force 
routinely takes advantage of this capability during Exercise Red Flag 
Alaska, which is the Pacific Air Forces' premier tactical joint and 
coalition air combat employment exercise. Red Flag Alaska has also seen 
a steady increase in joint participation due largely to the robust 
capabilities provided by JPARC. Additionally, JPARC supports Exercise 
Northern Edge hosted by Alaskan Command which trains 6000 joint 
servicemembers and is Alaska's largest exercise.

    7. Senator Sullivan.Secretary Wilson, what in the fiscal year 2019 
President's Budget will fund training range improvements for the JPARC 
in Alaska?
    Secretary Wilson. Funds for activities like the Alaska JPARC fall 
within the Range Infrastructure Modernization and Communication 
(RIMCOMM) program and are programmed in PE 0207429F in the President's 
Budget. The Air Force Air Combat Command manages the RIMCOMM program 
and prioritizes the equipment requirements for the ranges and 
distribute the funds as required by the highest priority mission.
                       commitment to visit alaska
    8. Senator Sullivan. Secretary Wilson, I've met with you several 
times in the last year and repeatedly asked for your commitment to 
visit Alaska. I recommend that you visit the state during a Red Flag-
ALASKA exercise: The perfect opportunity would be the exercise 
scheduled for August 11-24, 2018, during the Senate recess. When can I 
expect you to visit Alaska?
    Secretary Wilson. Unfortunately, my schedule precludes attendance 
at Red Flag-Alaska. However, I'll be visiting Alaska from 8-10 August, 
2018 to visit our Airmen and partners at Joint Base Elmendorf-
Richardson and Eielson AFB. I will ensure my team coordinates with your 
office on potential opportunities to meet with you or your staff 
members during my trip. Thank you for your continual support to our 
Airmen.
                               __________
              Questions Submitted by Senator David Perdue
              jstars--hedging for risk and capability gaps
    9. Senator Perdue. General Goldfein, the Air Force has opted to 
cancel its JSTARS recapitalization plan, arguing that the proposed 
replacement is not survivable in the high-end fight. The Navy, on the 
other hand, is investing heavily in the E-2D Advanced Hawkeye and P-8 
Poseidon, which both have similar vulnerability concerns as the 
proposed JSTARS recap program. Could you explain the Air Force's 
approach to airborne battle management?
    General Goldfein. Currently, the Air Force executes airborne battle 
management with the E-3 Sentry Airborne Warning and Control System 
(AWACS) and the E-8C Joint Surveillance Target Attack Radar System 
(JSTARS) platforms. In highly contested environments the E-3 has a 
longer range radar to support the Air Force's goal of air supremacy, 
and the E-8C's radar is optimized for detecting the enemy ground scheme 
of maneuver. In the future, the Air Force will transform the AWACS into 
a multi-domain platform by fusing its active and passive sensors with 
space-to-surface information feeds across multiple classification 
levels.

    10. Senator Perdue. General Goldfein, can you explain how the Air 
Force and Navy intend to jointly execute airborne battle management in 
a high-end fight?
    General Goldfein. The Air Force and Navy routinely train and 
execute battle management across the full spectrum of warfare. The E-3, 
E-8, P-8 and E-2 platforms are equipped to share air, ground, and 
surface data across all four platforms via Link-16 and other data 
links. The crews of all four platforms are trained to communicate and 
synchronize each platforms' abilities to present a coherent air, 
ground, and surface picture to combatant commanders. In the high-end 
fight, the two services are moving forward aggressively to find new 
ways to share data, produce common operational pictures, and execute 
multi-domain operations.

    11. Senator Perdue. General Goldfein, the legacy JSTARS aircraft 
are due to be divested in the early to mid-2020s, starting with 3 
aircraft in fiscal year 2019, although you have stated that divestiture 
may be stretched out to the late 2020s but only as late as 2028. While 
the Air Force is proposing an incremental approach to fielding ABMS, 
much of the proposed plan remains aspirational. This committee remains 
concerned that the Air Force is divesting existing capability before 
its replacement is mature, let alone fielded. What are the specifics of 
the plan for the Air Force to manage the risks inherent in fielding the 
Advanced Battle Management System, particularly in the mid-2020s to 
early 2030s, when there will no longer be legacy JSTARS to fill in 
should the Air Force's plan be delayed or deemed unfeasible?
    General Goldfein. The Advanced Battle Management System (ABMS) 
focuses on conducting combat operations in the highly contested 
environment. The Air Force's proposed incremental approach to replace 
JSTARS will develop and integrate space, air, and ground based sensors 
on manned and unmanned platforms to meet combatant commander 
requirements in both contested and non-contested environments. The Air 
Force's plan to continue to support the joint force is built into three 
increments.
    The first increment focuses on integrating current technologies 
into existing platforms and investing in anti-access/area denial 
capabilities. Increment one includes buying back the seven E-3 AWACS 
planned to be retired and expanding the entire fleet of 31 E-3's battle 
management capacity to better support ground operations; maintain the 
fleet of 11 RQ-4 Global Hawk Block 40 aircraft and further utilize the 
ground moving target indicator capability of the MQ-9 fleet.
    Increment two focuses on work on converting to a multi-domain 
battle management/command and control (BMC2) model by further enhancing 
data link capability and capacity amongst fourth-and fifth-generation 
aircraft, and integrating higher classification level information into 
the E-3G and Control and Reporting Centers.
    Increment three completes the transformation of BMC2 by 
implementing the results of the ABMS Analysis of Alternatives (AOA) to 
deliver a multi-domain, multi-sensor, and resilient BMC2 system.

    12. Senator Perdue. General Goldfein, by what criteria will the Air 
Force evaluate progress towards achieving implementation of advanced 
battle management system?
    General Goldfein. While the Advanced Battle Management System 
(ABMS) analysis of alternatives (AOA) is ongoing (concludes in the 
summer of 2020), the Air Force is investing in technology and procuring 
systems to (1) build an agile, resilient communication architecture 
that expands data pathways; (2) develop advanced sensors for near-peer 
competition; and (3) modify battle management software to enable 
command and control of multi-domain operations. The Air Force will 
utilize authorities provided by Congress to the fullest extent, e.g. 
prototyping and experimentation, to allow the fielding of capabilities 
to the warfighter as soon as possible. Upon completion of the AOA, the 
Air Force will define the technological end-state for ABMS fielding.

    13. Senator Perdue. General Goldfein, are you planning to take 
steps to make JSTARS legacy maintenance more cost effective?
    General Goldfein. Yes, the Air Force is taking steps to increase 
the cost effectiveness of JSTARS legacy maintenance. Program Depot 
Maintenance (PDM) is currently done by Northrup Grumman and we will 
continue to rely on them for maintenance support. The Air Force plans 
to bring an E-8C JSTARS into the Warner Robins Air Logistics Complex at 
Robins Air Force Base, Georgia, for PDM later this summer. This will be 
a proof of concept initiative intended to supplement the work being 
done at Lake Charles, Louisiana.
               jstars survivability and threats to space
    14. Senator Perdue. Secretary Wilson and General Goldfein, the Air 
Force has argued that the JSTARS Recap would not be survivable in a 
highly contested environment. A key component of the Air Force's ABMS 
alternative is space-based. However, Air Force leadership, including 
both of you, have repeatedly stated that space is now a contested 
domain. This committee is concerned that the Air Force is simply moving 
capability from one contested domain to another. Can you explain how 
moving capability from the air domain to the space domain increases 
survivability when concerns remain about the survivability of our space 
assets?
    Secretary Wilson and General Goldfein. While the majority of this 
conversation is classified, two key characteristics of the Advanced 
Battle Management System (ABMS) are agility and resiliency. The Air 
Force is working to spread the capabilities of ABMS across multiple 
domains: air, space, and surface. Spreading the capabilities and the 
components of ABMS across multiple domains forces a targeting problem, 
driving adversarial forces to expand (and dilute) their targeting 
plans. By taking this approach, we mitigate the risk of losing 
exquisite capability associated with one complex system by having a 
variety of smaller scale components should an adversary conduct 
offensive operations in any domain.

    15. Senator Perdue. Secretary Wilson and General Goldfein, do you 
plan to invest more in ISR analysis for the ABMS system in the future 
to make up for the loss of real time analysis that occurs on JSTARS 
now?
    Secretary Wilson and General Goldfein. No, there is no need to 
invest more in analysis. JSTARS combines a ground sensing radar with 
on-board battle managers trained to assess movement. The Air Force's 
plan may disaggregate sensors from the battle management personnel, but 
it will still be accomplished real-time by Air Force air battle 
managers.

    16. Senator Perdue. Secretary Wilson and General Goldfein, are you 
concerned about the loss of real-time ISR for combatant commanders and 
troops on the ground and the impact on the kill chain? (Clarification 
from Sen Perdue's office: This is related to the connections between 
the family of systems and space threats. Sen Perdue is asking about the 
effect of the loss of a satellite to the proposed ABMS. What would 
happen to the troops on the ground if a satellite (being used in real 
time) was lost during their ground operations? Is there a concern there 
on par with JSTARS survivability concerns?)
    Secretary Wilson and General Goldfein. This is not an ISR issue. 
The ground moving target indicator capability provided by the RQ-4 
Block 40 and MQ-9 fleets can provide the same real-time data to battle 
managers and ground commanders to inform them of enemy ground scheme of 
maneuver. With the data that is gathered by other airborne sensors and 
those that are space-based, there is no impact to the kill chain. The 
data links and information architecture in-place and under development 
provide the warfighter real-time and near real-time battle management 
capability.
                        jstars--low cost options
    17. Senator Perdue. Secretary Wilson and General Goldfein, could 
you please explain the impact to the Air Force if Congress directs the 
Air Force to continue the Recap program as previously envisioned?
    Secretary Wilson and General Goldfein. Without an additional 
topline increase of $7 billion, the Air Force would have to make 
difficult budgetary choices significantly affecting the readiness and 
warfighting capability of the force. The Air Force would be forced to 
spend less money on developing capabilities to accomplish the mission 
in contested environments.

    18. Senator Perdue. Secretary Wilson and General Goldfein, yes or 
no, has the Air Force ever considered finding a cheaper, faster way to 
do recap, for example a used airframe and existing radar technology?
    Secretary Wilson and General Goldfein. Yes. The Air Force 
considered a variety of options as part of the 2011 Analysis of 
Alternatives. However, recapitalizing the E-8C fleet on a commercial 
derivative aircraft with an enhanced radar, modern battle management 
command and control suite, and robust communications was the best 
option during that timeframe.
    19. Senator Perdue. Secretary Wilson and General Goldfein, if the 
Air Force has considered a low cost option referenced in Question 10, 
can you provide all documentation and analysis associated with all 
recapitalization solutions the Air Force has considered?
    Secretary Wilson and General Goldfein. As previously referenced in 
Question 18, a variety of options were considered in the 2011 Analysis 
of Alternatives (AOA), and recapitalizing the E-8C was the best option 
at that time. The 2011 AOA can be provided, upon request.

    20. Senator Perdue. Secretary Wilson and General Goldfein, could a 
low cost solution be cheaper than extending the service life of the 
legacy fleet?
    Secretary Wilson and General Goldfein. It is possible that a low 
cost solution would be cheaper than extending the service life of the 
legacy JSTARS fleet. However, a proper comparative analysis would be 
contingent upon a low cost solution being identified. The problem 
remains that, while cost is a factor, the primary issue we are 
addressing with advanced Battle Management is the expected threat 
environment.

    21. Senator Perdue. Secretary Wilson and General Goldfein, would 
getting a new platform online faster mean you would have greater 
capacity and capability in the near-term, save on maintenance costs to 
the legacy fleet, and hedge against the risk of a capability gap, 
should the Air Force's plan for ABMS not come to fruition in time?
    Secretary Wilson and General Goldfein. While there would be savings 
in maintenance costs and an increase in capacity as compared to today's 
availability rate of the E-8C, there will not be an increase in 
capability. The current recapitalized program was intentionally 
established to quickly replace the legacy E-8 fleet with little 
improvements to the 30 year old requirements. The Capability Decision 
Document (CDD) and Key Performance Parameters (KPPs) as written for the 
Recap program to do not address a significant increase in command and 
control capability needed as compared to the legacy E-8C or the 
evolving capability of the adversary to render Recap ineffective in a 
contested environment. Advanced Battle Management System is intended to 
provide command and control in highly contested environments.

    22. Senator Perdue. Secretary Wilson and General Goldfein, would 
you agree that a new platform that extended the life of the JSTARS 
capability into the 2030s, and possibly beyond, still be useful in 
counter-drug operations, counter-insurgency operations, and wartime 
operations in battlespaces where ground troops are operating but the 
U.S. has gained air superiority?
    Secretary Wilson and General Goldfein. Yes. However, the 2018 
National Defense Strategy directs the Air Force to equip and prepare 
itself for the high-end fight. We are behind as a nation in our ability 
to project power in anti-access environments. Engagements and conflicts 
against near-peer threats must drive capabilities developed today and 
in the future. Given these facts and with the limited resources 
available, the Air Force must develop a ground moving target indicator/
battle management command and control capability that is survivable in 
the high-end fight. Anything developed must enhance warfighter 
capability across the entire range of military operations.
                jstars--cost of recapitalization program
    23. Senator Perdue. Secretary Wilson, in your testimony, you state 
that the JSTARS recap would cost the Air Force $15 billion in total 
lifecycle costs. Can you provide the documentation for how this number 
was determined?
    Secretary Wilson. Yes. The JSTARS Recap Milestone A Independent 
Cost Estimate is attached.
    24. Senator Perdue. Secretary Wilson, can you provide documentation 
for how much the Air Force plans to spend in life cycle costs and 
maintenance on the current fleet if its life is extended to 2028 or 
beyond?
    Secretary Wilson. Yes. If the current fleet, of 16 aircraft, is 
extended until 2028 the total for life cycle costs and maintenance 
would be $4.180 billion. The breakdown is shown below:

                 Table 1. Plan Choices for Military Beneficiaries Compared to Federal Civilians
----------------------------------------------------------------------------------------------------------------
                                                                 Amount per/year ($
                         Fiscal Year                                  millions)                Cumulative
----------------------------------------------------------------------------------------------------------------
2019........................................................                   $373.1                    $373.1
2020........................................................                   $382.5                    $755.6
2021........................................................                   $392.0                  $1,147.6
2022........................................................                   $401.8                  $1,549.4
2023........................................................                   $411.9                  $1,961.3
2024........................................................                   $422.2                  $2,383.4
2025........................................................                   $432.7                  $2,816.1
2026........................................................                   $443.5                  $3,259.7
2027........................................................                   $454.6                  $3,714.3
2028........................................................                   $465.9                  $4,180.3
----------------------------------------------------------------------------------------------------------------

                        airborne data link plan
    25. Senator Perdue. General Goldfein, Air Force leadership has 
discussed the importance of networks in their visions of the future Air 
Force. The committee is concerned the Department of Defense's ideas for 
airborne data links have lacked vision and been disjointed. Could you 
explain the Air Force's efforts in this area?
    General Goldfein. The Air Force is investing in a diverse and 
flexible communications architecture that leverages open standards and 
modular approaches to enable interoperability within the Air Force and 
across the Services. The Air Force fiscal year 2019 budget invests in 
the following capabilities to support data link interoperability and an 
open architecture:
    <bullet>  Battlefield Airborne Communications Node (BACN)--A high-
speed, resilient airborne communications network to enhance current 
command and control capabilities across all domains through tactical 
data links. In fiscal year 2019, this program transfers from Overseas 
Contingency Operations funding to the baseline budget.
    <bullet>  Joint Aerial Layer Network (JALN) High Capacity 
Backbone--Upgrades airborne communications to enable data-sharing 
between 4th Generation (e.g. F-15, F-16) and 5th Generation (e.g. F-22, 
F-35) aircraft in both permissive and contested environments.
    <bullet>  Tactical Data Link Modernization--Air Force is 
modernizing data links, including Link 16, to extend and improve the 
capacity and resilience of Joint airborne tactical networks.
    <bullet>  Mobile Unmanned/Manned Distributed Lethality Airborne 
Network (MUDLAN) Joint Capability Technology Demonstration (JCTD)--Air 
Force is working with USD(R&E) and the Navy on MUDLAN, which will 
demonstrate a fused Tactical Data Link/Common Data Link network for 
easy Joint interoperability at the tactical edge, with a high data 
capacity to enable new tactical applications.
    <bullet>  AERO Net--Air Force is developing AERO Net, a fully 
exportable data link to enable secure information sharing with any 
mission partner, empowering our allies in combating violent extremist 
organizations worldwide.
    More generally, we take your point on cohesion and share your 
concern. The Air Force is seeking to promulgate and require all 
programs to use standard interfaces for communications and we are 
working with the other Services to achieve alignment. This Open Mission 
System and Universal Command and Control Interface standard will drive 
interoperability and interconnectivity across services, contractors, 
and equipment. If everything can connect, and everthing can share, 
multi-domain operations are enabled.

    26. Senator Perdue. General Goldfein, how are you ensuring Air 
Force airborne data links are interoperable within your own elements as 
well as across the joint force?
    General Goldfein. Link 16 is the primary data link for the U.S. Air 
Force, and is the cornerstone for interoperable airborne data 
communications across the Joint Force today. Link 16 is employed across 
the DOD, and by 43 of our partner nations. The Air Force is 
implementing enhanced Link 16 terminals, Multifunctional Information 
Distribution System Joint Tactical Radio System (MIDS JTRS), on most 
platforms to improve security and better utilize network capacity. In 
addition to Link 16, the Joint and international F-35 enterprise is 
interoperable through the Multifunction Advanced Data Link.
    To connect Air Force and Joint tactical edge users using disparate 
or disconnected communications systems, the Air Force uses airborne and 
ground gateways to translate and relay voice and data. Notably, Air 
Force investments in the Battlefield Airborne Communications Node 
(BACN) gateway provides an airborne hub for disparate signals.
    Internal to the Air Force, Air Combat Command is the lead 
organization synchronizing tactical communications and networking 
requirements. To ensure alignment across the Joint Force, the Air Force 
participates in a number of joint venues to promote data link 
interoperability, including the Joint Aerial Layer Network Council, 
Joint Air Dominance Organization, Joint Datalink Acquisition Working 
Group, and the Joint Technical Coordinating Meeting.
                               __________
                Questions Submitted by Senator Jack Reed
           programming and budgeting for contracted services
    27. Senator Reed. Secretary Wilson, the Defense Business Board did 
a February 2018 study that noted that in fiscal year 2016, DOD spent 
$141 billion on 777,000 service contractors, double the $71.5 billion 
it spent on 740,000 civilian employees. The DOD spent roughly as much 
on contract services as it did on MILPERS ($141 billion compared to 
$136 billion). When is the Air Force planning to implement the GAO 
recommendation to more transparently budget for contracted services 
workforce spending in the same manner as currently exists for weapon 
systems, military and civilian force structure?
    Secretary Wilson. The Air Force is working with the Office of the 
Secretary of Defense to establish greater transparency in how mission 
dollars are allocated for services. Services acquisitions are not 
stand-alone requirements; they are interrelated to the on-going every 
day missions of the Air Force.
                   service requirements review boards
    28. Senator Reed. Secretary Wilson, are the Air Force's Service 
Requirements Review Boards mainly focusing on better buying practices 
for contracted services or are they also challenging requirements and 
looking for duplication between other contracts and work done by the 
military and civilian workforces?
    Secretary Wilson Air Force Service Requirements Review Boards vet 
requirements through a Requirements Approval Document, an early 
strategy and issue session, and an Acquisition Strategy Panel. 
Likewise, requirements are assessed against commercial capabilities, 
existing contracts and contract vehicles and input from Air Force 
manpower organizations.

    29. Senator Reed. Secretary Wilson, are the Service Requirements 
Review Boards being made part of Air Force budget and programming 
process or are they still focused on near term spending for contract 
services?
    Secretary Wilson Service Requirements Review Boards are not a part 
of the Air Force budget and programming processes. Mission owners 
maintain responsibility to budget and plan for their contracted 
services. The Requirements Approval Document, early strategy and issue 
sessions, and market research are considered when the mission owners 
budget and plan for their contracted services.
                          air force civilians
    30. Senator Reed. Secretary Wilson, explain the role of the Air 
Force civilian workforce to achieving your readiness recovery goals.
    Secretary Wilson The Air Force civilian workforce plays a critical 
role in enabling AF readiness recovery. Our civilians work side-by side 
with our military to support and train the force and ensure readiness 
of Air Force systems. For the air mission, our civilians boost training 
pipeline capacity to develop and train the force, expand pilot and 
maintenance training as instructors, and maintain and repair aircraft. 
In operational units, they are part of the workforce that generate 
aircraft sorties to train our pilots. Air Force Civilians play this 
same role across the range of operations to include Space, Cyber and 
Intelligence. Our civilian force is also the predominant force 
supporting our Airmen and families at home and abroad, from child care 
to lodging and various Morale, Welfare and Recreation (MWR) programs.

    31. Senator Reed. Secretary Wilson, is there a link between years 
of directed reductions to the Air Force's civilian workforce and the 
current state of readiness in the Air Force?
    Secretary Wilson Yes. Prior year civilian reductions and 
sequestration hiring controls created significant shortfalls in 
critical occupations required to accomplish the Air Force mission 
(e.g., cyber, depot maintenance, childcare providers). With the dynamic 
environment and changing requirements at the installation level, 
technical skills and expertise are in high demand. Direct Hiring 
Authorities under National Defense Authorization Acts of 2016, 2017 and 
2018 have assisted our ability to directly hire qualified candidates to 
meet mission needs. We are making maximum use of these authorities.

    32. Senator Reed. Secretary Wilson, what challenges will reductions 
to its civilian workforce create in efforts to generate readiness for 
the Air Force?
    Secretary Wilson The Air Force civilian workforce is vital to the 
readiness of the Air Force. When we don't require a military 
authorization, the civilian force provides a cost effective solution 
for our work force. As the Air Force seeks to improve and sustain 
mission readiness, it must have the right mix of military and civilian 
resources to accomplish the mission. Arbitrary civilian reductions 
without readiness assessments can result in skills gaps in the force, 
to include mission critical areas such as maintenance, Cyber, air 
operations, and support functions, as well as readiness impacts when 
uniformed Airmen don't have the support they need.

    33. Senator Reed. Secretary Wilson, would the capability and 
lethality of the Air Force be improved if you were able to grow your 
civilian workforce?
    Secretary Wilson The Air Force five year plan includes an increase 
of $1 billion for civilian personnel. While we do not manage end 
strength for civilians in the same way that we manage the military, 
this increase will result in approximately 700 additional Air Force 
civilians.

    34. Senator Reed. Secretary Wilson, Do you have military members 
performing jobs that are more appropriately and affordably able to be 
done by civilians?
    Secretary Wilson The sizing of the military presence is determined 
by wartime and overseas requirements. We are assessing this requirement 
in light of the new National Defense and Military Strategy. That review 
will be complete this fall with a full report due to Congress in March 
2019.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                         security force helmets
    35. Senator Shaheen. Secretary Wilson, since 2009 the U.S. Air 
Force Security Forces (SF) has been upgrading their equipment and 
training to combat adversaries and protect the force. This effort has 
been done in a piecemeal format and the various equipment items do not 
integrate well with each other. In the past, we have seen several 
individual units purchase ballistic plate carriers with no soft armor 
backers, helmets of various types, helmet suspension systems, Night 
Vision Goggles front mounts and rails. By using this approach, the SF 
career field struggles with reliable standardized equipment that could 
potentially severely hurt or kill an SF member. To date, the Air Force 
Security Forces Center (AFSFC) has yet to make a decision on a high cut 
helmet for the SF career field. There has not been a Broad Area 
Announcement (BAA), Request for Information (RFI), Industry Day or 
contracting vehicle identified for the procurement of high cut helmets, 
but the AFSFC is currently in the process of fielding their new 
communication headsets that are required to be attached to the helmet 
for use. Additionally, units like the 820th Combat Operations Squadron 
(COS), AFGSC Tactical Response Forces and Phoenix Raven Teams are 
forced to procure their own high cut helmets to support their missions 
and there is no standardization across the career field, thus 
potentially wasting taxpayer money. Given the confusion among industry 
on this topic, can you please provide an overview of the SF plan for 
procurement regarding head protections systems?
    Secretary Wilson The Air Force Installation and Mission Support 
Center (IMSC) established centralized acquisition processes to address 
the provisioning of the high cut helmet for the SF career field. 
Subsequent to a complete assessment of all available options, IMSC 
determined that rapid fielding using the Defense Logistics Agency (DLA) 
or Government Services Administration (GSA) was the best practice to 
obtain the required helmets and ensure a systemic solution for 
integrating vital communication headsets and to provide the optimum 
protection and operational capability for the warfighter.
    Following market research and wear testing, IMSC pursued the high 
cut helmets through a GSA Blanket Purchase Agreement for Government 
Off-The Shelf /Commercial Off-The Shelf processes. The outcome of the 
market research and wear tests resulted in the Item Manager approving 
the Team Wendy high cut helmet. The Air Force Security Forces Center is 
developing a prioritized fielding strategy and replacement plan based 
upon a data call being conducted with Security Forces Squadrons to 
assess operational needs. The data call will be completed by the end of 
June 2018 with a follow-on resourcing prioritization strategy.
           clean up efforts at pease air national guard base
    36. Senator Shaheen. Secretary Wilson, I understand that in August 
2017 the Air Force agreed to pay the city of Portsmouth (New Hampshire) 
$1.3 million to continue ongoing clean-up efforts at Pease Air National 
Guard Base. Would you please provide an update regarding these efforts?
    Secretary Wilson The Air Force Base Realignment and Closure program 
is providing the funding to the City of Portsmouth. The Air Force 
entered into an Environmental Services Cooperative Agreement (ESCA) for 
$1.3 million with the City of Portsmouth in 2017 to fund design of an 
upgraded treatment facility to remove PFOS/PFOA from drinking water to 
the Pease Tradeport. The design is now 60 percent complete and the City 
expects to complete the design in the next two months. The Air Force 
will negotiate a new ESCA with the City before the end of fiscal year 
2018 to fund construction of the upgraded drinking water plant.
                        combat rescue helicopter
    37. Senator Shaheen. Secretary Wilson and General Goldfein, I led a 
bipartisan letter to both of you in October expressing concern about 
any change in the current acquisition plan, as had been rumored. 
Secretary Wilson, you responded in December that the program is on 
track and confirmed the program of record remains 112 aircraft. Does 
the Air Force's commitment to the full build plan remain ironclad?
    Secretary Wilson and General Goldfein. Yes, the Air Force remains 
committed to buying the Combat Rescue Helicopter program of record of 
112 aircraft.

    38. Senator Shaheen. Secretary Wilson and General Goldfein, 
numerous force structure studies have shown the need for between 141 
and 171 aircraft to meet rescue requirement demands. Is the Air Force 
considering the possibility of expanding the number of CRH aircraft?
    Secretary Wilson and General Goldfein. Currently the Air Force plan 
is to procure 112 Combat Rescue Helicopters. The 112 program of record 
balances risk of world-wide capacity needs from the combatant 
commanders with full life cycle cost of the Combat Rescue Helicopter 
Program.
                                c-130hs
    39. Senator Shaheen. Secretary Wilson and General Goldfein, 
according to the Air Force's Budget Request for fiscal year 2019, the 
Primary Aircraft Authorization (PAA)--the number of aircraft authorized 
to a unit for its operational mission--across the entire C-130H fleet 
will be reduced by ten aircraft. There are 13 C-130H units across the 
Air National Guard, including the 103d Airlift Wing stationed in 
Connecticut. Since 2001, over 1,700 Connecticut Air National Guard 
personnel of the 103d Airlift Wing have deployed in support of global 
operations. Given the continuous high operational tempo of our Air 
National Guard C-130H units like the 103d, I am concerned that a 
reduction in Primary Aircraft Authorization (PAA) could impact C-130H 
squadron readiness to meet both federal and state mission requirements. 
Can you discuss the Air Force's intention to reduce the PAA of Air 
National Guard C-130H units? Has the Air Force identified which Air 
National Guard units will see a reduction of C-130Hs on their flight 
line?
    Secretary Wilson and General Goldfein. The fiscal year 2019 
President's Budget (PB) takes a necessary step to better position the 
Total Force to balance the demands of the steady-state depot 
maintenance schedule and modernization initiatives that are crucial to 
long-term fleet viability. Currently, the Air Force has 11 percent of 
the fleet in Depot with just 4 percent of the inventory in Backup 
Aircraft Inventory (BAI). Existing programmed modifications to the C-
130 fleet are projected to increase depot levels to approximately 18 
percent for the next 5 years. The Primary Aircraft Authorization (PAA) 
to BAI shift the Air Force programmed in the fiscal year 2019 
President's Budget establishes the BAI at 11.3 percent to more closely 
account for the forecasted depot levels. Additionally, the rebalance of 
PAA to BAI more accurately reflects the status and availability of the 
fleet to the warfighter and will not reduce the Air Force C-130 Total 
Aircraft Inventory (TAI).
    Specifically, the PB transitions 16 (3 C-130J and 13 C-130H) ANG 
combat-delivery C-130 units from 8 PAA to 7 PAA, 6 Active Component 
units from 14 to 13 PAA and 2 Air Force Reserve units from 8 to 7 PAA, 
and 1 unit from 10 to 9 PAA.
    This programmatic action does not reduce the number of aircraft on 
any Total Force flight line. If inventories at individual units are 
adjusted in the future, it would be for reasons other than the PAA to 
BAI conversion. Additionally, the Air National Guard and Air Force 
Reserves retained all of their manpower, effectively increasing crew 
ratios, which should improve their readiness metrics.
                     next generation ejection seat
    40. Senator Shaheen. Secretary Wilson and General Goldfein, the Air 
Force has established a funded program of record with the Next 
Generation Ejection Seat (NGES) to improve the level of safety 
protection for aircrew flying with the remaining Advanced Concept 
Ejection Seat (ACES) II on legacy aircraft; however, it is rumored that 
the program's schedule has been pushed to the right and delayed until 
2021. Considering the risk to our aircrew, would you agree that it 
would be prudent for the Air Force to accelerate NGES and prioritize 
the upgrade to ejection seats to reduce the risk, or prevent fatalities 
resulting from high-speed ejections with helmet mounted devices?
    Secretary Wilson and General Goldfein. The Air Force plans to move 
forward with the Next Generation Ejection Seat efforts and as such have 
allocated funding to start the Research, Development, Test and 
Evaluation activities in fiscal year 2021 as reflected in the Fiscal 
Year 2019 President's Budget submission. At this time there is no plan 
to accelerate the program. We continue to balance funding challenges 
with the acceptable level of risk while minimizing safety concerns for 
our aircrews.
                               __________
              Questions Submitted by Senator Mazie Hirono
                   readiness: adversary air training
    41. Senator Hirono. General Goldfein, this March, I visited the 
Hawaii Air National Guard at Joint Base Pearl Harbor Hickam (JBPHH), 
where I revisited a readiness challenge that I have been working on 
with Air Force leadership including General Robinson and General 
O'Shaughnessy for a few years. The challenge involves adversary air 
capability. In Hawaii, the Guard unit is forced to go F-22 against F-22 
in many cases. Unlike other bases, JBPHH F-22 Raptors do not have a 
locally based aggressor squadron to carry out this adversary air 
requirement.
    You mentioned during the hearing that this was a home station issue 
and Hawaii based F-22 crews receive training when they are away from 
JBPHH and during flight simulator training at their home station. Given 
that we'd like to also have them trained for readiness with live 
exercises when they are home, in addition to the commercial solutions 
you mentioned, can the Air Force consider having additional fighter 
units either designated aggressor units or regular flying units spend 
more time at JBPHH to provide training for the home unit as well as 
units visiting on TDY?
    General Goldfein. The Air National Guard (ANG), Pacific Air Forces, 
and Air Combat Command are pursuing contracted adversary air (ADAIR) to 
train Hawaii-based F-22 crews. The Environmental Impact Analysis 
Process (EIAP, 32 CFR 989) has been initiated for JBPHH and is expected 
to be completed by February 2019. When a favorable EIAP is completed, 
contracted ADAIR jets and pilots will be permanently stationed in 
Hawaii to allow more realistic training for F-22 crews and to avoid 
having to use limited and expensive F-22 flying hours for red air when 
training Hawaii-based F-22 crews.
    Additionally, the ANG sponsors three Sentry Aloha exercises at 
JBPHH to bring jets and crews from 4th Generation fighters from CONUS-
based units to Hawaii to train with Hawaii-based F-22 crews. These 
exercises provide valuable deployment training to CONUS-based units as 
well as dissimilar aircraft training to F-22 crews. The ANG has 
recently reallocated equipment from the closure of the Total Force 
Training Center at Davis Monthan Air Force Base in Tucson, Arizona to 
JBPHH to reduce the cost of hosting Sentry Aloha, making it a more cost 
effective option for exercises and increasing the value of the exercise 
by including more units and securing airlift for units to travel with 
less equipment because it is now permanently assigned to the 154th 
Wing. Sentry Aloha focuses on air-to-air fighter training and 
integrates a wide range of military capabilities into the scenarios and 
realistic training.

    42. Senator Hirono. General Goldfein, will you commit to working 
with me to ensure that the 199th Fighter Squadron at JBPHH is provided 
the level of training required to ensure readiness levels are 
maintained in the unit without sacrificing airframe hours on the F-22's 
by serving in adversary roles?
    General Goldfein. Yes, we will continue to work with you as we 
explore options for adversary air training at Joint Base Pearl Harbor-
Hickam.
                   sexual harassment in the military
    43. Senator Hirono. Secretary Wilson and General Goldfein, the 
Sexual Assault Prevention and Response Office (SAPRO) report released 
in February covering 2016-2017 determined that the Air Force Academy's 
Sexual Assault Prevention and Response (SAPR) program mismanagement put 
it out of compliance with Department and Air Force victim assistance 
and advocacy policy--putting the Air Force Academy in partial 
compliance overall. As a member of the Senate Armed Services Committee 
as well as on the Board of Visitors for the Air Force Academy, I want 
to continue to work with you as well as the leadership at the Air Force 
Academy to continue to make progress on this critical issue. Can you 
update me on how the Air Force is doing on the issue of sexual 
harassment, assault, and retaliation at the Academy as well as the Air 
Force as a whole?
    Secretary Wilson and General Goldfein.

    Sexual Assault Prevention & Response (SAPR):
    Since 2015 the Air Force has been implementing a comprehensive 
sexual assault prevention and response strategy that focuses on 
developing and implementing effective sexual assault prevention, 
effectively preventing behaviors that co-occur with sexual assault, and 
ensuring a robust response system. Ongoing monitoring of the strategy 
implementation indicates that the Air Force is making strides in 
creating a climate of dignity and respect and empowering all Airmen to 
prevent and report assault and harassment.
    As a result of the command-directed investigation earlier this 
year, USAFA leadership restructured and added new positions to the 
USAFA SAPR program. With support from the Secretary of the Air Force, 
the Chief of Staff and Air Force Personnel Center (AFPC), USAFA now has 
a robust SAPR office with a new Program Manager, a USAFA Sexual Assault 
Response Coordinator (SARC), three Victim Advocates (VAs), a 10th Air 
Base Wing (ABW) SARC and two Violence Prevention Integrators (VPIs).
    In October 2017, the USAFA Superintendent published a policy 
outlining his views on sexual misconduct and set his expectations of 
treating everyone with dignity and respect. Additionally, since privacy 
was a prominent concern before the current office was staffed, the 
Superintendent wrote and distributed a memo that emphasized all who are 
involved in the SAPR process have an obligations to protect privacy.
    At all times during the investigation, restructuring and hiring 
process, victim care and prevention was and continues to be priority 
number one. It is important to note that the USAFA SAPR office is just 
one part of a multi-pronged approach to prevention and response 
effort--taking care of victims and combating sexual assault. Sexual 
assault prevention and victim/survivor care are too important to have a 
single point of failure. We have a comprehensive safety net of helping 
agencies for victim care that includes medical care, counseling, 
chaplains, peer support, law enforcement and a special victims' 
counsel--an independent legal expert who is with them every step of the 
way, if they choose. Leaders up and down the chain of command emphasize 
prevention through education and a healthy culture and climate.
    Most recently, USAFA hosted a Pathways to Thriving Summit, 9-10 May 
2018. The summit invited sexual assault victims and supporters, 
including current and former cadets and graduates, to discuss current 
issues and potential solutions, and was designed to give survivors a 
voice and open a dialogue on how to improve USAFA. In that same light, 
the Superintendent has offered to meet 1-1 with current sexual assault 
survivors. So far, a few, both men and women, have requested and met 
with the Superintendent.
    Cadets receive two and a half hours of SAPR training yearly. These 
trainings address awareness, response, bystander intervention, and 
their role in preventing sexual violence. They are conducted in a 
variety of ways to include large group presentation, small group 
discussions, subject matter expert guest speaker presentations, 
classroom lessons, and squadron briefings. Additionally, educated peers 
are on-site in the squadron to answer any questions or provide 
resources if needed. Permanent party to include instructors, 
commanders, coaches and staff receive annual training in their roles in 
sexual assault prevention and response.
    Retaliation:
    The issue of addressing retaliation is at the forefront of DOD and 
the service academies prevention strategy. DOD is developing action 
plans in five issue areas, which include standardizing definitions, 
improving data collection/analysis, building strong and supportive 
systems of investigation/ accountability, providing comprehensive 
support to reporters, and creating a culture intolerant of retaliation.
    While there have not been any reports of retaliation made to USAFA 
leadership by cadets this year, we are aware of three cases that were 
reported through the USAFA Inspector General (IG) office and are now 
with the DOD IG for investigation. It is important to note that even if 
behavior does not meet the legal criteria to be considered reprisal, 
ostracism, or maltreatment that does not mean that the behavior cannot 
or will not be addressed in some manner. USAFA leadership has a wide 
range of options including discipline, education, etc., to address 
these behaviors regardless of how they are legally defined.
    The USAFA IG provides training to SAPR personnel and Volunteer VAs 
on retaliation based on procedures for ``Reporting and Tracking Victim 
Retaliation in Sexual Assault Cases''. While the IG covers 
``retaliation'', the training focuses primarily on ``reprisal''. 
Additionally, ``reprisal'' definitions/actions are covered during 
Newcomers, Cadet Squadron Leadership Training, 4-degree (freshman) 
Helping Agency Briefings, New commanders briefings, and semi-annual 
commanders' briefs.
    When a victim meets with a VA or Special Victims' Counsel (SVC) to 
make a report of sexual assault, the VA and SVC are required to discuss 
retaliation/ostracism/reprisal with the victim, to include the 
definitions. If the victim experiences any of those, they are 
encouraged to share the information with their VA/SVC. If the victim 
wishes to file a formal report to the appropriate agency, the VA/SVC 
will assist them. In addition, during the Case Management Group (CMG--a 
monthly meeting chaired by the Superintendent or Vice Superintendent 
which discusses the well-being of unrestricted victims of sexual 
assault) the SVC or VA is asked whether there have been any incidents 
of reprisal, ostracism, or retaliation. If a report of any of those is 
made, the case will remain open at the CMG until the allegation is 
resolved. Also, all reports of reprisal for sexual assault are 
investigated by DOD IG.

    Sexual Harassment:
    The Air Force goal is to continue to educate members on sexual 
harassment and encourage commanders to promote and maintain a healthy 
human relations climate, as well as foster teamwork and support in the 
workplace. Sexual harassment policies and procedures set forth in Air 
Force Instruction AFI 36-2706, Equal Opportunity Program, Military and 
Civilian; address mechanisms for reporting, responding to, and 
resolving incidents of sexual harassment, including procedures for 
reporting anonymously. The Air Force will continue to reinforce this 
guidance to ensure commanders and equal opportunity professionals are 
aware of their responsibilities when addressing sexual harassment 
concerns or allegations.
    Specifically for cadets at the U.S. Air Force Academy (USAFA), 
equal opportunity program training starts the first week of basic cadet 
training when the basic cadets receive 1.5 hours of instruction on 
sexual harassment policies. This training continues throughout the 4-
year cadet career. Permanent party members receive training upon 
assignment to the installation and then annually.

    Formal Sexual Harassment Complaints Across the Air Force:
    The number of substantiated formal complaints have slightly 
decreased since the fiscal year 2016 reporting period. In comparison, 
there were a total of 15 formal sexual harassment complaints lodged in 
fiscal year 2017; 18 in fiscal year 2016; 43 in fiscal year 2015 and 29 
in fiscal year 2014. Females in the grades of E1-E4 continue to account 
for the majority of formal substantiated complaints which is consistent 
with previous years. Out of the 15 formal complaints filed in fiscal 
year 2017, 11 were substantiated and 4 were unsubstantiated. All formal 
complaints in fiscal year 2017 were reported to the General Courts 
Martial Convening Authority (GCMCA) within 72 hours of the commander 
receiving the complaint. Alleged offender demographics for fiscal year 
2017 were consistent with previous years; the majority of first time 
offenders were identified as white, males in the graded of E-5 - E-6. 
The majority of final dispositions for substantiated formal complaints 
fell under the Administrative, Adverse or Administrative (not NJP) 
actions category, which was fairly consistent with final dispositions 
for fiscal year 2013--fiscal year 2016.

    Informal Sexual Harassment Complaints Across the Air Force:
    The Air Force equal opportunity informal complaint process allows 
members to address their sexual harassment concerns with their 
commander or local Equal Opportunity (EO) Office. There were a total of 
145 informal sexual harassment complaints processed in fiscal year 
2017, as compared to 123 in fiscal year 2016 and 237 in fiscal year 
2015. Out of 145 informal complaints, 102 were substantiated, 36 were 
unsubstantiated and 2 were still pending resolution at the time this 
report was completed. Five cases were dismissed.
    Of the 145 informal complaints, commanders resolved 120 at their 
level. The complainant's gender demographics in substantiated informal 
complaints consisted of 19 males and 83 females, with the majority of 
complainants in the grades of E-1 thru E-4. The alleged offender's 
gender demographics consisted of 87 males and 7 females with the 
majority 29 in the grades of E-5 thru E-6. As compared to fiscal year 
2016, gender and rank demographics were similar. The majority of final 
dispositions for substantiated informal complaints in fiscal year 2017 
fell into the Administrative, Adverse or Administrative (not NJP) 
category, which was consistent with fiscal year 2016 and fiscal year 
2015 dispositions.
       uniform code of military justice/domestic violence charge
    44. Senator Hirono. Secretary Wilson and General Goldfein, in 
November 2017, I introduced the Military Domestic Violence Reporting 
Enhancement Act (S.2129), legislation to close a potential loophole in 
the processing of outcomes from a military court action related to the 
Uniform Code of Military Justice (UCMJ) that can allow convicted 
abusers to purchase firearms unabated when they should actually be 
placed in national databases to prevent such actions. The bill would 
close this dangerous loophole by creating a charge for domestic 
violence under the UCMJ, and could help prevent mass shootings such as 
the church shooting in Sutherland Springs, Texas in November 2017. Do 
you support legislation to help close loopholes and reduce the 
opportunities for individuals convicted of domestic violence to 
purchase firearms? Do you support this bill? If passed, will you make 
the administration of this legislation a priority?
    Secretary Wilson and General Goldfein. We share your concern of 
ensuring instances of domestic violence are appropriately handled and 
charged within the military justice system. We also stand committed to 
ensuring that those prohibited from possessing firearms under federal 
law are properly entered in appropriate federal databases. As such, we 
have supported legislation that strengthens the uniform application of 
reporting requirements under federal law, such as the recent Fix NICS 
Act (S. 2135).
    While your proposed legislation will create a new punitive article 
specifically addressing domestic violence, such behavior has already 
been addressed by enhanced punishments for acts of domestic violence 
charged under the UCMJ committed against a spouse or intimate partner.
    The Uniform Code of Military Justice already addresses the full 
spectrum of misconduct that falls under the broad topic of domestic 
violence and provides the authority to prosecute such cases through a 
number of offenses (for example, stalking, sexual assault, destruction 
of property, communicating threats, etc.). Domestic assault is 
encompassed under Article 128, Uniform Code of Military Justice, 
Assault. Adding a separate offense for domestic violence neither 
enhances the prosecution of these offenses nor better protects the 
victims. Currently, there is a well-defined body of case law regarding 
Article 128. A new offense would drive a requirement for clarification 
and interpretation through the appellate process, as the new offense 
develops its own case history. In addition, it potentially complicates 
an offense that historically enjoys a high conviction rate. By way of 
example, over the past two years the Air Force conviction rate in 
courts-martial with specifications of assault involving domestic 
violence charged under Article 128 is 82 percent.
    It is important to note that even if a separate domestic assault 
charge, such as the one you are proposing, is created in the UCMJ, such 
an offense would not have prevented the failure in reporting the 
conviction of Devin Kelley in the FBI's National Crime Information 
Center (NCIC) database. The Air Force already annotates qualifying 
convictions for crimes of domestic violence on the Result of Report of 
Trial at time of conviction, independent of the offense charged. In the 
Kelley case, the Report of Result of Trial was properly annotated to 
indicate that the court-martial conviction was for a crime of domestic 
violence. This bill would not close a loophole. Even had Devin Kelley 
been convicted of a new separate domestic assault offense as proposed, 
this would not have changed the reporting requirements; requirements 
that, if followed, would have resulted in Devin Kelley's conviction 
being reported in NCIC.
    In the end, the current UCMJ provisions, and their implementation 
by the Manual for Courts Martial give military justice practitioners 
the necessary tools to ensure crimes of domestic violence are 
effectively prosecuted and offenders are appropriately held accountable 
within the military justice system.
                   six decades of acquisition reform
    45. Senator Hirono. Secretary Wilson, since the establishment of 
the Department of Defense in 1947, the procurement process has been 
studied, enhanced, and improved over many decades with many 
commissions, blue-ribbon panels, think-tanks, and congresses looking at 
the issues. However, both Department officials and industry continue to 
mention the slow procurement processes that hinder acquisition and we 
continue to have significant cost overruns which impact public 
confidence in our use of tax-payer resources. In your testimony, you 
discuss that based on the fiscal year 2016 and fiscal year 2017 
National Defense Authorization Acts, the Air Force is streamlining and 
improving its acquisition processes. Now with Dr. Roper being hired to 
the Assistant Secretary of the Air Force for Acquisition, Technology 
and Logistics, there is an opportunity to put ideas into action to 
recognize improvements and savings.
    Secretary Wilson, can you provide a status on what you are doing to 
streamline your acquisition process? What timelines have you set for 
these actions?
    Secretary Wilson. We are aggressively using the authorities for 
rapid prototyping and rapid fielding provided in section 804 from the 
fiscal year 2016 National Defense Authorization Act. Since the end of 
February, eight large activities--ranging from Next Generation OPIR to 
the B-52 re-engineering to hypersonics--are being accelerated. If 
properly resourced, over 25 years of total program acceleration could 
be achieved. We are presently working reprogramming to determine how 
much of this acceleration can be realized.

    46. Senator Hirono. Secretary Wilson, the Department reported that 
in fiscal year 2016 total operational energy demand for fuels was 85.7 
million barrels. Air Force demand was 49.6 million barrels in fiscal 
year 2016 and over time has consistently been over 50 percent of the 
Department's total demand--primarily tied to Air Force aviation fuels. 
The Department and Air Force have issued a number of policies and 
procedures to ensure that the life-cycle costs of these fuel demands 
are incorporated in its acquisition processes, also referred to as the 
fully burdened cost of energy. What actions over the last year has the 
Air Force taken to ensure the fully burdened cost of energy has been 
integrated into your acquisition process? What are the next steps for 
the Air Force to ensure energy priorities are incorporated in 
acquisition processes?
    Secretary Wilson. In the past year, the Air Force has updated our 
key acquisition guidance, Integrated Life Cycle Management, Air Force 
Instruction 63-101/20-101, to include the cost of energy and fully 
burdened cost of fuel into the Systems Engineering Design 
Considerations section. This has led to the incorporation of energy 
demand in the system trade space along with other performance issues to 
support informed decision-making.
    To ensure energy priorities are incorporated in the acquisition 
process, the Air Force is including operational energy considerations 
before an acquisition program even begins. Energy Key Performance 
Parameters are now mandatory components of requirements documentation.

    47. Senator Hirono. Secretary Wilson, how are you integrating 
recruitment and retention of a skilled acquisition workforce into these 
actions?
    Secretary Wilson. To support operational energy considerations into 
our acquisition processes the Air Force has worked diligently to 
recruit and retain science, technology, engineering and mathematics 
talent at our laboratories and in our systems engineering shops. We are 
appreciative of the Congressional adds for alternative energy research 
and the Operational Energy Capability Improvement Fund that enable our 
workforce to research and test innovative technologies that will 
improve our operational effectiveness.

    48. Senator Hirono. Secretary Wilson, what additional changes would 
you recommend to improve the acquisition process?
    Secretary Wilson. I recommend the following changes to improve the 
acquisition process:
    1.  Delegate cost and fielding target approval to Milestone 
Decision Authority (MDA). Section 807 of the fiscal year 2016 National 
Defense Authorization Act requires program cost and fielding targets be 
approved by the Secretary of Defense/Deputy Secretary of Defense. We 
believe the change to the MDA is aligned and consistent with the push 
of acquisition authorities to the Services.
    2.  Delegate responsibility for conducting independent cost 
estimates down to the same level as the Milestone Decision Authority. 
Currently 10 U.S.C. Sec.  2334, Independent cost estimation and cost 
analysis, requires the Office of Cost Assessment and Program Evaluation 
to conduct or approve independent cost estimates and cost analyses for 
all Major Defense Acquisition Programs no matter who is the Milestone 
Decision Authority.
         north korea--air force nuclear deterrence capabilities
    49. Senator Hirono. Secretary Wilson and General Goldfein, I take 
the threat of North Korea launching a ballistic missile toward the 
United States and the state of Hawaii very seriously. And, the false 
alarm alert of an incoming ballistic missile in Hawaii forced us to 
learn a hard lesson on this matter. In your testimony, you discuss that 
nuclear deterrence underpins national security for the U.S. and our 
allies, and that the Air Force operates 75 percent of the nuclear 
command, control, and communications capabilities. Despite what is 
being reported about North Korea willing to stop its testing of nuclear 
missiles, we must remain vigilant against this threat. We must ensure 
the appropriate measures are taken so that North Korea, as well as 
other adversaries are deterred from using ballistic missiles.
    Secretary Wilson and General Goldfein, is the Air Force's current 
nuclear deterrent capabilities sufficient to deter our adversaries from 
a nuclear attack?
    Secretary Wilson and General Goldfein. As reflected in the 2018 
Nuclear Posture Review (NPR), the U.S. Nuclear Triad of land-, sea-, 
and airborne-based nuclear delivery systems is the most cost-effective 
and strategically sound means of ensuring nuclear deterrence. Although 
the Air Force's current nuclear capabilities contribute to successful 
deterrence of nuclear attack by our adversaries today, to remain 
effective we must recapitalize all of our Cold War legacy nuclear 
forces. The United States has initiated a series of programs to sustain 
and replace existing nuclear capabilities before they reach the end of 
their service lives. These programs, along with modernized dual-capable 
aircraft and associated nuclear command and control, will be critical 
to preserving our ability to continue to deter existential threats to 
the Nation.

    50. Senator Hirono. Secretary Wilson and General Goldfein, what Air 
Force nuclear deterrent capabilities can be strengthened in the future 
to better counter current and future adversary capabilities in this 
domain?
    Secretary Wilson and General Goldfein. As stated in the 2018 
Nuclear Posture Review (NPR), to address the changing threat and 
operating environments, we must modernize all components of the Nuclear 
Triad, including our dual-capable aircraft, and the nuclear command, 
control, and communication (NC3) systems that enable their 
effectiveness. We need replacements for Cold War-era ICBMs and air 
launched cruise missiles, which were last modernized in the 1980s and 
which will not keep pace with these evolving environments. The NPR 
commits to fielding the B-21 while sustaining and modernizing the B-52 
to ensure it remains effective into the future. Our Long Range Stand 
Off missile will replace the air launched cruise missile and ensure the 
bomber force can continue to hold high-value targets at risk in an 
evolving threat environment, to include targets within an anti-access 
environment. The Ground based Strategic Deterrent delivers an 
integrated weapon system to replace ICBM requirements. We are also 
incorporating nuclear capability onto the F-35 to be used as a 
replacement for our current aging dual-capable aircraft. Finally, we 
need to modernize the integrated NC3 systems to ensure secure, 
survivable connectivity with the President and national command 
leadership.
                              eagle vision
    51. Senator Hirono. General Goldfein, Eagle Vision is a deployable 
ground station capable of downlinking commercial, unclassified remote-
sensing satellite imagery and rapidly processing the data into a 
variety of formats. It is a unique capability that provides releasable 
imagery for United States and allies, DHS, FEMA and HADR assistance in 
the U.S. and world-wide in a timely and expedient manner--minutes/hours 
as opposed to days. With the increased level of severe weather 
incidents in the Pacific and elsewhere, our National Defense Strategy 
to improve and increase our relationships with friends and allies, 
Eagle Vision provides a cost-effective capability with a high return on 
investment.
    General Goldfein, will you commit to working with me to do what you 
can to ensure that this valuable capability is kept ready and capable 
to provide support in exercises as well as actual HADR missions?
    General Goldfein. In recent fiscally constrained environments, 
Eagle Vision, like many other Air Force programs, was forced to be 
funded at minimum levels. Now the program will be funded at ready and 
capable levels.
    Over the past two years, Eagle Vision worked Theater Security 
Cooperation initiatives with partners, provided intelligence support, 
worked National Guard State Partnership programs, and was used for 
Combatant Command outreach and support. It also satisfied data requests 
from numerous humanitarian and disaster response requests from in 
garrison. Eagle Vision's great utility for partnership engagement led 
us to ask the Air National Guard to take control of Eagle Vision 
beginning in fiscal year 2019. The Guard are experts in these mission 
areas.
                           space capabilities
    52. Senator Hirono. General Goldfein, in your remarks at the 34th 
Space Symposium this April, you emphasized that each Airman, should 
understand the business of space superiority. And, that we are 
strongest when we fight together with our allies and partners in this 
integrated battlefield. In Hawaii, we also see the value of space 
superiority. Hawaii is the home of the Maui Space Surveillance Site 
(MSSS), which is the only facility of its kind in the world that 
provides state-of-the-art electro-optical capabilities for space 
situational awareness.
    General Goldfein, can you provide an update on the MOU between 
Space Command, NRO and AFMC which I understand is up for renegotiation? 
The MSSS provides a great resource for the signatories.
    General Goldfein. A new Memorandum of Agreement for Maui space 
Surveillance Site is being worked by the Air Force Research Lab. There 
will be two bilateral Memoranda of Agreement replacing the original 
Memorandum of Understanding. There will be a Memorandum of Agreement 
between Air Force Research Lab and Air Force Space Command, and a 
Memorandum of Agreement between Air Force Research Lab and National 
Reconnaissance Office. The Memorandum of Agreement will capture 
requirements and mission needs for the next five years, to include 
sustainment of infrastructure, operations and research. I do not expect 
any major shifts or impacts to operations, research or mission as a 
result of these new Memoranda.

    53. Senator Hirono. General Goldfein, what are some areas that you 
believe we could make greater investments in the space domain? What 
types of integrated cyber defensive and offensive capabilities are 
incorporated into your thinking?
    General Goldfein. The Air Force is the best in the world at space, 
and our adversaries know it. Since the 1950s, we have been the leader 
in National Security Space. Until recently, space was a benign 
frontier. Space doesn't just affect the military, most Americans use 
space every day. America's military space assets are integrated into 
100 percent of operations.
    The stakes are high and America's leadership is aligned in 
recognizing space as a warfighting domain. In an era of great power 
competition, Russia and China continue to develop anti-satellite 
capabilities that could become operational in the next few years. We 
will continue to make bold moves to accelerate defendable space and 
protect the interests of America and our allies.
    The fiscal year 2019 space budget allows us to posture ourselves to 
meet the challenges of tomorrow. In the coming years, our military will 
undertake steps to ensure we build a more lethal, resilient and agile 
force. The Air Force will invest in expansive architecture to ensure 
multi-domain operations. Acquisition processes will be standardized. We 
will continue to work with our allies and industry partners to develop 
an Air Force prepared to deter, defend and prevail in space.
    Currently, the USAF has four main Defensive Cyber Operations 
initiatives related to the space domain. These four initiatives 
include:
    1.  Implementing the Cyber Squadron-Initiative to provide 
persistent active cyber defense for weapons system that will be 
building out by one wing per year;
    2.  Establishing a Cyber Defense Correlation Center for Space that 
will report to the 24th AF Cyber Defense Operations Center;
    3.  Completing the ongoing AF Materiel Command led weapons systems 
cyber evaluations of space systems using the insights to improve 
cybersecurity throughout the acquisition process system lifecycle for 
space systems; and
    4.  The Air Force is expanding the Cybersecurity Service Provider 
role from administrative systems to include space mission systems. This 
will initially provide limited passive cybersecurity to AF weapons 
systems enhancing our situational awareness. In fiscal year 2018, 
Cybersecurity Service Providers are being established initially in the 
missile warning and protected communication mission areas with 
additional space mission areas to follow in subsequent fiscal years.

    54. Senator Hirono. General Goldfein, can you discuss the 
importance in using a whole-of-government approach to work with our 
allies and partners in this integrated and interdependent battlefield?
    General Goldfein. The Air Force and DOD routinely collaborate with 
Interagency partners and directly support the National Security Council 
and National Space Council to develop and implement national space 
policies and strategies. And as commercial space capabilities continue 
to expand, the Air Force and DOD will continue to work closely with 
commercial partners to augment our capabilities and more quickly 
develop more capable and resilient space systems.
               cyber security: national strategy and plan
    55. Senator Hirono. Secretary Wilson and General Goldfein, 
committee witnesses have expressed significant concern related to the 
number of illicit cyber actors worldwide. For example, Russia and China 
have incorporated cyber into their joint warfighting doctrine and 
routinely exercise these capabilities. We have also seen the lengths 
Russia has gone to disrupt our democracy in United States elections. 
China values cyber so highly it has created its Strategic Support Force 
to consolidate, integrate, and synchronize cyber operations.
    Secretary Wilson and General Goldfein, as our adversaries, such as 
China and Russia, continue to consolidate and integrate their cyber 
operations, are we losing a competitive advantage by not doing so as 
well?
    Secretary Wilson and General Goldfein. Gaining and maintaining an 
information advantage is critical to all aspects of warfighting and 
warrants necessary near- and long-term investment. Each service needs 
to operate and fight uniformly in the joint environment and 
simultaneously bring our own complementary, service-unique cyber 
operations capabilities to bear.
    The Air Force is balancing cyber operations requirements of our 
joint combatant command partners, as well as our institutional 
requirements. Air Force cyber warriors are operating globally as a 
maneuver and effects force in this contested domain, delivering cyber 
superiority for our Service and joint partners. Cyber operations 
personnel exist to preserve our freedom of maneuver in, through and 
from air, space and cyberspace while denying our adversaries the same.

    56. Senator Hirono. Secretary Wilson and General Goldfein, do you 
believe the U.S. should develop a national strategy to consolidate and 
integrate our cyber operations? What is the greatest concern to you by 
a lack of national cyber strategy?
    Secretary Wilson and General Goldfein. The fiscal year 2018 NDAA 
directed the President to deliver to the appropriate congressional 
committees a report on his policies relating to cyberspace, 
cybersecurity, and cyber warfare. As one of the Armed Services, our 
role is to train, organize, and equip the Air Force. The Air Force 
remains committed to nesting and aligning our Service's cyberspace 
efforts outlined in the DOD Cyber Strategy as well as to applicable 
national policies and/or strategies.
                    energy resilience and assurance
    57. Senator Hirono. Secretary Wilson and General Goldfein, the need 
to reduce energy consumption, use alternative energy sources, and 
increase energy resilience and assurance is closely tied to our 
national security. I am concerned of threats in the Pacific region that 
could disrupt fuel delivery or electricity supplies. In the region, DOD 
relies on vulnerable fuel and electric supplies to conduct its military 
operations, where electric power outages on military bases or fuel 
supply disruptions could disrupt critical military operations. 
Specifically, the Department and the military services have documented, 
for example, that deferred maintenance or the lack of testing 
associated with energy systems and infrastructure on military 
installations can lead to disruptions to critical defense missions.
    Secretary Wilson and General Goldfein. Consistent with the National 
Security Strategy, the Air Force is committed to supporting energy 
initiatives that will attract investments, safeguard the environment, 
and strengthen our energy security. For the Air Force, this means 
prioritizing projects which improve our energy resilience, followed by 
those projects which only result in cost savings or renewable project 
development where the power is going to the electric grid, but made 
available to an installation in time of power disruption, as opposed to 
only serving the installation.

    58. Senator Hirono. Secretary Wilson and General Goldfein, where is 
the Air Force prioritizing its energy needs in this budget request? Can 
you provide a description of these priorities in terms of both 
operational fuel and delivery of electricity to your military 
installations?
    Secretary Wilson and General Goldfein. Air Force missions require 
uninterrupted access to electricity and are currently reliant upon an 
increasingly fragile and outdated U.S. electric grid. The Air Force, 
through a combination of 3rd-party and direct funding, is funding 
initiatives to identify and implement comprehensive approaches to 
energy challenges, and ensure access to resilient, cleaner, cost-
competitive power. $20 million of the Air Force's Operations & 
Maintenance funding from the Facility Sustainment, Restoration, and 
Modernization (FSRM) account will go towards stand alone, direct energy 
opportunities. The Air Force also gets indirect energy benefits when it 
sustains or recapitalizes facilities (e.g., replacing a HVAC system 
gives us a more energy efficient and reliable HVAC system); the Air 
Force estimates this cost to be about $156 million.

    59. Senator Hirono. Secretary Wilson and General Goldfein, can you 
commit that that Air Force will prioritize energy resilience and 
assurance at military installations and facilities to ensure you can 
accomplish your core Air Force missions? Specifically, will you 
prioritize installation energy systems and infrastructure, and the 
maintenance and testing of these systems to ensure your mission 
requirements are met?
    Secretary Wilson and General Goldfein. Air Force missions require 
uninterrupted access to electricity and are currently reliant upon 
fragile electric grid. Through a combination of 3rd-party and direct 
funding, the Air Force is funding initiatives to identify and implement 
solutions to energy challenges, and ensure access to resilient power. 
The Air Force is committed to enhancing mission assurance through 
energy assurance by improving its energy resiliency, reducing our 
demand, and assuring our energy supplies.

    60. Senator Hirono. Secretary Wilson and General Goldfein, air and 
space superiority, and intelligence, surveillance, and reconnaissance 
are clearly highlighted as two of the five core Air Force missions and 
priorities in your testimony. Has deferred maintenance or the lack of 
testing on energy systems and infrastructure on military bases caused 
the degradation or failure of these core Air Force missions, which 
enable key areas such as space situational awareness and ballistic 
missile detection and defense?
    Secretary Wilson and General Goldfein. Ready and resilient Air 
Force installations are critical, integral components to support the 
priorities of the Air Force to build a more lethal and ready force. 
However, the Air Force has chosen to accept risk in the infrastructure 
accounts in order to allocate resources to high priority warfighting 
readiness and modernization requirements in an era of limited funding. 
Deferring these investments will likely increase sustainment and 
restoration costs over the long-term. Denial of service due to the loss 
of energy supplies has generated challenges. For example, due to an 
extended loss of commercial power to Incirlik Air Base in 2016, 
facilities were required to run on internal generated power to sustain 
operations and the Air Force flew in supplies, including food, water 
and fuel, in order to sustain missions.
                               __________
              Questions Submitted by Senator Angus S. King
                         f-35 sustainment costs
    61. Senator King. General Goldfein, you've previously acknowledged 
that F-35 operations and sustainment costs are a major concern, and the 
U.S. Government Accountability Office projected in 2017 that total 
sustainment costs over the life of the F-35 program could amount to 
more than $1 trillion during a 60-year life cycle. As the Air Force is 
the largest customer of the F-35, what steps are being taken to reduce 
the operations and sustainment costs to reach the same levels as 
current fourth generation fighters?
    General Goldfein. F-35 sustainment costs are a concern and as the 
program matures, we are focusing efforts on reducing the sustainment 
cost of the F-35. We will continue to work closely with the Joint 
Program Office (JPO) and industry to evaluate and analyze actual data. 
JPO's affordability war room is dedicated to reducing operations and 
sustainment costs. The affordability war room includes participants 
from JPO, Services, Office of Secretary of Defense and industry.
                            pilot shortfalls
    62. Senator King. Secretary Wilson, what is the Air Force doing to 
address its pilot shortage issue?
    Secretary Wilson. To achieve this, the Air Force is focusing on 
three main lines of effort: increased retention of current pilots, 
increased production of new pilots, and optimizing pilot requirements. 
The Air Force has an Aircrew Task Force that is implementing a plan 
with major efforts in each of these areas. The unexplained 
physiological episodes in a small number of aircraft will directly 
affect production, but does not alter the Air Force plan.

    63. Senator King. Secretary Wilson, how are you making long-term 
careers a more attractive option for our most talented pilots?
    Secretary Wilson. The Air Force has already made strides in 
increasing retention though the reduction of individual deployments, 
the introduction of contract administrative support to flying 
squadrons, the improvement of assignment management through IT 
modernization, and the introduction of an expanded pilot bonus. There 
is still more to do. The Air Force is continuing to increase retention 
in two ways. First, we are improving quality of service and work/life 
balance through further reduction of non-flying duties, the right-
sizing of operational tempo in units, incentivizing individual 
deployments, and the exploration of a possible ``fly-only'' track. 
Second, the Air Force is examining compensation reform designed to 
modernize incentives to continue service.
                               __________
             Questions Submitted by Senator Martin Heinrich
    64. Senator Heinrich. Secretary Wilson and General Goldfein, I was 
pleased to see the Air Force include $47.6 million in its budget 
request for procurement of small satellite launch and rideshare 
services. I agree that a responsive and resilient launch architecture 
is important for preserving our dominance in space. Currently, all of 
our launch facilities are on the coastline competing with busy 
commercial air corridors, and they could be targeted in a contested 
environment.
    In recent years, inland Space Ports have been built for commercial 
purposes, but they also have significant military value. Spaceport 
America, for example, partners with White Sands Missile Range. There 
are also several emerging commercial launch providers capable of 
launching from runways at inland spaceports, and I am glad the 
Department is giving them a closer look with the new Small Launch 
Service program.
    Given the nation's increased dependence on satellites, the 
replenishment cycle of current defense satellite constellations, and 
the increasing global threats to U.S. national security assets in 
space, has the Air Force conducted a vulnerability assessment of 
continuing to rely solely on coastal space launch locations?
    Secretary Wilson and General Goldfein. Vulnerability assessments 
are maintained for all installations and the DOD will continue to 
explore use of non-federal launch sites, to include inland spaceports, 
to support National Security Space launches as we contract for launch 
services. There are emerging launch providers that show promise as we 
work to provide resiliency options, particularly for small to medium-
class launches. Some of these providers are exploring use of inland 
spaceports.

    65. Senator Heinrich. Secretary Wilson and General Goldfein, in a 
contested environment, what value could a protected inland space launch 
facility and emerging small launch providers offer to the Department in 
terms of a disaggregated launch?
    Secretary Wilson and General Goldfein. Inland space launch 
facilities could offer options in providing additional secure launch 
facilities, primarily with emerging small launch providers by 
conducting airport style operations using reusable launch vehicles, 
though public safety must be balanced with mission profiles. The Air 
Force, when contracting for launch services, takes all aspects and 
requirements in consideration when awarding a launch contract. The 
advantage of coastal launch facilities is related to range safety in 
the event of launch failure, which happens over water rather than 
inhabited areas. Safety assessments may change over time as reusable 
vehicles and smaller launch systems approach reliability and safety 
confidence levels we have come to expect from aircraft or industrial 
operations.
                   joint directed energy test center
    66. Senator Heinrich. Secretary Wilson, the Air Force proposed a 
``Joint Directed Energy Test Center'' in its Directed Energy Flight 
Plan. I fully support this proposal, which is aimed at providing more 
rapid and cost effective testing and fielding of directed energy weapon 
systems. Doing so could also allow the broad, standardized collection 
and evaluation of data at the High Energy Laser System Test Facility 
(HELSTF) to establish test references and support policy decisions in a 
more reliable fashion. What is the status of the Joint Directed Energy 
Test Center proposal?
    Secretary Wilson. OSD Test Resource Management Center is overseeing 
the Joint Directed Energy Test Center study.

    67. Senator Heinrich. Secretary Wilson, what are the infrastructure 
and personnel needs at HELSTF to accommodate the growth and maturity of 
directed energy weapon systems across the military services?
    Secretary Wilson. It is premature for the Air Force to comment on 
infrastructure and personnel needs prior to the release of the Joint 
Directed Energy Test Center study from the Test Resource Management 
Center.
                         light attack aircraft
    68. Senator Heinrich. Secretary Wilson, I understand that the Air 
Force is planning to spend $2.4 billion over the next five years for 
rapid fielding and procurement of light attack aircraft. Does the Air 
Force intend to field the aircraft concurrently between the Active and 
Reserve components?
    Secretary Wilson. Concept of operations development is currently 
underway as well as the basing strategy and a decision on the component 
mix is expected late this summer or in the fall.

    69. Senator Heinrich. Secretary Wilson, do you think the light 
attack aircraft mission is one that the Air National Guard and Air 
Force Reserve will thrive in while providing maximum lethality in a 
fiscally responsible fashion?
    Secretary Wilson. At this time, a concept of operations is under 
development. The Air Force has not made a basing decision for the light 
attack aircraft mission. We are exploring for a potential acquisition 
effort. If we procure aircraft, we will consider total force basing 
options. The Air Force will consider putting some light attack aircraft 
in the Guard or in Active Associate units. The ability of Guard units 
to develop close partnerships with Allies has been well demonstrated.

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe, 
presiding.
    Committee Members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Graham, Sasse, Scott, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The committee today meets to receive testimony on the 
budget posture of the Department of Defense [DOD] and the 
fiscal year 2019 request and the future years defense program.
    We welcome our witnesses: Secretary of Defense Mattis, 
Under Secretary Norquist, and the Chairman of the Joint Chiefs, 
General Dunford.
    Secretary Mattis, we wish to commend you for your work in 
developing a strategy that correctly prioritizes the current 
threats that we face. Now comes the more difficult task and 
that is implementing the strategy. We agree on the strategy, 
but it has got to be implemented.
    One of Chairman McCain's priorities has been considering if 
the Department is properly structured to take on this huge 
task. And as the committee looks toward the upcoming NDAA 
[National Defense Authorization Act] process, we welcome your 
thoughts about what we can do to help you.
    In the end, we must recognize that even if we get the 
strategy and structure exactly right, you cannot be successful 
if Congress does not deliver the resources needed to implement 
this strategy. We know how damaging that can be and has been, 
as we have time and again failed to do our job by passing 
appropriations bills, instead passing CR [continuing 
resolution] after CR. We welcome your testimony about exactly 
how this would impact it. In fact, that will be one of my first 
questions as to what would happen if we had not done this and 
what will happen if we do not do it again for 2020 and ensuing 
years.
    This is especially important because we are not yet out of 
the woods on sequestration. Although we did come to a budget 
agreement for this year and the next, we still have to go back 
and try to take care of the problems that will be in 2020 and 
ensuing years after that.
    We cannot dig ourselves out of the current readiness crisis 
in just 2 years. It will take much longer to undo the damage 
that has been done in the past 8 years to our military, and the 
lack of any real growth in the future years defense program 
exemplifies this.
    So we look forward to your testimony and thank you for 
being here and for the great job that you continue to do year 
after year.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    And I want to join you in welcoming the Secretary of 
Defense, the Chairman of the Joint Chiefs of Staff, and the 
Comptroller. Thank you, gentlemen for your service to the 
Nation over many, many years--your continued service.
    Today we are considering the fiscal year 2019 budget for 
the Department of Defense, which seeks $617 billion in base 
funding and $69 billion for overseas contingency operations. 
Fortunately, we find ourselves in a moment of budget stability, 
having passed an agreement in February that removed the threat 
of sequestration for fiscal years 2018 and 2019 and added 
funding for both defense and non-defense programs. However, 
additional challenges loom on the horizon, as the caps and 
sequestration will be back in force for fiscal year 2020. As 
the chairman mentioned, we still have to focus on that issue.
    Secretary Mattis, I commend you for the careful and 
thoughtful and hard work that went into the National Defense 
Strategy, or NDS. It accurately recognizes that the central 
challenge facing our Nation is the reemergence of long-term 
strategic competition with Russia and China. I am also pleased 
to see that the President's Budget reflects the beginnings of 
investment in some of the technologies we will need for this 
competition, such as hypersonics and artificial intelligence.
    However, the perennial challenge facing any Secretary of 
Defense is preparing for the future while reacting to the 
present. And unfortunately, there are many urgent situations 
not delineated in the NDS that will require our attention in 
the coming weeks and months.
    At the present time, the White House is attempting to focus 
its efforts on negotiating an agreement to denuclearize North 
Korea. Given where we were a few months ago when the 
administration was threatening limited strikes on North Korea, 
I am relieved to say we have come a long way, but we still have 
a long, hard road ahead.
    We all hope that President Trump's summit with the North 
Korean leader presents us with an opportunity to craft a 
comprehensive negotiated settlement. However, we must recognize 
that if the negotiations fail and if that happens, we could 
find ourselves in a more challenging position than before the 
negotiations with a renewal of dangerous rhetoric about war 
with North Korea, but now more supercharged by those advocating 
for military action, claiming that diplomacy has failed.
    While working through these issues with a depleted 
diplomatic corps, the President must also decide by May 12 
whether to continue to waive nuclear-related sanctions on Iran 
as required by the Joint Comprehensive Plan of Action, or 
JCPOA. I support preserving the JCPOA. The United States and 
the world is safer with it. By all accounts, the JCPOA is 
working as intended, and Iran is verifiably meeting its 
commitments under the deal. If not for this agreement, Iran 
would likely be a nuclear power today, and withdrawing from it 
could accelerate Iran's path to nuclear weapons and make 
America less safe.
    Furthermore, withdrawing from the deal could be a 
devastating blow to our efforts at diplomacy with North Korea 
and, for that matter, any further diplomatic efforts to contain 
aggressive or destabilizing behavior by our adversaries. Why 
would any nation engage with us in serious dialogue to resolve 
differences if they fear we will later withdraw unilaterally 
and without cause? Furthermore, abandoning the JCPOA would 
isolate the United States diplomatically from the international 
community at the very time we need worldwide cooperation to 
address the threat posed by North Korea.
    Additionally, President Trump's mixed messages about our 
military commitment to Syria could accelerate the declared 
intentions of Israel to conduct more sustained attacks against 
Iranian forces and proxies in Syria and Lebanon. The level of 
violence and Iran's reaction are unlikely to be restricted to 
Syria and a confrontation including Iraq, Saudi Arabia, and 
others in the region is a real risk.
    If any of these situations becomes a crisis, it is going to 
take all the attention and resources of the Department of 
Defense. So I am interested in hearing more about how you plan 
to balance the present and the future.
    Turning back to the NDS, when we think about great power 
competition, we tend to think and plan for conventional 
conflict. But I believe we must take into account that much of 
the threat already posed by China and Russia is asymmetric.
    The growing Russian asymmetric threat below the level of 
military conflict continues to target the United States, our 
allies, and partners. Russia attacked the heart of our 
democracy in the 2016 presidential election through a Kremlin-
directed hybrid warfare campaign using all tools of national 
power. Because we have failed to impose sufficient costs for 
this assault, not only has Russia not been deterred, it has 
been emboldened and we are already seeing Russian attempts to 
interfere with the 2018 midterm elections. I am interested in 
hearing what is being done to harden our defenses and develop a 
whole-of-government approach that utilizes both the military 
and non-military tools in our arsenal to counter this Russian 
aggression.
    We should also keep in mind that by next spring, the 
Congress will be debating whether to raise sequestration caps 
once again, as the chairman mentioned. I have learned from my 
time in Congress that if you show me your budget, I will tell 
you your strategy. But what will happen to the NDS if we return 
to the Budget Control Act [BCA] caps? This debate will be 
colored by concern about the debt, which was made worse by the 
$1.5 trillion deficit-financed tax cuts passed last year. In 
CBO's [Congressional Budget Office] recent projection, debt 
held by the public rises from 78 percent of GDP [gross domestic 
product], or $16 trillion, at the end of 2018 to 96 percent of 
GDP, or $29 trillion, by 2028. That percentage would be the 
largest since 1946 and well more than twice the average over 
the past 5 decades.
    The growing deficit and impending sequestration will have 
severe consequences. They will constitute a major distraction 
from thoughtful debate and responsible action on the issues of 
national security. They will likely lead to stopgap measures 
like recurring continuing resolutions that disrupt planning at 
DOD and every other federal agency and, ironically, add cost 
and inhibit readiness and modernization. If our Nation's fiscal 
strategy does not take into consideration the need for revenue, 
deficit-driven measures like these will likely make it 
exceedingly difficult to follow through with a long-term 
strategy with regard to any serious challenge facing us from 
the international arena.
    Secretary Mattis and General Dunford, you have been 
consummate professionals. You have served in tumultuous times. 
We face many difficult decisions ahead. We are all gratified 
and, indeed, grateful that you are where you are.
    I look forward to working with you and all of my colleagues 
in a bipartisan fashion to help you and help us all resolve 
these issues.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    For our panel, all of your statements will be a part of the 
record, but you are recognized for your opening statement, 
General Dunford. Let us start with Secretary Mattis.

   STATEMENT OF THE HONORABLE JAMES N. MATTIS, SECRETARY OF 
DEFENSE; ACCOMPANIED BY THE HONORABLE DAVID L. NORQUIST, UNDER 
               SECRETARY OF DEFENSE, COMPTROLLER

    Secretary Mattis. Senator Inhofe, Ranking Member Reed, and 
distinguished members of the committee, I appreciate this 
opportunity to testify in support of the President's Budget 
Request for fiscal year 2019.
    And General Dunford and I are joined by Mr. David Norquist, 
the Department's Comptroller and Chief Financial Officer.
    Thank you for accepting my written statement for the 
record, Chairman.
    I am now in my second year as Secretary of Defense. And 
with your help, we have made steady progress during the past 14 
months. I must note today's absence of Chairman McCain, a 
longstanding, respected, even revered member of this committee 
and one whose influence is deeply felt and echoed in our 
National Defense Strategy.
    In January, the Department published that strategy, the 
first in a decade. Framed within President Trump's National 
Security Strategy, the 2018 National Defense Strategy provides 
clear direction for America's military to restore its 
competitive edge in an era of reemerging long-term great power 
competition.
    The Department next released the 2018 Nuclear Posture 
Review, which calls for America's military to provide a safe, 
secure, and effective nuclear deterrent that is modern, robust, 
flexible, resilient, ready, and appropriately tailored to deter 
21st Century threats and reassure our allies.
    In South Asia and Afghanistan, uncertainty in the region 
has been replaced by the certainty of the administrations? 
South Asia Strategy. Concurrently in the Middle East, we have 
dramatically reduced ISIS' [Islamic State of Iraq and Syria] 
physical caliphate using a coordinated, whole-of-government 
approach that works by, with, and through our allies and 
partners to crush ISIS' claim of invincibility and to deny them 
a geographic haven from which to plot murder.
    Last month, thanks to the bipartisan support and political 
courage of Congress and the dedication of this committee, 
President Trump signed the omnibus spending bill that funds the 
government for the remainder of this fiscal year. This law, 
along with the 2-year budget agreement passed as part of 
February's Bipartisan Budget Act, finally freed us from the 
inefficient and damaging continuing resolution funding process, 
now providing the predictable and sufficient funding needed to 
continue implementing the 2018 National Defense Strategy.
    Our fiscal year 2019 budget requests the resources 
necessary to fulfill the Department's enduring mission, to 
provide the combat-credible military forces needed to deter war 
and, if deterrence fails, to win in any conflict. These forces 
reinforce America's traditional tools of diplomacy, ensuring 
that the President and our diplomats negotiate from a position 
of strength.
    To restore our Nation's competitive military edge, the 
fiscal year 2018 budget funds our National Defense Strategy's 
three overarching lines of effort: first, to build a more 
lethal force; second, to strengthen our traditional alliances 
while building new partnerships; and third, reform the 
Department's business practices for performance and 
affordability.
    Our first line of effort is to build a more lethal force. 
All our Department's policies, expenditures, and training must 
contribute to the lethality of our military. We cannot expect 
success fighting tomorrow's conflicts with yesterday's 
thinking, yesterday's weapons, or yesterday's equipment. As 
President Washington said during his first State of the Union 
address, ``to be prepared for war is one of the most effectual 
means of preserving peace,'' and today our lethal military arm 
will enhance our diplomats' persuasiveness.
    The paradox of war is that an adversary will move against 
any perceived weakness. So we cannot adopt a single preclusive 
form of warfare. We must be able to fight across the entire 
spectrum of combat. The Nation must field sufficient capable 
forces to deter conflict, and if deterrence fails, we must win. 
Following this logic, we must maintain a credible nuclear 
deterrent so these weapons are never used and a decisive 
conventional force that includes irregular warfare capability.
    Preserving the full range of our Nation's deterrent options 
requires the recapitalization of our Cold War legacy nuclear 
deterrent forces, as initiated during the previous 
administration. Modernizing the Nation's nuclear deterrent 
delivery systems and our nuclear command and control is the 
Department's top priority, and these programs are fully funded 
in the fiscal year 2019 budget.
    The 2019 budget further funds enhancements to the U.S. 
missile defense capabilities to defend the Homeland, our 
deployed forces, allies, and partners against an increasingly 
complex missile threat. In accordance with the soon to be 
released 2018 Missile Defense Review, this budget requests 
continued robust support for missile defense capacity and 
capability to keep pace with advancing threats.
    The proposed budget will modestly increase the end strength 
for the Army, Navy, Air Force, and Marine Corps to restore 
readiness, adding 25,900 to the active and reserve force. The 
budget will also continue to invest in the military's most 
important asset, its warfighters, with a 2.6 percent military 
pay increase.
    The 2019 budget continues to increase procurement of 
preferred and advanced munitions, a necessity due to the 
ongoing operations in the Middle East and the need for war 
reserves. Ten combat ships and eight support ships are funded, 
arresting the downward trajectory of our Navy's size and 
lethality. We will continue production of 77 F-35's and 24 F-
18's, evaluating the performance of both to determine the most 
appropriate mix moving forward.
    This budget requests funds for systems to enhance 
communications and resiliency in space, addressing overhead 
persistent infrared capabilities, positioning, navigation, and 
timing, plus space-launched systems.
    Our 2018 National Defense Strategy also prioritized 
investing in technological innovation to increase lethality, 
and that continues in this budget. Cyber, advanced computing, 
big data analytics, artificial intelligence, autonomy, 
robotics, miniaturization, additive manufacturing, directed 
energy, and hypersonics are the very technologies we need to 
fight and win wars of the future.
    Every investment in the strategy-driven fiscal year 2019 
budget is designed to contribute to the lethality of our 
military, ensuring that subsequent secretaries of defense 
inherit a military force that is fit for its time. Those 
seeking to threaten America's experiment in democracy should 
know if you challenge us, it will be your longest and worst 
day.
    Our 2018 National Defense Strategy second line of effort is 
continued this year to strengthen our traditional alliances 
while building new partnerships. In the past, I had the 
privilege of fighting many times in defense of the United 
States, but I never I fought in a solely American formation. It 
was always alongside foreign troops. Easier said than done, 
Winston Churchill noted the only thing harder than fighting 
with allies is fighting without them. History proves that we 
are stronger when we stand united with others. Accordingly, our 
military will be designed, trained, and ready to fight 
alongside allies. Working by, with, and through allies and 
partners who carry their fair share remains a source of 
strength for the United States.
    Since the costly victory in World War II, Americans have 
carried a disproportionate share of the global defense burden 
while others recovered. Today the growing economic strength of 
allies and partners has enabled them to step up, as 
demonstrated by the 74 nations and international organizations 
participating in the Defeat ISIS campaign and again in the 41 
nations standing shoulder to shoulder in NATO's [North Atlantic 
Treaty Organization] Resolute Support mission in Afghanistan. 
This year, every NATO ally has increased defense spending, and 
15 NATO allies are increasing their defense budget as a share 
of the gross domestic product, giving credence to the value of 
democracies standing together. Further, our Pacific partners 
are also strengthening their defenses.
    Our third line of effort is the urgent reform of the 
Department's business practices to provide both solvency and 
security. We will continue to establish a culture of 
performance where results and accountability matter on every 
expenditure to gain full benefit from every single taxpayer 
dollar spent on defense. We are committed to exercising the 
utmost degree of financial stewardship and budget discipline 
within the Department. In this regard, this year we will 
deliver our Department's first full financial audit in history. 
We will find the problems it reveals and take swift action to 
correct our deficiencies, thereby earning the trust of Congress 
and the American people.
    I am confident we have the right leaders in place to make 
meaningful reform a reality: Pat Shanahan as Deputy Secretary 
of Defense, Jay Gibson as Chief Management Officer, Ellen Lord 
as Under Secretary of Defense for Acquisition and Sustainment, 
Michael Griffin as Under Secretary of Defense for Research and 
Engineering, Bob Daigle as Director of Cost Assessment and 
Program Evaluation, and David Norquist who joins us here today, 
as the Department's Chief Financial Officer. Each brings the 
intellect, the energy, and experience required to implement and 
sustain meaningful reform, ensuring the Department provides 
performance and affordability for the American taxpayer.
    The Department is transitioning to a culture of performance 
and affordability that operates at the speed of relevance. We 
will prioritize speed of delivery, continuous adaptation and 
frequent modular upgrades. With your continued critical 
support, we will shed outdated management and acquisition 
processes while adopting American industries' best practices. 
Our management structure and processes are not engraved in 
stone. They are a means to an end. If current structures 
inhibit our pursuit of lethality, I have directed service 
secretaries and agency heads to consolidate, eliminate, or 
restructure to achieve their mission.
    Here I will note that I have also issued direction about a 
particular cancer in our ranks: sexual assault. Unit cohesion 
built on trust and mutual respect is what holds us together 
under stress and keeps our forces combat effective against 
daunting odds. This Department is committed to assertively 
preventing and swiftly responding to any sexual assault in our 
ranks. While battlefield casualties are a reality of war, we 
will accept no casualties due to sexual assault in our military 
family. I personally discussed this with all senior Department 
leaders. Earlier this month, I issued a memo making this clear 
to all members of the Department. I ask that it also be 
submitted for the record.
    Senator Inhofe. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Secretary Mattis. The 2018 National Defense Strategy's 
three primary lines of effort, building a more lethal force, 
strengthening our alliances, and reforming our business 
practices, will restore our competitive military advantage 
ensuring we are prepared to fight across the full spectrum of 
combat both now and in the future.
    I want to thank this committee for your strong, spirited 
bipartisan collaboration. While our trajectory is going in the 
right direction, our work has just begun. This is a year of 
opportunity and a chance to continue to work together building 
on a strong start as we turn the National Defense Strategy into 
action.
    The points I need to emphasize in this hearing are that 
this budget, which is designed to execute the defense strategy, 
is building a more lethal force and it is also building for the 
future by improving our military technological competitive 
edge, and we will reform the Department's business processes to 
establish that culture of performance and affordability to 
ensure security and solvency. The strategy is the guidepost for 
all our actions, including this year's strategy-driven budget 
request, driving meaningful reform to establish an enduring 
culture of performance, affordability, and agility.
    I cannot appear before you without expressing my gratitude 
to the men and women of our Department. They are the ones who 
must ultimately turn the National Defense Strategy into action. 
Every day more than 2 million servicemembers and nearly 1 
million civilians do their duty honoring previous generations 
of veterans and civil servants who have sacrificed for their 
country. It is a privilege for me to serve alongside them, and 
I thank them for their tireless efforts and unyielding 
standards in defense of our Nation.
    General Dunford is prepared to discuss the military 
dimensions of the budget.
    [The prepared statement of Secretary Mattis follows:]

         Prepared Statement by Secretary of Defense Jim Mattis
    Senator Inhofe, Ranking Member Reed, distinguished members of the 
committee; I appreciate the opportunity to testify in support of the 
President's Budget Request for fiscal year 2019. I am joined by 
Chairman of the Joint Chiefs, General Dunford, and the Department's 
Comptroller/Chief Financial Officer, Mr. David Norquist.
    I am now in my second year as Secretary of Defense. With your help, 
we have made steady progress during the past 14 months. I must note 
today's absence of Chairman McCain, a longstanding, respected, and 
revered member of this committee, and one whose influence is deeply 
felt.
    In January, the Department published the 2018 National Defense 
Strategy--the first national defense strategy in a decade. Framed 
within President Trump's National Security Strategy, the 2018 National 
Defense Strategy provides clear direction for America's military to 
restore its competitive edge in an era of reemerging long-term 
strategic competition. The Department next released the 2018 Nuclear 
Posture Review which calls for America's military to provide a safe, 
secure, and effective nuclear deterrent that is ``modern, robust, 
flexible, resilient, ready, and appropriately tailored to deter 21st 
Century threats and reassure allies.''
    In South Asia and Afghanistan, uncertainty in the region has been 
replaced by the certainty of the Administration's South Asia Strategy. 
Concurrently in the Middle East, we have dramatically reduced ISIS' 
physical caliphate, using a coordinated, whole-of-government approach 
that works ``by, with, and through'' our allies and partners to crush 
ISIS' claim of invincibility and deny them a geographic haven from 
which to plot murder.
    Last month, thanks to the bipartisan support and political courage 
of Congress--and the dedication of this committee--President Trump 
signed an omnibus spending bill that funds the government for the 
remainder of the fiscal year. This law--along with the two-year budget 
agreement passed as part of February's Bipartisan Budget Act--finally 
freed us from the inefficient and damaging continuing resolution in 
2018, providing the funding needed to start implementing the 2018 
National Defense Strategy.
    We in the Department of Defense (DOD) are grateful to the American 
people for their sacrifices on behalf of military readiness and for the 
priority given the military at a time when numerous competing demands 
must be met by our government. We recognize and embrace our 
responsibility to gain full value from every taxpayer dollar spent on 
defense. As such, every decision we make will focus on lethality and 
affordability as we rebuild readiness and provide the combat 
capabilities required for our Nation's security.
    I want to thank this committee for your strong spirit of bipartisan 
collaboration. We continue to implement the range of reform initiatives 
directed by the 2017 National Defense Authorization Act. For example, 
your establishment of Under Secretaries for Research and Engineering 
and for Acquisition and Sustainment is already paying dividends in 
current and future readiness. This change--and others called for by 
Congress in its oversight role--sets the right course and we are 
aggressively implementing them.
    While our trajectory is going in the right direction, our work has 
just begun. This is a year of opportunity and a chance to build on a 
strong start as we turn the 2018 National Defense Strategy into action. 
Continuing our close collaboration will address our security 
challenges, thereby enhancing the protection of our way of life. 
Initiatives such as codifying reform efforts to further streamline the 
defense acquisition process and employing feedback loops to reduce the 
number of Congressionally-mandated annual reports are areas that need 
our combined attention.
                        strategy--driven budget
    The DOD's fiscal year (FY) 2019 budget is the second complete 
budget request from President Trump's administration. This budget will 
provide the resources necessary to fulfill DOD's requirements to meet 
the National Security Strategy's four vital national interests:

    <bullet>  Protect the American people, the Homeland, and the 
American way of life,
    <bullet>  Promote American prosperity,
    <bullet>  Preserve peace through strength, and
    <bullet>  Advance American influence.

    The DOD fiscal year 2019 base budget requests the resources 
necessary to fulfill the Department's enduring mission to provide the 
combat-credible military forces needed to deter war and, if deterrence 
fails, win in the event of conflict. Our Armed Forces reinforce 
America's traditional tools of diplomacy, ensuring that the President 
and our diplomats negotiate from a position of strength.
    The 2018 National Defense Strategy provides clear strategic 
direction for America's military to reclaim an era of strategic 
purpose. Although the Department continues to prosecute the campaign 
against terrorists, long-term strategic competition--not terrorism--is 
now the primary focus of U.S. national security.
    Nations as different as China and Russia have chosen to be 
strategic competitors as they seek to create a world consistent with 
their authoritarian models and pursue veto power over other nations' 
economic, diplomatic, and security decisions. Rogue regimes like North 
Korea and Iran persist in taking outlaw actions that undermine and 
threaten regional and global stability. Additionally and despite our 
successes against ISIS's physical caliphate, violent extremist 
organizations continue to sow hatred, incite violence, and murder 
innocents.
    Due to our open, multi-cultural, democratic society and 
strengthening economy--more than any other nation--America can expand 
the competitive space, challenging our competitors where we possess 
advantages and they lack depth. In order to restore our competitive 
military edge, the fiscal year 2019 budget funds our defense strategy's 
three overarching lines of effort to:

    <bullet>  build a more lethal force,
    <bullet>  strengthen traditional alliances while building new 
partnerships, and
    <bullet>  reform the Department's business practices for 
performance and affordability.

                       build a more lethal force
    The Department's policies, expenditures, and training must 
contribute to the lethality of our military. We cannot expect success 
fighting tomorrow's conflicts with yesterday's thinking, weapons, or 
equipment. As General Washington said during his first State of the 
Union address, ``to be prepared for war is one of the most effectual 
means of preserving peace,'' and a lethal military arm will enhance our 
diplomat's persuasiveness.
    The paradox of war is that an adversary will move against any 
perceived weakness, so we cannot adopt a single, preclusive form of 
warfare. Rather, we must be able to fight across the entire spectrum of 
combat. This means the size and composition of our force matters, and 
the Nation must field sufficient, capable forces to deter conflict. If 
deterrence fails, we must win. In today's environment we are determined 
to maintain a credible nuclear deterrent so these weapons are never 
used, and a decisive conventional force that includes irregular warfare 
capability.
    Our military remains capable, but our competitive edge has eroded 
in every domain of warfare--air, land, sea, space, and cyber. The 
combination of rapidly changing technology, the negative impact on 
military readiness resulting from the longest continuous period of 
combat in our Nation's history, and a prolonged period of unpredictable 
and insufficient funding, created an overstretched and under-resourced 
military. The fiscal year 2017 Request for Additional Appropriations 
and fiscal year 2018 Omnibus Appropriation provided the funding needed 
to address immediate readiness shortfalls and accelerate modernization 
programs in a sustained effort to solidify our competitive advantage. 
As indicated below in Figure 1, America can afford survival. The fiscal 
year 2019 strategy-based budget is affordable and will continue to 
enhance U.S. military capabilities, but the budget can only be fully 
effective if passed on time, not later than October 1st.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The National Defense Strategy prioritizes major power competition 
and, in particular, reversing the erosion of United States military 
advantage in relation to China and Russia. The fiscal year 2019 budget 
request invests in key capabilities to implement the National Defense 
Strategy through:

    <bullet>  modernization of nuclear deterrence forces and nuclear 
command, control and communications (NC3) capabilities;
    <bullet>  additional missile defense capabilities;
    <bullet>  modest increases in end strength for Army, Navy, Air 
Force, and Marine Corps;
    <bullet>  a 2.6 percent military pay raise;
    <bullet>  continuing increased procurement of certain preferred and 
advanced munitions;
    <bullet>  acquisition of 10 combat ships and 8 support ships;
    <bullet>  continued production of F-35 and F/A-18 aircraft;
    <bullet>  increasing funds to enhance communications and resiliency 
in space, and;
    <bullet>  investment in technological innovation to increase 
lethality, including research into advanced autonomous systems, 
artificial intelligence, and hypersonics.

    As noted earlier, one of the key elements of the 2018 National 
Defense Strategy is to ensure America's military provides a safe, 
secure, and effective nuclear deterrent that is fit for our time.
    The global situation is sobering. Russia is modernizing its full 
range of nuclear systems while espousing a theory of nuclear escalation 
in military conflict. China, too, is modernizing and expanding its 
already considerable nuclear forces, pursuing entirely new 
capabilities. China is also modernizing its conventional military 
forces to a degree that will challenge United States military 
superiority. While recent events have given rise to a sense of positive 
movement, North Korea's nuclear provocations threaten regional and 
global peace and have garnered universal condemnation by the United 
Nations. Iran's nuclear ambitions also remain an unresolved concern. 
Globally, nuclear terrorism remains a tangible threat.
    The recently completed 2018 Nuclear Posture Review reaffirms the 
findings of previous reviews that the nuclear triad--comprised of silo-
based intercontinental ballistic missiles, bomber aircraft, and 
nuclear-armed submarines--is the most strategically sound means of 
nuclear deterrence. Given the range of potential adversaries, their 
capabilities and strategic objectives, the review calls for a nuclear 
deterrent fit for its time--a tailored and diverse set of nuclear 
deterrent capabilities that provides a flexible, tailored approach to 
deterring one or more potential adversaries.
    Deterrence exists in the mind of an adversary. Given today's 
complex security environment and the dynamics of deterrence, our 
Nuclear Posture Review introduces two supplemental nuclear capabilities 
to strengthen our deterrent stance. Both capabilities deny any 
adversary the confidence that limited nuclear use can provide an 
advantage.
    First is the near-term modification of a small number of existing 
submarine-launched ballistic missile warheads to reduce their yield. 
From submarines this provides a survivable capability to credibly hold 
at risk heavily-defended targets, which an adversary might believe 
could be successfully defended against current air-delivered nuclear 
weapons. This is consistent with the New START Treaty and does not 
increase the number of deployed U.S. strategic nuclear weapons. It 
counters any misconception on the part of Russia that they could 
escalate a conventional war through the use of a low yield weapon and 
we could only respond with a high yield weapon, which they calculate we 
would not do. In terms of deterrence, this submarine-launched low yield 
weapon gives us an option other than surrender or suicide, thus 
strengthening our deterrence to adversary use of nuclear weapons.
    Second is the pursuit of a nuclear sea-launched cruise missile. 
This is not a new or novel capability. The U.S. had these weapons for 
decades before dismantling them after the Cold War. If we subsequently 
choose to go into full production, this INF Treaty-compliant capability 
will close a capability gap. Currently this effort is meant to 
incentivize Russia to return to compliance with its obligations under 
the INF Treaty.
    These capabilities do not lower the nuclear threshold. Rather, by 
convincing adversaries that even limited use of nuclear weapons will be 
more costly than they can tolerate, it raises that threshold.
    Preserving this range of options requires the recapitalization of 
our Cold War legacy nuclear deterrent forces as initiated during the 
previous Administration. Modernizing the Nation's nuclear deterrent 
delivery systems, including our nuclear command and control, is the 
Department's top priority, and these programs are fully funded in the 
fiscal year 2019 budget. Most of the Nation's nuclear deterrence 
delivery systems, built in the 1980's or earlier, reach the end of 
their service life between 2025 and 2035, with all currently-fielded 
systems extended well beyond their original service lives. Replacement 
programs are underway to ensure there are no gaps in capability when 
the legacy systems age out.
    Investments include the Ground Based Strategic Deterrent system; 
Columbia-class ballistic missile submarine; Trident II submarine-
launched ballistic missile service life extension program; B-21 Raider 
strategic bomber; replacing the air-launched cruise missile with the 
Long-Range Standoff weapon; and B61 Mod 12 life extension program to 
consolidate four legacy B61 variants into a single variant for carriage 
on heavy bombers and dual-capable aircraft.
    Our modernization estimates align with a recent Congressional 
Budget Office report that estimated $1.2 trillion to (1) modernize and 
(2) operate our nuclear deterrent forces over 30 years when combined 
with the costs incurred by the Department of Energy to develop and 
sustain the warheads. However, the cost of our nuclear modernization 
program is significantly less than the cost of failing to deter war by 
underinvesting in these capabilities.
    Nuclear deterrent forces, along with our conventional forces and 
other instruments of national power, help deter aggression and preserve 
peace. Our goal is to convince adversaries they have nothing to gain 
and everything to lose from the use of nuclear weapons. I note again 
that our deterrent stance does not lower the nuclear threshold, and it 
remains U.S. policy to consider employing nuclear weapons only in 
extreme circumstances to defend the vital interests of the United 
States, its allies, and partners.
    The 2018 Nuclear Posture Review reaffirms the mutually reinforcing 
role of nuclear deterrence in a complex and dynamic security 
environment and continued U.S. commitment to non-proliferation, 
counter-nuclear terrorism, and arms control. The United States remains 
committed to its global leadership role to reduce the number of nuclear 
weapons, and to fulfill existing treaty and arms control obligations, 
including the New START Treaty. While Russia and United States both met 
their agreed New START strategic weapons reduction requirement on time, 
Moscow has violated the Intermediate Nuclear Forces (INF) Treaty over 
the past several years. While our intent is to bring Russia back into 
compliance, the duration of Russia's INF violation illustrates the 
challenging environment for progress in arms control efforts and 
undermines United States confidence in Russia as a reliable treaty 
partner.
    The fiscal year 2019 budget funds enhancements to U.S. missile 
defense capabilities to defend the Homeland, deployed forces, allies, 
and partners against an increasingly complex ballistic missile threat. 
In accordance with the soon-to-be-released 2018 Missile Defense Review, 
this budget requests continued robust support for missile defense 
capacity and capability to keep pace with advancing threats. The budget 
includes $12.9 billion for missile defense, including $9.9 billion for 
the Missile Defense Agency. The Department will develop an additional 
missile field in Alaska and increase the number of operational deployed 
Ground-Based Interceptors to 64 missiles as early as fiscal year 2023. 
While our efforts remain focused on increasing interceptor capacity in 
Alaska, the Department has completed environmental impact studies for 
four possible ballistic missile defense sites on the East Coast should 
the Iranian ICBM threat materialize.
    The fiscal year 2019 request will continue development of the 
Redesigned Kill Vehicle to address the evolving threat along with 
development of a 2nd / 3rd-stage booster selectable capability to 
expand battlespace for ground-based interceptor engagements for 
Homeland defense. The budget also uses available technology to improve 
existing sensors, battle management, fire control, and kill vehicle 
capabilities to include a Long-Range Discrimination Radar in Alaska, a 
Homeland Defense Radar in Hawaii, and an additional Medium Range 
Discrimination Radar in the Pacific.
    For regional missile defense capabilities, the fiscal year 2019 
budget request supports improved missile defense capability on the 
Korean peninsula; provides funding for development of advanced missile 
defense technologies to counter future threats; supports the Aegis 
Ashore site in Romania and deployment of a second site in Poland as 
part of NATO's Ballistic Missile Defense architecture; increases BMD 
capability and capacity of the Aegis fleet; integrates SM-3 Block IIA 
into the Aegis weapon system; provides funding for Terminal High 
Altitude Area Defense (THAAD) development efforts and software 
upgrades; and continues support for Israeli Cooperative BMD Programs, 
including the Iron Dome system to defeat short-range missiles and 
rockets, and co-development/co-production of the David's Sling Weapon 
System and Arrow-3 System.
    Modest increases in end strength for the Army, Navy, Air Force and 
Marine Corps are critical to restoring readiness. DOD's fiscal year 
2019 budget funds a total end strength increase of 25,900 as depicted 
in figures 2 (Active Force) and 3 (Reserve Force) below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		

    Our joint culture remains one of our military's greatest strengths, 
and a force multiplier on the battlefield. Each service's manpower 
needs remain unique to their specific missions. For example, the Army 
will continue to rebuild manpower readiness with a new ``Sustainable 
Readiness'' force generation model, making greater use of Reserve 
forces, updating the force structure model, and providing greater home 
station training against a broad range of threats. The Navy will ensure 
sailors with the right skills are assigned to the most appropriate 
jobs, using the increase in end strength to reduce identified gaps in 
critical manning areas. The Marine Corps will implement a 1:2 deploy-
to-dwell ratio for Active Duty forces, providing more recovery time 
between deployments and for home station training. The Air Force is 
closing gaps in aircrew and skilled maintenance personnel, targeting 
their increased personnel to get more planes in the air.
    Increasing lethality requires us to change our approach to talent 
management. We must reinvigorate our military education and training, 
and hone our civilian workforce's expertise. The creativity and talent 
of the Department is our deepest wellspring of strength and warrants 
greater investment. The fiscal year 2019 budget will continue to invest 
in the military's most important asset--its warfighters--with a 2.6 
percent military pay increase. This pay raise and the increase in 
manpower will improve readiness and lethality by reducing personnel 
tempo and retaining skillsets like cyber, electronic warfare, and 
special operations. With changes to our forces' posture, we will 
prioritize for warfighting readiness in major combat, making us more 
strategically predictable and reliable for our allies but operationally 
unpredictable to any adversary.
    The U.S. Military's predominant mission is to be prepared to fight 
and win our Nation's wars. No human endeavor is more demanding 
physically, mentally, and emotionally than the life and death struggle 
of battle. High standards for military service are designed to ensure 
our military remains the most professional and lethal force in the 
world. While not everyone in the military sees combat, every soldier, 
sailor, airman and marine must be physically and mentally qualified and 
prepared to endure the hardship of war, for the U.S. military to carry 
out its demanding missions.
    Acknowledging that infantry units take over 80 percent of combat 
casualties, the Department's Close Combat Lethality Task Force is 
integrating human factors and technology to ensure our forces retain 
their hard won superiority in battle. We will expose troops to as many 
simulated tactical and ethical challenges possible before they see 
combat, ensuring that their first time in combat doesn't feel like 
their first time in combat. The Task Force will also provide 
recommendations regarding the fundamentals of performance, including 
physical fitness and nutrition standards. The end result is to ensure 
that U.S. close quarters battle is conducted in a way that ferociously 
destroys the enemy's spirit and brings back as many as possible in top 
physical and mental shape.
    To ensure the most lethal and effective fighting force in the 
world, the Department maintains high mental, physical, and behavioral 
standards. These necessarily high standards mean that 71 percent of 
young Americans (ages 17-24) are ineligible to join the military 
without a waiver. The Department's detailed 44-page report thoroughly 
explains why and under what circumstances transgender persons without 
gender dysphoria can serve, and why transgender persons with gender 
dysphoria cannot, except in limited circumstances. I'm confident that 
my recommendation to the President is in the best interests of the 
military and is consistent with the Constitution. The report also 
explains why transgender persons who entered under the prior 
administration's policy will be retained. The Department will continue 
to comply with the court orders that require the accession and 
retention of transgender persons until this issue is fully resolved, 
and I must remain careful with my comments on this matter while it is 
in active litigation.
    Continued increased procurement of preferred and advanced munitions 
is necessary due to ongoing operations in the Middle East and the need 
for war reserves.
    Specifically, the DOD has expended a significant number of 
munitions, primarily to defeat Islamic State of Iraq and Syria (ISIS). 
Many preferred munitions are precision-guided, low-collateral damage 
munitions, used by all Services and by U.S. allies. Addressing the 
Department's need to maintain critical munition inventories, the fiscal 
year 2017 and fiscal year 2018 funds you provided have strengthened the 
Department's lethal posture, enabling our industrial base to increase 
production capacities. The fiscal year 2019 budget provides $4.4 
billion to continue to procure munitions at maximum production 
capacity, lowering the price for each unit and ensuring greater buying 
power for those munitions as we rebuild our war reserve.
    The United States remains the world's preeminent maritime power. 
During peacetime and in times of conflict, sailors and marines are 
deployed at sea, enabling forces to arrive sooner and remain longer, 
while bringing everything they need with them. These forces reassure 
allies and temper adversaries' designs. The U.S. Constitution vests 
Congress with the authority to ``provide and maintain a Navy,'' and the 
fiscal year 2019 budget provides $23.7 billion to fund 10 combat ships 
and 8 support ships. These funds arrest the downward trajectory of the 
Navy's size and lethality. Consistent with the National Defense 
Strategy, the Fleet will continue to grow to meet capabilities needed 
in the future and to maintain an industrial base healthy enough to 
adapt and evolve in a dynamic environment. The fiscal year 2019 budget 
provides for a deployable battle force of 280 ships growing to 355, 
supporting the requirements to respond to persistent and emerging 
threats. We are also increasing near-term capacity by investing in 
service life extension programs for six guided missile cruisers (adding 
five years of service life) and one Los Angeles-class submarine 
(extending service life by 11 years). We are committed to expanding the 
Navy while making it fit for operations in the face of future threats.
    Along with shipbuilding, the fiscal year 2019 budget prioritizes 
capabilities to enhance air and sea power through the continued 
production of F-35 and F/A-18 aircraft. The F-35 program is developing, 
producing, and fielding three variants of the F-35 to support the needs 
of the U.S. Air Force, Marine Corps, and Navy. The budget requests 77 
F-35s and 24 additional F/A-18 Super Hornets in fiscal year 2019, 
increasing the readiness of the Navy's fighter fleet and relieving 
pressure on its aging, legacy F/A-18A-D aircraft. It remains imperative 
that our air fleet deliver performance, affordability, and capability.
    The F-35 aircraft is performing well, but the contractor is not 
delivering the affordability that keeps solvency and security as our 
guideposts. We are working with the contractor to reduce the costs 
associated with purchasing and sustaining the F-35. We will evaluate 
the performance of both F-35s and F/A-18s to determine the most 
appropriate mix of aircraft as we move forward.
    The fiscal year 2019 budget request provides $9.3 billion for space 
and space-based systems to enhance communications and resiliency in 
space, addressing needs for overhead persistent infrared capabilities; 
positioning, navigation, and timing (PNT); and space launch systems. 
The Department will sustain existing systems, while developing follow-
on capabilities to support operations in a contested space environment.
    The Air Force will continue the production of space-based infrared 
systems (SBIRS) and advanced extremely high frequency space vehicles 
currently in production to meet military satellite communication needs. 
Facing rising threats to our space capabilities, however, the fiscal 
year 2019 budget request transitioned the SBIRS space vehicles 7 and 8 
procurements to the Next Generation Overhead Persistent Infrared effort 
in order to field rapidly a more survivable system by the mid-2020s. 
The Air Force will incorporate a technology refresh of the sensor to 
assure missile warning capabilities equal to or greater than today's 
SBIRS, taking advantage of sensor technology improvements.
    The fiscal year 2019 budget request supports resiliency 
improvements in the PNT mission, incorporating military protection 
capability into the next generation global positioning system (GPS) III 
constellation. This enhancement assures PNT capabilities in contested 
environments and funds improvements to the GPS ground segment to 
improve anti-jamming and secure access of military GPS signals.
    Successful implementation of the 2018 National Defense Strategy 
includes investing in technological innovation to increase lethality. 
Rapid technological change includes developments in advanced computing, 
big data analytics, artificial intelligence, autonomy, robotics, 
miniaturization, additive manufacturing, directed energy, and 
hypersonics--the very technologies that ensure we will be able to fight 
and win wars of the future. Ultimately, these technologies will change 
the character of war, a reality embraced by DOD.
    The Department's fiscal year 2019 Science and Technology (S&T) 
program invests in and develops capabilities that advance the 
technological superiority of the U.S. military to counter new and 
emerging threats. The Congressionally-directed split of my office's 
Undersecretary of Defense (Acquisition, Technology and Logistics) into 
two portfolios (Acquisitions and Sustainment, and Research and 
Engineering) has enabled a stronger focus on urgently needed 
innovation, aligned with our defense strategy.
    The fiscal year 2019 budget request for science and technology is 
$13.7 billion, focusing on innovation to advance DOD's military 
dominance for the 21st Century. Highlights include: a robust basic 
research program of $2.3 billion; funding the Defense Advanced Research 
Projects Agency budget of $3.4 billion to develop technologies for 
revolutionary, high-payoff military capabilities; and continuing to 
leverage commercial research and development to provide leading edge 
capabilities to the Department while encouraging emerging non-
traditional technology companies to focus on DOD-specific problems.
    The 2018 National Defense Strategy recognizes cyberspace as an 
increasingly contested warfighting domain, where malevolent cyber 
incidents and attacks present significant risks to national security. 
Long-term strategic competitors like Russia, China, North Korea, and 
Iran are using increasingly aggressive methods and levels of 
sophistication to conduct malicious activities. The challenge facing 
the Department is equally applicable to public and private networks 
across the United States, networks that are already held at risk.
    In terms of cyber as a contested domain, the Department of Defense 
has two broad portfolios: First is DOD's requirement to defend its 
networks, weapons, infrastructure, and information while providing 
integrated offensive cyber capabilities as options if needed. Second is 
our responsibility to Defend the Nation, which we perform by defending 
forward against significant cyber threats, and by supporting the 
Department of Homeland Security (DHS) which has the lead responsibility 
for integrating various governmental roles, missions, and 
responsibilities. Because DOD has offensive and defensive cyber 
capabilities in U.S. Cyber Command (title 10) and the National Security 
Agency (title 50) on a scale and scope not available through other 
agencies and departments, we have a responsibility to the President and 
the Secretary of DHS for effectively aligning our capabilities to 
support cyber deterrence and responses to malicious cyber actions as 
part of a whole-of-government approach. Further, protection of our 
Nation's economy is fundamental to protecting our open society's way of 
life and ultimately to maintaining our military power. There are 
critical sectors (e.g., energy/electricity, finance, communications) 
vulnerable to disruption which must be reflected in our Nation's 
strategy and DOD's role.
    The fiscal year 2019 budget provides $8.6 billion to build and 
maintain offensive and defensive capabilities for cyberspace 
operations. This funding also provides the resources needed to 
organize, train, and equip the 133 Cyber Mission Force teams whose 
purpose it is to perform DOD's cyber missions. This budget further 
provides the resources to elevate U.S. Cyber Command to a 4-star level 
command as required by the 2017 NDAA, to ensure DOD's organization 
accounts for the new threats facing our Nation.
    Across manpower, research, procurement, operations and maintenance, 
and construction--every investment in the fiscal year 2019 budget is 
designed to contribute to the lethality of our military as we adapt the 
size and composition of our force to address the current international 
situation while adjusting our stance to account for an evolving future. 
The enduring departmental theme is derived from our National Defense 
Strategy and Congressional intent: that we field forces sufficient and 
capable of deterring conflict or dominating the battlefield if we must 
fight and win. This year's budget reinforces a message to those seeking 
to threaten America's experiment in democracy: if you challenge us, it 
will be your longest and worst day.
    strengthen traditional alliances while building new partnerships
    The 2018 National Defense Strategy's second line of effort is to 
strengthen traditional alliances while building new partnerships.
    In the past, I had the privilege of fighting many times in defense 
of the United States, but I never fought in a solely American 
formation; it was always alongside foreign troops. Easier said than 
done. Winston Churchill noted that the only thing harder than fighting 
with allies is fighting without them. History proves that we are 
stronger when we stand united with others. Accordingly, our military 
will be designed, trained, and ready to fight alongside allies.
    Acknowledging the lessons of World War II, the Greatest Generation 
invested in this approach to security, and our Nation's resulting 
prosperity helped much of the world develop. Working by, with, and 
through allies who carry their fair share remains a source of strength 
for the U.S. Since the costly victory in World War II, Americans have 
carried a disproportionate share of the global defense burden while 
others recovered.
    Today, the growing economic strength of allies and partners has 
enabled them to step up, as demonstrated by the 74 nations and 
international organizations participating in the Defeat-ISIS campaign, 
and again in the 41 nations standing shoulder-to-shoulder in NATO's 
Resolute Support Mission in Afghanistan. This year, every NATO ally has 
increased their defense spending, and 15 NATO allies are also 
increasing their defense budgets as a share of gross domestic product, 
giving credence to the value of democracies standing together. Our 
Pacific partners are also doing so.
    To strengthen and work jointly with more allies, our organizations, 
processes, and procedures will be ally friendly. The Department will do 
more than just listen to other nations' ideas--we will be willing to be 
persuaded by our partners, recognizing that not all good ideas come 
from the country with the most aircraft carriers. This line of effort 
will bolster an extended network of like-minded nations capable of 
promptly and prudently meeting the challenges of our time.
    The fiscal year 2019 budget prioritizes investment where it is 
needed today and tomorrow. In the Middle East, we will work with 
responsive governments to ensure a more stable and secure region that 
denies safe haven to terrorists; is not dominated by any power hostile 
to the United States; and that contributes to stable global energy 
markets and secure trade routes. The $69 billion requested for the 
Overseas Contingency Operations account maintains our regional presence 
to protect the Homeland, allies, and partners from terrorist threats. 
The budget request supports United States Forces in Afghanistan as part 
of the Administration's South Asia Strategy; continues operations to 
prevent the resurgence of ISIS; and continues our security partnership 
with Iraqi Security Forces to support Iraq's long-term stability and 
independence.
    NATO remains our key security alliance. The Overseas Contingency 
Operations request also provides $6.5 billion for the European 
Deterrence Initiative (EDI). Established in 2015, the EDI supports a 
strong and free Europe, reaffirms America's commitment to the security 
and territorial commitment of NATO member states, and enhances 
activities in Eastern Europe to deter Russian aggression such as we 
have observed in Georgia and Crimea/Ukraine. This initiative also 
increases bilateral and multilateral exercises and training with allies 
and partners to ensure our deterrent stance is built on a strong, joint 
military capability.
    A free and open Indo-Pacific region provides prosperity and 
security for all. We will continue to strengthen our alliances and 
partnerships in the Indo-Pacific to a networked security architecture 
capable of deterring aggression, maintaining stability, and ensuring 
free access to common domains. With key countries in the region, we 
will bring together bilateral and multilateral security relationships 
to preserve the free and open international system.
    In our own hemisphere, the Canadian-American North American Air 
Defense Command is a long-standing, allied effort to protect both our 
nations. We maintain mature relations with both Canadian and Mexican 
militaries with a high degree of quiet collaboration. Further South we 
work jointly with Latin American nations on counter-narcotics and other 
operations and training efforts.
    Our efforts in Africa are largely focused on assisting nations 
facing violent terrorists to develop their own capability to provide 
internal security and mutual support against insurgents and terror 
groups. Ethical use of force is inherent in all training we provide.
    reform the department's business practices for performance and 
                             affordability
    As we take proactive steps to ensure our military is ready to fight 
today and in the future, we must urgently reform the business practices 
of the Department to provide both solvency and security. We will 
continue to establish a culture of performance where results and 
accountability matter on every expenditure, thereby gaining full 
benefit from every single taxpayer dollar spent on defense. We also 
have a commitment to exercise the utmost degree of financial 
stewardship and budget discipline within the Department, and we will 
deliver our Department's full financial audit this year. We also have 
the right leaders in place to make meaningful reform a reality: Pat 
Shanahan as Deputy Secretary of Defense; Jay Gibson as Chief Management 
Officer; Ellen Lord as Undersecretary of Defense for Acquisitions and 
Sustainment; Michael Griffin as Undersecretary of Defense for Research 
and Engineering; Bob Daigle as Director of Cost Assessment and Program 
Evaluation; and David Norquist as the Department's Comptroller/Chief 
Financial Officer. Each brings the intellect and energy required to 
implement and sustain meaningful reform, ensuring the Department 
provides performance and affordability for the American taxpayer.
    The Department began a consolidated financial statement audit in 
fiscal year 2018. For the first time, the Department will complete an 
independent and full audit across its business processes and systems, 
as required by law. A financial statement audit is comprehensive, 
occurs annually, and covers more than just financial management. During 
a financial statement audit, an independent public accounting firm or 
the DOD Office of Inspector General examines the Department's books and 
records. Financial statement audits give management independent 
validation and feedback on the effectiveness of each reporting entity's 
business systems and internal processes and controls. The financial 
statement audit helps drive enterprise-wide improvements to standardize 
our business processes and improve the quality of our data. Audits also 
ensure Department leaders have visibility over the counts, locations, 
and conditions of DOD property to inform current readiness and inform 
future programming, budgeting, and investment decisions. While we fully 
expect to find deficiencies, we will take swift action to correct them, 
thereby earning the trust of Congress and the American people.
    Remediating audit findings is at the center of our financial 
improvement strategy. The Department owes accountability to the 
American people. The taxpayers deserve a level of confidence that the 
Department's financial statements present a true and accurate picture 
of its financial condition and operations. Transparency, 
accountability, and business process reform are some of the benefits 
the Department will receive from the financial statement audit even 
before achieving a positive opinion.
    The Department is transitioning to a culture of performance and 
affordability that operates at the speed of relevance. We will 
prioritize speed of delivery, continuous adaptation, and frequent 
modular upgrades. With your continued, critical support, we will shed 
outdated management and acquisition processes while adopting American 
industries' best practices. Our management structure and processes are 
not engraved in stone. They are a means to an end--empowering the 
warfighter with the knowledge, equipment, and support needed to fight 
and win. If current structures inhibit our pursuit of lethality, I have 
directed Service Secretaries and Agency Heads to consolidate, 
eliminate, or restructure to achieve the mission.
    Here I will note that I have also issued direction about a 
particular cancer in our ranks--sexual assault. Unit cohesion built on 
trust and mutual respect is what holds us together under stress and 
keeps our forces combat effective against daunting odds. This 
department is committed to assertively preventing and swiftly 
responding to any sexual assault in our ranks. While battlefield 
casualties are a reality of war, we will accept no casualties due to 
sexual assault in our military family. I personally discussed this with 
all senior department leaders. Earlier this month, I issued a memo 
making this clear to all members of the Department. I ask that it also 
be submitted for the record.
    Deputy Secretary of Defense Shanahan has established the Reform 
Management Group (RMG), which relies on cross-functional teams to drive 
efficiency by using shared, centralized services throughout the 
Department with the goal of making each area maximally effective and 
improving our performance. The RMG's central goal is to leverage best 
practices, centers of excellence, and private sector sources to 
benchmark and best align business operations. Improved performance in 
the Department's business operations leads to a more effective force, 
and savings will be reinvested to increase lethality.
    Initial Reform Teams are focused on evaluating operations in the 
following areas:

    <bullet>  Information Technology,
    <bullet>  Healthcare,
    <bullet>  Real Property,
    <bullet>  Human Resources,
    <bullet>  Financial Management,
    <bullet>  Contracted Services and Goods,
    <bullet>  Logistics and Supply Chain,
    <bullet>  Community Services, and
    <bullet>  Testing and Evaluation.

    Goals and performance metrics are crucial to measuring the benefit-
to-cost and value generated as business processes are optimized. Key to 
this reform effort is generating relevant, accurate, and timely data. 
Displaying this data will ensure that all decision makers have access 
to the best information on a real-time basis. As reform efforts are 
underway, the longer-term objective is to institutionalize the behavior 
of continuous improvement throughout the culture of the Department.
    As the Department implements reform initiatives that reduce the 
operating costs of institutional activities, those resources will be 
reallocated to readiness, modernization, and recapitalization. The 
Department is ensuring that the savings associated with better business 
practices from previous Presidents' Budgets are implemented fully, 
including streamlining major headquarters activities and eliminating 
redundancy. This effort includes a systemic review of past Inspector 
Generals' findings to ensure remedial action has been fully 
implemented.
    There are several efforts currently underway to improve the 
Department's ability to acquire and field products and services that 
provide for significant increases in mission capability and operational 
support in the most cost effective and schedule efficient manner 
possible.
    A Defense Acquisition System that facilitates speed and agility in 
support of mission accomplishment is key. The Department is engaging 
with the independent advisory panel on streamlining and codifying 
acquisition regulations established by section 809 of the fiscal year 
2016 NDAA and amended by section 863 of the fiscal year 2017 NDAA. This 
effort also includes potential recommendations for new statutes as well 
as amendments or repeal of existing statutes.
    The Department looks forward to working with the Congress to 
provide the right capabilities to the warfighters when needed and at an 
affordable cost. A Defense Acquisition System that facilitates speed 
and agility in support of the aforementioned objective is key in this 
regard.
                         current issues update
    Syria: Syria's civil war began in 2011 and now spans two 
administrations, providing ISIS an ungoverned space from which to 
commit murder and oppression, fomenting attacks globally. Our chosen 
strategy is to act by, with, and through allies and partners, 
diplomatically and militarily. The reason we have troops in Syria is 
solely to surround and annihilate ISIS as part of the 70-nation Defeat-
ISIS Coalition. No military solution is possible in the Syrian civil 
war, and we continue to support a diplomatic solution as part of the 
U.N.-led peace process, led by U.N. Special Envoy to Syria Steffan de 
Mistura. The 13 April use of military force was a distinct military 
operation exercised in the face of compelling evidence that chemical 
weapons were used in Duma and, as U.N. Secretary General Stoltenberg 
stated the following day, our ``response to Syria's use of chemical 
weapons was targeted, measured, and appropriate.'' This proportional 
response, conducted under President Trumps Article II Constitutional 
authority, does not signal an escalation in the ongoing conflict in 
Syria.
    Aviation Mishaps / Deaths: Recent aviation mishaps across each of 
the Services are tragic and troubling, with 133 servicemembers killed 
over a five year period. In the last four weeks alone, 16 
servicemembers have been killed. I am concerned that these recent 
mishaps represent lagging indicators, a tragic manifestation of 
readiness that has degraded during 17 years of war and made worse by 
budget cuts and fiscal instability.
    The two-year Bipartisan Budget Act and 2018 Omnibus appropriation 
will begin restoring the flight hours, equipment, and manpower needed 
to regain readiness, but it took us years to get to this point and 
measurable improvements will take time.
    Border Security Support: In support of the Department of Homeland 
Security, and as directed by the President, I have authorized use of up 
to 4,000 National Guardsmen in title 32 duty status. They will be 
assigned supporting roles requested by DHS along our southern border 
region under the command of their respective governors. Current 
requested support is for aviation, surveillance, intelligence analysis, 
and planning support in priority sectors. I anticipate additional 
requests for construction and logistical support. National Guard 
personnel will not perform law enforcement duties or interact with 
migrants. Previously employed title 10 forces (approximately 195) 
conducting ongoing counter-narcotics support missions remain under U.S. 
Northern Command's control. We have nearly completed our fiscal year 
2018 baseline that would allow us to request your approval to reprogram 
funds and are quickly initiating the full mid-year review to examine 
execution, emerging requirements, program performance and year-of-
execution realities. We will work closely with Congress to identify 
assets and sources to protect readiness as we pay for National Guard 
support for the Southwest Border.
    Cancellation of Joint Surveillance Target Attack Radar System 
(JSTARS) Recapitalization and Space-Based Infrared Systems: The Air 
Force has proposed replacing JSTARS--the aircraft that performs battle 
management, command and control, and ground moving target sensing--with 
a network of sensors, fusing information from space, air, ground, and 
sea sensors. In a contested environment with integrated air defenses, 
the currently planned JSTARS replacement would be unable to get close 
enough to the fight to accomplish its mission, leaving our forces 
potentially blind to enemy activity. These functions must be adapted if 
they are to survive in the changed threat environment. We will move 
swiftly to Advanced Battle Management and Surveillance, and the Next 
Generation Overhead Persistent Infrared procurements, rapidly fielding 
capabilities with more survivability.
    Niger Incident and Loss of Four Soldiers: This incident and 
contributing factors have been extensively investigated by United 
States Africa Command. I have completed my review of the investigation 
and the Department has begun notifying the families of our fallen 
Soldiers. We will brief Congressional leadership once all families have 
been notified, followed by a public release.
    Countering America's Adversaries Through Sanctions Act (CAATSA): 
President Trump signed CAATSA into law on August 2, 2017, imposing new 
sanctions to counter aggressive actions from Iran, Russia, and North 
Korea. I look forward to working with Congress to address the national 
security implications created by this act. It is important for us to 
have a flexible waiver authority, otherwise we prevent ourselves from 
acting in our own best interest and place an undue burden on our allies 
or partners.
    Transition to the Cloud: DOD must remain on the cutting edge of 
advanced computing capabilities to support warfighting and lethality. 
Our cloud initiative simplifies the ability to provide enterprise-wide 
access to information and improves security to safeguard critical 
information. Despite what you have heard in the media, the contract is 
not a sole source contract. The contract, which will have a 2-year base 
period, will follow a fair and open competition with the ultimate 
decision made based on performance and affordability. We are pursuing 
this path to ensure cloud providers are competitive and responsive to 
DOD needs.
                               conclusion
    Again, thank you for your bipartisan support and strong spirit of 
collaboration between this committee and our Department.
    The 2018 National Defense Strategy's three primary lines of 
effort--building a more lethal force, strengthening traditional 
alliances while building new partnerships, and reforming the 
Department's business practices for performance and affordability--will 
restore our competitive military advantage, ensuring we are prepared to 
fight across the full spectrum of combat now and into the future.
    Department of Defense readiness degraded over the course of many 
years. It will take continued budgetary stability to rebuild the 
readiness and increase the lethality required to expand the American 
military's competitive space. Now that we have a strategy-driven 
budget, the fiscal year 2019 budget request needs a timely 
appropriation enacted before October 1st to deliver the best return on 
readiness and modernization programs.
    This budget request requires each and every one of us in the 
Department to be good stewards of every taxpayer dollar spent on 
defense. This budget also holds me accountable to the men and women of 
the Department of Defense, for they are the ones that must ultimately 
turn the 2018 National Defense Strategy into action. Every day, more 
than two million Servicemembers and nearly one million civilians do 
their duty, honoring previous generations of veterans and civil 
servants who have sacrificed for their country. I am reminded every day 
of the privilege I have to serve alongside them, and I thank them for 
their tireless efforts and unyielding standards in defense of our 
Nation.

    Senator Inhofe. Thank you, Mr. Secretary. An excellent 
statement.
    General Dunford?

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Dunford. Senator Inhofe, Ranking Member Reed, 
distinguished members of the committee, thank you for the 
opportunity to join Secretary Mattis and Under Secretary 
Norquist here today. It is an honor to represent your men and 
women in uniform. And I join the Secretary in acknowledging 
Senator McCain's leadership and support.
    We are here for a candid discussion of the challenges we 
face. I want to begin by assuring you that the U.S. military 
has a competitive advantage over any potential adversary today. 
I am confident we can deter a nuclear attack, defend the 
Homeland, meet our alliance commitments, and prevail in any 
conflict. But as we previously discussed, after years of 
sustained operational commitments, budgetary instability, and 
advances by our adversaries, our competitive advantage has 
eroded and our readiness has degraded.
    Driven by the National Defense Strategy and building on the 
fiscal year 2017 and 2018 appropriations, the 2019 budget 
submission supports rebuilding the lethal and ready joint force 
that the nation needs. The Secretary has addressed their 
defense strategy that recognizes Russia and China as the 
priority while also meeting the immediate challenges posed by 
rogue regimes and violent extremist organizations. China and 
Russia continue to invest across the full range of nuclear, 
cyber, space, and conventional capabilities. Both states are 
focused on limiting our ability to project power and 
undermining the credibility of our alliances. They are also 
increasingly adept, as Senator Reed has pointed out, at 
advancing their interests through coercive, competitive 
activity below the threshold of armed conflict.
    North Korea has been on a relentless pursuit of nuclear and 
missile capability, and they have been clear these capabilities 
are intended to threaten the United States and our allies in 
the region.
    Iran continues to spread malign influence and create 
instability across the Middle East.
    And while we have made a great deal of progress over the 
past year, we are still grappling with the challenges of 
violent extremism, including ISIS, al Qaeda, and associated 
movements.
    Defending our Homeland and our allies and advancing our 
interests in the context of these and other challenges requires 
us to maintain a balanced inventory of ready, lethal, and 
flexible forces that are relevant across the range of military 
operations.
    Fortunately, with your support, we have begun to arrest the 
erosion of our competitive advantage and we are on a path 
towards developing the force that we need. This year's budget 
again builds on the readiness recovery that we started in 
fiscal year 2017 and accelerates our efforts to develop the 
capabilities we need for both today and tomorrow.
    In requesting your support for this year's budget, I, along 
with all the senior leaders in the Department, are making a 
commitment to you that we will make every dollar count. We 
fully support the auditing initiative led by Secretary Norquist 
who is with us here today and will maintain an ongoing dialogue 
with you about the return that you are getting on your 
investment.
    To restore our competitive advantage and ensure our men and 
women never find themselves in a fair fight, the U.S. military 
requires sustained, sufficient, and predictable funding. The 
funding in this budget is sufficient. I look forward to working 
with Congress to make sure that it is sustained and predictable 
in the future.
    Thank you again for your support and the opportunity to be 
here today.
    [The prepared statement of General Dunford follows:]

          Prepared Statement by General Joseph F. Dunford, Jr.
    Chairman McCain, Ranking Member Reed, distinguished members of this 
committee, thank you for the opportunity to join Secretary Mattis and 
Under Secretary Norquist in appearing before you today. It is an honor 
to represent the men and women of the United States military.
    Today, the U.S. Armed Forces have a competitive advantage over any 
potential adversary. We are capable of meeting all the requirements 
associated with defending the Homeland and our way of life, and we can 
meet every one of our alliance commitments. I am confident we can 
prevail in any armed conflict. That said, one of my greatest concerns 
as Chairman is the erosion of our competitive advantage over time.
    Last summer, I testified that after years of sustained operational 
commitments, budgetary instability, and advances by our adversaries, 
our competitive advantage was eroding. I assessed that, without 
sustained, sufficient, and predictable funding, within five years, the 
U.S. military would lose its advantage in power projection--the basis 
for how we defend the Homeland, advance U.S. interests, and meet our 
alliance commitments.
    I estimated that arresting the erosion of our competitive advantage 
required real budget growth of at least three percent above inflation 
across the Future Years Defense Plan (FYDP), and restoring it would 
cost more. This figure represented the minimum investment necessary to 
rebuild readiness and modernize key warfighting systems while 
continuing to meet operational requirements.
    Driven by the National Defense Strategy (NDS), the fiscal year 2019 
Budget Request builds on the fiscal year 2017 and fiscal year 2018 
budgets and supports rebuilding the U.S. military into the lethal and 
ready Joint Force the Nation needs. However, we cannot reverse a 
decade-plus of erosion in one fiscal year. The Department must continue 
to receive sufficient, sustained, and predictable funding for the 
foreseeable future to restore our competitive advantage and ensure we 
never send our sons and daughters into a fair fight.
                         strategic environment
    The 2018 NDS recognizes that ``The central challenge to U.S. 
prosperity and security is the reemergence of long-term, strategic 
competition by . . . revisionist powers.'' The Joint Force must face 
this long-term threat while still managing the immediate challenges 
posed by rogue regimes and terrorists. With China and Russia as the 
priority, we continue to use North Korea, Iran, and violent extremist 
organizations to inform our planning, force design, force development, 
and risk assessments.
    Our adversaries--particularly China and Russia--continue to develop 
concepts and invest in capabilities specifically designed to counter 
our advantages. The United States military is in a fierce competition 
to harness the benefits of emerging technologies--including 
hypersonics, artificial intelligence, directed energy, and 
biotechnology--as these developments will fundamentally change the 
character of war. China and Russia are also increasingly active and 
adept at what we call ``competition short of armed conflict'': 
integrating economic coercion, political influence, criminal activity, 
military posturing, unconventional warfare, and information and cyber 
operations to coerce opponents, advance their interests, and create 
strategic advantages without triggering a conventional armed response.
    China intends to become a global military power and is building the 
capability to do so. Militarily, China seeks to limit our access and 
undermine our important alliances in the Indo-Pacific. They are 
developing a full range of air, maritime, space, and cyber capabilities 
while modernizing their nuclear enterprise. Their continued 
militarization of the South and East China Seas reflects their 
disregard for a rules-based international order. They are increasing 
their diplomatic and economic influence through the Belt and Road 
Initiative, and their military interests have followed this enterprise 
into South Asia, the Indian Ocean, and beyond. We continue to seek 
Chinese cooperation on a number of fronts, especially with respect to 
North Korea, but their ``strong-rule-the-weak'' foreign policy approach 
is incompatible with United States interests.
    Russia also continues to modernize and invest across the full range 
of military capability, including new aircraft, submarines, armor, 
counter-space, air defense systems, and conventional and nuclear strike 
capabilities. These investments and activities are specifically 
designed to limit our power projection capability and undermine the 
credibility of U.S. alliances, especially NATO.
    While modernizing and preparing for long-term competition and 
potential armed conflict with these revisionist powers, we must also 
manage the ongoing challenges of rogue regimes and violent extremist 
organizations.
    Although I remain cautiously optimistic about the potential for 
talks in the near future, North Korea's reckless pursuit of nuclear and 
missile capability is perhaps the most immediate threat to the security 
of the United States and our Allies. In 2017, North Korea conducted an 
unprecedented 17 ballistic missile test events, two of which overflew 
our treaty Ally, Japan. Last year also saw North Korea's first 
successful tests of Intercontinental Ballistic Missiles (ICBMs) capable 
of ranging the continental United States--and they tested a nuclear 
device designed for ICBM delivery. I have testified to Congress several 
times in recent months about Pyongyang's accelerated capability 
development and the threats it poses to United States interests, to our 
Allies in the Pacific, and to the Homeland.
    Iran continues to project malign influence and threaten freedom of 
navigation in the Middle East. They are also modernizing their space, 
cyber, missile, and conventional maritime capabilities, which pose a 
direct threat to our Allies and our interests in the region.
    We continue to grapple with the challenge of violent extremism, 
including ISIS, a resurgent al Qaida, and associated movements. Our 
strategy remains focused on cutting the flow of finances, foreign 
fighters, and their disruptive narrative, while working by, with, and 
through local partners to sustain pressure on their networks, disrupt 
attacks, and dismantle their capabilities.
    Defending our Homeland, our Allies, and our interests in the near-
term while restoring our competitive advantage and building lethality 
will require a focused and sustained effort over many years.
                           where we are today
    Fortunately, with your support, we have begun to arrest the erosion 
of our competitive advantage. The additional appropriation in fiscal 
year 2017 supported immediate investments in readiness, including 
increases to end strength, funding for critical training, initial 
restoration of ammunition stocks, and continued modernization of 
critical systems.
    President's Budget 2018 builds on the readiness recovery started in 
fiscal year 2017 and begins to balance the program. It allows the 
Department to meet operational requirements, begin rebuilding mid- and 
long-term readiness, and restore warfighting capability and capacity.
    While we are grateful for the fiscal year 2018 appropriation, we 
spent the first six months of fiscal year 2018 with fiscal year 2017 
funding levels. The flexibility provided in recent legislation will 
enable the Department to execute the fiscal year 2018 budget 
responsibly. This includes easing the 80/20 rule (that prevents 
obligating more than 20 percent of a one-year appropriation in the last 
two months of the fiscal year) and raising the Below Threshold 
Reprogramming amounts. Though these measures will help the Department 
utilize fiscal year 2018 funds effectively, we need predictable funding 
in fiscal year 2019 and beyond to restore our competitive military 
advantage.
    The Department's fiscal year 2019 budget funds ongoing operations, 
builds on fiscal year 2018 readiness improvements, and supports the NDS 
by investing in modernization for high-end competition against near-
peer adversaries.
    Operations. Our first budget priority is to provide our deployed 
servicemembers the resources they need to effectively accomplish their 
missions--whether in active contingencies, deterring adversaries, 
assuring Allies, or building partner capacity.
    President's Budget 2019 supports deterrence and assurance efforts 
around the world. In the Pacific theater, this budget accelerates 
substantial construction projects to improve the infrastructure that 
facilitates power projection in the region. It funds prepositioning of 
critical munitions, increased intelligence activity, and increased 
rotational troop presence. President's Budget 2019 also improves 
missile defense by deploying 20 additional Ground Based Interceptors, 
with redesigned kill vehicles, at Fort Greely, Alaska across the FYDP. 
To deter Russian aggression, this budget fully funds the European 
Deterrence Initiative, increasing the number and quality of exercises 
with our NATO Allies, deploying key United States-based enablers, and 
modernizing prepositioned stocks. It also recapitalizes the Integrated 
Undersea Surveillance System, enhancing our ability to detect Russian 
submarines.
    This budget provides $69 billion for Overseas Contingency 
Operations (OCO), the bulk of which funds operations in Afghanistan, 
Iraq, and Syria. In Afghanistan, we are working toward a sustainable 
approach to stabilizing the Afghan Government and denying terrorist 
sanctuary. In Iraq and Syria, we remain committed to eliminating the 
remnants of ISIS and setting the conditions to ensure ISIS cannot 
return. OCO funding also supports Operation Enduring Freedom-Horn of 
Africa and counterterrorism efforts in northwest Africa and the 
Philippines.
    The fiscal year 2019 funding for ongoing operations not only 
ensures our deployed servicemembers have what they need to execute 
missions in Iraq, Syria, and Afghanistan, but also makes conflict less 
likely by assuring Allies and deterring aggression in key strategic 
theaters.
    Readiness. Ensuring our forces are able to meet current operational 
requirements and rebuild the readiness required for great power 
competition requires significant, continued investment in readiness. 
President's Budget 2019 builds on the readiness gains of PB18 by adding 
end strength, accelerating training, and increasing capacity to extend 
our readiness focus to the mid- and long-term.
    This budget adds modest end strength to each of the services, 
allowing them to fill gaps in existing combat formations, address 
critical shortfalls in aviation maintenance, and increase manning in 
cyber and information warfare. The Air Force will address pilot 
shortages by adding two new training squadrons, enabling the production 
of 125 additional new pilots per year.
    President's Budget 2019 funds flight hour programs and ground 
combat training accounts to near-maximum executable levels. The Air 
Force upgrades training ranges and funds weapons system sustainment, 
while the Army funds an unprecedented 20 Combat Training Center 
rotations for Brigade Combat Teams.
    President's Budget 2019 also increases available capacity for all 
of the Services. The Navy funds service life extensions for six 
cruisers, as well as infrastructure, spares, and ship depot 
maintenance. The Army will create a 16th Armored Brigade Combat Team 
while accelerating fielding of four Security Force Assistance Brigades. 
This budget also adds necessary capacity in air defense, mobile rocket 
artillery, and operational command and control in Europe. President's 
Budget 2019 also funds munitions inventory levels sufficient to meet 
multiple demands across theaters.
    Finally, we will improve readiness by refining our global force 
management processes to achieve strategic flexibility and freedom of 
action. As directed by the NDS, Dynamic Force Employment will allow us 
to proactively shape the environment through scalable military presence 
and quickly deploy forces for emerging requirements while preserving 
long-term warfighting readiness.
    President's Budget 2019's investments in readiness build on the 
gains made in the past two years and are foundational to ensuring the 
U.S. military is ready to meet the challenges of today and tomorrow.
                            what we must do
    The competitive military advantage we enjoy today is the result of 
capabilities developed by our Services in an era of unchallenged 
technological dominance. That era has now passed. Seventeen years of 
combat and seven years of budget instability have forced us to postpone 
modernization investments for the sake of near-term readiness. 
Meanwhile, our adversaries' investments in modernization have outpaced 
our own. As a result, the distinction between readiness and 
modernization has grown harder to discern. We must modernize now in 
order to be ready.
    Restoring our competitive advantage in an era of great power 
competition will require a joint approach to concept and capability 
development, an ability to leverage cutting edge technology and 
asymmetric solutions, and sustained and predictable budgets. 
President's Budget 2019 begins this restoration through targeted 
investments that develop the lethal, agile, and innovative Joint Force 
demanded by the threats of 2025 and beyond.
    The Service Chiefs recently briefed you on their investments in the 
lethality of their individual Services. The following are priority 
investment areas for joint warfighting.
    Nuclear. A safe, secure, and effective nuclear deterrent is 
essential to defending the Homeland. Starting in the early 1990s, the 
Joint Force deemphasized the role of nuclear weapons, reducing our 
nuclear forces in both weapon types and overall size, and trading 
nuclear strength for arms control. Other nuclear-armed states did not 
follow our lead, choosing instead to embark on modernization and 
expansion efforts.
    In accordance with the recently published Nuclear Posture Review, 
we will invest $24 billion in fiscal year 2019 to sustain and 
recapitalize the nuclear enterprise. This is a significant step in a 
23-year program to recapitalize the all three legs of our aging 
strategic triad, our non-strategic nuclear forces, and our command and 
control systems. Initial delivery of modernized bombers and dual-
capable aircraft (F-35s) is slated for the mid-2020s; we will achieve 
initial operating capability of modernized ground-based missiles in 
2029; and the first modernized ballistic missile submarine will be 
operational in 2031. Nuclear deterrence is the highest priority mission 
for the Joint Force, and a truly joint enterprise. There is no margin 
remaining in the modernization schedule--we must deliver these critical 
programs on the established timelines.
    Space. Unlike previous eras, when space was considered a benign and 
unchallenged environment, space is now a contested domain. The U.S. 
military depends on space-based capabilities to enable successful joint 
warfighting--specifically for intelligence collection; missile warning; 
weather monitoring; global communications; and precision positioning, 
navigation, and timing.
    Potential adversaries understand the advantages space provides, and 
they view our reliance on this domain as a vulnerability they can 
exploit. Our near-peer competitors are increasingly challenging our 
competitive advantage in space.
    We must bolster our space sensor architecture to improve our 
ability to characterize new and future threats. This budget builds on 
fiscal year 2018 investments with a focus on space resiliency and 
mission assurance. It accelerates procurement of the next generation of 
space-based infrared systems to field a modernized, resilient space-
based missile warning capability. Other investments focus on resilient 
systems for navigation, communications, and situational awareness. 
Given rapid advances in our adversaries' capabilities, the space domain 
will require continuous investment in future years.
    Cyberspace. Cyberattacks threaten our military, our economy, and 
our society. Although China and Russia remain the greatest threats to 
United States security, Iran, North Korea, and violent extremist 
organizations have all increased their capabilities and are 
aggressively conducting malicious activities in cyberspace. Most of 
these occur below the threshold of open warfare, but they are injurious 
nonetheless, and their implications for armed conflict are clear. 
Fiscal year 2019 cyber investments continue to prioritize defense of 
DOD information networks while improving offensive and defensive 
operations, building Cyber Mission Forces, and maturing command and 
control.
    Electronic Warfare (EW). From voice and data communication to 
surveillance and targeting, every Joint Force operation today relies on 
access to the electromagnetic spectrum. As with space and cyber, 
potential adversaries see this reliance as a vulnerability they can 
exploit. The proliferation of technology has made electronic attacks 
both cheaper and more effective. To preserve our advantage in EW, 
President's Budget 2019 invests in both offensive and defensive systems 
while exploring new concepts to maximize the effectiveness of our 
multi-domain EW capabilities.
    Missile Defense. Our missile defense systems serve to protect the 
Homeland, assure our Allies and partners, and deter adversaries. But 
the breadth of missile threats facing the Joint Force continues to 
increase in complexity and scope. Russia, China, North Korea, and Iran 
are all extending their operational reach and fielding larger and more 
capable arsenals. Their systems are increasingly mobile and resilient, 
with increased range and accuracy, expanding the risks they pose around 
the globe. Furthermore, they continue to develop means of complicating 
our missile defense operations. Among other investments and activities 
to counter this threat, we are increasing the number of Ground Based 
Interceptors and investing in additional Terminal High Altitude Area 
Defense and SM-3 interceptors.
    While developing and refining the capabilities that will restore 
our advantage in competitive areas like these, we must accelerate 
research and development and experimentation in important fields with 
military implications. President's Budget 2019 will see increased 
investments in technologies such as hypersonics, artificial 
intelligence, directed energy, and biotechnology. We will also continue 
to refine our acquisition systems to enable rapid fielding of new 
capabilities.
    Across the Joint Force, President's Budget 2019 starts, 
accelerates, or continues funding for critical modernization efforts. 
These programs will require years of sustained funding to deliver 
material results, but they are all vital to ensuring the future force 
is capable of defending the Homeland and advancing U.S. interests in 
the competitive security environment to come.
                               conclusion
    To implement the National Defense Strategy, the Joint Force 
requires sustained, sufficient, and predictable funding. The funding 
levels in the recent Bipartisan Budget Agreement are sufficient; I look 
forward to working with Congress to make our funding sustained and 
predictable so we can fully restore our competitive military advantage.
    President's Budget 2019 represents a significant investment in the 
lethal Joint Force the United States will need to prevail in future 
conflicts. We are committed to the responsible, disciplined, and 
transparent use of that investment. With your continued help and 
commitment, we will ensure we never send America's sons and daughters 
into a fair fight.

    Senator Inhofe. Thank you, General Dunford.
    Do you have a statement, Secretary Norquist?
    Mr. Norquist. I have no prepared statement.
    Senator Inhofe. All right. Well, thank you very much.
    There are some basic questions that are going to be asked, 
and I was going to get those out of the way first, one having 
to do with the INF [Intermediate-Range Nuclear Forces Treaty]. 
You know, when you get out of Washington and you talk to more 
normal people back home, the question is China is not a 
signatory to the INF. Russia is but they violate it. We are and 
we do not violate it. I would ask you, Secretary Mattis, do you 
think that currently as it stands, it becomes a unilateral 
limitation on the United States and our capabilities?
    Secretary Mattis. Senator Inhofe, it could become a 
unilateral limitation on us. However, at this point, we are 
trying to bring Russia back into compliance with the INF. That 
does not address the entirety of your question, of course, 
being that there are only two countries that have signed this.
    Part of the reason we are taking some of the steps outlined 
in the Nuclear Posture Review are to put Russia in a position 
to see a benefit to themselves to coming back in compliance. We 
will have to look more broadly at arms control, and I believe 
that as we modernize the nuclear deterrent, that will put our 
diplomats in a good position to initiate those discussions with 
the other countries that are not signatories.
    Senator Inhofe. Now, if Russia does not come back, though, 
as we are hoping that they will, into compliance, what 
situation would we be in then?
    Secretary Mattis. Senator, when nations do not live up to 
treaties, treaties are not sustainable. We would have to deal 
with that if we are unsuccessful.
    Senator Inhofe. That answers the question. I appreciate 
that.
    On end strength, one of the most critical parts of this 
budget--I am sure that Secretary Norquist would agree with 
that. As you point out, fiscal year 2018--it is going to be 
9,500. Then in 2019, 15,600, and up to 2023, up to 56,000. Now, 
it is already a problem in recruiting. So I would like to ask 
either you or the Secretary or General Dunford are you 
confident we are going to meet these goals because it seems to 
me like you can only do it through two ways, either retention 
or recruiting. What are your thoughts about meeting these 
goals? Pretty ambitious.
    Secretary Mattis. They are ambitious, Senator, especially 
in light of the improving U.S. economy. It is a totally 
volunteer force. We even call it a totally recruited force. Our 
recruiters have to be very assertive in getting out there and 
selling the military. I would tell you right now that the U.S. 
Army's retention has allowed them to actually lower their 
recruiting goal for this year because they are retaining more 
than they anticipated, which is a good sign. So I am confident, 
without lowering our quality standards, that we can maintain 
this modest increase of troops.
    I will pass it over to the Chairman for any thoughts he has 
on that.
    General Dunford. Senator Inhofe, I was going to highlight 
that I think the Army is a bellwether for all of us. We just 
actually had a conversation with the Army this week to talk 
about their reduction of their recruiting efforts as a result 
of high retention. But I think at the end of the day what the 
Secretary said is what we are all focused on and that is making 
sure that we are recruiting and retaining a high quality force.
    My judgment is right now from getting out and visiting the 
force, as well as discussing it with the chiefs, that today we 
are recruiting and retaining a high quality force. We do not 
take that for granted particularly in a competitive economic 
environment, but I think the size of the force right now can be 
sustained with quality people.
    Senator Inhofe. Do you agree with those numbers from now 
through fiscal year 2023?
    General Dunford. I do, Senator, because the focus in the 
budget this year and last year has been to make sure that the 
force we have is capable and lethal. And so these numbers that 
we are increasing really are filling holes to make the units 
that we have complete.
    Senator Inhofe. Now, lastly on the budget, the 2-year 
budget for fiscal year 2018 and 2019, I have to say it was a 
lousy budget. And it was a very difficult thing for me to vote 
for, and the only reason I did is the same reason that we are 
here meeting about this morning.
    So what I would like to have each of you do, primarily you, 
General Dunford--what would have happened instead of what we 
did, if we just went the normal CR route and since we are going 
to have to face this in the future and now is the time to start 
working for it because we are talking about fiscal year 2020 
and beyond--what will happen if we are successful in our goals 
for fiscal years 2018 and 2019 and we do not have the same 
opportunities to continue that for fiscal year 2020?
    General Dunford. Senator, thanks for that question.
    One of the things I think we all talk about a lot is our 
overall competitive advantage. And I think back in 2000, 2001, 
we could take it for granted that we had a competitive 
advantage over any potential adversary. That was particularly 
in our ability to project power anywhere in the world we needed 
to to advance our interests.
    What has happened over time is that competitive advantage 
has eroded, and if we had not had the budget in 2017, 2018, and 
2019 and the projections that we have beyond 2017 and 2018 and 
2019, I think what really is at risk overall is our competitive 
advantage over any potential adversary. I think that adversely 
affects the relationship we have with allies and partners. It 
adversely affects the deterrence against our potential 
adversaries, and clearly it would affect our ability to respond 
in the event that deterrence fails. I mean, I really there is--
in addition to the readiness issues and some of the other 
important issues that we discuss, the overall strategic impact 
of sequestration and not getting the budget that we had in 2017 
and 2018, I think really is our ability to project power and 
address all those areas I mentioned, assurance, deterrence, and 
responsiveness.
    Senator Inhofe. So from 2020 on, it would be a crisis if we 
did not----
    General Dunford. If we return to the Budget Control Act and 
sequestration levels, we would not have completed the recovery 
that we have been on. As you pointed out in the beginning, 
Senator Inhofe, the challenges that we have right now took us 
10 or 15 years to develop. It is going to take us more than 2 
or 3 years to recover from those challenges.
    Senator Inhofe. I understand that.
    You agree, I assume.
    Secretary Mattis. I agree, Senator, 100 percent, and as the 
ranking member pointed out, we have future capabilities we must 
develop now if we are going to carry out our responsibilities 
to those who sit before this committee in the years ahead. So 
the dangers we can see growing, and I think that we are going 
to have to maintain ourselves at the cutting edge of 
technology, organization, and combat lethality.
    Senator Inhofe. I agree, and I think we need to be starting 
to talk about that now.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Mr. Secretary, in the wake of the annexation of Crimea and 
the activity in Ukraine, Congress in the 2015 NDAA prohibited 
bilateral military cooperation with Russia, which at the time 
seemed to make perfectly good sense. At this moment, when we 
are in a very challenging situation in many areas of the world, 
would it make sense to review those provisions and give you 
more flexibility and ways in which you could conduct military-
to-military dialogue with Russia in certain situations?
    Secretary Mattis. Yes, Senator Reed, it would. And let me 
be very specific here. There is no national security waiver to 
what is referred to as the CAATSA [Countering America's 
Adversaries Through Sanctions Act] act, the specific act that 
says that if another nation buys military equipment from 
Russia, then we will not sell them ours. There are nations in 
the world who are trying to turn away from formerly Russian-
sourced weapons and systems like this. We only need to look at 
India, Vietnam, and some others to recognize that eventually we 
are going to paralyze ourselves.
    And so what we ask for is the Senate and the House pass a 
national security waiver in the hands of the Secretary of 
State. I am not asking for myself. Foreign policy is driven 
from Foggy Bottom. So if he has the waiver authority and I can 
go to him and show it is in our best interests and we get an 
internal management of this process, then it keeps us from 
being boxed in by the Russians.
    Senator Reed. Well, thank you, Mr. Secretary.
    Let me turn my attention now to Iran. At your confirmation 
hearing, Mr. Secretary, you indicated that when America gives 
her word, we have to live up to it and work with our allies, 
which was in my view confirmation of the strategic needs to 
stay within the confines of JCPOA. What is your position today, 
Mr. Secretary?
    Secretary Mattis. Senator, I can assure you there has been 
no decision made on any withdrawal from JCPOA. The discussions 
are ongoing in the National Security staff and those of us who 
are charged with that responsibility of giving the President 
advice, and it is going on today as we speak. There are 
obviously aspects of the JCPOA, of the agreement, that can be 
improved upon. We are working with our European allies on it at 
this time. And again, the decision has not been made whether we 
can repair it enough to stay in it or if the President is going 
to decide to withdraw from it.
    Senator Reed. I appreciate this, Mr. Secretary. The issue 
of repairing it, though, is unlikely to be fully accomplished 
by May 12th. Is it your position that if there is an ongoing 
effort to make such fixes to the agreement that we should stay 
within the bounds?
    Secretary Mattis. Yes, sir. We would have to look at what 
degree of fix we anticipate is achievable and then put that 
alongside America's broader interests and decide if it is 
worthy or not.
    Senator Reed. Thank you.
    And, Mr. Chairman, General Dunford, you similarly indicated 
that there would be consequences with withdrawing from JCPOA in 
many dimensions. One would be our allies would be less likely 
to cooperate with us countering destabilizing activities in the 
region. And you seem to indicate a preference for remaining 
within JCPOA. Is that still your position?
    General Dunford. Senator Reed, when I look at it through 
the military dimension, the thing that I have been bringing to 
the debate is making sure that whatever we do, we have a 
framework for dealing with all of the elements of the 
challenges we face from Iran. So it is the nuclear threat. It 
is the missile threat. It is the cyber threat. It is the 
maritime threat. And it is the sponsorship of proxies. So at 
the end of the day, it will be the President's decision as to 
what the framework is for dealing with all those challenges. My 
role is to try to highlight those challenges and to make sure 
that whatever decision is made addresses them as effectively as 
we can.
    Senator Reed. Thank you, General.
    Mr. Secretary, there has been an unfortunate escalation of 
the cycle of violence between Israel and Iran and their proxies 
in Syria beginning in February with the shooting down of an 
Iranian drone over Israeli airspace, which is appropriate, and 
then strikes against targets within Syria which seem to be 
Iranian Hezbollah cooperative endeavors that could pose a 
danger to Israel.
    Is there a significant risk of escalation at this moment 
that would not only engulf Syria but spread throughout the 
region?
    Secretary Mattis. A complex question. I believe the short 
answer is yes, Senator. I can see how it might start. I am not 
sure when or where. I think that it is very likely in Syria 
because Iran continues to do its proxy work there through 
Lebanese Hezbollah there and over into Lebanon. And so I could 
imagine this sparking something larger.
    Senator Reed. One other, if I may, just quickly. The Assad 
regime continues to consolidate its position. One area which is 
still under the control of rebel forces is the southern border 
against Jordan. If they move there, which some people indicate 
they might, would that be another sort of pressure point in 
terms of not only Jordanian but Israeli counter-reaction?
    Secretary Mattis. Assad's continued presence and his 
forces' presence in light of what they have done over several 
years to their own people, and then when you look at them 
hosting Lebanese Hezbollah, any kind of position like that 
along the southern border is a direct threat against Jordan, 
against Israel, and it is something we are going to have to 
address. We are trying to do that through the diplomatic 
process, the UN [United Nations] process, which is referred to 
as the Geneva process, but to date that has not been availing.
    Senator Reed. Thank you very much.
    Senator Inhofe. Thank you, Senator Reed.
    Senator Wicker?
    Senator Wicker. Mr. Secretary, just a quick follow-up on a 
question Senator Reed asked. Can you give us any guidance as to 
when a decision might be made about the JCPOA?
    Secretary Mattis. Yes, Senator. I believe it will be made 
before the 12th of next month.
    Senator Wicker. Thank you.
    Mr. Secretary, the Ships Act makes the 355-ship Navy the 
official policy of the United States of America. This enacts in 
statute a requirement that came down to us from the admirals 
and generals, not something that we arrived at here at the 
congressional level. Do you agree that the 355-ship requirement 
is now the official policy of the United States?
    Secretary Mattis. I do, Senator.
    Senator Wicker. In terms of getting there, the target date 
was an unacceptable period in the 2050s. Recently a decision 
was made to extend the lives of some destroyers. That moves it 
to the 2030s. What do you need from us, and what are the plans 
in the Pentagon for moving that date even earlier?
    Secretary Mattis. Well, as we try to balance the force, 
sir, if you gave me all the money in the world, I would go for 
it in the next 5 years, of course. Right now, we are trying to 
balance inside the administration. But for right now, we are 
trying to balance solvency and security because solvency is 
critical to the long-term national security of our Nation. But 
at the same time, we are asking for this year 3.1 percent of 
GDP, and we believe the Nation can afford that and perhaps even 
increase that. That would depend, of course, on the level of 
taxation you are willing to put in because we should not be 
growing the national debt further, but at the same time, what 
part of that tax base you are going to commit to national 
defense. I believe we are moving toward a more maritime 
strategy in terms of our military strategy to defend the 
country. It is the nature of our time, and so I would be 
supportive if the Senate found a way to increase the 
shipbuilding budget.
    Senator Wicker. Work with us on ideas about getting there, 
sir.
    Let me just ask you then my final question. The RAND 
reports concluded actually some very alarming verbiage, that 
the United States military would have difficulty deterring and 
defeating a Russian conventional attack in the Baltics. The 
committee has previously received testimony that United States 
ground forces are outranged, outgunned, and overmatched. Our 
own General Scaparrotti, the Commander of United States 
European Command [EUCOM], has testified that, quote, the ground 
force permanently assigned to EUCOM is inadequate to meet the 
combatant command's directed mission to deter Russia from 
further aggression.
    Now, the Chairman of the Joint Chiefs just testified that 
we still have a competitive advantage over any adversary and 
that our strategy is designed to keep that strategy from 
eroding.
    So I do not want to scare the American public, and I do not 
want to alarm our allies. But is General Scaparrotti correct? 
Is the RAND report correct? Is it a little more alarming than 
our Chairman of the Joint Chiefs just said about an eroding 
competitive advantage?
    Secretary Mattis. Senator, I believe that we can all see 
the growing threat that Russia has chosen to be. It has chosen 
to be a strategic competitor. NATO opened the door to a 
partnership of sorts. I still remember Russian marines and 
United States marines training in Camp Lejeune for UN 
peacekeeping missions back in the late 1990s-early 2000s. That 
is a long distant memory as they have chosen to do what they 
have done in the Ukraine and Crimea, with cyber against our 
elections. I can go on, as you know. And you have seen 
significant expulsion of diplomats, sanctions put on Russia by 
this administration.
    I believe we do have a competitive advantage today. It is 
important we expand it over the Russians. They have a 
geographic advantage that my geographic combatant commander is 
rightly looking at. But looking at it more broadly, as we 
address this, America is more capable than any nation of 
expanding the competitive space against something like a ground 
attack into the Baltics. There are a number of ways, 
symmetrical and asymmetrical, we can make this a very, very 
tough problem for the Russians. We do that by, with, and 
through the NATO alliance, by, with, and through our whole-of-
government effort, everything from the Treasury Department to 
the State Department.
    So I think you have to look beyond the geography is my 
point, Senator Wicker, to get the whole understanding of the 
situation. I am not dismissing any of General Scaparrotti's 
concerns, but we have strengths.
    Senator Wicker. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Sometimes I feel like a broken record on contracting. I am 
going to try to keep my blood pressure down during my 
questioning today because today we are issuing a report from 
the minority staff on the Committee of Homeland Security and 
Government Affairs looking into another egregious contracting 
problem at the Pentagon. I would ask that this report, Fast 
Cars, Easy Money, be entered into the record, Mr. Chairman.
    Senator Inhofe. Without objection.

    Please see Appendix A for information referred.

    Senator McCaskill. I first would like a commitment from 
you, General Dunford, that you will read this report in its 
entirety.
    General Dunford. I will do that, Senator. And I am familiar 
with the report and with your engagement and what the Army has 
done as a result of your engagement.
    Senator McCaskill. Secretary Mattis, will you read the 
report, please?
    Secretary Mattis. I have no reservations. I am a voracious 
reader of these kinds of things.
    Senator McCaskill. I know you are.
    Secretary Norquist?
    Mr. Norquist. I always enjoy reading audit reports, 
Senator.
    [Laughter.]
    Senator McCaskill. You and I have that in common. And if 
the audit reports had been read on a timely basis, we would not 
have taxpayer money paying for a Bentley, Alpha Romeo, Aston 
Martin, Porsches for executives of a subcontractor on the 
legacy contract in Afghanistan. We would not have the CEO 
[Chief Executive Officer] and the COO's [Chief Operating 
Officer] wives getting salaries averaging $190,000 a year with 
absolutely no evidence of them doing any work.
    You would know, if you had read all the audit reports, as 
my staff has, and asked the questions, that in fact the 
subcontractor not only directed the Pentagon towards this 
contract, they got most of the work under the contract, and 
that there was involvement in the Pentagon in helping steer 
this contract to the subcontractor. You would know that they 
figured out a way to find a contracting vehicle that they would 
not have to compete.
    The insulting thing about this is they found a contracting 
vehicle that was for R&D [research & development], asking for 
hard science proposals. Hard science proposals. In a 150-page 
solicitation for hard science proposals, the HUMINT [human 
intelligence] was mentioned one time, one word, human 
intelligence. They used that one word to pretzel that proposal 
into an ongoing mentoring program for Afghan intelligence 
capabilities in theater. Hundreds and millions of dollars. And 
audit after audit has said they cannot even find any metrics 
that they made any progress.
    I know there are criminal investigations going on. But the 
question I have to ask, as I have asked repeatedly in this 
committee, is what is wrong with the debarment process. This is 
the whip cream and cherry on top of this incredible scandal. 
They are still a contractor. They are getting taxpayer money as 
we speak. Why in the world, when you have audit evidence of 
this kind of egregious--I do not know at what point it becomes 
criminal or just gross mismanagement by the Pentagon. I do not 
know at which point it is criminal activity or not. But I do 
know this that there is enough evidence in the audit reports, 
Secretary Norquist and Secretary Mattis and General Dunford, 
that these people should not be anywhere near one dime of 
taxpayer money.
    So I would like somebody to respond to me why in the world 
we are still doing business with these crooks.
    Secretary Mattis. Senator, I will not take issue with a 
single word you said. The contract was awarded in 2012. The 
SIGAR [Special Inspector General for Afghanistan 
Reconstruction] report that alerted at least at the secretarial 
level was released in 2017. There is the ongoing investigation, 
and because it may result--will likely result in criminal 
charges, we cannot go into a lot of detail in public because we 
are not supposed to when something is under an investigation. 
But there is not a word you just said that I would take issue 
with.
    Senator McCaskill. I really appreciate that, Secretary 
Mattis. There are two things I would ask of you, of all of you, 
and I would hope that I could get answers on those as quickly 
as possible, and if it has to be in a setting where we can talk 
about the criminal investigation, one, is how quickly they can 
be debarred because there is nothing in the law prohibiting you 
from debarring them right now. There is nothing in the criminal 
investigation that requires a wait for debarment. So I want to 
know how quickly they can be debarred.
    And secondly, I want to know a list of everyone who 
currently works for the United States military who should have 
hands on this and did not, whether it is a CORs [Contracting 
Officer's Representative] representative or whether it is 
somebody at this office that this bizarre contract came out of. 
But clearly, somebody over there said, hey, we can use this and 
we can get you the money.
    These guys have burrowed in. They have burrowed in at the 
Pentagon. I have seen this before, and you guys know what 
happens. Somebody builds a relationship and before you know it, 
hundreds of millions of dollars are flying around, and frankly 
nobody is paying close enough attention. Somebody's head has 
got to roll on this, and I need a list of people that are going 
to be held accountable for this happening.
    Secretary Mattis. I just got to be careful saying 
individually before the investigation is done----
    Senator McCaskill. I understand.
    Secretary Mattis.--because that could end up----
    Senator McCaskill. I understand. I have confidence in you, 
Secretary Mattis, that we will get to the bottom of it.
    Secretary Mattis. I know.
    Senator McCaskill. But I will tell you I am not going to 
shut up about this until somebody is held accountable for 
people driving Bentleys. We are losing soldiers. Families are 
sacrificing. We are worried about their benefits and their pay. 
And some jerk is driving a Bentley in the UK [United Kingdom] 
on taxpayer money. If it does not make everybody upset, then 
something is wrong with them. So let us get busy on this and 
figure out whose head needs to roll because if somebody is not 
held accountable for letting this happen, it is going to keep 
happening.
    Secretary Mattis. Senator, 100 percent with you on this. 
You will notice last year when I came up here for confirmation, 
I talked about business reform. This year, alongside business 
reform, is accountability. I have learned the lesson since I 
got there, and that is now right alongside business reform is 
accountability for every dollar. So we are with you. I wish I 
had been in the job in 2012 is all I can tell you.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator McCaskill.
    Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for your appearance 
here today and for your continued service to our country.
    Secretary Mattis, I want to return to a few points you made 
in your opening statement about the budget picture, about the 
budget levels and certainty. So this Congress passed a 2-year 
budget a couple months ago. We passed a spending bill that 
implemented the first year of that budget. That means we have 1 
more year on that 2-year budget to pass.
    How important is it to the Department of Defense that the 
Congress pass a DOD appropriations bill in a timely fashion 
this summer as opposed to having a continuing resolution as we 
approach the end of this fiscal year on September 30th?
    Secretary Mattis. Senator Cotton, one of the ways we avoid 
the situation that Senator McCaskill just brought up is having 
a methodical approach to reviewing every dollar going out. 
Obviously, the narrower the window to spend the money, the 
increased workload during that period. So it is critical, and I 
think that budget certainty also reverberates into American 
industry as we try to rearm the country with the modern 
capability. They cannot do that in their responsibility to 
their shareholders unless we give them that predictability.
    Senator Cotton. Thank you.
    Well, since we have the top line number for fiscal year 
2019, I hope that we will have the cooperation to pass a DOD 
appropriations bill this summer in a timely fashion rather than 
see the filibusters that have occurred in the past.
    Looking out a little bit further, that 2-year budget deal 
only lasts 2 years. We are now less than 18 months away from 
fiscal year 2020, in which case the Budget Control Act caps and 
potential sequestration return. How important is it to the 
Department of Defense that we act now to eliminate the prospect 
hanging over your head that the BCA caps and sequestration may 
return in October of 2019?
    Secretary Mattis. Again, we need that predictability, sir, 
so that we can actually put a strategy into effect. It was 
noted in opening comments by the committee if you do not have a 
budget that reflects the strategy, it does not work.
    I like quantifying problems to the degree possible. If this 
were to go into effect, the first cut would be $85 billion in 
fiscal year 2020. That means the strategy is not sustainable. 
The strategy is designed to protect America and our interests. 
I cannot provide you the same strategy. I would have to go back 
and rewrite it. There would be reductions in what we are able 
to do.
    Senator Cotton. Thank you.
    I want to turn now to a question that Senator Reed raised 
about the Countering America's Adversaries Through Sanctions 
Act and the specific point about a national security waiver. As 
you mentioned, two specific countries, India and Vietnam, that 
have legacy Russian systems--they might face real challenges 
going cold turkey, so to speak, under CAATSA. So you are 
suggesting the national security waiver as a way that this 
Congress can empower soon to be Secretary Pompeo to address the 
concerns that you have with those two countries. Is that right?
    Secretary Mattis. That is correct. There are other 
countries. Indonesia, for example, is in the same situation 
trying to shift to more of our airplanes, our systems, but they 
have got to do something to keep their legacy military going.
    Senator Cotton. How urgent is it that Congress pass that 
kind of waiver?
    Secretary Mattis. Sir, every day Russia is in a position 
basically to checkmate us with what they are doing. It is 
urgent.
    Senator Cotton. Would you recommend that we try to do so in 
this year's National Defense Authorization Act?
    Secretary Mattis. Absolutely.
    Senator Cotton. There are only so many countries in the 
world, and only so many of those use Russian legacy systems 
that are defense partners. Should we just have a list of 
countries that soon to be Secretary Pompeo might want to 
consider? Is there a certain degree of criteria that we should 
use instead?
    Secretary Mattis. Sir, I would just put in a reporting 
requirement that we keep the Congress informed every time we 
exercise it. I would not make it where we have to come back to 
Congress in order to add to it. In the dynamics of today, 
issues can shift countries very, very quickly, Senator Cotton, 
as you know, and we want to move when we see the opportunity at 
the speed of relevance.
    Senator Cotton. Thank you.
    I want to turn now to the Nuclear Posture Review and an 
exchange you and I had in a classified setting. There is 
nothing classified about my question or your answer, though. I 
simply want to have it on the record here.
    The Nuclear Posture Review did not include a foreswearing 
no first use doctrine, which we have never done in our nuclear 
history going back to 1945. It also advocates for a new sea-
launched cruise missile, which we had as recently as 8 years 
ago, for a low-yield sea-launched warhead. We have numerous 
low-yield warheads currently in our inventory.
    The bottom line, Secretary Mattis, is there any concept 
doctrine or capability in the new Nuclear Posture Review that 
is novel or inconsistent with 73 years of nuclear doctrine and 
practice for the United States?
    Secretary Mattis. No, sir. It is a continuity of our 
nuclear deterrent framework that you see, but it is also an 
adaptation so that that deterrent is fit for anyone who thinks 
that they have created something that they could then give us 
the option of either surrender or suicide. We want to make 
certain the deterrent works against any attempted use of these 
weapons.
    Senator Cotton. Thank you.
    Senator Inhofe. Thank you, Senator Cotton.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Secretary Mattis, General Dunford, and Secretary 
Norquist, for being here and for the work that you do every day 
for this country.
    Secretary Mattis, the National Defense Strategy 
deemphasizes the importance of counterterrorism and 
counterinsurgency operations. There have been, however, a 
number of reports lately that have suggested that we are 
actually expanding our special operations footprint in Africa, 
a report over the weekend about the drone base that is being 
built in Niger.
    Can you talk about what the long-term mission of our troops 
in Niger is and how we are going to measure the success in 
accomplishing this mission? I think it is particularly timely 
given that the report on the deaths of our four servicemen in 
Niger is coming out this week.
    Secretary Mattis. While at the same time we are 
deemphasizing irregular warfare, counterinsurgency is the 
primary challenge to us as the realities of other nations that 
are choosing to be strategic competitors raise their game. At 
the same time, as we pointed out, the paradox of war is the 
enemy always moves against your weak area. So in terms of 
counterinsurgency in particular, we are going to do this fight 
by, with, and through allies because most of the time they know 
the terrain better. It is an intensely, I would call it, fight 
among innocent people in many cases. It is a fight where 
cultural understanding is important. our special forces are 
ideally suited for that sort of thing, working with foreign 
forces, what we call foreign internal defense.
    The last administration in Africa began the airfield 
construction, and you need to understand here that had the 
French not moved when they did in Mali, if they had waited--as 
President Hollande put it in those days, if they wait for the 
international community, Mali is going to fall. So they moved 
quickly and since that time, the last administration and this 
administration, by, with, and through our allies, support the 
French leadership. They have over 4,000 troops there. The 
number we have there has grown. Many of them are construction 
troops that are constructing the airfield. They will come out 
when that construction is done. And we will continue to support 
the French leadership of the African nations that are fighting 
Boko Haram, al Qaeda in the Mahgreb, forces like that in what 
we call the trans-Sahel.
    Senator Shaheen. And so do you see us continuing to expand 
the footprint in Africa and sending more troops there?
    Secretary Mattis. I do not see any significant increase. 
There could be temporary increases as we work with a 
counterterrorism force in one of the countries that needs to be 
brought up to a higher level of capability because the enemy is 
trying to move out of the trans-Sahel into their area. As you 
know, it is a transnational enemy. So we have to be able to 
react. But I do not see a significant upgrade. Again, it is by, 
with, and through allies. That is not something that calls for 
large numbers of U.S. troops. The French, for example, are 
providing by far the bulk of the troops in that part of the 
world.
    Senator Shaheen. I understand that NATO is not going to 
rule out invoking article 5 of its charter should one or more 
member nations find themselves under a serious cyber attack. 
Can you clarify under what circumstances article 5 might be 
invoked in the case of a cyber attack?
    Secretary Mattis. It would be a hypothetical, as you 
understand, Senator. But I think that as we come to grips with 
cyber, if they get to the point of having a massive attack with 
cyber, I mean, one that threatens life, that shuts off the 
power to hospitals and communities in the middle of winter, 
obviously that would be a significant attack. But it would have 
to be weighed against all the other things that could be done 
too. Even then, it does not mean the only response is military. 
There might be better economic responses to whoever did it. As 
you know, attribution is always a challenge in these things. So 
we would have to make sure we are firing on the right target, 
whether it be with economic sanctions, with military responses, 
or whatever it took. But to go into the article 5 arena, it 
would have to be very significant.
    Senator Shaheen. Thank you.
    There have been a number of comments made by the President 
in the last month or so about withdrawing troops from Syria. If 
we withdraw our troops from Syria now, will we have finished 
the fight against ISIS?
    Secretary Mattis. Right now, Senator, we are not 
withdrawing. You will see a reenergized effort against the 
middle Euphrates River valley in the days ahead and against the 
rest of the caliphate, the geographic caliphate. You will see 
increased operations on the Iraq side of the border. The French 
have just reinforced us in Syria with special forces here in 
the last 2 weeks. This is an ongoing fight right now.
    Senator Shaheen. So we need to stay there in order to 
finish the fight against ISIS.
    Secretary Mattis. We are there with the other 70--I think 
it is 73 nations and international organizations, NATO, Arab 
League, INTERPOL, plus 70 of the most important nations on 
earth in terms of capability. We are continuing the fight. We 
are going to expand it and bring in more regional support is 
probably the biggest shift we are making right now.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Shaheen.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your exceptional service. I 
think it gives us a lot of confidence on some of the big 
challenges we have before us.
    In particular, I want to commend you, Mr. Secretary and 
General Dunford on the National Defense Strategy. As you 
probably see here from Senator Reed's comments and others, 
there is a strong bipartisan support for that document. I think 
that is a really important achievement. So thank you for that.
    In particular, the emphasis on allies in the National 
Security Strategy document is very important, certainly as you 
mentioned time and time again, Mr. Secretary, one of our most 
important strategic advantages. We are an ally-rich nation and 
most of our adversaries or potential adversaries are ally-poor. 
Are we in Congress doing enough? And is the Trump 
administration doing enough to deepen our current alliances and 
expand them, as you so frequently talk about? What more could 
we do if we are not?
    Secretary Mattis. Right. The most immediate effort is what 
Senator Cotton brought up here about the CAATSA and getting a 
national security waiver so that we can embrace new allies or 
partners when they are ready basically to see the way forward 
alongside us. That would be a critical enabler.
    Are we doing enough? Some journalist, who did not have a 
very rich nightlife, called and she told me that I used the 
word ``allies'' 124 times in the National Defense Strategy.
    Senator Sullivan. We noticed.
    Secretary Mattis. Yes, sir. It is not subtle. It is not 
meant to be subtle. We are going to do, whether it be the 
fighting in Africa, by, with, and through them. I think 
anything you can do to make it an open door for allies--and I 
realize sometimes those allies do not share all of our values. 
But if they are security allies, if they are allied with us on 
security, and if you look at our record over many years of 
creating democracies and reinforcing democratic impulses when 
our troops are engaged--I need only point to South Korea and 
the very vibrant democracy they are today. Yet, there was at 
one time a move to keep us away from South Korea, to pull us 
out of South Korea because it was a dictatorship. I think we 
have got to be willing to work with imperfect allies while 
being never reticent about what our values are and what we 
stand for. And your support in that area would be very helpful, 
Senator.
    Senator Sullivan. Thank you.
    Let me turn--you have some difficult challenging decisions 
ahead of you. The whole administration does on the JCPOA, North 
Korea. Let me just mention a few things to consider, and if you 
would like to comment on them. You know, Senator Reed mentioned 
a number of things about America giving her word.
    There was a number of us who thought this was such an 
important document that it should have come to the Senate as a 
treaty. It did not come that way. And interestingly a 
bipartisan majority of U.S. Senators actually did not approve 
of the JCPOA. A bipartisan majority of House members did not 
approve of the JCPOA. As a matter of fact, it is the first time 
in U.S. history that an agreement of this magnitude was 
approved, quote/unquote, by the Congress by a partisan minority 
of Senators and House members. So I think it is important to 
caveat the idea of America's credibility when this body--our 
credibility is not on the line.
    Similarly, everybody talks about our allies and how 
important it is to our allies. But as you know, Mr. Secretary, 
a lot of our key allies, Israel, Gulf Arab nations, were also 
not supportive.
    And let me mention one other thing that I know you two in 
particular have some, unfortunately, firsthand experience with. 
The issue of what degree we can trust the Iranian leadership I 
think should also be considered. Chairman Dempsey was here 2 
years ago I believe and testified. I forgot the exact number, 
but the sophisticated IEDs [improvised explosive devices] that 
were supplied to Iraqi Shia militias by the Iranians killed or 
wounded over 2,000 American troops in Iraq. You gentlemen were 
witness to this carnage during your military service.
    Have senior Iranian leaders ever admitted this? And can we 
trust a country that does not admit this and was responsible 
for the deaths of so many of our finest young men and women 
that they have never admitted?
    I know I have thrown a lot of things: allies, credibility, 
trust. But they are all things that we think are very important 
to consider and I do not think get the attention they deserve 
when the JCPOA is being reexamined.
    Secretary Mattis. Well, we all recognize the JCPOA was an 
imperfect arms control agreement.
    Senator Sullivan. And was not supported by the Congress.
    Secretary Mattis. Yes, sir. I understand, Senator.
    And I think that their use of denial and deception to hide 
their nuclear weapons program--not their nuclear program, their 
nuclear weapons program--over many years have them in a 
position of being suspect. I have read it now three times, all 
156 pages or whatever it is, including since I got into this 
job, I was able to read the short classified protocol. And I 
will say that it is written almost with an assumption that Iran 
would try to cheat. So the verification--what is in there is 
actually pretty robust as far as our intrusive ability to get 
in, IAEA [International Atomic Energy Agency] to get in, that 
sort of thing. Whether or not that is sufficient I think is a 
valid question.
    I also recognize that some people point out that this could 
impact the North Korea negotiations. But I would say in that 
case, in light of Kim's family and himself breaking every 
international treaty, every agreement they have ever made, 
whether it be with the Republic of Korea or with the United 
States, I am less concerned with that ripple effect right now. 
I think we need to focus on what is in the best interest of 
Middle East stability and the threat that Iran poses, as the 
chairman pointed out, with this nuclear program if it does not 
get extended and maintain the verification, intrusive 
verification that we need, but also look at what they are doing 
with their support for terrorism from Bahrain to Yemen, from 
Syria to Lebanon and elsewhere, their maritime threat, their 
cyber threat. We have got to look at all these things, sir, as 
a whole, but at the same time focus on this imperfect arms 
control agreement and determine if that is in our best 
interest.
    Senator Sullivan. Trust factor?
    Secretary Mattis. I think trust but verify would be an 
exaggeration. I think it is distrust and verify.
    Senator Sullivan. Thank you.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Dunford, your fellow chiefs have told me that they 
are not aware of any instances of issues with unit cohesion, 
morale, and discipline as a result of open transgender service. 
Have you heard of any such incidents?
    General Dunford. Senator, thanks. I would not typically 
hear of individual cases of cohesion or discipline issues.
    Maybe just a comment on transgender. For me, the issue with 
transgender has never been about cohesion or discipline anyway. 
It was just about any individual, regardless of circumstances, 
being able to meet the physical and mental qualifications of 
being worldwide deployable. So if an individual is serving 
without accommodation, then I do not think I would expect to 
see discipline or cohesion issues in that unit.
    Senator Gillibrand. During our last discussion on this 
topic, you said that you would treat all servicemembers, 
including transgender servicemembers, with dignity and respect.
    The recommendations on transgender service and the 
accompanying panel report were released as part of the DOJ's 
[Department of Justice] filing on Friday night. Servicemembers 
found out in the news that the Department had submitted a 
report that cast dispersions on their fitness to serve, implied 
they could harm the lethality of the force, and left their 
futures in the military up in the air.
    Do you think this rollout accords transgender 
servicemembers with the dignity and respect they deserve?
    General Dunford. Senator, one thing we have tried to 
clarify for our men and women that are current serving is 
that--and I cannot talk about any changes in the policy. But 
one thing that did not change was the status of the men and 
women that are currently serving.
    Senator Gillibrand. That is not the impression the report 
leaves.
    Do you know whether this has created anxiety among these 
troops? Have you met with any transgender troops given this 
report?
    General Dunford. I have not since the report was released, 
Senator.
    Senator Gillibrand. I recommend that you do so so you are 
more informed.
    Secretary Mattis, one of the things that struck me about 
your panel's report was its claim that, quote, unlike past 
reviews, the panel's analysis was informed by the Department's 
own data and experience obtained since the Carter policy took 
effect. That is why I have been asking the chiefs about unit 
cohesion. In fact, General Milley put it with regard to the 
Army as precisely zero instances of units with less unit 
cohesion, morale, and discipline.
    I am very concerned about this report because it says that 
there is, quote, scientific uncertainty surrounding the 
efficacy of transition-related treatments for gender dysphoria. 
Yet, the American Medical, Psychological, and Psychiatric 
Associations have all said the report misrepresents what is the 
scientific consensus when it comes to gender dysphoria and 
transition. In fact, despite the report's stated concerns about 
deployability of transgender servicemembers because of gender 
dysphoria or associated medical care, a report being issued 
today by the Palm Center here, which I am going to give to you 
so you can read in full, says that, quote, out of 994 
servicemembers diagnosed with gender dysphoria in 2016 and the 
first half of 2017, 40 percent deployed in support of Operation 
Enduring Freedom, Operation Iraqi Freedom, or Operation New 
Dawn, and only one had an issue during that deployment.
    It appears that this report that your Department has issued 
is not based on the Department's data or science but rather, 
quote, potential risks that the authors cannot back up. In 
fact, this seems to me to be the same uninformed and unfounded 
concerns that led to the opposition of repealing don't ask/
don't tell, integrating women into the military, integrating 
African Americans into the military. I think you need to do a 
lot more work on this topic to inform yourselves.
    What is so different about transgender service that makes 
you think that though the data and medical science do not 
justify it, transgender service will harm the readiness and 
lethality of our force?
    Secretary Mattis. Well, Senator, I regret the way you 
characterize it. I would remind you that when I came into this 
job, I said I do not come in with a preordained or agenda to 
change something. I am in to carry three lines of effort 
forward. One of them was to create a more lethal military. And 
I believe that service in the military is a touchstone for 
patriotic Americans. The military protects all Americans' 
freedom and liberty to live as they choose, and we are proud of 
that.
    Seventy-one percent of 18 to 24-year-old men and women in 
this country do not qualify for medical, legal, behavioral, 
intellectual reasons to enlist as a private in the U.S. Army. 
Seventy-one percent.
    In this case, I was meeting with the Service Chiefs and the 
Chairman--not the Joint Chiefs, the Service Chiefs--last 
spring, and they were asking me questions because we were 
coming up on the advent of the induction of transgender. They 
wanted to know how they were going to deal with certain issues 
about basic training, about deployability. I said, did you not 
get all of this when the policy came out? The Carter policy we 
call it. They said no. And I said, well, did you have input? 
They said no, they did not.
    So I convened that panel. That panel was made up of combat 
veterans, the vice chiefs of the services, and the under 
secretaries. They called together transgender troops. They 
brought in commanders of transgender troops, and they brought 
in and listened to civilian and military medical experts who 
have provided care for transgenders both in the military and 
outside. And I gave my 44-page advice. I would like to have it 
entered, Chairman, for the record.
    Senator Gillibrand. And a list of all experts you 
consulted, please.
    Secretary Mattis. Pardon?
    Senator Gillibrand. I would like a list of all the experts, 
medical experts, that were consulted for that report, please.
    Secretary Mattis. Right now, this is under litigation. I 
will see what I can provide or when I can provide it. I will do 
that, Senator.
    [The information referred to follows:]

    I am unable to provide details regarding the names of individuals 
who advised or provided information to the Panel of Experts because 
this matter is subject to ongoing litigation in multiple federal courts 
in which the government is asserting privileges, lodging objections to 
requests for information, and relying on existing protective orders to 
ensure robust deliberation and protect confidential and sensitive 
information. However, the Department's Report and Recommendations on 
Military Service by Transgender Persons describes the process and the 
categories of individuals the Panel consulted (pages 17-18) and 
provides a thorough explanation of the Department's recommendations 
(pages 32-43).

    But at the same time, basically my responsibility is to 
give the best advice I can for making a lethal force. And I 
think that right now the Carter policy is still in effect, and 
we have the four cases being litigated.
    Why these issues like this would not come to the Service 
Chief level during this was a very, very, I would call it, 
newsworthy situation. The reason is that under the Carter 
policy, the reporting is opaque. We cannot report that a 
problem emanated from a transgender. We cannot under the Carter 
policy do that. So the question you have asked the Service 
Chiefs and the Chairman are ones that right now the Carter 
policy prohibited that very information from coming up because 
it is private information. And it is specifically called out in 
his policy statement. So it is impossible for them to have 
responded to you.
    And I would just say that right now we look at medical 
conditions. If gender dysphoria has anxiety or it has some kind 
of depression, we do not allow anyone in with that. I would 
have to make a special category that said you can have these 
disqualifying factors only if you are transgender, and then we 
can bring you in. I think you understand why we have not chosen 
to do that.
    Senator Inhofe. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Secretary Mattis, in last year's NDAA, Congress required 
the Department to evaluate whether existing cruise missile 
systems could be converted into a ground-launched version as 
part of our response to Russia's violation to the INF Treaty. 
The Department's response, which was a letter from Under 
Secretary Lord, was sent to the committee 2 weeks ago. And it 
states that DOD is in the early stages of identifying the 
system requirements and is therefore unable to conduct an 
assessment at this time.
    I know the Department is moving forward on a broader effort 
beyond just a ground-launched cruise missile, but I am 
concerned about the urgency of our response because, as we both 
know, we can spend the next 3 years defining requirements and 
analyzing alternatives and not conduct any actual research and 
development.
    So I would just ask, what is your expected timeline for 
moving forward on this, and have you set any kind of internal 
goals to ensure that we do not spend years in this preliminary 
stage?
    Secretary Mattis. It is a very applicable question. What we 
are doing right now--as you know, we once had a sea-launched 
nuclear cruise missile. We took those off after the Berlin Wall 
and the years afterwards, off the Navy ships. So by going back 
to a weapon that we had before, there is a fair amount of 
already sunk technology costs that we will not have to redo, 
will not have to come back up and ask for again.
    I need to get back to you on the specific timeline. But 
remember what we are trying to do here, Senator, is to put our 
diplomats in the strongest position to force the Russians back 
into compliance. I have been personally engaged with a high-
ranking Russian on this issue, and I would just tell you that 
the NATO allies are also increasingly taking this message to 
Moscow. But we are going forward with this, and I will have to 
get back to you with a timeline. It is a very good question. I 
do not have the answer but I will get it.
    [The information referred to follows:]

    The Department of Defense is developing options for pursuing 
Intermediate-Range Nuclear Forces (INF) Treaty-compliant research and 
development (R&D) of conventional, ground-launched, intermediate-range 
missile systems that would not be compliant with the Treaty if produced 
or tested. These options will enable the Department to initiate R&D on 
specific concepts and includes development of a timeline for the 
capability that will be consistent with the overall USG strategy. The 
Department is refining the options for leadership consideration in the 
next several months. After I have a chance to review these proposals, I 
will get back to you with a more detailed timeline. The Department 
appreciates Congress's continued support in our efforts to respond to 
Russia's violation of the INF Treaty in a way that maximizes pressure 
on Russia to return to full and verifiable compliance with its INF 
Treaty obligations while placing the United States in a stronger 
position should Russia ultimately cause the INF Treaty to collapse.

    Senator Fischer. I would really appreciate your sense of 
urgency because, as we all know, the Russians were in violation 
4 years ago on that treaty. And I agree with you and obviously 
Congress agrees with you as well that a response is necessary. 
The administration has also stepped forward on that. So thank 
you.
    Also, Russia continues to expand the scope of its malign 
activities in Syria. It is building up installations. It is 
aiding the regime. It is expanding its footprint in the 
country. And recent reports have also suggested that Russian 
forces are jamming United States unmanned aerial vehicles. They 
are conducting electronic warfare operations against the EC-130 
aircraft.
    Are the Russian forces actively harassing American forces 
in Syria? And what do you believe is an appropriate response, 
if you agree that they are?
    Secretary Mattis. I cannot target the responsibility to the 
Russians right now. As you know, it is a crowded battlefield, 
and it has also got Iranians there and, of course, the regime 
forces as well.
    But you notice as we go forward with the--we have so far 
sanctioned 189 individuals in Russia, and we are looking at 
those who have--we have also, as you know, thrown six of their 
diplomats out. And economic sanctions are going to be, 
obviously, looked at for future violations as well. So we have 
an asymmetric way, an indirect way of going back after them and 
making them pay.
    Right now, in Syria, we have an odd and somewhat open and 
never interrupted deconfliction communication line that has 
worked pretty well to make certain we do not run afoul of one 
another's forces or one another's operations. They are not 
coordinated. They are deconflicted in either time or space, 
mostly in space, the river, for example. The Euphrates divides 
our activities in some cases.
    Senator Fischer. Did you use that deconflicted line and 
communication with the Russians when it was reported in 
February that there were large numbers of Russian irregular 
forces that had attacked United States forces?
    Secretary Mattis. It was used, Senator. The Russian high 
command in Syria assured us it was not their people, and my 
direction to the Chairman was the force then was to be 
annihilated. And it was.
    Senator Fischer. Thank you.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Secretary, in response to Senator McCaskill's contracting 
concerns, you said that the best way to avoid these kinds of 
problems was, quote, having a methodical review for every 
dollar going out. And I could not agree more.
    So I want to ask you about a particular RFP [request for 
proposal] coming up. The Pentagon has announced that it intends 
to bring all of its computing services under one cloud in a $10 
billion single award contract. The Department issued an RFI 
[request for information] last month which received over 1,000 
questions and comments from industry and leading technology 
experts who, for the most part, believed that the current 
proposal is deeply misguided. Yet, the Department seems to be 
rushing ahead to issue an RFP in early May and intends to issue 
an award as early as September.
    What is the rush here, and why is the Pentagon moving 
forward so quickly despite the concerns of both Congress and 
technology leaders?
    Secretary Mattis. Senator, the rush right now is that we 
have too many data banks that the front line commanders cannot 
swiftly draw information from. So what we have been looking at 
right now is how do we get faster access for the young folks on 
the front lines and displaying the information they need, not 
all the information in the world. The cloud is what they need. 
So that is the driving impetus. It is the lethality. It is not 
a sole source and there is no pre-select.
    Senator Heinrich. But it is a single award.
    Secretary Mattis. It will be for 2 years for about--I want 
to say----
    Senator Heinrich. It is a single award for a $10 billion 
contract.
    Mr. Norquist. The first contract is a single award. It has 
I think a 2-year base, and then some options. Current 
technology makes it----
    Senator Heinrich. It is a big plum. That is why it deserves 
attention. I do not want to quibble with you about sole source, 
but I think it deserves some oversight. And we included 
language in the omni that requires you to submit a full 
justification for executing a single award--not sole source, 
single award contract--instead of a multi-cloud approach. Are 
you going to be able to submit that justification as required 
by law? And will it happen before or after the RFP?
    Secretary Mattis. We always align ourselves with the law, 
Senator. When is it going to be brought in?
    Mr. Norquist. Both reports will actually be submitted at 
the time the first report is due. So there is normally a gap. 
We are going to get them both in on May 7th, and that will be 
before the RFP.
    Senator Heinrich. Fantastic.
    So to be perfectly clear, there are people speculating that 
this is tailor-made for a single vendor. And I would just ask 
you to assure me that those concerns are not justified.
    Secretary Mattis. Sir, our goal is to get the best possible 
service for the front line. I am aware that some people in 
industry perhaps believe that this should be an equal 
opportunity thing where everybody gets a piece of the pie. We 
have got to go forward in a defensible way where you can go to 
your constituents and say they did the right thing ethically, 
as well as legally, in order to carry out the best possible 
support for our front line troops. If we cannot do that----
    Senator Heinrich. I want to just get the best deal for the 
best product for the people who actually use it on the front 
lines.
    Secretary Mattis. Yes.
    Senator Heinrich. I hate to go back to cyber deterrence, 
but it is an endless topic.
    So, General Dunford, Secretary Mattis, we keep hearing from 
combatant commanders appearing before this committee that we 
need a cyber doctrine. We hear a common refrain that this 
requires a whole-of-government approach, which we have heard so 
many times that now it is starting to sound more like it is 
someone else's job. Our adversaries do not see any significant 
consequences at this point for their cyber actions, and we need 
to demonstrate an effective, credible deterrent.
    When are we going to have that national cyber doctrine to 
address this issue?
    Secretary Mattis. I can tell you we are working on it, sir. 
Inside the Department of Defense, we have got cyber orders out. 
We have got 130 or 133 cyber teams already manned. There is 
more training going on. We have got to get in place a 
persistent cyber training environment to bring them to the top 
of their game. So we are organizing for the defend the Nation 
effort, which I think is what you are referring to, Senator. 
You know we are in support of, obviously, the Secretary of 
Homeland Security.
    That said, this is a very challenging effort, and I believe 
that congressional guidance will be necessary as we weigh life 
and liberty right out of Constitution and what role do you want 
the military to play inside the United States in a defense 
mode. I think this is something that you need to lead us on 
because this is not our normal operating location. Unless there 
is, as you know, a forest fire or insurrection, we do not do 
this stuff. We stay focused overseas.
    So I think the more clarity we get from the Congress, the 
better, and I think we have to work with the executive branch, 
all of us there, including the Secretary of Treasury, for 
example, and the Secretary of Energy. It is a very big issue 
right now. We are going to have to break it down into bite-
sized pieces, and from the authorities that start here in the 
spirit of Congress to guide us, we can go forward on this.
    Senator Heinrich. We need to get started then, Chairman.
    Senator Inhofe. Thank you.
    Senator Perdue?
    Senator Perdue. Thank you, Mr. Chair.
    I would like to echo the Secretary's opening comments about 
expressing our gratitude to our folks in uniform around the 
world. The best of the best is out there on the wall.
    General Dunford, in your testimony, you now are calling 
space a contested domain. In your words, potential adversaries 
view our alliance on this domain as a vulnerability they can 
exploit, and they are increasingly challenging our competitive 
advantage in space.
    You know, for the last few decades, we have used space as a 
scientific endeavor where our potential adversaries in the last 
decade have been using it as a potential military domain, 
obviously.
    China in 2007 conducted an ASAT, anti-satellite missile 
test, that was successful and threw thousands of pieces of 
debris into that orbit. In 2016, they put up a so-called space 
debris clearer that could clear that in supposed terms, but 
also could potentially wreak havoc on our satellites. Even DNI 
[Director of National Intelligence] Coats talks about any 
future conflict that would occur with Russia and China would 
see this potentially be--the first opening salvo would be an 
attempt to take out our satellite capabilities.
    We now see China with a snuggler satellite capability that 
is being talked about publicly.
    In DNI Coats' words, of particular concern, Russia and 
China could continue to launch experimental, in parentheses, 
satellites that conduct sophisticated on-orbit activities, at 
least some of which are intended to advance counter-space 
capabilities.
    And yet, with our advanced battle management system, it 
seems to me that over the last several months we have been 
briefed on the future direction--I am talking about 10 years 
out in the future plan is that we have a strong dependence on 
our space capabilities. In the interim term, can you give us 
some comfort that the military is moving to protect any 
dependence we have on this space capability? Then give us a 
little of your thinking about moving more capability from the 
air, land, and sea domains to the space domain.
    General Dunford. Senator, I can. And you raise a good 
issue. I think it is important to just go back and look at the 
assumption that we made when we started to leverage space for 
our command and control, for our intelligence, surveillance, 
reconnaissance, for our navigation, for the precision weapons 
we had. We made an assumption that space would be uncontested. 
And many of the systems that we put into space were not 
resilient, and so they were not able to survive against the 
anti-satellite technology and other capabilities that the enemy 
now has to either jam or destroy our space capabilities.
    In the budget this year and really starting last year, we 
have started to invest in broadly the category we call space 
resilience, which is a variety of things. It is hardening some 
of the capabilities we have in space today, making sure that 
new capabilities have in the requirements documents the right 
requirements to make sure they are resilient to the challenges 
we expect in the future, and then also ideas of more 
satellites, leveraging commercial satellites and so forth and 
perhaps smaller satellites so that all of our capabilities are 
not in one single satellite.
    With regard to characterization of debris and so forth and 
command and control, by no means am I suggesting where we need 
to be. But, frankly, starting back a few years ago under 
General Hyten, who is now at Strategic Command--he was formerly 
at Space Command in the United States Air Force--we started an 
initiative to establish a more effective command and control. A 
key piece of that command and control in our Joint Space 
Operations Center is the ability to characterize debris in 
space and to be able to make adjustments in our operating 
concepts to accommodate that debris in space.
    This is absolutely an area of focus in the Department. I 
think the budget this year reflects that in 2019. It reflects 
it in 2018. And for me from a warfighting perspective, we have 
to solve this problem. We have built a force that is dependent 
on space.
    On the other side, in our exercises, we are also now 
increasingly making sure that we are able to operate in a 
space-denied or degraded environment and make sure that we can 
accommodate degradation to the capabilities that we have today 
that leverage space.
    All of those things are very much on our mind, Senator. I 
appreciate you raising it because I think in the areas that we 
are concerned about--we say there is not a war in space. There 
is a war that involves the capabilities that we have in space.
    Senator Perdue. I am about out of time, but would you 
quickly just comment on the Israeli-Iran potential cataclysmic 
confrontation potential that they are seeing there in Syria 
with Iran. The Persian Empire throughout history had a land 
bridge when they were at their height all the way to the 
Mediterranean. It sure looks like everything Iran is doing 
right now is trying to reestablish that land bridge through 
Iraq and Syria and Lebanon into the Mediterranean.
    But right now, we see a really dangerous crossfire with 
United States and Russia forces in the area and also now 
between Israel and Iran. You have talked publicly about this, 
but give us some indication about the way you are thinking 
about this right now.
    Secretary Mattis. Senator, very quickly, the Iran regime, 
the Tehran regime, not the Iranian people, are clearly in 
strength using their proxies in Syria. We have seen them trying 
to bring advanced weaponry in through Syria on its way to the 
Lebanese Hezbollah in southern Lebanon. Israel is not going to 
wait until those missiles are in the air.
    Will it be cataclysmic? I hope not. I hope Iran pulls back.
    Senator Perdue. Is there a nuclear threat in that potential 
confrontation?
    Secretary Mattis. A nuclear threat?
    Senator Perdue. Yes, sir.
    Secretary Mattis. No, sir, not at this time.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Perdue.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    For over 3 years, a Saudi Arabia-led coalition has been 
bombing Yemen to counter Iranian-backed Houthi militia. The 
United States military has been providing intelligence, mid-air 
refueling, and munitions to the Saudis. In other words, we have 
been helping and helping a lot.
    Our refueling assistance to the Saudi-led coalition is 
governed by something called the Acquisition and Cross-
servicing Agreement, or ACSA I think. The United States has 
such an agreement with both Saudi Arabia and the United Arab 
Emirates [UAE]. The Secretary of Defense is authorized to enter 
into these agreements with any non-NATO country, and it must 
notify Congress 30 days before it signs such an agreement.
    Secretary Mattis, can you give me a ballpark number for how 
many acquisition and cross-servicing agreements that the United 
States has entered into with other countries?
    Secretary Mattis. I will have to take it for the record and 
I will get back. I think I can get back to you very quickly on 
that, Senator Warren. This was, as you know, a decision by the 
previous administration we inherited, reviewed, and endorsed.
    [The information referred to follows:]

    Currently there are 115 Acquisition and Cross-Servicing Agreements 
in force.

    Senator Warren. What I am trying to get at, though, is how 
many of these agreements. You do not even have a ballpark for 
what the number is?
    Secretary Mattis. I do not, Senator.
    Senator Warren. Okay.
    You know, after an ACSA is signed, the Defense Department 
is required to report to Congress. Or let me ask, is the 
Defense Department required to report to Congress on a regular 
basis about the type of defense assistance that is provided or 
to report on any changes in the ACSA?
    Secretary Mattis. I am going to have to get back to you, 
Senator. I know we have many times testified about this, as did 
people sitting in these chairs in the last administration from 
President Obama's administration. You did characterize it 
correctly what this one is about, however.
    [The information referred to follows:]

    The Defense Department is not required to report to Congress on a 
regular basis about the type of defense assistance that's provided 
pursuant to an Acquisition and Cross-Servicing Agreement. Any changes 
to an Acquisition and Cross-Servicing Agreement must be made by formal 
amendment. Amendments to Acquisition and Cross-Servicing Agreements are 
reported to Congress in accordance with the Case Act.

    Senator Warren. And I think you will find that there is no 
regular report required. And last month, I joined a letter with 
Ranking Member Reed and Senator Blumenthal to the Defense 
Department asking for details about the acquisition and cross-
servicing agreements that we have with Saudi Arabia and the UAE 
as they continue their bombing campaign in Yemen.
    Now, the DOD responded with copies of the congressional 
notifications for these agreements. One was dated February 1988 
and the other July 1992. Those are pretty old notifications, 
given that we signed defense agreements with Saudi Arabia in 
2016 and the UAE in 2006.
    Now, I am concerned that these agreements have existed not 
just with Saudi Arabia and the UAE, but with many other 
countries and with very little oversight from Congress during 
the administration of both parties. And I think that needs to 
change.
    There is another question I want to ask about, Secretary 
Mattis, and that is the National Defense Strategy which says 
that, quote, long-term strategic competitions with China and 
Russia are the principal priorities for the Department of 
Defense. The strategy stresses the need to modernize existing 
equipment, to invest in advanced capabilities, and to enhance 
the readiness of joint forces for a high-end fight.
    Many analysts have said that a conflict on the Korean 
Peninsula could bog us down for years, degrading our equipment 
and potentially resulting in thousands of casualties to our 
allies and to our own troops.
    So my question, Secretary Mattis, is what would be the 
impact of a long-term conflict on the Korean Peninsula on our 
ability to prepare for a high-end conflict like those described 
in the defense strategy.
    Secretary Mattis. As you have seen, Senator, the full court 
press has been for the last year on a diplomatic initiative 
that is now bearing fruit. It has taken a long time, and I 
think it can be fruitful. Obviously, we are hopeful but we are 
just going to see how it works. Every effort is being made that 
any resort to war is the last resort, as we----
    Senator Warren. I appreciate that, Secretary Mattis, but 
the my question is if we get bogged down in a long-term ground 
conflict in Korea, what I am asking about is what would be the 
impact on our ability to prepare for a high-end conflict like 
those that are described in the defense strategy.
    Secretary Mattis. War is such an such an unpredictable 
phenomenon, Senator. I would not subscribe that we would get 
bogged down. In other words, it might go a lot faster. Neither 
you nor I can tell if it is going to take 2 years or 2 months.
    Senator Warren. So I am going to try a third time. If there 
is a long-term conflict on the Korean Peninsula, what impact 
would that have on our ability to prepare for a high-end 
conflict like the kind described in the defense strategy?
    Secretary Mattis. It would be distracting, Senator.
    Senator Warren. More than distracting?
    Secretary Mattis. Well, if you look at what has happened 
over the irregular fights over the last 15 years, you get a 
sense of what happens when you are distracted over that time 
from focusing on the primary threat. But we are not going to do 
that. The Congress has reorganized the Department, and we now 
have an Under Secretary who focuses on nothing but research and 
engineering for the future. So he will continue what he is 
doing. The Department will continue those efforts. Obviously, 
this will be a distraction of enormous proportions.
    Senator Warren. You know, I will point out that last week I 
asked the nominee for Pacific Command, Admiral Philip Davidson, 
the same question, and he put it differently. He said any long-
term conflict has significant financial costs and costs around 
the globe and people costs within the armed services.
    So I am concerned about what would happen if we were in a 
position with both. But let me----
    Secretary Mattis. So I am, Senator.
    Senator Warren. Good. I am very glad to hear about your 
commitment to a diplomatic solution with North Korea and that 
we not get bogged down into a long-term conflict there. Thank 
you, Mr. Secretary.
    Secretary Mattis. We have been committed the entire 
administration's time, ma'am.
    Senator Warren. Thank you, Mr. Secretary.
    Senator Inhofe. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for your continued service 
to our country.
    Secretary Norquist, thank you and your team very much for 
sitting down with me not all that long ago to review the DOD 
audit and your progress there. I am very glad that you enjoy 
reading those audit reports. So thank you for your work on 
that.
    Mr. Norquist. And, Senator, I appreciate your interest in 
the subject. Thank you.
    Senator Ernst. Thank you very much.
    General Mattis, the Truman carrier strike group just 
recently departed from Norfolk, and we wish them well. Recent 
reports suggest that they may remain in the European theater, 
which is breaking with tradition, rather than deploying to the 
Middle East as they have during deployments of the past.
    Can you speak about the need to make our military less 
operationally predictable and how we can posture our joint 
force to truly make our adversaries counter us in the multi-
domain?
    Secretary Mattis. Yes, I can, Senator. Naval forces by 
their very makeup, very composition are naturally agile forces 
that can be deployed anywhere. In the past, we have focused on 
simply maintaining a forward presence. Now, with the National 
Defense Strategy saying that we are going to focus on large 
power or great power competition, it means that without 
breaking the families, without breaking the fleet or the field 
forces of the Army, the Air Force, whatever, we are going to 
make certain they are capable of deploying and fighting at a 
higher level of capability. What that means is the Chairman, 
under his global integrator role where I have given him the 
authority with my oversight, civilian oversight, to maneuver 
forces around in a manner that makes us strategically reliable 
as an ally to our allies but operationally unpredictable to our 
adversaries--and this is part of making certain that we get out 
of acting with our Navy like we are shipping line and get back 
into acting like a Navy.
    Senator Ernst. And I greatly appreciate that. Thank you. I 
think anything we can do to keep our adversaries off kilter, we 
need to do that. So thank you.
    As well, we have been talking a lot about the National 
Defense Strategy. And, General Mattis, it does reference, 
quote, expanding the competitive space. Russia has been very, 
very successful in competing with the United States below the 
threshold of actual conflict in what we call the gray zone. 
They have been very aggressive through their military 
posturing. They have used political influence. They have done 
information operation campaigns.
    What does expanding the competitive space mean for 
competitions with Russia?
    Secretary Mattis. We are going to have to be able to 
compete across all the domains of warfare, and we had two of 
them on this planet, land and sea, for several thousand years. 
In the last 100 years, we added the air component, and in the 
last 10 years now or 5 years, we are really focused in on the 
cyber domain and the outer space domain. We are going to have 
to be able to compete there.
    But there is more than that. America is still a great 
beacon of hope to people who want to run their own lives. We 
support sovereignty and territorial integrity. We do not 
believe nations should be requiring tribute from other nations 
using the statement of One Belt, One Road. We do not believe 
that Russia has a veto authority over the countries along its 
periphery or has any right to change international borders 
through the force of arms. And so we are going to have to be 
able to compete across diplomatic, economic, information, 
energy lines, and we are engaged in that on a routine basis in 
the sit room in the White House as we orchestrate and integrate 
this effort.
    Senator Ernst. Very good. Thank you very much. Thanks for 
the reference to DIME [Diplomatic, information, military, and 
economic] as well. I think it is really important.
    The fiscal year 2018 NDAA included a provision to provide 
assistance to our partner forces to support U.S. special 
operations combating irregular warfare threats. Have you 
identified additional resources or new authorities that will 
help support those lines of effort, especially when we are 
trying to counter malign Russian influence?
    Secretary Mattis. I have not seen where we do not have the 
authorities we need, whether it be through the NATO support 
that you are aware of and you fund. We are expanding the 
special operations forces, mostly niche capabilities. It is not 
a wholesale everything with respect to forces being expanded.
    But let me just ask the Chairman to weigh in on this, 
Senator.
    General Dunford. There is, Senator, in the European Defense 
Initiative a special operations component to training and 
exercises as well, if you are talking specific to the European 
theater.
    Senator Ernst. Yes, absolutely. Thank you.
    Thank you, gentlemen. My time has expired. I appreciate 
your continued service. Thank you.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    And, gentlemen, once again thank you for your testimony 
here today.
    Secretary Mattis, you and I have spoken on many occasions 
about advanced technologies, particularly artificial 
intelligence and how those types of technologies will radically 
change warfare and how we fight wars in the future. And we also 
know that our near-peer adversaries are working very 
aggressively on acquiring these as well. It is certainly 
critical for us to be working on it with a great deal of 
attention.
    So my question to you, though, Secretary Mattis, is that I 
know the Department is working on establishing a joint 
artificial intelligence center. Could you talk a little bit 
about that and give us some detail as to what you are thinking 
about?
    Secretary Mattis. I can, Senator Peters. Like you say, we 
have discussed these issues many times, and this is probably 
one of the leading efforts we have. But we also have these kind 
of efforts going on on big data, on computing, and hypersonics.
    In this case that you are asking about here what we are 
doing, we are finding a number of efforts in the Department 
that are funded separately. Some of them are making some good 
progress. Some have not achieved what I would call outputs yet. 
The Deputy Secretary, the Chief Management Officer are pulling 
this together, and we are going to try to get a synergy going 
so that all the money going into this is purposeful, it is 
going for objectives. And we are not talking about 3 years from 
now. We are talking 3 months, 6 months from now, what are we 
doing to get these processes underway to deliver capability in 
the near term.
    Senator Peters. Is there something this committee can do to 
help you in your efforts?
    Secretary Mattis. I need to come back to you once we have 
got it organized, sir. Believe it or not, it has taken me 
several months just in order to identify everything we have got 
going on in this regard. Once we have it aligned, I will be 
back to you, I am sure, saying what we need. Right now, I think 
we need to get our act together.
    Senator Peters. I appreciate that. I look forward to 
working with you as you continue down that road.
    The other question that I have relates to the procurement 
process. Yesterday the Government Accountability Office 
released its 16th annual assessment of DOD weapon systems 
acquisitions, which tracks the $1.6 trillion portfolio over 86 
weapon systems. The report emphasized a troubling trend, that 
too many programs are proceeding without, as they call it, key 
knowledge essential to good acquisition outcomes. In fact, if I 
look at the summary here, basically the Comptroller General 
states, as we first observed in 2017, production is the 
acquisition phase most closely associated with cost growth 
where a lot of these projects are now moving into. 
Consequently, DOD's continued willingness to accept knowledge 
gaps in these newer programs, now over 8 years after the 
implementation of acquisition reforms, indicates that reforms 
have not yet taken hold to the extent that Congress intended.
    Secretary Mattis, could you respond to that finding? And 
anyone else on the panel, it would be appreciated.
    Secretary Mattis. I believe the finding is accurate. This 
is why a year ago, when I came in, I talked about reforming 
business practices. Today I come back with the same words, and 
then I add ``accountability.'' We believe this is a problem.
    Now, there are specific processes to get at this. One of 
them is make certain you keep people who are running programs 
in the program long enough that you really get a result from 
what they learn from the first year and they are not leaving 
the second or third year.
    The second point is you have to get the requirements right 
up front, sir. Now, in some of these, I would call it, new 
technology areas, that can be a challenge. And you understand 
that when we come back in and say, well, we found something 
through basic research that we did not know before. But we have 
got to do better at getting the requirement right up front and 
then do not have requirement growth midway. Specifically on 
this, we cannot bring technology in that is not at a mature 
level. If we do that before we prototype it--and I realize that 
can create a time lag, but that is where we have seen some of 
this growth come from.
    So as we define the problem, it is people, it is processes, 
and then there are actual technical reasons that we have got to 
correct, and that is leadership's responsibility. Thus, we have 
assigned accountability for each of these programs as a co-
equal priority.
    Senator Peters. Thank you, Secretary.
    In my remaining time--and it is low--I would just like to 
ask a brief question about Yemen. All of you know that Yemen 
remains a humanitarian disaster, disease, famine, unsafe 
drinking water, violence, killing hundreds of Yemenis every 
day. I previously asked General Votel about this issue, and he 
attributed some of the civilian casualties that we see 
associated with Saudi strikes as related to the competence of 
the forces that were operating, referring to the Saudis there.
    Secretary Mattis, General Dunford, briefly could you 
comment on that? Has the competence of these forces operating 
in Yemen increased? And what can we expect in the future?
    Secretary Mattis. Sir, I will let the Chairman hit on a 
couple things we have actually done to reduce the number of 
innocents being hit. This is a tragedy. It is a catastrophe 
humanitarian-wise. I will tell you that now, as of about 3 
weeks ago, we have for the first time I believe a United 
Nations envoy, a very experienced British diplomat, Michael 
Griffin. I have met with him. The State Department has met with 
him. We are going to give him full support as we did his 
predecessor. For the first time I think we have someone with 
the force of personality and the experience to help drive this 
to a close and end it.
    There are some specific things we have done to address the 
innocent casualties.
    General Dunford. Senator, I think mitigating the risk of 
civilian casualties with strikes is probably two issues. There 
is a cultural issue, and then there is a technical issue. And I 
think we have had a positive impact with the Saudis in both 
regards by the advising and assisting we have been doing. We 
are collocated with them in their operation centers to help 
them develop the techniques and tactics that will allow them to 
conduct strikes while mitigating civilian casualties. And I 
also think there has been a positive affect of the relationship 
that we built with the Saudis over time and the training to 
affect the changes and the culture that would have them take 
that into account when conducting military operations. So it is 
a long plodding process, in many cases with the countries we 
are working on, addressing those two issues. But I think it is 
paying dividends over time.
    Senator Peters. Thank you, gentlemen.
    Senator Inhofe. Thank you, Senator Peters.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I have got one quick question and it has to do with the 
budget. The President's Budget calls for a 2.6 percent pay 
raise, another boost to military spending. One concern that I 
have, if you see the trajectory for pay over time, we are going 
to end up seeing some of that money to sustain that added 
expense probably somewhere I think in the $47 billion range.
    How are you going to be able to sustain--how are you going 
to continue to do what we should do, which is continue to try 
and keep up with the cost of living and the competition you all 
mentioned earlier in terms of retaining people with a growing 
economy and then deal with the erosion of resources that would 
otherwise go to other priorities within the Department? And 
General Mattis, or Secretary Mattis, I will start with you.
    Secretary Mattis. Senator Tillis, one difference about the 
way we look at people in the military, we look at them as an 
investment not as part of our overhead. We educate them. We 
train them. We screen them. We screen them again and again and 
again. The idea is that we have best of breed going up and we 
are pretty good at promoting the right people and keeping an 
elite force. Part of this is making certain that the sacrifice 
of military life that can never be mitigated----
    Senator Tillis. No question.
    Secretary Mattis. This is one way to do it.
    Senator Tillis. But, Mr. Secretary, how do you deal with 
the erosion? If you continue the trend line, how do you deal 
with the erosion based on other DOD priorities?
    Secretary Mattis. I believe we have to look at this as 
America can afford survival, Senator. We are 3.1 percent of 
GDP. If we can do better on our health care, in other words, 
reduce personnel costs outside the pay raise, if we can do 
better in our contracting so we are getting better return on 
the dollar, we are looking at finding those savings inside the 
Department and making the argument to you that we get to keep 
them and apply them to the very direction that you are 
concerned with and rightly so.
    Senator Tillis. Thank you.
    General Dunford, did you have something?
    General Dunford. Senator, I would just say I think, as you 
know, that the pay raise this year was benchmarked against a 
pretty consistent index that we have used over time with the 
ECI [employment cost index], and while acknowledging the 
challenges we will face in balancing compensation with the 
other pieces of the Department, I do believe--we had a 
discussion about it earlier. I do believe that we are in a very 
competitive market right now for high quality people, and I do 
not believe that we are paying our people too much. And so we 
do have to find efficiencies within the Department in a wide 
range of ways to get the right balance.
    But I would not argue at this point that the personnel 
account is an anchor on the Department. Getting the right 
people in is the cornerstone of us being successful.
    Senator Tillis. Well, thank you all. You know, in my 
capacity as the subcommittee chair on personnel, I am always 
looking for good ideas to give you more flexibility, find those 
efficiencies, and then plow them back in to making sure we are 
paying our men and women.
    I may have another question about funding, but I do have 
something that is a little bit--I tend not to get too specific. 
I focus on the business issues, but I want to talk about Turkey 
for a minute and I want to talk about it on two fronts.
    One, they are below the NATO guideline as a percentage of 
GDP. Their participation I think is trending somewhere around 
1.5 percent. The target is 2.
    Two, I would also like to understand the complications that 
come from having a NATO partner possibly acquiring a missile 
defense system from Russia and the implications that that could 
have for our assets in Russia, our manufacturing facilities for 
the Joint Strike Fighter, et cetera.
    Secretary Mattis. As you know, Senator Tillis, Turkey is 
the only NATO ally with an ongoing insurgency inside its own 
country. We assist them, as all of NATO does. We have got 
Spanish and Italian antimissile batteries in Turkey to protect 
them against any Iranian threat. The complexity of the Syria 
fight has colored everything in that region to include Turkey, 
which has had an enormous refugee influx, and they have gone 
through an attempted haphazard coup that cost them innocent 
people killed.
    We are seriously concerned across NATO about the S-400 buy, 
the Russian system----
    Senator Tillis. Has there ever been another NATO ally that 
has done something like that?
    Secretary Mattis. Well, to a degree. As you know, the 
Eastern European countries that were equipped with Russian 
equipment----
    Senator Tillis. They had a legacy. But I mean, after you 
have gotten past that----
    Secretary Mattis. I am not aware of any, sir.
    Senator Tillis.--reaching out to a would-be adversary, has 
that ever happened?
    Secretary Mattis. I am not aware of any.
    Senator Tillis. I know I cannot do your all's job, but are 
there not other complexities just based on the inherent 
infrastructure that comes with that system with respect to our 
own intelligence, safety, and security? Look, I agree. We need 
to protect Turkey. We need to help them make their Homeland 
safe. But this seems like to be an outlier unlike any time that 
has happened since NATO was established. Is that an 
overstatement?
    Secretary Mattis. I do not believe so, Senator. I think 
that is accurate, and it is causing a lot of concern.
    Senator Tillis. Thank you.
    Senator Inhofe. Thank you, Senator Tillis.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I want to thank all of you gentlemen for your service to 
our country.
    And, Secretary Mattis, thank you very much for your 
continuing commitment to end what you referred to as a cancer 
of sexual assault in the military.
    I wanted to further ask you, Secretary Mattis. The National 
Defense Strategy mentions expanding and strengthening alliances 
in the Indo-Pacific region. The Daniel K. Inouye Asia-Pacific 
Center for Security Studies is just one of several assets in 
Hawaii that is tailor-made for this mission and your continued 
support is very much appreciated.
    I would like to applaud you for your efforts in building 
partnerships and alliances, and it is not lost on me that you 
have made several trips to the region and hosted several 
regional leaders in the Pentagon since the National Defense 
Strategy was released.
    So besides our traditional allies in that part of the 
world, where are the best possibilities for new partnerships in 
the region, and what attributes do these countries share that 
make them strategically important to the United States? I also 
want to ask you about the importance of our compacts with 
Palau, the Confederated States of Micronesia, and the Marshall 
Islands.
    Secretary Mattis. Well, Senator, the Pacific is a priority 
theater, as you and I have discussed since my first days in 
your office.
    Senator Hirono. Yes.
    Secretary Mattis. There is an ongoing effort to build our 
military structure in the Pacific, and much of this is by, 
with, and through our allies. And I would say from down under 
in Australia all the way up through Japan and Korea, you see 
this actively underway. We also have to be open to nations such 
as Indonesia, the fulcrum of the Indo-Pacific region, Vietnam 
as it comes of age and adapts with many of their students here 
in our country being educated, as we build new ties for the 
future.
    But probably most importantly, as we look over all at this 
region, I would look at India, the largest democracy on the 
planet and one where we probably have a once-in-a-generation 
opportunity to find more common ground. I think it is there. We 
just have to find it. We do not have to search hard for it in 
the sense of creating it. We just have to get an understanding 
of each other's interests, and I think there is a lot of common 
ground there.
    So the attributes you see are geographic. They are based on 
a potential military commonality in terms of threat, whether it 
be, as you have seen in the Sulu Sea area where ISIS has come 
in in strength and created a problem for Malaysia, Indonesia, 
but especially so for the Philippines. These are all issues 
that we have to work together if we want to keep the a Pacific 
stable commerce zone for all countries to use.
    Senator Hirono. What about the importance of our compacts 
with the island nations that I mentioned, Palau, Micronesia, 
and the Marshall Islands?
    Secretary Mattis. I would just tell you, Senator, that we 
recruit from there as you know. Their young men and women serve 
in our Armed Forces, and we have got probably, in terms of 
military relationships, an unusually high degree of trust 
between the United States and those nations. There is probably 
a lot more that we will be doing in the future along the lines 
of the direction we are going right now, and I do not see any 
inhibition on their side or our side to an even better 
relationship, partnership.
    Senator Hirono. Some of these compacts will come due, and I 
assume that we are going to be negotiating with them again and 
that these compacts are there for national security reasons. Is 
that correct?
    Secretary Mattis. They are there for that, and I think 
there is also an affiliation that goes back many decades of 
friendship that we share with them.
    Senator Hirono. And we have certain continuing 
responsibilities for our country's use of their lands.
    Secretary Mattis, while current events may lead to 
decreased tensions with North Korea, I applaud DOD's commitment 
to defending the Homeland from ballistic missiles.
    So the DOD budget request includes funding for additional 
ground based interceptors but also funding for new sensor 
capability such as the Homeland defense radar in Hawaii. How 
will these new sensors increase our ability to defend Hawaii 
and the continental United States?
    Secretary Mattis. Senator, those capabilities will allow us 
to detect launches from various angles. That means sooner track 
them and determine if they are a threat or not to the Homeland. 
The Homeland is Guam, Hawaii--let me be very particular here. 
Guam, Hawaii, Alaska, and the United States. That means we have 
more engagement time.
    Senator Hirono. And I think that our ability to accurately 
detect missiles coming our way is very important. I am sure you 
are aware that we had a false alarm in Hawaii recently.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Hirono.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for advocating for more funding for the 
military. Without you, we could not have done it. So thank you 
both.
    Let us go to Afghanistan. Then we are going to work our way 
around to Syria.
    I talked to the Afghan Ambassador yesterday. He said that 
the rules of engagement changing targeting the Taliban as part 
of the enemy force is really beginning to pay dividends. Do you 
see that, General Dunford?
    General Dunford. I do, Senator.
    Senator Graham. Secretary Mattis?
    Secretary Mattis. Yes, sir.
    Senator Graham. The goal is to punish the Taliban to get 
them at the table and end this thing through negotiation. Is 
that correct?
    General Dunford. The goal is to make sure they view that 
the only solution is a political solution that they cannot win 
on the battlefield.
    Senator Graham. And we are making sure they are not going 
to win on the battlefield. I want to compliment you and 
President Trump for changing those rules of engagement.
    Do you believe that a residual force is necessary in 
Afghanistan for a while to come and it should be conditions-
based if we ever leave?
    General Dunford. I do believe that, and that is consistent 
with our strategy, Senator Graham.
    Senator Graham. Secretary Mattis, is that correct?
    Secretary Mattis. Yes, sir.
    Senator Graham. To those Senators that advocate leaving 
Afghanistan, on September the 10th, 2001, we did not have one 
soldier in Afghanistan. Did we, Secretary Mattis?
    Secretary Mattis. That is correct, Senator.
    Senator Graham. We did not have an embassy. We did not have 
a diplomat. We did not offer them a dime of aid. We got 
attacked anyway.
    Do you agree with me, leaving them alone does not mean they 
are going to leave you alone?
    Secretary Mattis. Problems in places like that do not stay 
there, sir.
    Senator Graham. So we cannot build a wall between us and 
the threats coming from the Mid-East, but we certainly can 
confront them. And I like your strategy in Afghanistan. I think 
you got the right size force with the right abilities.
    Iraq. What did we learn by leaving too soon, General 
Dunford?
    General Dunford. We learned that the Iraqi forces were not 
capable of providing security inside the country, and that gave 
the enemy an opportunity to resurge. That is where really ISIS 
had the space to grow.
    Senator Graham. I could not agree with you more.
    General Mattis, working with our Iraqi partners and 
coalition partners, we have done a pretty good job of 
suppressing ISIS in Iraq. Do you agree with that?
    Secretary Mattis. I do, sir, although the fight goes on, 
but yes, sir, absolutely.
    Senator Graham. Would you support a residual force based on 
conditions-based withdrawal in Iraq if the Iraqis agreed with 
it?
    Secretary Mattis. Absolutely, and that force will be 
augmented right now by a NATO training element that is there so 
it will not be just the Americans.
    Senator Graham. I could not agree with you more. More 
people need to contribute money. President Trump is right. The 
Arabs need to pay more and other countries need to contribute 
more.
    But do you agree with the following statement? There is 
really no substitute for the American military when it comes to 
a holding force. We have capabilities most people do not.
    Secretary Mattis. That is correct, sir.
    Senator Graham. Now, let us go to Syria. The goal is two: 
to destroy ISIL, the total destruction of ISIS, and to combat 
the malign influence of Iran. Is that the two goals that you 
all have been articulating?
    Secretary Mattis. Sir, our forces in Syria right now are 
there to defeat ISIS. There is a political process underway to 
end the civil war, but the chemical weapons are a separate and 
distinct issue.
    Senator Graham. We have known each other for a long time. I 
am with you. I do not know. Is the President's statement about 
withdrawing from Syria--is that conditions-based withdrawal or 
is he just going to withdraw because he is tired of being in 
Syria?
    Secretary Mattis. It is conditions-based. As you know, 
neither the last administration nor this administration sees 
itself occupying Syria. What we have to do is keep our 
diplomats in a position of authority so they can end this 
through the Geneva process.
    Senator Graham. Right. But when it comes to ISIS, the goal 
is to make sure they are ultimately destroyed. Is that correct?
    Secretary Mattis. Destroyed and also they cannot 
regenerate. So we have to create local forces that can keep the 
pressure on any attempt by ISIS to try to regenerate.
    Senator Graham. Do you see those local forces being able to 
accomplish that mission better than the Iraqi army when we left 
Iraq?
    Secretary Mattis. Sir, we will have to mature those forces. 
We are engaged in it now. We have training going on by a number 
of our international partners there on the ground right now, as 
well as our own forces.
    Senator Graham. I only have a few minutes.
    Is it fair to say that a holding force right now without us 
would be a risky proposition for a while to come?
    Secretary Mattis. I am confident that we would probably 
regret it.
    Senator Graham. Turkey. If we leave too soon, Turkey is 
going to go after the Kurds that helped us destroy ISIS. Are 
you worried about that? We got to get that situation right 
before we leave.
    Secretary Mattis. We are working with Turkey to resolve 
this.
    Senator Graham. Is that a concern of yours?
    Secretary Mattis. I do not know if that is Turkey's intent, 
but we----
    Senator Graham. We know what they have done in the past. 
They have said they hate these guys more than ISIS. They have 
actually attacked them. That to me needs to be a condition 
because nobody else will help you in the future.
    As to countering Iran, the military strike I thought was 
not a big price. I do not think it is going to change the 
battlefield equation. I do not see how you go to Geneva until 
the battlefield changes. I do not see a change on the 
battlefield until there is some credible force opposing Assad. 
I think we should be part of that. If we are not, we are giving 
Damascus to the Iranians. If we depart here, I think you need 
to have some kind of element on the ground in Syria to combat 
Assad. It is in our interest that we not give Iran to Damascus. 
The good news is there are millions of Syrians who want Assad 
to go, for another discussion for another time.
    Thank you both.
    Senator Inhofe. Thank you, Senator Graham.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Secretary Mattis, it occurs to me we have to make an 
important decision here within the next hour, which is the 
confirmation of Mike Pompeo to be Secretary of State. It occurs 
to me, Secretary Mattis, that you may be a good witness in this 
decision in the sense that you have worked with him directly on 
the National Security Council. I suspect you have been in the 
situation room and the Oval Office. What is your view of his--I 
think two issues that are of concern--judgment and willingness 
to tell the President--give the President his best advice based 
upon his information and not necessarily what the President 
wants to hear?
    Secretary Mattis. Senator, you are right. I have worked 
with him for over 14 months. I have worked with him intimately 
during that time. I would just tell you I have seen a rigorous 
intellect. His judgment has been mature and objective while 
still applying subjective elements. It is not just a brittle 
approach to problem solving. He is never shy about providing 
his input to include when it was not the direction the 
discussion was going and he had to stand in opposition to the 
desires of some of us in the sit room.
    Senator King. Thank you. That is very helpful. I appreciate 
your providing that.
    General Dunford, you were asked about what is going on in 
Yemen, and you were saying we are making progress and it is a 
cultural change. There was a report just this morning allegedly 
3,500 schools in Yemen have been targeted by Saudi airstrikes. 
I do not know if that is true. That is an allegation. But I 
just worry that we are complicit in something that will turn 
out in the hindsight of history to be a humanitarian tragedy. 
And I would appreciate it if, for the record, you could supply 
us with what controls we have, what limitations we have, what 
we are doing to be sure that that is not the case.
    General Dunford. Senator, I will. I will supply it for the 
record.
    But what I would say here this morning is we are not at all 
involved in what we describe as the kill chain. So we are not 
involved in what targets to strike.
    Senator King. But my concern is that we can say that, but 
if we are doing intelligence and refueling, we have got our 
hands on this thing. We have got our fingerprints on it. And we 
cannot then say, well, we do not know what they are going to do 
with that fuel we put in their jets. I do not think that is 
going to be an acceptable answer if we find out--well, I think 
we are finding out now that some pretty bad stuff is happening 
with our engagement. I really hope you will give this some 
thought and give us some solid----
    General Dunford. Senator, I fully understand your concerns. 
We will outline that for you.
    Senator King. Thank you.
    To get back to the budget, which is the subject of this 
hearing, just looking at the numbers, I think it is very 
important that the public understand that we are talking about 
the lowest percentage of GDP for the defense budget in 
something like 70 years, 3.1 percent. I noticed in looking at 
the absolute numbers, this year's proposal is actually below 
the appropriation for 2010. So here we are 9 years later. 2010 
was 691. You are talking about 686. So I just think it is 
important to put those figures into context.
    And, Mr. Norquist, a question to you. It occurs to me that 
one of the things that is happening in the defense budget is 
that we are recapitalizing. We are in a sense paying deferred 
maintenance in terms of readiness, in terms of upgrading 
systems like the Ohio-class submarine that have not been 
upgraded in 30 years, the B-21. I would think in your position 
it would be helpful to us who have to justify this budget to 
our constituents to break that down a bit to say, okay, what is 
it that is current operations and what is it that is paying 
past due bills in effect. Do you agree that that is part of 
what is happening here?
    Mr. Norquist. I do. And just to put it in context, if 
instead of the sequestration back in 2011, Congress had simply 
capped defense at inflation, did not allow for pay raises and 
everything else, that is the number you would be at now. The 
difference is you would not have had several hundred billion 
dollars of lost buying capacity. You would not have been 
missing maintenance on equipment. You would not been having 
older planes that are not getting replaced. So you are not even 
in the same position. So the fact that it took Congress to 
raise the ceiling by $85 billion just to get back to where 
inflation alone would have put the defense budget shows you how 
deep a hole the Department has been in during that period of 
sequestration and the disruption to the military's readiness.
    Senator King. It is very important to make that point to 
the public because sometimes people just look at the number and 
say this is a huge number. It is more than other countries. 
Actually we are not the highest country in the world in terms 
of percentage of GDP. I think we are fourth or fifth. That is 
really I think the appropriate way to look at it.
    Final question and this is a short one because I am already 
out of time. Secretary Mattis, I presume, based upon your prior 
testimony that you think it is important to maintain and 
rebuild our diplomatic capacity at the State Department. That 
is a part of our national security apparatus. Is it not?
    Secretary Mattis. They are critical to our national 
security, Senator.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Scott?
    Senator Scott. Thank you, sir.
    Good morning to the panel. Thank you for being here and 
thank you all for your service to this country.
    Secretary Mattis, General Dunford, Secretary Norquist, I 
may be a little biased here but I do not think that I am. I 
think South Carolina is the epicenter of training and readiness 
of our military, whether it is Fort Jackson where we train more 
than half of the enlisted soldiers or Parris Island, Secretary 
Mattis, where you know we actually make half of the marines, or 
the Navy nuke school where we prepare our sailors, or Shaw Air 
Force Base where we have the largest F-16 wing in the Air 
Force, or if it is going to theater, it is likely going through 
a C-17 at Charleston Air Force Base, not to mention both SPAWAR 
[Space & Naval Warfare Systems Command] and the Savannah River 
site which I think is a forward-leaning, forward-looking part 
of our military.
    So when the National Defense Strategy discusses a return to 
great power competition with Russia and China, I am very 
interested in seeing America leverage the ingenuity and the 
imagination for our Nation to ensure that there is never a so-
called level playing field for our adversaries. To ensure 
American dominance in all areas, we must innovate faster and 
bring new capabilities like hypersonic weapons, directed 
energy, and advanced unmanned aircraft to the field sooner.
    With additional funding for R&D, how are we working to make 
sure that we get those new technologies in the hands of our 
warfighters as soon as conceivably possible? Secretary Mattis, 
please begin.
    Secretary Mattis. Senator, what we are doing right now is, 
because the Congress reorganized us, you expressed your 
displeasure over years with what we would call Acquisition, 
Technology and Logistics. You broke it in half. Ellen Lord now 
runs Acquisition and Sustainment. That is the current fighters 
you see, F-16's there, the current C-17's. That sort of thing 
is being addressed by Ellen Lord. But you also set up Research 
and Engineering under Michael Griffin, our Under Secretary, 
confirmed him. And he has the responsibility for directed 
energy, for hypersonics, for joint artificial intelligence 
efforts. So we are organizing now for an expeditious, output-
oriented exploration in research of these advanced technologies 
that we know are going to play a role. As we speed this 
forward, that is how we get them out in the hands of the troops 
fast, not by having more studies done but by actually having 
something developed and fly a hypersonic vehicle by X day. And 
now everybody works together.
    We are also concentrating the Department's efforts that 
were somewhat diffuse, which is not uncommon with new 
technology. But now we know what we need to focus on. So we are 
pulling those together. So the Army, the Navy, the Air Force 
are working together as service departments in making this a 
synergistic effort.
    Senator Scott. Thank you. Certainly looking at the comments 
of Secretary Griffin in the HASC [House Armed Services 
Committee] hearing about our inability to even see them coming, 
it is important for us to expedite that process as quickly as 
possible.
    Did you want to add anything, General?
    General Dunford. The only thing I would say is one of the 
other things, Senator--you know, so we have talked a little bit 
about science and technology research and development. A really 
key piece too is our exercises in experimentation. One of the 
key elements of the Secretary's strategy is to make sure that 
we regenerate our exercise program. It has suffered admittedly 
as a result of the operational tempo over the last decade. But 
as we look forward, better joint exercises, a core element of 
which is joint experimentation, will help move some of those 
capabilities through the pipeline a bit faster. And so I think 
there really is three pieces, two of which you spoke about, but 
that third piece is really critical. Particularly going into 
this summer, that is an area of particular interest for the 
Secretary and I.
    Senator Scott. Thank you.
    I want to continue on the subject of keeping the perch that 
we have.
    Secretary, you and several of your predecessors have stated 
how important it is for us to address our adversaries? theft or 
acquisition of intellectual property and sensitive defense-
related technology. You have officially endorsed the Foreign 
Investment Risk Review Modernization Act, FIRRMA, which Senator 
Cornyn and others on this committee, including myself, 
introduced to modernize the way we screen for an investment for 
national security risks.
    Do you see FIRRMA, while not necessarily a silver bullet, 
as one crucial step towards addressing the China threat?
    Secretary Mattis. It is critical on China, on a number of 
other threats that we face. Cyber, for example, is not only 
from China, but I would also point out that one of the reasons 
Secretary Mnunchin orchestrated the sanctions against China 
goes to the very heart of what you were just talking about, the 
intellectual property theft.
    Senator Scott. Would you support including FIRRMA as a part 
of the NDAA?
    Secretary Mattis. I would have no reservations whatsoever 
about it, Senator. It is a much broader effort than just 
Department of Defense. So I would not want it to become a 
military priority effort and not the same priority for others. 
It has got to be a whole-of-government. For example, Treasury 
Department, Commerce, Department of Energy, Homeland Security, 
they all have a role in this.
    Senator Scott. Yes. I am on the Banking Committee and we 
are working on it as well on the non-defense side.
    Do you believe, as the National Defense Strategy and your 
previous public comments suggest, that China poses the 
significant national security threat to the country still?
    Secretary Mattis. Senator, I think the one thing that this 
administration would be graded on most critically 10 or 15 
years from now, historians will look back and say did we 
develop a relationship with China, a mature relationship, a 
productive relationship, did we do everything we could as we 
look at the long-range competition to keep it out of war and 
into a more productive stance. And at the same time, some of 
the things that you have initiated are absolutely critical that 
we take our own side in this competition. So I think this is 
critical as you look at, but there is nothing that dictates 
this has to go to a force of arms between us if we do this 
right, along the lines I think you are doing right now.
    Senator Scott. Thank you, sir.
    I will just close, Mr. Chairman, with this comment. From my 
assessment, China's successful acquisition of United States 
technology is what helps them be a near-peer competitor.
    Senator Inhofe. Thank you, Senator Scott.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And I appreciate the witnesses' testimony. It has been an 
instructive morning.
    I want to do a Senator Kaine broken record topic and talk 
to you about congressional authorization for military force.
    You each appeared before the Defense Subcommittee of Senate 
Appropriations about a year ago, March 22, 2017. Secretary 
Mattis, you stated that, quote, I would take no issue with the 
Congress stepping forward with an AUMF [authorization for the 
use of military force]. I think it would be a statement of the 
American people's resolve if you did so. I thought the same 
thing for the last several years, I might add, and have not 
understood why the Congress has not come forward with this, at 
least a debate because I believe ISIS is a clear and present 
danger we face.
    General Dunford, the same day you stated, quote, I agree 
with the Secretary. I think not only would it be a sign of the 
American people's resolve but truly I think our men and women 
would benefit from an authorization for the use of military 
force that would let them know that the American people in the 
form of their Congress were fully supportive of what they are 
doing out there every day as they put their lives in harm's 
way.
    Are your feelings today generally consistent with the 
testimony you gave in the Senate a year ago on this topic?
    Secretary Mattis. Generally they are, Senator. I will say 
that we believe right now the operations we are conducting are 
legal and we have a feedback loop to the Congress to make 
certain we are not doing anything where you are not kept 
informed. We would need the right AUMF, and you and I have 
discussed it. That would be the only caveat I would say. We 
would not want to end up restricting ourselves.
    Senator Kaine. General Dunford?
    General Dunford. Senator, I feel the same way, and I think 
what the Secretary said is what I would have said first. You 
know, what I would be concerned about changes is just making 
sure that we have the inherent flexibility that we have today 
to be able to prosecute an enemy that does not respect 
boundaries in time.
    Senator Kaine. Secretary Mattis, you then after the March 
hearing that I described, sent a letter I think actually to the 
Senate Majority Leader in September of 2017, and then together 
with Secretary Tillerson appeared before the Senate Foreign 
Relations Committee at the end of October 2017. And in that 
letter and here, you talked about some of the sort of 
limitations or concerns that you might have that the idea of an 
authorization, the idea of congressional expression of resolve 
would be good thing, but that on the operational side, you 
would have concerns. And you shared in that letter and in that 
testimony some of the concerns that you have. I do not need to 
go through those, but you remember those.
    Is that still generally your point that if we could do a 
congressional authorization, great, but take into account some 
of the reservations or concerns you expressed?
    Secretary Mattis. Yes, sir. I am still aligned with those 
comments.
    Senator Kaine. I have worked on this matter, and I have 
proceeded upon an additional assumption that I think is 
important for Congress, that if we were to do an authorization, 
it would be very important that the authorization be done in a 
way that was bipartisan so that we would not be sending a sign 
either to the American public or especially to our troops that 
support for military action against non-state terrorist groups, 
for example, is something that just one party supports and not 
the other because then that would raise a question of, okay, a 
good or bad election might then lead to a lack of resolution, 
which would make people wonder whether they were being 
supported out on the battlefield.
    Do you share that thought that if we can do a resolution, 
it should not only be one that protects operations but also 
expresses a bipartisan resolve of Congress?
    Secretary Mattis. I think it is critical that our 
adversaries and our allies see a unified America when we make 
the grave decision to put our troops in harm's way, sir.
    Senator Kaine. Just as I close, Senator Corker and I have 
introduced an authorization that is being taken up by the 
Senate Foreign Relations Committee soon. We have attempted to 
incorporate into that authorization, Secretary Mattis, some of 
the concerns you expressed in the letter of September 2017 and 
the subsequent congressional testimony. It is bipartisan and 
thus involves compromises. But since the chair of that 
committee has indicated a desire to take it up and put it 
through a markup of the committee, I look forward to working 
together with you and other administration officials so that we 
can hopefully get this right and express that bipartisan 
resolve that I think our troops deserve.
    Secretary Mattis. Thank you.
    Senator Inhofe. Thank you, Senator Kaine.
    Senator Donnelly?
    I will remind those remaining that while our timer has 
malfunctioned, we will remind you.
    Senator Donnelly. Is there a reason you said that right 
before I spoke, Mr. Chairman?
    [Laughter.]
    Senator Donnelly. Thank you very much to the witnesses.
    I want to thank you all of you for your implementation of 
the Sexton Act requirements regarding military suicide. I know 
how hard you have worked on this. I know the efforts that have 
been put in and how you have worked hard to reduce that.
    As you look ahead, what are the top priorities now for you 
when you look at this and you try to determine what else can we 
do to move the ball here? What do you think are some of the 
things that we can still accomplish?
    General Dunford. Senator Donnelly, we actually had a brief 
conversation about that with the House Appropriations Committee 
yesterday. And I think one of the more promising things that we 
have seen is this kind of interdisciplinary model of mental 
health care. So that has had a big impact. But we do have 
significant shortages of the right experts in the right places, 
and it is hard to sometimes attract the right--you know, we 
have a small population of uniformed experts. Then we rely on 
some contract support. In certain places where our forces are--
and you have certainly seen the same scourge with veterans 
where getting the right care to the right people is a difficult 
thing. So leveraging things like telemedicine, finding ways to 
deliver that multidisciplinary model even in locations that are 
geographically difficult to attract the right people I think is 
the key thing.
    But in my own personal experience--and I spend a little 
less time on it now than I have in previous assignments just 
because of the nature of my assignment--the single biggest 
change in my judgment has been the change in the culture of the 
medical profession to that multidisciplinary approach and then 
combined with the full visibility of what is going on with an 
individual in the leadership realm or with the chaplain and so 
forth. So what I used to tell people is if I knew as much about 
people when they were alive as I found out about them after 
they die, we would have been able to do something to help fix 
this. So I think that that multidisciplinary approach is 
probably the biggest thing in terms of investment, and then 
making sure that we actually do know as much about our men and 
women when they are alive as we sometimes find out after they 
die is probably the biggest thing we need to continue to 
emphasize. A piece of it is resources but a piece of it is 
continuing to have the kind of decisive engaged leadership that 
we have seen be successful.
    Senator Donnelly. Thank you.
    Another thing that you have been working with me and with 
all of us on in Syria is to try and find the young men and 
women who ISIS killed while they were there. We appreciate all 
your hard work, and I just want to say one more time if we 
could continue to keep looking and continue to make that 
effort, it would mean the world to those families who have 
young people who are still over there.
    Secretary Mattis. Please assure them, Senator, that we are 
doing exactly that. We track this. We get reports frequently 
about leads. There is no stone left unturned as we try to 
resolve this.
    Senator Donnelly. And as we are looking at Syria, you hear 
things from here, from over there, from wherever. When we talk 
about leaving as soon as we have wrapped up ISIS, I have great 
fears of seeing history repeat itself in some ways that we 
simply head out, and the second we do, ISIS comes back in. And 
I know that the Department of Defense, General Dunford, you 
have all said, look, we are just not walking away, but I want 
to make sure that we have a plan in place to protect those 
people in those regions that we have stood with, who we have 
given our word to, and who have relied on us as partners and 
have stuck their necks out for us as well.
    Secretary Mattis. Senator, what we are doing right now is 
we are helping the local places that we have liberated put 
together their own civilian leadership. Civilian councils we 
call them. We are training their police chief, the deputy 
chief, and a handful of others so when they bring people in, 
they have got some professional folks there. So if ISIS tries 
to come back at them, they are taken care of.
    Then we are working the political process to make sure they 
are not left to drift in terms of not having a seat at the 
table for their future, their longer-term future. That is a 
diplomatically led effort, but it is one that the State 
Department, Brett McGurk, former Secretary Tillerson, Acting 
Secretary Sullivan will have been working on. So there will be 
no loss of momentum as we go forward.
    Senator Donnelly. Yes. I worry about them looking up one 
day--the local forces--and seeing the trucks coming back in 
with ISIS. As they say, we do not want to buy the same real 
estate twice.
    I also want to ask, what does success in Afghanistan look 
like a year from now?
    Secretary Mattis. Sir, it is probably going to take more 
than a year is the first point I would make.
    Senator Donnelly. Right. If you are a year out, where do 
you want to be, and then what does success look like?
    Secretary Mattis. A more capable Afghan force between their 
military and their police, the violence level going down. As 
you know, the Taliban have been unable to take over any more 
district or provincial centers since last August, and as a 
result, they have turned to high visibility bombings for the 
very outcome they have achieved, which is getting a lot of 
news, that sort of thing.
    I think too that we are going to see fewer casualties. We 
dominate the area. In other words, we have got NATO air support 
for them on the ground now with people from NATO countries 
calling the support. We have sent over reinforcements.
    And lastly, you will see elections ongoing. You will notice 
that one of the targets of the Taliban is the election 
campaign. We are going to sustain this effort under President 
Ghani, get the elections in, and it will be a reminder to 
everybody in the country that the Taliban know they cannot win 
through ballots. That is why they turn to bombs. That does not 
endear them to the population.
    Senator Donnelly. Thank you all.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Donnelly.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Cruz, our timer is not functioning 
properly. We will let you know.
    Senator Cruz. I will try to take no more than 40 minutes.
    [Laughter.]
    Senator Cruz. Gentlemen, good morning. Welcome. Thank you 
for your service.
    Let us start with a topic that is much in the news, which 
is Iran. Mr. Secretary, in your judgment, what would be the 
national security implications for the United States if Iran 
were to acquire nuclear weapons?
    Secretary Mattis. I think the implications for the United 
States and for every nation in the region--it would be an 
increased level of danger at a level we have never experienced 
from this regime.
    Senator Cruz. General Dunford, anything to add on that same 
question?
    General Dunford. No. I think the Secretary captured that, 
Senator. I mean, given the behavior of Iran and how difficult 
it is to deal with all the other challenges they present, 
certainly the possession of a nuclear weapon would be of great 
concern.
    Senator Cruz. Let us shift to another topic. Let us shift 
to space. General Dunford, you have acknowledged that, quote, 
unlike previous eras, when space was considered a benign and 
unchallenged environment, space is now a contested domain. And 
based on that shared assessment, I introduced language in last 
year's NDAA, which my colleagues on this committee supported, 
that officially labeled space as a combat domain, and it called 
for a policy to develop and field an integrated system of 
assets to protect our space-based capabilities, to deter or 
deny attacks in space, and to defend the U.S. Homeland, our 
allies, and deployed forces.
    In your judgment, what is the United States' greatest 
military comparative advantage in space relative to Russia and 
China?
    General Dunford. Senator, I think there is really a few, if 
you do not mind me listing them. One is obviously we leverage 
space for our command and control systems. We leverage it for 
navigation, and that also includes our ability to deliver the 
precision munitions. The other area that we leverage it for is 
intelligence, surveillance, and reconnaissance. So, for 
example, when North Korea was doing testing, just to put a 
finer point on it, the first indicators we had that there was a 
missile test came from our space-based assets. So we really do 
have some--we do leverage space for some of the core 
capabilities of the Department.
    Senator Cruz. And what are our greatest vulnerabilities in 
space, and what are we doing and should we be doing to mitigate 
those vulnerabilities?
    General Dunford. What we see with China, Russia, and to 
some degree some other countries, they developed the ability to 
jam our systems. They developed the ability to laser-blind our 
systems. They are some of the biggest challenges. Then one that 
was referred to earlier is we have got a lot of space junk out 
there that puts at risk our targets, and as that increases, 
that becomes a greater threat as well. So those would be the 
three that I would highlight.
    Senator Cruz. Let me shift to a related topic, which is 
missile defense. In the last decade, near peer competitors like 
Russia and China have been able to rapidly test and field 
technologies that have given the edge in hypersonic flight. 
These hypersonic weapon systems can be launched and flown in 
methods traditionally associated with ballistic missiles. The 
combination of speed, trajectory, and maneuverability make 
these systems increasingly challenging for our missile defense 
systems to defend against them and ultimately defeat them.
    How do you view the dual necessity of, number one, 
developing new missile defense capabilities to intercept 
hypersonics earlier in flight and, number two, furthering the 
development of our own hypersonics?
    Secretary Mattis. Sir, the reorganization of Acquisition, 
Technology, and Logistics now has someone focused on these 
areas, Mike Griffin with a NASA [National Aeronautics & Space 
Administration], Lincoln Labs background. Hypersonics is the 
number one priority, both having them for ourselves but also 
the defense against them. We can go into a classified briefing 
for you, sir, about where we are going with it. But I would 
just register that it is our number one priority in the 
developing technologies.
    Senator Cruz. And obviously, please let this committee know 
what else we need to be doing to assist in that.
    Let me finally focus on--the administration has taken very 
positive steps to strengthen missile defense in the Korean 
Peninsula, particularly with the deployment of THAAD [Terminal 
High-Altitude Air Defense] batteries. Even so, the capability 
is calibrated for ballistic missiles and is ill-equipped to 
defend against conventional threats like rockets, artillery, 
mortars, of which North Korea has stockpiled a staggering level 
both to hold Seoul hostage and also to target capabilities like 
THAAD.
    In your judgment, what steps should we take to further 
protect South Korea against North Korean rockets, artillery, or 
mortars?
    General Dunford. Senator, I will start with that. Only so 
much can be done with defensive capabilities. And a key element 
of dealing with the challenges presented by North Korea is our 
offensive strike capability as well. And one of the things that 
we really have started working on over the last 15 months--
truth be told, we divert a lot of our intelligence, 
surveillance, reconnaissance assets away from the peninsula for 
a long period of time. So if you ask me right now what is the 
best way to get after that problem, increase our intelligence, 
surveillance, reconnaissance--we call that find the threat--and 
then be in a position to conduct strikes against the threat. 
And our plans, without speaking with specificity today, are 
very much focused on more concerted strikes against that 
artillery, rockets, and denying them that capability. So it is 
really a combination in my view of there is a baseline of 
defensive capabilities that we need to have in the greater 
Seoul area in particular but also enhancing better the ability 
to conduct offensive strikes against those systems.
    Senator Cruz. Terrific. Thank you, gentlemen.
    Senator Inhofe. Thank you, Senator Cruz.
    Senator Nelson?
    Senator Nelson. Mr. Chairman, I will be quick.
    When we talk about challenges in space, we got to talk 
about challenges in cyber. And I would like to take it from a 
different standpoint. Not only does cyber threat to the country 
but to what degree is the Department of Defense, our Cyber 
Command going to be involved in cyber-enabled information 
operations like the Russians did to us in the 2016 election? Is 
that something you want to talk to in a different forum?
    Secretary Mattis. It would be best in a different forum, 
sir.
    Senator Nelson. Okay.
    Niger. One of those servicemembers was from Florida. They 
are just about to produce the report, and in fact, the 
families, as we speak, have been informed. Is there anything 
that you can tell us, Mr. Secretary, about the report?
    Secretary Mattis. Sir, we have a 200-page summary--I know 
that sounds like a long summary, but it was a very involved 
investigation spanning three continents. The last family will 
be notified on Monday. Already in your classified vaults, the 
SASC [Senate Armed Services Committee] has available the 200-
page. I can also get the 6,300 pages up. Many of those pages I 
have read. But I think right now we have found what we believe 
to be the crux of the problems, not problem but problems, that 
contributed to this. It was not a delegation of authority 
problem. So we know immediately how to address those. And we 
are doing that right now, addressing those problems.
    Senator Nelson. Finally--and I will. I will go and I will 
read that report.
    Quickly, you have touched a lot today on Syria, but the 
truth is that Iran now has a land bridge all the way to Beirut 
through Iraq, through Syria, on into Lebanon. Is there any 
additional thing that you want to share, Mr. Secretary, about 
how we are going to protect our interests in Syria, given that 
that is a new significant threat?
    Secretary Mattis. Well, the broader strategy, sir, has got 
to take this into account. And if Iran does not change its 
behavior--and I have no reason to think that they will under 
the current regime. The Iranian people are held hostage by this 
regime's leadership. So long as they continue to fund the level 
of proxy warfare, whether it be in Yemen or the explosives they 
send into Saudi Arabia or into Bahrain--and then you are 
pointing out the crescent, as they try to resupply their proxy 
in Lebanon and Syria through a land bridge. I would just 
suggest that Iraq has not yet succumbed to the idea that they 
need to be a rump state of the Iranian regime, and I believe 
that we are well advised to continue to support the Iraqi 
Security Forces and the legitimate government in Baghdad, as 
one of the ways to avoid this becoming a reality.
    I would also say that the Geneva process in resolving the 
Syria civil war would set the conditions for more interruption 
of that.
    Then, of course, Lebanese Hezbollah has got to be looked at 
as a separate and distinct problem inside Lebanon.
    Senator Nelson. Thank you, Mr. Secretary.
    Senator Inhofe. Thank you, Senator Nelson.
    The majority and the minority have agreed, in that there 
are votes taking place right now, that at the conclusion of the 
remarks and questions by Senator Blumenthal, we will be 
adjourned.
    Senator Blumenthal is recognized.
    Senator Blumenthal. Am I recognized?
    Senator Inhofe. Yes, you are.
    Senator Blumenthal. Thank you.
    I will be brief because we do have votes, and I want to, 
first and foremost, apologize for being absent for a large part 
of the hearing. A lot has been going on in the Judiciary 
Committee and other committees. And I will ask one brief 
question and then perhaps supplement the record with others.
    Have you seen any change in North Korea's cyber activities 
since the diplomatic discussions concerning a meeting between 
Kim and President Trump?
    Secretary Mattis. We have not seen a change. Now, I did not 
specifically go in and look at this in the last week or 2, but 
I get the reports routinely frankly. So I cannot give you a 
good answer on that, a straight answer on it, sir, but I can 
get back to you, sir, and tell you what we find.
    [The information referred to follows:]

    [Deleted.]

    Senator Blumenthal. Because I have the impression over the 
years that I have been on the Armed Services Committee that 
their cyber activities have mounted over the years. Obviously, 
they have attacked us on a number of occasions. So I would be 
very interested in your response.
    As I say, I have other questions that I would like to put 
to you. In light of the vote and in light of your very long and 
valuable attendance here and your forthright answers, I am 
going to spare you any more time. But thank you for your 
service and thank you for all you do for the country. Thank 
you.
    Secretary Mattis. Thank you, Senator.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Deb Fischer
             inf treaty-compliant research and development
    1. Senator Fischer. Secretary Mattis, the administration's Nuclear 
Posture Review states: ``The United States is commencing INF Treaty-
compliant research and development by reviewing military concepts and 
options for conventional, ground-launched, intermediate-range missile 
systems.'' Please provide an update on the status this research, as 
well as an anticipated timeline and an identification of major 
milestones associated with this activity.
    Secretary Mattis. The Department of Defense continues to make 
progress in exploring options for conducting Intermediate-Range Nuclear 
Forces (INF) Treaty-compliant research and development on a 
conventional, ground-launched intermediate-range missile system. The 
Department has evaluated a range of potential solutions, and once a 
discrete set of the most promising systems is identified, formal 
development timelines and major milestones will be established.
                           open skies treaty
    2. Senator Fischer. Secretary Mattis, do you believe continued 
participation in the Open Skies Treaty is in the best interest of the 
United States?
    Secretary Mattis. Yes. It is my view that it is in our Nation's 
best interest to remain a party to the Open Skies Treaty.

    3. Senator Fischer. Secretary Mattis, would you agree that the 
United States and our allies enjoy benefits from participation?
    Secretary Mattis. Yes. The Open Skies Treaty contributes to greater 
transparency and stability in the Euro-Atlantic region, which benefits 
both the United States and our allies and partners.

    4. Senator Fischer. Secretary Mattis, do you believe we would 
negatively impact relationships and security cooperation with our 
allies by withdrawing from the treaty?
    Secretary Mattis. U.S. participation in the Open Skies Treaty 
provides us with an important mechanism for engaging with our allies 
and partners. The treaty contributes to greater transparency and 
stability in the Euro-Atlantic region, which benefits both the United 
States and our allies and partners.

    5. Senator Fischer. Secretary Mattis, do you believe the current 
OC-135 is limited in its ability to fly the full range of Open Skies 
missions, and that a new platform would allow us to maximize the 
benefit of our participation in the treaty?
    Secretary Mattis. Yes. In order to maximize U.S. benefits from the 
Treaty, the United States needs to recapitalize and modernize its 
sensors and aircraft. The 1960s-era United States Open Skies aircraft 
are ill-suited to extreme operating environments in Russia and 
experience regular, unplanned maintenance issues, often resulting in 
mission delays or cancellations. In order to ensure that the United 
States can exercise its full treaty rights, I directed the Air Force to 
begin an effort to recapitalize the U.S. Open Skies aircraft.
                               __________
              Questions Submitted by Senator Dan Sullivan
    authorization for use of military force and article i war powers
    6. Senator Sullivan. Secretary Mattis and General Dunford, Article 
I, Section 8, Clause 11 of the U.S. Constitution grants Congress the 
power to declare war. Is it your understanding that before entering 
into a ``pre-emptive or preventative ground war'' with North Korea on 
the Korean Peninsula that the President of the United States would have 
to come to Congress for an Authorization for the Use of Military Force 
(AUMF)?
    Secretary Mattis. I appreciate the support Congress continues to 
provide on matters related to North Korea and remain committed to 
cooperating with Congress going forward.
    The President retains the authority to take actions in self-defense 
in the event of an imminent North Korean attack. That decision will be 
made based on the threat and immediacy, and informed by intelligence 
and consultations with our allies and partners.
    It is well-established that the President, as Commander in Chief 
and Chief Executive, responsible for ``foreign and military affairs,'' 
as well as for national security, has the power to commit U.S. Forces 
abroad, as well as to take military action, for the purpose of 
protecting important national interests, even without specific prior 
authorization from Congress. The administration is currently committed 
to pursuing a diplomatic solution. Should circumstances change, the 
administration remains committed to cooperating with Congress.
    General Dunford. In the event of an attack or imminent threat of 
attack from North Korea, we have the authorities required to protect 
United States interests and meet our alliance commitments. In the case 
of a pre-emptive strike or deliberate campaign on the Korean peninsula, 
my military advice to the Administration would be to seek the support 
of Congress.
    Our Nation has a greater degree of success in war when the Joint 
Force has the full-throated support of Congress.

    7. Senator Sullivan. Secretary Mattis and General Dunford, Article 
I, Section 10, Clause 3 of the U.S. Constitution states, ``No State 
shall, without the Consent of Congress . . . engage in War, unless 
actually invaded, or in such imminent Danger as will not admit of 
delay.'' Article II, Section 2, clause one states, ``The President 
shall be commander in chief of the Army and Navy of the United States, 
and of the militia of the several states, when called into the actual 
service of the United States.'' Additionally, Article II, Section 2, 
Clause 2, states ``He shall have power, by and with the advice and 
consent of the Senate, to make treaties, provided two thirds of the 
Senators present concur; and he shall nominate, and by and with the 
advice and consent of the Senate, shall appoint ambassadors.'' In the 
case of North Korea, how broadly or narrowly do you interpret the 
President's Article II authorities to engage military forces in 
hostilities and engage in foreign relations? How broadly or narrowly do 
you interpret Congress' Article I authorities to declare war?
    Secretary Mattis. I appreciate the support Congress continues to 
provide on matters related to North Korea and remain committed to 
cooperating with Congress going forward.
    The President retains the authority to take actions in self-defense 
in the event of an imminent North Korean attack. That decision will be 
made based on the threat and immediacy, and informed by intelligence 
and consultations with our allies and partners.
    It is well-established that the President, as Commander in Chief 
and Chief Executive, responsible for ``foreign and military affairs,'' 
as well as for national security, has the power to commit U.S. Forces 
abroad, as well as to take military action, for the purpose of 
protecting important national interests, even without specific prior 
authorization from Congress. The administration is currently committed 
to pursuing a diplomatic solution. Should circumstances change, the 
administration remains committed to cooperating with Congress.
    General Dunford. Among my responsibilities as Chairman of the Joint 
Chiefs of Staff is providing military advice to the President, 
Secretary of Defense, and National Security Council. I, along with all 
other members of the Joint Force, swore an oath to support and defend 
the Constitution of the United States.
    I am committed to performing these duties, to working with the 
administration, and providing candid advice to the President, Secretary 
of Defense, and all members of the National Security Council. As 
mentioned in the previous response, I would advise the President to 
seek Congressional support before conducting a preemptive strike or 
deliberate campaign on the Korean Peninsula.
                 missile defense and defeat--priorities
    8. Senator Sullivan. Secretary Mattis and General Dunford, given 
recent increases in Ballistic Missile Defense and Missile Defeat in the 
NDAA and the upcoming release of the Missile Defense Review (MDR), what 
do you see as the next short term steps to solidify the United States 
against Ballistic Missile Threats from all threats in the near term? 
What capabilities do we need to invest in this year?
    Secretary Mattis. Today, the Ground-based Midcourse missile defense 
system (GMD) provides protection for the Nation. In September 2017, DOD 
requested the reprogramming of more than $400 million to counter the 
North Korean missile threat. A portion of these funds support the 
important Homeland defense activities, including initiating work on the 
procurement of 20 additional ground-based interceptors in Alaska as 
early as 2023, which will bring the total to 64 fielded interceptors. 
This reprogramming also funded a service life extension to the Cobra 
Dane Radar in Alaska and software upgrades to the Sea-Based X-Band 
Radar, which are both essential elements of our Homeland defense. Last 
November the President submitted an amendment to the fiscal year 2018 
budget request for $4 billion of additional funding for missile 
defense, which includes construction of a new missile field at Fort 
Greely, Alaska, and additional procurement funding for the 20 necessary 
GBIs. The fiscal year 2019 budget request includes $9.9 billion for 
missile defense--for the Missile Defense Agency and $3 billion for air 
and missile defense programs in the services. This budget funds a more 
capable ground-based interceptor with a redesigned kill vehicle, the 
deployment of new missile tracking and discrimination sensors in 
Alaska, Hawaii and the Indo-Pacific region, and a new space-based kill 
assessment capability. These near-term investments will enable us to 
obtain substantially more performance and efficiency out of the GMD 
system necessary to meet the evolving threat.
    General Dunford. Prior to the 2018 National Defense Strategy (NDS), 
the primary focus of our ballistic missile defense was on rogue 
nations. However, the 2018 NDS directed reprioritization to major power 
competition, in particular reversing the erosion of United States 
military advantage in relation to China and Russia. In this 
environment, we need to be concerned about ensuring that our ballistic 
missile defense capability keeps pace with the increasing threats. Our 
adversaries are developing missile defense countermeasures, hypersonic 
glide vehicles and a wide range of nuclear-armed missiles that are 
capable of posing a direct threat to the United States and our allies.
    Current priority missile defense upgrades and capability 
advancements include:
    Sensor and discrimination capabilities. Continued development of 
the Long Range Discrimination Radar (LRDR) in Alaska. Upgraded and 
expanded land, sea, and space based detection and tracking sensors.
    Kill vehicles. Increase the reliability and lethality of our 
interceptors including the development of the Redesigned Kill Vehicles 
(RKV) for the GBI, and completion of testing and deployment of the SM-3 
Block IIA capability.
    GBIs. Increase the GBI inventory to 64 by completing Missile Field-
4 at Fort Greely, Alaska to provide silos for 20 additional fielded 
interceptors as early as December 2023.
    Capability and capacity. Increase the robustness of regional 
missile defense capability and capacity including deployment of the 
Aegis Ballistic Missile Defense (at sea, on land and Standard Missile-
3), the Terminal High-Altitude Area Defense (THAAD) capabilities, and 
implementation of recommendations from the Department's Joint Regional 
Integrated Air and Missile Defense Capability Mix (JRICM) study.
    Pending release of the Missile Defense Review (MDR), we are 
reviewing non-materiel options aligned with the National Defense 
Strategy and specific portfolio investment strategies that best posture 
the Joint Force to reverse the negative trends against potential 
adversaries. We are exploring efficiencies gained by fusing non-
kinetic, cyber, electromagnetic, and kinetic capabilities to deny, 
defend, and defeat adversary threats.
    Areas for priority technology investment include effective 
discrimination in the current and future Ballistic Missile Defense 
Sensor architecture and completion of the Defense against Hypersonic 
Weapons Threats Analysis of Alternatives in 2018 to inform/guide any 
future hypersonic defense capability development. We continue to gain 
synergy through integrated missile defense planning, force management, 
and operations support ensuring global coordination of regional missile 
defense execution--thereby, matching the best interceptor with the best 
sensor.
    Finally, we must strengthen our collaboration with our allies and 
explore further integration of our collective capabilities toward an 
effective mutual defense. We are investing in collaboration with our 
allies across multiple venues, including the USSTRATCOM-hosted Nimble 
Titan: a global and regional multinational two-year ballistic missile 
defense series of experiments executed within an integrated air and 
missile defense context.
                            south china sea
    9. Senator Sullivan. Secretary Mattis and General Dunford, China 
continues to engage militarily in the South China Sea, despite United 
States and international efforts to maintain freedom of navigation. In 
your professional military opinion what are China's broad strategic 
objectives in the South China Sea and how does that affect our allies?
    Secretary Mattis. China's assertive activities in the South China 
Sea are part of a broader strategy to leverage China's growing military 
power to advance Chinese control over disputed territories and to 
coerce rival claimants into showing deference to China's claims. 
China's strategy is to change the status quo through incremental 
actions that fall below the threshold of conflict. China's assertive 
and coercive behavior is leading to increased anxiety in the region 
over China's long-term intentions. The United States is committed to 
upholding freedom of navigation and overflight, to seeking peaceful 
resolution of disputes, and to fulfilling our obligations to our allies 
and partners. We will also support and assist our allies and partners 
in their efforts to improve maritime security, maritime domain 
awareness, and interoperability and in boosting their capability and 
capacity to reduce vulnerability to coercion from China.
    General Dunford. China's primary objective in the South China Sea 
is to exercise effective control overs it maritime claims. Although 
disputed, these claims constitute nearly the entire South China Sea. 
The infrastructure and assets China constructed and deployed on 
reclaimed features enhance its presence in the South China Sea and 
improve the Chinese military's ability to enforce China's maritime 
claims--claims that conflict in carrying degrees with those of Brunei, 
Malaysia, the Philippines, Taiwan, and Vietnam.
    A persistent Chinese military presence in the South China Sea 
constitutes a latent threat of coercion against regional powers due to 
the important shipping lanes traversing the area. For example, United 
States allies and partners in Northeast Asia rely heavily on the flow 
of commerce through these shipping lanes, which includes more than 80 
percent of their crude oil supplies. China has also used maritime law 
enforcement and paramilitary means to assert control over resources and 
economic activities within dispute areas, such as fisheries and energy 
extraction.
    China is using its actions in the South China Sea to normalize its 
presence and activities, and shape the regional political environment, 
seeking to bring regional nations' interests into alignment with 
China's, and discourage confrontation or criticism of China's approach.

    10. Senator Sullivan. Secretary Mattis and General Dunford, 
following up on the previous question, in your professional military 
opinion, beyond continuing to ``fly, sail, and operate wherever 
international law allows,'' what more should the United States be doing 
to respond to China's on-going militarization of their features?
    Secretary Mattis. The Department of Defense strongly supports the 
whole-of-government approach to this crucial region and is working to 
strengthen the lethality and readiness of U.S. Forces, while also 
enhancing the military capabilities of key allies and partners in the 
region. We are also working with allies and partners through DOD 
programs like the Southeast Asia Maritime Security Initiative to 
enhance shared capabilities, increase defense investment, improve 
interoperability, streamline information sharing, and build networks of 
capable and like-minded partners to address common challenges. The 
United States will also continue to pursue a constructive, results-
oriented relationship with China in which we seek to improve 
communication and reduce risks. However, we will not accept policies or 
actions that threaten to undermine the international rules-based order, 
a system that has benefited everyone in the region, including China.
    General Dunford. Senator, given the current geopolitical 
environment and the comprehensive national effort by China to support 
their militarization of the region, our response must also exercise the 
coordinated strength of the whole of the United States Government. We 
continue to work closely within the interagency to ensure we approach 
this challenge with such a whole-of-government response, enhanced by 
our existing military efforts.
                  strategic competition in the arctic
    11. Senator Sullivan. Secretary Mattis, after your confirmation 
hearing last year, I asked what capabilities are needed to deter 
Russian aggression and offset strategic competition in the Arctic, 
which you coined as ``key strategic terrain.'' You responded that it 
was a complex question and you would need to consult General Dunford, 
the Service Chiefs and COCOM commanders for an assessment. Fifteen 
months later, what's your opinion now?
    Secretary Mattis. The National Defense Strategy (NDS) identifies 
long-term strategic competition with China and Russia as the primary 
challenge to the United States' national security. To address this 
challenge, the NDS prioritizes building a Joint Force capable of 
defending the Homeland as well as deterring and, if necessary, 
defeating aggression by a major power. The NDS outlines capability 
investment priorities that, although not unique to the Arctic, will 
better enable the Joint Force to deter aggression by any major power 
and defend our national security interests. These priorities include, 
but are not limited to, the modernization of nuclear forces, missile 
defense, and command, control, communications, computers, and 
intelligence, surveillance, and reconnaissance capabilities.
    The Department continues to work toward enhancing the Joint Force's 
ability to operate within the specific challenges associated with the 
Arctic environment, including domain awareness and long-range 
communciations. The Commander of U.S. Northern Command, as the 
Department of Defense Advocate for Arctic Capabilities, exercises 
responsibility for identifying specific capability needs to support 
such operations. The Department will continue to address these needs 
through prudent investments and within existing budgetary processes.
    The United States also recognizes that the Arctic is an area of 
cooperation. The NDS recognizes our alliance and partner network as a 
key element of the strategy and source of advantage for the United 
States. As a result, close coordination with our allies and partners in 
the Arctic is a key element of our approach to this strategic terrain. 
Through the Arctic Council, all eight Arctic nations cooperate on 
issues ranging from search and rescue to scientific, environmental, and 
economic collaboration. This approach will ensure that we best leverage 
our respective expertise and resources in the region.

    12. Senator Sullivan. Secretary Mattis, the National Defense 
Strategy says ``America can expand the competitive space, seizing the 
initiative to challenge our competitors where we possess advantages and 
they lack strength.'' Shouldn't this also be taken literally in terms 
of Russia and the Arctic, especially with the importance they place on 
the region?
    Secretary Mattis. The National Defense Strategy (NDS) outlines a 
comprehensive global approach to expanding the competitive space as 
part of long-term strategic competition with China and Russia. Building 
a more lethal, resilient, and agile Joint Force able to deter and 
defeat aggression by any major power is a critical line of effort to 
this strategic approach.
    The NDS also affirms that in expanding the competitive space, the 
United States will continue to be open to opportunities for engagement 
with competitors. Implementing the NDS will ensure that the United 
States is able to approach any engagement from a position of strength 
and based on national interests. The Department's objective for the 
Arctic is a secure and stable region where the Homeland is defended and 
the United States' national interests are safeguarded. In support of a 
stable Arctic region, the Department will be prepared to respond to 
contingencies both independently and in cooperation with like-minded 
nations.
                withdrawing troops from korean peninsula
    13. Senator Sullivan. Secretary Mattis, in mid-March, the 
Washington Post obtained an audio recording from a fundraising speech 
in Missouri wherein President Donald Trump appeared to threaten to 
withdraw 32,000 United States troops from South Korea if he can't get a 
better trade deal with Seoul. He also said, ``Our allies care about 
themselves. They don't care about us.'' What are the strategic risks 
associated with withdrawing United States troops from the Korean 
Peninsula? How would our allies and adversaries view such a move?
    Secretary Mattis. The Department of Defense is not considering the 
withdrawal of United States Forces from the Korean Peninsula. Any 
changes to United States Force posture or presence would begin with 
close consultations with our allies in Seoul and Tokyo.

    14. Senator Sullivan. General Dunford, what are the operational and 
tactical risks associated with withdrawing troops from the Korean 
Peninsula?
    General Dunford. The operational or tactical implications to our 
operational plans should be addressed in a classified session. 
Generally, the specific implications would vary based on the type, 
quantity, and geographic locations a specific unit was redeployed to. 
However, to reiterate, there are no plans to withdraw United States 
Forces from the Korean Peninsula. The United States military presence 
in Korea has brought stability to the peninsula and the broader region 
for nearly 70 years. They symbolize the military's critical role in 
securing United States interests in the Indo-Pacific region while 
honoring our commitments to our partners and allies. We would evaluate 
any proposed force posture adjustments against the ability to maintain 
a sustained, positive impact on the security environment and in 
consultations with our allies, to include the Republic of Korea.

    15. Senator Sullivan. Secretary Mattis and General Dunford, in your 
personal opinions, is withdrawing the troops a prudent course of 
action?
    Secretary Mattis. Our presence on the Korean Peninsula is based on 
our alliance with the Republic of Korea, forged during the Korean War. 
The presence of United States Forces in any country is contingent upon 
the desires of the host government and the interests of the United 
States, including our treaty commitments. Given the security conditions 
that exist in the region today, the presence of U.S. Forces is a 
demonstration of our ironclad commitment to defend our allies.
    General Dunford. I do not believe withdrawing our forces would be a 
prudent course of action, and to be clear, we have not been instructed 
to make any changes to our Force Posture. Our presence on the Korean 
Peninsula is a result of our strong alliance with the Republic of 
Korea, forged during the Korean War, and strengthened over the last 68 
years. The presence of U.S. Forces in any country is contingent on the 
desires of the host government, the decisions of President of the 
United States, and our treaty commitments.
                               __________
                Questions Submitted by Senator Jack Reed
                     channels for military dialogue
    16. Senator Reed. Secretary Mattis and General Dunford, in response 
to Russia's annexation of Crimea and aggression against Eastern 
Ukraine, the National Defense Authorization Act from fiscal year 2015 
prohibited bilateral military-to-military cooperation with Russia, with 
certain specified exceptions. That prohibition remains in place today. 
As Russia continues its aggression towards us, our allies, and 
partners, the risk of conflict resulting from miscommunication or 
misunderstandings remains high and the margin for error is low. Do you 
believe expanded engagement with Russia through military-to-military 
dialogues at multiple levels would be beneficial for reducing the risk 
of conflict as a result of misunderstanding and miscalculation?
    Secretary Mattis. The Department of Defense continues to maintain 
open lines of communication at multiple levels with the Russian 
Federation on issues central to reducing the risks of misunderstanding 
and miscalculation. This includes communication on topics including 
operational deconfliction, strategic stability, and our existing arms 
control obligations.
    The Office of General Council closely reviews these engagements and 
at no point to date did they constitute military cooperation in the 
sense prohibited by section 1232 of the Fiscal Year 2017 NDAA or 
section 1231 of the Fiscal Year 2018 NDAA.
    Currently, we do not assess that expanded engagement with Russia 
through military-to-military dialogue would have any effect on reducing 
the risk of conflict as a result of misunderstanding or miscalculation.
    General Dunford. I believe the current channels of engagement 
between the United States and Russia militaries are sufficient to 
minimize the risk of conflict. Our current military engagements with 
Russia are focused on de-confliction in Syria, strategic stability, and 
operational safety. The close proximity of our forces and Russian 
forces in Syria requires the lines of communication remain open to 
minimize the chance of accidents or miscalculations. The three meetings 
between General Gerasimov and myself have further enhanced de-
confliction priorities between the United States and Russian 
militaries.

    17. Senator Reed. Secretary Mattis and General Dunford, are there 
examples of such talks that you believe would be helpful?
    Secretary Mattis. No. It is our assessment that existing channels 
of military-to-military communication can continue satisfactorily under 
the current legislation and that no further legislative intervention is 
needed to facilitate additional talks.
    General Dunford. As this point, we need to restart Strategic 
Stability Talks with Russia. This venue permits us to address a broad 
range of strategic issues of mutual concern. The last set of talks were 
in September 2017 in Helsinki, Finland. However, we continue to await a 
timeframe acceptable to Russia for our next set of talks. This is a 
critical channel, co-chaired by Under Secretary of State Thompson and 
the Russian Deputy Foreign Minister, which allows both sides to 
articulate strategic concerns and propose measures for mitigating the 
risk of strategic miscalculation.
             authorities of the usd-research & engineering
    18. Senator Reed. Secretary Mattis, given the need to move 
expeditiously in the development and deployment of technologies to 
support the National Defense Strategy, and the common difficulties of 
coordinating and focusing the efforts of disparate Services and 
Agencies, do you feel that the USD(R&E) has sufficient authority to 
direct activities and resources so as to optimize efforts in critical 
technology areas?
    Secretary Mattis. I am confident the Office of the Under Secretary 
of Defense for Research and Engineering (OUSD(R&E)) is moving forward 
to make modernization priorities a reality, and I am certain the 
OUSD(R&E) is utilizing all of the tools and authorities given by 
Congress through the reorganization. However, the Department welcomes 
any additional authority or distinction necessary to realize 
Congressional intent with regards to the execution of modernization 
priorities and the roles and responsibilities of the OUSD(R&E).

    19. Senator Reed. Secretary Mattis, what specific authorities will 
the USD(R&E) have to direct activities to ensure that our efforts to 
accelerate technological innovation and maintain or enhance our 
battlefield technological superiority?
    Secretary Mattis. The Under Seceretary of Defense for Research and 
Engineering (USD(R&E)) will have many authorities to accelerate 
innovation and ultimately improve lethality. While the complete 
authorities of USD(R&E) are outlined in an excerpt from a July 13, 2018 
memo from Deputy Secretary Shanahan, authorities of note include: 
Establishing policies on, and supervising, all defense research and 
engineering, technology development, technology transition, 
prototyping, experimentation, and development testing activities and 
programs, including the allocation of resources and unifying these 
efforts across the Department; Before any decision to grant Milestone A 
approval or Milestone B approval, any decision to enter into low-rate 
initial production or full-rate production for Major Defense 
Acquisition Program-1 D programs, or at any other time considered 
appropriate or requested by the Secretary, provide independent 
technical risk assessments and advise the Secretary on the progress 
toward meeting key performance parameters, technology maturation, 
reliability growth projections, interoperability, and cyber security 
posture of including the maturity of critical technologies and 
manufacturing processes that have not been successfully demonstrated in 
a relevant environment; When requested by the Secretary of Defense, 
Deputy Secretary of Defense, or the Milestone Decision Authority, 
provide independent assessments of a major defense acquisition program 
confirming that it incorporates program planning that anticipates the 
evolution of capabilities to meet the changing threats, technology 
insertion, and interoperability and be fielded when needed, prior to 
the obligation of funds for technology development, systems 
development, or production; When requested by the Secretary of Defense, 
Deputy Secretary of Defense, or the Milestone Decision Authority, 
provide independent sufficiency assessments of and advise the Defense 
Acquisition Board Chairperson on major defense acquisition programs 
prior to Milestone B and C decisions with respect to the sufficiency of 
developmental test plans, schedules, resources, risks, and readiness 
for operational testing and production, including the use of automated 
data analytics or modeling and simulation tools and methodologies.
              transparent budgeting for service contracts
    20. Senator Reed. Secretary Mattis, I am concerned that DOD is not 
providing sufficient transparency for its current and FYDP budget 
request for spending on service contracts. This is in contrast to 
information provided on either civilian personnel or military personnel 
budgets.
    Secretary Mattis, will you provide equivalent information on 
service contractor spending, so as to promote accountability, 
auditability, and transparency?
    Secretary Mattis. I share your concern and the Department is 
working a number of individual reform initiatives that will contribute 
to addressing improved accountability, auditability, and transparency 
in services budget and contracting. The Department is developing 
implementation strategies to address your concern, which are mirrored 
in both GAO Report 16-119, ``DOD Service Acquisition: Improved Use of 
Available Data Needed to Better Manage and Forecast Service Contract 
Requirements,'' dated February 18, 2016, and section 851 of the NDAA 
for fiscal year 2018, Improvement of Planning for Acquisition of 
Services.
    As part of the Department's Business Reform, the Deputy Secretary 
appointed a Reform Team for Services Contracting. The Reform Team, who 
in conjunction with the major stakeholders (Under Secretaries of 
Defense for Acquisition and Sustainment, Comptroller, Personnel and 
Readiness, the Chief Management Officer, and the Director of Cost 
Assessment and Program Evaluation), is co-developing improved processes 
supporting transparent services contracts budgeting. Initiatives 
include:

    <bullet>  Developing and implementing more transparent and 
traceable tracking methodologies for individual contracted services 
requirements throughout the programming and budgeting process. This 
transparency is envisioned to provide more insight into the Total Force 
management by detailing budgets for contracted services at (or near) 
the same level of detail the Department tracks its personnel (military 
and civilian) billets.
    <bullet>  Developing and implementing a requirements prioritization 
process, supported by data. Currently, requirements are validated 
within organizations or budget lines at the lowest level, within 
individual stove-piped functions and rolled up into the Operations and 
Maintenance appropriation. This roll-up prevents Department-level 
assessment and prioritization of contracted services in support of 
mission areas, for example, asking whether one organization's need for 
one kind of service is more important than the same, or a different 
organization purchasing different types of services.
    <bullet>  Improving contracted Services Requirements Review Boards 
(SRRBs) in both scope, timing and traceability. The SRRB validations 
must take place early enough in advance of the programming and 
budgeting process to provide early input supporting trade-off and 
prioritization decisions.

    The Department has not yet completed implementation of these 
initiatives and will continue to press implementation of services 
contracting reform that will, in part, lead to the desired budget 
transparency that will support accountability, auditability, and 
improved trade-off decisions.
                       role of civilian workforce
    21. Senator Reed. Secretary Mattis, what role do you envision that 
the civilian workforce will have in your attempts to execute the 
National Defense Strategy?
    Secretary Mattis. As stated in the National Defense Strategy, a 
modern, agile, information-advantaged Department requires a motivated, 
diverse and highly skilled civilian workforce that is sufficiently 
sized and appropriately resourced. Department of Defense civilians are 
an essential enabler of our mission capabilities and operational 
readiness. The Department must undertake a sustained effort to build an 
appropriate, cost-informed civilian workforce that best serves mission 
requirements. We must also free up uniformed personnel for military 
essential needs, and conserve scarce resources for recapitalization, 
modernization and readiness.

    22. Senator Reed. Secretary Mattis, in what specific areas will 
civilian personnel play the leading role in your efforts?
    Secretary Mattis. Department of Defense (DOD) civilian employees 
are an essential part of our National Defense Strategy. The 
Department's civilians perform critical functions in intelligence, 
equipment maintenance, medical care, family support, base operating 
services and other activities that directly support readiness. The 
Department's civilian workforce brings to bear capabilities, expertise 
and skills that directly impact DOD's operational warfighting 
capabilities. DOD civilians build and maintain weapon systems at depots 
and shipyards; staff child care centers and schools around the world; 
keep our airfields, ranges, and armories open; and form the backbone of 
installation family programs and support. Our civilian workforce 
provides institutional stability and continuity, and enables the 
warfighter to focus on military essential needs--a critical component 
to restoring readiness and lethality.
                        management hq reductions
    23. Senator Reed. Secretary Mattis, what has been the impacts of 
Congressionally-mandated management headquarters reduction on your 
ability to implement management reforms and execute the National 
Defense Strategy?
    Secretary Mattis. While the Major Headquarters Activities 
reductions limit the manpower that can be made available to support 
simultaneous reform efforts, the Department will continue to work to 
achieve reform within the mandated reduction requirements.

    24. Senator Reed. Secretary Mattis, what is the impact of these 
reductions on the morale of the workforce and the able to retain the 
expertise that you need?
    Secretary Mattis. In reducing the size and expenditures of 
headquarters in accordance with statutorily mandated reductions, the 
Department has leveraged the full suite of personnel and force 
management authorities at its disposal--while ensuring mission 
accomplishment and preserving talent and competency. While any 
organizational reduction can impact the morale of the civilian 
workforce, our employees recognize the value their work to the 
execution of the National Defense Strategy, and they continue to put in 
the extra effort required to get the job done.

    25. Senator Reed. Secretary Mattis, what has been the specific 
impact on the following organizations' ability to execute their 
designated missions: Office of the Director of Cost Analysis and 
Program Evaluation and Office of the Director of Operational Test and 
Evaluation.
    Secretary Mattis. Director of Operational Test and Evaluation 
(DOT&E): In accordance with the mandated Major Headquarters Activities 
(MHA) reductions, DOT&E conducted a 35 percent cumulative reduction in 
civilian personnel which were fundamental to performing its assigned 
mission. Pursuing MHA cuts would detract from DOT&E's ability to 
maintain pace with a rapidly changing Department and address an 
expanding workload.
    Office of the Director of Cost Assessment and Program Evaluation 
(CAPE): The MHA reductions limit CAPE's ability to reconstitute 
operational warfighting models, conduct independent cost estimates, 
detailed programmatic analyses, and strategic trade-offs necessary to 
fully support the Department. Cost estimating workload has increased 
while associated staff has decreased; as a result, CAPE is relying more 
upon its new authority to approve Service Cost Estimates rather than 
conducting its own Independent Cost Estimates. Although CAPE received 
resources in fiscal year 2017 to support the Department's need to 
refocus efforts on warfighting models, CAPE is facing limited ability 
for additional workload including congressionally-mandated studies, 
enterprise data initiatives such as the Cost Assessment Database 
Enterprise, and other economic analyses on labor and contract 
economics.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                          transgender service
    26. Senator Gillibrand. Secretary Mattis, you stated that ``under 
the Carter policy'' permitting transgender service, ``we cannot report 
that a problem [related to unit cohesion, morale, or discipline] 
emanated from a transgender'' service member. What is the regulatory 
language that prohibits commanders from reporting problems related to 
unit cohesion, morale, or discipline that arise from implementation of 
the Carter policy? Are the Service Central Coordination Cells created 
by DOD Instruction 1330.28 designed to receive reports from commanders 
and provide ``expert advice and assistance to commanders with regard to 
service by transgender service members"?
    Secretary Mattis. While the Department has allowed for service 
members to change their gender marker since July 2016, the Department 
did not establish--then or thereafter--specific reporting requirements 
relating to military members who have initiated gender transition 
plans. The Department does not track transgender Service members as an 
individual group or category for the purpose of determining their 
impact on unit cohesion, morale, and discipline. As noted at footnote 
143 on page 37 of the Department's Report and Recommendations on 
Military Service by Transgender Persons, this decision was taken in 
consideration of the privacy interests of the individuals involved. 
Specifically, Department of Defense Instruction 1300.28, ``In-Service 
Transition for Transgender Service Members,'' paragraph 2.2.f, directs 
the Military Departments to ``[e]nsure the protection of personally 
identifiable information (PII) and personal privacy considerations in 
the implementation of this issuance and Military Department and Service 
regulations.'' See also paragraph 3.6 (``[I]n cases in which there is a 
need to collect, use, maintain, or disseminate PII in furtherance of 
this issuance . . . the Military Departments and the USCG will protect 
against unwarranted invasions of personal privacy and the unauthorized 
disclosure of such PII.''). Due to these limitations, the Panel of 
Experts, as the Department's Report notes at page 18, instead met 
directly with some commanders of transgender service members who 
provided their input on the issues associated with accommodating gender 
transition treatments for gender dysphoria.
    The Service Central Coordination Cells created by Department of 
Defense Instruction 1330.28 are designed to provide expert advice and 
assistance to commanders with regard to service by transgender Service 
members. They are not the forum for receiving reports or complaints 
regarding unit cohesion, morale, or discipline.

    27. Senator Gillibrand. Secretary Mattis, you stated that, in order 
to permit accession by transgender applicants under the Carter policy, 
you ``would have to make a special category that says you can have 
these disqualifying factors [of anxiety or depression], only if you're 
transgender and then we can bring you in.'' You stated ``we don't allow 
anyone in with that [anxiety or depression].'' Is it correct that 
current, inclusive policy requires that an applicant with a history of 
gender dysphoria ``has been stable without clinically significant 
distress or impairment in social, occupational, or other important 
areas of functioning for 18 months,'' meaning that qualified 
transgender applicants do not have anxiety or depression?
    Secretary Mattis. DTM-16-005, ``Military Service of Transgender 
Service Members,'' dated June 30, 2016 and signed by then-Secretary 
Carter, established interim guidance for the retention, accession, 
separation, in-service transition and medical coverage for transgender 
persons. As required by existing court orders, this guidance was 
extended indefinitely in a memorandum issued by Deputy Secretary of 
Defense Patrick Shanahan on December 8, 2017, entitled ``Medical 
Standards for Appointment, Enlistment, or Induction of Transgender 
Applicants into the Military Services.'' Under DTM-16-005, ``a history 
of gender dysphoria is disqualifying, unless, as certified by a 
licensed medical provider, the applicant has been stable without 
clinically significant distress or impairment in social, occupational, 
or other important areas of functioning for 18 months.'' This means 
that the applicant has not manifested any clinically significant 
symptoms of anxiety, depression, or distress over the 18 months prior 
to his or her application for accession. By contrast, a person with a 
history of depressive disorder or anxiety disorder must demonstrate 
stability for 36 continuous months.

    28. Senator Gillibrand. Secretary Mattis, is it correct that DOD 
Instruction 6130.03 states that applicants, transgender or not, with a 
history of anxiety or depression are qualified if they can demonstrate 
the requisite period of stability, meaning that the military does in 
fact allow enlistment by applicants with a history of anxiety or 
depression?
    Secretary Mattis. The most recent version of Department of Defense 
Instruction 6130.03, ``Medical Standards for Appointment, Enlistment, 
or Induction into the Military Services,'' dated March 30, 2018, lists 
disqualifying medical conditions. As explained on page 20 of the 
Department's Report and Recommendations on Military Service by 
Transgender Persons, the vast majority of mental health conditions and 
disorders, including bipolar disorder, personality disorder, obsessive-
compulsive disorder and body dysmorphic disorder are automatically 
disqualifying, absent a waiver. However, for a select few mental health 
conditions, such as anxiety and depression, persons may be accessed 
without a waiver if they can demonstrate stability for 36 continuous 
months immediately prior to their application date. Anxiety and 
depression fall under section 5.28, ``Learning, Psychiatric, and 
Behavioral Disorders,'' which provides as follows: Depressive disorder 
is disqualifying if: (1) Outpatient care including counseling required 
for longer than 12 cumulative months; (2) Symptoms or treatment within 
the last 36 months; (3) The applicant required any inpatient treatment 
in a hospital or residential facility; (4) Any recurrence; or (5) Any 
suicidality (in accordance with Paragraph 5.28.m.). History of anxiety 
disorders is disqualifying if: (1) Outpatient care including counseling 
was required for longer than 12 cumulative months. (2) Symptomatic or 
treatment within the last 36 months. (3) The applicant required any 
inpatient treatment in a hospital or residential facility. (4) Any 
recurrence. (5) Any suicidality (in accordance with Paragraph 5.28.m.). 
Applicants with a history of a single episode of anxiety or depression 
requiring treatment and who have been free of symptoms for the 36 
months prior to their application may be eligible for accession into 
military service. Any recurrence of anxiety or depression renders an 
applicant ineligible for accession unless a waiver is granted. Under 
the current court-ordered transgender policy, by contrast, persons with 
a history of gender dysphoria are eligible for accession or enlistment 
with only 18 months of stability.

    29. Senator Gillibrand. Secretary Mattis, can you please provide me 
with a list of all health experts inside and outside government who 
participated in or contributed to the panel on transgender service and 
its final report?
    Secretary Mattis. Given this matter is subject to ongoing 
litigation in multiple federal courts in which the government is 
asserting privileges, lodging objections to requests for information, 
and relying on existing protective orders to ensure robust deliberation 
and protect confidential and sensitive information, I am unable to 
provide details regarding the names of individuals who advised or 
provided information to the Panel of Experts. However, the Department's 
Report and Recommendations on Military Service by Transgender Persons 
describes the process and the categories of individuals the Panel 
consulted (pages 17-18) and provides a thorough explanation of the 
Department's recommendations (pages 32-43).
                               __________
           Questions Submitted by Senator Richard Blumenthal
                                 cyber
    30. Senator Blumenthal. Secretary Mattis, in February, Senators 
Nelson, Shaheen, and I sent a letter to you urging you to order 
CYBERCOM to prepare to engage Russian cyber operators and disrupt their 
activities as they conduct clandestine influence operations against our 
upcoming elections. Last month, we heard from CYBERCOM Commander ADM 
Rogers that he has not been given such authority. The new CYBERCOM 
Commander, GEN Nakasone, was just confirmed by the Senate this week. 
During his nomination hearing before this committee he acknowledged a 
need for a more aggressive posture toward Russia. Would you agree that 
Russia has not been deterred by our actions thus far? Would you agree 
that Russia will continue to seek to meddle in our elections?
    Secretary Mattis. [Deleted.]

    31. Senator Blumenthal. Secretary Mattis, CYBERCOM's National 
Mission Teams' mission is to defend the Nation from cyberattacks of 
significant consequence. Since we heard from ADM Rogers, have you 
authorized CYBERCOM to engage Russian cyber operators and allow 
CYBERCOM to disrupt their activities as they conduct clandestine 
operations? How can we best use CYBERCOM to counter Russia's 
disinformation campaigns for our elections?
    Secretary Mattis. We are working closely with our interagency 
counterparts to develop and support implementation of whole-of-
government strategies to counter Russia's sophisticated disinformation 
campaigns. The Department of Defense is only one part of the national 
strategy to counter Russia's sophisticated disinformation campaign, 
which employs a diverse set of cyber and non-cyber capabilities. The 
Department's mission is to preempt, defeat, or deter adversary cyber 
threats before they can impact the Homeland. In this context, the 
Department's cyber forces operate to counter Russia's malicious cyber 
activities aimed at the United States.

    32. Senator Blumenthal. Secretary Mattis, do you believe DOD 
requires additional authorities or authorizations to engage Russian 
disinformation operations?
    Secretary Mattis. The Department is employing its current 
authorities to address a wide range of issues associated with Russian 
malign influence and continues to assess the need for any additional 
authorizations that may be necessary to counter this threat.
                              afghanistan
    33. Senator Blumenthal. Secretary Mattis and General Dunford, last 
year, the President announced a ``new'' strategy for South Asia which 
deepened United States involvement in Afghanistan. This plan also de-
emphasized nation building, while focusing on a tougher stance on 
Pakistan's terrorist safe harbors. In response, President Ghani 
committed to a new Compact for reform initiatives across the Afghan 
Government to take a more central role in improving the country. The 
effectiveness of these new initiatives and our revised strategy is 
unclear and violence continues to sow instability. Military commanders, 
such as Generals Votel and Nicholson, have testified that the United 
States is in a stalemate in Afghanistan. What are our objectives in 
Afghanistan? Do you believe we are achieving those objectives? What 
impact has the Administration's strategy had in Afghanistan?
    Secretary Mattis. The main objective of the strategy announced by 
the President in August is to prevent attacks against the United States 
Homeland, our citizens, and our allies and partners from being planned 
and carried out from Afghanistan. The strategy's conditions-based 
approach removed timelines for withdrawal and added the appropriate 
resources and authorities necessary to conduct both the train, advise, 
and assist mission and the mission to counter terrorist threats.
    The additional assets, authorities, and resources required to 
support the strategy in Afghanistan arrived earlier this year, and the 
results will not become clear until after the fighting season. Initial 
feedback on initiatives such as tactical-level advising of Afghan 
National Defense and Security Forces by the Security Force Assistance 
Brigade have been positive. Additionally, the strategy appears to have 
helped on the diplomatic front as evidenced by the Eid ceasefire. 
Again, I believe that we will have better indicators of the strategy's 
effectiveness at the end of the fighting season.
    General Dunford. The South Asia strategy's core for Afghanistan is 
to help set conditions for a political settlement between the 
Government of Afghanistan and the Taliban, in order to bring about a 
sustainable end to the conflict and prevent Afghanistan from re-
emerging as platform for terrorist attacks against the United States 
Homeland, our citizens, and our allies. The United States Government 
conditions-based approach is led by our diplomatic efforts to build 
international consensus for an Afghan-led peace process and supported 
by our military efforts to train Afghan security forces and maintain 
pressure on elements of the Taliban that choose not to reconcile.
    We are less than one year into implementation of the new strategy 
and will need additional time to evaluate the effectiveness of our new 
approach. We are encouraged by early indicators, the most significant 
of which was the first nationwide ceasefire in 17 years over the June 
Eid holiday. The international community, including leaders from 
Muslim-majority countries and religious councils, have issued strong 
appeals for a peace process. We will continue to monitor these and 
other developments.

    34. Senator Blumenthal. Secretary Mattis and General Dunford, 
according to a Reuters article this week, DOD estimates that 56 percent 
of Afghanistan is under government control. Would you agree with this 
estimate? Do you believe the Afghan Government is capable of attaining 
its goal of securing 80 percent of its population under government 
control by 2020?
    Secretary Mattis. The Afghan National Defense and Security Forces 
(ANDSF) remain committed to securing the majority of the Afghan 
population and denying the Taliban its strategic and operational 
objectives. Population control alone will not be sufficient to bring 
peace and stability to Afghanistan. The key to success remains 
sustained military pressure against the Taliban in order to convince 
them that they cannot achieve their objectives through violence and 
continuation of the conflict. The targeted investment of U.S. assets 
and personnel has increased the lethality of the ANDSF this fighting 
season. Properly utilized, the ANDSF can apply the military pressure 
required to open the door for peace talks in the future.
    General Dunford. The June 2018 Report ``Enhancing Security and 
Stability in Afghanistan Report'' stated that, as of May 2018, the 
Resolute Support headquarters assessed that the Afghan Government 
maintained control or influence over approximately 65 percent of the 
population, while insurgents had control or influence over 
approximately 12 percent of the population, with the remainder 
contested. The Afghan Government retains control of Kabul, major 
population centers, most key transit routes, provincial capitals, and a 
majority of district centers. The increase of U.S. advisors working 
below the corps and zone levels, are better enabling the ANDSF to 
sustain offensive pressure on the insurgency and secure the population. 
It is important to remember that this is a conditions-based, not time-
based strategy, and the ultimate goal is a reconciliation process 
between the Taliban and the government of Afghanistan.

    35. Senator Blumenthal. Secretary Mattis and General Dunford, the 
President cut off aid to Pakistan to push it to stop harboring 
terrorists. How has this impacted operations with Pakistan? Do you 
believe withholding security assistance has prompted Pakistan to cease 
providing sanctuary and support to militant groups that harm United 
States interests? What more must be done?
    Secretary Mattis. The suspension of security assistance froze 
financial assistance to all three branches of Pakistan's military, 
except for a very limited number of programs that directly support 
United States national security interests. The United States and 
Pakistan still share common security objectives, and although Pakistan 
has taken initial constructive steps against externally focused 
militant and terrorist organizations, it has not yet taken the decisive 
or sustained actions that have been requested. The United States is 
prepared to use the full range of tools at its disposal to encourage 
Pakistan to cease policies that threaten United States interests and 
regional stability.
    General Dunford. The United States Government suspended security 
assistance to Pakistan due to Pakistan's lack of effective actions in 
response to our requests to take action against terrorist and militant 
safe havens. We continue to engage Pakistan on our request and are 
working with our interagency and international partners to convince 
Pakistan that their interests are best served by a stable and secure 
South Asia, free of terrorism.
                             syria and iran
    36. Senator Blumenthal. Secretary Mattis and General Dunford, as 
the conflict in Syria continues to grow more complex, I remain deeply 
concerned about the possibility of further instances that risk sparking 
more serious confrontations between Israel and Iran. How are you 
working to address malign Iranian activity on Israel's border?
    Secretary Mattis. Our military efforts in Syria are focused on 
annihilating ISIS, but we remain concerned about Iran's destabilizing 
activity in Syria and attendant threats to Israel. We are working with 
allies and partners to expose Iran's malign activity, and as always, 
are working with Israel to ensure that it has the means to defend 
itself from Iranian threats.
    General Dunford. Our military efforts in Syria focus on 
annihilating ISIS, but we remain highly concerned about Iran's 
destabilizing activity in Syria, particularly efforts to use Syria to 
foment attacks on Israel. We are working with allies and partners in 
the region to expose Iran's malign activity, and as always, are working 
with Israel to ensure that it has the means to defend itself from 
Iranian threats.

    37. Senator Blumenthal. Secretary Mattis and General Dunford, I am 
concerned that Iran is entrenching itself in Syria--establishing its 
proxy militias along the Israel-Syria border and creating a land bridge 
from Tehran to Beirut through Syria and Iraq. What more should we do to 
address Iran's expansion? How can we confront the prospect of a long-
term Iranian military presence in Syria?
    Secretary Mattis. We share your concern about Iranian presence in 
Syria. We are working with Israel and other regional partners to ensure 
they have the ability to mitigate this threat. The United States is 
seeking support from partners and allies to exert diplomatic and 
economic pressure on Iran to encourage Iran to end its destabilizing 
activity, including its activity in Syria.
    General Dunford. We share your concern about Iran entrenching 
itself in Syria. We are working with Israel to ensure it has the 
ability to mitigate any threat Iran may pose from Syria, and are 
working to address the larger issue of Iranian military presence in 
Syria through the diplomatic channels, and more broadly, the 
interagency process.

    38. Senator Blumenthal. Secretary Mattis and General Dunford, 
reporting this week highlighted a series of cargo flights from Iran to 
Syria--following the April 13 United States and allies' strikes--that 
potentially carried weapons for use by Assad and his allies that could 
threaten Israel. What can be done to prevent this from continuing? How 
can we best counter it?
    Secretary Mattis. Iranian proliferation of weapons is a major issue 
that is destabilizing the Middle East. We see this not only in Syria, 
but also across the region in places like Yemen. We support efforts to 
expose Iran's proliferation of weapons in violation of UN Security 
Council Resolutions through our Iranian Materiel Display. We are also 
ensuring that Israel has the means to defend itself from Iran or its 
proxies.
    General Dunford. Iranian proliferation of weapons is a major issue 
that is destabilizing the Middle East. We see this not only in Syria, 
but also in Yemen and Afghanistan. We are exposing Iran's proliferation 
of weapons in violation of UN Security Council Resolutions through our 
Iranian Material Display. We are also ensuring that Israel has the 
means to defend itself should Iran or its proxies attack Israel.
                           russian submarines
    39. Senator Blumenthal. Secretary Mattis and General Dunford, 
Russia's resurgence is a carefully calculated revision of their Cold 
War playbook--similar tactics complemented by technological 
advancements. The GIUK gap is Russia's gateway to the Atlantic Ocean, 
and the increased presence of Russian submarines in the GIUK gap 
requires the full attention of the United States and our allies. As you 
know, vital communications cables run along the ocean floor not far 
from the GIUK gap--providing internet and communications across the 
world. In December, the Washington Post published an article about 
increased Russian submarine activity near these cables and the British 
military has raised alarms over this as well. How are you working to 
address the vulnerability the GIUK gap presents? How can we prevent 
Russian submarines from exploiting it? Are we doing enough to ensure 
Russia does not gain a strategic advantage in this region?
    Secretary Mattis. The Department of Defense is keenly aware of 
Russia's activity in the North Atlantic, and is taking robust steps--
both multilaterally and through NATO--to preserve our security at sea 
and on both sides of the Atlantic. In May, Admiral Richardson announced 
that we would reconstitute the U.S. 2nd Fleet, which will oversee our 
naval assets along the U.S. East Coast and northern Atlantic Ocean. It 
will also plan and conduct maritime, joint, and combined operations and 
will train, certify, and provide maritime forces to respond to global 
contingencies.
    General Dunford. We recognize the threat that this capability 
represents. To address the growing Russian naval capabilities the 
United States Navy is reviving the 2nd Fleet, which will be based in 
Norfolk, Virginia and part of the NATO Joint Forces Command. The United 
States and NATO do not seek to prevent Russian submarines from 
transiting through GIUK gap, but will monitor them. We are 
recapitalizing the Integrated Undersea Surveillance System, enhancing 
our ability to detect submarines. The U.S. also has the means to combat 
enemy submarines--with P-8 Poseidons from the air, Arleigh Burke-class 
destroyers from the surface and U.S. nuclear-powered submarines 
underwater. In addition, nearly all of NATO's 29 countries have navies 
to assist in anti-submarine warfare. To ensure we do not lose our 
strategic advantage, we are now dedicating more time for our Carrier 
Strike Groups to operate in the Atlantic. This includes enhancing the 
participation of these assets in exercises with allies and partners to 
ensure appropriate levels of readiness and interoperability.

    40. Senator Blumenthal. Secretary Mattis and General Dunford, what 
do you assess Russia's intentions to be with their activity near 
undersea cables? How concerned should we be? Have you discussed this 
issue with our allies?
    Secretary Mattis. During the Cold War, the Soviet Navy had plans to 
damage cables associated with underwater acoustic arrays in order to 
protect their deploying submarines. Regardless of Russia's current 
intent, the United States is prepared to respond to any challenge that 
threatens its critical interests, and is working closely with Allies to 
enhance its defense posture in the North Atlantic.
    General Dunford. Russia is clearly taking an interest in NATO and 
NATO nations' undersea infrastructure. We and our allies are 
undertaking prudent measures to ensure that any such activity cannot 
disrupt essential communications. The undersea lines carry nearly all 
of the communications on the internet, facilitating trillions of 
dollars of daily trade. The Russian underwater activity is a concern 
and we are taking appropriate steps to mitigate the threat. As General 
Scaparrotti has mentioned, the Russian undersea activity is on a scale 
not seen since the 1980s. In the near future the U.S. Navy will be 
reactivating 2nd Fleet in Norfolk, Virginia to better protect the 
Homeland and address resurgent submarine activity. Our allies recognize 
the need for a new Maritime Focused Command and are supportive of 
creating a third NATO Joint Forces Command dedicated to protecting the 
Atlantic.
                                  f-35
    41. Senator Blumenthal. Secretary Mattis, the F-35 brings a 
tremendous leap in capabilities over legacy 4th generation aircraft 
that are fundamental to executing and surviving in multi-role fighter 
missions in Anti-Access, Area Denial environments. This committee hears 
your concern about affordability with sustainment costs, but I 
understand there is a major effort underway to address that issue. The 
Nation can ill afford to reduce the number of F-35s it plans on buying, 
as we need 5th generation aircraft in large numbers. We have made that 
mistake before on previous programs, and we should not do it again. In 
your testimony this month before the House Armed Services Committee and 
in your prepared statement before this Committee you stated, ``We will 
evaluate the performance of both F-35s and F/A-18s to determine the 
most appropriate mix of aircraft as we move forward.'' Would you agree 
that these two aircraft are not equivalent from a performance and 
capability stand-point, and that the F-35 has superior capabilities?
    Secretary Mattis. I do agree that the F-35 and F/A-18 do not have 
equivalent performance and capability characteristics. Stealth 
technology and advanced integrated systems enable the F-35 to counter 
rapidly evolving air-to-air and surface-to-air threats, which cannot be 
matched by fourth-generation aircraft, even with planned modernization 
efforts for aircraft like the F/A-18. In the case of the U.S. Navy, it 
has always been the plan for the F-35 to complement the F/A-18E/F in a 
mixed future Carrier Air Wing.

    42. Senator Blumenthal. Secretary Mattis, we are seeing progress 
with the F-35 program as exhibited by the recent completion of the 
System Development and Demonstration (SDD) phase this month. To date, 
we have been producing aircraft concurrently with development, which I 
believe has saved taxpayers hundreds of millions of dollars; however, 
one way to drive down cost is to increase production. As we have yet to 
reach full rate production, is the DOD committed to getting to full 
rate production for the F-35? When do you anticipate we will reach full 
rate production? Do you agree that production level increases will 
contribute to cost savings?
    Secretary Mattis. The Department is committed to reaching full rate 
production with the F-35 program. Prior to reaching that decision 
point, the program will conduct Initial Operational Test and Evaluation 
(IOT&E). A robust, challenging, and stressing IOT&E enables the 
Department to validate the operational suitability and effectiveness of 
the aircraft prior to transition to full rate production. IOT&E is 
projected to begin later this fall, with completion in 2019. The 
Department will commence full rate production decision activities once 
IOT&E completes and the Director, Operational Test and Evaluation 
submits the required assessment. I agree that increased production 
rates contribute to lower unit costs.

    43. Senator Blumenthal. Secretary Mattis, the fiscal year 2019 DOD 
Budget Request includes a handful of requests for Multi-Year 
Procurements (MYP) for aircraft like the F/A-18 Super Hornet and C-130J 
Hercules. Will the DOD look to a five-year MYP of F-35s to reduce the 
cost of procurement during full rate production and ensure stability 
with the supply chain?
    Secretary Mattis. The Department is currently assessing all 
appropriate options for F-35 procurement; execution of the selected 
option will commence once a full rate production decision is reached. A 
five-year multi-year procurement is one of the options.

    44. Senator Blumenthal. Secretary Mattis, as the National Defense 
Strategy has outlined, the primary concern in U.S. national security 
will be inter-state strategic competition. What 5th generation 
capabilities from the F-35 will counter the threats of inter-state peer 
and near peer threats? How will the F-35 make the joint force more 
lethal, survivable, and capable?
    Secretary Mattis. The F-35 is the premier multi-mission, fifth 
generation strike fighter operating today and provides our warfighters 
unprecedented game changing technology. Stealth technology and advanced 
integrated systems enable the F-35 to counter rapidly evolving air-to-
air and surface-to-air threats. With unmatched lethality the F-35 is 
able to execute all assigned missions in Strategic Attack, Close Air 
Support, Suppression of Enemy Air Defenses (SEAD), Destruction of Enemy 
Air Defenses (DEAD) and Offensive and Defensive Air Superiority. The 
unique F-35 partnership features joint and coalition interoperability 
together, ensuring that future operations can be executed more 
efficiently and effectively. The F-35's interoperability allows 
seamless information exchanges making every participant in the 
battlespace smarter, more lethal, and more survivable. The F-35 offers 
the U.S. military a transformational capability that will fundamentally 
change the way our Nation operates around the globe--the F-35 aligns 
with and plays a central role in driving the Department's National 
Defense Strategy.
                               __________
              Questions Submitted by Senator Mazie Hirono
                        recruiting and retention
    45. Senator Hirono. Secretary Mattis and General Dunford, DOD's 
Fiscal Year 2019 Budget Request calls for end strength increases for 
all of the services, totaling nearly 26,000 personnel across the 
Active, Reserve and Guard components. All of the services have 
testified that nearly 70 percent of young people in the United States 
cannot qualify for military service. On top of that, we are seeing near 
record low unemployment levels and the Army just announced this week 
that it is not on track to reach its recruiting goal for this year. Do 
you anticipate difficulties in being able to meet recruiting goals 
given the current environment and required standards?
    Secretary Mattis. The tightening of the labor market and the 
increased recruiting missions will be a challenge in the coming year. 
It is critical that the Military Services have the resources needed to 
face these challenges.
    General Dunford. The tightening of the labor market and the 
increased recruiting missions will be a challenge in the coming year. 
It is critical that the Services have the resources needed to face 
these challenges.
                           civilian workforce
    46. Senator Hirono. Secretary Mattis, while the DOD's Fiscal Year 
2019 Budget Request includes a 2.6 percent pay increase for military 
personnel, the President's Budget Request freezes civilian pay and aims 
to decrease the frequency of step increases. The budget request 
estimates there will be over 776,000 civilian employees at DOD in 
fiscal year 2019. What is the impact on DOD's ability to recruit and 
retain the highly skilled and qualified civilian workforce that 
provides the backbone to our military forces if civilian pay does not 
at least keep up with inflation?
    Secretary Mattis. Annual pay raises are one element of the 
Department's ability to attract and retain civilian personnel and 
address pay disparities. Annual pay raises assist in meeting mission 
critical recruitment and retention goals. The Department has a wide 
range of authorities and incentives focused on the recruitment and 
retention of a highly-qualified and talented civilian workforce. The 
Department will continue to utilize all the authorities and tools at 
its disposal in order to mitigate any impacts resulting from a 
potential pay freeze while maintaining a mission-ready civilian 
workforce sized to regenerate and sustain readiness and enhance 
lethality.

    47. Senator Hirono. Secretary Mattis, The Defense Business Board 
did a February 2018 study that noted that in fiscal year 2016, DOD 
spent $141 billion on 777,000 service contractors, or 24 percent of its 
top line, nearly double the $71.5 billion it spent on 740,000 civilian 
employees. Additionally, the Department spent slightly more on contract 
services as it did on MILPERS ($141 billion compared to $136 billion). 
Is this an appropriate balance of the MILPERS, Civilian and Contract 
workforce?
    Secretary Mattis. The Department's Total Force--Active and Reserve 
military personnel, civilians, and contracted services--execute 
missions of incredible breadth and scope, in locations around the 
globe. Successfully executing these missions in a way that is not only 
effective but also cost-efficient, requires the right type, mix, and 
level of talent from all elements of our Total Force. There is no 
single, pre-determined Total Force solution--the right mix or balance 
will vary based on mission, operating environment, labor market, and 
resourcing. It is therefore critical that we continuously review and 
rationalize our Total Force mix, to ensure that the most appropriate 
source of labor--be that military, civilian, or contracted services--is 
being used to meet the Department's mission.
                           energy resilience
    48. Senator Hirono. Secretary Mattis and General Dunford, Energy 
resilience and assurance is a vital component to our national security. 
The need to reduce energy consumption, use alternative energy sources, 
and increase resilience is closely tied to our overall national 
security. Specifically, I am concerned of threats in the Pacific region 
that could disrupt fuel delivery or electricity supplies. In the 
region, DOD relies on vulnerable fuel and electric supplies to conduct 
its military operations, where electric power outages on military bases 
or fuel supply disruptions due to natural disasters or intentional 
actions could disrupt critical military operations in the Indo-Pacific 
region. How has the Department prioritized its energy needs in this 
budget request?
    Secretary Mattis. As indicated in the National Defense Strategy, 
resilient forces and facilities are an important component of deterring 
and defeating adversaries. The Department continues to evaluate the 
warfighting risks of our dependence on large amounts of energy, 
primarily petroleum, and is adapting the training and equipment 
employed by our forces around the globe. In support of this effort, the 
Fiscal Year 2019 President's Budget Request includes over $2.8 billion 
for new equipment, revised plans, concepts, and wargames to account for 
increasing risks to logistics and sustainment, and enhancements to how 
the Department considers energy in developing new capabilities. We 
continue to conduct campaign analyses and wargames to identify the 
tradeoffs and risks of energy dependence, and foster the development of 
innovative mitigation strategies to ensure our success. To relieve the 
dependence of contingency bases on vulnerable fuel supply chains and 
increase our operational reach, the Department also is exploring 
reliable and cost effective distributed energy sources and improved 
power generation and storage. These initiatives are designed to reduce 
risk from our dependence on petroleum and to increase our resilience 
and improve future capability across the range of military operations.
    General Dunford. The Department identified more than $2.8 billion 
for the execution of operational energy initiatives in fiscal year 
2019. These investments procure new or upgrade existing equipment, 
improve propulsion, and adapt plans, concepts, and wargames to account 
for increasing risks to logistics and sustainment, and enhance the role 
of energy considerations in developing new capabilities. Separate from 
these investments, the fiscal year 2019 budget also includes an 
estimated $9 billion request for 86.2 million barrels of fuel.

    49. Senator Hirono. Secretary Mattis and General Dunford, Can you 
discuss these energy resilience priorities in terms of both operational 
fuel and delivery of electricity to your military installations?
    Secretary Mattis. The Department of Defense (DOD) has policies in 
place to ensure all military installations are energy resilient and 
they have the energy they need to operate their critical missions in 
the event of power disruption. Installation energy resilience 
priorities and requirements are articulated in DOD Instruction 4170.11, 
Installation Energy Management (Change 1, Effective March 16, 2016). 
This instruction requires the Military Departments to take necessary 
steps to plan and have the capability to ensure available, reliable and 
quality power to continuously accomplish DOD missions from our 
installations and facilities.
    Specifically, DOD Components are required to:
    <bullet>  Clearly define, identify and update critical energy 
requirements that align to critical mission operations in collaboration 
with tenants, mission owners and operators of critical facilities on 
DOD installations.
    <bullet>  Perform periodic vulnerability assessments to gauge the 
risk of energy disruptions on our installations and implement remedial 
actions to remove unacceptable energy resilience risks.
    <bullet>  Provide candidate energy projects that address the DOD 
energy resilience requirements during the planning, programming, 
budgeting and execution process.
    Focusing on priority installations, DOD is developing Installation 
Energy Plans to articulate strategies for addressing energy resilience.
    General Dunford. The Services and Combatant Commands include risk 
assessments for energy disruptions in planning activities. 
Incorporating operational energy in wargames, exercises, and planning 
creates a partnership with industry to test developing capabilities. 
This government-industry partnership facilitates new operational 
concepts and strategy development articulated in the operational energy 
improvements section of the Fiscal Year 2019 Defense Budget. These 
considerations help inform future system designs and help the 
Department make holistic energy logistics and infrastructure decisions 
to prioritize energy resilience with combat capability requirements. 
Although the Joint Staff does not program for electricity 
infrastructure, we are working in concert with Secretary Mattis and his 
staff to prioritize and address energy requirements for support of 
military missions.
                             cyber security
    50. Senator Hirono. Secretary Mattis and General Dunford, over the 
course of several hearings in this Committee this year, numerous 
Combatant Commanders and Service Chiefs have testified to the lack of a 
consolidated, whole-of-government strategy for cyber operations. As 
other countries, such as China, begin to consolidate and integrate 
their cyber operations, are we losing a competitive advantage in cyber 
space by not doing so as well?
    Secretary Mattis. The United States can most effectively advance 
our interests in cyberspace through coordinated U.S. Government actions 
that are tightly aligned and mutually reinforcing. The Department of 
Defense already participates in a robust interagency policy development 
and implementation process through the National Security Council (NSC) 
and through direct communications with other departments and agencies. 
The Department is working with the NSC and our interagency partners to 
build on the direction provided by the 2017 National Security Strategy, 
including supporting the development of a national cyber strategy and 
with a new cyber strategy for the Department. I am confident that these 
efforts will enable us to compete more effectively in cyberspace.
    General Dunford. Yes. There is mounting empirical evidence that the 
mitigation approaches used over the past decade have been ineffective. 
Fortunately, the 2018 National Defense Strategy emphasizes that our 
ability to prevail in strategic cyber competition requires the seamless 
integration of all instruments of national power. A whole-of-U.S. 
Government approach for protecting, defending, and operating in 
cyberspace must include new, DOD operational concepts and authorities 
to persistently defend forward, new cybersecurity legislation to 
improve the resiliency of privately owned information technology, and a 
national recommitment to improving STEM education.

    51. Senator Hirono. Secretary Mattis and General Dunford, do you 
believe the U.S. should develop a national strategy to consolidate and 
integrate our cyber operations?
    Secretary Mattis. The 2017 National Security Strategy provided 
guidance to departments and agencies about how to advance U.S. national 
interests in cyberspace. The Department is currently moving forward 
with several interagency efforts to add additional cyber-specific 
detail to guide implementation of the National Security Strategy, 
including clarifying the United States' objectives in cyberspace and 
detailing the cyber roles and responsibilities of Federal departments 
and agencies. I am confident that these efforts will improve the U.S. 
Government's ability to consolidate and integrate our cyberspace 
activities.
    General Dunford. The National Security Strategy and National 
Defense Strategy highlight a robust U.S. cyber capability, integrated 
across the interagency, as a key U.S. strategic priority. The 
forthcoming DOD Cyber Strategy will implement this strategic vision 
across the DOD. Currently DOD is working closely with the Department of 
Homeland Security, the Department of Justice, the law enforcement 
community, the State Department, and with the Intelligence Community, 
as well as with our international partners to ensure our cyber efforts 
are coordinated in a way that creates maximum advantage for the Nation. 
A comprehensive national strategy would be helpful in formalizing the 
roles and responsibilities for each member of the inter agency, 
enhancing the WOG approach.
                           corrosion control
    52. Senator Hirono. Secretary Mattis, in its April 2018 report to 
Congress, the Department of Defense underscores the Corrosion 
Prevention and Oversight Office's success in reducing the annual cost 
of corrosion by $2 billion, achieving an 14:1 average return on 
investment on its corrosion reduction projects, reducing downtime of 
weapon I systems attributable to corrosion by 10 percent and enabling 
and partnering with the Services and industry to continually improve 
corrosion reduction efforts and reduce duplication. Considering the 
significant reorganization taking place within the Department, how will 
the Department assure that CPO continues to have the authority to 
continue and build on its success in preventing and mitigating 
corrosion of DOD weapon systems and infrastructure?
    Secretary Mattis. In the April 2018 report to Congress, the 
Department reaffirmed the value and necessity of the functions and 
responsibilities of the Corrosion Policy and Oversight Office and 
recognized its impressive achievements in reducing the cost of 
corrosion, increasing the availability of weapons systems while 
endeavoring to increase efficiencies and economies throughout the 
Department. The Department supports the Corrosion Policy and Oversight 
Office's functions and responsibilities. As the Department reorganizes 
as directed in the National Defense Authorization Act for fiscal year 
2017, the Corrosion Policy and Oversight Office has been placed within 
the Office of the Under Secretary of Defense for Acquisition and 
Sustainment and will be part of the responsibilities of the Assistant 
Secretary of Defense for Sustainment. I believe this alignment will 
allow for leveraging complementary processes and focus areas and better 
integrate and enhance the Corrosion Policy and Oversight Office's 
capabilities.

    53. Senator Hirono. Secretary Mattis, in testimony before this 
committee, you stated that the Department is pursuing acquisition 
reforms that yield efficiencies that free up resources to be reinvested 
to increase current and future readiness. However, the Department's 
report shows a drastic decline in the amount of funding allocated to 
the Corrosion Prevention and Oversight Office CPO, a program that 
clearly fosters these reforms and efficiencies. What assurances can the 
Department provide that CPO will have sufficient funding to support 
current and future efforts?
    Secretary Mattis. Continuously striving to increase efficiencies 
and economies in our business processes is a key pursuit for the 
Department and an effort that ultimately enhances our ability to 
support the Warfighter. The Corrosion Policy and Oversight Office (CPO) 
is at the forefront of Department's efforts to eliminate duplicative 
corrosion functions across the Services, while minimizing corrosion 
specifications, standards, and regulations. Given CPO's substantial 
contributions towards efficiencies and reforms, the Department 
continues to program and budget funds to support the full 
implementation of CPO functions and requirements, both present and 
planned.
                               __________
             Questions Submitted by Senator Martin Heinrich
                            state department
    54. Senator Heinrich. Secretary Mattis, I think it is safe to say 
that our diplomatic personnel at home and abroad lacked sufficient 
leadership and direction over the last year from the State Department. 
How important is a strong and well-staffed State Department to the 
military's mission overseas?
    Secretary Mattis. It is extremely important. A strong, well-staffed 
Department of State is critical to the success of our overseas military 
mission. As I often say, our military enables our Nation's professional 
diplomats; it buys time for diplomats to solve basic problems.
                        global engagement center
    55. Senator Heinrich. Secretary Mattis, in February the Department 
of Defense signed an interagency agreement with the Global Engagement 
Center, which was tasked with developing, integrating, and 
synchronizing efforts to counter foreign government disinformation and 
propaganda across the United States Government in the Fiscal Year 2017 
NDAA. DOD has a critical role to play in this effort, which is why the 
fiscal year 2017 NDAA and the subsequent provisions in the fiscal year 
2018 NDAA reinforcing it, clearly establish Congress' intent for DOD to 
make operational and budgetary contributions to this important 
interagency effort. The DOD portion of the funding was authorized at up 
to $60 million per year for fiscal year 2017 and fiscal year 2018. DOD 
has only pledged $40 million, and to my knowledge has not actually 
transferred any of it--despite the interagency agreement to do so, 
legislation calling for it, and multiple Congressional inquiries from 
Members of this committee, SFRC, HASC, and HFAC. Secretary Mattis, what 
is the status of the transfer of DOD funds to support the Global 
Engagement Center?
    Secretary Mattis. In May 2018, the Office of the Under Secretary of 
Defense (Comptroller)(OUSD(C)) will submit a request to reprogram $40 
million in support of the Global Engagement Center (GEC) within the 
Department of State (DOS).
    Pursuant title 10 USC Sec. 2215, the Department of Defense (DOD) 
will also be submitting a certification to the congressional defense 
committees that making the funds available to the DOS in support of the 
GEC is in the national security interest of the United States.

    56. Senator Heinrich. Secretary Mattis, what operational support is 
DOD planning to provide to the GEC with regards to staffing, 
information-sharing, and leveraging unique DOD platforms and 
capabilities?
    Secretary Mattis. The Department of Defense (DOD) has a 
collaborative relationship with the Department of State's (DOS) Global 
Engagement Center (GEC) in which we are developing pilot programs 
aligned with defense priorities for countering state and non-state 
actors' propaganda and disinformation. The insights generated from 
these pilot programs will be shared across the United States 
Government. DOD contributes detailees to the GEC's staffing who aid in 
information-sharing and integration with unique DOD platforms and 
capabilities, including military information support operations web 
operations capabilities. DOD seeks to maintain its collaborative 
relationship with DOS's GEC and sees the potential for the GEC to play 
a greater role in coordinating whole-of-government efforts to counter 
state-actor disinformation and propaganda.
                            southwest border
    57. Senator Heinrich. Secretary Mattis, to date, the estimated cost 
of the National Guard deployments to the Southwest Border to support a 
Department of Homeland Security mission is $182 million. How is the 
Department of Defense going to pay for these deployments?
    Secretary Mattis. National Guard personnel requirements are being 
filled incrementally as available forces and assets are identified, and 
as Customs and Border Patrol confirms its readiness to receive forces. 
For estimating purposes, our projection assumes approved Guard 
personnel will all arrive at their designated locations during the 
month of April. The cost of the ongoing incremental deployment is being 
cash flowed from the Guard's Operation and Maintenance and Military 
Personnel accounts. The Army National Guard's Fiscal Year 2018 
Operation and Maintenance and Military Personnel appropriations are 
large accounts, which total to $7.3 billion and $8.3 billion, 
respectively. Therefore, these accounts have the ability to initially 
cash flow these costs, but how long depends on a number of factors, 
which we are working, including how fast the National Guard can 
identify personnel to fill the approved requirements. We will identify 
options to reimburse the Guard's accounts once we have a full estimate 
for the fiscal year 2018 costs. As we work to identify sources to pay 
for the National Guard support to the Southwest Border we will protect 
readiness.
                    technological overmatch / reform
    58. Senator Heinrich. Secretary Mattis, during the Emerging Threats 
and Capabilities Subcommittee hearing last week, Dr. Griffin told us 
that your guidance to him was to ``make sure we never have to fight a 
fair fight.'' I completely agree with this sentiment and think that one 
of the most critical pieces of that is ensuring we maintain 
technological overmatch against our adversaries. How can you instruct 
the rest of the Department and the Services to prioritize results over 
risk aversion, and do you believe you have the authorities, protections 
and incentives you need to help drive these efforts?
    Secretary Mattis. I will rely heavily on both the Deputy Secretary 
of Defense and the Under Secretary of Defense (Research & Engineering) 
(USD((R&E))to promote an environment where we are not afraid of failure 
in prototyping, learning quickly from those failures, and thereby 
assuming acceptable risk and avoiding costly mistakes later in the 
acquisition process. Leadership across the Department, including the 
Services, must continue to be at the forefront of pursuing the 
technologies and capabilities that will keep the United States far 
ahead of our adversaries in the coming decades. While I appreciate 
congressional support and authorities given to highlight the importance 
of the office of the USD(R&E) in this effort, there are authorities, 
protections, and incentives that we don't know yet, but will discover 
as necessary in the coming months and years. I ask Congress continue to 
be receptive to requests from myself, the Deputy Secretary, and the 
USD(R&E) with regards to additional Congressionally-granted tools in 
the future.
                   special operations forces op-tempo
    59. Senator Heinrich. Secretary Mattis and General Dunford, our 
special operations forces have met an insatiable demand for their 
skills in the current counter-terrorism and counter-insurgency fight. 
What are you doing to ensure the sustainable readiness of our special 
operations forces?
    Secretary Mattis. While the demand for Special Operations Forces 
(SOF) remains high, SOF readiness is improving as U.S. Special 
Operations Command (USSOCOM) takes steps to ensure that SOF are 
deployed at more sustainable rates and to prioritize the demand for 
these forces more effectively. The majority of SOF formations are 
currently meeting or exceeding my deployment-to-dwell objectives. In 
addition, I have directed the Department to undertake efforts to 
evaluate our current SOF-assigned missions and identify for me any 
missions that may be transferred to the conventional forces, our allies 
or partners, or divested. I expect the outcome of these efforts to 
improve SOF's readiness and align their missions and activities with 
the National Defense Strategy.
    General Dunford. Our Special Operations Forces (SOF) continue to 
accomplish all assigned priority tasks in support of steady state 
operations and are able to surge to support our most demanding 
Operational Plans with limited impacts. Rotational sourcing currently 
executes at a sustainable readiness level for the majority of SOF. In 
line with Defense guidance, SOF prioritizes and synchronizes activities 
to support geographic combatant commanders and protect our Nation's 
interest, as challenges increase in frequency and complexity. Our 
latest calculations show a continued positive trend--the vast majority 
of SOF meet the Secretary's-directed goal of 1:2 deployment to dwell 
(D2D) for active forces and 1:5 for reserve forces and we expect 100 
percent compliance in 2018. Across SOF, we are implementing initiatives 
and prioritizing requirements to balance demand and support 
operations--while still improving capability for near-peer competitors. 
These actions ensure SOF support the GCCs with an appropriately 
tailored force while maintaining the dwell ration. Finally, I have 
directed a review of current SOF tasked missions to identify those not 
requiring SOF-unique capabilities that may be transitioned to 
conventional or international forces.

    60. Senator Heinrich. Secretary Mattis and General Dunford, are 
there high demand capabilities for our special forces that we should be 
investing in now as to address the reemergence of near-peer 
competition?
    Secretary Mattis. To address the scope and pace of our competitors' 
and adversaries' ambitions and capabilities, we must invest in the 
modernization of key capabilities through sustained, predictable 
budgets. For our special operations forces, we will require additional 
investments in special operations mobility and intelligence, 
surveillance, and reconnaissance (ISR) platforms that can operate in 
denied areas in all domains (land, sea, air, and space). We need to 
focus on technology advancements, including artificial intelligence, 
directed energy, and cyber capabilities. Finally, we need to invest in 
our most valuable resource: our people.
    General Dunford. Yes, our Special Operations Forces (SOF) are 
actively addressing the reemergence of near-peer competition by 
instituting a deliberate budgeting solution in the Fiscal Year 2020 
Program Objective Memorandum. This investment revitalizes USSOCOM's 
ability to rapidly respond to emerging near-peer threats and enhances 
critical combat capabilities that may be applied against principal and 
strategic competitors through modernization and the development of 
``Big Bets.'' These investments and developments do NOT come at the 
expense of our on-going counterterrorism efforts and capabilities, but 
are a deliberate shift to ensure supremacy against competitor 
capabilities. Some of these investments include:
    <bullet>  Laser-Enabled Platforms
    <bullet>  Hyper-Enabled Operators
    <bullet>  Next-Generation Targeting
    <bullet>  Next-Generation Communications
    <bullet>  Modification of Mobility platforms
    <bullet>  Adaptive Countermeasures
    <bullet>  Next-Generation Navigation
    <bullet>  Fossil-Fuel-Divested Ground Mobility
    <bullet>  Enhancements to national crisis response capabilities
    <bullet>  Maritime-Assured Access
    <bullet>  Next-Generation SOF rotary wing
    <bullet>  SOF-Specific Space-Based capabilities
    <bullet>  Next-Generation Radar Capability
    <bullet>  Organic Precision Strike

                           APPENDIX A

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
